<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 1999</title>
<body><pre>[Senate Hearing 105-817]
[From the U.S. Government Printing Office]


                                               S. Hrg. 105-817, Pt. 1

 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4193/S. 2237

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 1999, AND FOR 
                             OTHER PURPOSES

                               __________

                         PART 1 (Pages 1-xxxx)

                       Department of Agriculture
                       Department of the Interior
                       General Accounting Office
                    National Endowment for the Arts
                 National Endowment for the Humanities
                       Nondepartmental witnesses
                Department of Health and Human Services
                          Department of Energy
                        Smithsonian Institution

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
46-102                      WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057987-2





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
CONRAD BURNS, Montana                ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            BYRON DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA BOXER, California
                           Professional Staff
                              Bruce Evans
                              Ginny James
                             Anne McInerney
                             Kevin Johnson


                            C O N T E N T S

                              ----------                              

                       Wednesday, March 26, 1998

                                                                   Page
National Endowment for the Arts..................................     1
National Endowment for the Humanities............................    27

                        Wednesday, April 1, 1998

Department of the Interior: Office of the Secretary..............    39

                        Tuesday, April 21, 1998

General Accounting Office........................................   231
Department of the Interior: Bureau of Indian Affairs.............   231

                        Thursday, April 23, 1998

Department of Agriculture: Forest Service........................   309
Nondepartmental witnesses........................................   443


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

                              ----------                              


                       WEDNESDAY, MARCH 26, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Cochran, Bennett, Gregg, and 
Bumpers.

                    NATIONAL ENDOWMENT FOR THE ARTS

STATEMENTS OF:
        HON. KATHRYN O'LEARY HIGGINS, ACTING CHAIRMAN; DEPUTY 
            SECRETARY, U.S. DEPARTMENT OF LABOR
        SCOTT SHANKLIN-PETERSON, SENIOR DEPUTY CHAIRMAN


                             budget request


    Senator Gorton. I would like to call this hearing on the 
National Endowment for the Arts and the National Endowment for 
the Humanities to order.
    Those of you who are repeat visitors at these hearings will 
note a slightly smaller attendance this year than last. Partly, 
that is due to the fact that there are competing Appropriations 
Committee hearings this morning, including one in which I am 
interested, that have drawn others. Partly, I believe it stems 
from the impression that the appropriation for the National 
Endowment for the Arts this year, at least, is somewhat less 
controversial than it was a year ago and maybe, I may say, due 
to the fact that we do not have a permanent head of that 
Endowment at this point.
    That may be modestly good news for the defenders of the 
National Endowment for the Arts, though it still is a 
controversial agency out of all proportion to the share of the 
budget that it occupies. I think that Jane Alexander and the 
people who worked with her did a great deal of very good work 
in meeting the objections of many thoughtful people to the way 
in which the Arts Endowment was being handled and have 
certainly dramatically reduced, together with instructions from 
the Congress, the number of grants that were objectionable to a 
large number of the American people.
    I regard that as a major step forward in the work that we 
do here, much of which has been left up to this subcommittee 
and the fault of any action on an authorization bill for the 
National Endowment for the Arts. So, I commend the Endowment 
for the intelligent way in which it has operated over the 
course of the last several years.
    I can say that it will be very difficult to provide any 
significant increase in the appropriation for either of the 
Endowments this year. Last year, an agreement on the budget was 
made with the President that froze discretionary spending 
essentially over a 5-year period. The President has found a way 
to wiggle out of that commitment, but he is not going meet 
agreement on the part of the Congress in that connection. The 
budget resolution that will be debated next week does, in fact, 
call for a freeze.
    I do not know yet what the precise allocation to this 
subcommittee will be after the budget resolution is passed, but 
we are operating on the assumption that it will be 
approximately the same number of dollars as last year.
    You can see, if your eyes are extraordinarily good 
[laughter] the chart there on my left, which indicates the 
general division of the amounts of money that are available to 
this subcommittee. The long green line on the left represents 
the various activities we fund in management of public lands: 
our parks, our forests, our Bureau of Land Management. The blue 
are the Indian activities that are funded through this 
subcommittee. The purple, science activities. The orange, the 
portions of the Department of Energy, mostly research, that 
this subcommittee deals with. The next to the last one on the 
right, the dark blue there, are the cultural activities, 
including things like the Smithsonian, for which we are almost 
solely responsible, and the Endowments.
    That is perhaps the best illustration I can give of the 
fact that the amounts of money that we are talking about are 
very disproportionate to the amount of interest that they 
create in the public as a whole.
    But we do want to give an opportunity today for a report on 
the stewardship of the Endowment in the last year and its plans 
for the coming year.


              prepared statement of senator barbara boxer


    We have received a statement from Senator Boxer which will 
be included in the record at this point.
    [The statement follows:]

              Prepared Statement of Senator Barbara Boxer

    I am very pleased that the President has requested $136 
million for the National Endowment for the Arts (NEA) for 
fiscal year 1999. This reflects an increase of 39 percent--
approximately $38 million--in the Endowment's current budget of 
$98 million. I strongly support this increased funding level.
    This increase would be used to support programs to target 
under-represented states, to support national leadership 
initiatives, and to support partnerships with state and 
regional arts organizations. They reflect the Endowment's 
efforts to continue to bring the arts to Americans in every 
state across the country.
    Federal funding for the NEA is an investment in the 
education of our children, the strength of our economy, the 
preservation of our nation's cultural legacy, and the quality 
of American life. The NEA makes the arts accessible to all 
Americans, not just to those who are in cities or who can 
afford it.
    The NEA is a great investment. For less than 38 cents per 
American each year--practically the price of a postage stamp--
the NEA helps bring culture, dance, music, and art to all 
Americans.
    For every $1 in grant awards, the NEA is able to leverage 
$12 by requiring arts organizations and artists to match NEA 
funds with funds from state and local agencies, foundations, 
corporations, and individuals.
    Public funding of arts is good for the economy. In San 
Diego, California, arts and culture spending generated $6.4 
million in taxes to the city and state, and contributed almost 
$68 million to the San Diego economy. A recent study conducted 
by McKinsey consultants for New York City concluded that more 
government money should be spent on the arts because it 
generates taxes, jobs and economic growth far in excess of the 
amounts invested.
    There are several projects in my state of California which 
I believe represent the importance and promise of the NEA.
    In Long Beach, NEA funding supports an initiative by the 
city's Public Corporation for the Arts to identify local 
traditional artists and to develop a series of folk arts 
presentations in the Long Beach area.
    A terrific example of public-private partnership launched 
with NEA funding is the California Cultural Tourism Coalition 
Initiative, an innovative program designed to promote San 
Diego, Los Angeles and San Francisco as cultural destinations 
through three-to-five day itineraries in each city. This NEA 
project is fostering exciting new collaborations among the 
cultural community, the tourism industry, and local hotels and 
restaurants.
    In Los Angeles, a group called Inner-City Arts is creating 
an arts education program for children in grades two through 
six in the public schools.
    In Pasadena, the Southwest Chamber Music Society is 
developing a mentorship program with a local high school. This 
project will provide coaching, private instruction, performance 
experience and career advice to talented young people.
    An Oakland Storybridge project is an inter-generational 
arts and literacy initiative where low-income older adults 
interact with at-risk children through a program of 
storytelling in the schools and community.
    NEA funding supports the Urban Renewal Laboratory Project 
in San Francisco, in which artists, architects, urban planners, 
computer programmers, and youth will collaborate to create a 
virtual model city online as well as an actual model city.
    As evidenced from this brief list from only one state, the 
NEA is enhancing the lives of all Americans, and I urge this 
committee to provide full funding to the NEA at the level 
requested by the President.

               summary statement of hon. kathryn higgins

    Ms. Higgins. I am Kitty Higgins. I am the current Acting 
Director of the Endowment. I am also the Deputy Secretary of 
the U.S. Department of Labor. I would like to give a few brief 
excerpts from my written statement, which I will submit for the 
record.
    Senator Gorton. We will include the entire written 
statement in the record. So, why do you not go right ahead.
    Ms. Higgins. Thank you, Mr. Chairman.
    As I had mentioned, I am the current Acting Chair. I have 
had this assignment for about 5 months, and it has really been 
an education and a pleasure to work with these folks in the 
Endowment and learn much more about the work that they do. I 
have come to have enormous respect, as I know you do, for a 
very small agency that has significant impacts by what they do. 
They have managed to do a lot more with a lot less, which I 
think is a credit to them.
    We are all eager for Bill Ivey to be confirmed, and I think 
you have had the chance to meet with him. He is very 
impressive, and we are hoping that a confirmation hearing will 
be set very soon.


                          new council members


    A few weeks ago, the National Council on the Arts met. As a 
result of changes last year, there are fewer members of the 
Council--eight fewer voting members. We have six new members 
who are colleagues of yours, three from the Senate, three from 
the House.
    We had a lively exchange with our new Council members and 
your colleagues. There were two significant messages that they 
delivered, one about the need to reach underserved 
communities--and we want to talk today about how we are going 
to do that--and also the priorities that they have--and I know 
this is reflected also in the rest of the Congress--for arts 
education. I think those are the two messages we heard loud and 
clear.


                      nea presence in north dakota


    I want to just give you my own sense of the role that the 
arts can play in a community like Grand Forks, ND, which as you 
recall, about a year ago at this time was really under siege. 
After the heavy snows of last winter, the Red River overflowed 
its banks. The city was literally drowning. And then the fires 
came.
    I was privileged to be able to join the President and 
members of the North Dakota and South Dakota congressional 
delegations, including Senator Dorgan from this committee, to 
visit there. When we flew over that town, it was just amazing. 
The whole town was literally flooded, but there were a few 
survivors, one of which is the North Dakota Museum of Art.
    We have for the record an article that appeared in the New 
York Times. CBS ``Sunday Morning News'' also did a piece on the 
role of this wonderful museum. I have had a chance to talk to 
the director. I think it is emblematic of the role that the 
arts play in communities like Grand Forks all around this 
country where they provide an anchor, if you will. After the 
floods--in fact they are still providing this service--the 
museum became essentially a community center. They are a 
gathering place now for the Bible Baptist Church, which holds 
Sunday services there. The North Dakota Ballet is now 
conducting rehearsals there. There are weekly meetings of 
various community groups because it was really one of the only 
places in the town that was spared from the flood. They hosted 
free concerts and potluck suppers last summer as a way to bring 
the community together and help them heal after the devastating 
floods.
    I think the director put it well when she said a museum is 
like a church in that it is the center for the community. The 
flood made people aware that cultural life and cultural 
institutions can offer comfort and solace in a crisis.
    The mayor of Grand Forks, Pat Owens, said, you need your 
businesses, houses, churches, and schools, but you also need 
something for the spirit and the mind that deals with culture. 
I believe that the arts are the heart of our community and that 
cultural life had become a way of life for our community. If 
you do not have culture, you really are missing something 
mentally and emotionally.
    As I mentioned, the North Dakota Museum of Art is an NEA 
grantee. The director of that museum is a wonderful advocate 
for the Endowment and talks about the difference that the small 
amount of NEA funding makes to the people of Grand Forks and 
the people of North Dakota in terms of the kinds of exhibits 
that can be brought there that would not otherwise be available 
to that community.
    [The information follows:]

            [From the New York Times, Sunday, Nov. 23, 1997]

         After Flooding, After Fire, Salvaging a Cultural Life

                          (By Ian Swanson) \1\
---------------------------------------------------------------------------

    \1\ Ian Swanson is a staff writer for the Grand Forks Herald and 
founder of the High Plains Reader, a newspaper covering arts in the 
region.
---------------------------------------------------------------------------
    It happened quickly. The snow and ice covering North Dakota 
from the last and worst blizzard of the year was still melting 
in April when sandbaggers in Grand Forks retreated and watched 
their city fall to the flooding Red River.
    Water spilled over the sandbags, overwhelmed temporary clay 
dikes and shot up through storm sewers. In minutes people were 
fleeing their homes as the river slowly rose and expanded over 
the flood plain, overtaking neighborhoods one by one. It was 
Friday, the 18th. The next day, the entire city of 50,000 was 
evacuated, some in motorboats. As others drove away, they could 
look in their rearview mirrors and see the smoke rising.
    One calamity, they discovered, had produced another: fire 
had erupted in the deserted downtown, apparently from short-
circuiting brought on by the flood. But with an icy river 
running waist-deep through the streets, firefighters were 
practically helpless. Fire hydrants--all underwater--failed. 
Airplanes had to be called in to smother the flames with a 
chemical liquid retardant, but not before the fire destroyed 
two of the oldest blocks in the city. Almost overnight, an 
America that had paid little if any attention to Grand Forks 
was now hearing a lot about it--about how it was both drowned 
and burned.
    Seven months later, with the help of millions of government 
dollars, the people of Grand Forks continue to rebuild the 
essentials of their ravaged city: homes, businesses, schools, 
churches. But in many quarters they are also asking a basic 
question that could be posed to any community waylaid by 
disaster and forced to rebuild almost from scratch: at what 
point should it properly turn its attention to reviving its 
cultural life? It's a question of priorities, and one that 
reaches back, really, over the millenniums. For it speaks 
directly to a fundamental and long-debated issue that any 
people must address: the importance, and place, of art in the 
life of a society.
    The issue has come up in Grand Forks in newspaper opinion 
pages and in coffee shops and taverns as people argue about how 
the city should set priorities in spending its limited 
resources. And while business and political leaders remain 
publicly supportive, cultural groups wonder where they will fit 
in.
    ``You need your businesses, houses, churches and schools,'' 
said Pat Owens, the Mayor of Grand Forks. ``But you also need 
something for the spirit and the mind that deals with culture. 
I believe the arts are the heart of our community, and that 
cultural life had become a way of life for the community. If 
you don't have culture, you're really missing something 
mentally and emotionally.''
    That may be, but homeowners still waiting for government 
flood relief checks and business owners concerned about a 
housing shortage and a tight labor market aren't always 
thinking about the health of their minds and spirits. When they 
are, they're more likely concerned with the public schools and 
the churches, which also need to be rebuilt.
    ``Shelter is the first priority,'' said Eliot Glassheim, a 
City Councilman from a mostly working-class district. ``You've 
got to eat, and you've got to have a place to live. We've got 
to make sure houses and businesses are taken care of because 
otherwise the tax base won't be there.'' He said the city could 
and should provide some financing for the arts, but in the long 
run, he maintained, it could best insure a healthy arts 
community by helping businesses and homeowners get back on 
their feet.
    Still, something important was lost in the flood and fire. 
As the state's second-largest city and a regional center for 
all of northeast North Dakota and northwest Minnesota, Grand 
Forks has also been something of a cultural capital, supported 
by the agricultural wealth of the Red River Valley, an area so 
fertile that wheat, sugar beets and potatoes thrive here 
despite the long and punishing winters of the northern Plains.
    The city has been home to the North Dakota Museum of Art, 
the state's only contemporary art museum; the Firehall Theater, 
a profitable community theater group; the North Dakota Ballet 
Company; the Greater Grand Forks Symphony; a city band, and a 
master chorale. It has also drawn cultural sustenance from the 
University of North Dakota, where 11,000 students can take 
advantage of Broadway groups, dance productions and a wide 
range of musicians who visit the campus, on the western edge of 
town, every year.
    ``Historically Grand Forks has one of the strongest 
humanities audiences on the Great Plains,'' said Bruce Gjovig, 
a member of the board of the museum.
    Indeed, in September of last year, the city was prepared to 
take a leap forward with the opening of the downtown Empire 
Arts Center, an auditorium, gallery and conference center for 
arts groups rising from the remains of the abandoned Empire 
Cinema, built in 1919. The arts center, along with a collection 
of new cafes, restaurants and bars, was being looked on as an 
emblem of rebirth for a downtown area that had lost much of its 
vitality to outlying areas and was now beginning to bustle 
again.
    The flood changed that picture. About four feet of water 
flooded the Empire's first floor, causing $150,000 in damage. 
The North Dakota Ballet Company's offices, studio and 
belongings disappeared in the fire, as did the quarters of two 
major employers, First National Bank and The Grand Forks 
Herald. The bank has since moved to an office building, while 
the newspaper now operates out of a converted department store.
    Firefighters stopped the fire 50 yards from the Firehall 
Theater, but they could do nothing about the Red River, which 
flooded the building and destroyed the theater's box office, 
stage and seating. Only the North Dakota Museum of Art was 
spared, miraculously escaping even basement flooding.
    But the museum hasn't eluded the consequences of the flood. 
Like every other arts institution in Grand Forks, the museum, 
which had operated on annual budgets of $600,000 to $1 million, 
faces a financial crisis. The people it had long depended on 
for support--large donors and small--have been putting their 
money elsewhere, in repairing their own homes, replacing 
furniture and clothing ruined by flood waters and helping 
others feed and shelter themselves. Now the museum is asking 
where it can find the precious dollars to keep art on the walls 
and electricity and heat in the building.
    Financing the arts certainly isn't the top priority today 
for Grand Forks citizens, most of them descendants of German 
and Scandinavian immigrants who settled here in the last 
century. As winter approaches, many continue to live in Federal 
Emergency Management Agency trailers on the outskirts of town. 
Some nervously await overworked contractors hired to install or 
repair boilers or furnaces in apartment buildings and houses. 
Owners of small businesses--if they're able to reopen at all--
worry about finding people to work for them in a job market 
suddenly depleted by the flood.
    People in the arts understand these concerns and 
priorities; dance and museum directors also own homes, after 
all, and their children attend the schools. And the arts groups 
are encouraged when business and political leaders say that 
cultural institutions won't be shortchanged in the rebuilding 
of the city. But the arts organizations aren't taking any 
chances. They're trying to prove their worth by collectively 
broadening the scope and relevance of their work--and hoping 
that that will bring new patrons and benefactors through their 
doors.
    In many ways they're taking a cue from a recent report by 
the National Endowment for the Arts, which described the art 
world as out of touch with the public. If artists want to 
receive funds from the public or private sector, the report 
suggested, they need to become more relevant to their 
communities. They need to combat the public's perception that 
art institutions are elitist and class-based.
    Today, forced almost to start fresh, that's exactly what 
many people involved in the arts here are trying to do.
    ``The first thing I thought was, Where am I going to find 
the money to keep the place going?'' said Laurel Reuter, the 
founder and director of the North Dakota Museum of Arts. ``Then 
I thought about programming and how we could be useful at this 
time.''
    Her answer was to open the museum's doors to those in need 
of a roof and a dry floor. The Bible Baptist Church, driven out 
of its chapel after water had reached the roof, held Sunday and 
Wednesday night services in the museum, setting up chairs right 
under works by contemporary artists like Kiki Smith, Duane 
Michaels and Jenny Holzer. Every two weeks during the summer 
the museum held potluck dinners and free concerts that drew 
hundreds of citizens. (Ms. Reuter said that as the summer 
progressed the potluckers, often arriving straight from days 
spent ``mucking out'' their basements and rebuilding their 
homes, grew cleaner and cleaner.)
    On Thursday nights, the North Dakota Ballet Company, forced 
out of its studios when its building burned down, has been 
conducting classes and rehearsals at the museum. And community 
groups as disparate as the Firehall Theater and the Center for 
Violence and Intervention used the museum for weekly meetings.
    ``A museum is like a church, in that it is a center for the 
community,'' Ms. Reuter said. ``In all my history I'd never 
thrown a potluck for anything. But instinctively I knew it was 
the right thing to do. As every one of these events grew in 
size, it amazed me how much people liked them.'' The flood, she 
said, ``made people aware that cultural life and cultural 
institutions can offer comfort, solace and a center.''
    And the flood forced her to change her thinking, as well, 
she said. She, too, now shares the worry that the art world has 
become estranged from a general public that views it as elitist 
and class-based.
    ``I think what we're doing absolutely counters that 
problem, and without the flood I might not have learned that,'' 
Ms. Reuter said. ``We show art that is difficult--contemporary 
art--and we work hard to make it accessible. The flood has 
given us a wonderful opportunity to address our public through 
contemporary art in a way that hits at the guts of the people. 
It's not esoteric. It's not intellectual. It's real.''
    And while eating hot dishes and singing hymns, a public 
that had little interest in art has begun to appreciate the 
paintings and sculptures that express ideas about alienation 
and identity.
    ``I think people became comfortable when they began to 
realize how much they understood about the works without a 
formal art education,'' Ms. Reuter said. ``The comfort goes up 
and the strangeness goes away as people begin to peel back the 
layers of meaning. People were surprised at how much the works 
related to their own lives.''
    Other cultural institutions have changed their programs and 
cut ticket prices to make themselves more accessible to the 
public.
    The Greater Grand Forks Symphony cut its ticket prices by 
$10, to $15, for its annual Oktoberfest concert. And to appeal 
to a wider audience it took an almost down-home approach in its 
advertisements, showing the symphony's director, Timm Rolek, in 
black tie and lederhosen and holding a German stein. But that 
doesn't mean the symphony has gone pop or is dumbing down. The 
Oktoberfest concert's program was entirely classical, with the 
Metropolitan Opera tenor Dennis Petersen as the guest vocalist 
performing the Prize Song from Wagner's ``Meistersinger'' and, 
appropriately, ``Their Land Brought Forth Frogs,'' from 
Handel's ``Israel in Egypt.''
    On the other hand, the Firehall Theater decided to present 
only musicals and comedies in its first postflood season, 
staging them in the theater even while it undergoes renovations 
(for seating, patio chairs have had to be dragged in from 
outside). The executive director, Steve Saari, said the theater 
was giving the audience what it wanted: a break from flood 
recovery.
    ``We want to keep trying to challenge our audience,'' Mr. 
Saari said. ``But this season we thought it was better to do 
comedies and musicals and give our audience a chance to 
laugh.''
    The theater is lucky to be open at all. After initially 
applying for a small-business loan, it received contributions 
from theater companies across the county as well as grants from 
the North Dakota Council on the Arts and the Minneapolis-based 
Otto Bremer Foundation, which donated $2.8 million to flooded 
communities throughout the Red River Valley. The theater was 
then able to turn down the loan and still rebuild, using its 
own staff instead of contractors. Mr. Saari himself hauled out 
loads of water-logged sheetrock.
    John Kostishack, the Bremer foundation's executive 
director, said he believed that some of the organizations 
Bremer had financed wouldn't survive their flood problems. But 
the arts groups in Grand Forks are more optimistic. While the 
North Dakota Ballet Company continues to meet, rehearse and 
hold classes at the Museum of Art, it has received several 
grants from regional foundations to replace costumes, equipment 
and other materials lost in the fire.
    ``I have been encouraged by the phone calls we've received 
from people who say we need this on such an important level,'' 
said the ballet company's director, Mary Ellen Weir. Saving the 
ballet, she said, has been ``important for the overall health 
of the community as an escape from the rest of their 
problems.''
    ``I always felt we'd be back,'' she said.
    The Empire Arts Center hasn't set a date for its grand 
reopening, but Sheryl Smith, executive director of the North 
Valley Arts Council, a regional group in charge of the center's 
construction, is hoping for a spring debut. That chance 
increased with the announcement of $350,000 in grants from the 
Bush and Knight foundations.
    Like other groups, the arts council has turned to private 
foundations for support instead of local businesses and 
individuals, who in a normal year provide 60 percent of the 
council's budget. Besides providing workshops, meeting places 
and marketing efforts for arts groups across the northern Red 
River Valley, the arts council will dole out more than $60,000 
in grants itself. In overseeing the creation of the Empire 
center, a $1.5 million project, the arts council has tied 
itself even more closely to the future of Grand Forks. And its 
decision to choose the familiar old movie theater as the site 
for the center only underscores this bond with the city.
    ``One of the reasons we selected the Empire is that there 
are very few people around our community who haven't ever been 
there,'' Ms. Smith said. ``It's an unassuming place where 
people can feel comfortable--even if there is an art gallery 
inside.''
    A half-year after the flood, the Empire still looks 
unhealthy. Its crumbling brick facade, heavily damaged by flood 
water, makes one doubt the dogged determination of its marquee, 
which promises ``We are coming back.'' But across the street 
there are signs of rebirth. A favorite pub, destroyed by the 
fire, reopened in November. Every night it fills with college 
students and professors and lawyers still practicing near the 
downtown courthouse. Conversations revolve around memories of 
the old Grand Forks, and ideas about creating a new one.

               proposed use of requested budget increase

    Ms. Higgins. As you know, the arts help communities all 
across this country. An estimated $37 billion of national 
economic activity is generated through the arts, and about $3.4 
billion in Federal income taxes each year. There are about 1.3 
million Americans employed in nonprofit arts activities and 
this is all as a result of a small agency budget of $98 
million.
    The President has asked for a modest increase of $38 
million. Those additional funds will go for the ArtsREACH 
Program which will serve underserved States, again a priority I 
think for this committee and for others in the Congress. There 
are about 20 States that are targeted for ArtsREACH. I would 
just point out to the committee that there are a number of 
members on this committee whose States would be served by an 
expansion of ArtsREACH. I think we are reaching 11 additional 
States that are represented by this committee, States that are 
underserved.

                          artsreach initiative

    There would be additional funding for the State arts 
councils and also additional funding for arts education.
    We have taken seriously the reforms that were put in place 
last year. As I mentioned, ArtsREACH is one of those reforms. 
We are trying also to reach out to communities by working with 
the country's mayors. I think you were the recipient of an 
award that the mayors presented in tribute to the work that you 
have done on behalf of the arts, along with Congresswoman 
Louise Slaughter.

                      importance of arts education

    On arts education, we had a wonderful presentation recently 
at the Council by Leonard Slatkin, who talked about what a 
difference the arts made when he was growing up. He went to a 
public high school in Los Angeles, and he said when he was in 
high school, there were three choruses, two bands, one 
orchestra, and a composer in residence. He said today the 
school is an armed camp. He said for two generations children 
have had no exposure to the arts in school.
    We have a small Arts Education Program, $13.7 million last 
year. As I mentioned, the President's budget would provide some 
more funding there.
    We are also trying to think about arts education in ways 
that go beyond just funding for the Endowment. The Council on 
Juvenile Justice, led by Attorney General Reno, is looking at 
the arts as a way to deal with youth crime.
    In the Department of Labor, for example, we are working on 
a memorandum of understanding [MOU] with the Endowment. There 
are now 30 MOU's, if you will, with other Federal agencies, as 
ways to partner and expand the reach of the arts through other 
Federal programs. We do a lot of work at the Labor Department 
with disadvantaged young people, and we are looking to do more 
in the area of the arts.

                         administrative budget

    Management, I know, has been a big concern of the Congress. 
I have been impressed, frankly, with how much the Endowment 
does with a very small staff. As I mentioned, my day job is 
managing the Labor Department. We have 17,000 employees and a 
$35 billion budget. NEA has less than 160 employees and a $98 
million budget, but last year they awarded 1,100 grants and 
they manage, on an annual basis, about 4,200 grants. The Labor 
Department is primarily an enforcement agency, but we also are 
a grantmaking agency. We managed to deliver 1,300 grants. So, 
you can see there is a significant difference in scale.

                       b-2 bomber grant proposal

    I also was impressed by the proposal, which I am sure you 
are aware of, that a number of your constituents from 
Washington State submitted to the Endowment. They actually 
proposed a grant for $98 million. [Laughter.]
    Their idea was to essentially create a model of part of the 
B-2 that they could then take around the country. I think it is 
humorous and obviously we were not able to fund it. [Laughter.]
    But I think it does point up and put in perspective the 
small amount of money that goes into the arts when you think 
that they could not even with that pay for all of the B-2. They 
are not quite sure how much it would pay for. But one B-2 
bomber, the estimates show, costs anywhere from $1.5 billion to 
$2.2 billion. So, our little bit of $98 million--and we would 
hope we could get some increase this year--does not even pay 
for probably one-half or one-quarter of a B-2 bomber.

                           prepared statement

    We are hopeful that the Congress will see fit to increase 
our funding. We take heart in the fact that we are less 
controversial this year. I think the NEA has come through, with 
your support and the support of your colleagues, a tough year. 
I think we have made some significant reforms. We are looking 
forward to working with you to continue to implement those 
reforms and to expand the reach of the Endowment in ways that 
will benefit all of our citizens.
    Thank you.
    [The statement follows:]
           Prepared Statement of Hon. Kathryn O'Leary Higgins
    Thank you Mr. Chairman, and Members of the Interior Appropriations 
Subcommittee. When the President asked me to serve as the Acting Chair 
of the National Endowment for the Arts last fall, I was deeply honored. 
I am equally honored to appear before you today. I've had a delightful 
experience the last 5 months serving as Acting Chair of the Endowment. 
It's been a pleasure to work with Scott and her dedicated team.
    They have carried out the administration's commitment to make 
government work better and cost less. The 40 percent cut in funding and 
89-person cut in staff (in fiscal year 1996) have tested the patience 
and fortitude of the NEA team. I think they've passed with flying 
colors and with their sense of humor in tact.
    As much as I've loved this assignment, I know we are all eager for 
the Senate to confirm Bill Ivey as the new Chair. I know he has met 
with you Mr. Chairman and with Senators Bennett and Stevens, and I 
think you'll agree that he will be a great leader of the Endowment.
    One of my assignments as Acting Chair of the Endowment is to help 
convene meetings of the National Council. The Council met just two 
weeks ago and, as a result of changes in last year's appropriations 
bill, there are 8 (or 30 percent) fewer voting members than before; in 
September of this year, that number will go down by 4 more (an 
additional 15 percent reduction). The result of this downsizing already 
is that not all of the creative disciplines are represented. We are 
missing expertise in some key areas like design, dance and literature. 
This is of great concern to the council and I hope we can work with you 
Mr. Chairman to take another look at the size of the voting membership 
of the council.
    At this Council meeting, we welcomed six new members--three of your 
colleagues from here in the Senate (Senators Durbin, Sessions and 
Collins) and three Tom the ``other body'' (Representatives Nita Lowey, 
Cass Ballenger and John Doolittle).
    Four of our new members were able to personally participate in the 
Council's meetings and, as you might guess, the exchanges were lively 
and thought provoking. Two messages were offered by the new members:
  --(1) The Endowment should do more to make funds available to 
        undeserved communities; and,
  --(2) Arts education should be a higher priority and given more 
        prominence in the Endowment's agenda.
    Both messages were well received by the Council. Today Scott and I 
will address the actions the Endowment is taking to deal with these 
concerns.
    But first, I want to share with you a story that particularly 
touched me and I believe reveals the essential and invaluable role that 
the arts can play in bringing communities together and helping them to 
heal when tragedy strikes.
    Just one year ago, Grand Forks, North Dakota was under siege. When 
spring came to North Dakota last year, after one of the worst winters 
in memory, the Red River overflowed its banks, broke through the man-
made dikes and levies, and inundated this modest community of 52,000.
    The city was literally drowning and its citizens had to be 
evacuated--and then the fires came. Who can forget the tragic scenes of 
those fires raging out of control, destroying several blocks of the 
business district as the volunteers fought desperately but in vain to 
save their downtown.
    I visited Grand Forks last April with President Clinton and the 
Congressional delegation, and the scenes of a flooded city and burned 
out buildings are indelibly etched.
    But all was not lost. There were a few miracles. The North Dakota 
Museum of Art and all the art it holds survived. Even the basement was 
dry. And because it was one of the few community facilities to come 
through the floods and fires unscathed, the museum quickly became a 
gathering place for displaced city residents.
    Members of the Bible Baptist Church gathered at the museum twice a 
week for services. The North Dakota ballet used the museum for 
rehearsals and the Center for Violence and Intervention conducted 
weekly meetings there. And last summer the museum hosted potluck 
suppers and free concerts for the citizens of Grand Forks who came 
every week, weary from digging their homes out from the muck and mire.
    Ms. Laurel Reuter, the museum's director, put it this way: ``A 
museum is like a church, in that it is the center for the community * * 
*. [t]he flood made people aware that cultural life and cultural 
institutions can offer comfort, solace and a center.''
    Or as the indomitable Mayor of Grand Forks, Pat Owens, said ``You 
need your businesses, houses, churches and schools. But you also need 
something for the spirit and the mind that deals with culture. I 
believe the arts are the heart of our community, and that cultural life 
had become a way of life for the community. If you don't have culture, 
you're really missing something mentally and emotionally.''
    The North Dakota Museum of Art is an NEA grantee. And the Council 
just provided additional funding to help the museum plan and manage an 
endowment campaign. This will secure the museum's place and prominence 
at the center and heart of the Grand Forks community I would ask that 
the New York Times November 23, 1997 account be entered for the record.
                        comparative perspective
    The Endowment helps communities like Grand Forks all across the 
country. The Endowment generates an estimated $37 billion in national 
economic activity and returns about $3.4 billion in federal income 
taxes each year. More than 1.3 million Americans are employed in the 
nonprofit arts industry. And all of this was accomplished, in this past 
year, with a budget of $98 million--or at a cost of about one postage 
stamp per taxpayer.
    The President's budget request is $136 million for the NEA, a $38 
million increase. By comparison, in constant dollars, this is less than 
half what the NEA's budget was 20 years ago. So, as you can tell, the 
President's fiscal year 1999 budget request is extraordinarily lean.
    The additional $38 million requested for fiscal year 1999 will fund 
the important $20 million ArtsReach program that Scott will discuss in 
greater detail; provide $14 million to States Arts Councils; and, 
provide $4 million to arts education.
                              key concerns
    As I mentioned, the two issues discussed actively at the Council 
meeting were: the reach or distribution of the NEA grants--in other 
words, how do we help communities, specifically the undeserved; and, 
the importance of arts education.
    Let me touch on each.
Reaching out to all communities--getting to the undeserved
    The NEA recognizes that too many states aren't participating as 
fully as we'd like, but we are determined to correct that problem. As 
Congressman Ballenger put it at the Council meeting, he is convinced 
there is now a very strong effort on the part of the NEA to go, as he 
said, ``into the boondocks.''
    The ArtsReach program, which Scott will address, would specifically 
target undeserved states, increasing the likelihood that we can reach 
all 50 states--if we get the money to carry it out.
    We also seek representation from all the states on the panels that 
review grants; in addition, we've established a multi-state funding 
category and this year 334 applications in this category were approved 
by the Council; we're also asking grantees to let us know exactly where 
projects occur--and with new software, tracking this by zip code.
    We also have enlisted the help of our nation's mayors. Recently I 
attended the awards dinner sponsored by the U.S. Conference of Mayors 
and Americans for the Arts: Over 650 people attended including 300 
mayors and it was truly a celebration of the importance of federal 
support for the arts and the NEA. Awards were presented to you Senator 
Gorton, and Congresswoman Louise Slaughter, from New York, in 
recognition of your and her outstanding support of the Endowment. Your 
comments, along with those of the mayors who participated in the 
evening, were a strong endorsement of the importance of the arts to 
communities across America.
    The NEA, through the Mayors Institute on City Design, is helping 
local governments do comprehensive planning and revitalize their 
communities--Scott will tell you in more detail about Rock Hill, South 
Carolina's Mayor Betty Jo Rhea's wonderful experience. When we broaden 
how we think of ``art,'' we recognize that the creative talents the 
arts engender, are talents that are invaluable in every element of 
society, in every endeavor.
Arts education
    I wholeheartedly agree with several of your distinguished 
colleagues who pointed out to the full Council, that arts education is 
critically important.
    I'm reminded of what our second President John Adams wrote to his 
wife Abigail in 1780: ``I must study politics and war that my sons may 
have liberty to study mathematics and philosophy. My sons ought to 
study mathematics and philosophy, geography, natural history, naval 
architecture, navigation, commerce and agriculture, in order to give 
their children a right to study painting, poetry, music, architecture, 
statuary, tapestry, and porcelain.''
    When Maestro Leonard Slatkin recently spoke to the Council about 
the importance of arts education, he noted that: ``we're close to two 
generations of the public who have seen cutbacks in programs in 
schools, public schools in particular.'' He told us how, when he was a 
student in a public high school in Los Angeles, there were three 
choruses, two bands, and one orchestra, and a composer in residence--in 
a public high school. He said, ``today the school is an armed camp.''
    The NEA does have an effective, albeit small, arts education 
program, just $13.7 million last year. Of the additional monies in our 
fiscal year 1999 request, an additional $4 million would go to expand 
arts education.
    The NEA helps educate youth through traveling programs in schools, 
and through after school training programs, and community exhibits. The 
NEA achieves this through a wide variety of partnerships, including 30 
agreements with other federal departments.
    I recently represented the NEA at the Coordinating Council on 
Juvenile Justice, chaired by Attorney General Reno. Along with 
Secretary Shalala, General McCaffrey and others, we discussed how arts 
activities are a tremendously positive alternative for youth, helping 
them avoid danger in the streets and the influence of drugs and crime.
    At the Department of Labor, we now recognize the Arts can help us 
do more to assist Americans, especially youth, in developing the skills 
needed to succeed in the workplace. Arts programs help improve self 
esteem, teach how to be more assertive in a positive way, improve 
communication skills, and develop discipline while involved in 
projects--all skills employers value!
    In Poughkeepsie, New York, for example, the Job Training 
Partnership Act and the New York State Council for the Arts, contribute 
to Project ABLE (Arts for Basic Education, Life Skills, and 
Entrepreneurship). Under the guidance of a carpenter, a retail design 
specialist and artists, city youth have renovated a gift shop, an arts 
gallery and a warehouse and have undertaken public arts projects. The 
teens gain specific job skills, learn how to resolve conflict, work in 
teams and exercise decision making abilities.
    The Department of Labor is developing a Memorandum of understanding 
with the Endowment--to learn from and expand on programs like Project 
ABLE.
    The benefit of arts education in promoting creative thinking, is 
well as recognized. Harvard and many other business schools are 
actually teaching creativity--and large companies sponsor conferences, 
training and guest speakers that highlight thinking ``outside the 
box.''
Strategic management
    All this work is being done by the NEA, as I pointed out earlier, 
with fewer people, and with less money than since the late 1970's.
    I am impressed by the streamlined, cost effective and public way in 
which the NEA manages--responding to what I would call both the 
leadership and challenge of many in Congress.
    In addition, the new strategic and performance plan process known 
as GPRA, has helped the NEA to focus its efforts on tangible results.
    It's been fascinating for me to contrast the NEA with my day job, 
as Deputy Secretary of Labor. The Labor Department has about 17,000 
employees and a budget of almost $35 billion. The NEA on the other hand 
has just 150 employees and its budget last year was $98 million. In 
grant activity last year, the NEA awarded 1 101 grants and continued to 
manage another 4,200 or so. The Labor Department awarded approximately 
1,300 grants last year. The NEA is a small, but very effective 
organization.
    To continue to be effective, I urge the you to forward an 
appropriations bill for the NEA. CBO, according to a January 1997 
report, is not aware of any case in which appropriations have not been 
provided solely because a program or agency's authorization has 
expired.
Closing
    In his State of the Union address, the President asked how we would 
mark our passage into the new Millennium.
    At the NEA, we want to mark this passage with a more open, well 
managed and enlightened effort to honor the past achievements of our 
nation's creative and artistic talents--through museum exhibits, 
traveling shows, and gala performances--so as to educate a generation 
about all aspects of its culture.
    And we shall also imagine the future, supporting new artists in all 
fields, and thinking about art in a new way--a way that encourages a 
generation to help shape its culture, as well as helps Mayors design 
revitalized communities, and businesses compete better in the global 
economy with creative talent.
    I think the best way to reach undeserved areas, to promote arts 
education, to enable all Americans to experience the richness of our 
culture, is to continue to have an active dialogue with those we serve, 
and to provide forums and opportunities for them to engage in that 
dialogue, and in the programs and activities that share, celebrate, and 
create anew this great culture.
    The role of the NEA is not to steer that dialogue or those shared 
experiences, but to continue to ensure they exist for as many Americans 
as possible.
    Thank you for giving me the opportunity to speak with you today. 
I'd like to introduce Scott Shanklin-Peterson, Senior Deputy Chairman 
of the National Endowment and its chief operating officer.
                                ------                                


             Biographical Sketch of Kathryn O'Leary Higgins

    Kathryn O'Leary Higgins was sworn in as Deputy Secretary of 
Labor on July 2, 1997. Currently the second in command under 
Labor Secretary Alexis M. Herman, Ms. Higgins oversees policy 
development and the day-to-day operations of the 16,000 
employee Department.
    Ms. Higgins brings nearly three decades of experience and 
leadership to the job of Deputy Secretary. In her current role, 
she manages the Department's 16 agencies helping to assure that 
working Americans are paid a just wage, can depend on a secure 
retirement, have a safe, healthy and fair workplace, and are 
prepared for the highly-competitive global economy.
    Joining the Clinton Administration immediately after the 
1992 election, Ms. Higgins served as the Chief of Staff to 
President Clinton's first Labor Secretary, Robert Reich. In 
February 1995, she moved to the White House to serve as an 
Assistant to the President and the Secretary to the Cabinet. 
Ms. Higgins held this position until her July 1997 confirmation 
as Deputy Secretary of Labor.
    Kitty Higgins began her career in public service in the 
summer of 1968 as an intern at the Labor Department. After 
graduation from the University of Nebraska in 1969, she 
returned to the Department and worked as a Manpower Specialist 
until 1978. She then served on President Carter's Domestic 
Policy Council as an Assistant Director for Employment Policy 
from 1978 to 1981.
    In January 1981, Ms. Higgins joined Senator Edward 
Kennedy's staff as a Senior Legislative Associate for the 
Senate Committee on Labor and Human Resources, and rose to 
become the Democratic Staff Director, serving the Senator in 
that capacity from September 1982 to January 1986. Ms. Higgins 
then moved to the House of Representatives, becoming Chief of 
Staff/Administrative Assistant to Representative Sander Levin 
of Michigan, until joining the Clinton Administration.
    In addition to her appointment as Deputy Secretary of 
Labor, Ms. Higgins agreed in November 1997 to serve as the 
Acting Chair of the National Endowment for the Arts until the 
President's nominee for that position, William J. Ivey, is 
confirmed.
    Ms. Higgins is from Yankton, South Dakota, and attended 
Mount Marty College in South Dakota from 1965-67 before earning 
her B.S. in social science and education from the University of 
Nebraska in 1969. She was married for 16 years to William J. 
Higgins until his death in 1987, and has two sons: Liam, 23, 
and Kevan, 19.

              summary statement of scott shanklin-peterson

    Senator Gorton. Ms. Shanklin-Peterson?
    Ms. Shanklin-Peterson. Thank you, Mr. Chairman. I 
appreciate the opportunity to testify before you and also 
appreciate the wonderful leadership which Kitty has provided to 
our agency during this interim period.
    Before joining Jane Alexander's staff in 1994, I was 
executive director of the South Carolina Arts Commission for 13 
years and on the staff for 8 years prior to that. So, I have 
brought to this position 21 years of experience of working with 
State and local leaders to develop the arts in South Carolina 
and also to promote arts education in our schools. So, I know 
firsthand how important the support of the Endowment is across 
the country.
    I am honored today to be here to represent the President's 
request of $136 million. This $38 million increase will enable 
the Congress and our agency to help preserve the cultural 
heritage of America's communities. It will help us expand our 
ArtsREACH Program. It will help us to enhance the learning 
opportunities in the arts in our schools and help provide 
access to the arts in communities across the country through 
our partnerships with the State arts agencies.
    I wanted to take this opportunity to bring you up to date 
on several actions that we have taken to address three 
important areas. One is the broadening of the distribution of 
our grants. The second is the multistate projects that we are 
funding, and third is arts education. I also want to assure you 
that the Endowment is working to implement all of the important 
directives which were included in the 1998 appropriations bill 
and continuing the administrative reforms which our Chairman, 
Jane Alexander, implemented.
    We are very concerned--and I know Members of Congress are 
concerned--about the inequitable geographic distribution of our 
funds. We have taken a number of steps to broaden the 
distribution.

                          artsreach initiative

    The first is that we recently announced the ArtsREACH 
Program which is a very promising new initiative and we are 
beginning a pilot this year with 1998 funding. The ArtsREACH 
Program is a new grants program for underserved States and it 
will be accompanied by targeted technical assistance to those 
same States from our staff. It was approved by the National 
Council on the Arts at its last meeting 3 weeks ago, and the 
new congressional members of the Council were very, very 
enthusiastic about it.
    We want to broaden the geographic distribution of our 
funds. ArtsREACH will also help strengthen the role of the arts 
in communities and increase support for the arts.
    We have designated 20 States which we consider to be 
underrepresented States. These are States that received five or 
fewer grants either this year or last year. We have put 
together an arts endowment technical assistance team. Our staff 
will go out to these 20 States and conduct grants workshops, 
talk about ArtsREACH, talk about the opportunities that are 
available through the Arts Endowment and work with the State 
and local arts agencies in doing this.
    Some 2 weeks ago we had staff in Tennessee, and last week 
in Delaware, South Dakota, and North Dakota. This week one of 
our staff members is touring the State of Alabama with one of 
Senator Sessions' staff members and conducting workshops 
throughout Alabama.
    ArtsREACH is also a grants program, and we will be 
providing small grants to arts organizations and communities in 
these targeted States for planning and for technical services. 
We hope to provide around 75 to 100 grants through ArtsREACH 
this year, and we hope that through ArtsREACH and the planning 
process that is involved with it we will make these areas more 
competitive not only for Arts Endowment funding, but also for 
funding from their State arts agencies, from their local 
communities, and from the private sector.
    Americans for the Arts indicates, through some of the 
research they have done, that local arts agencies that have 
cultural plans developed for their community are able to raise 
over 33 percent more in resources than communities that do not. 
This is what we hope to accomplish through ArtsREACH.
    One example is in my home State in Rock Hill, SC, which is 
a small city. It is about 10 miles south of Charlotte, NC. In 
the late 1980's, they had 17 percent unemployment because they 
had 12 textile mills that closed. The mayor, Betty Jo Rhea, 
brought the community together and they developed a plan to use 
the arts and design to revitalize their downtown and the 
economy of Rock Hill.
    In 1991, based on the strong plan that they developed, the 
Arts Endowment awarded a $150,000 grant to help them implement 
some of the projects that they had designed. They matched that 
with over $600,000 in support from the local government and 
also from the private sector. Now today they have outdoor 
sculpture throughout the community. They have a new arts 
center. They have artist studios on Main Street. They have an 
annual arts festival and performing arts series. They also have 
two booming industrial parks, and they have an unemployment 
rate of 2.2 percent.
    So, Rock Hill has really become a community where people 
want to live, where they enjoy living, a community where 
industry wants to locate, and the former, Mayor Betty Jo Rhea, 
really credits the Arts Endowment with being the catalyst for 
this change in their community. That is the kind of initiative 
that we want to see happen through ArtsREACH and through the 
communities that we are working with.
    We are proposing to allocate $20 million of the increase to 
ArtsREACH, and this would help us expand the number of 
communities that we are able to reach next year. It would also 
help us to be able to provide grants for the specific projects 
that are developed this year through the ArtsREACH planning 
process and also help us to provide grants through our regular 
direct grants program to organizations in these States. We 
believe a result of our staff working directly with the States 
and with the communities will assist them to develop 
competitive projects.
    We have taken a number of other actions. We are recruiting 
very actively panelists from all of the underserved States. We 
are making sure that the panel appointments that we make are 
monitored on a State-by-State basis. We have added geographic 
impact to our grant review criteria, and we are working with 
the State arts agencies. This year we developed a new folk arts 
initiative and we are providing grants to over 30 States for 
folk arts projects.
    In addition, our Millennium projects will be designed to 
serve all 50 States.

                           multistate grants

    We are also making sure of the grants that we do award, no 
more than 15 percent of them are to any one State.
    I also wanted to comment on our multistate grants. Congress 
has asked us to establish a category of multistate grants that 
serve more than one State or grants which have a national 
impact. This is one of the very important roles that the Arts 
Endowment can play. This year we will be providing 
approximately 300 multistate grants to support activities in 
more than one State, and these grants help support artists who 
tour to other States, and also help support broadcast 
opportunities.
    One such example is the National Dance Project which was 
awarded to the New England Foundation in Boston. It is a $1 
million grant that appears to have gone to Boston but actually 
supported 117 dance performances in 32 States last year.

                             arts education

    Arts education, as you know, is one of our priorities. We 
have a new brochure which you have in front of you that 
explains the Arts Endowment's programs in arts education and 
our position with arts education.
    You also have a copy of Principal magazine which we would 
like to enter into the record.
    Senator Gorton. We will enter into the record that 
magazine, and I assume you want the New York Times article 
about Grand Forks and any of the other publications you would 
like to be in the record will be included.
    Ms. Shanklin-Peterson. Thank you very much.
    [Clerk's note.--Due to its volume the above mentioned 
magazine, Principal, is being retained in subcommittee files.]

                           prepared statement

    Senator Gorton. We have a partnership with 140 different 
organizations to promote arts education, and the Elementary and 
Secondary Principals Organization is one of those 
organizations. They have published this magazine that is 
totally devoted to arts education this year as result of this 
work.
    So, we appreciate your support and hope that you will be 
able to support the President's recommended increase.
    [The statement follows:]

             Prepared Statement of Scott Shanklin-Peterson

    Thank you Mr. Chairman, and Members of the Interior 
Subcommittee. I appreciate the opportunity to testify today 
about the importance of the National Endowment for the Arts.
    As the Senior Deputy Chairman, I am the Endowment's chief 
operating officer in the absence of a Senate-confirmed 
Chairman. As you know, our distinguished former Chairman Jane 
Alexander retired last October, and President Clinton has since 
nominated William J. Ivey of Tennessee to take her place. Mr. 
Ivey is the long-time Director of the Country Music Foundation 
in Nashville. His appointment is currently pending before the 
Senate, and we hope to have him on board very soon.
    In the interim, a Federal law known as the Vacancy Act 
requires the White House to appoint an Acting Chairman, and 
that distinguished person is the current Deputy Secretary of 
Labor, Kathryn (Kitty) O'Leary Higgins. She is with us here 
today.
    Before joining Jane Alexander's staff in 1996, I served as 
the Executive Director of the South Carolina Arts Commission 
for thirteen years, and was on the staff for eight years prior 
to assuming the director's position. So I bring to the 
Endowment 21 years of working experience with state and 
community leaders, educators, artists, and arts organizations, 
in a primarily rural state, working to develop the state's 
cultural resources and helping to ensure that the arts are a 
basic part of each child's education in South Carolina.
    I am honored to be here today to support the President's 
request of $136 million for the National Endowment for the Arts 
in fiscal year 1999. This proposed funding increase will enable 
the agency to move forward with three distinct initiatives: (1) 
address serious concerns raised by Congress about the 
geographic distribution of direct NEA grants, (2) strengthen 
the Endowment's leadership efforts on behalf of arts education 
and preserving our cultural heritage, and (3) help ensure broad 
access to the arts, strengthen arts education programs and 
celebrate our living cultural heritage through increased grants 
to the states and regions. In the first instance, we are 
requesting $20 million in new funds to support a major 
expansion of the pilot program ArtsREACH, which will assure 
much greater NEA support in the form of direct grants to 
communities that have received limited funding in past years. I 
will discuss this in more detail in a moment.
    It is a fact that the geographic impact of direct NEA 
grants has declined considerably in recent years because of 
both reductions in our budget, and the increased amounts 
allocated to the states. In fiscal 1998 for example, direct 
funding available for arts organizations declined by more than 
ten percent--from $54.2 million to $48.6 million. Even though 
the overall agency budget declined by only $1 .5 million an 
additional $4.1 million of the remaining amount was allocated 
to the states, thus increasing their share from $28.3 million 
to $32.4 million. The inevitable result of these cuts and 
reallocations is that fewer and fewer organizations in all of 
the states receive direct grants each year.
    The increased competition for funding has caused many fine 
organizations to stop applying, and this is a very serious 
problem. There are excellent cultural resources in every state 
which we should be supporting, but when they don't apply, we 
can not assist them.
    Mr. Chairman in an effort to remedy this problem, we have 
created ArtsREACH. This year under ArtsREACH, we are providing 
small grants to arts organizations and communities in targeted 
states for planning and technical services. Arts Endowment 
staff are traveling to each of these states to conduct grant 
workshops, offer technical assistance, and provide other 
advice. We are working closely with our state and local arts 
counterparts. The overall program objective is to increase 
direct NEA funding in under-represented communities. Grants 
will be used to help local leaders develop plans to use the 
arts to preserve their local heritage, strengthen their arts 
education programs, revitalize their communities, and expand 
support for arts organizations. You may be interested to know 
that this week one of our staff people, accompanied by state 
and local officials, as well as a staff member from the office 
of Senator Jeff Sessions, conducted a series of ArtsREACH 
training sessions in four Alabama cities.
    Next year, the President's budget request would accommodate 
a major expansion of ArtsREACH communities, and would reserve 
new grant funds for specific project applications submitted by 
those communities. Again, we are asking for $20 million dollars 
in new funding to support projects in the targeted ArtsREACH 
states.
    ArtsREACH was recently approved by the National Council on 
the Arts at their meeting a few weeks ago, and I am pleased to 
report that the new Congressional members of the Council gave 
their wholehearted approval to the program.
    Mr. Chairman, the President's budget would also support the 
opportunity for Americans of all ages to enjoy educational 
experiences in the arts. This year, over 150 projects supported 
directly by the Arts Endowment are enabling children in grades 
K-12 to experience orchestral music, dance, theater, and other 
performances. Through our partnerships with the state arts 
agencies, we are helping to ensure that the arts become a basic 
part of each child's education through curriculum development, 
arts education research and teacher training. In addition, our 
partnerships with the states support artist residencies and 
artist-teacher collaborations in the schools of 2,400 separate 
communities. Those initiatives are an essential piece of the 
educational process, and they should be expanded.
    Mr. Chairman, as you know, the 1998 appropriation bill 
contained a number of important structural changes in the way 
the Endowment does business. Today I want to assure you that we 
are working very hard to implement these changes.
    First, regarding the issue of grant distribution, and the 
directive to give greater priority to under-represented areas: 
as the legislation requires, we are limiting awards to 
organizations in any one state to 15 percent of the total 
amount available, with the understanding that grants with 
multi-state impact are accounted for separately and are exempt 
from the limitation. As the legislation requires, we will 
provide a complete report to Congress on these distributions at 
the close of the fiscal year.
    In addition to our ArtsREACH program initiative, the 
Endowment is taking a number of other actions to assure broader 
distribution of grants. Merit review panelists are being 
actively recruited from under-represented states, and panel 
appointments are being monitored on a state-by-state basis to 
ensure all states are represented during the year. We have 
added ``geographic impact'' to. our grant review criteria. We 
created a new Folk Arts Infrastructure Initiative which will 
provide fiscal year 1998 grants in more than 30 states, and our 
fiscal year 1998 Millennium projects will be designed to serve 
all 50 states.
    One of the unique national roles of the Arts Endowment is 
to encourage the sharing of artistic resources across state 
lines through our multi-state grants. In 1998, we will award in 
excess of 300 multi-state grants totaling approximately $17 
million to arts institutions of all sizes located in most of 
the states. These multi-state grants support national 
broadcasts, dance and theater touring, and many other projects 
bringing benefits to Americans all over the country. For 
example, the National Dance Project, a $1 million Leadership 
Initiative awarded to the New England Foundation for the Arts 
based in Boston, Massachusetts, supported 117 dance 
performances in 32 states last year. We are currently 
developing a database that will enable us to do a better job of 
tracking these multi-state grants, and to keep you better 
apprised of the work we are supporting in your states.
    Second, regarding the National Council on the Arts: the 
reconstituted Council, complete with Members of Congress, met 
in late February, and I am happy to report that all six 
Congressional Members--Representatives Nita M. Lowey, John T. 
Doolittle, and Cass Ballenger; and Senators Richard J. Durbin, 
Susan M. Collins and Jeff Sessions--have now been appointed. 
Four of the members participated in the meeting. We appreciate 
having their advice and counsel, and we hope that their 
involvement in the agency's operations will lead to the 
development of constructive relationships between the agency 
and Congress.
    Third, within the administrative area of the agency: the 
appropriations legislation directed the Endowment to develop a 
proposed restructuring of the administrative budget. We have 
identified certain activities which directly support our 
interaction with the arts field and programmatic activities as 
``Program Support.'' These include the costs of conducting 
review panels, National Council on the Arts meetings, 
application guidelines, programmatic research and accessibility 
activity.
    We are mindful of the concerns expressed by some in 
Congress about the Endowment's expenditures on salaries and 
expenses, and we have attempted to illustrate more clearly in 
the budget the activities conducted by the agency. As an 
independent Federal entity, the National Endowment for the Arts 
is subject to all of the operating procedures and regulations 
imposed on executive branch agencies to ensure the proper use, 
control and accountability of taxpayer dollars. The agency must 
retain sufficient professional staff to comply with the laws.
    Fourth, regarding the directive that the agency give 
priority to arts education and enrichment: the agency agrees 
that the investment in arts education and educational 
enrichment projects is a priority, and is requesting additional 
funds for that purpose. This year, we are spending $9.3 million 
through our Education and Access grant category. In addition, 
we will allocate nearly $2.5 million to the state arts 
agencies, over and above the 40 percent set-aside, to help make 
the arts basic in pre-K to 12 education. They match our funds 
with approximately $28 million. A recent survey shows that 
together we supported 7,800 projects, in more than 2,400 
communities, involving thousands of teachers and artists.
    Finally, the appropriations legislation gave the Endowment 
authority to ``solicit and invest'' funds. I am pleased to 
report that the agency has established a separate interest 
bearing account within the U.S. Treasury and continues to 
receive private sector funds for projects jointly sponsored by 
the Endowment and other organizations. In addition, agency 
staff are examining funding augmentation strategies, and 
evaluating the staff resources that would be required for 
putting such strategies in place.
    I wish to note for the record that the agency continues to 
hear expressions of concern from representatives of arts 
organizations about the prospect of the agency competing with 
their own fund-raising and development efforts. Arts 
organizations pay for their projects from a variety of funding 
sources, and they view the Endowment in its historical context 
as a source of assistance, rather than as a competitor. This 
continues to be a sensitive issue in the nonprofit arts funding 
field.
    In their entirety, the structural changes enacted in the 
fiscal 1998 appropriations legislation were quite substantial. 
When added to the changes imposed both administratively and by 
Congress throughout the 1995-1996 period, you can see that the 
NEA is a very different organization from just a few years ago.
    Mr. Chairman as you know, the National Endowment for the 
Arts was created by Congress to ensure that our national 
government would support the nation's culture in all its 
richness, in concert with the private sector, the states and 
communities across the land; investing in creativity and 
imagination; leading in arts research, arts education, 
convening and networking; and catalyzing private investment.
    I urge you to make the Federal government a stronger 
partner in this endeavor. With your help we will reach the 
under-represented communities, providing access to the arts for 
all citizens and encouraging creativity and artistic 
inspiration among the nation's youth; and we will take the lead 
in helping communities protect the nation's living cultural 
heritage for the benefit of future generations. This has been 
America's century after all, and we as a nation should take 
time to reflect upon our achievements in the arts, and 
celebrate America's cultural legacy at the turn of the 
millennium.
    Mr. Chairman and members of the Subcommittee, I hope I can 
count on your support. Again, I am pleased to have this 
opportunity to speak with you.
                                ------                                


             Biographical Sketch of Scott Shanklin-Peterson

    Scott Shanklin-Peterson has been named as the Senior Deputy 
Chairman of the National Endowment for the Arts and is 
currently in charge of day-to-day operations at the Endowment. 
She will act as Senior Deputy Chairman until a replacement for 
former Chairman Jane Alexander is nominated by the President 
and confirmed by the Senate. Ms. Shanklin-Peterson previously 
served as the National Endowment for the Arts Deputy Chairman 
for Grants and Partnership and was responsible for the agency's 
grants to organizations, artist fellowships, leadership 
initiatives, and partnership activities with state arts 
agencies, regional arts organizations, and other federal 
agencies. In addition, she worked closely with former Chairman 
Jane Alexander on the reorganization of the agency following 
Congressional budget cuts in 1996 and on the creation and 
implementation of the American Canvas Initiative throughout the 
past three years.
    Prior to her tenure at the Endowment, Ms. Shanklin-Peterson 
served as Executive Director of the South Carolina Arts 
Commission for 13 years where she planned, developed, and 
directed all program and administrative functions of the state 
arts agency. Under her leadership, the South Carolina Arts 
Commission received national recognition for their leadership 
in arts education, rural arts development, and media arts. She 
has also been the chairman of the Board of Directors of the 
Southern Arts Federation, and on the boards of the National 
Assembly of State Arts Agencies and the American Council for 
the Arts.
    Ms. Shanklin-Peterson received her B.A. degree in Visual 
Arts from Columbia College and is a graduate of Harvard 
University's Institute of Arts Administration. She is married 
to Terry Peterson and has a son who is a professional musician 
in Los Angeles and a daughter who attends the College of 
Charleston.

                      national council on the arts

    Senator Gorton. I assume that you told those imaginative 
constituents of mine that regrettably the 15-percent rule 
disqualifies them? [Laughter.]
    Ms. Higgins. But we applaud their ingenuity.
    Senator Gorton. I wonder if each of you could tell me a 
little bit more about how the dynamics of the National Council 
has changed with both the reduction in the number of its 
members and with the six Members from the House and the Senate 
it now includes. Did all six of them attend that first meeting?
    Ms. Higgins. Actually four were able to attend for part of 
the first meeting. Senator Durbin and Senator Sessions were 
there. Senator Collins, unfortunately, was not. Congresswoman 
Nita Lowey and Congressman Cass Ballenger also participated.
    Frankly one of the concerns--I appreciate your question--
that was raised by some of the current members of the Council 
was a problem that they saw in the reduction of size.
    First of all, I think that the addition of the 
congressional members is going to promote a very healthy dialog 
on both sides. I think it is fair to say the members learned 
some things in terms of how the Endowment operates that they 
were not aware of before. They had some very good 
recommendations about how we could make Congress more aware and 
members in particular more aware of what was going on in their 
districts, and I think we want to work more closely with you on 
that.
    One of the concerns that was raised about the reduction in 
size was that some of the disciplines that the Endowment has to 
deal with are now not represented on the Council. For example, 
dance, literature, and design are not currently represented. 
The Council is made up of people with a broad range of 
expertise, but they now see some holes in the Council 
membership. So, we were hoping that maybe we could take another 
look at expanding the Council a little bit to try and address 
some of that.
    Senator Gorton. My suggestion would be that that would be 
more likely to be found acceptable if the congressional members 
of the Council were to advocate it.
    Ms. Higgins. I think they were hearing that as well, but we 
should talk further about that.
    But again, I think the dialog was very constructive. There 
was a little nervousness on both sides to begin with, but as we 
have talked about it, I think there is a great benefit for 
demystifying, if you will, the work of the Endowment, since in 
fact, it has a very open process in the way that grants are 
selected. They have panels made up of people from all around 
the country who really go through a very thorough process. I 
think that was new to the Members of Congress. I think they 
appreciated that.

                     fifteen percent cap for states

    Senator Gorton. Now, the 15-percent rule from the point of 
view of reducing grants in a given area impacted only New York?
    Ms. Shanklin-Peterson. New York had the largest percentage, 
of course, because so many of the grants that are awarded to 
New York are multistate grants that really serve many other 
States as well. So, when you are figuring that percentage that 
is taken into account. Of course, we are not yet at the end of 
our year for awarding grants.
    Senator Gorton. But you did not have any other States that 
were over 15 percent before that?
    Ms. Shanklin-Peterson. Before that? California might have 
been, but I do not think so.
    Senator Gorton. Now, what kind of impact will that have on 
New York and on New York arts agencies?
    Ms. Shanklin-Peterson. Well, when we get to the end of the 
year, we can answer the question a bit better, but as I was 
saying, many of the grants that are awarded to New York are 
multistate grants. So, those are automatically subtracted from 
the cap for New York. They are not counted in the 15 percent.
    Senator Gorton. You are going to have to be very careful 
with that in my view. How much even your people in South 
Carolina are going to be impressed by a grant that goes to New 
York, some of which ultimately finds itself to South Carolina, 
is in my view an open question. That was not an argument that 
impressed members when we were debating this whole issue last 
year.

                          artsreach initiative

    My own impression is that the way you have expanded your 
outreach and you are dealing especially with these 20 States 
that had fewer than 5 grants is something that can do nothing 
other than to strengthen support for the Endowment. But I 
believe you will get an awful lot more credit for one grant 
that goes directly to an entity in the State than one where 
even an equal number of dollars sort of trickle down from a New 
York or a California grantee to someplace in one of these 
smaller States.
    Ms. Higgins. As Tip O'Neill would say, all politics is 
local.
    I think it might be useful, Senator, to include in the 
record this chart which shows the States that are targeted for 
outreach.
    Senator Gorton. I think it would be very important to 
include that in the record and it will be so inserted.
    Ms. Higgins. It shows over the last 2 years those States 
who are essentially underfunded and where the concentration is 
going to be in terms of this new initiative.
    [The information follows:]

  Target States Eligible to Apply for ArtsREACH Grants in Fiscal Year 
                                  1998

    Montana, Idaho, Nevada, Utah, Wyoming, North Dakota, South 
Dakota, Nebraska, Iowa, Kansas, Oklahoma, Arkansas, Tennessee, 
Mississippi, Alabama, Indiana, West Virginia, South Carolina, 
Delaware, and Rhode Island.

                           underserved states

    Senator Gorton. Now, a combination of that rule and of this 
new emphasis obviously has shifted I think the kind as well as 
the direction of your grants. Give me a brief summary of that. 
There is only so much money, and as you have pointed out, it is 
a relatively limited amount of money. If there is more outreach 
to these underserved States, is there also a change in 
direction as to the kind of grants there are, the elements 
within the arts at which they are aimed, and if so, who are 
losers in this process?
    Ms. Higgins. Scott will know this better than I, but my 
impression is that one of the objectives of ArtsREACH, probably 
the principal objective, is to get more organizations to apply. 
I think what we see in the States that are targeted for 
ArtsREACH is in fact a smaller number of organizations 
applying. So, the effort to go out and provide technical 
assistance and to meet with local groups is really to say to 
them, the funding has been cut but in fact there is money still 
available and that we really need to encourage you to apply.
    Senator Gorton. Make more work for yourselves.
    Ms. Higgins. One of the things that frankly I have been 
impressed by--we are talking about very small grants. I was 
looking, for example, at the grants that were just recently 
awarded in your State. We are talking about a variety of 
organizations, everything from native American folk projects to 
money going to Spokane for musical presentations there. But we 
are talking about very small grants in many cases. It is really 
money that is sort of a catalyst.
    So, you are right. The pie is much smaller but I think 
there is an effort----
    Senator Gorton. To be an imprimatur of being able to say 
NEA has helped us.
    Ms. Higgins. Well, it gives them a national recognition 
which it is my sense is very valued by these communities and 
these local projects. So, there is still a wide diversity of 
programs being funded.
    This ArtsREACH initiative is a pilot. I think we are trying 
some things this first year to see if we can stimulate some 
more activity and more interest.
    Ms. Shanklin-Peterson. One of the major problems we faced 
is, with the 40-percent reduction in our funding, many of the 
organizations that had been applying to the Arts Endowment 
primarily from the more rural States thought they would not be 
competitive.
    Senator Gorton. And so they just did not apply.
    Ms. Shanklin-Peterson. And so they did not apply, and so we 
really need to generate applications from----
    Senator Gorton. So, in a sense, you would rather have more 
grantees even though it means somewhat smaller amounts.

                            amount of grants

    Ms. Shanklin-Peterson. This year we will be making more 
grants. They are smaller grants, but we will be making more 
grants to more organizations. And that is a very strategic 
move.
    Senator Gorton. Because the amounts going to the State 
agencies has increased, has it not?
    Ms. Shanklin-Peterson. It also has increased. That is 
right.

                          state arts agencies

    Senator Gorton. Do you have any idea when the money goes to 
these State agencies, how they use it? Has that increase in 
support for the State agencies had a positive result?
    Ms. Shanklin-Peterson. I think it has had a very positive 
result in that the States themselves are now allocating 12 
percent more in appropriations this year to support the arts, 
and we are working very closely with the State arts agencies in 
their planning and their reporting procedures. Also, we do know 
how their funds are spent in each of the States.
    Senator Gorton. Do many of the State agencies communicate 
with you with respect to applications from their own States? Is 
there any coordination between what you do, say, in Iowa and 
what the Iowa entity does?
    Ms. Shanklin-Peterson. That is one of the things that we 
are looking at with ArtsREACH because we will be working with 
the State arts agencies when we visit those States. So, they 
will be hearing what it is that their constituents might be 
applying to the Endowment for at the same time that our staff 
is working with them as well.

                  fiscal year 1999 funding priorities

    Senator Gorton. As I said in my opening remarks, as much as 
you would like it and as much as some members of this committee 
might like it, the kind of increases in the President's budget 
just simply are not going to be possible.
    If you got, say, a $4, $5, or $6 million increase, what 
would your highest priorities be?
    Ms. Shanklin-Peterson. Our first priority would be 
ArtsREACH because we are stepping out there this year hoping 
that we will be generating more applications from these areas, 
and we want to be able to have the resources to support them. 
So, I think it is very necessary that we have additional funds 
to do that.

                    office of enterprise development

    Senator Gorton. I have here a note about the Enterprise 
Office. We have not seen anything with respect to that to find 
other methods of support. What is happening there?
    Ms. Shanklin-Peterson. As you know, Jane Alexander had 
developed the Enterprise Office, and we do have one staff 
person that is working there. Our legislation this year gave us 
the authority to solicit and invest private funds, but we only 
have one staff person there. We are looking at opportunities. 
We have been looking at some of the things that the other 
agencies do, particularly the Smithsonian, which I think raises 
around $50 million a year, but they have 35 people in a 
development office, plus they have other development staff in 
each of the museums. So, it takes a lot of resources to raise 
those additional funds.
    Senator Gorton. Are you getting resistance from the arts 
community on the ground that if NEA went out to raise money, it 
would come out of the same pocket that would otherwise give 
money directly to----
    Ms. Shanklin-Peterson. They are very concerned about that 
and we are very concerned about that because what we need is 
for the net amount that is available to increase. We do not 
need to be taking money away from them. So, whatever we do in 
this area, we need to do together. This is something that 
hopefully----
    Senator Gorton. I think you do. You do not really believe 
that support for the arts in the United States as a whole is 
inflexible, do you, and if one group gets a dollar, another 
group is going to lose a dollar?
    Ms. Shanklin-Peterson. Hopefully together we will be able 
to increase the net amount that is available for the arts.
    Ms. Higgins. Senator, if I could comment as well. I think 
this is a priority for the administration. We have had some 
preliminary discussions on the best way to approach this. I 
know there are members of the Council who are very interested 
in helping to think this through. Bill Ivey has had 
conversations with the White House on this. I think this is one 
of those issues that is going to be a high priority for him as 
the new Chairman when he is confirmed. There is, as you have 
recognized, a sensitivity among some of the current grantees 
and those out there who rely on the NEA that--because our 
grants are so small, they do rely on many other sources of 
funding.
    But I think it is encouraging. Again, we are seeing 
increased support for the arts at the State level and we may 
want to make that part of the record as well. So, I agree with 
you. This is not a zero sum game and the question is how we can 
really create the kinds of partnerships that are going to 
expand the participation at all levels for the arts.
    Senator Gorton. What about Jane Alexander's comment last 
year with respect to the commercial entertainment industry and 
whether or not there was money available there? Has anything 
been done to followup on that suggestion?
    Ms. Shanklin-Peterson. I think this is one of the areas 
that Bill Ivey will be interested in reviewing. This is an area 
that he has experience working with, coming from the Country 
Music Foundation. So, I think it is best to wait and see what 
suggestions he has in that particular area.

                     house appropriations hearings

    Senator Gorton. Now, you have had a hearing with the House 
subcommittee, which obviously has been more troubling to you in 
the past than this subcommittee has. Can you share with us--
were you optimistic in comparison to last year with the 
reception you received there?
    Ms. Higgins. It was my first hearing for the Endowment. It 
was very, very cordial. Obviously, it was Sid Yates's last 
hearing, so it was a bit nostalgic.
    I think Congressman Regula was very supportive. I think 
there is still a question as to whether they are going to 
actually be able to report out an appropriation. He was a bit 
noncommittal on that.
    We had some very good questions from Congressman Miller 
from Florida who was concerned about what was going on in his 
district.
    Again, I think the participation of members on the 
Council--Congressman Ballenger in particular had some very 
constructive suggestions--will be a positive benefit as members 
look at the value of continuing this investment. So, I was 
encouraged, yes.
    Senator Gorton. Were you there?
    Ms. Shanklin-Peterson. Yes; I was there as well and I was 
encouraged as well. I think in general the House committee has 
been supportive of the Arts Endowment, but of course, they face 
concerns from the leadership of the House about the National 
Endowment for the Arts. Whether they will be able to report out 
funding for us, I think, is a question at this point.
    Senator Gorton. Well, as you know, last year in the midst 
of that controversy, I individually polled every member of this 
subcommittee on the subject and found not a single member on 
either side who wanted to zero out the agency. I have not done 
that this year. I have not really seen the need to do it. The 
membership of the subcommittee is the same, and I rather 
suspect that the attitudes will be the same.
    We would be helped greatly, however, if the House came over 
with something other than a zero. [Laughter.]
    Ms. Shanklin-Peterson. We would be too.
    Senator Gorton. With that, we are joined now by Senator 
Cochran who has certainly been an eloquent supporter of the 
Endowment, and I will ask him if he has either a statement or a 
question for any of you. I am just about finished.

                    remarks of senator thad cochran

    Senator Cochran. Well, thank you, Mr. Chairman. I simply 
want to encourage the administrators of the program to continue 
to be helpful to those of us who try to ensure that there are 
funds available for appropriate activities of the National 
Endowment for the Arts, to be aware of the role that the State 
and local agencies can play in this, and to keep an open line 
of communication with those who know the local interests well 
before making grants and selecting recipients for awards and 
the like by the Endowment.
    My experience is that in our State we have had some 
outstanding leadership, very thoughtful leadership in the arts. 
We are very proud of that and we would like to continue to see 
the right kind of attitude reflected toward government support 
for the arts.
    Having said that, there is no easy answer to some of the 
problems and dilemmas of the past. We regret so much the 
controversies that have swirled around the Endowment in the 
last several years, but we think that we are back on track now. 
With your continued sensitivity to the problems and how to deal 
with them, we will be able to see that there is appropriate 
support where it is needed.
    We appreciate your attention to education programs too in 
our State that involve arts education. I know that is not a 
principal responsibility of the Endowment, but nonetheless, 
there are some opportunities where you can enhance learning and 
enrich lives of students through appropriate program support 
and that is very important too. I think the former Chairman did 
an excellent job--Jane Alexander--in identifying some of those 
activities and by her presence in our State, she was able to 
illustrate how exciting learning can be through arts 
appreciation.
    Mr. Chairman, thank you very much for your thoughtful 
leadership in this area, and I look forward to working with you 
and trying to come up with the right level of funding and 
language, if needed, in our bill. Thank you.

                          artsreach initiative

    Ms. Higgins. Senator, if we could just comment. We were 
talking before about the two priorities for the request for 
increased funding are both ArtsREACH, which is an effort to do 
more in States where we have not had as many grants funded. I 
would point out that both Mississippi and Arkansas are two 
States where we are going to have a special emphasis as part of 
this initiative.
    Senator Gorton. Well, very good. You just anticipated my 
next question. [Laughter.]
    Ms. Higgins. And also arts education. Those are the two 
principal focuses of the request for increased funding.
    Senator Cochran. Thank you.
    Senator Gorton. We are joined by Senator Bumpers on, 
regrettably, his last round on these areas, and I would love to 
hear from him.

                    remarks of senator dale bumpers

    Senator Bumpers. Not so regrettable to me. [Laughter.]
    Ms. Higgins, let me just echo what Senator Cochran said 
about Jane Alexander. She was a superb person for this job and 
she did, in my opinion, an excellent job in the face of a lot 
of hostility from certain quarters in the Congress about the 
National Endowment for the Arts. Based on what I know about 
you, I am sure you will do an excellent job.
    I really came by this morning, Mr. Chairman, not to delay 
the hearing any but to show my strong support for both the 
humanities and the arts. I am a great believer. There are very 
few nations who spend such a minuscule portion of their budget 
on arts and humanities.
    In my first trip to the Soviet Union in 1971, I was 
absolutely amazed by the extent of the government's involvement 
in the arts. Of course, everything there was state funded, but 
it was amazing how much of their budget they did put into the 
arts, the restoration of their historical places and so on. 
That is really the first brush I had with government being 
involved in that kind of thing.
    It is really a tragic thing that one person named 
Mapplethorpe caused as much trouble for the Nation as he did 
and for the programs that I really hold dear. I am a former 
bandsman, glee club member, star in the senior-class play, all 
those things. [Laughter.]
    Senator Cochran and Senator Gorton have heard this speech 
many times, but it is always worth repeating. When I was 
Governor and went to the prisons, to visit with the inmates, I 
never found anybody down there with a college education, nobody 
that was a homeowner, nobody that played in the high school 
band, and nobody that ever had any brush with drama. I am just 
telling you that was a personal experience. Everybody does not 
have that experience, but to me that spoke volumes. That is 
really all I need to know about the value of those particular 
things, education, the arts, and so on.
    So, I would be willing to take some of the $10 billion 
surplus--like one-half of it--and put it into the arts and 
humanities. [Laughter.]
    Ms. Shanklin-Peterson. Thank you.
    Senator Gorton. You are very popular with this crowd today, 
Senator Bumpers.
    Well, I thank you both for being here. I join with you in 
hoping that the authorizing committee will act promptly on Bill 
Ivey's nomination and that we will have someone in charge.
    As I told you at the beginning, we face the same 
difficulties with the total amount of money the subcommittee 
will have this year that we have had in the past. But we do 
appreciate the NEA's prompt response to the concerns which 
Congress showed in that bill last year. I think the value of 
having Members of Congress on the Council is going to be 
immeasurable from the point of view of the support that you get 
here.
    With that, I thank both of you. We will dismiss you and we 
will call the humanities people up.
                 NATIONAL ENDOWMENT FOR THE HUMANITIES

STATEMENT OF WILLIAM R. FERRIS, CHAIRMAN, NATIONAL 
            ENDOWMENT FOR THE HUMANITIES
    Senator Gorton. We are now with the National Endowment for 
the Humanities that has a newly appointed Chairman, Bill 
Ferris, whom I met yesterday and who told me of his long 
association with you, Senator Cochran. I wonder if you would 
like to say a few remarks in introducing him to us.
    Senator Cochran. That is very kind of you, Mr. Chairman.
    I am delighted to welcome my good friend, Bill Ferris, to 
his first hearing as Chairman of the National Endowment for the 
Humanities. It is a happy moment for all of us in Mississippi 
to contemplate his elevation to this position of responsibility 
and nationwide trust for guiding a very important activity, 
important to everyone in America. He has some great ideas. We 
have heard some of them and I am sure he will talk about them 
in more detail this morning.
    But he is so well qualified and such a good choice for this 
important job at this moment, and we are delighted that he is 
here and wish him every possible success and every degree of 
satisfaction that is possible in carrying out the duties as 
Chairman of the National Endowment for the Humanities. We are 
all honored by his acceptance of this position.
    Senator Gorton. He has more money and less controversy than 
his immediate predecessors here at this hearing, but still some 
very serious challenges facing him.
    So the first time around, Mr. Chairman, we would like to 
hear from you.

                 summary statement of william r. ferris

    Mr. Ferris. Thank you, Senator Gorton. Thank you, Senator 
Cochran.
    Mr. Chairman and distinguished members of the subcommittee, 
I am honored to come before you today as the new Chairman of 
the National Endowment for the Humanities. I am very excited 
because I feel this is a time of great opportunity for the 
humanities, and we have much to offer at the Endowment.
    Our lessons that we draw from literature, from history, 
philosophy, archaeology, and folklore have much to teach us 
about the world and about our place in it. We cannot help but 
be inspired by ``Baseball,'' by ``The Civil War,'' by ``The 
West,'' topics that every American loves, and these are but 
three of the great stories that the NEH has shared with the 
Nation through the magic of filmmaker Ken Burns and through the 
generosity of Congress. These films will be played over and 
over again in American classrooms and will continue to have 
unlimited educational value. As we enjoy these films and learn 
from them, it is important to remember that they are the 
results of years of scholarship and of preservation, all of 
which is supported by NEH.
    As we move toward the millennium, NEH hopes to reconnect 
the humanities with the life of every American through their 
family history, their stories, their regional worlds. We want 
to bring the humanities back home. This is what I have done for 
over 30 years as a folklorist and this is what I will continue 
to do as Chairman of the NEH.
    As Director of the Center for the Study of Southern Culture 
at the University of Mississippi, I learned firsthand the 
importance of preserving the stories of a region so that her 
people do not forget their roots, and I also know the 
overwhelming interest that people throughout the country have 
in learning about their own regions.
    As part of our rediscovering America initiative, we plan to 
create 10 vital humanities centers that will be located in each 
region of the Nation, providing a direct link between NEH and 
every American. These centers will support teaching, research, 
and public programs in their region. Some $5 million of our 
total budget of $136 million will be used to create these 
centers. These dollars will prime the pump for what I envision 
as a strong public/private partnership.
    I have seen how this can work. The Center for the Study of 
Southern Culture, which began 21 years ago, would not have 
happened without NEH support. With your support, you can ensure 
that the same story will be told in every region of our 
country.
    This ``Encyclopedia of Southern Culture'' is a concrete 
example of how we helped preserve the culture of one region. 
After seeing over 100,000 copies sold, I cannot begin to 
express the importance this book has in the hearts of 
southerners and of all Americans.
    Through this initiative, NEH will seek proposals from our 
Nation's strong cultural institutions, museums, colleges, 
universities, and libraries, that will become clearinghouses 
for projects like encyclopedias, public programs for children 
and the elderly, and cultural tourism opportunities.
    There are other important initiatives described in our 
budget that I would like to highlight. NEH will continue to 
focus on education and technology. This last fall NEH, along 
with MCI and the Council of Great City Schools, established 
EDSITEment, a new website that identifies the 22 best 
educational websites in literature, history, and other 
humanities subjects. As you can see, you can quickly click on 
an individual website and teachers and students can immediately 
access the very best resources along with teaching guides and 
curriculum resources that the Endowment has now made possible. 
This is a project that will continue to grow in the coming 
years and benefit teachers and students throughout the Nation. 
Teachers are thirsty for this information and this site serves 
over 20,000 users each month.
    Another project of our Teaching With Technology Program 
supports software projects on topics that range from the Civil 
War to the Supreme Court to Ancient Greece and Rome that are 
being used extensively in the classrooms and CD-ROM's like this 
one on the ``Valley of the Shadow,'' which are accessible both 
in CD form and on the website, introduce students to the Civil 
War in a way that was never before possible.
    Because teachers need to be trained in how to handle this 
technology, our schools for a new millennium will help K 
through 12 teachers use CD-ROM's and the Internet in their 
classes, as well as videos like this wonderful new video on 
``Liberty'' that focuses on the American Revolution and the 
roots of our experience as Americans.

                           prepared statement

    All of these projects are based on the scholarship that NEH 
has supported for the last three decades. This is great work 
and with your support we can continue to do it.
    I am honored to be a part of this process and to be before 
you today, and I want you to know that I look forward to 
working personally and closely with you and all of your 
colleagues.
    Thank you, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Hon. William R. Ferris

    Mr. Chairman and Committee Members: I am deeply honored to 
appear before this distinguished Committee as the Chairman of 
the National Endowment for the Humanities. I can assure you 
that I share this Committee's abiding interest in the 
Endowment's important mission, and I look forward to working 
with you over the coming months and years to add to NEH's 
remarkable record of achievement and service to the American 
people.
    I come before you today to testify on behalf of the 
Endowment's fiscal year 1999 budget request. We at the 
Endowment are, of course, greatly pleased that President 
Clinton has demonstrated his continuing commitment to the 
agency by requesting an appropriation of $136 million for NEH 
for the coming fiscal year. Although this is an amount that 
would increase our funding substantially over the current 
year's budget of $110.7 million, it is a sum that would still 
be significantly lower than the $172 million appropriated for 
fiscal year 1995. Before turning to a discussion of specific 
aspects of our budget request, however, I would like briefly to 
discuss with you some of my plans and visions for the 
Endowment.
    Throughout my entire professional career as a teacher, 
scholar, and administrator, I have been a strong supporter of 
NEH, an institution that I am convinced makes immense 
contributions to the educational and cultural life of our 
nation. To a certain extent, my career also illustrates the 
important role the Endowment plays in nurturing scholarship, 
education, preservation, and public programming in the 
humanities across the country. Please allow me a moment to 
explain.
    Over the years, I have applied to virtually every NEH grant 
division, and I have been fortunate to win grants from a number 
of them. As a young scholar and teacher fresh from my doctoral 
studies in folklore at the University of Pennsylvania and as a 
professor, first at Jackson State College in Mississippi, then 
at Yale University, and finally at the University of 
Mississippi, grants from NEH helped me focus and deepen my 
teaching and research interests in the culture and folkways of 
the American South. Later, along with my colleagues at the 
University of Mississippi, I was successful in winning funding 
from the Endowment to help establish the Center for the Study 
of Southern Culture and then to use the Center to administer a 
broad range of humanities programs concerned with the history 
and culture of the South. With NEH funding, the Center was able 
to establish an undergraduate degree program in Southern 
Studies, to research and publish the Encyclopedia of Southern 
Culture, to conduct seminars for teachers on the literature of 
William Faulkner, to renovate an ante-bellum observatory on the 
Ole Miss campus to use as the Center's main facility, and to 
sponsor humanities programs for general audiences. Moreover, 
because NEH's peer review system of assessing the quality of 
grant applications is nationally recognized and respected, the 
Endowment's grants also acted as a ``seal of approval'' that 
helped us to attract additional money from corporations, 
foundations, and other funders.
    Over my career, I have also had the pleasure of working 
with several of the state humanities councils--which, as you 
know, work in tandem with NEH to bring the humanities to all 
Americans. I have a deep appreciation of the important cultural 
and educational role the state councils play, and I look 
forward to continuing my close association with them during my 
chairmanship.
    The Center for the Study of Southern Culture is a dream 
that has been realized, and it could not have been realized 
without the support of NEH. Make no mistake: The Endowment was 
absolutely crucial in helping an institution from a 
predominantly rural state such as Mississippi build enduring 
world-class humanities programs that reach a broad spectrum of 
citizens--students, scholars, and the public alike. This is a 
story that I intend to tell repeatedly during my tenure as 
Chairman, and it is an outcome I will try to replicate 
elsewhere in the nation as much as possible.
    Now, as the Chairman of NEH, I would like to draw on my 
nearly two decades of experience as director of a center 
concerned with the study of the South to assist colleagues at 
other institutions throughout the nation in developing 
comprehensive humanities programs focused on the culture and 
heritage of their regions. I have found that people everywhere 
define themselves, at least in part, through the places where 
they are born, where they grow up, and where they live. It is 
this relationship--which the writer Eudora Welty calls ``sense 
of place''--that shapes each of us in deep and lasting ways. As 
President Clinton also reminded the nation recently in his 
State of the Union address: ``Our culture lives in every 
community, and every community has places of historic value 
that tell our stories as Americans.''
    The Endowment will help the people of the United States 
learn more about the special heritage of where they live and to 
reaffirm their common bonds as Americans by setting in motion a 
new, broad-based initiative--called Rediscovering America 
Through the Humanities. As we discussed in our budget 
submission, this initiative will employ a variety of formats 
and will involve all programming areas of NEH. Its primary 
component, for which we are requesting $5 million in start-up 
funds in fiscal year 1999, is a special grant competition for 
projects to establish regional humanities centers around the 
country. Each of these centers will be encouraged to support a 
wide array of activities--education, research, programs for 
public audiences, preservation--that bring the disciplines of 
the humanities to bear in exploring the region's distinctive 
culture. In developing their programs and resources, centers 
will also be expected to place special emphasis on technology 
to assure maximum access and impact. We hope that each center 
that is established will ultimately serve as a kind of 
``cultural hub'' for its region; in this way, the center will 
help to broaden citizens' awareness of, access to, and 
participation in the humanities--overarching goals that I 
particularly wish to pursue during my tenure as NEH Chairman.
    In framing this initiative, I have sought the advice of 
many people within the humanities community, including, most 
importantly, the National Council on the Humanities, the state 
humanities councils, and the superb staff of the Endowment. In 
addition, I plan to convene a small group of scholars who have 
studied this subject closely to share their knowledge with us. 
I also would greatly appreciate any suggestions the members of 
this Committee have that will help the Endowment's new 
initiative to prosper.
    We realize, of course, that NEH cannot and should not be 
the sole source of support for such an ambitious effort. This 
is why I am insisting that the initiative move forward as a 
public- private partnership. We plan to work in close 
partnership with the state humanities councils, as well as with 
public and nonprofit institutions and foundations, and with the 
private sector to create a network of vibrant humanities 
centers in every region of the nation.
    In addition to establishing regional humanities centers, 
there are a number of other special program activities that 
will be a part of Rediscovering America Through the Humanities. 
The objective of all the initiative's activities is to 
encourage Americans to observe the dawning of a new millennium 
by rediscovering the nation's history and culture and by 
preserving this rich heritage for the benefit of future 
generations. Among the program emphases planned for fiscal year 
1999 that I would like to call to your attention are:
  --American Legacy Editions.--A special effort in our Research and 
        Education division that will ensure the survival of scholarly 
        projects that are preparing documentary editions of the papers 
        and writings of a number of the nation's Presidents as well as 
        other important historical and literary figures. Because of 
        drastic cuts in funding for NEH over the last three years, the 
        agency was forced to deny grants to many worthy editions 
        projects. American Legacy Editions is designed to double the 
        amount of funding we are currently able to provide for such 
        projects;
  --Schools for a New Millennium.--A special grant competition in our 
        Education Development and Demonstration program that will help 
        schools and their teachers become more competent in 
        incorporating new electronic humanities materials and 
        technologies into their classrooms;
  --My History is America's History.--A special project that will 
        encourage Americans of all ages to commemorate the turning of a 
        new century and a new millennium by rediscovering their 
        family's history and linking this history to the broader sweep 
        of events and trends in American and world history;
  --Great Books in the Humanities.--A special emphasis in our Public 
        Programs and Enterprise division that will support a high 
        quality, ongoing series of programs on public television 
        featuring great works of literature. NEH-funded reading and 
        discussion programs in libraries would be supported to 
        complement the television broadcasts; and
  --A special emphasis in the Endowment's Preservation and Access 
        division in support of projects to digitize important materials 
        held by the nation's museums, libraries, archives, and 
        historical organizations.
    These special Rediscovering America programming emphases will 
complement our regular programs and operations. I am absolutely 
committed to sustaining and increasing support for NEH's core 
humanities programs. Indeed, the Endowment's $136 million budget 
request is designed to begin the process of breathing some vital new 
fiscal life into these important federal programs, which have not 
recovered from the devastating reductions that were inflicted on them 
three years ago.
    While I have always been aware of the range of NEH's grant 
programs, since becoming Chairman I have had the opportunity to observe 
the work of these programs from a different perspective and to see 
firsthand the remarkable breadth and depth of the projects they 
support. As this Committee is well-aware, NEH's core grant programs are 
time-tested vehicles for enabling high quality humanities projects to 
take place across the nation, projects that enrich our educational and 
cultural life and that benefit citizens in every state of the union. 
Noteworthy humanities projects that annual Congressional appropriations 
for the Endowment make possible include:
  --Public education projects and programs sponsored by the 56 state 
        humanities councils that annually reach millions of Americans 
        from all walks of life in school auditoriums; museums and 
        libraries; community centers and court houses; church and 
        grange halls; and on college campuses. Appropriations for NEH's 
        Federal/State Partnership with the state humanities councils 
        have also recently supported a number of innovative state 
        council projects to develop reading and discussion programs for 
        newly literate adults and their children;
  --Opportunities for school teachers and college teachers to improve 
        their instruction in the humanities, such as a major project 
        for teachers of grades four through eight in West Virginia that 
        is developing a CD-ROM, teachers' guide, and other curricular 
        materials on the history of coal mining in the state. 
        Approximately 70 teachers from across the state are 
        participating in this two-year project. Another recent project, 
        in Browning, Montana, is helping elementary and secondary 
        school teachers on the Blackfeet Indian reservation deepen 
        their understanding of Native American literature and learn how 
        to teach this subject matter more effectively to their 
        students. The hundreds of school teachers and college teachers 
        who participate in NEH seminars and institutes each year reach 
        hundreds of thousands of American students each year in rural, 
        inner-city, and other classrooms throughout the nation. The 
        summer of 1998 will mark the 25th anniversary of NEH's 
        pathbreaking summer seminars for college teachers program and 
        the 15th anniversary of the summer seminars for school teachers 
        program, both of which have had an enduring impact on the 
        quality of humanities education offered to the nation's 
        students;
  --Collected editions of the papers, writings, and other materials of 
        historically significant figures and events important to our 
        cultural heritage. In fiscal year 1997, NEH funds supported the 
        preparation of editions of the papers of George Washington, the 
        Adams Family(which include the papers of ``First Lady'' Abigail 
        Adams), Andrew Jackson, and Dwight Eisenhower. Recent NEH 
        funding has also made possible the preparation of editions of 
        the papers of Elizabeth Cady Stanton and Susan B. Anthony, the 
        journals of the Lewis and Clark expedition, the history of the 
        First Federal Congress (1789-1791), and four volumes of the 
        Dead Sea Scrolls manuscripts. (As noted previously, because of 
        major budget cuts for NEH, we are no longer able to support a 
        number of these editions. We have also been forced to reduce 
        the amount of awards to projects we are able to fund, which has 
        caused many grantees to cut back their editorial staff and to 
        slow significantly their project production schedule. Our $136 
        million fiscal year 1999 budget request will permit us to 
        implement a special initiative--American Legacy Editions--that 
        will increase the funding we are now able to provide and ensure 
        the continuation and speedy progress of these important 
        projects.)
  --Educational television documentaries that reach millions of 
        Americans of diverse social, cultural, and economic backgrounds 
        in all areas of the nation, such as last fall's highly 
        acclaimed six-part PBS series, Liberty!: The American 
        Revolution, which traced the birth of our nation from the 
        growing tensions and eventual break with Great Britain to the 
        drafting and ratification of the Constitution. The Endowment 
        also was chiefly responsible for the ``The Presidents'' series 
        on PBS's popular ``The American Experience'' program, which 
        recently rebroadcast twelve thought-provoking documentaries on 
        notable American Presidents. Liberty and ``The Presidents'' 
        join other illustrious media presentations NEH has made 
        possible over the years, ranging from Ken Burns's epics, The 
        Civil War and Baseball, to portraits of such important 
        Americans as Frederick Douglass, Andrew Carnegie, Charles 
        Lindbergh, and George C. Marshall;
  --Projects to preserve and increase the availability of important 
        cultural and intellectual resources held by the nation's 
        libraries, museums, and archives, such as fiscal year 1997 
        funding that was provided to the Southeastern Library Network 
        (SOLINET) in Atlanta in support of a major cooperative brittle 
        book microfilming project involving 14 university libraries 
        (East Carolina, Emory, Kentucky, North Carolina Central, North 
        Carolina State, Tulane, Florida, Georgia, Maryland Eastern 
        Shore, North Carolina, South Carolina, South Florida, and the 
        University of the South), the Georgia Department of Archives 
        and History, and the State Library of Florida. In 1997, the 
        Endowment also provided major support for a project at the 
        University of Southern Mississippi that is cataloging the 
        manuscript collections of 150 women authors and illustrators of 
        19th- and 20th-century children's literature. Over the years, 
        NEH-supported preservation and access projects have microfilmed 
        more than 773,000 embrittled volumes and 57 million pages of 
        historically significant newspapers and have stabilized the 
        condition of over 28 million objects of archaeological, 
        ethnographic, and historical importance;
  --Innovative humanities projects employing the new electronic 
        information technologies, such as the new EDSITEment website, 
        which the Endowment launched last fall in partnership with the 
        MCI Corporation and the Council of Great City Schools, that is 
        providing teachers, students, and parents with immediate 
        electronic access to the best humanities education materials on 
        the World Wide Web. NEH is also helping educators introduce 
        into the nation's classrooms high quality websites and CD-ROMs 
        on diverse humanities subjects such as a project at 
        Northwestern University in Evanston, Illinois, to develop a 
        multimedia database on the history of the Supreme Court and a 
        project at the University of Virginia on the history of the 
        American Civil War. Another recent NEH grant, to the Denver 
        Public Library, is helping to catalog and digitize thousands of 
        important photographs on the history of the American West;
  --Educational museum exhibitions for broad public audiences that 
        examine significant themes and ideas in the humanities, such as 
        the recent opening at the Oakland Museum of California of Gold 
        Fever! The Lure and Legacy of the California Gold Rush and the 
        major traveling exhibition, Barn Again: Celebrating an American 
        Icon, which examines the forces that have shaped the American 
        farmstead and the relationship between country and city. With 
        major funding from NEH and spearheaded by the Utah Humanities 
        Council in cooperation with a number of humanities councils in 
        the Northwest, Midwest, and the South, Barn Again is being 
        presented at thirty-two small rural museums in Alabama, 
        Georgia, Oregon, Ohio, West Virginia, Illinois, Utah, and 
        Missouri. In fiscal year 1997, NEH also supported the efforts 
        of the Anchorage History and Fine Arts Museum in Alaska to plan 
        a traveling exhibition, catalog, and educational programs 
        examining the early period of Russian exploration in the North 
        Pacific, 1728-1848;
  --Research and scholarship that expand our knowledge and 
        understanding of the past,such as Stanford University professor 
        Jack Rakove's recent book, Original Meanings: Politics and 
        Ideas in the Making of the Constitution, which won the 1997 
        Pulitzer Prize in history; and the research that led to 
        discovery by an NEH-supported team of archaeologists of the 
        remains of the early seventeenth-century fort at Jamestown, 
        Virginia--the first permanent English settlement in America; 
        and
  --Stimulation of private donations to humanities projects and 
        institutions, such as a recent $325,000 Challenge Grant to 
        Whitman College in Walla Walla, Washington, to endow a 
        professorship in classics and an annual classics lecture series 
        and a Challenge Grant to the A:shiwi A:wan Museum and Heritage 
        in Zuni, New Mexico, that is helping to endow humanities 
        research and programming at this Zuni tribal museum. In fiscal 
        year 1997, NEH Challenge funds also helped the New Hampshire 
        Historical Society in Concord raise nonfederal funds to 
        renovate and equip its library for expanded public service. 
        Over the years, NEH Challenge Grants, which require $3 or $4 in 
        donations for every dollar awarded to a humanities institution, 
        have attracted more than $1.2 billion in private gifts; another 
        $343 million has been raised in one-to-one matches for specific 
        humanities projects supported by our other grant programs.
    I am proud to be associated now with projects of such substance and 
significance as these, and I pledge that in fiscal 1999 and in the 
years ahead the Endowment will strive to add to this distinguished 
record of achievement and service to the nation. We will work 
particularly hard to encourage projects and programs that have the 
capacity to reach people in towns, communities, and other areas of the 
country who currently may have limited access to quality humanities 
programming. Expanding the geographic and demographic breadth of NEH's 
grants will be a central theme of our efforts.
    In closing, I would like to return once again to my vision of the 
future for both the Endowment and the humanities. Briefly put, I hope 
that when I finish my work at NEH ``the humanities'' will have become 
an everyday word to millions of Americans, that every American will 
know about the work of the National Endowment for the Humanities, and 
that they will feel that they are better off for having this important 
agency of the federal government working on their behalf to advance the 
nation's educational and cultural well-being. Our plans for the coming 
fiscal year--the regional humanities centers, the Rediscovering America 
program emphases, the strengthening of our core grant programs--are the 
first steps in making these visions a reality.
    But I need your help. And so, I must also return to the issue of 
money. As you know, as small as NEH's budget is, it is still the single 
largest source of funding for the humanities in the United States. 
While I plan to work actively to secure private and non-federal support 
for our plans and initiatives, we must not underestimate the critical 
nature of the federal role in helping the humanities to grow and thrive 
throughout the United States. It continues to be very much worth the 
nation's investment to keep this federal effort going at as high a 
level as possible.

                      public/private partnerships

    Senator Gorton. Thank you. That was a fine and 
comprehensive opening statement.
    Again, Senator Cochran, I will defer to you first if you 
have anything that you would like to say, add, or ask.
    Senator Cochran. Well, you are very kind, Mr. Chairman.
    I think one thing needs to be emphasized and that is the 
interest that the Chairman has shown in using the private 
sector to supplement the effort made by government agencies, 
whether they are national, State, or local agencies, because 
the expense of some of these undertakings, like the Center for 
the Study of Southern Culture, are too great for the National 
Endowment for the Humanities to fund all by itself or for the 
University of Mississippi to support by itself or for the State 
budget to support. There are too many competing programs and 
requirements of the governments' appropriations.
    So, I would like for the Chairman to tell us how he sees 
his role in trying to facilitate private sector support for 
some of these ideas that he has about how to expand the 
influence and benefits of a national humanities program based 
on your experience with the Center for the Study of Southern 
Culture.
    Mr. Ferris. Well, thank you, Senator Cochran. My career as 
an administrator and scholar has been entrepreneurial. As 
Director of the Center for the Study of Southern Culture, I 
have aggressively sought and raised over $10 million that 
matched NEH funding for projects like the encyclopedia, the 
renovation of an antebellum observatory, and for an 
undergraduate curriculum on southern studies.
    The funds that we are requesting for the new initiative are 
challenge grant in nature that will be matched at least three 
and four to one by private dollars. Toward that end, I have 
been already contacting and working with potential donor 
groups. I met 2 weeks ago in New York at the Mellon Foundation 
with the heads of all the major foundations in New York City 
who have expressed great interest in becoming much more 
involved in providing support for humanities projects.
    This spring I will speak to the Council on Foundations here 
in Washington.
    We are also aggressively moving through our Enterprise 
Office to build a coalition of private, corporate, and 
individual donors who will be ongoing partners in what we plan 
in the future.
    Senator Gorton. Senator Bumpers.

                     summer seminars and institutes

    Senator Bumpers. Mr. Ferris, in visiting with you 
yesterday, I forgot one thing. We talked a little bit about the 
summer institutes, but I forgot to ask you what the status of 
those programs is and how many of them you have going. How many 
did you have last summer? How many do you anticipate this 
summer?
    Mr. Ferris. We have 70 seminars and institutes coming up in 
1999, which will involve 1,305 teachers, and they in turn will 
be able to serve 196,000 students. That is 54,000 more students 
than we were able to serve the previous year.
    As I mentioned to you, I have personally taught in these 
summer institutes with college teachers on three occasions. I 
am absolutely committed to seminars and institutes on both the 
secondary and college levels. I see this as maximizing the use 
of funding because for every teacher we bring into an 
institute, we are impacting classes of students for the rest of 
their career. This is a way of rebuilding the quality of 
education from the ground up, and I think that is where we have 
to begin with K through 12 and with education at the college 
level as well. That will be one of my highest priorities at the 
Endowment.
    Senator Bumpers. Well, of course, I am very pleased to know 
of your commitment to this program. Mr. Ferris, as you know, 
when I first discovered these summer institutes 12 years ago, 
they were being privately funded by the Carnegie Foundation. In 
my opinion whatever the educational shortfall in this country, 
the summer institutes are the fastest and best way to rectify 
it that I can think of, and yet we are really putting peanuts 
into this program.
    I can tell you that high school teachers in my little 
hometown, population 2,500, would give anything in the world to 
be able to attend one of those summer institutes. Yet, the 
demand for them is probably 500 times greater than the 
availability. As I told you, the first time I heard about that 
was in a story in Time magazine where 4,400 teachers had 
applied for roughly 225 positions at a summer institute at the 
University of Texas. Teachers want mightily to upgrade their 
skills, but very few of them without a stipend can afford to 
take off and go to summer school to take some of the courses or 
to study a particular subject that they can then pass off to 
their students whether it is in their discipline or not. I 
mean, it may be a math teacher studying Greek culture for that 
matter. It might be an English teacher studying the 
Constitution. But those things all mightily enhance the 
teaching skills of teachers.
    How much money are you putting into that program this year 
in 1998, do you know?
    Mr. Ferris. I will have to get those figures for you. Let 
me say that we plan to work closely with the State humanities 
councils and the new regional humanities centers to build a 
common initiative to expand dramatically these summer seminars 
and institutes. When teachers are out of the classroom, they 
can effectively use that time to upgrade their classroom 
skills. We are currently putting in $6 million into the 
Seminars and Institutes Program. That is not enough, obviously.
    Senator Bumpers. No; it is not nearly enough. I believe 
that is a little improvement over what it has been in the past.
    Thank you, Mr. Chairman.
    [Clerk's note.--The information was provided in Mr. Ferris' 
answer to Senator Bumpers' question.]

                  remarks of senator robert f. bennett

    Senator Gorton. We have now been joined by Senator Bennett 
and by Senator Gregg. The NEA portion of the hearing is 
concluded and we are on NEH. But if either or both of you have 
any statements that you would like to make orally or include in 
the record, they will be included and you are free to question 
our new NEH Chairman.
    Senator Gregg. Do they have to be in iambic pentameter? 
[Laughter.]
    Senator Gorton. They will get more attention if they are.
    Senator Bennett. Well, thank you, Mr. Chairman. I apologize 
for not having been here earlier. I was listening to Senator 
Cochran wax eloquent about the Army Corps of Engineers and then 
stayed in that hearing long enough to say a few well-chosen 
things myself about this particular budget and the OMB and the 
way it has, in my view, done serious damage to the Department 
of the Interior's ability to do its job.
    But I have to be on my way to a Banking hearing. I did want 
to simply show up even though I am too late for the NEA 
portion. The NEA and the NEH are sufficiently well-linked that 
I can just say here once again that I support both of these 
Endowments. I think it is important that we have a Federal 
statement in the area of support for the arts as well as 
support for the humanities. I did not want my absence to be 
misread by anyone that my support had waned as I get closer to 
election time. [Laughter.]
    I want to make it clear that even though there are those in 
my home State who disagree with me on this one, I feel strongly 
enough that, even in an election year when I am up, I will show 
up simply to demonstrate that support. So, that is my purpose 
in being here and I am on my way to Banking.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Gregg.

                     remarks of senator judd gregg

    Senator Gregg. Well, I appreciate the opportunity to listen 
also to the testimony and I commend the chairman for his strong 
support for both these Endowments, which I join him in. And 
just keep sending money to Ken Burns. [Laughter.]
    He funds an entire town in New Hampshire. [Laughter.]

                 funding of regional humanities centers

    Senator Gorton. Let me ask you about the regional 
humanities centers. If you do not get all or substantially all 
of the additional requested budget, do they go by the board?
    Mr. Ferris. No; but we would have to see how we would 
allocate, given what Congress appropriates, those moneys. This 
is a priority. It is prioritized partly because it is designed 
to bring private support in a significant way to the 
humanities.
    Senator Gregg mentioned Ken Burns. He is one of our stars 
obviously, and his great films have not only been loved by 
every American viewer, but they have brought back to the 
Endowment reimbursement of his grants, which we were then able 
to use for other projects.
    The overall picture of the humanities in this Nation is 
that without the Endowment and the Mellon Foundation, there 
would be virtually no national funding. I am going to change 
that during my tenure at the Endowment. I have to have 
congressional help because the public sector has never been 
asked to help in this initiative.
    I am going forth in an aggressive and convincing way to 
corporate heads, foundation heads, and the message they have 
responded with in the last 2 months is that ``we want to be 
involved; we want to know how to help,'' and I am showing them 
a list of our priorities. But we have to have congressional 
support that indicates that our Nation is also going to be a 
partner. You will be helping a federally assisted rather than 
federally funded agency because we are going to use your 
support to build in a way that will have impact on every 
American in every one of your districts.

              relationship with state humanities councils

    Senator Gorton. Describe the relationship between the 
National Endowment and the various State councils. Do they 
support these regional centers? Do they play the same role in 
the States that you play in the Nation as a whole? Does every 
State have a council for the humanities?
    Mr. Ferris. Every State has a State humanities council, and 
during my tenure at the University of Mississippi, I worked 
very closely with the State council there. They unanimously 
endorsed my nomination last fall because they know that as a 
folklorist and someone who has worked closely with my own 
council, I understand their needs in special ways.
    They complement the National Endowment. They are a vital 
grassroots presence in every State. I recently met with all the 
New England council heads when I was in Cambridge. I will be 
meeting tomorrow in California with that council, and I will be 
increasingly visiting in each State, in Arizona, Louisiana, 
Maine, New Hampshire, and others during the coming months. I 
want to work as closely as possible to strengthen each of those 
councils and to wed them in ways that are appropriate with the 
National Endowment and with the regional initiative as well. 
This is a partnership. It is a kind of troika of three 
different but absolutely vital relationships that the 
humanities will bring to America in the future.
    Senator Gorton. My notes for this hearing say that the 
State councils, at least taken as a whole, are able to fund 
just about one-half of the applications they have and the 
National Endowment is way, way less than that. Is that because 
they are less well-known or better funded? Why that tremendous 
difference?
    Mr. Ferris. Well, we at the National Endowment are the 
source of support for figures like Ken Burns and for major 
scholarly projects like ``Encyclopedia of Southern Culture.'' 
There are many, many projects that only can be dealt with at 
the national level.
    Senator Gorton. So, the larger ones come to you.
    Mr. Ferris. The larger ones and many others like teacher 
institutes, summer seminars. I think the best comparison for 
the National Endowment for the Humanities would be the National 
Science Foundation. We operate on so many levels, on so many 
fronts that are truly national and in many cases international, 
and the scale of need at the national level far exceeds and 
outstrips our ability to fund adequately and deal with those 
projects, many of which would be fully fundable if we had the 
resources.

                  geographical distribution of grants

    Senator Gorton. You heard some of the discussion earlier 
this morning about NEA and the concentration of its grants in 
New York and in a few other States. In fact, in the debate over 
NEA last year in Congress, we literally took congressional 
action to try to spread those grants more equitably across the 
country.
    Does that same challenge face NEH? Is there a 
concentration? Is there a feeling that smaller and more rural 
States are not getting an appropriate share of the grants? You 
come from a relatively rural State. Do you intend any changes 
in that connection, or do you think NEH has been doing a good 
job there already?
    Mr. Ferris. Well, as you point out, I do come from a small 
rural State, and I understand those concerns. But I am 
delighted that the Endowment currently has a very fair 
geographical distribution. The highest percentage of our grant 
funds awarded to any State last year was 12 percent. Our 
regional initiative and our support of State councils are 
designed to deliver in an equitable and focused way not simply 
dollars but actual products that will be permanent, enduring 
resources for all of our States that will make a difference in 
the life of the average American wherever they may be.
    I think the Endowment is in good shape on this question. We 
are going to be in a lot better shape with your support in the 
next few years because I am going to see that that happens.
    Senator Gorton. I thank you. We want to welcome you on 
board and wish you every success. We will try to provide you 
with adequate support.
    Mr. Ferris. Thank you very much.
    Senator Gorton. Thank you.

                          subcommittee recess

    The subcommittee will stand in recess until 9:30 a.m., 
Wednesday, April 1, when we will receive testimony from the 
Honorable Bruce Babbitt, Secretary of the Interior.
    [Whereupon, at 10:43 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, April 1.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

                              ----------                              


                        WEDNESDAY, APRIL 1, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Cochran, Campbell, 
Bennett, Domenici, Byrd, and Bumpers.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF BRUCE BABBITT, SECRETARY

                             budget request

                   OPENING REMARKS OF SENATOR GORTON

    Senator Gorton. The hearing will come to order.
    We are delighted to have you with us, Mr. Secretary. I 
think this is your fourth appearance before the subcommittee 
during my tenure as chairman. This year's hearing is likely to 
be popular with the members of the subcommittee, but perhaps 
less so than in previous times because those of us who are 
members of the Commerce Committee--and there are several on 
this subcommittee--are due in the Commerce Committee markup on 
tobacco legislation. There are also a number of other 
appropriations subcommittee hearings taking place. So I will 
have to leave, and leave this with someone else, after my own 
set of questions. I apologize for that.
    We scheduled you here before that tobacco hearing was set. 
Nonetheless, it is a matter of great public interest.
    Last year, the budget agreement, and Senator Stevens' 
willingness to abide by the budget agreement, allowed us to 
provide a substantial increase for Department of the Interior 
programs. This included full funding for Everglades 
restoration, a huge increase for land acquisition, and 
increases over the budget request for operation of our parks 
and refugees.
    While the budget agreement will continue to lend general 
support to natural resource programs in fiscal year 1999, there 
are no specific protections for departmental priorities as 
there were last year. More importantly, the overall amount of 
discretionary spending available to the Appropriations 
Committees will not increase as it did in fiscal year 1998.
    In fact, the total amount of nondefense discretionary 
funding available for the entire appropriations committee is 
below a freeze level. The President has dodged the statutory 
spending caps in his budget by establishing special funds, 
proposing new revenue streams, and reclassifying certain 
discretionary spending as mandatory. By virtue of these 
bookkeeping maneuvers, the request blesses programs under the 
jurisdiction of this subcommittee with a $1 billion increase 
over 1998. Programs within your Department get almost half of 
that. I think that that is wishful thinking.
    Though I hope to persuade Senator Stevens, who is here with 
us, to provide the subcommittee with an allocation that is 
something better than a freeze, there is virtually zero chance 
we will receive an increase in our allocation anything like $1 
billion. What is more, there will be fierce competition for any 
increase that we do receive.
    If we do not sell oil from the strategic petroleum 
reserve--and there is little sentiment to do so with oil prices 
so low--we will need to find $160 million that was not in our 
base last year at all. We will also have to grapple with the 
pressing needs of the Indian Health Service, which is 
inexplicably the only major agency in this bill that did not 
receive a significant increase in the budget request. The 
administration has chosen to justify this, in part, by relying 
on estimates of Medicare and Medicaid reimbursements that are 
fully double the estimates made by the Indian Health Service 
itself.
    There are a number of other fanciful scorekeeping estimates 
in the budget request that the Congressional Budget Office 
tells us it does not agree with. These will cost us additional 
tens of millions of dollars.
    Lest you feel slighted, Mr. Secretary, I am laying these 
cards on the table as much for my colleagues, benefit as for 
your own. Just as I will plead with them to be reasonable in 
their requests of me, so I will plead with you to reevaluate 
your budget request and engage my staff and me in a serious 
discussion over the coming months about the real priorities of 
the Department of the Interior. We need your candor and 
cooperation in this process to make wise choices.
    On a final note, I want to let you know in advance that 
tomorrow, or perhaps even this evening, I will be introducing 
legislation on the subject of the Elwha dams, a matter that we 
have discussed on countless prior occasions. I will not dwell 
particularly on the subject at this time, as you already know 
its outline. But I hope you will take a close look at the bill 
and give it careful and thoughtful consideration.
    I may say also, in consulting with my staff, we have moved 
very slowly on the money in the land and water conservation 
fund, partly at least because of reluctance of the members of 
the comparable subcommittee in the House in dealing with it and 
partly because obviously there are far more demands on it than 
there is money in it. That will have a relationship with the 
Elwha removal.
    For example, I believe it is perfectly appropriate, and 
will have as a high priority, to use that money for the 
acquisition of the Elwha dams. I have serious questions about 
the validity of using it for a capital expense in connection 
with taking those dams down. So we are going to have to figure 
out a way, if this Elwha legislation passes, to fund it. 
Because as I have come to what I think is a middle-line 
agreement on it. There is no point in doing it unless we have 
the money to carry out the job.
    So your help on that, your prompt response to it, will be 
greatly appreciated.
    And with that, I will turn to my friend and colleague, 
Senator Byrd.

               opening remarks of senator robert c. byrd

    Senator Byrd. Well, I thank you, Mr. Chairman.
    I join Senator Gorton in providing a warm welcome to you, 
Mr. Secretary, as you appear before the subcommittee to discuss 
the proposed fiscal year 1999 budget for the Department of the 
Interior. Your job is a difficult one, and you are to be 
commended for your extraordinary efforts to balance the 
competing interests within the Department.
    We will be seeking your assistance, Mr. Secretary, as in 
prior years, in identifying priorities among the various 
initiatives proposed for the Department. Your budget is a 
fairly healthy one for fiscal year 1999, but I would be remiss 
if I did not point out that some of the increases may have been 
made possible by troubling reductions elsewhere in the 
President's budget.
    I find it difficult to believe that the Congress will stand 
idly by and accept such things as the President's proposed 
reduction of nearly 50 percent for the Army Corps of Engineers. 
Thus, it is unlikely that the subcommittee will receive an 
allocation that will accommodate all of your proposed increases 
for fiscal year 1999.
    I take it, Mr. Chairman, we are not asking questions at 
this point.
    Senator Gorton. No.
    Senator Byrd. OK.
    Well, I look forward to working with you, Mr. Secretary, to 
identify the most critical programs.
    Senator Gorton. Senator Stevens.
    And if you do not mind, Senator Byrd, I will let Senator 
Stevens make both an opening statement and submit any questions 
he has now. He is a Commerce Committee member, and he needs to 
be at that markup as soon as he possibly can.

                 opening remarks of senator ted stevens

    Senator Stevens. Well, thank you very much. And I hope 
Senator Byrd will understand.
    I also have to open the defense appropriations subcommittee 
hearing and get back with you to markup the tobacco bill.
    I am here, Mr. Secretary, to--I do have two questions, but 
I do want to thank you again publicly for your cooperation with 
us in this past year on the subsistence issue that is really 
perplexing for Alaskans, since before statehood, we have prided 
ourselves, as you know, in our ability to provide sound care 
and management for our fish and wildlife resources. And, 
really, statehood was really about whether we were capable of 
doing just that, whether we were capable of providing sound 
management for fish and wildlife resources across the whole 
State.
    There have been years of uncertainty now. Actually, in 
1980, Congress asserted this constitutional power over the 
public lands, and created or expanded two national forests, 10 
park units and 16 refuges. And at that time, it also set into 
law a preference for those who use these lands for subsistence 
purposes. In 1989, that subsistence preference was found by our 
State supreme court to be at odds with our State constitution. 
But last spring, a task force was formed, of Alaskans, to try 
and come up with a way to reconcile the Federal subsistence law 
with our State supreme court's holding.
    Incidently, the ratio of that task force, despite the fact 
that our Governor is a Democrat, was 4 to 3, Republicans to 
Democrats. We had the Republican House Speaker and Senate 
President, as well as former Governor Hammond and Attorney 
General Cole, also both Republicans.
    And, Mr. Secretary, at that juncture last summer, you came 
to Alaska and met in Senator Murkowski's house with the 
subsistence task force, our complete congressional delegation 
and members of the Governor's staff, and the Governor. We 
discussed the subsistence deadlock, and you said you would 
help. And you have kept that promise. You have helped. With 
that help, we modified the 1980 Federal law, as the bipartisan 
task force recommended, in the last part of last year's 
Congress. And our common hope was that the Alaska Legislature 
would make the changes in the Alaska Constitution and the 
Alaska laws needed to restore comprehensive management.
    Now, I have two questions for you this morning, Mr. 
Secretary. And I thank the chairman for allowing me to ask them 
now.
    Will you help us again, and direct at the very highest 
level of the Interior Department, the review and comment on the 
proposals that are now before the Alaska State Legislature?
    And, second, as the person vested with implementing the 
Federal subsistence law, will you also tell us your thoughts on 
the draft bills that are now before the State House of 
Representatives Judiciary Committee? That is the latest 
version, known as the Green version, named after the chairman 
of that judiciary committee. And we are very interested that 
the Alaskan people would know your thoughts at this time on 
that draft.
    Secretary Babbitt. Senator, I would be very happy to do 
that. I share your feeling that we have come a remarkable 
distance in the last year in bringing very disparate groups 
together toward some common ground on this issue. And of 
course, now that we are down on the 10-yard line, it seems to 
me even more important that we work together to try to get this 
issue resolved.
    Now, I would point out just two things. We are working on 
these subsistence regulations. Because if we cannot get this 
resolved, I think we have a clear legal obligation, in due 
course, by the end of this year, to take steps to put those 
regulations into effect.
    In the meantime, it would be much preferable to get an 
acceptable result through the Alaska Legislature, out to the 
ballot, and get this issue resolved.
    I think that any proposal that involves major revisions to 
ANILCA is not going to fly, and that we must look at all of 
these proposals with an open mind, but against a background 
which says major revisions of ANILCA are not in the cards. The 
Governor's proposals, which involve significant concessions to 
the State of Alaska, are the appropriate framework in which to 
discuss this issue.
    And in that context, I am ready and willing to respond by 
return mail to the Alaska Legislature and the Governor with 
respect to any proposals. Because I want to be a part of the 
solution.
    Senator Stevens. Well, thank you very much.
    Senator Murkowski, Congressman Young and I have told our 
legislature that we are prepared to review those drafts also, 
once the Governor and the legislature concurs in what they 
seek, in terms of modifications to ANILCA, if they seek any 
modifications. I would prefer that they proceed now on the task 
force recommendations.
    But my two colleagues, who are each chairman of the 
committees involved, have indicated they will hold hearings if 
it is necessary. But your concurrence is absolutely essential, 
as we all realize, because you are the person that is going to 
recommend to the President whether he signs a bill that would 
effect some changes in ANILCA. So we all hope that the Governor 
and the legislature will be guided by the comments you have 
just made.
    I thank you for them again.
    And I thank you, too, Mr. Chairman, for allowing us to do 
this, so we can get your position back to Alaskans today. Thank 
you.
    Senator Gorton. With that exception because of commerce, we 
are still just on opening statements.
    Senator Campbell.

           OPENING REMARKS OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thanks, Mr. Chairman. I know we have all 
got busy mornings. Let me make mine very brief.
    Welcome, Mr. Secretary. We may not get time to ask some 
questions, because this may be a very short hearing. But I hope 
perhaps that you can address the question of the BLM. They are 
trying to reinventory more land, and the possibility of it 
being designated as a wilderness area. That is becoming a very 
hot issue in Colorado, and I know in my colleague's State of 
Utah, too.
    Our State legislature, in fact, is trying to address this 
issue by passing a joint resolution, requesting Congress to 
clarify whether the BLM has the authority to reinventory the 
land managed by the agency, and ask them to continue to allow 
multiple uses on that land.
    In 1991, it was recommended in the last inventory that 
400,000 of the 800,000 acres that was looked at in Colorado be 
recommended for wilderness. And I am interested in knowing what 
has changed since then that they would want to reinventory that 
much land.
    In addition, I would hope perhaps you could address--or if 
you do not I will submit questions if I cannot ask them--the 
lack of increase in PILT money. Although you are asking for 
over $490 million of additional money, the PILT money seems to 
remain the same. And if you could deal with that, I would 
appreciate it, too.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Bennett.

              OPENING REMARKS OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    I appreciate the hearing held today. I welcome the 
Secretary. He has administrative responsibility for close to 30 
million acres in the State of Utah. So he and I have become 
good friends over the years, as we have discussed--not always 
agreed--on issues relating to those acres.

                 reinventorying of lands for wilderness

    The areas that I would hope we could get into today--
echoing the comment of my good friend from Colorado--dealing 
with re-inventorying of lands for wilderness. We had an 
inventory in Utah. It was done during the Carter 
administration, I remind everyone who likes to say this was 
done under the heartless Republicans. And now there has been an 
attempt on the part of the Department to go back and 
reinventory, non-WSA areas.
    The reinventory was struck down by the court as being 
beyond the Department's authority. Interior appealed. Now the 
tenth circuit court has agreed with the Department. There 
undoubtedly will be another appeal. I would like to know what 
the Secretary plans to do about this in the present muddled 
legal situation.
    I think if the Department is intent on finding 5.7 million 
acres of wilderness in Utah, which has become the rallying cry, 
they ought to do it in the proper way, using the BLM wilderness 
manual, and inventorying all public lands, including the 
current wilderness study areas. They might find that certain 
existing wilderness study areas now do not meet the criteria of 
the manual.
    But there are groups out there doing their own inventorying 
right now. They come to see me, and say we have interns from 
the universities that are falling in love with the land. 
Taxpayers have already spent millions and millions of dollars 
in the standard procedure to do this. And why we have to do it 
all over again escapes me. But I would like the Secretary to 
address that.

                    san raphael swell heritage area

    I would be interested in the Secretary's reaction to the 
Emory County proposal to create the San Raphael Swell National 
Heritage Area. And there are people, including the Director of 
the BLM, who will be in Utah this weekend to physically visit 
that area. I would like to invite the Secretary to join them. 
And if he does, I will cancel my schedule to join him.

              grand staircase escalante national monument

    Then, of course, we still have the Grand Staircase 
Escalante National Monument. I have introduced legislation to 
codify the President's promises relating to this monument into 
law, so that we will not have to depend on the memory of some 
administration official in some future time. And I am willing 
to be as patient about that as it takes, to see to it that 
those promises are codified. The Secretary and I have had a 
conversation about that. But I would hope he could respond, 
either here or later.
    I am concerned about the lack of movement of the Department 
with respect to a land exchange on school trust lands. The 
trust in Utah has put together what at first look appears to me 
to be a reasonable proposal. I hope that we can move forward on 
that. I know there are some environmental groups who do not 
want to exchange school trust lands. They want to keep those 
trust lands locked up in the monument, where, if they are 
completely surrounded by Federal lands, have no economic value.
    But it is a violation of the trust that is given to Utah 
school children that says those lands belong to Utah school 
children. If they cannot be operated and used inside the 
monument, they must be swapped for land of equal value outside 
the monument so that the school children are not shortchanged.
    Everybody agrees with that, but nothing ever seems to 
happen about that.
    I remember my father worrying about school trust lands 40 
years ago, and getting promises that, oh, we will work out an 
exchange. The President specifically promised that when he 
created the Grand Staircase Monument. That is moving much too 
slowly for me.
    Then we have to address the management issue with respect 
to the monument. It would not serve this administration or this 
Congress well to spend $20 million or so over the next 5 years 
on a management plan that does not work on making the monument 
a tourist attraction. That is what monuments are. And again, 
there are environmental groups, particularly in Utah, who get 
horrified at the idea that we need to appropriate some money to 
build some rest rooms and pave some roads so that the tourists 
can enjoy the monument. They seem to think that the monument 
somehow is automatic wilderness.
    The President, whatever his powers, cannot create 
wilderness by fiat. Wilderness is created by the Congress. And 
the Congress has not created this land as wilderness. We want 
to be sure that it is not managed as if it were wilderness by 
an executive branch that wants to override congressional 
opinion.
    I know that none of these issues comes as a surprise to the 
Secretary. He and I have had a number of conversations about 
them. But I would not be true to my trust if I did not raise 
them in this arena and every other until we get them moved 
towards the direction of resolution.
    Thank you, Mr. Chairman.
    Senator Gorton. Thank you.

                summary statement of hon. bruce babbitt

    Now, Mr. Secretary, we will be delighted to hear from you.
    Secretary Babbitt. Mr. Chairman, it is a pleasure to be 
back. I guess this is the fourth appearance with you in the 
chair, stacked on top of several appearances with Senator Byrd 
in the chair. And I just want to acknowledge at the outset that 
I think we have had an exceptionally productive working 
relationship. And I am very grateful to all of the members. I 
recognize from time to time we have differences, that from time 
to time the public might draw the impression that we are bitter 
adversaries, instead of the truth, which is that we have 
established I think a really good record of collaboration on 
progress. I am very grateful for that.
    I understand that there are budget issues this year. And 
obviously I am ready and willing to work with you to address 
these priorities issues. But I cannot pass this up without 
making a plea to the chairman of the Appropriations, Senator 
Stevens, to be a bit more generous. It seems to me that now 
that we have reached a balanced budget and now that this body 
has authorized the expenditure of, I believe, an additional $5 
billion a year in discretionary funding for highways, we ought 
to be able to find a----
    Senator Gorton. That is more a tribute to the skills of 
Senator Byrd. [Laughter.]
    Secretary Babbitt. Well, I think my point is made.
    What we are talking about here is a minuscule piece to 
protect the resource base that these extra $30 billion are 
being authorized to do--to pave roads, to put people in touch 
with this country of ours in every single State.
    Senator, I appreciate the progress we have made on the 
Elwha Dam issue. I just want to say that I realize that this is 
still a hot topic. There are still lots of differing views. But 
it is my sense that we have come a long distance. And I simply 
pledge to you that I am ready and willing to discuss this 
issue, be flexible and pragmatic, and see if we can define both 
objective timetables and address fiscal issues that obviously 
are a significant part of this.
    What I would like to do, and I will try to work through 
this rapidly, is talk about some of the large issues in the 
budget. First, I would like to step back and say a word about 
construction and maintenance on public lands throughout the 
entire system of refuges, BLM lands, and park lands. Working 
with this committee staff and with the House committee, I think 
we are really starting to nail this issue down.
    Our construction and maintenance request this year will be 
submitted in the context of a rigorous ranking system and set 
of criteria that Mr. Berry has very ably developed, which say 
the No. 1 priority is health and safety. No. 2, we obviously 
have to finish up existing projects. No. 3 are critical 
resource needs. That results in a shift in the construction and 
maintenance budget toward an additional $82 million for 
maintenance and a decrease of about $14 million in the 
construction budget.
    Let me say that I would like very much to work with both 
committees to see if we can keep the wheels on this wagon and 
not load it down with too many other construction starts. And I 
am ready to engage in that process.
    The National Park Service has been scrutinizing its 
procedures with respect to construction because of some press 
relating to cost overruns on a number of projects around the 
country. The issue here is the Denver Service Center. We have 
commissioned a study by the National Academy of Public 
Administration. We will share those results with you and your 
staff.
    I think they are going to call for a significant change in 
the concept and organization of the Denver Service Center and 
the way in which it has inadvertently divided accountability 
between park superintendents and the Service Center, with the 
result that an awful lot of decisions and management oversight 
tends to get lost in the gap between the two.
    The budget this year continues work on the forest plan in 
the Pacific Northwest. I believe that is all moving. We are 
working very closely to get a 4(d) rule out to small private 
landowners. The Bureau of Land Management has met its timber 
targets both last year and again this year.
    The Everglades issues are represented in a total request 
for $144 million, spread among agencies, spread among areas and 
projects and land acquisition, all of which I believe is 
proceeding very, very well.
    The California Bay delta project is now emerging, I think, 
as a very important emerging success. What it illustrates is 
the importance of dealing with water issues comprehensively. In 
this case, virtually on a statewide basis, with the entire 
central valley--the Sacramento and San Joaquin Rivers. The 
process that we are using, a partnership between the State, the 
Federal Government, and localities, has already resulted in the 
so-called bay delta accords, establishing a base of standards, 
environmental standards, in the delta system, to which the 
restoration efforts are directed.
    And I think we are really within striking distance of a 
comprehensive, complete resolution of 30 years of warfare 
between northern California, southern California, 
environmentalists, agriculture, and urban areas. We are, again, 
about down to the 10-yard line. And I would call your attention 
to that issue.
    The Columbia basin I am going to pass by, because I suspect 
Senator Gorton will bring me back to it. I would just say that 
this is admittedly and concededly a large and ambitious effort 
to try to use the same principles to integrate our priorities 
and management decisions across a landscape. It has not picked 
up many fans and supporters so far, unlike Florida and 
California. This one is in danger of becoming an orphan.
    Now, my response to the critics is: What are the 
alternatives?
    The alternatives, as I see them, are all worse. And I would 
encourage the committee's attention to that. And I am ready and 
willing to work. But I think that abandoning this project would 
be a mistake; that we will collapse back into a long track of 
litigation.
    We are behind the curve in the Southwest. This is Arizona 
and New Mexico, particularly. But it is lapping over into 
southern Utah and Nevada. And I just want to note that. There 
are budget ramifications from that, in the Fish and Wildlife 
Service, BLM, and the U.S. Geological Survey [USGS]. So I would 
just say we are slightly behind the curve there, and it is my 
intention, in the coming year, to get ahead of the curve.
    I would call your attention to two or three science issues 
that I think are important. The first is a $15 million request 
for bringing up a disaster information center in Reston on an 
interagency basis. What that is about is simply this.
    We have learned, in the last 4 or 5 years, an enormous 
amount about good emergency prediction, management, and 
followup. I believe it is one of the great successes of this 
administration, led by the Federal Emergency Management Agency. 
We are learning as we move along that we are still not 
utilizing all of the advance information that we can get to 
predict emergencies, disasters, and to deploy resources to 
minimize damages.
    We had some important experience out in California this 
year. It comes back to one gap in the process. And that is our 
ability to take satellite information, both classified and 
unclassified, GIS information from scores of sources, agency 
information, integrate it together, do the necessary 
declassification and be, in a real-time basis, out with the 
information. Not because we manage disasters, but because this 
is the right information point.
    The USGS budget has a variety of lines relating to water 
research. And I would just flag this as a concept. We used to 
think of the water problem as Arizona, Utah, and New Mexico--
maybe Nevada and a little bit in California. It is now a 
nationwide issue, in terms of contamination of groundwater 
supplies, in terms of bacterial problems, like the pfisteria 
outbreaks that we are now seeing along the Atlantic Coast, and 
interestingly enough, increasing supply problems east of the 
Mississippi, as well as in the more traditional areas.
    The last science issue I would flag is the issue of fire 
ecology. In the BLM budget and, to some degree, in the GS 
budget, there are line items that relate to our increasing 
confidence in our ability to manage prescribed fires as a 
restoration tool, and to deal with the interface between fire, 
selective thinning, mechanical thinning, and overall forest 
health issues.
    Last, a brief word about the Bureau of Indian Affairs. We 
have a very important $25 million increase for law enforcement 
services, criminal investigation, uniformed officers, and 
several other items. It is a critical issue. It is the No. 1 
issue in Indian country. It is matched by a request of about 
$80 million from the Department of Justice, to see if together 
we can deploy some more resources.
    I believe that we have the Indian trust accounts issue 
under control and a tortuous, long-term path toward resolution 
of what is surely the most complex and frustrating management, 
record assembly, litigation, information system design that I 
have ever come near in my life. We have an increase in the 
budget for that. And I believe that we are now ahead of this 
one.

                           prepared statement

    With that, again, I would simply say it has been a great 
experience working with you. As frustrated as we sometimes get 
in authorization fights with the authorization committees, I 
have got to say that this relationship has been very different 
and very productive.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Bruce Babbitt
    I am pleased to appear before the Subcommittee on Interior and 
Related Agencies to present the fiscal year 1999 budget for the 
Department of the Interior.
    This budget is a significant one for the Department. It will mark 
and celebrate the Department's 150th year. It will also set the course 
for the Department's entry into the 21st Century.
    The history of the Department of the Interior has been one of 
change. In 1849, the Department was established to be the country's 
Home Department--a miscellaneous collection of domestic agencies, 
including the Patent Office and the Census Bureau. The largest, and 
most expensive, agency was the Pension Bureau. As the country developed 
and the needs of the American people changed, the Department assumed 
new functions and shed others. At least seven of the current Cabinet 
departments can trace their lineage, in whole or significant part, to 
functions at one time conducted by the Department of the Interior.
    Today the principal missions of the Department are the conservation 
and management of America's natural and cultural resources, the 
protection and encouragement of Indian self-determination, and the 
fulfillment of Federal trust responsibilities to American Indians. 
These missions originate with two of the Department's original 
components--the General Land Office and the Indian Office. However, 
they have evolved dramatically since 1849.
    Frederick Jackson Turner declared the frontier closed in 1893 and 
the last great wave of homesteading ended by 1920. The automobile, and 
later the Interstate highway system, have brought increasing numbers of 
visitors to parks, refuges and public lands. Development has pushed 
right up to the boundaries of many reserves and the interrelationship 
of the components of ecosystems that John Wesley Powell identified a 
century ago have become increasingly obvious. The land management 
challenges we face today are far different and more complex than those 
of 1949, let alone 1849. When Chester Lindsley was appointed as 
Superintendent after the establishment of the National Park Service in 
1916, Yellowstone may have been the uncomplicated place pictured in 
Northern Pacific Railroad tourist posters. The Yellowstone of today 
receives nearly three million visitors annually, six times the number 
who visited the entire National Park system in 1916. The Park has an 
aging infrastructure and is profoundly affected by developments 
throughout the 11.7 million-acre Greater Yellowstone ecosystem.
    The evolution of Indian programs has been equally dramatic. The 
Indian Reorganization Act of the 1930's and the Indian Self-
Determination Act of the early 1970's have given Tribes their rightful 
role in the management of Federal Indian affairs. Our challenge today 
is to deliver services and operate trust activities within the context 
of a program that promotes self-determination and protects tribal 
sovereignty.
    The budget that I present today reflects the continuing evolution 
of the Department's mission. As have each of President Clinton's 
budgets, the 1999 budget protects base operating funds for the 
Department's programs, including parks, refuges and public lands, 
natural resource science, reclamation programs, and Native American 
programs, while providing the funding needed to meet increasingly 
complex challenges. The budget:
  --Continues funding for landscape scale restoration partnerships and 
        includes increases to help States and local communities restore 
        watersheds and fisheries.
  --Adds funds to build on our successful efforts to make the 
        Endangered Species Act work.
  --Begins a five-year program to fund critical maintenance and 
        construction needs.
  --Funds an initiative to strengthen law enforcement functions in 
        Indian country and continues our progress on trust management 
        reform.
    Budget overview.--The President has proposed a balanced budget for 
1999, three years earlier than agreed to in last year's Bipartisan 
Budget Agreement. Within the framework of the balanced budget, the 
President's request seeks a total of $8.1 billion for the Department in 
funds subject to annual appropriation by the Congress. An estimated 
$2.4 billion will be provided by permanent appropriations.
    For Department programs under the jurisdiction of this 
Subcommittee, the request for annual appropriations is $7.1 billion for 
1999. This is a decrease of $71 million in current budget authority 
from total appropriations provided in the 1998 Interior and Related 
Agencies Appropriations Act. It is an increase of $461 million in 
current authority if the Department's $532 million share of the special 
1998 Land and Water Conservation Fund appropriation is excluded. More 
than 20 percent of this increase will go for pay and other 
uncontrollable cost increases.
    Our ability to propose a budget that includes programmatic 
increases is due to the President's commitment to the environment and 
programs for Native Americans and to our aggressive efforts over the 
last five years to streamline the Department, reducing headquarters 
staffs and management layers, and to reengineer our processes and 
improve the efficiency and effectiveness of our customer services. As 
of the end of fiscal year 1997, we had reduced our overall employment 
level by over 15 percent below the 1993 baseline.
    Landscape focus.--The President's Northwest Forest Summit in April 
1993 opened a new chapter in conservation and resource history. For 150 
years, the Nation has been caught between two polar visions. One vision 
was of the great natural resources of our country as commodities to be 
exploited for economic gain. The other vision was of a deep ethical 
obligation to preserve and care for nature's creations. The new vision 
that crystallized in Portland in 1993 serves both nature and our 
economic future. By understanding that landscapes are complex, living 
and integrated systems, we can find better ways of living on, and 
prospering from, the land, while at the same time protecting species 
and preserving nature's special places.
    We learned three lessons in developing the Forest Plan. We cannot 
solve pressing natural resource problems by focusing on postage stamp 
size management units. We must treat them on a landscape scale. Second, 
in seeking solutions we must look across, and beyond, agency 
boundaries. We need to involve all the relevant Federal agencies, as 
well as States, local and tribal governments, industry, non-profit 
groups, and concerned ordinary citizens in efforts to move from 
conflict to cooperation. Third, our goal should be restoration, so as 
to ensure the long term ecological and economic health of communities.
    The 1999 budget continues support for the Forest Plan, as well as 
for the landscape scale restoration of the Everglades.
    Our request for the Forest Plan is $68 million. That this is a 
slight decrease from 1998 reflects the success of the Forest Plan. We 
have in place the structure to maintain and restore late successional 
and old-growth forests, water quality, and fish and wildlife habitat, 
while allowing a sustained timber harvest of 1.1 billion board feet per 
year. An aquatic conservation strategy has been implemented to maintain 
the health of watersheds. We are working with non-federal land owners 
to balance species protection through habitat conservation plans and 
planned implementation of the 4(d) rule.
    For the Everglades, we propose an appropriation of $144 million, 
including $12 million for scientific research, $14 million for the 
Modified Water Delivery System, and $81 million for land acquisition. 
This request is an increase of $8 million over 1998. Total Federal 
funding requested for the Everglades is $282 million, an increase of 
$54 million. This funding, together with the contributions of the State 
of Florida, will keep us on track to solutions that restore the 
Everglades in ways that recognize the inextricable link between the 
health of the natural watershed and the growth and continued prosperity 
of Miami, Ft. Lauderdale, and all of the cities of the coastal ridge.
    Based on lessons learned in the Pacific Northwest, South Florida 
and California, the budget for the Interior and Related Agencies bill 
also contains modest increases to address landscape scale issues in two 
other areas of the country.
    At the 1993 Forest Summit, the President directed BLM and the 
Forest Service to develop a scientifically sound and ecosystem-based 
management strategy for Federal lands east of the Cascades in the 
Columbia River Basin, the upper Klamath Basin and the northern Great 
Basin. Two EISs and preferred management alternatives are nearing 
completion. To begin to implement whichever management alternative is 
selected to restore the long-term ecological integrity of the Federal 
land within the 144 million acre region, we are asking for increases of 
$7 million in BLM and $1.5 million in the Fish and Wildlife Service. 
The BLM increases will support implementation of integrated weed 
management plans, fish and wildlife habitat restoration projects, and 
use of prescribed fire to restore range and forest land, among other 
projects. The FWS increase will support streamlined ESA consultations 
on the model of the Forest Plan.
    In the desert Southwest, increases totaling $4 million in BLM and 
FWS will support efforts to unsnarl the tangle of litigation 
surrounding conflicts between traditional industries such as logging 
and grazing, the resource demands of explosive urban and suburban 
growth, and the survival of a number of species, including the Mexican 
spotted owl, southwestern willow flycatcher, and cactus pygmy owl. This 
funding is critical to preempting gridlock that will benefit neither 
the species or the economy of the region.
    The budget for the Energy and Water Development bill contains a 
request of $144 million for California Bay-Delta restoration 
activities, the full amount authorized by the California Bay-Delta 
Environmental Enhancement Act.
    Watershed restoration.--It is not a coincidence that the 
restoration projects I have discussed revolve around watersheds. Water 
connects the landscape. Rivers link upland forests and meadows to river 
valleys and lowlands. The water reveals everything, right or wrong, 
that we do within the entire watershed. The health of the headwaters 
affects the biological and economic health of communities below.
    In celebration of the 25th anniversary of the Clean Water Act, the 
Vice President is leading an effort to fulfill the Act's commitment to 
protect and restore the Nation's waters. The effort is grounded in a 
powerful new concept. Communities have begun to see that their river is 
not just a little slice of reality at the end of town, but that the 
river reflects everything that happens in the entire watershed; is a 
communicator, if you will, of actions taken hundreds of miles away. 
Many of these communities have begun to recapture their history and 
heritage--and secure their economic future--through rebuilding of 
abandoned waterfronts and restoration of fisheries, whether salmon, 
shad, or striped bass. On the Stonycreek River in Pennsylvania, the 
efforts of local citizens, working with State and Federal agencies to 
address acid mine drainage, are credited with the first reported 
holdover trout fishery in the river in 80 to 90 years.
    In support of the Vice President's initiative, the 1999 budget 
contains increases in several of our bureaus. If I can generally 
characterize these increases, they involve helping local communities 
and watershed councils to find solutions to watershed restoration.
    Specific program increases totaling $16.5 million in USGS will 
focus on enhancing the understanding and data available to Federal 
agencies, States, Tribes, local governments and private citizens that 
will be working together to improve watershed conditions throughout the 
Nation. Improved availability of landscape information coupled with 
hydrologic and biological data are critical to the success of a 
watershed-based approach of water restoration. Among other projects, 
USGS will develop new data handling and serving capabilities including 
the use of geographic information systems for decision support; 
evaluate the impacts of pollution sources and non-point pollution 
management practices in critical watersheds; provide information to 
assist remediation of acid mine drainage; conduct research on hypoxia 
in the Gulf of Mexico and pfiesteria in the Chesapeake Bay; and 
encourage research oriented toward restoring aquatic system health in 
degraded watersheds through competitive grants to Water Resources 
Research Institutes. The National Water Quality Program will begin work 
in two new study units and USGS will conduct cooperative research for 
the Bureau of Reclamation, NPS, BLM and other Federal agencies.
    In BLM, OSM and the Fish and Wildlife Service, we are requesting 
new funding for partnerships and restoration projects. A proposed 
increase of $16 million in BLM includes funding for cleanup of drainage 
from abandoned hardrock mine sites in partnership with Colorado, 
Montana and other western States and additional funding for riparian 
restoration projects throughout the West. For OSM, we propose to 
increase the very successful Clean Streams initiative to $7 million. At 
this level, OSM will provide seed money for approximately 23 more 
partnerships to clean up rivers and streams polluted by contaminated 
runoff from abandoned coal mines. OSM will also use a small amount of 
funding to transfer the lessons that it has learned in the East to 
hardrock acid mine drainage projects in the West. The Fish and Wildlife 
Service will implement additional voluntary watershed health projects 
with private landowners with a $2.5 million increase in the Partners 
for Fish and Wildlife Program and a $3 million increase in the North 
American Wetlands Conservation Fund.
    Fisheries restoration.--A key to the puzzle in many watersheds is 
private hydro-power dams built in an era when the native fish supply 
was assumed to be indestructible. Over the next 15 years, one quarter 
of the private hydro-power dams in America will come up for Federal 
relicensing. This presents an unparalleled opportunity for communities 
to work with industry to develop innovative solutions to fish passage. 
A model for these efforts is the Menominee River, which forms the 
border of Wisconsin and Michigan's Upper Peninsula north of Lake 
Michigan. For decades the river and its tributaries have generated 
electricity through more than 13 dams, but those same dams have 
disrupted fish migration and spawning runs, degrading the river 
experience for white water enthusiasts and fishermen alike. The people 
of Florence and Marinette Counties in Wisconsin and Iron, Dickinson and 
Menominee Counties in Michigan saw that the strength of their river was 
more than the sum of its kilowatt hours. It could draw boaters and 
anglers to broaden and stabilize the tax base. As the deadline for 
relicensing the dams approached, citizens and elected officials came 
together with industry to hammer out a landmark plan to balance 
watershed values of a wilder, more natural river with continued 
electric power generation.
    The Fish and Wildlife Service has a critical, supportive role in 
these locally based efforts. On the Menominee, the Service showed how 
and where the most cost-effective fish barriers could be installed, 
protecting not only bass and northern pike, but the hydro projects 
themselves. For 1999, we propose modest, but important, increases 
totaling $2 million for the Service to hire additional biologists and 
hydrological engineers and to demonstrate fish passage restoration 
techniques.
    Endangered Species Act.--Just as we have learned better ways to 
work with natural systems, we have also learned better ways to work 
with the Endangered Species Act. Five years ago, there was a national 
perception that the Act was broken. There was a complete impasse in the 
old growth forests of the Northwest, an impending crisis threatening to 
shut down home-building in southern California, and another timber 
industry standoff looming in the longleaf pine forests of the South.
    We dusted off the Act and found that it contains much flexibility 
and potential for innovation. For five years, we have been out on the 
landscape, working with States, Tribes, communities and private 
landowners. Habitat conservation plans covering approximately 7.3 
million acres have been put in place or are under development. We have 
developed the ``No Surprises'' policy and have negotiated ``Safe 
Harbor'' agreements with private landowners to encourage them to 
enhance or improve habitat by providing assurances that their voluntary 
conservation actions will not result in imposition of additional 
restrictions.
    We have found that these tools can both protect species and permit 
sound economic development. Why? Because they provide: incentives for 
landowners to protect and even attract rare native species on their 
property; certainty for businesses to move ahead; and ways to restore 
rare and declining species in time to keep them off the endangered 
list.
    I hope that 1998 will see enactment of ESA reauthorization that 
builds on the lessons that we have learned. For 1999, the President 
proposes a $39 million ESA increase to expand our use of these tools to 
more effectively and efficiently implement the ESA and to position the 
FWS to comply with a reauthorized ESA, should that happen.
    Among other things, the increased funding will be used to implement 
additional candidate conservation agreements to protect 80 species and 
keep 20 species from being listed; to implement more than 100 
additional Habitat Conservation Plans; enter into 100 to 150 safe 
harbor agreements; and implement an additional 75 recovery plans. Even 
in the absence of reauthorization, we will need to do these things, as 
well as to address a growing consultation workload; consider up to 30 
additional species reclassifications or delisting actions; and provide 
support to the Interior Columbia Basin Ecosystem Management Plan, the 
Southwest Ecosystem initiative; consultation efforts with Indian 
tribes; and conservation of threatened and endangered species in the 
Platte River basin.
    Science.--The initiatives that I have discussed today all have 
science as an integral component, as do many other aspects of the 
ongoing operations of the land management agencies. Whether it is 
improving our knowledge of the hydrology of the Everglades or 
developing a scientific understanding of the biological, chemical, 
physical and historical factors leading to avian and fish mortality in 
the Salton Sea, the work of the U.S. Geological Survey is critical to 
sound resource management decisions.
    The 1999 request for USGS includes a net increase of $49 million 
over 1998. The request includes the increases supporting the Clean 
Water initiative that I mentioned earlier, as well as an additional $7 
million for greater public access to water quality information, $11 
million for species and habitat research and $2.5 million to expand the 
EROS Data Center's archiving capacity. I am pleased to report that 
these increases reflect improved orientation of USGS to the research 
and data needs of land managing agencies, as well as of other Federal, 
state and local agencies and the public, and expanded synergy between 
the biological and earth sciences in the ``new'' USGS.
    One increase that I want to discuss specifically is a $15 million 
request in our budget to implement a Disaster Information Network. The 
USGS is the national leader in both managing and disseminating spatial 
data and earth-science information and in monitoring natural hazards 
such as earthquakes, volcanic eruptions, landslides, and coastal 
erosion. This new network will be built on existing resources by a 
multi-agency Integrated Program Office hosted by USGS. The network will 
ensure that the timely, reliable information is available to a wide 
range of users so that losses due to natural disasters can be 
minimized. The network will take full advantage of new communications 
technologies and the rapidly growing capabilities of the information 
superhighway to help communities become more resilient to natural 
disasters.
    Safe visits.--The Department manages an extensive infrastructure in 
parks and refuges and on public lands and Indian reservations. Many of 
our facilities are over 100 years old; some were built by the Civilian 
Conservation Corps in the 1930's; and some were erected in the 1950's 
and 1960's as part of the Mission 66 program. As use and visitation 
increases, these aging facilities present serious rehabilitation and 
repair needs.
    To meet these needs, the 1999 budget proposes the first year of a 
five-year program to address critical health and safety needs in 
maintenance and construction, as well as needs for ongoing natural and 
cultural resource protection. This funding will help ensure safe visits 
for visitors to parks, refuges and public lands. It will also make sure 
that the 45,000 employees who work daily in NPS, BLM, FWS and BIA 
facilities have safe work environments and that the 53,000 students who 
attend BIA schools have safe school environments.
    The 1999 budgets for maintenance and construction will total $849 
million, which represents a net increase of $68 million over the 1998 
enacted level. For maintenance programs, it represents an increase of 
$82 million, or 18 percent, over 1998 to tackle the most pressing 
deferred maintenance needs. For construction there will be a decrease 
of $14 million to better focus efforts during the first year of the 
five year program. Construction funding will increase in the outyears. 
Over five years, we will propose maintenance and construction increases 
that will total $700 million over a straight-lined 1998 base. These 
amounts will be supplemented by fee revenues. Under the current Fee 
Demonstration program, NPS will be able to keep $136 million in fee 
receipts in 1999. The budget proposes to build on this success by 
permanently authorizing a new fee program. The budget also proposes 
park concessions reform legislation that will allow NPS to enhance 
performance and use franchise fee receipts for park improvements.
    As the first step of the five year program, we have developed 
uniform criteria and prioritized lists of critical health and safety 
and resource projects for 1999. Our goal is to fund the projects posing 
the greatest risks to the public and employees.
    As the next step, the Department will begin to develop a five-year 
plan to meet maintenance and resource needs to be used to formulate the 
2000 budget request. Using agreed upon definitions, we will better 
identify and categorize our deferred maintenance needs and begin to 
schedule and fund the highest priority needs. We will also be looking 
at the appropriate funding levels for routine and cyclic maintenance to 
ensure that the inventory of deferred maintenance does not continue to 
grow.
    Law enforcement in Indian country.--The 1999 budget for the Bureau 
of Indian Affairs is $1.84 billion, an increase of $142 million above 
the 1998 enacted level. Included within the increase are funds to pay 
the costs of increasing school enrollment, to replace three schools, 
and to support various self-determination programs. Of great importance 
is a $25 million increase to strengthen core law enforcement functions 
in Indian country by increasing the number of uniformed police officers 
and criminal investigators and by strengthening basic detention center 
services. This initiative responds to the current public safety crisis 
in Indian country. Crime rates on Indian lands have increased 
significantly, hindering the efforts of Tribes to establish stability 
in their communities. The homicide rates on some reservations have 
equaled or surpassed levels in many large cities. To respond, Indian 
communities have only 1.3 police officers per 1,000 citizens, compared 
with an average of 2.9 per 1,000 in non-Indian areas with similar 
population density. Many Tribes lack adequate funding to provide a 
basic level of security in their communities, such as 24 hour police 
coverage.
    The law enforcement increase for BIA is part of a larger effort 
that will provide $182 million in new and redirected Federal funds to 
support Indian country law enforcement, a 100 percent increase over 
1998. To encourage clear communication and continuity between the 
Federal government and Tribes, BIA will maintain primary responsibility 
for law enforcement, with important technical assistance and support 
from the Department of Justice. The Justice budget proposes an increase 
of $51 million for additional FBI agents and assistant U.S. Attorneys, 
as well as for several targeted programs on reservations, such as drug 
testing and treatment, juvenile justice, and assistance to tribal 
courts. Justice also proposes to direct $52 million in correctional 
grant funding for detention center construction in Indian country and 
dedicate over $54 million for Community Oriented Policing Services on 
reservations.
    Trust programs.--The request for the Office of the Special Trustee 
is $42.0 million, a $8.1 million increase over 1998. The request 
supports the implementation of portions of the Special Trustee's 
Strategic Plan that focus on improving the performance of our current 
responsibilities: acquisition of trust systems, records clean-up, and 
elimination of trust asset processing backlogs. I'm pleased to report, 
that significant progress in these areas has occurred over the past 
year. A comprehensive high-level implementation plan for the Trust 
Management Improvement Project is being finalized and several sub 
projects are well underway. In January 1998, OST commenced an 18 month 
individual Indian money account data clean up contract and this month 
will award a contract for a commercial off-the-shelf trust fund 
accounting system.
    In BIA, the budget includes an increase of $5 million to address 
probate and land records processing backlogs. The budget also proposes 
$10 million for BIA to initiate a pilot program on one or more 
reservations to consolidate fractional interests in allotted land. It 
is not uncommon for as many as 100 to 300 individuals to hold undivided 
interests in a single allotment. This fractionation taxes the ability 
of the Government to administer and maintain records and accounts. It 
also makes it increasingly difficult for Indian owners to put their 
lands to productive use.
    On the authorizing side, the budget assumes enactment of the 
Administration's tribal trust fund settlement process legislative 
proposal, which is expected to be submitted to the Congress this month. 
The proposed legislation is the culmination of a five-year, $21 million 
effort to reconcile tribal trust fund accounts. The legislation will 
lay out a process designed to acknowledge and respect tribal 
sovereignty by using alternative dispute resolution mechanisms.
    MMS.--The resurgence in Gulf of Mexico leasing activity that we 
reported in the 1998 budget will continue into 1999. There have been 
four record-breaking lease sales in the Gulf over the past year and a 
half and a sustained level of exploration and development activity. 
Industry's interest and investment in the Gulf are spurred by dramatic 
advances in technology; the discovery of extremely prolific reservoirs; 
reductions in exploration and development costs; and the economic 
incentives provided by the Deep Water Royalty Relief Act.
    In response to this resurgence, we have requested a 1998 
supplemental appropriation of $6.7 million and an annualized increase 
of $7.5 million for 1999. I am pleased and gratified that the 
Subcommittee chose to include the $6.7 million in the supplemental bill 
that passed the Senate last week. These increases will put MMS on firm 
footing to effectively perform its regulatory responsibilities to 
ensure continued safe and environmentally sound development of the OCS. 
This investment, which will be fully offset by increased offsetting 
receipts, is modest compared to the return it will generate. OCS 
bonuses, rents and royalties constitute the largest category of the $7 
billion in receipts (equivalent to 90 percent of the Department's 
budget) that the Department collects.
    The Millennium Fund.--The initiatives that I have discussed all 
respond to immediate 1999 needs, but also position the Department to 
meet the challenges of the 21st Century. One proposal in the budget is 
explicitly a proposal for the 21st Century. The legacy of defining 
moments in American history is literally fading away in deteriorating 
archives, crumbling monuments, and moldering leather. The celebration 
of the turn of the century is an opportunity to showcase the 
preservation of America's history and culture for ourselves and for the 
world. To seize this opportunity, the budget proposes a $50 million 
grant fund to preserve the fabric of America's heritage, ensuring that 
the citizens of the 21st Century have the same opportunity that we have 
had to observe and enjoy the Star Spangled Banner, objects gathered by 
the Lewis and Clark expedition, and instruments in the laboratory of 
Thomas Edison.
    Using the existing legal framework of the National Historic 
Preservation Act, $25 million is proposed to be distributed to States, 
Tribes and territories. With the exception of grants to Tribes, this 
amount will be matched on a 60/40 basis by non-Federal funding. The 
remaining $25 million is proposed to be made available to Federal 
agencies for the preservation of artifacts of national scope and 
significance.
    Conclusion.--I believe that the 1999 budget for the Department of 
the Interior addresses the challenges that we will face in our 150th 
year. I look forward to working with you on these challenges and on the 
challenges we will face in the 21st Century.
    This concludes my statement. I will be happy to answer any 
questions you may have.

                       fee demonstration project

    Senator Gorton. I probably have about 2 hours worth of 
questions, Mr. Secretary. You will get maybe 10 minutes of them 
before I have to leave for the Commerce Committee markup, 
because I do want others to--I will go then to Senator Byrd and 
whichever is the last Senator here can adjourn the meeting, if 
he will. And every member, whether present or not, will be 
authorized to submit written questions.
    I would like you to give me a brief briefing on what I hope 
has been one of the real success stories, and that is the fee 
demonstration project. How much money are you bringing in? What 
is it being used for? And when are we going to get an 
administration recommendation as to how to make it permanent?
    Secretary Babbitt. Senator, I think this program has been 
an outstanding success, visibly in the Park Service, but in the 
other land management agencies, as well. I believe, in this 
fiscal year, the Park Service anticipates collecting, net of 
collection costs, close to $132 million. I actually thought it 
was closer to $300 million. Well, my trusted source says $140 
million.
    Now, virtually all of that money is going back into this 
issue of repair and maintenance and upkeep. And I think it is 
making a very significant difference that you can actually see. 
We have said to park superintendents: We want you to do what 
some States do with their highway money. For every dollar they 
spend, there is a billboard on the site, saying: Courtesy of 
your elected representatives and the wisdom of your political 
leaders, this money is now moving out. We want to advertise the 
success. And I think we are doing it.
    Now, when do we submit a bill?
    I think it has been the view of OMB that that should be a 
fiscal year 1999 project. That is a judgment call. I guess I 
would rather have a bird in the hand. But, in any event, no 
later than January we will have a draft legislative proposal 
for you.
    Senator Gorton. Thank you.

                columbia basin ecosystem management plan

    You mentioned in your opening statement the frustrations in 
the Columbia basin ecosystem management plan as against some of 
the things that you are doing elsewhere. Personally, I think, 
from my contacts with my own constituents, that a large part of 
that lack of success is that both the people who live in the 
Basin and Congress were assured that this large-scale planning 
would result in a prompt determination of final land management 
decisions. So far, what it has done is to add a huge amount of 
interagency consolidation in a bureaucratic process that seems 
to be in addition to a cumbersome local planning process.
    Once the consultation process is completed in the Columbia 
basin study, is there any assurance that the subsequent 
consultation at the local level will be eliminated or 
substantially reduced?
    Secretary Babbitt. I understand that that question is not 
exactly unsubstantiated by some of the stuff that has gone on. 
But there are two things, I think. The first is, at the point 
that a plan is signed off, it then needs to be wrapped into the 
74 separate land management plans. Now, we have had a lot of 
discussion about that, and I believe that can be done quickly 
and that it should obviate the need for a lot of flow-down 
decisionmaking.
    The other issue that people are worried about is 
consultation under the Endangered Species Act, which often 
turns out, at least in the eyes of many, to be the problem. In 
the forest plan, I think we have really spiked that problem. We 
now have consultations on timber sales coming out routinely in 
less than 60 days. And I think we can do that under this plan.

                                presidio

    Senator Gorton. Just one more from me. Now that we have a 
Presidio Trust, why is the amount of money you are asking to 
spend going up rather than down?
    Secretary Babbitt. Senator, the extra $25 million is in the 
form of a request from the Presidio Trust for the equivalent of 
bonding authority, to be exercised through the Treasury to 
begin the rehab and repair of a lot of those buildings that 
they believe there is a rental market for. That is the bottom 
line. They say they want to issue bonds so we can amortize them 
with rental proceeds. That is the entire increase.
    Senator Gorton. What will the likely request be for next 
year, then, in the next budget cycle? Will it go down?
    Secretary Babbitt. Only the Presidio Trust can answer that 
question, Senator. I remind you that this is now an independent 
body, which does not take lightly excessive intermeddling from 
the Secretary of the Interior. But I believe that the answer is 
yes, that it should go back down. This is a one-shot bonding 
authority request.
    Senator Gorton. Mr. Secretary. I apologize again for the 
almost inevitable conflict, in this case with the tobacco 
markup. Senator Byrd is next, and then Senator Bumpers, who has 
just come. Let me tell you, Senator Bumpers, I have to go and 
Senator Stevens has already had to leave for the tobacco 
markup. So the questions will simply follow in order of the 
last Senator here and adjourn the hearing with the Secretary. 
And each Senator, of course, will have the right to submit 
questions in writing in addition to those that he or she has 
asked in person.
    And with that, thank you very much.
    Senator Byrd, it is your turn.
    Senator Byrd. Thank you, Mr. Chairman.

                               corridor h

    Mr. Secretary, pursuant to the Historic Preservation Act, 
the National Park Service has responsibility for evaluating the 
potential impact of Federal highway projects on historic 
sources. As you may know, efforts to construct and complete 
corridor H in my State of West Virginia have been subjected to 
litigation and delay ad nauseam by opponents of this highway.
    My support for corridor H is no secret. I have also been 
steadfast in my desire to see that appropriate procedures are 
followed in a timely manner. Specifically, I am concerned that 
opponents of this project--and there is a small group, highly 
vocal opponents, most of which I suppose are West Virginians, 
some of whom are from out of State and some who have just 
recently come to West Virginia possibly--I am concerned that 
the opponents of the project may be causing undue delay through 
repeated requests for extensions of comment and review periods 
by the keeper of the National Register.
    I wrote to you on November 25 of last year and again on 
March 1 of this year regarding these concerns. I have not yet 
received a response to my March 1 letter. I have been very 
careful not to question the substance of the issues involved, 
but rather to raise concerns regarding the time and the delays 
that have plagued this process.
    What can you tell me about these review periods and the 
extensions thereto, Mr. Secretary?
    Secretary Babbitt. Senator, like you, I have been 
exceedingly careful not to voice or even intimate an opinion on 
the merits. As you know, I have been burdened with a special 
counsel over entirely false allegations that I intervened in a 
regulatory decision. And so I too am quite sensitive about 
this.
    The time periods for decision are an appropriate issue of 
inquiry. And I have in my hands a draft letter, with a 
handwritten note on it from my staff, saying: ``To be signed 
today.'' I suspect that note may or may not have been written. 
But, at any rate, it is now to be signed today, and says as 
follows:

    We expect the information, the documentation, from the 
Federal Highway Administration early in April. Now, that is No. 
1. We have got to get the material from them. Perhaps they will 
get wind of this hearing and what I take to be your strong 
desire that they submit this promptly.

    After that, I will lean on the keeper and make certain that 
a decision is made within 45 days from the date of submission 
from the Federal Highway Administration.
    Senator Byrd. Well, I thank you, Mr. Secretary. You have 
always been very responsive to our needs and our requests.
    To date, the National Park Service has not kept to its own 
deadlines in responding to requests from State officials. Can I 
be assured that the Department and the National Park Service 
will complete their work expeditiously, within the timeframes 
that the National Park Service itself established?
    Secretary Babbitt. Senator, this is with respect to many 
projects, a particular project?
    Senator Byrd. I am talking about this particular project.
    Secretary Babbitt. Oh, this particular one. Yes; the answer 
is ``yes.''
    Senator Byrd. The submissions by the State in April, can we 
be sure that the review will be within the 45-day period?
    Secretary Babbitt. I vow to you that you will have a 
response in the form of a decision within that timeframe.

              role of state historic preservation officer

    Senator Byrd. Another concern that has surfaced in West 
Virginia is that the professional judgment and considerations 
of the State Historic Preservation Office are not being fairly 
treated and reviewed by the keeper of the National Register. 
What is the role of the State Historic Preservation Officer and 
the keeper in reviewing the impact that a project will have on 
cultural resources, listed or eligible, to the National 
Register of Historic Places?
    Secretary Babbitt. Senator, I would have to answer 
specifically in writing after looking at the statute. But I 
believe, generally, the question is, does the keeper decide 
based upon the recommendation or does the keeper concur? I 
believe it is the former. I believe the keeper actually has 
jurisdiction to make a de novo decision after considering the 
recommendation of the State Officer. But I would like to 
confirm that in writing.
    Senator Byrd. Very well.
    [The information follows:]

The National Register of Historic Places--Determinations of Eligibility

    National Park Service regulations (36 C.F.R. 63) assign the 
Keeper of the National Register responsibility for determining 
whether properties that may be affected by Federal or federally 
assisted projects meet the National Register Criteria for 
Evaluation. If properties listed in the National Register or 
found eligible for listing are to be affected, the Advisory 
Council on Historic Preservation must be given an opportunity 
to comment on the project.
    Paragraph 2 of the regulations specifies that ``The 
Department of the Interior will respond within 45 days of 
receipt of a documented request for a determination of 
eligibility from a Federal agency when it is submitted in 
accordance with the following regulations and is accompanied by 
documentation that clearly portrays the nature and significance 
of the property.'' If the documentation is ``not sufficient to 
make a professional evaluation of the significance of the 
property,'' the Keeper is directed to request additional 
information. The regulations then provide that the Keeper will 
respond to the agency's request within 45 days of receipt of 
the requested documentation.
    Since 1983, the National Register has received five 
requests for determinations of eligibility, including 57 
properties in West Virginia and 2 properties in Virginia that 
might be affected by Corridor H. The Federal Highway 
Administration (FHwA) was asked to submit additional 
information on three of these requests. Corridor H 
Alternatives, an official consulting party, asked that the 
review periods for two requests be extended to enable them to 
prepare comments on FHwA's recommendations concerning 
eligibility. In view of the importance of having all possible 
relevant information before making decisions on this important 
project, the National Register staff concluded that it was 
appropriate to extend the review periods for a reasonable time. 
The additional material submitted by the FHwA and by Corridor H 
Alternatives and other members of the interested public has, in 
fact, provided important information that needed to be taken 
into account in making decisions about eligibility. In all 
cases, the National Register staff has made its determinations 
within 45 days of receiving the information necessary to permit 
informed evaluation of the properties involved.
    The National Register staff has been informed that the FHwA 
will be submitting requests for determinations of eligibility 
for a number of additional properties that may be affected by 
the Corridor H project over the next few months. The Department 
of the Interior is committed to making all decisions concerning 
determinations of eligibility as expeditiously as possible 
consistent with the National Park Service's responsibility to 
base these decisions on the most complete and accurate 
information available.

 the role of the state historic preservation officer and the keeper of 
                the national register of historic places

    The National Historic Preservation Act of 1966, as amended, 
assigns the State Historic Preservation Officer (SHPO) an 
important role in consulting with Federal agencies on their 
undertakings that may affect historic properties and on the 
content and sufficiency of any plans developed to protect and 
manage or to reduce or mitigate harm to such properties 
[Section 101(b)(3)(I)]. The Keeper of the National Register 
also asks the opinion of the SHPO concerning the eligibility of 
the properties on which Federal agencies have requested a 
determination of eligibility and gives that opinion careful 
consideration in evaluating the properties. Under the statute, 
however, the responsibility for making determinations of 
eligibility rests with the Department of the Interior. 
Department of the Interior regulations assign that 
responsibility to the Keeper of the National Register of 
Historic Places.
    In the case of properties that might be affected by 
Corridor H, the Keeper has agreed with the West Virginia State 
Historic Preservation Officer's opinions on the eligibility of 
51 of the 57 West Virginia properties for which determinations 
of eligibility were requested. All of the properties on which 
the National Register and the SHPO disagreed were related to 
the site of the Civil War Battle of Moorefield and the Old 
Fields Historic District, in the Middle South Branch Valley, in 
Hardy County. A variety of interested individuals and 
organizations, including but by no means limited to Corridor H 
Alternatives, questioned the opinions of the FHwA and the SHPO 
concerning the eligibility of these two areas and asked that 
both questions be referred to the Keeper for a final 
determination.

                   state historic preservation office

    Senator Byrd. Let me just say again that the concern that 
has surfaced in my State is that professional judgment and the 
considerations of the State Historic Preservation Office are 
not being fairly treated and reviewed by the keeper of the 
National Register. Under what circumstances would the keeper 
overrule the recommendations of the State Historic Preservation 
Officer?
    Secretary Babbitt. Senator, I think I need to go back and 
look at the statute, and I will respond. And this response will 
not take 45 days.
    Senator Byrd. All right.
    Is it your view that the keeper must take extraordinary 
steps to remain impartial and objective in these reviews?
    Secretary Babbitt. Senator, as I intimated earlier, yes. I 
mean, when this Congress passes a regulatory statute, requiring 
or authorizing decisionmaking on specific issues that are 
regulatory and quasi-judicial, I think that is important.
    Senator Byrd. Well, the perception is that, as I understand 
it, based on my conversations with my constituents, that the 
keeper is not always impartial and objective in the reviews 
that affect this particular highway. What steps can the 
Department take when there are concerns that one side or 
another may be receiving more favorable treatment?
    Secretary Babbitt. Well, I would of course be willing to 
restate to the keeper her obligation to be fair and impartial, 
and I think also to re-examine and make certain that the 
process is as transparent as possible, in terms of having 
public input and making certain that there are not any 
substantive communications going on outside of the record or 
outside of whatever public process is established.
    Senator Byrd. When you make that clear--and perhaps you 
have done so before; I do not know--when you make that clear, 
will you do that in writing?
    Secretary Babbitt. Senator, I will.
    Senator Byrd. Would you supply the subcommittee with a copy 
of your letter?
    Secretary Babbitt. Senator, I will.
    [The information follows:]

    The Keeper of the National Register of Historic Places Need for 
                              Objectivity

    The Keeper of the National Register is well aware of the 
importance of fairness and objectivity in all decisionmaking, 
including determinations of eligibility. The Keeper and other 
appropriate National Register staff members carefully review 
all available information to ensure that these decisions are 
based solely on a professional, disinterested evaluation of the 
historical significance and integrity of the properties 
involved. Secretary Babbitt has written a memorandum to the 
Keeper re-emphasizing the importance of objectivity and 
impartiality in making decisions about eligibility, as he 
committed to do in response to Senator Byrd's expression of 
concern about this matter. If questions are raised about the 
Keeper's ability to make a fair and objective decision in a 
particular case, the matter can be referred to the Department 
of the Interior Ethics Office for an opinion. A copy of this 
letter will be provided to the Committee.

                    completing the necessary review

    Senator Byrd. I cannot stress to you enough, Mr. Secretary, 
the importance of completing the necessary reviews within the 
time specified. And I think you personally feel that way about 
it. I have not seen anything to the contrary ever. The State is 
doing everything that it can to be cooperative in responding to 
repeated requests for more and more information. The least that 
the Department can do is to respond to these requests in a 
timely manner.
    Now, Mr. Secretary, I will look forward to receiving a copy 
of that letter. And I, again, thank you.

                     reductions in heritage efforts

    I understand your commitment to providing resources for 
important administrative initiatives. I am troubled by some 
reductions in the budget which appear to be targeted at 
congressional priorities. In my State of West Virginia, for 
example, the National Park Service budget eliminated funding 
for ongoing support of heritage efforts in Wheeling. And 
comparable efforts in Alaska, Pennsylvania, and Washington are 
also targeted for elimination.
    With all of the increased funding proposed in the budget, I 
wish that the Department could have found a way, at a minimum, 
to continue these ongoing programs. Last year's funds were not 
for one-time activities in Wheeling. The city and its partners 
have been working cooperatively with the National Park Service, 
consistent with the plan jointly developed several years ago. I 
have been very supportive of this initiative, and I remain so 
committed. I intend to work closely with Senator Gorton to 
ensure that there is no disruption to the ongoing program in 
Wheeling, and that funds are restored, if not enhanced.
    Mr. Secretary, I, like others, have some other commitments. 
But I want to thank you again for your appearance here and for 
your cooperation. I have always found it to be excellent, and I 
am proud to say so publicly. I was glad to see you up at the 
dedication last fall of the training center at Terrapin Neck. I 
hear many good things about that national conservation training 
center. And it is truly a spectacular facility, and one for 
which I believe all in the Service and in the Department can be 
proud.
    I may have a few additional questions which I will submit 
for the record.
    Secretary Babbitt. Senator, I would just like you to know 
that with respect to that training center, I canceled out of a 
trip to Argentina with the President in order to honor your 
request to be there. [Laughter.]
    Let me just say it was the right decision. [Laughter.]
    Senator Byrd. Thank you very much, Mr. Secretary.
    Senator Campbell [presiding]. Mr. Secretary, I believe it 
is my turn. I will not ask you a bunch of questions because I 
have to run, too. But let me thank you on the record for your 
involvement last year in what we call the Rim Rock Run in 
Colorado. It was a marathon run through Colorado National 
Monument. And with your personal input, that run was a very big 
success.
    It is my understanding that the Park Service is now very 
close to a suitable compromise between protecting the integrity 
of the Park and allowing the organizers to have another one. 
And I am looking forward to them doing it. They have worked all 
year on it--both sides have. And so I just wanted to thank you 
for that.

                        sand creek massacre site

    And also I would ask you if you would look, when you have 
time, at S. 1695, a bill I just introduced, that would allow 
the Park Service to purchase a small area in Colorado that is 
called the Sand Creek Massacre Site. The problem with it is we 
do not know exactly the location of the site. We know very 
closely where it is. But for about 3 years, the State of 
Colorado Historical Society has been researching that area. 
They do not have the expertise, equipment, or the kinds of 
things they need to actually measure some of the underground 
contents, you know, being able to find shell casings and so on.
    And when we did a hearing on this about a week ago, Ms. 
Katherine Stevenson, she did testify on the part of the Park 
Service, and called it an extremely worthy project. And we are 
hoping that maybe the National Park Service will be able to 
help the State of Colorado define exactly where that is before 
we actually move forward with that purchase. So if you would 
kind of look at that bill, I would appreciate it.
    Secretary Babbitt. I would be happy to do so.

                       presidio buildings status

    Senator Campbell. And just let me also say that, since 
Senator Gorton mentioned the Presidio, that I was the chairman 
of the Park subcommittee a couple of years ago, and I 
understand the request for some money. Over half those 
buildings qualify on the National Historic Registry, as you 
know. Some of them are in pretty bad disrepair. And I know that 
without some money going there, they will just have to be torn 
down. In order to get them rentable, we have to fix them up. So 
I do understand that request.
    And I thank you for your appearance today.
    Secretary Babbitt. Thank you, Senator.
    Senator Bumpers. I am sorry, were you here when I came in?
    Senator Bennett [presiding]. I was. And I would normally 
yield without any problem except I have to chair another 
subcommittee in about 5 minutes. So if I may, Senator, I would 
appreciate it.
    Mr. Secretary, two quick things. In my opening comment, I 
gave you an invitation to come to Utah and visit the San 
Raphael Swell this weekend. And that stands. If it is 
impossible for you to rearrange your schedule that quickly, I 
would be happy to find a time, sometime in May, where you and I 
could go visit that, where Pat Shea is going to visit.
    I think this represents the best opportunity for resolution 
of Utah wilderness issues. The approach of the Emory County 
group, working in the San Raphael Swell, seems to have the 
approval of just about everybody reasonable on every side of 
this issue. And if you could come with Pat Shea on Saturday, as 
I say, I will rearrange my schedule and be there. If you cannot 
make it on Saturday, let us see if we can find a time where we 
can jointly be there.
    I found, when the two of us show up together, things 
usually are a little better than if one or the other of us is 
standing there.
    Secretary Babbitt. Well, people are always surprised, are 
they not?
    Senator Bennett. Yes. Yes.
    Secretary Babbitt. Senator, if I can just respond to your 
invitation.
    Senator Bennett. Yes.
    Secretary Babbitt. I cannot go on Saturday. And one reason 
is because I am going to be in Utah tomorrow.
    Senator Bennett. Oh, OK.
    Secretary Babbitt. But I would like very much to accept 
your invitation to go out perhaps sometime during April. I have 
accepted an invitation from Congressman Hansen to go in search 
of the Bonneville cutthroat.
    Senator Bennett. I see.
    Secretary Babbitt. And perhaps we could, back to back, on 
successive days.
    Senator Bennett. That is a fish, for those who do not know. 
[Laughter.]
    Secretary Babbitt. I have never seen the San Raphael Swell. 
And yes, I accept.
    Senator Bennett. All right, fine. We will find a date. And 
I appreciate your willingness to do that.

                              virgin river

    The other issue I would like to raise with you is a year 
ago, roughly, Assistant Secretary Bob Armstrong issued a 
decision regarding Wild and Scenic Rivers designations in 
Arizona. And much to our surprise and chagrin, because we were 
neither consulted nor notified in advance, he saw fit to 
include the tributaries of the Virgin River as part of that 
recommendation.
    This threatens the delicate balance of the Virgin River 
habitat management plan that we have been working so hard with 
your Department to hammer out. And the members of the Utah 
delegation sent a letter to you on October 22, 1997. As of 
today, we have yet to receive a response.
    Secretary Babbitt. Senator, I will look into that. Because 
I readily acknowledge that we have made a lot of progress 
together, with the State and the local communities, on the 
Virgin River. What is emerging there, we have already actually 
accomplished some of it in terms of the Zion settlement, with a 
lot more to come. And if this is viewed as destabilizing all of 
that progress, I will look at it and get back to you.
    Senator Bennett. We would appreciate it. It is 
uncharacteristic, I must say, for the record, for us not to 
receive a proper response from your Department. I have not had 
exactly that experience with the Council on Environmental 
Quality. And we have had some rather heated exchanges in this 
room on that issue.
    But your Department, even when the response has not been 
what we have wanted, has always been responsive. And so I 
wanted to call to your attention the fact that this letter from 
last October has been there, and I would appreciate a response. 
And I appreciate the spirit of your comment here, and hope we 
can work this out.
    Thank you.
    Senator Bumpers, I now have to leave, and it is all yours.
    Senator Bumpers. Thank you very much, Senator Bennett.

                  esa and money for private landowners

    Mr. Secretary, are you familiar with the so-called Chaffee-
Kempthorne-Baucus-Reid Endangered Species Act?
    Senator Bennett. Add Bennett to that list.
    Senator Bumpers. The bill would provide money for private 
landowners who are willing to take certain steps to protect 
various species. Are you familiar with that?
    Secretary Babbitt. Senator, I am.
    Senator Bumpers. Are you also familiar with the language in 
the budget resolution conference report which says that this 
program will cost $70 million a year over 5 years, so we are 
talking about $350 million?
    Secretary Babbitt. I am.
    Senator Bumpers. And I am sure you are also familiar with 
the proposal of the budget committee to pay for that by selling 
off BLM lands?
    Secretary Babbitt. Yes; I am.
    Senator Bumpers. Tell us, in 1 hour or less, how you feel 
about that. [Laughter.]
    Secretary Babbitt. I am strongly opposed. I do not believe 
that it is good policy to finance ongoing responsibilities of 
my Department by a sale of Federal assets.
    Now, in addition to that, I think the proposal, even were 
it to be conceptually acceptable, is totally unrealistic. And 
why is that? Because this idea that there are a lot of excess 
BLM lands out there that can be auctioned off is not a 
realistic view of the BLM land base. BLM, in its land use 
plans, identifies surplus lands. And there is in fact a list of 
them. And they are potentially available for consolidation or 
other purposes.
    What kind of lands are they? They are bits and pieces, here 
and there, from land conveyance policies of the past. They tend 
to be rangelands--a bunch of them on our family's ranch. And I 
will tell you how my family feels about that. They feel the way 
that most ranchers in Arizona do. And that is, they do not have 
the slightest interest in purchasing lands that they now get 
discount grazing deals on and pay no taxes on. Why in the world 
would they want to purchase them and start paying taxes on it?
    There is no market for the land that people usually think 
of as being surplus. The only way to dispose of them in most 
cases is through land consolidation, where you arrange mutually 
beneficial land exchanges. And in fact, there are ongoing 
programs to do that.
    Well, I guess you have by now divined where it is I stand 
on this issue.
    Senator Bumpers. Yes; well, we have an amendment pending 
right now on the budget resolution. Senator Reid and I have a 
minor disagreement. He has an amendment which says that the 
money for the bill, S. 1180, the so-called Endangered Species 
Act, the money would come from dedicated revenues.
    And I had understood you were looking for some source. I am 
not sure I am so hot on that. It just seems to me like a $1.7 
trillion budget, we ought to be able to find that money 
somewhere to pay for that.
    The other point I want to make for the record, and for any 
comment you might have, is I think James Watt, who wanted to 
selloff everything, from the Nation's Capitol down to the 
rangelands of the West, prepared some BLM lands for sale with 
the consent of the Congress. And it turned out it was a loser. 
It cost more to prepare the sale and advertise and so on than 
the land actually brought. I am not sure what the prices were, 
but they get less for the land than it cost to prepare for the 
sale.
    But as you say, most of these lands are under grazing 
permits--why would anybody buy land that they already have and 
are not paying taxes on and so on?
    One other point. This afternoon, the Energy Committee is 
holding a hearing on a very extensive bill by Senator Craig 
Thomas. And that bill changes rather dramatically a lot of 
national parks and the way they operate.

                           concessions reform

    Now, as you know, I have been discussing trying to reform 
the concession laws in the national parks for 16 years. And 
Senator Bennett, when he came to the Senate, became an ally of 
mine on that. And I remember one day in the Energy Committee, 
he lectured the Republicans, who were taking strong opposition 
to my position on it. And he said, you know, we are 
Republicans, we are supposed to believe in competition and the 
free enterprise system. What is this first right of refusal and 
all this stuff?
    And we passed the bill. After his lecture, we passed the 
bill out of the committee. And it passed the Senate 90 to 9, 
and promptly died in the House. That is as close as I have ever 
come to getting a major reform in the park concessions.
    But, in any event, there is also a provision in the bill--
and we are going to have four or five hearings on it, because 
it is a very comprehensive bill--but there is a provision in 
the bill where increased revenues--you remember we raised park 
fees--and there is a provision in this that we take some of the 
increase of the park fees to put into some sort of a ranger 
training program.
    Now, I am not opposed to training park rangers. But it was 
the absolute understanding of the Members of Congress that 
those fees were being raised to do maintenance work in the 
parks--a lot of maintenance work that, you and I both know, 
probably runs into the billions, that needs to be done. And I 
am going to try to attend a part of that hearing this afternoon 
and take exception to that. Though I do want to compliment 
Senator Thomas for at least coming up with a parks concession 
proposal. And he and Senator Bennett and I are going to sit 
down very shortly and try to work something out.
    I would like to leave some legacy here, after 16 years of 
effort, of doing something on parks concessions. I do not know 
whether I will succeed or not.
    Secretary Babbitt. Senator, if I may, just a word on the 
concessions issue. I am in a very cautious mood about 
concessions reforms, because most of the proposals that are 
floated I think are, in many ways, worse than the present 
situation. In the meantime, the Park Service has made 
considerable progress in getting a return on concessions into 
the support of the park system. Basically, that began with 
Secretary Lujan, in the Yosemite concession.
    So I think we are skeptical, or at least in a kind of a 
Missouri frame of mind, about proposals.
    Senator Bumpers. Mr. Secretary, let me interrupt you at 
that point. I recognize that revenues have been going up for 
the Park Service. I think maybe $50 million last year. But a 
big portion of that was because of one contract that was let 
competitively. And that was Yosemite. Thirty-five percent of 
your revenues are coming from Yosemite.
    And my other point is we have narrowed this down to three 
propositions. No. 1, right of first refusal, or first right of 
refusal. That is an anachronism in this day and time. No. 2, 
possessory interest. These things are not well known to other 
Senators who do not deal with this issue, but possessory 
interest is crazy. And those are two of the things. And of 
course the exemption. And we are talking about exempting 
roughly all but maybe--I forget how many--but if you exempt 
everybody that has revenues of $1 million or less, you wipe out 
most everybody except some of the bigger parks. And we have 
agreed to do that. I mean we have already reached an agreement 
on that.
    But possessory interest first right of refusal, as far as I 
am concerned, those are anachronisms from the dark ages.
    Secretary Babbitt. Senator, I agree with all of that. We 
can address those issues, to some degree, through 
administrative reform. There is no legal requirement for right 
of first refusal. We can do competitive bidding. Competitive 
bidding is chilled, if not frozen, by the concessionaire's 
possession of a large possessory interest. We are doing 
possessory interest buy-downs in our new concession contracts.
    Legislation would be helpful, but not the wrong 
legislation. Now, for example, the proposal that the hearings 
are being structured on privatizing the management of Park 
Service concessions.
    Senator Bumpers. Well, now, you and I are in agreement on 
that. And that is the sticking point between Senator Thomas and 
me. And I hope we can work something out.
    Secretary Babbitt. OK. Well, it would be unacceptable to 
the Park Service, and I think it is a bad idea.
    Senator Bumpers. Well, I have taken up too much time. I 
have a couple of other questions. I may submit a couple of 
questions in writing.
    Senator Cochran, if you are the last, you get to adjourn 
the hearing.
    Senator Cochran [presiding]. Thank you.
    Mr. Secretary, thank you very much for your cooperation 
with our committee. I have enjoyed very much having the 
opportunity, as a member of this appropriations committee, to 
work on solving a lot of problems in our part of the country 
that come under the jurisdiction of the Department of the 
Interior. And as you know, we both serve on the Migratory Bird 
Conservation Commission, and we have worked to try to help make 
the national wildlife refuge system an important and an 
enlarged part of our conservation resource effort.

                           yazoo complex nwr

    We have one part of the refuge system in Mississippi that 
needs some attention right now because of a fire that occurred, 
and destroyed one of the multiuse buildings at the refuge 
headquarters. It is at the Yazoo complex, which is the largest 
national wildlife refuge in Mississippi, comprising over 70,000 
acres in five different units.
    I bring this up because this is an event that occurred just 
recently. And I am not sure, and the local managers are not 
sure, about access to funds that would permit them to rebuild 
that multiuse building a that refuge. I raise it in hopes that 
you will support providing funds in our appropriations bill to 
take care of that. It probably should have been put in the 
supplemental. But everybody says the supplemental is being used 
for all manner of things that are not emergencies. And so we 
decided to wait and submit that. We hope we can have the 
support of your office to get that appropriation approved.
    Secretary Babbitt. Senator, I would be happy to have a look 
at that. It seems to me that replacement falls in a high 
priority category, no matter how you stack it up. In any event, 
I will respond in writing to you.
    Senator Cochran. Thank you very much.
    [The information follows:]

           Fire Damage at the Yazoo National Wildlife Refuge

    On March 6, 1998, a fire destroyed the multi-use shop 
building at Yazoo Refuge Complex in Mississippi. The refuge's 
mechanical and wood working shops, tools, and other equipment 
stored in the building need to be replaced. The estimated cost 
is $621,000.
    The fiscal year 1998 Supplemental Appropriations and 
Rescissions Act (Public Law 105-174), signed by President 
Clinton on May 1, 1998, provides the $621,000 for building and 
equipment replacement.

                         natchez trace parkway

    Senator Cochran. One other point I wanted to make this 
morning, and one of the reasons I came over, was to remind the 
committee and also the Department of the importance in our 
State of completing the Natchez Trace Parkway. I have been in 
Congress long enough to see a lot of new and ambitious 
undertakings by the Department of the Interior and the National 
Park Service to the detriment of some of the older and earlier 
authorized projects. The Natchez Trace Parkway was authorized 
for construction in 1937, the year I was born. And it is not 
yet complete.
    When it was authorized, the States of Mississippi, Alabama, 
and Tennessee all agreed that the States would acquire the 
right-of-way along the trail that was then the Natchez Trace 
Trail that traverses the area from Natchez, MS, to Nashville, 
TN. And in exchange for the States going to the expense of 
obtaining right-of-way and then deeding that to the Federal 
Government, the Federal Government and the National Park 
Service would construct a roadway along this historic trail.
    You know as well as anyone what an interesting historical 
area this is. Meriwether Lewis died on the parkway. As a matter 
of fact, I was talking with officials just recently about 
trying to have some kind of appropriate historical exhibit 
there at that place, and to try to work to do that. That part 
of the parkway is across the line, over into Tennessee.
    All of the parkway is completed now in Tennessee and in 
Alabama. Some of the most expensive appropriations were 
required in that area, because of the terrain and the bridges 
that had to be constructed. But it is also arguably some of the 
most scenic because of that terrain.
    But there is very little that needs to be done now. But we 
see such small, little increments of funds being made available 
that it just keeps remaining the same--the costs continue to be 
the same or even get higher, even though each year we add a 
little more to it. With those funds, we make a little more 
progress.
    But now it is getting to the point where we are running 
into situations where there are maintenance requirements that 
we have got to deal with. Here is one example:
    In the metropolitan Jackson, MS, area, the Natchez Trace 
Parkway crosses over U.S. Highway 51, just north of the city 
limits in Jackson. At that time, U.S. Highway 51 was the major 
transportation corridor, north-south corridor, between Jackson, 
MS, Memphis, TN, St. Louis, on to Chicago. That was the major 
midcontinent highway. Well, that has been replaced now with an 
Interstate System; I-55 traverses parallel to U.S. Highway 51.
    But the point of my story is U.S. Highway 51 has now become 
a four-lane and, in some places, a six-lane artery for 
vehicular traffic coming into the city of Jackson from the 
suburbs that have developed in the metropolitan area north of 
the city. The problem is the Natchez Trace Parkway bridge that 
crosses over old U.S. Highway 51 still accommodates that two 
lanes of U.S. 51. So you have got all these people riding along 
on U.S. 51, and all of a sudden from six lanes, it goes to four 
lanes, and then, you are in a two-lane situation.
    You can imagine the backup of traffic into the Jackson City 
limits area, south, and then into the residential and business 
areas that lie north of that area. It is a terrible bottleneck. 
It has gotten to be somewhat of an emergency, and we must get 
the attention of the National Park Service and put this as a 
priority again, It is a dangerous situation. It contributes to 
accidents and a lot of other problems.
    We do not want to shut down the parkway there. There is no 
way to really relocate it and avoid this area. The thing to do 
is build a new bridge and have it accommodate the four-or six-
lane artery that passes underneath the bridge. But that is not 
even on the schedule. And there is no request from the 
administration or the Park Service for funds to deal with that.

                      federal highway system funds

    Now, we have the Federal highway system that has a category 
of funding that helps provide additional funds, separate and 
apart from the direct appropriations of the National Park 
Service, through the Interior subcommittees, that is available 
to us. I hope that the Department, and your office, will 
undertake to look at this situation. It is a special problem. I 
have talked with local government officials--the county and 
municipal officials in this area--and they are rather helpless 
to deal with it.
    So I hope that we can find some way to have the Federal 
officials cooperate with local and State highway and 
transportation officials to solve this problem. That is kind of 
beside the point on finishing the parkway. Here is a part that 
is already finished. It has been completed for a good while 
now; but, it is in need of some attention.
    When I look here in the bill and your statement, and hear 
about the Everglades project, which I am all for--that is a 
wonderful thing; and the California Bay environmental thing, 
which is important; and then recently we adopted here 
legislation to create this massive California desert area, 
under the jurisdiction of the Department, and funds have to go 
to that--some funds have to. All of these other things--the 
forest plan, which is important--you know, millions of dollars 
in the bill and in your statement about all these other things, 
and some of the older and earlier commitments of the Department 
of the Interior and the Federal Government are just sitting 
there without any funding and any support.
    There is no constituency anymore. See, I am the only one. I 
mean the Alabama Senators, you are not going to hear from them 
on this. The Tennessee Senators, or the Vice President, I do 
not think you are going to hear from them. But once upon a 
time, I can remember when we had a coalition of support for the 
Natchez Trace Parkway. Now we are down to just one State that 
has a need for funds, and we cannot seem to get much attention.
    We appreciate the attention we do get, though. I do not 
want to complain too loudly or we will not get anything. 
Everybody is looking around for offsets for this and that. So 
who cares about the Natchez Trace Parkway?
    Well, the people of Mississippi do, and those who come 
visit the State appreciate it. And it is a wonderful resource 
and an asset. But it is being given short shrift and the short 
end of the stick. I do not know what we do about it except talk 
about it and try to offer amendments and urge the committee to 
provide the funds to deal with the problems. That is what we 
are going to continue to do as long as we have a responsibility 
here to represent the interests of the State and the Nation in 
this committee.
    Could you give us some assurance that there will be an 
effort made to look into these things and try to help us 
complete the parkway and attend to these other problems that 
exist down there that need early attention?
    Secretary Babbitt. Senator, I have two comments and a 
suggestion. First of all, any trail that includes the gravesite 
of Meriwether Lewis is obviously of great interest to me 
personally.
    No. 2, you are correct that the U.S. Highway 51 bridge is 
not on the priority list submitted by the National Park 
Service. And, you know, you can go back to these priority lists 
forever. We have a huge problem, and that is that most of the 
funding that we request is for maintenance and upkeep of roads 
which are literally falling apart.
    My suggestion is this: It seems to me that in the context 
of an ISTEA bill, with the amount of money that is in that 
bill, and that if you could possibly obtain the assistance of 
the majority leader, Mississippi might be heard. And I do not 
say that lightly. Because I cannot promise you that I can 
restructure the priorities. But the funding for this in the 
context of that bill ought to be, it seems to me, something 
that we could talk about.
    I would be happy to meet with you and your colleagues to an 
extent that we can pursue it.
    Senator Cochran. Thank you very much.
    Senator Domenici, you not only are recognized, but you are 
given the honor of chairing the committee.
    Senator Domenici [presiding]. I have the honor of managing 
the bill on the floor of the Senate. I do not have a lot of 
time, but I am glad that you are giving me this title.
    Mr. Secretary, I apologize for being late. The budget 
resolution is on the floor, and that is my job. I found 
somebody to takeover it for me for awhile.
    Secretary Babbitt. Senator, let me say that, in your 
absence, this has been an extraordinary mellow, positive and 
mutually agreeable session.
    Senator Domenici. By that, are you leaving any inference or 
assumption that it might have been otherwise had I been here? 
[Laughter.]
    Secretary Babbitt. I am voicing my sentiment that may it 
continue.
    Senator Domenici. It will. It will. I have enough problems 
on the floor that I have not thought about giving you any 
problems today.

                          indian school repair

    The GAO report about Indian school repair concludes that 
$754 million are needed to clear up an entire backlog of BIA 
repair needs and bring these schools into code and 
instructional compliance. In a footnote to that figure in the 
GAO report, it is noted that eight schools on the construction 
priority list would cost $112 million to replace.
    I have also heard that if we replace the 50 percent of the 
BIA schools that are over 30 years old, the replacement costs 
would be about $1 billion--and I am not suggesting that--
leaving about $200 million in repair costs for the other half 
of the schools. Since the GAO did this study, I am wondering if 
you might, for the record, give us your Department's best 
estimates about what it will cost to repair and get these BIA 
Indian schools up to the standard that I have just described.
    Secretary Babbitt. Senator, I do not challenge those GAO 
estimates. The difficulty is this: We do have increases in the 
BIA budget, but obviously there are limits. I think, for new 
school construction, we have two schools.
    Senator Domenici. That is right.
    Secretary Babbitt. I think there is one in Arizona and one 
in South Dakota. And I think one of the New Mexico Pueblos 
would then be at the top of the list.
    Senator Domenici. Well, Mr. Secretary, I am aware that you 
put in some additional money. I am very pleased about that. I 
did write a letter to the OMB Director and to the President 
with reference to the Indian schools. I believe, shortly after 
that, I was told by the OMB people that $38 million, or some 
such number, was added to school construction. I am very 
pleased that that is the case.
    But, Mr. Secretary, when you say that there is just so much 
we can do, I want to just share a thought with you. Since you 
have been a very strong advocate for the Indian people, and you 
remind us of that and them of that, I just wonder why the U.S. 
Government can start a new public school program in an area 
that we have never been in before--or at least attempt to; I do 
not think it is going to happen--and find money to spend on 
schools that are not ours. Yet we sit here today with you 
acknowledging that the schools that we own, where there is 
nobody else to build them and nobody else to repair them, that 
there is sort of a lack of urgency, when we would only build 
two out of a waiting list of scores?
    Secretary Babbitt. Well, Senator, I think that is a 
productive line of inquiry. I at least have given some thought 
to the President's proposal for assisting school districts, in 
general, through adding the deductibility of municipal bond 
interest as a Federal contribution. Obviously that particular 
financing device does not work on reservations for these tribes 
that have no way of issuing bonds.
    Senator Domenici. They are our schools, the Federal 
Government's, so you cannot.

                          financing mechanism

    Secretary Babbitt. But we could still give the same subsidy 
if you could issue bonds.
    But what that means, it seems to me, is an inquiry as to 
whether or not we could not find some analogous financing 
mechanism that would automatically be available to tribes. 
Maybe we should discuss that with the Treasury Department, 
because we ought to be providing some analogous assistance at a 
bare minimum. I am not suggesting that any of these things will 
solve the problem entirely. But it seems to me we may be 
missing an opportunity there.
    Senator Domenici. Well, if you want to explore it with 
Treasury, and if I can be of any assistance, I will join you.
    Secretary Babbitt. OK.
    Senator Domenici. But my real point is--and, frankly, I 
will make this now and I will make it whenever I have a chance 
to speak on the floor in the next 24 hours, when I am going to 
be joining Senator Johnson in trying to get more money for this 
part of the budget--but I believe, Mr. Secretary, that it is 
incumbent upon those who represent the Indian people in the 
U.S. Government to state loud and clear that we ought to take 
care of our Government's responsibilities first, before we go 
out and start new programs. I am not asking for you to comment. 
You work for a President. He puts a budget together.
    If we do not build these schools, no one will. It is 
getting close, if it is not already, disgraceful as to the 
condition of the Indian schools in the United States. I will 
continue to do what I can. It is not inconceivable, looking at 
new money that has been put in the budget over the last 4 or 5 
years, that had we started a program for $150 million to $250 
million in new money a year for Indian schools, we could have 
afforded it. We would not have had to hurt very many programs 
of the Federal Government, and we would be living up to a 
responsibility.
    It is very hard to find that kind of money when it is not 
in the President's budget. I am just merely stating a fact.
    I have two other quick comments with reference to Indian 
schools--these are both parochial in a sense. I wonder if you 
might clarify the BIA's responsibility for tribally controlled 
community colleges in terms of repair, rehabilitation and 
replacement. While I say it is parochial, there are many of 
these--in fact, I think there might be 26. I would also like to 
know about the Government operated post-secondary schools--
namely, Haskell and the Southwestern Indian Polytechnic 
Institute [SIPI]; you know about SIPI in Albuquerque--and on 
the latter two, your plans for the campuses. What is our 
responsibility in this area?

                      tribally controlled colleges

    Secretary Babbitt. Well, with respect to the tribally 
controlled colleges, they are tribal institutions. I believe 
that there is a formula that was kind of a consensus 
development among tribes, committees, and others about the 
appropriate level of congressional support. The fact is we have 
never even come close to that.
    So rather than focusing just on construction or 
maintenance, I think what we ought to do is drop back and ask: 
How would it be possible to meet the implicit commitments that 
were in that formula?

                          haskell versus sipi

    Now, with respect to Haskell and the one in Albuquerque, 
those have a very different history and are much more closely 
tied, in my judgment, to a Federal nexus. I do not know the 
details, but I would be happy to write you a letter about that.
    Senator Domenici. I think it would be interesting for you 
to note, as you do that, that there is a very big disparity in 
the per capita allocation to Haskell versus SIPI. I know of 
only one major difference, and it may be the total answer, but 
I doubt it. The difference is that Haskell has more boarding 
students than SIPI. SIPI has some; Haskell has many, and the 
allocation includes both, board and room.
    Secretary Babbitt. I would be happy to look into it and 
respond.
    Senator Domenici. Would you.
    [The information follows:]

 Haskell Indian Nations University and Southwestern Indian Polytechnic 
                               Institute

    Haskell Indian Nations University in Kansas and 
Southwestern Indian Polytechnic Institute (SIPI) in New Mexico 
offer a variety of junior college level education programs to 
Indian and Alaska Native students to help prepare them for 
four-year colleges and universities or employment. Haskell and 
SIPI were established by the BIA prior to enactment of the 
Tribally Controlled Community College Act and have always been 
Federally operated schools.
    Funding levels for SIPI and Haskell are based on a formula 
that takes into consideration staff costs, facility costs, and 
the room and board costs of the campus-housed student 
population. Using this formula, Haskell receives a higher level 
of funding than SIPI, largely due to two differences between 
the schools. First, Haskell has significantly more dormitory 
students--eight hundred students as compared to four hundred at 
SIPI. Secondly, Haskell is authorized to offer several 
baccalaureate degree programs which require higher staff costs 
than associate programs. SIPI only offers community college and 
technical degree programs.
    Haskell and SIPI have been directed to evaluate and suggest 
improvements to the current funding methodology to ensure that 
equitable funding is provided. The schools plan to complete 
this process within the next year.

                            indian colleges

    Senator Domenici. Now, let me for purposes of making sure 
that we understand about our Indian colleges--not the ones you 
just referred to, but the tribal ones--state that Indian 
colleges now have an average operating cost budget of $2,900 
per student. The average American college has an annual $6,200 
per student operating cost.
    Now, I merely lay that before you because the issue is 
quickly coming: Can we maintain Indian colleges that are a 
credit to the U.S. Government and pay this small amount, or 
should we not be taking a position that here, too, these are 
our Indian people, Indian colleges, and either they have enough 
money to run or we are going to get less than an adequate 
college education?
    Might you just give us your thoughts about that.
    Secretary Babbitt. Senator, obviously, I think we share the 
judgment that we ought to be providing a higher level of 
support. The President's budget does have a $5.5 million 
increase for the 26 tribally controlled colleges. I am not 
suggesting that that amount is entirely adequate, but at least 
it is a step in the direction of acknowledging the problem and 
doing something about it.
    Senator Domenici. Mr. Secretary, I do not know that this is 
anything close to an appropriate offer that would be accepted 
by you. I stand ready, Mr. Secretary, to join you and the new 
Assistant Secretary for Indian Affairs in trying to get the 
attention of everyone, including the administration, about the 
possibility of establishing a 5- to 10-year plan that will 
bring the Indian colleges up to some standard that we can all 
be proud of in terms of funding, and thus expect good 
education.
    As part of that, to start an effort to acknowledge that 
nobody is going to repair the Indian schools if we do not, and 
that they are probably in a worse state of repair and of 
physical plant need than any college, any high schools and 
schools in the worst parts of America in terms of construction 
and maintenance. I stand ready to do that.
    Secretary Babbitt. Senator, I am ready and willing. I 
accept that offer. Because it seems to me that with the budget 
now in balance, with this Senate passing an ISTEA bill with an 
additional $30 billion of additional discretionary spending, 
that it ought to be possible to devote an additional amount to 
this issue. I am certainly willing to discuss that.
    Senator Domenici. I think, Mr. Secretary, what we have to 
do is we have to join together and set forth a plan--
acknowledge the goal and set forth a plan, and say that we are 
not getting there with $20 million or $30 million added to a 
budget that is just totally out of line. We have to have $200 
million a year, trying to get $1 billion, to get something done 
in both these areas as soon as practicable. I am more than 
willing to join in that, and I would recruit some Senators to 
join us in a real effort.
    I have talked with our new Assistant Secretary in charge of 
Indian Affairs. You have got a good man there. He is going to 
do a wonderful job. He is very, very concerned about Indian 
education.
    I would tell you that in the Senate, with reference to this 
infrastructure bill, called ISTEA, we have done a very 
significant thing for the Indian people, in that infrastructure 
bill for highways and mass transit. We have dramatically 
increased the Indian roads funding, Mr. Secretary, to somewhere 
around $230 million a year. Just 6 or 7 years ago, it was about 
$20 million.
    And so we are beginning to build some roads where you and I 
both know you cannot have any growth and prosperity without 
roads in America today. This is going to be catchup. In 5 
years, we are going to have well over $1 billion spent. I am 
very praiseworthy of that, and hope, throughout the House and 
the ultimate signing of the bill, that we can keep that funding 
in there.
    You would acknowledge that this is another one of the 
deplorable situations of our Indian people on the reservations.
    Secretary Babbitt. I do acknowledge that. And I acknowledge 
your efforts in getting that kind of increase. It is very 
helpful.

                      mescalero elementary school

    Senator Domenici. Let me have one more question if you 
will. This is truly very parochial. The Mescalero Elementary 
School was built with BIA funds. It became a BIA-funded public 
school through the Tularosa Public School System, a K through 
six elementary school that was destroyed by arson in 1990. This 
is the K through six school that was destroyed. The Tularosa 
system collected the insurance, and the BIA helped with 
temporary facilities.
    Now, the Mescalero Apache Tribe is seeking funds for the 
construction of a new K through 12 school to serve the entire 
reservation. I understand that the BIA, again, is responsible 
for the school, and I am very interested in verifying its 
status as a BIA school, and the possibility of its becoming a 
priority for replacement with BIA new construction funding.
    Around here, it is interesting that we have a big battle 
going on in the appropriation bill about disaster relief. This 
is not a national disaster, but I assume a fire that destroys 
an Indian school is a disaster to the Indian children and to 
that particular tribe. Could you supply us for the record what 
status that school has now. It seems to be a little bit in 
limbo because of the facts I just gave you.
    Secretary Babbitt. I would be happy to do so.
    [The information follows:]
                 The Mescalero Apache School Situation
    The Mescalero Tribe leased land for a nominal fee ($1.00) to the 
State of Mexico for a 25 year period. During this period, the local 
school district located, constructed, and operated a public K-6 grade 
elementary school on this reservation land. The annual lease 
subsequently expired with no new lease agreement being reached. To 
provide a thorough review of the situation, a chronology of events 
follows:
  February 18, 1990.--The Mescalero Public School burned down.
  February 19, 1990.--The Mescalero Apache Tribe passed Resolution No. 
        90-5 in support of the Tularosa Public School Board of 
        Education and requested portable classrooms from BIA and the 
        State.
  May 20, 1990.--The Albuquerque Area Education Administration notified 
        the Tribe that no funds were available from Office of Indian 
        Education Programs (OIEP) for the emergency.
  August 6, 1990.--The Office of Construction Management (OCM) met with 
        Tribal Representatives and agreed to have a Technical Team 
        determine whether the Tribal community center was suitable for 
        conducting classes in school year 1990-91. The Tularosa School 
        District had used the community center during part of school 
        year 1989-90. The building was found to be seriously deficient 
        for use as a school. The Facilities Management and Construction 
        Center (FMCC) looked at options to upgrade tribal buildings or 
        acquire portable classrooms.
  August 6, 1990.--The Mescalero Apache Tribe passes Resolution No. 90-
        28, indicating that the Tribe and school district have failed 
        to reach an agreement on location and operation of a public 
        school. The school district proposed to build a new school 
        located off tribal lands, which would have required student 
        busing and included other public students. The Tribe asked BIA 
        to assume operational responsibility for a proposed tribal 
        school in 1990-91.
  August 15, 1990.--Plans for a steel building to be purchased and 
        erected by the Mescalero Tribe were transmitted to FMCC for 
        review.
  August 16, 1990.--A meeting was held regarding the school between the 
        Secretary of Interior, Manuel Lujan; Assistant Secretary for 
        Indian Affairs, Eddie Brown; and President of Mescalero Apache 
        Tribe, Wendell Chino. The Department/BIA position was that BIA 
        would not support taking over the education program from the 
        Mescalero Tularosa School District until an agreement was 
        reached to operate an accredited public school.
  August 22, 1990.--Letter to Assistant Secretary for Indian Affairs 
        from Albuquerque Area Director requesting $387,000 to renovate 
        tribal building for classrooms (building purchased by Tribe).
  August 24, 1990.--The Assistant Secretary for Indian Affairs sent a 
        letter to the President of the Mescalero Apache Tribe 
        specifying conditions for granting assistance to tribal school. 
        The Tribe independently obtained facilities and hired teachers 
        for the 1990-91 school year.
  October 9, 1990.--Mescalero Apache Tribe submits interim application 
        for Tribally Controlled Grant School (Public Law 100-297).
  April 4, 1991.--A letter was sent from the Assistant Secretary for 
        Policy, Management and Budget to the Appropriations Committees 
        bringing the committees up to date on school. At this time, no 
        agreement existed between the Tribe and public school district 
        and the Tribe had obtained and erected a building for 250 
        students.
  April 11, 1991.--OIEP approves Mescalero School to become a BIA 
        funded school, effective July 1, 1991. BIA requires that safety 
        deficiencies be corrected at the school prior to occupation.
  November 25, 1991.--Mescalero Apache submitted an application to BIA 
        for new school construction.
  January 6, 1993.--Federal Register Notice for ``Education Facilities 
        Construction Priority List of fiscal year 1993'' was published. 
        Mescalero's application for fiscal year 1993 was considered, 
        however, because the school was not a Bureau owned or operated 
        facility when it was destroyed by fire, the application did not 
        receive a high ranking on the priority system. The application 
        was evaluated along with 66 other requests. Only the top five 
        schools were added to the 1992-93 priority list which resulted 
        in 16 schools total.
    The Bureau is concerned about Mescalero and other schools where 
students are being educated in classrooms that do not meet code 
requirements or modern standards. In recognition of the Mescalero 
Tribal School's needs, the BIA's Education and Facilities programs 
provide funding for the annual operation of the school. However, 
because the replacement school priority list was frozen by Congress in 
fiscal year 1993, the BIA cannot provide replacement school funding at 
this time.
    The BIA anticipates completing the list of 16 prioritized schools 
in the year 2001 or 2002. The Facilities Management and Construction 
Center and Office of Indian Education Programs, at the direction of the 
Assistant Secretary for Indian Affairs, are currently reviewing 
completion of the replacement school projects and looking at a new 
replacement school application process. Depending on appropriation 
levels, the Bureau anticipates being able to solicit replacement school 
applications when the new process is established in 1999. This will 
provide Mescalero with the opportunity to compete for a replacement 
school in a national prioritized ranking process.

                 southwest fisheries technology center

    Senator Domenici. The Southwest Fisheries Technology 
Center--I am jumping ahead, away from Indian issues to another 
issue in our State--since 1993, we have been supportive of this 
center. When it is completed, it will be the only facility in 
the Nation dedicated to breeding and stocking of native 
threatened and endangered fish. To date, we have appropriated 
$20 million to rehabilitate Dexter and to construct the Mora 
unit.
    In 1998, this subcommittee provided $2 million to complete 
phase 3 construction in Mora, and $500,000 in operational 
funding. At the Dexter unit, there remains a need for $3.3 
million to bring the facility completely online. This means 
$2.9 million to complete phase 3 construction, $200,000 for 
laboratory equipment, and $227,000 in additional operational 
funding to fully staff it.
    Would you give the subcommittee an update on the status of 
these units, and does the administration foresee completion of 
the rehabilitation of the Dexter unit this year?
    Secretary Babbitt. I would be happy to respond in writing.
    Senator Domenici. I thank you.
    [The information follows:]

                 Southwest Fisheries Technology Center

    The status of construction for the Mora and Dexter units of 
the Southwest Fisheries Technology Center is presented below.
    In fiscal year 1998, the $2,000,000 provided for the 
Southwest Fisheries Technology Center is being used to complete 
construction at the Mora unit. In addition, $500,000 in 
operating funds were provided for start-up operations at Mora. 
These operating funds have been annualized in Service's fiscal 
year 1999 budget request. The Mora management plan, however, 
assumes $650,000 in annual optimal operating expense to fully 
staff the facility in the future. However, this additional 
funding was not included in the President's Budget request for 
fiscal year 1999 and is not a priority for the Department.

                      SOUTHWEST FISHERIES TECHNOLOGY CENTER--MORA UNIT, STATUS--APRIL 1998
----------------------------------------------------------------------------------------------------------------
                                  Fiscal                     Construction     Optimal
    Construction/operations        year    Appropriations     completed       funding            Remarks
----------------------------------------------------------------------------------------------------------------
Phase I and II, planning, site       1990     $1,000,000   Yes              ..........  $15,720 sequestered in
 work, well fields, and              1991      3,000,000                                 fiscal year 1991;
 building shells for fish            1992      5,000,000                                 $63,000 sequesterd in
 production and storage.                                                                 fiscal year 1992.
Phase III, equipping buildings       1997      2,705,000   No               ..........  To be completed in the
 and related facilities.                                                                 fall of 1998.
Phase III, hatchery and wet lab      1998      2,000,000   No               ..........  Construction to begin in
 building, equipment, and                                                                fiscal year 1999.
 paving.
Operating funds to fully staff.      1998        500,000   ...............    $150,000  ........................
                                          ----------------                 ------------
      Total....................  ........     14,205,000   ...............     150,000  ........................
----------------------------------------------------------------------------------------------------------------

    Funding for the third and final phase of the construction 
at the Dexter unit is not included in the fiscal year 1999 
President's Budget. Currently, the FWS estimates that 
$2,863,000 would complete rehabilitation of the facility, as 
well as $200,000 to purchase laboratory equipment. However, the 
Department has placed a priority on using limited construction 
funding to reduce existing inventories of critical health and 
safety projects or for mission critical priorities. The FWS 
estimates that $227,000 in annual operating funds would fully 
staff the facility. However, this additional funding was not 
included in the President's Budget request for fiscal year 1999 
and is not a priority for the Department.

                     SOUTHWEST FISHERIES TECHNOLOGY CENTER--DEXTER UNIT, STATUS--APRIL 1998
----------------------------------------------------------------------------------------------------------------
                                  Fiscal                     Construction     Optimal
    Construction/operations        year    Appropriations     completed       funding            Remarks
----------------------------------------------------------------------------------------------------------------
Phase I, and part of phase II        1993     $1,428,000   Yes              ..........  $12,138 was sequestered
 hatchery building, and              1994  ..............                                in fiscal year 1993.
 administration/lab building.        1995      2,200,000   Yes
Balance of phase II storage/         1997        961,000   No               ..........  Construction to begin
 maintenance building.                                                                   fall 1998.
Phase III, outdoor fish          ........  ..............  No               $2,863,000  Phase III will complete
 raceways, earthen research                                                              construction.
 ponds, paving/landscaping at
 buildings.
Specialized lab equipment......  ........  ..............  ...............     200,000  Equipment needed to
                                                                                         identify and maintain
                                                                                         biodiversity.
Operating funds to fully staff.  ........  ..............  ...............     227,000  ........................
                                          ----------------                 ------------
      Total....................  ........      4,589,000   ...............   3,329,000  ........................
----------------------------------------------------------------------------------------------------------------

                     vanishing treasures initiative

    Senator Domenici. There is an initiative with reference to 
some of our park-like treasures that is called vanishing 
treasures. Are you aware of that?
    Secretary Babbitt. I am.
    Senator Domenici. This is a very, very excellent approach, 
of trying to put some emphasis on some very serious diminishing 
assets. Last year, the administration proposed this new 
initiative, to assist 41 park units in the Nation. I assume you 
were supportive of that, if not the one who came up with the 
idea and proposed it. This was for the stabilization and 
maintenance of ruins and cultural resources within the park 
units.
    I worked with this committee to secure funding for this 
initiative, and Congress provided $1 million in 1998, to get 
the initiative started, and $2 million for historic structure 
stabilization. This year, I do not find the vanishing treasures 
initiative among the administration's funded priorities. Does 
the administration continue to fund the vanishing treasures 
initiative?
    Secretary Babbitt. Senator, I would be happy to respond in 
writing. I suspect that what may happen is that this particular 
program was merged into some other line item. But I do not know 
that for a fact. So let me look at it.
    Senator Domenici. It would sure be helpful if there is some 
money in the budget, because I am assuming we start with zero 
as we talk to this committee in its appropriations.
    Secretary Babbitt. I will have a look at it.
    [The information follows:]

                 Vanishing Treasures--Fiscal Year 1999

    The President's fiscal year 1998 budget request for the 
Vanishing Treasures Initiative of $3.5 million was reduced in 
the Appropriations Act to $1.0 million. The fiscal year 1999 
budget request continues funding at the $1.0 million level for 
Vanishing Treasures. Of the total, $453,000 has been included 
in the base operating budgets at eight parks and $547,000 will 
be used for project preservation, training, and project 
management. The NPS has not yet selected the specific projects 
to be accomplished with the available fiscal year 1999 funds, 
but the Service expects to fund about six of the 38 emergency 
projects identified for the Vanishing Treasures program with 
the available money.

    Senator Domenici. Of the 1998 funds, which I just described 
to you, I would like to know, if those 1998 funds, have been 
obligated in relationship to this initiative? And if so, how 
much and for which parks?
    Secretary Babbitt. Sure.
    [The information follows:]

                 Vanishing Treasures--Fiscal Year 1998

    The $1.0 million in funding provided for the Vanishing 
Treasures Initiative in fiscal year 1998 was spent as follows: 
$453,000 was transferred to base operating budgets of eight 
parks to hire eleven permanent individuals; $40,000 was devoted 
to training expenses; $497,000 was utilized to fund six of the 
44 projects which had been identified as the most acute needs; 
and $10,000 was used to provide project management, monitoring, 
and a peer review system to evaluate program efficiency and 
effectiveness. The following table itemizes the distribution of 
operations and project funding by park.

------------------------------------------------------------------------
                                            Operations        Project
                Park unit                     funding         funding
------------------------------------------------------------------------
Aztec Ruins National Monument...........         $84,000         $75,000
Mesa Verde National Park................          67,000  ..............
Salinas Pueblo Missions National
 Monument...............................          33,000          25,000
Chiricahua National Monument............          34,000  ..............
Navajo National Monument................          33,000  ..............
Tonto National Monument.................          51,000         125,000
Tumacacori National Monument............          91,000          22,000
Flagstaff Areas (Wupatki, Walnut Canyon,
 Sunset Crater).........................          60,000         125,000
Chaco Culture National Monument.........  ..............         125,000
                                         -------------------------------
      Total.............................         453,000         497,000
------------------------------------------------------------------------

                            surplus blm land

    Senator Domenici. I missed the discussion of the issue of 
disposing of surplus property in the Department of the 
Interior's public domain real estate, the BLM. I gather you 
were opposed to tying this to the Endangered Species Act in the 
manner suggested, but are you opposed to starting a 
comprehensive national effort to go ahead and get the surplus 
property out of the Federal inventory, or at least find out 
what can be done about ridding ourselves of some of this?
    I note that while some of it may have little value, Mr. 
Secretary, there are a lot of acres that are currently 
denominated surplus. In fact, my recollection is that in the 
Southwest, it is more than 2 million acres--maybe 2\1/2\ 
million or 3 million. In New Mexico, it is an astronomical 
number. It is about 900,000 acres that are surplus and so 
designated.
    If we leave the ESA out of this, can you discuss with me 
whether the administration would like to join in starting an 
effort with reference to this surplus land?
    Secretary Babbitt. Senator, I am skeptical. Let me explain 
where I begin, and then we could entertain some thoughts. Most 
of this land that has been identified in the Southwest by the 
BLM is rangeland. Most of it is in holdings inside existing 
ranch units. Now that means, as a practical matter, that these 
lands cannot be disposed of at auction. It is not going to 
happen. I am not going to go out to either Joe Skeen or Sam 
Donaldson, although I might like to do it on Sam Donaldson's 
spread out there--actually, I am starting to warm to this. I 
would like to go out to Donaldson's spread and say, There are 
some BLM leases or inholdings, and they are going to be put up 
to auction to the highest bidder. [Laughter.]
    You get my point.
    Now, the ranch owners themselves are not very keen about 
this. And the reason is that they are getting a good deal. That 
includes my relatives. When I say my family, I am no longer 
part of my family for these purposes. My relatives get a good 
deal. They have grazing fees, which we have talked about, and 
they pay no taxes.
    And I have got to tell you that among my rancher friends in 
Arizona, there is not much interest in going to the bank and 
borrowing a bunch of money to buy land from the BLM. Now, those 
are the problems.
    What we have tried to do, I think with great success in 
many States, is use these surplus lands to block up and 
consolidate land management units. This inholding problem works 
both ways. There are private lands inside of BLM, and BLM lands 
inside of private lands. And I believe that the primary 
emphasis and the best land management alternative is to work on 
blocking these things up to the mutual satisfaction of the 
ranchers and other landowners and the Federal agencies.
    Senator Domenici. Well, Mr. Secretary, I do not know that 
that was a fair question, because actually the administration 
does have a task force working on this.
    Secretary Babbitt. But the surplus land issue, we define 
somewhat differently. I mean there are all sorts of GSA lands 
and other lands.
    Senator Domenici. I am talking now about the fact that--and 
I do not know whether the ranchers are opposed to this at all--
but there are some--not this Senator--who say, for every new 
acre of Federal land to be acquired for whatever purpose--
parks, BLM and Interior--there ought to be land disposed of. I 
am not one of those.
    But we are always in the business of buying more Federal 
land or proposing that we buy it--sometimes very large tracts 
and sometimes in States that are already in excess of 60 
percent owned by the Federal Government. I have come to the 
conclusion that we ought to start a national program and put 
some money in it, so the excuse that is normally there, that we 
cannot get rid of surplus property because we need some money 
to do appraisals, we need some money to get a plan together 
that won't delay us. I have come to the conclusion that a fair 
middle ground with reference to the position on new properties 
is to get a program going that, once and for all, analyzes and 
begins a multiyear disposal program that is thought out, well 
thought out, and worked on, with a lot of input.
    I hope that we are proceeding on that basis. We are working 
to get a statute written, and I am sure it will, at some point, 
work its way up to your office. I would hope that you would 
give it your every consideration, in an effort to satisfy a 
number of constituents who do concern themselves about us 
having land we do not need.
    Secretary Babbitt. Senator, I will certainly look at it. 
You may count me from Missouri on this one. I am a skeptic, 
because I believe that these lands have already been 
identified. We do not need to reidentify them. And we have an 
effective, ongoing historic process for dealing with this, 
through exchanges and consolidations. And I believe it is an 
effective policy. I would be happy to look at a proposal, but I 
have heard these proposals before and I do not think they are 
in the public interest.
    Senator Domenici. Well, frankly, Mr. Secretary, I do not 
think anybody, to my knowledge--since I have been in the 
Senate--and I hate to mention how many decades that spans 
today, because it is more than this young groups of New 
Mexicans back here in their 4-H coats would even think because 
I look so young they could not believe that. [Laughter.]
    In any event, I do not think there has been a genuine 
proposal--and I just make this as a statement, not to argue 
with you or make this an unpleasant day; it has been a very 
nice day between you and me--but I do not believe there has 
been a comprehensive effort to see what can be done about it. 
The ongoing program that you speak of, of blocking out and the 
like, has not been very effective.
    Nonetheless, we will get legislation up to you in due 
course. It is a commitment I have made to the people of New 
Mexico, that I am going to make sure this is answered--and you 
may be right, that there is nothing to it and you are just 
going to keep the land.
    I hope the opposition is not from those who take the 
position that the Federal Government can do better with this 
land than anybody else. I did not say you were that person, but 
there are some. I hope it is not generally environmentalists, 
who just think this is something that will harm the public 
domain. If it is surplused property, it seems to me we ought to 
have a pretty broad consensus to try to do something with it.

                     additional committee questions

    Thank you very much. There will be some additional 
questions which will be submitted for your response in the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                     Additional Committee Questions

                          maintenance backlogs

    This committee has placed great emphasis in recent years on 
addressing the multi-billion dollar maintenance backlogs that 
exist within the various agencies funded in the Interior bill. 
This has been difficult given funding constraints, but we have 
been able to make progress supporting maintenance accounts, and 
by initiating the fee demonstration program.
    The Committee's support for these efforts cannot, however, 
be sustained if there is a perception that the backlog 
estimates are being ``gamed,'' or if we make no progress in 
reducing those backlogs no matter how much is appropriated for 
that purpose.
    Question. What progress has the Department made in making 
maintenance backlog lists more consistent and reliable across 
the various bureaus?
    Answer. The fiscal year 1999 maintenance and construction 
project lists submitted to the Interior Appropriations 
Subcommittee in February 1998 are qualitatively a big step 
forward. Common criteria of critical health and safety and 
critical resource protection were used for the first time.
    Question. How long will it be before you will be able to 
provide accurate, reliable, backlog lists to the Committee?
    Answer. The fiscal year 2000 budget submission will provide 
a 5-year listing of the highest priority maintenance and 
construction projects for the bureaus using Department-wide 
common maintenance and construction terms. This list will be 
updated annually to reflect completed projects, prior unknown 
critical projects, and the normal re-prioritization that occurs 
when managing any large volume of work items. This annual up-
dating will keep the lists accurate and reliable.
    Question. What have you learned as you have engaged in this 
process?
    Answer. Rather than obtaining major new insights, the 
knowledge concerning the individual bureau processes for 
maintenance, construction, and the information systems used has 
been deepened.
    Generally in the past, maintenance has been a field-
oriented priority setting process largely dependent on the unit 
and maintenance manager's criteria of need.
    The construction priority setting processes have been 
reviewed by headquarters and as a result have applied more 
consistent criteria within a bureau.
    The information systems used by the bureaus vary widely. 
The Bureau of Indian Affairs has a complete inventory and 
maintenance management system for education and administrative 
facilities used for setting priorities. Other bureaus, like the 
National Park Service, maintain several non-integrated systems.

                  everglades/south florida restoration

    The Administration is requesting $81 million for land 
acquisition in the South Florida ecosystem, a $5 million 
increase over the amount provided in fiscal year 1998.
    Question. What is the obligation status of the land 
acquisition funds appropriated in fiscal year 1998, and for 
what specific purposes will these funds be expended? Does the 
Department expect that these funds to be obligated and/or 
expended by the end of fiscal year 1998?
    Answer. Of the $76 million appropriated to NPS in fiscal 
year 1998, a total of $46 million will be used to fund a grant 
to the South Florida Water Management District for the purchase 
of lands in Storm Water Treatment Area 1-East (STA 1-E); of 
that amount $19.0 million has been obligated to date, with the 
remaining amount to be obligated during fiscal year 1998. 
Acquisition of lands in STA 1-E will improve the quality of 
water entering Loxahatchee National Wildlife Refuge. Of the 
remaining $30 million appropriated in fiscal year 1998, $26 
million is committed for acquisitions in the East Everglades 
Addition to Everglades National Park and $4 million is 
committed for acquisitions in Big Cypress National Preserve. As 
of May 15, 1998, $4.0 million has been obligated for Everglades 
and $970 thousand has been obligated for Big Cypress. The 
Department is working consistently to conduct negotiations so 
that all NPS land acquisition funds could be obligated this 
fiscal year.
    Question. If South Florida is funded at the request level 
in fiscal year 1999, how much in additional acquisition funding 
does the Department estimate will be required to complete 
acquisitions in the East Everglades? How much has been 
appropriated for this purpose to date? By what date does the 
Department feel these acquisitions must be completed? On what 
schedule are these funds likely to be requested?
    Answer. If the land acquisition request for South Florida 
is funded at the $23 million level as requested in the fiscal 
year 1999 President's Budget, ($20 million for Everglades and 
$3 million for Big Cypress), the Department estimates that the 
National Park Service will require an additional $20 million in 
fiscal year 2000 to complete acquisitions in the East 
Everglades Addition to Everglades National Park. To date, the 
Congress has appropriated $64.2 million for acquisitions in the 
East Everglades, including $26 million that was allocated by 
the Department to the Park Service last year. Because 
completion of the East Everglades Addition is one of the 
Administration's highest priorities for land acquisition and 
assuming that funds are available and current acquisitions 
remain on schedule, it is likely that the remaining funds for 
the East Everglades Addition will be requested in fiscal year 
2000.
    Question. How much of the $200 million provided for South 
Florida in the 1996 Farm Bill has been spent thus far, and for 
what projects?
    Answer. To date, the Department has obligated $65 million 
in grants to the State of Florida. Two grants were awarded to 
the South Florida Water Management District (SFWMD) and one 
grant was awarded to the Florida Department of Environmental 
Protection (DEP) to acquire a total of 28,197 acres of lands 
critical to the Everglades restoration effort. The Federal 
funds were leveraged by $137 million of State funds for a total 
land acquisition investment of $202 million. The overall 
Federal share of the acquisitions associated with these three 
grants is about 32 percent.
    Following is a summary of the three grants provided by the 
Department to the State:

                       SUMMARY OF THE THREE GRANTS PROVIDED BY THE DEPARTMENT TO THE STATE
----------------------------------------------------------------------------------------------------------------
             Grant title                   Date/recipient       Acres   Federal cost   State cost    Total cost
----------------------------------------------------------------------------------------------------------------
East coast buffer...................  Dec. 12, 1996 & June       6,714   $36,909,740   $40,000,000   $76,909,740
                                       27, 1997 \1\.
Carrol property EAA.................  Feb. 28, 1997 & May 27,    1,233     3,090,260       ( \2\ )     3,090,260
                                       1997 \1\.
Golden Gate Estates.................  Apr. 17, 1998 \3\......   20,250    25,000,000    97,000,000   122,000,000
                                                              --------------------------------------------------
      Total.........................  .......................   28,197    65,000,000   137,000,000   202,000,000
----------------------------------------------------------------------------------------------------------------
\1\ South Florida Water Management District.
\2\ Included above.
\3\ Florida Department of Environmental Protection.

    In addition to the funds provided to the State, the 
Department has expended $926 thousand on administrative 
expenses. These expenses include the preparation of a 
programmatic Environmental Assessment for land acquisition in 
the Everglades Agricultural Area (EAA), as well as staff 
expenses to administer and review the grants to ensure the 
consistency of the grant with Everglades restoration. The FWS 
and Solicitor's Office staff, in the form of one field 
biologist, one realty specialist, one economist, and two 
attorneys will ensure that the lands acquired with Farm Bill 
funds will assist in the restoration through the development 
and monitoring of the necessary agreements between the grant 
recipient and the Department.
    The budget request includes $14 million for continued work 
on modified water delivery projects. The Federal Government 
will be responsible for 75 percent of the operating costs of 
these systems.
    Question. Will any of these operating costs be the 
responsibility of the Department of the Interior? If so, when 
will these costs begin to be incurred?
    Answer. In 1989, the Congress enacted the Everglades 
National Park Protection and Expansion Act (Public Law 101-229) 
to authorize the construction, by the Army Corps of Engineers, 
of a modified water delivery project for Everglades National 
Park. The purpose of the project is to reverse the decline of 
the park's natural resources due to the effects of nearly 50 
years of alterations to the natural water system from the 
Central and South Florida Project, providing flood control, 
municipal, industrial and agricultural water use. Completion of 
the modified water delivery project is currently scheduled for 
fiscal year 2005 and should result in a more natural sheet-
water flow to the park. The Federal Government's share of the 
operating costs will be 75 percent and the Department expects 
that the Army Corps of Engineers will incur the operating 
costs, with the remaining 25 percent the responsibility of the 
local project sponsor.

                department of the interior--fixed costs

    The Subcommittee is concerned by what appears to be 
continuously increasing fixed costs among land management 
agencies which keeps funds from getting to the ground level. It 
seems there are services provided by the Department of the 
Interior which are duplicative of those provided by the Forest 
Service. In many ways the respective missions of the Bureau of 
Land Management and the Forest Service are identical. In 
several on-the-ground activities, the Department and the Forest 
Service have co-located offices, assumed each others land 
management responsibilities, and generally cooperated. However, 
these have been predominantly local efforts. The following 
questions pertain to what could be accomplished if major 
national programs could be consolidated.
    Question. Although fire operations between the Forest 
Service and the BLM are integrated in many ways, could one 
agency completely assume fire suppression responsibility for 
the other agency?
    Answer. The fire management programs of the five federal 
agencies, (BLM, BIA, FWS and NPS of the Interior, and the 
Forest Service of Agriculture) represent what may be the most 
integrated interagency operation in the federal government. It 
is crucial that federal agencies, states and local governments 
cooperate because wildland fires respect no boundaries and the 
fire suppression resources of any one agency may be 
insufficient to meet the workload.
    It should also be recognized that fire suppression is only 
one aspect of the total fire management program. Fire 
management is an integral part of each agency's land and 
resource management programs, and as such cannot be a separate 
stand alone support function similar to a ``fire department''. 
The same personnel and preparedness resources used in 
suppression and rehabilitation are also used in land use 
planning, aviation management, prescribed fire, prevention, 
weed control, general field operational support, and field 
communications.
    While there are some similarities among the federal 
agencies involved in fire suppression, there are also vast 
differences in the laws and regulations governing these 
agencies and different ownership patterns, dominant uses, and 
vegetation. The recent Federal Fire Management Policy and 
Program Review focused on the need to further integrate fire 
and resource management and to balance the continued need for 
suppression with fire use. It has been correctly stated that 
resource management includes fire management. Therefore, the 
suppression portion of fire management programs should not be 
separated from the rest of the land management activities. The 
three tiered interagency fire management coordination process 
(national, geographic and local) has improved the effectiveness 
and efficiency of emergency operations without jeopardizing 
this critical fire and resource management relationship. Shared 
fire caches, dispatch and logistic centers, training centers, 
national resources such as aircraft specialized crews, modules 
and support contracts along with common operational policies 
and processes facilitate joint field operations.
    Through years of experience, we have learned that it is 
critical to maintain close ties between the fire programs and 
their respective agencies, while at the same time integrating 
operations on an interagency basis. This approach promotes 
innovation and is key to ensuring the best financial, program, 
and administrative controls. This has allowed BLM and the other 
Interior agencies with wildland fire management programs to 
receive ``unqualified audit opinions'' for the last several 
years. While there are additional opportunities to improve 
interagency fire operations, and we are committed to 
aggressively pursue continuous improvement, we do not believe 
that one massive wildland fire department would be more 
effective or efficient or be in the best interest of the public 
for quality land management.
    Question. Could all mapping activities for the Department 
[Interior] and the Forest Service be completely assumed by the 
U.S. Geological Survey?
    Answer. The Department of the Interior (DOI) believes that 
the current division of mapping responsibilities within and 
between Department bureaus and with the Forest Service is 
appropriate. Existing cooperative programs in both agencies 
achieve mission-specific goals, timely response to customer 
groups, and economy of effort. For example, an interagency 
agreement between DOI (USGS, BLM) and U.S. Department of 
Agriculture (Forest Service) guides the coordination of 
production and maintenance of a single-edition primary series 
map for quadrangles containing Forest Service areas of 
interest. The Forest Service and USGS have a long history of 
cooperation in the production of maps and associated digital 
data products. Previous agreements between the two bureaus have 
resulted in improved service to the public through significant 
reduction in duplication of effort and the sharing of maps and 
digital data products meeting common standards. At the same 
time, the division of specific responsibilities between the two 
agencies ensures that each has the ability to decide on program 
priorities to accomplish their missions.
    Question. Could major information systems for resource 
management and infrastructure be consolidated into one system?
    Answer. In keeping with the spirit and intent of the 
Information Technology Management Reform Act of 1996, a 
benefit/cost analysis should be funded and developed to answer 
this question. Consolidating all resource management 
requirements into one system is costly, time consuming, and may 
even require changes in legislation that may affect programs in 
the Minerals Management Service, the National Park Service, the 
Bureau of Land Management, the Fish and Wildlife Service, and 
the U.S. Forest Service. Numerous General Accounting Office and 
General Service Administration studies caution against these 
``grand design'' system efforts. However, it is important to 
note that the Bureau of Land Management and the U.S. Forest 
Service are working together to improve efficiency by exploring 
the opportunity to consolidate BLM's Automated Land and Records 
System (ALMRS) with the Forest Service Automated Land Project 
(ALP).

                          everglades-research

    The justification (p. 37) notes that the Everglades science 
working group has been developing an overall science plan 
``incorporating future funding requirements and schedule for 
completion * * *.''
    Question. Has this plan been completed? If so, what is the 
estimated run out for the Everglades science program?
    Answer. Science planning, coordination, and integration is 
and has been an integral component of the South Florida 
Ecosystem Restoration (SFER) Program dating back to the early 
1990s. This science-related activity was conducted under the 
auspices of the SFER Working Group (WG) through the Science 
Sub-Group. A summary update of the Science Sub-Group's 
``Science Plan'' (currently referred to as a Report entitled 
Science Planning and Implementation: 2000 & Beyond) has been 
included in previous publications of the SFER Program ``Cross-
Cut Budget.''
    In 1996, the Water Resources Development Act (WRDA) 
expanded the SFER Program to include both federal and non-
federal participation. In addition, the SFER WG realized a need 
to integrate managers and scientists through a formal mechanism 
in order to improve the communication of managers' information 
needs to scientists and science-results back to managers. To 
address this need, in the Fall of 1997, the SFER WG 
reformulated the coordinated science program under a new 
structural and functional sub-group renamed the Science 
Coordination Team. The team is comprised of both scientists and 
managers who work closely with the resources in South Florida.
    An updated, long-term report (``South Florida Ecosystems 
Restoration Science Planning and Implementation: 2000 & Beyond) 
is being developed by the Science Coordination Team. This 
report will more formally integrate all federal and non-federal 
science needs and science activities into one coordinated and 
integrated program. It will strengthen the communication 
between management-related science information needs and the 
science being conducted to address those needs. It will also 
codify procedures for conducting science reviews and workshops 
to continually address the question: ``Are we doing the right 
science?''
    A draft outline of the updated Report was presented to and 
approved by the SFER WG and Task Force in early spring 1998. A 
draft of the Report is scheduled for submittal to the WG in 
June 1998 with final draft for WG/TF consideration in September 
1998. It is important to note that science planning, 
coordination and integration is continuing (with WG oversight) 
at the same time the text for the report is being generated. In 
other words, the Science Coordination Team and WG are not 
`standing still' while the report is being formalized.
    Question. How does the ``Ecosystem Science Planning and 
Peer Review'' project, identified as a new start within the 
science program (p. 39), differ from the ongoing ``Ecosystem 
Restoration Planning'' project (p. 37)? ``Landscape Patterns, 
Processes, and Modeling'' (p. 39) and ``Ecological Modeling--
Refinement and Applications'' (p. 37)?
    Answer. One of the initial products of the ``Ecosystem 
Restoration Planning'' project as identified above is the 
publication entitled ``An Integrated Plan for South Florida 
Ecosystem Restoration and Sustainability: Success in the 
Making'' (April 1998). This publication and additional 
``planning'' and outreach documents relate to the overall South 
Florida Ecosystem Restoration Program generated under 
``Ecosystem Restoration Planning.'' Science (as in ``Science-
Based Decision Making'' and science planning, coordination and 
integration) is but one of the many areas addressed in this 
``integrated plan.''
    However, the ``Ecosystem Science Planning and Peer Review'' 
project identified as a new start in fiscal year 1999 deals 
specifically with providing funding for implementing the 
science review/workshops process currently being implemented 
and expanded by the Science Coordination Team (as per the 
evolving Strategic Science Plan). Currently, there is an active 
process for science oversight and topical review for Florida 
Bay science. This ``oversight'' and ``topical'' review/workshop 
process is being expanded to include the ``whole'' Greater 
Everglades and Coastal Ecosystems, specific major regions of 
South Florida (such as central Everglades, Big Cypress, etc.) 
as well as specific major topical subjects (e.g., ecological 
modeling, hydrological modeling, landscape dynamics, 
contaminants, etc). The science reviews/workshops will be 
conducted through the Science Coordination Team under the 
auspices of the Working Group via funding, in part, from the 
``Ecosystem Science Planing and Peer Review'' project.
    An increase of $249,000 is requested to support the Office 
of the Executive Director, South Florida Ecosystem Task Force.
    Question. Is the need for this increase related to the 
increases requested for other South Florida activities (such as 
land acquisition)?
    Answer. No, this increase is necessary to meet the new 
requirements for support to the task force and working group. 
The requirements of the Water Resources Development Act (WRDA) 
of 1996 expanded the membership and scope of duties of the task 
force to include State, Tribal, and local government entities 
and also directs the Secretary of the Interior to ensure a high 
level of public participation and access to records. This 
modest budget increase will allow the task force and its 
working group to meet these requirements.
    Question. Is this increase needed even if funding for other 
South Florida activities is closer to the fiscal year 1997 
level rather than the fiscal year 1999 request?
    Answer. Yes, this funding increase is based on the new 
requirements contained in the Water Resources Development Act 
of 1996 and has no direct relationship to the funding 
requirements for specific restoration projects and initiatives.

           interior columbia basin ecosystem management plan

    This subcommittee has major reservations about the Interior 
Columbia Basin Ecosystem Study. When this project was first 
undertaken by the BLM and FS, Congress was assured that 
planning over large areas such as the Columbia Basin would 
promptly result in making final land management decisions. It 
is very frustrating, that due to the process of consultation, 
the Columbia Basin study has become little more than a 
bureaucratic process that appears to be in addition to a 
cumbersome local planning process.
    Question. Do you foresee that the record of decision could 
prevent further species listing relative to actions on federal 
lands? What will it take in the record of decision to 
accomplish this goal?
    Answer. We hope to build into the Final EIS and Record of 
Decision the necessary analysis and direction to avoid the need 
to list additional species where all or a major portion of the 
species population resides on federal lands. Furthermore, it is 
our intention to provide the necessary direction to ensure that 
no listing of additional species occurs as a result of 
management actions on Forest Service or BLM lands. This intent 
is clearly written into the goals for the Project. However, it 
may be necessary to list species which occur on federal lands 
because of adverse actions occurring on other parts of the 
species range. By implementing the Final EIS and Record of 
Decision, we will have done our part to prevent further species 
listing.
    Question. Beyond the requirements for consultation, when 
and if a Record of Decision is issued for the Columbia Basin 
Study, how can we get the decision fully implemented without 
local unit planning efforts?
    Answer. The Record of Decision will amend Forest and 
Resource Management Plans across the project area. It is 
intended to provide broadscale direction on issues that cross 
administrative boundaries. It will also provide goals for 
management activities that are more consistent between 
administrative units.
    Local unit planning efforts will be necessary to fully 
implement management direction from this Project. We are not 
substituting broadscale direction for local land management 
plans. On-the-ground implementation decisions will continue to 
be made by local land managers using direction provided in the 
amended plans. Additional collaboration, public comment, and 
analysis may be required in some areas during the local 
planning process.
    Question. How much of the funds in the President's budget 
that are directed towards implementation of the plan will 
actually go to implementing local plans?
    Answer. All of the new funding proposed in the President's 
budget is directed towards implementation of the decisions of 
the Project. Some of the funding will be utilized for certain 
process requirements such as sub-basin review and ecosystem 
analysis at the watershed scale or tribal coordination and 
collaboration. All are essential steps in meeting the direction 
of the Project, and assuring that the actions taken by the land 
management agencies meet ecosystem restoration goals.
    Question. What is the impact of the plan on private 
property?
    Answer. Decisions made in the Final EIS and Record of 
Decision will not apply to private or other non-federal lands. 
Decisions made by the Project will only apply to the 72 million 
acres of Forest Service or BLM administered land within the 
project area. How those lands are managed could affect other 
lands; just as current management of federal lands affects 
other lands, and private management affects federally 
administered lands.
    The National Environmental Policy Act requires that federal 
land managers consider the effect of their resource management 
activities on surrounding lands as well as federal lands. 
Chapter 4 of the DEIS outlines what the cumulative effects 
might be.
    Question. What would be your reaction to language in the 
Interior Appropriations bill which states that the plan shall 
in no way adversely impact private property owners?
    Answer. The 1996 Interior Appropriations Act included 
language that expressly prohibited the use of recommendations, 
regulations, or requirements included in the Final or Draft 
EISs or Records of Decision to regulate the use of, or actions 
occurring on, non-federal lands. The language further specified 
that the products of the Project shall not provide any legal 
basis for imposition of such recommendations, regulations, or 
requirements on non-federal lands by any court or regulatory 
agency, federal or state.
    The Department opposes the inclusion in appropriations 
bills of language extraneous to the appropriations process, 
such as that suggested in the question. Further, since the 
project does not apply to non-federal lands within the project 
area, such language would not clarify impacts to private 
property owners.
    Question. The Columbia Basin Study has been extremely 
expensive, with the BLM and Forest Service spending over $15 
million on the study alone and estimating up to approximately 
$150 million to operate under the plan. To what degree is 
success of the plan dependent on these agencies receiving the 
funding increases requested in the fiscal year 1999 budget?
    Answer. Funding for implementation of the Project would 
result from three approaches: (1) redirecting the capability of 
our existing field organization; (2) requesting new funding 
from Congress; and (3) developing partnerships. If full funding 
is not provided, the rate of implementation of the final 
alternative will be decreased appropriately and 
proportionately.

                         National Park Service

                        construction management

    Pursuant to language contained in the fiscal year 1998 
Conference report, the Park Service--with the help of an 
outside panel--has been engaged in a bit of ``soul searching'' 
with regard to its construction program. This was prompted by 
the public outcry over the $300,000 outhouse at Delaware Water 
Gap NP, and some very expensive employee housing that was built 
at other park units.
    Question. What is the status of the outside panel's review 
of Park Service construction management? When will the panel's 
report be completed?
    Answer. The National Academy of Public Administration 
(NAPA) began their review of NPS construction management in 
January of this year. NAPA researchers have visited the Denver 
Service Center, selected parks, and regional offices. Their 
discussions at each office have focused on understanding how 
the NPS currently manages the construction program. They were 
provided information on funding cycles, flow of funding from 
Congress into construction projects, checks and balances within 
the system for accountability of fiscal expenditures, the 
selection of the professional office to perform the work, and 
detailed project management procedures. NAPA's final report of 
their findings is to be submitted in June, 1998.
    Question. Can you give us any hints as to what the panel 
may recommend, or what your own views are regarding management 
of the Park Service construction program?
    Answer. As of this date no official information is 
available to the NPS regarding NAPA's findings. The Service is 
aware of the program's shortcomings. In support of the 
Administration's initiative to improve government operations, 
the Denver Service Center implemented some changes in the 
beginning of fiscal year 1996. These changes created a totally 
reorganized office, revamped office practices, and reduced the 
work force by nearly one third. Implementation of all these 
changes continues and the Department and the NPS welcome the 
insight of the NAPA findings to aid in further improvements to 
the construction program.
    The fiscal year 1999 line item construction list for the 
Park Service was delivered to the Committee only recently, as 
the Park Service was engaged in a careful scrub of the 
individual projects.
    Question. Are you confident that the projects on the fiscal 
year 1999 construction list represent only the most critical 
health and safety and resource protection needs?
    Answer. Yes. In February of 1998, NPS and Departmental 
representatives met to thoroughly review the fiscal year 1999 
NPS construction program request. All potential projects from 
fiscal year 1999, 2000, and 2001 were screened and assessed. 
Only those projects that possessed the strongest health and 
safety, resource protection requirements, or continuing 
projects were recommended for inclusion in the President's 
fiscal year 1999 budget request.

                           millennium program

    The Administration is requesting $50 million within the 
Park Service budget for a new program to help public and 
private entities preserve historic sites and cultural artifacts 
important to America's heritage. Half of this funding would be 
used for grants to States and tribes, half would be used for 
projects of ``national scope'' to be selected by the White 
House.
    Question. If the grants to states are to be made according 
to existing allocation formulas, and the national funds are to 
be allocated under existing grant programs, why has the 
Administration chosen to establish an entirely new program and 
screening process?
    Answer. In point of fact, the Administration is not 
proposing establishing an entirely new program. The Historic 
Preservation Fund is a 30-year old Federal grant program with 
well-established administrative processes and professional 
performance standards. The Millennium program to Save America's 
Treasures would increase the fund for two years to make a 
special effort to preserve our history and culture as we enter 
a new Millennium, but in a manner that is already familiar to 
the existing partners, and does not add administrative expense.
    Question. Why shouldn't individual projects of national 
worth simply be identified and funded through existing programs 
or line-item appropriations for the relevant agencies?
    Answer. The goal of the Millennium program is to raise 
national awareness of the importance of preserving our key 
national treasures for future generations. Quoting First Lady 
Hillary Rodham Clinton, ``It is the turn of the century. It is 
the turn of the millennium. But more than that, it is an 
opportunity for us to take stock of who we are as Americans, 
what we believe in and what we want to carry into the next 
century.'' Pre-targeting specific projects would diminish the 
potential national awareness and desired grassroots 
involvement. The magnitude of our nation's most urgent 
preservation needs is not fully known. Predetermining projects 
may miss key national treasures sorely in need of assistance. 
The Administration's proposal provides for more open 
competition and public access on behalf of the full breadth of 
our Nation's historic and cultural treasures.
    Question. Why should the grants to States and tribes be 
separate from the regular Grants-in-Aid to State programs?
    Answer. As noted above, the proposal is not separate from 
the existing program per se, but rather effectively uses an 
already existing program while augmenting it to celebrate the 
millennium and to highlight this important need. The proposal 
neither undermines nor diminishes the existing programs to 
States and tribes; it is simply a program of limited duration 
with specifically targeted goals but within an already existing 
program. Too, the Millennium Grants have a slightly broader 
focus that the routine Historic Preservation Fund program with 
the additional and allowable--emphasis on collections and 
archives. The program should be held separate with specific 
regard to tribes; targeting tribal grant funds through states 
would violate the nation's government-to-government 
responsibilities to Indian Tribes.
    Question. Why should Indian Tribes be given a blanket 
exemption from cost share requirements for the purposes of this 
program? Shouldn't exemption from cost share requirements at 
least be contingent upon a judgment that the tribe in question 
does not have the resources available for matching funds?
    Answer. The National Park Service's 10-year experience with 
the Historic Preservation Fund of providing assistance to 
tribes has shown that, with few exceptions, tribes simply 
cannot provide match. Were this made a requirement, few could 
participate in the national program and we would all be 
diminished for it. In addition, there is precedent. Most 
Federal grant making typically exempts tribes from matching 
requirements or, conversely, authorizes tribes to use other 
Federal funds as matching share. Given the short and targeted 
duration of the Save America's Treasures Grants, the former 
approach was deemed the best administrative approach.

                           yosemite recovery

    Last year Congress approved close to $200 million in 
emergency funding for restoration and rehabilitation of 
Yosemite National Park.
    Question. Can you update us as to the status of the 
recovery?
    Answer. The recovery effort is fully engaged. Most projects 
are on schedule with the Yosemite Flood Recovery Action Plan 
submitted to Congress in November, 1997. That plan outlines a 
4-year timetable for substantial completion of flood related 
repairs. Throughout the past year, most NEPA compliance, 
emergency repairs, and preliminary planning for permanent 
repairs have been completed. A flood recovery management team 
is established in the park and reports to the Superintendent. A 
support and oversight process is established at the Regional 
Office and Washington levels, with quarterly review by the 
Office of the Secretary of the Interior and House and Senate 
appropriations Committees through the Flood Recovery Quarterly 
Reports.
    One major project, the permanent rebuilding of the El 
Portal Road (7.5 miles of Highway 140 within the park), was 
delayed from January until September, 1998. The delay was due 
to project bidding that reflected contractor anxiety about 
beginning a major earth-moving project in the middle of an El 
Nino winter. A rebidding process is now concluded, with 
expected award on June 1, 1998.
    Day use visitors will experience only minor disruptions 
from recovery work this summer. Overnight accommodations remain 
essentially at 1997 levels. The 250 lodge units and 350 
campsites destroyed by flooding are not yet replaced. Lodge 
construction is scheduled to start in June of 1998. Campground 
reconstruction is pending a Record of Decision on the Valley 
Implementation Plan/Supplemental Environmental Impact Statement 
expected by December 1998.
    Concessioner service levels continue to be impacted by the 
loss of 439 bed spaces in Yosemite Valley. Yosemite Concession 
Services, the park's main lodging provider, has chosen to use 
150 overnight visitor rental units to house employees and has 
also installed 84 temporary dormitory beds. This results in 
another 150 units being unavailable for overnight visitors, but 
continues the strategy established in the summer of 1997.
    As of March 31, 1998, $44.4 million has been obligated on 
the recovery effort. Current projections call for obligations 
of an additional $50 million this calendar year. Current 
estimates are generally running within 10 percent of original 
estimates. One project, the rebuilding of El Portal Road 
(Highway 140 within the park), has exceeded the original cost 
estimate by approximately 30 percent or $8 million. Natural and 
cultural preservation concerns, coupled with the precipitous 
nature of this Merced River canyon construction, have escalated 
project costs beyond the original estimate. At this time, we 
expect to manage the shortfall within the context of the entire 
$186 million recovery authorization, applying savings from 
other projects wherever possible. This is a design/build 
project and has been through a negotiated bidding process with 
three of the country's largest road building firms. The Federal 
Highway Administration is in the process of certifying the 
``Best and Final Offers'' and expects to award the contract on 
June 1, 1998.

                           headwaters protest

    Media reports recently described ongoing protests against 
the proposed deal to preserve the Headwaters Forest and other 
redwood groves in California. One of those reports described a 
sit-in taking place on a tree that was on land owned by Pacific 
Lumber Company. The story went on to acknowledge that the sit-
in was a case of criminal trespass, and that one of the 
participants was a Park Service employee.
    Question. While we can all appreciate the rights of your 
employees to exercise their first amendment rights, does the 
Department have any recourse when employees are engaged in a 
criminal activity--presumably off hours--that directly 
contradicts a departmental initiative?
    Answer. Redwood National Park and State Park law 
enforcement have a cooperative relationship with the Del Norte 
County Sheriff and the Chief of Police for Eureka, California. 
The Sheriff and the Chief have jurisdiction for such an 
incident described. No National Park Service employee was 
arrested on charges of criminal trespass, therefore, we dispute 
the media report. Regardless, we would be guided by the Federal 
Government Code of Ethics and Conduct in reviewing any incident 
which calls into question an employee's rights and which might 
jeopardize the government's business.

                                  gpra

    Question. How are the agency's annual performance goals 
linked to the agency's mission, strategic goals, and program 
activities in its budget request?
    Answer. Because of the way the NPS developed its goals, 
there is a direct relationship between the agency's mission, 
its strategic goals, and annual goals. NPS is also examining 
the relationship of goals and program activities in the budget 
request. The National Park Service developed a ``stack'' of 
five annual goals in order to successfully reach each five year 
strategic goal. The five year goals come directly from the NPS 
mission goals in its Strategic Plan.
    Question. How were performance measures chosen?
    Answer. The performance measures were developed as part of 
the process of developing the goals themselves. The National 
Park Service found that incorporating the performance measures 
into its goals, and stating goals as the desired condition 
(such as 50 percent historic structures are in good condition) 
forced clarification of the goal itself. The performance 
measures were chosen for relevance to the goal itself--they 
measured success in meeting that goal; availability--where 
possible, existing data was used; and accessibility--data could 
be collected without incurring major new costs. The NPS sought 
to find the most economical and least burdensome way possible 
to measure its goals. At the same time, because the NPS sees 
GPRA as a management system, and not simply a reporting 
requirement, performance measures were chosen to be as 
meaningful as possible--measuring condition of resources or 
visitors wherever possible.
    Question. How did the agency balance the cost of data 
collection and verification with the need for reliable and 
valid performance data?
    Answer. In its process of developing the goals which 
incorporate the performance measures into them, the NPS 
discarded numerous goals/measures because they were too 
subjective, too expensive to collect, or too subject to 
manipulation. The NPS sought to find the most economical and 
least burdensome way possible to measure its goals in a way 
that was also reliable and verifiable. For example, the visitor 
survey cards which measure visitor satisfaction will be 
returned to a central, non-park location for electronic 
processing before being returned to parks to analyze specific 
comments. Parks need to have the written, qualitative comments 
in order to manage better; the NPS needs the Servicewide 
quantitative data in order to be able to report Servicewide 
performance externally.

                       park operations initiative

    In addition to a number of increases requested for system-
wide initiatives, the Park Service is requesting a $6.79 
million increase for the ``Park Operations Initiative.'' The 
funds would be used to provide increases for 45 park units and 
one heritage area to meet high-priority operating needs.
    Question. Would you supply for the record a list of 
projects that would be completed if the increase for the Park 
Operations initiative were $15 million? $10 million? Only $3 
million?
    Answer. The following table entitled ``Park Specific 
Increase Proposals, fiscal year 1999, Various Funding Levels'' 
provides a list of project proposals by park under the 
suggested funding scenarios including the President's fiscal 
year 1999 budget request of $6.79 million for 46 areas. It 
lists the proposals alphabetically by park, the dollar amounts 
proposed under different funding levels, the reason for the 
increase and the increase objective. At a funding level of $15 
million 83 parks would receive funds to meet high-priority 
operating needs. A funding level of $10 million would reach 60 
parks. Funding at $3 million would aid 16 parks.

                                       PARK SPECIFIC INCREASE PROPOSALS, FISCAL YEAR 1999, VARIOUS FUNDING LEVELS
                                                         [Proposal amounts in thousand dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              President's     Other funding scenarios--total in millions
                                              fiscal year  ------------------------------------------------
                 Park unit                   1999  request                                                        Reason for increase and objective
                                            $6.79  million        $15             $10             $3
--------------------------------------------------------------------------------------------------------------------------------------------------------
Adams National Historic Site, MA..........  ..............             250  ..............  ..............  Increased workload: Maintain museum
                                                                                                             collections.
Andrew Johnson National Historic Site, TN.              75              75              75  ..............  New facilities: Upgrade Maintenance Program
                                                                                                             to Enhance Visitor Experience.
Antietam National Battlefield, MD.........  ..............             193  ..............  ..............  Restore programs: Enhanced seasonal
                                                                                                             maintenance and interpretive programs.
Appomattox Court House National Historical  ..............             335             150  ..............  Threats to resources: Develop Resource
 Park, VA.                                                                                                   Management and Preservation Capabilities.
Arkansas Post National Memorial, AR.......              55              55              55  ..............  Threats to resources: Provide resource
                                                                                                             preservation.
Assateague Island National Seashore, MD...  ..............             150             150  ..............  Threats to resources: Improve Safety and
                                                                                                             Resource Management.
Cache La Poudre Heritage Area, CO.........             150             150             150             125  New Area: Provide Technical Assistance for
                                                                                                             New Heritage Area.
Cane River Creole National Historical                  100             100             100  ..............  New Area: Upgrade Maintenance Program to
 Park, LA.                                                                                                   Provide Resource Preservation.
Canyonlands National Park, UT.............  ..............             203  ..............  ..............  Threats to resources: Improve visitor and
                                                                                                             resource protection.
Carl Sandburg Home National Historic Site,  ..............             125  ..............  ..............  Threats to resources: Preventive
 NC.                                                                                                         preservation maintenance.
Casa Grande Ruins National Monument, AZ...              72              72              72  ..............  Threats to resources: Upgrade maintenance
                                                                                                             program to provide resource preservation.
Catoctin Mountain Park, MD................  ..............             157  ..............  ..............  Deteriorated infrastructure: Maintain
                                                                                                             historic/public use buildings.
Chattahoochee River National Recreation     ..............              60              60  ..............  Increased workload: Provide technical
 Area, GA.                                                                                                   assistance.
Chesapeake and Ohio Canal National                     140             140             140  ..............  Health and safety: Provide visitor and
 Historical Park, DC-MD-WV.                                                                                  resource protection.
Chickamauga and Chattanooga National        ..............             200             200  ..............  Resource preservation: Address maintenance
 Military Park, GA.                                                                                          needs and resource threats.
Chiricahua National Monument, AZ..........             110             110             110  ..............  Threats to resources: Provide resource
                                                                                                             preservation.
Cuyahoga Valley National Recreation Area,   ..............             600  ..............  ..............  Threats to resources: Maintain and provide
 OH.                                                                                                         interpretation of the Cuyahoga Valley
                                                                                                             Railroad.
Denali National Park and Preserve, AK.....  ..............             160  ..............  ..............  Deteriorated infrastructure: Implement road
                                                                                                             dust palliative program.
De Soto National Memorial, FL.............              50              50              50  ..............  Deteriorated infrastructure: Upgrade
                                                                                                             maintenance program to enhance visitor
                                                                                                             experience.
Effigy Mounds National Monument, IA.......             107             107             107  ..............  Deteriorated infrastructure: Upgrade
                                                                                                             maintenance program to enhance visitor
                                                                                                             experience.
El Morro National Monument, NM............              52              52              52  ..............  Threats to resources: Provide resource
                                                                                                             preservation.
Fire Island National Seashore, NY.........             250             250             250             200  Deteriorated Infrastructure: Provide visitor
                                                                                                             and resource protection.
Fort Davis National Historic Site, TX.....  ..............             105  ..............  ..............  Threats to resources: Initiate cultural
                                                                                                             resource management program.
Fort Donelson National Battlefield, TN....  ..............              57              57  ..............  Threats to resources: Maintain cultural
                                                                                                             resources.
Fort Frederica National Monument, GA......              60              60              60  ..............  Threats to resources: Enhance maintenance
                                                                                                             program to provide resource preservation.
Fort Larned National Historic Site, KS....              70              70              70  ..............  Deteriorated infrastructure: Enhance
                                                                                                             maintenance program to provide resource
                                                                                                             preservation.
Fort Pulaski National Monument, GA........  ..............             100  ..............  ..............  Deteriorated infrastructure: Maintain
                                                                                                             historic structures.
Fort Stanwix National Monument, NY........              50              50              50  ..............  Deteriorated infrastructure: Enhance
                                                                                                             maintenance program to provide resource
                                                                                                             preservation.
Fredericksburg and Spotsylvania County      ..............             298  ..............  ..............  New lands: Manage new lands acquired since
 Battlefields Memorial National Military                                                                     1989.
 Park, VA.
George Washington Memorial Parkway, MD-VA.             143             143             143  ..............  New facilities: Enhance maintenance program
                                                                                                             for a newly-acquired responsibility.
Glacier Bay National Park and Preserve, AK  ..............             387             347  ..............  Health and Safety: Maintain park facilities
                                                                                                             and utility systems.
Glen Canyon National Recreation Area, UT..  ..............              50  ..............  ..............  Health and safety: Protect human health and
                                                                                                             improve water quality.
Golden Gate National Recreation Area, CA..             500             500             500             450  New facilities: Enhance maintenance program
                                                                                                             for a newly-acquired responsibility.
Grand Portage National Monument, MN.......  ..............              56  ..............  ..............  Threats to resources: Protect and define
                                                                                                             cultural resources.
Grant-Kohrs Ranch National Historic Site,              107             107             107  ..............  Threats to resources: Enhance maintenance
 MT.                                                                                                         program to provide resource preservation.
Guilford Courthouse National Military                  100             100             100             100  Increased visitation: Enhance education
 Park, NC.                                                                                                   programs and provide resource preservation.
Hampton National Historic Site, MD........  ..............              78  ..............  ..............  Restore programs: Enhance visitor services
                                                                                                             and upgrade curatorial program.
Hawaii Volcanoes National Park, HI........             275             275             275             205  Threats to resources: Provide resource
                                                                                                             preservation.
Home of Franklin D. Roosevelt National                  80              80              80              80  New facilities: Enhance maintenance program
 Historic Site, NY.                                                                                          for a newly-acquired responsibility.
Jean Lafitte National Historical Park and   ..............              60              60  ..............  Threats to resources: Provide increased
 Preserve, LA.                                                                                               resource management and maintain visitor
                                                                                                             center/headquarters building.
John Muir National Historic Site, CA......             168             168             168             168  Threats to resources: Upgrade maintenance
                                                                                                             program to enhance visitor experience.
Kaloko-Honokohau National Historical Park,  ..............             250             250  ..............  Threats to resources: Improve park
 HI.                                                                                                         operations and protect resources.
Kennesaw Mountain National Battlefield                  80              80              80  ..............  New facilities: Enhance education programs
 Park, GA.                                                                                                   and provide resource preservation.
Keweenaw National Historical Park, MI.....  ..............             200  ..............  ..............  New area: Provide Critical Resource
                                                                                                             Management Capability.
Lincoln Boyhood National Memorial, IN.....              50              50              50  ..............  New Program: Enhance Education Programs.
Maggie L. Walker National Historic Site,    ..............             293             225  ..............  New facilities: Maintain Rehabilitated
 VA.                                                                                                         Buildings and Operate Site.
Manassas National Battlefield Park, VA....             250             250             250             200  New Facilities: Enhance Education Programs
                                                                                                             and Provide Resource Preservation.
Manzanar National Historic Site, CA.......             137             273             273  ..............  New Area: Enhance Maintenance Program for a
                                                                                                             Newly-Acquired Area.
Marsh-Billings National Historical Park,               244             244             244             244  New area: Operate New Unit.
 VT.
Mesa Verde National Park, CO..............             204             304             204  ..............  Threats to Resources: Provide Resource
                                                                                                             Preservation.
Minute Man National Historical Park, MA...             250             250             250             200  Health and Safety: Provide Visitor and
                                                                                                             Resource Protection.
Mississippi National River and Recreation   ..............             300             300  ..............  New area: Develop Partnership Programs.
 Area, MN.
Natchez National Historical Park, MS......             300             300             300             300  New Facilities: Enhance Education Programs
                                                                                                             and Upgrade Maintenance Program.
National Capital Parks-Central, District               250             250             250             200  New Area: Upgrade Maintenance Program to
 of Columbia.                                                                                                Enhance Visitor Experience.
National Capital Parks-East, District of                87              87              87  ..............  Health & Safety: Upgrade Safety Program.
 Columbia.
New Orleans Jazz National Historical Park,             100             100             100  ..............  New Facilities: Enhance Education Programs
 LA.                                                                                                         and Upgrade Maintenance Program.
Niobrara/Missouri National River, NE......             100             100             100  ..............  New Area: Commission Support for New Unit.
Northwest Alaska Areas, AK................  ..............             183  ..............  ..............  Threats to resources: Develop Professional
                                                                                                             Archaeological Program.
Obed Wild and Scenic River, TN............  ..............              50  ..............  ..............  New facilities: Provide Visitor Services.
Oklahoma City National Memorial, OK.......             200             200             200             175  New Area: Technical Assistance for New Unit.
Olympic National Park, WA.................              88              88              88  ..............  Threats to Resources: Provide Resource
                                                                                                             Protection.
Pea Ridge National Military Park, AR......              62              62              62  ..............  Threats to Resources: Provide Resource
                                                                                                             Preservation and Enhance Education
                                                                                                             Programs.
Point Reyes National Seashore, CA.........  ..............             314             150  ..............  Threats to resources: Protect Critical
                                                                                                             Natural Resources.
Puuhonua o Honaunau National Historical                240             240             240  ..............  Threats to Resources: Provide Resource
 Park, HI.                                                                                                   Preservation.
Rock Creek Park, District of Columbia.....             126             126             126             126  New Facilities: Upgrade Maintenance Program
                                                                                                             to Enhance Visitor Experience.
Saint-Gaudens National Historic Site, NH..  ..............             167  ..............  ..............  New facilities: Protect, preserve and
                                                                                                             interpret park resources.
Salinas Pueblo Missions National Monument,  ..............             105  ..............  ..............  Threats to resources: Enhance ruins
 NM.                                                                                                         preservation.
Sequoia and Kings Canyon National Parks,    ..............             458  ..............  ..............  Threats to resources: Mitigate natural
 CA.                                                                                                         resources threats.
Sitka National Historical Park, AK........             255             255             255  ..............  Increased Visitation:Enhance Education
                                                                                                             Programs and Provide Resource Protection.
Tallgrass Prairie National Preserve, KS...  ..............             200  ..............  ..............  New area: Provide Operational Funding for a
                                                                                                             New Park.
Theodore Roosevelt Inaugural National                   50              50              50  ..............  Deteriorated Infrastructure: Enhance
 Historic Site, NY.                                                                                          Maintenance Program to Provide Resource
                                                                                                             Preservation.
Thomas Stone National Historic Site, MD...  ..............             300             300  ..............  New area: Maintain and operate restored
                                                                                                             historic structures.
Tuskegee Institute National Historic Site,             133             133             133  ..............  Increased Visitation: Enhance Education
 AL.                                                                                                         Programs and Upgrade Maintenance Program.
U.S. Park Police, VA......................  ..............             650             650  ..............  Health and Safety: Increase Law Enforcement
                                                                                                             Presence on GWMP.
Valley Forge National Historical Park, PA.             356             356             356  ..............  Threats to Resources: Upgrade Maintenance
                                                                                                             Program to Enhance Visitor Experience and
                                                                                                             Provide Visitor Protection.
Washita Battlefield National Historic                  110             110             110             110  New Area: Operate New Unit.
 Site, OK.
Weir Farm National Historic Site, CO......              87              87              87  ..............  New Area: Enhance Education Programs.
White House, District of Columbia.........  ..............              70  ..............  ..............  New facilities: Provide Controlled Climate
                                                                                                             for Museum Collection.
William Howard Taft National Historic                  189             189             189             189  New Program: Enhance Education Programs and
 Site, OH.                                                                                                   Upgrade Maintenance Program.
Women's Rights National Historical Park,    ..............              55  ..............  ..............  New facilities: Operate and Maintain
 NY.                                                                                                         Restored M'Clintock House.
Wrangell-St. Elias National Park and                   128             128             128             128  New Facilities: Upgrade Maintenance Program
 Preserve, AK.                                                                                               to Enhance Visitor Experience.
Yellowstone National Park, WY.............  ..............             755             175  ..............  Threats to resources: Ensure Resource
                                                                                                             Preservation.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                      cultural resource management
    Page 47 of the justification indicates that 2,000 structures will 
be added to the List of Classified Structures in fiscal year 1998 and 
1999. That page also indicates that approximately 20,000 of the 
estimated 22,000-25,000 structures in parks have been inventoried.
    Question. Does this indicate that the inventory of historic 
structures in the park system is close to completion? If so, do you 
anticipate a reduction or reallocation of resources required for this 
purpose in fiscal year 2000?
    Answer. Yes, the classified structures inventory should be 
substantially complete by the end of fiscal year 2000. However, after 
that date, work will be needed, and continued, to keep current the 
basic management information concerning significance, threats, impacts, 
condition, use, and approved treatment of these resources. Funding, if 
any, which is not needed for the classified structures inventory might 
be reallocated and used to inventory cultural landscapes within the 
NPS.
                        inventory and monitoring
    The request includes a more than 30 percent increase ($2 million) 
for the Inventory and Monitoring program, which would enable applicable 
parks to acquire twelve basic data sets in 12 years as opposed to 17 
years.
    Question. Is it anticipated that the data acquired with this 
increase will have a significant beneficial impact on park management 
during the 5-year period by which data collection will be advanced?
    Answer. Yes. These are data that are often needed now if impacts to 
resources are to be avoided, so advancing to any degree is helpful. The 
inventory program is moving into the collection of data on endangered 
species and other species of special concern. To meet Government 
Performance and Results Act (GPRA) baselines and goals, protect species 
from further losses, and to identify and protect sensitive cave and 
resources, basic data are needed.
    Question. Why shouldn't this increase instead be used to meet the 
large quantity of known and unmet needs within the park system?
    Answer. The lack of this information is one of the important unmet 
needs within the park system. In a survey conducted by the National 
Parks and Conservation Association in 1994, park superintendents rated 
``adequacy of natural resource base data'' third, behind only ``overall 
park budget'' and ``adequacy of workforce size'' as one of the most 
critical needs. As such, it rated higher than 45 other needs including 
those such as campgrounds, transportation services, ranger tours/talks, 
park housing, employee morale, structure or ruin stabilization, and 
endangered species. The General Accounting Office and many others have 
also evaluated lack of baseline data as a critical outstanding park 
need.
    An increase of $500,000 is requested for the Interior Museum 
Property Program, part of which appears to be for the purpose of 
covering shortfalls within individual bureau budgets.
    Question. Is the Park Service performing functions that apparently 
are not a high enough priority within the other bureaus to warrant 
allocation of adequate resources? If so, why?
    Answer. No, the National Park Service is not performing functions 
for other bureaus. The National Park Service has the largest holdings 
of museum collections at Interior and retains the funding mechanism to 
support the Departmentwide museum property activities. Interior's 
Museum Property Program was restructured in fiscal year 1998 to clarify 
roles and lines of authority and to improve the Department's museum 
services. To foster a strong and coordinated management structure for 
all Interior Museum Program operations, the Office of Museum Services 
was created to provide advice, guidance, technical assistance and 
training to all Interior bureaus with museum collections. The Office of 
Museum Services coordinates closely with the Office of Acquisition and 
Property Management, which continues to have responsibility for 
managing Interior Museum Program policies. The increase of $500,000 
will provide critical funding for this Office to address the management 
weaknesses and deficiencies in the accountability and control over 
museum property.
    Interior has museum collections at 739 units throughout the 
Department and at more than 400 nonfederal institutions. Each bureau 
has prepared a strategic plan for bringing the management of its 
collections into compliance with the Department's standards for 
managing museum collections. Bureaus have begun to hire curators and 
other professional staff, and have identified a critical need for 
training to effectively carry out their program responsibilities. The 
Office of Museum Services will provide Departmentwide training on how 
to care for and properly store museum collections, in addition to other 
areas including program planning, cataloging, public access, use and 
interpretation, and environmental monitoring. The Office will promote 
an understanding of Interior's mission and activities; develop, 
demonstrate and test museum techniques and services; consolidate 
collections management activities; and manage all museum services in 
the Main Interior Building Complex. The Office will manage cross-
boundary partnerships with museum and educational institutions to 
increase access to specialized skills and improve the effectiveness of 
the program. To increase appropriate access to our museum collections, 
the Interior Museum Property Program has developed an Internet home 
page to provide up-to-date information to scientists, educators, 
researchers, and members of the general public.
                            Visitor Services
                         visitor use management
    The justification notes the work being performed by the National 
Center on Accessibility.
    Question. How much is the Park Service currently spending annually 
on accessibility, both in retrofitting existing facilities and as 
additional incremental work for new construction?
    Answer. In fiscal year 1998, $595,000 is funded for program 
direction and assistance. That figure includes the $208,000 allocated 
for the Accessibility Management Program and the $287,000 allocated to 
Indiana University for the work of the National Center on 
Accessibility. The NPS does not currently compile total expenditures 
for accessibility work being accomplished in projects undertaken at the 
individual parks. Most of the work is accomplished as part of the 
repair and rehabilitation program, the cyclic maintenance program, or 
the new construction program. In some areas, the entire project is 
devoted to accessibility concerns; in other instances, only a portion 
of a project cost encompasses accessibility issues. Federal law 
mandates that all construction and renovation projects be completed in 
compliance with current accessibility codes and standards. Research has 
shown that when access is considered in the design of new projects, the 
cost is very small.
    Question. Is this amount increasing, declining, or about level?
    Answer. The President's fiscal year 1999 budget proposes 
significant increases in the NPS Repair/Rehabilitation and Cyclic 
Maintenance programs, which will result in considerable increased 
expenditures for accessibility work by the Service in fiscal year 1999. 
We are currently exploring a means to conduct a more comprehensive 
condition assessment of our access deficiencies, so we can more 
effectively program corrective actions.
    Question. How much accessibility work does the Park Service perform 
for other Interior bureaus, other agencies, and nonfederal entities?
    Answer. In general we do not perform accessibility work for other 
bureaus, agencies, and non federal entities. The only exception to that 
would be the technical assistance and in-service education programs and 
services provided by the National Center on Accessibility (NCA). While 
the primary objective of NCA is to provide assistance to the National 
Park Service, they also make their services available to other agencies 
and organizations in the park and recreation field.
    Question. Is any of this work reimbursable?
    Answer. Yes, a large share of the work performed by the NCA is 
reimbursable. The NCA is funded partially by the Cooperative Agreement 
with the National Park Service, but their program is also funded 
through the provision of in-kind costs provided by the University, by 
fee for service activities, by other grants and cooperative projects, 
and by tuition fees generated by the continuing education programs. In 
almost all instances these other agencies pay for those services.
    The justification indicates that the amount of appropriations from 
the Operation of the National Park System account that will be required 
for fee collection will drop from $2.9 million in fiscal year 1998 to 
$1.5 million in fiscal year 1999 (p. 79).
    Question. Why is this $1.4 million reduction not reflected as a 
program decrease in the Visitor Use Management activity?
    Answer. The NPS Budget Justification states that the estimated $1.4 
million not needed for fee collection at demonstration parks would be 
reprogrammed for other park uses. Accordingly, the NPS did not propose 
a budget reduction as it was unclear as to what use or uses for which 
the funds would be reprogrammed. Since the submission of the fiscal 
year 1999 budget, the NPS has begun the process of reevaluating its 
course of action as regards to the ONPS fee collection monies and how 
``non- demonstration'' parks will cover the cost of fee collection in 
fiscal year 1999. Once a final decision is made, the NPS will submit a 
reprogramming as required.
    Question. To what types of other activities will these funds be 
reprogrammed?
    Answer. Should the funds be reprogrammed for activities other than 
fee collection costs, the activities would cover the basic park 
operational responsibilities of resource stewardship, visitor services, 
and park maintenance. The funds could remain in the park that currently 
has control of the funds or be shifted from one park to another to 
cover operational requirements that are unmet at the other park.
    Question. Assuming these funds are included in the fiscal year 1999 
Appropriations Act, does the Park Service anticipate submitting a 
reprogramming request for these funds to the Committees on 
Appropriations?
    Answer. Should the NPS anticipate using the funds for an activity 
other than fee collection, a reprogramming request will be submitted to 
the Committees, as required. $1.5 million is being requested for the 
costs of background checks for law enforcement officers, in part to 
reduce the burden these costs place on individual park units.
                           health and safety
    Funds were provided in fiscal year 1998 for a Workers' Compensation 
Initiative. According to the justification (p. 81), these funds are 
supporting nine positions Servicewide.
    Question. Are these funds being used for retraining, actual 
salaries and benefits, or both?
    Answer. The Department of the Interior initiated a program to 
create opportunities so that persons on long-term disability could 
return to work. The National Park Service agreed to participate by 
providing temporary funding for nine positions as part of its risk 
management initiative, with the intent of bringing eligible employees 
who experienced employment-related injuries back to work. As this 
program began being implemented, however, it became apparent that 
coordinating this kind of job placement was difficult. Since it has 
also been found that training Workers' Compensation coordinators, 
evaluating each case file, and funding fraud/abuse investigations as 
planned is proving more effective, fiscal year 1998 program resources 
have been redirected to these efforts in order to maintain progress 
towards the NPS fiscal year 1999 risk management goals. The program is 
still being reevaluated, and a redesigned program reflecting these 
changes will be submitted this summer to the Appropriation 
Subcommittees.
    Question. Are the positions being supported all within the Visitor 
Services activity?
    Answer. The plan had been to support all risk management activity 
associated with this initiative out of the Visitor Services subactivity 
of the Park Management activity.
    Question. If not, will funding for these positions be transferred 
into other program areas? If so, when?
    Answer. It had never been the plan of the National Park Service to 
transfer funds to other subactivities to temporarily support positions 
in those functional areas.
    Question. Will new positions be supported with the Workers' 
Compensation Initiative funding as these positions are transferred?
    Answer. As previously stated, the National Park Service is working 
on redesigning their program to emphasize investigations and training, 
which are proving to be more cost effective than the temporary 
subsidization of positions.
    The Service is requesting an increase of $2 million for Risk 
Management, which will be used to contract with a consulting firm to 
assist parks in reducing employee accidents and related costs.
    Question. What work would the Park Service be able to perform with 
only a $1 million or $500,000 increase?
    Answer. The original request for $2 million is to assist at least 
12 to 15 park units (and perhaps as high as 20 parks) with poor 
accident/injury rates that are not able to reduce the number of 
employee accidents/incidents by 10 percent per year through the year 
2002. A reduction of 50 to 75 percent will result in a corresponding 
reduction in the number of parks that will benefit from this 
initiative.
    Question. Will the $2 million be a one-time cost, a recurring cost 
for a definite period, or an ongoing cost?
    Answer. The NPS anticipates this level of funding as recurring for 
a period of five years.
    Question. What are the estimated savings in workers' compensation 
that would be achieved if the Park Service were to meet its safety 
goals for fiscal year 1998? fiscal year 2002?
    Answer. We estimate that only approximately 40 percent of our 
annual OWCP costs can be reduced through active OWCP case management. A 
realistic expectation of a reduction may be as high as 10 percent of 
the current and projected costs. We also believe that all Continuation-
Of-Pay (COP) costs, which are paid for from the park base ($987,000 in 
fiscal year 1997), can be reduced by 10 percent each year. Potential 
savings are shown below. Since billings cover actions two years in 
arrears, the earliest the savings might be realized would be fiscal 
year 2000.

                                   ESTIMATED SAVINGS IN WORKERS' COMPENSATION
----------------------------------------------------------------------------------------------------------------
                                                                 Percent      Continuation-of-
                                                                reduction            pay         Long-term costs
----------------------------------------------------------------------------------------------------------------
Year:
    1.....................................................                10           $98,700          $650,000
    2.....................................................                20           197,500         1,300,000
    3.....................................................                30           296,000         1,950,000
    4.....................................................                40           395,000         2,600,000
    5.....................................................                50           493,500         3,250,000
----------------------------------------------------------------------------------------------------------------

    An amount of $1.5 million is being requested for the costs of 
background checks for law enforcement officers, in part to reduce the 
burden these costs place on individual park units.
    Question. Why are these funds being managed Servicewide as opposed 
to being included in the operational budgets of the park units that 
consistently have the greatest requirements?
    Answer. These funds for background checks on law enforcement 
rangers are managed Servicewide in order to provide the flexibility 
necessary to match National Park Service needs. The needs of individual 
park units vary significantly from year to year due to fluctuations of 
seasonal staff. Oversight at the national level provides funding to the 
appropriate parks on a consistent basis. Including these funds in the 
operational budgets of individual parks could lead to shortfalls in 
park units having an increased need in a particular year.
    Question. Have any park units received increases in recent years to 
offset the costs of background checks?
    Answer. Additional funds have not been previously requested to 
address this specific concern. Parks have covered these costs from 
funding already within their park base budget.
    The justification states that the $400,000 increase requested for 
``Airspace Issues over National Parks'' will be used for one FTE to 
``enable national park units to participate in [the] joint FAA-NPS 
process which requires extensive coordination and guideline 
development.''
    Question. How will the funding requested be used beyond salaries 
and benefits for the one FTE?
    Answer. Beyond salary, benefits, and support for the one FTE, these 
funds will be used to contract acoustic and aeronautical expertise for 
parks participating in the joint FAA-NPS process. Resolution of local 
issues will be facilitated by providing studies, research, or expert 
guidance needed in this extremely complex and technical process. The 
range of expertise required make contracting the only practical avenue 
if the NPS is to participate in this process.
    Question. In the out years of this program, how will implementation 
costs be divided between the program and the budgets of the individual 
park units requiring assistance?
    Answer. This proposal addresses only the provision of technical 
services, coordination, and guidance to the parks. All other costs, 
principally the costs associated with the joint planning process, would 
need to be born by the individual parks and, to some extent, by the 
Federal Aviation Administration.
                            u.s. park police
    The Park Police received a $12 million appropriation in fiscal year 
1998 as part of the District of Columbia Appropriations Act.
    Question. Please provide a detailed breakdown of how these funds 
will be used. Additional needs for the Park Police have been identified 
to this Committee, including the need for a new helicopter and 
additional funding for training and filling vacant positions.
    Answer. The U.S. Park Police received one-time funding in fiscal 
year 1998 as part of the District of Columbia Appropriations Act in the 
amount of $12 million. A breakdown on how funds are used is as follows: 
Repair and Rehabilitation of the Anacostia Operations Facility (AOF), 
$7,750,000; provide and enhance routine assistance to the District of 
Columbia, $1,248,400; operation of the Aviation Unit, $597,900; 
background investigations for onboard personnel, $760,000; and 
equipment replacement program for 54 percent of existing fleet, 
$1,643,700.
    Question. What is the Department's assessment of the Park Police's 
need for a new helicopter to be based in Washington, D.C.?
    Answer. The U.S. Park Police operate the only police aviation unit 
within the District of Columbia. The Park Police Aviation Program is 
operational for law enforcement, medical evacuation and rescue, and 
other emergency services 24 hours a day, seven days a week. There are 
two helicopters in the Aviation Program, one single engine helicopter 
(Bell 206LR) and one twin engine (Bell 206L3) helicopter. In 1992, the 
Park Police purchased the twin engine to replace an outdated single 
engine helicopter (Bell 206L). Currently, the single engine (206L3) 
helicopter has in excess of 7,600 hours of flight time and the twin 
engine has in excess 3,200 hours of flight time. The Department of the 
Interior's Office of Aircraft Services states that helicopters used for 
law enforcement and/or safety missions should be replaced at 5,000 
hours flight time. Funding requests to replace the outdated helicopter 
have been identified and submitted, but have not ranked high enough 
(within available funding allowances) when competing against other NPS 
needs.
    Question. Do the helicopters currently operated in Washington, D.C. 
meet operational and safety requirements?
    Answer. Yes, the U.S. Park Police helicopters currently operating 
in Washington, D.C. meet operational and safety requirements. The U.S. 
Park Police Aviation Unit is regulated by Part 91 of the Federal 
Aviation Regulations. These regulations require that each aircraft be 
certified to meet certain safety and maintenance codes. Part 91 
requires strict maintenance records and accountability as well as the 
additional need to meet passenger aircraft certification.
    Question. Does the Department anticipate requesting funds for a new 
helicopter(s) at any time in the foreseeable future?
    Answer. The U.S. Park Police continues to submit funding requests 
each fiscal year for two new helicopters. The NPS will submit this 
request for funding to the Congress when it is ranked as a high 
operational priority for the NPS and falls within allowance levels 
allowed for the NPS request.
    Question. What would be the cost of a replacement helicopter?
    Answer. The total cost of a replacement helicopter is approximately 
$10.4 million. This includes an annual recurring cost of approximately 
$1.8 million. The base cost of a twin engine helicopter is 
approximately $7 million. Additional completion cost for rescue/medivac 
configuration and necessary hangar modifications, which include a new 
above ground fuel delivery system, would cost approximately $1.6 
million. The Department of the Interior, Office of Aircraft Services is 
paid annually for hourly flight costs, daily availability rates, and 
catastrophic coverage for the aircraft at an approximate total of $1.75 
million. An additional $50,000 is needed annually to hire a full time 
mechanic to maintain both aircraft.
    Question. With the Park Police now having the only law enforcement 
aviation program in the District of Columbia, what is the estimated 
increase in costs to the Park Service of providing aviation services 
that are wholly or primarily for municipal purposes?
    Answer. The U.S. Park Police Aviation Unit is funded at $600,000 
annually. In fiscal year 1997, the Park Police Aviation Unit reported 
that 33 percent of all missions and 26 percent of all flight hours were 
devoted to the District of Columbia. Therefore, approximately $152,000 
of the annual operating budget was spent in providing non-reimbursable 
aviation services primarily for municipal purposes. Since the 
elimination of the Metropolitan Police Department's Aviation Unit, 
requests for assistance from the District of Columbia have increased 
approximately 40 percent over the last 22 months.
    Question. Has the Park Service received any increase in services 
from the District government in exchange for these increased aviation 
costs?
    Answer. The relationship between the United States Park Police and 
the Metropolitan Police Department of the District of Columbia is 
unique among Federal and municipal agencies. The Park Police have the 
same power and authority within the District of Columbia as the 
Metropolitan Police Department (MPD). Because of this relationship, the 
MPD and the Park Police have always used in-kind services to reimburse 
each other for services provided. While there has been no increase in 
services that can be directly related to our increase of aviation 
services, the interaction between the two departments occurs daily. The 
MPD has always assisted the Park Police with demonstrations and public 
events that occur in the many park areas within the District. This is 
especially true of the myriad demonstrations and special events that 
occur in the vicinity of the White House.
    Question. What are priority operational needs for the Park Police 
that the Park Service would fulfill if it had additional resources?
    Answer. The priority operational needs for U.S. Park Police are as 
follows:
  --Personnel: recruit and hire sufficient officers to address the 
        current shortfall of personnel.
  --Communications: address the mandated conversion to a narrow band 
        radio system by the year 2005.
  --Equipment: replace outmoded and worn equipment, including vehicles, 
        defensive equipment, uniforms, and Automated Data Processing 
        (ADP) equipment.
  --Aviation: replace two helicopters, including rescue/medivac 
        configuration costs.
  --Pension: ensure that the Park Police Pension system, which is 
        administered by the District of Columbia government, is 
        sufficiently funded to meet the requirements of this legally 
        mandated program.
    Question. What is the cost of filling additional positions 
and providing appropriate training (in appropriate increments)?
    Answer. The Federal Law Enforcement Training Center (FLETC) 
sets the size of a training class at 24. The cost of salaries 
and benefits will vary according to the month in which the 
class starts in the fiscal year. Startup costs for new officers 
include applicant processing, background investigation, 
physicals, uniforms and equipment, travel to and from the 
FLETC, and training. The following breakdown includes salaries 
and startup costs:

                  COST OF FILLING ADDITIONAL POSITIONS
------------------------------------------------------------------------
                  Month                     Class size      Total cost
------------------------------------------------------------------------
January.................................              24      $1,129,012
June....................................              24         736,176
August..................................              24         583,677
------------------------------------------------------------------------

    Question. Is the Park Service confident that the Park 
Police are given the opportunity to compete fairly with other 
park service programs and park units for budget increases?
    Answer. Yes. The U.S. Park Police budget requests are 
considered at each level of the budget process along with all 
other requests. The Park Police submit their requests to the 
National Capital Region's (NCR) budget office for inclusion in 
the NCR budget submission. NCR's budget request is then 
prioritized and forwarded to the Washington Office for 
inclusion in the National Park Service's budget request. At 
each step of this process, priorities are set for budget items 
by each entity. Thus, an item that is the top priority for the 
U.S. Park Police may fall as a much lower priority on the NCR 
request and this prioritization is repeated throughout the 
process. The U.S Park Police have received funding increases 
for needs comparable to other NPS operations, including a 
fiscal year 1997 increase of $600,000 for new operational 
responsibilities associated with Pennsylvania Avenue and the 
Franklin D. Roosevelt Memorial in the District of Columbia; in 
fiscal year 1998, $500,000 was provided on an ongoing basis to 
establish an equipment replacement fund; and the Park Service's 
fiscal year 1999 budget proposes an operational increase of 
$843,000 and an increase of $2.479 million for the Park Police 
Pension Fund. In addition, in 1997 the NPS received $2.3 
million, including $1 million in recurring operational costs, 
through a supplemental appropriation for anti-terrorism needs 
at three parks and the National Mall in Washington, D.C. An 
additional $1 million was also provided to the U.S. Park Police 
for added security measures and operations at the Statue of 
Liberty. All of the operational funding has been continued as 
part of the base budget.

                         concession management

    $1.5 million is being requested to support concession 
management reform.
    Question. What would be the impact on the Park Service if 
these funds are not provided?
    Answer. If the funding is not made available, the Service 
would be unable to expand use of the private sector to perform 
various concession functions and take other steps to improve 
concession management.
    Question. What is the total estimated cost of the 
concessions management support contract that the Park Service 
expects to issue in fiscal year 1999?
    Answer. The Administration is planning to establish an 
advisory group soon that would review the NPS concessions 
management operation. This programmatic review of concessions 
management would help determine what will be suitable for 
contracting out. The total estimated cost would be based upon 
an evaluation of options to be provided in the review by the 
outside advisory group.
    Question. Would the Service be inclined to proceed with 
this contract were the $1.5 million increase not provided?
    Answer. If the Service and the outside advisory group find 
that concessions management could be improved by contracting 
out specific functions to the private sector, then we will 
proceed with such a contract in fiscal year 1999. If no 
additional funds are provided, however, that contract would be 
limited to funds available through savings or reductions in 
existing concessions management. In the near term, additional 
funds are needed for the transition to relying more on private 
firms with business and professional experience to handle 
whatever concession management functions that the Service and 
the outside advisory groups identify as appropriate for 
contracting out. In the longer term, improved concessions 
management, along with concessions reform legislation, should 
provide for a net increase in returns to the government that 
exceed the near term costs.
    Question. The justification states that recent changes in 
concessions management have resulted in increased revenues to 
the Park Service and improved services and facilities. Does the 
Service anticipate that significant additional incremental 
improvements would result from the requested increase?
    Answer. The potential for improvements in revenues and 
services will be evaluated by the aforementioned review of 
concessions management support options. Though we expect 
additional improvements, it is not possible to say exactly what 
additional incremental improvements will result from the 
requested funding until the planned review determines the 
appropriate scope of a support contract.

                              maintenance

    The Administration is requesting a $60 million increase for 
Park Maintenance, which would be split between Repair and 
Rehabilitation (+$37.5 million) and Cyclic Maintenance (+$22.6 
million). This would more than double funding for the 
maintenance account.
    Question. Are you confident that the Park Service has the 
ability to manage such a large increase in a manner that 
ensures that funds are used for the most critical projects?
    Answer. We are confident the Service will be able to manage 
the requested increase for critical health/safety projects in 
our nation's national parks in a manner that ensures that the 
funding addresses the most critical projects. Considerable 
effort by the National Park Service and the Department has gone 
into formulating a prioritized list of more than 400 critical 
health and safety projects at park units across the country, 
which was provided to the Committees in early March. This, we 
are confidant, will ensure that this badly needed increase is 
directed to those projects identified as most critical.
    Question. How would reducing the size of the increase (by 
half or two thirds) impact Park Service performance measures 
for the Maintenance account?
    Answer. Reducing the requested increase for park 
maintenance by a magnitude of half or two thirds would severely 
impact the ability of the National Park Service to achieve 
established performance measures or to comply with 
Congressional direction to reduce the Service's maintenance 
backlog. A significant number of the more than 400 critical 
health and safety projects identified and submitted to the 
Committees in early March would have to be deferred for 
accomplishment in future years, contributing to a NPS 
maintenance backlog.

                      year 2000 computer problems

    The Service is requesting a $760,000 increase for non-
financial systems year 2000 date conversion.
    Question. Is this expected to be a recurring cost for 
fiscal year 2000?
    Answer. This will not be a recurring cost for fiscal year 
2000. The funds will be used in fiscal year 1999 to assist 
small parks in two critical phases of the Year 2000 conversion 
program: (1) help small parks replace Year 2000 non-compliant 
equipment; and (2) assist small parks in procuring Independent 
Verification and Validation software and the training of staff 
in the use of this software. The software is necessary to 
inventory and repair Year 2000-related problems.

                               diversity

    A $450,000 increase is being requested for an employment 
database and cultural diversity recruitment pursuant to the 
Department's strategic plan for improving cultural diversity in 
the workplace.
    Question. How does the Department's current diversity 
initiative differ from past efforts and commitments to enhance 
diversity?
    Answer. Past commitments to improve and enhance cultural 
diversity within the NPS have focused primarily on efforts to 
broaden participation in developmental programs by women and 
minority group members. These include the Servicewide Intake 
Program, the Women's Executive Leadership Program, the 
Executive Potential Program, and other developmental 
opportunities. These programs help to prepare personnel for 
advancement once in the system and will be continued as 
important management tools for the NPS. Diversity is critical 
in NPS because all of the NPS programs reach all segments of 
society.
    The Service, through this request, would use $100,000 to 
initiate programs to attract a more diverse applicant pool from 
which to select future employees and $350,000 to upgrade the 
Service's employment databases so that employee movement 
through the organization may be tracked. Categories which need 
to be tracked include developmental assignments, management 
succession, career progression, and other activities that lead 
to advancement within the National Park Service. The system 
currently used to produce data on career progression is manual, 
inefficient, and inadequate in terms of successfully planning 
and managing our workforce. Moreover, these systems are labor 
intensive and drain FTE and other resources that could be used 
for other functions.
    The Department continues to give high importance to 
diversity programs and is encouraging all agencies to take 
major, proactive steps to address diversity and move the 
Department forward. The Department has worked alongside the 
senior level executives and managers on diversity measures to 
be implemented throughout the Department.
    Question. Are corresponding increases requested in the 
other Interior bureaus' budgets? If so, please provide a 
Department-wide summary for the record.
    Answer. Four Interior bureaus are requesting budget 
increases associated with diversity efforts in fiscal year 
1999. The funding requests differ from bureau to bureau based 
on specific needs relative to goals set out in the Strategic 
Plans and Diversity Action Plans for each bureau. The summary 
of these increase requests is as follows:

Interior bureaus requesting budget increases

        Bureau                                          Increase request

Bureau of Land Management..................................... +$539,000
Bureau of Reclamation.........................................  +525,000
Fish and Wildlife Service.....................................   +31,000
National Park Service.........................................  +450,000

    All other Interior bureaus are continuing their diversity 
efforts at the same level of funding as in fiscal year 1998.
    Question. If not, what special need for additional funding 
does the Park Service have in this regard?
    Answer. The effective recruitment and placement of quality 
personnel throughout an organization is fundamental to the 
achievement of the authorized mission of that organization. A 
recent analysis conducted by the Equal Employment Opportunity 
Office identified underrepresentation of minority group members 
in eight of the Service's most populous job classifications in 
both the seasonal and permanent employment categories. Working 
toward goals that will effect noticeable improvement in these 
areas will require initiatives to address the very different 
requirements of seasonal and permanent recruitment. Further, 
the Service has an organizational interest (both short and 
long-term) in the development and career advancement of all 
employees. This initiative moves the NPS forward in the 
achievement of goals outlined in the Department and the 
National Park Service Strategic Plans.

                     external administrative costs

    The justification notes that a fixed cost increase of $1.6 
million for GSA space rental is requested, along with a $1 
million programmatic increase.
    Question. The fixed costs increase appears to be more than 
five percent. Why is this increase so high?
    Answer. The increase for anticipated rate adjustments was 
calculated at approximately three percent of the fiscal year 
1998 base. A separate portion of the increase ($700,000) is due 
to the higher security costs that GSA has incurred following 
the Oklahoma City bombing. The increased security costs are now 
starting to be passed through to their tenant agencies.
    Question. For the portion of the programmatic increase 
designated for new parks for which space requirements have not 
been budgeted, why are these costs not made part of the base 
budget for the park unit? Are GSA space costs funded through 
the consolidated account in all cases within the Park Service?
    Answer. It is more efficient to consolidate all GSA space 
rental funding into one account, since GSA sends us a 
consolidated quarterly bill. The bill is then paid centrally. 
Management of the GSA Space Program also is centralized. All 
operational space that is rented and managed through GSA should 
be budgeted in the GSA Space Rental Account. This includes that 
portion of a new park's programmatic increase that requires 
space rental through GSA. If the increase was not budgeted, or 
budgeted but not funded, in the GSA Space Rental Account, then 
the park does absorb the cost until a budget increase is 
approved. Accordingly, in fiscal year 2000 we have requested 
funds (approximately $1.3 million) to bring all outstanding 
space accounts under this single managed budget.
    Question. What has the Service done to respond to the 
recommendations made in the 1997 GAO report on 
telecommunications systems that was referenced in the Senate 
report on the fiscal year 1998 Interior and Related Agencies 
Appropriations Act?
    Answer. The May 1997 General Accounting Office report 
entitled ``Telecommunications Management: More Effort Needed by 
Interior and the Forest Service to Achieve Savings'' concluded 
that, while the Department of the Interior had undertaken a 
number of telecommunications initiatives that have resulted in 
significant financial savings, the Department is not 
systematically identifying and acting on other opportunities to 
consolidate and optimize telecommunications resources within 
and among its bureaus or its 2,000 plus field locations.
    The NPS has responded to the GAO report in several ways. 
The NPS uses and contributes management and technical resources 
to the shared Department of the Interior telecommunications 
network called DOINET. The Forest Service has become a customer 
of this DOI Telecommunications service. This means, for 
example, that NPS and the Forest Service now share some radio 
dispatch services, and the North Cascades National Park and the 
Mt. Baker-Snoqualmie National Forest share telephones services.
    The NPS has also worked to develop other intradepartmental 
resource sharing. The Service has established sharing 
agreements with the Office of the Secretary, Bureau of Land 
Management, Bureau of Reclamation, and the U.S. Geological 
Survey (USGS) for telecommunications resources. The NPS is in 
the process of concluding additional agreements with the Fish 
and Wildlife Service and the USGS, and the NPS is sharing 
connections with these agencies at 12 DOI hub locations, 
resulting in a significant savings to the Service at 25 sites. 
At one hub in the Hawaiian Islands, the NPS worked extensively 
with USGS and the Department of Defense to join a DOD coalition 
that provides Automated Teller Machine (ATM) access to the 
mainland and high speed access to the ``Hawaiian,'' the local 
inter-island network. The Service is also using a USGS-provided 
router and sharing circuits with USGS at Hawaii Volcanoes 
National Park and at the terminating circuit on the USGS router 
in Maui. Approximately five NPS sites will be up and running on 
May 1, 1998, and other NPS and USGS sites will be supported by 
this new connection as well.
    The Service will continue to look for cost effective 
opportunities to share telecommunications resources and where 
appropriate request shared and or coordinated appropriations 
requests to fund these cost saving opportunities.

                            Land Acquisition

                           stateside program

    The Administration has submitted to the House and Senate 
Appropriations Committees its proposal for the distribution of 
the $362 million in `special' land acquisition funds that were 
not allocated to specific projects in the fiscal year 1998 
bill. The Committees are currently reviewing this proposal.
    Question. Why did the Administration not request any funds 
for the ``Stateside'' grant program as part of this process?
    Answer. ``Stateside'' grants were not requested because the 
Federal need for land acquisition is so great and therefore of 
a higher priority.
    Question. Do you feel that every one of the Federal 
acquisitions that the Administration is requesting are of 
greater importance than the projects that would be conducted by 
the states through the Stateside program?
    Answer. No, we do not think that every proposed Federal 
acquisition is more important than potential projects in a 
possible renewed Stateside program. However, we do continue to 
request funds for specific known Federal needs.
    Question. Does the Administration continue to support the 
Stateside program in concept?
    Answer. The Department continues to support the Land and 
Water Conservation Act with a Stateside program concept. 
However, since the Congressional hiatus in Stateside funding 
has provided a period of analysis of the program, we would 
prefer to assure that Stateside projects focus more on funding 
natural recreational opportunities in place of a perceived 
growing emphasis on building more structures like swimming 
pools.

                  national recreation and preservation

    The budget request includes an increase of $3 million and 
30 FTEs for the Rivers, Trails and Conservation Assistance 
Program.
    Question. Assuming that the purposes for which the increase 
is proposed are justified, wouldn't the $3 million have greater 
impact if given to local communities in the form of matching 
grants, rather than spending a large portion of the increase on 
salaries and benefits for 30 FTEs?
    Answer. The Rivers, Trails and Conservation Assistance 
Program (RTCA) is a technical assistance program and does not 
provide grants. In fact, the National Park Service believes 
that the program's value to the communities it assists is 
actually enhanced by the fact that it makes no grants. Since 
the main element of value that NPS can offer through the 
program is the time and attention of its staff, the NPS staff 
is able to help their partners focus on quality planning and 
entrepreneurial approaches to funding their implementation. 
RTCA projects have a strong history of leveraging the 
relatively small investment by NPS many times over; RTCA 
partners and communities go on to obtain needed financing from 
a wide range of sources and programs some Federal, many state 
and local, and others non-governmental. More partners will be 
able to do far more with $3 million worth of NPS assistance 
than would be the case through single one-time grants.
    Question. Is there any evidence an additional Federal 
`coordinator,' as opposed to additional financial resources, is 
what is needed to accomplish the objectives of this program?
    Answer. The RTCA staff will not have official Federal 
`coordinator' roles outside the Park Service; they will seek to 
coordinate and thereby maximize the benefits available through 
the assistance of the Service's various programs. This staff 
also will act as catalysts to identify community needs and work 
with communities to develop action plans addressing 
conservation and recreation needs.
    Every evaluative effort undertaken to help shape the 
program has identified a similar response: RTCA partners report 
that the program's assistance in helping them examine their 
options, organize effective public involvement, and strengthen 
local institutions and organizations was what they needed. 
Furthermore, partners report that NPS has been the one Federal 
agency where those kinds of resources could be found.

                revolutionary war and war of 1812 study

    The Omnibus Parks and Land Management Act of 1996 
authorized a Revolutionary War and War of 1812 historic 
preservation study.
    Question. Why have funds not been requested to conduct this 
study?
    Answer. Given the current fiscal constraints level, the 
National Park Service was forced to prioritize its identified 
budgetary needs. The NPS did not include funds for this study 
in the fiscal year 1999 request to Congress as this was a lower 
priority item than issues for which funds were included.
    Question. How would this study differ from inventory and 
planning activities undertaken generally with funds provided 
for Resource Stewardship?
    Answer. The requirement for this study is specifically 
authorized in the Omnibus Parks and Public Lands Management Act 
of 1996 (Title VI, Section 604, Public Law 104-333). The NPS 
has limited funds available for required cultural resource 
studies within its central office base budget. The scope and 
cost of this study is beyond the amount of funds generally 
available.

                         heritage partnerships

    The Administration is requesting an additional $1 million 
for Heritage Partnership Programs. The funds are to be 
allocated on a competitive basis to the five heritage areas and 
one historic district that are not already receiving the $1 
million maximum funding.
    Question. Does the Service feel the three areas that are 
already receiving $1 million are necessarily more justified 
than the other areas in continuing to receive that funding in 
fiscal year 1999?
    Answer. The three areas that received the $1.0 million were 
in a state of readiness to spend the authorized funds 
effectively. Several of the other areas were, and remain, at 
initial stages in their process and would be unable to 
effectively spend $1.0 million.
    Question. Would the Service prefer to see the $5.5 million, 
if funded, available for distribution to any of the authorized 
areas based upon the quality of the proposals submitted?
    Answer. If the $1.0 million increase requested is 
appropriated, the Park Service expects to distribute the $1.0 
million increase based upon the quality of the proposals 
submitted. The Park Service does not expect to reduce the 
amount of funds now currently being provided to areas.

                      statutory or contractual aid

    An increase of $20,000 is requested for the Roosevelt 
Campobello International Park Commission in order to maintain 
the 50 percent cost share requirement.
    Question. What process is used to set the overall budget 
for the Commission? For what purpose will the apparently 
$40,000 increase be used?
    Answer. Public Law 88-363, the Roosevelt Campobello 
International Park Act, authorized establishment of a 
commission to administer the Roosevelt Campobello International 
Park as a memorial to Franklin D. Roosevelt. The legislation 
states further that * * *. ``There are hereby authorized to be 
appropriated to the Department of the Interior without fiscal 
year limitation such sums as may be necessary for the purposes 
of this Act and the agreement with the Government of Canada 
signed January 22, 1964, article 11 of which provides that the 
Governments of the United States and Canada shall share equally 
the costs of developing and the annual cost of operating and 
maintaining the Roosevelt Campobello International Park.''
    Based on specifics of the legislation and the 1964 
agreement, the budget for the site is prepared by the 
commission and submitted to the governments of each country. 
The budgets for the Roosevelt Campobello International Park 
Commission for fiscal years 1998 and 1999 consist of the 
following.

    BUDGET FOR THE ROOSEVELT CAMPOBELLO INTERNATIONAL PARK COMMISSION
------------------------------------------------------------------------
                                               Fiscal year budget--
                Receipts                 -------------------------------
                                               1998            1999
------------------------------------------------------------------------
U.S. grant..............................        $650,000        $670,000
Canada grant............................         650,000         670,000
Provincial grants.......................           3,000           3,000
Conference income.......................          20,000          20,000
Sale of memorabilia.....................           9,000           9,000
Other income............................          40,000          30,000
Donated assets..........................           5,800           5,800
Visitor donations.......................           5,000           5,000
Program assistance......................          24,003          24,804
                                         -------------------------------
      Total.............................       1,406,803       1,437,604
------------------------------------------------------------------------

    Funding provided in fiscal year 1999 will be used for 
personnel services ($1,050,676), other operating expenses 
($299,928), and equipment replacement ($87,000). The net 
personnel increase of $32,000 over fiscal year 1998 is for pay 
and other benefits of the administrative, security, 
maintenance, guide, and gardening staff. The net operating 
increase of $7,120 above fiscal year 1998 is attributable to 
the increased costs for commission expenses, publications, 
utilities, insurance, cottage and grounds maintenance, and 
supplies.

                       Historic Preservation Fund

              historically black colleges and universities

    The Administration is requesting a $9.8 million increase 
for Grants-in-Aid to Historically Black Colleges and 
Universities.
    Question. What success has the Park Service, the individual 
schools and cooperating entities had in generating non Federal 
cost share for projects for which monies have been allocated in 
fiscal year 1998?
    Answer. Within the $5.422 million appropriated in fiscal 
year 1998 for restoration at Historically Black Colleges and 
Universities, $4.0 million is being awarded directly to five 
schools at $800,000 each: Fisk University (TN), Knoxville 
College (TN), Allen University (SC), Selma University (AL), and 
Tougaloo College (MS). An additional $1.4 million in fiscal 
year 1998 HBCU grants is being awarded to the United Negro 
College Fund (UNCF). The UNCF has, in turn, subgranted these 
funds to Morehouse College (GA) and to Hampton University (VA) 
to repair Graves Hall and Virginia Hall, respectively. The UNCF 
will assist Morehouse and Hampton in obtaining the required 
matching share. The matching share must be contributed during 
the grant period. However, to ensure that the matching share 
requirement is met, the Park Service will only reimburse 50 
percent of the costs incurred as the projects proceed. To date, 
every school funded appears to be able to contribute the 
required nonfederal share.
    Question. Does the Park Service feel there is capability to 
match a significant amount of funds requested for fiscal year 
1999?
    Answer. Yes; to the best of our knowledge, HBCUs can 
provide the required nonfederal matching share over the three-
year period of the grant.
    Question. Does the Park Service anticipate making any 
grants in fiscal year 1999 to schools not specified in the 
Omnibus Parks Act (up to the authorized level of $6.1 million)?
    Answer. Section 507 of the Omnibus Parks Act authorizes $29 
million for the preservation of HBCU buildings. Specific 
amounts totaling $22.9 million were allocated in the Act for 
each of 12 HBCUs identified in Section 507--leaving $6.1 
million of the authorization level not earmarked. $4.0 million 
of the authorization in the Omnibus Parks Act was used by the 
funds appropriated in fiscal year 1998, so $25 million remains. 
The Park Service does not anticipate awarding grants to any 
HBCU not specified in the Omnibus Parks Act until the $22.9 
million earmarked for the twelve identified HBCUs is fully 
appropriated.
    Under the authority of Section 101(e)(3)(B) of the National 
Historic Preservation Act, an additional $1.422 million has 
been included in the President's fiscal year 1999 budget 
request to provide the final funding needed for a grant to the 
United Negro College Fund to complete the Secretary's HBCU 
Preservation Initiative begun in fiscal year 1995. The $1.422 
million would complete work at Hampton University and fund 
repairs at Spelman College and Delaware State University as 
well.
    The Park Service was provided with $200,000 in the fiscal 
year 1998 appropriation to conduct onsite assessments of the 
twelve HBCUs identified in Section 507 of the Omnibus Parks 
Act. A contract with the Georgia Institute of Technology has 
been executed by the NPS, and a report assessing and ranking 
the significance and structural condition of the major 
historical buildings on the campus of each of the twelve HBCUs 
will be issued by June 1998. This report will be used to guide 
future budget requests.
    It should be noted that there are 103 HBCUs. The General 
Accounting Office recently completed a survey of all HBCUs and 
the schools' responses estimated that $755 million is needed to 
repair all of the HBCUs' historic buildings.

                              Construction

                     federal lands highways program

    The Senate has passed an ISTEA reauthorization bill that 
includes funding for the Federal Lands Highway Program. The 
House is expected to pass a reauthorization bill this week.
    Question. Based on the funding levels included in each bill 
for the Federal Lands program, how would funds be allocated for 
specific Park Service projects?
    Answer. A list identifying the Administration's proposed 
funding of projects for fiscal year 1998 and fiscal year 1999 
at $161 million annually was provided to the Committees with 
the NPS fiscal year 1999 Budget Justifications pages 280 to 
283. At the lower funding levels proposed by the House and 
Senate passed bills, roughly half of the projects planned for 
fiscal year 1998 would have to be deferred to fiscal year 1999. 
That, in turn, would delay the start of projects planned for 
fiscal year 1999, deferring them to out years. The Service 
would conform to the current Servicewide priority list in 
determining what projects would be deferred to future fiscal 
years.

                            Land Acquisition

                         civil war battlefields

    A number of Senators have expressed an interest in 
providing funds for land acquisition to protect Civil War 
battlefields. While in many cases a straight Federal 
acquisition is the logical and appropriate choice, there is 
also interest in providing funds for non-Federal acquisitions. 
Funds would be used by preservation groups to leverage private 
funds, particularly at important sites that are not part of a 
Federal park unit.
    Question. In your view, what would be the most appropriate 
mechanism for executing this type of program assuming funds 
were to be provided?
    Answer. The National Park Service's American Battlefield 
Protection Program (ABPP), funded in the Cultural Programs 
activity of the National Recreation and Preservation 
appropriation, would be the most appropriate mechanism for 
administering such a program. The ABPP is specifically mandated 
by Congress under Public Law 104-333 to assist non-Federal 
public and private entities in identifying, evaluating, 
interpreting, and protecting historic battlefields. The ABPP is 
also specifically authorized to use cooperative agreements, 
grants, contracts, or other means of financial assistance in 
order to carry out its mandate. Current law authorizes 
appropriations of $3 million per year for the ABPP, but the 
program does not include assisting in land acquisitions at 
present. In fiscal year 1997, ABPP distributed $745,775 in 
various grants; ABPP distributions in fiscal year 1999 will be 
about the same. If current grant levels continue into fiscal 
year 1999, that would leave slightly over $2 million in 
authorized funds for other purposes, including land 
acquisition. Any programs requiring funds in excess of that 
amount, which is a likely scenario in the case of land 
acquisition, would require a change in the authorizing language 
to raise the statutory ceiling.

                       Fish and Wildlife Service

                                general

                 government performance and results act

    Question. Does the agency's performance plan link 
performance measures to its budget?
    Answer. Yes, the FWS fiscal year 1999 annual performance 
plan links performance goals and performance measures to the 
FWS fiscal year 1999 budget request. The annual performance 
plan provides a crosswalk that aligns each activity for each 
appropriation or fund account with each annual performance 
goal. In addition, the Budget Justifications provide additional 
breakdowns of the performance goals associated with various 
budget activities and subactivities, accompanied by a short 
discussion of the goals.
    Question. Does each account have performance measures?
    Answer. Currently, each account does not have annual 
performance measures. The FWS collects and uses a large amount 
of performance information at various organizational levels. 
Selecting the right performance goals and measures is an 
iterative process that will improve with each planning cycle.
    Question. How were performance measures chosen?
    Answer. Performance measures were chosen using the 
following guidelines:
  --Measures were developed hierarchically so FWS managers and staff 
        would know how their daily activities contributed to 
        achievement of performance goals.
  --Measures were limited to the ``vital few'' that covered the key 
        performance dimensions for the FWS.
  --Measures were tied to a mission or program goal in the FWS 
        strategic plan.
  --Measures had to be flexible and adaptable to changing imperatives. 
        For example, the measures had to be effective, yet simple to 
        understand and credible and readily available to those who 
        would need them.
  --Measures had to be cost-effective and easy to collect; whenever 
        possible, existing performance measures and data were used.
    Question. How did the agency balance the cost of data 
collection and verification with the need for reliable and 
valid performance data?
    Answer. The FWS is developing a performance data management 
evaluation model to ensure that all performance data is 
reliable and valid. Of the 96 performance indicators currently 
in the fiscal year 1999 Annual Performance Plan, all but 9 
indicators have defined performance measurement data, 
verifiable data sources, and program data managers. The FWS is 
currently developing baseline data for the remaining 9 
indicators.
    Question. Does your plan include performance measures for 
which reliable data are not likely to be available in time for 
your first performance report in March 2000?
    Answer. The FWS is confident that performance data 
essential to assessing the progress the FWS is making in 
achieving the strategic goals will be available by March 2000. 
The FWS considers the implementation of the performance 
management system an iterative process and, for this reason, is 
conducting an intensive review of the strategic and annual 
performance plans to improve and streamline goals and measures.

                     new california regional office

    Question. Given the denial of the reprogramming request, 
does the Service have an alternative plan that might be less 
cost prohibitive such as a modest enhancement of key staff 
(including a high level person with Regional Director 
authority) at the California Office?
    Answer. On April 17, 1998, the Department proposed a scaled 
back operations office consisting of 9 FTE to provide line 
management and supervision of all field offices in California 
(including the Klamath ecosystem) and Nevada. The annualized 
costs of the office will be $1.2 million and the funds and 
staffing to establish and operate the office will be 
transferred from the regional office in Portland, Oregon. By 
letter of April 23, 1998, the House Appropriations Subcommittee 
approved this new office. By letter of May 6, 1998, the Senate 
Appropriations Subcommittee approved this new office.
    Question. Is creation of a new Regional Office with 
associated costs of staffing and moving employees warranted 
during times of streamlining and flat budgets? Would 
restructuring of the existing regions be more feasible?
    Answer. The Department strongly supports the establishment 
of a senior level management position in California to provide 
hands-on leadership and improved service to the public for the 
Bay/Delta ecosystem restoration initiative, the Central Valley 
Project Improvement Act, the ongoing Salton Sea effort, 
endangered species issues, the public demand for habitat 
conservation planning assistance, and meeting the rapidly 
increasing expectation of refuge and fisheries facilities in 
California and Nevada. At the same time, the new office will 
allow the Portland Regional Office to be more responsive to the 
public and the Department's partners in the Pacific northwest 
and the Pacific basin. The Department thoroughly evaluated the 
costs of restructuring the existing FWS regional offices and 
they exceeded the costs of the alternative selected and thus 
were not proposed.
    Question. What other strategies that do not involve major 
restructuring has the Service explored to meet the needs 
identified in Region 1?
    Answer. The FWS has taken several steps in recent years to 
meet growing workloads in Region 1 (and all its regions) 
without involving restructuring. First and foremost has been 
the increased collaboration with other Federal agencies to 
implement the President's Forest Plan through streamlined 
Section 7 consultations. This approach has reduced the amount 
of time previously required for timber sale consultations from 
over 130 days to under 45 days, on average. Second, the FWS has 
published an HCP handbook to guide private landowners who seek 
to implement a Habitat Conservation Plan which would allow 
economic development (such as timber harvest) to proceed while 
at the same time conserving habitat and species. The 
development of multi-species HCPs has also facilitated greater 
impacts. Third, the FWS has vastly improved its data collection 
abilities and has been able to document operational and 
maintenance requirements--particularly for the refuge system--
which have been used to justify funding needs in the budget. 
This approach will also come on-line in the near future for the 
hatchery system and will be used to help guide future budget 
formulation processes and support potential budget requests, if 
approved.

                      ecosystem management review

    We understand the Service recently contracted with Ohio 
State University to review the ``ecosystem management 
approach'' as currently implemented within the Service. The 
results of the Survey indicate a need for more consistency and 
clarity Service-wide as well as better leadership and program 
representation. It is clear changes are needed, however, the 
creation of new positions at high levels concerns us given that 
the Service currently has over 200 facilities either unstaffed 
or below adequate levels. It seems questionable that creating 
new positions has a higher priority than say, directing funds 
to the field.
    Question. Will this require any new FTE's?
    Answer. No additional staff will be required to implement 
this approach. The FWS is not expected to realize a net 
increase in staffing as a result of the ecosystem approach, 
though the FWS will fill vacant field positions as funds become 
available to address expanding workload requirements in the 
field.
    Question. How much will this plan cost and how does the 
Service plan to pay for these positions? Will existing programs 
(core programs) be ``assessed?'' If so, how will these programs 
be impacted?
    Answer. The FWS plans to implement this effort through the 
use of funds which currently exist in regional offices. The FWS 
underwent a downsizing during the mid-1990's that 
disproportionately affected its regional offices, adversely 
affecting some regional program staff and management. The FWS 
intends to rectify these over-corrections as necessary; 
however, this effort is ongoing and distinct from the 
stabilization efforts being employed under the ecosystem 
approach implementation. The FWS has no reason to believe that 
continuing to implement the successful ecosystem approach that 
had already begun years ago will require additional funds. No 
existing programs (core programs) will be assessed.
    Question. What is the rationale for funding these positions 
rather than recruiting the right kinds of staff (with specific 
program expertise) more able to provide better leadership and 
program direction?
    Answer. The FWS strongly supports expanded career 
opportunities, such as upward mobility career tracks, to best 
prepare promising employees and new hires for future senior 
management positions. One of the criticisms leveled at the FWS 
in the past had been that employees remain ``locked'' in their 
respective programs for most of their careers and when--and 
if--promoted to senior positions they had not been exposed to 
the very broad FWS mission responsibilities. Charging 
enterprising ``rising stars'' in the agency with broader 
landscape-based responsibilities will allow them to call on 
their in-depth knowledge of one program while coordinating all 
of the FWS programs towards an integrated accomplishment of the 
agency's goals. It will also help the various programs 
communicate better and focus efforts on overall 
responsibilities instead of fragmenting program implementation.
    Question. Given the level of frustration, lack of success, 
lack of support of rank and file, and general ineffectiveness 
of the Ecosystem Approach (as implemented in the Service), is 
the Service willing to reconsider further implementation of 
this process?
    Answer. The FWS is committed to effectively implementing 
the Ecosystem Approach to manage the nation's wildlife and 
fisheries resources.
    The FWS formally adopted an Ecosystem Approach to Fish and 
Wildlife Conservation in the Spring of 1994. This calls for a 
landscape approach to resource management decision-making, 
emphasizing cross-program collaboration, and increasing 
attention to the establishment and nurturing of partnerships 
with other agencies, nongovernmental organizations, and 
landowners. To fully implement this approach, the FWS realigned 
its operations at the level of the Assistant Regional Director, 
and these individuals were given responsibility for leading one 
of three programs (Refuges and Wildlife, Fisheries Resources, 
or Ecological Services), and asked to supervise all individuals 
(except the law enforcement program) within a geographic 
ecoregion.
    As is the case with all organizational changes, some 
friction has occurred in the field during the transition 
period. In general, implementation of the Ecosystem Approach 
has improved collaboration between the various FWS programs and 
significantly enhanced partnerships with other groups. However, 
regional offices have developed organizational schemes that 
differ from one another, and from the headquarters office 
organization. This organizational inconsistency has yielded 
confusion in line supervisory relationships and raised concerns 
about consistent implementation of nationwide program policies. 
The solution to this problem is to implement the Ecosystem 
Approach consistently Servicewide.
    Question. What steps are being taken to ensure a cost 
effective approach and that resource benefits will actually 
accrue when the recommendations made by the Survey and by the 
Directorate of the Service are implemented?
    Answer. The FWS has taken several steps to ensure a cost 
effective approach and to ensure that resource benefits will 
actually accrue. First, no additional headquarters or regional 
staff will be required to implement the ecosystem approach. 
(However, the FWS intends to fill vacant positions as funds 
become available to address expanding workload requirements in 
the regions). Second, while staffing levels are expected to 
vary as a function of regional workloads, leadership positions 
will be consistent across regions to ensure strong programmatic 
and geographic management capabilities to best support field, 
headquarters, and external partnership needs. Also, expanded 
career opportunities, such as upward mobility career tracks, 
will help align the FWS for the future by increasing the pool 
of talent to help fill any leadership vacuums.

                            brown tree snake

    I am increasingly concerned by reports that, despite 
efforts by your Department and DOD, the brown tree snakes have 
gotten entirely out of control on Guam and are a very serious 
threat to Hawaii and some of our close friends and neighbors in 
the Central and South Pacific Ocean.
    Question. What are you doing to eradicate this pest on Guam 
and prevent its spread to Hawaii and other U.S. territories and 
commonwealths?
    Answer. The control of the brown tree snake is a major 
priority of the Department and we continue to increase the 
resources we devote to this problem. We requested and received 
a $1 million increase in the fiscal year 1998 appropriation and 
we are requesting an additional $1 million increase for fiscal 
year 1999. At a March conference in Hawaii chaired by Assistant 
Secretary John Berry, we clarified our priorities for the brown 
tree snake program. The first priority is to contain the snake 
on Guam and prevent dispersal to other areas. More than $2 
million is dedicated this year to this effort in the form of 
inspecting cargo leaving Guam or arriving on other islands from 
Guam. Our research program also complements these operational 
efforts by improving engineering and development of snake 
barriers, attractants for traps, and toxicants.
    Our second priority is to develop a capability to eradicate 
new incipient populations of snakes when detected so that what 
has happened on Guam is not repeated anywhere else. Our third 
priority is to reduce existing brown tree snake populations 
over large geographic areas on Guam. We see this as a long term 
effort as we search for a toxin or biological control that is 
effective and environmentally acceptable. Reducing snake 
populations over large geographic areas is also a necessary 
step to our other major priority, which is to protect 
endangered species and other wildlife from brown tree snake 
predation. Through efforts coordinated under an interagency and 
intergovernmental memorandum of agreement on brown tree snake 
control, we are also trying to get state and local governments 
and other Federal agencies to commit more resources to this 
effort and become more active in the program.
    Question. What are you doing to raise awareness and 
coordinate actions regarding such pests with our allies and 
international organizations?
    Answer. Last December (1997) we worked with the Department 
of State to have United States diplomatic missions throughout 
the Central and South Pacific contact all host countries, 
including small island developing States, to alert them of the 
environmental crisis on Guam as a result of the infestation by 
the Brown Tree Snake (BTS). We explained our desire to work 
with them in coordinating activities, collecting and sharing 
information, increasing public awareness, and other actions 
aimed at protecting the ecology and biological diversity of the 
region from the threat of BTS and other invasive alien species.
    We followed this up in April by proposing that a U.S. 
delegation headed by the Department of the Interior travel to 
(Western) Samoa to meet with the South Pacific Regional 
Environment Program (SPREP), and to New Caledonia to meet with 
the South Pacific Community (SPC), to inform each of these 
organizations of our desire to work more proactively with them 
to heighten international awareness and to promote cooperation 
in meeting the threat posed to fragile island environments in 
the region by invasive alien species.
    We are also working with other agencies and non-government 
organizations (NGOs) to help bring more international focus to 
this issue. In addition, the draft Executive Order that we are 
presently coordinating with other agencies in response to Vice 
President Gore's initiative on invasive alien species will 
address our desire to pursue international cooperation on a 
global basis.
    Congress included the Brown Tree Snake among the species 
covered in the ``Nonindigenous Aquatic Nuisance Prevention and 
Control Act of 1990.'' An interagency Brown Tree Snake Control 
Committee was formed in 1993; and in 1996 the Brown Tree Snake 
Control Plan was issued by the Department.
    Question. Is this plan still current? What is the current 
estimated budget requirement for the Plan's implementation?
    Answer. The framework of the approved Brown Tree Snake 
Control Plan remains appropriate and useful, but specific 
actions and tasks need to be updated and refined, additional 
actions added, and cost estimates revised. Substantial 
additional research and studies suggesting new avenues for 
addressing this problem and refinements of previously 
identified approaches has been completed since the plan was 
formulated. In addition, experience implementing the existing 
plan has resulted in refinements of on-going activities and 
tasks and provides an improved basis for estimating their 
costs.
    The Department and other State and Federal agencies 
continue to use the Brown Tree Snake Control Plan as the guide 
for control and research activities. The plan outlines total 
funding needs for five years. Through fiscal year 1999, those 
needs are as follows:

                  BROWN TREE SNAKE CONTROL PLAN FUNDING
------------------------------------------------------------------------
                                            Fiscal year      Millions
------------------------------------------------------------------------
Year:
    1...................................            1997           $4.48
    2...................................            1998            4.70
    3...................................            1999            4.50
------------------------------------------------------------------------

    If funding requested is appropriated, the current plan is 
likely to be fully funded in fiscal year 1999.
    Question. Last year, Vice President Gore called on the 
Administration to mount efforts to address the threat posed by 
the inadvertent spread of non-indigenous pest species. Could 
you provide the Committee with a status report on this 
initiative?
    Answer. On June 17, 1997, Vice President Gore directed 
preparation of the Administration's strategy to combat 
introduction and spread of plants and animals that are not 
native to ecosystems in the United States and which are now 
causing or could potentially cause great economic and 
ecological harm to our nation. The Vice President asked the 
Departments of the Interior, Agriculture and Commerce to 
prepare the strategy in consultation with the Council on 
Environmental Quality and Office of Science and Technology 
Policy in the Executive Office of the President.
    A draft Administration action plan (``Draft Action Plan'') 
has been prepared which responds to the Vice President's 
request and recommends steps to address all invasive alien 
species (``IAS''). The Draft Action Plan is the work product of 
the Administration's ad hoc Invasive Alien Species Task Force 
(``Task Force''). The Task Force members represent the federal 
agencies above and other federal agencies with interests in 
invasive alien species. Most of the participants are already 
involved in one of two standing federal committees addressing 
invasive alien species: the Aquatic Nuisance Species (ANS) Task 
Force and the Federal Interagency Committee for the Management 
of Noxious and Exotic Weeds (FICMNEW).
    The Draft Action Plan briefly describes the problems caused 
by IAS and reviews needs, shortcomings, and key issues. It then 
sets forth goals, objectives, and principles for actions to be 
taken. Next are eight recommendations addressing management and 
policy, followed by a list of recommendations organized by 
types of actions needed to address IAS. These are (1) listings, 
(2) preventing entry, (3) detection, (4) rapid assessment and 
eradication, (5) control, restoration, and monitoring, (6) 
cross-cutting research and technology, (7) national information 
needs, (8) partnerships, education and outreach, (9) 
international cooperation, and (10) fund raising and financial 
responsibility. A draft summary of legal authorities follows at 
the end of the document.
    The Draft Action Plan has been prepared by the Task Force 
with anticipation of public dissemination and comment through a 
national council called for in Recommendation 1.
    To accelerate action and increase awareness, the Task Force 
is recommending that an executive order on the topic be issued 
in the next few months. We expect that the executive order will 
establish a national council on invasive alien species and will 
mandate several tasks, including preparation and annual 
revision of an interagency management plan. The plan will 
specify actions and resources needed for implementation and is 
to be submitted to OMB for consideration in the budget process. 
The order is expected to set specific due dates for completion 
of the management plan and for review of authorities and 
recommendations to agencies on priority actions to be taken 
within existing authority. The council will produce an annual 
report and advise Congress of gaps in authority which may 
hinder accomplishment of the management plan goals and 
objectives.

   fws veto power over states in issuance of point source discharge 
                                permits

    In July, 1997, the Fish and Wildlife Service and the EPA 
released a draft Memorandum of Understanding which would 
require all states with delegated National Pollutant Discharge 
Elimination System (NPDES) permit programs to enter formal 
Section 7 consultations with FWS prior to issuing any NPDES 
permits. As a result, the fear is that FWS is gaining a veto 
power over the issuance of point source discharge permits in 
every state.
    Question. Is that what the FWS intends to do? Under what 
authority?
    Answer. The draft Memorandum of Agreement (MOA), was based 
on interagency negotiations between the Environmental 
Protection Agency (EPA), the National Marine Fisheries Service 
(NMFS), and U. S. Fish and Wildlife Service (FWS). Negotiations 
were conducted over six months and the draft was sent to the 
regional offices of FWS, NMFS, and EPA for internal review. A 
number of misconceptions about the document, which is still 
under negotiation, have since emerged. There was never any 
intention on the part of FWS and NMFS to establish any ``veto 
power'' over state-issued NPDES permits. The draft MOA is 
strictly a coordination mechanism between federal agencies and 
does not impose any obligations or requirements on states, 
tribes, or permit holders.
    The role of FWS and NMFS is to comment on state-issued 
draft permits under existing Clean Water Act (CWA) regulations 
as part of the federal review necessary to avoid substantial 
impairment of fish, shellfish, and wildlife resources, 
including threatened and endangered species, under 40 CFR 
124.59 (b). EPA may object to a permit under existing CWA 
authority if a permit does not support the objective of the CWA 
to restore and maintain the chemical, physical, and biological 
integrity of the Nation's waters, including the goal of 
providing water quality which provides for the protection and 
propagation of fish, shellfish, and wildlife.
    Where a federal action occurs, such as the EPA approval of 
a state's assumption of NPDES permitting authority, EPA 
approval of new or revised water quality standards, or EPA's 
issuance of NPDES permits where state assumption has not 
occurred, the Endangered Species Act (ESA) requires 
consultation with the FWS and NMFS if listed species may be 
affected by the action. The ESA further prohibits all federal 
agencies from taking any action that will likely jeopardize the 
continued existence of a listed species. EPA has consulted 
numerous times with the FWS and NMFS on this basis in relation 
to CWA programs.
    Separate consultations on state-issued NPDES permits is not 
the goal or the purpose of negotiations on the MOA. Where 
endangered species impacts are identified, the FWS and NMFS 
will work with the state and EPA to lessen such impacts. If the 
FWS and NMFS determine that a NPDES permit is likely to 
jeopardize a listed species and EPA agrees, EPA may use its 
existing authority under the CWA to review the permit and 
federalize it.
    Question. What is the status of the MOU between FWS and 
EPA?
    Answer. The draft MOA (July 1997) is still being 
negotiated. At the present time, the federal agencies are 
focusing on coordination procedures for EPA approval of state 
assumed Section 402 (NPDES) and Section 303 (Water Quality 
Standards) of the Clean Water Act, the review and comment on 
draft permits under existing CWA regulations, and a joint 
research initiative to better evaluate risks to endangered 
species posed by activities authorized by water quality 
programs. The EPA, FWS, and NMFS hope to conclude the 
negotiations on these sections of the CWA soon and then in 
turn, the coordination procedures for EPA approval of State 
assumed Section 404 (Wetland Dredge and Fill program) and 
Section 405 (Sewage Sludge program).
    Question. What sort of public participation or outreach 
does the Department/FWS intend to use to educate state or other 
impacted stakeholders?
    Answer. The EPA, FWS, and NMFS are considering the 
possibility of publishing a joint Notice of Availability and 
perhaps a revised MOA in the Federal Register to facilitate 
public review and comment on the agreement. We understand that 
EPA has coordinated extensively with state and tribal CWA 
program partners to fully explain the agreement and to clarify 
the implications (which the federal agencies believe are 
minimal) for state assumed NPDES programs.
    Question. Isn't this contrary to Congress' intent to 
delegate permitting authority to the States?
    Answer. The states unquestionably have the authority to 
issue Clean Water Act program permits once EPA has approved 
their application to assume the program. The FWS and NMFS 
provide input to EPA in two circumstances:
    (1) under existing CWA regulations, by reviewing and 
providing comments on state-issued draft NPDES permits as part 
of the federal review envisioned as necessary to avoid 
substantial impairment of fish, shellfish, and wildlife 
resources, and
    (2) under existing ESA regulations, when EPA undertakes a 
federal action, such as approval to permit program assumption 
by a state or tribe, approval of new or revised state water 
quality standards, or EPA's issuance of NPDES permits where 
state assumption has not occurred.
    Both statutes complement each other and are intended to 
assure that sensitive wildlife resources, including biological 
communities in the aquatic environment, are adequately 
addressed. The draft MOA does not add any new requirements 
beyond what is already present in existing CWA and ESA 
regulations and it will provide for consistency in federal 
interagency coordination under ESA and CWA programs. Finally, 
the MOA should provide for more effective protection of listed 
species during the review and comment process under CWA 
permitting programs, as well as for EPA approval of State Water 
Quality Standards.

                               Fisheries

                       fisheries program--general

    Question. How much of the increase received in fiscal year 
1998 for Refuge operations has been used specifically to 
improve fishery resources, fishery management, and fishing 
access on refuges? Will this situation continue in fiscal year 
1999?
    Answer. The Refuge Operations budget was increased $19.75 
million in fiscal year 1998 over the President's Budget request 
to complete specific projects. Of that amount projects with a 
combined value of $2.25 million are oriented predominately to 
fishery benefits. In addition, because the majority of the 
remaining $17.75 million in projects combine a mix of visitor 
improvements, comprehensive planning, enhanced biological 
surveys, wetland management, habitat restoration, or facility 
improvements, they have multiple benefits that include 
fisheries and aquatic resources. It is conservatively estimated 
that a minimum of 10 percent of the value of these projects 
contribute directly to fisheries conservation and enjoyment.
    Combining these two elements ($2.25 million predominantly 
fisheries projects plus 10 percent of $17.75 million in 
remaining projects) results in a total of $4 million or 20 
percent of the value of the projects accruing to fisheries 
benefits. It is expected that approximately this same 
proportion will continue in fiscal year 1999. Projects 
currently underway include initiating instream and riparian 
habitat improvements for Columbia River Basin salmonids, 
improving water management in the Klamath Basin and Central 
Valley of California, assisting in the recovery of endangered 
Colorado River fishes, conducting fisheries studies at several 
Alaska refuges, and expanding the number of access sites and 
facilities to increase angling opportunities in all Regions.
    An aquatic resources challenge cost share component is 
funded at $600,000 to provide access and facilities for 
increased recreational fishing and improvements to aquatic 
habitats on refuges through expanded partnerships (50 percent 
cost share) with cooperating non-Federal agencies and 
organizations.
    Question. How much of the increase received in fiscal year 
1998 for listing and recovery under the ESA has been used 
specifically to support involvement of the Fisheries Program in 
these activities? Will this situation continue in fiscal year 
1999?
    Answer. None of the increase received in fiscal year 1998 
for listing and recovery under the ESA has been used to support 
the Fisheries program. None of the increases requested in 
fiscal year 1999 for listing and recovery will support the 
Fisheries program.
    The FWS was appropriated an increase of $190,000 in fiscal 
year 1998 for the listing program, an increase of 4 percent. 
This increase has been critical to help the FWS dig out of the 
backlog created by litigation resulting from the fiscal year 
1995-1996 listing moratorium and reduction of listing funding. 
Listing is the mechanism through which plant and animal species 
are afforded the full range of protections available under the 
Endangered Species Act including: prohibitions on taking, 
import/export and commerce, and possession of unlawfully taken 
endangered species; recovery planning and implementation; and 
Federal agency consultation requirements.
    During fiscal year 1998, the listing appropriation of $5.2 
million will be used to: propose approximately 70 species for 
listing; add 100 species to the list; and process approximately 
25 petition findings. The FWS will also reduce its outstanding 
obligation under the settlement agreement in Fund for Animals 
vs. Babbitt by resolving the conservation status of many high 
priority candidate species through the issuance of proposed 
listings or findings that proposed listing is not warranted.
    The Department has requested a general increase of $1.7 
million for the listing program in fiscal year 1999. None of 
this funding will support the Fisheries program. The FWS 
requires this increase in fiscal year 1999 to return to a more 
balanced listing program and to complete overdue listing 
actions that are prompting lawsuits, many the continuing result 
of the listing moratorium and elimination of funding. During 
1999, the FWS expects to add approximately 100 species to the 
lists of endangered and threatened species, issue proposed 
findings for approximately 100 species, and process petition 
findings for 30 species. The Department has also requested an 
increase of $0.4 million for the listing program to support the 
Southwest Ecosystem Initiative; this is one component of a 
package totaling $3.0 million which includes an increase of 
$0.7 million for the Fisheries program.
    The FWS was appropriated an increase of $2.8 million for 
the recovery program for fiscal year 1998, or 7 percent. The 
ultimate goal of threatened and endangered species conservation 
is to recover listed species to levels where protection under 
the Endangered Species Act is no longer required and they can 
be removed from the list. During fiscal year 1998, the recovery 
appropriation of $42.5 million will be used to develop some 25 
Safe Harbor Agreements, complete draft and final recovery plans 
for at least 50 species, and evaluate and propose for delisting 
some 29 species.
    The Department has requested a program increase of $10.5 
million for the recovery program in fiscal year 1999. None of 
this funding will be used to support the Fisheries program. The 
FWS requires this increase in fiscal year 1999 to more 
efficiently and effectively implement the Endangered Species 
Act reforms to increase stakeholder involvement in both 
recovery planning and implementation and by increasing recovery 
actions by involving more private land owners through the Safe 
Harbor program. In addition, the Department has also requested 
an increase of $0.7 million for the Southwest Ecosystem 
Initiative discussed above and an increase of $1.0 million for 
a Platte River Recovery Implementation Program; both of these 
increases are included in the recovery program.
    The FWS Fisheries program supports the recovery of nearly 
one third of 108 fish species listed under the ESA. Program 
activities include stock assessment/identification, habitat 
restoration, captive propagation, and refugia for at least 32 
aquatic species listed under the ESA. These activities are 
specified in approved recovery plans. Fisheries biologists also 
serve as members of Recovery Teams for listed fish species. 
This will continue in 1999.
    The Department has requested increases for the Fisheries 
program in fiscal year 1999 that directly support the recovery 
of listed species. For example, an increase of $0.5 million 
will support on-the-ground projects that restore and enhance 
native trout habitats on Federal, state, and private lands 
nationwide. Many of the target species are listed or under 
consideration for listing. An increase of $0.7 million will 
support the Southwest Ecosystem Initiative to reestablish 
native vegetation, restore pool habitats, improve water quality 
and quantity to support endangered fish species such as the 
loach minnow, spidedace and Gila topminnow; the threatened 
Apache Trout, endangered Gila trout and at-risk Rio Grande 
cutthroat trout. An increase of $0.9 million will fund on-the-
ground fish passage in high migratory corridors for proposed 
and listed species including the Atlantic Salmon and Pacific 
Northwest anadromous species; this increase is tied to a 
parallel increase in the project planning function for 
additional FERC relicensing evaluations to support fish passage 
solutions. The Department also notes that a modest amount of 
base Endangered Species program funding ($10,000 to $20,000) is 
made available to support specific fisheries projects.

                          hatchery operations

    Question. How much of the increase received in fiscal year 
1998 for recovering species listed under the ESA was allocated 
to the National Fish Hatchery System to expand and improve 
production of listed species? How much of this funding will the 
System receive in fiscal year 1999?
    Answer. The National Fish Hatchery system has not received 
any portion of the fiscal year 1998 increase for recovery under 
the ESA and there are no plans to transfer recovery funding to 
the fisheries program in fiscal year 1999. As discussed above, 
the funding appropriated to the recovery program is used for 
very specific purposes and is critically needed to recover 
listed species to levels where protection under the Endangered 
Species Act is no longer required and they can be removed from 
the list.
    However, the National Fish Hatchery System is working with 
30 species listed under the ESA, representing over one quarter 
of listed North American Fish species. There are currently 75 
approved recovery plans, many of which specify developing 
captive propagation and refugia technology at fish hatcheries. 
There are 20 FWS hatcheries involved in these efforts, along 
with the FWS's Fish Technology and Fish Health Centers, which 
provide technology support to the hatcheries. Currently, 19 of 
the listed species held within the Hatchery System are being 
propagated for release into the wild. The fiscal year 1999 
President's Budget requests an increase of $0.5 million, or 7 
percent, to implement projects to reduce the backlog of 
critical health and safety projects. In addition, the 
President's Budget requests full pay and uncontrollable cost 
increases for the hatchery program.
    Question. How will the FWS's hatcheries, as well as State 
and Tribal hatcheries, be affected by the proposal of the 
Biological Resources Division of the Geological Survey to 
terminate its drug and chemical registration research?
    Answer. Of the twelve drugs and chemicals that have been 
identified as essential to FWS Fisheries operations, only three 
are approved by the U.S. Food and Drug Administration for use 
in aquaculture. BRD is performing the research, in cooperation 
with states, necessary for approval of several of the drugs 
that have been identified as essential to FWS Fisheries 
programs. As part of this research effort, the FWS is using 
these drugs under FDA authorized Investigational New Animal 
Drug (INAD) exemptions to provide field efficacy data on use of 
these non-approved drugs. This data is being provided as part 
of the BRD drug approval research package.
    Curtailment of research could decrease chances of interim 
use of essential unapproved drugs during the annual process.
    If the Biological Resources Division (BRD) terminates its 
aquaculture drug and chemical approval research, it may be 
difficult for FWS to obtain approval for drugs necessary for 
fish production programs, including its endangered and 
threatened fish production and refugia programs. Fish 
production at most National Fish Hatcheries could be reduced, 
including production at hatcheries involved in the restoration 
of nationally significant fishes such as Atlantic and Pacific 
salmon, striped bass, sturgeon species, and endangered and 
threatened fish species. State, Tribal, and private producers 
will be similarly affected.
    Question. We understand the Fisheries Program is developing 
a Fisheries Operational Needs System (FONS) similar to the RONS 
used by Refuges. How will the Fisheries Program use this 
information and, assuming there is a compelling need to create 
this System, why hasn't the FWS requested additional operating 
funds for its hatcheries in fiscal year 1999?
    Answer. The FWS has documented the operating needs of the 
National Wildlife Refuge system through the Refuge Operating 
Needs system. The FWS has begun to use a similar tool called 
the Fisheries Operational Needs System as a systematic method 
for collecting data on unmet federal fishery resource needs. 
The FWS plans to begin using the FONS to collect data on unmet 
fishery resource needs by midsummer 1998.
    Once the FONS is in place and unmet needs are identified 
and prioritized, the FWS will use the FONS-generated data to 
identify and support additional funding needs and requests for 
internal budget formulation priority setting and for possible 
documentation of fisheries increases if the FWS leadership 
includes fisheries increases in future budget requests to the 
Department. These operational needs would then be evaluated 
against all the other priorities and all the other unmet needs 
in the FWS, including the endangered species program, when the 
Department formulates future budgets. This same evaluation will 
then be conducted by the Office of Management and Budget.
    The Department did not request additional operating funding 
for the National Fish Hatchery system in 1998 for several 
reasons, primarily:
    The Department placed a higher priority on the need to more 
efficiently and effectively implement the Endangered Species 
Act and on the needs of the National Wildlife Refuge system.
    In regards to fisheries restoration, the Department placed 
a higher priority on on-the-ground habitat restoration 
activities. The fisheries specific restoration increases 
included in the FWS budget are for native trout restoration, 
fish passage, FERC relicensing, etc. Other FWS increases for 
fiscal year 1999 directly support the restoration of fisheries 
resources, notably the FWS component of the Administration's 
``Clean Water and Watershed Restoration'' initiative. This 
includes a $2.5 million increase for riparian habitat 
restoration projects in the Partners for Fish and Wildlife 
program and an increase of $3.0 million in the North American 
Wetlands Conservation Fund.
    Question. The National Wildlife Refuge System received 
substantial increases for its operational needs in fiscal year 
1998. How is the National Fish Hatchery System addressing these 
same kinds of needs in the absence of any substantial increases 
in appropriations?
    Answer. The National Wildlife Refuge system received 
substantial increases for its operational needs in fiscal year 
1998 because there was a national consensus that the refuge 
system was broken and needed fixing. Both the Administration 
and the Congress recognized this by working together to pass 
the National Wildlife Refuge System Improvement Act of 1997 and 
to secure additional operations and maintenance funding.
    The National Fish Hatchery system has not received major 
funding increases in recent years (nor, for that matter, have 
the majority of the programs in the FWS or the Department). 
Given ongoing budgetary pressures, the hatchery system worked 
during fiscal year 1996 and 1997 to align fish production with 
Federal priorities and transferred to the respective states six 
National Fish Hatcheries that primarily produced fish in 
support of state programs. By the end of 1998, the production 
of the remaining 65 NFHs will be aligned with Federal 
responsibilities. Savings realized by the transfer of these 
hatcheries totaling $1.1 million were left in the hatchery 
program to provide some operational relief.
    The savings from hatchery transfers has been reinvested 
into the fisheries program in an effort to restore the FWS's 
ability to meet high priority Federal responsibilities. Had the 
FWS not done this, the Fisheries Program would have continued 
to fall substantially short of fulfilling its core 
responsibilities.
    The Department has requested full funding for pay and other 
uncontrollable costs for the hatchery system for both 1998 and 
1999; this funding was appropriated in 1998 and is pending for 
1999.
    The National Fish Hatchery system is currently addressing 
its operational needs by ensuring that its various warm, cool, 
and cold-water Hatcheries, Fish Health Centers, and Fish 
Technology Centers are fully integrated and are aligned with 
Federal responsibilities and priorities. This is now being 
accomplished by a Three A's survey (alignment, appropriate, 
adequate) of its 80 facilities.
    The Fisheries program is also nearing completion of its 
Fisheries Operating Needs System to identify the most critical 
operational needs for Fisheries facilities, with quantified 
benefits identified at the outset. Data entry is planned to 
begin this summer. This tool will help in future priority 
setting within the FWS and the Department.
    Question. How many positions are vacant in the National 
Fish Hatchery System because of insufficient funding? Identify 
them by job series and location, and explain how those 
vacancies have affected the operation and performance of the 
System?
    Answer. There are no vacancies in the hatchery system 
because of insufficient funding. Vacancies that do exist are 
because of the priority placed on the needs of the Endangered 
Species program, the National Wildlife Refuge system, and on-
the-ground fisheries restoration projects. The hatchery system 
is able to meet its highest priority mission needs with the 
funding included in the President's budget.

                          fish health program

    Question. Provide a detailed accounting of how the FWS is 
spending the $1.8 million it received for whirling disease in 
fiscal year 1998, and identify specific progress made in 
combating this disease.
    Answer. The funds received for fish health in fiscal year 
1998 are being spent as follows:
  --$300,000 to the USGS Biological Research Division and the 
        University of California-Davis to improve detection techniques 
        and conduct strain susceptibility studies;
  --$100,000 to support cooperative studies at the FWS Bozeman 
        Fisheries Technology Center focusing on whirling disease 
        control;
  --$700,000 to support the activities of the National Partnership for 
        the Management of Wild and Native Cold Water Fishes housed at 
        Montana State University;
  --$600,000 to support the National Wild Fish Health Survey operated 
        by the FWS nationwide; and
  --$100,000 to support the compilation and maintenance of an Internet 
        accessible National Fish Health Database.
    While the effects of whirling disease are both significant 
and widespread, multi-agency resources are being rallied to 
eradicate and control it. The scientific community and fishery 
resource agencies have made impressive strides in their efforts 
to combat whirling disease, but lack the means to easily 
control the disease. For example, with the $300,000 allotment, 
the Biological Resources Division and its partners developed a 
new, more precise detection technique to assist in identifying 
the distribution of the disease. The method is also used as a 
research tool. A significant portion of the $1.8 million 
allocation is devoted specifically to whirling disease projects 
with another portion addressing the larger issues of pathogens 
and parasites in wild populations.
    The National Wild Fish Health Survey was initiated in 
response to our lack of information about diseases and 
pathogens in wild fish. This was glaringly apparent in the 
whirling disease crisis seen in the intermountain west. The 
National Wild Fish Health Survey, while begun only last year, 
has proven remarkably successful. State and Tribal fishery 
management agencies have applauded the FWS's leadership in 
stepping forward and establishing the Survey as a critical link 
necessary for effective management of wild stocks. Last year, 
over 5,000 fish were sampled from over 190 sites on Federal, 
State, Tribal, and private lands across the country. This was 
accomplished by forming collaborative partnerships with more 
than 72 different groups, through which States, Tribes, and 
private groups participated in determining sampling sites and 
providing resources for fish collections. The FWS has requested 
an increase of $200,000, or 33 percent, for this survey for 
fiscal year 1999.
    Question. Why hasn't the FWS requested additional funding 
so its fish health capabilities can be brought to bear on the 
Pfiesteria problems in Chesapeake Bay and North Carolina?
    Answer. The lead for Pfiesteria activities in DOI resides 
with the Biological Resources Division of the United States 
Geological Survey.
    The FWS has been and will be contributing significantly to 
the management of this particular fish health problem by 
supporting other DOI and state Pfiesteria activities. For 
example, the devastating whirling disease crisis of the 
intermountain west prompted the FWS to initiate a National Wild 
Fish Health Survey in 1997. The Survey has the potential to 
help fishery management agencies understand and control a 
number of diseases afflicting wild fish stocks, including 
Pfiesteria. The FWS has requested an increase of $200,000 for 
the Wild Fish Health Survey in 1999.
    Question. The FWS budget request suggests the FWS is not 
interested in providing the same kind of aggressive leadership 
in combating Pfiesteria as it has in addressing whirling 
disease. Why?
    Answer. The Department is actively involved in the overall 
effort. Because of the nature of the disease (its affect on 
humans as well as wildlife, and ties to agricultural practices) 
the Pfiesteria effort is managed collectively by several 
federal agencies. The DOI lead rests with our science agency, 
the United States Geological Survey. The FWS is an active DOI 
cooperator and had had critical input into DOI plans and budget 
initiatives.

                        fish technology program

    Question. Why does the FWS need three Fish Technology 
Centers in the Southwest United States? What actions would be 
required to place the former San Marcos National Fish Hatchery 
and Technology Center in caretaker status as a unit of the 
National Wildlife Refuge System?
    Answer. The FWS presently has two Fish Technology Centers 
in Region 2, the Southwest Region, which consists of the States 
of Oklahoma, Texas, New Mexico, and Arizona. San Marcos is a 
warm-water Fish Technology Center located in central Texas. The 
Southwestern Fisheries Technology Center has two units in New 
Mexico: Dexter, a cool-water facility in southern New Mexico 
and Mora, a cold-water unit in northern New Mexico.
    The Southwestern Region encompasses a diverse and broad, 
expansive area that contains at least eight dynamic ecosystems. 
Aquatic habitats range from warm to cool and cold-water. 
Terrestrial habitats range from arid deserts to moist Rocky 
Mountains, with many stages in between. Additionally, many of 
the ecosystems in the Southwest are extremely altered by 
perturbations ranging from construction of dams on the Colorado 
River to agriculture and urbanization in Texas and Oklahoma. 
Also, the Southwest Region has a very large number of 
threatened and endangered species and the FWS recognized early 
on that progressive recovery efforts and water conservation 
development would require additional facilities.
    In the early 1990's the FWS had only San Marcos FTC and 
Dexter FTC. Realizing the need for water conservation and 
related technology development, the FWS developed a plan to 
construct Mora FTC, which has been fully funded and almost 
completed. The Dexter, San Marcos, and Mora Units were planned 
to be combined under one administrative unit, the Southwestern 
Fisheries Technology Center. At about the same time, the 
Biological Resources Division assumed operational 
responsibility for the San Marcos facility. The Dexter and Mora 
FTCs were combined into the Southwestern Fisheries Technology 
Center. The FWS and the Biological Resources Division have 
subsequently entered into an agreement whereby the FWS will 
resume the responsibility for the operation and maintenance of 
the San Marcos FTC facility.
    Placing San Marcos into caretaker status as a unit of the 
National Wildlife Refuge System would diminish the abilities of 
the FWS to use the facility for resource conservation, 
restoration, and recovery. Historically, San Marcos has made an 
important contribution to the FWS Fish Technology Development 
program. In addition, San Marcos has a court ordered mandate of 
being a refugium for endangered species of central Texas and 
conducting technology development studies.

                          hatchery maintenance

    Question. Is the maintenance situation on National Fish 
Hatcheries, in general, more urgent than that on National 
Wildlife Refuges? Compare the capitalized values of both 
systems to their maintenance backlogs and maintenance 
appropriations.
    Answer. By several standards, most National Fish Hatchery 
and National Wildlife Refuge facilities (as well as National 
Park units and facilities managed by the BLM) are in need of 
additional funds for their maintenance needs. While industry 
standards call for funding maintenance at 2 percent to 4 
percent of the replacement value of facilities, over the last 
decade Hatcheries and Refuges have received only about 1 
percent of the replacement value of their facilities for their 
maintenance needs. As a result, the lists of deferred 
maintenance projects in both Hatcheries and Refuges have grown 
substantially.
    Using a Facility Condition Index (FCI), which is the cost 
of deferred maintenance projects as a fraction of the total 
capitalized value of a facility, the average facility in both 
the Hatchery and the Refuge system must be characterized as 
being in poor condition. Facilities are judged to be in good 
condition if their FCI is 0 to 5 percent, in fair condition at 
5 to 10 percent, and in poor condition if over 10 percent With 
a fiscal year 1998 backlog of $599 million and a capitalized 
value of approximately $4.5 billion, the National Wildlife 
Refuge System has an aggregate FCI of about 13 percent. The 
National Fish Hatchery System, with a re-estimated $151 million 
backlog and a capitalized value of approximately $800 million, 
has an aggregate FCI of about 19 percent. Given this overall 
situation, the Department has proposed a 5-year plan to 
systematically address the maintenance backlogs in the three 
land management agencies. This includes the FWS refuge and 
hatchery systems, and is discussed in detail below.
    Question. The National Wildlife Refuge System received 
substantial increases for maintenance in fiscal year 1998 to 
attend to unmet needs. How is the National Fish Hatchery System 
addressing those same kinds of needs in the absence of 
substantial increases in appropriations?
    Answer. The National Fish Hatchery System is currently 
provided $6.9 million annually for maintenance needs. The 
Department has requested an increase of $0.5 million, or about 
7 percent, for the highest priority critical health and safety 
and natural resource maintenance backlog needs in the fiscal 
year 1999 budget. The Department will evaluate the needs of the 
hatchery system against other priorities during the fiscal year 
2000 budget formulation process.
    Question. Why is the Fish and Wildlife Service spending so 
much more on maintaining its refuges than its hatcheries at a 
time when the FWS's own data indicate that its hatcheries are 
in far worse shape physically than its refuges? Aren't the 
operating needs of refuges also getting much more attention 
than those of hatcheries? Why?
    Answer. The maintenance funding levels for both the 
National Fish Hatchery System and the National Wildlife Refuge 
System are both under 1 percent of the capitalized value of the 
facilities in each System. The FWS is cooperating with the 
Department in the development of standardized definitions and 
consistent criteria for tracking and evaluating the maintenance 
needs of all its facilities. The FWS is confident that these 
efforts will help identify critical FWS maintenance needs.
    Regarding the operating needs of Refuges and Hatcheries, 
both Systems are struggling to use their finite financial 
resources effectively in managing natural resources under their 
stewardship.
    The operating needs of the refuge system have been treated 
as a higher priority by the Administration and by the Congress 
because there was a national consensus that the refuge system 
was broken and needed fixing. Both the Administration and the 
Congress recognized this by working together to pass the 
National Wildlife Refuge System Improvement Act of 1997 and to 
secure additional operations and maintenance funding. This 
priority is also reflected in the fiscal year 1999 President's 
budget request.
    Question. We understand that the most recent estimate of 
the hatchery maintenance backlog is $151 million, and that 
hatcheries as a whole are in far worse shape physically than 
refuges. Why then is the Fish and Wildlife Service claiming 
that the hatchery maintenance backlog is only $115 million, and 
more important, why isn't the FWS requesting increases for 
critical hatchery maintenance rather than refuge maintenance 
that isn't in as bad shape?
    Answer. As discussed previously, the National Wildlife 
Refuge system received substantial increases for its 
operational and maintenance needs in fiscal year 1998 because 
there was a national consensus that the refuge system was 
broken and needed fixing. Both the Administration and the 
Congress recognized this by working together to pass the 
National Wildlife Refuge System Improvement Act of 1997 and to 
secure additional operations and maintenance funding. This 
priority is also reflected in the fiscal year 1999 President's 
budget request.
    Both the refuge system and the hatchery system--as well as 
the Park system and the public lands--face maintenance backlogs 
beyond current funding levels. However, the Department is not 
engaged in a ``dueling'' match among the various backlog needs. 
As in any budget, priorities are set within the Administration. 
For fiscal year 1998 and fiscal year 1999, the Department has 
considered the needs of the refuge system as a priority.
    For fisheries programs, the Department has focused on 
habitat restoration and on-the-ground activities as a priority, 
which are not funded through the hatchery system.
    The President's Budget was submitted to the Congress in 
February 1998, and at that point in time the estimated hatchery 
backlog was $115 million. In the months following the release 
of the President's Budget, and as part of the follow-on effort 
to formulate the fiscal year 2000 budget and five-year plan 
Departmentwide, the hatchery system has estimated a new backlog 
inventory of $151 million. The other programs in the Department 
have also reestimated their identified backlogs during this 
time frame.
    The President's Budget includes $7.4 million for hatchery 
maintenance, an increase of $500,000 over the fiscal year 1998 
enacted level.
    Question. We understand that refuges received $10 million 
in additional maintenance appropriations under Title V in 
fiscal year 1998, while hatcheries received no additional 
maintenance funding. Given that the current hatchery 
maintenance backlog exceeds $150 million and involves more than 
1,700 projects, why didn't hatcheries receive some of the $10 
million available under Title V?
    Answer. Faced with burgeoning backlogs in all three land 
management agencies, the Department prioritized bureau critical 
health and safety projects as priorities for the fiscal year 
1999 budget and the use of the fiscal year 1998 Title V 
Funding. The Department's limited construction, maintenance and 
Title V funding was targeted to this inventory. This 
combination of 1999 construction and maintenance funding and 
1998 Title V funding will eliminate 98 percent of the inventory 
of FWS critical health and safety projects.
    The Department decided to focus on critical health and 
safety projects first to ensure safe visits for the visitors to 
the national parks, refuges, fish hatcheries, and public lands, 
and to make sure that the 45,000 Department employees who daily 
work at BLM, FWS, and NPS facilities have safe working 
environments.
    For the hatchery program, the $7.4 million requested for 
hatchery maintenance will fund all critical health and safety 
maintenance projects and the first increment of natural 
resource projects. The $7.7 million requested for hatchery 
rehabilitation and construction will fund the three critical 
health and safety projects that require construction funding as 
well as natural resource projects. Combined, these requests 
address the critical health and safety projects at hatchery 
facilities that had been identified in the most recent listing 
of MMS projects.
    For the refuge system, the $46.6 million requested for 
refuge maintenance will fund all critical health and safety 
maintenance projects as well as the first increment of natural 
resource projects. The $10 million in Title V funding and the 
$12.5 million for refuge construction projects will fund all 
but two construction projects identified in the backlog of 
critical health and safety projects.
    The Department plans to aggressively address the remaining 
backlogs in the FWS and the rest of the Department through a 
five-year plan which will be first addressed in the fiscal year 
2000 budget. The three land management bureaus are currently 
working closely with the Department on this process.
    Question. President Clinton's Executive Order on 
Recreational Fisheries challenges all Federal agencies to do 
more to conserve and restore fishery habitat and promote 
recreational fisheries. How can the Fish and Wildlife Service 
meet this challenge when its Fisheries Program continues to 
have a much smaller budget than the Refuges and Ecological 
Services Programs, whose budgets have increased dramatically in 
recent years?
    Answer. Every year the Department has to prioritize its 
limited funding to meet national level policy goals. For the 
FWS, these priorities have been, and will more than likely 
continue to be, centered on the effective and efficient 
implementation of the Endangered Species Act. That said, over 
the last five years, the Department has implemented three large 
scale watershed restoration efforts using new methods, 
partnerships, and renewed public participation which directly 
restore fisheries habitat and promote recreational fisheries.
    The 1999 budget continues implementation of the California-
Bay Delta Ecosystem Restoration program--which directly 
benefits anadromous fisheries resources--with a request of 
$143.3 million, an increase of $58.3 million over the 1998 
enacted level. Central to this effort is significant funding 
for fish screen improvements ($19 million); improved instream 
flows ($20 million); and fish passage improvements ($3 million) 
and fisheries hatchery support $3 million); as well as 
significant funding of river channel changes ($58 million) and 
habitat restoration ($27 million).
    The Everglades watershed restoration effort continues in 
1999 with a request of $144 million to reverse manmade changes 
to waterflows which have had deleterious effects on native 
flora and fauna and fisheries resources. And, the Department 
continues to support the President's Forest Plan with a request 
of $68 million to allow for sustainable timber production on 
Federal lands while fully protecting and restoring critical 
wildlife and fisheries resources. In fact, much of the focus on 
the Forest Plan has shifted to aquatic conservation efforts for 
anadromous fisheries, and the BLM Jobs in the Woods program is 
being directed at coastal coho habitat projects.
    Within the FWS budget, the fisheries program has a smaller 
budget than the Refuges and Ecological programs because it is 
less costly to conduct. The National Wildlife Refuge system 
manages over 93 million acres on 514 refuges, 38 wetland 
management districts, and 50 coordination areas; as discussed 
previously, recreational programs on the refuge system have 
been targeted for increased funding. The Fisheries program, by 
contrast, manages a system of 65 National Fish Hatcheries, 64 
Fish and Wildlife Assistance Offices, 9 Fish Health Centers, 
and 6 Fish Technology Centers, with much less land and 
property. Ecological Service requires much higher staffing 
levels, with the correspondingly higher personnel costs, 
particularly in the Endangered Species and Habitat Conservation 
programs.
    Several FWS programs contribute to the Executive Order on 
Recreational Fisheries. Since 1994, the FWS Fisheries program 
has redirected nearly $6 million toward its highest priority 
programs, many of which support recreational fisheries. These 
funds were made available by transferring several National Fish 
Hatcheries to States, recovering mitigation costs from project 
beneficiaries where feasible, completing portions of major 
programs such as restoration of Atlantic coast striped bass, 
and internal management decisions. The funds are being used to 
improve restoration and recovery programs for recreational 
salmon, migratory striped bass other than the Atlantic coast 
population, lake trout, and shad, and mitigation programs using 
inland trout.
    Some of the fiscal year 1998 budget increases that were 
appropriated to the Refuges and Wildlife program and to the 
Ecological FWS program support recreational fisheries. 
Approximately $1 million of the Refuges and Wildlife increase 
and $540,000 in Refuge MMS projects contribute to improving 
recreational fishing on refuges. The increase of $750,000 for 
Ecological Services to improve passage of fish beyond FERC 
licensed dams will increase both the number and range of fish 
available to recreational anglers.
    In 1999, among other increases in the fisheries program, an 
additional $900,000 is requested to improve fish passage in 
high migratory corridors for important recreational species 
including shad and stripped bass; an additional $900,000 will 
support additional FERC relicensing; an additional $500,000 
will support native trout reintroduction efforts; an additional 
$700,000 will support fisheries reintroductions in the 
Southwest; an additional $200,000 will support the Wild Fish 
Health Survey; and an additional $1.0 million will support 
increased aquatic nuisance species control efforts to in part 
protect recreational fisheries values. In addition, the FWS 
will participate in the Administration's Clean Water and 
Watershed Restoration Initiative with an increase of $5.5 
million to restore riparian habitat through the Partners for 
Fish and Wildlife Program and the North American Wetlands 
Conservation Fund.
    Question. On the basis of the budget increases requested 
for the Refuges and Endangered Species Programs in the Fish and 
Wildlife Service budget for fiscal year 1999, what reason would 
Americans have for believing the FWS is prepared to put ``the 
fish'' back into the Fish and Wildlife Service?
    Answer. The Department would argue that not only has this 
Administration put the ``fish'' back into the Fish and Wildlife 
Service, the Administration has revolutionized the stewardship 
of aquatic landscapes: the rivers, lakes and wetlands that link 
and nourish the watersheds we inhabit.
    As discussed above, the Department's first priority was to 
restore the Everglades ecosystem by reconnecting the hydrologic 
arteries by bringing all the Federal agencies together behind a 
common restoration plan. This effort continues today.
    The watershed restoration of California joined together 
state agencies, irrigation districts, farmers, 
environmentalists, and fishermen to negotiate a restoration 
framework--known as the Bay Delta Accord. Coordinating efforts, 
the legislature in Sacramento placed a restoration bond issue--
almost one billion dollars--on the ballot in 1996. Armed with 
such strong public support, the Department went to the Congress 
which in 1997 provided matching funds. The result was, again, a 
massive restoration program to bring California rivers and 
wetlands back to life by dedicating water to restore and 
maintain stream flows, re-watering wildlife refuges, moving 
levees back so that rivers can flow free across their natural 
floodplain, and screening irrigation canals to protect 
migrating fish.
    In the Pacific Northwest the Department has aggressively 
participated in the President's Forest Plan to replenish trout, 
coho, chinook and sockeye salmon by looking past the water's 
edge to create large connective forested buffers along banks of 
streams and tributaries in 14 million acres. The Department is 
also negotiating large scale multi-species Habitat Conservation 
Plans with nonfederal landowners towards the same purpose.
    In the Sierra, Rockies, and Appalachians the Department is 
replenishing native aquatic species in a quarter of a million 
miles of streams by matching federal funds and land management 
experts with local private and nonprofit projects to restore 
the damaged mountains which bleed into them.
    On western rangelands, the Department is working to bring 
back rare native trout in cooperative range partnerships to 
modify livestock grazing rotations, build riparian fences, and 
replant willows and aspen.
    The Department has also evaluated the systemic costs of 
building more than 75,000 dams in this country in this century 
alone with the concurrent destruction of salmon runs in New 
England and the West and the crashing shad and herring runs of 
the Susquehanna, for example. For these reasons it is 
appropriate to think of dams as having a ledger with both 
benefits and environmental costs. And as part of watershed 
restoration efforts it is always appropriate to ask whether a 
given dam can be operated in a more river friendly mode.
    The Grand Canyon is one place where we have asked that 
question and answered in the affirmative. The Bureau of 
Reclamation opened the gates and sent a huge surge of water, an 
artificial flood, crashing down through the Colorado River. The 
idea behind that was to mimic the natural spring flooding of 
the pre-dam river so as to stir sediment up and rebuild eroded 
beach habitat downstream in the Grand Canyon.
    In 1992 Congress authorized a study of the removal of two 
small 70-year-old dams at the mouth of the Elwha River. These 
dams blocked salmon runs of 300,000 from spawning up 70 miles 
into the heart of Olympic National Park. The Park Service, 
after careful study, has concluded that, forgoing a small 
amount of energy in an area where electric power is now in 
surplus, would be a small price to pay for restoring one of the 
great wild salmon runs.
    And, the Department has moved to engage the hydro-power 
industry in developing fish passage solutions through the FERC 
relicensing process and the implementation of on-the-ground 
fish passage projects.
    The Department has requested increases for all of these 
programs in the fiscal year 1999 budget or held funding 
constant from 1998, and stands by its demonstrated commitment 
to the American public to protect and restore the nation's 
fisheries resources.
    Question. We understand the Fish and Wildlife Service is 
undertaking a critical ``Three A's'' evaluation of its 
hatcheries to more accurately document their operating needs, 
which preliminary estimates place as high as $50 million. Given 
the magnitude of those needs and the questions surrounding 
hatcheries, why hasn't the FWS requested more funds in fiscal 
year 1999 to ensure its hatchery programs are based on the best 
possible science available?
    Answer. The FWS has initiated a ``Three A's'' evaluation 
(alignment, appropriate, adequate) of all production programs 
in the National Fish Hatchery (NFH) System. The evaluation will 
be used in ensuring that production programs conducted by the 
FWS are aligned with one or more of the Fisheries program 
priorities; are appropriate for meeting the desired fishery 
management objective; and are supported by adequate facilities, 
equipment, and personnel.
    The ``Three A's'' evaluation program will assess if each 
production program has been preceded by analyses indicating 
whether it is the appropriate management tool for achieving the 
stated fishery management objective. A key element of the 
assessment will determine whether a program will cause unwanted 
ecological harm. It will also assess if production programs 
have adequate support in planning, implementation, and 
evaluation for the present and the future. By the end of fiscal 
year 1998 production programs at all 65 facilities will be 
aligned with the FWS Fisheries Program Priorities and all 
production programs initially will have been evaluated for 
appropriateness and adequacy.
    The results of the ``Three A's'' evaluation will be 
integrated into the existing Fisheries Information System (FIS) 
during fiscal year 1999 to enhance and complement ongoing 
efforts to ensure that the NFH System fulfills federal fishery 
responsibilities. Completion of the 3A's process in fiscal year 
1999 will provide the FWS with the tools and capabilities to 
identify potential budget needs for the NFH System in a more 
reliable manner.
    Question. What involvement does Fish Hatcheries have in the 
restoration and recovery of imperiled sea-run fish species, 
most notably Atlantic and Pacific salmon and several sturgeon 
species?
    Answer. The National Fish Hatchery system contributes to 
the restoration and recovery of at least 12 imperiled 
anadromous species (3 endangered, 3 threatened, 2 proposed, 4 
state-protected). For some of these species, such as the 
endangered shortnose sturgeon and threatened Gulf sturgeon, 
fish hatcheries and technology centers are developing 
techniques for holding and spawning. These hatchery tools are 
being developed for use in conjunction with habitat restoration 
to recover listed populations. Hatcheries are also producing 
several listed anadromous species for release into the wild, as 
called for in recovery plans, including the Snake River and 
Sacramento River strains of sockeye salmon.
    Restoring imperiled populations of anadromous fish not yet 
listed under the Endangered Species Act is critical to 
precluding further listings and is an important aspect of the 
FWS's Fisheries Program. The FWS works closely with the states, 
tribal governments, and other federal agencies to evaluate and 
restore habitat, and to produce captively propagated fish to 
assist in restoring wild populations and prevent these species 
from being listed. Atlantic salmon restoration in New England 
and chum salmon restoration in the Pacific Northwest are 
examples of this effort. Other imperiled species, such as the 
Atlantic sturgeon, have been produced by FWS hatcheries for 
experimental release into the wild in cooperation with the 
States of Maryland and New York.
    Question. What is the FWS doing to recover sturgeon? Is 
there cost sharing with the Endangered Species Program for 
these activities? How much of the increase received in fiscal 
year 1998 for listing and recovery under the ESA has been used 
specifically to support involvement of the Fisheries Program in 
these activities? Will this situation continue in fiscal year 
1999?
    Answer. The Fisheries Program is working on projects to 
benefit sturgeon populations in the Pacific Northwest, the 
Mississippi and Missouri River basins, the Gulf of Mexico, and 
Atlantic coast. There is no need for cost sharing between the 
FWS's Fisheries and Endangered Species Programs for sturgeon 
recovery. The sturgeon programs are funded at an adequate level 
within the Fisheries program appropriations.
    FWS Fishery Resources Offices work with state, tribal, and 
other federal agencies on coordinated recovery actions and 
management plans for the recovery and restoration of 8 of the 
10 North American sturgeon species and sub-species. FWS fishery 
biologists assess fish passage and habitat needs of imperiled 
and listed sturgeon species, monitor population size and 
distribution, and identify stocks and critical spawning and 
feeding habitat.
    The National Fish Hatchery System is working with 3 of the 
5 species of sturgeon listed under the ESA (the pallid, the 
shortnose, and the Gulf sturgeon), developing captive 
propagation and holding techniques as specified in approved 
recovery plans. In fiscal year 1998, the Gavins Point National 
Fish Hatchery in South Dakota will introduce captively-reared 
pallid sturgeon into restored habitat in the Missouri River in 
Montana, representing an important step in the recovery of this 
species. The FWS's Warm Springs Fish Technology Center in 
Georgia has made similar progress in developing captive 
propagation techniques for the shortnose and gulf sturgeon, and 
stands ready, along with the Bears Bluff National Fish Hatchery 
in South Carolina, to produce these species when habitat 
conditions become favorable. Several fish hatcheries are also 
working with four non-listed sturgeon, to help preclude further 
ESA listings. The FWS has also worked with the states of 
Maryland and New York in an experimental program to release 
FWS-produced Atlantic sturgeon, an imperiled species, into the 
wild.
    The FWS is also participating in international efforts to 
protect wild populations of sturgeon. The FWS's Division of Law 
Enforcement monitors shipments of caviar to ensure that they 
are accompanied by valid import and export permits as issued 
under the rules of the Convention on the International Trade of 
Endangered Species (CITES). The type of caviar in the shipment 
must be from the same species listed on the permit. If not, it 
can be seized. The FWS's Forensics Laboratory is also 
participating in this effort, and has developed a method of DNA 
analysis which can be used to identify the species of sturgeon 
which produced the caviar being shipped. The FWS plans to share 
the DNA analysis techniques to other countries to assist them 
in their efforts to recover declining sturgeon populations.
    Question. What is the FWS doing to restore other coastal 
fisheries and which of those actions are unique to the Fish and 
Wildlife Service?
    Answer. The FWS Fishery Program has responsibility for 
management of interjurisdictional migratory species such as 
American shad, herring species, Atlantic salmon, Pacific 
salmon, and striped bass. Legislation such as the Atlantic 
Striped Bass, Anadromous Fish Conservation, Great Lakes Fish 
and Wildlife Restoration, Chehalis River Basin, Water Resources 
Development, and Atlantic Coastal Fisheries Cooperative 
Management Acts direct the FWS to protect, conserve, and 
enhance coastal fisheries, including habitat. The Fisheries 
program assesses fish populations, evaluates and identifies 
quantity and quality of critical habitats for different life 
stages of our trust species, develops techniques to propagate 
imperiled species, and propagates fish for stock 
supplementation and evaluation of wild fish stocks.
    The FWS plays a variety of roles critical to the 
restoration of fisheries, often working in coordination with 
other fisheries entities and strengthening overall efforts on 
common goals of protecting, enhancing, and restoring our 
nation's fishery resources. Aspects which set the FWS apart 
from other agencies include:
    (1) A fiscal year 1999 proposed fish passage initiative of 
$0.9 million which benefits priority coastal species by opening 
access and improving spawning and nursery habitats for 
anadromous species;
    (2) Mass marking of salmon and other species where data 
obtained from these Cooperative Tagging and Regional Mark 
Center programs is used to determine status of important 
economic fisheries on both the eastern and western coasts;
    (3) Genetic evaluations performed on hatchery fish help 
ensure that wild stock recovery is supported;
    (4) The National Fish Hatchery facilities produce fish for 
recovery of listed stocks and restoration of depleted 
interjurisdictional fisheries;
    (5) Administration of the Lower Snake River Compensation 
Plan and its associated hatcheries;
    (6) The Fisheries and Ecological Services programs provide 
a unique expertise in assessing the impacts of land use 
activities on aquatic health, within the watershed recovery 
framework. For example, the FWS has employees devoted full time 
as river coordinators who often act as catalysts to bring 
multi-user groups together to achieve common goals; and
    (7) FWS employees are instrumental in writing Atlantic 
State Marine Fisheries Commission plans where they provide 
anadromous fisheries leadership regarding management and 
habitat.
    Question. There is a name change in the Partners for Fish 
and Wildlife Program (formerly Partners for Wildlife). Does 
this mean we can expect more fisheries related projects? Will 
this program now include some fisheries oversight?
    Answer. The name change does not change the basic program 
tenets, priorities, or direction, but rather reflects an 
enhanced relationship between the Partners for Fish and 
Wildlife Program and the Fisheries Program in aquatic 
restoration. It is intended to better reflect the program's 
accomplishments in the fisheries and aquatic resources arena 
and to emphasize the FWS watershed/ecosystem approach to 
restoration. Fisheries and aquatic habitat restoration projects 
have been and will continue to be an important part of the 
Partners for Fish and Wildlife program. The FWS intends to 
increase the involvement of the Fisheries Program biologists 
and hydrogeomorphologists to expand instream habitat 
restoration capabilities and efforts. Improved coordination and 
technical information exchange in the field will result in 
additional opportunities and partnerships to restore aquatic 
habitats beneficial to Federal trust fishery resources.

               executive order on recreational fisheries

    Question. What was the outcome of the fiscal year 1997 
stakeholder meetings?
    Answer. At the Stakeholder Meetings held across the country 
in 1996-1997, about 100 Fish and Wildlife Service employees met 
with more than 430 non-FWS fishery stakeholders. Non-FWS 
attendees included nearly 140 State representatives (including 
many heads of State fishery agencies), more than 90 
conservation group representatives, more than 40 business 
people, about 30 representatives each from Tribes and other 
Federal agencies, and several members of the media. The 
purposes of the Stakeholder Meetings were to define the FWS 
roles and responsibilities for fishery resources; to establish 
priorities for the FWS Fisheries Program; to set goals and 
objectives in FWS Regions; and to develop cooperative 
approaches to accomplishing these goals.
    Based on information from the stakeholder meetings and 
considering authorizing legislation, the FWS identified seven 
roles and responsibilities for fishery resources.
    FWS roles and responsibilities for fishery resources:
  --Restoring depleted nationally significant fishery resources;
  --Fulfilling mitigation obligations;
  --Managing and helping manage fishery resources on FWS and Tribal 
        lands;
  --Providing technical support and research;
  --Continuing to administer the Federal Aid in Sport Fisheries 
        Restoration program;
  --Providing aquatic education and outreach; and
  --Enforcing Federal fishery laws.
    Within the seven roles and responsibilities, the FWS identified six 
priorities for the Fisheries Program:
    Priorities for the Fish and Wildlife FWS Fisheries Program:
  --Recovery of listed and candidate aquatic species;
  --Restoration of interjurisdictional fisheries and aquatic 
        ecosystems;
  --Management of interjurisdictional fisheries;
  --Fulfilling mitigation obligations;
  --Restoring depleted aquatic populations to preclude listing; and
  --Providing fish and wildlife management assistance to Tribes and on 
        Fish and Wildlife Service lands.
    The relative importance of the six priorities in different 
parts of the country was considered in setting goals and 
objectives in each FWS Region.
    Question. Has the FWS implemented any of the stakeholders 
priorities?
    Answer. The FWS considered the Roles and Responsibilities 
for Fishery Resources and the Fisheries Priorities in 
developing the President's fiscal year 1999 budget request. 
Based on this input, the FWS has requested an additional 
$500,000 to improve critical health, safety, natural resource, 
and cultural resource protection projects throughout its 
National Fish Hatchery System; an additional $900,000 to 
improve the passage of salmon, trout, shad, and herring beyond 
dams and other barriers to migration; an additional $500,000 to 
restore and enhance declining populations of native trout; an 
additional $200,000 to identify threats to the health of 
valuable wild fish stocks; and an additional $700,000 to 
protect fish and their habitats in the Southwest.
    Question. How do the current fishery Roundtable Meetings 
differ from the stakeholder meetings that were held last year?
    Answer. The Stakeholder Meetings held in 1996-1997 were the 
beginning of sustained communications with recreational 
fisheries stakeholders. The Stakeholder Meetings were hosted by 
the Fish and Wildlife Service and organized by FWS Region. The 
purposes of the Stakeholder Meetings were to define the FWS 
roles and responsibilities for fishery resources; to establish 
priorities for the FWS Fisheries Program; to set goals and 
objectives in FWS Regions; and to develop cooperative 
approaches to accomplishing these goals.
    The Recreational Fishery Roundtable Meetings build on the 
Stakeholder Meetings by developing cooperative approaches to 
accomplishing the goals established in 1996-1997. The 
Roundtables are hosted cooperatively by States and Federal 
agency members of the National Recreational Fisheries 
Coordination Council established under Executive Order 12962:
    Recreational Fisheries. The Roundtables are organized by 
State or watershed. The purpose of the Roundtables is to 
improve recreational fishery resources on the ground through 
identification and commitment of resources for specific 
projects. To achieve near-term results, participants are asked 
to use managerial latitude to redirect existing capabilities to 
cooperative projects and to provide a focal point for partners 
(e.g., local groups with challenge grant money) looking to 
commit existing funds. A secondary mechanism is aimed at mid-
term results: identify opportunities that require changes to 
policies or additional resources.

                           endangered species

    Question. Why the need for more money in Habitat 
Conservation Planning? Does Habitat and Conservation Planning 
contribute to the recovery of or the long term conservation of 
species? Can you provide some examples?
    Answer. The Habitat Conservation Planning (HCP) program has 
grown rapidly in recent years. During 1983-1992, only 14 
incidental take permits were issued under the Endangered 
Species Act (ESA). Over the past five years, 216 incidental 
take permits had been issued. By the end of 1998, HCPs are 
projected to cover some 7.3 million acres. The FWS anticipates 
more than 400 new and ongoing HCP consultations by the end of 
fiscal year 1999, covering some 9.2 million acres.. In just a 
few years, the HCP process has been transformed to one of the 
most important and innovative conservation programs under ESA. 
Additionally, HCP development has become a collaborative 
process between applicants and the agency with the FWS 
providing technical assistance to the applicants. Funding is 
critically required to meet this explosive growth in demand 
from private landowners.
    An HCP may contribute to species recovery by providing 
conservation measures for unlisted species that would otherwise 
not be protected. The FWS reviews an incidental take permit 
application and the associated HCP to determine if the taking 
will not appreciably reduce the likelihood of survival and 
recovery of the species in the wild. Thus, recovery is often an 
integral product of an HCP but it is not an explicit statutory 
requirement.
    Desert Tortoise HCPs, for example, use the guidelines in 
the recovery plan to direct mitigation of recovery tasks such 
as habitat acquisition and habitat management/enhancement. 
Also, large scale HCPs under California's Natural Community 
Conservation Planning program collectively cover virtually the 
entire range of the coastal California gnatcatcher and provide 
recovery actions for that species. Additionally, red-cockaded 
woodpecker safe harbor agreements provide incentives to 
maintain and enhance its populations which augment recovery 
efforts, particularly those populations on federal lands.
    Question. What is the Department/FWS doing to respond to 
the need to expedite consultation in areas like the Southwest 
where potential conflicts may impact timber and grazing 
interests?
    Answer. The FWS has done, and is undertaking, many actions 
to expedite consultations that may impact resource uses, like 
timber harvesting and grazing, while ensuring that threatened 
and endangered species are not jeopardized. In the Southwest, 
for example, the FWS recognized that a backlog of consultations 
in one of the field offices that were not being processed in a 
timely manner because of the sheer workload and insufficient 
personnel. The FWS formed a team of consultation experts drawn 
from offices throughout the nation to eliminate most of the 
backlog in six weeks. Consequently, in fiscal year 1998, the 
Director provided additional endangered species funding so that 
field offices could hire needed consultation biologists.
    The Department has also recognized the critical need for 
timely resolution of many issues surrounding resource use and 
conservation in the Southwest. The President's fiscal year 1999 
budget includes a $3 million increase for the endangered 
species programs in the Southwest to increase the FWS capacity 
to work with other agencies to solve consultation issues and to 
conserve species before they decline to the point of needing 
the Endangered Species Act's protection. The increased funding 
will hasten the recovery of listed species and remove the need 
for federal agencies to consult on projects they permit, fund, 
or carry out.
    In October 1997, Secretaries Babbitt and Glickman, and 
Under-Secretary Underwood, initiated the Southwest Strategy. 
The purpose of this strategy is to first, bring all federal 
agencies together to craft a better way of doing business when 
dealing with natural resource issues in the Southwest; and 
second, to bring all willing nonfederal partners into the 
process. The federal agencies involved in the Southwest 
Strategy have completed assigning priorities to Section 7 
consultations to ensure the most critical consultations get 
completed first. They have developed methods for streamlining 
the consultation process in the near term and they are now 
developing methods for long-term efficiencies among agencies in 
the consultation process.
    A strategy has been developed by the Forest Service and the 
FWS for handling two pending lawsuits involving compliance with 
the Endangered Species Act and grazing in the southwest. Under 
the strategy, a team of species experts, other biologists, and 
at least one range specialist has been assembled to conduct the 
Section 7 consultations that will cover the allotments 
currently in litigation. This team is working to streamline the 
consultation process on these allotments.
    Question. How many habitat conservation plans exist, and 
how many more does the FWS anticipate in the next year?
    Answer. As of January 30, 1998, there were 230 approved HCP 
permits. The FWS anticipates there will be more than 400 new 
and ongoing HCP consultations by the end of fiscal year 1999, 
and has requested a corresponding budget increase to meet the 
needs of these nonfederal landowners.
    Question. How does habitat acquisition under Section 6 fit 
with carrying out Habitat Conservation Plans?
    Answer. The Section 6 HCP land acquisition program is a 
cornerstone of carrying out Habitat Conservation Plans. Under 
the Land Acquisition Program, the FWS provides grants to states 
or territories for land acquisitions to implement HCPs. States 
and territories are in a unique position to support HCPs 
because of their authorities and close working relationships 
with local governments and landowners. The FWS considers state 
land acquisition for habitat protection within and adjacent to 
HCP areas to be an important and effective mechanism to promote 
the recovery of threatened and endangered species.
    These land acquisitions and exchanges complement, not 
supplant, private and/or local governmental responsibilities 
required for mitigation related to implementing HCPs. This 
support ensures that urban development and other economic 
activities can continue while providing adequate conservation 
measures for listed species. The FWS works closely with local 
government and other groups to establish HCPs to protect 
species and, at the same time, allow development activities to 
continue.
    A number of ongoing HCP efforts such as the Natural 
Communities Conservation Plan (NCCP) in Southern California, 
the Balcones Conservation Initiative in Texas, and the Brevard 
County Scrub Jay Initiative in Florida have validated the pilot 
$6.0 million HCP land acquisition grants-to-states concept. 
These locally-driven initiatives have identified land 
acquisition priorities that will support overall conservation 
strategies. The 1999 President's Budget includes a requested 
increase of $3.0 million--or 50 percent--for this growing 
program.
    One of the advantages of the ``no surprises'' coordination 
with the public is that it's supposed to decrease or avoid the 
need for listing species.
    Question. If monitoring shows species are still in decline 
with the no surprises policy, what measures will the FWS take?
    Answer. The FWS intended the No Surprises rule to provide 
regulatory assurances to private landowners with approved HCPs. 
Under the No Surprises rule, the Federal Government will not 
require the commitment of additional land, water, or financial 
compensation or other restrictions on the use of land, water, 
or other natural resources otherwise available for development 
or use under the original terms of a properly implemented HCP 
without the consent of the permittee.
    The FWS allows unlisted species that are adequately 
addressed in an HCP to be listed on a permit with a delayed 
effective date tied to the date of any future listing. Unlisted 
species include candidate, proposed, and any other species 
mutually agreed to by the applicant and FWS. The FWS recognizes 
that the primary jurisdiction over candidate and unlisted 
species generally rests with the state fish and wildlife 
agencies, thereby prompting the need for close coordination and 
active cooperation with state agencies in the HCP process. 
While unlisted species can benefit by being covered in HCPs, 
their inclusion does not necessarily mean that they may not be 
listed in the future if scientific information indicates that 
listing is warranted.
    Within a species range, a number of HCPs may cover a 
species. In addition, each individual HCP will vary in its 
scope and minimization/mitigation measures. An HCP may also 
incorporate measures that in the event of changed 
circumstances, such as species decline, may adjust the 
mitigation strategy to preclude jeopardizing that species. If 
such circumstances were not addressed within an approved HCP, 
the permittee may voluntarily implement measures to reduce the 
species decline. If a species continues to decline, the FWS may 
utilize a number of tools for the conservation and recovery of 
species in decline, including land acquisition, cooperative 
efforts with other federal, state, and local agencies, tribal 
governments, conservation groups, and private entities, and 
other conservation efforts within the scope of the Department 
of the Interior's authorities.
    Question. How does the pilot Safe Harbor Landowner 
Incentive Program achieve resource conservation?
    Answer. The FWS proposes a pilot grant program, the Safe 
Harbor Landowner Incentive Program, to foster private landowner 
recovery efforts for listed species by implementing the Safe 
Harbor policy. The Department has requested $5.0 million for 
1999 for this program. Safe Harbor agreements are voluntary 
agreements between the FWS and nonfederal property owners 
designed to encourage landowners to restore, enhance, manage, 
or improve habitat for listed species on their property. The 
Safe Harbor concept, along with this grant program request, 
responds to the needs of private landowners who are managing 
their lands in an environmentally friendly manner. It aims to 
alleviate their concerns about the potential of future land, 
water, or resource-use restrictions that may result because of 
their proactive initiatives.
    Currently, nonfederal landowners participating in Safe 
Harbor agreements receive no incentives other than the 
assurances provided that their regulatory burden will not 
increase through managing their property for the benefit of 
endangered species. In order to fully implement the Safe Harbor 
policy and increase property-owner participation, the FWS 
proposes to assist nonfederal landowners through the Safe 
Harbor Landowner Incentive Program. This program will provide 
funding to landowners with critical land holdings to conserve 
important habitat for endangered species.
    These agreements will contribute significantly toward the 
recovery of some listed species, especially when it is 
considered that more than half of the species listed have 80 
percent of their habitat on nonfederal lands. For example, the 
Southeastern Atlantic coastal plain was once dominated by vast 
forests of longleaf pine. Only 10 percent of these forests now 
remain. Many of the species that once were abundant in such 
habitats are now endangered or threatened, including the red-
cockaded woodpecker, the St. Francis satyr butterfly, the 
gopher tortoise, and American chaffseed. The Safe Harbor 
agreements and the grants will be incentives to maintain the 
longleaf forests by providing resources for the controlled 
burning, and other on-the-ground actions that are essential for 
the preservation of this ecosystem.
    This program will be significant to the recovery of many 
species. It will help facilitate and foster partnerships 
between the FWS and nonfederal entities in recovering listed 
species, as well as providing benefits for proposed, 
candidates, and unlisted species that share the same habitat. 
The Administration's success with such creative tools as Safe 
Harbor agreements have renewed cooperation among private 
landowners in aiding threatened and endangered species.
    Question. For every dollar spent in Candidate Conservation 
planning, how much is saved in the listing and recovery 
programs?
    Answer. While such a broad question cannot be answered 
specifically because the complexity of conservation varies 
among species, the Department is confident that candidate 
conservation can be less costly and more effective than listing 
and recovery, especially when costs to landowners are 
considered. For example, the conservation of mammals may differ 
in complexity from that of plants. Furthermore, conservation of 
a mammal with a small range may differ from that of a mammal 
with a large range. Conservation of a wide-ranging species 
occurring on private land, federal land, and tribal land across 
several states would be much more expensive than would 
conservation of a rather isolated species occurring only on 
federal land in a single state.
    Certain general conclusions, however, can be drawn 
regarding the costs of conservation of a candidate species 
compared to the costs of listing and recovery of that same 
species. The earlier species conservation begins, the more 
efficient and effective it will be. Early conservation 
maintains land use and development flexibility for landowners 
and preserves conservation options for the FWS. Many of the 
costs and regulatory restrictions associated with listing can 
be avoided including: the administrative costs of listing; the 
costs of law enforcement; the costs to landowners resulting 
from restricted land use; and the costs to landowners and 
resource users for compliance with Sections 7, 9, and 10 of the 
Endangered Species Act.
    The early establishment of partnerships for conservation of 
candidate species puts in place a network of willing partners 
to address any future conservation needs of the species. States 
and private landowners support the candidate conservation 
program because it gives them opportunities to maintain current 
land uses and to employ innovative approaches to species 
conservation without the burden of regulatory restrictions. By 
addressing the needs of species early, before a species and its 
habitat are critically imperiled, potential conflicts 
associated with listing may be avoided.
    Question. Will litigation cause the Department to change 
the current approach of using Candidate Conservation agreements 
as a tool to avoid listings under the Endangered Species Act?
    Answer. No, litigation will not cause the Department to 
change the current approach of using candidate conservation 
agreements to preclude the need to list the species. The Fish 
and Wildlife Service will continue to use candidate 
conservation agreements as a proactive conservation measure 
where appropriate. Candidate conservation guidance is under 
development that will clarify the steps necessary to 
successfully participate in conservation partnerships and to 
complete candidate conservation agreements that most 
efficiently and effectively reduce or eliminate threats and 
preclude the need to list.
    The Department is concerned about the court ruling in the 
Barton Springs salamander case that the conservation agreement 
among the FWS and conservation agencies in the State of Texas 
(which would have conserved the salamander without Federal 
listing) was not adequate because it had not been proven 
successful for a period of two years. The Department does not 
agree with the court's order, because an arbitrary period of 
two years is not necessary to prove that a candidate 
conservation agreement is or will be successful in meeting its 
goals. The process of reducing or removing threats to a species 
is typically a gradual process; however, each candidate 
conservation agreement varies depending on the complexity of 
the species. The FWS relies on the best available scientific 
and commercial data to determine if a candidate conservation 
agreement is adequate and if it will reduce or eliminate 
threats to an imperiled species. The FWS subjects all candidate 
conservation agreements to public review and solicits comments 
regarding the document. Finally, the FWS typically examines 
candidate conservation agreements to ensure that the signatory 
parties have the authority and funding to fulfill the 
commitment of the agreement.
    Question. Over the years, how many species have been 
delisted? Is our endangered species program working?
    Answer. Yes. The ultimate goal of threatened and endangered 
species conservation is to recover listed species to levels 
where protection under the Endangered Species Act is no longer 
required and they can be removed from the list. Since 1973, 27 
species have been delisted or removed from the lists of 
threatened and endangered species. In addition, the FWS has a 
``waiting list'' of approximately 40 species that are recovered 
or whose status has improved and are awaiting reclassification 
and delisting actions.
    On May 6, 1998, the Secretary proposed that 29 of these 
species (or segments of these species) be proposed to be 
removed or downgraded from the Endangered Species list over the 
next two years.
    Animals/Birds: American Peregrine falcon (North America); 
Bald Eagle (48 coterminous states); Aleutian Canada goose 
(Alaska, Washington, Oregon, California, Canada); Columbia 
white-tailed deer (Washington, Oregon); Tinian monarch 
(Northern Marianas Islands); Guam broadbill (Guam); Mariana 
mallard (Northern Mariana Islands); Hawaiian hawk (Hawaii); 
Brown pelican (Texas, Louisiana, Mississippi, Alabama, 
Florida); Gray timber wolf (Minnesota, Michigan, Wisconsin); 
Dismal Swamp Southeastern shrew (Virginia, North Carolina); Ash 
Meadows Amargosa pupfish (Nevada); Tidewater goby (California); 
Oahu tree snails (Hawaii); Pahrump poolfish (Nevada); Virginia 
Northern flying squirrel (Virginia, West Virginia); and Island 
night lizard (California).
    Plants: Hoover's wooly-star (California); Truckee barberry 
(California); Three Ash Meadows plant (Nevada); Eureka Valley 
plants (2) (California); Chamaesyce skottsbergii (variation 
kalaeloana) (Hawaii); Loch Lomond coyote-thistle (California); 
Lloyd's hedgehog cactus (New Mexico, Texas); Running buffalo 
clover (Indiana, Kansas, Kentucky, Missouri, Ohio, West 
Virginia); Virginia roundleaf birch (Virginia); Robbin's 
cinquefoil (New Hampshire, Vermont); Heliotrope milk-vetch 
(Utah); and Missouri bladder-pod (Missouri).
    Since fiscal year 1996, the FWS has prioritized its 
resources so that the majority of the listing resources goes 
towards finalizing proposals to list species and more recently, 
resolving the conservation status of candidates and processing 
petition findings, because such actions provide the most 
conservation benefit. Delisting is a Tier 4 activity and the 
lowest priority under the current Listing Priority Guidance 
issued in fiscal year 1997. The FWS acknowledges the 
conservation benefit of delisting actions (this includes 
reclassifications from endangered to threatened status) and has 
moved delisting and reclassification actions into Tier 2 under 
the fiscal year 1998/1999 Listing Priority Guidance. The FWS 
anticipates publishing seven delisting or reclassification 
proposals in fiscal year 1998 and 20 delisting/reclassification 
proposals in fiscal year 1999. In fiscal year 1999, the FWS 
anticipates finalizing five delisting actions. These species 
are indicated above.
    The endangered species program is working. In fiscal year 
1997, 156 final determinations were published and 23 new 
listing proposals were published. The backlog of proposals was 
reduced from 243 to 100 species, including the 23 new 
proposals. The listing process has been slowed by numerous 
litigation cases resulting from missed statutory deadlines and 
takes precious resources away from the task of returning to a 
balanced listing program. It is important to note that 
delisting statistics do not necessarily indicate the recovery 
of listed species and should not be used as a yard stick to 
measure the success of the endangered species program. The 
recovery program estimates that 36 percent of listed species 
were improving and/or stable in fiscal year 1997, and 44 
percent will be improving and/or stable in fiscal year 1998.

          multinational species conservation rhino-tiger fund

    The Committee understands that the Rhino-Tiger Conservation 
Act was expanded to include Tigers at the Secretary's personal 
request.
    Question. Do you consider the current level of funding 
adequate to meet the demands for worthy tiger and rhinoceros 
conservation projects?
    Answer. Yes. The fiscal year 1999 request of $400,000 for 
tiger and rhinoceros projects is sufficient to make a real and 
effective difference for conservation of these species, 
especially because of the favorable financial exchange rate and 
the low costs of operations in the foreign countries. While 
there will always be more project proposals submitted than can 
be funded in any given year (as in most other FWS programs), 
the President's Budget request of $400,000 will allow the 
highest priority projects to be implemented.
    Sixty eight proposals were received for consideration 
during the 1996-1997 grant cycle; and 80 proposals have been 
received in the 1998 grant cycle. Grant awards have been 
limited to an average of $20,000 to maximize the number of 
suitable projects. Of 148 proposals received, 32 have been 
funded thus far in 10 African and Asian countries, at a cost of 
$613,962. Another 40 grant applicants have been provided 
suggestions about how their proposals can be modified so that 
they might meet the criteria for approval. Remaining balances 
will fund half of these pending proposals for priority 
conservation actions. The FWS expects to receive 80 or more new 
proposals during the 1999 grant cycle.
    Question. There is a disparity between the request for 
rhinos and tigers and the request for Asian and African 
elephants. Do you feel there should be greater parity among the 
funds?
    Answer. There is a great need for the funding levels 
requested in the President's fiscal year 1999 budget for all 
three programs. The programs are managed to ensure that the 
projects complement each other. There are 14 Asian countries 
with tigers, 9 Asian countries with rhinos (which coincide with 
the tiger range countries) and 11 African countries with 
rhinos. The African Elephant Conservation Projects, for 
example, frequently provide significant secondary benefits to 
African rhinos. In several African range countries, anti-
poaching or habitat protection projects for elephants also 
benefit rhinoceros which share the same habitat. The new Asian 
Elephant Conservation Projects will provide even greater 
possibilities for significant collateral benefits to Asian 
rhinoceros and tigers sharing the same habitat. Thus, a single 
project has the potential to provide benefits for more than one 
of the target species.
    The need for the new Asian Elephant Conservation Projects 
is critical because the species have been seriously neglected. 
Despite all the publicity about the decline of the African 
elephant, the Asian species, numbering only 35,000 to 45,000, 
is sparsely distributed over a huge range encompassing thirteen 
different countries from India through Southeast Asia to 
Indonesia. The decline of Asian elephants due to the ever 
increasing human population of the Asian continent has been 
relatively undocumented. The Asian elephant must share its 
habitat with some of the largest and poorest human populations 
in the world. The combination of pressures on the environment 
brought on by these conditions has resulted in the conversion 
of forest cover to agriculture and villages, fragmenting 
elephant habitat and populations. The Asian elephant is in real 
trouble and the $1 million requested will fill the significant 
void in the current conservation programs for this species
    Continuation of funding for the African elephant at the $1 
million level is essential to maintain the population gains 
that the species is just beginning to show after a dramatic 
decline in the 1980s. This decline has been stabilized largely 
by a successful international effort led by the United States 
to stop the ivory trade and provide anti- poaching assistance. 
Addressing the conservation needs of this species is 
complicated by the complexity of ivory trade issues and efforts 
to work with the 37 range countries with elephant populations. 
Projects made possible by this Fund have been critical in 
assisting rangers fight poaching and maintaining current 
population levels of the species.
    The situation with most of the world's remaining rhinos in 
Africa and Asia is also serious. Poaching for rhino horn is the 
major threat for all five species, and habitat degradation is 
also a significant threat for the Asian species that live in 
tropical rainforests. All three species of Asian rhinos are in 
danger of extinction, two critically so. In Africa, the 
situation for the black rhino and the Northern white rhino is 
similar. Over the past few decades, black rhino populations 
have declined by at least 96 percent due to poaching. The 
Southern white rhino has been well managed in South Africa and 
is not in danger of extinction.
    Wild tigers are in perhaps worse peril. The best estimate 
is that there are no more than 5,000 to 7,500 remaining tigers. 
The $400,000 requested for the Rhino and Tiger Conservation 
Projects, combined with the collateral benefits to these 
species provided from the African elephant and Asian elephant 
conservation projects, will make a real contribution to helping 
range countries deal with the species' conservation needs.
    Question. What would a better split of funding be? Equal 
parts?
    Answer. The Department supports the allocation of funding 
included in the President's Budget request: $1.0 million for 
African elephants; $1.0 million for Asian elephants; and $0.4 
million for rhino and tiger conservation. Rhinos, tigers, Asian 
and African elephants all have threats to their continued 
existence and all are in trouble. Addressing their needs 
includes providing sufficient funds as well as ensuring that 
the funds are used effectively. The President's budget request 
will make a significant contribution to the conservation of all 
rhinos, tigers, and elephants, particularly in view of the 
collateral benefits for other species occurring in the same 
area.
    Question. What accounts for the more than doubling in 
administrative costs for Multinational Species Conservation? It 
is at $30,000 for fiscal year 1998 and proposed at $72,000 for 
fiscal year 1999.
    Answer. Each of the three authorizing statutes provides a 
very modest three percent of the appropriation for 
administrative costs. For fiscal year 1999, the Service is 
requesting $72,000 for administrative expenses, or three 
percent of the combined $2.4 million that would be appropriated 
under the Multinational Species Conservation Fund for the 
African elephant, Asian elephant, and rhinoceros and tiger 
conservation programs. This request will provide for the 
equivalent of a full-time staff position (1 FTE) to administer 
and coordinate the three programs, including the recently 
authorized Asian elephant conservation program, in an effective 
and efficient manner.
    In fiscal year 1998, a technical error in the budget 
request resulted in $12,000 less than the $30,000 authorized 
for administration of the African Elephant Conservation Fund. 
The fiscal year 1999 request corrects this error and restores 
African elephant program administration to the three percent 
level of previous years. The rhinoceros and tiger programs are 
being administered in fiscal year 1998 on a part-time basis as 
collateral duties by International Affairs program personnel.
    Question. I understand that the Fish and Wildlife Service 
may not solicit for proposals for the Rhino-Tiger fund in 
fiscal year 1998 because of a large backlog of worthy projects 
that are currently unfunded. Are there any plans to internally 
redirect other funds to reduce this backlog?
    Answer. The FWS has already solicited fiscal year 1998 
proposals for the rhinoceros and tiger conservation program. Of 
the 148 proposals received to date, including the 80 received 
in fiscal year 1998, 32 projects have been funded at a cost of 
$613,962. Another 40 proposals are under consideration with 
requests for additional information to meet criteria for 
funding.
    In fact, the call for fiscal year 1999 rhino and tiger 
conservation program proposals has also been issued. It is 
necessary to issue a call for proposals in advance of actual 
appropriations because of the long lead time required to 
develop projects and secure sponsorship by the foreign 
governments.
    The FWS has no plans to administratively redirect 
Multinational Species Conservation Fund appropriations from the 
African and Asian elephant conservation programs to the rhino 
and tiger conservation program. The fiscal year 1999 budget 
request for the Multinational Species Conservation Fund clearly 
identifies the amounts that would be available for the separate 
African elephant, Asian elephant, and rhino and tiger 
conservation programs. As is the case with most Departmental 
programs, each of these conservation programs receives more 
project proposals than can be awarded. The President's Budget 
includes funding for the highest priority projects.

                       Bureau of Land Management

                        wildland fire operations

    The BLM budget justification states that it and the Forest 
Service could feasibly treat (burn or other treatment) up to 5 
million acres annually to address the approximately 95 million 
acres requiring treatment. However the fiscal year 1999 budgets 
for both agencies will result in treating 2.4 million acres.
    Question. What would be the cost of treating the full BLM 
portion of the 5 million acres identified in the BLM budget 
justification?
    Answer. The new funding source to perform prescribed fire 
and mechanical treatments (the Hazardous Fuels Reduction 
Subactivity) has only been available since the fiscal year 1998 
appropriation was passed. It will take several years to build 
the level of expertise needed to develop burn plans, implement 
the burns, monitor and evaluate results, and work out smoke 
management issues with state air quality regulatory programs. 
It will take several years of increased level of operations to 
refine practices and cost estimates. Current cost estimates by 
the five federal agencies (BLM, BIA, FWS, NPS and FS) are based 
upon past operations. For example, while the BLM averaged about 
60,000 acres of prescribed burning annually over the past 
decade, current estimates indicate approximately 500,000 acres 
need to be treated each year based on ecological and resource 
management needs. The Bureau's current cost per acre treated 
varies from approximately $10/acre on less complex burns where 
terrain and burning conditions are relatively easy to over 
$500/acre on complex situations. As the BLM workload is better 
defined, we will be able to refine program cost estimates.
    The average cost per acre treated for BLM's fiscal year 
1998 workload is estimated at $23. The current per acre 
treatment cost for the four Interior agencies in fiscal year 
1998 is also $23. To treat 2 to 2.5 million acres per year, 
estimated to be DOI's share of the 5 million acre total, would 
cost between $46 million and $57.5 million. To treat the BLM's 
share (about 500,000 acres per year) would cost $11.5 million.
    A more scientific determination of treatment needs, 
location of activities, impacts, sequencing and scheduling 
treatments, and comparison of alternative practices, impacts, 
and costs, will become available as we gain more experience. 
More information will also be available when the products of 
the Joint Fire Science Program, that Congress initiated in 
fiscal year 1998, become available along with revised land use 
plans that more fully address the role of fire in resource 
management.
    Question. What is the BLM annual treatment share (acres) of 
this five million acres?
    Answer. The BLM Wildland Fire Management budget request 
includes the four Department of the Interior agencies with 
wildland fire management programs (BLM, BIA, FWS, NPS). The 95 
million total acreage figure and the 5 million acre per year 
treatment figure are interagency estimates that include the 
U.S. Forest Service and that were made nearly two years ago. 
They should be viewed as early estimates of the potential 
workload. Interior's share of that estimated workload ranges 
from 2 to 2.5 million acres per year. The BLM portion of this 
workload is estimated to be 500,000 acres per year. We 
recognize that this is an estimate and that additional planning 
and analysis, being conducted through the Joint Fire Science 
Program, will refine this figure.
    The agency is changing its overall fire emphasis from fire 
control to fire management.
    Question. How will the emphasis on fire management likely 
affect annual suppression costs in the context of the ten year 
average which the agency regularly refers to?
    Answer. In the last decade, the ten year average of fire 
suppression costs has been increasing due to the increased 
incidence of larger, more severe and more costly fires. Over 
the long term (more than a decade), we expect to see a leveling 
off of the suppression costs. This should occur as hazardous 
fuel reduction operations begin to break up large continuous 
bodies of fuels, improve the general health of forest and 
rangelands to resist the negative effects of wildfires, and 
improve our ability to keep up with the ever increasing number 
of human caused fires.
    The agency proposes a smokejumper workforce of 120 during 
fiscal year 1999 with half stationed in Alaska. The Forest 
Service has proposed a similar workforce (with none in Alaska). 
The smokejumper program has a long and proud history.
    Question. Has the agency, either cooperatively with the 
Forest Service, or on its own, evaluated the cost effectiveness 
of this program?
    Answer. The BLM and the Forest Service have jointly studied 
and reviewed the national need for smokejumpers several times. 
Through the fire planning process, a qualitative analysis of 
state and local needs are also periodically reviewed. The two 
agencies hold a joint post season program review each year. The 
interagency national smokejumper numbers, operational 
locations, and the numbers and types of aircraft have been 
coordinated and established as a result of these national 
studies and plans. The two programs are designed for ``total 
mobility'' and integration. As a result BLM and FS jumpers 
often end up at the same bases and jumping out of the same 
aircraft as the season progresses. These mixed operations 
generally occur when there is a concentration of dry lightning 
storms and the number of new ignitions overwhelms local initial 
attack remote operations. The few program differences that do 
exist are a result of the land ownership and differences in the 
dominant fuels and terrain.
    In addition, some BLM smokejumpers are diversifying their 
skills so that they can assist in other aspects of the fire 
management program, e.g. prescribed fire, fire management 
training, fire and resource plan development involving fire 
ecology, and detail assignments when critical field vacancies 
occur during the fire season. Expanding the use of these smoke 
jumpers is a cost effective way to increase program 
capabilities.
    Question. With the current transportation system and its 
significantly greater access than existed during the early 
history of the smokejumper program, has the agency considered 
reducing its smokejumper forces in favor of less expensive 
alternative personnel resources?
    Answer. Without a doubt the amount of roads in the country 
has improved the ability to take rapid initial attack actions. 
The majority of the increasing number of ignitions occur where 
humans work and recreate. But the vast roadless areas of Alaska 
and in parts of the western US still dictate the need for a 
highly mobile, rapid attack skilled workforce best served by a 
combination of smokejumpers and helitac crews. Changes in 
technology in the past fifteen years have actually increased 
the ability for jumpers to respond in even the most rugged 
terrain. The total numbers of smokejumpers in the US is 
basically static. The BLM and the Forest Service continue to 
look at alternatives through the fire planning process, but to 
date this technique fills a niche in the total workload and has 
proven to be reliable, safe, effective, and cost efficient.

                             infrastructure

    The BLM proposes an increase of $6.5 million for facility 
maintenance. This is in addition to infrastructure related 
improvements funded by Construction and O&C accounts.
    Question. Will these program increases reduce the deferred 
maintenance backlog or only slow the growth in the size of the 
backlog?
    Answer. Accomplishing the deferred maintenance projects 
identified in the 1999 budget request will reduce the critical 
health and safety deferred maintenance backlog by about $12.5 
million.
    Question. When new facilities are constructed where there 
were none previously, the need for maintenance expenditures 
will likely increase. How much of the construction line item is 
geared to reconstruction or the construction and replacement of 
facilities, versus construction of new facilities where there 
were none previously?
    Answer. The BLM's total construction request is for 
$4,175,000 or 13 separate projects. Of this amount only two 
projects are new construction: El Camino Real International 
Heritage Center in New Mexico and Devil's Elbow Recreation Area 
in Montana. El Camino funding is the final phase of 
construction of a 50/50 cost share project with the State of 
New Mexico where the State will fund over 75 percent of the 
operation and maintenance costs. Devil's Elbow is a challenge 
cost share project with Montana Power and fulfills the 
requirement of a FERC re-licensing agreement. All of the 
remaining projects are reconstruction or replacement 
construction and are targeted at reducing the risk to public 
health and safety or decreasing environmental degradation and 
will reduce future maintenance needs.
    Question. How is BLM reducing deferred maintenance backlogs 
through disposal or vacating facilities? Please provide 
specific historical data on the number of facilities 
eliminated?
    Answer. The BLM has several projects, mainly roads, that 
should be abandoned. These projects are in competition with 
other public health and safety and/or environmental protection 
projects and generally do not successfully compete for funding. 
The BLM will generally abandons a site for public safety or 
environmental considerations. The BLM does not have a list of 
facilities that have been disposed of or vacate.
    Question. Director Shea, in his statement at the recent 
House hearing on deferred maintenance refers to the Facilities 
Inventory Maintenance Management System (FIMMS). Why does the 
agency maintain a system separate from other Bureaus?
    Answer. The BLM developed FIMMS in response to 
Congressional direction to improve our ability to track and 
report our facilities maintenance needs. FIMMS was developed in 
concert with Congressional review to best meet BLM's mission 
needs. The maintenance system is maintained at our field 
offices where maintenance needs are coordinated with local 
governments and user groups.
    The BLM is working with the Department and the other 
bureaus to develop common facilities maintenance terminology 
and definitions. The BLM is an active member of the 
Department's deferred maintenance working group which is 
developing guidelines and procedures for standardizing 
Departmental systems requirements and developing the five-year 
maintenance and construction project list. In addition, the BLM 
is working with the Department to develop suggestions for 
improving BLM's budget structure in order to improve the 
financial tracking of our deferred maintenance accomplishments.
    Question. Does the Department intend to centrally combine 
infrastructure data into a single data base? If not, why? If 
so, when?
    Answer. As part of facilities maintenance and capital 
improvements initiative, the Department is reviewing bureau 
facilities information systems. The Department hopes to reach 
conclusions on the current adequacy of these systems and any 
needs to reengineer, replace, or consolidate the systems prior 
to the final decisions on formulation of the fiscal year 2000 
budget.

                    realty and ownership management

    The agency refers to an Alaska lands transfer re-
engineering effort that will be implemented in fiscal year 
1999.
    Question. What specific efficiencies will result from this 
effort?
    Answer. Recommendations from the land transfer re-
engineering effort included the development of geographically 
related project areas through regional strategic management 
plans. Working in project areas should reduce time and 
resources needed to complete Native allotments, ANCSA 
entitlements, and State entitlements.
    Question. What are estimates for improved unit costs? How 
much more production can be expected assuming unit costs 
improve?
    Answer. Working in project areas will reduce the number of 
trips to the field and reduce redundant and overlapping review 
processes. This should reduce the estimated unit cost by 10 to 
20 percent.
    The budget justification refers to ``better land 
acquisition priorities'' which will be established in fiscal 
year 1999.
    Question. Please explain these new priorities. Why are the 
new priorities needed? What was wrong with the old priorities?
    Answer. The ``priorities'' mentioned in the budget 
justification refer specifically to the long-term goal in the 
BLM's Annual Performance Plan of ``Establish land acquisition 
priorities to conserve and protect heritage resources.'' This 
goal is specific to acquisitions within special designated 
areas. In the past, BLM has not defined land acquisition 
priorities in this context.
    A recent report by DOI OIG, concerning the Del Webb land 
exchange in Nevada, states that the BLM failed to ``fully 
conform to established standards, procedures, and controls for 
appraisals and land valuations and did not justify or document 
the propriety of its actions.'' It further stated that only 
after external pressure, BLM obtained a second appraisal, 
saving the government $9.1 million. The OIG recommended a 
moratorium which was objected to by BLM.
    Question. What specific policies have been changed to avoid 
similar practices in the future?
    Answer. BLM fully conformed to established standards, 
procedures and controls for appraisals and land valuations and 
did document our actions for the Del Webb land exchange. There 
was no loss of $9.1 million because BLM management decided 
early in the process to obtain additional appraisals.
    Question. Why did BLM use an appraiser recommended by the 
company involved in the exchange? Why was this problem not 
intuitively determined to be inappropriate (if not completely 
contrary to policy)?
    Answer. The appraiser the BLM used is a nationally 
recognized authority on the appraisal of Master Planned 
Communities. The BLM determined independently that this 
appraiser was qualified.
    Question. Has this circumstance occurred previously?
    Answer. We always strive to obtain the best appraisal 
services available. In order to be approved by BLM for use in a 
land exchange, an appraisal must conform with the regulations 
in 43 CFR 2201.3. The appraisals approved for the Del Webb land 
exchange met these requirements.

                 government performance and results act

    The agency provided its annual performance plan for fiscal 
year 1999. However there is no crosswalk displaying how the 
President's budget is represented in total for the goals and 
performance indicators, unlike what has been supplied by other 
agencies.
    Question. Has the BLM developed such a display? If so, 
please provide it to the committee. If not, when does it intend 
to do so?
    Answer. The Bureau of Land Management has not developed 
such a table at this time. Two budget crosswalk tables are 
included in BLM's fiscal year 1999 Annual Performance Plan. The 
first table crosswalks program and financing Activities for 
fiscal year 1997, 1998, and 1999 funding levels to strategic 
goals. The second table crosswalks performance goals and 
indicators to program and financing codes.
    The BLM is still refining and improving its Annual 
Performance Plan and the linkage to the current budget 
structure. As we work to make the plan more comprehensive, we 
will be better equipped to develop a performance goal budget 
crosswalk. If such a table is needed, BLM could develop one 
after the 1999 Appropriation Act has passed.
    Question. Does the agency foresee any changes in budget 
structure as GPRA is further implemented within the 
organization?
    Answer. As implementation of GPRA progresses and the Bureau 
gains more experience with the goals and measures that are 
agreed to by BLM, the Department, OMB, Congress, and customers 
and stakeholders, it is possible that the Bureau will propose 
changes in the activity structure to better reflect performance 
goals. At this time, however, the Bureau does not have specific 
changes to propose.

                       ward valley land transfer

    For the last five years, the Department has refused to 
transfer the Ward Valley site to the State of California for a 
low-level radioactive waste disposal site claiming that the 
science doesn't support such a transfer. A 1995 National 
Academy of Science report, which you requested, concluded that 
the site could be operated safely as a low-level waste disposal 
site. Nonetheless, the Department has continued to refuse to 
transfer the property requesting another Environmental Impact 
Statement be prepared and more testing be completed even though 
there has been more than a decade of scientific testing at the 
site, and three NEPA documents.
    Question. Why has the Department not proceeded with the 
transfer of the site?
    Answer. The Department's responsibilities under NEPA and 
FLPMA require us to ensure that the public lands requested by 
the State are safe for the use intended, i.e. a low-level 
radioactive waste facility. Currently, except for finishing 
work already started, we are suspending further work on the 
SEIS and its associated onsite drilling, until the question 
raised by the majority leadership of the California State 
Legislature regarding the legality of the California Department 
of Health Service's land sale application under State law has 
been resolved.
    Question. Why is more testing necessary?
    Answer. The National Academy of Sciences recommended 
further testing at the site to address conflicting data about 
the rainfall infiltration characteristics of the site and 
resolve the issue of the potential for migration of stored 
waste residue as far as the Colorado River. Both the Department 
of the Interior and the State of California plan to conduct 
separate testing to address this issue. The data will be 
analyzed in the SEIS and made available for public review.
    Question. When does the Interior Department plan to begin 
its field tests?
    Answer. The Department will decide when to proceed on the 
field testing following resolution of the legal issue explained 
above.
    Question. How much has the Department spent since 1995 to 
plan and implement the new Ward Valley tests and prepare the 
supplemental Environmental Impact Statement (SEIS)? Please 
include in the answer the amount spent on the preparation of 
the SEIS and new tests for each fiscal year since fiscal year 
1995 expenditures.
    Answer. The following table summarizes actual and expected 
costs related to tests and SEIS preparation at the Ward Valley 
site. No funds were spent on these activities prior to 1997.

------------------------------------------------------------------------
                  Items                      Activity          Cost
------------------------------------------------------------------------
1997 costs:
    Contract supplement (EIS)...........  ..............        $427,000
    Contract protocol for tritium
     testing............................  ..............          64,000
    Field inspection of site (Army Corps
     of Engineers)......................  ..............          20,000
1998 costs:
    Conduct tritium drilling............  ..............       1,322,000
    Laboratory Analysis and testing
     report.............................  ..............         500,000
    Independent review of analysis and
     report (peer review)...............  ..............          50,000
                                         -------------------------------
      Total.............................  ..............       2,383,000
------------------------------------------------------------------------

    Question. Where are these tests and costs associated with 
the supplemental EIS found in your budget? Please include in 
the answer the specific accounts, and amounts from those 
accounts, which will be used to fund the preparation of the 
supplemental EIS and completion of the new tests.
    Answer. Ward Valley and other land transfer or exchange 
proposals are funded in the Realty and Ownership Management 
Activity in the Management of Lands and Resources Appropriation 
and in the Acquisition Management Activity in the Land 
Acquisition Appropriation. However, Ward Valley is not 
specifically mentioned by name. Congress has provided BLM with 
the flexibility to work on the highest priority lands issues 
recognizing that they generally take several years to complete. 
Anywhere along the process issues can arise that could modify, 
delay, or terminate a realty action. If a specific lands action 
were delayed, BLM would proceed to the next highest priority 
project. The Land and Realty subactivity received $28,622,000 
in the fiscal year 1997 Appropriations Act and $29,395,000 in 
the fiscal year 1998 Appropriations Act. The Acquisition 
Management Activity received $2,500,000 in the fiscal year 1997 
Appropriations Act and $3,000,000 in the fiscal year 1998 
Appropriations Act.
    Question. What contracts, and for what amounts, has the 
Department entered for the development and implementation of 
the test protocol and preparation of the SEIS?
    Answer. Contract costs are summarized in the table below:

------------------------------------------------------------------------
                  Items                      Activity          Cost
------------------------------------------------------------------------
1997 costs:
    Contract supplement (EIS)...........  ..............        $427,000
    Contract protocol for tritium
     testing............................  ..............          64,000
    Field inspection of site (Army Corps
     of Engineers)......................  ..............          20,000
1998 costs:
    Conduct tritium drilling............  ..............       1,322,000
    Laboratory Analysis and testing
     report.............................  ..............         500,000
    Independent review of analysis and
     report (peer review)...............  ..............          50,000
                                         -------------------------------
      Total.............................  ..............       2,383,000
------------------------------------------------------------------------

    Question. What is the current cost estimate to complete the 
testing and the SEIS?
    Answer. The current cost estimate to complete the tritum 
study and the SEIS is $2.4 million.
    Question. On what date does the Department now anticipate 
transferring the Ward Valley site?
    Answer. Pending resolution of the legality of the State's 
application, we are unable to project a transfer date at this 
time.
    Meanwhile, protestors who were issued a permit by the 
Bureau of Land Management to occupy the site refused to leave 
when the permit expired on January 17. Rather than removing the 
trespassers, BLM law enforcement officials have been ordered 
away. Now the Subcommittee is told that the protesters have 
taken to deciding who may enter the area and who may not. These 
protesters refuse to allow Interior Department access to the 
site, which is Federal land, in order to conduct additional 
tests on site's safety.
    Question. The question must be asked; who is in charge on 
our federal lands?
    Answer. These are public lands under the jurisdiction of 
BLM and the Department of the Interior. BLM, with the 
assistance of the Department and BIA, is working diligently 
with the Native American Tribes involved to bring their protest 
into compliance with the existing permit.
    Question. When, by what means, and at what cost will the 
Department clear protesters from the Ward Valley site in order 
for testing to commence?
    Answer. As stated earlier, BLM is expecting to resolve the 
onsite situation soon and bring the Native American Tribes (led 
by the permittee, the Fort Mojave Tribe) staging the protest 
there into compliance with their existing permit. In addition, 
since the planned drilling activities are suspended pending 
resolution of the question of the legality of the State's 
permit, BLM has also decided to rescind the five-day relocation 
notice given to the Fort Mojave last February, which will allow 
the Tribe to come back into compliance with their existing 
permit. Therefore, no action to remove the protesters will be 
necessary and no additional costs are expected to be incurred.
    Question. There is some indication that government 
equipment is being used by the protesters at Ward Valley. Has 
this allegation been investigated?
    Answer. Yes, BLM has conducted an inquiry in response to 
this allegation. The Inspector General is conducting a separate 
investigation.
    Question. What has been found?
    Answer. The BLM has found that Government Vehicles with 
State of Arizona license plates were being operated at the Ward 
Valley Site. No Federally owned equipment was found to be used 
at the site.
    Question. What action will be taken if this information is 
substantiated?
    Answer. No further action is now planned.

                          backyard discoveries

    The BLM supports a cooperative program through the 
Anchorage Field Office called Backyard Discoveries.
    Question. What are the objectives of this program?
    Answer. Backyard discoveries is a public outreach 
initiative by the Anchorage Field Office to educate current and 
future publics about natural resources management. Additional 
objectives are to provide opportunities for the public to learn 
how to gather resource data and monitor the health of public 
land and to have the data gathered by volunteers available for 
students, teachers, and the general public to use and 
interpret.
    Question. What are the program's components?
    Answer. The program has several components: it allows the 
public to learn how resource data can be used to manage public 
land and gives the public the opportunity for hands-on 
experience.
    Question. How has the program been funded in the past?
    Answer. The outreach effort was funded at $12,000 in fiscal 
year 1997 from within the BLM's base funding level.
    Question. How does the BLM propose to support this program 
in the future?
    Answer. In the future, support would come from the 
Management of Lands and Resources (MLR) activities dollars and 
from local partnerships.
    Question. Based on the agency's experience from this 
program, what long-term benefits and goals does the agency 
intend to pursue for this program?
    Answer. The primary benefit of Backyard Discovery is to 
provide assistance to local school districts in environmental 
education and to provide an understanding of public land 
management programs. The outreach efforts educate the public 
and help recruit volunteers to assist BLM. The initiative will 
continue as a part of public outreach with the goal to educate 
and involve the public in land management.

              grand staircase--escalante national monument

    An October 1997 GAO report quoted state sources to estimate 
mineral values and economic effects of developing minerals in 
the Grand Staircase-Escalante National Monument. The report 
states that the Interior Department took strong exception to 
estimates reflected in the GAO report.
    Question. What are the Departments estimates of mineral 
value and economic effects?
    Answer. The Department has made no comprehensive estimates 
of mineral values and economic effects from developing minerals 
in the Grand Staircase-Escalante National Monument. The 
Department's objections to the estimates used in the GAO 
report, Federal Land Management: Estimates of Mineral Values 
and of the Economic Effects of Developing Minerals in the Grand 
Staircase-Escalante National Monument, were based on the 
report's reliance on two estimates prepared by the State of 
Utah, one by the Utah Geological Survey and the other by the 
Governor's Office of Planning and Budget, without assessing the 
validity of those estimates. These estimates are significantly 
inflated and overstate the economic effects of developing 
minerals in the Monument. As we stated in our letter to the 
General Accounting Office concerning this report, we believe 
the GAO erred by using this flawed information.
    Recently published information, Kaiparowits Coal Supply and 
Demand, BXG, Inc., (1997), shows that coal resources in the 
Monument could not begin to compete in the coal market until at 
least the year 2020, drastically reducing the present value of 
coal in the Monument. Similarly, estimates for oil and gas in 
the Monument are highly speculative. Yet, the Utah Geological 
Survey values those potential resources as though they were 
guaranteed to exist, were being produced today, and every drop 
could be extracted and sold. Reliable estimates of mineral 
values and economic effects of developing minerals in the 
Monument have not been developed. Using the State's estimates 
without addressing the appropriateness or reasonableness of 
these estimates did not provide Congress with useful 
information on this question. The Utah Geological Survey has 
since decided to revisit the basis of its theories, and now 
believes that far less potential exists than it previously 
believed.
    Question. What is the status of the land exchange program 
relative to ``school trust lands.''
    Answer. On May 8, 1998, Interior Secretary Bruce Babbitt 
and Utah Governor Mike Leavitt signed an agreement concluding 
negotiations between the Interior Department and the State of 
Utah concerning state school trust land inholdings throughout 
the Grand Staircase-Escalante National Monument, the National 
Park system, National Forest system, and Indian reservations in 
Utah. That agreement has been incorporated in H.R. 3830, which 
was introduced in Congress on May 12, 1998.

                        pm-10 air quality study

    The BLM budget justification states that it will continue 
involvement in the San Joaquin Valley PM-10 Air Quality Study 
in fiscal year 1999.
    Question. What level of funding is planned?
    Answer. The President's budget request for the Soil, Water 
and Air program is $31,031,000. Of this amount, $20,000 is 
available for the California Regional PM-10 Air Quality Study. 
The California Regional PM-10/PM-2.5 Air Quality Study is a 
cooperative partnership formed in 1990 among Federal, state, 
and local governments, private industry, and other regional 
organizations. The study is intended to provide information for 
the development of an effective plan for the San Joaquin Valley 
to attain the small particulate (PM-10) national and state 
ambient air quality standards. Eight counties in the San 
Joaquin Valley are in a serious non-attainment area and must 
meet the ambient PM-10 standards by 2001. Several study 
initiatives were continued in fiscal year 1997 and 1998, e.g., 
further study planning, technical support studies, modeling and 
emissions studies. In 1998, as part of the PM-10 Air Quality 
Study in the San Joaquin Valley, the BLM helped develop the 
Federal Clean Air Partnership (FCAP). This partnership is a 
coordinating and technical advisory group on air quality issues 
in the Sierra Nevada. The FCAP partnership consists of 
representatives from the BLM, U.S. National Park Service, and 
U.S. Forest Service. The partnership pools personnel, 
resources, and expertise to improve, maintain, and protect the 
air quality and associated air quality values of lands managed 
by the FCAP agencies. FCAP also seeks to prevent or minimize 
the threat to public health and safety, damage to natural site 
characteristics, and economic losses due to degraded air 
quality.

                         oil and gas management

    The Department's 1998 report on Oil and Gas Management 
states that ``to ensure accurate royalties for oil and gas 
production on lands under BLM's supervision, the agency is 
implementing plans to re-emphasize and improve its production 
verification program.'' However the Oil and Gas management line 
item reflects a decrease of $2.1 million. Elsewhere in the 
Department's document there is reference to streamlining and 
simplifying oil and gas processes and developing cooperative 
relationships with the States.
    Question. How will the agency reemphasize and improve its 
production verification program while cutting back on funding 
of the overall program?
    Answer. The overall oil and gas program outside of the NPR-
A effort is not being reduced in 1999, but rather is remaining 
level. The $2.1 million was a congressional increase in fiscal 
year 1998 to complete the environmental review and analysis of 
management alternatives for the Alaska National Petroleum 
Reserve No. 4 (NPR-A). This effort will be completed during 
fiscal year 1998 and additional funding is not required for it 
in fiscal year 1999. The improvements in production 
verification are based on an increased program emphasis on 
review of production records.
    Question. What controls and safeguards will the agency 
maintain during reengineering processes or in developing 
partnerships with states to assure that production verification 
and income to the government will not suffer?
    Answer. BLM's reengineering efforts have focused on 
ensuring the protection of the Federal resource and providing 
full return to the government while implementing measures to 
streamline and simplify the oil and gas program. As noted 
above, the BLM has increased its review of production records. 
Any under-reported production volumes are resolved and are 
shared with MMS to ensure the collection of royalties due to 
the U.S. Other efforts have focused on developing partnerships 
with the States to reduce duplication and increase efficiencies 
in the program for both BLM and the States. Currently, BLM has 
Memoranda of Understanding with the State regulatory agencies 
of Arizona, California, Colorado, Montana, New Mexico, and 
Utah. Any delegations or partnerships involving the performance 
of BLM functions by States require the State program to meet 
Federal standards to assure that proper royalties are received, 
as well as producing long term efficiencies.

                                 almrs

    The BLM proposes $34.6 million for the Automated Land and 
Mineral Record System (ALMRS), which is an increase of $1.6 
million.
    Question. It appears that ALMRS is intended to contain a 
full range of land and minerals data. Will all resource layers 
be contained in the system including timber, range, wildlife 
habitat, etc. when Release 2 is finalized? If not, what plans 
does the agency have to add this information?
    Answer. ALMRS Release 2 will include the ability to overlay 
a number of reference layers that are geographically 
referenced, such as hydrography, roads, timber, range, and 
wildlife habitat. However, these resource layers will not be 
included and maintained by ALMRS. Each program area in the BLM 
will develop and maintain the resource layers for which they 
are responsible. The schedule for the availability of each 
resource layer will be determined by the responsible program 
area. The BLM will use its ALMRS web pages to indicate the 
availability of resource layers which can be overlaid with 
ALMRS and provide access to the resource data along with land 
and mineral data.
    Question. Will BLM accomplish its goal of every BLM office 
having access by 1999?
    Answer. Yes. BLM is on track to provide access to ALMRS 
from every BLM office in 1999.
    Question. What plans are envisioned for future releases if 
any?
    Answer. Deployment of ALMRS Release 1 is scheduled to begin 
in 1998, and substantial progress has been achieved for Release 
2. A BLM Business Practices Group has been formed which is 
integrating ALMRS with ongoing business processes. This group 
is also assessing how the capabilities of ALMRS Release 1 and 
Release 2 can be leveraged with future enhancements to achieve 
BLM goals for quality, performance, and information 
availability. This assessment is still in its early stages, and 
the nature, schedule, and cost of future releases have not been 
fully addressed.
    Question. Will the ALMRS system be directly utilized by 
other agencies or bureaus to manage their land and minerals 
information? What other agencies currently utilize ALMRS? What 
long term cooperative plans exist?
    Answer. A key goal for ALMRS has always been to become the 
primary system for managing federal land and mineral 
information. Minerals Management Service (MMS) currently uses 
the BLM legacy system, Case Recordation, for managing their 
land and mineral information and is transitioning this use to 
ALMRS. Cooperative plans are being pursued with the Bureau of 
Indian Affairs, the U.S. Fish and Wildlife Service, the 
National Park Service, and the U.S. Forest Service to interface 
and, where possible, integrate ALMRS with their management of 
land and mineral information.

                             noxious weeds

    The BLM proposes an increase of $3.3 million for noxious 
weed programs.
    Question. Based on current projections for the spread of 
noxious weeds, what are projections over the next five years 
for program needs to fully address the problem?
    Answer. To fully address the noxious weed problem on public 
lands administered by the Bureau of Land Management would 
require a funding level of approximately $26 million within the 
next five years, based on our present understanding of the 
problem. This money would increase our ability to work with our 
partners-private land owners, counties, states and other 
federal agencies--to further accomplish goals identified in the 
weed management program to prevent and control the spread of 
weeds. This would include prevention and detection, education 
and awareness, inventory and mapping, and project coordination. 
In addition it would provide support for integrated weed 
management, biological control, research, monitoring and 
evaluation, and restoration of priority sites. Future budget 
requests, however, would be fully dependent on a carefully 
considered process of establishing and evaluating priorities, 
determining trade-offs between programs, and making difficult 
decisions in proposing funding allocations.
    Question. The budget justification states that it will have 
cooperative management agreements for the control of invasive 
weeds in place with 46 percent of the counties that have 
invasive weed programs. What are future expectations for such 
agreements with other counties?
    Answer. The BLM's long-term goal is to have cooperative 
weed management agreements by 2002 with 50 percent of the 
counties (with BLM managed Federal lands) that have invasive 
weed programs.

                          portland co-location

    The BLM and Forest Service have been in the process of co-
locating their offices in Portland, Oregon. Despite an 
appropriation of $5.1 million in fiscal year 1996, this 
collocation has yet to occur.
    Question. There is some indication that BLM is dragging its 
feet and stalling co-location. Is this true?
    Answer. This is not true. Shortly after the 1996 
Appropriation Act, the BLM assigned a full-time project manager 
to the co-location and has actively pursued this project since 
that time. There has been extensive planning and coordination 
between the BLM, Forest Service, and GSA's local and regional 
office which continues to this day.
    Question. Why has the agency not co-located its Portland 
Office?
    Answer. In late 1996, at a time when the BLM and Forest 
Service were close to submitting their construction package to 
the GSA and building owner for the beginning of the physical 
changes which are necessary for this project to occur, we were 
informed by the GSA that the language in the fiscal year 1996 
Interior Appropriations Act did not exempt the agencies from 
the limitations in the 1959 Public Buildings Act and subsequent 
amendments. This act requires further Congressional 
authorization if changes are made to a leased facility which 
exceed $905,000. The changes are expected to exceed $3 million. 
Progress on the co-location project has been halted while 
awaiting this further authorization.
    Question. A briefing paper provided by BLM states the 
agency must seek approval from two Congressional committees to 
make modifications before the co-location can occur. Has BLM 
sought this approval? If not, when will it do so? Is BLM 
aggressively working with GSA to accomplish this move?
    Answer. The BLM has been aggressively pursuing this further 
approval. In early 1997, the proper documentation was forwarded 
through the GSA's Regional Office to their National Office. 
This authorization package was forwarded by the GSA National 
Office to the proper Congressional committees but was not 
considered last year. Currently, the authorization package is 
bundled with the GSA's Capital Improvement Program and is 
before the House Subcommittee on Public Buildings and Economic 
Development. Approval is needed there and in the House 
Committee on Transportation and Infrastructure before 
forwarding to the Senate. Approval is needed by the Senate 
Transportation and Infrastructure Subcommittee and the 
Committee on Environment and Public Works. The BLM has actively 
partnered with the GSA regional office to pursue these 
approvals.

                      wild horse and burro program

    The agency is requesting an increase of $2.4 million for 
management of the Wild Horse and Burro program.
    Question. With adoption declining and the population 
increasing, is the agency contemplating new approaches in this 
program?
    Answer. The demand for animals through the adoption program 
declined during the first part of this fiscal year. As a 
result, the BLM had to hold more animals in our facilities for 
a longer period of time than planned. The BLM took the steps 
described below to address this situation.
    In December 1997, the states were asked to add more 
adoptions to their existing schedule. The six western states 
added ten additional adoption events (both facility and 
satellite adoptions) to increase their adoption goals in fiscal 
year 1998. To further increase adoptions, a Western States 
Adoption Strategy was developed to share personnel for gathers, 
preparation, adoptions, and compliance. Sharing personnel 
during peak workloads will enable the states to place 
additional animals this fiscal year. Together, these actions 
increased the adoption goal for fiscal year 1998 to 10,225 
animals. This level of adoptions would clear the holding 
facilities in sufficient time and provide sufficient capacity 
for the planned gathers in fiscal year 1998 to proceed.
    Additional promotion of adoptions in the west is necessary 
to achieve adoption goals. A public outreach plan is being 
developed to locate and take advantage of new markets. A 
marketing analysis will include a long term plan to increase 
the number of adoptions and then maintain that increased level 
in the west.
    The BLM is experimenting with wild horse and burro 
adoptions over the Internet, and the idea of gentling wild 
horses and then adopting them through competitive events to 
enhance their adoptability. The Director is also requesting 
recommendations from the newly chartered Wild Horse and Burro 
Advisory Board.
    The BLM continues to pursue fertility control research as a 
means to deal with the increasing populations. We are focusing 
on an immunocontraceptive vaccine that is proving to be a 
viable, economically effective, and humane tool for reducing 
wild horse reproduction.
    Question. What are the prospects for efforts to reduce 
fertility among the population?
    Answer. Currently the prospects for fertility control of 
wild horse populations look very good. A pilot study of an 
immunocontraception vaccine to prevent pregnancy in mares was 
implemented in northeast Nevada in December 1992. The results 
of this pilot study to date have shown immuno-contraception 
could be a viable, economically effective, and humane tool for 
reducing wild horse reproduction.
  --Researchers have reformulated the vaccine and now have developed a 
        single-injection vaccine, which does not require a booster 
        shot, that will last for approximately one year.
  --A second pilot project, with a redesigned vaccine that has the 
        potential to last for more than one year, was initiated on the 
        Nevada Wild Horse Range/Nellis Bombing and Gunnery Range in 
        January 1996.
  --Field application of the single-injection, one year vaccine began 
        in Nevada this January and February. Application of the vaccine 
        will be expanded and additional herds will be treated in 
        subsequent years.
  --The BLM plans for wild horse and burro immuno-contraception 
        research to continue at about $200,000 in fiscal year 1999. 
        This research is funded by the Biological Research Division of 
        the U.S. Geological Survey, not BLM.
    Question. Based on the sensitivity of this issue, assuming 
the population continues to increase and fertility is not 
reduced, what changes are contemplated to manage this program?
    Answer. Based on the results from the ongoing fertility 
research involving the immunocontraceptive vaccine, the Bureau 
feels that we will be able to use fertility control as one 
tool, together with other management practices, to manage 
animal population increases.
    In addition, based on recommendations of the August, 1996 
Emergency Evaluation, the Director reestablished the Wild Horse 
and Burro Advisory Board. This board is provided for in Section 
7 of the 1971 Wild Free-Roaming Horse and Burro Act. The Bureau 
believes that the use of the Advisory Board will help by making 
recommendations to manage this program in a way that will 
better reflect the wishes of the American people.

                         U.S. Geological Survey

             government performance and results act [gpra]

    Question. How were the measurable goals of your fiscal year 
1999 Annual Performance Plan used to develop your fiscal year 
1999 budget?
    Answer. The USGS Strategic Plan laid out the direction and 
long-term goals of the Survey through the year 2005. These 
goals were the basis for defining the annual incremental 
performance goals required in fiscal year 1999 to attain these 
long-term goals. Review and analysis of program status 
identified certain milestones met from which funding could be 
decreased in order to direct funding to other program phases 
that were scheduled to begin.
    Question. If a proposed budget number is changed, up or 
down, by this committee, will you be able to indicate to us the 
likely impact the change would have on the level of program 
performance and the achievement of various goals?
    Answer. Yes, the Annual Performance Plan for fiscal year 
1999 was developed on the basis of the GPRA Strategic Plan. The 
strategic business activity goals and performance goals were 
sorted by budget activity before preparation of the Annual 
Plan. The budget presents the Strategic Plan goals with the 
fiscal year 1999 Annual Performance Plan goals, indicators, and 
goal attainment levels in tabular form. These tables are sorted 
by budget activity (P&F Code) to clearly link both Strategic 
and Annual Plans with the fiscal year 1999 Budget 
Justification. In this way, the relationship of annual 
milestones to strategic goals and the impact of funding changes 
can be readily tracked.

                              new director

    Question. Gordon Eaton retired as director of the Survey 
this past fall. When do you expect to appoint a new director? 
Where are you in the selection process?
    Answer. The process of selecting a new Director to lead 
USGS into the next century began shortly after Dr. Eaton's 
retirement began. Because of the peer consulting associated 
with the selection of a new Director, the completion of this 
process can take a number of months. In the intervening months, 
the USGS has not been a rudderless organization. Dr. Thomas 
Casadevall was named to the position of Deputy Director of the 
Survey. In addition to his new duties, Dr. Casadevall, formerly 
Regional Director of the USGS Western Region in Menlo Park, has 
temporarily assumed the role of Acting Director of USGS. His 
enthusiasm, academic achievement and wise management expertise 
keeps the Survey on a strong and vibrant course as we seek to 
appoint a new Director before the end of the year.

                  core programs versus new initiatives

    The fiscal year 1999 USGS budget justification includes 
approximately $50,000,000 designated for new program 
initiatives; $22,772,000 in reductions to existing programs; 
and $17,495,000 in uncontrollable cost increases.
    Question. Why are special initiatives taking precedence 
over support for core programs?
    Answer. Science is not static, it continually evolves and 
new priorities are established. In order to be useful, the 
questions of science must be constantly rephrased and adapted 
to our changing world. The 20th century was a period where 
physics was the discipline of the day. As we move closer to the 
21st century, our survival becomes more dependent on 
understanding issues related to the natural and biological 
sciences. As our world and its need for knowledge changes, 
scientific research needs to change as well. As such, the USGS 
budget for the last year of the 20th century provides a bridge 
to new science, to understanding how to achieve and maintain 
sustainable development as it relates to our watersheds and 
ecosystems. A redirection of $23 million in a $800 million 
total budget is a relatively small (less than 3 percent) shift 
in the budget priorities of a research organization.
    Question. Given proposed reductions of nearly $23 million 
to existing programs, is it fair to assume that these programs 
are more than sufficiently funded at their fiscal year 1998 
levels?
    Answer. The increases included in the President's Budget 
for special initiatives are reflective of the Administration's 
priorities for the USGS science needs in fiscal year 1999.
    Reductions include a $1.37 million across-the-board cut in 
the Biological Resources Division, a $1.1 million reduction to 
unspecified science programs for absorption of a potential 
increase in GSA rent payments, half a million dollars in 
``miscellaneous'' reductions to the water program, and 
approximately $5 million in savings from largely undefined 
``reinventing government'' measures.
    Question. How do you justify program cuts that are defined 
so unclearly that the impact to specific programs cannot be 
readily determined?
    Answer. Given a constrained funding environment, program 
reductions were necessary in order to provide the flexibility 
to address other high priority needs of more immediate concern.

                      disaster information network

    $15,000,000 in new program funds are proposed for a 
national Disaster Information Network. These funds would be 
intended to enhance coordination among Federal agencies and 
other organizations, standardize information collection, and 
improve organization and access to disaster information. A 
multi-agency ``integrated program office'' hosted by GS will 
manage Federal coordination efforts.
    Question. By law, the Federal Emergency Management Agency 
is the entity responsible for coordinating disaster response. 
This would seem to be the logical home for a multiagency 
program office intended for that purpose. Why is GS the lead 
agency?
    Answer. The USGS is the national leader in research, 
monitoring, and warning of most natural hazards. Information on 
hazards, their likelihood, and how to prepare for them are the 
primary products of the scientific research programs that are 
critical missions of the USGS. It has:
  --Primary national responsibility for research and for providing 
        real-time information and warnings for earthquakes, volcanic 
        eruptions, landslides, and wildlife disease outbreaks.
  --Primary national responsibility for stream-flow data and works 
        closely with NOAA to assist in their role of forecasting 
        floods.
  --The USGS works with NOAA and other agencies in monitoring and 
        providing warnings for geomagnetic storms (space weather), 
        tsunamis, volcanic ash clouds, wildfires, and coastal storms.
  --The USGS is undertaking a major pilot research effort in monitoring 
        wildfires and volcanoes using advanced monitoring systems.
  --The USGS programs are divided into four themes: hazards, 
        information, environment, and resources. A disaster information 
        network brings the first two themes together and plays a 
        significant role in many aspects of the latter two themes.
    The USGS is a national leader in the dissemination of disaster 
information:
  --The USGS responds to the requirement for maps and digital data in 
        times of natural disasters and other crisis situations through 
        a well-coordinated delivery network.
  --The USGS, as the lead civilian mapping organization in the United 
        States, is responsible for providing maps and digital data to 
        the Department of Defense in times of national security or 
        other national crisis.
  --USGS maps are used throughout the country and USGS digital data are 
        becoming equally ubiquitous.
  --The Secretary of the Interior chairs the Federal Geographic Data 
        Committee.
  --The USGS chairs the Civil Applications Committee and operates the 
        Advanced Systems Center for the proper utilization and 
        distribution of classified data.
  --The USGS operates the EROS Data Center for delivery of mapping and 
        imagery products.
    Strategic Performance Goal BA3-M3 of the USGS GPRA 
Strategic Plan states that ``the Earth Science Information 
Management and Delivery Program will manage and deliver an 
increasing volume of geospatial data, including from classified 
sources, to enable policy officials and program managers to 
make wise and informed decisions when facing critical national 
issues.'' Geospatial data constitute a major part of disaster 
information and mitigating the effects of disasters is a 
critical national issue.
    The disaster information network initiative was developed 
by all appropriate agencies and will involve all of these 
agencies in the operation of an Integrated Program Office 
staffed by detailees from each of the agencies. The USGS will 
host this office and provide national leadership in an area 
that is critical to the utilization of USGS research. The 
proposed disaster information network will not supersede any 
existing roles or responsibilities of the agencies. The 
disaster information network will add value by coordinating and 
integrating critical disaster information so that users can 
quickly locate the information they need without having to 
identify which agency is providing it or where it resides.
    USGS, as host agency, will expend the funds as it does with 
its other programs--in a manner that most cost-effectively 
meets the program mission requirements, including the use of in 
house research, private sector support, and interagency 
expertise.
    Question. What outyear costs are anticipated in the 
implementation of this program?
    Answer. The feasibility study by the Disaster Information 
Task Force suggested a total cost over several years of $50 
million to develop the network and outyear operating costs of 
$10 million per year paid in part from private sources through 
the public/private partnership to be developed. KPMG Peat 
Marwick LLP prepared a benefit-cost analysis based on these 
assumptions and concluded that the ratio of costs to benefits 
over 10 years would be in the range of 12 to 25:1 for Federal 
benefits and 15 to 31:1 for national benefits.
    Question. Approximately $5,000,000 of the total amount 
requested is intended for equipment upgrades. What will the 
remaining $10,000,000 be used for?
    Answer. The budget proposed for the Disaster Information 
Network breaks down as follows:
  --5 million. Establish the Integrated Program Office and address 
        primary issues. Staff office with full-time detailees from 
        Federal agencies with major rsponsibility for providing or 
        utilizing disaster information (Departments of Interior, 
        Commerce, Defense, and State, FEMA, and the DCI Environmental 
        Program) and with part-time liaison staff from other concerned 
        agencies including the NSF, NASA, EPA, and USDA. Develop an 
        integrated approach within Federal agencies for providing all 
        types of information relevant to disasters in forms most useful 
        to the users such as emergency managers and business and 
        community leaders concerned with building disaster resilient 
        communities. Foster policies and procedures that assure timely 
        access to relevant data from all sources. Implement a public-
        private partnership that involves representatives of all stake-
        holders in the specification and implementation of the Disaster 
        Information Network. Convene working groups of all stake-
        holders to develop ways to organize and search for information, 
        standardize and harmonize data and information, visualize and 
        combine data, provide reliable dissemination during disasters, 
        specify and assure data quality, and handle sensitive 
        information.
  --$3 million. Implement pilot demonstrations of how the Disaster 
        Information Network can be used effectively to reduce disaster 
        losses and develop prototype training and outreach efforts.
  --$3 million. Adapt, integrate, and leverage new information 
        technologies to enhance the quality and reliability of the 
        Disaster Information Network and software tools that help 
        decisionmakers access and integrate the data and information to 
        make decisions critical for reducing disaster losses.
  --$4 million. Assure reliable operation during emergencies by 
        connecting key providers and users through existing Federal 
        intranets and implementing alternative dissemination strategies 
        using such technologies as satellite broadcast.
    Question. The $5 million for equipment upgrades points to a larger 
issue GS faces in its need to keep pace with technological advances 
that have produced new tools with enhanced capabilities. Is the 
Department looking at these potential requirements of GS? Is there a 
comprehensive plan for periodically updating systems independent of any 
new initiative proposed by the agency?
    Answer. Many of the monitoring networks that the GS depends on are 
becoming outmoded because they have not been upgraded for decades. The 
USGS and the Department are looking at options for future budgets to 
provide for enhanced infrastructure.
                     drug registration partnership
    The Biological Resources Division has proposed to save $899,000 by 
withdrawing from the agreement it has with 37 States to conduct 
research aimed at developing safe and effective FDA-approved drugs 
required for use in Federal, State, and private fish culture 
operations. GS has acknowledged that the program will be terminated if 
its support is withdrawn, although work is far from completed at this 
time.
    Question. The original agreement called for a 5-year commitment 
terminating at the end of fiscal year 1999. As the lead agency 
responsible for conducting the research at one of its own labs, why 
doesn't GS feel obligated to honor the terms of the agreement it made 
with the States?
    Answer. The USGS has honored the terms of the agreement it made 
with the States for development of FDA-approved drugs for fish culture 
operations. As a partner in this effort, USGS' Biological Resources 
Division (BRD), budgeted funding starting in fiscal year 1994 for drug 
and chemical registration as a 5-year program. For fiscal year 1994-
1998, BRD continued support for the program in partnership with the 
States and has successfully registered some of the therapeutic drugs.
    In developing the fiscal year 1999 budget, this program was 
proposed for reduction as the 5-year program was slated to end. After 
completing the budget, the BRD became aware of additional research 
needed to meet FDA requirements to complete registration of all the 
required drugs. Additionally, the original scope of work for a 5-year 
program anticipated $1 million in contributions annually from the 50 
States. Actual contributions have not met this target, thereby slowing 
the process for completing the work and extending the timeframe needed 
for drug approvals. Another factor contributing to this delay in drug 
and chemical registration, has been cooperator-approved changes to the 
original scope of work after the project began (e.g., a better 
anesthetic came on the market and was substituted for the one on which 
work already had been done). Additionally, modifications to the 
original data requirements for other drugs in the study were made after 
the project began.
    Question. States have invested a total of over $700,000 annually 
for work in large part not complete at this time. Does GS plan to 
reimburse the States for dollars expended on products not delivered?
    Answer. No. The USGS does not plan to reimburse the states because 
all parties are committed to seeing the goals of this unique 
cooperative agreement achieved in full measure. Substantial progress 
already has been achieved in the IAFWA Project. For example, FDA has 
approved the use of formalin for the treatment of parasites on fish, 
hydrogen peroxide for use as a fungicide, and copper sulfate as an 
external microbicide. However, completing the full scope of work on all 
eight priority drugs will require an additional three years of effort. 
The extension is needed because the original scope of work was based on 
an expected contribution of $1 million annually from USGS and $1 
million annually from the 50 states. Actual contributions fell far 
below those originally envisioned, with $760,000 annually from the 
federal government and approximately $500,000 to $740,000 annually from 
the states. Moreover, changes in the original scope of work have been 
required as data were reviewed by the Food and Drug Administration and 
new drugs came on the market. Recognizing the need for additional time 
and funding, the 30 states present at the IAFWA Inland Fisheries 
Committee meeting in September 1997 agreed to support a three-year 
extension to the project.
    Question. Many State fish and wildlife agencies have expressed 
concern over the BRD's proposal to terminate this project. Some have 
suggested that the Federal agreement be fulfilled by appropriating 
resources to the U.S. Fish and Wildlife Service for contract with 
another lab capable of completing the work. Since GS has demonstrated a 
serious lack of commitment to the program, should this alternative be 
explored?
    Answer. USGS remains committed to the program. The leadership for 
the IAFWA Project should remain with BRD in order to provide continuity 
and efficient use of appropriations. BRD facilities for conducting the 
laboratory studies and clinical field trials are among the only ones of 
their kind in the Nation. Transferring the project to a contract-basis 
managed by FWS would be significantly more costly, in both time and 
money.
                           general statement
    Question. In the General Statement you propose to make development 
of monitoring tools to evaluate Habitat Conservation Plans a major 
focus area. What kinds of tools do you envision in this effort? Aren't 
there many tools already available for this?
    Answer. The USGS proposes three approaches: (1) providing more 
information on a landscape scale which encompasses assemblages of 
species; (2) developing decision support systemstools such as expert 
computer systems or geographic information systems that allow managers 
to easily access information needed for decisions; and (3) employing 
adaptive resource managementa process by which researchers and managers 
work together to measure the effectiveness of management strategies and 
then alter those strategies if the desired response is not observed. It 
is with respect to the latter item (adaptive management) that specific 
projects will be designed to evaluate Habitat Conservation Plans in 
close partnership with FWS, NPS, and State conservation agencies in 
California and Hawaii. Migratory bird management is at the leading edge 
of adaptive management initiatives. Research conducted by USGS 
scientists will strengthen new management initiatives of the FWS in 
monitoring migratory birds using wetlands and grasslands on Refuges in 
the Northern Great Plains and Alaska.
    Land managers in our partner bureaus do not have the tools needed 
to implement management strategies that are ecologically and habitat-
based, and have requested that the USGS develop them. The USGS has 
responded to this need with a proposed budget increase that supports 
the goal of providing information on the biology and ecology of species 
at risk of highest concern to resource managers. The proposed increase 
will support development of decision support systems related to 
threatened biological communities of southwestern and southeastern 
ecosystems, identification of landscape features important to 
biological communities in grassland ecosystems, and development of 
monitoring programs to determine the effectiveness of habitat 
conservation measures.
    Question. Please describe in more detail the kinds of information 
that would be included in ``Aquatic Gap Analysis.'' Why were 
southeastern aquatic habitats selected for the initial focus? Would 
this be a result of existing resources available there suggesting this 
to be the most cost effective area for focus?
    Answer. The information developed in Aquatic Gap Analysis will 
answer these basic questions: How are important aquatic biological 
resources distributed across the landscape? What types of aquatic 
habitats and species are found in a particular area? Are these 
resources being most effectively managed?
    Are there gaps in our knowledge that significantly limit our 
ability to manage aquatic biological resources? Is there some watershed 
activity that is impacting particularly valuable aquatic habitats.
    The information that will be displayed in the aquatic gap products 
includes:
  --GIS mapping and documentation of land cover compatible with 
        terrestial GAP;
  --A nationally standardized depiction of streams and rivers and 
        watershed boundaries;
  --Incorporated National Wetlands Inventory digital mapping;
  --Distribution of aquatic species--fish, freshwater mussels, other 
        invertebrate species;
  --Amphibians, aquatic vascular plants, aquatic mammals, waterfowl and 
        wading birds;
  --Water management information, such as State or EPA outstanding 
        water designation;
  --Soil and water conservation district plans, Forest Service or other 
        Federal agency;
  --Management plans, etc.; and
  --Habitat quality data.
    This information displayed geospatially will assist land 
and water managers in their management and stewardship 
activities. Portions of this information have already been 
developed through terrestrial Gap Analysis.
    The southeast was selected primarily because it has the 
greatest diversity of aquatic species in the Nation. This 
quality, however, also makes it the area with the greatest 
number of extinctions as well as endangered and threatened 
aquatic species. The data available varies widely among the 
southeastern States; those with the best existing information 
resources offer the opportunity of the most efficient 
development of Aquatic Gap Analysis programs. However, those 
States with aquatic resources and with significant gaps in 
their knowledge base may have the greatest need for Aquatic Gap 
Analysis.

            clean water and watershed restoration initiative

    Question. How will activities under the President's Clean 
Water Initiative be coordinated with other Federal agencies to 
ensure cost effectiveness and avoid duplication of efforts?
    Answer. The Clean Water Action Plan was conceived and 
developed as a collaborative project among a number of Federal 
agencies, to build on their existing watershed assessment and 
management programs in a coordinated manner. A Federal 
Interagency Steering Committee, with representation at the 
Assistant Bureau Chief level, was established to oversee the 
coordination. This Committee currently meets two to three times 
each month. In addition, 11 interagency topical work groups 
were set up during development of the Plan to integrate 
activities from the various agencies. Implementation of the 
Plan is being overseen by another set of 11 interagency work 
groups. Each of the work groups has responsibility for a 
certain group of key actions from the Plan. In addition, 
several of the Departments have their own interagency 
coordinating committees for the Plan. At the State level and 
Regional level, seven regional meetings are being held during 
April-May 1998 to familiarize regional and local Federal 
officials with the Plan. State-level implementation teams will 
involve coordination of multiple Federal agencies.
    Question. What is the proposed Federal/public interface for 
dealing with watershed councils? How will this be funded?
    Answer. Chapter III of the Clean Water Action Plan lists 
the following key actions to support watershed councils:
    Beginning in fiscal year 1999, Federal agencies will 
coordinate with States and Tribes to provide small grants to 
enable organizations to build watershed partnerships and 
advance watershed restoration efforts.
    To support local organizations and citizens in locally 
based watershed protection efforts, and to encourage the 
organization of such groups nationwide, the U.S. Environmental 
Protection Agency (USEPA), U.S. Department of Agriculture 
(USDA), Department of the Interior (DOI), National Oceanic and 
Atmospheric Administration (NOAA), and other Federal agencies 
will increase information and technical assistance available to 
these groups.
    USEPA, USDA, DOI, NOAA, and other Federal agencies will 
work with the present sponsors of the national watershed awards 
to review options for broadening and expanding the awards 
program, including a watershed award in each State and awards 
for innovative solutions to specific problems.
    The Secretaries of the Departments of Agriculture, 
Interior, Commerce, and Defense, and the Administrator of 
USEPA, in cooperation with States and Tribes, will convene a 
National Watershed Forum to coordinate watershed assessment, 
restoration, and protection.
    By July 1999, Federal agencies will use Watershed 
Assistance Grants or other appropriate means to support local 
watershed coordinators and will identify agency staff who can 
help coordinate Federal programs for watershed restoration and 
protection.
    In addition to these specific key actions, watershed 
councils are likely to be represented on State implementation 
teams for the Plan.
    Question. You state that the Federal-State Cooperative 
Water Program will be used to operate and monitor programs, 
pollution sources, etc. and that a $16.5 million increase is 
necessary. What was the previous function of this program? How 
will this new focus affect previous activities?
    Answer. For fiscal year 1999, USGS is requesting $23.5 
million for the Clean Water Initiative and the Water Quality 
Information Initiative. These funds are requested in a variety 
of programs to fund a variety of activities:

Funds requested for the clean water initiative and the water quality 
information initiative

                                                                Millions

National Water-Quality Assessment (NAWQA) Program.................  $6.0
Hydrologic Networks and Analysis Program..........................   3.5
Water Information Delivery Program................................   3.0
Federal-State Cooperative Water Program...........................   4.0
Water Resources Research Act Program..............................   1.0
National Mapping Geographic Research and Applications Program.....   1.0
Geologic Division Mineral Resources Program.......................   3.0
Biological Resources Division Research and Monitoring Program.....   2.0

    The $4 million requested for the Federal-State Cooperative 
Water Program (Coop Program) includes $2 million for the Clean 
Water Initiative and $2 million for the Water Quality 
Information Initiative. These funds would support the following 
activities:
  --Increase water-quality monitoring stations; evaluate the relative 
        effects of various pollution sources to determine Total Maximum 
        Daily Loads, as required by the Clean Water Act.
  --Provide information about source water protection areas and improve 
        approaches to protecting drinking water sources.
  --Target watersheds in NAWQA study areas with follow-up work to 
        better: (1) link agricultural practices and pesticides in 
        ground water; (2) quantify sources of nutrients entering 
        streams; (3) assess impacts of historic land use on water 
        quality; (4) understand relations between water quality and 
        health of aquatic organisms; and (5) evaluate the effectiveness 
        of nonpoint source pollution management practices.
    The increase proposed for fiscal year 1999 will not change 
the function of the Coop Program or affect previous activities. 
Rather, the increase will expand and enhance the types of data 
collection efforts and interpretive studies needed to support 
the two initiatives. By conducting this work through the Coop 
Program, USGS can effectively partner with State and local 
water resource agencies in addressing clean water issues 
important to all levels of government and the public. As with 
all Coop projects the cooperating agencies will provide at 
least half the funding; USGS will do most of the work. The 
result is an effective cost sharing arrangement enabling the 
use of consistent techniques of data collection, archiving, and 
analysis so vital to a national resource assessment.
    Question. You have been investigating the hypoxic zone in 
the Gulf of Mexico for a number of years. How much longer do 
you expect to continue this activity and what products will 
result?
    Answer. USGS investigations have produced a framework for 
understanding the relationships between nutrient loadings and 
delivery in the Mississippi River Basin and hypoxia in the Gulf 
of Mexico. Most of the nutrient load is generated in 
agricultural watersheds of the Upper Mississippi Basin, and 
additional inputs occur in the Lower Mississippi River Valley 
downstream of the Mississippi/Ohio River confluence. It is now 
suspected that the past loss of flood plain wetlands has 
reduced the level of nutrients retained in the river system, 
and has contributed substantially to the transport of nutrients 
to the Gulf. However, scientific understanding of the source, 
fate, and transport of nutrients driving Gulf hypoxia is 
incomplete, and investigations into the role of flood plain 
wetlands in the removal of nutrients from surface waters within 
the Mississippi River system are in their infancy.
    USGS will continue studies related to Gulf hypoxia as long 
as there are significant questions concerning the source, 
within-basin transformation, and transport of water quality 
constituents driving the problem, and sufficient concern to 
warrant funding. For fiscal year 1999, USGS proposes initiation 
of a 5-year investigation to determine the contribution of 
flood plain wetlands to nutrient reduction in the Mississippi 
River Basin. The following products will result: (1) 
information on the retention, transformation, and transport of 
nutrients in flood plain wetlands; (2) decision-support models 
for use by river and habitat managers to predict the best 
hydraulic practices to promote nutrient retention by wetland 
vegetation; (3) a landscape-level model of interactions between 
wetland and non-wetland habitats and water quality to evaluate 
the acreage, relative location, and type of habitat necessary 
to achieve desired nutrient reduction loads.
    Question. Will information gathered in this study be 
relevant or useful in addressing the over enrichment problems 
in Chesapeake Bay?
    Answer. The primary cause of nutrient enrichment problems 
in both the Chesapeake Bay and the Gulf of Mexico is nonpoint 
source inputs from the surrounding watersheds. Consequently, 
information generated within the Mississippi River Basin on 
nutrient source, retention, transformation, and transport will 
be extremely relevant and useful in addressing similar concerns 
within the Chesapeake Bay. In particular, the increase in 
fundamental understanding of these processes generated by USGS 
studies on Gulf hypoxia will be directly transferable to the 
Chesapeake Bay. In addition, the models and decision support 
systems that will be generated for the Mississippi River Basin 
can be adapted to Chesapeake Bay watersheds for use by local 
managers.

                          continuing programs

    Question. How long has USGS been investigating endocrine 
disrupting synthetic compounds? How are the compounds selected 
for testing? What effects have been documented? How have the 
data been used?
    Answer. Because DDT is a classical endocrine disrupting 
compound, the USGS and its precursor organizations have been 
working on these compounds for over 50 years. While the concept 
of endocrine disruptors is relatively new compared to the 
toxicological history of DDT, it establishes a basic premise of 
our contaminant research--there is not a focus on any 
particular mode of action, such as endocrine disruption, but 
more on the ability of a compound to affect fish and wildlife 
resources. The recent emphasis on endocrine disruption, and a 
fiscal year 1998 funding increase, has allowed us focus on some 
of the endpoints and measurements associated with the endocrine 
disruption mode of contaminant action.
    We do not particularly select compounds for testing. Much 
of the work done is field based where the health of wildlife in 
a contaminated environment is examined, or a known health 
problem in a species is investigated to see if contaminants are 
a probable cause. In these cases there are usually multiple 
compounds involved. In laboratory testing scientists use a 
compound that is known to cause an effect, these positive 
controls assure that the experimentation is sensitive. For 
example, in developing a model to test the effects of potential 
endocrine disrupting compounds on fish development, a compound 
such as DDT which has estrogenic properties, would be tested in 
validating the model.
    Definitive evidence of effects caused by endocrine 
disruptors has been limited. USGS scientists have documented 
physical anomalies in reproductive tissues of river otters and 
fish. Observations of altered reproductive hormones and the 
presence of the female egg protein (vitellogenin) in male fish 
have also been made. Neither the cause of these anomalies, nor 
the ramifications to any population have been identified. 
Reduced reproductive success of several species of birds, 
mammals, and fish have been documented that correlate with 
exposure to endocrine disrupting compounds, but specific 
compounds and mechanisms have yet to be determined.
    Based on the results from these initial investigations USGS 
helped identify physiological tests that may be useful for 
identifying endocrine disrupting compounds, and highlighted 
geographic areas where the risk of problems from these 
compounds is high.
    Question. Many of your fisheries projects (Salton Sea, 
Southwest strategy) involve extensive interaction with other 
Federal agencies. How are the needs of other agencies 
identified, prioritized, and selected by USGS? Are the Federal 
agencies satisfied with the process and satisfied their needs 
are being met?
    Answer. The USGS currently uses several approaches to 
identify, prioritize, and address science information needs. 
Biological information needs are addressed through the Bureau 
Information Needs process which compiles information needs from 
annual regional meetings with Interior partner bureaus. To the 
degree that funding is available research efforts are directed 
based on these identified information needs. In addition, other 
Federal agencies contract with us for research support through 
cost-reimbursable agreements. Geologic needs are addressed 
through coordination and consultation mechanisms to identify 
the priority needs of its constituents which include Department 
partner bureaus and others. Mapping needs are addressed through 
the role of the USGS as chair of the Interior Geographic Data 
Committee's Base Mapping Working Group, which coordinates the 
identification and collection of digital geospatial base data 
requirement among Interior bureaus through the Department High 
Priority Digital Base Data Program. Priority water information 
needs are identified via the Water Resources Investigations 
Cost-Share Program conducted with Department Bureaus and 
others.
    The processes by which the USGS meets customers needs 
continues to evolve, as they should, to be more responsive to 
customer needs. As an indication of the responsiveness of the 
USGS, Federal agencies are satisfied with the performance of 
the USGS in meeting their needs. For example as shown in the 
USGS' ``Report to Our Customers'' covering fiscal year 1997, 98 
percent of the customers surveyed indicated they were very 
satisfied with the biological resources program products 
addressing research on management needs and technical 
assistance. Similar endorsements are also provided by customers 
whose information needs are addressed by the other USGS 
disciplines.
    Question. Toxic algae-How does the work investigating 
environmental conditions contributing to toxic algae blooms 
correspond/intersect with EPA's EMAP (Environmental Monitoring 
and Assessment Program)?
    Answer. USEPA's EMAP program focuses on the condition of 
estuaries as evidenced by water-quality and ecological 
monitoring within the estuary. Much of the USGS work on 
environmental conditions contributing to toxic algal blooms 
focuses on conditions in the watersheds upstream from the 
estuaries, as evidenced by land-use factors and water-quality 
monitoring and modeling in rivers and their watersheds. For 
example, the USGS SPARROW (SPAtially-Referenced Regressions On 
Watershed attributes) model used thousands of historic water-
quality analyses, streamflow data, time-of-travel data, and 
watershed characteristics to simulate the source, occurrence, 
and transport of nutrients that contribute to algal blooms 
downstream.

                          biological research

    Question. Besides continually documenting the spread of 
zebra mussels, what purpose does this research serve? Have any 
useful control strategies been developed? How much money has 
been spent on zebra mussel research?
    Answer. USGS research is part of a coordinated effort 
involving Federal and state agencies, universities, affected 
industries, and Canadian agencies to assess pathways for the 
spread of zebra mussels, monitor existing populations, develop 
control methods, and reduce the ecological damage and economic 
costs of zebra mussel invasions. USGS contributions (see below 
highlights) focus on understanding the ecology of zebra 
mussels, including competition with native species, in order to 
identify characteristics useful in developing approaches for 
preventing the establishment of new populations, including the 
spread to the western states, and lessening ecological impacts. 
To date, effective controls for zebra mussels have been 
developed only in association with engineered structures such 
as water intakes and hatchery raceways. Although much is now 
known about the complex factors influencing the spread of zebra 
mussels, no physical, chemical, or biological control, or 
combination of methods, has yet been discovered that is 
effective and economical for use in the environment. In 
addition to the research efforts, the USGS also provides 
documentation on the distribution and spread of zebra mussels 
through the Nonindigenous Aquatic Nuisance Species Database, 
which is a widely used source of reliable data and information 
on invasive aquatic organisms.
    The annual research budget (through the transfer of 
research programs from FWS to the National Biological Service 
and ultimately to USGS) has remained at about $2 million, with 
the largest programs conducted by the Great Lakes (GLSC), Upper 
Mississippi (UMSC), and Florida-Caribbean (FCSC) Science 
Centers, and the Environmental Management Technical Center 
(EMTC).
    Question. In the recent accomplishments section of 
Biological Research and last year's budget justification you 
describe findings of mercury in tissues of fish and wildlife. 
However, in the program decrease section of Water Resources 
Assessments and Research, Toxic Substances, mercury studies are 
slated for a program decrease with justification that it would 
be a new start. Please explain.
    Answer. The mercury study affected by the proposed 
reduction in the Toxic Substances Hydrology Program is a 
separate effort from the work described in the Biological 
Research Activity. The USGS/Biological Resources Division 
research on mercury in tissues studies is an ongoing program 
based on previous BRD research determining conditions under 
which environmental mercury becomes bioavailable and toxic. BRD 
research and monitoring indicates that when mercury becomes 
bioavailable, it can become bioaccumulated, as it has in 
national parks and refuges in the Northeast, Florida, and the 
Great Lakes. Elevated levels of mercury are found in fish and 
wildlife tissues of species where mercury has become 
bioavailable, and is especially concentrated at the tops of the 
food chains.
    Work described in the budget justification under the Water 
Resources Investigations Activity would be a separate effort 
with a different slant. In recent years, USGS has recognized 
increased public concern for effects on fish, wildlife, and 
human health from environmental mercury contamination, and has 
acknowledged that contamination of aquatic ecosystems by 
mercury is an important and complex global problem. In July 
1996, USGS sponsored a multi-agency workshop to transfer 
information and technology, to identify data and information 
gaps, and to identify specific areas of investigation. Since 
then, USGS scientists investigating the geology, chemistry, and 
biology of this problem have been coordinating with others to 
design a comprehensive investigation of mercury contamination 
of aquatic ecosystems that will provide scientific information 
to fill current critical information gaps. USEPA recently 
released a comprehensive review of the mercury contamination 
problem that identified priority research needs. The USGS 
investigation being designed as part of the Toxic Substances 
Hydrology Program will address an important subset of these 
needs.
    Approximately $90,000 has been invested in information 
reconnaissance, interagency coordination, and planning each in 
fiscal year 1997 and fiscal year 1998. USGS will complete the 
design of this investigation in fiscal year 1999, as planned. 
However, the need to limit spending requires us to either stop 
research that is in progress before its planned completion or 
to postpone starting new studies. We believe that the latter is 
more prudent. The planned mercury assessment is certainly 
important, and as other projects within the Toxic Substances 
Hydrology Program come to a close and free up program 
resources, it is likely that we will begin the planned mercury 
assessment. When it is finished, the regional assessment will 
provide information on the occurrence of mercury in water 
sediment and fish in a broad range of representative 
ecosystems, and will provide focused investigations.
    Question. Please provide specific details on the programs 
and activities that are proposed for decreases in Biological 
Research and Monitoring (-1.37M). Broad based cuts. Answer: The 
across-the-board reduction impacts all activities funded in the 
Research and Monitoring subactivity. Given a constrained 
funding environment, these reductions were necessary in order 
to provide the flexibility to address other high priority needs 
of more immediate concern. Specific impacts at each of the 
major research centers include the following:
    National and Regional Programs (-$482,000).--This will 
result in reduced support to the National Park Service for the 
study of fisheries nursery habitat in the San Juan and Colorado 
Rivers; support to the Fish and Wildlife Service for the Black 
Duck Joint Venture; support to the Bureau of Land Management 
for the development of wildhorse immunocontraception 
techniques; and a study of predation-caused population declines 
among Hawaiian forest bird species. Reductions to the 
maintenance of facilities will delay the completion of repairs 
to facilities and equipment, which are needed to ensure 
employee and public safety. A reduction to the operational 
budget of the research centers will result in greater 
reductions to science programs, as there are certain fixed 
costs that have to be paid such as utility bills, telephone 
costs, workers compensation, postage, etc.
    Western Fisheries Research Center, Seattle, Washington 
(-$30,000).--Reduced genetic fish stock examination, wetlab 
trials in support of National Fish Hatcheries, and research on 
aquatic epizootics.
    Alaska Science Center, Anchorage, Alaska (-$64,000).--
Reduced the development and application of inventory and 
monitoring protocols in National Parks in Alaska, the science 
program at the Bering Land Bridge National Preserve, and large 
mammal and predator/prey research on National Wildlife Refuges.
    Pacific Islands Ecological Research Center, Honolulu, 
Hawaii (-$29,000).--Reduced cooperative efforts with NPS, FWS, 
State and private entities for the recovery of imperiled 
species on Hawaiian National Wildlife Refuges.
    California Science Center, Davis, California (-$54,000).--
Reduced support for recovery of imperiled species in 
California, Nevada, Arizona and Utah.
    Forest and Rangeland Ecosystem Science Center, Corvallis, 
Oregon (-$76,000).--Reduced protocol development for Northwest 
Forest Plan Effectiveness Monitoring and rangeland management 
and restoration needs on BLM lands.
    Midcontinent Ecological Science Center, Fort Collins, 
Colorado (-$94,000).--Reduced research on terrestrial habitat 
models used by land managers to develop mitigation and 
management plans.
    Northern Prairie Wildlife Research Center, Jamestown, North 
Dakota (-$33,000).--Reduced research for DOI bureaus on 
management of predator populations and best management 
practices for migratory birds.
    Environmental and Contaminants Research Center, Columbia, 
Missouri (-$64,000).--Reduced research on causes of 
environmental degradation in the Lower Rio Grande River.
    National Wetlands Research Center, Lafayette, Louisiana 
(-$56,000).--Reduced research on the importance of fresh and 
saline wetlands for migratory birds.
    Florida Caribbean Science Center, Gainesville, Florida 
(-$39,000).--Reduced studies of the life history and habitat 
requirements of Gulf sturgeon.
    Upper Mississippi Science Center. LaCrosse, Wisconsin 
(-$35,000).--Reduced ecological studies of imperiled species 
and habitats in the Upper Mississippi River basin.
    Leetown Science Center, Leetown, West Virginia 
(-$79,000).--Reduced ongoing evaluation of freshwater mussels 
in Appalachian streams.
    National Wildlife Health Center, Madison, Wisconsin 
(-$30,000).--Reduced work in support of DOI bureaus including 
wildlife health disease research.
    Patuxent Wildlife Research Center, Laurel, Maryland 
(-$137,000).--Reduced research on coastal habitat requirements 
to restore Atlantic coast populations of black ducks.
    Great Lakes Science Center, Ann Arbor, Michigan 
(-$68,000).--Reduced research and populations assessment of 
Great Lakes lake trout.
    Question. Given the apparent increase in fish and wildlife 
mortality occurring in many areas of the U.S. (e.g., whirling 
disease, Salton Sea fish and bird kills, Pfiesteria, eagles, 
coots), what is the USGS doing to determine the causes of these 
outbreaks and what research is being conducted on understanding 
factors that control fish and wildlife diseases?
    Answer. The USGS has research programs addressing fish and 
wildlife health problems underway at two fisheries laboratories 
and one wildlife center. The geographic scope, environmental 
complexity, biological impact, and economic consequences of 
fish and wildlife diseases are enormous. The following are but 
a few examples of USGS' fish and wildlife disease research 
efforts:
    Whirling Disease.--The USGS' Western Fisheries Research 
Center (Seattle) is engaged in cooperative research on whirling 
disease with scientists at its Leetown Science Center (Leetown, 
WV) and the University of California, Davis. Whirling disease 
on a national scope is a re-emerging problem, particularly in 
the West. Current research is directed toward breaking the life 
cycle of this parasite. Both molecular and conventional 
methodologies are being used in ongoing research directed 
toward understanding the mechanisms of disease pathogenesis. 
Except for small portions of Principal Investigator salary and 
some technician time, all of this project ($300,000 per year) 
is funded by the U.S. Fish and Wildlife Service. When this 
project ends (1999), essentially no USGS money will be 
available to support this work.
    Salton Sea.--Over the last five years the Salton Sea has 
been the site of several major die-offs. Disease problems in 
birds have included avian cholera, Newcastle disease, avian 
botulism and undiagnosed mortality in eared grebes. The USGS 
has conducted field and laboratory investigations of the many 
disease outbreaks occurring at the Salton Sea. These studies 
have been brief and in response to specific disease events 
rather than comprehensive research studies because of lack of 
funding specific for the Salton Sea.
    In January 1998, a new outbreak of bird diseases killed 
more than 5,600 birds at the Salton Sea. The USGS diagnosed 
avian cholera, a bacterial infection, as the killer of more 
than 1,800 ducks and geese. More recently, USGS isolated and 
identified Newcastle's Disease virus as the suspected cause of 
death in an estimated 1,600 double-crested cormorants taken 
from the Sea during a die-off. Certain forms of Newcastle's 
Disease are highly pathogenic to poultry and could pose a 
significant economic threat to Southern California's poultry 
industry. USGS and FWS personnel are cooperating with other 
Federal, State, and local agencies to identify the cause of the 
mortality and initiate containment procedures.
    With respect to fish die-offs and disease outbreaks in the 
Salton Sea, USGS spends the majority of its efforts to help 
ameliorate disease problems rather than in more basic research 
to increase understanding of the causes of disease. The Western 
Fisheries Research Center (Seattle) did the initial 
investigation of the Salton Sea fish kills. In fiscal year 
1998, this Center is cooperating with the USGS' National 
Wildlife Health Center (Madison--NWHC) on a 1-year project to 
examine the role of Vibrios spp. (a type of bacteria) in some 
of the massive fish mortalities and its possible link to the 
occurrence of avian botulism at the Salton Sea.
    Dr. Milton Friend, formerly Director of the NWHC, has been 
named to serve as Chairman of the Salton Sea Science 
Subcommittee. The Subcommittee, with representation from 14 
different federal, state, local and tribal organizations, will 
provide the scientific evaluations and recommendations needed 
to help restore the health of the troubled Salton Sea 
ecosystem. The fiscal year 1999 budget requests $500,000 for 
Salton Sea to conduct research to understand the ecology of 
disease causing agents for fish and wildlife in the Salton Sea 
including avian botulism. Studies will investigate the causes 
of mass mortality among fishes and responses of birds and 
native vegetation to biological and physical disturbances.
    Pfiesteria.--As part of its Chesapeake Bay Ecosystem 
Program, USGS has begun investigations to determine factors 
contributing to fish lesions in the Chesapeake Bay. USGS 
studies will: characterize the types and causes of fish 
lesions; evaluate fish health with a variety of physiological, 
histological, and immunological techniques; and assess possible 
linkages of fish health problems to land use, history, and 
water quality.
    Eagle and Coot Deaths.--The USGS provides considerable 
technical and diagnostic assistance in response to the major 
mortality occurring in bald eagles and coots in Arkansas, and 
recently discovered in North Carolina and Georgia. The disease 
apparently affects the brain and nervous system by creating 
holes in the myelin layers that insulate the nerve bundles. 
Myelin coats the nerve bundles much like the plastic coating 
around electrical wire, and when the coating is damaged it can 
short-circuit the nervous system. Despite the exhaustive 
efforts of federal, state and private-sector scientists, the 
cause or source of the disease remains a mystery. Field 
investigations led by the USGS' NWHC are under way, and 
scientists are hoping that clues from the new locations will 
help to reveal the cause of the disease. The public is being 
urged to report observations of sick or dead eagles or coots to 
the NWHC.
    Question. Critics of fish hatcheries are saying a major 
problem is that hatcheries produce fish that are not equivalent 
to their wild counterparts, in terms of genetics, behavior, and 
disease. What research is the USGS doing to help hatchery 
managers produce fish that can be used to supplement natural 
stocks without harm--particularly imperiled or listed 
populations?
    Answer. USGS is engaged in research to address this issue. 
The Western Fisheries Research Center (WFRC) in Seattle 
evaluates the costs and benefits of using alternative sources 
of broodstock--other than traditional domesticated strains--for 
supplementation. Specifically, the study tests for genetic 
differences in the growth, survival, and reproductive success 
of hatchery and wild steelhead and of hatchery and wild spring 
chinook salmon in both natural streams and hatcheries. Other 
research helps guide hatchery managers in identification of 
hatchery practices that produce juvenile salmonids that are 
more like the wild fish and can be used to supplement wild 
stocks that are declining or listed.
    Scientists at the Leetown Science Center are determining 
the effectiveness of alkalinity on the survival, growth, and 
physiological condition of Atlantic salmon. Low pH, coupled 
with high aluminum ion concentrations in low alkalinity waters 
are suspected as causes of mass mortality of fry at the 
hatchery. Atlantic salmon are an imperiled species currently 
being restored through a joint Conservation Plan administered 
by the State of Maine, the Fish and Wildlife Service, and the 
National Marine Fisheries Service. Researchers are also 
investigating the genetics of several imperiled, declining, 
threatened or endangered species for broodstock development at 
national fish hatcheries including the shortnose sturgeon, an 
endangered species, and the Atlantic sturgeon, a species 
recently proposed for listing under the Endangered Species Act. 
A considerable body of genetics research is now available for 
the imperiled Atlantic salmon. Scientists at the Conte 
Anadromous Fisheries Laboratory in Massachusetts are working in 
partnerships with hatcheries on the Connecticut River and in 
Maine to develop river-specific broodstocks that maximize 
variability in declining populations of this species.
    Scientists at Leetown are determining the effectiveness of 
raising sterile, triploid Atlantic salmon for use by the 
commercial aquaculture industry in Maine. The use of sterile 
fish in aquaculture has been recommended as an alternative to 
rearing genetically distinct salmon of European origin in Maine 
waters. Production characteristics of two sterile hatchery 
stocks reared in the lab and at a commercial aquaculture 
facility in Maine are being compared. Disease research at 
Leetown is developing improved ways for monitoring the presence 
of pathogens in Atlantic salmon and Atlantic sturgeon to reduce 
the chances of spreading disease organisms in the wild. 
Treatments of returning sea run Atlantic salmon have been 
improved that will help reduce mortality of these adults until 
gametes can be taken for restoration efforts. A recent CD-ROM 
produced by USGS researchers in Wellsboro, PA provides genetic 
and performance characteristics of various strains of rainbow 
trout to assist hatchery managers in selecting appropriate fish 
for stocking.
    Question. The decline and listing of salmon in Washington, 
Oregon, Idaho, and California is of concern to the Nation. What 
research is the USGS doing to assist in the recovery efforts? 
What work is the USGS funding in the Columbia Basin on this 
issue?
    Answer. USGS scientists at the Western Fisheries Research 
Center, Seattle, Washington are conducting research to address 
declining populations of Pacific salmonids. The Center's Fish 
Health research group is helping managers of both hatcheries 
and wild stocks address disease concerns such as bacterial 
kidney disease, viral hemorrhagic septicemia, infectious 
hematopoietic necrosis, and whirling disease. Genetic studies 
help fisheries managers distinguish stocks of concern and help 
in captive breeding of listed species. Research directed at 
improving salmon habitat includes assessment of toxic threats 
posed by heavy metal contamination from acid mine drainage and 
by agrochemicals. The U.S. Fish and Wildlife Service is our 
primary partner in these studies.
    There are a number of studies and data collection 
activities that USGS is conducting to support information needs 
of agencies addressing salmon restoration in the Pacific 
Northwest. In the lower Columbia River, USGS is measuring total 
dissolved gas saturation, an important indicator for fish 
survival. Also, in Washington State on the Elwha River, USGS 
has recently completed a study related to the possible 
restoration of salmon habitat through the removal of two dams. 
The Elwha River study used GIS and digital elevation models to 
determine river reaches that would be assessable to salmon, and 
also evaluated the impact of restored runs on nutrient dynamics 
in the river. Ongoing steelhead research on the Wind River (a 
tributary of the Columbia River) is examining whether steelhead 
fry and parr must grow to a critical size during summer to 
survive harsh winter conditions. A bioenergetics model will be 
developed using the results to help managers better assess the 
effects of future human impacts and the effectiveness of 
alternative management actions.
    In addition to these studies, USGS produces data on: (1) 
river flows or stream gaging, (2) temperature and dissolved 
oxygen, and (3) land-use which can be related to river habitat 
information. All of these data can be useful in determining 
requirements for salmon population restoration. Also, USGS 
scientists provide technical and scientific assistance to 
Department of Interior bureaus, tribal and state fisheries 
agencies, and non-DOI bureaus such as the Bonneville Power 
Administration, the Army Corps of Engineers, and the National 
Marine Fisheries Service. Technical assistance needs range from 
management of threatened, endangered, and sensitive species, to 
recreational species and management of major projects (dams) 
and fish passage facilities. A wide variety of technical 
fisheries and ecological issues include such topics as fishery-
related telemetry and acoustics, laboratory services, salmonid 
physiology (e.g., gas bubble trauma), alien invasives (e.g., 
introduced predatory game fish), aquatic invertebrates, and 
large river ecosystem issues. Substantial funding to address 
specific issues such as passage at individual dams is provided 
by the Army Corps of Engineers and Bonneville Power 
Administration (about $6 million in fiscal year 1998). However, 
holistic basin-wide fisheries research studies, as requested by 
our partner agencies to address the larger population decline 
questions and identify factors limiting reproduction and 
survival, have not been funded.
    Question. How does your budget compare to that of the land 
and resource management agencies that you support?
    Answer. The budget for biological research (BRD) decreased 
from fiscal year 1994 to fiscal year 1998 by 12 percent. This 
compares to the average increase of 11 percent for this same 
time period for the three land and resource management agencies 
that the research programs primarily support: the National Park 
Service, U.S. Fish and Wildlife Service, and the Bureau of Land 
Management.
    The fiscal year 1999 budget proposes to begin to bridge the 
gap in funding for science support for DOI bureaus. The budget 
requests increases of $11 million for research programs to 
address issues that are a high priority to DOI bureaus. If the 
fiscal year 1999 President's budget is enacted, the change in 
funding from fiscal year 1994 is a decline of 4 percent as 
compared to the average increase during this same time period 
for the land and resource management bureaus of 21 percent.
    Question. How does this compare with private industry 
investments in research?
    Answer. A conservative or minimum estimate of what most 
corporations spend on research and development is 10 percent of 
the total business. Using this as the goal, the BRD budget 
would be $265.7 million for fiscal year 1998 instead of $145 
million. The enacted appropriation for biological research 
(BRD) is 5.5 percent of the operational portions of the budgets 
for the three land and resource management agencies: the 
National Park Service, U.S. Fish and Wildlife Service, and the 
Bureau of Land Management.
    Question. Are the research needs of the land and resource 
agencies being met?
    Answer. Through effective resource management, the USGS/BRD 
has ensured that the land management bureaus' highest priority 
research needs are met despite the budget reductions in fiscal 
year 1995 and fiscal year 1996. There is substantial evidence 
that USGS/BRD scientists have been able to mobilize greater 
scientific resources in support of land managers, especially 
the Bureau of Land Management and the National Park Service, 
than these managers were getting prior to the formation of NBS. 
Furthermore, there is evidence that USGS/BRD scientists are 
doing a better job of focusing their remaining research 
capability on the high priority resource management issues 
through a concerted effort at all levels to coordinate, 
cooperate, and collaborate with the parent bureaus. 
Nevertheless, the increasing responsibilities and complex 
challenges confronting our land managers continue to increase 
their demand for science support. The fiscal year 1999 USGS 
budget request seeks to address this need with the proposed $11 
million increase for species and habitat research.

                         facilities maintenance

    Question. What is the deferred maintenance backlog for 
Biological Resources Division facilities?
    Answer. The deferred maintenance listing for the U.S. 
Geological Survey's Biological Resources Division (BRD) is $35 
million, which is part of the $58 million listing of deferred 
maintenance projects identified for the U.S. Geological Survey 
in December, 1997. The $58 million listing includes a 
comprehensive inventory of projects for BRD, and a preliminary 
inventory of the deferred maintenance needs for the other 
divisions in USGS. The USGS is in the process of generating a 
comprehensive listing of deferred maintenance projects for the 
entire bureau.
    Question. Is funding included in the budget adequate to 
address maintenance needs?
    Answer. The fiscal year 1999 budget request for Biological 
Research and Monitoring (BRD) includes $2.9 million for annual 
maintenance, which will enable BRD to address the most urgently 
needed health and safety repair projects. The budget request 
includes an additional $1 million to replace incinerators that 
are in violation of state air quality standards at the National 
Wildlife Health Center in Madison, Wisconsin. The incinerator 
project is the number one priority on the bureau-wide listing 
of deferred maintenance projects.
    Prior to BRD-wide rescissions and budget reductions in 
fiscal year 1995 and fiscal year 1996, the annual budget for 
maintenance was $5.3 million, which funded annual maintenance 
requirements, but did not address the deferred maintenance 
projects. internal and external customer service
    Question. Why are overhead costs charged for moving money 
between Divisions (not the case in interagency agreements)? 
What is the charge? Is this more than most institutions charge 
scientific agencies with the Federal Government?
    Answer. Effective October 1997, there are no overhead 
charges by the division transferring funding to another 
division. Only the division doing the work charges overhead.
    Question. Recently many complaints have surfaced from 
customers developing MOU's, interagency agreements, and 
research work between their agency and USGS divisions. 
Previously in BRD, these administrative functions were handled 
expeditiously. Now, customers complain that there is an 
exorbitant increase in time it takes for these matters to be 
handled. Please respond.
    Answer. We have not heard any complaints regarding the 
timeliness of interagency or MOU execution and do not believe a 
change has occurred. Authority to approve reimbursable 
agreements continues to be delegated by Division Chiefs to 
their managers. There is no bureau involvement in this process, 
and as such, timeliness should not be impacted for BRD 
customers. There have been no additional requirements imposed 
by the USGS.
    Question. Please explain why assessments charged to BRD by 
USGS for administration and housing exceed costs incurred for 
this agency when they were a separate entity. (6.2M)
    Answer. Upon the merger of the former National Biological 
Service and the USGS, agreements were fashioned to ensure that 
the administrative structure and costs of the merged bureaus 
would not result in a net loss to the funds available for 
science. Since the merger of NBS and USGS, bureau-level costs 
have increased due to the continuing rise in fixed costs such 
as salaries, Departmental services, and unemployment 
compensation. The bureau-level costs are paid for by all USGS 
programs based on a percentage of their total resources. In 
fiscal year 1996 prior to the merger, BRD's administrative 
costs were approximately 8.2 percent of their total resources. 
Currently BRD's administrative costs are estimated to be 8.0 
percent of their total resources. BRD was formerly a bureau 
with no subsidiary divisions or large organizational 
components. As such, all appropriated funding for 
administration paid all indirect costs. When BRD joined the 
USGS, they were required to fund a portion of bureau level 
costs (which include costs previously paid by BRD when they 
were a separate Bureau of the U.S. Department of the Interior) 
in addition to their division level administrative costs. As 
far as housing (space), each division, including BRD, pays for 
their own space costs.

                    office of the inspector general

    Question. Does your fiscal year 1999 performance plan 
briefly or by reference to your strategic plan identify any 
external factors that could influence goal achievement?
    Answer. Section 4 of our strategic plan references and 
synopsizes the external factors that influence our performance 
goal achievement as follows:
    Budget Constraint.--For several years, the Office of 
Inspector General (OIG) has been subject to severe financial 
constraints because of a constant erosion of its funding base. 
This erosion has resulted from a series of unfunded or 
partially funded pay increases such as ``availability'' 
payments to criminal investigators and other uncontrollable 
costs that the OIG has absorbed over the years. The erosion of 
funding has created tremendous operational challenges for the 
OIG because the challenges have occurred notwithstanding ever-
increasing statutory demands on our work load.
    Legislatively Mandated Work.--Chief Financial Officers 
(CFO) Act requirements, which are legislatively mandated, have 
increased steadily since 1993. The personnel-intensive nature 
of the CFO audits has caused a strain on audit resources, while 
the demand for CFO audit work continues to increase, including 
the implementation of the Federal Financial Management 
Improvement Act, Federal Accounting Standards Advisory Board 
Statements No. 6 and No. 8, Office of Management and Budget 
Bulletin 97-01, and the requirements of the Government 
Performance and Results Act.
    Decentralized Department of the Interior Operations.--The 
fulfillment of our statutory mandate is extremely difficult 
given our limited resources (personnel and travel funds) in an 
agency of nearly 70,000 employees located in approximately 
2,000 locations. Because the Departmental offices are highly 
decentralized, the amount of available OIG staff and travel 
funds has a significant impact on the number, scope, and types 
of audits and investigations the OIG can perform.
    Technological Advances.--With continually changing 
technology, the importance of staying up to date is critical 
but costly.
    Negotiation of Indirect Cost Rates.--In addition to our 
statutory responsibilities, audit resources are used to 
negotiate indirect cost rates with state, local, and tribal 
activities for administering Federal programs, which is a 
program function that reduces the resources available for 
discretionary performance audits.
    Question. If so, what steps have you identified to prepare, 
anticipate and plan for such influences?
    Answer. The OIG has and will continue to take a number of 
steps to compensate for the external factors identified 
previously as follows:
    The OIG has absorbed/will absorb cost increases and 
budgetary constraints through a variety of streamlining and 
cost-cutting measures, including not filling vacancies; 
reducing or co-locating office space; and reducing equipment 
maintenance agreements, printing and postage costs, and costs 
for acquisition services and General Service Administration 
(GSA) vehicles.
    The OIG provides comments on proposed legislation that 
affects its resources, but once legislation is enacted, the OIG 
must comply. As a result, resources allocated to discretionary 
audits (economy and efficiency and program results) of 
Department of the Interior programs and operations have been/
will be reduced to accommodate these mandated requirements.
    To compensate for reduced budgets and the decentralized 
operations of the Department, we have/will reduce the scope of 
our audits from that of Departmentwide or bureauwide coverage 
to field office coverage. As such, we will be frequently unable 
to project audit results nationwide. Instead, we will report 
the monetary and other impacts for the locations visited. In 
addition, we will ensure that the staff have updated computer 
equipment which allows for increased OIG and Departmental 
regional and bureau intercommunications, and when appropriate, 
we will take advantage of the teleconference and video 
conference technology to reduce travel costs.
    We attempted to transfer the indirect cost rate negotiation 
responsibility to the Department in 1989. The Indian tribes 
strongly disagreed with the transfer of this responsibility and 
Congress did not appropriate funds for the transfer. The 
Committee on Appropriations in House Report No. 101-120 
recommended that ``the function remain with the Inspector 
General. Staff from the Inspector General's office can carry 
out this function as part of their other functions.'' As such, 
we continue to perform this program function. We have not made 
subsequent attempts to transfer the function because of the 
Congressional prohibition, continued tribal opposition to a 
transfer, and the Ramah/Navajo litigation. In addition, an 
April 29, 1994 memorandum from the President of the United 
States requires consultation with all tribes before actions 
impacting contracting under Public Law 93-638 take place.
    Question. What impact might external factors have on your 
resource estimates?
    Answer. Because OIG expenditures are personnel intensive, 
the absorption of uncontrollable costs necessitated by 
budgetary constraints has the effect of a reduction-in-force, 
which impacts our mission accomplishment. The mandated 
requirements for both audits and investigations have caused 
resources to be shifted from discretionary or planned reviews. 
Audit staff have been reviewing the financial statements for 
all eight bureaus in addition to auditing the Department's 
consolidated financial statements since 1995, and the 
requirements for financial audits are steadily increasing. In 
addition, audit staff have been performing reviews in response 
to Congressional and Departmental requests. While benefit is 
gained from these reviews, the number of economy and efficiency 
and program results audits performed has declined and will 
continue to decrease as mandated requirements and requests 
increase.
    The Office of Investigations is frequently requested by the 
Department of Justice to participate in matters involving the 
alleged underpayment of millions of dollars in oil, gas, and 
coal royalties and on task forces relating to Indian gaming or 
to allegations of the misappropriation of Federal and tribal 
funds. These are areas that have been determined to be highly 
susceptible to fraud and could potentially result in a 
significant loss of revenues to the Department and the tribal 
organizations. Our investigations in these areas are labor 
intensive and travel intensive; thus, limited travel funds have 
a detrimental impact on the number of investigative activities 
conducted by our agents. Also, the Department's pursuit of 
state-of-the-art systems results in the OIG having to convert 
to compatible technology to communicate and operate effectively 
in conducting reviews of the Department's programs, automated 
systems, and activities, which is expensive.
    Question. For every dollar spent in conducting audit 
activities that identify cost savings, improve efficiency of 
Department of the Interior agencies, measure and detect waste, 
fraud and abuse, how many dollars are saved or recovered as a 
result of these actions?
    Answer. For fiscal years 1995, 1996, and 1997, the Office 
of Audits made recommendations that identified total savings in 
excess of $1 billion, or approximately 24 times the OIG audit 
budget of $42.2 million for those three fiscal years. These 
savings consisted of $382 million of funds recommended for 
better use, $548 million of potential additional revenues, and 
$78 million of questioned and unsupported costs identified by 
our audits of Department of the Interior contracts. Regarding 
OIG investigations, we provided assistance that resulted in 
recoveries of about $3 million in fiscal year 1997.
    Since 1990, OIG resources dedicated to mandated audits have 
been increasing. The number of audits requested by Congress and 
DOI management has also increased. We have honored these 
requested audits, subject to resource availability, consistent 
with the National Performance Review. Thus, the mandatory and 
requested audits, which have not typically identified monetary 
savings, have reduced the resources available to conduct 
discretionary or planned audits, which historically have 
resulted in significant savings.
    The savings and program improvements reported in the 
semiannual reports are a ``snapshot'' of OIG activities for 
that period. As such, all the savings associated with OIG audit 
activities are not captured because audit recommendations often 
result in recurring savings, cost avoidances and increased 
future revenues, which we do not routinely measure and report 
on except through cyclical followup reviews. For instance, we 
issued a March 1998 report entitled ``Followup of Offshore 
Minerals Leasing Activities, Minerals Management Service,'' 
which showed that implementation of our recommendation in a 
1993 report entitled ``Offshore Minerals Leasing Activities, 
Minerals Management Service'' generated additional oil and gas 
lease revenues estimated at $141 million for the Department 
between 1993 and 1997. We also estimated that implementation of 
the recommendation would generate another $194 million between 
1998 and 2001. Also, although we reported on savings identified 
at the audit sites we visited, Departmentwide or bureauwide 
savings resulting from implementation of those recommendations 
could not be readily determined. Finally, OIG proactive efforts 
result in cost avoidances rather than measurable savings.
    Question. Do any of the Interior agencies have the 
expertise or capabilities to ensure proper audits and detect 
waste, fraud and abuse within their own agencies?
    Answer. Although two Departmental bureaus have auditors 
(the Minerals Management Service has 201 auditors and the 
Office of Surface Mining Reclamation and Enforcement has 41 
auditors), we believe there would be a lack of organizational 
independence that is necessary to conduct ``proper audits.'' 
The Congress created the Offices of Inspector General to be 
independent offices within their agencies for the purpose of 
detecting fraud, waste, and abuse. In addition, the auditors' 
function in the bureaus has been limited primarily to fee and 
royalty compliance reviews to detect underpayments of royalties 
and fees.
    Question. As ``agents of positive change'' in what ways do 
you guide agencies to remedy problems you identify?
    Answer. To guide agencies in remedying identified problems, 
the Office of Audits (1) makes specific recommendations in our 
reports to address each identified weakness and performs 
cyclical followup reviews to assess implementation of the 
recommendations; (2) participates on task forces and working 
groups such as the Travel Re-invention Lab, Y2K committees, and 
the Management Control Council, that are designed to improve 
Government operations; and (3) responds to requests for advice 
and assistance, such as implementing new financial statements 
requirements. We continue to receive and respond to an 
increasing number of requests from auditees to lend our 
expertise proactively to various projects, programs, and 
activities with which the auditees are involved. In that 
regard, we are providing, or have provided, assistance in a 
variety of areas, including participating in Indian Self-
Determination Act rulemaking, providing oversight of the 
correction of financial accounting system deficiencies, 
participating in Departmental reinvention efforts, and 
providing an assessment of the Minerals Management Service's 
Royalty Gas Marketing Pilot Program. Also, our audit followup 
program allows us to determine how effectively Departmental 
agencies have implemented our audit recommendations and to 
provide further guidance on needed improvements in program 
operations.
    The information relating to problems identified during the 
course of investigations is communicated to agency officials in 
briefings, management implication memoranda, and reports of 
investigations. Additionally, we have proactive initiatives to 
identify programs that may be vulnerable to fraud, waste, or 
abuse and in many cases have initiated proactive investigations 
designed to detect fraud in these programs. Some of our 
proactive initiatives involve the areas of coal reclamation 
fees, environmental crimes and the government purchase card. We 
also developed an Outreach Program and an Affirmative Civil 
Enforcement (ACE) Program which focus on informing and 
educating Departmental personnel in recognizing and reporting 
suspected fraudulent activity related to their specific program 
areas. We have conducted two nationwide conferences on the ACE 
program, which were attended by Assistant U.S. Attorneys, other 
Department of Justice staff, OIG staff, and Departmental 
program personnel, including the Office of the Solicitor. Also, 
during fiscal year 1997, our special agents made 32 fraud 
awareness presentations to employees in various program areas 
within the Department. Further, the OIG has participated and 
will continue to participate on National Performance Review 
reinvention teams, such as those for travel, Y2K, human 
resources strategic planning, and tenant users activities 
covered by the working capital fund.
    Question. Please explain the cost saving measures that led 
to ``less expensive'' access to the National Crime Center? Has 
this changed or compromised your abilities in anyway?
    Answer. Until 1995, the OIG had direct access to the 
Federal Bureau of Investigation's National Crime Information 
Center (NCIC) through the Department of Justice (DOJ). However, 
in late 1995, DOJ wanted agencies to use standard equipment 
which would be leased from the DOJ for approximately $15,000 a 
year. At that time, the OIG discontinued its direct access with 
the National Crime Information Center data base. Subsequently, 
we entered into agreements with both the Rocky Mountain 
Information Network and the Regional Organized Crime 
Information Center (ROCIC) to obtain law enforcement data. Our 
current costs of approximately $250 annually provide us with 
the ability to continue to obtain law enforcement information 
without incurring the NCIC costs of approximately $15,000 a 
year with DOJ. The disadvantage of using these services are 
that (1) the data bases have less current information than the 
NCIC database and (2) on occasions, there are delays in the 
response times to queries.

                        Office of the Solicitor

                                  gpra

    Question. To what extent has GPRA been used by agency 
leadership to guide decision making? Will this use increase in 
the future and if so in what ways?
    Answer. As a support organization within the Department, 
the Office of the Solicitor's mission is to work to ensure the 
success of departmental and bureau goals and objectives. The 
Office provides legal advice to ensure that positions taken by 
the Department are legally defensible, and it provides legal 
representation to advance the Department's goals in 
negotiation, litigation, and other contexts. The Office does 
not have its own GPRA plan, but it is guided by the bureaus' 
GPRA plans and discussions with departmental and bureau 
officials in setting priorities for the Office's legal work. 
This use of GPRA will continue in the future.

                            computer system

    Question. The OTS requests $520,000 to replace outmoded 
computer and networking equipment. How much additional cost 
either in lost productivity, repairs, or additional resources 
to complete tasks, is associated with outmoded systems, no 
access to DOINET, and system failures?
    Answer. A conservative estimate is that each employee in 
the Office of the Solicitor loses an average of one to two 
hours a week due to the Office's outmoded information 
technology. That lost time translates into a direct salary and 
benefit cost of $0.8-$1.6 million per year, and the amount is 
increasing over time. Not included in these figures are more 
intangible costs such as less complete research and 
communication to assist decision makers, employee frustration 
with system limitations and breakdowns, and the lack of 
computer specialists' time to develop databases and other 
system enhancements rather than having to work full-time just 
to keep the system operational.
    Particularly in the regional and field offices, system 
failures typically mean two to three days of ``down time'' as 
problems are diagnosed, solutions are decided upon, and 
replacement equipment is configured, shipped, and installed. If 
a single workstation fails, one employee will be adversely 
affected during that period; if network components fail, the 
entire office will be adversely affected. Unfortunately, such 
failures are becoming more common as our equipment ages.
    Even when the Office's computers and networks are 
performing to full capacity, productivity is lost in a number 
of ways. Most of our computers are very slow, with limited 
memory. As a result, they often have difficulty even with the 
outmoded (and less demanding) versions of standard software 
used by the Office, and they cannot process at all the current 
(and more demanding) versions of software used by some of 
Interior's bureaus and by organizations outside the Department. 
Solicitor's Office computers frequently cannot ``read'' 
documents being forwarded to Office staff for legal review; and 
converting the documents to older software typically causes 
formatting problems that take considerable time to fix.
    The lack of DOINET connections means that most Office 
employees do not have ready access to the growing number of 
Department-wide administrative systems or the Internet. Thus 
the many research and transactional opportunities provided 
through these systems are simply unavailable to most employees. 
Examples include congressional and other agency Web pages, 
GSA's procurement system for supplies, and departmental 
personnel and management systems. In some cases, the Office has 
to do double data entry for the same transactions (e.g., 
employee time and attendance reporting), with one person who 
lacks DOINET access compiling the data for his/her location in 
one form to send to someone in another location who has DOINET 
access, and the second person re-entering the same data into a 
system connected to DOINET.

             microbes taken from yellowstone national park

    Question. What is the status of the NPS efforts to develop 
a system to control the use of microbes taken from Yellowstone 
National Park?
    Answer. To date, NPS has entered into a single Cooperative 
Research and Development Agreement (CRADA) with Diversa 
Corporation. Under the terms of this CRADA, Diversa will be 
permitted to collect small quantities of microbial samples for 
laboratory analysis. If, after replication and testing in the 
laboratory, any enzymes, elements of genetic code, or other 
substances derived from Yellowstone microbes prove to be 
commercially valuable, the NPS will receive royalties from 
Diversa.
    The rights being conveyed under the CRADA with Diversa are 
not exclusive. Approximately 20 other firms have expressed 
interest in similar arrangements at Yellowstone, and NPS will 
consider each research proposal and evaluate the opportunity to 
enter into a CRADA. In the case of the Diversa CRADA, research 
contributing to the understanding and preservation of park 
resources will be conducted and shared with Yellowstone.
    NPS has primarily relied on the Federal Technology Transfer 
Act (FTTA) as legal authority to enter into the Diversa CRADA. 
We anticipate continuing to use the FTTA as a basis for future 
agreements. This position is currently under review in federal 
district court as a result of a lawsuit filed by The Edmonds 
Institute and others, against the NPS, Edmonds Institute v. 
Babbitt, Civ. No. 98-0561 (D.D.C. filed March 5, 1998).
    Under the direction of the Science Advisor to the 
Secretary, the Department of the Interior has established a 
task force to examine issues relating to bioprospecting and 
technology transfer. Future NPS agreements will reflect any 
departmental policies that may be developed to govern 
technology transfer on the various public lands managed by the 
Secretary.

                        filming on private lands

    Question. Will the Office of the Solicitor be involved in 
determining if or how private industry will pay the Federal 
government for filming on public lands?
    Answer. The BLM, through its rulemaking process, determines 
who pays for filming on lands administered by BLM (public 
lands), what type of payment is due, when payment is due, how 
payment is made, and cost recovery requirements (43 CFR Part 
2920). The Solicitor's Office provides legal advice to the BLM 
in the formulation of these regulations. The Solicitor's Office 
does not get involved in determining if or how payment is due 
in a specific case unless the BLM seeks legal advice in 
interpreting or implementing its regulations. No fees are 
currently assessed for filming on other lands administered by 
the Department (e.g., Park System units and wildlife refuges). 
The Department has supported legislation that would authorize 
fees in these cases, and the Solicitor's Office has 
participated in drafting this legislation.

                         clean water initiative

    Question. What is the OTS role in Vice President Gore's 
Clean Water Initiative?
    Answer. The Solicitor's Office has assisted with the Vice 
President's Clean Water Action Plan by participating, along 
with its departmental clients, in various interdepartment 
workgroups involved in the development and implementation of 
the Clean Water Action Plan. Such assistance has included 
advice with respect to the preparation of workgroup papers to 
assure that such papers are consistent with applicable legal 
requirements. We anticipate that Solicitor's Office staff will 
continue to assist the Department through similar efforts on 
workgroups charged with implementing the Clean Water Action 
Plan.
    Question. The Fish and Wildlife Service Ecological Services 
program requests an increase of $2.5 million for increased 
Habitat Conservation Planning in the President's fiscal year 
1999 budget. Will any of this increase be allocated to the 
Solicitor's Office for the increased workload resulting from 
increased numbers of HCP's?
    Answer. No. The President's Budget requests increases 
totaling $12.6 million for the FWS to more efficiently and 
effectively implement the Endangered Species consultation 
program. This includes a general increase of $9.9 million for 
the FWS consultation program to conduct additional Section 7 
consultations and to work on additional Habitat Conservation 
Plans; $1.5 million to support the Interior Columbia Basin 
Ecosystem Management Project; $0.5 million to negotiate Tribal 
Treaty rights; $0.8 million for support for the Southwest 
Ecosystem Initiative; as well as uncontrollable costs. The 
President's Budget requests increases totaling $1.8 million for 
the highest priority needs of the Solicitor's Office. This 
consists of $1.0 million for uncontrollable costs (primarily 
mandated pay raises); $0.3 million for critical legal services 
in the areas of Indian trust fund management and litigation, 
tribal resource protection and management, Federal oil and gas 
development and revenue enhancement, and personnel-related 
matters; as well as $0.5 million to replace obsolete hardware 
and software for use in automated legal research, Local Area 
Networks, electronic mail, and document processing.

                       office of insular affairs

    The CNMI government appears to be fully supportive of the 
present situation regarding the use of non-citizen labor for 
garment manufacture and other services. In view of the fact 
that this workforce is almost three times the size of the CNMI 
population, this seems inconsistent with the best interests of 
this country. While it is proper to fulfill the terms of the 
Covenant, this subcommittee is not inclined to provide taxpayer 
funds for any program or purpose that would tend to support the 
current situation.
    Question. How did we get in this situation?
    Answer. In developing their Covenant agreement with the 
United States, the Northern Marianas negotiators expressed 
concern that the Federal Immigration and Nationality Act would 
permit excessive immigration to the islands from neighboring 
Asian countries that would permanently overwhelm the local 
culture and community. The Federal government, therefore, 
agreed to not immediately extend Federal immigration control. 
Ironically, CNMI policies have resulted in aliens becoming a 
majority of the island's population. These policies include use 
of low-wage temporary alien workers for permanent jobs and 
aggressive promotion of garment manufacturing.
    Question. What action is the Department taking to deal with 
these issues in the Marianas?
    Answer. The Department is taking action on three fronts. 
First, we are working with other Federal agencies to increase 
the Federal presence in the Northern Mariana Islands to deal 
with violations of Federal labor, civil rights, and criminal 
statutes. Second, we are providing technical assistance to the 
CNMI to improve their capacity to deal with these problems 
internally and to track and control the movement of alien 
workers in and out of the Commonwealth. Finally, we are 
supporting reasonable legislation to deal with the fundamental 
problems without causing irreparable harm to the CNMI economy.
    Question. The Insular Affairs budget proposes to earmark $5 
million of the $11 million in Construction funds for a prison 
in the CNMI. Do you expect the need to make further earmarks in 
future budgets to assure funds will be properly spent?
    Answer. The fiscal year 1999 budget also proposes to 
earmark $500,000 for a crime laboratory to improve the CNMI's 
capability to enforce criminal laws. Earmarks can be an 
effective tool to ensure effective use of appropriations, but 
we are not contemplating any additional earmarks at this time.
    Question. What action do you believe this Subcommittee 
should take to deal with these issues?
    Answer. We would like the Subcommittee to support our 
request to earmark funds for the prison and crime lab. We also 
would like the Subcommittee to continue supporting the terms of 
the Special Representatives Agreement for Covenant grants as 
included in Section 118 of Public Law 104-134. We understand 
that officials of the CNMI government are seeking exemption 
from the matching requirement contained in the Agreement and in 
the law. We would like the Subcommittee to support proposed 
funding levels for the Office of Insular Affairs and the work 
it performs, even if its policies may sometimes be unpopular in 
the insular areas, such as is the current situation with the 
CNMI. Finally, we would like Members of the Subcommittee to 
support legislation to correct the problems that currently 
exist in the CNMI.
    Question. Why is the CNMI government taking the current 
posture relative to reform?
    Answer. There are a number of reasons, including the fact 
that the CNMI is a small community that can be influenced, and 
possibly manipulated, by a large and economically powerful 
business, such as the garment industry. We think opponents to 
reform are using misinformation and playing on themes such as 
Federal intrusiveness to rally local officials and the public 
and keep facts from the public and the issues from being 
objectively assessed and debated.
    Question. What is the local unemployment situation in the 
CNMI?
    Answer. The 1995 census registered an unusually high 
unemployment rate for U.S. citizens of 14.2 percent, more than 
double the 6.6 percent rate in neighboring Guam and nearly 
triple the rate in the United States. Over 90 percent of 
private sector jobs in the CNMI are held by alien workers. This 
virtually unlimited supply of alien workers drives down wages 
in the private sector and discourages local citizens from 
seeking entry-level positions anywhere except government. 
Although unemployed temporary alien residents are technically 
illegal, the 1995 census showed 1,167 unemployed temporary 
residents, and documentation in the CNMI legislature indicated 
that the true figure of unemployed illegal aliens may be as 
high as 7,000.
    Question. Do you expect the legislation currently being 
considered by Congress to substantially improve the situation?
    Answer. Yes. Experience has shown that the CNMI cannot 
adequately track and control the large number of alien workers 
coming into the Commonwealth. This has led to numerous problems 
including public health problems, human rights abuses, violent 
crime, drug abuse, prostitution, poor living conditions, and 
high unemployment. The low minimum wage is a direct cause of 
high unemployment among young local workers, who are leaving 
the CNMI for higher paying jobs in Guam or the mainland or are 
opting for unemployment and food stamps.
    Residents of Enewetak state their desire to be independent 
of the current food support process. To do so, they state a 
need to purchase and maintain three backhoes in order to 
improve their ability to develop a local food source.
    Question. What action is the Department taking to 
facilitate improved self sufficiency of the Enewetak people?
    Answer. The Department is providing the resources to the 
people of Enewetak to carry out their long-term plan to 
increase food production. The Enewetak-Ujelang Local Government 
Council is implementing its Plan for the Improvement of Food 
Production on Enewetak Atoll. A recent performance review 
conducted by the USDA shows that food security from locally 
grown foods has improved markedly since the plan's adoption.
    Question. Based on population growth and the difficulty in 
developing adequate local agriculture, can it reasonably be 
expected that the food subsidy program can ever be eliminated?
    Answer. The Enewtak-Ujelang plan, initiated in 1993, 
concluded that self-reliance in food production was a realistic 
long-term goal, and could be achieved in about ten years. While 
this goal may not be met by 2003, it is reasonable to expect 
the subsidy will be eliminated at some time. The review of 
activities on Enewetak suggests that increased commitment of 
the community to plan implementation will allow the plan to 
succeed. Although the population of Enewetak grows at a high 
rate, its rate is less than that of the Marshall Islands as a 
whole. The solutions to population growth and agricultural 
production obstacles are for the Republic of the Marshall 
Islands government to carry out.

                      Minerals Management Service

                       offshore leasing activity

    The agency leasing program continues to bring increasing 
bids for offshore resources.
    Question. Has this demand for leases been affected by the 
present reduced prices for oil?
    Answer. In early 1998, oil prices fell to levels that had 
not been reached since the mid-1980's. However, as indicated by 
industry's response to Central Gulf of Mexico Sale 169 that was 
held on March 18, 1998, low current oil prices did not appear 
to inhibit bidding activity or demand for leases. In this sale, 
a total of 1,188 bids were received on 794 blocks with high 
bids totaling $810.4 million. This was the fourth largest sale 
ever held in the Gulf of Mexico in terms of number of tracts 
receiving bids and number of bids received.
    In an auction of rights to explore, develop, and produce 
Outer Continental Shelf oil resources, production of any 
discovered hydrocarbon resources does not occur quickly after a 
sale, but rather with a time-lag of five or ten years or more. 
Therefore, future price expectations are much more important in 
determining demand for leases and tract values than the oil 
price at the time of the sale.
    Question. What are the long term projections for continued 
high interest in offshore oil and gas resources?
    Answer. Long term projections are difficult to make 
accurately, due to the uncertainties regarding future prices, 
geologic potential, and cost trends.
    Oil and gas leases on the Outer Continental Shelf offer the 
oil and gas industry perhaps the most stable leasing process in 
the world. Operations on the Outer Continental Shelf are 
virtually free of political risk. The Government is unlikely to 
nationalize oil and gas activities. The lease terms and 
conditions that a lessee receives at the time a lease is issued 
stay in effect through the life of the lease, as opposed to 
some countries where the central authority may adjust terms to 
meet its changing revenue and energy objectives. This factor 
will be a positive indicator for continued high interest in 
Outer Continental Shelf oil and gas resources.
    The absolute number of tracts leased in future sales is 
likely to decline because fewer tracts will be available to 
acquire. However, if the past is an indicator of the future, as 
leases expire or are relinquished, there is a relatively high 
probability that the previously leased tracts will be re-
acquired when they later become available for leasing. Although 
the number of tracts receiving bids in Outer Continental Shelf 
lease sales likely will decline somewhat because fewer tracts 
are unleased, interest is expected to remain relatively high 
for bonus projections from future Gulf of Mexico lease sales.
    The agency has recently implemented its current five year 
plan for leasing.
    Question. Based on current demand or other reasons, does 
the agency expect any change in the current five year plan?
    Answer. Our current 5-Year Outer Continental Shelf Oil and 
Gas Leasing Program was approved in November 1996, and includes 
16 sales in 7 areas of the Outer Continental Shelf. To date, we 
have held two sales in the Western and Central Gulf of Mexico, 
respectively. We have delayed Sale 173, Cook Inlet/Shelikof 
Strait from late 1999 to 2001. The Department has determined 
under section 18(e) of the Outer Continental Shelf Lands Act 
that this delay is an insignificant revision of the 5-Year 
Program. The delay allowed the Minerals Management Service 
Alaska Region staff to complete work on the environmental 
impact statement for assessing the impact of oil and natural 
gas development in the National Petroleum Reserve-Alaska. The 
first annual review of the current 5-Year Program is scheduled 
for July 1998 and is not expected to result in any significant 
revisions to our current program.

                            west delta field

    The relationship between the Federal government and the 
State of Louisiana over the West Delta field continues to be a 
matter of contention.
    Question. What is the present situation regarding the 
extraction of natural gas from the West Delta Field?
    Answer. Both Federal and State lessees are currently 
producing natural gas and condensate from the West Delta Field. 
To date, Federal leases have produced 63,551 million cubic feet 
(MMCF) of gas and 725,071 barrels (Bbls) of condensate. State 
leases have produced 89,955 million cubic feet (MMCF) of gas 
and 1,468,134 barrels (Bbls) of condensate.
    Question. The State of Louisiana is requesting a $32 
million allocation to repay what it contends is the amount 
owed, with interest, for the drainage of natural gas from the 
West Delta fields. What is the Department's position in this 
matter?
    Answer. When Congress set the level of payment to States 
under section 8(g) of the Outer Continental Shelf Lands Act, 
Congress intended that the payment would compensate the State 
for drainage, if drainage were to occur. This is an important 
issue and one that affects all States with offshore areas that 
border leased acreage. We believe that the law is clear on this 
matter and the courts have upheld the position that 8(g) 
payments compensate States for all losses they may incur, 
including drainage.

                   national petroleum reserve--alaska

    During fiscal year 1998, MMS employees were supposed to be 
used to support the Bureau of Land Management in preparing an 
integrated activity plan and environmental impact statement for 
4.6 million acres of the National Petroleum Reserve.
    Question. What is the status of that effort?
    Answer. Minerals Management Service personnel are 
developing answers to comments on the draft environmental 
impact statement (EIS). They also are writing and editing text 
for the final environmental impact statement (FEIS). In 
addition, the coastal zone consistency determination is being 
prepared based on the description of the proposed action and 
the draft text of the final environmental impact statement. The 
Minerals Management Service's Resource Evaluation personnel are 
loading and reviewing National Petroleum Reserve-Alaska 
geological and geophysical data.
    Question. Have any MMS programs been delayed or eliminated 
as a result of this support?
    Answer. The Minerals Management Service delayed work on the 
Cook Inlet Sale 173 (originally scheduled for 1999) to 
accommodate the National Petroleum Reserve-Alaska (NPR-A) work. 
The Department wanted the National Petroleum Reserve-Alaska 
effort to be performed using the best available scientists with 
knowledge of this part of Alaska. We are trying an innovative 
``good government'' approach by teaming Minerals Management 
Service experts with the experience for evaluating such a 
project with staff in the Bureau of Land Management. Sale 173 
can still be held within our current 5-Year Plan and is 
tentatively scheduled to be held in the year 2001.
    Question. Will a similar level of assistance be required in 
fiscal year 1999?
    Answer. The final economic impact statement is scheduled to 
be completed in July 1998, so the economic impact statement 
writers will be through with their work in fiscal year 1998. If 
the Secretary decides to conduct an oil and gas sale, some 
Minerals Management Service personnel will continue to work on 
the National Petroleum Reserve-Alaska activities into fiscal 
year 1999. The Minerals Management Service will assist with 
pre-sale, sale, and post-sale leasing activities. Minerals 
Management Service personnel also will continue evaluating the 
National Petroleum Reserve-Alaska geological and geophysical 
data to prepare for the sale and would work after the sale to 
insure that fair market value is obtained for leases receiving 
bids. Most of the Minerals Management Service's fiscal year 
1999 National Petroleum Reserve-Alaska work probably will be 
completed in the first half of the fiscal year.

                royalty management program reengineering

    The agency proposes to reduce its Royalty Management 
Program by $2.4 million. Concurrently it is embarking on a 
major reengineering process of the program.
    Question. What safeguards will be in place to assure that 
the necessary controls and standards are retained to assure an 
accurate and responsive program?
    Answer. The proposed budget reduction of $2.4 million will 
be fully achieved with no adverse effects on program accuracy 
and responsiveness. This will be accomplished through reduction 
of the Royalty Management Program's financial services 
contract. While the Minerals Management Service proceeds with 
the reengineering project, it will continue to safeguard its 
ongoing controls and standards.
    The process improvements envisioned by the Royalty 
Management Program's reengineering initiative are being 
designed to ensure that overall program performance is improved 
while continuing to provide the highest levels of operational 
integrity, stability, and internal controls.
    The Royalty Management Program also maintains an aggressive 
control evaluation effort which will routinely examine 
reengineered processes to ensure the adequacy of controls and 
standards. Additionally, the Interior Office of Inspector 
General has plans to audit the reengineering effort beginning 
in fiscal year 1999 as well as to continue its heavy emphasis 
on various aspects of the program.
    Question. What is the total estimated cost of the 
reengineering effort?
    Answer. The Royalty Management Program, in conjunction with 
its technical support contractor Performance Engineering 
Corporation, developed a preliminary estimate of about $26 
million for the systems modernization contemplated by the 
reengineering effort. Implementation of the Royalty Management 
Program's new business processes and automated support systems 
is expected to begin in fiscal year 1999. The reengineering 
changes will be phased in over a two or three year period 
depending upon the implementation strategy selected.
    The Royalty Management Program has begun prototyping and 
testing its proposed new business processes. The final 
reengineering design concepts will be completed in the summer 
of 1998.
    Question. Can the effort be escalated?
    Answer. We are expecting a 2-3 year implementation schedule 
beginning in fiscal year 1999. This plan is quite ambitious 
given the complexity of the current computer system and the 
far-reaching nature of reengineering. Escalation of the 
timetable could risk program integrity.
    Further decisions regarding implementation depend partially 
upon the results of current prototyping and piloting efforts 
that will be completed in the summer of 1998.
    The 2-3 year implementation schedule provides the basis for 
the President's fiscal year 1999 budget proposal of $5.0 
million for reengineering. We estimate that additional funding 
of about $21 million will be needed to complete the 
implementation.

                          workforce retention

    The agency is experiencing some attrition of its workforce 
due to recruitment by the industry.
    Question. What steps is the MMS taking to retain its 
workforce in the face of this recruitment?
    Answer. The Minerals Management Service grants retention 
allowances (up to 25 percent of basic pay) to a limited number 
of employees who possess unusually high/unique qualifications, 
or meet special needs of the agency, and who are likely to 
leave Federal service if the allowance is not given.
    The Minerals Management Service's awards program is used to 
recognize employee accomplishments. The bureau has authority to 
grant cash awards of up to $5000. Time off awards are also 
granted frequently.
    Some new employees from outside Government are hired at 
salaries above the minimum rate of the grade. Justification is 
based on superior qualifications of the individual or special 
needs of the agency. This authority is referred to as the 
Superior Qualifications Appointment authority. Employees hired 
under this authority are more likely to stay in their positions 
because of higher than minimum rate salaries.
    College students have been converted from the Student 
Career Experience Program to permanent positions following 
graduation.
    Family Friendly initiatives are in place which enhance the 
quality of work life of employees and, therefore, aid in 
retention. Employees are encouraged to use programs such as 
Family Friendly Leave, the Family and Medical Leave Act, and 
the Voluntary Leave Share Program.
    Telecommuting is being used increasingly in offices where 
the duties of the positions lend themselves to an alternative 
work site.
    Alternative Work Schedules are in use by many employees. 
One such schedule allowing employees to work 5-4-9, meaning 
they work 5, 9 hour days one week, 4, 9 hour days the second 
week, with one day off. However, one of the days is an 8 hour 
day so that the hours equal out. Some special case offices 
allow 4, 10 hour days.
    Question. Has MMS pursued, or is it considering pursuit of 
new authorities to aid in workforce retention?
    Answer. The Minerals Management Service has considered 
across the board salary special rates but did not pursue, 
opting instead for more focused retention allowances.

                        royalty-in-kind program

    The 1998 Interior Appropriations report language directed 
the MMS to continue to test its royalty-in-kind program.
    Question. When does MMS expect to make a final decision on 
development of a RIK program?
    Answer. The Minerals Management Service has decided to 
launch three royalty-in-kind pilot projects, which will involve 
crude oil leases in Wyoming, 8(g) leases offshore Texas, and 
leases in the Gulf of Mexico.
    The start up date for the Wyoming and Texas pilots is 
October 1998; the Gulf of Mexico is October 1999.

                 government performance and results act

    Fiscal year 1999 is the first year of planning under the 
Government Performance and Results Act. The Minerals Management 
Service budget justification displays its strategic goals and a 
performance plan summary.
    Question. Are significant changes expected in the agency 
budget structure to be more reflective of the strategic goals?
    Answer. Currently, minimal changes have been incorporated 
to facilitate the transition from the ``traditional'' budget 
structure to a performance-based budget, and the Minerals 
Management Service has integrated both approaches into its 
fiscal year 1999 budget document. While the Minerals Management 
Service presents its budget in terms of activity and 
subactivity categories (e.g. Outer Continental Shelf Lands/
Regulatory), this presentation is complimented by listing 
strategic objectives associated with each activity and further 
relating these objectives to enacted and requested 
appropriations and full-time equivalent (FTE) levels. We 
believe this approach is responsive to Government Performance 
and Results Act requirements while retaining a familiar context 
for evaluating the budget submission. A Government Performance 
and Results Act crosswalk is also presented in summary fashion 
at the outset of the budget document in addition to being 
interwoven at appropriate intervals throughout the text. This 
overall approach emphasizes the relationship of and acts as a 
bridge between activities, strategic objectives, and funding.
    As the Minerals Management Service becomes more efficient 
in strategic planning and results oriented budgeting processes, 
we will share information, and work with the Department, the 
Office of Management and Budget, and Appropriations committees 
to develop the most effective way to present the agency budget.
    Question. As strategic goals and objectives become more 
integrated with day-to-day operations, what efficiencies in 
operations are estimated to occur?
    Answer. The Minerals Management Service has a clear and 
distinct mission and mission statement. The Minerals Management 
Service from its inception has embraced the strategic planning 
process in guiding, budgeting for, and executing program 
evolution and development. The Minerals Management Service 
strategic goals and objectives therefore are more reflective of 
meeting mission requirements rather than focusing on greater 
operational efficiencies. For example, some strategic 
objectives relate to insuring that fair value is received for 
public Outer Continental Shelf energy resources and to properly 
protecting Outer Continental Shelf environments--basic mission 
elements in the Outer Continental Shelf Lands Act. However, 
reinvention and reengineering teams are analyzing aspects of 
these mission processes to determine what operational 
improvements and efficiencies can be achieved.
    These efforts are likely to produce recommendations that 
could result in future strategic plan objectives and 
performance plan targets or ``stretch goals'' aimed at 
realizing significant gains in operational efficiency. The 
leasing, resource evaluation, and bid auction processes are 
among those being evaluated for improvement potential. The 
royalty management program is also deep into a reengineering 
effort which will result in a more highly integrated, process 
and outcome focused, and less costly program that is fully 
supported by state-of-the-art technology and would be viewed by 
customers and stakeholders as the best in the business.

                 technology and processing enhancement

    The agency has made extensive efforts to replace and 
significantly enhance its technology and processing 
capabilities.
    Question. What is the status of this technology upgrade 
effort?
    Answer. The Royalty Management Program has completed its 
technology upgrades to support compliance activities both in-
house and with our State and Tribal partners. Through the 
Royalty Management Program's extended network, all State, 
Tribal, and remote Royalty Management Program auditors now 
share the same desktop applications and accessibility to online 
information as their coworkers located in Lakewood, Colorado. 
In addition, the Royalty Management Program has completed 
upgrades to its Lakewood network that has allowed it to 
consolidate its many divisional Local Area Network's into a 
more cost effective centralized facility.
    geological and geophysical data acquisition
    The acquisition of geological and geophysical data was an 
issue during the fiscal year 1998 appropriation process.
    Question. What is the status of agency actions to finalize 
a proposed rule?
    Answer. The final rule for 30 Code of Federal Regulations, 
Part 251, Geological and Geophysical (G&G) Exploration of the 
Outer Continental Shelf was published in the Federal Register 
on December 24, 1997, with an effective date of January 23, 
1998.
    Question. How has industry been involved in this effort?
    Answer. Industry was involved in two ways. The first was 
through the public comment period for the proposed rule which 
was extended twice in order to ensure receipt of industry's 
comments. The first extension was from the original due date of 
April 14, 1997, to May 30, 1997, and the second extension was 
from May 30, 1997, to July 29, 1997. The second way that 
industry was involved was through two public meetings, the 
first of which was held on May 15, 1997, in Washington, D.C., 
and the second which was held on July 10, 1997, in New Orleans, 
Louisiana. We also continue to have discussions with both trade 
associations and individual companies to make sure 
implementation of the rule is working smoothly.

                       offshore mineral activity

    The MMS has responsibility for offshore minerals 
management. To date, this activity has been a minor part of 
overall MMS operations.
    Question. Does the agency expect to assess fees against 
local governments for sand and other minerals to be extracted 
from the OCS? If so, what are the projections?
    Answer. Yes, the agency expects to assess fees for sand 
from the Outer Continental Shelf. On October 31, 1994, H.R. 
3678, Section 1, Amendments. (2)(B),(a) Section 8 Amendments--
Section 8(k) of the Outer Continental Shelf Lands Act (43 
U.S.C. 1337 (K)), authorized the Secretary of the Interior to 
negotiate agreements (in lieu of the previously required 
competitive bidding process) for use of Outer Continental Shelf 
sand, gravel, and shell resources for certain specified types 
of public uses. It states:
    ``In carrying out a negotiation under this paragraph, the 
Secretary may assess a fee based on an assessment of the value 
of the resources and the public interest served by promoting 
development of the resources. No fee shall be assessed directly 
or indirectly under this subparagraph against an agency of the 
Federal Government.''
    Representative Gerry Studds, Chairman of the Committee on 
Merchant Marine and Fisheries, summed up the intent of the law 
regarding fees during his remarks on H.R. 3678 Outer 
Continental Shelf Sand and Gravel Resources, House of 
Representatives--October 3, 1994, H.10592.
    ``The bill accomplishes two important things. First, it 
makes OCS hard minerals available for public projects without 
requiring that the State, local, or Federal agency seeking use 
of the resource participate in a competitive lease sale. Under 
current law, these resources could only be made available to 
State and local governments through such a lease sale, which is 
too costly and too cumbersome. However, the minerals are not to 
be given away. The bill authorizes fees to be charged based on 
the value of the resources and the public interest served in 
developing them. This allows a tradeoff between fair market 
value of the resources and the public benefit of the projects 
for which they will be used. Second, the bill clarifies the 
jurisdiction of the Department of Interior over OCS hard 
minerals as was contemplated by Congress in 1953. However, 
Federal Agencies are not to be assessed a fee for the use of 
these resources.''
    The Minerals Management Service has prepared guidelines for 
its use in determining fees for Outer Continental Shelf sand, 
gravel, and shell resources. In October 1997, the Outer 
Continental Shelf Policy Committee adopted a resolution 
confirming their support for the negotiated agreement process 
and advised that the Minerals Management Service guidelines 
provide an acceptable approach for determining fees and is 
consistent with the Outer Continental Shelf Land Act.
    At this time, the Minerals Management Service expects that 
each year, on average, one ``medium size'' shore protection 
project would need access to Outer Continental Shelf sand. This 
project size would probably need between 600,000 and 1,500,000 
cubic yards of sand. With these volumes requested for a typical 
storm damage reduction project, Minerals Management Service 
fees generated could be about $100,00 to $300,000 per year. In 
fiscal year 1998, a fee of $198,000 was assessed for 1.1 
million cubic yards of sand for nourishment of Sandbridge 
Beach, Virginia.
    Additionally, it should be noted that a barrier island 
restoration project under consideration for Louisiana (Isles 
Dernieres) could be funded for construction under the Coastal, 
Wetlands Planning, Protection and Restoration Act. If so, a 
one-time, large volume of Outer Continental Shelf sand could be 
requested sometime between 1999 and 2001. This would be a very 
unusual project because of its size and could result in 
additional Outer Continental Shelf sand fee collections of 
$600,000 to $1,100,000 in one year only.
    Question. Does the agency expect an increased workload in 
offshore mineral activities?
    Answer. The Agency to date has an exceptionally large 
workload relative to the use of Federal sand for beach 
nourishment. Non-competitive negotiated agreements to use Outer 
Continental Shelf sand to restore coastal beaches already have 
been accomplished with Duval County, Florida, the Cities of 
Myrtle Beach and Virginia Beach, and the U. S. Navy. This work 
has involved the review and preparation of National 
Environmental Protection Agency documents and, in the case of 
Virginia Beach, the conduct of a 3-year environmental study to 
assess potential impacts prior to issuance of a lease.
    Beach restoration/coastal replenishment projects have 
traditionally relied upon the sand resources which were 
available in coastal/near shore waters. However, in recent 
years such supplies have diminished due to repeated use and 
pollution. Continual dredging in the coastal area, within the 
influence of the near shore wave base, has also resulted in 
adverse changes in the local wave climate and physical 
oceanographic regime. This has resulted in increased demand by 
coastal States, local communities, and Federal agencies for 
access to Federal sand resources. In addition, in the last 
several years, coastal storms traversing up the east coast of 
the U. S. have caused severe beach erosion and economic losses.
    The severe storm damage inflicted upon the east coast of 
the U.S., along with the environmental implications associated 
with the use of near shore sand and its diminishing supply, 
have increased the demand for offshore sand suitable for beach 
nourishment. Since studies have indicated that there is a 
plentiful supply of clean, compatible sand for beach/coastal 
restoration on the Outer Continental Shelf and that this sand 
is located in areas well beyond the local wave base and near 
shore wave climate/oceanographic regime, the Agency expects a 
significant increase in demand for access to these resources, 
and consequently, a significant increase in workload related to 
these activities.

                   production delivery infrastructure

    In addition to on-site production and exploration 
activities, there is an extensive pipeline infrastructure that 
has been in place for years.
    Question. What is the overall condition of this production 
delivery infrastructure?
    Answer. The overall condition of this production delivery 
infrastructure is very good. There are about 22,000 miles of 
active pipelines in the Gulf of Mexico. About two-thirds of 
this mileage represents natural gas pipelines and one-third 
represents oil pipelines. In all, about 26,600 miles of 
pipelines have been approved for construction, and about 4,000 
miles of pipelines have been decommissioned in accordance with 
Minerals Management Service operating regulations.
    Some have expressed concern that many pipeline segments in 
this infrastructure have outlived their original design life; 
but experience has shown that the older pipeline systems are no 
more susceptible to major failure than more recent systems. 
This is not to say that we do not need to improve pipeline 
inspection, leak-detection, or repair systems. But there 
currently does not appear to be any evidence that we should 
have major concerns about the condition of the offshore 
pipeline infrastructure.
    The greatest likelihood of a spill from any offshore 
pipeline system is from ship-pipeline interactions. These are 
usually caused by anchors being dropped on or dragged over 
pipelines. Ship-pipeline interactions usually result in very 
large spills that heavily influence spill statistics. For 
example, one such incident, February 1988, resulted in a spill 
of 15,576 barrels of oil, or about 38 percent of the volume of 
all spills of 50 barrels or greater for the period 1981 through 
1990.
    Corrosion related spills--the most frequent type of spill 
caused by aging--tend to be small. Such leaks are usually 
detected by the presence of gas bubbles or oil slick sheens 
that are highly visible. Pipeline failure statistics since 1973 
show only one spill of more than 50 barrels that was attributed 
to internal corrosion caused by aging. That spill occurred in 
1973 and was estimated to have released 5,000 barrels of oil. 
No corrosion-related spills of that size have been reported 
since, probably because of increased regulatory attention to 
operator inspections and more frequent aircraft observations to 
detect gas bubbles and oil slicks.
    Question. Are monitoring and inspection activities 
associated with these systems adequate to safeguard against 
deterioration and general hazards caused by aging?
    Answer. Yes. The Minerals Management Service closely 
monitors the leak or failure rates of all Outer Continental 
Shelf pipeline segments and may require additional inspections, 
tests, and maintenance procedures for any segment if it appears 
that the segment poses an environmental or safety risk. The 
Minerals Management Service operating regulations under 30 Code 
of Federal Regulations 250.150-164, Subpart J, contain a number 
of requirements for pipelines that serve to safeguard against 
deterioration and general hazards caused by aging.
    First, pipelines must be provided with an external 
protective coating capable of minimizing under film corrosion 
and a cathodic protection system designed to mitigate corrosion 
for at least 20 years. When pipelines are protected by 
rectifiers or anodes for which the initial life expectancy of 
the cathodic protection system either cannot be calculated, or 
for which calculations indicate a life expectancy of less than 
20 years, such pipelines must be inspected annually by taking 
measurements of pipe-to-electrolyte potential measurements.
    Second, the Minerals Management Service Regional Supervisor 
may require that oil pipelines be equipped with a metering 
system to provide a continuous volumetric comparison between 
the input to the line at offshore production facilities and the 
delivery points onshore. Such systems must include alarm 
systems that have adequate sensitivity to detect variations 
between input and discharge volumes. Other systems capable of 
detecting leaks in the pipeline may be approved by the Regional 
Supervisor.
    Third, prior to returning a pipeline to service after a 
repair, the pipeline must be pressure tested with water or 
processed natural gas at a minimum stabilized pressure of at 
least one and one quarter (1.25) times the pipeline's maximum 
allowable operating pressure for at least two hours. This 
serves to prove the adequacy of the repair and to test the line 
for other areas of weakness.
    The Regional Supervisor may require pressure testing of any 
pipeline to verify the integrity of the system when the 
Regional Supervisor has reason to believe that the line has 
been damaged or weakened by external or internal conditions.
    Finally, the Regional Supervisor may prescribe that 
pipeline operators inspect pipeline routes at regular intervals 
for evidence of leakage. The operators must maintain the 
results of these inspections for at least two years and must 
make them available to the Regional Supervisor upon request. On 
April 18, 1991, the Minerals Management Service Gulf of Mexico 
Region issued a letter to lessees and operators that provided 
guidance on various aspects of pipeline installation and 
operation. It specified that each pipeline route under the 
Minerals Management Service's regulation in the Gulf of Mexico 
must be inspected at least monthly for indications of pipeline 
leakage using a helicopter, marine vessel, or other approved 
means.
    Because corrosion tends to occur in certain areas of 
offshore pipelines, such as in risers and small well flow 
lines, specific local inspection measures and repair techniques 
have proven to be highly effective in maintaining the integrity 
of offshore pipeline systems.

                       incidents of noncompliance

    The agency-provided information to the Subcommittee during 
the fiscal year 1998 appropriation process on Incidents of 
Noncompliance (INC) shows that incidents have been increasing 
steadily since fiscal year 1994.
    Question. What is the 1997 data for INC's?
    Answer. For fiscal year 1997, total incidents of 
noncompliance is 5,265, an increase of 439 over fiscal year 
1996.
    Question. What is the future projection for noncompliance?
    Is it expected to continue to increase?
    Answer. Over the past four years, the number of incidents 
of noncompliances issued has increased. The Minerals Management 
Service has not made future projections; however, the current 
trend suggests that an increase is possible.
    As larger operators continue to move to deeper waters, 
properties in shallower waters are assigned to smaller 
operators, many who have not previously operated on the Outer 
Continental Shelf. Unfamiliarity with the operating environment 
and the operating regulations on the part of these ``new'' 
operators is expected to result in a higher level of 
noncompliance. As a result of downsizing and restructuring over 
the past several years, the industry has come to rely 
increasingly on contracting. This results in another layer of 
company policies, procedures and practices, that may or may not 
comply with the operating regulations. We have a concerted 
effort underway to impress upon the operators that they are as 
responsible for the performance of their contractors as they 
are for their own employees. Finally, the Minerals Management 
Service has been taking a more proactive role in promoting safe 
practices. We are committed to taking whatever steps we can as 
a regulator to prevent a serious accident on the Outer 
Continental Shelf which would undermine the confidence the 
American public has in the integrity of the program.
    Question. How many additional agency personnel will be 
assigned directly to inspection of operations particularly 
prone to be in non-compliance?
    Answer. We have been attempting to focus our inspection 
resources on the basis of risk. The Minerals Management Service 
inspects problem operators' facilities more often than others 
by redirecting current inspection resources. Conversely, the 
Agency intends to reduce the inspection frequency for the top 
performers.
    At this time, the level of additional follow up inspections 
of less prudent operators requires a minor number of personnel, 
and is being accommodated within the current workforce.

         Office of Surface Mining, Reclamation and Enforcement

                        clean streams initiative

    The agency proposes to increase its Acid Mine Drainage 
remediation and prevention by $2 million.
    Question. How many more Clean Streams projects will be 
accomplished with this increase?
    Answer. It is estimated that up to 30 new Clean Streams 
projects could be initiated if the proposed budget increase is 
provided. In addition, several prospective projects that 
received partial funding in fiscal years 1997 and 1998 could be 
completed with additional funding from the proposed $2 million 
increase.
    Question. With OSM's proposal to fund the Clean Streams 
Initiative from interest on the Abandoned Mine Land fund, does 
the agency expect greater support for this effort from State 
and Tribal interests?
    Answer. The States and Tribes are generally supportive of 
the proposal to fund activities related to the Clean Streams 
Initiative from interest on the AML fund. While States support 
the goals of the Clean Streams Initiative, they are concerned 
that funds for the program may affect their present and future 
``regular'' abandoned mine reclamation efforts. By taking these 
funds from the interest remaining after meeting the 
requirements of the United Mine Workers of America Combined 
Benefit Fund, the State and Tribal share of the AML fund will 
not be impacted by the Clean Stream initiative.
    Question. As experience with the Clean Streams activities 
increases, can a more beneficial leveraging ratio be 
anticipated?
    Answer. Yes. OSM anticipates a more beneficial leveraging 
of Federal funds as experience with Clean Streams activities 
increases. There are many variables which may determine the 
ratio of leveraging. These factors include the ability of 
cooperating agencies and organizations to share costs from 
their budgets, continued community support for projects based 
on improvements to their local economies and the environment, 
and the diversification of funding sources by local groups and 
associations. Increased cost-sharing and leveraging of 
appropriated funds also depends on the success of Clean Streams 
Initiative projects. Based on recent experience, it is believed 
that improvements can be made to the ratio of non-Federal to 
Federal funding.
    Question. The agency proposes to use some of the $7 million 
for other than grants to States. How much of these funds will 
be used for this purpose and what benefits can be expected?
    Answer. Of the President's request of $7 million for Clean 
Streams, $5.9 million is requested for State grants and $1.1 
million for the following purposes:
  --$650,000 for direct cooperative agreements with local groups, 
        especially watershed organizations, to support local acid mine 
        drainage reclamation projects;
  --$100,000 for non-coal mining related reclamation work under the 
        Western Mine Land Restoration Partnership;
  --$150,000 for a position and support costs to aid State and local 
        watershed groups in partnering and leveraging human and fiscal 
        resources for stream restoration projects; and
  --$200,000 for the National Mine Reclamation Center for work on the 
        Acid Drainage Technology Initiative, a cooperative effort of 
        industry, government, and academia to compile ``best science'' 
        solutions to acid mine drainage problems and to refine methods 
        for predicting acid mine drainage.
                     western mine land partnership
    The OSM proposes to initiate the Western Mine Land Partnership with 
a budget request of $100,000. This program is modeled to a large degree 
after the Clean Streams Initiative.
    Question. How will other agencies such as the Bureau of Land 
Management, National Park Service, and Forest Service be involved in, 
and contributing to, this effort?
    Answer. On June 22, 1996, the Department of the Interior and the 
Western Governor's Association agreed to work together to develop the 
Western Mine Restoration Partnership (WMRP) to jointly pursue the 
restoration of abandoned hardrock mines. Members of the WMRP include 
representatives of OSM, BLM, National Park Service, the Forest Service, 
the USGS and EPA. Since June 1996, the WMRP has developed a Partnership 
Agreement and an Action Plan that calls for coordination among all 
parties. This coordination will be continued through the development of 
projects pursuant to this proposed funding.
    Question. How will project funding occur?
    Answer. The funding will be used for practical, effective on-the-
ground reclamation of abandoned mines. Efforts will be made to leverage 
funds with private interests and local governments and State AML 
programs. The objects for each project will be to eliminate safety, 
health and environmental hazards.
    Question. What are future budget request projections for this 
program?
    Answer. The $100,000 proposed for fiscal year 1999 is a relatively 
small amount. OSM will attempt to demonstrate effective results 
achieving reclamation and involving State and local entities in each 
project. The results will be assessed toward consideration of future 
funding.
                         minimum state program
    The Abandoned Mine Reclamation Act of 1990 establishes a minimum 
State grant funding level of $2 million per State. However, since 
fiscal year 1995 funding for the program has been limited to $1.5 
million per State. Several States point out that the AML fund balance 
is increasing.
    Question. What is the Department's position on increasing the 
funding level to the authorized minimum of $2 million?
    Answer. OSM is confident that the Minimum Program States could put 
any such increase to good use doing additional reclamation projects. 
The States support such an increase, but only if the funding for the 
Abandoned Mine Lands (AML) program is increased at least to cover the 
increased minimum program funding. If the minimum program level were 
raised without increasing the AML grant appropriation, non-minimum 
program States and Tribes receiving Historic Coal Share funds would be 
impacted. The four States with the largest historic coal production 
percentage which would suffer the greatest negative impact are 
Pennsylvania, West Virginia, Illinois, and Kentucky.
                       applicant violator system
    Last year the agency had to curtail its use of the Applicant 
Violator System.
    Question. How has OSM modified AVS procedures to make the system 
operational?
    Answer. Use of the AVS was not curtailed as a result of a recent 
court decision, only the application of recommendations in some 
instances. The State and Federal permitting authorities continue to use 
information available only by way of the AVS on all permitting 
decisions. OSM provides over 4,000 recommendations from the AVS to 
permitting authorities annually.
    The court decision directed OSM to discontinue providing permit 
``DENY'' recommendations to permitting authorities based on entities 
linked to violations ``upstream'' from the applicant. On May 14, 1997, 
OSM issued a System Advisory Memorandum explaining the change and 
effects of the court decision on AVS recommendations. Since that date 
OSM has determined that 1,187 recommendations were based on violations 
linked by ``upstream'' relationships to applicants and informed the 
requesting permitting authority of these findings.
    Question. When will final regulations be in place?
    Answer. OSM has assembled a team of employees to re-design 
ownership or control and related regulations. This team has conducted 
extensive outreach with OSM's stakeholders and has completed a first 
draft of the regulatory changes. OSM plans to complete its review of 
the draft, incorporate modifications as required, and issue a proposed 
rule by the summer of 1998. A final rule will be published as soon as 
possible following normal rulemaking procedures.
                   impact of coal production decrease
    Decreasing coal production has apparently affected the State's 
ability to fund their regulatory programs.
    Question. How has this affected OSM programs?
    Answer. Since OSM must match State program regulatory costs, there 
is continual coordination with individual States. OSM utilizes the 
States' grant requests to develop its annual budget request for State 
regulatory grants. As a result of the program coordination and OSM's 
re-engineered grants and performance review processes, OSM is able to 
meet the States' grants needs.
                              gpra impact
    The OSM was a leader in integrating its budget structure with GPRA 
strategic goals.
    Question. How is this new structure working?
    Answer. Very well. During fiscal year 1997, OSM dual-coded its 
obligations. Obligations were coded under the existing budget structure 
as well as the proposed budget structure. Questions as to which program 
activities certain workloads and efforts should be classified under 
were resolved, the need for additional account codes was identified 
where appropriate, and minor adjustments to the accounting system were 
made to simplify coding and reporting obligations under the new budget 
structure. This effort allowed OSM to resolve any problems before the 
new budget structure became effective in fiscal year 1998.
    Question. Does the agency expect to recommend changes in the GPRA 
or the structure in the near future to more closely represent the 
agency mission?
    Answer. At this time, OSM expects to make no significant changes in 
its strategic goals or budget structure. Based on actual data collected 
in fiscal year 1998 and questions raised by outside readers during the 
fiscal year 1999 Budget Justification/Annual Plan review, OSM may 
clarify some of its performance measurements and adjust some of the 
outyear estimates for some of its goals, but not the overall goals 
themselves. OSM strategic goals are reflective of the Bureau's mission.
                                 ______
                                 
               Question Submitted by Senator Ted Stevens
    A major contribution to domestic energy security could come from 
the National Petroleum Reserve of Alaska, which the Energy Department 
estimates could hold 5.5 billion barrels of reserves. In February of 
1997, your Bureau of Land Management sought comment on a draft 
environmental impact statement and a plan of action for leasing up to 
4.2 million acres in what is known as the northeastern planning area of 
NPR-A. At that time BLM also said that a final record of decision on 
leasing in the planning area would be made by August 1998.
    Question. Are you and the Department still committed to that August 
1998 deadline for making a final decision on leasing in NPR-A?
    Answer. The current schedule calls for the Final EIS by the end of 
July with the ROD by the end of August. The comment period for the 
Draft EIS was extended from 30 days to 60 days.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
    Your Department, namely the Bureau of Land Management, has been 
discussing the possibility of purchasing a private property and a 
conservation easement north of Yellowstone National Park. In fact, $13 
million has been included in the supplemental LWCF account for this 
property. ($6.5 million within the Forest Service and $6.5 million 
within the BLM). Last month, the White House Council on Environmental 
Quality hosted a meeting with livestock producers and animal health 
authorities from various states to discuss this issue and how it 
relates to the management of the brucellosis infected Yellowstone 
National Park Bison herd. At the meeting, federal authorities stated 
that this land acquisition would be a major part of the solution to the 
bison situation.
    Question. How does this land acquisition address eradication of the 
disease, something your department has advocated for decades?
    Answer. The Department of the Interior is currently involved in 
negotiations to acquire a portion of the Royal Teton Ranch (RTR) which 
lies directly north of Yellowstone National Park and is owned by the 
Church Universal and Triumphant (CUT). This potential acquisition is 
part of an overall scheme for the long-term management of bison in the 
greater Yellowstone area. The development of a long-term bison 
management plan was necessitated by several factors, most notably, the 
need to provide adequate winter range for bison while simultaneously 
protecting Montana's brucellosis class free status, and working toward 
the eradication of brucellosis.
    The Department of the Interior has been working closely with the 
State and remains committed to continue working with the State toward a 
mutually acceptable manner of reaching these objectives. To that end, 
on June 5, 1998, the State of Montana, the U.S. Forest Service (USFS), 
and the U. S. Department of Interior (USDOI) intend to release for 
public comment a draft Environmental Impact Statement (EIS) on the 
Long-Term Bison Management Plan. This EIS was mandated by a settlement 
agreement in Montana v. U.S. which was signed by the State Montana, 
USDOI, and USFS on November 2, 1995. The draft EIS includes various 
alternatives that would provide bison winter range, protect the State 
of Montana's class free status, and move toward the eradication of 
brucellosis.
    The draft EIS Preferred Alternative anticipates the acquisition of 
lands both north and west of Yellowstone National Park for special 
management areas (SMAs) and the Department, therefore, is working with 
the Animal and Plant Health Inspection Service (APHIS), USFS, the 
State, and the CUT to develop an acquisition proposal that will also 
meet the dual goal of providing bison winter range while protecting 
Montana's brucellosis class free status which will directly enhance the 
eradication of brucellosis.
    It should be further noted that the Department of the Interior 
remains completely committed to working toward the eradication of 
brucellosis irrespective of the EIS, and is currently reviewing all 
possibilities for an increase and acceleration of research on the 
development of a safe and effective vaccine that would prevent 
brucellosis in wildlife. We are also coordinating with USFS, APHIS, and 
the Greater Yellowstone Interagency Bison Committee to make certain 
that all of our resources are utilized in the most efficient and 
expedient manner.
    Your agency's discussion about the land north of Yellowstone 
National Park does not simply deal with an acquisition of fee title. 
The proposed package includes purchase of land, exchange of lands, and 
a conservation easement for wildlife. The details of these are not 
clearly defined. I have two questions:
    Question. How is the Gallatin National Forest going to pay for the 
increased amount of responsibilities of the new land, especially in 
light of Region One's current budget constraints?
    Answer. This question would be more appropriately answered by the 
Forest Service as part of its hearing record.
    Question. How do you plan on including the Montana delegation and 
the Governor in these discussions?
    Answer. The draft Memorandum of Understanding between the BLM and 
the Forest Service indicates that the Forest Service will continue as 
the lead Federal agency in maintaining contacts and discussions with 
the Montana congressional delegation and the Governor.
    Question. What authority does the Bureau of Land Management or the 
Forest Service have for the purchase of this land?
    Answer. The BLM's authority for its Royal Teton Ranch acquisitions 
comes from the Federal Land Policy and Management Act and the Land and 
Water Conservation Act. Both laws provide for the acquisition of lands 
which are primarily of value for outdoor recreation.
    The Royal Teton Ranch project clearly furthers outdoor recreation 
purposes by supporting crucial habitat for antelope, bighorn sheep, 
bison, elk, and grizzly bear. The anticipated purchases would offer 
critical public access to the Gallatin National Forest from the west 
side of the Yellowstone Valley.
    Question. It is my understanding that states still own the water in 
their states, yet I recently heard that your agency has decided to 
change that.
    The Bureau of Reclamation recently filed a quiet title suit in 
federal court related to the Elephant Butte project in New Mexico and 
Texas. In that suit, the Bureau asserts that they not only own the 
water rights associated with this project, they also assert that they 
are sovereign owner of waters flowing in the Rio Grande in both Texas 
and New Mexico. Is this correct?
    Answer. While it is correct that, in June 1997, the United States 
filed a civil action to quiet title in its water rights for the Rio 
Grande Project, your description of the Bureau of Reclamation's 
position in that lawsuit is incorrect.
    The Rio Grande Project, which was authorized in 1905, extends from 
the headwaters of Elephant Butte Reservoir in New Mexico to Fort 
Quitman in Texas. In operating the Project for the purposes authorized 
by Congress, the United States relies upon water stored in Project 
facilities, return flows, and inflows to the Rio Grande in both New 
Mexico and Texas. When water stored in Elephant Butte Reservoir is 
released, it is intermingled with project return flows and with inflows 
to the Rio Grande. These intermingled sources of water are then 
diverted for use in New Mexico, Texas, and Mexico. These sources 
together enable the United States to meet the Project delivery 
requirements of approximately 931,841 acre-feet per annum under normal 
conditions, including the United States' treaty obligation to Mexico. 
The operation of the Project is further subject to the requirements of 
the Rio Grande Compact of 1939 between the United States, Colorado, New 
Mexico, and Texas.
    In January 1906, in accordance with Section 8 of the Reclamation 
Act of 1902, the United States filed notice with the New Mexico 
Territorial Irrigation Engineer of its appropriation of water for the 
Rio Grande Project. Thus, the United States' claim to ownership was 
acquired through appropriation, filed in conformity with the laws of 
the then Territory of New Mexico, and, with the exception of the water 
for Mexico, not as a consequence of the sovereignty of the United 
States. Reclamation's position in the lawsuit is that the United States 
is the legal title holder of the water rights appropriated for the 
Project, subject to the rights of the water district and the 
landowners. The users of such water own a beneficial property interest, 
provided their use is consistent with the terms of their contracts and 
applicable law.
    Question. In July of last year, U.S. Fish and Wildlife Service and 
the EPA released a draft MOU which would require all states with 
delegated NPDES permit programs to enter formal Section 7 consultations 
with the U.S. Fish and Wildlife prior to issuing any NPDES permits. 
This would appear to give Fish and Wildlife Service veto power over the 
issuance of point of source discharge permits in every state. Is that 
what your agency intends to do?
    Answer. The draft Memorandum of Agreement (MOA), was based on 
interagency negotiations between the Environmental Protection Agency 
(EPA), the National Marine Fisheries (NMFS), and U. S. Fish and 
Wildlife Service). Negotiations were conducted over six months and the 
draft was sent to the regional offices of FWS, NMFS, and EPA for 
internal review. A number of misconceptions about the document, which 
is still under negotiation, have since emerged. There was never any 
intention on the part of FWS and NMFS to establish any ``veto power'' 
over state-issued NPDES permits. The draft MOA is strictly a 
coordination mechanism between federal agencies and does not impose any 
obligations or requirements on states, tribes, or permit holders.
    The role of FWS and NMFS is to comment on state-issued draft 
permits under existing Clean Water Act (CWA) regulations as part of the 
federal review necessary to ``avoid substantial impairment of fish, 
shellfish, and wildlife resources'', including threatened and 
endangered species, under 40 CFR 124.59 (b). EPA may object to a permit 
under existing CWA authority if a permit does not support the objective 
of the CWA ``to restore and maintain the chemical, physical, and 
biological integrity of the Nation's waters'', including the goal of 
providing water quality which provides for the protection and 
propagation of fish, shellfish, and wildlife. Where a federal action 
occurs, such as the EPA approval of a State's assumption of NPDES 
permitting authority, EPA approval of new or revised water quality 
standards, or EPA's issuance of NPDES permits where state assumption 
has not occurred, the Endangered Species Act (ESA) requires 
consultation with the FWS and NMFS if listed species may be affected by 
the action. The ESA further prohibits all federal agencies from taking 
any action that will likely jeopardize the continued existence of a 
listed species. EPA has consulted numerous times with the FWS and NMFS 
on this basis in relation to CWA programs.
    Separate consultations on state-issued NPDES permits is not the 
goal or the purpose of negotiations on the MOA. Where endangered 
species impacts are identified, the FWS and NMFS will work with the 
state and EPA to lessen such impacts. If the FWS and NMFS determine 
that a NPDES permit is likely to jeopardize a listed species and EPA 
agrees, EPA may use its existing authority under the CWA to review the 
permit and federalize it.
    Question. Under what statutory authority did they claim this?
    Answer. As stated in the answer to the previous question, there was 
never any intention on the part of the FWS to establish any veto power 
over state-issued DES permits.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                 the mescalero apache school situation
    In 1954, the Mescalero Elementary School was built with BIA funds. 
It became a BIA funded public school through the Tularosa Public School 
system. This K-6 elementary school was destroyed by arson in 1990. The 
Tularosa school system collected the insurance and the BIA helped with 
temporary facilities.
    The Mescalero Apache Tribe is now seeking funds for the 
construction of a new K-12 school to serve the entire reservation. I 
understand that the BIA is again responsible for the school, and I am 
very interested in verifying its status as a BIA school, and the 
possibility of its becoming a priority for BIA replacement and new 
construction funds.
    The destruction by fire is normally a cause of high priority 
consideration by the BIA, and I do not yet understand why the Mescalero 
Apache school has not been made a priority in the BIA replacement 
school construction program.
    Question. Your assistance in clarifying this matter will be greatly 
appreciated.
    Answer. The Mescalero Tribe leased land for a nominal fee ($1.00) 
to the State of Mexico for a 25 year period. During this period, the 
local school district located, constructed, and operated a public K-6 
grade elementary school on this reservation land. The annual lease 
subsequently expired with no new lease agreement being reached. To 
provide a thorough review of the situation, a chronology of events 
follows:
    February 18, 1990.--The Mescalero Public School burned down.
    February 19, 1990.--The Mescalero Apache Tribe passed Resolution 
No. 90-5 in support of the Tularosa Public School Board of Education 
and requested portable classrooms from BIA and the State.
    May 20, 1990.--The Albuquerque Area Education Administration 
notified the Tribe that no funds were available from Office of Indian 
Education Programs (OIEP) for the emergency.
    August 6, 1990.--The Office of Construction Management (OCM) met 
with Tribal Representatives and agreed to have a Technical Team 
determine whether the Tribal community center was suitable for 
conducting classes in school year 1990-91. The Tularosa School District 
had used the community center during part of school year 1989-90. The 
building was found to be seriously deficient for use as a school. The 
Facilities Management and Construction Center (FMCC) looked at options 
to upgrade tribal buildings or acquire portable classrooms.
    August 6, 1990.--The Mescalero Apache Tribe passes Resolution No. 
90-28, indicating that the Tribe and school district have failed to 
reach an agreement on location and operation of a public school. The 
school district proposed to build a new school located off tribal 
lands, which would have required student busing and included other 
public students. The Tribe asked BIA to assume operational 
responsibility for a proposed tribal school in 1990-91.
    August 15, 1990.--Plans for a steel building to be purchased and 
erected by the Mescalero Tribe were transmitted to FMCC for review.
    August 16, 1990.--A meeting was held regarding the school between 
the Secretary of the Interior, Manuel Lujan; Assistant Secretary for 
Indian Affairs, Eddie Brown; and President of Mescalero Apache Tribe, 
Wendell Chino. The Department/BIA position was that BIA would not 
support taking over the education program from the Mescalero Tularosa 
School District until an agreement was reached to operate an accredited 
public school.
    August 22, 1990.--Letter to Assistant Secretary for Indian Affairs 
from Albuquerque Area Director requesting $387,000 to renovate tribal 
building for classrooms (building purchased by Tribe).
    August 24, 1990.--The Assistant Secretary for Indian Affairs sent a 
letter to the President of the Mescalero Apache Tribe specifying 
conditions for granting assistance to tribal schools. The Tribe 
independently obtained facilities and hired teachers for the 1990-91 
school year.
    October 9, 1990.--Mescalero Apache Tribe submitted an interim 
application for Tribally Controlled Grant School (Public Law 100-297).
    April 4, 1991.--A letter was sent from the Assistant Secretary for 
Policy, Management and Budget to the Appropriations Committees bringing 
the committees up to date on the school. At this time, no agreement 
existed between the Tribe and public school district and the Tribe had 
obtained and erected a building for 250 students.
    April 11, 1991.--OIEP approves Mescalero School to become a BIA 
funded school, effective July 1, 1991. BIA requires that safety 
deficiencies be corrected at the school prior to occupation.
    Nov. 25, 1991.--Mescalero Apache submitted an application to BIA 
for new school construction.
    January 6, 1993.--Federal Register Notice for ``Education 
Facilities Construction Priority List of fiscal year 1993'' was 
published. Mescalero's application for fiscal year 1993 was considered, 
however, because the school was not a Bureau owned or operated facility 
when it was destroyed by fire, the application did not receive a high 
ranking on the priority system. The application was evaluated along 
with 66 other requests. Only the top five schools were added to the 
1992/93 priority list which resulted in 16 schools total.
    The Bureau is concerned about Mescalero and other schools where 
students are being educated in classrooms that do not meet code 
requirements or modern standards. In recognition of the Mescalero 
Tribal School's needs, the BIA's Education and Facilities programs 
provide funding for the annual operation of the school. However, 
because the replacement school priority list was frozen by Congress in 
fiscal year 1993, the BIA cannot provide replacement school funding at 
this time.
    The BIA anticipates completing the list of 16 prioritized schools 
in the year 2001 or 2002. The Facilities Management and Construction 
Center and Office of Indian Education Programs, at the direction of the 
Assistant Secretary for Indian Affairs, are currently reviewing 
completion of the replacement school projects and looking at a new 
replacement school application process. Depending on appropriation 
levels, the Bureau anticipates being able to solicit replacement school 
applications when the new process is established in 1999. This will 
provide Mescalero with the opportunity to compete for a replacement 
school in a national prioritized ranking process.
                 southwest fisheries technology center
    Since 1993, this Subcommittee has been supportive of this Center. 
When completed, it will be the only facility in the nation dedicated 
exclusively to the breeding and stocking of native, threatened, and 
endangered fish. To date, Congress has appropriated $20 million to 
rehabilitate the Dexter Fish Technology Center, and to construct the 
Mora unit. It is time to complete these facilities.
    In fiscal year 1998, this Subcommittee provided $2 million to 
complete phase three construction at the Mora unit, plus an additional 
$500,000 in operations funding to open the facility. At the Dexter 
unit, there remains a need for $3.3 million to bring the facility 
completely online. This includes $2.9 million to complete phase 3 
construction, $200,000 to purchase laboratory equipment, and $227,000 
additional operations funding to fully staff the facility.
    Question. Please give the Subcommittee an update on the status of 
these two units. Does the administration foresee completion of the 
rehabilitation of the Dexter unit this year?
    Answer. The status of construction for the Mora and Dexter units of 
the Southwest Fisheries Technology Center is presented below.
    In fiscal year 1998, the $2,000,000 provided for the Southwest 
Fisheries Technology Center is being used to complete construction at 
the Mora unit. In addition, $500,000 in operating funds were provided 
for start-up operations at Mora. These operating funds have been 
annualized in Service's fiscal year 1999 budget request. The Mora 
management plan, however, assumes $650,000 in annual optimal operating 
expense to fully staff the facility in the future. However, this 
additional funding was not included in the President's Budget request 
for fiscal year 1999 and is not a priority for the Department.

                       SOUTHWEST FISHERIES TECHNOLOGY CENTER--MORA UNIT STATUS--APRIL 1998
----------------------------------------------------------------------------------------------------------------
                                                             In thousands
                                   Fiscal  -----------------------------------------------
    Construction/operations         year                      Construction      Optimal           Remarks
                                            Appropriations     completed?       funding
----------------------------------------------------------------------------------------------------------------
Phase I and II, planning, site        1990         $1,000   Yes.............  ...........  $15,720 sequestered
 work, well fields, and               1991          3,000                                   in fiscal year 1991
 building shells for fish             1992          5,000                                   $63,000 sequestered
 production and storage.                                                                    in fiscal year 1992.
Phase III, equipping buildings        1997          2,705   No..............  ...........  To be completed in
 and related facilities.                                                                    the fall of 1998.
Phase III, hatchery and wet lab       1998          2,000   No..............  ...........  Construction to begin
 building, equipment, and                                                                   in fiscal year 1999.
 paving.
Operating funds to fully staff.       1998            500   ................         $150  .....................
                                           ----------------                  -------------
      Total....................  .........         14,205   ................          150  .....................
----------------------------------------------------------------------------------------------------------------

    Funding for the third and final phase of the construction 
at the Dexter unit is not included in the fiscal year 1999 
President's Budget. Currently, the FWS estimates that 
$2,863,000 would complete rehabilitation of the facility, as 
well as $200,000 to purchase laboratory equipment. However, the 
Department has placed a priority on using limited construction 
funding to reduce existing inventories of critical health and 
safety projects or for mission critical priorities. The FWS 
estimates that $227,000 in annual operating funds would fully 
staff the facility. However, this additional funding was not 
included in the President's Budget request for fiscal year 1999 
and is not a priority for the Department.

                      SOUTHWEST FISHERIES TECHNOLOGY CENTER--DEXTER UNIT STATUS--APRIL 1998
----------------------------------------------------------------------------------------------------------------
                                                             In thousands
                                   Fiscal  -----------------------------------------------
    Construction/operations         year                      Construction      Optimal           Remarks
                                            Appropriations     completed?       funding
----------------------------------------------------------------------------------------------------------------
Phase I, and part of phase II         1993         $1,428   Yes.............  ...........  $12,138 was
 hatchery building, and               1994  ..............                                  sequestered in
 administration lab building.         1995          2,200                                   fiscal year 1993.
Balance of phase II storage/          1997            961   No..............  ...........  Construction to begin
 maintenance building.                                                                      fall 1998.
Phase III, outdoor fish          .........  ..............  No..............       $2,863  Phase III will
 raceways, earthen research                                                                 complete
 ponds, paving/landscaping at                                                               construction.
 buildings.
Specialized lab equipment......  .........  ..............  ................          200  Equipment needed to
                                                                                            identify and
                                                                                            maintain
                                                                                            biodiversity.
Operating funds to fully staff.  .........  ..............  ................          227  .....................
                                           ----------------                  -------------
      Total....................  .........          4,589   ................        3,329  .....................
----------------------------------------------------------------------------------------------------------------

                       indian school construction

    Question. Mr. Secretary, the recent GAO report about Indian 
school repair needs concludes that $754 million are needed to 
clear up the entire backlog of BIA school repair needs, and 
bring these BIA schools into code and instructional compliance 
with modern standards. In a footnote to that figure in the GAO 
report, it is noted that eight schools on the construction 
priority list would cost about $112 million to replace.
    I have also heard that if we replace the 50 percent of BIA 
schools that are over 30 years old, the replacement costs would 
be about one billion dollars, leaving about $200 million in 
repair costs for the other half of newer BIA schools. I am 
seeking your assistance in verifying these estimates.
    Answer. If $37.4 million is appropriated in fiscal year 
1999 for the three replacement schools requested in the 
President's fiscal year 1999 Budget, five schools will remain 
on the current school replacement priority list at an estimated 
cost of $89.4 million.
    The Bureau estimates that it would cost, at a minimum, $1.0 
billion to replace the 50 percent plus of Indian schools that 
have exceeded their design life, are in various stages of 
deterioration, and do not meet modern educational needs nor 
current building codes or standards. Further, it is estimated 
that it will take an additional $200 million to bring the 
schools that would not be replaced up to present standards. We 
are in agreement with the figures that you are using, however, 
once the modernization effort the Facilities Management and 
Construction Center has undertaken to update the facilities 
backlog and validate information is completed, more accurate 
cost estimates and other statistics relating to building repair 
and replacement will be available.
    Question. I am also interested, Mr. Secretary, in 
clarifying the BIA's responsibility for the Tribally Controlled 
Community Colleges (26) in terms of repair, rehabilitation, and 
replacement. I would also like to know more about the BIA 
operated post-secondary schools, namely, Haskell and SIPI (the 
Southwestern Indian Polytechnic Institute) and your plans for 
their campuses.
    Answer. Title 1 of the Tribally Controlled Community 
College Assistance Act, as amended, authorizes grants to the 
TCCC's to defray expenditures for academic, educational and 
administrative purposes, and for the operation and maintenance 
of all the TCCC's. However, given the funding constraints, the 
Department's priority has been the safety of elementary and 
secondary school students in schools funded by the BIA. The 
Bureau's facilities program does not provide construction 
funding for repair or rehabilitation of the 26 Tribally 
Controlled Community Colleges. Due to the large backlog in 
facilities improvement and repair, as well as for replacement 
school construction, the Department must continue to focus on 
improving elementary and secondary schools.
    Haskell and SIPI were operated by the BIA prior to 
enactment of the Tribally Controlled Community College Act and 
have always been Federally operated schools, and therefore the 
responsibility of the Secretary. As Federal installations, each 
school has had facility improvement projects approved by the 
Secretary and funded by Congress. Both Haskell and SIPI are in 
the process of improving and implementing master facility plans 
for their respective campuses. In fiscal year 1998, Haskell 
received over $7 million in FI&R funding, and for fiscal year 
1999 FI&R funding has been requested for several buildings on 
the SIPI campus.
    Question. It has been my experience that Crownpoint 
Institute of Technology (CIT) has had a most difficult time 
qualifying for either operational or capital funds from the 
BIA. Your assistance in bringing CIT into the normal budgeting 
process of Interior would be most helpful to CIT's future 
stability.
    Answer. Crownpoint Institute of Technology is not presently 
being funded by either OIEP or the Bureau's facilities program. 
The Bureau has not funded CIT to date, because the BIA's 
limited amount of tribal college funding may be used to support 
only one college per tribe. The BIA already funds Dine College 
on the Navajo Nation.
    Question. My current estimates for physical improvements at 
all BIA school facilities total $1.5 billion. This includes the 
$1.2 billion I mentioned for elementary and secondary schools. 
At this time, I believe the BIA is estimating about $300 
million for the Tribally Controlled Community Colleges, SIPI 
and Haskell (no estimates exist to my knowledge for CIT). I 
would appreciate your assistance in updating these estimates, 
both for the elementary and secondary schools and for the post-
secondary Indian colleges and vocational schools I have 
mentioned.
    It is difficult, Mr. Secretary, for us to budget for these 
schools without the full picture of their relationship with the 
BIA and the outlook for their future funding.
    Answer. The estimates noted in the question are, in 
general, accurate at this time. In December 1997, the 
Facilities Management and Construction Center ran a summary of 
backlog items that address the estimated cost necessary to 
bring the existing facilities up to current national codes and 
standards (national fire code, electrical codes, etc.). This 
summary does not include the cost of replacing facilities. In 
the case of education facilities, the summary shows a backlog 
of $695 million for elementary and secondary, plus $64 million 
for education quarters, or a total of nearly $760 million for 
education facilities. However, more than 50 percent of our 
existing schools are 30 years old or older, and have exceeded 
their design life expectancy. It is anticipated that many, if 
not all of these schools, will need to be replaced in the near 
future. The Bureau's facilities program does not provide 
construction funding for repair or rehabilitation of the 26 
Tribally Controlled Community Colleges. However, the Bureau's 
facilities program has funded repair, rehabilitation, and 
replacement construction for Haskell and SIPI, which are 
included in the above estimates.
    FMCC is currently modernizing the computerized facilities 
backlog program and has also begun an effort to pilot test 
sites as part of a total validation effort to update code and 
standard items contained in the backlog. Once these exercises 
are completed in the next several years, the Bureau will be 
able to provide Congress with more accurate and current 
statistics and costs. The Bureau will also be better able to 
determine which schools need to be replaced and which can be 
repaired and rehabilitated based upon cost benefit 
considerations.
    One of the issues BIA faces is expanding student 
enrollment, which has necessitated immediate solutions in most 
cases, such as the provision of portable classrooms. This, of 
course, is a temporary fix and does not address permanent 
requirements at the schools. Since the early 1990's, enrollment 
and new program requirements are increasingly reflected in 
hundreds of thousands of additional square feet of education 
space being added to the construction and maintenance 
inventory. As a consequence, when replacement schools are 
constructed, they require a substantially larger footprint than 
existing schools. This scenario is reflected in part by the 
current estimate of $1.0 billion for replacement construction 
versus $695 million to bring existing schools up to current 
standards and codes.
    Question. In addition to the physical facilities, I am 
anxious to know about BIA plans for improving the per pupil 
expenditures at BIA schools. As you may be aware, Indian 
colleges average $2,900 per student for operating costs, 
compared to $6,200 for most American colleges. Your suggestions 
and assistance to help us bring these Indian colleges up to a 
higher level of reliable funding would be most helpful. There 
is a similar situation among the elementary and secondary 
schools, and your plans for improving the educational situation 
for Indian children are of great interest to me.
    Answer. The Bureau plans to increase per pupil expenditures 
in elementary, secondary and post-secondary schools, while, at 
the same time, requiring more accountability in the management 
of school programs. In terms of improving per pupil 
expenditures at the Tribal Colleges, the Bureau is proposing a 
$5.5 million funding increase in its fiscal year 1999 budget 
request for operating grants from $28.8 million in fiscal year 
1998 to $34.3 million in fiscal year 1999. If the $5.5 million 
increase is appropriated in fiscal year 1999, the Bureau 
estimates that students will be funded at approximately $3,600 
per student.
    At the elementary and secondary school level, BIA schools 
are in the forefront in implementing school reform and 
accountability, as required by the Improving America's Schools 
Act and the President's Goals 2000: Educate America Act. Each 
school has developed a school improvement plan. This school 
improvement plan is a long term planning framework that 
contains specific goals and strategies for meeting those goals. 
Each school will be held accountable for meeting their goals 
which address student learning. In terms of improving the per 
pupil expenditure at elementary and secondary school levels, 
the fiscal year 1999 budget request proposes a Weighted Student 
Unit (WSU) value of $3,124, an increase from $3,062 per WSU in 
fiscal year 1998.
    Question. The highest drop out rate (36 percent) in this 
country is among Indian students. They also have the lowest 
graduation rate from high school and the lowest attendance 
rates for college. With the current studies about the poorest 
facilities in the nation and the lowest per capita 
expenditures, we can only begin to address these vital concerns 
if your Department begins to take the lead in fully explaining 
this situation to us.
    Answer. Education research verifies that the physical 
condition of a school does affect the students' performance. 
Factors, such as inadequate heating systems, inadequate 
lighting and unsafe classroom buildings, all have a negative 
effect on student learning and performance. However, in spite 
of the poor condition of school facilities in Indian Country, 
the Bureau has taken steps to improve academic programs at BIA-
funded schools. For example, the Bureau is fully implementing 
the Government Performance Results Act (GPRA), the Improving 
America's School Act (IASA) and the Goals 2000: Educate America 
Act within its school system.
    In accordance with GPRA, Goals 2000, and IASA, BIA schools 
are in the process of reforming their instructional programs. 
Each BIA school has developed and is implementing a 
Consolidated School Reform Plan (CSRP) and is collecting the 
baseline data necessary to establish good annual performance 
indicators. Each CSRP provides a detailed, strategic framework 
for instituting more challenging curriculum standards and 
assessment procedures; creating better governance, 
accountability and management processes; and implementing 
benchmarks, timelines and other monitoring tools. In fiscal 
year 2000, the schools will fully implement their CSRPs and be 
held accountable for their progress.
    BIA schools are also implementing new content standards 
that match national standards, the standards of the state in 
which the school is located or a combination of state, 
national, and locally developed standards. Each school will 
have new standards and a new assessment system in place by the 
Year 2000. BIA schools will follow their state assessment 
system or adopt a system that utilizes authentic assessment and 
the California Learning Record.
    These changes are expected to result in improved student 
attendance and retention, and better overall student learning 
in Indian Country.

                         surplus land disposal

    For several months, I have been working on a proposal to 
provide an incentive for the BLM to sell or exchange lands 
which have been identified as ``suitable for disposal'' 
pursuant to section 202 of FLPMA. The vast majority of these 
lands are in small, hard-to-manage tracts, and their disposal 
would benefit the Bureau, as well as the surrounding 
communities.
    In early February, I met with representatives from the 
administration, including the Department of the Interior, the 
Department of Agriculture, the Council on Environmental 
Quality, and the Office of Management and Budget to discuss 
this proposal. At the meeting, I received a very favorable 
response, and I informed those present that I wanted to 
continue to work with the administration on this proposal, to 
ensure not only that it would be a workable proposal, but that 
it would be a program that the administration would support.
    Since that meeting, my staff met with Assistant Secretary 
John Berry, and BLM Director Pat Shea, to review legislation 
that I intended to introduce, and to ask for comments and 
suggestions. To date, I have received no response.
    Question. Do you have any suggestions for developing a 
program to begin the process of selling or exchanging the 4 to 
6 million acres of land that the BLM has identified as 
``suitable for disposal'' across the west?
    Answer. FLPMA Section 102(a)(1) requires the BLM to retain 
public lands in public ownership unless, as a result of land 
use planning, it is determined to be in the public interest to 
dispose of the lands. The lands you refer to as ``suitable for 
disposal'' are those lands identified through land use planning 
for disposal. Those lands can be exchanged using a public 
interest determination as the guide. The lands can be sold if 
they are determined to be (1) difficult to manage based on 
location; (2) acquired for a purpose no longer needed; and (3) 
more important for local economic development which cannot 
occur on private lands. Based on these legal requirements, the 
BLM is currently selling and exchanging these lands. BLM sells 
an average (3 year average) of 5,000 acres annually generating 
receipts of $2.5 million and exchanges an average of 150,000 
acres valued at $60 million each year.
    It is important to note that those lands identified as 
``suitable for disposal'' are within areas where the BLM has 
generically determined that Federal ownership is not beneficial 
to the public. The lands identified are not ready to dispose of 
without completing the required resource clearances, hazardous 
materials review, NEPA analysis, appraisal and public review. 
Upon a more detailed review, some of those lands will be 
determined to be better suited to remain in Federal ownership 
due to critical resource values discovered. It may also be 
determined that the lands should be conveyed to local 
government through the Recreation and Public Purposes Act for 
schools, ball fields, parks, hospitals, etc. The remaining 
lands will be considered for disposal after consultation with 
local government. Under current funding this is all of the land 
disposal actions BLM can accomplish in a given year. It is 
important to note that given additional funds land exchanges 
could increase somewhat but land sales can not increase.
    Question. Could the administration support the use of 
proceeds from surplus land sales to fund initiatives such as 
endangered species?
    Answer. The Bureau of Land Management (BLM) and Department 
of the Interior oppose the concept of using proceeds from land 
sales to fund the landowner incentive program of the Endangered 
Species Act. It has been estimated that the receipts needed to 
fund the incentive program amount to $70 million per year for 
five years, totaling $350 million. BLM's current land sale 
program generates $2.5 million annually or $12.5 million over 
five years. To increase the number of land sales to generate 
receipts of $70 million annually would have extreme 
consequences on both public and private land values in the 
western United States.
    Additionally, an increase of sale activity of this 
magnitude (a 30 fold increase) would seriously erode BLM's 
ability to complete other priority work and divert resource 
professionals from processing and issuing important land use 
authorizations and managing other critical resource programs. 
The cost of clearances for cultural resources, hazardous 
materials, and other resource values for much of this land is 
prohibitive to such a sale program. Isolated acreage with no 
access will not only have very low competitive values but will 
have very few, if any, interested purchasers.
    The BLM has a responsibility to the taxpayer to manage the 
public lands for multiple use management. We must assure that 
the natural resources as well as the health and welfare of 
public land users are protected as a part of our day to day 
work. Spending public funds to sell large amounts of public 
lands is in direct conflict with this responsibility. BLM's 
organic act, the Federal Land Policy and Management Act of 
1976, requires these public lands to be retained in Federal 
ownership unless identified through land use planning for 
disposal. A massive sell off of these lands will devalue the 
public's assets. A nation with a growing population can ill 
afford to sell its legacy and its future.

                          vanishing treasures

    Last year, the administration proposed a new initiative 
called Vanishing Treasures, to assist 41 park units in the 
Southwest in the stabilization and maintenance of ruins and 
other cultural resources within the park units. I worked with 
this subcommittee to secure funding for this initiative, and 
Congress provided $1 million in 1998 to get the initiative 
underway, and $2 million for historic structures stabilization.
    This year, I do not find the Vanishing Treasures initiative 
among the administration's funding priorities.
    Question. Does the administration continue to support the 
Vanishing Treasures initiative?
    Answer. Yes. The President's fiscal year 1999 budget 
continues funding at the $1 million level for the Vanishing 
Treasures initiative, the level appropriated in fiscal year 
1998. Of the total, $453,000 has been included in the base 
operating budgets at eight parks and $547,000 will be used for 
project preservation, training, and project management.
    Question. Have fiscal year 1998 funds been obligated in 
relation to this initiative? If so, how much, and at which 
parks?
    Answer. The $1 million in funding provided for the 
Vanishing Treasures initiative in fiscal year 1998 is being 
spent as follows: $453,000 was transferred to base operating 
budgets of eight parks to hire eleven permanent individuals; 
$40,000 was devoted to training expenses; $497,000 was utilized 
to fund six of the 44 projects which had been identified as the 
most acute needs; and $10,000 was used to provide project 
management, monitoring, and a peer review system to evaluate 
program efficiency and effectiveness. The following table 
itemizes the distribution of operations and project funding by 
park.

         DISTRIBUTION OF OPERATIONS AND PROJECT FUNDING BY PARK
------------------------------------------------------------------------
                                         Operations
              Park unit                    funding       Project funding
------------------------------------------------------------------------
Aztec Ruins National Monument.......           $84,000           $75,000
Mesa Verde National Park............            67,000  ................
Salinas Pueblo Missions National
 Monument...........................            33,000            25,000
Chiricahua National Monument........            34,000  ................
Navajo National Monument............            33,000  ................
Tonto National Monument.............            51,000           125,000
Tumacacori National Monument........            91,000            22,000
Flagstaff Areas (Wupatki, Walnut
 Canyon, Sunset Crater).............            60,000           125,000
Chaco Culture National Monument.....  ................           125,000
                                     -----------------------------------
      Total.........................           453,000           497,000
------------------------------------------------------------------------

               Question Submitted by Senator Larry Craig

    Question. This Appropriations Subcommittee funds Natural 
Resource Damage Surveys for the purposes of Superfund 
evaluations. The funding has been considerable. Please supply 
for the Subcommittee a breakdown of this funding for the past 
five years that includes the specific geographic area surveyed, 
the monies expended by agency with a breakout of any monies 
that were distributed to other entities for survey or other 
work, and the categories of work (water surveys, land surveys, 
remediation work, litigation work, etc.) for which the monies 
were expended, the filing of any claims resulting from these 
evaluations and the settlement of these claims.
    Answer. The purpose of Natural Resource Damage Assessment 
Fund (NRDA Fund) is to provide funding necessary to perform 
natural resource damage assessment activities which provides 
the basis for claims against responsible parties for the 
restoration of injured natural resources. The NRDA Fund 
provides funding to support damage assessment activities for 
the bureaus in the Department with management responsibility 
for natural resources under the trusteeship of the Secretary. 
Assessment activities may include injury determination, injury 
quantification, and a determination of the appropriate 
restoration measures or costs to restore the injured resources. 
Funding provided by the NRDA Fund is restricted to natural 
resource damage activities and is not used to perform response 
activities. Assessments and the development of claims through 
the assessment process ultimately lead to the restoration of 
injured resources and reimbursement of reasonable assessment 
costs from responsible parties through negotiated settlements 
or other legal actions by the Department. To date, the majority 
of natural resource damage claims developed by the Department 
have been settled through negotiated settlements. The only 
claims that the Department has assessed that currently are in 
litigation are U.S. v. ASARCO (Whitewood Creek, South Dakota), 
U.S. v. Montrose Chemical Corp., (Montrose, California), and 
U.S. v. Homestake Mining (Coeur d'Alene Basin, Idaho). The 
following table presents the funding for the past five years, 
fiscal year 1993 through fiscal year 1997, along with the other 
information requested. U.S. v. ASARCO is not shown on the table 
as it was first funded in fiscal year 1998.

                                        U.S. DEPARTMENT OF THE INTERIOR--NATURAL RESOURCE DAMAGE ASSESSMENT FUND
                                [Project allocation of appropriated funds for the past five years, fiscal years 1993-97]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                              Restoration settlement--
                                                                                             Settlement                      amount received into court
Fiscal                                   Type of work       DOI bureaus      Restoration       amount                             registry accounts
 year    Site and State      Amount        conducted     involved at site     settlement      received    Dates  received  -----------------------------
                                                                                             into NRDAR                                   Other (in-kind
                                                                                                fund                          Dollars     contributions)
--------------------------------------------------------------------------------------------------------------------------------------------------------
  1993American Trader       $98,000  Damage            FWS.............  Shared            $3,017,304      1995 and 1998  ...........  ...............
       oil spill,                     assessment.                         settlement
       California                                                         received in
                                                                          1995 and 1998.
  1994...do                  30,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          128,000
                       =================================================================================================================================
  1993Apex Houston           36,000  ...do...........  ...do...........  Shared             5,013,930               1994  ...........  ...............
       oilspill,                                                          settlement
       California                                                         received in
                                                                          1994.
                       =================================================================================================================================
  1993Cantara Loop           79,000  ...do...........  ...do...........  Restoration      ...........  .................  $19,000,000  ...............
       train                                                              settlement in
       derailment,                                                        Court Registry
       California                                                         Account.
  1994...do                  25,000  ...do...........  ...do...........  DOI Fund              61,093               1996  ...........  ...............
                                                                          received
                                                                          payment for
                                                                          past costs.
                       -------------
          Subtotal          104,000
                       =================================================================================================================================
  1993Cherokee County        30,000  ...do...........  ...do...........  Case ongoing, 2  ...........  .................  ...........  ...............
       NPL Site,                                                          partial
       Kansas                                                             settlements
                                                                          reached.
  1994...do                 150,000  ...do...........  ...do...........  Received           1,672,038   Received 1994-97  ...........  ...............
                                                                          proceeds from
                                                                          2 bankruptcy
                                                                          settlements.
                       -------------
          Subtotal          180,000
                       =================================================================================================================================
  1993Coeur d'Alene       1,168,000  ...do...........  FWS, BLM, USGS..  Case ongoing...  ...........  .................  ...........  ...............
       Basin (Bunker
       Hill), Idaho
  1994...do               3,000,000  ...do...........  ...do...........  Partial              500,000  .................    8,000,000  ...............
                                                                          settlement
                                                                          (bankruptcy)
                                                                          with one PRP.
  1995...do               2,650,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal        6,818,000
                       =================================================================================================================================
  1993Commencement          297,450  ...do...........  FWS.............  Restoration      ...........  .................   12,000,000  ...............
       Bay, Washington                                                    settlement in
                                                                          Court Registry
                                                                          Account.
  1994...do                 300,000  ...do...........  ...do...........  ...do..........  ...........  .................    1,000,000  Plus
                                                                                                                                        approximately
                                                                                                                                        $6,377,000 in-
                                                                                                                                        kind
  1995...do                 299,000  ...do...........  ...do...........  DOI Fund             538,489  .................  ...........  ...............
                                                                          received
                                                                          payment for
                                                                          past costs.
  1996...do                 230,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal        1,126,450
                       =================================================================================================================================
  1995Clark Fork            200,000  ...do...........  NPS, BLM, FWS...  Case ongoing...  ...........  .................  ...........  ...............
       (Grant Kohrs
       Ranch), Montana
                       =================================================================================================================================
  1994Elliott Bay,           50,000  ...do...........  FWS.............  Restoration      ...........  .................   17,125,000  Plus $7,000,000
       Washington                                                         settlement in                                                 in-kind from
                                                                          Court Registry                                                PRP's (land
                                                                          Account.                                                      and services)
  1995...do                  55,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          105,000
                       =================================================================================================================================
  1993Fox River/Green       105,000  ...do...........  FWS, BIA........  Case ongoing...  ...........  .................  ...........  ...............
       Bay, Wisconsin
  1994...do                 235,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1995...do                 830,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1996...do               1,476,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do               1,783,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal        4,429,000
                       =================================================================================================================================
  1993Hudson River,          77,000  ...do...........  FWS, NPS........  Case ongoing...  ...........  .................  ...........  ...............
       New York
  1994...do                  20,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1995...do                 175,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1996...do                  60,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          332,000
                       =================================================================================================================================
  1993Indiana Harbor/       100,000  ...do...........  ...do...........  Case ongoing...  ...........  .................  ...........  ...............
       Grand Calumet
       River, Indiana
  1994...do                 135,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1995...do                 205,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do                 280,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          720,000
                       =================================================================================================================================
  1994Iron Mountain          34,000  ...do...........  FWS, BLM, BOR...  Case ongoing...  ...........  .................  ...........  ...............
       Mine,
       California
  1995...do                  50,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1996...do                 100,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do                 149,500  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          333,500
                       =================================================================================================================================
  1993Jamaica Bay/          600,832  ...do...........  FWS, NPS........  Case ongoing...  ...........  .................  ...........  ...............
       Gateway
       National
       Recreation
       Area, New York
                       =================================================================================================================================
  1993Montrose,             973,832  ...do...........  FWS.............  Case settled     ...........  .................  ...........  ...............
       California                                                         with one PRP
                                                                          group--.
  1994...do                 476,000  ...do...........  ...do...........  Shared           ...........  .................   12,000,000
                                                                          restoration
                                                                          settlement in
                                                                          court registry
                                                                          account.
  1995...do                  87,203  ...do...........  ...do...........  DOI fund           1,200,000            1993-94  ...........
                                                                          received
                                                                          payment for
                                                                          past costs.
  1996...do                 365,000  ...do...........  ...do...........  2d settlement    ...........  .................  ...........  ...............
                                                                          of $23.7
                                                                          million being
                                                                          challenged by
                                                                          group of
                                                                          nonsetting
                                                                          parties.
  1997...do                  85,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal        1,987,035
                       =================================================================================================================================
  1997Niagara River,        145,000  ...do...........  FWS.............  Case ongoing...  ...........  .................  ...........  ...............
       New York
                       =================================================================================================================================
  1996Penabscot River,      185,000  ...do...........  BIA.............  Case ongoing...  ...........  .................  ...........  ...............
       Maine
  1997...do                  10,000  ...do...........  ................  ...............  ...........  .................  ...........  ...............
                       -------------
      Subtotal              195,000
                       =================================================================================================================================
  1993Saginaw River          89,781  ...do...........  FWS, BIA........  Case ongoing...  ...........  .................  ...........  ...............
       and Bay,
       Michigan
  1994...do                 300,000  ...do...........  ...do...........  Agreement in         230,000               1997  ...........  ...............
                                                                          principle w/
                                                                          PRP for
                                                                          dredging work.
  1995...do                 391,000  ...do...........  ................  ...............  ...........  .................  ...........  ...............
  1996...do                 280,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal        1,060,781
                       =================================================================================================================================
  1995Santa Clara            40,000  ...do...........  FWS.............  Shared             7,285,585  .................  ...........  ...............
       River oilspill,                                                    settlement
       California                                                         received April
                                                                          1997.
                       =================================================================================================================================
  1993St. Lawrence           20,000  ...do...........  FWS, BIA........  Case ongoing...  ...........  .................  ...........  ...............
       environment,
       New York
  1994...do                  10,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1995...do                  65,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do                 175,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          270,000
                       =================================================================================================================================
  1993Tenyo Maru             94,000  ...do...........  FWS.............  Restoration      ...........  .................    5,116,000
       oilspill,                                                          settlement in
       Washington                                                         Court Registry
                                                                          Account.
  1994...do                 417,000  ...do...........  ................  DOI fund             161,991               1995  ...........  ...............
                                                                          received
                                                                          payment for
                                                                          past costs.
                       -------------
          Subtotal          511,000
                       =================================================================================================================================
  1993Upper Arkansas        183,000  ...do...........  FWS, BLM, BOR...  Case ongoing...  ...........  .................  ...........  ...............
       River/
       California
       Gulch, Colorado
  1996...do                 161,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do                 220,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          564,000
                       =================================================================================================================================
  1995Venac/Bayou           185,000  ...do...........  FWS.............  Partial              126,000  .................  ...........  ...............
       Meto, Arizona                                                      settlement
                                                                          (bankruptcy)
                                                                          with one PRP.
  1996...do                 220,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
  1997...do                 290,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       -------------
          Subtotal          695,000
                       =================================================================================================================================
  1997Westinghouse            5,000  ...do...........  FWS.............  Case ongoing...  ...........  .................  ...........  ...............
       PCB's, Indiana
                       =================================================================================================================================
  1994Yavapai-Prescott      120,000  ...do...........  BIA.............  Tribe has        ...........  .................  ...........  ...............
       site, Arizona                                                      settled with
                                                                          PRP, DOI
                                                                          negotiating
                                                                          repayment of
                                                                          DOI-funded
                                                                          assessment
                                                                          costs from
                                                                          tribe.
  1995...do                  60,000  ...do...........  ...do...........  ...............  ...........  .................  ...........  ...............
                       =================================================================================================================================
          Subtotal          180,000
                       -------------                                                     -------------                   -------------
          Total funds    20,765,598  ................  ................  ...............   19,806,430  .................   73,241,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                ------                                


                  Questions Submitted by Senator Byrd

                             overall budget

    The proposed fiscal year 1999 budget for the Department of 
the Interior, for those programs which fall within the 
jurisdiction of the Interior Subcommittee, recommends increases 
totaling some $473 million above the fiscal year 1998 enacted 
level. Overall, the President has proposed increases across the 
breadth of the Interior bill of nearly $1 billion above the 
comparable fiscal year 1998 levels. (This comparison in terms 
of total changes treats the special $699 million land 
acquisition program as the ``one-time'' initiative it was 
considered to be in the budget agreement.
    Question. If only a small portion of the proposed increases 
can be provided where would you place the Department's 
priorities?
    Answer. The President's budget for fiscal year 1999 was 
carefully crafted to fund important priorities for the 
environment and for Indian people, and it fits within the 
context of the President's proposal to balance the budget for 
1999. These priorities include preserving and restoring our 
natural resources and ensuring good science is used in managing 
these resources, ensuring safe visits to national parks, 
refuges, and other public lands, and maintaining our 
commitments to Native Americans, including law enforcement, 
education and trust responsibilities. It provides a blue print 
that if followed by the Congress, will allow the Congress to 
join in supporting these vital programs.
    Question. How much of the proposed increase for fiscal year 
1999 is linked strictly to maintaining current levels of 
service (fixed costs) and is not associated with new or 
enhanced programs?
    Answer. The Department's request for uncontrollable cost 
increases (fixed costs) totals $105 million. The largest item 
in this total is the amount associated with pay raises, $72.8 
million. Other fixed cost increase items include federal 
retirement system costs, workers and unemployment compensation, 
rental payments, facility security, and working capital fund 
charges.
    Question. Are fixed costs a higher priority than new 
initiatives or program expansions?
    Answer. The Department of the Interior is the third most 
personnel intensive agency among all the major cabinet 
departments. It has reduced staff by 15 percent over the past 
four years (1993 through 1997). Covering pay costs to maintain 
our basic operations is one of our highest priorities. On the 
other hand our programmatic responsibilities have grown and 
pressures on the environment have also grown. It is important 
for our Nation and our children's future that in addition to 
continuing to operate our current programs, we make progress in 
restoring and protecting the environment and our heritage 
through our land acquisition programs, Everglades restoration, 
innovative partnerships to protect endangered species, saving 
our historical and cultural treasures, investing in the 
education of Indian children, and providing a scientific basis 
for our land management decisions.
    Question. What does it mean to the Department's field 
units--the parks, refuges, BLM field areas, Indian schools and 
the like--when fixed costs are not addressed?
    Answer. When fixed costs are not specifically funded, 
Bureaus and Offices must reduce programs supported by their 
respective appropriations, with consequent impact on program 
performance. In some cases the only way to meet these increased 
costs will be to reduce employment beyond the 12,000 positions 
already eliminated over the last three-and-one-half years. The 
personnel intensive nature of our mission responsibilities 
makes the lack of funding for uncontrollable costs particularly 
devastating. If uncontrollables are not covered, program 
performance is reduced, often resulting in reduced services to 
the visiting public, natural and cultural resource degradation, 
as well as health and safety concerns at schools, facilities 
and other infrastructure.
    Specific examples of the impact of not funding 
uncontrollables follows:
    In the Office of the Secretary, where the salaries and 
expenses account has absorbed over $23 million in 
uncontrollable cost increases over the past 15 years, absorbing 
an additional $1,860,000 in 1999 will force additional FTE 
reductions. In 1984, 725 FTE were paid from this account; in 
1997 that number had dropped to 389 FTE. Such drastic 
reductions impairs the Secretary in the performance of his 
mission responsibilities.
    In the Bureau of Indian Affairs the effect of absorbing pay 
costs strikes hardest at those programs that are the most 
people-intensive. For example, about 75 percent of the 
operating cost of the BIA law enforcement program supports the 
law officer and detention facility staffs. To offset the 
effective reduction in program funding resulting from absorbing 
pay cost adjustments, reservation police departments will have 
to reduce the patrol hours that they currently log. Other BIA 
personnel-cost sensitive programs are road maintenance 
programs, housing, and natural resource development, all of 
which already have backlogs that will now only get worse.
    The reduction in uncontrollable costs would seriously erode 
program productivity as managers offset the reduction by 
lowering personnel usage in the Bureau of Land Management. Such 
a reduction will affect the timeliness of mining plan reviews 
and oil and gas lease issuance. Fewer rights-of-way and 
withdrawal review cases will be processed. The miles of 
cadastral surveys accomplished will fall. Smaller numbers of 
wild horses will be removed from public lands, thereby 
stressing the health of animal and plant populations sharing 
these lands. In the Wildland Fire Management Program the lack 
of funding for uncontrollables translates into fewer resources 
for fighting fires.
    The impact will be severest on those programs for which 
managers must have staff flexibility at some point in the year 
to carry out. One example of this type of program is BLM's 
Challenge Cost Share program. The reduction in funds through 
failure to offset uncontrollable cost increases will diminish 
the opportunities field managers have to assign staff to this 
program to work along side local-government employees and the 
public, weakening the strong relationship that has been built 
between BLM and the communities that border public lands.
    In the FWS and NPS, the absorption of the federal pay and 
retirement cost increases will make it very difficult for 
programs to maintain their 1998 performance levels in addition 
to new requirements mandated by the 1999 annual plan. Visitor 
contact hours would be reduced and other operational 
requirements would not be met.
    Absorption of uncontrollable costs in the USGS would 
adversely impact ongoing operations and anticipated activities 
and investments. For example, USGS would stop, or not start, 
cooperative hydrologic studies supporting State and local 
agencies and it will shutdown streamflow gaging stations. The 
effective funding reduction would delay by one year completion 
of national coverage of geospatial data. The USGS would also 
reduce field work in all programs, including planned 
installation, maintenance, and upgrading of hazard monitoring 
devices and telemetry systems and reduce ongoing research, 
including research on invasive species. The absorption of 
uncontrollables may also impede Congressional intent in 
providing a programmatic increase for the Cooperative Research 
Unit program to fill vacancies.
    Question. If the Subcommittee is held at an allocation that 
is roughly comparable to the fiscal year 1998 base program, 
what would you consider to be the highest priority issues that 
need to be addressed when the Subcommittee considers your 
proposed fiscal year 1999 budget.
    Answer. If the overall mark were held to fiscal year 1998 
levels, we would still have to cover increased pay costs, 
effectively reducing overall programs by over $105 million. As 
mentioned above the quality of services in parks, refuges, and 
recreation sites would deteriorate, as would the condition of 
facilities. The implications of a continuing decline in park 
and refuge staff, teachers in Indian schools, law enforcement 
personnel, scientists, and land managers would be staggering. 
The Department could not meet its statutory mandates. We are 
hopeful that the President's request can be considered as a 
whole, rather than having to make these difficult choices among 
competing needs.
    Question. What will it mean to the Department of the 
Interior's presence in my State of West Virginia if the funding 
requested in fiscal year 1999 is not appropriated? Do you 
anticipated any changes in staffing, or office closures, or 
program terminations?
    Answer. In our April 1998 ``Distribution of Budget 
Authority by Congressional District/State Report'', the 
Department estimates the State of West Virginia will receive 
$92.5 million in fiscal year 1999, as compared to $102.0 
million in fiscal year 1998. fiscal year 1999 funding is less 
than fiscal year 1998 primarily due to the difference in 
construction and land acquisition project funding in the Fish 
and Wildlife Service and the National Park Service.
    The Department's request would primarily provide 
uncontrollable cost increases, refuge operations increases, and 
increases in OSM's AML fund. Funding is also included for land 
acquisition at Canaan Valley National Wildlife Refuge and New 
River Gorge National Recreation Site. If the Department 
receives fiscal year 1998 enacted funding plus funding to cover 
uncontrollable costs in fiscal year 1999 in its operating 
programs, we would not anticipate office closures, staffing 
changes or program terminations, except as proposed in the 
fiscal year 1999 President's Budget. Funding below this level, 
however, could lead to such actions, depending upon the 
magnitude of the cuts and the specific programs targeted.

           fiscal year 1998--title v land acquisition funding

    Pursuant to last year's budget agreement, the fiscal year 
1998 Interior bill included a special one-time $699 million 
land acquisition account. While some of the funds were 
identified for particular purchases (Headwaters Forest, CA and 
New World Mine, MT), the remaining funds are to be used for 
traditional land acquisition projects.
    The Administration has forwarded a proposed distribution of 
funding to the Appropriations Committees for review, and the 
next step will be for the House and Senate Interior 
Subcommittees to determine a final approved list of 
expenditures, pursuant to the terms contained in Title V of 
Public Law 105-83.
    Question. Are there any proposed acquisitions in the 
Department's list that are particularly time-sensitive? If so, 
what are the circumstances that would jeopardize the 
acquisition if the list is not approved soon?
    Answer. Yes, a total of $60.9 million in 28 projects on the 
lists of three bureaus are time-sensitive. Often, acquisitions 
have options that will expire, are subject to development, have 
willing sellers who will not wait indefinitely, or will require 
new costly re-appraisals if the delays continue.
    The six BLM projects totaling $8.5 million are Bodie Bowl 
in California, Sacrifice Cliff in Montana, La Cienega in New 
Mexico, Lopez Island in Washington, Upper Snake/South Fork 
Snake River in Idaho, and Three Island Crossing/Oregon NHT in 
Idaho. Additionally, acquisitions at these sites will be 
complete except for La Cienega and Upper Snake/South Fork Snake 
River.
    The four FWS projects, totaling $17.4 million are Balcones 
Canyonlands in Texas, Cabo Rojo Salt Flats in Puerto Rico, Don 
Edwards San Francisco Bay NWR (Bear Island purchase) in 
California and Great Meadows NWR (O'Rouke Farm). The Bear 
Island purchase completes acquisition on the Island.
    The 18 NPS projects totaling $35.0 million are Acadia NP in 
Maine, Channel Islands NP in California, Chattahoochee River 
NRA in Georgia, Cumberland Island NS in Georgia, Delaware Water 
Gap NRA in Pennsylvania, Ebey's Land NH Reserve in Washington, 
Gettysburg NMP in Pennsylvania, Haleakala NP in Hawaii, 
Hopewell Culture NHP in Ohio, John Day Fossil Beds NM in 
Oregon, John Muir NHS in California, Monocacy NB in Maryland, 
Olympic NP in Washington, Pecos NHP in New Mexico, Salt River 
Bay NHP & Ecol. Pres. in Virgin Islands, Santa Monica NRA 
(Completes Backbone Trail), Stones River NB in Tennessee, and 
Voyageurs NPS in Minnesota.
    Question. To what extent do you anticipate any additional 
operational or staffing requirements with the projects that 
have been identified?
    Answer. Each bureau plans for any new operational or 
staffing for identified projects on an annual basis within 
overall funding levels. Often acquisitions add an additional 
parcel of land to an existing unit and may not require new 
operational funds or staff. In some cases, consolidation of 
ownership may save costs that result from fragmented ownership 
patterns. When new staff are required to be added, bureaus 
often assign staff from other existing units.
    Question. Are any of the funds proposed to be used to 
establish new units?
    Answer. Two BLM acquisitions and four FWS acquisitions on 
the Title V lists represent requests for new appropriated 
funding, though not necessarily new units. No funding is 
requested for new National Parks but funds are included for 
acquisition management over the four years that funds are 
available.
    In BLM, Lechguilla in New Mexico is a proposal to acquire 
oil and gas lease interests beneath existing BLM lands; while 
the acquisition at Three Island Crossing/Oregon NHT in Idaho 
would represent a new start.
    In FWS, funding for the North Dakota Prairie and the South 
Dakota Prairie would be for new areas, like a wetlands project, 
but are not new refuges. The Black River proposed acquisition 
is a unit in the Nisqually NWR in Washington. The request for 
the Fort Pierre Eagle Roost in South Dakota would establish a 
new refuge.
    One of the allowable purposes of this account, as provided 
for in the appropriations language, is to address maintenance 
backlogs of the public land agencies. Yet in the proposal, the 
Administration has recommended that just $20 million of the 
$362 million not specified for particular projects be spent on 
maintenance.
    Question. With backlogs for the Department estimated to be 
in the hundreds of millions of dollars, why did you choose not 
to recommend more of the funding for these purposes?
    Answer. The fiscal year 1999 budget requests an increase of 
$82 million over the $464 million appropriated in fiscal year 
1998 for maintenance. In addition, tens of millions of dollars 
of recreation fee demonstration funds collected at NPS units in 
fiscal year 1997 and fiscal year 1998 are available to be used 
for maintenance.
    Question. How does the estimated cost of the backlog of 
land acquisitions, defined as inholdings within established 
boundaries, compare with the maintenance and major repair/
rehabilitation backlogs?
    Answer. We are working to develop more exact numbers for 
maintenance and major repair/rehabilitation infrastructure 
needs. For land acquisition, NPS maintains a list of estimated 
needs that totals $1.3 billion, excluding acquisition needs in 
Alaska. This list is compiled and maintained using a 
computerized database and value estimates submitted by Regional 
personnel. FWS estimates that it has approximately $2.4 billion 
in acquisition needs registered on the Land Acquisition 
Priority System (LAPS) list.
    Question. When there are so many parcels with willing 
sellers at established parks or refuges, what is the 
justification for proceeding with new units? Doesn't this just 
add to the backlog problem?
    Answer. The National Park Service in recent years has been 
concentrating its efforts increasingly on acquiring lands 
within established parks. Only Congress can add new units to 
the NPS system.
    The Fish and Wildlife Service acquires land or interests in 
land to protect wildlife habitat when other options are not 
available. Time delays result in a greater threat to the 
resource and a greater final cost.
    Acquiring new units does add to the backlog of properties 
to be maintained, but sometimes the historic or natural 
resource is of such importance that to fail to secure it for 
future generations of Americans would be an irreversible and 
regrettable action.

                 national conservation training center

    Mr. Secretary, on a glorious Saturday last fall, you and 
Fish and Wildlife Service Director Jamie Clark joined me in 
dedicating the National Conservation Training Center (NCTC). It 
is truly a spectacular facility and one for which I believe all 
in the Service and the Department can be proud.
    Question. What has been the experience since the facility 
opened last year? Has the NCTC met expectations?
    Answer. Since the facility opened in October 1997, over 
5,000 participants from the United States and a dozen countries 
have attended training programs at the Shepherdstown campus. 
There is a continuing high level of interest in planning and 
scheduling NCTC programs during fiscal year 1999. The FWS 
believes that the NCTC has already exceeded expectations and 
has established itself as a premier conservation training 
facility.
    Question. What response and use of the training center is 
the Service receiving from other entities? Has the Center been 
able to respond to demand?
    Answer. Since the facility opened, over 60 organizations 
have sent students to NCTC. Among the other organizations that 
have programs at the NCTC are the Bureau of Land Management, 
National Park Service, USDA Forest Service, Environmental 
Protection Agency, Bureau of Indian Affairs, The Land Trust 
Alliance, and The Conservation Fund.
    Demand for use of the NCTC has been strong. So far, the FWS 
has managed the many requests for use of the facility, although 
the 100 beds currently available have not been sufficient to 
address lodging needs for all NCTC participants. The NCTC has 
worked closely with area hotels to place overflow business 
offsite. The completion of the third lodging unit will 
accommodate 50 more participants on campus. On campus residence 
is preferable because it promotes communication and networking 
among participants which leads to increased problem solving and 
cooperation on resource issues.
    Question. To assist with phasing of funding, the third 
dormitory is presently under construction and anticipated to be 
completed this winter (February). Are things still on schedule 
for this completion? Are sufficient funds available to furnish 
and equip the dorm once completed?
    Answer. Construction for the third lodging unit is on 
schedule and sufficient funding is available to complete 
construction and furnish the dormitory.
    Question. The fiscal year 1999 budget for the training 
center is essentially level with last year, except for 
adjustments for fixed costs. Will there be additional costs to 
NCTC associated with completion of the third dormitory, thus 
increasing the overnight capacity by a third?
    Answer. No additional appropriations for NCTC operations 
will be required to accommodate the planned increase in 
residential students when the third dormitory becomes 
available. These students will be charged for room and meal 
expenses.
    Question. What steps are being taken to ensure that the 
Service remains ``ahead of the curve'' at the NCTC in terms of 
maintenance, upkeep, and fully addressing the operating 
capacities of the Center?
    Answer. The FWS is amending the Maintenance Management 
System to include the NCTC facility and is conducting a study 
to determine the specific maintenance needs of the facility. 
Without giving away the ``inner workings'' of the Department's 
fiscal year 2000 budget formulation process, it is safe to say 
that the Department will be including the NCTC in the 
development of the five year plan for maintenance needs and 
evaluating the needs of the NCTC against other maintenance 
priorities.
    Question. Will BLM and NPS continue their support in fiscal 
year 1999 at a level of $500,000 each, as was first 
appropriated in fiscal year 1997, and continued in fiscal year 
1998? Should the money stay in the bureaus, or be transferred 
to FWS budget so all NCTC funds are in one place?
    Answer. Yes. The FWS anticipates receiving $500,000 each 
from BLM and NPS in fiscal year 1999. This funding is used for 
operational costs of the NCTC facility and to fund liaison 
positions from BLM and NPS. The Department plans to use this 
protocol in the future as well.

                 Canaan Valley National Wildlife Refuge

                            land acquisition

    Mr. Secretary, to date, Congress has provided a total of 
$11 million for land acquisition at Canaan Valley. The 
Department also has identified an additional $1 million for 
Canaan Valley as part of the Title V, $699 million proposed 
list, and $1 million is included in the Department's fiscal 
year 1999 budget request.
    Question. If I recall correctly, Mr. Secretary, the 
boundaries of the Canaan Valley National Wildlife Refuge 
encompass some 24,000 acres. How many acres have been acquired 
and are expected to be added to the refuge with the funds 
provided in the fiscal year 1998 regular bill?
    Answer. Through fiscal year 1997, the FWS has acquired 825 
acres. The fiscal year 1998 planned acquisitions total 1,875 
acres, including lands purchased with North American Wetlands 
Conservation grant funds.
    Question. So, there is still plenty of acreage within the 
boundary that has not yet been acquired. Has the Fish and 
Wildlife Service identified other important properties with 
high resource values for which there are willing sellers?
    Answer. Yes, the FWS has identified a number a important 
properties with high resource values for which there are 
willing sellers. For example, and for the long-term, the FWS is 
currently negotiating with ten landowners of 1,800 acres with 
an estimated value of $8.5 million. These acquisitions would 
help consolidate and protect the most threatened area of the 
valley and are part of the long-term strategy for land 
acquisition at the refuge. However, the Administration has 
requested $1.0 million for fiscal year 1999 for the highest 
priority acreage, due to competing demands elsewhere.
    Question. How much additional funding could FWS spend for 
land acquisition at Canaan Valley in fiscal year 1999?
    Answer. The President's Budget request for fiscal year 1999 
requests $1.0 million to acquire an additional 265 acres at the 
Canaan Valley NWR. In addition, the Administration has 
requested a further $1.0 million as part of the Title V funding 
appropriated in fiscal year 1998. This request is also pending 
Congressional approval.
    Last year, as a result of the significant operational 
increase provided for the national wildlife refuge system, the 
FWS received sufficient funds to establish a refuge staff and 
to locate an office near the refuge, in the valley, rather than 
30 miles away.
    Question. What progress is being made to hire a staff at 
the refuge and locate office space in the valley?
    Answer. A maintenance worker was hired and has been on site 
since October 1997. Selection of a manager is imminent. The 
advertisement for an office automation assistant has closed and 
a selection is imminent. A biologist position will be 
advertised for a three week period beginning on May 4, 1998.
    The FWS will establish a local address in the valley in 
June 1998. If a property cannot be purchased, temporary 
quarters will be established in a rental unit; however, a 
property is under consideration for purchase. The property 
includes a residence that can be converted to office space and 
a structure that can be used as a maintenance shop. An offer to 
purchase the property is about to be submitted by The 
Conservation Fund. If the offer is accepted, the closing on the 
property could occur by June 22, 1998. To expedite procurement 
of office furniture and equipment, purchase orders are prepared 
and will be submitted when office space is obtained.
    Question. At the end of last year, the previous refuge 
manager retired. Are efforts underway to hire a permanent 
replacement?
    Answer. Yes, a new manager is expected to be in place by 
August 1998.
    Question. How many refuges are now part of the system? How 
many of these have no or only custodial staffing levels?
    Answer. The National Wildlife Refuge System includes 514 
National Wildlife Refuges and 37 Wetland Management Districts. 
There are 320 staffed National Wildlife Refuges and 27 staffed 
Wetland Management Districts. There are 194 National Wildlife 
Refuges and 10 Wetland Management Districts with no staff on 
the site to manage wildlife resources or public use. 
Approximately 114 of these stations should remain unstaffed 
because they are either a mix of remote islands, small sized 
refuges that lack major resource threats, or refuges that are 
in close proximity to other staffed refuges and can be 
effectively monitored from those locations.
    While there is no standard definition of custodial status, 
many refuges are currently only able to provide the most basic 
services. In addition to the 194 unstaffed National Wildlife 
Refuges, many refuges have fewer than five staff. At the 
beginning of this fiscal year on refuges outside of Alaska, 
there were: (1) 580 refuge managers (1.8 per staffed field 
office or 1 refuge manager per 28,200 acres); (2) 576 
maintenance workers (1.8 per staffed field office or 1 
maintenance worker per 28,500 acres); (3) 305 wildlife 
biologists (1 per staffed field office or 1 biologist per 
53,000 acres); and (4) 254 public use and law enforcement 
specialists (.8 per staffed field office or 1 public use 
specialist per 120,000 visitors).
    Staffing needs have been addressed in both the 1998 and 
1999 President's Budgets, with operations increases targeted 
towards the highest priority on-the-ground needs. Part of these 
projects have involved the hiring of on-the-ground staff. The 
1999 President's Budget includes an operations increase of 
$15.0 million and 84 FTE for the highest priority projects.

                    proposed new fws regional office

    Last summer, Mr. Secretary, you put forward a proposal to 
establish a new regional office for the Fish and Wildlife 
Service in California. The objective of this proposal was to be 
able to respond better to the many endangered species and 
resource issues in California.
    However, there were numerous concerns raised regarding the 
cost of this proposal and whether a regional office would be 
the most effective way to solve the problems.
    Recently, the House Appropriations Committee rejected a 
reprogramming proposal that would have initiated this regional 
office in fiscal year 1998. Additional funds for implementation 
are contained in the fiscal year 1999 budget proposal.
    Question. What are your current thoughts on this matter 
given the House's action?
    Answer. On April 17, 1998, he Department proposed a scaled 
back operations office consisting of 9 FTE to provide line 
management and supervision of all field offices in California 
(including the Klamath ecosystem) and Nevada. The annualized 
costs of the office will be $1.2 million and the funds and 
staffing to establish and operate the office will be 
transferred from the regional office in Portland, Oregon. By 
letter of April 23, 1998, the House Appropriations Subcommittee 
approved this new office. By letter of May 6, 1998, the Senate 
Appropriations Subcommittee approved this new office.
    Question. Have you considered an alternative proposal that 
would be a smaller regional office, but put more people ``on 
the ground'' to address the problems?
    Answer. As discussed above, the Department proposed a 
scaled back operations office consisting of 9 FTE to provide 
line management and supervision of all field offices in 
California (including the Klamath ecosystem) and Nevada.
    Question. What do you see as the consequences if a new Fish 
and Wildlife Service regional office is not established for 
California and Nevada?
    Answer. The California/Nevada operations office is critical 
to provide hands-on leadership and improved service to the 
public for the Bay/Delta ecosystem restoration initiative, the 
Central Valley Project Improvement Act, the ongoing Salton Sea 
effort, endangered species issues, the public demand for 
habitat conservation planning assistance, and meeting the 
rapidly increasing expectation of refuge and fisheries 
facilities in California and Nevada. At the same time, the new 
office will allow the Portland Regional Office to be more 
responsive to the public and the Department's partner's in the 
Pacific northwest and the Pacific basin.
    Question. Why do you view a regional office as more 
important than assigning persons ``on the ground'' to the 
various ecological services offices and affected refuges?
    Answer. The Department considers the regional offices as 
one component of an effective three-pronged strategy to 
accomplish the FWS mission. The headquarters office, the 
regional offices, and the various field stations all perform 
important roles. Thus, the Department carefully evaluates the 
needs of the three interdependent organizational levels within 
the FWS and has requested the preponderance of increased 
funding for fiscal year 1999 for field station level program 
implementation among the various programs.
    In regards to the refuge program, the Administration's 
fiscal year 1999 budget includes a requested increase of $25.9 
million and 84 FTE for the refuge system for critical on-the-
ground operations and maintenance needs. Refuge staffing has 
gone from 2,224 in 1996 to 2,306 in 1997 to 2,458 in 1998 to a 
proposed level of 2,542 in 1999 to keep pace with burgeoning on 
the ground implementation needs.
    The ultimate goal of threatened and endangered species 
conservation is to recover listed species to levels where 
protection under the Endangered Species Act is no longer 
required and they can be removed from the list. The Department 
has spent five years improving the ESA through a series of 
administrative reforms which resulted in the recent 
announcement to move 29 species off the Endangered Species list 
or to the less critical ``threatened'' category during the next 
couple of years. The Administration's budget for fiscal year 
1999 includes a requested funding increase of $35.8 million and 
327 additional FTE (to a total of 1,197) to allow further 
progress with the ESA program to support both economic 
development and species conservation.
    For fisheries programs, the Department has requested an 
increase of $4.4 million and 13 FTE to implement on-the-ground 
fisheries restoration actions including fish passage projects 
in high priority migratory corridors, native trout restoration 
projects, hatchery maintenance, and additional efforts to halt 
the spread of aquatic nuisance species.
    By contrast, the Department has only requested pay and 
uncontrollable cost increases for existing regional offices.
    Question. How much has been spent to date on division of 
the FWS Pacific Region Office?
    Answer. No funding has been spent to date to implement the 
new California/Nevada operations office. As discussed above, 
the annualized costs associated with the nine person office is 
$1.2 million, which will be reprogrammed from the Portland, 
Oregon office. A onetime reprogramming of $0.9 million from the 
Portland, Oregon office will also be effected for relocation, 
furniture, and equipment costs.
    Question. What are your planned outyear expenditures, 
beyond fiscal year 1999?
    Answer. For planning purposes, the California/Nevada 
operations office would need increased funding to meet common 
``uncontrollable'' cost increases such as pay and retirement. 
There are no plans to expand the office at this time.
    Question. What are the staffing requirements of the new 
office(s)? Will the creation of the Pacific Southwest Regional 
Office require additional FTE's? If so, how many?
    Answer. As discussed above, the office will be established 
with nine FTE, transferred from the current Portland, Oregon 
office.

                            disaster funding

    Last week, the Senate completed action on the emergency 
supplemental appropriations bill for disaster relief. The 
Senate bill recommends some $46 million for disaster recovery 
for your Department. Most of this is due to winter storms, 
flood damages from El Nino, and storm recovery from tornadoes, 
typhoons, and other weather-related events.
    Question. The Senate bill declares these funds to be an 
emergency, and does not identify offsets to pay for these 
unanticipated costs. What would be the consequence to the 
Department of the Interior if offsets from within the 
Department are necessary to deal with the damages?
    Answer. The Department proposed fiscal year 1998 
Supplemental contained rescissions totaling $9.4 million. 
Offsets were proposed to the non-emergency elements of the 
supplemental request. The $9.4 million represented the entire 
amount identified through a thorough review of the Department's 
available balances. Further offsets would cause viable projects 
for which Congress previously appropriated funds to be reduced.
    Question. Are there damages in excess of what the Senate 
recommended funding level will address? If so, how much?
    Answer. The Department's current assessment of its storm 
related damage to date totals $67,748,000. S. 1768 approved 
$46,424,000 for the Department. The difference will be managed 
through shifting maintenance priorities or stabilizing sites 
until a regular appropriation can be requested.
    Last year, funds were provided to address damages at 
Yosemite National Park, considered to be one of the ``crown 
jewels'' of the system.
    Question. How is the recovery effort progressing? Will 
there be any disruptions for visitors this summer?
    Answer. The recovery effort is fully engaged. Most projects 
are on schedule with the Yosemite Flood Recovery Action Plan 
submitted to Congress in November, 1997. That plan outlines a 
four-year timetable for substantial completion of flood related 
repairs. Throughout the past year, most NEPA compliance, 
emergency repairs, and preliminary planning for permanent 
repairs have been completed. A flood recovery management team 
is established in the park and reports to the Superintendent. A 
support and oversight process has been established at the 
Regional Office and Washington levels, with quarterly review by 
the Office of the Secretary of the Interior and House and 
Senate appropriations committees through the Flood Recovery 
Quarterly Reports.
    One major project, the permanent rebuilding of the El 
Portal Road (7.5 miles of Highway 140 within the park), was 
delayed from January till September 1998. The delay was due to 
project bidding that reflected contractor anxiety about 
beginning a major earth-moving project in the middle of an El 
Nino winter. A rebidding process is now concluded, with 
expected award on June 1, 1998.
    Day use visitors will experience only minor disruptions 
from recovery work this summer. Overnight accommodations remain 
essentially at 1997 levels. The 250 lodge units and 350 
campsites destroyed by flooding are not yet replaced. Lodge 
construction is scheduled to start in June of 1998. Campground 
reconstruction is pending a Record of Decision on the Valley 
Implementation Plan/Supplemental Environmental Impact Statement 
expected by December 1998.
    Concessioner service levels continue to be impacted by the 
loss of 439 bed spaces in Yosemite Valley. Yosemite Concession 
Services, the park's main lodging provider, has chosen to use 
150 overnight visitor rental units to house employees and has 
also installed 84 temporary dormitory beds. This results in 
another 150 units being unavailable for overnight visitors, but 
continues the strategy established in the summer of 1997.
    Question. What is the status of obligations for the funds 
provided in the fiscal year 1997 supplemental? How do current 
estimates for repairs compare to the estimates used in last 
year's appropriation?
    Answer. As of March 31, 1998, $44,400,000 had been 
obligated on the recovery effort. Current projections call for 
obligations of an additional $50,000,000 this calendar year. 
Current estimates are generally running within 10 percent of 
original estimates. One project, the rebuilding of El Portal 
Road (Highway 140 within the park), has exceeded the original 
cost estimate by approximately 30 percent or $8,000,000. 
Natural and cultural preservation concerns, coupled with the 
precipitous nature of this Merced River canyon construction, 
have escalated project costs beyond the original estimate. At 
this time, we expect to manage the shortfall within the context 
of the entire $186,000,000 recovery authorization, applying 
savings from other projects wherever possible. This is a 
design/build project and has been through a negotiated bidding 
process with three of the country's largest road building 
firms. The Federal Highway Administration is in the process of 
certifying the ``Best and Final Offers'' and expects to award 
the contract on June 1, 1998.

                   construction/maintenance backlogs

    Mr. Secretary, in recent months, there has been 
considerable attention paid to the infrastructure of the 
Interior Department and the efforts of the various bureaus to 
protect and maintain the resources which have been entrusted to 
the Department's care.
    In response to concerns raised by Congress, and others, the 
Department has undertaken an effort to identify clearly its 
backlog problems and to develop a systematic means of seeking 
funding to address these issues.
    Question. Can you provide a brief overview of what steps 
have been taken thus far, and what you perceive the necessary 
next steps to be, for this process?
    Answer. The Assistant Secretary for Policy, Management and 
Budget established the first Department-wide criteria for 
prioritizing the fiscal year 1999 maintenance and construction 
lists. With critical health and safety and critical resource 
protection as highest priority for funding, bureaus submitted 
lists that were reviewed by the Department and were submitted 
to the Appropriations Committees.
    A Departmental working group with bureau representatives 
has just completed establishing criteria for the 5-year Plan 
and for meeting the Federal Accounting Standards Advisory Board 
directions for reporting on Standard No. 6 in the annual 
financial report concerning deferred maintenance. These 
criteria have been provided to the bureaus in the fiscal year 
2000 budget formulation guidance from the Department.
    The bureaus will submit five years of projects with their 
fiscal year 2000 budgets and will be reviewed by the Department 
and OMB.
    As part of the overall 5-year process, the Department and 
bureaus also will work on improving the quality of the data 
concerning the condition of the infrastructure.
    Question. What success are you having with the bureaus in 
seeking to implement a new approach to review these projects--
are they ``buying in'' and participating fully?
    Answer. Yes, the bureaus are fully ``buying in'' and 
participating in the Maintenance and Construction Working Group 
that has developed the guidance for the five year plans.
    Mr. Secretary, as you know, there are many projects each 
year that are brought to the attention of Members of Congress, 
oftentimes by the Department's on-the-ground managers and 
superintendents.
    Question. How do you propose to deal with pressures to 
substitute, or add at the expense of other initiatives, 
alternative projects for items which may be identified in your 
5-year plan?
    Answer. The Department hopes that, by laying out a 5-year 
Plan based on clearly articulated criteria, consensus can be 
achieved on an orderly, efficient approach to funding line-item 
projects. There will, of course, be emergency and unforeseen 
requirements that emerge over the five year period, which will 
have to be accommodated within the plan.
    Question. How are the special recreation demo fee revenues 
helping the bureaus to address critical requirements?
    Answer. In fiscal year 1998, the National Park Service is 
beginning its program to use the fee demo revenues to benefit 
the parks including for visitation and maintenance needs. For 
example, in the list of 20 percent fees managed nationally that 
was submitted to the Subcommittee staff in February 1998, 33.5 
percent of the projects address health and safety items.
                                ------                                


            Questions Submitted by Senator Daniel K. Inouye

                               extinction

    It has been reported to me that during the recent North 
American Wildlife Management Institute meeting in Orlando you 
stated that no species will go extinct during your watch. I 
very much appreciate your optimism and dedication.
    My area of concern, of course, is Hawaii and the Pacific 
islands. Reports from this region are that more extinctions are 
imminent. Nobody can argue the environmental crisis that is 
ongoing in Hawaii. Over the past decades, endemic species of 
birds and plants have been lost and we may be in the process of 
losing more. Important work in recent years by the U.S. Fish 
and Wildlife Service (FWS) and other agencies of the Interior 
Department has started the process toward conserving these 
species.
    Question. Can you outline some of your conservation plans 
and priorities for prevention of extinctions in Hawaii and the 
Pacific?
    Answer. Habitat destruction and modification, along with 
subsistence hunting, introduced diseases, and other direct 
causes, were the main causes of species declines and 
extinctions in past centuries. More recently, extinctions and 
declines in the native flora and fauna of Hawaii are directly 
attributable to impacts from introduced species. Strategies to 
stem the tide of extinctions in Hawaii are, therefore, aimed 
first and foremost at the control of threats from alien 
organisms in the wild.
    Efforts to fence and remove ungulates (pigs, goats, sheep, 
deer, and cattle) from large tracts of native forest and 
replant such forests with native species are ongoing as are 
efforts to remove introduced predators (rats and mongoose). In 
the past few years great strides have been made in obtaining 
authorization to use rodenticides in the form of bait blocks to 
control rats and mongoose in the forests of Hawaii and larger 
scale methods of control are being developed. Specifically, 
research is underway to determine if it will be feasible to 
pursue a future registration to aerially broadcast pelleted 
forms of rodenticides in Hawaii. Research is also underway to 
determine appropriate control methods for the introduced 
mosquitoes that are the carriers of avian malaria and pox, the 
main threats to the survival of Hawaii's forest birds.
    Much of Hawaii's endangered flora and fauna are in such 
critically low numbers that the above habitat based efforts 
alone will likely not prevent their continued decline and 
ultimate extinction. Therefore another major component of the 
FWS conservation strategy for Hawaii's endangered and 
threatened species is captive propagation to bolster their 
numbers and reintroduction of these species into areas that are 
managed to control known threats. Captive propagation is a tool 
that is used, or is being developed, for many of Hawaii's 
endangered forest birds and plants, the nene, Oahu tree snails, 
and the Blackburn's sphinx moth. Research to develop the means 
to promote immunity to malaria and pox in Hawaii's native birds 
is also underway.
    Recovery plans identifying the FWS recommendations for 
Hawaii's plants and wildlife and the priorities assigned to 
these actions are available for nearly all of the listed taxa 
in Hawaii. In addition, the FWS has convened expert Recovery 
Teams to assist in developing and implementing actions for 
recovery of Hawaii's native flora and fauna. The `Alala 
Recovery Team, which includes private landowners, offers expert 
advice on how to prevent extinction and promote recovery of the 
`Alala. The Hawaii Forest Bird Recovery Team provides advice 
for all other endangered Hawaii forest birds and is currently 
preparing a revised recovery plan for these species. The Hawaii 
and Pacific Plants Recovery Coordinating Committee is in its 
final stages of developing a Plant Conservation Strategy for 
the islands.

                         secretarial commission

    On February 3, 1997, the Hawaii Congressional delegation 
wrote you a letter outlining the problems associated with the 
recovery of many of the endangered Hawaiian forest birds. As 
you have seen first hand, the State of Hawaii is experiencing 
an extinction crisis. Half of the State's endemic bird species 
are gone and most of the remaining are endangered, some 
critically.
    In our letter we requested your leadership to deal with 
problems associated with this extinction crisis. Specifically, 
the recovery of these species will not succeed unless we 
institute a habitat management program that will deal with the 
adverse effects of alien species and predators (e.g. Miconia, 
rats, mongoose, mosquitoes, ungulates).
    It has been suggested that a Secretarial Commission should 
be formed to take a close look at the situation and make 
recommendations. This sounds like a positive step to me. I 
understand that the Department has already responded to other 
Congressional inquiries along these lines.
    Question. What steps has the Department taken with respect 
to this issue and the Hawaii delegation's inquiry of February 
3, 1997?
    Answer. At his confirmation hearing, and in response to a 
question by Senator Kempthorne, Assistant Secretary for Fish, 
Wildlife, and Parks, Don Barry, responded that he would support 
a Secretarial Commission to study Hawaii's declining 
ecosystems. The FWS is actively considering the Hawaiian 
delegation's proposal to establish a Secretarial Commission or 
similar organization that could function as an umbrella 
organization capable of taking a broad look at the enormous 
task of setting priorities and restoring parts of Hawaii's 
natural environments. This commission could be established 
under the auspices of the Endangered Species Act and function 
as a recovery team for Hawaiian ecosystems, consisting of both 
resource professionals and other individuals with the necessary 
expertise to guide the recovery process. The Commission could 
become a successful partnership of public and private entities 
who share a common concern for the welfare of Hawaii's unique 
flora and fauna.

                       administration of funding

    Another important topic is the funding for Hawaii for the 
recovery of species. Specifically, the amount of funding 
necessary, the current uses of existing funding, and how 
funding priorities are established.
    The Keauhou Bird Conservation Center was built on the 
recommendation of the National Research Council report that two 
bird propagation facilities in Hawaii are necessary; one on 
Maui (existing) and another on the Big Island (Keauhou).
    Question. What are the operational costs of each facility 
for fiscal years 1996, 1997, 1998, and 1999? Are both 
facilities fully funded in Fiscal years 1998 and 1999? Is the 
FWS funding both facilities?
    Answer. Yes, both facilities are fully funded in fiscal 
year 1998 and 1999. The operational costs of the Maui Bird 
Conservation Center (MBCC) and Keauhou Bird Conservation Center 
(KBCC) for 1996 through 1999 are as follows:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year--
                                                             ---------------------------------------------------
                                                                  1996         1997         1998         1999
----------------------------------------------------------------------------------------------------------------
MBCC........................................................          400          402      \1\ 400      \2\ 400
KBCC........................................................          500          529      \1\ 610      \2\ 750
                                                             ---------------------------------------------------
      Total.................................................          900          931    \1\ 1,010    \2\ 1,150
----------------------------------------------------------------------------------------------------------------
\1\ Estimated.
\2\ President's budget request.

    Through the Recovery Program, the FWS provides $500,000 per 
year to The Peregrine Fund for operation of the KBCC facility. 
Section 6 Cooperative Agreement Funds are also provided for 
MBCC, as follows:

Fiscal years:
    1996......................................................  $300,000
    1997......................................................   301,000
    1998......................................................   302,025

    It is my understanding that the FWS is under a court order 
to focus more on endangered plants, particularly their critical 
habitat.
    Question. How does the FWS plan to address the court order? 
How has the court order impacted other FWS programs in Hawaii? 
How are these impacts addressed in the budget before the 
subcommittee today?
    Answer. The FWS filed a declaration with the United States 
District Court for the District of Hawaii on April 14, 1998 in 
response to the court order. In the declaration, the Service 
presented two options for compliance with the Court's order to 
reconsider decisions that designation of critical habitat was 
not prudent for 245 plant taxa in the Hawaiian Islands. The 
Court is currently considering the proposed schedule for 
remand.
    The first option proposed would require the FWS to assign 
four listing biologists to the remand thereby allowing the FWS 
to complete the reconsideration of all 245 not prudent findings 
by November 30, 2000. Under this option, all other listing 
activity in the Pacific Islands Ecoregion would be suspended 
until November 30, 2000. The second option would allow the FWS 
to assign only two listing biologists to the remand, with the 
other two continuing to work on high priority listing 
activities in the Ecoregion. Under this option, the 
reconsideration of the not prudent findings would be completed 
by April 30, 2002.
    There has been no impact to any other FWS programs in 
Hawaii as a result of the court order, as the final decision of 
the Court has not yet been reached. The impacts that will 
result from the court order are not addressed in the FWS fiscal 
year 1999 budget. The order had not yet been issued when the 
budget request was developed and the final decision of the 
Court has not been made.
    The Alala (Hawaiian crow) is the species that really 
brought us to where we are today with endangered species 
recovery in Hawaii. As a result of this successful work, 
propagation of other Hawaiian forest birds has occurred.
    Question. Please provide me with an update on the Alala and 
other species that are the subject of recovery work. What are 
these species' biggest threats? Please provide a breakdown 
(propagation, releases, monitoring, etc) of the funding the FWS 
will spend in fiscal year 1998 on this work?
    Answer. `Alala--The current `Alala population consists of 
16-17 individuals in the wild (4-5 of the original wild birds 
and 12 released) and 18 captive birds (consisting of 7 pairs, 3 
single males, and one imprinted female). Reproduction by the 
surviving wild birds appears to be at a standstill. In 1997, 
only one viable egg was produced by the only reproductive wild 
pair, and was collected and hatched in captivity. This same 
pair has not completed a nest or bred this breeding season.
    One of the most significant events to have occurred during 
the past year is the formation of a breeding pair made up of 
birds produced in captivity and released during the first year 
of the `Alala restoration project in 1993. These two birds have 
established a pair bond and have been placed in a field aviary 
for protection during this critical, first breeding phase. 
Chances are good that these birds will produce young either 
this season or the next. Some significant losses occurred in 
1997, as well. There were five confirmed deaths, all of which 
showed signs of predation, either mammalian or raptor. An 
additional two `Alala are missing and presumed dead. Thus far 
in 1998, two additional deaths have occurred, both of which 
were caused by a bacterial infection that appears to be E. 
coli.
    The FWS has developed a productive partnership with the 
private landowner involved in `Alala recovery. The development 
of mutual trust within the group serves as a model for other 
such efforts nationwide.
    In December 1997, the Kona Forest Unit of Hakalau National 
Wildlife Refuge was established, based on recommendations from 
the National Research Council and the `Alala Recovery Team. The 
Refuge consists of 5,300 acres of former Kai Malino Ranch land 
that is essential habitat of the `Alala and other endangered 
birds and plants. The acquisition process is also underway for 
potential purchase of an additional 12,000 acres. The refuge 
will become the cornerstone of potential agreements with other 
landowners in the area to manage the Kona forest on an 
ecosystem basis. Efforts are also underway to identify another 
site on the Big Island for the establishment of a second 
population of `Alala. The Service hopes to begin releases of 
`Alala at a second site in 1999. The biggest threats to the 
continued existence of the `Alala are (1) predation by 
introduced mammalian predators and by the native Hawaiian hawk, 
(2) disease, and (3) the potential for a catastrophic 
extinction event as a result of the population's small size and 
limited distribution.
    In 1998, the Service will spend approximately $260,000 in 
recovery funds on the field project for the `Alala. The costs 
of raising the `Alala in captivity at Keauhou Bird Conservation 
Center (KBCC) and Maui Bird Conservation Center (MBCC) and 
hacking them into the wild as fledglings is included as part of 
the costs to operate KBCC and MBCC discussed in detail above.
    Po'ouli.--After nearly two years of intensive field efforts 
to locate and monitor remaining individuals of this species, 
all indications are that there are only three birds remaining. 
Although sexing results have not yet been confirmed, 
preliminary results indicate that these are two females and one 
male. Discussions are being held with the Hawaii Division of 
Forestry and Wildlife to determine the next course of action. 
Options include attempting to establish a pair in the wild 
through translocation and, possibly, capturing the remaining 
birds and bringing them into captivity for attempted 
propagation.
    The decline of the Po'ouli is likely the result of a 
combination of factors, including avian disease, predation by 
introduced mammalian predators, habitat loss and degradation, 
diminishing food sources, and competition with introduced 
birds.
    Thus far in 1998, the Fish and Wildlife Service has spent 
$150,000 in recovery funds on the Po'ouli recovery project.
    Puaiohi.--The Puaiohi population on the island of Kauai is 
believed to number approximately 200-300 in the wild. The 
recovery project is aimed at identifying the threats to this 
population, working out methods of captive propagation, 
identifying other areas of suitable habitat, and expanding the 
Puaiohi's range through release of captive produced young into 
such areas. The field effort consists of locating and 
monitoring birds and nests, controlling predators, and 
monitoring for avian disease. Eggs were collected from wild 
nests in 1996 and 1997 and hatched at KBCC by The Peregrine 
Fund. The young that were produced were held at KBCC to 
establish breeding pairs. Currently, there are five breeding 
pairs and one single bird (11 birds) at KBCC. Thus far in 1998, 
three of the five pairs have produced eggs. Of these, two eggs 
have been fertile and were successfully incubated and hatched 
by The Peregrine Fund. Releases of young produced this year 
should begin in early 1999.
    The fiscal year 1998 budget for this project is $50,000. 
The costs for propagation of Puaiohi at KBCC are included in 
the overall operational costs of the facility discussed above.
    The FWS is also coordinating, participating in, and/or 
funding recovery projects for several other species, such as 
the Hawaiian hawk, Laysan duck, palila, Oahu tree snails, 
hundreds of Hawaiian plants, hawksbill sea turtle, Mariana 
crow, Rota bridled white-eye, and Blackburn's sphinx moth, and 
habitat restoration projects, such as the Kona dryland forest 
project, Ola'a-Kilauea project, and Palawai Gulch restoration 
project.

                               landowners

    Question. You have provided leadership in seeking to 
address some of the landowners' concerns with recovering 
endangered species. After watching the bird recovery process in 
Hawaii, it is clear to me that landowners need to be part of 
the solution. How do you see the Administration proceeding in 
Hawaii on these landowner issues? What can be done to encourage 
and make it attractive for landowners, private and public, to 
participate in the species recovery process?
    Answer. Hawaii possesses one of the most unique assemblages 
of plants and animals in the world. Nearly 40 percent of all 
endangered plants and animals listed under the Federal 
Endangered Species Act (ESA) are native to Hawaii. Since 1991, 
over 200 Hawaiian plant species have been listed under the 
Federal ESA. Approximately 50 percent of all endangered and 
threatened species in Hawaii occur on private lands. Recovery 
of these species is, therefore, dependent on the cooperation of 
private landowners and the willingness of agencies to meet the 
needs of both the listed species and the property owners.
    Recognizing that the protection and recovery of such an 
overwhelming number of listed species would require creative 
and flexible mechanisms, the State of Hawaii Legislature 
approved House Bill 1292 in 1997. This Bill later became Act 
380, which changed the Hawaii Revised Statute 1950. Act 380 is 
designed to reduce conflicts between land uses and listed 
species and to provide incentives for private landowners to 
protect and promote the recovery of endangered and threatened 
species. This Act establishes a provision within State law for 
the development of habitat conservation plans and issuance of 
incidental take licenses, similar to the provisions of section 
10(a)(1)(B) of the Federal ESA. It also establishes procedures 
for Safe Harbor Agreements and ``no surprises'' (incentives), 
closely patterned after Federal procedures by those names.
    Since the passage of Act 380, the Fish and Wildlife 
Service's Pacific Islands Office has been working closely with 
the State of Hawaii Division of Forestry and Wildlife (DOFAW) 
to develop a joint State/Federal process for the development 
and issuance of Safe Harbor Agreements, HCPs, and Incidental 
Take permits. Draft fact sheets, applications, and instructions 
have been developed and are currently being refined for 
distribution to private landowners throughout the State. In 
addition, the Service is actively working with DOFAW on what 
will likely be the first Safe Harbor Agreement for 
reintroduction of the endangered Hawaiian goose, or nene, on 
Molokai. In this case, an agreement is being worked out between 
the private landowner and the State and Service to promote 
recovery of the nene while providing assurances that the 
landowner's desired future actions on the land will not be 
hindered by the presence of this endangered species.
    The FWS intends to continue and expand its efforts to 
encourage the maintenance, restoration, and/or protection of 
private lands for the benefit of endangered and threatened 
species, while allowing the lands to bring economic benefit to 
the individual landowners. There are now more tools available 
within the State of Hawaii to accomplish recovery objectives on 
private lands, and the Service intends to be creative and 
flexible in its use of as many tools as possible to collaborate 
with private landowners in Hawaii for the recovery of 
endangered and threatened species.

                            predator control

    Question. It is my understanding that New Zealand has a 
very successful predator control effort. How is the FWS 
utilizing this expertise? Are we implementing in Hawaii the 
successful actions of New Zealand? How have you utilized the 
expertise of USDA Wildlife Service with predators in Hawaii?
    Answer. The FWS Pacific Islands Office has developed and 
maintained contacts within the New Zealand Department of 
Conservation and remains abreast of their predator control 
efforts. The FWS has funded visits by New Zealand biologists 
responsible for predator control to Hawaii for purposes of 
sharing information and providing advice on specific projects 
and methods. Along with the State of Hawaii, Biological 
Resources Division of the U.S. Geological Survey, U.S. 
Department of Agriculture-Denver Wildlife Research Center and 
Wildlife Services, The Nature Conservancy, National Park 
Service, and several private landowners, the FWS is a member of 
a working group devoted to obtaining the best possible methods 
for predator control in Hawaii.
    In the past few years, this Toxicant Working Group applied 
for and obtained a registration for the use of peanut butter/
molasses flavored Diphacinone bait blocks for use in bait 
stations in the forests of Hawaii. This product is readily 
available and is currently widely used to control rats, 
particularly black rats, in areas inhabited by endangered and 
threatened forest birds, snails, and plants. In January 1998, 
approval was obtained for this same product in a fish flavor. 
It is hoped that the additional flavor will enhance the 
product's effectiveness against the Polynesian rat.
    Research is underway to support a registration for a 
larger-scale method of rodenticide dispersal in Hawaii--
specifically, for aerial dispersal. There are currently two 
products being considered for registration, both with 
Diphacinone as the active ingredient. These products are 
Eaton's 8 gram, fish-flavored, wax-based pellet and Ramik 
Green's 10 gram, fish-flavored, grain-based pellet. Additional 
research needed to support an application to the Environmental 
Protection Agency for an aerial broadcast registration of a 
Diphacinone-based rodenticide has been identified, and the FWS 
and State of Hawaii are working closely with the U.S. 
Department of Agriculture--Denver Wildlife Research Center to 
complete the research and application package for funding 
consideration within the next year.
                                ------                                


              Questions Submitted by Senator Barbara Boxer

                               salton sea

    Question. The House and the Senate concurrently are 
preparing legislation to save the Salton Sea. While I am 
certain that we are all interested in expeditiously 
implementing a plan to rescue the Sea, it is important that 
such a plan be both scientifically sound and politically 
viable. Are their any aspects of either version of the 
legislation at this stage that you believe to be of particular 
concern or merit?
    Answer. While the Department supports the need to restore 
the Salton Sea, the House Bill (HR 3267) includes several 
aspects that are of concern to the Department, as identified in 
testimony given by David Hayes, Counselor to the Secretary, for 
the H.R. 3267 hearing March 12, 1998. Excerpts of his testimony 
follow:
    The NEPA scoping process described in Title I, Section 101 
(c)(2) would limit EIS focus to three types of remedial 
actions. These would include the use of impoundments, pumping 
out water, and augmentation of inflows. The Fish and Wildlife 
Service is concerned that this set of options will not 
adequately address the problems associated with fish and 
wildlife in the Salton Sea, and the project will not attain the 
goals described in Sec. 101 (b) Project Requirements. A broader 
set of alternatives should be considered in the National 
Environmental Policy Act (NEPA) process and provide a more 
objective evaluation to address all of the identified Project 
Requirements.
    The time frame described in Section 101 (c)(4) does not 
appear to be adequate to meet the needs of the project. This 
time frame is to be concurrent with the research described in 
Section 102 (a). As the required research has not actually been 
identified at this time, it is not possible to determine if 
completion of the research would be possible within 12 months. 
As described in Sec. 101 (c)(4)(B), the environmental 
compliance and permitting is to be completed within that same 
12 months. Because some of the environmental compliance 
documentation and permitting are reliant on the completion of 
the research at the Salton Sea, these processes may not be 
totally concurrent. This could result in the completion of the 
environmental compliance and permitting processes taking well 
in excess of 12 months.
    Section 101 (f)(3) contains language that could result in 
legal action. Specifically, the provisions relative to 
environmental compliance under the National Environmental 
Policy Act and the limitations on judicial review in the 
issuance of permits or other authorizations by Federal agencies 
could result in litigation.
    Title II, Section 202, which deals with emergency actions 
required by the Secretary, raises several concerns. There is no 
discussion of the destination for the waters to be removed from 
the Salton Sea. This determination is called for in Title I, 
Section 101(e), but it is not clear how that determination is 
to be made and what biological and/or NEPA study will be 
conducted in support of that process. Section 202 also calls 
for diversion of Colorado River water into the Salton Sea. 
There are no biological and/or NEPA studies described for this 
aspect of the emergency action, and it is not clear how that 
will be carried out with the requirements of Title I, Section 
101(f)(3) regarding the existing treaty/law/agreements relative 
to the use of the Colorado River water and the proposed rule 
for interstate water transfer. The Fish and Wildlife Service is 
concerned that this could result in unacceptable impacts to 
natural resources and/or litigation.
    The Senate Bill alleviates some of these concerns by 
extending the time frame to 18 months (although this is still a 
very ambitious schedule), calling for full environmental 
review, and not limiting the options for restoration. The 
Senate Bill calls for the scientific study to indicate what 
restoration options should be considered. Previous alternative 
screening efforts that have identified diking and/or 
evaporation ponds as preferred options may not have been 
comprehensive enough to identify options that can address all 
objectives outlined for the project.
    Question. As you know, scientists predict that the Salton 
Sea will be a dead sea if we don't take action soon. As 
Congress continues to work on legislation, what steps can you 
take administratively to prevent further disaster at the Salton 
Sea?
    Answer. The Salton Sea will not be dead in the near future, 
but it will change. As the salinity rises, foraging habitat for 
fish eating birds in the Salton Sea will be lost. This is a 
problem because alternative habitat is severely restricted in 
the Pacific flyway. This will have the greatest impact on 
species such as the American white pelican, the endangered 
brown pelican, and the double-crested cormorant. Salinity 
increases may ultimately impact the Salton Sea population of 
the endangered desert pupfish. Invertebrates will likely be 
available for some time, so shorebird and waterfowl use is 
likely to continue for decades, similar to that which occurs at 
Great Salt Lake and Mono Lake.
    The more immediate issue is wildlife disease. Currently, 
bird losses are occurring at the Salton Sea from at least three 
separate disease events. The Fish and Wildlife Service will 
continue to utilize its resources to carry out carcass 
recovery. This is the most effective means we have available to 
limit the spread of disease at the Salton Sea. Additionally, 
the Salton Sea National Wildlife Refuge is currently 
strengthening its infrastructure to respond to disease 
outbreaks. Additional staff biologists are being hired, a field 
rehabilitation center is being constructed, and an emergency 
response team of FWS personnel from several offices is being 
developed to assist Refuge staff in responding to large disease 
outbreaks. The fiscal year 1999 President's Budget includes a 
refuge operations increase of $240,000 for the refuge.

                         endangered species act

    I look forward to reviewing your soon to be proposed five 
point initiative regarding HCP's. I understand that all five 
provisions in your initiative (biological goals, adaptive 
management, biological monitoring, public participation, and 
permit duration) were identified by the scientific and 
environmental communities in comments submitted on the recently 
finalized no surprises policy, as the bare minimum necessary to 
ensure the scientific validity of the HCP program, including no 
surprises.
    Question. Why then were these provisions not incorporated 
as part of your final no surprises rule?
    Answer. The 5-point policy initiative addresses concern 
over HCP development and implementation. The No Surprises final 
rule was limited to the narrow issue of the no surprises 
guarantee itself. The Administration decided not to broaden it 
to include more general HCP issues because we had not provided 
for notice and comment on the broader issue.
    Question. Do you believe that these provisions are less 
important than your no surprises policy?
    Answer. The No Surprises rule is a regulatory mechanism 
that codifies permit assurances through the section 10(a)(1)(B) 
process. The 5-point policy initiative, however, largely 
clarifies and provides more detail to existing HCP development 
guidance contained within the HCP handbook. Expansion and 
clarification of the HCP guidance to the FWS and public will 
strengthen HCPs, the process, and improve national consistency, 
such as allowing for increased public input.
    Question. If you believe that they are just as important, 
do you agree that they should undergo a rulemaking and be 
incorporated into the regulations governing the approval of 
HCPs, just as you've done with no surprises?
    Answer. The FWS considers the 5-point policy initiative to 
be an internal guidance document further explaining concepts 
that help strengthen the HCP process, such as the use of 
adaptive management strategies. This guidance supplements the 
HCP handbook, rather than providing additional regulatory 
requirements. Since HCPs are increasingly used by the public as 
a means to comply with the Endangered Species Act, the FWS is 
providing a 60-day public comment period on the draft 5-point 
policy initiative, even though it is not a proposed rule.
    Question. Can you speak to the need for increased funding 
for the Endangered Species Act and other Interior Programs, and 
inadequacy of such funding in the Senate Budget Resolution?
    Answer. The Senate Budget Resolution Chairman's mark 
assumes the landowner incentive programs of the proposed 
Endangered Species Recovery Act will be enacted. For 1999, this 
funding would total over $80 million for the FWS. The proposed 
landowner incentive program includes safe harbor agreements, a 
habitat conservation plan loan program, recovery plan 
implementation agreements, a habitat conservation insurance 
program, habitat reserve agreements, and assistance to states. 
Under the Chairman's mark, funding would be made available to 
pay for the landowner incentive programs from the gross 
receipts realized in the sales of excess BLM land, ``provided 
that BLM has sufficient funds to conduct such sales.''
    While the Department strongly supports incentives to 
encourage private landowners to work on endangered species 
issues, the Department strongly opposes the ESA funding 
arrangements contained in the Chairman's mark. First, the 
Chairman's mark freezes funding for the FWS operating account 
at the 1998 enacted level, which would not allow increases 
critically needed for ESA program implementation. Second, the 
Chairman's mark proposes that the Department sell off 
``excess'' BLM lands to pay for private landowner incentives.
    The Department is currently working with the Congress on 
the reauthorization of the Endangered Species Act. Given the 
limited funding available within the President's Budget, the 
Department has placed a priority on more effectively and 
efficiently implementing the ESA program. The President's 
Budget includes a requested increase of $38.8 million to 
implement additional candidate conservation agreements to keep 
species from being listed; to implement more than 100 
additional Habitat Conservation Plans; to enter into 100 to 150 
Safe Harbor Agreements with private landowners; to develop and 
implement multi-species conservation plans; and to continue to 
streamline Section 7 consultations with the Federal agencies to 
allow economic development activities to proceed.
    As part of this overall approach towards implementing the 
ESA, the budget includes a modest increase of $5.0 million to 
provide Safe Harbor Grants to small landowners. The Department 
believes that the Safe Harbor Grants program is the most 
logical area to ``pilot'' the landowner incentive concept. 
Freezing the FWS operating program at the 1998 enacted level 
will not allow responsible implementation of the Endangered 
Species Act and the Department strongly supports the operations 
increases for the FWS included in the President's Budget.
    Question. Currently there is language in the Senate Budget 
Resolution that calls for the sale of BLM land to pay for 
operations of other Interior Department programs. What is the 
Administration's position on the sale of federal assets to 
support operations?
    Answer. The Department strongly believes that there is no 
such thing as ``excess BLM land'' that could be sold off to pay 
for the landowner incentive program or other operating programs 
in the FWS or Department. The Department holds the public land 
in trust for all Americans and the Department manages this 
public estate to protect lands of national interest for their 
conservation, recreation, and taxpayer asset values. For 
example, the 264 million acres of public land annually host 
some 74 million recreation visitors while at the same time the 
public lands support grazing allotments for 3.7 million head of 
livestock, some 20,000 active oil and gas leases, as well as 
coal mining, timber production, and other commercial uses. That 
said, the Department recognizes that over time, land ownership 
patterns have developed in some areas that make little sense. 
That is why the Department continues to aggressively work with 
the States and local governments on land exchanges to 
concentrate State ownership in urban areas while the BLM 
focuses on holding rural land with significant conservation 
values. For example, during 1998 the BLM will complete sixty 
land exchanges involving some 125,000 acres.

                    land and water conservation fund

    The State of California has some very important land that 
needs to be conserved. With the exception of last year, the 
Land and Water Conservation Fund has been underfunded for over 
a decade.
    Question. Realizing that LWCF is financed primarily from 
oil royalty receipts and that the offshore oil and gas 
royalties increased significantly in fiscal year 1998, will the 
Administration prioritize efforts to acquire land and increase 
funding to LWCF?
    Answer. Throughout this Administration, the Department has 
consistently prioritized land acquisition. In addition, the 
fiscal year 1999 budget identifies an additional $1.3 billion 
in outyear funding for LWCF through fiscal year 2003.

                    klamath national wildlife refuge

    Question. The Klamath Basin of northern California has some 
of the oldest and most import National Wildlife Refuges in the 
country. I have been very concerned to hear that the wetlands 
ecosystems and the wildlife within these refuges have been 
declining due to problems of water quality, water quantity, and 
other similar problems that our refuges in the Central Valley 
have faced in the past. Can you tell me what the Interior 
Department is doing to acquire water rights, clean up the 
water, or purchase land for the Klamath Basin refuges?
    Answer. There are several ongoing proposals which should 
significantly improve the habitat and water quality conditions 
at the Tule Lake and Lower Klamath National Wildlife Refuge. 
These are as follows:
1. Wetland/cropland rotation
    The Refuge is entering its fourth year of a multi-year study with 
the University of California at Davis, University of Washington, and 
Interior's Biological Resources Division. We are looking at the 
benefits and possible problems with converting currently farmed lands 
to wetlands and moving the commercial agricultural lands to what are 
currently degraded wetlands. Over the past three years, the Refuge has 
created nearly 600 acres of seasonal marsh habitat as part of this 
study that has resulted in a tremendous increase of waterbird use on 
those areas. This year we hope to begin conversion of a 300 acre 
degraded marsh area to agricultural use. This concept of wetland/
cropland rotation holds great promise to reverse the long term trend of 
declining wildlife values at Tule Lake NWR. A similar approach is used 
at Lower Klamath NWR and last fall that Refuge peaked at approximately 
1.8 million waterfowl and exceeded 100 million waterfowl use days, the 
highest use recorded in nearly four decades.
2. Sump 1B conversion to seasonal marsh
    The fiscal year 1999 President's Budget includes $600,000 to assist 
with the development of this project. When completed, this project will 
be the largest wetland restoration project in the western United 
States, with approximately 3,500 acres of restored wetlands. We believe 
this project will significantly improve the waterfowl and wetland 
dependent species use of Tule Lake NWR and reduce overall project water 
demand by approximately 5,000 acre feet.
    Sump 1B conversion to seasonal marsh is a partnership effort 
between Ducks Unlimited, the FWS, and Tule Lake Irrigation District. In 
addition, funding proposals have been submitted for Upper Klamath Basin 
Working Group (Hatfield Working Group) funds as well as California Duck 
Stamp funds. The FWS expects to complete this project in fiscal year 
1999.
3. Unit 13 water storage
    The fiscal year 1999 President's Budget includes $3,000,000 to 
construct a storage site in Unit 13 on Lower Klamath NWR. This area 
will store approximately 25,000 acre feet of water that will help 
ensure a water supply for Lower Klamath NWR. The National Wildlife 
Refuges within the Klamath Basin have been identified as last in 
priority for water delivery within the Klamath Project. Water stored 
within Unit 13 will be used to offset evaporative losses within the 
permanent marshes on Lower Klamath NWR. This effort will also benefit 
other project users by lessening the amount of water needed from Upper 
Klamath Lake during the summer period, saving from 20,000 to 25,000 
acre feet in the Upper Klamath Lake during most years.
4. Acquire water from underground wells
    The FWS currently is negotiating with an adjacent landowner to 
purchase water from his underground wells. The landowner feels his 
water should be valued as in the Central Valley. If we are unable to 
reach an equitable agreement the FWS will explore the possibility of 
developing its own groundwater pumping.
5. Land acquisition efforts
    The Trust for Public Lands is working with two local landowners to 
acquire 2,100 acres of land and hold it for the FWS. This location may 
also enhance our ability to develop and store additional water supplies 
for use on Lower Klamath NWR. The FWS has previously expressed interest 
in acquiring acreage within the Klamath Straits area, adjacent to Lower 
Klamath NWR. Currently, landowner asking price and appraised value are 
far apart. The FWS will continue to pursue acquisition of adjacent land 
parcels that will assist in meeting the mission of the National 
Wildlife Refuge System and the purposes of the Tule Lake and Lower 
Klamath NWR's.

                    blm wild horse and burro program

    Question. What percentage of the program budget, or actual 
dollar figure, is dedicated to the roundup and adoption program 
versus range management?
    Answer. Expenditures (in thousands) in fiscal year 1997 are 
as follows by program element (these expenditures include 
unobligated balances from prior year appropriations):

                                                               Thousands

Program management............................................  $8,272.7
Animal removal................................................   2,643.2
Animal preparation............................................   1,514.7
Animal adoption...............................................   5,699.2
Adopter compliance............................................      96.9
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................  18,226.7

    Question. Is it true that holding facilities are over 
crowded, adoptions are down and outbreaks of illness keep 
cropping up in holding facilities and at adoptions? What 
further problems are there with management of the program?
    Answer. It is normal for BLM to fill its holding facilities 
at the end of the capture season in February/March of each 
year. We then process and ship animals to adoptions throughout 
the country during the late winter, spring, and early summer. 
During the summer, wild horse gathers are halted for the 
foaling season. This year the facilities reached capacity 
earlier than planned. Due to this situation, some gathers 
planned for December and January had to be canceled. There were 
5,743 animals in BLM facilities as of February 24, 1998 in 
facilities with a total holding capacity of 6,570 animals. By 
April, the number held was reduced to about 4,400 animals.
    The current problem we are faced with is that the number of 
animals adopted at each event is lower than planned, which 
means that we are moving animals out of our facilities slower 
than normal, and we are holding animals longer than expected. 
There are a number of factors that are contributing to this 
slow down in adoptions including the unusually wet and severe 
winter in the mid-west and the concern over illnesses of some 
the animals coming out of some BLM facilities.
    In December 1997, the states were asked to add more 
adoptions to their existing schedule. The six western states 
added ten additional adoption events (both facility and 
satellite adoptions) to increase their adoption goals in fiscal 
year 1998. To further increase adoptions, a Western States 
Adoption Strategy was developed to share personnel for gathers, 
preparation, adoptions, and compliance. Sharing personnel 
during peak workloads will enable the states to place 
additional animals this fiscal year. Together, these actions 
increased the adoption goal for fiscal year 1998 to 10,225 
animals. This level of adoptions would clear the holding 
facilities in sufficient time and provide sufficient capacity 
for the planned gathers in fiscal year 1998 to proceed.
    Additional promotion of adoptions in the west is necessary 
to achieve adoption goals. A public outreach plan is being 
developed to locate and take advantage of new markets. A 
marketing analysis will include a long-term plan to increase 
the number of adoptions and then maintain that increased level 
in the west.
    The BLM is experimenting with wild horse and burro 
adoptions over the Internet and the idea of gentling wild 
horses and then adopting them through competitive events to 
enhance their adoptability. The Director is also requesting 
recommendations from the newly chartered Wild Horse and Burro 
Advisory Board.
    Isolated and sporadic occurrences of illness among animals 
in holding facilities are a seasonal occurrence and are related 
to extremes in outdoor temperature and precipitation. Another 
contributing factor is the movement of animals from one climate 
to another in a short period of time. It takes a few days for 
an animal to acclimatize to the local climate and microbes of 
that specific locality. BLM has implemented procedures related 
to facilities design and animal care for disease control under 
State and Federal veterinary guidelines to prevent the 
spreading of disease from animal to animal. All BLM-funded 
facilities have existing quarantine pens and barns to isolate 
sick and injured animals. All BLM-funded holding facilities, 
off-site adoption events, and the sanctuary are under contracts 
for local veterinarian routine and emergency services. The 
health of all wild horses and burros is closely monitored while 
they are in the BLM's possession, and appropriate care is 
provided promptly if they become ill. BLM is proposing a plan 
to enhance the facility at Elm Creek, Nebraska, by raising the 
fences of the pens that are partitioned for new arrivals to 
prevent direct contact of animals already there with new loads 
of animals. BLM is supporting a research project on a vaccine 
for equine distemper [strangles] at Elm Creek, Nebraska.
    Several internal and external reports have identified 
issues and made recommendations for wild horse and burro 
program management improvements. These include the Wild Horse 
and Burro Evaluation (Pierson report) and the Wild Horse and 
Burro Adoption Program Policy Analysis Team Report (Culp 
report), three separate Office of Inspector General audits, the 
Wild Horse and Burro Steering Committee (comprised of BLM 
Associate State Directors) conclusions, the BLM Director 
appointed fact-finder team assessments, and the Animal 
Protection Institute (API) Settlement Agreement. Many of the 
recommendations of the Pierson and Culp reports were confirmed 
in the findings of other external reports. Beginning in fiscal 
year 1997, the BLM began implementing the recommendations to 
improve management of the Wild Horse and Burro Program. 
Recommendations included in these reports address establishing 
and achieving appropriate management levels of wild horses and 
burros on the range, fertility control research, and improving 
and expanding compliance inspections of adopted and untitled 
wild horses and burros.
    Question. How does the Bureau determine the appropriate 
number of horses in each management area that should remain on 
the range or be removed from the range? How does the Bureau 
determine the Appropriate Management Level for private 
livestock in relation to horses and burros on public lands?
    Answer. In the development of a Resource Management Plan 
(RMP), all herd areas that were occupied by wild horses or 
burros at the time the Wild Horse and Burro Act was passed in 
1971, are considered for management for wild horses and burros. 
The decision is made based on environmental and social factors, 
such as land ownership patterns, resource conflicts, etc. Once 
a herd area has been designated for wild horse and burro 
management, that area becomes a Herd Management Area (HMA). 
Through an interdisciplinary process, specific environmental 
analysis of the rangeland resources is conducted using resource 
inventory and monitoring data, resource potential/productivity 
data, and existing planning decisions. This process provides 
for public participation. The results of this process are 
specific decisions that allocate the available rangeland 
resources for various uses (including livestock grazing, 
wildlife, and wild horses and burros). The actual per cent of 
available forage that goes to the individual uses is normally 
defined in the land planning decision.
    Question. Does the demand for burros exceed the actual 
supply of BLM burros? Is the National Park Service authorized 
to shoot and kill burros?
    Answer. In past years the Bureau has been able to adopt all 
of the burros it removes from public lands. This year the 
demand is down and so we are holding burros in our facilities 
longer than normal. It is felt that the reduced demand is in 
part due to the increased adoption fee that was finalized per 
regulations in April of 1997.
    The Wild Free-Roaming Horse and Burro Act of 1971 does not 
protect wild horses and burros on lands managed by the National 
Park Service. The disposition of those animals is a decision 
made by the National Park Service. In many cases the BLM does 
work in conjunction with the National Park Service to manage 
their wild horse and burro populations. This is especially true 
where BLM herd areas overlap onto National Park Service lands. 
Currently the Bureau is holding over 300 burros removed from 
NPS lands in southern California at our Ridgecrest facilities.
    Question. Does the Bureau round up older horses (those as 
old as 20 years)? If so, are these horses often adopted at a 
reasonable price?
    Answer. The Bureau removes horses over nine years of age 
only under unusual, emergency conditions. In November of 1997, 
the BLM re-issued its selective removal policy which states:
    a. Wild horses removed from all public or private lands 
that are to be placed into the national adoption program, will 
be limited to adoptable animals aged 9 years and younger.
    b. The authorized officer may elect to remove wild horses 
of any age from public or private lands provided that the 
animals are to be adopted in-state. Wild horses aged 10 years 
and older may not be placed into the national adoption program 
except as noted in paragraph ``d''. The Forest Service and 
National Park Service may elect to remove animals of any age 
provided that the animals are adopted by that agency.
    c. All wild horses, regardless of age, that in the judgment 
of the authorized officer are deemed unadoptable because of 
defects, previous injuries, recent but not life threatening 
injuries, or other factors that may limit their adopt ability, 
will be returned to the public lands or adopted in-State.
    d. During emergency situations, when the long-term survival 
of a wild horse population is threatened, the prohibition on 
removing wild horses aged 10 years and older and placing them 
in the national adoption program may be amended. The Wild Horse 
and Burro National Program Office must approve amending 
selective removal criteria prior to initiating the emergency 
gathering. Approval to amend the selective removal criteria 
will only be authorized in rare instances when other options 
are not viable.
    The regulations establish a minimum adoption fee of $125 
per head. The BLM usually adopts these older animals at or 
above the minimum fee. The Authorized Officer has the authority 
to reduce the fee on unadoptable horses on a case by case 
basis, but age alone is not a criteria for fee reduction.
    Question. Have you considered a one-year moratorium on 
round-ups (except for purposes of contraception and for 
bonafide emergencies)?
    Answer. A one-year moratorium on round-ups would compound 
the problem of reaching Appropriate Management Level's (AML's) 
on public lands. The wild horse and burro reproduction rate of 
24 percent would increase the herd size within the Herd 
Management Areas, causing a ripple effect on adoptions, gathers 
and holding capabilities into the future gathering seasons. The 
Wild Free-Roaming Horse and Burro Act of 1971, as amended, 
mandates that we achieve and maintain a thriving natural 
ecological balance on the public lands. While the BLM does not 
support a moratorium on round-ups, we are reducing removal 
numbers in fiscal year 1998 in response to larger than planned 
numbers of animals currently in holding facilities for the 
reasons listed in the response to the second question under 
this section.
                                ------                                


              Questions Submitted by Senator Byron Dorgan

                        bureau of indian affairs

    Question. The Standing Rock Sioux Tribe and the Bureau of 
Indian Affairs are currently in the process of cleaning up 
Polychlorinated Biphenyl (PCB) contamination caused by leaking 
light fixtures. Does the Department have plans to examine 
buildings on other reservations for possible contamination by 
PCBs and other toxic substances? I am particularly concerned 
with contamination in schools and recreation facilities.
    Answer. The BIA is currently responding to known PCB 
contamination caused by leaking light fixtures. All Areas are 
being instructed by BIA Facilities Management and Construction 
Center memorandum to complete a 100 percent inventory of all 
reservation buildings and facilities to determine date of 
manufacture (pre-1977 to contain PCBs) and condition of light 
fixtures. The Bureau will continue to properly dispose of PCB 
containing light ballasts. All schools and recreation 
facilities will be examined for PCB and other toxic substance 
contamination (asbestos and lead paint) as the BIA conducts an 
environmental audit, now underway.
    Question. The BIA and GAO have reported that the cost of 
repairing (not replacing) educational facilities at all BIA 
schools is $754 million. While I appreciate that the 
Administration in its fiscal year 1999 budget request has 
provided for an increase in the school construction budget 
sufficient to complete construction on the 16 schools remaining 
on the Priority List, what steps is the Administration going to 
take to ensure that the other 150 or so BIA schools in need of 
repair or replacement are taken care of? What creative 
financing mechanisms could be used to meet these needs in a 
more timely manner? When can we expect the Administration to 
send an Indian school construction proposal to Congress?
    Answer. The Bureau requested $37.4 million in the fiscal 
year 1999 President's Budget for Seba Dalkai Boarding School, 
Sac and Fox School, and Pyramid Lake High School which are 
ranked 9, 10, and 11 on the BIA's replacement school 
construction priority list. If funded, construction of these 
schools would start in the early spring of CY 1999 and be 
completed in the fall of CY 2000. The Bureau is aware that the 
condition of many of the remaining schools is poor, however, 
the Bureau continues to work with respective tribes and school 
boards to identify any immediate dangerous safety and health 
conditions which can be corrected with Minor Improvement and 
Repair or Emergency funds.
    Current procedures have identified 16 schools for 
construction. Eight of these 16 schools have been funded. The 
planning, design and construction activities of the BIA are 
established through the facilities improvement and repair 
(FI&R) and new construction nationwide priority setting 
process. The Bureau has convened a committee, including tribal 
representatives, to recommend changes, if any, to the 
replacement school priority setting process. Further 
consultation with the tribes is planned for this summer. The 
Bureau plans on soliciting new applications early in fiscal 
year 1999.
    The Department is exploring a number of alternatives that 
may in the future provide a viable means to facilitate more 
construction and repair of high priority BIA ranked projects. 
These alternatives include: lease-purchase programs; cost 
sharing of construction expenses by the Tribes/schools and BIA 
for repair or replacement of existing facilities; the use of 
bonds; and expansion of BIA's current portable classroom 
program. However, the Department's efforts to develop these 
alternative financing options has had limited success due to 
Budget Enforcement Act scoring difficulties. Lease 
arrangements, loans, and revenue bonds require repayment, which 
is subject to appropriation.
    The rate of deterioration of facilities, and the limited 
resources available to address needs, require that BIA allocate 
funding to the most critical health and safety deficiencies. 
The chief way to limit growth of the backlog and help ensure 
that education facilities in Indian Country are satisfactory is 
to provide the $32.2 million increase requested in the 
President's fiscal year 1999 Budget Request.

                    Fish and Wildlife Service (FWS)

    The FWS has for many years pursued the purchase of wetlands 
easements within the State of North Dakota. More recently, the 
FWS has begun to pursue the purchase of perpetual prairie 
easements as well. There continues to be concerns and 
frustration regarding the lack of flexibility that these 
easements offer. These concerns may make it difficult for 
acquisition of easements to proceed.
    Question. What is the FWS doing to develop a more flexible 
policy on wetlands and prairie easement purchases?
    Answer. The FWS has used easements throughout the prairie 
pothole region to provide wetland habitat for waterfowl and 
other wetland species. These wetlands also provide conservation 
benefits like water storage for flood management, water quality 
improvement, recreation/tourism, and economic diversity in an 
area. In the Devils Lake Basin, FWS wetland easements are 
storing approximately 169,000 acre/feet of water for flood 
protection in that area.
    The FWS is continuing to introduce more flexibility in 
administering the easement purchases for the Waterfowl 
Production area program by issuing permits for removal of water 
on easements to prevent flooding of roads, to prevent flood 
related health and safety issues around farmsteads and homes, 
and to remove ``sheetwater'' on flooded agricultural lands as 
long as the integrity of the wetlands are not compromised. We 
are also working with local water boards to facilitate legal 
drain projects though easement lands and utilizing innovative 
mitigation banking ideas. On grassland easements, grazing is 
not restricted and FWS managers issue permits for haying for 
cover rejuvenation purposes.
    The FWS has been extremely helpful in developing water 
storage areas on wildlife refuges in the Devil's Lake Basin. 
Such projects are an important part of a comprehensive flood-
fighting strategy for Devil's Lake. Given that the lake level 
is expected to continue to rise, we expect a continuing need 
for water storage projects. Don Barry, Acting Assistant 
Secretary, has expressed interest in organizing a summit to 
discuss the potential for Fish and Wildlife Service projects to 
contribute to upstream management of water in the Devil's Lake 
basin in North Dakota.
    Question. What plans do you have to allocate additional 
operations and maintenance funding to properly manage newly 
developed water storage projects in North Dakota?
    Answer. The FWS has developed the Maintenance Management 
System (MMS) and the Refuge Operating Needs System (RONS) to 
address the backlog of operations and maintenance funding for 
the National Wildlife Refuge System. Refuge Managers will 
identify funding needs for the newly developed water storage 
projects in North Dakota and this information will be used to 
address operations and management needs in North Dakota and 
throughout the Refuge System.
    Question. What plans do you have for pursuing a summit?
    Answer. The FWS has ongoing local coordination efforts to 
protect, restore, and manage wetlands in the Devils Lake basin. 
Coordination is already occurring with a wide variety of 
entities. No plans have been made for a summit at this time.
    Question. What other initiatives is FWS undertaking to 
ensure continued development of wildlife habitat and protection 
of existing habitat?
    Answer. The FWS is committed to providing wildlife and 
their habitats for people to enjoy in present and future 
generations. We will continue to seek innovative ways to meet 
the wildlife-oriented interests of the public. Through 
coordination with Congress, the states, and private interests 
we hope to continue America's wildlife legacy.
    The FWS has several initiatives to develop and protect 
habitat. In response to Federal requirements such as NEPA and 
the Fish and Wildlife Coordination Act, the FWS reviews 
projects that are Federally sponsored or require permits 
administered by the Federal Government. This review ensures 
that fish and wildlife resources are considered in the 
development of the project. Technical assistance is offered to 
project sponsors for ways to avoid impacts or to enhance 
habitats for wildlife.
    The FWS has a private lands initiative that works with 
private landowners to develop habitats on private lands in key 
areas. In addition, the FWS has been working with numerous 
partners under the North American Waterfowl Management Plan and 
has been able to acquire nonfederal dollars to match with the 
North American Wetland Conservation Act funds to perform large-
scale habitat projects. These projects work with private 
individuals, local, state, and federal agencies to do landscape 
level projects that benefit numerous parties.
    The FWS is also looking at innovative ways to work with 
Refuge neighbors and has formed several partnerships. This has 
included working with local agricultural neighbors to farm, 
graze, or hay on FWS lands and receiving assistance with 
roadside mowing and weed control. The FWS is also forming 
partnerships with educational interests to promote outdoor 
classrooms, student research, and to provide a stimulating 
learning environment for visitors. We are receiving assistance 
from user groups to develop new programs and initiatives for 
public use, wildlife development, tourism attractions, and 
wildlife orientated recreation. Our Refuge programs also may 
include fee or easement acquisitions to store water for 
wildlife and flood control, for eco-tourism development, 
habitat development, and endangered species recovery. The 
Refuge System also collaborates with the Fisheries program to 
stock area lakes for recreational fisheries, perform endangered 
species recovery, and carry out fishery mitigation to make 
federal projects workable.
    Question. What consideration have you given to forming a 
task force with the Department of Agriculture and the State 
Water Commission to complete current and pending wetland and 
water storage projects in the Basin and develop an upper basin 
storage strategy?
    Answer. The FWS is participating in a group made up of the 
Governor's office, State Water Commission, NRCS, FWS, 
Congressional office representatives, local elected officials, 
the Devils Lake Joint Water Board, Corps of Engineers, North 
Dakota Game and Fish, farm groups and environmental groups. 
That group has recently identified two priorities for water 
storage in the Devils Lake Basin, Conservation Reserve Program 
lands and public lands. It is still difficult to implement 
water management and storage activities in the Devils Lake 
Basin and, until we get support from local and State 
representation, progress may be slow. The FWS will continue to 
be a partner in this effort and work toward a comprehensive 
solution to the water management and flood issues in the Devils 
Lake Basin.
    There is considerable concern about the FWS purchasing more 
land in North Dakota. Many local Governments' tax bases have 
already been substantially eroded by the outmigration of 
farmers and ranchers. This becomes an even greater burden when 
the federal government purchases the land and pays less than 
full tax value. In 1996, this shortfall for the entire state of 
North Dakota came to approximately $366,000. Consequently, 
country commissioners have been forced to prohibit the sale to 
FWS of flooded farmlands by willing sellers who have been hard 
hit by flooding at Devil's Lake.
    Question. What steps are being taken by the FWS to secure 
more equitable payments in lieu of taxes to counties in North 
Dakota?
    Answer. The Refuge Revenue Sharing Act, as amended, 
provides the authority for the FWS to make payments to counties 
containing FWS fee lands based on the greatest of the 
following: 75 cents per acre of FWS land; three-fourths of one 
percent of the appraised value of the FWS land; or 25 percent 
of net receipts of revenue from the FWS land. In addition, the 
FWS pays counties 25 percent of net receipts for FWS-managed 
public domain lands within those counties. If receipts and 
appropriations are insufficient to meet full payments, each 
county receives a pro-rata share. According to current 
estimates, payments in fiscal year 1998 will be made at 70 
percent of full entitlement. The FWS views revenue sharing 
payments in North Dakota as being equitable since the monies 
available for these payments are distributed on a pro rata 
basis, nationwide. However, the issue of shortfalls in refuge 
revenue sharing payments is receiving increased attention. The 
FWS is currently considering options to address the shortfall.
    Question. There is a need to improve weed management, 
roadside mowing, and insect control on FWS wildlife refuges in 
North Dakota. The inability of the FWS to meet these needs is 
very frustrating to area landowners. What steps is the FWS 
taking to address these needs?
    Answer. The FWS managed noxious weeds on 9,022 acres on 542 
separate tracts in 1997. This is an increase over the acreage 
treated in 1994, 1995, and 1996. The FWS treated about 25 
percent of these areas with herbicides. The acreage treated 
with haying, grazing, and biological control increased 
slightly. A dramatic change in the control of noxious weeds is 
the increased use of biological controls. In 1997, the FWS 
released over 1.1 million insects on 320 new locations. This is 
similar to the 1996 releases and a three-fold increase over the 
1995 insect release.
    The FWS mows the roadsides along its properties in 
accordance with local and county regulations, which generally 
require roadsides to be mowed by mid or late September. Some 
neighbors want roadsides mowed several times during the growing 
season to present a more managed, less weedy appearance.
    The principle insect problem in North Dakota is 
grasshoppers, typically associated with drought and dry 
periods. Many landowners perceive that grasshopper infestations 
originate on FWS lands. Typically, grasshoppers lay their eggs 
on bare soil or areas with sparse vegetation, not areas with 
vegetative cover. FWS lands are managed to enhance vegetative 
cover.
    The FWS generally will not spray insecticides on its lands 
since FWS lands are managed for wildlife. Most insecticides 
suitable for grasshoppers kill all insects, terrestrial and 
aquatic, which is the main food source for most birds, or are 
toxic to wildlife.

                         National Park Service

    The spread of noxious weeds is increasingly a serious 
ecological problem on wildlife refuges in North Dakota. The 
spread of leafy spurge on Theodore Roosevelt National Park is a 
particularly alarming example. To date, the Park Service has no 
comprehensive program for addressing this problem.
    Question. What plans does the Park Service have to develop 
and fund a comprehensive program for control of noxious weeds 
at the Theodore Roosevelt National Park in North Dakota?
    Answer. Leafy spurge is a definite problem at Theodore 
Roosevelt National Park and on the surrounding National 
Grasslands and private lands. Leafy spurge is doubling in 
acreage every 10 years and now occupies 4,000 acres reducing 
available habitat/forage for the ungulates and threatened plant 
species. The park is currently implementing an integrated pest 
management approach using chemical, mechanical, and biological 
controls as well as prescribed fire to battle this aggressive, 
invasive weed. However, the current level of effort is not 
enough to contain the leafy spurge. Studies have shown that 
unless a minimum of 70 percent of a spurge infestation is 
treated annually control would not be achieved. At current 
funding levels the park is treating only about 12 percent of 
the acreage infested with spurge. The National Park Service has 
identified an additional requirement of $275,000 to protect 
park resources at Theodore Roosevelt National Park for control 
and containment of exotic species, with emphasis on leafy 
spurge. With this level of funding all 4,000 acres affected 
could be treated. However, funds are not requested in the 
fiscal year 1999 budget due to competing priorities.
    The park has tried many programs to contain leafy spurge. 
In 1993, the park was granted approval to use Tordon and 2,4-D 
for Leafy Spurge. Through 1997, the park has sprayed Tordon, a 
restricted herbicide, on approximately 1,300 acres of spurge. 
For this herbicide to be effective, the same acreage has to be 
sprayed for 3-5 consecutive years to contain the spurge and 
cannot be used within 100 feet of a riparian area or on 
excessive slopes. In 1997, the park joined in a partnership 
with American Cyanamid and sprayed 55 acres with Plateau 
herbicide. This herbicide holds great promise because it can be 
used right up to the edge of water and in areas with woody 
vegetation. The results of the fall spraying will be evaluated 
this year.
    The park started placing bio-controls in the form of flea 
beetles in the park in limited numbers in 1987 through 1991. 
Large releases occurred beginning in 1992. Since 1987, the park 
has released seven different species and more than three 
million insects on over 1800 sites. The population levels of 
these bio-controls are only now building to such a level on the 
earlier release sites that some positive results can be seen. 
Starting in 1996, the park started harvesting flea beetles and 
giving them to adjacent ranchers. In 1997, more than half a 
million insects were given away to approximately 60 private 
individuals. This program shows great promise for the future, 
but it takes five to six years after release for a beetle 
population to build to such a level that results can be 
measured.
    In 1997, Agricultural Research Service in Sydney, Montana 
was successful in obtaining a multi-year funding package to 
attack spurge in the entire Little Missouri River watershed. 
Over the next five years there will be approximately five 
million dollars available for numerous agencies, counties, and 
states. However, this program will be spread over the entire 
Little Missouri Watershed. While the funding is significant, it 
still will not be sufficient to completely contain leafy 
spurge.
    Question. What are your plans in the coming couple of years 
for recognition of the Lewis and Clark Bicentennial?
    Answer. Activities for recognition of the Lewis and Clark 
Bicentennial are necessarily intertwined with the day to day 
operations of the Lewis and Clark National Historic Trail and 
other park units. The Lewis and Clark Expedition occurred from 
1804-06; planning for activities has already begun for an 
observance which will last through fiscal year 2007. In fiscal 
year 1998, the Lewis and Clark National Historic Trail is 
increasing the level of partnership involvement in planning and 
implementing activities to protect, interpret, and maintain the 
trail for public use and enjoyment. The trail staff is 
providing extensive technical assistance and guidance to local, 
State, and Federal agencies and nonprofit organizations that 
are beginning to plan new and renovated interpretive 
infrastructure on the trail, and/or that are planning major 
events during the bicentennial. Specific NPS projects include 
development of educational and interpretive initiatives, and 
development of Federal interagency cooperation and coordination 
for the Bicentennial, including recent formation of a Federal 
interagency Bicentennial steering committee.
    The parks that have involvement with the Lewis and Clark 
Bicentennial recently completed a planning meeting for the 
Bicentennial Observance of the Lewis and Clark expedition. The 
National Park Service will continue to work with all entities 
during the upcoming years to assist with planning special 
events, completing infrastructure projects related to the 
Bicentennial, and other items associated with the expected 
tourism increase.
    Question. What are your particular plans for participation 
by the Lewis and Clark Bicentennial Foundation in North Dakota?
    Answer. The three North Dakota parks, Theodore Roosevelt 
National Park, Knife River Indian Villages National Historic 
Site, and Fort Union Trading Post National Historic Site, are 
working closely with their respective communities to help them 
gear up for the Bicentennial which is largely in the planning 
stages at this early date. The Lewis and Clark Bicentennial 
Foundation in North Dakota is one of many organizations with 
which the Park Service has interacted to begin planning for the 
Bicentennial observance. NPS has also been in contact with the 
North Dakota Lewis & Clark Bicentennial Advisory Committee (to 
which the governor of North Dakota has appointed park 
personnel) and the three North Dakota park superintendents 
recently attended the National Lewis and Clark Bicentennial 
Council meeting in Bismarck which included a tour of the Knife 
River Indian Villages NHS.
    Question. What amount of funding do you expect will be 
allocated to the Foundation in fiscal year 1999?
    Answer. In fiscal year 1998 the National Park Service was 
granted an increase of $100,000 for the Park Service trails 
office in support of Lewis and Clark National Historic Trails 
activities, and $400,000 for technical assistance and challenge 
cost share grants related to sites, activities, and events 
along the length of the Lewis and Clark National Historic 
Trail. The Park Service was encouraged to work with the Lewis 
and Clark Bicentennial Council in allocating the funds 
provided. In fiscal year 1998, $35,000 was transferred to the 
Foundation and it is expected that a similar amount will be 
transferred in fiscal year 1999.

                         U.S. Geological Survey

    The Biological Resources Division of USGS has ongoing and 
new programs focusing on several areas that are important to 
the people of North Dakota. These include evaluation and 
restoration of wetlands, Missouri River assessment, and 
research on grasslands ecosystems, grassland bird use of CRP 
lands, and exotic weed control methods.
    Question. What are the results of evaluation of wetlands 
restored as mitigation for Garrison Diversion? What are the 
results of evaluation of wetlands restored through USDA's 
Wetland Reserve Program? Can you identify opportunities to 
apply this program to help provide upper basin water storage 
opportunities in the Devil's Lake Basin?
    Answer. Northern Prairie Wildlife Research Center, U.S. 
Geological Survey, and the Bureau of Reclamation, Bismarck 
Office, conducted a multiple year study of Garrison Diversion 
wetland mitigation efforts that is just now coming to 
conclusion. Three mitigation sites were paired with natural 
sites in the Cottonwood Lake wetland complex in Stutsman 
County. The oldest site was 10-12 years post mitigation, 
another was 7-8 years post mitigation, and the third was black 
dirt in an open field--0 years post mitigation. The quality of 
plant life greatly increased on the sites with time and 
breeding birds responded by using this habitat almost 
immediately. Although not as well-developed ecologically as 
more natural sites, the mitigation sites all have many 
similarities to sites with native cover, and the lag in 
development of the plant communities can be attributed entirely 
to the severe disturbance on the sites at the start of 
mitigation. Hydrologically, they are functioning as wetlands 
within wetland complexes, with recharge and discharge basins 
working in tandem. The approach used to restore a complex of 
wetlands instead of individual basins permitted development of 
natural complexes that should be self-sustaining. Continued 
work on this study involves analysis of water samples taken 
over a period of five years.
    The Wetland Reserve Program is not active everywhere. For 
example, in North Dakota, it cannot be used because it must be 
attached to permanent easements. USGS Northern Prairie Wildlife 
Research Center realized the benefits of the Wetland Reserve 
Program could be much broader by evaluating all types of 
wetland restorations. USGS has looked at a sample of 204 basins 
restored by a number of federal, state, and private agencies, 
all of which are similar to those that will be restored in the 
Wetland Reserve Program. Two treatments (drained and non-
drained analogues in agricultural sites) were compared with 
pristine wetlands appropriately referenced in the Missouri 
Coteau, the Prairie Coteau, and the Glaciated Plains. These 
data are now being used by Northern Prairie in an effort funded 
by the USDA Wetland Science Institute to develop siting 
criteria for restoring wetlands. Lands from Montana to Iowa 
will be divided into sub-watersheds, within which USGS will 
provide information on impacts to wildlife, water quality, 
water retention, etc. to restore wetlands as proposed in the 
Wetland Reserve Program. The information will be available to 
all parties considering restoration as a mitigation tool, or 
who wish to develop wetlands for their own sake. The guidelines 
are sufficient to guide selection such that maximum wetland 
values for flood retention, water quality, wildlife, and other 
uses are maximized.
    Yet, any program restoring natural wetland function can be 
expected to have positive effects in the Devil's Lake Basin. In 
particular, restoration of wetlands and the development of 
wetland complexes will restore the natural hydrology. This, in 
turn, guarantees maximum retention of water in basins on the 
landscape while providing numerous ancillary benefits for 
private landowners and the public. All data collected to date 
show that maintenance of natural hydrological systems in the 
Dakotas is the best means to retain water on the landscape, 
slow its flow to major drainage channels, and thereby reduce 
the extremes in oscillations in stream and river levels.
    Question. How will your new program of research into 
grassland ecosystems evaluate the positive effects of 
agricultural practices along with the negative effects?
    Answer. Grassland systems are maintained by disturbance, 
which, before European settlement, was provided by bison, 
drought, and fire. Modern disturbances including livestock 
grazing, drought, and mowing are still in effect, even though 
fire, a major determinant of grassland health, is largely 
controlled. Some negative impacts of concern include invasive 
exotic plants, overuse of chemicals, fragmenting large patches 
of wildlife habitat, and general loss of species diversity. New 
research at the USGS Northern Prairie Wildlife Research Center 
will be investigating means to maintain viable plant 
communities and thereby viable animal communities, especially 
migratory birds, within the context of the agricultural 
community of the Great Plains. For example, properly managed 
grazing can increase plant diversity and develop habitat for 
shorebirds. Fire can be used to rejuvenate senescent 
grasslands, and choices can be made which maintain grasslands 
in large enough tracts to support wildlife. Although USGS 
treats migratory birds as a major focus, the results of studies 
designed to identify best management practices for them will, 
in fact, identify best management practices for many other 
wildlife species and the entire grassland ecosystem. These best 
practices will incorporate the entire range of current human 
use of the grasslands, providing private landowners and 
government agencies information on means to optimize values for 
themselves and the entire system.
    Question. Rising water levels in the Devil's Lake Basin 
constitute a chronic emergency for the citizens of the basin. 
Predictions are for a continued trend towards wet weather which 
will further aggravate this situation and cause continued 
property loss. What work is the USGS doing in support of 
studies related to an emergency outlet from Devil's Lake?
    Answer. During fiscal year 1998, USGS will complete one 
major interpretive study and a water-quality monitoring program 
in support of studies related to the emergency outlet. USGS has 
developed a statistical model to simulate possible future lake 
levels with and without an emergency outlet. As part of the 
emergency outlet studies, the Corps of Engineers has asked USGS 
to modify the model to evaluate the potential effects of bottom 
sediment flux and in-lake processes on major ion and dissolved 
solids concentrations of Devils Lake, and on downstream water 
quality under operation of an emergency outlet. USGS made 
10,000 simulations, each 50 years in length, to estimate the 
full range of future water-quality and lake level conditions 
and their probabilities. The simulations are used by the Corps 
of Engineers and their contractors to determine the economic 
feasibility of the emergency outlet and to evaluate the 
environmental impact of the proposed outlet both within Devils 
Lake and downstream of the outlet location.
    The interaction between the bed sediments and water in 
Devils Lake is not well understood. Assuming no interaction 
between the bed sediments and the lake bottom, the model 
indicates a slowly increasing trend in sulfate mass in the lake 
from 1988 to 1997; however, the mass calculated from water 
samples from the lake shows a much larger and more complex 
trend. USGS is conducting a water-quality monitoring program 
during 1998 to help improve model estimates made in support of 
the emergency outlet studies.
    USGS also operates eight streamflow gauging stations and 
three lake level stations under the Federal-State Cooperative 
Water Program. These data collection activities support the 
studies related to an emergency outlet from Devils Lake.
                                ------                                


             Questions Submitted by Senator Robert Bennett

                         wild and scenic rivers

    Almost a year ago, Assistant Secretary Bob Armstrong issued 
a record of decision regarding Wild and Scenic Rivers 
designation for Arizona that included the tributaries of the 
Virgin River. We were not pleased with that decision as we were 
not consulted, nor notified about the designation which 
threatens the delicate balance of the Virgin River Habitat 
Management Plan that was created in partnership with your 
Department. In response, members of the Utah Delegation sent a 
pointed letter to Assistant Secretary Armstrong dated October 
22, 1997.
    We have, unfortunately, not received a response yet which 
leads me to assume one of two things. Either Mr. Armstrong does 
not enjoy receiving and answering our letters, or he does not 
intend to answer that letter. While this has become the 
standard procedure with our friends at the Council on 
Environmental Quality, it has been to this date 
uncharacteristic of your Agency.
    Question. I ask you to please provide me with a response to 
our letter as soon as possible. I know that it will be 
responsive and I look forward to working closely with you and 
Mr. Armstrong to resolve Utah's concerns.
    Answer. Please accept our sincere apology for our untimely 
response to the letter from members of the Utah Delegation. Mr. 
Armstrong did send a response, dated April 17, 1998, to the 
Honorable James V. Hansen.

              grand staircase-escalante national monument

    Representatives from the School and Institutional Lands 
Administration have met with your representatives concerning a 
reasonable proposal to trade out most of the Trust lands within 
the Monument. Surprisingly, representatives of the 
environmental community have received SITLA's proposal very 
well. A group of 20 representatives of the Utah Wilderness 
Coalition were in my office about four weeks ago, and expressed 
their support for prompt action of a SITLA exchange.
    Question. I am curious to know what you think of the SITLA 
proposal? If we were to introduce legislation to implement the 
exchange, would the Administration offer its support and assist 
us in moving it?
    Answer. The SITLA proposal served as the basis for 
beginning discussions on the exchange of Monument inholdings, 
which concluded with the agreement signed on May 8, 1998. 
Legislation ratifying that agreement is now before the House of 
Representatives. Secretary Babbitt gave his full support to the 
legislation as he testified with Governor Leavitt on May 19, 
before the Chairman Jim Hansen's House Resources Subcommittee 
on Parks and Public Lands.
    Mr. Secretary, visitation to the area now known as ``The 
Monument'' has quadrupled in the last 18 months. Though there 
is no effective means in place to register the number of new 
visitors, I know from my County Commissioners and State Park 
Supervisors that the increased number have had far reaching 
impacts. This influx of visitors to the Monument has made 
campgrounds continually full and as a result provided a need 
for other new services. Garfield County needs a new garbage 
truck to handle the increased trash left by visitors and Kane 
County needs additional sheriffs deputies. I want to help them 
somehow.
    Question. What would your response be should I seek to 
provide additional funds above what is requested through the 
BLM budget to Kane and Garfield Counties to alleviate some of 
the infrastructure problems associated with the increased 
visitation?
    Answer. In 1998, BLM funds have been provided to assist 
Garfield and Kane Counties with planning, law enforcement, 
trash collection, and other needs associated with the startup 
of the Monument. New cooperative agreements have recently been 
established that provide flexibility for each county to use 
$250,000 to meet needs such as those described in the question. 
Together with funds provided in 1997, these federal 
appropriations have helped absorb short-term impacts associated 
with the Monument. It should be noted, however, that both 
counties have carried over funds from the 1997 cooperative 
agreements into 1998. Moreover, the newly signed 1998 
agreements provide for the use of this funding through fiscal 
year 1999, and it appears that a significant portion of the 
1998 funds will be carried forward into the next fiscal year. 
Thus, additional fiscal year 1999 funding for Kane and Garfield 
Counties is not now warranted.
    Going beyond this ``front-end'' assistance to a long term 
commitment raises a different set of policy and budgetary 
issues. Other counties, in Utah and elsewhere, would oppose 
selective, ongoing assistance to two counties, as they argue 
that many are significantly more impacted by federal 
conservation units and associated visitation. Both Secretary 
Babbitt and the Appropriations Committees of the Congress have 
been reluctant to support individual county appropriations for 
exactly this reason of precedent and perceived unfairness.
    Question. Will the Planning Team meet the deadline of 
September 18, 1999 to have a completed planning document and a 
management plan in place? What assurances will you give me that 
the Administration accept the planning document?
    Answer. The planning team is currently on schedule to 
produce a Monument Management Plan/Environmental Impact 
Statement Record of Decision that will be signed by the 
Secretary by September 18, 1999 as directed by the President. 
Implementation of the Monument Management Plan would begin 
immediately after the Secretary signs the record of decision 
for the plan. We anticipate that a Draft Monument Management 
Plan and Environmental Impact Statement will be available in 
the Fall of 1998.

                            utah wilderness

    Question. Recently a court ruled that the State of Utah did 
not have standing to challenge your efforts to find 5 million 
acres of wilderness. What are your plans now with regards to 
proceeding with the Babbitt wilderness reinventory?
    Answer. There has never been any effort to ``find 5 million 
acres of wilderness.'' The wilderness reinventory is simply a 
fact-gathering, and does not itself change the management or 
use of public lands. The Bureau of Land Management is assessing 
the recent court decision to determine possible future actions. 
However, the court-ordered injunction is still in place, 
pending further legal proceedings, and no decision about how to 
proceed has been made, nor will be made until after the 
injunction is lifted.

                     san rafael swell heritage area

    Mr. Secretary, we will hear a great deal about the need for 
balance today. To help resolve the impasse on wilderness in 
Utah, the County Commissioners from Emery County, Utah have 
been working on a proposal to create a million acre San Rafael 
Swell Heritage Area. This proposal will designate over 360,000 
acres of true wilderness and protect an additional 300,000 
acres of primitive and semi-primitive areas including tens of 
thousands of acres of bighorn sheep preserve.
    I believe that this local, on-the-ground approach is the 
best and probably only way to resolve the wilderness issue. 
Congressman Cannon and Congressman Hansen will introduce 
legislation today to create the San Rafael Swell Heritage Area. 
I will introduce a similar bill with Senator Hatch when we 
return from our April recess.
    Question. Mr. Secretary, I will invite you to come to Emery 
County with me and visit these areas with the County 
Commissioners. I have some free time at the end of May. Will 
you please come and spend a day in the proposed San Rafael 
Swell Heritage Area with us and explore the proposed areas 
further?
    Answer. I look forward to a visit to the area with you. I 
also understand that the Bureau of Land Management Utah State 
Office has been working with Emery County officials to develop 
a plan for surveying historical and cultural sites in the 
county as a necessary first step to determining the actions 
that need to be taken by various government entities to assure 
the proper identification and protection of those sites.

                        draining of lake powell

    In case my colleagues on the Committee are not aware, last 
year the Sierra Club Board passed a resolution to support the 
decommissioning of the Glen Canyon Dam, the draining of Lake 
Powell and the restoration of Glen Canyon to its former state.
    Question. Mr. Secretary, please elaborate for the Committee 
the short and long term impacts of this action, if it were to 
occur. What is the Administration's position on the 
decommissioning of Glen Canyon Dam and Lake Powell? Will you 
join us in developing a strategy to educate the public on the 
benefits of the dam and the lake?
    Answer. The Colorado River Storage Project Act of 1956 and 
the Colorado River Basin Project Act of 1968 provided for the 
comprehensive development of the Colorado River Basin. The 
Colorado River Storage Project (CRSP) furnishes the long-term 
regulatory storage needed to allow States in the Upper Basin to 
develop their share of Colorado River water and meet their flow 
obligation at Lees Ferry, as defined in the Colorado River 
Compact of 1922. In addition, as a result of the storage of 
water in CRSP reservoirs, a significant amount of electrical 
energy is produced to meet the needs of the Upper Basin and 
adjacent areas, flooding is better controlled, and significant 
recreation benefits are provided.
    The primary short term impact of draining Lake Powell would 
be its cost. No estimate has been developed, but it is safe to 
assume it would cost hundreds of millions of dollars. Long-term 
impacts might be described as follows:
    Water Resources: Historical records show that, at the 1997 
level of Colorado River water use, both Lake Powell and Lake 
Mead would have been needed during the 1930's, 1940's, 1950's, 
and 1960's to store the water needed to make the deliveries to 
the Lower Basin guaranteed by the 1922 Compact. In all such 
periods, recorded annual flows at Lees Ferry were less than 7.5 
million acre-feet (maf) during one or more years, with a low of 
4.4 maf in 1934. Without carry-over storage in Lake Powell, the 
Upper Basin States would not only experience significant water 
shortages if a drought like that in 1934 were to occur today, 
but they would also have to forgo approximately 1.7 maf of 
future development.
    In addition, in the absence of Lake Powell, the level of 
Lake Mead would fluctuate greatly and there would be more 
frequent and greater floods below Hoover Dam. Reclamation would 
have to study the safety of dams below the Grand Canyon, modify 
flood control operations at Hoover Dam, and study modifications 
to the floodway from Hoover Dam to the Southerly International 
Boundary to accommodate more frequent floods.
    Power Resources: The Colorado River system, including Glen 
Canyon Dam and other CRSP powerplants, generates enough power 
to meet the needs of 3 million people, or to partially meet the 
needs of 9 to 12 million people. Net generation by all CRSP 
powerplants was 7.3 billion kilowatt-hours in fiscal year 1996, 
and Glen Canyon Dam accounts for about 75 percent of the total. 
If Lake Powell were to be drained, not only would the loss of 
Federal revenue be significant--about $98 million in fiscal 
year 1996--but the power generated at Glen Canyon Dam would 
have to be replaced from some other source or sources.
    Recreation Resources: The Glen Canyon National Recreation 
Area (NRA) attracts over 2.5 million visitors per year. Over 
700 houseboats and small boats are rented on a daily or weekly 
basis, nearly 2,000 private boats are berthed, and over 2,500 
dry storage spaces are used each summer. Accommodations within 
Glen Canyon NRA include 400 hotel rooms and 600 campsites, 
while thousands more camp on boats and on shoreline beaches. 
Economic impacts associated with the loss of this industry, 
which is dependent upon the existence of Lake Powell, would 
exceed $400 million per year, and the reservoir fishery would 
be lost.
    In addition, the white water rafting industry has evolved 
into a nearly year-round tourist-based economy for Page and 
Flagstaff, Arizona. The Dam provides stable and predictable 
flows during both high runoff and low runoff and/or drought 
periods. About 42,000 people float the calm waters between the 
Dam and Lees Ferry annually. Without the Dam, the rafting 
economy would be limited to the runoff period in the spring and 
early summer, with flows greater than 45,000 cfs typically 
lasting only six to ten weeks.
    Visual Resources: When drained, the upper end of Lake 
Powell would contain silt as well as some amount of waste left 
by water users. The canyon walls would be stained white from 
the water stored since 1963. No one knows for sure, but it is 
anticipated it would take centuries for the canyon floor to be 
cleaned up and for the natural color to reappear on the canyon 
walls.
    In summary, the proposal to decommission Glen Canyon Dam is 
not realistic. To assist in making decisions on operation of 
the Dam in a manner that balances the impacts on and benefits 
to all resources, an Adaptive Management Program has been 
established. In addition, the Grand Canyon Monitoring and 
Research Center has been established to collect and analyze 
scientific data related to operation of the Dam and protection 
of related resources. The Adaptive Management Work Group, which 
includes representatives of State, Federal, Tribal, 
environmental, power and recreational interests, has been 
meeting and has made significant progress on addressing the 
complicated issues related to these resources.

                           concessions reform

    Mr. Secretary, as you know, I have now worked with Senator 
Bumpers for almost four years on reforming the concessions 
policy for the National Park Service. We have made progress, 
but we still have a considerable way to go. As you know, 
Senator Thomas has introduced legislation that lays out a 
vision of where the Park Service can and perhaps should be in 
twenty years.
    Question. I would appreciate your insight on the bill as 
introduced with regards to the section on Concession Policy 
Reform.
    Answer. The administration's position on Title IV of S. 
1693 (concession reform), as proposed by Senator Thomas, was 
presented in testimony prepared for the April 30, 1998 hearing 
before the Senate Subcommittee on National Parks, Historic 
Preservation and Recreation. The following is a synopsis of 
that testimony.
    The administration opposes Title IV of S. 1693 as it 
appears to work under the assumption that many areas of the 
existing law need to be changed for the benefit of 
concessioners. This notion does not comport with the many 
independent studies conducted by GAO, the Inspector General's 
Office, and others that have concluded that Public Law 89-249, 
the existing law which governs concessions contracting, gives 
undue benefits to park concessioners at the expense of park 
visitors and the taxpayer. Specifically, NPS is concerned that 
(1) the standard it adopts for locating new concessions or 
expanding existing operations might threaten park resources and 
nearby businesses by encouraging unnecessary concessions, (2) 
the Concession Manager it would place in charge of all aspects 
of concessions development and operations could act in its own 
commercial interest to the detriment of resources, (3) the bill 
does not offer adequate protection from concessioners price 
gouging visitors, and (4) the clause concerning maintenance is 
ill-conceived both in placing a ceiling on maintenance 
requirements and allowing the maintenance fund to be tapped for 
capital improvements. NPS does support the aspect of the bill 
that would eliminate the right of preference in contract 
renewal, but would advocate a lower dollar threshold for those 
contracts subject to competition. In conclusion, NPS is 
concerned that Title IV of S. 1693 would place commercial 
interests ahead of park protection and the visitor experience.

                 shivwit indian water rights settlement

    The State of Utah and the City of St. George, along with 
several irrigation companies holding water rights for the Santa 
Clara River, have been negotiating to settle ``Federal Reserved 
Water Rights'' for the Shivwits Band of the Southern Paiute 
Indian. The State of Utah, St. George City, irrigation and the 
Shivwits Band have reached an agreement in principal as to the 
amount and source of ``wet'' water for the Band to use for 
economic development.
    This agreement was submitted by the Band to the Federal 
Water Negotiation Team on October 9, 1997. This proposed 
settlement agreement negotiated by all of the involved local 
entities was rejected by the Federal team on December 9, 1997, 
based on environmental concerns. This was done despite the fact 
that no environmental assessment or Section 7 consultation on 
which to base such a decision has been completed or even begun.
    Question. Mr. Secretary, why should the Federal Negotiation 
Team, consisting of people living in the area, be in a position 
to reject this proposal without going through the proper 
process?
    Answer. As the federal entity charged with assisting the 
Shivwits Band of Paiute Indians with the negotiation and 
settlement of its federally reserved water rights, the Shivwits 
federal negotiating team was asked to review and comment on the 
``Summary of Shivwits Settlement Proposal'' provided to the 
Department by Band Counsel on October 9, 1997. In a response 
letter dated December 9, 1997, the federal team, composed of 
representatives from the Bureau of Indian Affairs, the US Fish 
and Wildlife Service, the Bureau of Reclamation, the Interior 
Solicitor's Office, and the US Department of Justice, offered 
its concerns and comments to the proposal. One aspect of the 
proposal involves the construction of a water reuse project 
(consisting of a waste water treatment plant and pipeline in 
St. George, Utah) to provide approximately one half of the 
water allocated to the Band under the Settlement.
    The federal team stated in its response that ``serious 
endangered species concerns * * * would most likely undermine 
the construction and operations of the water reuse project, and 
thereby prevent the Band from realizing the benefits of such a 
water source.'' The federal team recommended that because of 
the serious endangered species concerns, it would be a 
disservice to the Band for the team to consider further the 
reuse water and its associated construction and delivery costs 
as part of a water settlement package. The team based its 
concerns and comments on a draft of the Virgin River Management 
Plan dated January 15, 1997, letters authored by the U.S. Fish 
and Wildlife Service regarding the St. George waste water 
treatment plant, and verbal discussions with the US Fish and 
Wildlife Service regarding increased consumptive depletion from 
the Virgin River under the reuse proposal.
    In its December 9th response letter to the Band, the 
federal team was not formally rejecting the settlement proposal 
or the water reuse project without going through an 
environmental assessment or Section 7 consultation. The federal 
team was acting pursuant to its negotiation authority under 55 
F.R. 9223 and offering its legal and technical advice to the 
Band as to the advisability of continuing to pursue the water 
reuse project in settlement negotiations as a source of water 
for the Band in light of the serious endangered species 
concerns. The Department and the Federal team remain committed 
to working with the Band and non-Indian water users in the 
Santa Clara and Virgin River basins, including the State of 
Utah and the City of St. George, to seek a negotiated 
settlement of the Band's federally reserved Indian water rights 
that allows the Band to realize the benefits of its water 
rights.

                         U.S. Geological Survey

    The USGS engages in cooperative activities with other 
Federal agencies, State and local government and foreign 
governments in water resources, mapping and remote sensing 
through the Water Resources Division, national Mapping 
Division, and Biological Resources Division, respectively. The 
annual Interior Appropriations bill provides authority for up 
to 50 percent cooperative funding with State and local 
government for water resource investigations and topographic 
mapping.
    Question. For each of the past three fiscal years, with 
which entities you have such agreements, what services did you 
perform for them, what was the dollar value of your 
contribution and the cooperator's contribution, and was a 
private contractor or in-house resources utilized in the 
provision of each cooperative services?
    Answer.

           FISCAL YEAR 1995 CO-OP AGREEMENTS WITH STATE AND LOCAL GOVERNMENTS FOR TOPOGRAPHIC MAPPING
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Number of
               State                  State and     Services performed       USGS       Cooperator     Contract
                                     local co-op                         contribution  contribution     amount
----------------------------------------------------------------------------------------------------------------
Alaska.............................            1  digital data                    $33           $33          $51
                                                   collection and
                                                   topographic mapping.
Arkansas...........................            1  digital data                     15            15  ...........
                                                   collection.
Connecticut........................            1  ...do................            13            17            4
Florida............................            3  digital data                    454           454          662
                                                   collection and
                                                   topographic mapping.
Georgia............................            3  digital data                      7             7  ...........
                                                   collection.
Idaho..............................            2  ...do................             2             2  ...........
Illinois...........................            7  digital data                     59            59  ...........
                                                   collection and
                                                   topographic mapping.
Indiana............................            1  ...do................           124           124          102
Iowa...............................            2  ...do................            17            17  ...........
Kansas.............................            2  topographic mapping..            22            22  ...........
Kentucky...........................            2  digital data                     76            76  ...........
                                                   collection and
                                                   topographic mapping.
Louisiana..........................            1  topographic mapping..            98            98  ...........
Michigan...........................            1  digital data                      5             5  ...........
                                                   collection.
Minnesota..........................            1  ...do................           447           473          694
New Jersey.........................            1  aerial photography...            18            33           51
Nevada.............................            2  digital data                      3             9            6
                                                   collection.
North Carolina.....................            2  digital data                    180           180  ...........
                                                   collection and
                                                   topographic mapping.
New Mexico.........................            1  digital data                      9             9  ...........
                                                   collection.
North Dakota                                   2  ...do................             7            35           28
Ohio...............................            1  ...do................            91            91  ...........
Oklahoma...........................            1  digital data                     65            65           98
                                                   collection and
                                                   topographic mapping.
Pennsylvania.......................            1  ...do................           312           341           73
South Carolina.....................            1  digital data                    237           237          434
                                                   collection.
South Dakota.......................            2  ...do................            41            41  ...........
Texas..............................            2  digital data                     92           257          349
                                                   collection,
                                                   topographic mapping,
                                                   and aerial
                                                   photography.
Utah...............................            1  digital data                     13            13  ...........
                                                   collection and
                                                   topographic mapping.
Virginia...........................            1  ...do................            21            21  ...........
Wisconsin..........................            3  digital data                     37            37  ...........
                                                   collection.
                                    ----------------------------------------------------------------------------
      Total........................           48                                2,493         2,766        2,552
----------------------------------------------------------------------------------------------------------------


                  FISCAL YEAR 1995 STATE COOPERATIVE PROGRAM FOR WATER RESOURCES INVESTIGATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                  Number of
                     State                        State and     Services       USGS       Cooperator    Contract
                                                 local co-op   performed   contribution  contribution    amount
----------------------------------------------------------------------------------------------------------------
Alabama........................................           26      ( \1\ )          $765          $827    ( \2\ )
Alaska.........................................           13      ( \1\ )         1,038         1,300    ( \2\ )
Arizona........................................           24      ( \1\ )         1,046         2,046    ( \2\ )
Arkansas.......................................           11      ( \1\ )           725           784    ( \2\ )
California.....................................           81      ( \1\ )         3,912         5,981    ( \2\ )
Colorado.......................................           80      ( \1\ )         2,007         2,072    ( \2\ )
Connecticut....................................            7      ( \1\ )           440         1,218    ( \2\ )
Florida........................................           50      ( \1\ )         5,114         8,348    ( \2\ )
Georgia........................................           34      ( \1\ )         1,400         1,650    ( \2\ )
Hawaii.........................................           18      ( \1\ )         1,231         2,619    ( \2\ )
Idaho..........................................           12      ( \1\ )         1,127         1,470    ( \2\ )
Illinois.......................................           26      ( \1\ )         1,027         1,099    ( \2\ )
Indiana........................................            8      ( \1\ )           931         1,965    ( \2\ )
Iowa...........................................           15      ( \1\ )           833           833    ( \2\ )
Kansas.........................................           21      ( \1\ )         1,159         1,341    ( \2\ )
Kentucky.......................................           14      ( \1\ )           887         1,107    ( \2\ )
Louisiana......................................           16      ( \1\ )         1,131         1,133    ( \2\ )
Maine..........................................           10      ( \1\ )           308           356    ( \2\ )
Maryland, District of Columbia, and Delaware...           10      ( \1\ )         1,113         2,043    ( \2\ )
Massachusetts, and Rhode Island................           18      ( \1\ )         1,193         2,756    ( \2\ )
Michigan.......................................           27      ( \1\ )           718         1,537    ( \2\ )
Minnesota......................................           15      ( \1\ )         1,028         1,124    ( \2\ )
Mississippi....................................           10      ( \1\ )           880         1,098    ( \2\ )
Missouri.......................................           14      ( \1\ )           697         1,171    ( \2\ )
Montana........................................           18      ( \1\ )         1,159         1,204    ( \2\ )
New Hampshire, Vermont.........................            5      ( \1\ )           520         1,100    ( \2\ )
Nebraska.......................................           27      ( \1\ )           731           884    ( \2\ )
Nevada.........................................           20      ( \1\ )         1,846         2,375    ( \2\ )
New Jersey.....................................           21      ( \1\ )         2,030         3,003    ( \2\ )
New Mexico.....................................           26      ( \1\ )         1,616         2,000    ( \2\ )
New York.......................................           28      ( \1\ )         2,422         4,257    ( \2\ )
North Carolina.................................           23      ( \1\ )         1,457         1,712    ( \2\ )
North Dakota...................................           16      ( \1\ )           682           682    ( \2\ )
Ohio...........................................           19      ( \1\ )         1,083         1,707    ( \2\ )
Oklahoma.......................................           15      ( \1\ )           843           856    ( \2\ )
Oregon.........................................           25      ( \1\ )         1,253         1,360    ( \2\ )
Pennsylvania...................................           34      ( \1\ )         1,565         3,545    ( \2\ )
Puerto Rico and Virgin Islands.................            9      ( \1\ )         1,557         3,305    ( \2\ )
South Carolina.................................           22      ( \1\ )         1,400         1,406    ( \2\ )
South Dakota...................................           30      ( \1\ )         1,076         1,136    ( \2\ )
Tennessee......................................           37      ( \1\ )         1,021         1,033    ( \2\ )
Texas..........................................           60      ( \1\ )         2,840         4,698    ( \2\ )
Utah...........................................           26      ( \1\ )         1,227         1,358    ( \2\ )
Virginia.......................................           17      ( \1\ )           618           967    ( \2\ )
Washington.....................................           39      ( \1\ )         1,425         1,729    ( \2\ )
West Virginia..................................            5      ( \1\ )           529           529    ( \2\ )
Wisconsin......................................           66      ( \1\ )         1,573         1,873    ( \2\ )
Wyoming........................................           22      ( \1\ )           929           978    ( \2\ )
                                                ----------------------------------------------------------------
      Total....................................        1,170                     63,112        90,575
----------------------------------------------------------------------------------------------------------------
\1\ Services performed: investigations that focus on the areas of water availability, flood hazards,
  contaminated environment, and water data & information.
\2\ Contract: utilize private contractors to conduct approximately 5 percent to 10 percent of the work
  performed. Contractors are primarily used to provide support services.


        FISCAL YEAR 1996 COOPERATIVE AGREEMENTS WITH STATE AND LOCAL GOVERNMENTS FOR TOPOGRAPHIC MAPPING
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Number of
               State                  State and     Services performed       USGS       Cooperator     Contract
                                     local co-op                         contribution  contribution     amount
----------------------------------------------------------------------------------------------------------------
Alaska.............................            1  digital data                    $19           $19           27
                                                   collection and
                                                   topographic mapping.
Arkansas...........................            1  digital data           ............             9            9
                                                   collection.
California.........................            4  ...do................            76            76          124
Colorado...........................            1  ...do................  ............            33           33
Florida............................            4  digital data                  1,293         1,319        2,193
                                                   collection and
                                                   topographic mapping.
Georgia............................            4  digital data                    884           916        1,489
                                                   collection.
Illinois...........................            5  topographic mapping             222           236           14
                                                   and digital data
                                                   collection.
Indiana............................            1  ...do................            74            74  ...........
Iowa...............................            1  ...do................             6            32           27
Kansas.............................            1  topographic mapping..             8             8  ...........
Kentucky...........................            2  topographic mapping               7            32           25
                                                   and digital data
                                                   collection.
Louisiana..........................            1  topographic mapping..           112           112  ...........
Michigan...........................            1  digital data                     17            17  ...........
                                                   collection.
Minnesota..........................            1  ...do................            23            54           31
Missouri...........................            2  ...do................             3            27           25
Mississippi........................            1  aerial photography...            44           132          176
Montana............................            3  digital data                     16            16           18
                                                   collection.
Nevada.............................            1  ...do................  ............             2            2
North Carolina.....................            2  topographic mapping             603           603          834
                                                   and digital data
                                                   collection.
New Hampshire......................            1  digital data           ............             7            7
                                                   collection.
New Jersey.........................            2  ...do................           140           140          212
New Mexico.........................            2  ...do................             8             8  ...........
North Dakota.......................            2  ...do................  ............            17           17
Oklahoma...........................            1  topographic mapping             115           154           39
                                                   and digital data
                                                   collection.
Pennsylvania.......................            1  ...do................           366           366          376
South Carolina.....................            1  digital data                    349           349          532
                                                   collection.
Texas..............................            5  topographic mapping,            221           379          472
                                                   digital data
                                                   collection, and
                                                   aerial photography.
Utah...............................            1  digital data                    177           177          262
                                                   collection and
                                                   topographic mapping.
Virginia...........................            1  topographic mapping              49            76           27
                                                   and digital data
                                                   collection.
Wisconsin..........................            3  digital data                     11            16           20
                                                   collection.
West Virginia......................            2  aerial photography...            38           110          144
                                    ----------------------------------------------------------------------------
      Total........................           59                                4,881         5,483        7,135
----------------------------------------------------------------------------------------------------------------


              FISCAL YEAR 1996 FEDERAL STATE COOPERATIVE PROGRAM FOR WATER RESOURCES INVESTIGATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                Number of
                    State                       State and     Services       USGS       Cooperator     Contract
                                               local co-op   performed   contribution  contribution     amount
----------------------------------------------------------------------------------------------------------------
Alabama......................................           25      ( \1\ )          $800          $818      ( \2\ )
Alaska.......................................           11      ( \1\ )         1,038         1,359      ( \2\ )
Arizona......................................           24      ( \1\ )         1,080         2,034      ( \2\ )
Arkansas.....................................           10      ( \1\ )           755           888      ( \2\ )
California...................................           84      ( \1\ )         3,912         5,690      ( \2\ )
Colorado.....................................           85      ( \1\ )         2,009         2,034      ( \2\ )
Connecticut..................................            9      ( \1\ )           537           815      ( \2\ )
Florida......................................           53      ( \1\ )         5,189         7,708      ( \2\ )
Georgia......................................           31      ( \1\ )         1,475         1,829      ( \2\ )
Hawaii.......................................           19      ( \1\ )         1,197         2,623      ( \2\ )
Idaho........................................           12      ( \1\ )         1,138         1,469      ( \2\ )
Illinois.....................................           30      ( \1\ )         1,007         1,080      ( \2\ )
Indiana......................................            9      ( \1\ )           926         2,175      ( \2\ )
Iowa.........................................           20      ( \1\ )           765           852      ( \2\ )
Kansas.......................................           15      ( \1\ )         1,182         1,387      ( \2\ )
Kentucky.....................................           14      ( \1\ )           887           961      ( \2\ )
Louisiana....................................           17      ( \1\ )         1,163         1,174      ( \2\ )
Maine........................................           10      ( \1\ )           320           419      ( \2\ )
Maryland, District of Columbia, and Delaware.           15      ( \1\ )         1,108         1,782      ( \2\ )
Massachusetts and Rhode Island...............           15      ( \1\ )         1,213         2,687      ( \2\ )
Michigan.....................................           43      ( \1\ )           743         1,346      ( \2\ )
Minnesota....................................           16      ( \1\ )         1,035         1,145      ( \2\ )
Mississippi..................................           13      ( \1\ )           930         1,376      ( \2\ )
Missouri.....................................           13      ( \1\ )           705         1,181      ( \2\ )
Montana......................................           16      ( \1\ )         1,076         1,155      ( \2\ )
New Hampshire and Vermont....................            6      ( \1\ )           504         1,184      ( \2\ )
Nebraska.....................................           24      ( \1\ )           738           932      ( \2\ )
Nevada.......................................           20      ( \1\ )         1,846         2,448      ( \2\ )
New Jersey...................................           22      ( \1\ )         1,980         3,162      ( \2\ )
New Mexico...................................           26      ( \1\ )         1,590         2,466      ( \2\ )
New York.....................................           32      ( \1\ )         2,435         4,575      ( \2\ )
North Carolina...............................           23      ( \1\ )         1,575         2,213      ( \2\ )
North Dakota.................................           24      ( \1\ )           706           712      ( \2\ )
Ohio.........................................           22      ( \1\ )         1,082         1,582      ( \2\ )
Oklahoma.....................................           13      ( \1\ )           950           962      ( \2\ )
Oregon.......................................           24      ( \1\ )         1,253         1,265      ( \2\ )
Pennsylvania.................................           35      ( \1\ )         1,565         4,174      ( \2\ )
Puerto Rico and Virgin Islands...............            7      ( \1\ )         1,525         2,869      ( \2\ )
South Carolina...............................           23      ( \1\ )         1,300         1,342      ( \2\ )
South Dakota.................................           25      ( \1\ )         1,084         1,173      ( \2\ )
Tennessee....................................           34      ( \1\ )           800           800      ( \2\ )
Texas........................................           60      ( \1\ )         2,849         4,430      ( \2\ )
Utah.........................................           21      ( \1\ )         1,227         1,249      ( \2\ )
Virginia.....................................           20      ( \1\ )           598           896      ( \2\ )
Washington...................................           38      ( \1\ )         1,413         1,466      ( \2\ )
West Virginia................................            6      ( \1\ )           487           487      ( \2\ )
Wisconsin....................................           67      ( \1\ )         1,558         1,765      ( \2\ )
Wyoming......................................           22      ( \1\ )           874           879      ( \2\ )
                                              ------------------------------------------------------------------
      Total..................................        1,203                     62,129        89,018
----------------------------------------------------------------------------------------------------------------
\1\ Services performed: investigations that focus on the areas of water availability, flood hazards,
  contaminated environment, and water data and information.
\2\ Contract: utilize private contractors to conduct approximately 5 percent to 10 percent of the work
  performed. Contractors are primarily used to provide support services.


        FISCAL YEAR 1997 COOPERATIVE AGREEMENTS WITH STATE AND LOCAL GOVERNMENTS FOR TOPOGRAPHIC MAPPING
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Number of
               State                  State and     Services performed       USGS       Cooperator     Contract
                                     local co-op                         contribution  contribution     amount
----------------------------------------------------------------------------------------------------------------
Alaska.............................            1  digital data                     $4            $4  ...........
                                                   collection and
                                                   topographic mapping.
Arkansas...........................            1  digital data                      1             1  ...........
                                                   collection.
California.........................            4  ...do................             6             6           $2
Florida............................            5  digital data                    809           809            7
                                                   collection
                                                   topographic mapping.
Georgia............................            1  digital data                    102           102          161
                                                   collection.
Idaho..............................            5  ...do................  ............            19           19
Illinois...........................            4  digital data                     39            39  ...........
                                                   collection and
                                                   topographic mapping.
Iowa...............................            1  ...do................             1             1  ...........
Kansas.............................            2  topographic mapping..            15            30           15
Kentucky...........................            1  digital data                    172           209          334
                                                   collection,
                                                   topographic mapping,
                                                   and aerial
                                                   photography.
Louisiana..........................            2  topographic mapping..           131           149           18
Minnesota..........................            2  digital data                    392           392          686
                                                   collection.
Missouri...........................            5  ...do................           330           330          581
Mississippi........................            1  ...do................  ............             2            2
Montana............................            2  ...do................             2             2  ...........
Nevada.............................            1  ...do................             1  ............  ...........
North Carolina.....................            2  digital data                    302           302          565
                                                   collection and
                                                   topographic mapping.
North Dakota.......................            1  digital data                     01            11           21
                                                   collection.
New Jersey.........................            1  ...do................             3             3  ...........
New Mexico.........................            2  ...do................            74            74          128
New York...........................            1  ...do................            32            32           61
Ohio...............................            1  ...do................             4             4  ...........
Oklahoma...........................            2  digital data                    360           360          507
                                                   collection and
                                                   topographic mapping.
Pennsylvania.......................            1  ...do................           250           250          427
South Carolina.....................            1  digital data                     74            74           95
                                                   collection.
Texas..............................            1  digital data                     18            18  ...........
                                                   collection
                                                   topographic mapping.
Utah...............................            1  ...do................            57            57          105
Virginia...........................            1  ...do................            78            78  ...........
Washington.........................            1  digital data                     60            60  ...........
                                                   collection.
Wisconsin..........................            2  ...do................            30            30            8
                                    ----------------------------------------------------------------------------
      Total........................           56                                3,350         3,449        3,742
----------------------------------------------------------------------------------------------------------------


              FISCAL YEAR 1997 FEDERAL STATE COOPERATIVE PROGRAM FOR WATER RESOURCES INVESTIGATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                Number of
                    State                       State and     Services       USGS       Cooperator     Contract
                                               local co-op   performed   contribution  contribution     amount
----------------------------------------------------------------------------------------------------------------
Alabama......................................           28      ( \1\ )          $860          $860      ( \2\ )
Alaska.......................................           13      ( \1\ )         1,058         1,281      ( \2\ )
Arizona......................................           25      ( \1\ )         1,101         2,127      ( \2\ )
Arkansas.....................................           11      ( \1\ )           818           903      ( \2\ )
California...................................           81      ( \1\ )         4,275         6,973      ( \2\ )
Colorado.....................................           86      ( \1\ )         2,130         2,318      ( \2\ )
Connecticut..................................           11      ( \1\ )           540           731      ( \2\ )
Florida......................................           49      ( \1\ )         5,338         8,031      ( \2\ )
Georgia......................................           29      ( \1\ )         1,575         1,962      ( \2\ )
Hawaii.......................................           17      ( \1\ )         1,220         2,550      ( \2\ )
Idaho........................................           16      ( \1\ )         1,143         1,628      ( \2\ )
Illinois.....................................           30      ( \1\ )         1,042         1,374      ( \2\ )
Indiana......................................           10      ( \1\ )           981         1,818      ( \2\ )
Iowa.........................................           26      ( \1\ )           803           849      ( \2\ )
Kansas.......................................           13      ( \1\ )         1,221         1,484      ( \2\ )
Kentucky.....................................           19      ( \1\ )           912           912      ( \2\ )
Louisiana....................................           19      ( \1\ )         1,207         1,333      ( \2\ )
Maine........................................            8      ( \1\ )           270           291      ( \2\ )
Maryland, District of Columbia, and Delaware.           14      ( \1\ )         1,190         1,670      ( \2\ )
Massachusetts, Rhode Island..................           19      ( \1\ )         1,248         2,400      ( \2\ )
Michigan.....................................           35      ( \1\ )           778         1,293      ( \2\ )
Minnesota....................................           20      ( \1\ )         1,063         1,131      ( \2\ )
Mississippi..................................           12      ( \1\ )           955         1,244      ( \2\ )
Missouri.....................................           14      ( \1\ )           797         1,512      ( \2\ )
Montana......................................           16      ( \1\ )         1,021         1,033      ( \2\ )
New Hampshire and Vermont....................            8      ( \1\ )           545         1,173      ( \2\ )
Nebraska.....................................           26      ( \1\ )           771           842      ( \2\ )
Nevada.......................................           21      ( \1\ )         1,882         2,229      ( \2\ )
New Jersey...................................           21      ( \1\ )         2,155         3,335      ( \2\ )
New Mexico...................................           27      ( \1\ )         1,628         2,824      ( \2\ )
New York.....................................           35      ( \1\ )         2,460         4,530      ( \2\ )
North Carolina...............................           21      ( \1\ )         1,650         2,426      ( \2\ )
North Dakota.................................           23      ( \1\ )           684           711      ( \2\ )
Ohio.........................................           27      ( \1\ )         1,118         1,620      ( \2\ )
Oklahoma.....................................           17      ( \1\ )         1,017         1,077      ( \2\ )
Oregon.......................................           27      ( \1\ )         1,272         1,318      ( \2\ )
Pennsylvania.................................           36      ( \1\ )         1,585         3,973      ( \2\ )
Puerto Rico and Virgin Islands...............            8      ( \1\ )         1,550         3,094      ( \2\ )
South Carolina...............................           22      ( \1\ )         1,350         1,427      ( \2\ )
South Dakota.................................           27      ( \1\ )         1,148         1,179      ( \2\ )
Tennessee....................................           31      ( \1\ )           850           850      ( \2\ )
Texas........................................           58      ( \1\ )         2,909         4,773      ( \2\ )
Utah.........................................           23      ( \1\ )         1,250         1,279      ( \2\ )
Virginia.....................................           19      ( \1\ )           691           956      ( \2\ )
Washington...................................           46      ( \1\ )         1,462         1,608      ( \2\ )
West Virginia................................            9      ( \1\ )           499           499      ( \2\ )
Wisconsin....................................           60      ( \1\ )         1,603         1,741      ( \2\ )
Wyoming......................................           23      ( \1\ )           937           937      ( \2\ )
                                              ------------------------------------------------------------------
      Total..................................        1,236                     64,562        92,109
----------------------------------------------------------------------------------------------------------------
\1\ Services performed: investigations that focus on the areas of water availability, flood hazards,
  contaminated environment, and water data and information.
\2\ Contract: utilize private contractors to conduct approximately 5 percent to 10 percent of the work
  performed. Contractors are primarily used to provide support services.

    OMB Circular A-76, governing performance of commercial 
activities, limits the use of Inter-service support agreements, 
whereby one agency provides a commercial activity to another 
Federal agency. Architect-engineer services (as defined in 40 
U.S.C. 541 et. seq., and Part 36 of the Federal Acquisition 
Regulations), including water resource investigations, mapping, 
and remote sensing, are clearly commercial activities. Under 
the Circular, and the ``Economy Act'', an agency may not 
provide services to another agency unless the ``provider'' 
agency has conducted a cost comparison under Circular A-76 and 
justified in-house performance.
    Question. To what extent does USGS provide water resource 
investigations, mapping and remote sensing services to other 
Federal agencies?
    Answer. To assist in meeting its mission requirements 
related to assessing the Nation's water resources, USGS 
partners with about 30 other Federal agencies having needs for 
water resource data, assessments, and research. Much of the 
mapping and remote sensing activities for which the USGS 
receives reimbursement are cost shared by the Federal partners 
and accomplished by private sector partners through contract 
with the USGS. Because the USGS has the contractual instruments 
in place to undertake this mission-essential work, needs 
identified by other Federal agencies can be fulfilled 
concurrently with the needs of USGS, and the Federal Government 
saves taxpayer dollars through efficiency, avoids duplication 
that would result if the reimbursable agreements were not in 
place, and provides the mechanism for appropriate functions to 
be undertaken through the private sector.
    Funds provided to USGS by other Federal agencies to address 
water resources issues totaled $90 million in fiscal year 1997. 
This funding is expected to be about the same in fiscal year 
1998 and fiscal year 1999. Prominent water resources activities 
for which USGS receives funding from other Federal agencies 
include the following:
      Land management bureaus within the Department of the Interior 
        (DOI) and the U.S. Forest Service: USGS collects basic 
        hydrologic data, including streamflow data, water quality data, 
        and data on the levels and quality of ground water. This 
        monitoring supports the Federal land and water management 
        agencies in:
  --ensuring safe and efficient dam operations;
  --evaluating mining permits;
  --quantifying water rights on Native American Tribal lands;
  --responding to decrees of Federal courts, river basin compacts; and 
        international treaties regarding water rights and allocation
  --resolving land and resource management issues in which a strong 
        Federal interest is evident.
    USGS also conducts water resources research and investigations on 
federally managed lands or Tribal lands--for example, research in Grand 
Canyon National Park, in preparation for the release of water from Glen 
Canyon Dam, and evaluation of the effects of the resulting ``flood'' on 
habitat restoration within the Park.
    Department of Energy (DOE): USGS provides hydrologic expertise to 
DOE to address environmental and scientific issues at the Nevada Test 
Site and vicinity, and also works with DOE to evaluate the suitability 
of Yucca Mountain, Nevada, as a potential repository site for the 
disposal of high-level radioactive wastes. Investigations include 
regional studies of streamflow, runoff, and ground-water flow.
    Department of Defense (DOD): USGS has a long history of providing 
technical support to assist DOD in fulfilling its responsibilities 
related to water issues. For the military agencies of DOD, USGS 
provides scientific and technical assistance with respect to studies of 
ground-water contamination problems and ground-water/surface-water 
interactions on military installations as part of DOD's Installation 
Restoration Program. Also, data collected from USGS streamgages funded 
by the U.S. Army Corps of Engineers provide information needed to 
regulate releases from flood control and water supply reservoirs.
    U.S. Environmental Protection Agency (EPA): USGS has a long history 
of providing technical support to assist EPA in fulfilling its 
responsibilities related to the Safe Drinking Water Act, the Clean 
Water Act, the Food Quality Protection Act, and the Superfund program. 
Current examples include:
  --Multi-state surveys of arsenic, radium-224, volatile organic 
        compounds (including the gasoline additive MTBE), and microbial 
        pathogens and indicators in ground water and/or surface water;
  --National water-quality data for EPA's National Contaminant 
        Occurrence Database for drinking water;
  --A national digital map of ground-water aquifers;
  --Simulated yields of nitrogen and phosphorus from every watershed in 
        the contiguous 48 States;
  --Linked web pages providing real-time USGS streamflow data to users 
        of EPA's Surf Your Watershed Program;
  --Information on the occurrence and characteristics of various 
        pesticides; and
  --Investigations, technical advice, and reviews of documents related 
        to Superfund sites.
    Funds provided to the USGS by other Federal agencies to address 
mapping and remote sensing issues totaled $34 million in fiscal year 
1997. This funding is expected to be about the same in fiscal year 1998 
and fiscal year 1999. Prominent mapping and remote sensing activities 
for which USGS receives funding from other Federal agencies include the 
following. Although the information and data vary in format, content, 
and applicability, all are used in differing contexts to support 
natural disaster and hazards monitoring, land and resource analyses, 
mapping applications, resource management, crop studies, and soils 
evaluations.
    Consortium of Federal agencies:
  --The USGS administers contracts, manages an imagery archive, and 
        provides program administration to acquire aerial photography 
        of the Nation under the National Aerial Photography Program.
  --The USGS administers contracts, performs limited data production, 
        manages a data archive, and provides program administration to 
        acquire digital ortho-imagery of the Nation under the National 
        Digital Orthophoto Program which is jointly overseen with 
        Department of Agriculture agencies. Digital ortho-imagery is 
        produced through reimbursable agreements with a broad spectrum 
        of Federal agencies.
  --The USGS gathers and applies multi-temporal and multi-resolution, 
        baseline land characteristics data sets of land cover, 
        elevation, and soils, in integration with other data, to 
        characterize land surface and environmental data, track 
        environmental change, and to forecast impacts of events on land 
        surface characteristics.
    National Aeronautics and Space Administration and the Department of 
Commerce: The USGS administers contracts for and provides storage, 
preservation, timely access, and public distribution of global Landsat, 
Earth Observing System (EOS), MODIS, ASTER, and other satellite data, 
as well as older, declassified data from intelligence and military 
systems through the National Satellite Land Remote Sensing Data 
Archive.
    Departments of Agriculture, Defense, and Interior: The USGS 
administers contracts, performs limited data production, manages a 
series of data and map archives, and provides public access and 
distribution of digital elevation data, digital line graphs, 
topographic maps, and special interest maps and publications.
    Agency for International Development and other State Department 
offices: The USGS provides remotely sensed environmental geospatial 
data, geographic information systems (GIS) analytical services of land 
characteristics and topographic data, decision support tools, and 
training and technology transfer to enable foreign governments to 
develop and use GIS technologies and geospatial data to solve 
environmental problems.
    National Science Foundation (NSF): USGS provides surveying 
and topographic mapping services in support of the NSF's 
mission in the Antarctic.
    Question. On what water resource, mapping and remote 
sensing activities has USGS conducted an A-76 cost comparison?
    Answer. The USGS has not conducted an A-76 cost comparison 
on its mapping and remote sensing activities, because those 
activities are inherently governmental. Some of these 
activities have functions that have commercial characteristics, 
and the USGS has worked closely with Congress to develop a 
privatization approach for those commercial aspects. Language 
in the report accompanying the House Interior Appropriations 
bill for fiscal year 1998 commends the USGS for the efforts 
made to date to increase contracting of topographic map and 
digital data production and that current policies and use of 
the private sector in this area will be continued.
    The USGS has not conducted an A-76 cost comparison on its 
water resources activities because the USGS Water Resources 
Investigations Activity is inherently governmental. It is the 
primary source of scientific information on one of the Nation's 
most important natural resources--water. The Activity fulfills 
a unique Federal role by providing standardized, objective 
information for the entire country through long term hydrologic 
data, interpretive reports, and new analytical methods. Under 
the authority of OMB Memorandum 92-01, USGS has the primary 
responsibility for coordinating water data activities in the 
Federal Government. Because river basins and aquifers cross 
many jurisdictional boundaries there is great efficiency in 
having one national agency, USGS, provide standardized regional 
water information to all interested groups through cost-sharing 
arrangements.
    In addition, because many water issues involve 
interjurisdictional disputes, it is very important that the 
data and conclusions be viewed as credible and impartial by all 
parties involved. This includes adjudication of water rights 
within a State, among States, or at international boundaries. 
USGS is accepted as a credible and impartial source by parties 
involved in disputes. USGS provides standardized information to 
all, making it unnecessary for each State or locality to create 
its own infrastructure for data collection, data handling, 
interpretation, and information dissemination.
    Question. Does the USGS use in-house capabilities or 
private contractors to perform these activities for other 
agencies? If so, please describe for each of the past three 
fiscal years, the agencies with which you provide such 
services, what services you perform for them, the dollar value 
of your contribution and the cooperators' contribution, and the 
extent to which private contractors have been utilized in the 
provision of such services.
    Answer. The USGS is transitioning from a previously large 
Federal work force to increasingly more reliance on the private 
sector to provide mapping and remote sensing products and 
services. The USGS work force for mapping and remote sensing 
has been reduced from 989 in fiscal year 1990 to 396 in fiscal 
year 1998. Concurrently, funds allocated for mapping and remote 
sensing contracts have increased from $7.1 million in fiscal 
year 1990 to $38.9 million in fiscal year 1998. New program 
activities are developed for performance by the private sector, 
rather than a Federal work force. In general, attrition in the 
mapping and remote sensing work force is not replaced, except 
for the most critical and inherently governmental functions. 
The current work force is being transitioned to a focus on 
inherently governmental activities.
    Within the overall scope of the water resources 
investigations activity, USGS uses contractors for certain 
support functions such as construction and printing.
    Question. OMB Circular A-97, governing intergovernmental 
cooperation, and the Intergovernmental Cooperation Act, limits 
the use of federal in-house capabilities in providing services 
to State and local government. It requires a certification that 
the service cannot be reasonably and expeditiously obtained 
from the private sector before a Federal agency may perform the 
service for the State or local government. How does USGS and/or 
its cooperators comply with this requirement? What 
certifications have been made with regard to water resource, 
mapping and remote sensing activities?
    Answer. As authorized by 43 U.S.C. 50, the USGS conducts 
topographic and water resources investigations in cooperation 
with States and municipalities. These cooperative programs 
allow the USGS to share with States and municipalities the cost 
of work that meets mutual Federal, State, and local governments 
needs. In these efforts, the USGS is not performing services 
that are exclusively directed toward the needs of States and 
municipalities; rather the USGS, the States, and municipalities 
are sharing the cost of meeting mutual needs. The provisions of 
43 U.S.C. 50 limit the share of the USGS to no more than 50 
percent of the cost of these mutually advantageous topographic 
and water resources investigations. No certifications are 
prepared for these mutual activities.
    Question. What activities in water resources, mapping and 
remote sensing does the USGS currently perform in-house, for 
its own program or with cooperators, that are considered 
inherently governmental in nature?
    Answer. In the GPRA strategic planning process, USGS 
categorized its functions into eight business activities 
described below. All are inherently governmental as determined 
by:
Circular A-76
    5b * * * ``Certain functions are inherently Governmental in nature, 
being so intimately related to the public interest as to mandate 
performance only by Federal employees
    6e(1) * * * management of Government programs requiring value 
judgments.
Circular A-76 Revised Supplemental Handbook, Appendix 5
    5(c) Significantly affect the life, liberty, or property of private 
persons.
    And established by Public Law and codified in 43 U.S.C. Sec. 31a--
31f.
    Further, a recent study by the National Academy of Public 
Administration, Geographic Information for the 21st Century Building a 
Strategy for the Nation, 1998, p. 53, found that the Geographic 
Information Roles Most Appropriately Provided by the Federal Government 
are to:
  --Ensure geographic information availability to support Federal 
        policymaking and operational responsibilities;
  --Ensure that Federal geographic information requirements imposed on 
        State, local, and tribal governments are reasonably attainable 
        and consistent; and
  --Help improve geographic information data quality, coverage, and 
        accessibility to benefit an expanding array of users through 
        national standards, a national clearing house, data archiving, 
        and basic geoscience support.
    Business activity No. 3.--Geographic and Cartographic Information--
however, does include some functions with commercial characteristics 
which have been increasingly privatized over the past several years in 
consultation with the Congress. Language in the report accompanying the 
House Interior Appropriations bill for fiscal year 1998 commends the 
USGS for the efforts made to date to increase contracting of 
topographic map and digital data production and that current policies 
and use of the private sector in this area will be continued.

                                               USGS STRATEGIC PLAN
----------------------------------------------------------------------------------------------------------------
          Business activity                        Description                        Role of the USGS
----------------------------------------------------------------------------------------------------------------
Water availability and quality......  Manage the Nation's water resources   Provide reliable, impartial, timely
                                       wisely for present and future         data & understanding of the
                                       generations.                          quantity and quality of the
                                                                             Nation's water resources to enable
                                                                             decision-makers to plan, operate,
                                                                             and regulate the water resources
                                                                             infrastructure of the Nation, and
                                                                             to undertake cost-effective
                                                                             programs to preserve and enhance
                                                                             water quality.
Hazards.............................  Reduce the loss of life and property  Advance our understanding of the
                                       from natural hazards.                 fundamental processes that control
                                                                             or trigger hazardous events or
                                                                             situations; lead in developing real-
                                                                             time monitoring and warning
                                                                             systems; and enhance the use of
                                                                             hazards assessments by decision
                                                                             makers, in order to improve
                                                                             disaster response and mitigation
                                                                             planning.
Geographic and cartographic           Provide maps and map data for the     Acquire, produce, manage, and
 information.                          Nation.                               disseminate geospatial data;
                                                                             cultivate partnerships with other
                                                                             governmental organizations,
                                                                             academia, and the private sector
                                                                             for those activities; provide
                                                                             leadership in establishing national
                                                                             geospatial data policies and
                                                                             standards; and conduct a geographic
                                                                             research and development program
                                                                             focused on interpretation and
                                                                             application of geospatial data.
Contaminated environments...........  Reduce both environmental             Identify and define the occurrence
                                       contamination and the cost of         and effects of contamination,
                                       cleaning up existing contamination.   broaden our basic understanding of
                                                                             contaminant hazards, and provide
                                                                             pertinent information to those
                                                                             concerned with mitigation and
                                                                             prevention.
Land and water use..................  Improve the land and water use        Provide integrated earth science
                                       decisions made by the public and      information about land and water
                                       private sector.                       use in support of management and
                                                                             other policy decisions, develop
                                                                             analytical tools for improved
                                                                             decision making, and enhance the
                                                                             understanding of how natural
                                                                             processes at the Earth's surface
                                                                             are affected by changes in climate
                                                                             or land/water use.
Nonrenewable resources..............  Enhance economic development and      Determine the location, quantity,
                                       growth.                               and quality of nonrenewable
                                                                             resources both internationally and
                                                                             domestically; determine the
                                                                             environmental effects of resource
                                                                             extraction and use; and improve
                                                                             assessments of resource potential,
                                                                             making possible the formulation of
                                                                             the best strategies for development
                                                                             of future resource supplies.
Environmental effects on human        Reduce risks to human health from     Provide information on the
 health.                               hazardous chemicals and disease-      occurrence of environmental toxins
                                       causing organisms.                    and pathogens and the factors
                                                                             affecting fate and transport of
                                                                             these agents from their sources to
                                                                             humans.
Biological resources................  Conserve and manage the Nation's      Provide reliable, impartial and
                                       biological resources for present      timely data on the status and
                                       and future generations.               trends of the Nation's biological
                                                                             resources, to provide an
                                                                             understanding of biological
                                                                             systems, and to assess natural and
                                                                             human induced changes to those
                                                                             systems.
----------------------------------------------------------------------------------------------------------------

    Question. What activities in water resources, mapping and 
remote sensing does the USGS currently perform in-house, for 
its own program or with cooperators, that are considered 
commercial in nature? What plan does the USGS have to contract 
those activities to the private sector?
    Answer. Commercial activities within mapping and remote 
sensing include map production, map revision, digital data 
collection, digital data revision, aerial photography 
acquisition, and satellite data acquisition. With the exception 
of map revision, all of these activities are contracted to the 
private sector, either wholly or in large part. A new contract 
has been developed for fiscal year 1998 to allow for 
contracting of map revision.
    Question. To what extent does the Biological Resources 
Division have in-house capability in such activities as GIS 
data production, Remote Sensing Data Production and 
Photointerpretation production?
    Answer. The USGS Biological Resources Division (BRD) has 
geospatial capabilities related to ongoing research and 
scientific programs and responsibilities including GIS research 
activities, remote sensing research activities, and 
photointerpretation research activities. The geospatial efforts 
are involved with the research and development of protocols and 
standards or direction, coordination, administration and 
quality assurance/quality control of contracted data 
production. In those cases where the research and scientific 
programs require the production of data, GIS data and remote 
sensing, this is being accomplished by contractors through a 
competitive process. In addition, the BRD relies heavily on 
outsourcing with State agencies and universities to conduct the 
data production and interpretation research activities. For 
example, geospatial efforts for the Gap Analysis Program are 
conducted by State agencies and universities or through the 
research centers that have geospatial capability.
    Question. What is the nature of the photointerpretation 
production services the Midcontinent Ecological Science Center 
is providing the National Park Service and the National 
Wetlands Research Center is providing photointerpretation paid 
for by Florida Department of Environmental Protection?
    Answer. The National Wetlands Research Center and the 
Midcontinent Ecological Science Center do not provide 
photointerpretation production services.
    Question. How was the determination made that the private 
sector could not provide these services?
    Answer. As stated above, no determination was necessary 
because these services are not provided.
    Question. Executive Order 12615 requires each Federal 
agency to ``ensure that new Federal Government requirements for 
commercial activities are provided by private industry, except 
where statute or national security requires government 
performance or where private industry costs are unreasonable.'' 
Inasmuch as the Biological Resources Division is a new entity 
(created since Executive Order 12615 was issued on November 19, 
1987), all its commercial activities are new and are subject to 
the aforementioned requirement. How has the BRD complied with 
this requirement?
    Answer. The Biological Resources Division (BRD) of the U.S. 
Geological Survey would not be subject to the stated 
requirements as the agency did not promulgate new Federal 
government requirements for commercial activities. The BRD was 
formerly the National Biological Survey (later renamed the 
National Biological Service), which was created in 1994 by 
consolidating research functions already in existence and 
residing within the U.S. Fish and Wildlife Service, National 
Park Service, Minerals Management Service, Bureau of Land 
Management, Bureau of Reclamation, and Office of Surface 
Mining. In this merger of research functions, authorizing and 
enabling legislation remained unchanged, leaving BRD with the 
same responsibilities that each of the predecessor bureaus had. 
Further, the BRD does not perform any commercial activities. 
Further, the BRD is not a new Federal entity.
    Question. With specific regard to engineering, mapping and 
remote sensing-related activities, how has BRD either made a 
determination of national security or unreasonable private 
sector costs for such services?
    Answer. The BRD has not made such determination. In fact, 
BRD relies heavily on outsourcing for engineering, mapping, and 
remote sensing related activities.
                                ------                                


                Questions Submitted by Senator Campbell

                                  pilt

    Question. With your requests for funds, the Administration 
is asking for an additional $490.8 million over last year's 
appropriations, but with the increase I noticed that there was 
not an increase in PILT payments for the local counties. Many 
counties in Colorado are experiencing higher and higher demands 
on them for the services they provide. What is the 
justification for not increasing the amount of PILT payments to 
them with your request of an additional $490.8 million?
    Answer. Payments in Lieu of Taxes (PILT) are Federal 
payments to local governments that may be used for any 
governmental purpose. The payments provide additional support 
to local governments that have certain Federal land within 
their boundaries. Payment eligibility is reserved for local 
governments (usually counties) that provide services such as 
those related to public safety, environment, housing, social 
services, and transportation, and that contain nontaxable 
Federal lands.
    The PILT program is administered by the Bureau of Land 
Management (BLM). BLM's responsibility is to calculate the 
payments according to the formula established by law and to 
distribute the funds appropriated by Congress. Since PILT's 
inception in 1977, payments have averaged a total of about $102 
million annually. To date (including the 1997 payments), over 
$2 billion in payments has been made. The fiscal year 1999 
request is $120 million, the same as the appropriated level for 
fiscal year 1998. This represents the largest administration 
request in the history of the PILT program and is $18.5 million 
over last year's requested level.
    The BLM recognizes the value of PILT payments to counties 
for the services that these funds provide. The request for 
additional funds in natural resource programs by the 
administration will also benefit states and counties by 
improving the quality of lands and resources that in turn help 
support their economic well being by providing jobs, higher 
visitation, recreation values, and a sustainable supply of 
resource products. The BLM is committed to protecting and 
restoring the Nation's water, wildlife, fisheries, and 
habitats. Healthy lands will provide economic benefits for the 
public and private land users alike.

                         wilderness study areas

    Question. It has been suggested that the Colorado 
Environmental Coalition (CEC) was given access to BLM offices 
to research the proposed re-inventory of roadless areas in 
Colorado. Their purpose was to recommend certain areas for 
wilderness designation. Is it true the CEC was given special 
access to your offices? If so, is it BLM policy to provide 
access to any interest group for this purpose?
    Answer. All materials, including maps, field notes from on-
the-ground roadless reviews, and previous resource management 
planning documents, are public information and available for 
review at local BLM offices by any interested party.
    Question. The BLM completed the Colorado inventory in 1991 
and recommended about 400,000 acres of the 800,000 studied for 
wilderness designation. What authority does the BLM have to re-
study these areas? If such areas were found not suitable in 
1991, what would make them suitable now?
    Answer. Section 201 of FLPMA is the BLM's general authority 
to conduct all public land inventories, including wilderness 
inventories. Section 201(a) states: The Secretary shall prepare 
and maintain on a continuing basis an inventory of all public 
lands and their resource and other values * * * giving priority 
to areas of critical environmental concern. This inventory 
shall be kept current so as to reflect changes in conditions 
and to identify new and emerging resource and other values. 
(italic added).
    Section 603 of FLPMA, which provided a 15-year wilderness 
review and recommendation process, does not limit the BLM's 
general and continuing authority under Section 201 to conduct 
inventories of public lands, including wilderness 
characteristics (the Section 603 process was completed by BLM 
1991).
    A variety of changes may have occurred ``on the ground,'' 
since collection of the Colorado inventory data in 1980 for the 
Section 603 process. Resource conditions are dynamic and 
physical conditions change. For example, over time existing 
roads naturally become obliterated with non-use. Additional 
inventories, in compliance with Section 201, could therefore 
result in the identification of some additional areas with 
wilderness characteristics.
    Question. There are ongoing oil and gas activities along 
with mineral exploration in some of these areas. It has been 
reported that leases were withdrawn upon the request of the CEC 
when oil companies were prepared to commence with exploration. 
Is this true? How are the financial commitments that the oil 
companies paid to the BLM being handled?
    Answer. In response to requests to halt oil and gas leasing 
of tracts within the CEC's proposal, the State Director in 1995 
agreed to hold further leasing within these areas in abeyance 
pending clarification of BLM policy. This informal policy was 
continued by three subsequent State Directors or Acting State 
Directors.
    In 1996, Assistant Secretary of the Interior Bob Armstrong 
responded to a letter from Congressman David Skaggs by stating, 
``The Bureau is concerned about appropriate management of areas 
which have not been included in its land use plans as 
wilderness or wilderness study areas but which have been 
nominated for that status by various interested parties.'' The 
letter further stated that the Colorado State Director agreed 
to hold in abeyance leasing within the areas proposed by the 
Colorado Environmental Coalition, pending clarification of the 
Bureau's policy on this issue.
    In 1996, Marathon Oil field filed a lawsuit and an appeal 
with the Interior Board of Land Appeals (IBLA) claiming harm 
from the withdrawal. The lawsuit was subsequently dismissed by 
the District Court, citing the Department's discretionary 
authority for leasing. An appeal by Marathon to the Circuit 
Court is pending. The IBLA also ruled in favor of BLM, but 
directed that a site specific analysis be conducted for tracts 
that are not offered in a lease sale when they have been 
appropriately nominated, and the tracts are in areas open to 
leasing under current land use planning. The tracks in question 
were withdrawn from the lease sale and no financial commitment 
was paid to the BLM by Marathon Oil.
    Question. All of the CEC proposed areas have management 
plans that allow for multiple use (livestock grazing, 
recreation, oil and gas production). Is it the intent of the 
BLM to continue the management plans in these areas currently?
    Answer. Six of the areas proposed in the CEC's report have 
been reviewed to determine if they meet the definition of 
roadless used in the 1980 wilderness inventory. Parts of each 
of the six areas were found to be roadless. The parts that did 
not meet the roadless definition are being managed according to 
existing plans. For the areas that are roadless, BLM asked for 
public comments on the adequacy of the plans to manage the 
areas. The recently closed public comment period resulted in 
nearly 2,000 comments received by BLM; over 1,200 supported 
additional land use planning to consider additional protection. 
A decision is expected in June regarding which, if any, of the 
six areas will be subject to plan amendments. No changes in 
management can be made without amending the current plans. Plan 
amendments take approximately one year to complete.
    For other CEC proposed areas, the BLM Colorado has adopted 
a policy to hold discretionary actions that might have 
irreversible or irretrievable impacts temporarily in abeyance 
until the wilderness issues raised by the CEC are addressed and 
resolved through the BLM planning process.
    Question. Does the BLM have plans to re-study or review 
additional areas for wilderness designation? If so, which ones?
    Answer. In Colorado, we are currently involved in a 
wilderness inventory limited to six areas totaling fewer than 
200,000 acres. The Colorado inventory process includes many 
opportunities for public comment. When the public comment 
period closes in April, decisions will be made as to whether or 
not land use plans should be amended.
    The Colorado State Office has identified a few additional 
areas totaling less that 100,000 acres that may require 
wilderness inventory. We do not anticipate completing a state 
wide inventory in Colorado.
    Question. What is the long term strategy for management on 
BLM lands? In other words, can we expect to have more review or 
is there some certainty that this is the last effort to 
designate more wilderness or will this be an ongoing process?
    Answer. Since completion of the Section 603 wilderness 
review process in 1991, the BLM has been complying with FLPMA's 
mandate under Section 201 to ``prepare and maintain on a 
continuing basis an inventory of all public lands and their 
resource and other values'' (emphasis added). The BLM has 
conducted wilderness inventories under the authority of Section 
201, as needed, in at least seven states. These Section 201 
inventories have resulted in identification of some areas with 
wilderness characteristics and other areas without. Congress 
has included some of the areas inventoried under Section 201 in 
proposed wilderness legislation and has designated some of 
these areas as wilderness.
    The BLM will continue to comply with Section 201 of FLPMA. 
As resource conditions change, BLM will address those issues in 
an ongoing, case-by-case basis.

                               sand creek

    On March 24 the Senate Energy Subcommittee on National 
Parks and Preservation held a hearing on S. 1695, the Sand 
Creek Massacre Site Historic Preservation Bill.
    During that hearing, Ms. Katherine Stevenson, of the 
National Park Service, characterized S. 1695 as ``extremely 
worthy.'' She also recommended that the Senate require ``the 
National Park Service to conduct a study to confirm the exact 
location of the massacre'' site.
    Question. Do you agree with Ms. Stevenson's assessment of 
the merits of S. 1695?
    Answer. Ms. Stevenson's testimony was on behalf of the 
Department.
    Question. What can the Park Service do to get the site 
study underway and concluded quickly, even this year?
    Answer. The National Park Service has reviewed files on 
Sand Creek, identified employees and others who possess 
particular expertise or have experience relevant to a Sand 
Creek study, begun consultation and collaboration with the 
Cheyenne/Arapaho Tribe, established close communication and 
cooperation with the Colorado Historical Society (which has for 
some time been engaged in its own project to locate the site), 
and is developing plans, strategies, and cost estimates to 
carry out the very formidable task of locating the site. The 
NPS will do all that it can within the present funding levels, 
but there is no possibility of concluding the study this year.
    If funds were appropriated, though they are not requested, 
and if cooperation were gained from landowners in allowing 
access to their properties, the NPS believes the site might be 
identified with one to two years of work. A sound study of the 
resources and possible preservation and management alternatives 
could be completed within three years. In the meantime, the 
National Park Service will do what is possible--especially in 
cooperation with the study the Colorado Historical Society has 
under way.
    Question. Are you committed to this course of action?
    Answer. The National Park Service is not only committed to 
the course of action just described, it is doing all that it 
can within funds and authorization available at present.
    While the exact location of the Sand Creek Massacre Site 
has been questioned by some, we know this sacred site is out 
there and deserves to be preserved with dignity. I am quite 
confident that the National Park Service, with its capable 
staff of historians and archeologists, will be able to locate 
the exact site on the banks of Sand Creek. After all, Park 
Service personnel have already started the process by 
conducting research at Sand Creek.
    Question. Are you committed to locating this important 
historical site once and for all?
    Answer. The NPS is deeply interested in locating this 
important historic site and will consider this during the 
formulation of the fiscal year 2000 budget request.
    Question. Once we find it, to acquire it, and then preserve 
it for the Cheyenne, Arapahoe and American people?
    Answer. The National Park Service testified that it 
believes it is likely that the correct site can be located, and 
that there is reason for optimism that the site would possess 
the necessary degree of historical integrity and be suitable 
and feasible for park purposes, but NPS cannot with certainty 
assure that outcome. Once those things have all been 
established, however, it would still require an Act of Congress 
to authorize the National Park Service to acquire and preserve 
the site for the Cheyenne, Arapaho, and American people.
    Question. What resources, especially on-hand expertise, 
does the Park Service currently have that enables it to 
continue the process of locating the Sand Creek site through 
the rest of this year?
    Answer. NPS has historians, archeologists, ethnographers, 
tribal cultural heritage staffs, planners, cartographers, 
geographic information systems staffs, remote sensing experts, 
data systems experts, and Native American Liaison experts, and 
others who might play certain roles. NPS has identified most of 
the individuals whom could best do their parts of the total 
job. However, the work will be limited as other priorities are 
utilizing available resources.

                          subcommittee recess

    Senator Domenici. I thank you very much. The subcommittee 
will stand in recess until 9:30 a.m., Tuesday, April 21, when 
we will receive testimony from the Bureau of Indian Affairs and 
the General Accounting Office.
    [Whereupon, at 11:18 a.m., Wednesday, April 1, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Tuesday, 
April 21.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

                              ----------                              


                        TUESDAY, APRIL 21, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:26 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Domenici, Burns, and 
Dorgan.

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF VICTOR S. REZENDES, DIRECTOR, ENERGY, 
            RESOURCES, AND SCIENCE ISSUES
ACCOMPANIED BY:
        SUE NAIBERK, ASSISTANT DIRECTOR, ENERGY, RESOURCES, AND SCIENCE 
            ISSUES
        JENNIFER DUNCAN, EVALUATOR

                       DEPARTMENT OF THE INTERIOR

                        Bureau of Indian Affairs

STATEMENT OF KEVIN GOVER, ASSISTANT SECRETARY FOR 
            INDIAN AFFAIRS
ACCOMPANIED BY:
        HILDA MANUEL, DEPUTY COMMISSIONER FOR INDIAN AFFAIRS
        JOANN SEBASTIAN MORRIS, DIRECTOR, OFFICE OF INDIAN EDUCATION

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens [presiding]. I do apologize. I have had a 
series of problems this morning trying to get supplemental 
appropriations off the dead center. The subcommittee chairman 
is on the floor with amendments on the ocean bill.
    We do have a scheduled hearing here for the 1999 budget 
request and I am notified that all other members of the 
subcommittee are either in other committees or on the floor.
    I want to welcome Kevin Gover for your first hearing, Mr. 
Gover, as Assistant Secretary of Indian Affairs. We are very 
delighted to hear that you will be visiting Alaska in May and I 
hope to have a chance to visit with you while you are there, 
too.
    Senator Gorton invited the General Accounting Office to 
provide testimony on the work it has done at his and my request 
with respect to the Bureau's tribal priority allocation system. 
The GAO asked if it could testify first and Senator Gorton 
agreed to that request. I expect there will be some questions 
for GAO after they finish and I hope our colleagues who are on 
the floor will be here by that time.
    I will have additional questions from Senator Gorton. He 
said to me just as I left the floor that he, too, would try to 
join the subcommittee sometime before we end this hearing this 
morning.
    After we have had an opportunity to ask the GAO some 
questions on TPA, we will then go to testimony of Secretary 
Gover and his colleagues from BIA. Although the GAO asked to 
testify first, I do ask that you remain, at least some of you, 
during the presentation of the BIA, if that is possible, 
because we might have some additional questions after the BIA 
testimony to ask the GAO witnesses.
    Senator Gorton made some comments when Secretary Babbitt 
was here 3 weeks ago, that I should repeat now. This year, the 
overall amount of discretionary spending available to the 
Appropriations Committee will not increase as it did in fiscal 
year 1998. In fact, the total amount of nondefense 
discretionary funding available for the entire appropriations 
bill is less than a freeze, less than the amount of money we 
had last year taking into account the inflation figures.
    The President has not lived up to the spending caps in his 
budget because there are special funds and new revenue streams 
that are proposed, which we know will not be approved by 
Congress. As a matter of fact, they were requested by President 
Bush and they were not approved then.
    Some of the discretionary spending accounts have been 
reclassified as mandatory and Congress will not agree to that.
    By virtue of these disagreements, the President's requests 
for programs under the jurisdiction of this subcommittee have 
to deal with about a $1 billion increase, as compared to the 
1998 level.
    Now the program within the Bureau of Indian Affairs is 
slated to receive $142 million of the increase that was in that 
$1 billion. As Senator Gorton told Secretary Babbitt, that was 
wishful thinking. And as chairman, I can back up what the 
Senator says. We just do not have that money to allocate 
because revenue streams will not be there.
    I hope that we can, however, deal with this problem of the 
allocation for the subcommittee so that it will not be less 
than it was in this current fiscal year.
    We are in a tough situation. I think anybody who knows and 
has looked at this budget will realize there is going to be a 
tremendous collision here in the Congress with the 
administration before September.
    But I am concerned about the pressing needs for the Indian 
Health Service. It is, by the way, the only major agency in the 
bill that did not receive an increase even under the 
President's budget request.
    There are some problems in Medicare and Medicaid 
reimbursement for the Indian Health Service that add to the 
difficulties of this subcommittee bill and we will get into 
that later.
    We also have another problem with this bill and that is the 
proposal to sell oil for the strategic petroleum reserve at a 
time when prices are so low. We just are not justified in doing 
that and, under those circumstances, we have to find money to 
make up for the loss of that money that would have come into 
this budget.
    CBO tells us that they do not agree with the estimates that 
have been given to us by the OMB and that, too, is going to 
lead to some severe difficulty with this bill.
    I am really restating what Senator Gorton said before, when 
the Secretary was here, for the benefit of those witnesses who 
may not have heard that exchange. We do ask the BIA to 
reevaluate its budget request and to work with Senator Gorton 
and the subcommittee staff over the next few weeks and months 
to determine what are the real priorities for the BIA. And if 
we don't get an agreement on that, I think that is just another 
battle that is going to go on even before we get into battle 
with the House over this bill.
    There is a whole series of battles--a battle within this 
subcommittee itself, then with the House, then with CBO, and 
then with the administration. I really don't see a very easy 
path for this bill this year, and this used to be one of the 
bills that we could deal with and be reassured that we would 
have support for the agencies involved.

                           prepared statement

    As one who spent 5 years in Interior, I really find it very 
hard to understand how this whole area of this budget has 
literally come apart. I think that is why Senator Gorton 
invited the GAO to testify today, because we want to know what 
the GAO's opinion is with regard to the fairest method for 
distributing BIA tribal priority allocations. This accounts for 
half of the Bureau's operating budget and it is best that we 
get to it and find out what they have to say.
    I will put the rest of Senator Gorton's statement in the 
record here at this time.
    [The statement follows:]

                  Prepared Statement of Senator Gorton

    Good morning. The subcommittee meets today for the third of 
its hearings on the 1999 budget requests for agencies funded by 
the Subcommittee on Interior and Related Agencies.
    This morning we will hear testimony regarding the 1999 
budget request for the Bureau of Indian Affairs. I want to 
welcome Kevin Gover to his first hearing before this 
subcommittee as the Assistant Secretary for Indian Affairs.
    Before the Bureau presents its testimony, however, I have 
invited the General Accounting Office to testify on the work it 
has been doing at my request, and that of Senator Stevens, with 
respect to the Bureau's Tribal Priority Allocations system. The 
GAO asked if it could testify first, and I agreed to the 
request. I expect I will have some questions for the GAO after 
they finish, and I hope that my colleagues will, also.
    Following the GAO, I ask that the witnesses switch with the 
BIA, which has several people on hand to deal with specific 
issues. I would ask the GAO to remain for the duration of the 
hearing, if their schedules permit. Members of the subcommittee 
may have additional questions for the GAO regarding their 
findings following the BIA's testimony.
    Before we begin, though, let me repeat the remarks that I 
made when Secretary Babbitt testified before this subcommittee 
three weeks ago. This year the overall amount of discretionary 
spending available to the Appropriations Committee will not 
increase like it did in fiscal year 1998. In fact, the total 
amount of non-defense discretionary funding available for the 
entire Appropriations Committee is less than a freeze.
    The President dodged the statutory spending caps in his 
budget by establishing special funds, proposing new revenue 
streams, and reclassifying certain discretionary spending as 
mandatory. By virtue of these bookkeeping maneuvers, the 
President's request graces programs under the jurisdiction of 
this subcommittee with a $1 billion increase over the 
comparable 1998 level. Programs within the Bureau of Indian 
Affairs are slated to receive $142 million of this increase. 
Regrettably, as I told Secretary Babbitt, all of this is 
wishful thinking.
    Though I hope to persuade Senator Stevens to provide this 
subcommittee with an allocation that is better than a freeze, 
there is no chance that we will receive a $1 billion increase--
or anything close to it. What's more, there is competition for 
any increase that we do receive. I am concerned about the 
pressing needs of the Indian Health Service, which is, 
inexplicably, the only major agency in this bill that did not 
receive a significant increase in the President's budget 
request. I note that the Administration has justified this, in 
part, by doubling the estimates of medicare and medicaid 
reimbursements made by the Indian Health Service itself. In 
addition, if we do not sell oil from the Strategic Petroleum 
Reserve--and there is little sentiment to do so with oil prices 
so low--we will need to find $160 million that was not in our 
base last year. The Congressional Budget Office tells us that 
they do not agree with other fanciful score keeping estimates 
in the budget request that will cost us tens of millions of 
dollars.
    I am stating this as much for my colleagues' benefit as for 
the agency. Just as I will plead with them to be reasonable in 
their requests of me, so will I ask the Bureau to reevaluate 
its budget request, and work with me and my staff over the next 
few months to determine the real priorities of the Bureau of 
Indian Affairs. We need your cooperation in this process.
    On a final note to help explain why I invited the GAO to 
testify today, it is my hope that what the GAO shares with the 
subcommittee today will contribute to devising a new, fair, 
method for distributing BIA Tribal Priority Allocations. TPA 
alone accounts for nearly half of the Bureau's operating budget 
today. Right now, TPA dollars are distributed based on 
historical distributions, with no consideration of a tribe's 
ability to finance these services from other funds. And each 
year, the sophisticated tribes with the best lobbying efforts 
request that more and more of BIA operations money be 
transferred into the TPA function. Until and unless we can 
develop a method for distributing these monies better, I 
hesitate to even consider the $33.8 million increase requested 
this year.
    With that, I invite the witnesses from the GAO to identify 
themselves and then proceed with their testimony.

                       introduction of associates

    Senator Stevens. Senator Byrd will not be here. But we will 
obviously submit the questions that he may have to offer at a 
later time.
    Now it is my understanding, Mr. Rezendes, that we will hear 
from you. Would you please come up to the witness table and 
whoever else is with you.
    Mr. Rezendes. Thank you, Mr. Chairman.
    Let me introduce my colleagues here. On my left is Sue 
Naiberk, our Assistant Director, and on my right is Jennifer 
Duncan, who is the evaluator responsible for a good part of 
this work.
    Senator Stevens. What was the first name, please?
    Mr. Rezendes. We have here Jennifer Duncan (indicating) and 
here (indicating) is Sue Naiberk.
    Senator Stevens. Duncan and Naiberk. Thank you. I did not 
hear the first name.

                summary statement of victor s. rezendes

    Mr. Rezendes. Sorry.
    As you know, these are preliminary observations on the work 
that we have done for you and Senator Gorton on the TPA 
account. As you know, those funds represent the largest portion 
of BIA's appropriation, about 45 percent of the $1.7 billion.
    To put that in perspective, TPA represents about 10 percent 
of the $7.5 billion that the Federal Government spends on 
Indian programs.
    In summary, we found that two-thirds of the $757 million in 
TPA funds were distributed primarily on the basis of historical 
levels and tribes may shift these base funds among activities 
according to their needs. For example, a tribe needing more 
funds for law enforcement than for education may move these 
funds to meet those needs. The remaining one-third is known as 
nonbase funds and are used for such activities as road 
maintenance and housing, and are generally distributed under a 
more specific formula.
    Average TPA distributions varied widely. On a per capita 
basis, those ranges went from $121 per tribal member in BIA's 
Muskogee area to over $1,000 in the Portland area.
    Let me emphasize that this analysis is only for information 
purposes. BIA does not distribute these funds on a per capita 
basis nor do they recommend that those funds be distributed 
that way.
    According to Interior--and I am sure that they will talk to 
you about that as well--they think that there are reasons for 
the differences and that the basic numbers on populations are 
not reliable.
    In addition, as you know, non-Federal entities, including 
Indian tribes, meeting certain financial assistance thresholds 
must submit audited financial statements annually under the 
Single Audit Act. We reviewed all of the statements most 
recently filed by the tribes. While some reported only their 
Federal revenues, others included revenues from State, local, 
and private sources.
    In total, the statements reported that these tribes 
received more than $3.6 billion in revenues. These revenues 
include such things as taxes and fees, lease and investment 
income, and funds received through Government grants and 
contracts. Some tribes also reported income from their 
businesses. Ninety-eight tribes reported about $1.2 billion in 
operating profits and another 70 tribes reported operating 
losses of about $50 million.
    However, the quality of the data submitted varies. Only 
half of the statements received unqualified audit opinions. The 
remaining statements had various degrees of deficiencies.
    Mr. Chairman, you also asked us to look at some options in 
terms of additional information that might be useful to the 
Congress in deciding whether TPA funds should be distributed on 
a different formula or whether business revenues should be 
included in there.

                           prepared statement

    Some of the issues or some of the additional information we 
think might be helpful is financial information for all tribes, 
including those tribes submitting reports under the Single 
Audit Act, more complete information on the financial resources 
available to tribes from tribal businesses, including gaming, 
and, finally, more reliable data on tribes' financial 
positions.
    As you know, Mr. Chairman, there are several impediments to 
getting this information. It won't be easy.
    With that, I will stop and maybe we can go into some 
questions.
    [The statement follows:]
                Prepared Statement of Victor S. Rezendes
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the preliminary results of our review of the 
Bureau of Indian Affairs' (BIA) distribution of Tribal Priority 
Allocation--or TPA--funds. BIA began efforts that evolved into TPA in 
the early 1970's as a way to pursue Indian self-determination by giving 
tribes the opportunity to set priorities and allocate funds for those 
activities they wanted to fund, in consultation with BIA. We are 
conducting this review at your and Chairman Stevens' request, and we 
will issue our report on TPA-funds distribution by June 1. Today I will 
discuss (1) BIA's basis for distributing 1998 TPA funds; (2) total 
distributions of TPA funds in fiscal year 1998 and a per capita 
analysis of those distributions; (3) revenue and business income 
information reported by tribes under the Single Audit Act; and (4) what 
additional revenue and income information might be useful to the 
Congress in deciding whether to distribute TPA funds considering the 
total financial resources available to tribes, including possible 
barriers to collecting this information.
    As of October 1997, 556 tribes had been recognized by the federal 
government and are eligible to receive financial assistance through 
BIA. Each of these tribes may receive funds for activities such as law 
enforcement, social services, adult vocational training, child welfare, 
and natural resource management through TPA; specific activities and 
priorities may vary from year to year. BIA provides TPA funds to tribes 
either by funding tribally operated activities or through services 
provided by BIA. \1\ TPA funds are also used to support some of BIA's 
management and administrative costs.
---------------------------------------------------------------------------
    \1\ For the purposes of this report, subsequent references to 
``tribes'' that receive TPA funds also include BIA offices that receive 
TPA funds on the tribes' behalf.
---------------------------------------------------------------------------
    TPA funds are the largest portion of BIA's direct appropriation in 
fiscal year 1998, representing 45 percent--or $757 million--of the $1.7 
billion total. To put this in perspective, TPA represents 10 percent of 
the $7.5 billion in federal funding that the Office of Management and 
Budget reports was appropriated for Indian programs in 1998. This 
funding was for a wide variety of programs, such as food distribution 
and rural business opportunity grants through the Department of 
Agriculture, environmental restoration through the Army Corps of 
Engineers, and library services through the Department of Education.
    In summary, we found:
  --Two-thirds of the 1998 TPA funds were distributed primarily on the 
        basis of historical levels, and tribes may shift these ``base'' 
        funds among TPA activities according to their needs. For 
        example, a tribe needing more funds for law enforcement than 
        for adult vocational education may move funds to meet those 
        needs. The remaining one-third, known as ``non-base'' funds, 
        are used for such activities as road maintenance and housing 
        improvement and were generally distributed on the basis of 
        specific formulas.
  --In total, 95 percent of the TPA funds appropriated in fiscal year 
        1998 have been distributed. Average TPA distributions varied 
        widely among BIA's 12 area offices when analyzed and compared 
        on a per capita basis; the per capita averages ranged from $121 
        per tribal member within BIA's Muskogee area to $1,020 per 
        tribal member within BIA's Portland area. Mr. Chairman, let me 
        emphasize that we present this analysis for your information 
        only--BIA does not distribute TPA funds on a per-capita basis, 
        nor does BIA recommend that such a distribution method be used. 
        According to Interior officials, there are reasons for 
        differences in TPA distributions, and they do not consider the 
        population estimates to be reliable. Appendix I contains 
        additional information on total TPA distributions by area 
        office and a per capita analysis of these distributions.
  --Nonfederal entities--including tribes--meeting certain federal 
        assistance thresholds (those receiving $100,000 or more in 
        federal funds before 1997, and those expending $300,000 or more 
        in 1997 or later) must submit audited financial statements 
        annually under the Single Audit Act. We reviewed all 326 
        financial statements on file with the Department of the 
        Interior that were most recently submitted by tribes; the 
        statements generally covered fiscal years 1995 or 1996. \2\ 
        While some tribes reported only their federal revenues, others 
        included revenues from state, local, and private sources. In 
        total, the statements reported that these tribes received more 
        than $3.6 billion in revenues during the years covered by them. 
        These revenues included such things as taxes and fees, lease 
        and investment income, and funds received through governmental 
        grants and contracts. Some tribes also reported income from 
        their businesses for the periods covered by the statements: 98 
        reported about $1.2 billion in operating profits, and another 
        70 reported operating losses of about $50 million. However, the 
        quality of the information reported in the statements varied; 
        only about half of the statements received ``unqualified'' 
        opinions from auditors, while the others were deficient to 
        varying degrees. \3\
---------------------------------------------------------------------------
    \2\ Appendix II provides additional details of our scope and 
methodology.
    \3\ An unqualified opinion on the financial statements generally 
means that the auditor concludes the financial statements and 
accompanying notes present fairly, in all material respects, the 
assets, liabilities, and net position of the entity at the end of the 
period; and the net costs, changes in net position, and csh flows for 
the period are in conformity with the entity's basis of accounting or 
generally accepted accounting principals.
---------------------------------------------------------------------------
  --In deciding whether to consider tribal revenues or business income 
        in distributing TPA funds, information that might be useful to 
        the Congress could include more complete and reliable financial 
        information for all tribes. However, there are several 
        impediments to obtaining this information. For example, under 
        the Single Audit Act, financial statements must be submitted 
        only by those nonfederal entities (including tribes) expending 
        at least $300,000 of federal funds in a year and may not 
        include income from tribes' businesses.
                               background
    In the early 1970's, BIA began giving tribes more training, 
involvement, and influence in BIA's budget process, in efforts that 
evolved into TPA. \4\ At that time, according to BIA officials, few 
tribes were experienced in budgeting or contracting, and most depended 
on BIA for services. Over the years, tribes have become more 
experienced and sophisticated in TPA budgeting, are more involved in 
directly contracting and managing their TPA activities, and have more 
flexibility in shifting funds between activities within TPA. Since 
1991, through amendments to the Indian Self-Determination and Education 
Assistance Act, 206 tribes have entered into self-governance agreements 
with the federal government. Under the terms of these agreements, the 
tribes assume primary responsibility for planning, conducting, and 
administering programs and services--including those activities funded 
under TPA.
---------------------------------------------------------------------------
    \4\ See Tribal Participation in the Bureau of Indian Affairs Budget 
System Should Be Increased (GAO/CED-78-62, Feb. 15, 1978) and Indian 
Programs: Tribal Influence in Formulating Budget Priorities Is Limited 
(GAO/RCED-91-20, Feb. 7, 1991).
---------------------------------------------------------------------------
                 bia's basis for distributing tpa funds
    Of the $757 million in TPA funds that the Congress appropriated in 
fiscal year 1998, about $507 million was for base funding, and about 
$250 million was for non-base funding. Base funding was distributed in 
three components: $468 million generally on the basis of historical 
funding levels, $16 million to supplement funding for ``small and 
needy'' tribes, and $23 million in a general funding increase.
    According to Interior officials, how TPA base funds for tribes were 
initially determined is not clearly documented, and adjustments may 
have been made over time in consideration of specific tribal 
circumstances. While most increases in the TPA budget prior to the 
1990s resulted from congressional appropriations for specific tribes, 
subsequent increases have generally been distributed on a pro rata 
basis. The $468 million in base funds may be used by tribes for such 
activities as law enforcement, social services, and adult vocational 
training. Tribes may move these funds from one TPA activity to another.
    In 1998, the Congress appropriated TPA funds for BIA to supplement 
historical distribution levels for ``small and needy'' tribes; as a 
result, $16 million in additional base funds was distributed to 292 
tribes. The designation ``small and needy'' was developed by the Joint 
Tribal/BIA/DOI Advisory Task Force on Bureau of Indian Affairs 
Reorganization in 1994. \5\ The task force recommended that tribes with 
service populations of less than 1,500 have available minimum levels of 
TPA base funds--$160,000 in the lower 48 states and $200,000 in 
Alaska--to allow them to develop basic self-government capacity. \6\ 
Because some small tribes were receiving less than $160,000, the 
Congress directed BIA to supplement TPA base funds with the 1998 
distribution so that each of these tribes would receive $160,000. For 
fiscal year 1999, BIA has requested an additional $3 million to move 
the ``small and needy'' tribes in Alaska closer to the task force-
recommended minimum funding level of $200,000.
---------------------------------------------------------------------------
    \5\ The Tribal Budget System: Preliminary Assessment of Most Needy 
Small Tribes, Joint Tribal/BIA/DOI Advisory Task Force on Bureau of 
Indian Affairs Reorganization (Apr. 1994).
    \6\ ``Service population'' refers to the numbers of Indians 
eligible to receive services from BIA.
---------------------------------------------------------------------------
    The $23 million general increase in base funds was evenly 
distributed among BIA's 12 area offices, as recommended in January 1998 
by a special task force assembled under the 1998 Interior Appropriation 
bill. Each equal portion was subsequently distributed to tribes and BIA 
offices according to various considerations. For example, the tribes in 
BIA's Sacramento area each received an equal share of the area office's 
$1.95 million allocation. The tribes in BIA's Juneau area each received 
$4,000, and the remainder was distributed on the basis of population 
and TPA base funding levels.
    The remaining $250 million is non-base funds and is generally 
distributed according to specific formulas that consider tribal needs. 
In general, tribes may not shift these funds to other activities 
without special authorization. Road maintenance, housing improvement, 
welfare assistance, and contract support are all included in this 
category. For example, road maintenance funds are distributed to BIA's 
area offices based on factors such as the number of miles and types of 
roads within each area. Housing improvement funds are distributed to 
area offices on the basis of an inventory of housing needs that 
includes such things as the number of units in substandard condition 
and the number of units needing renovation or replacement.
   distribution of fiscal year 1998 tpa funds and per capita analysis
    As of March 1998, 95 percent of the $757 million in TPA funds had 
been distributed among the tribes and BIA offices. Our per capita 
analysis shows that the distributions ranged from a low of $121 per 
tribal member within BIA's Muskogee area to a high of $1,020 within the 
Portland area. However, according to Interior officials, there are 
reasons for the differences in TPA distributions and the differences 
should not all be perceived as inequities. For example, BIA is required 
to fund law enforcement and detention in states that do not have 
jurisdiction over crimes occurring on Indian lands, so tribes located 
in those states may receive more TPA funds for these purposes than 
tribes located in other states. Similarly, BIA has a trust 
responsibility for natural resources on reservations, so tribes that 
have large land bases may receive more TPA funds for this purpose than 
tribes with small land bases. Furthermore, tribes with self-governance 
agreements may include funds in their TPA base amount that are not 
included for tribes without self-governance agreements. BIA officials 
also noted that they do not consider the service population figures, 
which are estimated by tribes, to be reliable--although they did not 
offer other figures that they believed to be more accurate. They also 
noted that TPA funds are distributed to tribes, rather than 
individuals, and that a lower per capita figure may reflect that tribes 
in one area have larger memberships but smaller land bases than tribes 
in another area. Appendix I presents the distributions and per capita 
analyses for BIA's area offices.
    The remaining 5 percent of TPA funds not distributed to tribes 
includes $30 million, primarily for welfare assistance and contract 
support, that will be distributed later in the fiscal year on the basis 
of tribal need. While most of the contract support and welfare 
assistance funds are distributed on the basis of the prior year's 
expenditures, between 15 and 25 percent is withheld until later in each 
fiscal year, when tribes' actual needs are better known. An additional 
$9 million not distributed to tribes is for other uses, including 
education funding to non-tribal entities (such as states and public 
schools) and payments for employees displaced as a result of tribal 
contracting.
        revenues and income reported under the single audit act
    Nonfederal entities--including tribes--meeting the federal 
assistance thresholds for reporting under the Single Audit Act (those 
receiving at least $100,000 in federal funds before 1997 and those 
expending at least $300,000 in 1997 or later) must submit an audited 
general-purpose financial statement and a statement of federal 
financial assistance. \7\ We examined all 326 financial statements on 
file with Interior that were most recently submitted by tribes; these 
statements generally covered fiscal years 1995 or 1996.
---------------------------------------------------------------------------
    \7\ The Single Audit Act is intended, among other things, to 
establish uniform requirements for audits of federally awarded 
contracts or assistance administered by no federal entities, including 
state and local governments, nonprofit organizations, and Indian 
tribes. Prior to fiscal year 1997, such entities receiving $100,000 or 
more in Federal assistance annually were required to have an audit for 
that year. The 1996 Single Audit Act amendments changed the reporting 
threshold: Beginning in fiscal year 1997, entities with annual 
expenditures of $300,000 or more in Federal funds are required to have 
an audit for that year.
---------------------------------------------------------------------------
    The tribes' financial statements varied in the type and amount of 
information reported. While some statements included only federal 
revenues, others also included revenues from state, local, and private 
sources; some included financial information only for tribal 
departments that expended federal funds, while others provided more 
complete reporting on their financial positions. In total, the 
statements reported that these tribes received more than $3.6 billion 
in revenues during the years covered by them. These revenues included 
such things as taxes and fees, lease and investment income, and funds 
received through governmental grants and contracts.
    About half of the financial statements we examined also included 
some information on tribal businesses. Tribal businesses include, for 
example, gaming operations, smokeshops or convenience stores, 
construction companies, and development of natural resources such as 
minerals or timber. The tribes that reported the results of their 
businesses had operating income totaling over $1.1 billion. Not all of 
these tribes reported a profit, however--about 40 percent reported 
operating losses totaling about $50 million.
    The reliability of the general-purpose financial statements we 
reviewed varied. Of the 326 we reviewed, 165--or about half--of the 
statements were certified by independent auditors as fairly presenting 
the financial position of the reporting entity and received 
``unqualified'' auditors' opinions. However, auditors noted that 38 of 
the ``unqualified'' statements were limited to certain funds and were 
not intended to represent the financial position of the tribe as a 
whole. The independent auditors' opinions for the remaining financial 
statements indicated that the statements were deficient to varying 
degrees.
    Tribes with gaming operations are required under the Indian Gaming 
Regulatory Act to submit annual financial reports to the National 
Indian Gaming Commission. In 1997, we reported that 126 tribes with 
class II and class III gaming operations (which include bingo, pull-
tabs, slot machines, and other casino games) reported a total of about 
$1.9 billion in net income from their gaming operations in 1995.\8\ 
About 90 percent of the gaming facilities included in that report 
generated net income, and about 10 percent generated net losses. 
Because the financial statements we examined covered different fiscal 
years and did not always include gaming revenues, we did not attempt to 
reconcile them to information reported to the Gaming Commission.
---------------------------------------------------------------------------
    \8\ Tax Policy: A Profile of the Indian Gaming Industry (GAO/GGD-
97-91, May 5, 1997).
---------------------------------------------------------------------------
additional tribal revenue information that could be useful and barriers 
                     to collecting this information
    In deciding whether to consider tribal revenues or business income 
in order to determine the amount of TPA funds tribes should receive, 
information that might be useful to the Congress could include (1) 
financial information for all tribes, including those tribes not 
submitting reports under the Single Audit Act; (2) more complete 
information on the financial resources available to tribes from tribal 
businesses, including gaming; and (3) more reliable data on tribes' 
financial positions. However, there are several impediments to 
obtaining this information.
    For fiscal year 1997 and later, nonfederal entities (including 
tribes) expending less than $300,000 in federal funds are not covered 
by the Single Audit Act. Tribes reporting under the act do not have to 
report financial information for their tribal businesses if those 
businesses do not receive, manage, or expend federal funds. Interior 
officials also noted that under the terms of the Alaska Native Claims 
Settlement Act, Congress established for-profit native corporations as 
separate legal entities from the non-profit arms that receive federal 
financial assistance; for this reason, financial information on the 
for-profit arms would not be reported under the Single Audit Act.
    Further, financial information submitted by Alaskan villages that 
have formed an association or consortium or operate under self-
governance agreements reflect only the operations of the umbrella 
organization and do not provide information regarding the separate 
tribal governments. Interior officials further noted that some tribes 
that meet the reporting threshold of the act have not submitted 
financial statements annually as required, or have not submitted them 
in a timely manner, and that BIA has few sanctions to encourage these 
tribes to improve their reporting.
    Finally, the financial statements we examined included a range of 
auditors' opinions, and the reliability of the information in the 
statements varied.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to respond to any questions that you or Members of the 
Subcommittee may have.

                   APPENDIX I--DISTRIBUTION OF FISCAL YEAR 1998 TPA FUNDS AS OF MARCH 25, 1998
----------------------------------------------------------------------------------------------------------------
                                                                                    BIA service     Per-capita
                            BIA area                                 TPA funds    population \1\     analysis
----------------------------------------------------------------------------------------------------------------
Aberdeen........................................................     $76,099,497         128,412            $593
Albuquerque.....................................................      41,797,628          59,598             701
Anadarko........................................................      24,105,317          45,535             529
Billings........................................................      40,783,297          42,427             961
Eastern.........................................................      37,161,454          50,272             739
Juneau..........................................................      80,523,960          85,259             944
Minneapolis.....................................................      48,483,202          76,883             631
Muskogee........................................................      34,514,007         284,740             121
Navajo..........................................................     100,098,796         225,668             444
Phoenix.........................................................      89,480,881         100,854             887
Portland........................................................     106,977,145         104,841           1,020
Sacramento......................................................      38,263,720          55,717             687
                                                                 -----------------------------------------------
      Distributed subtotal......................................     718,288,904       1,260,206         \3\ 570
Not distributed \2\.............................................      39,059,096              NA              NA
                                                                 -----------------------------------------------
      Total.....................................................     757,348,000       1,260,206         \3\ 601
----------------------------------------------------------------------------------------------------------------
\1\ Service population is the number of Indians eligible to receive services from BIA as of 1995, which were the
  most recent data available. Source: Indian Service Population and Labor Force Estimates (BIA, 1995).
\2\ These include TPA funds for other BIA offices or non-tribal entities (e.g., funds for BIA's Central Office,
  funds for employees displaced due to tribal contracting, and education funds for non-tribal entities), as well
  as funds that will be but have not yet been distributed to tribes or area/agency offices (e.g., funds for
  contract support and welfare assistance).
\3\ Per-capita figures were calculated by dividing the subtotal and total TPA funds by the total BIA service
  population.
 
Source: GAO analysis based on BIA-provided data.

                   Appendix II--Scope and Methodology
    We obtained information about (1) BIA's bases for distributing 1998 
TPA funds; (2) distributions of TPA funds in fiscal year 1998; (3) 
revenue and business income reported by tribes under the Single Audit 
Act; and (4) additional revenue and income information that might be 
useful to the Congress in deciding whether to distribute TPA funds 
considering total financial resources available to tribes. We contacted 
officials with the Department of the Interior's Bureau of Indian 
Affairs, Office of Audit and Evaluation, and Office of Self-Governance 
in Washington, D.C., and its Office of Audit and Evaluation in 
Lakewood, Colorado. We analyzed distribution data provided by BIA and 
Office of Self-Governance officials to determine specific amounts 
distributed to area offices and tribes in fiscal year 1998. We did not 
independently verify the distribution or population data.
    At Interior's Office of Audit and Evaluation in Washington, D.C. 
and Lakewood, Colorado, we examined all 326 of the most recent 
financial statements on file that were submitted under the Single Audit 
Act by tribes, tribal associations, and tribal enterprises. We excluded 
statements for some entities, such as tribal housing authorities and 
community colleges, because they are financially separate from the 
tribes. Of the 326 financial statements, 290 were for federally 
recognized tribes, 20 were for tribal businesses or components of 
tribes, 14 were for consortia or associations representing over 170 
individual tribes, and 2 were for tribes not federally recognized. From 
each of the financial statements we examined, we obtained information 
about the independent auditor's opinion, revenues for all fund types 
reported, and operating income for tribes that included tribal business 
information in their statements.
    We performed our review from November 1997 through April 1998 in 
accordance with generally accepted government auditing standards.

                   impediments to getting information

    Senator Stevens. Tell me the impediments you see to getting 
the information we need.
    Mr. Rezendes. There are a number of them. One is under the 
Single Audit Act, tribes are only required to submit an audited 
financial statement when they have expended $300,000 worth of 
Federal assistance. Tribes that expend less than that would not 
be covered in the audits and that information would not be 
coming forward.
    Senator Stevens. Will you deal with that in your final 
report in terms of recommendations?
    Mr. Rezendes. We will talk about it and we will talk about 
more of the impediments and what that means, as well as what 
could be done about that. It seems to me, if you are really 
interested in getting this, the easiest way to do it, as the 
Federal Government does acquire information routinely from the 
private sector that they are not authorized to receive, they 
usually get that as a precondition of either a grant or a 
contract. Making that sort of information as a precondition to 
receiving funds might make this more palatable or might make it 
more workable, I should say. ``Palatable'' is probably going to 
be a totally different story.
    Senator Stevens. Do you have enough information yet to 
determine whether or not the current distribution method for 
TPA is fair. Does meet the needs of the individual tribes?
    Mr. Rezendes. We don't know that yet.
    Basically, the other component that is missing here is, 
basically, what is the Federal obligation to the tribes either 
under law or by treaties; second, how are we spending the money 
and how does it match up to that; and, third, what are the 
total needs of the Indian tribes--in total?
    So until those pieces are there, it is kind of hard to say 
right now, just looking at the distribution angle, whether that 
is the right distribution or the fairest distribution until it 
is taken in total.
    Senator Stevens. In my State, this administration 
recognized 227, I believe, villages as tribes----
    Mr. Rezendes. Right.
    Senator Stevens [continuing]. And declared they were tribes 
for the first time. The method of dealing with them has been to 
just give them each a small amount, without regard to the 
population.
    Is there any other area of the country that has the same 
type of distribution, just a flat rate per village?
    Mr. Rezendes. Not that I am aware of. Are you talking about 
the small and needy tribes? There are 292 there in total. The 
remainder are mostly in the Sacramento area, I believe, and are 
outside of Juneau.
    I am not aware--do you mean are there other Federal 
programs out there that target these?
    Senator Stevens. Are there other tribes within the BIA area 
that have the same type of distribution? It is my understanding 
that, as a matter of fact, we provided that just for this 
current year, about $200,000.
    Mr. Rezendes. Right. But they have not received the 
$200,000, I mean, they have asked for additional funds to get 
them up to $200,000. I think last year the distribution was 
$160,000.
    Senator Stevens. You indicate a range of from $104 to--
what?
    Mr. Rezendes. $121 to over $1,000.
    There is an attachment to my statement which includes the 
breakout for all 12 BIA area offices.
    Senator Stevens. Do you break it down on an acre basis of 
the land involved or on the basis of the population?
    Mr. Rezendes. It was strictly based on population. That is 
what we were asked to focus on for this hearing so that is what 
we did, using the tribal populations from 1995 data and 
dividing that into the TPA funds for 1998.
    Senator Stevens. We are going to be very interested in your 
report, obviously. I am quite worried about what to do about 
1999 for the Alaskan area. It is not going to be easy to do.
    Do you have the capability of identifying need on the basis 
of these charts?
    Mr. Rezendes. We haven't and that was not the focus of this 
request. We were focusing strictly on the distribution, how the 
distribution was made, and the justifications for the 
distribution.
    One of the things that does give us a little concern is a 
good part of the base funds in the TPA account, as you know, 
are based on historical distributions. There was not much 
documentation, or rationale, as to why they were at the levels 
that they were.
    It could be that there is a sense of equity there. We don't 
know. But there was little documentation as to how everybody 
got what they received in terms of the base funds.
    Senator Stevens. What basis is the historical level? How 
far back are you going?
    Mr. Rezendes. I think we are going right back to Day 1.
    We did ask and they were able to provide us on the base 
funds that they were historically based and had just 
reoccurred, and any additions, particularly prior to the 
1990's, were really a result of congressional increases per 
tribe, specifically targeted. But then, after that, any general 
increases were usually distributed on a more pro rata basis.
    So there was not really much behind that we could get in 
terms of documentation, at least to date, unless BIA has 
something new that they have not shared with us right now, as 
to what the rationale was for the various funding levels.
    Senator Stevens. I am told that on a tribe basis, the TPA 
funding ranged from an average of $219,700 for Alaska tribes to 
$49 million for the Navajo. Is that correct? Is that the range?
    Mr. Rezendes. Do we have that?
    Ms. Naiberk. We don't have the per tribe information yet. 
We will have that in our report.
    Senator Stevens. Have you had a chance to look at how the 
BIA has interpreted our small and needy tribe mandate for last 
year, for this current fiscal year?
    Mr. Rezendes. Do you mean in terms of how they are 
distributing the funds?
    Senator Stevens. Yes.
    Mr. Rezendes. Yes; we did. We did look at that.
    Do we know what the numbers are? Is it $160,000?
    Ms. Duncan. [Nods affirmatively.]
    Mr. Rezendes. I believe each of the tribes received 
$160,000, even though, as you know, Alaska is targeted to 
receive $200,000. But there was a shortage of funds, so 
everyone got the same thing regardless of whether in Alaska or 
in the lower 48.
    They are asking for additional funds this year to increase 
the allocation to those Alaskan tribes to the $200,000 level.
    Senator Stevens. This allocation, have you looked at this 
formula? Is it just a structural thing? I mean, do they get so 
much money and once a tribe gets an increase it becomes 
structural and it never gets back below that? What is the 
historical basis for this?
    Mr. Rezendes. It is really more complex than that.
    Take, for example, Juneau, in which I am sure you have some 
interest. Last year, the Congress gave the BIA for the TPA 
program a general increase of $23 million.
    Senator Stevens. Right. That was supposed to cover that 
Alaska addition.
    Mr. Rezendes. Right. But what happened, though, was that 
was distributed to each of the BIA offices and each of the 
tribes, in working with BIA, then decided how to distribute 
that money among the tribes. In some areas, the tribes decided 
to each get a pro rata allocation, to just divide it up.
    Alaska was a little different. They decided in Juneau, for 
example, that they would give each of the tribes $4,000 and the 
remainder would be distributed based on the amount that that 
tribe receives of TPA funds plus a population factor.
    Senator Stevens. They didn't carry out what Congress told 
them to do, right?
    Mr. Rezendes. Well, basically, that is correct. What they 
are basically saying is that while a BIA task force recommended 
$200,000 per Alaskan tribe, they thought the money should be 
spent on a different priority basis rather than on meeting the 
$200,000 recommendation first.
    Senator Stevens. But we were following the 1994 task force 
recommendation that every tribe in Alaska should receive not 
less than $200,000 and we thought we funded that last year. 
That was specifically stated in our report, as I recall.
    Mr. Rezendes. It did not happen.
    Senator Stevens. Do you know what the smallest population 
tribe is that receives TPA?
    Mr. Rezendes. I think they are down to, there is one with 
one.
    Senator Stevens. One person?
    Mr. Rezendes. Is that correct?
    We believe there is one tribe with one.
    Senator Stevens. One tribe with one person?
    Mr. Rezendes. Yes, sir.
    Senator Stevens. How much did that tribe receive?
    Ms. Duncan. In terms of the tribal distribution 
specifically, we did not go through and identify specifically 
which tribes got exactly--excuse me. We identified which tribes 
got how much money. For the purposes of this testimony, we 
don't have that information available.
    However, based on the information in the Bureau's listing 
of Indian service populations, there are some tribes--and I 
cannot tell you off-hand how many--that have very small 
enrollments. In fact, a couple here report zero. I don't know 
how reliable those numbers are.
    In the event that there are tribes with very small 
populations like that, they would be small and needy if they 
received less than $160,000 in TPA funds.
    Senator Stevens. But you don't know how much they actually 
received for those small populations?
    Ms. Duncan. All of the tribes that were identified by the 
Bureau as being small and needy received $160,000 pursuant to 
the direction in the appropriation.
    Mr. Rezendes. I would add to that also, to give you a 
little more information, some tribes that were not even 
federally designated tribes received some funds.
    Senator Stevens. Now Ms. McInerney-Comstock pointed out to 
me that at least two entities received funds that were not 
listed in the tribal list.
    Mr. Rezendes. That's correct, the Valdez and Kodiak. We 
were told, and Interior is checking this out, that there may be 
four others that received TPA funds also that were not on the 
tribal list.
    That occurs--and BIA I am sure is going to speak to this 
also--because they were part of a compact and the compact 
received TPA funds and distributed it to its members.
    Senator Dorgan. Mr. Chairman?
    Senator Stevens. One second, please.
    I don't know of a worse mess than the way they have handled 
the Alaskan tribal situation in this administration. We are 
setting a precedent here of anticipation of continued funding 
which just cannot be sustained unless we get some rational 
formula that applies to tribes based upon population plus need, 
some allocation of need.
    I hope that you can come up with some type of 
recommendation to Congress as to what kind of information we 
should have before we attempt to legislate such a formula.
    Yes, Senator?
    Senator Dorgan. Mr. Chairman, just to follow up on your 
question, is it possible that a tribe with an enrollment of one 
received the $160,000 of TPA funds?
    Mr. Rezendes. Oh, it's quite possible. Yes.
    This is still preliminary. It is still ongoing. We have not 
checked all of the information out. We are just using BIA data 
and BIA reported service populations. That data is not very 
good, so we still have additional work to do.
    Senator Stevens. It is obvious that we do not impose audits 
where it is perhaps more costly to have the audit than the 
funds involved. But it appears that we are getting into a 
situation where we don't have the financial information that is 
necessary. Are you looking at that, too, in terms of what level 
of funds should be covered by an audit?
    Mr. Rezendes. GAO has already taken a position on that.
    As you know, the Single Audit Act applies to all entities 
that are expending Federal assistance. Basically, the threshold 
was just raised from $100,000 to $300,000 in 1997.
    Senator Stevens. But where there is compacting, it would 
seem to me that the compact would be covered, even though the 
individual entities within the compact were not receiving more 
than $300,000. The compact itself should cover all of those 
within the compact.
    Mr. Rezendes. Only to the extent that they are expending 
Federal assistance. Now they can get income from other sources 
and those can be comingled, either from their private 
businesses or for profit entities which are structured within 
those compacts.
    In fact, we found that that was one of the reasons why half 
of these reports that we looked at received qualified opinions 
from the CPA firms, because there was not a complete disclosure 
of the entire entity.
    Senator Stevens. I am monopolizing this and I'm sorry. My 
colleagues are going to have some questions. But I want to get 
to one other aspect, which is this.
    You indicated that 98 tribes reported a total of $1.2 
billion in business operating income. Did those tribes that had 
that income also receive TPA funds?
    Mr. Rezendes. Yes; I am trying to figure out where our 
numbers are right here.
    Do you remember what they are?
    Ms. Naiberk. For those tribes that report operating income 
and also receive TPA funds?
    Senator Stevens. Yes.
    Mr. Rezendes. Yes.
    Ms. Naiberk. We identified, I think, 98 tribes that 
received operating income.
    Senator Stevens. I'm told there is a Washington Post 
article just recently that indicates that some of these tribes 
are already distributing profits to their members on a per 
capita basis and are still receiving TPA funds. Is that 
correct?
    Mr. Rezendes. Yes; we found 43 tribes that reported 
payments to their members, totaling $324 million.
    Senator Stevens. That is allowed under the current law, 
isn't it?
    Mr. Rezendes. Yes, sir.
    Senator Stevens. So there are 43 tribes that paid a total, 
I am told, of $324 million, which range from $25,000 to $38 
million, the average being $7.5 million?
    Mr. Rezendes. That is correct.
    Senator Stevens. We have a vote on. I didn't realize that.
    Would you take over for me, please?
    Senator Burns. Are we a rudderless ship?
    Mr. Rezendes. I would only point out that we are going to 
be around. BIA is going to testify next and we will stick 
around if you want to ask more questions later.
    I don't want you to feel pressured. We will be here.
    Senator Domenici [presiding]. Oh, don't worry. I won't feel 
pressured. [Laughter.]
    I may do something else, but don't worry about that.
    Did you have any further questions, Senator Dorgan?
    Senator Dorgan. I do, Mr. Chairman.
    Senator Domenici. Why don't you proceed.
    Senator Dorgan. I don't want to apply any pressure to the 
chairman or the witnesses. [Laughter.]
    Senator Domenici. I am unaccustomed to chairing committees, 
as you know. [Laughter.]
    Senator Dorgan. Let me understand just for a moment the 
discussion you had with Chairman Stevens about tribes with 
either no enrolled members or one enrolled member receiving a 
minimum allocation of TPA.
    Can you review for me again why a TPA minimum allocation of 
$160,000 would go to a tribe with no enrolled members or one 
enrolled member?
    Mr. Rezendes. Basically, the rationale for the program is 
to help those tribes in terms of governance and organization. 
There is a certain threshold, I believe tribes with less than 
1,500 members, who are to receive a minimum allocation of 
$160,000 in the lower 48 and $200,000 in Alaska to help them 
with their governance and organizational structure.
    Some of the numbers we looked at also show there are some 
rather minimum numbers of members.
    I have to say, though, that we are not confident in the 
population data that we have, whether it is accurate. I know 
that BIA has some concerns about the data also.
    I think by everybody's admission, there are certainly 
tribes out there with low populations. The exact numbers may be 
in question here.
    Senator Dorgan. But one or zero is not low. That is not 
confidence.
    Mr. Rezendes. What I am saying is we don't have any 
confidence that the zero is accurate or the one is accurate. 
But there are probably some out there in the teens.
    Senator Dorgan. But at least with respect to the one, you 
could just send someone to the area and say is there one here?
    Mr. Rezendes. Yes, right.
    Senator Dorgan. I had a hearing on the Turtle Mountain 
Indian Reservation on TPA. The reason I am asking these 
questions is 3 or 4 years ago I had a hearing on the Turtle 
Mountain Reservation. This is a reservation that is small in 
square miles but very dense in population. It is our largest 
tribe in terms of population and it has desperate poverty, just 
desperate poverty.
    I was trying to understand how the TPA funds were 
allocated. I had folks fly in from the BIA. They came up from 
Aberdeen and elsewhere. There was a lengthy hearing where I was 
able to question them at length. It was determined that none of 
us, including those who administered the TPA funds, could tell 
me the formula with which the TPA program was administered.
    No one understood it.
    Mr. Rezendes. I agree. They get three-quarters of $1 
billion for the program. Most of that, about two-thirds of it, 
about $500 million is what is called base funds. We have been 
working diligently to ask what are their justifications or 
rationales as to how the base funds are distributed. We are 
told, clearly, that there is no documentation. It is based on 
historical levels and these things just have grown over the 
years to that level and no one can really articulate clearly as 
to why each tribe gets that amount.
    Senator Dorgan. That is what I discovered in these 
hearings. I mean, it is an unforgivable lack of accountability, 
it seems to me, in a program like this to not be able to 
develop some stream of paper on why this money is allocated a 
certain way.
    I have one final question. You referred to a de minimis 
level for auditing purposes.
    Mr. Rezendes. Yes; in the Single Audit Act, any entity 
expending over $300,000 in Federal funds must be audited and 
submit a certified financial statement on an annual basis. What 
we did is we looked at all of the statements, 326, that were on 
file from the tribes at the Department of Interior.
    Senator Dorgan. Would a statement have been submitted for 
someone under $300,000?
    Mr. Rezendes. No.
    In 1997, the threshold changed. Prior to 1997, it was 
$100,000. After 1997, it became $300,000.
    Senator Dorgan. Mr. Chairman, you know, $160,000 is still a 
lot of money where I come from. It seems to me the question the 
chairman asked about aggregation with respect to these compacts 
is important. But even if such aggregation was not triggering 
such a report, it seems to me we ought to revisit that.
    Thank you for allowing me to ask my questions.
    Senator Domenici. Let me proceed in the absence of Senator 
Stevens with some of the questions he would have. I do think it 
is very important that at the earliest practical time, today if 
possible, that we get to the Assistant Secretary for Indian 
Affairs, who is new on the job, committed to trying to fix some 
of these things and others. There are many problems at the BIA 
besides this one. We ought to hear from him as much as we can.
    Could I ask you, if you know, of these so-called profits 
that the Indian tribes have realized and from whence 
distribution has occurred, as you have described it, do you 
know the kind of businesses that have yielded that? Is it 
predominantly gambling money?
    Mr. Rezendes. No; it is across the board. It includes 
everything from the amounts that they have received from taxes 
and leases, money they received from settlements--it covers 
everything.
    As you know, the Indian Gaming Commission requires tribes 
to report Indian gambling and that is reported separately. But 
some tribes also reported it. It depends on how their 
organization and financial structure is arranged as to whether 
it is also reported on their financial statements under the 
Single Audit Act.
    Senator Domenici. We know that 43 tribes paid out an 
average of $7.5 million in profits on a per capita basis. What 
we don't know is how many more tribes paid out that much or 
more because they don't have to provide this information.
    Mr. Rezendes. That's correct, yes.
    Senator Domenici. Why don't they?
    Mr. Rezendes. Well, under the Single Audit Act, the only 
requirement there is is that part that relates to the Federal 
Government.
    Senator Domenici. Gotcha.
    Mr. Rezendes. If their books are comingled, in fact, a lot 
of the financial statements did not receive--received a 
qualified audited opinion, which means the CPA firm had a 
problem. It was because those pieces were not included or 
disclosed and they view them as an integral part of the 
organizational structure.
    Senator Domenici. Do we have any way of knowing how much 
profit flowed back into their tribes before they made the 
distributions to members?
    Mr. Rezendes. We have not looked at that.
    Senator Domenici. OK.
    Yes?
    Ms. Duncan. The information that we obtained from the 
financial statements, those operating profits were taken before 
there were transfers to other parts of the tribe. We did that 
so that we were not taking into account money transferred in 
from another section.
    So that information would be--or may be--reflected in the 
financial statements if there was such a distribution.
    Senator Domenici. Do all of the 43 tribes that made 
distributions receive full BIA funding, including TPA?
    Mr. Rezendes. Yes; just about all tribes listed on BIA's 
list received TPA funds.
    Senator Domenici. You have noted in your report, your 
statement, that some tribes reported more complete information 
in their single audit standard than others. Is that correct?
    Mr. Rezendes. Yes, sir.
    Senator Domenici. Do we have any reason?
    Mr. Rezendes. Again, this gets to an arcane accounting 
thing. It depends on how their books are structured.
    For example, let me give you a more real example. Suppose 
some tribes had a little convenience store as a business. If 
that was an integral part of the tribe's activities, those 
incomes and expenses should have been included in their 
financial statement because of the potential liability.
    Suppose someone fell at this convenience store and there 
was a liability that would have a call on the assets of the 
tribe. That should be disclosed there. So it depends on how 
they were structured and how the controls of the financial 
arrangements were made.
    Senator Domenici. How many of the 326 financial statements 
received qualified auditors' opinions?
    Mr. Rezendes. About half.
    I should also mention that just because you received an 
unqualified opinion, which meant that the CPA firm thought 
everything was OK, all he is attesting to is that the 
presentation that the tribes are making as to how they spent 
their money is fully disclosed. It does not mean that the 
expenditures were OK. It is just that they are disclosing 
whatever kind of problems they have.
    Senator Domenici. Do the 326 financial statements actually 
represent 326 tribes?
    Mr. Rezendes. No; they represent more than that, probably 
about 400 tribes of the over 500 that are actually recognized. 
The reason for that is because of consortia and various 
groupings of how they keep their books.
    Senator Domenici. Unless Senators at the dais have further 
questions, I think we are going to take you up on your offer.
    As I gather, what we are really trying to do is to come up 
with something that is more equitable than what we have been 
doing, and you are helping us in that regard by finding out 
information. Is that a fair assessment?
    Mr. Rezendes. That is a fair assessment.
    I have to tell you, though, that we are having a difficult 
time because of the information that is out there, either in 
terms of the lack of justifications or historical information 
or the quality of the information that we are receiving. So 
that will put a limitation on.
    Senator Domenici. So maybe I should ask the question this 
way. In that context, is there anything we as a committee, or 
as a Senate, can do to help you in that regard?
    Nobody is refusing to give you information, I hope.
    Mr. Rezendes. Oh, no. Exactly. In fact, I think BIA sees 
the same problems with the information that we do. I think they 
see them clearly. I think what their problems are is the lack 
of leverage, particularly under the Single Audit Act, in terms 
of making tribes do them as they are required to do. Apparently 
not all of them are submitting it, even though it is a Federal 
requirement. And once the information does come in and does 
show problems, you must get those corrective actions taken so 
that you have adequate and fair presentation of the financial 
expenditures that were done with the Federal funds.
    Senator Domenici. From my standpoint, I want to just state 
for the record as one Senator from Indian country--and I have 
the largest population percentage in any of our States and more 
individual Indian entities than any other State; we have 19 
pueblos in the State and have only three U.S. Representatives, 
so we are not a big State--I would wish that the Indian people 
did not have to divulge any of their proprietary business 
information. I assume that is impossible so long as we are 
contributing significant amounts of money to the Indian tribes 
and reservations in various forms because Congress will want to 
know, and that is what has led us to this audit by you.
    Mr. Rezendes. Exactly.
    Senator Domenici. I hope the Indian people understand that 
we were on the threshold of having a brand new arbitrary 
formula which just said how much money do you make and if you 
make more than another tribe, you get less of the Federal 
Government's money. One could think of all kinds of reasons why 
that may very well have been very arbitrary.
    So, rather than do that, we are in the midst of trying to 
find out a better way.
    We thank you all very much.
    Now would the Assistant Secretary please come to the table 
and bring with him whomever he needs for his testimony.
    Welcome, Mr. Assistant Secretary. Do you have some opening 
remarks and would you introduce the people you have with you, 
please?

                 summary statement of hon. kevin gover

    Mr. Gover. Yes, Mr. Chairman.
    To my left is Hilda Manuel, the Deputy Commissioner of 
Indian Affairs. To my right is Joann Sebastian Morris, the 
Director of the Office of Indian Education Programs.
    Good morning, Mr. Chairman. It is good to see you.
    Let me sort of summarize briefly. We have a statement for 
the record. Let me highlight a few items and then turn to a 
discussion about some of the things that the committee has just 
heard about.
    Our budget request for fiscal year 1999 reflects basically 
three priorities and three major differences from our current 
operating budget. The first is education. We are requesting an 
increase both in school construction and facilities improvement 
and repair, and in operating funds for the Bureau of Indian 
Affairs schools.
    Second, we are asking for a $25 million increase in law 
enforcement funds to address a problem of growing crime on the 
reservations, increasingly violent crime, and increasing youth 
crime, all three of which have become painfully clear.
    This is part of an overall administration initiative 
involving the Justice Department and the Department of Interior 
that would increase the resources available to reservation law 
enforcement programs by over $180 million.
    The third item I wish to emphasize is the request for 
additional funding to finance our efforts at trust management 
improvement. As you well know, the Bureau of Indian Affairs has 
had some very serious problems in the past in the management of 
Indian trust assets, primarily the trust funds. The special 
trustee has developed and the Secretary has modified and 
approved a program for the improvement of the Bureau's 
administration of trust funds and trust assets generally.

                           prepared statement

    In fiscal year 1999, we anticipate that we will need 
additional funds in order to do some of the sort of backfilling 
that needs to be done to clean up the system so that after the 
year 2000, we will have nothing but good data going into a good 
system and producing a good outcome.
    With that, Mr. Chairman, those are our primary points to 
make today. We would be happy to answer questions, particularly 
regarding the tribal priority allocations.
    [The statement follows:]
                   Prepared Statement of Kevin Gover
                              introduction
    Good morning, Mr. Chairman and members of the Committee. I am Kevin 
Gover, Assistant Secretary for Indian Affairs at the Department of the 
Interior. It is my pleasure to be here today to present the President's 
fiscal year 1999 budget request for the Bureau of Indian Affairs (BIA). 
While I have been the Assistant Secretary only four months, I must say 
it has been an exciting and educational time. In addition to presenting 
the BIA budget today, I want to expand on a few of the issues that 
concern me and to emphasize some that I believe will provide us with 
opportunities to assist Indian people.
                             bia's programs
    In the last two centuries, the Congress has passed more Federal 
laws dealing with Indian tribes and Alaska Natives than any other group 
of people in the United States. While the Snyder Act, the Indian Self-
Determination and Education Assistance Act of 1975, and the Indian 
Education Amendments of 1978 provide the primary budgetary authorities, 
numerous statutes, court decisions, treaties and other authorities 
(including those passed in the early 1800's regulating trade with 
Indians) continue to guide the BIA's mission and administration. The 
diversity of these mandates frequently requires the BIA to balance the 
inherent conflicts and problems created by more than 200 years of 
shifting and evolving Federal-Indian policy.
    The BIA's most basic responsibilities are its trust obligations and 
facilitating tribal self-determination. However, while the protection 
of trust resources is a fundamental responsibility, tribes struggling 
to meet the basic needs of their communities must compete for the same 
limited resources the BIA uses to protect trust resources. The BIA's 
success relies on judiciously balancing these competing mandates.
    The BIA provides services directly, or through Self-Determination 
contract, grant and compact agreements with tribes, to more than 1.2 
million American Indians and Alaska Natives in 31 states. The scope of 
BIA programs is extensive and covers virtually the entire range of 
state and local government services. BIA's programs are funded and 
operated in a highly decentralized manner with 90 percent of all 
appropriations expended at the local level with an increasing amount 
operated by tribes and tribal organizations under contracts or self-
governance compacts. In addition, the BIA administers more than 43 
million acres of tribally-owned land, more than 11 million acres of 
individually owned land held in trust status and 443,000 acres of 
Federally owned land.
    While the BIA's role has changed significantly during the past two 
decades with an increasingly greater emphasis on Indian self-
determination; Indian tribes still look to the BIA for a broad spectrum 
of critical and complex programs administered either by the tribes or 
the BIA. Among these are an education system for an estimated 53,000 
elementary and secondary students; 26 Tribally controlled community 
colleges; law enforcement and detention services on more than 200 
reservations; social service programs for children, families, the 
elderly, and the disabled; management of the forest, mineral, fishery 
and farmland resources on trust land; the maintenance of more than 
25,000 miles of roads on rural and isolated reservations; economic 
development programs in some of the more depressed areas in the U.S.; 
the implementation of legislated land and water claim settlements; the 
replacement and repair of schools and detention centers; and the repair 
of structural deficiencies on high hazard dams.
                           bia's constituents
    The BIA's programs serve communities that face great challenges. 
According to the 1990 census, the American Indian population increased 
to more than 1.2 million, four times the population reported in 1960. 
While part of this increase is due to an increase in self-
identification, a large portion is the result of a natural population 
increase. Based on this rapid rate of growth, the Census Bureau 
estimates that the American Indian population will reach 4.3 million, 
representing just over 1 percent of the population, by the year 2050.
    Geographically diverse, almost half of American Indians reside on 
approximately 300 reservations and other restricted and trust lands 
located throughout the United States. Reservations can vary in size 
from a few acres, such as the rancherias in California, to the 17.5 
million-acre Navajo reservation. Approximately 63 percent of American 
Indians reside in urban areas--half of whom are concentrated in a 
relatively small number of cities. According to the 1990 census, more 
than one-half of the American Indian population live in six states: 
Oklahoma, California, Arizona, Alaska, Washington and New Mexico.
    The census also reports that the median age of American Indians is 
26 years, compared to 33 years for the population at large. This young 
population is in part the result of mortality rates that are higher for 
American Indians than for the U.S. population. Cardiovascular disease 
is the leading cause of mortality among American Indians. Other leading 
causes of mortality are homicide, suicide and accidents, alcohol-
related and primarily affecting Indians in their teens through mid-
20's. It is estimated that alcohol-related deaths among American 
Indians are four times greater than the national average.
    By any socioeconomic measure, American Indians trail the general 
U.S. population. According to the census, an American Indian's family 
median income was 61 percent when compared to the total U.S. 
population. The per capita income was 54 percent for American Indians 
residing on all reservations and trust lands when compared to all 
American Indians. In addition, American Indians are nearly two and one-
half times as likely to be living below the poverty level as the U.S. 
population in general.
    According to research, two factors account for the decline in 
American Indians' overall income. While American Indian men's 
educational progress has improved with tangible results, it did not 
contribute to a relative gain in income, because non-Indian men also 
improved their skills and education. The U.S. economy contributed to 
this situation because the least skilled and least educated were 
rewarded less and found it harder to remain employed. Since American 
Indian men were disproportionately represented, the overall income of 
American Indian men fell. (American Indian women witnessed increased 
incomes; however, this was largely attributable to an increase in 
annual hours worked.) In other words, improvements in education levels 
or labor market experiences of American Indians had little impact on 
gains in relative incomes.
    In summary, American Indians are younger and have higher levels of 
poverty, unemployment, single parent families, fertility and mortality 
than the U.S. population at large. Tragically, trends are deteriorating 
for this highly vulnerable population.
    While all these conditions are deplorable, I want to emphasize the 
problems of alcohol, substance abuse and the incidence of suicide. 
These issues deeply troubled me before I came to the BIA and I remain 
especially concerned about the current state of our Indian youth. I 
have already taken two steps to confront these widespread and deeply 
rooted problems. While touring Indian schools in North Dakota, at the 
request of Senators Dorgan and Conrad, I met with tribal leaders, 
students, parents, and others about an epidemic of suicide among the 
youth of the Standing Rock Reservation. I urged the tribe and the 
community to develop a plan to combat this problem using all of the 
traditional and current wisdom that can be tapped. I believe each tribe 
must do this in order to form tribal solutions to tribal problems. I 
firmly believe that solutions to community problems must come from 
Indian Country, not from Washington. I have pledged federal resources 
when they can assist these local efforts to stop this loss of young 
life. I hope that efforts to help the young people at Standing Rock can 
be an inspiration to other tribes facing similar problems.
    I have issued a similar request to tribal leaders and members at 
the National Congress of American Indians meeting in New Mexico in 
November. Tribes must conquer our crippling problem of alcohol and drug 
abuse among American Indians, especially our young people. Again, I 
firmly believe this must be a tribally created program and not a 
federal program. However, I believe it is wise and appropriate to use 
Federal expertise and resources to assist this tribally driven effort. 
Already, I've received a resoundingly strong response to this call and 
look forward to the creation of a steady and successful effort to 
educate Indian people about the dangers of alcohol and drug abuse. I 
have also met with an Indian Education Advisory Group promoting an 
Indian Education Executive Order that would facilitate a comprehensive 
education effort.
    In summary of this critical need, I would like to ask that you 
support the other agencies' funding requests relative to future 
efforts. There are proposed increases for funding alcohol and substance 
abuse prevention activities in both the Indian Health Service and the 
Department of Justice budget proposals. I strongly support these 
proposals and would appreciate your support as well.
                  fiscal year 1999 special initiatives
BIA schools restoration
    Eighty-two percent of the BIA's building square footage is 
educational space. These buildings are old and often in poor condition. 
Two percent are more than 100 years old, 20 percent are more than 50 
years old, and 50 percent are more than 30 years old. Yet most 
educational facilities are built for functional uses for an average of 
only 25 years.
    This initiative is to provide for the increased construction, 
equipment and rehabilitation of school facilities for more than 53,000 
Indian students who attend the 185 Indian schools. The BIA seeks a $32 
million increase to provide safe, functional and economical educational 
facilities in Indian communities. This construction program provides 
for the construction of new facilities to replace existing facilities, 
and the rehabilitation, upgrade, or repair of the existing facilities 
where feasible. Schools may be operated directly by the BIA or by 
tribal organizations under the contracting authorities.
    Research has demonstrated that placing instructional and 
residential programs in facilities that do not meet health and safety 
codes distract from the educational program. The cost estimate of the 
BIA's backlog work needed to abate such health and safety code 
deficiencies in education facilities currently exceeds $695 million. 
This initiative provides for one additional replacement school, the 
completion of two schools that were started this year, and a nearly 50 
percent increase over the fiscal year 1998 education facilities 
improvement and repair funding.
Law enforcement in Indian country
    Crime is a seriously increasing problem in Indian Country. A 
reported crime in Indian Country is twice as likely to be violent as 
compared to crime reported elsewhere in the United States. However, 
there are fewer than half as many law enforcement officers per capita. 
The purpose of this initiative is to improve law enforcement and 
detention services in Indian Country.
    Tribal leaders consistently express concern for the poor quality of 
law enforcement services provided to Indian Country. This is 
exemplified by worn-out equipment, dilapidated police and detention 
facilities, reduced law enforcement staff and limited financial 
resources. The poor quality of law enforcement services is directly 
related to the inadequate level of funding available to the BIA and 
tribes for law enforcement and detention programs.
    Pursuant to President Clinton's directive of August 25, 1997, the 
Secretary of the Interior and the United States Attorney General worked 
with Indian tribal leaders to analyze the law enforcement problems and 
to provide options to improve public safety in Indian Country. The 
resulting initiative consolidates the existing three major law 
enforcement areas (uniformed police, criminal investigation and 
detention) under the line and budgetary authority of the BIA's Office 
of Law Enforcement Services (OLES), and provides for a considerable 
increase in the number of on reservation officers. Additionally, it 
continues the good work the DOJ has commenced through grant programs 
such as the Community Oriented Policing Services (COPS) and expands 
other DOJ grants. It is my intent to see that public safety is 
significantly improved.
    The Bureau's share of this initiative will be used to finance 
officers for tribes that choose not to contract law enforcement 
programs and to support the DOJ grant programs. DOJ grants such as COPS 
can be made available for law enforcement staff, but not for training 
and equipment. DOJ and the Bureau are preparing an implementation plan 
to assure that the combined funds for the law enforcement initiative 
are optimally used.
                    clean water and the environment
    Water quality is a prime indicator of the quality of the 
environment and the quality of life. The Water Quality Management 
Planning initiative ($5 million) is to improve the quality of water and 
the environment on reservations in the Missouri, Rio Grande, Columbia, 
Upper Mississippi and Colorado River basins. The initiative is to 
develop a comprehensive analysis of reservation water quality and 
tribal watershed management planning, and to relate these activities to 
the overall water quality concerns and other watershed management 
planning efforts of the river basin in question. Information developed 
through this project can be used to help target BIA funding for 
environmental protection and guide resources management planning 
efforts and opportunities. The results of the analysis will permit 
better focus of environmental protection efforts and cleanup efforts on 
and off the reservations. The larger result will be a higher quality of 
life.
    The BIA's environmental compliance program has been under funded 
for many years. The Environmental Protection Agency (EPA) has begun 
assessing penalties against BIA for noncompliance with environmental 
requirements: most recently, EPA has proposed to fine BIA $937,000 for 
violations of the underground storage tank regulations. EPA has also 
issued an enforcement action against BIA for RCRA reporting violations, 
which resulted in BIA agreeing to penalties, audits and training 
expenses that will exceed $600,000. BIA must begin to address its 
environmental obligations, and I am taking internal steps to assure 
that this occurs. However, additional funding is needed to correct 
years of noncompliance. Therefore, I ask you to support BIA's fiscal 
year 1999 budget request of $11,790,000 for BIA's environmental 
management program (currently split between the Office of Trust 
Responsibilities ($6,780,000) and the Facilities Management and 
Construction Center ($5,010,000). This amount is $6,010,000 more than 
was appropriated for environmental projects in fiscal year 1998, and 
will allow BIA to begin to address a $100 million backlog of 
environmental cleanup work that BIA is aware exists in Indian 
communities throughout the country and to initiate baseline 
environmental audits of BIA facilities which are required by the 
Department of the Interior to be completed in 2002. I believe that the 
$100 million of known clean up costs represent only a fraction of the 
existing contamination, and that the figure will increase substantially 
as the baseline environmental audits take place. BIA's request, 
although an increase over fiscal year 1998 funding levels for 
environmental compliance, is merely the first step in a multi-year 
process to bring BIA into full compliance with environmental 
regulations. In addition, some of this funding will be provided to 
tribal governments to assist them in their efforts to bring tribal 
facilities into compliance with applicable environmental standards.
                    indian land consolidation pilot
    The successive inheritances of allotted Individual Indian lands 
held in Trust by the Federal Government have led to individual land 
parcels held by a large number of people with a small fractional 
interest. This initiative provides for the establishment and 
implementation of a land acquisition program to consolidate the 
fractionated ownership of trust and/or restricted Indian lands. The 
funds will be used to establish an Indian Land Consolidation Pilot 
within the BIA to acquire the fractional interests of Indian 
individuals. The primary emphasis of the acquisition fund will be to 
acquire those interests that represent 2 percent or less of the 
ownership interest; however, consideration will be given to acquiring 
interests greater than 2 percent. Fractionated ownership of allotted 
Indian lands is a pervasive problem which is seriously deterring the 
Federal Government's ability to administer and manage the trust/
restricted lands, maintain accurate and up-to-date ownership records, 
and trust fund accounts. It also limits tribes and tribal members from 
realizing the full economic potential of their lands. Therefore, 
funding is critical in assuring the optimum integrity and usefulness of 
systems in terms of trust asset management.
    More than half of the BIA's current Real Estate Services program 
budget is spent on administering 20 percent of the trust and restricted 
lands. Implementation of a fractionated interest acquisition program 
will assure the reduction of the number of fractionated owner interests 
which, in turn, will enable the BIA to more timely process real estate 
services transactions (leases, sales, rights of way, etc.) as well as 
maintain current ownership and title records. This reduction of owner 
interests in trust and restricted lands will facilitate the timely 
distribution of trust income. The results will be savings to the real 
estate services, land titles and records and trust fund programs 
administered by the Federal Government and better ensure that the 
Federal fiduciary responsibility is met.
    In addition to the Land Consolidation Pilot, the BIA request 
supports two of the Administration's major efforts to reform the 
management of Indian trust funds and address deficiencies of the past. 
The BIA has a significant role in the Trust Management Improvement 
Project being overseen by the Office of Special Trustee. Efforts are 
required to ensure data housed in existing or new systems are accurate; 
and to eliminate trust processing backlogs to ensure records are up-to-
date, particularly land ownership records. An increase of $5.2 million 
is requested for probate and land records backlog reductions. The 
Bureau will also work jointly with the Office of Special Trustee to 
acquire a comprehensive Trust Asset and Accounting Management System 
(TAAMS) to replace components of BIA's currently inadequate, and not 
uniformly used, Integrated Resources Managements System (IRMS). TAAMS 
will include master lease, billing and accounts receivable, collection, 
and resource management subsystems. TAAMS components are also expected 
to be off-the-shelf systems, maintained and operated by contractors.
                    fiscal year 1999 budget summary
    The 1999 budget request for BIA is $1,844,136,000 in current 
appropriations, an increase of $142,145,000 above the 1998 enacted 
level. The budget stresses the resources tribes need to provide basic 
reservation programs and develop strong and stable governments, ensure 
accreditation of BIA schools, address critical infrastructure needs, 
and meet the Secretary's trust responsibilities. The BIA continues to 
keep administrative costs low.
    In fiscal year 1999, the BIA will continue to operate as a highly 
streamlined and decentralized agency with maximum resources going to 
Tribal programs. The BIA anticipates that more than half of the fiscal 
year 1999 operating and construction budget will be spent directly by 
tribes that elect to operate various BIA programs under self-
determination contracts, grants, or self-governance compacts.
                      operation of indian programs
    For fiscal year 1999, the total request for the Operation of Indian 
Programs is $1,638,681,000, an increase of $110,093,000 over the fiscal 
year 1998 Enacted level.
Tribal priority allocations (TPA)
    TPA provides the principal source of funds for local units of 
government, most of which are small and lack independent resources to 
meet the increasing costs of Tribal government operations. 
Congressional funding levels in 1996 and 1997 forced Tribal governments 
and the BIA to fall behind in their ability to maintain services to 
Indian communities and families, necessitating full funding of the 
fiscal year 1999 request. Tribes depend on the TPA budget activity for 
basic necessities and services such as law enforcement, child welfare, 
scholarships, natural resource management, and other programs critical 
to improving the quality of life and the economic potential of the 
reservations. Congress has given the tribes the flexibility to 
prioritize funds among TPA programs according to their unique needs and 
circumstances. TPA supports the goals of Indian self-determination by 
providing tribes with the choice of programs provided as well as the 
means of delivery, either by the tribe or the BIA.
    For fiscal year 1999, the TPA activity is funded at $791,210,000, 
an increase of $33,862,000 over the fiscal year 1998 enacted level, 
which will help tribes address the unmet needs in these basic programs. 
Program increases proposed in this budget submission include $640,000 
for New Tribes to support an anticipated four newly acknowledged tribes 
as they begin to establish viable Tribal government operations.
    An increase of $4,015,000 is requested for Contract Support which, 
when coupled with the $5 million internal transfer from the Indian 
Self-Determination Fund, will provide $9,015,000 over the 1998 
requested level, helping to fulfill BIA's goal of encouraging tribal 
self-determination through increased contracting and compacting. An 
increase of $3 million is proposed for Small and Needy Tribes to 
support the operation of viable Tribal governments. With the 
Congressional action during the fiscal year 1998 Appropriations process 
of funding Small and Needy with the TPA increase, these funds will go 
entirely to Alaska to move those Native Alaskans toward the Task Force 
recommended level of $200,000.
    An increase of $5 million is requested for Child Protection and 
Family Violence Prevention so that tribes can establish or enhance 
existing child abuse and neglect prevention, substance abuse prevention 
(a significant direct cause of the Indian child abuse that exists) and 
family violence prevention programs. Tribes from across the country 
voiced deep concern about child abuse at the National Budget Hearing in 
May 1997. Child abuse and neglect referrals for 1992-1996 average 
almost 30,000 annually. An increase of $2 million is requested for the 
Tribal Work Experience Program in order to assist tribes with the 
resources they need to develop a comprehensive welfare reform program, 
and $2 million is requested for Adult Care Facilities Rehabilitation, 
which will result in savings to the BIA when these facilities meet 
State standards.
Other recurring programs
    The priority for the new millennium described as first and most 
important by the President in his August speech is the education of our 
children. The BIA is responsible for the only major domestic elementary 
and secondary education system operated by the Federal Government. As 
such, it is incumbent that this system reflects the high standards 
President Clinton has set for all education. In support of this 
Presidential priority, the BIA's fiscal year 1999 budget request 
includes a significant investment in Indian education. The request for 
School Operations, which will fund schools and dormitories serving more 
than 53,000 elementary and secondary students in 23 States, is 
$486,885,000, a program increase of $26,498,000 over the fiscal year 
1998 enacted level. The increase will ensure that schools can deliver 
quality education, and provide safe and adequate transportation for the 
estimated 3 percent increase in enrollment. Increases are also proposed 
in facilities operations and maintenance, administrative cost grants, 
and employee displacement costs to encourage the continuation of 
schools going into grant status and under tribal control.
    The budget request increases operating grants to the 26 Tribally 
Controlled Community Colleges by $5,500,000 over fiscal year 1998. The 
colleges have been extraordinarily successful in providing pre-college 
adult education to Indian students that enables them to earn college 
degrees and eventual professional employment. They also promote 
entrepreneurship on reservations.
Non-recurring programs
    The budget includes trust investments crucial to program 
performance in the out years. The request level for the BIA's 
environmental management program is $6,780,000, the same as the fiscal 
year 1998 President's budget request, but $3 million more than 
appropriated in fiscal year 1998, to begin to address an estimated $200 
million backlog of environmental cleanup work in Indian communities 
throughout the country. An additional $1 million is requested for 
endangered species to support tribal participation in species recovery. 
An additional $1,100,000 is requested for the Navajo-Hopi Settlement 
Program to provide services in areas that have been under served as a 
result of the Navajo-Hopi disagreement.
    Other program increases include $1 million for Federal Energy 
Regulatory Commission re-licensing activities, and $3 million for 
Probate Backlog Reduction efforts. The probate backlog reduction effort 
is necessary to meet the Secretary's directive to eliminate backlogs 
and make timely distributions of funds derived from trust and 
restricted lands.
    Another of my highest priorities is the $3.5 million increase for 
the Water Rights Studies and Negotiations program. This program, 
critical to fulfilling the basic Federal trust responsibility, funds 
negotiating teams that help individual Tribes settle their water rights 
claims through the negotiating process. The lack of adequate funding 
for this program will result in diminishment of reservation water 
entitlements and increased litigation, which is always more costly to 
the Federal Government.
                              construction
    The request for the BIA Construction appropriation is $152,054,000, 
with $86,612,000 for Education Construction. The BIA will continue to 
make progress in eliminating the unobligated balances in Construction 
facilities projects. Increased emphasis on tribal contracting for 
projects will be supported by awarding and approving officials being 
located within Facilities Management and Construction Center (FMCC) 
until the tribes and Agencies are fully trained to take over the 
construction contracting challenge.
    The Replacement School Construction program funds replacement of 
older, unsafe, and dilapidated schools on reservations following a 
Congressionally approved priority list which is currently limited to 16 
schools. In fiscal year 1999, $37,400,000 is requested to complete 
construction of the Seba Dalkai School in Arizona, the Sac and Fox 
Settlement School in Iowa, and the Pyramid Lake High School in Nevada. 
These schools are numbers nine, ten and eleven, respectively, on the 
priority list and necessary planning and design work is complete. The 
Education Facilities Improvement and Repair Program is funded at 
$46,212,000 and includes an increase of $14 million over fiscal year 
1998 to address the $695 million backlog of repair work in existing 
education facilities, a focus of considerable concern within the BIA, 
the Department, the Administration and Congress.
    The budget requests no new funding for Public Safety and Justice 
construction within the BIA request. It is proposed that new detention 
centers on reservations will be funded in the Department of Justice's 
appropriation as recommended by the President's initiative on law 
enforcement in Indian Country, and strongly supported by the 
Administration.
    The budget requests $22,024,000 for the correction of structural 
deficiencies of high hazard dams on Indian lands. The backlog of 
repairs to hazardous dams currently exceeds $400 million. The BIA is 
responsible for 115 of the 420 high and significant hazard dams on the 
Department's Technical Priority List. These dams pose significant 
potential loss of life or, at a minimum, significant economic damage 
with liability resting with the Federal Government, both on and off 
Indian reservations and for both Indian and non-Indian communities. In 
fiscal year 1999, BIA will begin correction of high risk problems on 
dams in Arizona, Idaho, New Mexico, South Dakota and Montana.
 indian land and water claim settlements and miscellaneous payments to 
                                indians
    This program provides payments to meet Federal requirements for 
legislated settlements. The fiscal year 1999 budget request includes 
$38,396,000 for payments for settlements resolving long standing tribal 
claims to water and lands. A large share of the fiscal year 1999 
program continues to be dedicated to the Ute Indian Rights Settlement, 
in order to move closer to the funding schedule set forth in the 
Settlement Act. In addition, the fiscal year 1999 request includes 
funding for resolving the Rocky Boys Water Rights settlement claims.
                 government performance and results act
    As required by the Government Performance and Results Act (GPRA) of 
1993, the BIA has submitted a strategic plan as a component to the 
Department of the Interior's strategic plan. Based on addressing high-
priority tribal needs amid a multitude of statutes, court rulings and 
treaty obligations, the BIA's Strategic Plan defines the BIA's long-
term mission and general goals. The performance goals reflected in the 
1999 Annual Performance Plan support these broad goals. Achievement of 
these annual performance goals will mark the BIA's progress in meeting 
its mission as set forth in the Strategic Plan.
    The BIA's 1999 Annual Performance Plan meets the fundamental GPRA 
requirements, as well as those required by the Office of Management and 
Budget. First, it describes the mission statement and general goals. To 
show the linkage between the long-term and short-term goals, the 
general goals are described with the associated annual goals. The 
related annual performance goals are described with 1999 indicators; 
descriptions of the operational processes, skills, and technologies, 
and the human, capital, information and other resources necessary to 
meet the performance goals; and a description of the means that will be 
used to verify and validate measured values. The annual performance 
goals are consistent with available funding expected to achieve the 
designated targets and are consistent with and integrated with the 
BIA's President's budget request.
    Performance measurements will require the collection of baseline 
data from which to assess progress. Information collection will be an 
important activity for the BIA to fill a gap that exists for two 
primary reasons. First, BIA in the past emphasized program delivery 
over collecting information on how to improve the programs. Second, BIA 
tribes have not developed the means to collect relevant information for 
compacts and contracts. Consequently, baseline data does not exist for 
most programs. OMB guidance on meeting GPRA requirements allows 
agencies to develop baseline data and describe how it will be defined 
and collected with the initial Annual Performance Plan.
    This concludes my remarks about the BIA budget request for fiscal 
year 1999. I will be happy to answer any questions.
                                 ______
                                 
                   Biographical Sketch of Kevin Gover
    Mr. Gover is the Assistant Secretary for Indian Affairs in the 
Department of the Interior. As the Assistant Secretary, Mr. Gover 
provides executive leadership to the Department's activities and 
programs for the federally recognized Indian Tribes, and is responsible 
for promoting Indian self determination. These programs are carried out 
by a number of Department Offices, especially by the Bureau of Indian 
Affairs, Office of Indian Education Programs, Office of American Indian 
Trust, and the Office of Self Governance. In addition, Mr. Gover is one 
of the Secretary of the Interior's primary advisors on policy and 
issues dealing with American Indian people.
    Prior to this appointment as the Assistant Secretary Mr. Gover was 
a partner in a law firm in Albuquerque, New Mexico. Mr. Gover began his 
professional career with the Washington, DC. law firm of Fried, Frank, 
Harris, Shiver & Jacobson, where he specialized in environmental and 
natural resources law as well as federal Indian law. He later formed 
his own law firm with several partners in Albuquerque, New Mexico that 
specialized in federal Indian, environmental, natural resource, and 
housing law with an extensive legislative practice. Mr. Gover has 
served on the Board of Directors of the Federal Home Loan Bank of 
Dallas, the Southwestern Association for Indian Art, and the Land and 
Water Fund of the Rockies. Mr. Gover has a B.A. in Public and 
International Affairs from Princeton University and a J.D. from the 
University of New Mexico Law School. Following law school, he served as 
law clerk to the late U.S. District Judge Juan G. Burciga of 
Albuquerque. Mr. Gover is a member of the Pawnee Tribe and is native of 
Lawton, Oklahoma.
                                 ______
                                 
                  Biography Sketch of Hilda Ann Manuel
    Ms. Manuel is the Deputy Commissioner of Indian Affairs for the 
Bureau of Indian Affairs organization. As the Deputy Commissioner, Ms. 
Manuel provides executive leadership to all major functions of the 
Bureau by exercising line authority over headquarters staff offices, 
area offices and field operations. Prior to her appointment as the 
Deputy Commissioner Ms. Manuel served as the Staff Director of the 
Indian Gaming Management staff office (IGMS). Under her direction the 
IGMS was responsible for the oversight and implementation of the 
Secretary's responsibilities under the Indian Gaming Regulatory Act of 
1988. Ms. Manuel also served as the Chief, Division of Tribal 
Government Services prior to being hired as Staff Director of IGMS. Ms. 
Manuel was initially hired as the Chief for the Branch of Judicial 
Services in February 1990.
    Ms. Manuel, a graduate of the University of New Mexico, School of 
Law, (1976) began her career as a juvenile court judge for the Tohono 
O'odham Nation in Arizona. During her tenure as juvenile judge, Ms. 
Manuel established a Children's Court system which became a national 
model for other Indian Tribes. In 1980, Ms. Manuel was appointed 
Presiding Judge of the Tohano O'odham Court. After serving her term, 
Ms. Manuel moved to the Executive Branch of the Tohono O'odham Nation 
serving first as Legislative Aide to the Council and then as Director 
of the Tribal Management and Support Services Department. In 1986, Ms. 
Manuel left the Tohono O'odham Nation to work for the Pima County 
Attorney's Office as a Deputy County Attorney, primarily handling 
juvenile cases.
    In addition to serving as a judge for the Tohono O'odham Nation, 
Ms. Manuel also served as a judge Pro Tem for the Colorado River Indian 
Tribes, Hualapai Tribe, Pascua Yaqui, Gila River Indian Community, 
White Mountain Apache Tribe, San Carlos Apache Tribe, Salt River Pima 
Maricopa Community and the Hopi Tribe between 1978-1987.
    Ms. Manuel is a member of the State Bar of Arizona; she has also 
been a member of the Tohono O'odham Police Commission, Indian Oasis 
School District Board of Trustees, Arizona State Advisory Committee to 
the U.S. Commission on Civil Rights, Juvenile Justice Committee to the 
Arizona State Justice Planning Agency, Indian Youth of America.
    Ms. Manuel is a member of the Tohono O'odham Nation, Chukut Kuk 
District. She has received numerous recognition awards including 
Outstanding Young Woman of America in 1987, YWCA Woman on the Move in 
1988, and a Special Achievement Award in 1993 from the Assistant 
Secretary--Indian Affairs.
                                 ______
                                 
             Biographical Sketch of Joann Sebastian Morris
    Ms. Joann Sebastian Morris is the Director, Office of Indian 
Education Programs, effective March 1 , 1996. Prior to that assignment, 
she was the Acting Director for the Office of Tribal Services since 
August 1994, and Special Assistant to the Assistant Secretary--Indian 
Affairs on education and social service issues since May, 1994. Ms. 
Morris joined the Department on an IPA agreement between a regional 
educational laboratory of the Department of Education and the 
Department of the Interior.
    Ms. Morris began her career as a social worker then moved into 
education, going from teaching to administration and finally on to 
research. She brings 27 years of experience in Indian education to the 
position. She has worked primarily in the U.S. but also spent 6 years 
in research and development work in Canada.
    Ms. Morris is a Sault Ste. Marie Chippewa of Michigan, her state of 
birth, and Cayuga of the Six Nations Reserve in Ontario. Her B. Ed. is 
from the University of New Mexico and her M.A. in anthropology is from 
U.C.L.A.

                               education

    Senator Domenici. Let me ask this. You mentioned $25 
million, which will be leveraged to $100 million for law 
enforcement, but you did not mention the dollar number that the 
President has sought for increases to education.
    Mr. Gover. Mr. Chairman, my recollection is that we are 
asking for approximately $32 million more for education 
construction and that includes facilities improvement and 
repair.
    Senator Domenici. What is the operating increase?
    Mr. Gover. We are requesting an additional $8 million for 
the operation of the schools.
    Senator Domenici. OK. Let me just lay before you, Mr. 
Secretary, a couple of questions and observations that I have. 
Then, obviously, Senator Stevens will return or Senator Gorton 
will arrive. I have a meeting scheduled in my office.
    I would ask somebody to call my office to tell them that I 
will be a few minutes late.
    And here is our chairman now.

                     unemployment in indian country

    Let me lay before you a couple of things. The country right 
now is in a state of economic euphoria. We have never had a 
stronger consumer reaction in the United States to the well-
being of the economy. We have the lowest unemployment rates in 
many States in decades. Do you ever ask yourself, with that 
being the case, why we have such high unemployment among the 
Indian people?
    Now I don't expect a big answer, in detail. But does that 
not concern you, that we are all missing the boat in some way 
or another? The Indian people are not unable to work and get 
jobs. What is wrong? What is the disparity that you see out 
there?
    Mr. Gover. Obviously, it concerns us very deeply. I will 
say that per capita income, a lot of the measures of social 
well-being are actually on the rise, along with the rest of the 
country. It is just that Indian country started so very far 
behind that at a time when the economy is producing only 5 
percent or so unemployment, in Indian country it is 5 to 10 
times that.
    Ironically, or tragically, that is a considerable 
improvement over the way it has been in the past. So things are 
improving slowly. But still the tribes lag far behind.
    The reasons why are many. They are historical, they are 
institutional. There are problems, obviously, with the 
isolation of the reservations.
    In our own New Mexico, as you well know, the tribes used to 
be very isolated from the major economic centers in the State. 
That is less and less true, and I think because of that, their 
prosperity is on the increase as they sort of get a portion of 
the commerce that really has always gone around them.
    Senator Domenici. Mr. Chairman, Senator Stevens, I am going 
to give this hearing back to you. I have not asked any 
questions of him except I put the one question to him which you 
heard as you came in, which is why, with America in full 
employment, why are the Indian people so heavily unemployed and 
does that bother them. It bothers me. It bothers you. Something 
is not going right.
    While I think your answer is a reasonable one, I don't 
think it is enough. There is something basic going on that is 
much more than that they started behind it all.

                               education

    Anyway, the other point I was going to make to you is this. 
I make it very clearly and very forcibly. I am not the least 
bit impressed with the President's budget on education. It is 
$32 million up on school construction and we have been on the 
floor talking about a backlog of over $750 million for schools 
that we would not send non-Indian kids to. He gave us only $32 
million more, and $8 million more for the education system 
itself, while the President has asked for billions for other 
schools in the United States, with which we have nothing 
whatsoever to do, other than that the President would like us 
to. We must do these Indian schools because nobody else will do 
them. I mean, if we don't fix the Indian schools that we run, 
who is going to fix them?
    Also, why should we be building schools in the United 
States with income taxes for the American people and having a 
responsibility that is purely ours go unnoticed, almost 
undetected? I don't think that is a very good policy.
    I am very hopeful that, if we are doing education bills and 
they are putting a lot of money elsewhere in the United States, 
we can come along and put some into Indian education. It is one 
of the clues as to why we have this disparity in employment.
    I just want to make one other point. Clearly, Indian health 
programs are going to have to be looked at carefully because 
the costs are going up so fast because of things like diabetes. 
To have small increases will not be sufficient. We have to find 
some other very major, major approaches to Indian health.
    I yield at this point to the chairman.
    Senator Stevens [presiding]. Thank you very much. I am 
sorry if I fouled things up. I did not notice that vote.
    Senator Domenici. Yes; you were way past the time on it.
    Senator Stevens. Yes; and I am one who usually complains 
when people are late.
    Senator Domenici. Did your vote count? I mean, was it the 
deciding vote? It was close.
    Senator Stevens. No; I don't think so.

                      tpa task force distribution

    I am a little bit disturbed about what happened this last 
year. We did have a $24 million increase. It was split evenly 
between 12 BIA areas.
    Now we intended that that was to be used to try to bring 
about greater equality in the way that the TPA had been 
allocated in prior years.
    Why did you decide to just split it 12 ways to the regions, 
rather than to deal with the needy tribe concept which was 
spelled out in the report?
    Mr. Gover. Mr. Chairman, as you know, the committee last 
year chose to require us to set up a task force for the 
allocation of those resources involving four people from each 
of the 12 BIA areas.
    Putting that many people in a room, each with a particular 
point of view and particular interests to advance, it simply 
was not possible to develop an allocation that would have 
reflected that, quite frankly.
    Had the decision been left to myself and the deputy 
commissioner, it would have been much different.
    Senator Stevens. You had the authority, the basic 
authority, under the compromise we reached at our conference 
last year for the Secretary to make the distribution if the 
task force recommendations were unacceptable.
    I should think anyone would have called that unacceptable, 
to just take $24 million and divide it up into 12 areas without 
regard to need.
    Mr. Gover. Mr. Chairman, we interpreted the requirement 
differently.
    What we understood the statute to be saying is if a 
majority of the task force identified a particular allocation, 
then we did not have the discretion to say no. We had to 
allocate it that way. It was only if the task force failed to 
produce a majority interpretation that we could have, that the 
Secretary could have taken the task on himself. And, as I say, 
the allocation would have been much different.
    Senator Stevens. I warned at the time the BIA decided that 
there were 227 tribes in Alaska that we were in a new era of 
rising expectations. Each one of these groups now expects to be 
treated the same as the Navajos.
    Are they going to be treated the same as the Navajos?
    Mr. Gover. No, sir.
    Senator Stevens. Why?
    Mr. Gover. The reason the Navajo Nation gets the percentage 
of BIA funds that it does--and I should add that the Navajos 
don't feel that they get a fair percentage of the BIA funds--is 
because they are the largest reservation in the country. They 
have a variety of land-based allocations and they have the 
largest service population.
    Senator Stevens. They don't have the largest amount of 
land.
    Mr. Gover. Yes; they do, Senator. In terms of actual 
reservation land, the Navajo is the largest reservation.

                            tribes in alaska

    Senator Stevens. It is the largest reservation land, yes. 
But if you recognize all of these 227 villages as being tribes, 
they have a lot more land than the Navajos do. But it is not 
reservation.
    Mr. Gover. That is correct. It is not considered Indian 
land.
    Senator Stevens. But their needs, in terms of unemployment, 
in terms of isolation, in terms of education, health, and 
travel, are a lot worse. I really think that you ought to go 
back and look at the definition of tribes for Alaska. Those 
individual villages were never recognized as tribes even by the 
Alaskan natives themselves. Several villages made up one tribe.
    But you have recognized each village as being a tribe, and 
now each village expects to get money from the Tribal Priority 
Allocation Fund. Have you looked at that? Are they going to get 
that money? Is it going to be based on need or just upon the 
fact that they are a tribe?
    Mr. Gover. Right now, each of the tribes in Alaska receives 
funding on the basis that they are considered, that they fall 
under the small and needy designation.
    Now I would remind the committee that the small and needy 
designation was not a creation either of the committee or of 
the Bureau of Indian Affairs, but of a task force that Congress 
required to be established to look at issues of this type and 
for the BIA to implement those recommendations.
    What the task force recommended was that we created a 
designation called ``small and needy tribes'' and specifically 
said that each tribe should get $160,000 as the bare minimum 
funding required to establish a tribal government but that in 
Alaska they should get $200,000.
    Now last year in the appropriations bill, what the bill 
said was each small and needy tribe shall receive at least 
$160,000. So that is precisely what we allocated to Alaska.
    Now with the additional $23 million that the task force was 
allowed to allocate, that resulted in an additional $4,000 per 
village in Alaska. Our request for next year would increase the 
total for each village in Alaska to approximately $175,000.
    I agree with you that the need is profound there and that 
we do not do an adequate job at this time. The problem is, as I 
am sure you have heard before, there are so many other needs in 
Indian country as well that basically, we leave everybody 
short.
    Senator Stevens. Have you taken any money away from the 
tribes that are getting all of this money from gambling?
    Mr. Gover. We have not, sir. We lack the authority, 
frankly, to go out and say you must give us your money back 
because these are awarded on the basis of formula and the 
formula at this time does not include any accounting for 
revenue of any type that the tribe might receive.
    Senator Stevens. Thank you. I have taken too much time.
    Senator Dorgan.

                   tribal priority allocation system

    Senator Dorgan. Would you conclude, based on the 
information that you have and the discussion you heard earlier 
with the GAO that the TPA system is a mess?
    Mr. Gover. Well, I think that for a solid majority of the 
tribes it somehow reflects an equitable distribution. There are 
undoubtedly anomalies and they were created in many different 
ways. A good many of them, frankly, involve various line item 
appropriations that were made over the years.
    Remember if the Congress were to tell us to give an extra 
$20,000 to tribe X to conduct a nutrition program, we give them 
the $20,000 in the fiscal year and it becomes a part of their 
base. So they get it year after year after year. There are so 
many examples of that sort of appropriating that, to the extent 
that these anomalies are carried forward, that is the genesis 
in many cases.
    Senator Dorgan. You know, having had a hearing on this and 
having tried to understand who gets what, I'll tell you, I 
think the fact that no one can explain the basis for the base 
funding of the TPA suggests to me that there is something 
horribly wrong with it.
    I am supposed to be on a conference call right now with the 
BIA and the Indian Health Service on a different issue. So I am 
going to just be brief.

                           school facilities

    The Senator from New Mexico asked the question about 
unemployment and so on. I just wanted to say that the 
conference call I am going to be on is about a school down in 
Standing Rock that is closed. The sign outside says ``Caution, 
Contains PCS's.'' The kids have been in a gymnasium now for 2 
months and the light fixtures are leaking PCS's. They have also 
found dioxins. This is quite a mess.
    I am trying to sift through all of that.
    I say to the Senator from New Mexico that I was on two 
Indian reservations last week and toured a number of schools, 
one of which I spoke about on the floor yesterday, Cannonball. 
It is a public school but is on a reservation, a public school 
district. This is a school that is 90 years old. It has been 
condemned. The central building has been condemned. Classes are 
crowded. There is not 1 inch between the desks. The desks have 
to be flush. There are 8 foot by 12 foot classrooms.
    The choir room has to be abandoned a couple of times a week 
because sewer gas backs up and the stench is too bad. There are 
145 kids and 40 workers in the school. There are two bathrooms 
and one water fountain.
    It is in deplorable condition.
    Now one asks about a second grader in that school. Is the 
second grader in that school system having the same access and 
same opportunity as a second grader in some other school? No; I 
don't think so.
    So that is part of my question and it gets to the point we 
made. We must do better to invest the resources to fix these 
schools, the BIA schools and the other schools around the 
periphery that do not have the tax base.
    Let me just finish with one question, Mr. Chairman.
    Senator Stevens. Sure.
    Senator Dorgan. The conference call I am supposed to be on 
is supposed to have started 5 minutes ago. It's on this PCB 
question. We have worked through this for a couple of months 
now.
    I know you are trying hard, but it is so hard to get 
through the bureaucracy of the BIA and the Indian Health 
Service on some of these issues. You are new to this job, but 
do you understand the critical need that exists in some of 
these areas? I think you do because you have taken some tours 
and you seem concerned about it.
    For example, we must get the Standing Rock Reservation 
school fixed. These kids should not be in gymnasiums. They 
ought to be in schools. The school's front door ought not be 
boarded up. If there are light fixtures leaking PCS's, which is 
a carcinogen, we should get in, fix it, do the testing and get 
it done.
    Can you respond to that because, as I said, I am going to 
be on a conference call trying to coordinate between you and 
the Indian Health Service on this issue?
    Mr. Gover. Obviously, I agree with all of that. Now my 
understanding is that they pulled all the ballasts in that 
school and have replaced each and every one of them. I think 
there may be some remaining questions about whether in doing 
the sampling there are any remaining PCS's in the building. But 
I think the Bureau actually responded quickly to that one.
    Senator Dorgan. It did and then said it was done. But, in 
fact, they came back in and moved the kids back in. Then they 
moved them back out. Then they are saying there needs to be 
testing and the IHS says it is not our job. The BIA also says 
it is not our job. In the meantime, the kids are in the 
gymnasium and the school still has a sign at the door, and 
apparently there are still light fixtures leaking PCS's.
    Mr. Gover. Senator, I will look into that but that is not 
my understanding. We replaced all of them as soon as we heard 
about it. Not only that, we have directed our facilities 
management people to go check all of the other schools of that 
vintage to be sure it is not happening anywhere else.
    Senator Dorgan. I know you did that. I am just saying 
that--and this is a problem we constantly have--I am not sure 
the area office actually followed through to make sure that the 
problem got resolved finally.
    I understand that I am dealing with a specific issue and 
you are up here on the largest question. But let me add my 
voice to the concerns of the chairman and the Senator from New 
Mexico. We need to address these issues of education 
investment. You cannot invest money we don't give you and we 
need to do better than we have done. The administration needs 
to do better not just in education investment but if you take a 
look at the health care side that they sent up here, it is 
pitiful. It is so far short of the need.
    Now that is not what this hearing is about, but we need to 
do better in these areas.
    I appreciate your coming here today. You are new, and I 
want very much to help you succeed in your job. I hope I can be 
a part of that success and that we can do the right things for 
you.
    Mr. Gover. Thank you, Senator.

                     tribes with small populations

    Mr. Chairman, could I add just one other comment. I know 
Senator Dorgan had a particular interest or concern about the 
one and zero member tribes.
    Senator Stevens. Yes.
    Mr. Gover. GAO would have seen our allocations to the areas 
and, indeed, for each of those tribes we send money to the area 
office indicating that there is an allocation for each of those 
tribes.
    Before those tribes can receive the money, they have to 
submit a plan on how it is all going to be spent and it all has 
to be spent within certain parameters. In fact, the tribes with 
few members or no members have not received any of the funds 
because they are not acting as governments. So we are not 
sending money out to individuals. I just wanted to assure you 
of that.
    We were aware of the existence of those and long before I 
arrived the Bureau had developed procedures for seeing that 
money was not sent to those individuals where there was only 
one or two people on the reservation.
    Senator Dorgan. We can maybe resolve that today. The GAO 
seemed to say no, that was not the case, that they felt in 
circumstances with few or one they would get a minimum 
allocation. You are saying that this is not the case?
    Mr. Gover. As I say, we send money to the area office, and 
were that individual to organize that situation and give us a 
plan for spending those funds on appropriate purposes----
    Senator Dorgan. What if they do?
    Mr. Gover. Then we would approve the funds and allow that 
person to run the tribal government.
    Remember, we are not in a situation where we can look at a 
federally recognized tribe and on our own say you are no longer 
a federally recognized tribe.
    Senator Dorgan. But there would be a pretty powerful 
incentive for one, two, or four people being able to do that, 
wouldn't there?
    Mr. Gover. Sure.
    Senator Dorgan. Do they do that?
    Mr. Gover. They have not done it. They have not done it 
because it would be unlikely to be approved. I mean, what they 
would have to do to establish an actual working tribal 
government is probably more trouble than it is worth.
    Senator Stevens. Senator Burns.

                           school facilities

    Senator Burns. Thank you very much, Mr. Chairman.
    I was up to Brockton, MT, the other day. That is up on the 
Fort Peck. We have the same situation at Fort Peck that he has 
over in North Dakota, where we have a school that has just 
fallen down around the heads of the students there. They are 
crowded and there is a library that both the elementary and the 
high school students use. They don't even have chairs and are 
sitting on the floors.
    I am wondering and am concerned about the amount of money 
we are spending on education. Personally, I think we waste so 
much money on other areas on the reservations that it is 
unbelievable. It is not a shortage of money. It is just a 
shortage of priorities of where we put the money.
    I don't know whether that could be done at the BIA level or 
whether it is going to have to be done at the congressional 
level in order to address that. We have two schools that have 
completely outgrown themselves. One is at Boxelder, and, of 
course, that is pretty close to the Rocky Boy. And one is up 
there in Brocton. Whenever you send your budget down, it really 
grieves me that we just got a $24 million increase as far as 
education and education facilities.
    Mr. Gover. Senator, I wish we could have asked for more. I 
wish that the IHS budget were more as well. I guess I would not 
agree that we are wasting money elsewhere. But clearly we don't 
get enough resources for these schools.
    I did not have an opportunity earlier, but I know that the 
Budget Committee, under Senator Domenici's leadership, has made 
a suggestion that the amount devoted to Indian schools be 
doubled.
    I will just say that we will spend every dollar well that 
you send us in that regard.
    Senator Burns. I am going to be very supportive of his 
suggestion because I know that we are still, in Montana, part 
of the isolated part of it. We are not next to a big commercial 
operation, as far as that goes.
    I think we have to look at the operations of our 
reservations and say OK, the amount of young people coming out 
of those schools and how they are educated is way below the 
standards of the United States of America, as are the 
facilities in which they are going to school and how they are 
living.
    We have to look at ourselves and ask is it working. Is it 
working and do we have to make some changes, maybe even some 
structural changes as far as the way we deal with this problem, 
in some way or other?

                    education instructional programs

    Mr. Gover. Senator, this may be one of those rare cases 
where the structural changes have been made and the educators 
have developed the education program. I think the actual 
instructional programs at the schools are strong.
    From what I saw out there, these schools are 
indistinguishable from elementary and high schools in any other 
part of the country except that the buildings they are in are 
deteriorating badly.
    Senator Burns. Have you run through any figures? What are 
we spending per student on our reservations for education?
    Ms. Morris. It is a little over $3,000, and this is 
according to a formula which is called a weighted student unit. 
So it is about $3,000, a little over that. The national average 
is actually much higher than that. The national average is 
close to $6,000 for academic programs, not dealing with the 
construction issues.
    Senator Burns. That is outside of construction issues?
    Ms. Morris. Yes; excluding construction dollars. Yes.
    Senator Burns. Thank you very much, Mr. Chairman.
    Senator Gorton [presiding]. Thank you.
    I understand that Senator Stevens has another question.
    Senator Stevens. Mr. Chairman, I welcome you back and I am 
sort of glad that this is your headache first. [Laughter.]

                      tribal priority allocations

    Let me say before I leave that I hope we will agree there 
will be no more task forces, that we are going to change this 
law regarding tribal priority allocations, and that we will not 
provide any money for tribes that are obviously self-
supporting. There is no demand that is legitimate on the 
Government and taxpayers for tribes that have adequate money. 
That ought to be determined by whether or not there is any per 
capita distributions.
    I really cannot believe we should be providing tribal 
allocations to tribes that are already having per capita 
distributions of surplus funds derived from functions such as 
gambling.
    I congratulate you for getting into this, Senator Gorton, 
and I think we ought to have a meeting with the Indian 
Committee to resolve some of our differences before we go to 
the floor with a major bill this year.
    Thank you.
    Senator Gorton. Thank you.
    Senator Domenici, have you had a chance to complete your 
questions?
    Senator Domenici. No; I have not.
    Senator Gorton. Then please go ahead.
    Senator Domenici. Thank you very much.
    Mr. Secretary, I did not mention, other than inferentially, 
that you were not only new on this job but that I saw a kind of 
spirit developing around the BIA that reflects your enthusiasm 
and hope that we can do a better job. I hope this year that we 
can work constructively together. I don't think you can get 
everything you want, but I think some of us want to get you 
more than the President asked for, especially in the education 
field, and I think we can find some ways to work on that.

                       water rights negotiations

    I would ask you if you would not mind looking specifically 
at this issue. Some of the New Mexico Pueblos are very upset 
about the lack of funding in the Albuquerque office for water 
rights negotiations. I don't want to go into a long litany, 
but, as you know, we are allocating money for water rights 
negotiations to other States. It looks like four of our Pueblos 
are in dire straits. They are going to be right in the middle 
of some negotiations that are going to determine their future, 
and there are no resources in the Albuquerque office for that. 
I would just ask if you would take a look at that situation and 
I will insert my question into the record and the details of 
it.
    Mr. Gover. Yes, Senator. We will look at that.
    We know that the allocation to Albuquerque is not 
sufficient, and we have been supplementing that with some 
central office funds for that specific purpose. We know as you 
know the Jicarrilla case has just settled and there has been a 
lot of opportunity to settle the Taos case as well. I would 
just emphasize that when we are able to settle tribal water 
rights in a basin, that creates certainty for everyone, not 
just the tribes.

                               education

    Senator Domenici. I have a whole series not only of 
questions but of statements that would precede questions 
regarding the entire gamut of education. I think we all 
understand that for a very long period of time we have been 
encouraging, and have succeeded to some extent, the getting of 
our Indian young people into public schools. That was difficult 
at first, but it is working reasonably well.
    That is reality and the problems there are generic, rather 
than just Indian problems. These students are in the public 
schools, the problems with the schools that we are left with 
running, both the public schools, the Indian colleges, and the 
community colleges that are Indian driven--I think, Mr. 
Secretary, the whole thing needs a tremendous analysis from 
somebody on what in the world we are doing.
    You mentioned the disparity of what we are spending per 
public school pupil in Indian country versus the public school 
system and you mentioned $6,000 versus $3,000. Those are almost 
the identical numbers which show what we are spending on Indian 
colleges for Indian students in Indian colleges versus what 
other students in America are receiving, and what we are paying 
for students in non-Indian colleges.
    How are we going to continue this approach? It seems that 
somebody has to sooner or later say that we either cannot run 
the colleges this way and we have to find another way to 
educate our children, or we have to assume that they can be 
educated on $3,000 when their counterparts are costing 
everybody else to educate the same kind of person in the same 
fields twice as much. In some cases it is more than twice as 
much.
    We are going to try to get more money, but I think there 
has to be an analysis of just where are we going. Are we 
kidding ourselves that some of our Indian youngsters are not 
going to get a good education if we are going to continue with 
this sham of half-funding in a sense?

                          needs based analysis

    Mr. Gover. Senator, one of the things we are undertaking is 
to do a needs based analysis on the reservations.
    Now the witnesses from GAO pointed out that neither the 
Congress, nor the administration, nor the courts, nor anyone 
else has ever really said here is what we are trying to 
accomplish with this Federal funding in Indian affairs in terms 
of at what point have we succeeded, at what point are these 
communities receiving services that are deemed adequate, and 
where, under the treaties, when compared to other rural 
jurisdictions and compared to the Nation at large, where do we 
draw that line. That is one of the things we are going to try 
to do, to analyze that and try to establish sort of a mark that 
we are shooting for.
    Now in the case of the students, you were asking earlier 
why is there this endemic problem of poverty. Well, part of the 
reason it seems to me and in watching these tribal programs 
operate is we give them just enough to keep them alive, just 
enough to keep them alive and never enough to prosper. That is 
true not just for education but for every element of the 
various programs that the Bureau has administered.
    That is not just true now; it has been true as far back as 
we care to trace it, really. So we do have to ask some real 
basic questions about what we are trying to accomplish in 
Indian policy and have those objectives reflected in our 
financial decisions.

            tribal community colleges and vocational schools

    Senator Domenici. I wonder if, as part of that, you might 
have somebody objectively analyze what kind of education they 
are getting in these community colleges and Indian colleges. We 
keep trying to get them funded. We get a little bit more here 
and we add a building there, and even EDA has built some of 
their vocational buildings because there is no other place to 
get money.
    I think it would be good to know whether the education that 
our Indian people are getting in those institutions is up to 
par, or is it the most inferior in the country. Why would we 
keep on doing this to the Indian people if, in fact, the system 
is not a worthwhile system?
    We cannot keep saying that we are going to double the 
amount of money. Where are we going to get the doubled amount? 
Sooner or later some of us are going to try to double the 
amount.

                       education and unemployment

    Do you know why we are keeping good teachers there? It is 
amazing, but that is one area where there still is some 
credibility. It is because we passed a statute not too many 
years ago that pegged what we pay the teachers to what we are 
paying teachers in our Government schools overseas that educate 
our military kids. We said whatever we are paying them, let's 
pay the Indian teachers. If we had not done that, we would 
still be running around with 50 percent less than parity and 
asking what is happening to our Indian kids.
    Maybe some of those arbitrary things that neither Slade 
Gorton, as a legislator, nor Pete Domenici likes to do--we like 
to do it in a more rational way--have to be done. Sooner or 
later we have to face up to this kind of situation, and part of 
the unemployment problem is because of what we are discussing 
here. It's not the whole thing, of course. Part of it is, too, 
that the private sector cannot operate on Indian reservations. 
It is very hard for them, and the Indian leaders do not quite 
understand how they have to adjust or they refuse to. So we 
have two societies. We have a private sector society 15 miles 
away from an Indian reservation with 3,000 unemployed people, 
and nobody is going to go and locate on the reservation with 
private money. We don't know whether the Indian people want 
that yet.
    Those are dichotomies that are just obvious to anybody 
around--if they are not educated, it does not matter because 
they cannot get jobs. So we are going in a vicious circle.
    I have detailed the needs in statements that I am putting 
in the record. I hope you will look at them and give us some 
answers. They are about both public K through 12, they are for 
colleges, for community colleges and vocational schools. Sooner 
or later we have to make some sense out of it with the Indian 
leadership joining right along with us.
    There are a number of specific areas we just have to 
consider. For example, we have a school that burned down and we 
cannot get its replacement on the priority list. Kids are being 
bused way over to a public school and have been for 4 years. 
They are housed in some makeshift building, and we cannot get 
it on the priority list because you don't have enough money. 
The priority is already there. You have 12 schools waiting and 
they have been waiting for 10 years.
    So those are things that are not working, Mr. Secretary.
    I applaud you for leaving your previous life to take this 
on for a while, and I did not in my statements intend to make 
your job harder. I think you know that in no way am I trying to 
do that. I am trying to be helpful. Let's see if we can get 
something done.
    Thank you.
    Mr. Gover. I have always appreciated your support, Senator.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Gorton. Thank you, Senator Domenici.
    First, I want to apologize for the time that we have cost 
all of the witnesses here, first by votes that were scheduled 
after our starting time and then for other matters that 
occupied my own time. I do greatly appreciate your tolerance 
and your waiting.
    Second, I have a printed opening statement here. It may 
already have been included in the record. If it has not been, 
it will be.
    We are not going to keep you much past noon, so I am going 
to have to submit a number of questions to you as well. But I 
would like to talk about a couple of philosophical questions, 
not dissimilar to what Senator Domenici has asked. You already, 
in part, have answered one of them.

                       indian affairs leadership

    I want to say that I really appreciate your candor. We are 
getting straight answers now in a way that has not always been 
the case in my experience with this. I am delighted that you 
are on the job, and everything I hear tells me that you are 
doing very well in a situation that cannot help but be 
tremendously frustrating to all concerned.

                  federal funding for indian programs

    A year ago, when we were last here, Senator Bennett, who is 
not here now, recounted a moving personal experience he had as 
a foster parent to an Indian foster daughter. He posed a series 
of eloquent questions with respect to the Bureau and to Indian 
policy in general. I am going to, if I can, simply repeat the 
questions that Senator Bennett asked last year to see what kind 
of answers we have from Ada Deer's successor.
    I start from the proposition that with all of these 
shortages we give the BIA some $2 billion a year. In total, 
according to the Office of Management and Budget, Federal 
spending on Indian programs is about $7.5 billion a year, 
funding that serves about 1.2 million Indians who are also 
eligible for most other State and Federal programs.
    If my arithmetic is correct, that is something over $6,000 
per capita in these programs, and it is in addition to other 
fundings that they are eligible for simply as American 
citizens.
    Senator Bennett asked Secretary Deer last year what she 
thought the result of all the spending is or should be. Her 
response was essentially that she envisioned the Indian tribes 
as having the basic standard of living comparable to the rest 
of the U.S. population. She remarked that we need to invest 
more in education and health services so that the tribes will 
be able to march into the 21st century with hope.
    Now I agree with those statements and I think Senator 
Bennett did with respect to living like, for that matter, all 
Americans. In response, Senator Bennett asked, and I quote him 
from last year:

    So the long-term goal is to raise the standard of living 
without making any attempt to bring the Indian population into 
any kind of integration with the rest of the population of the 
country?

    What would your answer be to that question of Senator 
Bennett last year?
    Mr. Gover. My answer is that these communities have to make 
that choice for themselves. I think that they are increasingly 
integrated just by the nature of the encroachment, if you will, 
of the surrounding communities. Indians no longer live quite in 
the isolation that they once did.

                         federal indian policy

    But the one thing that we promised them and the whole 
centerpiece of Federal policy from the very beginning is that 
these communities would be allowed their existence. If they 
should choose to give it up, if they choose to integrate with 
the rest of the population, so be it. But I believe strongly 
that it is their choice to make.
    Senator Gorton. That is their choice to make, but that even 
if they make the choice to remain in their own communities, 
there is an obligation to try to see to it that their standard 
of living is roughly equal to the average of other Americans.
    Mr. Gover. I think that is a fair measure. Yes.
    Senator Gorton. But we are faced with the fact--you have 
this challenge, we all have this challenge--that, in fact, 
their standard of living is probably the lowest of any 
distinguishable socio-economic group in the United States. Does 
that indicate to you, as I must say it does to me, that 150 
years of American Indian policy have been an overwhelming 
failure?
    Mr. Gover. Clearly. Clearly 220 years of Indian policy has 
been a failure.
    I was thinking as you were speaking, Senator, that the 
governmental resources that go into an Indian community may or 
may not be roughly the same as would go into a non-Indian 
community. What is missing on the reservation is a private 
sector contributing to the well-being of the population. So 
$6,000 per capita into a non-Indian community is an awful lot 
more money when it is on top of a very active and vibrant 
private sector. Those private sectors for the most part do not 
exist on the reservations.
    Senator Gorton. But might it not be appropriate to say that 
the private sector has a much more difficult time on an Indian 
reservation in the absence of private property in the sense 
that we know it on the outside?
    Mr. Gover. It depends on what you mean. I think Senator 
Domenici was talking about the reluctance of the private sector 
to invest on Indian lands.
    I was a lawyer for a number of tribes for a number of years 
and I understand that reluctance. It all has to do with the 
special legal status that the tribes have.
    Now what I found in dealing with those folks is, once they 
understood what the problems were and that they could be dealt 
with in a very predictable way, they were willing to invest 
and, in fact, would invest. But the sort of great mass of the 
private sector simply does not know. And why go to a remote and 
somewhat mysterious little community that you don't know very 
much about as opposed to going to places that you know and 
where you do understand all the rules? It takes a unique 
entrepreneur to want to do that.
    Senator Gorton. But presumably if the social and political 
circumstances are favorable, it can be very profitable for that 
entrepreneur. It can be a win/win situation for both sides of 
the situation.
    Mr. Gover. It can and it has in a number of situations.
    I should answer, respond to one element about private 
property. There have been efforts throughout history, 
throughout the history of Federal Indian policy to privatize 
tribal assets. The results have never been very good. In fact, 
as bad as things went at various points in the more--I'm not 
sure how to characterize it, let's call it the experimental 
times in Indian policy, the Indian Reorganization Act, the 
Indian Self-Determination Act--things did not go well. But they 
went an awful lot better than they did in the termination era 
or in the allotment era.
    So every time we have tried to detribalize the Indians, we 
have made matters worse.
    Senator Gorton. Following up with Ms. Deer, Senator Bennett 
asked about the possibility that separate Federal funding of 
tribes would ever cease. Senator Bennett compared the situation 
to the role of the United States in Europe following World War 
II under the Marshall Plan, when we invested a lot of money and 
then left economically.
    I guess I ask you will tribes ever embrace self-sufficiency 
as an element of self-determination?
    Mr. Gover. I think a number of them do. The answer is yes, 
in my opinion.
    I think right now one of the problems, not to get too 
philosophical, is the tribes right now and for the last century 
have lived in an era of scarcity. So any single Federal dollar 
or any dollar of any type, it is very frightening to them to 
lose it. And even those who are finding enormous success right 
now are probably finding it a little bit hard to believe and 
are worried that it may be gone tomorrow.

                             indian gaming

    In fact, in the case of gaming, it could be gone tomorrow 
were the Congress to change its policy in that regard.
    But I think as the tribes begin to sort of enjoy prosperity 
and we have a generation of people who have seen nothing but 
success, I could easily imagine a day where a tribe just says I 
don't think we need this money anymore, or at least that there 
are places that need it more than we do.
    I am working with some of the tribes that are doing well at 
the moment in sort of making that request of them to allow us 
to spend that money in places where it is much more needed than 
it is in their community.
    Senator Gorton. We are getting to the next series. I think 
it was a week ago yesterday that the Washington Post reported 
on a dispute involving an Indian casino and noted that the 
Shakopee-Sioux of Minnesota each earn an estimated $600,000 a 
year from their gambling operations. The Pequots in Connecticut 
are another example.
    Do you know how many tribes make per capita distributions?
    Mr. Gover. It's under 30. That is our latest information. 
Mr. Chairman, I will answer it that way, but I will also 
reserve the right to go back and add to that answer.
    Senator Gorton. Please do so. It is a serious question and 
it would be good to have it in the record.
    [The information follows:]
             Indian Tribes Making Per Capita Distributions
    Based on information obtained from the General Accounting Office, 
there are 44 tribes that make per capita distributions. These tribes 
are listed below. The per capita distributions are made from a variety 
of sources, ranging from trust fund expenditures, general fund 
expenditures, litigation awards, enterprise distributions, and gaming 
revenues.
                             Area and Tribe
Minneapolis:
    Saginaw Chippewa.
    Sac and Fox Tribe of Mississippi in Iowa.
    Ho-Chunk Nation.
    Prairie Island Community.
    Lower Sioux Indian Community.
    Stockbridge-Munsee Community.
Phoenix:
    Fort McDowell Mohave-Apache.
    Ute.
    Las Vegas Paiute.
    Cocopah.
    Fallon Paiute-Shoshone.
    Ak-chin Indian Community.
    Fort Mojave.
Eastern:
    Seminole Tribe of Florida.
    Coushatta Tribe of LA.
    Eastern Band of Cherokee.
    Penobscot Indian Nation.
    Seneca Nation of Indians.
    Passamaquoddy, Joint Tribal Council.
Portland:
    Yakama Indian Nation.
    Confederated Tribes of Colville Reservation.
    Confederated Tribes, Warm Springs Reservation.
    Cow Creek Umpqua.
Sacramento:
    Barona Group Capitan Grande.
    Soboba Band of Mission Indians.
    Morongo Band, Mission Indians.
    Table Mountain Rancheria.
    Trinidad Rancheria.
Self Governance:
    Hoopa Valley Indian Tribe.
    Confed Salish and Kootenai Tribes.
    Cabazon Band, Mission Indians.
    Bois Forte Reservation Tribal Council.
    Redding Rancheria.
    Squaxin Island.
Aberdeen:
    Standing Rock Sioux.
    Flandreau Santee Sioux Tribe.
    Three Affiliated Tribes of the Fort Berthold Reservation.
    Winnebago Tribe of NE.
Albuquerque:
    Ute Mountain Ute.
    Mescalero Apache.
    Southern Ute.
    Pueblo of Laguna.
Anadarko: Cheyenne-Arapaho.
Billings: Eastern Shoshone, Wind River.

                     profits from business ventures

    Senator Gorton. I asked your predecessor and I ask you now 
why it is not appropriate for Congress to consider the profits 
that tribes make from each of their business ventures in 
determining how much money the taxpayer should distribute to 
those tribes for their basic governmental activities.

                      funding for indian programs

    Mr. Gover. As to certain matters, Senator, it clearly is 
appropriate. It already is done. One-third of tribal priority 
allocations are not distributed on a formula basis. They are 
distributed on a need basis. So a community that has no need 
for general assistance, or for housing improvement, or does not 
meet the criteria for our roads program, does not receive any 
of those funds.
    There is another category of expenditures that goes 
directly to the Federal trust that is acknowledged, basically 
our responsibility for trust property, be it money, water, 
land, et cetera. Clearly, that should not be withdrawn simply 
because it is a Federal obligation to do that.
    That leaves a third category of funds that I believe really 
are discretionary and do not necessarily reflect a legal 
obligation of the United States but, instead, are sort of based 
on historical factors and historical conditions that may no 
longer exist.
    Senator Domenici. Mr. Chairman.
    Senator Gorton. Yes?
    Senator Domenici. Would you yield for an observation and a 
question?
    Senator Gorton. Of course.

             private sector business on indian reservations

    Senator Domenici. First of all, I think you are familiar 
with the lengths we went to to try to encourage the private 
sector to establish itself on Indian lands and hire Indian 
people. Five years ago in a tax bill we passed for the first 
time a major incentive package for Indian country.
    I have tried it on with private sector people who were 
thinking of moving to a city that is not Indian. I say: if you 
had these credits--accelerated depreciation, 20 percent credit 
on your corporate tax for salaries paid to employees earning 
$25,000 or less so long as the business was in this town--would 
you move here?
    Nobody will turn you down. That is beyond anything anybody 
is offering businesses to move from one location to another or 
to expand.
    There is another benefit in there also that I have missed, 
but those two are enormous.
    Now it is very interesting to me. In fact, as you speak 
here, I am wondering if I might impose on the Secretary. I 
wonder if you might try to find out--though I don't think you 
can--how many businesses and Indian tribes have availed 
themselves of this law. It was in one of the Omnibus tax bills.
    The reason I raise this is because I do believe that when 
you see such a generous incentive for private sector movement 
to the reservations--and this is my assumption with you and my 
enlightened guess--the use is going to be found to be 
principally, Mr. Secretary, the building of facilities and 
using the accelerated depreciation, so that they are building 
an office center next to a city and that is going to yield 
rent. They get to accelerate the depreciation so significantly 
that they will choose an Indian reservation or between 
Albuquerque and Santa Fe. If you build one of those trading 
marts and you build that on Indian land, you get almost double 
the depreciation, so that is a very attractive place to move 
it.
    When it comes to a call center that might need 150 people 
to use telephones, even if we had 700 qualified Indian people, 
the question is would they consider it with the accelerated 
depreciation and the overwhelming credit against income tax 
that nobody else gets. The answer is probably no. That is what 
we have to look at.
    Senator Gorton. The difficulty there, of course, is the 
difficulty that we have in State competition for new 
enterprises.
    Sure, people will take that. But in a sense it is a zero-
sum game. The business that takes advantage of these tax 
advantages is not located somewhere else where it is going to 
contribute to the tax base of a community. True development is 
going to come when you can win on the basis of equal 
opportunities in both places.
    Senator Domenici. What I am suggesting is that none of this 
is going to work to pull a business out of a place and move it 
to another. It is going to be where they want to expand. That 
expansion is occurring all over the country. Some are choosing 
your State, my State, and you offer incentives as we offer 
incentives.
    I know you would like to have zero incentives on the tax 
side and have it all stand on its own, or maybe you would, I 
gather.
    Senator Gorton. We have just gone through debate over this 
Nucor Steel Corp., that is playing Washington and Oregon, and I 
think also Idaho and California, like a drum over who will give 
it the greatest number of incentives. Interestingly enough, our 
legislature decided to tell them to go somewhere else, that we 
were not going to give them a competitive advantage over 
others. It's easier to do when you are doing very well, as we 
are.
    Senator Domenici. Yes; I was just going to say that.
    Senator Gorton. There is no question about that.
    Senator Domenici. But, Mr. Chairman, the point I am making 
is that Congress did decide and there were very few objectors 
to a 10-year program--it is not forever--to see whether this 
would work.
    Senator Gorton. Your question as to let's see how it will 
work is a very good question.
    Senator Domenici. Yes.
    Can you try to do that, Mr. Secretary?
    Mr. Gover. We will try to do that.
    Senator Gorton. I think that will be a fascinating answer, 
to see what, in fact, has taken place as a result of it.
    [The information follows:]

 Incentives To Encourage Private Sector Business on Indian Reservations

    Issue: Can the Bureau report how many non-Indian business 
enterprises have taken advantage of tax incentives in an 
Omnibus Budget Reconciliation bill by relocating to Indian 
reservations?
    Response: The most recent compilation of returns on IRS 
Form 8835, showing employment tax credits, totaled 88 returns. 
Accelerated depreciation is not broken out to show which 
enterprises are on Indian reservations. This information came 
from Brian Francis at the IRS Statistical Information Service, 
202/874-0410.

                      tpa task force distribution

    Unfortunately, I have another 12 o'clock appointment and I 
have not gotten into tribal priority allocations except 
incidentally. But you know how disappointed we were, and I 
think you were disappointed, in what took place last year with 
the division of the $24 million general increase when, in 
effect, we just finessed need and divided up evenly. That is an 
issue that is not going to go away, Mr. Secretary, as you know. 
And you have described three different ways in which we deal 
with some of these moneys, depending on their source and the 
degree of obligation in connection with them.
    But I do not think it is supportable at this point in our 
history, and with the needs that Senator Domenici has talked 
about for education and the like that do not deal directly with 
the governmental activities of Indian tribes, where we are 
going to come up with that extra money for education is 
something I would like very much to do, but I don't know.
    Senator Domenici, with my strong support, has not passed a 
budget resolution that is going to allow us to come up with the 
President's recommended budgets. I am not going to get an 
allocation for this subcommittee that equals what the President 
has come up with.
    Senator Domenici. In its totality.
    Senator Gorton. Yes; in its totality. That's right.
    That seems to me to tell us that we need to be spending our 
money more wisely and on more urgent priorities than we have 
done in the past. In this respect, we are not going to be able 
to do it right unless you, in the position you are in, give us 
a way to distribute money for TPA in a more equitable fashion 
than we have in the past--equitable among the various Indian 
tribes and Nations, where history has led us to a position that 
is truly irrational. We must determine whether or not either 
some of that money that is going where it is not so greatly 
needed should go to other TPA needs or whether it should go to 
another Indian program, like those that Senator Domenici is 
talking about.
    We don't have an awful lot of time to do that and to do it 
right. To go through another year in which we just squeeze 
everything down and have the same kind of conversations we have 
had here today, as we had a year ago, another year from now I 
don't think is serving the taxpayers well, I don't think it is 
serving the Indian community well, and I don't think it is 
serving anyone well.
    So I am going to have to submit the rest of these questions 
to you in writing. But to help us come up with a way to take 
this large amount of money--obviously you cannot necessarily 
talk about the $7.5 billion, but the $2 billion or so--and see 
to it that it gets spent to meet the goals that you outlined in 
an answer to my earlier question, or comes closer to meeting 
it, in my opinion is the highest priority we have.
    Mr. Gover. Senator, we will look forward to doing that. We 
would like to work with you on some short-term priorities for 
fiscal year 1999. I think there are a few small things that we 
can do to begin to make TPA more clearly reflect the need out 
there.
    For the long-term, before you arrived, we described an 
effort we are undertaking to conduct this study of need and now 
to evaluate need on a consistent basis across the country. Once 
we know what that figure is, we can, I think, better understand 
what our priorities ought to be.
    Senator Gorton. I must say that I have a great deal more 
confidence in the BIA under your leadership than I had 
previously seriously to address that subject and seriously to 
come up with that. If I get the commitment in the course of the 
next year that we will get that broad set of recommendations, I 
will be happy to work with you on the small, temporary fixes 
this year. We will try to come out at the same point.
    Senator Domenici, if you have anything more, you can stay 
and ask as many questions as you want.
    Senator Domenici. I have no more. I just wanted to stay 
around and listen to your last remarks that you just made. They 
are wonderful.
    In Indian country, they are going to be very excited to 
hear what you just said.
    We thank you very much.

                     Additional committee questions

    Senator Gorton. All right, thank you. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]

                       GENERAL ACCOUNTING OFFICE

                     Additional Committee Questions
    In your statement you said that Congress might want to consider (1) 
financial information for all tribes, (2) more complete information on 
the financial resources of the tribes, and (3) more reliable 
information.
    Question. How can Congress collect this information? What changes 
to the law would allow this?
    Answer. Congress could enact legislation to collect more complete 
information. Such legislation could require each federally recognized 
tribe to annually provide an audited comprehensive financial statement 
to the Bureau of Indian Affairs (BIA) as a pre-condition of receiving 
Tribal Priority Allocations (TPA). These statements could be required 
to conform to generally accepted accounting principles, include 
operations of all activities and programs directly or indirectly 
controlled by each tribe and its sub-units, and report income from 
business enterprises. Such information could be made available to the 
Congress when needed.
    The GAO regularly evaluates and comments on Federal programs at 
Congress' request.
    Question. Is the GAO confident about Congress' expenditure of about 
$800 million per year for the BIA TPA program? Is this a good program?
    Answer. Although these questions are beyond the scope of the work 
we conducted, our work does raise concerns because BIA could not 
articulate reasons for how the base funds--about $500 million last 
year--were distributed. And while the non-base funds--about $250 
million last year--were generally distributed on the basis of specific 
formulas, we did not evaluate those formulas to determine how 
effectively they addressed tribal needs and relative priorities. To 
further address these questions, we would want to better understand the 
goals and performance measures that BIA has identified for TPA, as well 
as the tribes' needs and relative priorities for TPA funds. BIA sees 
TPA as a way to pursue Indian self-determination, and we did not try to 
determine how well it is succeeding in this regard.
    Question. What constitutional or other legal barriers are there to 
Congress legislating financial reporting by the tribes?
    Answer. Congress has the authority to enact legislation requiring 
federally recognized tribes to annually provide financial statements as 
a pre-condition to receiving TPA. Before enacting such legislation, 
Congress may want to carefully analyze and consider its impact on other 
legislation and, if appropriate, the process by which TPA funds are 
presently distributed.
          bia method of appraising rent value of indian lands
    The Committee is concerned that the BIA process for appraising the 
rental value of Indian lands fails to appraise accurately those lands 
at the preset fair annual rental value. In particular, a previous GAO 
study reported that the BIA appraisals of the rental values of idle 
lands within the Yakama Indian Reservation in Washington State were 
unrealistically high. These appraisals undermine the ability of Indian 
tribes wishing to rent lands to market their lands at competitive 
prices. Further, these flawed appraisal practices place unwarranted 
financial hardship on lessees. Last year, the Committee included report 
language directing GAO to conduct an audit and provide recommendations 
on the BIA method of appraising the rent value of Indian lands by April 
1--three weeks ago.
    Question. Has the GAO completed that audit?
    Answer. GAO has not begun this audit, due to staffing constraints. 
We discussed our staffing constraints with congressional staff in 
November 1997 and again in January 1998; we agreed at those meetings to 
defer the start of this work until after we finish our current review 
of TPA or additional staff become available. Additional staff did not 
become available, and we now plan to begin this work in June 1998, 
shortly after our TPA report is issued.
    Question. When can we expect to receive the completed study?
    Answer. After GAO begins its work in June and gains enough 
knowledge to develop our proposed audit approach, we will meet with the 
congressional staff to discuss our preliminary observations and to 
determine our reporting timeframes.
    Question. Do you know what the GAO's recommendations will be?
    Answer. Not at this time.
                                 ______
                                 
                 Questions Submitted by Senator Cochran
    Question. In determining how the Tribal Priority Allocations have 
historically been distributed, what criteria did you find for defining 
``need'' in a tribe?
    Answer. Determining criteria for defining tribal needs was beyond 
the scope of our review. While Interior officials noted that 
adjustments to TPA base funds may have been made over time in 
consideration of specific tribal circumstances--which could include 
identifying tribal needs--criteria for making such decisions were 
unclear. Non-base funds consider tribal needs through distribution 
formulas identifying factors such as the number of miles of roads (for 
road maintenance funds), but we did not evaluate those formulas to 
determine how effectively they addressed tribal needs and relative 
priorities. The 1994 BIA task force recommended that tribes with fewer 
than 1,500 members receive at least $160,000 in TPA funds (or $200,000 
in Alaska), which in effect used these dollar criteria to define the 
``needs'' of small tribes to develop basic self-government capacity; 
however, we did not find any analysis regarding the appropriateness or 
basis for these criteria.
    Question. Are factors such as land value, population, law 
enforcement, and schools variable enough among tribes to be considered 
in addition to revenue?
    Answer. Of these factors, our statement addressed only variances in 
service populations, which ranged from a low of about 42,000 Indians in 
the Billings area to over 225,000 Indians in the Navajo area. Interior 
officials told us that differences in TPA funds between areas could 
reflect differences between tribes in the extent of their land 
holdings, their responsibilities for law enforcement, the scope of 
government services they provide, and their tribal memberships.
                                 ______
                                 
                  Question Submitted by Senator Burns
    Question. What can we, as Congress, do to ensure that funding uses 
are being reported correctly by the BIA and the tribes themselves?
    Answer. Congress can continue to encourage accurate reporting by 
BIA--and, in turn, by the tribes--through its budget and oversight 
hearings. In addition to reporting under the Single Audit Act, tribes 
are also monitored by BIA to assure compliance with contract 
provisions, where applicable.
                                 ______
                                 

                        BUREAU OF INDIAN AFFAIRS

                     Additional Committee Questions
                         protest in ward valley
    In February 1996, Deputy Secretary Garamendi announced that the 
Department intended to conduct additional testing on BLM land in Ward 
Valley before deciding whether to transfer the property to California 
for a low-level radioactive waste disposal facility. These tests have 
now been indefinitely postponed because of the illegal occupation of 
the Ward Valley site by protesters, who are alleged to be members of 
the American Indian Movement.
    All Federal rangers have been withdrawn from the area. For the past 
six weeks, the protesters have refused the BLM access. Senator 
Murkowski, Chairman of the Senate Energy and Natural Resources 
Committee, has sent two letters to Secretary Babbitt, inquiring of him 
the details of the Department's plans to resolve the matter. As I 
understand it, the responses have been less than enlightening.
    Question 1. What role has the BIA had in any of the activities 
going on at Ward Valley?
    Answer. Assistant Secretary Gover is conducting government-to-
government consultations with the tribal leadership of the Quechan, 
Colorado River Indian Tribe, Cocopah, Fort Mojave, and Chemehuevi 
Tribes.
    Question 2. Who are the protesters, and are they recognized Tribes?
    Answer. Aside from members of the five Tribes listed above, the 
Department cannot confirm the identities of the protestors. However, 
individuals identifying themselves as representatives of the American 
Indian Movement and environmental organizations are known to be among 
the protesters on site at Ward Valley. The Department is in government-
to-government consultations only with the leadership of the five Tribes 
mentioned above.
    Secretary Babbitt, in his letter to Chairman Murkowski dated April 
20, 1998, said we are engaging in ``government to government 
consultations'' with the criminal trespassers on federal land.
    Question 3. Why are we negotiating with criminal trespassers on 
federal land?
    Answer. The Department supports a peaceful resolution to the 
conflicts at Ward Valley that avoids confrontation and will allow 
permitted activities to proceed. The Department believes every effort 
must be made to resolve the situation peacefully, through means which 
do not raise the potential of physical confrontation and possible 
violence and injury.
    Question 4. Is any of the land at issue recognized by the federal 
government as tribal land?
    Answer. The land at issue in Ward Valley is owned by the federal 
government. None of the land is tribal land.
    Question 5. Why has Assistant Secretary Gover been called to the 
site to negotiate?
    Answer. Assistant Secretary Gover is assisting the Department to 
reach a peaceful resolution to the conflicts at Ward Valley in a way 
that avoids physical confrontation.
    Question 6. Has the Department consulted with, or sought the 
assistance of, the Department of Justice?
    Answer. No assistance has been requested from the Department of 
Justice. The Department has provided information on the status of the 
situation to the Department of Justice (DOJ) in the context of DOJ 
representation in several lawsuits related to the Ward Valley site. The 
Department did have informal contact with the Community Relations 
Service of the Justice Department and advised them of the situation. 
BLM also has notified the office of the United States Attorney, Central 
District of California, and the FBI to inform them of the trespass 
situation. Again, the Department desires to resolve the situation in a 
manner that avoids confrontation through government-to-government 
consultations. Under these circumstances, the Department believes that 
the situation does not require at this time the assistance of the DOJ.
    A copy of a memo prepared by a staff person with the California 
Department of Health Services was forwarded to my staff. In that memo, 
the staff person said he had been to the site twice, and was 
accompanied at least once by a BLM Ranger, who identified at least one 
of the vehicles being driven on and off the protest site by protesters 
as a BIA vehicle.
    Question 7. Are BIA vehicles being used by the protesters?
    Answer. No, to our knowledge, BIA vehicles are not being used by 
the protesters on the Ward Valley site.
    Assistant Secretary John Berry sent a memo to the Acting Inspector 
General on March 27 requesting an immediate investigation into the 
tribal protests at Ward Valley. Mr. Berry specifically noted that there 
might be legal limitations applicable to appropriated funds. I can 
assure you that there are limitations on what Federally appropriated 
funds can be used for.
    Question 8. What is the status of the Inspector General's 
investigation?
    Answer. The Inspector General is actively pursuing the 
investigation requested by Assistant Secretary Berry. Because the 
investigation is currently open, the Inspector General is not in a 
position to comment further at this time.
                   tribal priority allocations (tpa)
    As Federal resources decline, the other resources of the tribes 
might have to be considered when Congress is forced to choose among 
them for Federal funding. As the Federal discretionary budget shrinks, 
I believe the Tribes with the least and the fewest opportunities should 
get the most Federal assistance.
    Last year, I tried to direct the BIA to develop a new allocation 
method for TPA funds, which are distributed based on historical funding 
levels bearing little if any relation to current needs. In the end, the 
Congress agreed to a compromise in which the increase was distributed 
based on recommendations of a Task Force of tribal leaders from each 
BIA area.
    It was disheartening to learn that the Task Force recommended 
splitting the $24 million general increase equally 12 ways among the 12 
BIA areas. Thus, for example, the 227 tribes of Alaska had $2 million 
to spend and the only Tribe in the Navajo Area, the Navajo Nation, had 
$2 million to itself. I was hopeful that the Task Force would have 
developed some better recommendations.
    Question 9. The Secretary had the authority under the compromise 
language in section 118 to make the distribution if the Task Force was 
unable to get support from a majority of Task Force members. Although a 
majority did agree to the split, not all members support the split. Did 
the 1/12th split make sense to you?
    Answer. The Assistant Secretary understood section 118 to say if a 
majority of the Task Force identified a particular allocation, we did 
not have the discretion to say no. It was only if the Task Force failed 
to produce a majority interpretation that the Secretary could have 
taken the task on himself. Had the decision been left to the Assistant 
Secretary and the Deputy Commissioner the distribution would have been 
much different.
    I understand that a number of other proposals were discussed by the 
Task Force, although none were adopted.
    Question 10. Did the BIA or the Task Force keep records of these 
proposals and the factors that the area representatives suggested be 
considered?
    Answer. The Bureau taped the initial Task Force meeting.
    Question 11. Do you believe that consideration of some of the 
factors, like population, land base, joblessness, and other tribal 
financial resources, would make good sense in developing a new 
distribution method?
    Answer. The Bureau of Indian Affairs and the TPA work group have 
discussed each of these factors as variables to consider in a new TPA 
allocation system. It is important that we realize this situation is 
complex. While it seems to make sense to relate job training or adult 
vocational training to joblessness, if the reservation is remote 
relative to job opportunities, the success of training may be limited. 
With the other variables such as land base and population, what is 
important for program funding distribution is what is on the land base 
and the composition of the population. It does not make sense to give 
forestry program funding on land base, if the land has no forests. 
Likewise, it does not make sense to distribute housing improvement 
funding on population, when a tribe does not have housing improvement 
needs.
    The relevance of other tribal financial resources is also complex. 
In the case where the Tribe's wealth comes from a legislated settlement 
that states the settlement is not to be considered in future 
appropriations, the Bureau intends to follow that law. However, the 
Assistant Secretary is attempting in fiscal year 1999 to get certain of 
the most prosperous Tribes to voluntarily return their allocations of 
TPA funds to be redistributed to the most needy Tribes. The Committee 
can assist by including language in the fiscal year 1999 Appropriations 
bill that assures Tribes that the return of TPA funds in no way 
diminishes a Tribe's rights and relationship with the Federal 
government.
                         contract support costs
    Following enactment of the Indian Self Determination Act, it became 
the policy of the government to contract to the Tribes that want to 
participate the functions of the Bureau that are not inherently 
Federal. Later, it was decided that Tribes should get, in addition to 
the funds that would have gone to the agency to provide the service, 
additional overhead money--hence ``contract support.'' So, today, it 
costs the Federal government more to have the Tribes provide BIA 
services than if the BIA had provided these services--significantly 
more. The BIA has requested $114.9 million for contract support costs 
in the fiscal year 1999 budget, a $9 million increase over fiscal year 
1998 funding.
    Question 12. Is the request sufficient to fully fund contract 
support costs, and if not, what is the estimated shortfall?
    Answer. On page BIA-59 of the Bureau's fiscal year 1999 Budget 
Justifications, is a table that displays the estimated shortfall 
expected in fiscal year 1999. The total need for fiscal year 1999 is 
estimated to be about $128.3 million while the amount requested for 
contract support is $114.9 million. This leaves about a 10 percent or 
$13.4 million shortfall.
    The budget request includes an increase of $4 million and includes 
an internal transfer of $5 million from the Indian Self-Determination 
Funds, for new and expanded contracts.
    Question 13. Is the estimated shortfall related totally to existing 
contracts for ongoing programs, or is the Bureau anticipating entering 
into new contracts with Tribes to take over Bureau programs, despite a 
growing shortfall?
    Answer. The estimated shortfall is related totally to existing 
contracts for ongoing programs. Tribes contracting new or expanded 
contracts receive their contract support funds from the Indian Self-
Determination (ISD) Fund. The ISD fund is distributed on a first-come, 
first-served basis, until exhausted. If funds are not sufficient in a 
particular fiscal year, the new contractor must wait until the next 
year to receive their contract support funds from the ISD Fund. Funds 
are transferred annually from the ISD Fund to the contract support line 
item for existing contracts for ongoing programs.
    It now costs the United States more to pay for the programs for the 
Indians than it did when the Bureau provided the services to them. Most 
people, it seems, have come to grips with this fact, although they may 
not agree with it. However, most accept it, having been led to believe 
that, at some point in the future, costs will come down--the Indians 
will have taken over all of the programs, and will be running them 
smoothly and efficiently.
    Question 14. As discussions among lawyers for the Tribes, the 
Bureau and Committee staff have grown in response to the crisis, that 
certainty--that ultimately this is a good deal for the government in 
that the total costs will come down--has evaporated. Do you think that 
the policy of providing contract support costs over and above the 
program funding is fiscally responsible? Will costs to the Federal 
government ever decrease?
    Answer. Providing contract support costs over and above the program 
funding is fiscally responsible, as recognized in the 1988 amendments 
to the Indian Self Determination Act. Congress recognized that the 
funds the Tribes were receiving for running the same programs were less 
than what the the Department was using overall to administer the same 
programs. Bureau-operated programs are supported by other programs 
within the Bureau budget. The direct program funds for Bureau operated 
programs do not include the cost of GSA rental space, telephones, 
postal costs, insurance, retirement, etc. These are the types of costs 
Tribes receive through contract support.
    Question 15. Despite being unpopular, why doesn't it make fiscal 
sense to stop extending new contracts if the Bureau doesn't have the 
money, and knows it doesn't, to support them?
    Answer. Such a decision is not within the authority of the Bureau 
of Indian Affairs. Congress enacted Public Law 93-638 as amended, which 
allows Tribes to contract Bureau programs at any time. Promoting self-
determination is the core of the Bureau's mission and the first and 
most important of its Strategic Plan Goals. To deny Tribes the 
opportunity for self-government/self-determination goes against the 
government-to-government policy the federal government has with Indian 
Tribes. Such a policy change would deteriorate or destroy the 
government-to-government relationship the federal government has 
developed with the Indian Nations of this country.
    The Bureau is in litigation on several fronts regarding shortfalls 
in contract support costs funding. Recent Federal court decisions from 
the D.C. Circuit, the Tenth Circuit and the Oregon District Court have 
held that contract support costs are an entitlement of sorts. One case, 
in particular, Ramah Navajo Chapter v. Lujan, in the 10th Circuit, has 
been brought to the Committee's attention. In part, the holding 
required BIA to pay contracting and compacting Tribes support cost 
shortfalls of other Federal or State programs. Thus if a state or 
another Federal agency does not fully fund contract support, BIA has to 
make up the difference.
    Question 16. What is the status of the contract support cost 
litigation? Is BIA appealing these decisions?
    Answer. There are currently two pending cases involving contract 
support. In the first case, Ramah Navajo Chapter v. Lujan, the 
Department did not appeal the decision rendered by the US Court of 
Appeals, 10th Circuit. The Department is currently in partial 
settlement negotiations with the class of plaintiffs in Ramah Navajo 
Chapter. In the second case, the Department has requested that the 
Department of Justice support an appeal of the decision by the Interior 
Board of Contract Appeals (IBCA) in the consolidated appeals of Alamo 
Navajo School Board, Inc. and Miccosukee Corporation. In Alamo Navajo 
the IBCA ruled that the language included in the DOI Appropriations 
Bills in fiscal year 1994-1998 capping contract support costs did not 
limit the Department's liability to fully fund contract support costs.
    Question 17. What is the status particularly of the Ramah case? Why 
did the BIA and the Justice Department decide not to appeal the 
decision? How much is a settlement of Ramah going to cost the 
government?
    Answer. The Government is now in the process of negotiating a 
partial settlement agreement with the plaintiff class which will settle 
the claims from fiscal year 1989 through fiscal year 1993. Plaintiffs 
have reserved their claims from fiscal year 1994 through fiscal year 
1998 pending a final determination in Miccosukee Corporation. The 
Department estimates that the partial settlement agreement will be 
completed this summer. Because settlement negotiations are ongoing and 
because the class has reserved some of its claims, the cost of settling 
the case is currently unknown.
    The law requires that the settlement come from the Judgment Fund. 
Further, the law provides that the Judgment Fund be reimbursed from the 
operating funds of the Federal agency found liable--in this case, the 
Bureau of Indian Affairs.
    Question 18. From the BIA's perspective, were the Tribes well-
informed by their attorneys or the Bureau that the settlement of a 
lawsuit for contract support costs would ultimately come from the 
budget of the very agency on which they rely for the bulk of their 
Federal support? Who is going to get rich from this litigation?
    Answer. The Bureau assumes that Plaintiffs' attorneys were well-
informed that under the Contract Disputes Act the Department may be 
required to reimburse the Judgment Fund either from available funds or 
by obtaining additional appropriations for this purpose. Plaintiffs' 
attorneys were also informed that if the Department is required to 
reimburse the Judgment Fund without a supplemental appropriation for 
this purpose, appropriations for the Operation of Indian Programs 
Tribal Priority Allocations will be impacted. No one is expected to get 
rich from this litigation.
    Question 19. The law is settled in this area, wouldn't you agree, 
that the settlement must be repaid from the Bureau budget?
    Answer. Under the Contract Disputes Act, a judgment against the 
United States that is paid out of the judgment fund shall be reimbursed 
``by the agency whose appropriation were used for the contract out of 
available funds or by obtaining additional appropriations for such 
purposes.'' 41 U.S.C. Sec. 612(c).
    Question 20. How is BIA dealing with the crisis?
    Answer. Because Ramah Navajo Chapter deals with other agency short-
falls in the payment of contract support, not BIA short-falls, the 
Department is exploring various avenues for determining the extent to 
which other agencies may need to share in reimbursing the Judgment 
Fund. In addition, the Department has discussed with Treasury the 
option of repaying the Judgment Fund over a period of years instead of 
out of a single year's appropriation budget.
    Question 21. Do you believe the Bureau has an obligation to bring 
to Congress a proposal on how the government will deal with contract 
support in the future?
    Answer. The Assistant Secretary is addressing the issue of contract 
support funding and plans to present a permanent solution to Congress 
in the fiscal year 2000 budget.
    Question 22. Do you have a proposal for the Committee? Will you be 
able to provide one to us for fiscal year 1999?
    Answer. Please see the answer to question 21.
    Question 23. Does the BIA intend to submit a request for new bill 
language that it feels will be sufficient to reduce its liability? What 
is the status of a long term solution from the Department or the 
Bureau? In the absence of a solution or knowledge of the total 
liability for past and current shortfalls, why shouldn't contracting 
and compacting be held flat?
    Answer. Yes, new bill language is included in the President's 
fiscal year 1999 budget to reduce liability exposure. The Assistant 
Secretary is forming a work group to develop options for a long-term 
solution to the issue of contract support funding. Holding contracting 
or compacting flat or placing a moratorium on new contracting under 
Public Law 93-638 is not possible under current law. Public Law 93-638 
gives Tribes and tribal organizations the option of whether and/or when 
to contract. Any limitation of that would not only be seen as counter 
to the Administration's policy of supporting and strengthening tribal 
self-determination, but would require substantive amendments to Public 
Law 93-638.
    In your testimony before the Indian Affairs Committee in February, 
you noted that there are ``some disparities in the contract support 
requests that are made by the Tribes.''
    Question 24. Could the BIA be more specific about what disparities 
exist?
    Answer. The Assistant Secretary was referring to the disparity 
found in the wide range of indirect cost rates that Tribes and tribal 
organizations have negotiated. The issue of how indirect cost rates are 
estimated and negotiated will be examined by the Assistant Secretary's 
work group referred to in the answer to question 23.
    Question 25. What is the current method for determining contract 
support costs?
    Answer. The Bureau utilizes tribal indirect cost rates negotiated 
with the Office of the Inspector General to determine the amount of 
contract support recipients are eligible to recover. In a very small 
percentage of cases where Tribes or tribal organizations cannot 
negotiate rates, the Bureau negotiates lump sum amounts.
    Question 26. Is a single formula applied to all Tribes? To all 
programs? What are the factors considered?
    Answer. No single formula is applied to all tribal contractors. 
Rather, indirect cost rates as negotiated by the Office of the 
Inspector General (OIG) are used as the basis for determining contract 
support costs. Once the OIG negotiates a rate with each Tribe, this 
rate (percentage) is applied to the direct program amount. In instances 
where the appropriated amount available for contract support costs does 
not meet the overall contract support needs for the fiscal year, each 
contract support recipient shares in that shortfall on a pro-rated 
basis.
    Question 27. What government branch, if any, assists the Bureau in 
evaluating contract support costs?
    Answer. The Department of Interior's Office of the Inspector 
General independently negotiates the indirect costs rates which are 
used as the basis for estimating contract support requirements.
                   law enforcement in indian country
    The Administration has identified law enforcement in Indian Country 
as a top priority. Secretary Babbitt addressed the need in his remarks 
to this subcommittee several weeks ago. The Administration is proposing 
$182 million in new funding for several initiatives--most of it in the 
Department of Justice accounts. The Department of Justice has proposed 
$157 million for targeted law enforcement programs in Indian Country 
($105 million) and for Indian detention center construction ($52 
million).
    Funding in the BIA budget for general law enforcement initiatives 
for fiscal year 1999 is proposed at $116.9 million, including a $25 
million new initiative and $71.5 million in TPA.
    Attorney General Reno and Secretary Babbitt submitted the Final 
Report of the Executive Committee for Indian Country Law Enforcement 
Improvements to the President on January 20, 1998. In that report they 
recommended the removal of law enforcement funds from the TPA accounts 
and establishment of law enforcement as a distinct line item in the 
Interior budget. The President's budget was completed before the 
submission of the recommendations of the Attorney General and the 
Secretary, and so, could not reflect the recommendations of Attorney 
General Reno and Secretary Babbitt.
    Question 28. Does the Bureau support the recommendations regarding 
the removal of law enforcement funding from TPA and establishment of a 
protected line item in the Bureau budget?
    Answer. The intent behind the joint position of the Secretary of 
the Interior and the Attorney General as outlined in the January 20, 
1998, correspondence to the President was to ensure that funds 
specifically provided for the law enforcement line item were not 
redistributed to other competitive TPA programs during a given fiscal 
year. The Bureau supports this position. However, rather than transfer 
funds from the TPA Law Enforcement line item, the Bureau proposes to 
implement administrative controls on fund allocation by making the 
Office of Law Enforcement Services (OLES) responsible for the 
distribution of funds. In this regard, OLES, will have budgetary 
control of funds to ensure that law enforcement funding levels in 
fiscal year 1999 are only utilized for law enforcement needs and 
priorities. Tribes are supportive of this approach, which would 
preserve TPA funding and yet provide necessary line authority and 
budget control to OLES.
    Additionally, this procedure is also in line with Option A of the 
Final Report of the Executive Committee on the Presidential Initiative 
on Law Enforcement in Indian Country to consolidate the budgetary 
authority under OLES. Utilizing this administrative procedure--which is 
currently followed by the Bureau in the distribution of other TPA funds 
as Contract Support and Welfare--will accomplish the intent of the two 
Cabinet members to ensure that law enforcement funds remain allocated 
for law enforcement purposes as well as modifying the budgetary 
authority as proposed under Option A.
    Question 29. How does the Bureau intend to implement the 
recommendations that law enforcement funding be removed from TPA and 
consolidated in a separate line item?
    Answer. As stated previously, to ensure that TPA law enforcement 
funds are utilized for law enforcement purposes, the budgetary 
authority for distribution of these funds will be consolidated under 
the OLES as outlined in Option A of the Final Report of the Executive 
Committee on the Presidential Initiative on Law Enforcement in Indian 
Country. Many Tribes have expressed concern for any movement of funds 
out of TPA. We believe the Bureau will accomplish the goal of ensuring 
that law enforcement funds are utilized for law enforcement purposes 
through the aforementioned administrative control of fund allocation 
through the OLES. Distribution of TPA law enforcement funds will then 
be under the direction of experienced, professionally trained law 
enforcement personnel who can provide professional law enforcement 
assessments of relative needs and priorities. Therefore, this change in 
administrative procedure will accomplish the goal of ensuring that law 
enforcement funds are utilized for law enforcement needs and priorities 
as well as implementing the consolidation of budgetary authority as 
included under Option A.
    The Final Report from the Secretary and the Attorney General stated 
that ``mechanisms must be put into place to ensure that law enforcement 
funds are used only for law enforcement purposes.
    Subcommittee staff have informed me that the Office of Management 
and Budget have said that ``no TPA is protected.'' In other words, if 
law enforcement funds are provided in TPA, Congress cannot dictate that 
the Tribes actually use the funds for law enforcement. I understand 
also that Assistant Secretary for Policy, Management and Budget, John 
Berry, was asked about this and he agreed with the OMB.
    Question 30. What ``mechanism'' does the Bureau intend be employed 
to ensure that the law enforcement funds are used for law enforcement?
    Answer. The Bureau will implement administrative procedures to 
consolidate the budgetary authority under the OLES similar to the fund 
control procedures in place for distribution of other non-base TPA 
programs such as Contract Support and Welfare. The OLES will be 
responsible for distribution of all law enforcement funds appropriated 
to the Bureau of Indian Affairs.
    In addition to the TPA funding, the Bureau has requested $25 
million in the Special Programs and Pooled Overhead Activity for a new 
initiative on ``improving law enforcement in Indian Country.''
    Question 31. Does the Bureau support moving the TPA funding to the 
Special Programs account? Is this what Secretary Babbitt and Attorney 
General Reno had in mind in their recommendation?
    Answer. As stated previously, the intent behind the joint position 
of the Secretary of the Interior and the Attorney General as outlined 
in the January 20, 1998, correspondence to the President with regards 
to removing funds from TPA was to ensure that funds specifically 
provided for the law enforcement line item were not redistributed to 
other competitive TPA programs during a given fiscal year. The Bureau 
supports the position of ensuring that law enforcement funds provided 
under Tribal Priority Allocations (TPA) are utilized for law 
enforcement needs and priorities. It is felt this can be accomplished 
by implementing the consolidation of the budgetary authority of these 
funds under OLES as outlined in Option A along with administrative 
controls which restricts movement of these funds out of the TPA law 
enforcement line item. These controls will be similar to those 
currently in place for non-base TPA programs like Contract Support and 
Welfare. Additionally, in keeping in line with Option A, the Bureau is 
consolidating the remaining law enforcement funds currently at the Area 
\1\ and Central office \2\ levels to the Special Programs activity.
---------------------------------------------------------------------------
    \1\ Funds currently at the Area level in the budget category, Area 
Office Operations are as follows: Law Enforcement.
    \2\ Funds currently in other accounts than Special Programs at the 
Central Office level are as follows: Non-Recurring Operations: Special 
Law Enforcement and Central Office Operations: Law Enforcement.
---------------------------------------------------------------------------
    At the Indian Affairs Committee hearing on the fiscal year 1999 
budget, Assistant Secretary Gover stated: ``We haven't fully determined 
how we'd allocate the funds for law enforcement, but we suspect that it 
would not be unlike the way we're allocating the other funds in the 
Tribal Priority Allocations.''
    Question 32. In light of the Attorney General's and Secretary's 
recommendations, does the BIA now have a different plan for the 
intended use of BIA law enforcement funding it can share with the 
Committee?
    Answer. With attention currently focused on improving the 
distribution methodology of Federal monies to Indian Tribes, the BIA 
plans to distribute the $25.0 million request based on analysis of law 
enforcement and detention needs in Indian Country. Combined efforts by 
the BIA and the DOJ are underway to contact Tribes to obtain the latest 
data available to analyze and evaluate need, focusing in such areas as 
population, land base, crime statistics, training, manpower/staffing, 
and equipment. This data will allow the BIA to complete a professional 
law enforcement assessment of relative needs and priorities. The 
assessment will allow funding decisions to be made based on identified 
law enforcement and detention needs. The Initiative is a multi-fiscal 
year effort and, considering the extreme needs at some locations, 
priorities will be established.
    Question 33. Will Tribes in Alaska, which is a Public Law 280 
state, be able to take advantage of the Administration's focus on law 
enforcement for Natives?
    Answer. Alaska Native Tribes may apply for grants offered by the 
DOJ. Village public safety personnel are eligible for training programs 
offered through the Indian Police Academy. Currently, the Bureau does 
not provide any law enforcement services in Alaska. In fiscal year 
1999, the Bureau will address the severe shortages in Indian Country 
where there are tribal or Bureau law enforcement and detention programs 
and where there is clear tribal/Federal criminal jurisdiction. Many 
tribes in Public Law 280 or like jurisdictions have expressed their 
desire to have their own police, courts and jails. While we certainly 
agree that criminal justice systems are a part of tribal government, 
the reality is that public safety is extremely costly, particularly in 
280 jurisdictions which lack entire systems.
                         education construction
    The President's budget request includes $86.6 million in education 
construction, an increase of $32.2 million. Within that, the budget 
proposal includes $37.4 million for Replacement School Construction, an 
$18.2 million increase, and $46.2 million for Facilities Improvement 
and Repair, a $14 million program increase.
    Funds are requested for three Replacement Schools, Sac and Fox, 
Pyramid Lake, and Seba Dalkai.
    Question 34. The backlog for school repair and replacement work is 
$695 million. How long does the Bureau anticipate it will take to get 
through the backlog at the rate we're going?
    Answer. The Bureau's Facilities program backlog of repair and 
rehabilitation was $695 million at the beginning of 1998. However, 
``replacement'' of existing schools that have exceeded their original 
design life are not considered in the $695 million figure. Rather, the 
facilities backlog figure of $695 million is based on repair and 
rehabilitation of existing facilities to meet current health and safety 
related codes and standards such as fire, electrical, mechanical, etc. 
However, over 50 percent of the Bureau funded schools exceed 30 years 
in age, and a large percentage need to be replaced as a result of age 
and condition, but also because of increased student load and the fact 
that schools do not meet modern education needs. The Bureau estimates 
that it would cost, at a minimum, $1.0 billion to replace the Bureau 
schools that have exceeded their design life, and further, it would 
take an additional $200 million to bring the other schools up to 
present standards.
    Excluding replacement, it would take over 15 years to address the 
existing education backlog of $695 million at the proposed fiscal year 
1999 budget request level of $86.6 million. If replacement of all 
schools qualifying was considered, it would exceed 20 years. This 
estimate takes into consideration that additional backlog deficiencies 
will continue to be added to the backlog annually as new needs are 
identified and as current backlog items in the BIA's database for 
funded replacement schools are totally eliminated from the backlog once 
the replacement construction is completed.
    Question 35. How many schools are still on the Replacement School 
Construction Priority List?
    Answer. There are eight schools on the BIA's Replacement School 
Priority List which remain unfunded. Three of these eight schools, Sac 
& Fox, IA (No. 10), Pyramid Lake, NV (No. 11), and Seba Dalkai, AZ (No. 
9) are being requested in the Administration's fiscal year 1999 budget 
request.
    Question 36. Does the Bureau intend to get all the way through the 
priority list before publishing a subsequent list?
    Answer. The Bureau is reviewing a plan to recommend to Congress for 
new applications for replacement school construction in early fiscal 
year 1999. Newly prioritized schools under this application process 
will be added to the existing list of unfunded replacement schools. The 
Bureau plans on consulting with Tribes and school boards during the 
summer of 1998 regarding changes to the priority setting process with 
proposed rulemaking planned for the latter part of 1998. It is 
anticipated that approximately 10 schools will be added to the 
replacement school priority list.
    Last year, we added bill language permitting the Tribes to use 
Tribal Priority Allocations funds for the replacement and repair of 
school facilities so long as the work is approved by the Secretary and 
completed with non-Federal or TPA dollars so that the Federal 
government isn't later responsible for finishing something started with 
other, more plentiful, resources.
    Question 37. Do you know if any Tribes have taken advantage of that 
language, which the Bureau retained in its request for this year?
    Answer. FMCC conducted a poll of the Area Facilities Offices 
regarding any contribution made by Tribes of TPA funds toward a major 
facility replacement or repair project. No instance of TPA funds having 
been contributed was determined at either FMCC or the Area Office 
level.
    When Congress pays for a Replacement School, it is because the 
existing school has been used beyond its life expectancy? Usually, the 
school facility is in deplorable condition by the time funding is 
available. However, after the Replacement School is built, in many 
instances the Tribe wants to keep using the old building for other 
purposes.
    Question 38. In the instances where a Tribe chooses to keep an 
obsolete school building even after a replacement is built, is the 
Bureau still responsible for upkeep?
    Answer. In instances where a Tribe chooses to keep an obsolete 
school building after it has been replaced, the Bureau is not 
responsible for the building's upkeep (i.e., facilities operation and 
maintenance). Buildings declared ``excess to Bureau needs'' are either 
sold, demolished or transferred to tribal ownership on an ``as-is'' 
basis. When buildings are sold or transferred, the Bureau relinquishes 
its liability for the building.
    The budget request for Education Construction also includes $3 
million for Employee Housing Repair.
    Question 39. The budget justifications state that corrections are 
necessary for about 300 housing units. How many Bureau employee housing 
units are there, in total?
    Answer. There are a total of 4,031 Bureau housing units.
    Question 40. How many of the Bureau school employees are tribal 
members?
    Answer. The table below is an analysis of teaching professionals 
employed at Bureau schools.

            TEACHING PROFESSIONALS EMPLOYED AT BUREAU SCHOOLS
------------------------------------------------------------------------
                                 Non-                           Percent
                                Indian    Indians     Total     Indians
------------------------------------------------------------------------
Teachers (1710 series)......        767        935      1,702         55
Substitute teachers (1712
 series)....................         32         79        111         71
Teachers aides (1702 series)         36      1,332      1,368         97
                             -------------------------------------------
      Totals................        835      2,346      3,181         74
------------------------------------------------------------------------
The total number of Indians within the Bureau school system is 74
  percent, with non-Indians representing 26 percent as of June 9, 1998.

    Question 41. What percentage of Bureau employees live in local 
community housing?
    Answer. Of 10,000 Bureau employees, 2,700 live in Bureau employee 
housing units and 7,300 (or 73 percent) live in local community 
housing. Local community is defined as all locations where bureau 
Central, Area, Agency or School personnel reside, not limited to those 
communities where Bureau employee housing is available. Housing for the 
7,300 employees not in Bureau employee housing units is obtained and 
paid for by those employees. Bureau employees are defined as all 
education and non-education full time equivalent personnel. Not 
included are tribal contract, grant or compact personnel.
    We have required agencies to certify that there is no housing 
available in the local community before allowing the agencies to 
construct government housing.
    Question 42. Does the Bureau require any certification that there 
is not housing available in the local community before building or 
leasing housing?
    Answer. The Bureau requires an approved certification and 
justification prior to any new housing construction. The Bureau also 
complies with the requirement under OMB Circular A-45 for a housing 
needs assessment prior to any new construction. Because of the remote 
nature of many locations such as those in Arizona, New Mexico, Montana, 
North Dakota, and South Dakota, there is often little or no private 
housing available.
                 tribally controlled community colleges
    The President's budget request includes an increase of $5.5 million 
for Tribally Controlled Community Colleges operating grants, for a 
total of $35.4 million. This would represent an 18 percent increase.
    At the Indian Affairs Committee hearing on the BIA fiscal year 1999 
budget in February, Mr. Gover referred to the tribal colleges program 
as being one of the ``most effective programs that the Bureau funds''.
    Question 43. How does the Bureau measure the effectiveness of the 
tribal colleges program? Does it consider how many students graduate 
with marketable degrees? Placement rates?
    Answer. As part of the Bureau's strategic plan, performance 
indicators were established for Tribal Colleges. The indicators are 
student graduation and student enrollment rates. A measure of 
institutional effectiveness is the annual accreditation process each 
college must successfully complete and sustain. To be accredited, 
tribal colleges must meet general institutional standards established 
by the Commission on Institutions of the Northern Central Association 
of Colleges and Schools. These requirements include having: legal 
authorization to grant degrees, governing boards that possess legal 
powers to establish policies, qualified faculties appropriate to the 
level of instruction offered by the institution, a certified financial 
system and an audit every two years; and conferring degrees based on 
recognized fields of study at the higher education level. An accredited 
college must also disclose its standing with accredited bodies with 
which it is affiliated. An independent team appointed by the Commission 
reviews the school's programs and decides on a school's accreditation 
status. The Office of Indian Education Programs does not collect 
college graduate placement data.
    One of the Bureau's Performance Goals in ``Goals 2000'' is to 
increase student graduation rates from Tribally Controlled Community 
Colleges. For fiscal year 1998, the statistics show that there will be, 
roughly, 21,000 enrolled students. The Bureau expects to graduate a 
total of 932, according to the budget justifications.
    Question 44. Shouldn't about one-quarter of the student body be 
graduating in any given year? That would be over 5,000. Why are less 
than 5 percent graduating?
    Answer. In any given institution of higher education, less than 25 
percent of a given year's student body will be graduating. TCCC 
students have similar reasons for not graduating as students enrolled 
in comparable two-year institutions. Some of these reasons range from 
indecision on college majors, early employment opportunities, 
inadequate financial aid due to student enrollment classification of 
less than 12 credit hours per semester, or change of family 
responsibilities. Many TCCC students enroll in their tribal colleges 
for specific course work to enhance and improve their job skills and 
not necessarily desire to or obtain a college degree. TCCCs enrollments 
reflect a significant level of part-time enrolled students causing an 
extended graduation date other than an anticipated two-year academic 
plan.
    In past years, I have asked the BIA to comment on the standardized 
test taking (SAT, ACT) of Indian students at the high school level--
which BIA has called ``optional''.
    Question 45. Do the TCCCs require standardized test scores for 
admissions? How do the schools screen potential students? Are they 
graduating students who will succeed in America?
    Answer. Standardized test scores are not required of students 
enrolling in TCCCs. Most colleges have an open admission policy. This 
means that all persons who are graduates of accredited high schools or 
have received GED Certificates and are at least 18 years of age are 
eligible for admission. Students who have not attained a GED or high 
school diploma may seek provisional admission under the ability to 
benefit status. Since the goal is to prepare students for work or 
higher education, they are evaluated on their level of performance and 
then take classes to prepare them for their goal.
    Question 46. Are all the tribally controlled community colleges 
accredited by the States where they're located?
    Answer. Tribal colleges comply with strict standards of mainstream 
accreditation associations. The TCCCs are accredited by regional 
accrediting organizations such as the North Central Accreditation 
Association. Several colleges, including Turtle Mountain Community 
College and Fond du Lac Tribal and Community College, have reached the 
highest standards set by the accrediting agencies that enable them to 
be placed on a 10 year cycle for accreditation.
    Defenders of larger increases to funding to the Tribally Controlled 
Community Colleges bring up the comparison of $2,800 spent per tribal 
student compared to roughly $4,200 spent per student at non-tribal 
community colleges.
    Question 47. Is the comparison fair, when non-tribal community 
colleges collect the amount they spend on each student from, in 
addition to the state, the communities they serve and students who 
attend? About what percentage of tribally controlled community 
colleges' funds come from federal funding alone? How many tribally 
controlled community colleges have a tuition comparable to that of non-
tribal community colleges?
    Answer. The comparison of per student expenditures for tribal and 
non-tribal community colleges is complicated. While both types of 
schools compete for teachers and seek to provide quality programs, 
tribal colleges face many unique challenges, including being located in 
geographically isolated areas serving low-income communities.
    The intent of Public Law 95-471 was to provide base funding for 
tribal colleges. The colleges have always been allowed to seek 
additional funds for their operation. In fact, to stay competitive, 
tribal colleges charge tuition and seek other funds to provide quality 
education services and meet accreditation requirements. On average, 
when a TCCC charges tuition it is far below that charged by non-tribal 
community colleges. Also on average, approximately 50 percent of the 
operational funds for TCCCs are from the Federal government.
    Question 48. Tribes are permitted to allocate TPA dollars to the 
tribal colleges. If it's important to them, would you recommend that 
they do so? Hasn't the BIA told the Navajo to do just that for the 
Crownpoint Institute of Technology in New Mexico?
    Answer. In the spirit of tribal sovereignty and self-determination 
individual Tribes establish individual priorities for their own 
communities to distribute their TPA funds. Congress also provided 
Tribes complete reprogramming flexibility with revised reprogramming 
guidelines beginning in fiscal year 1993. If asked to make a 
recommendation, OIEP would encourage the expenditure of funds on 
education programs.
                    united tribes technical college
    At the Indian Affairs Committee hearing in February, 1998, Senator 
Conrad asked Mr. Gover about his commitment to the tribal community 
colleges program, which Conrad identified more specifically by noting 
that the BIA is requesting a $5.5 million increase for fiscal year 
1999.
    Mr. Gover responded not by talking about the tribally controlled 
community colleges for which the increase is requested but about the 
United Tribes Technical College, which does not meet the requirements 
for funding under title one of the TCCC Act. The Tribally Controlled 
Community Colleges Act limits funding under the BIA TCCC program to ONE 
school per Tribe. United Tribes Technical College is owned by five 
owner Tribes, each of which already has a funded Tribally Controlled 
Community College.
    Question 49. Would the Bureau please discuss the funding issue of 
the United Tribes Technical College relative to the Tribally Controlled 
Community College program? How much earmark funding has the UTTC 
received over the years? What is its BIA funding history?
    Answer. Unlike Tribally Controlled Community Colleges that are 
funded under the authorization of Titles I-IV of the Tribally 
Controlled Community College Assistance Act of 1978, UTTC is an 
independent vocational training institution funded by the Bureau under 
its Special Programs/Pooled Overhead activity. For the past twenty 
years, UTTC has received a total of approximately $31 million in Bureau 
appropriations. This equates to roughly $1.5 million annually, not 
including contract support funds.
    The United Tribes Technical College is in the fiscal year 1999 
budget request for $1,810,000. The UTTC program provides services 
beyond post-graduate education, including child care, a residential 
setting, and elementary education services to students' families. I'm 
not certain that's a proper use of funds.
    Question 50. Would the Bureau comment on the purpose of the funding 
for the United Tribes Technical College?
    Answer. Funding for UTTC supports a tribally-controlled residential 
vocational school which offers vocational education courses and 
training at the one-year certificate and two year technical degree 
level. UTTC is a state chartered, non-profit corporation owned by five 
tribes (The Three Affiliated Tribes of Fort Berthold, the Standing Rock 
Sioux Tribe, the Sisseton Wahpeton Sioux, the Spirit Lake Dakota 
Nation, and the Turtle Mountain Band of Chippewa) located in whole or 
in part within North Dakota. The corporation is administered by a Board 
of Directors composed of two members of each of these five Tribes. 
Located three miles south of Bismarck, North Dakota, the campus 
includes on-campus student housing for singles and families and on-
campus day care and elementary school (K-8) services for student 
dependents.
    My staff tell me that the funding request for the United Tribes 
Technical College was not part of the original Bureau request submitted 
to the OMB.
    Question 51. If the United Tribes Technical College is a good 
program, why doesn't the Bureau request funding for UTTC in its initial 
budgets submitted to OMB?
    Answer. The Bureau has supported the United Tribes Technical 
College for 20 years. UTTC has helped numerous adult Indians who reside 
on or near reservations to secure employment in economically depressed 
areas. The Bureau supports the President's fiscal year 1999 budget 
request which includes $1.81 million for UTTC.
    In a 1997 report to the Committee, GAO identified UTTC as one of 
only three programs it recommended for rescission of BIA funding. 
Committee staff further understand from talking to staff at BIA, OMB 
and GAO that UTTC doesn't graduate very many students.
    Question 52. What is the United Tribes Technical College's rate of 
graduation? What programs does it have? Is it a state accredited 
school?
    Answer. The United Tribes Technical College is accredited by the 
North Central Association of Colleges and Schools at the Certificate 
and/or Associate of Applied Science level. It offers eight certificate 
programs and eleven Associates of Applied Science Degrees. In fiscal 
year 1996 and 1997, the graduation rate at UTTC has been approximately 
46 percent based on 125 students who have completed their second and 
final year of training from enrollment of approximately 300 vocational 
students. It should be noted that many students have jobs and are 
enrolled part time, and thus require longer to graduate.
    Question 53. In the BIA's opinion, is this a successful program for 
which BIA funding should continue?
    Answer. As the President's fiscal year 1999 budget request 
indicates, the Bureau believes the United Tribes Technical College 
provides valuable services and recommends continued funding of UTTC in 
fiscal year 1999.
    Question 54. Does the Bureau now disagree with the GAO, where it 
agreed before? Why?
    Answer. The Bureau supports the President's fiscal year 1999 budget 
which provides $1.81 million for United Tribes Technical College. The 
Bureau fully supports the continuation of support for UTTC in fiscal 
year 1999. The Bureau would not support a change to the funding level 
requested in the President's fiscal year 1999 budget.
                   crownpoint institute of technology
    At least one other school, the Crownpoint Institute of Technology, 
in New Mexico, is essentially in the same position as UTTC--another 
tribal college already receives funding for the Tribe it serves, the 
Navajo Nation, so no TCCC funding is available. The Navajo and 
Crownpoint have been told by the Bureau that the Navajo can allocate 
TPA dollars to the school if that's a priority. Each year, for the last 
several, Senator Domenici has requested funding for the Crownpoint 
Institute. And each year, I've sent him away without funding because it 
has been the policy of the Bureau and of the Committee not to earmark 
but in extreme circumstances--like in the instance of rebuilding a 
school destroyed by fire or other disaster. Then I learn that, for 
years, we've been funding an earmark for a tribal college.
    Question 55. Why should one school be given an earmark and not the 
other one?
    Answer. The establishment of Special Programs for United Tribes 
Technical College, National Ironworkers Training Program and United 
Sioux Tribes Development Corporation under the Bureau's Community 
Development Subactivity was the result of Congressional action. Given 
current fiscal constraints, the Bureau cannot support the addition of 
funds for any program or project that would result in the reduction of 
funding for other programs or projects in the President's budget. We 
generally oppose tribal-specific earmarks as these are usually provided 
at the expense of programs that benefit all Tribes.
    Question 56. UTTC has five owner Tribes. Shouldn't they be given 
the responsibility, per the goals of self determination, of deciding to 
allocate TPA dollars to UTTC, if the Navajo have been told that for 
Crownpoint?
    Answer. The Bureau supports the President's fiscal year 1999 budget 
which provides $1.81 million for United Tribes Technical College. The 
Bureau would encourage the Tribes to dedicate funds from other sources 
to UTTC. The Bureau supports the United Tribes Technical College at a 
minimal level. Working in collaboration, the college and Tribes must 
secure significant additional funding to maintain quality education 
programs.
    Question 57. Why is the Bureau still requesting earmark funding for 
any program?
    Answer. The Bureau supports the program funding levels in the 
President's fiscal year 1999 budget request. Generally, the Bureau does 
prefer to fund programs that benefit all Tribes.
    According to the GAO, which identified UTTC for elimination of 
funding, UTTC's funding comes at the expense of funding for programs 
which would serve a wider population of Indians.
    Question 58. Also according to the GAO, the Bureau agreed with its 
comments in the report. Where's the disconnect? Does the Bureau now not 
agree with those comments?
    Answer. The Bureau supports the program funding levels in the 
President's fiscal year 1999 budget request. Generall, the Bureau does 
prefer to fund programs that benefit all Tribes.
                           other bia earmarks
    The BIA budget for the last few years has contained requests for 
funding for two other earmark programs, the United Sioux Tribe 
Development Corporation and the National Ironworkers Training Program. 
The United Sioux Development Corporation is a job placement program and 
the Ironworkers Program is a vocational education program. This year, 
the request includes a request of $524,000 for the Ironworkers Program 
but nothing for the tribe job placement program.
    The GAO report which identified United Tribes Technical College for 
elimination also identified the United Sioux Tribes Development 
Corporation and the National Ironworkers Training Program and stated 
that the BIA agreed with that assessment:
    ``These officials [at BIA] agreed with the proposed elimination of 
the National Ironworkers Training Program, United Sioux Tribes 
Development Corporation, and United Tribes Technical College, 
believing, in part, that it is much more effective to fund programs 
that benefit as many Tribes as possible rather than a limited number of 
the Indian population. They also noted that, where warranted, the funds 
should be provided to the Tribes.''
    Question 59. Do you agree with that evaluation now? If not, what 
has changed your mind? If so, why do these programs, with the exception 
of the Sioux Development Corporation, continue to appear in the budget 
request?
    Answer. Many of these programs have been a part of the Bureau's 
budget for over 20 years. The Congress has provided appropriations to 
the Bureau for these programs over time. The Bureau supports the 
funding requests in the President's fiscal year 1999 budget, and will 
continue to examine its funding needs and priorities.
    Question 60. Why have these programs been included in the requests 
from BIA in the past? Why did the Sioux Development Corporation 
suddenly lose favor? Are these programs that should receive earmarks?
    Answer. Due in part to strong support from Congress, many of these 
programs have been a part of the Bureau's budget for over 20 years. Due 
to the limited availability of funds and the Bureau's many critical 
responsibilities for fiscal year 1999, the President's fiscal year 1999 
budget does not include funding for the Sioux Development Corporation.
    In the Bureau's budget justifications, the United Sioux Tribes 
Development Corporation is described as a program that tribes can 
support by deciding to allocate their TPA ``Direct Employment program 
funds and other funding sources''. The Bureau request contains nothing 
for this program which received $108,000 for fiscal year 1998.
    Question 61. Can't the same thing--that Tribes can decide to 
support them with TPA and other funds--be said of the other earmarks--
UTTC and the Ironworkers Training Program?
    Answer. Tribes may choose to dedicate TPA funds toward UTTC and the 
Ironworkers Training Program.
                      indian arts and crafts board
    The Indian Arts and Crafts Board is in the Bureau budget with a 
request for $932,000, a $35,000 decrease--$50,000 program decrease 
offset partially by a $15,000 increase for fixed costs. One of the few 
programs in the Bureau budget for which a decrease is requested, the 
Indian Arts and Crafts Board was featured in a USA Today article on 
February 12, 1998.
    The article said that Assistant Secretary described the collection 
of over 23,000 pieces of pottery, sculpture, paintings, basketry and 
dolls as a ``national treasure''. Yet the article also said that 
thousands of the pieces of artwork are stored in the Department of the 
Interior headquarters--``stacked by water pipes, air ducts and 
electrical lines''--so close together they cannot even be moved to 
inventory them for fear of damaging them.
    Question 62. If these artifacts are so important to this Nation, 
and to the Department and the Bureau which hold them, why are they 
stored this way?
    Answer. Contrary to the February 12 USA TODAY article, these 
collections are not in danger. Approximately two-thirds of the Indian 
Arts and Crafts Board collections are located at the Board's three 
regional museums: the Southern Plains Indian Museum, Anadarko, 
Oklahoma; the Sioux Indian Museum, Rapid City, South Dakota; and the 
Museum of the Plains Indian, Browning, Montana. Approximately one-third 
of the Indian Arts and Crafts Board collections are located in the main 
Interior building. A portion, predominantly paintings, of the 
Washington, D.C., headquarters collection is currently stored in a 
secured and monitored area on the mechanical floor of the main Interior 
building. At the time this area was created as an annex for selected 
items from the headquarters collection. In the early 1970's, it was 
common practice for Interior offices to use the mechanical floor to 
house office equipment, supplies, furniture, and the like. When the 
space was created for the Board, it was furnished with what were then 
considered to be museum-quality painting racks, shelving, and cabinets. 
Over the years, the furnishings have remained functional.
    Over the last several years, recognizing the need for improved 
space and increased access of the collections, new storage space for 
the collection items has been one of the Board's priorities. In 1993, 
the Department began work on a comprehensive plan to renovate the main 
Interior building from 1996 through 2003. Early on, the Board worked 
with the renovation planners to develop appropriate space for the 
Board's headquarters collections, exhibition area, and staff offices. 
In the renovation plans, the Board was allocated ample and ideal space 
to increase visitor access, collection visibility, and promotional 
economic development opportunities for Indian artists and crafts 
producers. The new space was designed to meet the highest museum 
standards and plans were made to move the collections following 
completion of the renovated space.
    In mid-1996, due to federal budget cuts, plans for the Interior 
renovation project were put on hold indefinitely. Thereafter, the Board 
began exploring interim solutions for temporary storage space. The 
Board asked for additional space in the building, and explored the 
possibility of using private art storage companies. At that time, 
additional space was not available in the Interior building and 
estimates for rental of commercial storage space were not feasible 
within the Board's budget. Therefore, the Board renewed its request for 
alternative space within the Interior building to relocate the 
collections from the mechanical floor.
    With growing interest and support from the Department, which was 
advanced further by the formation and findings of a 1996 task force to 
study the Board's overall collections, the Board's latest request for 
additional space was approved. Steps are currently underway to move the 
collections on the mechanical floor to a superior location within the 
main Interior building where the collections can be properly stored, 
processed, and accessed. The new space is being prepared to receive the 
collections, which are expected to be relocated in July/August. The new 
space and furnishings will meet current museum standards and will 
provide greater visibility and access to these unique examples of 
American Indian and Alaska Native culture, heritage, and artistic 
vision. For the longer term, the Department has begun a dialogue with 
the Smithsonian Institution about display arrangements and the storage 
of this valuable art currently in the Interior building.
    Question 63. Why is the Bureau proposing a decrease to the Board's 
budget?
    Answer. This modest reduction reflects the tight budget environment 
for federal expenditure as well as the concomitant efforts by the Board 
to reduce reliance on federal funding through the Board's user fee 
program utilizing its museums and collections. Estimated revenue for 
the Board's recently instituted user fee program is approximately 
$50,000 for fiscal year 1999. It is anticipated that the revenues from 
private sources will continue to grow in the future as the Board 
expands its user fee program utilizing its museums and collections.
    Question 64. What exactly is the Board? Why isn't the collection 
housed by an appropriate museum?
    Answer. Although requests for the Indian Arts and Crafts Board's 
appropriations appear in the Bureau of Indian Affairs budgets, under 
the Operation of Indian Programs appropriation account, the Board is a 
separate agency under the Office of the Secretary. It was established 
in 1935 (Public Law 74-355) to promote the development of the creative 
work of American Indian and Alaska Native people to (1) improve the 
economic status of Native Americans, (2) ensure the continuing vitality 
of a valuable American heritage, (3) increase Native American 
participation and control in the growing Native American fine arts and 
handcrafts business; (4) enable Native Americans to realize their full 
potential for employment and income from the demand for their creative 
work, and (5) assist Native American cultural leaders who are 
developing an institutional framework to support the preservation and 
evolution of tribal cultural activities. The Board's activities are not 
duplicated in either the federal or private sector, and its policies 
are determined by its five commissioners, who serve without 
compensation.
    The Board administers the Indian Arts and Crafts Act of 1990 
(Public Law 101-644) that regulates the marketing of Indian arts and 
crafts to protect producers and consumers. Annual sales of Indian 
handcrafts and other artwork are over $1 billion.
    The Indian Arts and Crafts Board owns and uses for economic 
development, promotional, educational, and research purposes 
outstanding collections of contemporary and historic American Indian 
and Alaska Native art (23,000 objects) which represent over 50 percent 
of the artwork (painting, sculpture) administered by the Department of 
the Interior nationwide.
    Approximately two-thirds of these collections are located at the 
Board's three regional museums in Oklahoma, Montana, and South Dakota. 
These museums serve as key economic and cultural cornerstones for their 
communities and the surrounding areas, enjoy significant tribal 
support, and host 150,000 visitors annually. The remaining works are 
located in the headquarters collection, which serves as a resource for 
promotional museum exhibitions, other promotional presentations, and 
economic development activities.
    The museums and collections also play an important role in the 
Board's mission by fulfilling the express Congressional authorization 
for the Board to impose a range of user fees in Board museum and 
collection activities. These museums and collections, through admission 
fees, rental fees from Indian owned shops at the museums, and licensing 
the images of the collection objects, provide the main source of 
revenue for the Board to transition away from complete reliance on 
federal funding. Without these museums and collections, the Board would 
have no independent source of revenue.
    The primary purpose of the Board's headquarters collection is 
providing the public with ready access to a pool of objects from which 
promotional/educational exhibitions and economic development activities 
can be created.
    Some objects from the headquarters collection are exhibited in the 
Board's headquarters offices and in the Department of the Interior 
hallway exhibit cases on a rotating basis to impress upon official and 
public visitors the breadth, quality, and appeal of Native American 
creative work. To further increase public access to the Board's 
headquarters collections, three new mobile Indian Arts and Crafts Board 
exhibit cases, featuring a selection of headquarters collection 
masterpieces, have been placed in the main Interior lobby.
    In addition to the Board's own promotional activities, objects from 
the Board's collections are loaned through formal written agreements to 
established and accredited museum facilities for exhibition and 
educational purposes. For example, work from the headquarters 
collection is currently included in two traveling exhibitions--Memory 
and Imagination: The Legacy of Maidu Indian Artist Frank Day, which 
premiered at The Oakland Museum in Oakland, California, and Pottery by 
American Indian Women: The Legacy of Generations, which premiered at 
the National Museum of Women in the Arts in Washington, D.C.
    The article suggested that the artwork ought to be transferred to 
the Smithsonian. The article also suggested that Interior wants to keep 
the art--as a sort of ``turf war''.
    Question 65. What's BIA's response?
    Answer. The Department of the Interior recently re-affirmed the 
central role of the Board's museums and collections with respect to the 
Board's mission. In support of one of the Department's core missions, 
its commitment ``* * * to carry out trust responsibilities of the U.S. 
Government with respect to American Indians and Alaska Natives * * *'', 
and in acknowledgment of the U.S. Government's obligations under the 
Native American Graves Protection and Repatriation Act (Public Law 101-
601), the Department re-examined the role of the Board's collections in 
1996. At the request of the then-Assistant Secretary--Policy, 
Management, and Budget, a task force was assembled to recommend actions 
for the long-term preservation and protection of the Board's 
collections.
    Following careful and extensive study, analysis, site visits, and 
discussions with the Tribes and surrounding communities, the task 
force, which included a representative from the Smithisonian Institute, 
recommended that Interior retain ownership of the Board's collections, 
that the Board's three museums remain in their respective communities, 
and that access and use of the Board's collections be increased. The 
Board supports these recommendations and has undertaken the task of 
increasing access and use of its collections. Currently, the 
Commissioners are exploring preliminary opportunities to partner with 
other institutions to expand access to the collections for promotional, 
economic development, and educational purposes.
    Despite the suggestion contained in the February 12, 1998, USA 
TODAY article, the Department of the Interior is not engaged in a 
``turf war'' with the Smithsonian. In fact, the Board considers the 
Smithsonian to be a respected partner in the field of Indian art and 
cultural preservation.
    Question 66. Two years ago, the House recommended elimination of 
funding for the Board. The Senate put funding back in. What are we 
accomplishing by continuing to fund it?
    Answer. Within its limited budget of $967,000, the Board has 
continued to achieve significant accomplishments.
    Among the key reasons to continue funding the Board are: 
enforcement of a federal law--the Indian Arts and Crafts Act (Public 
Law 101-644); operation of three museums that serve as major economic, 
cultural, and educational attractions in their regions; stewardship of 
23,000 historic and contemporary American Indian and Alaska Native art 
and craft work; compliance with the Native American Graves Protection 
and Repatriation Act (Public Law 101-601); the U.S. Government's 
commitments to Indian Tribes; related cultural heritage preservation, 
cultural patrimony, education, and other intellectual property 
purposes; and promotion of tribal economic development and self-
reliance.
    In the past two fiscal years, the Board's work included completing 
the final regulations for the Indian Arts and Crafts Act (Public Law 
101-644); initiating a user fee program to help offset budget 
reductions and reduce reliance on federal appropriations; updating the 
widely distributed ``Source Directory'' of Indian owned and operated 
arts and crafts businesses; promoting over 160 artists and craftspeople 
through individual, group, and special museum exhibitions; promoting 
approximately 300 Indian art businesses; and promptly and thoroughly 
responding to all complaints of misrepresentation. Other activities 
included moving the Sioux Indian Museum and collections into new and 
expanded facilities provided by the City of Rapid City, South Dakota. 
These new facilities represent a model private-local-state-federal 
partnership. During this time, the Board's accomplishments also 
included making artwork available for nearly 300,000 visitors who have 
visited the Board's museums; providing loans of its artwork collection 
to major touring museum exhibitions; providing collection images to 
authors and publishers; assisting in the establishment and development 
of Indian art and craft businesses; serving as an information 
clearinghouse and liaison between Indian artists and artisans and 
businesses looking for work to purchase; and providing a wide range of 
advice to Indian museums, cultural centers, heritage preservation 
organizations, and related projects seeking to establish or expand 
their programs.
    The Board will continue to develop and expand these and other 
economic development activities, with a strong commitment to build up 
an aggressive Indian Arts and Crafts Act enforcement program. The 
Congress charged the Board with the responsibility to enforce this 
truth-in-advertising law, which helps protect American Indian and 
Alaska Native artists and artisans from unfair competition from 
counterfeits. Under the Act, the Board may receive complaints of 
misrepresentation of art and craft work in the marketplace. The Act 
provides both civil and criminal provisions and combats consumer fraud 
that unfairly reduces income of Native Americans in competition with 
cheap imitations. This misrepresentation of Indian art and craft work 
can also seriously erode consumer confidence in Indian arts and crafts 
products and can have wide-reaching negative economic effects. There is 
no other effective enforcement mechanism to ensure such truth-in-
advertising and the Act's enforcement activities cannot be conducted by 
non-federal entities.
    Under the Act, the Board may also register, without charge, 
trademarks of genuiness and quality on behalf of Indian Tribes, arts 
and crafts organizations, and individuals. This important trademark 
provision is intended to build market visibility and promote genuine 
Indian handcrafts. It is also intended to ensure that Indians receive a 
greater share of the industry profits and to preserve the integrity and 
marketability of authentic Indian arts and crafts products. Through 
these and future programs, the Board protects Indian artists and 
artisans, businesses, and Tribes, as well as consumers, and encourages 
the move by the Tribes and their members toward economic self-reliance.
    Question 67. This Committee is struggling to find funding for 
programs that have marginal success but plenty of potential. Why 
shouldn't we cut the $932,000 for this program, which seems to be a 
dismal failure, and transfer the artwork to an existing museum?
    Answer. We are confident that greater knowledge about the Board, 
its accomplishments, and its role in promoting economic development in 
Indian Country would lead the committee to reject the notion that the 
Indian Arts and Crafts Board is a ``dismal failure''. Its activities 
fully justify the $932,000 proposed in the President's fiscal year 1999 
budget. The Board is the only federal program that is concerned with 
increasing the economic benefits of American Indian and Alaska Native 
creative work in the $1 billion arts and crafts industry. Many 
producers participate while residing on their reservations; however, 
American Indians and Alaska Natives control only a limited portion of 
the marketing of their art and craft work. The Board engages in a 
variety of promotional efforts to change that. For example, the Board's 
``Source Directory'' publication is the primary means of establishing 
direct contact between consumers and Indian producers.
    In addition to terminating the Board's current activities and 
future agency economic development plans for American Indians and 
Alaska Natives, elimination of the Board's budget would create a 
significant hardship for Indian arts and crafts producers and 
businesses and would be a considerable setback for consumers. It would 
also undermine the Indian Arts and Crafts Act and essentially eliminate 
the trademark provision of the Act. Implementation of the Act is an 
inherently governmental function, and this law will not be enforced in 
any meaningful way if the Board is abolished. The Board's regional 
museums and collections will be in jeopardy, and damage to the existing 
relationship(s) between the U.S. Government and Tribes could result. 
The Department would continue to have fiduciary responsibilities for 
the care and preservation of the Board's collections.
    Two years ago when the Board's funding was in question, the Board 
estimated that the cost of closing the agency would be $3.5 million, 
and would require two years to complete. The majority of this cost is 
for the specialized services required to pack the valuable collections 
at their current locations and move them to a suitable repository, 
while maintaining adequate accountability throughout the process. There 
presently is no other suitable facility to display these works and 
hence they would have to be stored indefinitely.
    Continued federal funding of the Board in fiscal year 1999 is very 
important to the Department of the Interior in order to protect the 
considerable national assets administered by the Board, to permit the 
Board to implement the Indian Arts and Crafts Act (Public Law 101-644), 
to fulfill the Department's commitments to Indian Tribes, and to 
continue to assist Native Americans in the move toward economic self-
reliance through the marketing of their work in the lucrative American 
Indian and Alaska Native arts and crafts market.
                       family violence prevention
    The budget request for fiscal year 1999 contains $5,000,000 for 
Child Protection and Family Violence Prevention.
    Question 68. Does the Bureau intend that some of the $5,000,000 be 
used to address the growing problem of teen suicide in Indian Country 
and in Alaska Native villages?
    Answer. Under 25 CFR 63.35, Tribes have the ability to establish 
family violence prevention and treatment programs and some Tribes may 
implement treatment programs specifically designed to address possible 
teen suicide risks. However, part 63 gives Tribes considerable choice 
in terms of the focus of their family violence prevention program so it 
is premature to predict how they might structure their programs. The 
needs of the tribal members and the availability of mental health 
services would affect how Tribes design these programs.
    Bureau programs are not the same as the programs offered by the 
Indian Health Service (IHS). Bureau programs are directed at the 
prevention of child abuse and family violence, while the IHS programs 
address the treatment of child abuse and family violence. Funding is 
available in the IHS budget to support treatment activities. Currently 
there is no funding to support the Bureau prevention programs that 
Tribes could initiate. The $5,000,000 requested in the Budget is 
intended to allow Tribes to begin developing and operating Child Abuse 
and Family Violence Prevention programs.
    I believe that the Indian Health Service is the more appropriate 
agency to be providing family mental health counseling.
    Question 69. Would the Bureau support the Indian Health Service 
getting whatever funding was available for those services?
    Answer. The Bureau continues to support the request of $5,000,000 
for Child Protection and Family Violence Prevention for the Bureau for 
which programs are separate and apart from the Indian Health Service 
request for mental health counseling services. The $5,000,000 is not 
intended for mental health counseling services which is the specific 
responsibility of the Indian Health Service. Under 25 CFR 63.35, Tribes 
may use the funds to operate a variety of programs which can include 
child protection and family violence prevention programs, development 
of methodologies for multi-disciplinary investigations, development of 
tribal codes and regulations for child protection and family violence, 
and design and implementation of training programs for prevention of 
child abuse and family violence.
    This Committee has not been able to provide funds for the Family 
Violence Prevention line item in the TPA activity in the past. Given 
the budget constraints, it is highly unlikely that we will provide 
funding for any new items this year, without some offsetting cut to 
another program in the Indian programs.
    Question 70. Does the Bureau have a suggestion for an offsetting 
program cut?
    Answer. With the need so great in Indian Country due to such 
factors as high unemployment rates, alcoholism, and the lowest life 
expectancy of any other category of Americans, it is difficult to 
propose an offset for any one program which benefits Native Americans. 
The need is so great in Indian Country that programs are so 
intermingled and dependent on one another, that ``robbing Peter to pay 
Paul'' would not benefit the Indian community in the long run as the 
net effect would be zero.
                indian land consolidation pilot project
    The Bureau has requested $10 million to fund a new initiative, the 
Indian Land Consolidation Pilot Project. In your prepared remarks, you 
outlined the problem of fractional interests in land and the emphasis 
of this land acquisition program to consolidate ownership of Indian 
lands. You did not, however, detail what the $10 million is for or how 
much, in total, the Administration intends to spend on this program.
    Question 71. Could you tell the Committee how much this is going to 
cost--in total?
    Answer. It is currently estimated that it would cost a total of 
$300 million to acquire all fractional interests which represent less 
than 2 percent interest in an allotment. However, an integral component 
of the proposed program is recoupment of the purchase price through 
placement of an encumbrance on the interest. Ultimately, the net cost 
to the government will be much lower. ``Real'' costs would include: 
theoretical interest costs, shortfalls attributable to overestimates of 
fair market value, and costs related to acquisition of lands with 
administrative costs which exceed their value. Acquisition of these 
interests is also expected to provide savings in the costs to 
administer Indian lands.
    Question 72. The Administration sent up authorizing legislation 
last year, which was introduced in the House as H.R. 2743, on October 
24, 1997. Have any hearings been held? A markup?
    Answer. No hearings or markups have been held on H.R. 2743. 
However, enactment of the Department's legislative proposal is not 
required to implement the pilot program in the fiscal year 1999 Budget 
request.
    Question 73. Do you think this legislation will be enacted this 
Congress, which has about four months of legislative activity left?
    Answer. Both the leadership of the House Resources Committee and 
the Senate Indian Affairs Committee have expressed interest in 
addressing this longstanding problem. The Department believes that the 
likelihood of enactment of the legislative proposal would be greatly 
increased if funds were provided for the pilot proposed in the fiscal 
year 1999 Budget request. Because the Department's legislative proposal 
only includes an authorization for appropriations, Tribes may be 
skeptical that funding would ever be appropriated for this program. In 
addition to the acquisition program, the legislative proposal includes 
important inheritance limitations that will help curb further 
fractionation of Indian lands. The inheritance limitations are somewhat 
controversial, and without funding for the acquisition program, may not 
have adequate support from Tribes and their members.
    Question 74. Is the expenditure of $10 million on Indian land 
consolidation authorized, absent enactment of the Indian Land 
Consolidation legislation that is in the House?
    Answer. Appropriations language in the fiscal year 1999 Budget is 
sufficient to authorize the pilot program. Without this appropriations 
language, the Department has an annual cap of $2 million for general 
Indian land acquisition under 25 U.S.C. sec. 465, however, additional 
authority may be available under tribal-specific statutes. The 
Department does not have any current authority to recoup the purchase 
price as provided for in the proposed appropriations language, nor to 
perform reservation-wide appraisals.
    Question 75. What activities does the Bureau intend to undertake 
with $10 million this year?
    Answer. The requested funding will primarily fund the acquisition 
price and related land acquisition costs of purchased lands. Requested 
funding is estimated to be sufficient to execute a substantial program 
on one or more reservations to effect a measurable reduction in the 
costs of administering these Indian lands and their related trust fund 
accounts. A Departmental task force is preparing for implementation of 
the pilot.
    The task force has developed pilot selection criteria, and has 
solicited and received nominations from Bureau Area Office Directors 
for pilot sites. Site selection is scheduled for early June, 1998. 
Pilot selection criteria include: Tribal interest/willingness to 
participate in pilot; significant level of highly fractionated land 
ownership interests; a location where the trust resources do not have a 
great deal of development; a location with up-to-date land records 
information; consent of any allottee association; and capability to 
make a substantial reduction in the number of highly fractionated 
interests at the requested funding level of $10 million. Proposed sites 
do not have to meet all selection criteria.
                          tribal water rights
    The budget request contains $5 million for a water rights 
settlement with the Chippewa Cree Tribe of the Rocky Boys Reservation 
in Montana. The authorizing legislation for that settlement has not 
been passed by Congress.
    Question 76. What is the status of the legislation?
    Answer. Authorizing legislation for the Rocky Boys settlement, the 
first Congressionally-authorized settlement in several years, was 
introduced in both the House (H.R. 3658) and the Senate (S. 1899) on 
April 1, 1998. The members of the Montana Congressional delegation are 
working with the respective committees in an effort to arrange a joint 
Senate-House hearing on the identical bills. A hearing before the 
Senate Committee on Indian Affairs is scheduled for June 24, 1998.
    Question 77. The Committee does not usually fund settlements for 
which there is no authorization. Can the first appropriation wait until 
there is authorization?
    Answer. If implementation of the Rocky Boys settlement is not 
initiated in fiscal year 1999, the momentum that has been generated in 
support of this legislation may be lost. Providing the funding needed 
for this settlement in fiscal year 1999 will signal the United States' 
commitment to meaningful protection of the Tribe's water rights in 
particular and of Indian water rights in general.
    Question 78. Does the proposed settlement legislation contain 
penalty provisions, as some settlements have, which will result in 
higher appropriations needs if Congress does not appropriate funds for 
fiscal year 1999?
    Answer. The only penalty in the settlement is a provision that if 
the Congress does not provide required settlement funds, the Tribal 
waiver and release of breach of trust and other claims against the 
United States will not be effective.
    The Bureau has requested a $3 million increase to the $500,000 
probate backlog reduction program.
    Question 79. Would you explain that in greater detail?
    Answer. The regulations contained in Title 43, Code of Federal 
Regulations, Part 4 (25 U.S.C. 372) mandates that the Bureau provide 
family heirship data to the Administrative Law Judge (ALJ), Office of 
Hearings and Appeals, within 90 days from the date an individual's 
death has been reported. Further, the Court cases of Dull Knife v. 
Morton, U.S.D.C., South Dakota, 394 F. Supp. 1299 (1976) and Lee v. 
Andrus, U.S.D.C., New Mexico, Civil No. 81-052-C (1981) directs the 
Department to probate Indian trust estates in conformity with existing 
law and regulations in order to avoid probate backlogs.
    In fiscal year 1992, funds were appropriated to eliminate a pre-
1991 backlog of approximately 4,600 estates that had not been submitted 
to the ALJ for probate. Significant strides were made in reduction of 
the backlog until 1996. The Bureau was on the average reducing the 
backlog by approximately 700 estates annually. However, Congressional 
budget reductions for fiscal year 1996 (loss of funding and staffing) 
and the elimination of some field ALJ offices resulted in a setback in 
the elimination of the pre-1991 backlog. While the Bureau was 
concentrating its efforts on eliminating the pre-1991 backlog, a new 
backlog was growing and is referred to as the post 1991 backlog of 
estates needing to be submitted to the ALJ for probate.
    In February, 1998, the Bureau gathered data by name of the deceased 
Indians who owned an interest in trust or restricted land and whose 
estate had not been submitted for probate to the ALJ in accordance with 
the regulations contained in Title 43 of the Code of Federal 
Regulations. The data revealed that there were 7,772 estates that were 
pending submission to the ALJ for probate. This figure includes 
approximately 1,600 pre-1991 estates and approximately 6,100 post 1991 
estates. The Bureau is confident that the number of estates identified 
will increase. The reason is that during the process of probating the 
identified estates there will be subsequent deaths (death of heirs 
within an estate being prepared) identified due to the age of some of 
the estates that have not been probated. The Bureau estimates that the 
subsequent deaths will be 20 percent of the identified estate cases, or 
approximately 1,600 additional estates. Therefore, the grand total for 
estates that need preparation of family histories and property 
inventories for submission to the ALJ for probate is approximately 
9,300 estates.
    It is estimated that it requires an average of 40 hours for one 
person to research and prepare one non-complex estate for submission to 
the ALJ for probate at a cost of approximately $1,000. The average cost 
can increase to as much as $1,500 to $2,000 per estate depending upon 
the complexity and age of the estate. This does not include those costs 
associated with obtaining the property inventories which are obtained 
from BIA's Land Titles and Records Office or appraisals that are 
required in some states when the value of the estate exceeds a 
specified dollar threshold. Since the Federal Government does not have 
an inheritance code, state inheritance laws are utilized for the 
probating of Indian trust estates.
    The additional $3 million will be used to address the backlog, both 
the remaining pre-1991 backlog as well as the post-1991 backlog. 
Initial emphasis to eliminate the backlog will focus on the remaining 
pre-1991 estates because these are the oldest cases. Due to the age of 
the estates, these estates will be more difficult to obtain the 
required family history data needed to submit to the ALJ and the 
associated costs to complete the data gathering will be greater for 
each probate. It is anticipated that the pre-1991 backlog could be 
eliminated with the additional $3 million.
    According to the 1996 preliminary figures obtained from the 
National Center for Health Statistics, the national death rate is 448 
per 100,000 persons. Considering that, the Bureau can expect that on 
the average there will be approximately 1,483 new deaths per year of 
individuals owning trust or restricted land or trust income. However, 
we believe that the death rate among American Indians would be slightly 
higher than the national death rate because of environmental and health 
conditions associated with American Indians. Also, it should be pointed 
out that on the average, there are seven heirs to each estate. This 
means that we can roughly expect an additional 7,000 new persons to 
inherit an interest in trust or restricted land during 1998. As the 
number of owners of trust or restricted land increases, there will be a 
continual growth in the number of estates that will need to be 
probated. This increase will only further complicate the ownership of 
trust or restricted land. The fractionated ownership is already 
overtaxing the ability of the Federal Government to properly manage the 
trust resources, maintain ownership in the land titles and records 
systems and timely distribute trust funds. These new heirs create the 
need for the establishment and maintenance of additional records 
(ownership and Individual Indian Monies (IIM) accounts) as well as 
making completion of trust resource transactions more difficult to 
complete because of the need to acquire consent from all of the heirs 
to the trust/restricted land under consideration for a transaction.
    The costs identified only relate to those dealing with the 
preparation of documentation for submission of the estates to the ALJ. 
Not included are costs associated with posting of Bureau records after 
issuance of the Orders Determining Heirs or Devisees by the ALJs. Such 
records include, but are not limited to, changing land ownership 
records in the Bureau's Land Records Information System (LRIS) as well 
as Bureau agency office land records, i.e., changing payment records 
for leases, lease records, notification to lessees, preparation of 
documents to close estate accounts and distributing the estate's funds 
to the heirs or devisees, etc.
    Failure to obtain additional funding to address the estate backlog 
that has been identified as well as assuring that sufficient funding is 
provided to assure that new deaths are timely submitted for probate 
will result in the continual growth and existence of an estate backlog. 
Further, it is important to point out that eliminating and maintaining 
the probating of Indian estates in a timely manner only treats one of 
the symptoms of the problem. The only way to assure elimination and 
non-recurrence is to address the cause--fractionated ownership. The 
Department has proposed legislation to address the problem, and a 
request for a pilot program is included in the Bureau's fiscal year 
1999 budget request. This legislation proposes to correct and reverse 
the trend of fractional ownership of Indian owned trust and restricted 
lands.
    The Bureau is requesting significant new funding for two programs 
that were not funded in fiscal year 1998, $3 million for Environmental 
Cleanup and $5 million for Water Quality Management Planning.
    Question 80. If the Committee is able to provide only flat funding, 
are either of these a priority over existing programs?
    Answer. Assistant Secretary Gover testified before the House 
Interior Appropriations Subcommittee in late March. In his testimony he 
recognized the difficult budget climate we face when the Congress and 
the President have really accomplished something very significant in 
the form of a balanced budget. While the Bureau's fiscal year 1999 
budget request includes increases over the fiscal year 1998 enacted 
level, it only begins to reflect the needs in Indian communities. 
American Indians are younger, have greater poverty levels, higher 
unemployment, a greater number of single parent families, and they die 
younger than the U.S. population at large.
    The budget request is a delicate balance. It recognizes the climate 
of limited budgetary resources, focussing limited budget increases on 
critical programs. The Bureau has failed over many years to comply with 
Federal environmental laws. We now have a number of serious situations 
on the reservations and while we are not aware of any that are 
immediately life-threatening, there is no question that we have failed 
over the years to deal with environmental issues, especially involving 
underground storage tanks and landfills. In the 1970s and 1980s, we did 
not do a very good job of identifying the scope of needs that we had, 
and we have just begun a process with EPA to identify the entire range 
of environmental compliance issues, to prioritize them and then come up 
with a plan to present both to EPA and to the Committee for how we are 
going to attack this problem. EPA has begun and will continue to fine 
the Bureau for noncompliance with environmental laws. The budget 
request for these programs is extremely modest if compared to the known 
need on reservations. The funds would be used to address this serious 
situation in a more orderly fashion rather than trying to stay ahead of 
EPA fines, as well as to find the resources within existing, ongoing 
programs to pay these fines year after year.
                         endangered species act
    In fiscal year 1998, the Committee expressed its strong views on 
the manner in which the secretarial order issued by the Department of 
the Interior and the Department of Commerce regarding the 
administration of Endangered Species Act [ESA] in relation to Indian 
tribal lands purported to change the administration of the ESA in ways 
flatly inconsistent with the statute. The Committee further stated its 
expectation that the Department would adhere to the ESA as written.
    On page 154 of the Bureau of Indian Affairs' fiscal year 1999 
Budget Justifications and Annual Performance Plan, the Department 
proposes a $1 million increase in Endangered Species funding to be used 
for the ``satisfactory implementation'' of this very secretarial order.
    Question 81. As the Committee's direction on the Department's 
administration of ESA on tribal lands was clear and firm, please 
explain the justification with which this funding request is made. 
Furthermore, please detail any steps or actions the Department, alone 
or in conjunction with the Department of Commerce, has taken pursuant 
to this secretarial order, and with what justification such actions 
were made in light of the Committee's clear direction on this matter.
    Answer. The budget request of $1 million will not be used 
exclusively for implementation of the Secretarial Order; only 3 
percent, or $33,000, is anticipated to be needed to implement the 
order. The request includes funding for such things as compliance with 
the ESA, habitat surveys and inventories, support for the development 
of Integrated Resource Management Plans for tribal trust resources, and 
training for Bureau and tribal personnel. Thus, implementation of the 
Order is a small part of the requested increase.
    The Department believes that the requested increase for 
implementation of the Secretarial Order is a legitimate and worthwhile 
use of funds for several reasons and strongly disagrees with the 
Committee's assessment. The Department believes that the Secretarial 
Order appropriately implements the Endangered Species Act (ESA) 
consistent with the statute.
    The Department strongly believes the recent Secretarial Order 
simply recognizes the trust responsibilities and treaty obligations of 
the United States toward Indian Tribes and tribal members. The Order 
does not circumvent the requirements of the ESA in favor of Indian 
Tribes and does not give preferential treatment for Indian activities 
over those of private landowners.
    In the past, actions have been initiated and decisions made that 
were viewed as disproportionately burdensome to Tribes, in violation of 
treaty and trust obligations, and not in the spirit of government-to-
government communication. The Secretarial Order was created to rectify 
this while also complying with the ESA.
    The success of the Secretarial Order depends on a clear 
understanding of the Order by both the Tribes and the federal employees 
who deal with Tribes while implementing the ESA. Because much of the 
ESA compliance must be carried out by the Bureau of Indian Affairs on 
behalf of the Tribes, it is important that Bureau employees become 
familiar with the Order. The requested funding would provide training 
to Bureau employees and tribal representatives on carrying out the 
Secretarial Order and implementation of the ESA.
    To date, the Department of Interior has hosted three forums on 
implementation of the Secretarial Order. These forums were held in 
Phoenix, AZ, Albuquerque, NM, and Portland, OR. The Portland session 
was co-sponsored with the Department of Commerce. The audience included 
federal employees and tribal members. The intent of these sessions was 
to familiarize federal employees and tribal members with the contents 
of the Order and begin discussion of the most effective ways to 
implement the Order.
                 unresolved hunting and fishing rights
    On page 151 of the Bureau of Indian Affairs' fiscal year 1999 
Budget Justifications and Annual Performance Plan, the Department 
states that $320,000 of the $372,000 of the funding for Unresolved 
Hunting and Fishing Rights program will be used by Boldt Tribes for 
shellfish issues.
    Question 82. Please provide the Committee with the specific 
activities to which the Boldt Tribes dedicated these funds in fiscal 
year 1998, as well as the activities to which the fiscal year 1999 will 
be dedicated.
    Answer. Meetings with the Tribes on how to spend the $320,000 in 
fiscal year 1998 have recently been concluded. The Tribes have decided 
to allocate $270,000 for shellfish work as follows:
  --The Lummi Tribe will produce and provide nursery for clam and 
        oyster larvae to seed size for distribution to various western 
        Washington Tribes;
  --The Port Gamble, Lower Elwha, Jamestown and Skokomish Tribes will 
        conduct surveys and collect biological data to determine 
        distribution and stocking density of various shellfish species;
  --The Quileute Tribe will conduct monitoring work with the Washington 
        Department of Health to determine if shellfish is safe for 
        consumption; and
  --The Squaxin Island and Suquamish Tribes will conduct marine 
        surveys, collecting data necessary to comply with the court's 
        implementation order;
    The Tribes further requested that the remaining $50,000 in 
fiscal year 1998 be allocated in support of a newly established 
tribal hunting committee created for the purpose of developing 
an Intertribal Wildlife Coordination Program to better 
coordinate hunting issues with the Washington Department of 
Fish and Wildlife as a follow-up to the August 1997 ruling in 
Washington versus Buchanan.
    Expenditures for fiscal year 1999 will be determined in 
tribal meetings scheduled for next year.
                                ------                                


                 Question Submitted by Senator Cochran

    Question. Recognizing that the waiting list for school 
construction is very long, and in the interest of finding ways 
to move schools off the list by accomplishing the needed 
construction, I suggested last year that BIA look into 
developing a pilot project that would allow Tribes to match 
funds for this purpose. Please provide a status on that 
project, and particularly the prospect for implementation.
    Answer. In mid-April 1998, the Navajo Nation President and 
tribal representatives from the Crow Creek and Mississippi 
Choctaw Tribes met with key staff from the Bureau's Office of 
Indian Education Programs and Facilities Management and 
Construction Center. The purpose of this meeting was to begin 
preliminary discussions regarding tribal/BIA funding 
partnerships for replacement school construction and to discuss 
potential revisions to the priority setting process for 
replacement school construction which will take into 
consideration the funding partnership concept. The Bureau 
intends to consult with Tribes and school boards during the 
summer of 1998 regarding the revisions and the funding 
partnership concept. The Bureau will consider implementation of 
a pilot project or projects to test the validity of the 
concept.
                                ------                                


                Questions Submitted by Senator Domenici

Indian water rights funding
    Several New Mexico Indian Pueblos are very upset about the lack of 
funding in the Albuquerque Area Office for water rights negotiations.
    What bothers me about this situation is the fact that I am hearing 
about funds going to Minnesota and Montana while Arizona and New Mexico 
Tribes--where the vast majority of pending cases are--see declining 
resources while the national total goes up.
    The Zuni, Acoma, Laguna, and Taos Pueblos have made strong appeals 
to me to try and secure water rights funding for their on-going water 
negotiations.
    The first problem in tracking this funding is that the money comes 
from two sources in non-recurring funds at the BIA. The first source is 
Water Rights Negotiation/Litigation, which has an Administration 
request for an increase of $3.5 million over 1998 or a new total of 
$14.5 million. The second source is Water Management, Planning, and 
Pre-Development, level funded by the Administration at about $8 
million.
    From both sources, New Mexico Tribes received $3.48 million in 
1996; $2.87 million in 1997; and $2.38 million in 1998--clearly a 
steady decline while demand for these funds is on the increase due to 
active negotiations in the Rio San Jose, the Rio Grande, the Little 
Colorado, and other water basins around New Mexico.
    Despite the supposed high priority for active negotiations in both 
sources, New Mexico definitely is being short-changed for reasons that 
I simply do not understand. I have no quarrel with the formal BIA 
priorities, but I do have a quarrel with the application of these 
priorities in New Mexico.
    Question 1. Please explain these disparities to me, but, more 
important, please help me to see that the BIA follows its own 
guidelines in distributing this vital water resource funding in the 
Southwest, and especially in New Mexico.
    Answer. The Water Rights Negotiation/Litigation Program is a 
critical component of the Bureau's efforts to carry out the United 
States' responsibility to protect, defend, and manage American Indian 
reserved water rights and other related issues in accordance with the 
highest fiduciary standards. Reductions in funding over the past 
several years have seriously affected the Bureau's ability to fund, or 
fully fund, many requests. Thus it is becoming increasingly difficult 
for the Bureau to meet its trust responsibilities. The $3.5 million 
increase requested would restore funding for the Water Rights 
Negotiation/Litigation Program to the fiscal year 1995 level.
    When funding requests are received for both federal and tribal 
activities, they are evaluated using established national ranking 
criteria to address the highest priority of both litigation and 
negotiation needs. For fiscal year 1998, an evaluation panel of Bureau 
area office program personnel was established. The panel was comprised 
of representatives from Area Offices with some of the most active water 
rights issues, including the Albuquerque and Phoenix Area Offices. This 
panel worked diligently to review all funding requests and to apply the 
established criteria for ranking each request.
    For fiscal years 1996, 1997, and 1998, the Albuquerque and Phoenix 
Area Offices have consistently received 60 percent of the water 
resources funds available while overall program funding levels have 
decreased. In fiscal years 1997 and 1998, the Minneapolis Area Office 
did not receive Water Rights Negotiation/Litigation funding and their 
fiscal year 1998 funding from the Water Resources Management, Planning 
and Development Program was reduced by almost 50 percent from fiscal 
year 1997. The Billings Area Office has not received funding in excess 
of the Albuquerque or Phoenix Area Offices since fiscal year 1996.
    The Bureau will continue every effort to ensure that the funds 
available are distributed to address the higher priorities and provide 
adequate funding for worthy projects in support of Indian water 
resource activities.
                   new mexico indian school requests
Navajo preparatory school (BIA contract school)
    Navajo Prep is requesting $1.4 million for replacement of utility 
infrastructure. This request includes costs for sewer, water, 
electricity, storm drainage, natural gas, and communications needs.
    Navajo Prep is located in Farmington, NM, serves 190 students, and 
is eligible for BIA Facilities Repair and Improvement (FI&R) funds. 
They are seeking funds to build a new campus to serve 300 students.
    Answer. The Bureau requested $37.4 million in the fiscal year 1999 
President's Budget for Seba Dalkai Boarding School, Sac and Fox School, 
and Pyramid Lake High School which are ranked Nos. 9, 10, and 11 on the 
Bureau's replacement school construction priority list. If requested 
funds are provided, construction of these schools would start in the 
early spring of CY 1999 and be completed in the fall of CY 2000. The 
fiscal year 1999 budget request does not include any funds for the 
Navajo Preparatory School. The replacement school construction needs 
have been determined through a nationwide priority setting process 
directed by the Congress. The Bureau will continue to utilize the list 
until the last school is funded for construction.
Canoncito community school (BIA school)
    This Pre-K-12 school was designed for 225 students. Current 
enrollment is 471 students. To alleviate overcrowding, they are seeking 
funds for six portable classrooms at about $210,000. They would also 
like to see a new school on this site. Their current basic structure 
was built in 1935.
    Answer. On March 31, 1998, the Bureau called for new applications 
for portable classrooms which are planned for funding in fiscal year 
2000, 2001 and 2002. The applications are due on June 1, 1998. An 
application package for portable classrooms has been sent to the 
Canoncito Community School, as well as all other eligible Bureau funded 
schools, for their use in applying for any additional justifiable 
portable classrooms. Bureau staff have discussed this need for 
additional classrooms with school board representatives and is aware of 
the overcrowded conditions. If the Canoncito School board applies for 
portable classrooms, the Bureau will consider the application based on 
the established needs-based criteria provided to all schools and will 
rate and rank the application accordingly. If the application is ranked 
high relative to other applications, the BIA will consider funding the 
need in future budget requests.
    With regard to the school's desire for a new school, the Bureau's 
current plan includes a call for new applications for replacement 
school construction in early CY 1999. Newly prioritized schools under 
this application process will be added to the existing list of unfunded 
replacement schools. The Bureau plans on consulting with Tribes and 
school boards during the summer of CY 1998 regarding changes to the 
priority setting process, with proposed rulemaking planned for the 
latter part of CY 1998. Approximately 10 schools will be added to the 
existing replacement school priority list.
Isleta Elementary School (BIA School)
    This K-6 school was built in 1930. There are thirteen (13) portable 
classrooms on site. There are 236 students and 17 staff members. 62 
students are taught in the main building with the remaining 174 
students in portable classrooms. The main building is an old adobe 
building with few of today's classroom necessities. The auditorium is 
too small to be used for physical education, there is no storage space 
in its three classrooms, windows do not open, and the roof continues to 
leak.
    Answer. The fiscal year 1999 budget request includes $3.2 million 
for Portable Classrooms. The Bureau will continue to repair education 
buildings as funding is appropriated. The existing health and safety 
criteria-based ranking system will be used to determine project 
ranking.
Mariano Lake Community School (BIA School on Navajo Nation)
    This school is in transition from a BIA operated school to a BIA 
contract school. Their FI&R needs exceed $390,000 including the 
replacement of two 1,000 gallon propane tanks that are not in 
compliance with codes. They need three three-bedroom staff quarters for 
an additional $195,000, and their top priority is a 10,880 square foot 
gymnasium.
    Current enrollment is 281 with 64 boarding students. This school 
serves the Crownpoint area.
    Answer. This school is not on the Bureau's Replacement School 
Construction priority list established in 1993. The Bureau will 
continue down the list until the last school is funded for 
construction. To fund this request would circumvent the priority 
setting process and longstanding policy of using the existing 
replacement school priority list approved and frozen by Congress.
    The fiscal year 1999 budget request for Education Facilities 
Improvement and Repair is $46.2 million. The Bureau uses the automated 
priority ranking method to establish the list from which to determine 
what projects can be funded for FI&R work. This school is not on the 
Facilities Improvement and Repair list. The Bureau determines critical 
life safety issues and addresses them as a first priority. The 
planning, design, and construction activities are established through 
the facilities improvement and repair (FI&R) nationwide priority 
setting process. The Bureau is encouraged by recent Presidential 
initiatives to increase funding for the Nation's school infrastructure 
including increases in Bureau school construction funding levels. The 
Bureau is aware that the condition of many of the existing schools 
remains poor, however, the Bureau continues to work with respective 
Tribes and school boards to identify any immediate dangerous safety and 
health conditions which are eligible to be corrected with Minor 
Improvement and Repair or Emergency funds.
Shiprock Alternative Schools (BIA Schools)
    This school has 182 high school students; 200 elementary students; 
a special education program for 20 students; and a residential facility 
with 85 students. At-risk youth who are having social or academic 
problems in conventional settings make up the student body.
    This school is number 12 on the national replacement school 
priority list. Planning is complete and design is funded. Most 
buildings are over 50 years old.
    Answer. This project is currently ranked number 12 on the Bureau's 
replacement school construction priority list. The planning phase of 
the project is complete and the School Board, using a Public Law 100-
297 grant, is scheduled to start the design phase of the project in the 
summer of 1998. The Bureau anticipates requesting funds for 
construction of this project in the fiscal year 2000 budget request.
The Mescalero Apache K-12 School
    In 1954, the Mescalero Elementary was built with BIA funds. It 
became a BIA funded public school through the Tularosa Public School 
system. This K-6 elementary school was destroyed by arson in 1990. The 
Tularosa school system collected the insurance, and the BIA helped with 
temporary facilities.
    Question 2. The Mescalero Apache Tribe is now seeking funds for the 
construction of a new K-12 school to serve the entire reservation. I 
understand that the BIA is again responsible for the school, and I am 
very interested in verifying its status as a BIA school, and the 
possibility of its becoming a priority for BIA replacement and new 
construction funds.
    The destruction by fire is normally a cause of high priority 
consideration by the BIA, and I do not yet understand why the Mescalero 
Apache school has not been made a priority in the BIA school 
construction program?
    Answer. The Mescalero Tribe leased land for a nominal fee ($1.00) 
to the State of Mexico for a 25-year period. The local school district 
then located, constructed (in 1958), and operated a public K-6 grade 
elementary school on the reservation land. The annual lease 
subsequently expired with no new lease agreement being reached. A 
chronology of events on this school follows:
    February 18, 1990.--The Mescalero Public School burned down (K-6).
    February 19, 1990.--Mescalero Apache Tribe passed Resolution No. 
90-5 in support of the Tularosa Public School Board of Education and 
requested portable classrooms from BIA and the State.
    May 20, 1990.--Albuquerque Area Education Administration notified 
the Tribe that no funds are available from the Office of Indian 
Education Programs (OIEP) for the emergency.
    August 6, 1990.--The Office of Construction Management (OCM) met 
with tribal Representatives and agreed to have a Technical Team 
determine suitability of a tribal community center for conducting 
classes in school year 1990-91. The Tularosa School District had used 
the community center part of school year 1989-90. The building was 
found to be seriously deficient for use as a school. The Facilities 
Management and Construction Center (FMCC) looked at options to upgrade 
tribal buildings or acquire portable classrooms.
    August 6, 1990.--The Mescalero Apache Tribe passed Resolution No. 
90-28, indicating that the Tribe and school district have failed to 
reach an agreement on location and operation of a public school (school 
district proposed to build a new school located off tribal lands, which 
would require student busing). Also, the school would include other 
public students. The Tribe requested BIA to assume operation 
responsibility for a proposed tribal school in 1990-91.
    August 15, 1990.--Plans for a steel building to be purchased and 
erected by the Mescalero Apache Tribe were transmitted to FMCC for 
review.
    August 16, 1990.--A meeting was held regarding the school between 
the Secretary of Interior, Manuel Lujan; the Assistant Secretary for 
Indian Affairs, Eddie Brown; and the President of the Mescalero Apache 
Tribe, Wendell Chino. The Department/BIA position held was that the 
Bureau would not support taking over the education program from the 
Mescalero Tularosa School District until an agreement was reached to 
operate an accredited public school.
    August 22, 1990.--Letter sent to the Assistant Secretary for Indian 
Affairs from the Albuquerque Area Director requesting $387,000 to 
renovate tribal building for classrooms (building purchased by Tribe).
    August 24, 1990.--Letter sent from the Assistant Secretary for 
Indian Affairs to the President of the Tribe specifying conditions for 
granting assistance to tribal school. The Tribe was independently 
obtaining facilities and hiring teachers for school year 1990-91.
    October 9, 1990.--The Mescalero Apache Tribe submitted interim 
application for Tribally Controlled Grant School (Public Law 100-297).
    April 4, 1991.--Letter sent from the Assistant Secretary for 
Policy, Management and Budget to the Appropriations Committees bringing 
the committees up to date on the status of the school. No agreement was 
reached between the Tribe and the public school district, and the Tribe 
obtained and erected a building for 250 students.
    April 11, 1991.--OIEP approves the Mescalero School to become a 
Bureau-funded school, effective July 1, 1991. Safety deficiencies are 
required to be corrected at the school before occupation.
    November 25, 1991.--The Mescalero Apache Tribe submitted an 
application for new school construction.
    January 6, 1993.--Federal Register Notice for ``Education 
Facilities Construction Priority List of fiscal year 1993'' was 
published. Mescalero's application for fiscal year 1993 was considered, 
however, because the school when destroyed by fire was not a Bureau 
owned or operated facility, the application did not receive a high 
ranking on the priority system. The application was competed and 
evaluated along with 66 other requests. Only the top five schools were 
added to the 1992-93 list which contained 16 schools in total.
    The Bureau Education and Facilities programs provide funding for 
the annual operation of the Mescalero Tribal School. The Bureau 
recognizes the needs of the Mescalero School and other schools in 
Indian Country. However, the fiscal year 1992-993 Education Facilities 
Construction Priority list of 16 schools was frozen by the Congress in 
fiscal year 1993. Through fiscal year 1998, the Bureau has received 
funding for the first eight schools on that list. In fiscal year 1999, 
funding for three additional schools is requested which will leave five 
schools remaining. With our fiscal year 1999 projected annual rate of 
appropriations, we anticipate completing the list of 16 prioritized 
schools in the year 2001 or 2002. The Bureau is concerned about 
Mescalero and other schools where students are faced with being 
educated in classrooms that do not meet code requirements or modern 
standards. The Facilities Management and Construction Center and the 
Office of Indian Education Programs, at the direction of the Assistant 
Secretary for Indian Affairs, are currently reviewing completion of the 
replacement school projects and looking at a new replacement school 
application process. Depending on appropriation levels, the Bureau is 
anticipating being able to solicit replacement school applications when 
the new process is established in 1999. This will provide Mescalero 
with the opportunity to compete for a replacement school in a national 
prioritized ranking process.
Crownpoint Institute of Technology
    BIA operating funds of $1.8 million plus contract support costs of 
$400,000 are needed to stabilize the operating funds for CIT. Sixty-one 
percent of CIT graduates have jobs in the private sector. It is the 
only vocational education school on the Navajo Nation and enrolls 426 
students.
Acoma-Laguna-Canoncito High School
    We have been asked for a special appropriation of $14 million for 
this new high school. Indian school repair, renovation and 
replacement--a crisis in three R's in Indian country S. Con. Res. 86 
concurrent resolution on the budget
    Answer. This project is not currently on the Bureau's replacement 
school priority list. The fiscal year 1998 Interior Appropriation Bill 
language prohibits the Bureau from expanding grades for any school or 
dormitory beyond the grade structure in place or approved by the 
Secretary of the Interior at each school in the Bureau school systems 
as of October 1, 1995. The Acoma-Laguna-Canoncito High School is not 
presently in the Bureau school system.
Overall assessment of Indian school physical conditions
    Today there is a $1.5 billion backlog of repairs, renovation, and 
replacement for all federally owned and operated BIA schools, including 
elementary, secondary, and post-secondary schools.
    A December, 1997 report by the General Accounting Office (GAO) 
concluded that ``the cost of the total inventory of repairs needed for 
BIA education facilities (elementary and secondary only) is $754 
million. This includes $693 million for repairs to school buildings, 
including dormitories for students. It also includes $61.7 million in 
repairs needed for education quarters such as employee housing.
    The footnote to this estimate notes that $754 million ``does not 
include the costs of replacing school buildings. BIA's priority list 
for constructing education facilities includes eight unfunded school 
replacement projects with a total estimated cost of $112 million.''
The BIA construction priority list
    Mr. President, we in the Senate who pay close attention to this BIA 
priority list for school construction are well aware that this list has 
been frozen for several years now. This means that the eight school 
scheduled for replacement are the ones on this frozen priority list. I 
am attaching this list of 16 total BIA schools from the 
Administration's fiscal year 1999 budget request for the Record. 
Obviously, a school that is replaced would be deleted from the list of 
school needing repair. The GAO report includes the costs of schools 
scheduled for replacement. In short, the GAO estimate does not fully 
estimate the costs of replacement schools.
    To get a rough idea of the costs of replacing these schools, 
including those that are not on the frozen priority list, I have 
checked with the Assistant Secretary for Indian Affairs, Kevin Gover. 
His office informs me that 50 percent of the 185 BIA schools are over 
30 years old and fail to meet current codes and standards.
    The GAO, has noted that 25 percent of BIA schools are over 50 years 
old, and, of course fail to meet the same standards for safety and 
teaching.
Total BIA schools needing replacement and repair
    There are 93 BIA schools that should be replaced--well beyond the 
current priority list of 16. At an average cost of $180 per square 
foot, these 93 schools would cost one billion dollars to replace.
    Replacing these 93 oldest BIA schools would leave about $200 
million in repair and renovation costs for the remaining 92 BIA 
schools.
    This simple arithmetic gives us a current estimate of about $1.2 
billion to bring all federally operated BIA schools up to par.
Indian community colleges
    These Indian community colleges fall into two categories: those run 
by the BIA and those that are tribally controlled community colleges.
    In the first category, those run by the BIA, Haskell (Kansas) and 
SIPI (Albuquerque) are the only two that are fully federally operated 
by the BIA. The BIA now has 26 tribally controlled community colleges 
eligible to receive funds through the Tribally Controlled Community 
Colleges Act, and one more, United Tribes Technical College, funded 
through the BIA's Community Development funds.
    In total, then, there are 29 Indian Community Colleges with direct 
BIA funding, and one, Crownpoint Institute of Technology, that is 
funded primarily through the Carl Perkins Vocational Education program 
of the U. S. Department of Education.
    These Indian community colleges have an estimated repair and 
renovation cost of about $310 million. Replacement costs, such as the 
Shiprock branch of Navajo Community College, are not included. The 
Shiprock branch is estimating the costs for a new campus at about $28 
million. The need for married student housing at Crownpoint Institute 
of Technology is also not included.
Total BIA schools and Indian community colleges
    For the sake of simplicity, we can easily estimate that total 
repair, renovation, and replacement costs for all elementary, 
secondary, and post-secondary BIA schools and tribal schools eligible 
for BIA funds, exceed $1.5 billion.

                       gao report on bia schools

    For the benefit of my colleagues, I would like to submit an 
edited version of the GAO study on Indian school repair needs. 
Please keep in mind that this report is focused on elementary 
and secondary schools only.
    The GAO finds that 47,200 Indian students are served by 173 
schools. The BIA count is 185 schools and over 50,000 students. 
The BIA schools range in size from 15 to 1,144 students, with 
about half of these schools enrolling fewer than 200 pupils.
    Growth is very high in these schools with an increase in 
student enrollment of 25 percent since 1987. Most of this 
growth has occurred in the last 5 years.
    About 10 percent of all Indian students attend BIA schools, 
funded or operated by the BIA. The vast majority or 90 percent 
of Indian students in America attend regular public schools.
    BIA schools are located in 23 states, but are highly 
concentrated in 5 states--North Dakota, South Dakota, Arizona, 
New Mexico, and Washington.
    BIA schools are generally in poorer physical condition that 
even central city schools and lack more key facility 
requirements than typical American schools.
    The BIA schools are older and less able to support computer 
and communications technology than average American schools.
    Conclusion (S. Res. 100 on Education of American Indians) 
In addition to the physical needs of our federally operated 
Indian schools and colleges, there is a parallel crisis in 
operating funds for Indian schools nationwide.
    American Indian students have the highest dropout rate of 
any racial ethnic group (36 percent) and the lowest high school 
completion and college attendance rates of any minority group.
    Average annual funding for Indian college students is 
$2,900 compared to $6,200 for Americans as a whole.
    Senate Resolution 100, introduced in the First Session of 
this Congress which I introduced with the cosponsorship of 
Senators Campbell, Inouye, Johnson, Dorgan, and Wellstone, 
discusses the overall situation of Indian education and calls 
upon the 105th Congress to address these issues through major 
education bills under consideration.
    I urge my colleagues to review Senate Resolution 100, and 
support its passage by this body in order to draw more needed 
attention to the major problems we face today in Indian 
education.
    I ask unanimous consent that S. Res. 100 be made a part of 
the Record, along with the BIA school construction priority 
list, and my summary of the GAO report on Indian school 
repairs.
                                ------                                


                  Questions Submitted by Senator Burns

    Question 1. What can we, as Congress, do to ensure that 
funding uses are being reported correctly by the BIA and the 
Tribes themselves?
    Answer. The Bureau has its finances audited annually by the 
Department of the Interior Office of Inspector General (IG). 
Tribes that receive more than $300,000 annually in Federal 
funds are required under the Single Audit Act to have an 
independent audit that is reviewed by the Inspector General. 
All of these audits are currently required because of laws that 
Congress enacted to safeguard federal appropriations. In 
addition, the Bureau adheres to the guidelines for 
reprogramming imposed by the Appropriation Committees and 
reports to Congress both on the reprogramming of funds managed 
by the Bureau (quarterly) and reprogramming of tribal funds 
from Tribal Priority Allocations (semi-annually) in accordance 
with those guidelines. It is the position of the Bureau that 
these laws are adequate to ensure that funds are being 
correctly reported.
    The Bureau has received qualified options from the IG for 
the last two years. The qualifications are not related to the 
execution and reporting of appropriated dollars. The 
qualifications are primarily related to collection and 
accounting for revenues and debts owed to the Bureau and 
accurate accounting and depreciation of property.
    On the tribal side, most Single Audit Act audits are found 
to be acceptable and accurate. The primary issues on tribal 
audits relate to timeliness of filing and the needs for 
improvements in accounting systems as tribes take on additional 
programs and add tribal business operations. When abnormalities 
in fund management are discovered, the Tribes are directly to 
correct the problems.
    Question 2. How do you plan to decrease unemployment and 
increase economic growth by increasing funding to the Tribes?
    Answer. While the Bureau's fiscal year 1999 budget request 
includes increases over the fiscal year 1998 enacted level, it 
only begins to reflect the needs in Indian communities. It 
remains true that American Indians are younger, have greater 
poverty levels, higher unemployment, a greater number of single 
parent families, and they die younger than the U.S. population 
at large. Unhappily, these trends are actually deteriorating at 
this time. The budget request is a delicate balance. It 
attempts to address only a small portion of need Tribes have to 
bring programs for Indian communities anywhere near neighboring 
non-Indian communities. Tribes want to decrease unemployment 
and desperately desire opportunities for economic growth so 
that they can even consider becoming less dependent on the 
federal government for resources, as much as the Bureau does.
    The Bureau's appropriations included resources for several 
programs directly related to economic development, including a 
Direct Loan program, a Guaranteed Loan program, an Indian 
Business Development Grant program, a Community and Economic 
Development Grant program, and Technical Assistance to Indian 
(business) enterprises. Budget reductions over the last several 
years have eliminated all but the guaranteed loan program, even 
while Tribes have voiced needs in this area and the Bureau has 
requested and justified funding. In the guaranteed loan 
program, the fiscal year 1998 appropriation of $4.5 million 
will subsidize $34.6 in guarantee loan commitments. The fiscal 
year 1999 proposed appropriation of $4.5 million will subsidize 
up to $59.7 million in guarantee loan commitments, an increase 
of over 70 percent.
    The only thing that will help Tribes attempt to resolve the 
problems of unemployment and lack of economic development is 
devoting more resources to close the gap between the well-being 
of non-Indian and Indian communities.
    Question 3. What exactly does the BIA see as its long term 
goal to be achieved by the year 2000?
    Answer. The Bureau has a number of long term goals 
identified in its Government Performance and Results Act 
Strategic Plan. These goals range from emphasis on improving 
and increasing Indian Self-Determination to increasing the 
efficiency of administrative support services within the Bureau 
and to the Tribes. One goal is ``to provide quality 
investigative and police services and technical expertise to 
Indian Tribes.'' This goal is receiving the greatest emphasis 
in the fiscal year 2000 President's budget request. The goal is 
supported by the multi-year Presidential Initiative on Law 
Enforcement in Indian Country which includes joint funding 
requests in fiscal year 1999 for the Department of the 
Interior's Bureau of Indian Affairs and the Department of 
Justice. The combined funding will make significant progress 
toward resolving the crime problems in Indian Country in its 
first year (of the four year Initiative) by improving the 
delivery of law enforcement services through increased law 
enforcement personnel available ``on the street'' and 
additional training being provided to Tribal and Bureau law 
enforcement personnel.
    Question 4. What short term fixes do you think need to be 
done this year in order to move us toward this long term goal?
    Answer. With regard to the Bureau's strategic goal on law 
enforcement the most immediate need is to put additional 
trained, uniformed officers in Indian Country and eliminate 
dual roles of personnel at detention centers whose daily job 
requirements currently range from jailer, dispatcher, to cook. 
This goal can be achieved by supporting the funding increase 
proposed for law enforcement in the President's budget request 
so that additional personnel may be hired and additional 
training courses may be provided to ensure quality service.
                                ------                                


                 Questions Submitted by Senator Dorgan

    Question 1. On March 31 of this year, you had a meeting 
with USDA officials and representatives of the Three Affiliated 
Tribes concerning the Tribes' request to have Farm Service 
Agency farm loans transferred from the U.S. Department of 
Agriculture to the Department of Interior as authorized by 
section 638 of the 1996 farm law. Such an action would protect 
the trust status of these lands. What decision has been made 
regarding this inter-agency transfer request? If no decision 
has been reached, when can such a decision be expected? If the 
request of the Three Affiliated Tribes is being turned down, 
please explain your reasoning for this decision.
    Answer. The decision is under review but is not final. The 
process of transferring these debts is being studied and a 
draft transfer agreement is being prepared. We expect to reach 
a decision by September 30, 1998.
    Question 2. Therapeutic Model Schools, such as the Circle 
of Nations School in North Dakota, were established to serve 
children having a wide range of needs not able to be met in a 
traditional school setting. Therefore, these institutions 
require specialized personnel and other resources to created 
comprehensive programs to meet a wide variety of needs from 
counseling to substance abuse to learning disabilities. Would 
you support special appropriations to these designated 
institutions to evaluate students and develop and deliver 
services which recognize the special needs of their students?
    Answer. To date, the Bureau has provided a total of 
$767,600 additional dollars to the Circle of Nations School in 
an effort to implement the therapeutic model, beginning in 
School Year 1993-94. As a result of our efforts, earlier 
problems with the school administration and the implementation 
of a specific therapeutic model have been resolved and the 
overall educational program at the school improved 
considerably.
    In addition, we have requested $550,000 in fiscal year 1999 
for the training of residential and instructional staff in all 
Bureau-funded schools. Approximately half of that amount will 
be spent specifically for training of the dormitory and 
boarding school staff who spend the greatest amount of time 
with the residential students. Building on our experience at 
Circle of Nations School and hearing directly from other on-and 
off-reservation schools and dormitories, the Bureau recognized 
the need for intense training in counseling techniques and 
other skills for all residential staff, including those at 
Circle of Nations School.
    Question 3. I am also concerned that formulas for 
allocating special education funding under the Individuals with 
Disabilities Education Act may not recognize the particular 
scope of services provided by therapeutic model schools. Can 
you assure me that the Department will look into this matter 
and report back to me with regard to its options under this 
program?
    Answer. The formulas for allocating special education 
funding under the Individuals with Disabilities Education Act 
have been sent to Tribes, tribal organizations, school boards 
and parents for comment in the Tribal Consultation Booklet. The 
Consultation meetings were held between April 22, 1998 and May 
14, 1998. All comments and options are now being reviewed 
before any decision on a formula is made final. A report will 
be submitted outlining special education funding allocation 
options.
    Question 4. As you know, for the last two months my office 
has been involved with the Department and numerous other 
federal agencies in trying to reach a solution to the problems 
of PCB contaminated schools on the Standing Rock Reservation. 
What actions are you taking to identify other schools and 
facilities under your control in North Dakota which may be 
similarly contaminated?
    Answer. The Bureau became aware of PCB contamination at 
Standing Rock in early February, 1998. Soon thereafter, the 
Aberdeen Area Director sent a letter educating all the Agency 
Superintendents and Education Line Officers in the Area, 
including North Dakota, about the issue of PCB light ballasts, 
and directing them to conduct PCB ballast inventories. Fort 
Totten Agency has reported that they do not have PCB-containing 
light ballasts. The other Agencies in North Dakota (Fort 
Berthold and Turtle Mountain), and elsewhere in the Aberdeen 
Area, are currently compiling their PCB inventories.
    The Aberdeen Area is treating all reports of leaking PCB 
ballasts as emergency abatements, even if PCBs have not leaked 
into the occupied space of the buildings. Non-leaking ballasts 
are being scheduled to be retrofitted under the Bureau's Minor 
Improvement and Repair program.
    In North Dakota, the Bureau has been participating in the 
PCB remediation at Ft. Yates on the Standing Rock Reservation. 
At this time all that remains to be completed at that project 
is the installation of new ceiling tiles and carpet in the 
administration building and elementary school and carpet in the 
high school library. Ceiling tile installation began in the 
administration building on May 11, 1998. The carpet for the 
elementary school and high school is on site. Despite extensive 
post-remediation PCB sampling conducted by the Bureau's 
contractor, the Tribal school board has indicated that it would 
like to perform additional PCB testing in the elementary 
school. The installation of the carpet must wait until that 
testing program is complete. The Bureau has also obtained 
quotes for replacing light ballasts that may contain PCBs in 
schools that are on the Standing Rock Reservation but are not 
in Ft. Yates.
    In addition to these efforts in North Dakota and the 
Aberdeen Area, the Bureau is also developing a nationwide PCB 
inventory and phase-out program. All Areas are being instructed 
to determine the date of manufacture of light ballasts (most 
manufactured prior to 1978 contain PCBs) and their condition in 
all Bureau buildings, including schools and recreation 
buildings. Once this inventory is complete, the Bureau will 
develop a long range plan and budget proposal to phase out all 
PCB light ballasts. In addition, all Bureau facilities will be 
examined for PCB and other environmental contamination as part 
of the Bureau's environmental auditing program.
    A formal report was submitted to the Committee on the PCB 
issue, action taken and future plans for testing other school 
facilities.
    Question 5. The Spirit Lake Nation, the Turtle Mountain 
Band of Chippewa, and the Three-Affiliated Tribes at Fort 
Berthold are all party to an agreement with the U.S. Department 
of Agriculture for a Rural Area Economic Partnership (REAP) 
pilot program which is designed to mitigate the negative 
effects of out-migration and lack of employment opportunities 
and job losses in rural communities. President Clinton, in 
making a commitment to the REAP program, indicated his intent 
that an interagency working group be committed to addressing 
the issue of revitalizing rural communities. How is BIA 
participating in the REAP pilot program?
    Answer. The Bureau is not yet involved in this effort. We 
are aware that Fort Berthold is in the Southwest REAP Zone and 
that Spirit Lake and Turtle Mountain are in the CONAC REAP 
Zone.
    Question 6. If BIA is not yet involved, tell me how the 
agency will work with the Tribes mentioned here, and the USDA, 
to provide technical and financial assistance devoted to 
success of the REAP program in Indian country?
    Answer. Upon requests from the Tribes, the Bureau will 
provide technical assistance to the extent we are capable and 
will provide financial assistance if available.

                          subcommittee recess

    Senator Gorton. Thank you all very much. The subcommittee 
will stand in recess until 10:30 a.m., Thursday, April 23, when 
we will receive testimony from the Forest Service.
    [Whereupon, at 12:04 p.m., Tuesday, April 21, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Thursday, April 23.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

                              ----------                              


                        THURSDAY, APRIL 23, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:40 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Cochran, Domenici, Burns, 
Bennett, Gregg, Campbell, Byrd, and Bumpers.
    Also present: Senator Craig.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENTS OF:
        JAMES R. LYONS, UNDER SECRETARY, NATURAL RESOURCES AND 
            ENVIRONMENT
        MIKE DOMBECK, CHIEF
ACCOMPANIED BY:
        RANDLE PHILLIPS, BUDGET COORDINATOR
        DR. ROBERT LEWIS, DEPUTY CHIEF, RESEARCH, AND DEVELOPMENT
        FRANCIS PANDOLFI, SPECIAL ASSISTANT TO THE CHIEF

                             BUDGET REQUEST

    Senator Gorton. I will call the meeting to order and want 
to apologize to all of our witnesses for the chaotic schedules 
the Senate follows with its votes.
    We have Mr. Lyons, Under Secretary for Natural Resources 
and Environment, Mike Dombeck, the Chief of the Forest Service, 
and many of their staff here with them.
    A year ago, the budget agreement and Senator Stevens' 
generosity allowed this subcommittee to provide a substantial 
increase of well over $100 million for Forest Service programs. 
That will not be the case this year. The total for nondefense 
discretionary funding available for the entire Appropriations 
Committee under our budget resolution is less than a freeze 
level.
    I will, of course, try to persuade Senator Stevens to 
provide the subcommittee with an allocation that is somewhat 
better than a freeze, but success in that question is dubious 
and we certainly will not have anything like the $1 billion 
contemplated in the President's budget.
    So our outlook would be a pessimistic one as we look at the 
Forest Service budget in spite of the President's request for 
$150 million more.
    It is more pessimistic and more negative for the witnesses 
here today because I detect almost no sentiment favoring 
increases for the Forest Service. Several members of this 
subcommittee and many other members who have spoken to me 
believe the fiscal year 1998 level is excessive based on the 
performance and behavior of the Forest Service.
    During last year's hearings, I expressed my own concerns 
about the Service and what seems to be its departure from any 
kind of wise, multiple use mission to one almost exclusively 
devoted to preservation. If, in fact, preservation and 
preservation alone is the goal of the Forest Service, there is 
little sense in funding the agency at levels that are higher 
than when true multiple use management provided a significant 
commodity output in addition to providing quality noncommodity 
benefits, such as recreation.

                            roads moratorium

    I want to briefly discuss some of the recent events that 
highlight my concern. First, in January, Mr. Dombeck, you 
issued unilaterally a significant new proposed policy on forest 
roads. Despite the expressed request of a number of Members of 
both the House and the Senate, myself included, to work with 
the Forest Service in developing a revised roads policy, you 
ignored those requests and, instead, issued a policy 
unilaterally that would impose a moratorium on road 
construction in roadless areas.
    This action will only further reduce your planned timber 
sale target, which has already been on a steady decline since 
1990, by 100 million board feet based on your own estimates and 
significantly more over the long-term based on information from 
other knowledgeable sources.
    In addition, I believe that your action endangers the 
critical road construction program essential for preserving 
environmental and economic health.

                          communications plan

    Last month, Chief Dombeck, you announced your natural 
resources agenda. As a part of the communications plan for the 
agenda and your proposal to stabilize county payments, which is 
a part of that agenda, you had directed all line officers to 
initiate a massive public relations campaign that appears to 
violate laws against lobbying to influence legislation on the 
part of the executive branch.

                       gao accountability report

    In yet another case, just last month, before a combined 
House oversight hearing on the Forest Service, Representative 
Norm Dicks suggested that the Forest Service should be put 
under the management of a control board until its 
accountability and performance could be improved. At that 
hearing, the General Accounting Office reported that, after a 
decade of conducting more than 45 audits and reviews that made 
hundreds of recommendations for improvement, and despite 
recommendations from numerous internal task forces:

    The agency has not acted on some recommendations, has 
studied and restudied others without implementing them, and has 
left the implementation of others to the discretion of its 
independent and autonomous regional offices.

    Additionally, the GAO stated that the Forest Service is 
possibly, ``a decade or more away from being accountable for 
its performance.''
    Well, if it is a decade or more away from being accountable 
for its performance, perhaps it should be a decade or more away 
from getting any additional appropriations.
    The GAO reported on other significant performance problems, 
including a steadily increasing amount of overhead expenditures 
and an inability to account for more than $215 million in its 
fiscal year 1995 budget.
    Chief Dombeck, I understand that you have brought your 
assistant, Francis Pandolfi, with you. The prospect of putting 
the Forest Service under a control board leads me to want to 
ask him several questions about these issues. As a long-time 
corporate businessman who has been with the Forest Service for 
little more than a year, I am quite interested in Mr. 
Pandolfi's perspectives on whether or not the Forest Service is 
even capable of cleaning up its accountability mess without a 
major and potentially painful restructuring.
    For both Mr. Lyons and Mr. Dombeck, as I and several of my 
colleagues examined the record over the past year, it seems 
clear that the agency's performance and behavior represent an 
institutional arrogance that Congress must take strong action 
to correct. I expect during this hearing that significant 
emphasis will be placed on this problem.
    I now reserve time for Senator Byrd who is not here yet. He 
will be asked to give his opening statement as soon as he 
appears.
    I am sorry that I don't have a list. I see a tremendous 
amount of interest here on the part of my members, so I think I 
will just work my way down the line and start with Senator 
Cochran.

                opening remarks of senator thad cochran

    Senator Cochran. Mr. Chairman, thank you. I welcome the 
witnesses and express my personal appreciation for the 
cooperation of Secretary Lyons and Mike Dombeck on some 
initiatives that we are undertaking in my State of Mississippi 
in the national forests. We, for a long time, have found that 
it is a good place to experiment with wildlife habitat 
enhancement initiatives. We have some programs underway there 
which I have visited and become aware of for which I want to 
compliment you.

                          franklin county lake

    We hope to get more cooperation in the future on the 
development of the Franklin County Lake on the Homochitto 
National Forest. I have tried to visit all the forests and stay 
in touch with what is going on there, not only in terms of the 
programs for managing the timber resources but also in the 
management of the entire natural resource that the forests 
provide in our State.
    So with those, I think, more kind and gentle words, which 
may be refreshing to hear, we look forward to continuing to 
work with you and trying to solve the problems that we face in 
our State and in the Nation as well.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Campbell.

           OPENING REMARKS OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thanks, Mr. Chairman.
    I also welcome Chief Dombeck. I am not going to belabor 
this, but I also had expressed some concern and opposition to 
that roadless moratorium to which you spoke.

                    ROUTT NATIONAL FOREST WIND STORM

    We have had a lot of calls from our constituents, 
particularly in western Colorado, concerned about that. I am 
sure we will get into that. But I did want also, on the other 
hand, to thank Chief Dombeck for helping us get that emergency 
appropriation for what was called the blow down. We lost 
something like 13,000 acres of trees and we did get some help 
from the Forest Service manager and the local economies. But 
also it appears that the Forest Service is going to allow some 
limited logging, maybe of about a third of it or so. I think 
that is very timely because once those trees are down and dead, 
as you know, they don't last too long before the bugs get them.
    So I appreciate your looking into that and trying to move 
that logging forward as quickly as you can.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Craig has asked to join us here 
today. He is a member of the full committee, though not a 
member of this subcommittee, as I remember. But he is the 
chairman of an analogous subcommittee of the Committee on 
Energy and Natural Resources.
    Senator Craig.

                    OPENING REMARKS OF SENATOR CRAIG

    Senator Craig. Mr. Chairman, thank you for the courtesy. I 
do appreciate it and am pleased to be here to question the 
chief and the secretary this morning as we deal with their 
budgets.
    As you know and as many on this committee know, for the 
last 2\1/2\ years I and my Subcommittee on Forestry have held 
probably the most extensive series of oversight efforts--now I 
believe over 20-odd hearings or more--on the U.S. Forest 
Service. We have looked at it from top to bottom. We have gone 
through two chiefs and all the retired chiefs. Mr. Lyons has 
been before us on numerous occasions.
    I am told that it is probably now one of the more extensive 
reviews of the Forest Service since the days of Hubert 
Humphrey, when we did the National Forest Management Act in the 
1970's. From that we have attempted to produce some legislation 
that addresses some of the problems that all of us are 
concerned about today.
    The difficulty with all of that, Mr. Chairman, is that, 
while the Forest Service has been a cooperating agency to 
provide us with the information, they and the administration 
have staunchly resisted any effort to change, to adjust, or to 
even work in a way with Congress that would assist in bringing 
about some of these concerns that are now being expressed.
    And, of course, as we know, the GAO on I don't know how 
many occasions now has looked at the Forest Service with great 
detail only to say just exactly what you said, Mr. Chairman, 
and that is that this is an agency with great problems that 
cannot fix itself.
    Now I had an opening statement prepared. But let me say to 
the chief this morning what I am about to do. I noticed that 
the President yesterday, on Earth Day, suggested that our 
national forests are more than a mere paper plantation. Then he 
went on to talk about what they ought to be.

                          management problems

    Chief, the problem is not that we want to cut trees and the 
President doesn't get it. The problem is you. The problem is 
Mr. Lyons. The problem is the management of the U.S. Forest 
Service. It is not an agency in the red for the first time in 
its history. Its budgets are in shambles.
    So, Mr. Chairman, what I will do this morning is only read 
what the Christian Science Monitor said this morning.
    Now that is not a conservative paper. It is not a liberal 
paper. It may be slightly center of green on its positions as 
relates to the environment. It said this: ``Behind the 
beguiling public service ads featuring Smokey the Bear and his 
woodland friends lies an unpleasant story of bad management. 
For more than 10 years * * *'' and I will have to recognize 
that you have not been there for 10 years, Chief. So all the 
blame cannot totally rest on your shoulders. But fixing it has 
to.
    ``For more than 10 years now, the U.S. Forest Service has 
been promising everybody--itself, its parent, Department of 
Agriculture, and Congress--that it would get its act together. 
But recent testimony by the General Accounting Office, 
Congress' investigative arm, reveals its inability to collect 
revenues, its inefficiencies, its outright waste that have cost 
taxpayers hundreds of millions of dollars.
    ``The Forest Service often doesn't get fair market value 
for goods. Private concessions, resource lodges, marinas, 
guides, services aren't paying what they should. The service 
does not collect enough from rights-of-way, pipelines, power 
cables, communication wires. Instead of sealed bids for timber, 
it relies on oral bids, losing some $50 million a year.''
    Well, I may agree with some of that. I don't agree with all 
of that. But there is a problem there.
    ``The agency has done little to reduce costs. The 1995 
internal report showed it was losing up to $100 million a year 
from inefficient decisionmaking. It took 10 years and $13 
million simply to revise the management plan of Alaska's 
Tongass National Forest.'' I mean, 10 years.
    ``It loses money because it often doesn't comply with 
environmental and planning requirements. It's financial 
statements are unreliable and cannot account for millions in 
spending. It has weak contracting practices. It put $443 
million at risk of waste, fraud, and abuse. Field offices don't 
comply with Federal purchasing requirements.
    ``In Fiscal 1995, the service could not figure out how it 
spent $215 million of its $3.4 billion in operating and program 
funds. It doesn't know what its assets are worth or the actual 
value of its multi-billion dollar maintenance backlog.
    ``Amazingly, its 4-year-old computerized accounting system 
can't cope with the year 2000 problem.
    ``The GAO estimates it could take 10 years,'' as the 
chairman referenced, ``to fix the basic problems. The time to 
start is now.
    ``The White House, the Agriculture Secretary and Congress' 
oversight and Appropriations Committees must act. The Forest 
Service should be held accountable if it doesn't improve soon. 
Senior personnel should be replaced if progress isn't evident. 
Congress must structure the service's budget to get results.
    ``America's precious forests and the wildlife they shelter, 
a resource that belongs to all of us, deserve no less.''
    That is the Christian Science Monitor this morning, in part 
in response to what the President said yesterday.
    The Congress has acted: 2\1/2\ years, 20-plus oversight 
hearings, all of us pleading for cooperation and help to get 
this job done.
    Mr. Lyons, you promised to help us 3 years ago. Yes; we've 
got a problem. Yes; it needs to be fixed.

                          bipartisan solutions

    I don't know how many times I have asked you to come and 
sit down and build a congressional-administrative bipartisan 
effort to solve the problem. And we have been turned down 
flatly.
    The problem is not cutting too many trees. The problem is 
not the people of my State and the school districts that now go 
wanting because of your mismanagement.
    I met with all of the school superintendents in 10 northern 
forest bound counties that are having to consider next year's 
school budgets, cutting them, maybe going to 4 day weeks, or 
dramatically taxing the very limited private base that they 
have. Why? It is because the Forest Service cannot manage. That 
is why.
    Am I concerned today? I came back from my State steaming--a 
State that is so beautiful it raises now hundreds of times more 
trees than it even considers cutting; a State this morning 
where the skies are filled with smoke over Boise because now 
you are burning.
    Idaho is very frustrated. I am very frustrated. And the 
Forest Service is in shambles.
    We deserve better. The forest deserves better. And the 
professional people of the Forest Service deserve better than 
what they are getting.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Domenici.
    Senator Domenici. I have some questions and I will hold off 
until then.
    Thank you very much.
    Senator Gorton. Senator Burns.

                  prepared statement of senator burns

    Senator Burns. I have a statement. I will just put it in 
the record and I will make my statement as we ask questions.
    Thank you.
    Senator Gorton. That's fine.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I find this to be one of the most 
important hearings we have in the Appropriations process. The 
state of Montana has a great deal of land under the authority 
of the National Forest Service. So any decisions made in 
Washington have a direct impact on the citizens of Montana, and 
their ability to do live and do business. Unfortunately in 
recent years those decisions have had a very negative impact on 
the people in Montana.
    Due to the decisions of this Administration in relation to 
the Forest Service, I have had to come to this and other 
subcommittees asking for assistance for communities that have 
seen their way of life threatened. These decisions ranging from 
the Northwest Forest plan to the recent moratorium on roads 
have placed many of the communities in Montana in a very 
delicate situation. They are living on the edge and their 
ultimate survival is threatened by these decisions and actions.
    I remember a time when the Forest Service was very highly 
looked upon in the field. The staff and the people in the field 
were a real part of the land and their communities. 
Unfortunately this is no longer the case. People now look down 
upon the Forest Service. This places those people in the field 
and on the ground in a very difficult position in dealing with 
their neighbors.
    The future of the Forest Service is about as dark as I have 
ever seen it. People just don't seem to think that this agency 
can do it's job in a reasonable and workable manner. This of 
course should not be seen as a reflection on the people in the 
field, but instead a condemnation of the decision making 
processes and the management decisions made in Washington.
    The recent decision on the moratorium of road construction 
is just one example. This decision has placed the people on the 
ground to make decisions and react to this plan in a manner 
which has complicated the life of people out there just trying 
to make a living. Without consultation with either Congress or 
the population, in the areas effected, the Washington office 
made a decision which does effect us all in various ways.
    Recently, Chief Dombeck came before the Energy and Natural 
Resources Committee to defend his budget. Throughout this 
hearing the Chief emphasized his desire to consult and work 
with Congress and it's committees on land use policy. I have 
not seen any real evidence of that action yet. Which makes me 
wonder just how committed this Administration and this Chief 
are to making this all work.
    Even more recently Senator Baucus, Congressman Hill and I 
introduced legislation to complete the final phase of the 
Gallatin National Forest land consolidation. We worked on this 
with the understanding that the Forest Service had completed a 
great deal of the work on the appraisal necessary to equate the 
lands to be exchanged.
    During the recent recess I found that this work was far 
from being completed. This lack of action on the part of the 
Forest Service places the completion of this land exchange in 
peril. This is unacceptable considering the time they have had 
to work on this very land exchange. I have discussed this with 
the Chief during a recent meeting, in my office, and it is my 
hope that this will speed up the process and get this action 
moving.
    Since I am on the topic of land exchanges, let's move on 
the Royal Teton Ranch exchange in Montana. This is the land 
located directly north of Yellowstone National Park. The 
Administration included this land acquisition in the $699 
million package which came to this committee earlier this year. 
A sore topic with both this committee and the committee which 
has authorization authority over most of this land 
acquisitions, but let's get beyond that. On this list the 
Forest Service was committing a total of $6.5 million to the 
purchase of this land. I am concerned how negotiations for this 
land are moving forward.
    Chief Dombeck I am sure you are aware of the concerns I 
have about this land exchange. It is imperative that the State 
of Montana continue to have authority over the wildlife that 
come into this area, and believe it or not it is my opinion as 
well as that of Governor Racicot that the Forest Service is in 
the best position to manage this land area.
    What I am hearing from numerous sources however, is that 
the Department of the Interior wants to keep authority here. I 
need you Chief Dombeck, to step up and work with the Governor 
and the people of the state to protect the interests of the 
state. As I have stated your agency is in the best position to 
manage these lands and make sure that Montana is protected.
    I could continue on but think it is important that we hear 
from the Chief before we all have to move on to other 
responsibilities. I am committed to working with both the 
Chairman and the Ranking Member to put together an 
appropriations bill that we can all get behind and support. 
Thank you Mr. Chairman for this hearing and for the time this 
morning.

                summary statement of hon. james r. lyons

    Senator Gorton. We will have statements now from our two 
chief witnesses.
    Secretary Lyons, you are first. As always, your full 
written statements will be included in the record.
    You have gotten sort of a hard time up here. So if you want 
to start out informally and use your oral time in that respect, 
you are, of course, free to do so.
    Mr. Lyons. I appreciate that very much, Mr. Chairman, and I 
appreciate the opportunity to appear once again before the 
subcommittee.
    Senator Craig, let me just say that I would be pleased to 
meet with you at any time. And, in fact, you may not be aware, 
but I recently accepted an invitation to join you and Ms. 
Chenoweth in Idaho, I believe on May 17, to look at forest 
management issues there. It is something we have tried to set 
up for about a year. So I would be glad to come out and join 
you.
    Senator Craig. It's one thing we are doing there that is a 
good thing both you and I have done.
    Mr. Lyons. Good. I will look forward to that trip, then. 
Thank you, Senator.
    Mr. Chairman, I know that the Chief and Francis and I are 
prepared to address all the questions that have been raised 
today in your opening statements. What I would like to do in my 
opening time, however, is to focus in on some of the issues and 
controversy obviously surrounding the Forest Service budget, 
particularly related to correspondence that we have received 
from Chairman Murkowski, subcommittee Chairman Craig, Chairman 
Young, and subcommittee Chairwoman Chenoweth on the House side 
related to our budget and concerns related to how we are 
investing taxpayer dollars in the management and stewardship of 
the national forests.
    As I said, recently we received a letter regarding agency 
management direction. That letter raised the specter of funding 
the national forest management at what was termed a custodial 
level.
    If I could, Mr. Chairman, Chief Dombeck has already 
provided a response. What I would like to do this morning is 
offer some of my own perspectives on that letter. I would like 
to submit the letter as well as the Chief's response for the 
record.
    Senator Gorton. The letter will be included in the record.
    Mr. Lyons. Thank you very much, Mr. Chairman.
    [The information follows:]
    Letter From Senator Frank H. Murkowski, Senator Larry E. Craig, 
      Representative Don Young, and Representative Helen Chenoweth
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                 Washington, DC, February 20, 1998.
Hon. Mike Dombeck,
Chief, U.S. Forest Service, U.S. Department of Agriculture, Washington, 
        DC.
    Dear Mr. Dombeck: As you know, there is presently very little 
agreement on a discrete mission for the National Forest System. 
Consequently, there is no consensus on appropriate governing statutes, 
nor any real collaboration within government or among competing 
interests in setting management goals. Neither Congress, the 
Administration, nor the Forest Service have been able to consider 
together, let alone find, cost efficient and effective ways to 
streamline the legislative, regulatory, and legal morass in which the 
Agency currently finds itself. In the face of continuing controversy 
over Forest Service management, it is increasingly clear that the costs 
of managing the National Forest System are increasing (in some cases 
dramatically) and may, in the view of some, outweigh the benefits being 
received by interest groups, communities, and the public. While it is 
painful for us to contemplate, the time may have come to instead 
consider ways to reduce the investment of billions of dollars each year 
in light of the increasingly diminished returns on that investment.
    This is not our preferred course. But the trend of present events--
accelerated by some of the Administration's own initiatives--suggests 
we may be moving in this direction irrespective of our preferences. 
Consequently, we would like your assessment of the costs and savings 
from converting to custodial management of the National Forest System. 
We also would like your assessment of the savings that might be 
available--through down-sizing the agency, out-sourcing some management 
functions, or other alternatives--to match such a management approach. 
In order to accurately and thoroughly assess what a conversion to 
custodial management might mean--particularly if events are already 
moving in this direction--we need to more fully understand both the 
biological and financial implications of this management strategy.
    Most Americans believe that each generation should leave the public 
resources in a better condition than they received them from their 
parents. Thus, we first want you to generally assess: (1) how past 
management has changed the condition of the federal lands in the last 
100 years; (2) the condition they are in today, compared to what the 
current forest plans call for; and (3) the ecological condition of 
those lands if no vegetative management or man-induced, prescribed fire 
are practiced on the National Forests System for the next 100 years.
    As you are aware, many forest ecosystems in the West are currently 
severely overstocked, and becoming progressively more so. The age-class 
distribution of their forests suggests they are increasingly 
susceptible to natural pathogens and catastrophic fires. If Congress 
were to direct the Forest Service to manage National Forest System 
stands under only custodial management--with only the most limited 
active management intervention and fire suppression limited to avoiding 
spread to other ownerships--what will be the biological conditions of 
these forests in one hundred years? Specifically, how much less 
productive would soils be due to severe erosion after fire? How will 
wildlife and fisheries resources be affected by radical changes to 
habitat conditions?
    Turning to the financial part of the question, we recognize there 
are a limited number of activities which must continue under even a 
custodial management regime. For example, some fire suppression must be 
continued (to avoid spread to other ownerships). We also understand 
that a limited amount of land line location and survey work must be 
carried out to ensure the integrity of National Forest boundaries. 
Additionally, the Forest Service will incur costs to maintain right-of-
way access to private lands within the National Forests. There will 
also be some costs associated with wildlife and fisheries restoration 
and enhancement work which must be carried out in the National Forest 
System under any fully approved Endangered Species Act (ESA) Recovery 
Plan (this is distinguishable from the costs of any restoration and 
enhancement work which is discretionary, whether or not that management 
is prescribed in existing forest plans, which would not be part of a 
custodial management regime and would occur naturally more slowly). 
Additionally, funds will be needed to administer existing contracts, 
permits, leases, or other instruments--through the termination date of 
these instruments. Finally, funds will be needed to cover the cost of 
maintaining only those roads in the National Forest System which are 
currently designated as a Federal, State, or County highway, road, or 
right-of-way, and any recreation facility that is accessible from such 
a road. We assume continued management of any recreation facility that 
is still accessible and would want to evaluate the costs and how they 
should be borne, including management by other entities.
    Please provide an estimate of what the above efforts would likely 
cost on an annual basis. Additionally, if you feel any other work will 
be required to properly discharge custodial responsibilities, please 
provide us with the legal citations which list the work you believe 
will be needed, along with the specific legislative language which 
directs the additional management.
    In addition to the above information, please provide specific 
answers to the following questions and transmit your response no later 
than March 20, 1998. We intend to discuss these issues with you in a 
preliminary way at our budget oversight hearings in late February and 
early March. Your prompt and more detailed response will help us 
develop our final Committee recommendations for the Forest Service 
fiscal year 1999 Budget.
    1. Please provide the total amount of acres in the National Forest 
System as of October 1, 1997.
    2. Please provide the total number of acres, under the existing 
National Forest Management Act (NFMA) forest plans, available for 
active management for the production of commodity and non-commodity 
goods and services in the National Forest System as of October 1, 1997.
    3. Please list all management activities which will have to be 
carried out under a custodial management regime. Please also provide 
the statutory citation which requires this work to be carried out in a 
specific area or areas (please be specific and quote the actual 
language which requires this work to be carried out).
    4. Please provide the current number of Full Time Equivalent 
(FTE's) positions employed by the U.S. Forest Service in all three arms 
of the Agency.
    5. Please provide the number of the employees, the salaries, and 
other compensation which could be saved by shifting to custodial 
management, as described above, with any additions you believe 
necessary. Include savings in support functions which would no longer 
be necessary. Exclude from these savings the estimated cost of 
providing the following management activities: (1) the decadal per acre 
average cost of providing fire protection (pre-suppression and 
suppression) times the number of acres so treated per decade to prevent 
the spread of fires to adjacent ownerships; (2) the cost of any land 
line surveys planned over the next decade; (3) the expected annual cost 
of administering existing grazing, mining permits, and mining claims 
and special use permits; (4) any costs for maintaining roads needed to 
maintain access to private in-holdings; and (5) the minimum cost of 
stream or habitat rehabilitation work required under existing, approved 
ESA Recovery Plans.
    6. Please provide the fiscal year 1998 per-acre cost of management 
of the lands entrusted to the Forest Service. This cost should be 
computed based on the funds appropriated for the National Forest System 
and the authorized expenditures of trust funds in fiscal year 1998 
divided by the number of acres entrusted to the U.S. Forest Service.
    7. Please estimate any additional or reduced costs of fighting 
wildfire in the National Forest System given the more limited road 
access mentioned, and a de-emphasis on suppression that does not 
threaten other ownerships.
    8. Please describe the number of person days and the associated 
cost in the Forest Service, the Department of Agriculture, Department 
of Justice, and the Council on Environmental Quality that have been 
expended each of the last five years related to conflicts over current 
management. Please also estimate how much money was spent, in each of 
the last five years, to deal with appeals and lawsuits over National 
Forest System management. Include costs associated with support 
functions and a description of how these costs were calculated.
    9. Please estimate the cost of reducing the number of FTE's to a 
level needed to carry-out custodial management on all National Forest 
System acres (comparable to 1950's management). Assume that the Agency 
will only be able to use existing early-out authority or Reduction in 
Force (RIF) authority. Also, assume that the Agency will have to absorb 
the cost of these reductions. In calculating these cost estimates, 
assume necessary reductions would occur early in fiscal year 1999 or 
early in fiscal year 2000 using orderly RIF or other appropriate 
procedures.
    10. According to the fiscal year 1998 Presidential Budget Request, 
driving for pleasure is the most popular recreational use of the 
National Forest. In a recent Journal of Forestry article, the President 
of the Society of American Foresters is quoted as saying less then 4.5 
percent of the recreation use on the National Forests occurs in the 
congressionally-designated wilderness areas. Please describe the 
reductions in on-road and off-road visitor use which are likely to 
occur as a result of a custodial management regime which allows only 
those roads currently listed as part of the Federal, State, or County 
road systems to remain open. Assume other agencies will shoulder the 
administrative responsibility and cost of road maintenance. 
Additionally, estimate the loss in recreation user fees which will be 
experienced as a result of such a policy.
    11. Please provide an analysis of the portion of the fiscal year 
1998 Forest and Environment Research budget that is spent in direct or 
indirect support of National Forest System management programs. Please 
specify what percentage of this would be necessary to support a 
custodial management regime.
    12. Similarly, please provide an analysis of the portion of the 
fiscal year 1998 State and Private Forestry budget that is spent in 
direct or indirect support of National Forest System programs. Please 
specify what percentage of this would be necessary to support custodial 
management.
    As you might guess by these questions, we are trying to respond to 
questions about whether it is financially or environmentally prudent to 
continue to shift to management regimes that are more costly and 
produce less benefits. Since you seem bent on producing fewer and fewer 
results from the National Forests at rapidly increasing costs, many 
will press Congress to seriously consider the option to simply move to 
custodial management of our National Forests in order to stem the flow 
of unjustifiable investments. That will mean the Agency will have to 
operate with significantly reduced budgets and with far fewer 
employees. Before taking this step though, it is only fair to let the 
Forest Service articulate how our National Forests and the various 
constituencies might fare under a carefully considered custodial 
management regime.
            Sincerely,
                                   Frank H. Murkowski, Chairman,
                                           Senate Committee on Energy 
                                               and Natural Resources.
                                   Larry E. Craig, Chairman,
                                           Subcommittee on Forests and 
                                               Public Land Management.
                                   Don Young, Chairman,
                                           House Committee on 
                                               Resources.
                                   Helen Chenoweth, Chairman,
                                           Subcommittee on Forests and 
                                               Forest Health.
                                 ______
                                 
                    U.S. Department of Agriculture,
                                            Forest Service,
                                    Washington, DC, March 25, 1998.
Hon. Frank H. Murkowski,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Murkowski: Thank you for your letter of February 20, 
1998. Like you, I am deeply committed to the wise and careful 
management of our national forests for the use and benefit of present 
and future generations. Your letter recognizes that achieving this 
objective can sometimes be controversial. As our first Chief, Gifford 
Pinchot, stated over 100 years ago, management of the national forests 
involves ``many great interests, which sometimes conflict a bit.''
    Your letter implies that the mission of the Forest Service has 
somehow changed, presumably because of the decrease in commercial 
timber harvest. As a consequence, you suggest the Forest Service has 
taken on a ``custodial'' role in management of the national forests and 
the Agency's budget and funding should be reduced. I take a different 
view.
    I believe that the reduction in timber harvest and the dramatic 
increases in use and demand of the national forests for other values 
such as recreation, drinking water production, and fish and wildlife 
habitat does not translate to a changed mission for the Agency. Rather, 
it speaks to the increased importance of national forests to the lives 
of all Americans. Certainly, timber harvest and the production of other 
commodities will continue on national forests. But these activities 
must take place within the context of maintaining and restoring 
watershed health and sustainability.
    Indeed, the use and management of national forests has changed 
significantly in recent years. Such change is inevitable as we respond 
to different social values, new scientific knowledge, and renew our 
commitment to ensuring the long-term health, diversity, and 
productivity of the land. These changes do not reflect a ``new 
mission.'' In fact, over 100 years ago, Congress wisely defined the 
mission of national forests to go far beyond timber and other commodity 
production. In 1897, Congress defined the purpose of the national 
forests through the Organic Act:
    ``[To] improve and protect the forest within the boundaries, or for 
the purposes of securing favorable conditions of water flows, and to 
furnish a continuous supply of timber for the use and necessities of 
the citizens of the United States.''
    The three primary goals of the Organic Act, protecting the forest, 
protecting watersheds, and providing sustainable supplies of timber, 
parallel the Forest Servicer's recently announced natural resource 
agenda for the 21st century. The natural resource agenda focuses on 
four key areas: watershed health and restoration, sustainable forest 
ecosystem management, forest roads, and recreation. The agenda was 
developed by my leadership team and, I believe, is squarely in line 
with both Congress' goals in establishing the national forests and the 
conservation values of mainstream America.
    Our agenda, the Strategic Plan we are developing under the 
Government Performance and Results Act, and our 1999 budget request 
reflect a vigorous program of active management of the national 
forests. In the coming years, we look forward to working with you and 
your colleagues, local communities, and all who use and care for 
national forests to further refine and implement our agenda. We do not 
believe that the American people would expect, or deserve, any less.
    Our answers to your specific questions are enclosed. I have sent an 
identical response to Chairmen Craig, Young, and Chenoweth and a copy 
to each of the respective ranking Democratic members.
            Sincerely,
                                               Mike Dombeck, Chief.
    Enclosure.
                    responses of u.s. forest service
I. In response to the questions in the third paragraph on the first 
        page of your letter, we have briefly summarized some of the 
        history and ecological changes on National Forest System (NFS) 
        lands:
    Evolution of Federal land management.--During most of the 19th 
Century, it was national policy to transfer substantial portions of 
Federal (Public Domain) lands to private use and ownership. During this 
period, more than 1 billion acres, or over half the land area of the 
United States was transferred from Federal to non-Federal ownership. 
The period from 1900 to World War II was one of consolidation and 
limited management for most Federal land management agencies. From 1896 
to 1910 the area of forest reserves (national forests) rose from 18 to 
168 million acres.
    By the late 1800's. tens of millions of sheep and cattle were being 
grazed on these Federal lands. Efforts to bring livestock numbers down 
to the carrying capacity of the land were a primary focus of Forest 
Service managers during the pre-World War II period. Nationally, 
another main focus of Forest Service efforts was the control of 
wildfire. Prior to the 1930's, uncontrolled wildfire annually 
devastated large areas of public and private wildlands. Wildfire 
prevention and suppression became the focus of highly successful 
cooperative efforts among Federal agencies and State and private 
landowners. By 1960, the average annual area consumed by wildfire was 
reduced by more than 90 percent.
    The expanding economy following World War II created a substantial 
increase in the demand for timber. National forest and Bureau of Land 
Management timber sale levels increased from 2-4 billion board feet per 
year in the late 1940's to 11-14 billion board feet in the 1960's and 
beyond. By the 1960's, Federal forests were meeting almost 20 percent 
of the Nation's total consumption of wood volume. National forest 
recreation visitation also increased dramatically; annual visits 
increased from about 5 million in the early 1920's to 18 million in 
1946, 93 million in 1960 and 233 million in 1975.
    The use of clearcutting as a forest management tool increased 
dramatically on the national forests after World War II. Much of the 
public concern over national forest land management practices was 
focused on the visual and ecological effects of clearcutting. These 
conflicts led eventually to the passage of the National Forest 
Management Act of 1976. The level of national forest timber sales has 
declined from an annual average of 10-12 billion board feet during the 
1960's, 1970's, and 1980's, to 3-4 billion board feet today.
    Current Condition of NFS lands.--Given the varied history of NFS 
lands, it is difficult to summarize their current condition. There are 
substantial differences between NFS lands in the East and South, those 
in the interior West, and those on the Pacific Coast and Alaska. The 
condition of NFS lands in the East and South has improved dramatically 
over the last century. After millions of acres of abandoned and 
depleted farm and forest lands became NFS lands, feral cattle, dogs, 
and goats were eliminated and the land rehabilitated. Today, these 
areas provide superb habitat supporting rich populations of many 
wildlife species.
    Many ecosystems within the national forests were originally subject 
to relatively frequent low-intensity wildfires as well as occasional 
stand-replacing conflagrations. The forest ecosystems most in trouble 
tend to be those formerly subject to a frequent, low-intensity fire 
regime, particularly forest ecosystems of western national forests 
where fire frequency has been substantially reduced. When fires do 
occur in these areas today, they are often destructive, soil and 
watershed damaging, stand-replacing fires. Strategies for the 
restoration of ecosystem health in such areas often involve the use of 
prescribed fire, frequently in conjunction with mechanical treatment.
    In higher elevation forests, which tend to be cooler and moister, 
the ecological effects of fire exclusion are typically less profound 
than in the lower elevation forests, at least over the short term. But 
even in these forests, reduction in fire frequency has had substantial 
ecological effects. Aspen communities have been reduced substantially, 
and many meadows and openings have diminished in size or have 
disappeared altogether. The ecological diversity and ``patchy-ness'' of 
the forest landscape has been reduced. Such forests are subject to 
increased insect epidemics and to larger and more intense stand-
replacing conflagrations than typically would have occurred in the 
past.
    Introduced exotics also present major biodiversity and ecosystem 
health problems in some areas, especially on rangelands in the West and 
forestlands in the East and South.
II. The following information is provided in response to the numbered 
        questions commencing near the bottom of the second page of your 
        letter:
    Question. Please provide the total amount of acres in the National 
Forest System.
    Answer. The National Forests and Grasslands encompass 191,644,936 
acres.
    Question. Please provide the total number of acres, under the 
existing National Forest Management Act (NFMA) forest plans, available 
for active management for the production of commodity and non-commodity 
goods and services in the National Forest System.
    Answer. Commodity and non-commodity goods and services encompass a 
myriad of activities including, but not limited to recreation, 
wilderness, grazing, timber and mineral production, fishing, water 
supplies, heritage, and other aesthetic values. All 191.6 million acres 
of Forest Service lands produce commodity and non-commodity goods and 
services related to these benefits.
    Question. Please list all management activities which will have to 
be carried out under a custodial management regime. Please also provide 
the statutory citation which requires this work to be carried out in a 
specific area or areas.
    Answer. We are not certain what ``custodial management'' means. In 
your letter you outlined some of the components that you would include 
under a custodial regime. Your partial list includes a limited number 
of activities to be implemented under your custodial regime. We would 
not be able to limit our management to such a narrow list given the 
vast body of laws and statutes that guide our work. We would need 
specific direction on which of the laws would not require enforcement 
under your interpretation of custodial management.
    Question. Please provide the current number of FTE positions 
employed by the Forest Service in all three arms of the agency.
    Answer. Based on information provided in the fiscal year 1999 
President's Budget for the Forest Service, the total number of FTE 
positions for fiscal year 1998 is 36,311 in the three arms of the 
Agency.
    Question. Please provide the number of employees, the salaries, and 
other compensation which could be saved by shifting to custodial 
management as described above, with any additions you believe 
necessary. Include savings in support functions that would no longer be 
necessary.
    Answer. As in the response to question 3, we have only a limited 
understanding of what you mean by ``custodial management.'' Forest 
Service actions are guided by many laws, and we are mandated to carry 
out a range of activities under those laws. It is impossible for us to 
identify which activities we would not undertake.
    Question. Please provide the fiscal year 1998 per-acre cost of 
management of the lands entrusted to the Forest Service. This cost 
should be computed based on the funds appropriated for the National 
Forest System and the authorized expenditures of trust funds in fiscal 
year 1998 divided by the number of acres entrusted to the U.S. Forest 
Service.
    Answer. Based on information provided in the fiscal year 1999 
Explanatory Notes to Congress, the fiscal year 1998 budget directly 
impacting Forest Service lands is approximated below:

Fiscal year 1998 budget directly impacting Forest Service lands

NFS.....................................................  $1,348,377,000
Wildland fires..........................................     584,707,000
Reconstruction/construction \1\.........................     162,308,000
State and private forestry \2\..........................      16,500,000
L&WCF \3\...............................................      52,976,000
Other \4\...............................................       5,090,000
                    --------------------------------------------------------
                    ____________________________________________________
    Subtotal appropriated...............................   2,169,958,000
Permanent appropriations \5\............................     260,098,000
Trust funds.............................................     261,885,000
                    --------------------------------------------------------
                    ____________________________________________________
    Grand total.........................................   2,691,941,000

The cost per acre of management would be calculated as $2,691,941,000 
divided by 191,644,936 acres, or about $14 dollars per acre.

\1\ Excludes $2,737,000 for Research Construction.
\2\ Only includes the insect and disease prevention and suppression 
portion of the Forest Health Management budget line item.
\3\ Excludes special one-time Title V Land Acquisition amount of $167 
million.
\4\ Excludes $92,000 for Gifts, Donations and Bequests.
\5\ Excludes Payments to Counties and States.

    Question. Please estimate any additional or reduced costs of 
fighting wildfire in the National Forest System given the more limited 
road access mentioned, and a deemphasis on suppression that does not 
threaten other ownerships.
    Answer. As stated in our response to questions 3 and 5, we do not 
have enough information to develop or evaluate a ``custodial 
management'' scenario. We do note that our current preparedness 
organization is designed around protecting high value resources, 
including lives and private property. Shifting to a less active 
management regime might increase, rather than decrease, fire 
suppression costs if access was more limited and vegetation was not 
managed to reduce fire spread and intensity.
    Question. Please describe the number of person days and the 
associated cost in the Forest Service, the Department of Agriculture, 
Department of Justice, and the Council on Environmental Quality that 
have been expended each of the last 5 years related to conflicts over 
current management. Please also estimate how much money was spent, in 
each of the last 5 years, to deal with appeals and lawsuits over 
National Forest System management. Include costs associated with 
support functions and a description of how these costs were calculated.
    Answer. Based on estimates from the Forest Service regions and 
Washington Office, the Forest Service spent an average of $5.1 million 
annually on processing appeals in the last 5 years, and $4.9 million 
annually on litigation. The Office of the General Counsel estimates it 
spent an average of $0.3 million annually on appeals and $2.2 million 
on litigation in the same period. We have no information on 
expenditures of the Department of Justice or the Council on 
Environmental Quality.
    Question. Please estimate the cost of reducing the number of FTE's 
to a level needed to carry-out custodial management on all National 
Forest System acres (comparable to 1950's management). Assume that the 
Agency will only be able to use existing early-out authority or 
Reduction in Force (RIF) authority. Also, assume that the Agency will 
have to absorb the cost of these reductions. In calculating these cost 
estimates, assume necessary reductions would occur early in fiscal year 
1999 or early in fiscal year 2000 using orderly RIF or other 
appropriate procedures.
    Answer. As in the response to question 3, we are unclear as to the 
definition of custodial management. Forest Service actions are guided 
by just under 200 laws, and we are mandated to carry out a range of 
activities under those laws. It is not possible for us to identify 
which activities we would not undertake.
    As for the changes in FTE totals, the fiscal year 1999 President's 
Budget reflects a total of 35,526 FTE's. Barring other changes, such as 
an authorized buyout, we would estimate that fiscal year 2000 would 
reflect a similar total.
    Question. According the fiscal year 1998 Presidential Budget 
Request, driving for pleasure is the most population recreational use 
of the national forests. In a recent Journal of Forestry article, the 
President of the Society of American Foresters is quoted as saying that 
less [than] 4.5 percent of the recreation use on the national forests 
occurs in the Congressionally-designated wilderness areas. Please 
describe the reductions in on-road and off-road visitor use which are 
likely to occur as a result of a custodial management regime which 
allows only those roads currently listed as part of the Federal, State 
or county road systems to remain open. Assume other agencies will 
shoulder the administrative responsibility and cost of road 
maintenance. Additionally, estimate the loss in recreation user fees 
which will be experienced as a result of such a policy.
    Answer. Again, answering this question with precision is difficult 
because we do not understand what is meant by ``custodial management.'' 
Would all 373,000 miles of forest roads be closed, or would the 20 
percent of the roads that handle an estimated 80 percent of the 
recreation use remain open?
    Question. Please provide an analysis of the portion of the fiscal 
year 1998 Forest and Environment Research budget that is spent in 
direct or indirect support of National Forest System management 
programs. Please specify what percentage of this would be necessary to 
support a custodial management regime.
    Answer. The Forest Service conducts research in accordance with the 
authorities described in the Forest and Rangeland Renewable Resources 
Research Act of 1978 (92 Stat. 353, as amended; 16 U.S.C. 1600 (note), 
1641 (note), and 1641-1648. There is no reference in the 1978 Act to 16 
U.S.C. 1609, which defines the National Forest System, nor does the 
1978 act contain any direction or limitation, expressed or implied, 
that research shall only pertain to national forests. Rather, the 1978 
act explicitly states purposes and authorizations that apply to all the 
Nation's forests:
  --Section 2(a)(1) states, ``Congress finds that scientific 
        discoveries and technological advances must be made and applied 
        to support the protection, management, and utilization of the 
        Nation's renewable resources * * * .''
  --Section 3(a) states, ``The Secretary is authorized to conduct, 
        support, and cooperate in investigations, experiments, tests, 
        and other activities the Secretary deems necessary to obtain, 
        analyze, develop, demonstrate, and disseminate scientific 
        information about protecting, managing, and utilizing forest 
        and rangeland resources in rural, suburban, and urban areas.''
  --Section 3(a)(5) provides for the Forest Inventory and Analysis and 
        Forest Health Management programs as does Section 3 of the 
        Forest and Rangeland Renewable Resources Planning Act of 1974.
  --Section 4(c) states, ``In implementing this Act, the Secretary may 
        cooperate with international, Federal, State, and other 
        governmental agencies, with public or private agencies, 
        institutions, universities, and organizations, and with 
        businesses and individuals in the United States and in other 
        countries.''
  --Each of the four program areas in Forest Service Research and 
        Development simultaneously support management activities on 
        private lands, State and other Federal lands, as well as the 
        national forests. For example, research addressing wildland-
        urban interface management issues is useful to the residents 
        and local governments at the interface, without respect to 
        whether the wildlands are national forests, State forests, or 
        privately owned forests. Providing research results to private 
        landowners and State and local governments is how forest 
        research began in the Department of Agriculture. In fact, 
        forest research within the Department of Agriculture began in 
        the mid-1870's--30 years before the forest reserves were 
        transferred to USDA in 1905. Since then, research results have 
        often benefitted private, State, and Federal resource 
        management simultaneously. Attempting to distinguish research 
        specific to the national forests from research applicable to 
        the Nation's forests creates false distinctions because the 
        same cover types and ecological conditions exist on a variety 
        of land ownerships.
  --There is an increasing demand for intensive forest management 
        research that benefits the national forests and grasslands, 
        along with other Federal, State and private lands. These 
        landowners have traditionally obtained this information from 
        Forest Service Research and Development. As ecological 
        conditions change, new knowledge and technology will be needed 
        to track and predict forest conditions and effects at the 
        stand, watershed, and landscape levels. These will be truly 
        unique research and development needs the Forest Service is 
        best suited to provide.
    Question. Please provide an analysis of the fiscal year 1998 State 
and Private Forestry budget that is spent in direct or indirect support 
of the National Forest System programs. Please specify what percentage 
of this would be necessary to support custodial management.
    Answer. About $16.5 million (45 percent) of the Federal lands 
expanded budget line item of the Forest Health Management budget line 
item directly or indirectly supports NFS programs through insect and 
disease prevention and suppression. (The remainder supports activities 
on other Federal and State and private lands.) This support includes:
  --forest insect and disease survey and monitoring to detect and 
        evaluate pest outbreaks,
  --financial and technical assistance for prevention and suppression 
        treatments for native and exotic pests,
  --technical assistance to land managers in insect and disease 
        prevention, pesticide use, hazard tree recognition, and 
        biological control of noxious weeds,
  --participation of insect and disease specialists in forest plan 
        development and implementation,
  --development of pest-resistant trees to restore species that have 
        been seriously impacted by exotic diseases (for example western 
        and eastern white pines and Port-Orford cedar).
    Again, without a clear definition, we are unwilling to engage in a 
speculative exercise to define or evaluate a hypothetical custodial 
management scenario.

                   national forest system management

    Mr. Lyons. The letter states, ``There is presently very 
little agreement on a discreet mission for the National Forest 
System.'' Obviously, I disagree with that.
    Both the Forest Service mission and the mission of the 
National Forest System are clear and well defined in statute 
and regulation and in agency policy. As an administration, we 
have worked hard within the parameters of current law to try to 
resolve many resource management issues--everything from 
conflicts over old-growth forests in the Pacific Northwest to 
concern about agency consultations under the Endangered Species 
Act.
    As you know, Mr. Chairman, you and I have worked through a 
number of difficult issues over time and I appreciate your help 
and guidance as we have tried to deal with those issues.
    While values differ and the interests of one constituency 
may, at times, be at odds with the desires of another, we have 
tried to seek balance, reason, and dialog among those interests 
as a means of resolving these difficult issues.
    We continue to be guided by sound science and professional 
judgment while placing greater emphasis than others may have on 
seeking local input and advice.
    The national forests are managed by law for multiple use. 
This requires, by statute, that these lands be managed for the 
production of wood, water, fish and wildlife, range, and 
recreation, without concern for the use that returns the 
highest profit.
    We continue to work to seek efficiencies. But the returns 
on investment cannot and should not be measured by net revenues 
returned to the Treasury or board feet produced.
    In fact, the Multiple-Use, Sustained Yield Act of 1960 
calls for:

    Harmonious and coordinated management of the various 
resources, each with the other, without impairment of the 
productivity of the land, with consideration being given to the 
relative values of the various resources and not necessarily 
the combination of uses that will give the greatest dollar 
return or the greatest unit output.

                        natural resources agenda

    Seeking the highest net social public benefits from 
national forests requires that these other benefits are 
considered and addressed.
    In February, Chief Dombeck made a presentation to agency 
employees regarding his view of the agency's mission. His 
natural resources agenda included a focus on watershed health, 
sustainable forest management, the critical issue of forest 
roads, and the values of outdoor recreation. I know that Mike 
will provide you more detail in his remarks. But I believe that 
what Chief Dombeck stated clearly and unequivocally is his view 
of the agency and national forest mission, to answer the 
specific and primary concerns in the letter that he received.
    Although the Chief's agenda has generated some controversy, 
I would assert, Mr. Chairman, that what Mike has rolled out is 
really the result of the evolution in thinking of the agency 
and of its leadership over the past decade or so.

                      national recreation strategy

    For example, former Chief Dale Robertson distinguished 
himself as a leader in promoting recreation on the national 
forests. During his tenure, the Forest Service announced its 
National Recreation Strategy, which was the forerunner of the 
outdoor recreation strategy which is focused and refined in 
Mike's agenda. In fact, Chief Robertson's strategy was in 
response to the work of the President's Commission on America's 
Outdoors, which was initiated by President Bush.
    Chief Dombeck's focus on watershed health and sustainable 
forestry are also the product of an evolution in the thinking 
of the forestry community and Forest Service leadership about 
key natural resource issues.

                          course to the future

    You may recall that Mike's predecessor, Jack Ward Thomas, 
issued a document he called ``The Forest Service Ethics and 
Course to the Future,'' in which he outlined an agency agenda 
that included many elements similar to Chief Dombeck's natural 
resources agenda. Among the priorities set by Jack were: 
Protect ecosystems; restore deteriorated ecosystems; and 
provide multiple benefits for people within the capabilities of 
ecosystems.

                    sustainable forestry principles

    Now I do not mean to suggest that Mike is not an original 
thinker. I would suggest, as well, that Mike's emphasis here 
reflects the coming together of many ideas related to the 
present and future management of the national forests. In fact, 
I would suggest that the sustainable forestry element of Mike's 
agenda is fully consistent with the sustainable forestry 
initiative launched by the timber industry's American Forest 
and Paper Association. In fact, that document refers to 
sustainable forestry in this way, and this is a quote from 
American Forest and Paper Association's ``Sustainable Forestry 
Principles and Implementation Guidelines.'' ``Sustainable 
forestry is to practice sustainable forestry to meet the needs 
of the present without compromising the ability of future 
generations to meet their own needs by practicing a land 
stewardship ethic, which integrates the reforestation, 
managing, growing, nurturing, and harvesting of trees for 
useful products with the conservation of soil, air and water 
quality, wildlife, fish habitat, and esthetics.''
    I think that sounds like a fairly good mission statement.
    I should also point out in the industry's ``Sustainable 
Forestry Principles,'' Mr. Chairman, that attention is given to 
the need to protect special sites--in fact, principal forest 
States--to manage their forests and lands of special 
significance--i.e., biologically, geologically, or historically 
significant--in a manner that takes into account their unique 
qualities.
    I think that sounds very similar to something that Chief 
Dombeck has initiated recently.
    So many of the ideas and objectives regarding the future of 
forestry and forests in the United States are really the result 
of an evolution in thinking over time. And, in fact, I would 
suggest that our goal is to ensure the most productive use of 
our lands in terms of all its possible uses for the greatest 
number of Americans.

                            roads moratorium

    The one area of strong disagreement among some in the 
Congress clearly is over this matter of roads and the future of 
road building policy for the Forest Service. There, too, I 
would suggest that, frankly, there is more that we agree on 
than on which we disagree.
    If you would not mind, I would like Brooks Preston from my 
office to help me. We will just run through a couple of charts 
that quickly illustrate some of the points I want to make this 
morning.
    Mr. Lyons. In the national forests, we have 386,000 miles 
of road, enough to circle the globe 16 times. Most of these 
roads are poorly maintained or, frankly, not maintained at all. 
This is not the result of intentional neglect, but simply the 
lack of resources and a clear strategy for maintaining the 
transportation infrastructure we need and, frankly, for 
eliminating what we do not need, and what we agree we do not 
need.
    Some 20 percent of this road system--actually 22 percent, 
which we call our arterial and collector system--gets 80 
percent of the public use on the national forests. It is used 
for rural commerce, for access to recreation, hunting, and 
fishing, for management, and for commercial activities, like 
logging.

                          recreation use roads

    The fastest growing use of National Forest System roads is, 
in fact, for recreation. That is illustrated by this next 
chart.
    You can see that use of the national forests for recreation 
is skyrocketing, and each and every one of you sees this in the 
forests in your States. Idaho and Washington are excellent 
examples.
    Of that portion of the road system that gets the most use, 
we only have sufficient funds to maintain 40 percent of the 
mileage to the standard for which it was built. I would suggest 
that with growing recreation use, those standards are 
inadequate. Roads that were built to standards to meet the 
needs of logging trucks are not going to meet the needs of Ford 
Explorers, and we see that. That is a problem.

                             bridge safety

    The problem is compounded by the fact that nearly 1,000 of 
the 7,000 bridges that we administer are deemed structurally or 
functionally deficient by the engineers who monitor them. In 
short, they are unsafe.
    As a result, more and more we are being forced to limit 
road use because of concern for public safety on a rapidly 
deteriorating road system.
    So how do we deal with this dilemma? What is the prudent 
way to approach it? I would suggest two ways.

                            roads moratorium

    The first is to call a time-out on new road building until 
we understand the dimensions of our problem and what resources 
we can muster to deal with it. This time-out, as Mike has 
called it, has stirred a great deal of controversy. But the 
fact is that we have not proposed a permanent moratorium on 
road building and we continue to reconstruct roads to improve 
forest access for many uses, including timber.
    The fiscal year 1999 budget proposes reconstruction of 584 
miles of road by the Forest Service, primarily to address 
environmental impacts of these roads, and reconstruction of 
nearly 3,000 miles of road by timber purchasers to access 
proposed timber sales. Timber purchasers would also build 403 
miles of road in already roaded areas.
    So you can see this time-out on road building in roadless 
areas is not about cutting off access to the national forests, 
as some would have you believe. In fact, it is about taking a 
thoughtful and prudent look at our policies regarding the entry 
and management of roadless areas.
    Road construction and reconstruction in roaded parts of the 
forest will continue as needed. The moratorium proposal is part 
of a broader strategy to better manage forest roads by deciding 
which roads must be maintained and which can be decommissioned.

                         roads decommissioning

    As you can see from this chart, Mr. Chairman, we began 
decommissioning roads back in 1991 under authority provided by 
the Appropriations Committee. But if you look at the numbers, 
you can see that, although we have increased decommissioning, 
in fact we are decommissioning roads at a rate more quickly 
than they are building new roads. If you add up the miles of 
reconstructed roads in addition to those that we are 
constructing, you will find out that, in fact, improving access 
in that manner actually exceeds what we are doing in terms of 
decommissioning roads.
    I should also point out that the decommissioning is of 
roads that were called for to be decommissioned in existing 
land and forest management plans.

              roads maintenance and reconstruction backlog

    Now, the second thing we need to do is to begin to deal 
with the tremendous backlog of maintenance and reconstruction 
needs that we have on the road system, a $10.5 billion backlog. 
I believe, Mr. Chairman, that the issue of road maintenance and 
reconstruction of roads and bridges, those that get extensive 
public use, is and should be a national priority.
    High-use roads on the national forests represent 55 percent 
of the total public lands highway system, as illustrated here 
(indicating). And we have identified the other elements that 
belong to our sister agencies involved in land use management.
    Although we have proposed an increase in road maintenance 
funds in this budget, appropriations will never get the backlog 
of current road reconstruction and maintenance needs addressed. 
As I said, it is $10.5 billion.
    The consequences of this backlog are: Decreased safety for 
forest roads and bridges; degradation of watersheds resulting 
from increased erosion; and other environmental and rural 
community impacts.
    I am certain you would agree, Mr. Chairman, that this 
situation is intolerable and, in fact, it is a national 
disgrace.
    Mr. Chairman, we need your help and the Congress' help to 
address it. I also have information for the members of the 
committee reflecting the relative road mileages for national 
forest roads in each of your States. If I could, I would 
provide that for the record.
    [The information follows:]

                      National Forest Road Program

        State                                                      Miles

Alabama.......................................................     1,632
Alaska........................................................     3,458
Arizona.......................................................    30,493
Arkansas......................................................     9,926
California....................................................    44,861
Colorado......................................................    18,462
Florida.......................................................     4,128
Georgia.......................................................     1,523
Idaho.........................................................    33,894
Illinois......................................................     1,115
Indiana.......................................................        84
Kentucky......................................................     1,333
Louisiana.....................................................     2,806
Maine.........................................................        79
Michigan......................................................    11,174
Minnesota.....................................................     4,473
Mississippi...................................................     2,643
Missouri......................................................     2,354
Montana.......................................................    31,289
Nebraska......................................................       796
Nevada........................................................     5,858
New Hampshire.................................................       435
New Mexico....................................................    22,687
New York......................................................         4
North Carolina................................................     2,305
North Dakota..................................................       857
Ohio..........................................................        73
Oklahoma......................................................       690
Oregon........................................................    71,995
Pennsylvania..................................................     1,207
Puerto Rico...................................................        23
South Carolina................................................     1,657
South Dakota..................................................     4,322
Tennessee.....................................................     1,525
Texas.........................................................     2,547
Utah..........................................................    11,548
Vermont.......................................................       239
Virginia......................................................     2,757
Washington....................................................    22,191
West Virginia.................................................     1,720
Wisconsin.....................................................     7,530
Wyoming.......................................................    10,746
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   379,439

                            heavy-use roads

    Mr. Lyons. I would just point out, for example, that in 
Washington State, we have 5,400 miles of road that fall into 
this heavy-use category and that need improvement. It is 580 
miles in West Virginia; 2,600 miles in New Mexico; 10,300 miles 
in Montana; 8,500 in Idaho; 6,000 in Colorado. Senator Cochran, 
I would be glad to get you the Mississippi mileage as soon as I 
get back to my office. [Laughter.]
    [The information follows:]

    It is 952 miles in Mississippi.

                      custodial forest management

    Mr. Lyons. Mr. Chairman, as stated in Chairman Murkowski's 
letter to the Chief, ``Most Americans believe that each 
generation should leave the public resources in a better 
condition than they received them from their parents.''
    To do so, however, requires more than a custodial budget, 
if I understand the intended meaning of that word in the letter 
that Chief Dombeck received. To the contrary, what is required 
is an investment in our natural resource heritage to insure 
that the unintended consequences of past management are 
corrected to improve our environmental performance overall and 
to insure that the national forests can continue to sustain 
production of all the goods and services that come from these 
lands.
    The roads example I offered is a case in point.
    In summary, Mr. Chairman, I strongly believe that the 
investments called for in this budget are critical to our 
ability to provide stable and sustainable production of timber, 
water, fish and wildlife, range, and recreation on the national 
forests.

                           prepared statement

    More and more, the economies of rural communities are 
dependent upon a mix of national forest products and services--
not just timber anymore. We need to work with the communities 
and the counties to understand their needs, to help them 
understand our capabilities and the limitations of the land, 
and to find a balance that will provide greater stability for 
those communities in the future.
    Thank you, Mr. Chairman.
    Now I will turn to Chief Dombeck to address these issues in 
greater detail.
    [The statement follows:]

                  Prepared Statement of James R. Lyons

    Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity to appear before you this morning to discuss 
the Forest Service's proposed budget for fiscal year 1999.
    This morning I'd like to present a brief overview of our 
budget request and highlight some of the priorities we've 
identified. In his testimony, Chief Dombeck will address these 
issues in greater detail.
    Mr. Chairman, recently Chairman Murkowski of the Senate 
Energy and Natural Resources Committee and Subcommittee 
Chairman Craig along with House Resources Committee Chairman 
Young and Subcommittee Chairman Chenowith wrote to Chief 
Dombeck to raise concerns regarding agency management direction 
and to raise the specter of funding national forest management 
at a ``custodial'' level. While I know that Chief Dombeck has 
replied to this letter and the questions it posed, I want to 
offer my thoughts on the issues raised as a means of 
illustrating the budget priorities presented by the 
Administration in our fiscal year 1999 budget request.
    Let me start with the issue of agency mission.
    The letter states, ``there is presently very little 
agreement on a discrete mission for the National Forest 
System.''
    I disagree.
    Both the Forest Service mission and the mission of the 
national forest system are clear and well-defined in statute, 
regulation, and agency policy. As an Administration, we have 
worked hard within the parameters of current law to resolve 
resource management issues, from conflicts over management of 
old-growth forests in the Pacific North West to concern about 
agency consultations under the Endangered Species Act. While 
values differ and the interests of one constituency may, at 
times, be at odds with the desires of another, we have sought 
balance, reason and dialogue among those interests as a means 
of resolution. We continue to be guided by sound science and 
professional judgment while placing greater emphasis than 
others may have on seeking local input and advice. As evidence, 
I would offer the work being done by the regional leadership 
team overseeing the Columbia River Basin project to include 
affected counties and communities in the dialogue and 
decisionmaking processes.
    The national forests are to be managed for multiple-use, by 
law. And this requires, by statute, that these lands be managed 
for the production of wood, water, fish and wildlife, range, 
and recreation without concern for the use that returns the 
highest profit. We continue to work to seek efficiencies, but 
the returns on investment cannot and should not be measured by 
net revenues, returns to the Treasury, or board feet. In fact, 
the Multiple-Use Sustained-Yield Act of 1960 calls for, 
``harmonious and coordinated management of the various 
resources, each with the other, without impairment of the 
productivity of the land, with consideration being given to the 
relative values of the various resources, and not necessarily 
the combination of uses that will give the greatest dollar 
return or the greatest unit output.'' Seeking the highest net 
societal public benefits from national forests requires that 
these other benefits are considered and addressed.
    Our continuing inability to measure the returns on 
investment in terms of improved water quality, wildlife habitat 
restoration, reduced risk of wildfire, or recreation quality 
hamper our ability to gain a true picture of the valuable 
products of our management. Unfortunately, we continue to be 
challenged simply on the basis of what we produce from the 
forests, the commodities that come out of the woods. But that's 
only part of the picture. A truer perspective would also take 
into account what we leave behind the condition of the resource 
following management. For that is what affects the resources 
we're entrusted to manage and the communities we serve for the 
decades to follow. That is our true legacy.
    In February, Chief Dombeck made a presentation to agency 
employees regarding his view of the agency's mission. His 
natural resources agenda included a focus on watershed health, 
sustainable forest management, the critical issue of forest 
roads, and the values of outdoor recreation. I know that Mike 
will provide you more detail on his remarks. But I believe 
Chief Dombeck stated clearly and unequivocally his view of the 
agency and national forest system mission, to answer the 
specific and primary concerns expressed in the letter to him.
    Although the Chief's ``Agenda'' has generated some 
controversy, I would assert, Mr. Chairman, that what Mike has 
rolled out is really the result of the evolution in thinking of 
the agency and its leadership over the past decade or so. For 
example, former Chief Dale Robertson distinguished himself as a 
leader in promoting recreation on the national forests. During 
his tenure the Forest Service announced its National Recreation 
Strategy, the forerunner of the outdoor recreation strategy 
which is focused and refined in Mike's agenda. In fact, Chief 
Robertson's Strategy was in response to the work of the 
President's Commission on American's Outdoors, initiated by 
President Bush. Chief Dombeck's focus on watershed health and 
sustainable forestry are also the product of an evolution in 
the thinking of the forestry community and Forest Service 
leadership about key natural resource issues. You may recall 
that Mike's predecessor, Jack Ward Thomas, issued a document he 
called ``The Forest Service Ethics and Course to the Future'', 
in which he outlined an agency agenda that included many 
elements similar to Chief Dombeck's Natural Resources Agenda. 
Among the priorities set by Jack were: (1) Protect Ecosystems; 
(2) Restore Deteriorated Ecosystems; and (3) Provide Multiple 
Benefits for People Within the Capabilities of Ecosystems.
    Sound familiar? I would suggest, as well, that Mike's 
emphasis on Sustainable Forestry is fully consistent with the 
Sustainable Forestry Initiative launched by the timber 
industry's American Forest and Paper Association. So, many 
ideas and objectives regarding the future of forestry and 
national forest management in the United States are, in fact, 
converging. Chief Dombeck has simply brought these issues into 
focus with his ``Natural Resources Agenda''. Our goal is to 
ensure the most productive use of our lands--in terms of all 
possible uses--for the greatest number of Americans.
    The one area of strong disagreement between this 
Administration and some in the Congress is over the matter of 
roads and future road building policy. And there, too, I would 
suggest that there is more that we agree on than we disagree.
    We have 386,000 miles of roads on the national forests, 
enough to circle the globe 16 times. Most of these roads are 
poorly maintained or not maintained at all. This is not the 
result of intentional neglect, but simply the result of a lack 
of resources and a clear strategy for maintaining the 
transportation infrastructure we need and for eliminating what 
we agree we do not.
    Twenty percent of this road system--the arterial and 
collector roads--gets eighty percent of the public use. Use for 
rural commerce; for access for recreation, hunting, and 
fishing; for management; and for commercial activities like 
logging. The fastest growing use of national forest system 
roads is, in fact, for recreation. No surprise, because 
recreational uses of the national forests eclipse National Park 
visitation and are growing at a ``significant'' rate.
    Of that portion of the road system that gets the most use, 
we have only sufficient funds to maintain 40 percent of the 
mileage to the standard for which it was built. That's a 
problem. And, the problem is compounded by the fact that nearly 
1,000 of the 7,000 bridges we maintain are deemed structurally 
or functionally deficient by the engineers who monitor them. 
This is a public safety nightmare. As a result, more and more 
we are being forced to limit road use because of concern for 
public safety on a rapidly deteriorating road system.
    How do we deal with this dilemma? I'd suggest, in two ways.
    The first is to call a time out on new road building until 
we understand the dimensions of our problem and what resources 
we can muster to deal with it. This ``time out'' has stirred 
much controversy. But, the fact is that we have not proposed a 
permanent moratorium on road building. And, we continue to 
reconstruct roads to improve forest access for many uses, 
including timber. The fiscal year 1999 budget proposes 
reconstruction of 584 miles of road by the Forest Service, 
primarily to address environmental impacts of these roads, and 
reconstruction of nearly 3,000 miles of roads by timber 
purchasers to access proposed timber sales. Timber purchasers 
would also build 403 miles of road in already roaded areas. The 
table below provides a brief summary of the forest road program 
since fiscal year 1995.

                                               FOREST ROAD PROGRAM
                                                   [In miles]
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal years--
                 Accomplishment indicator                 ------------------------------------------------------
                                                              1995       1996       1997     1998 \2\   1999 \3\
----------------------------------------------------------------------------------------------------------------
Road construction purchaser credit.......................        441        417        392        504  .........
Road construction by purchaser...........................  .........  .........  .........  .........        403
Road construction appropriated funds \1\.................         27         46          8         11          8
                                                          ------------------------------------------------------
      Total..............................................        468        463        400        515        411
                                                          ======================================================
Road reconstruction purchaser credit.....................      1,690      2,301      3,210      3,130  .........
Road construction by purchaser...........................  .........  .........  .........  .........      2,957
Road reconstruction appropriated funds \1\...............        726        552        384        292        584
                                                          ------------------------------------------------------
      Total..............................................      2,416      2,853      3,594      3,422      3,541
                                                          ======================================================
Road decommissioning.....................................      2,126      1,440      1,787      1,500      3,500
----------------------------------------------------------------------------------------------------------------
\1\  Appropriated construction and reconstruction figures include recreation, timber, and general purpose roads.
\2\  Estimate.
\3\  Proposed.

    So you can see, this ``time out'' on road building in 
roadless areas is not about cutting off access to the national 
forests as some have alleged. In fact, its about taking a 
thoughtful and prudent look at our policies regarding the entry 
and management of roadless areas. Road construction and 
reconstruction in roaded parts of the forests will continue as 
needed. We will build or reconstruct about 4,000 miles of road 
in fiscal year 1999 under the proposed budget. Our budget 
provides for the decommissioning of 3,500 miles of road--as 
already identified in current forest plans. The moratorium 
proposal is part of a broader strategy to better manage forest 
roads by deciding which roads must be maintained and which can 
be decommissioned.
    The second thing that we need to do is to begin to deal 
with the tremendous backlog of maintenance and reconstruction 
needs on our existing road system. I believe, Mr. Chairman, 
that the issue of road maintenance and reconstruction of roads 
and bridges--those that get extensive public use--is and should 
be a national priority. Although we tend to focus, nationally, 
on national park and other public land roads, we need to 
support national forest roads as well. High use roads on the 
national forests represent 55 percent of the total public lands 
highway system. And, although we have proposed an increase in 
road maintenance funds in this budget, appropriations will 
never get the backlog of current road reconstruction and 
maintenance needs addressed--that's $10.5 billion and growing 
each year. The consequence of this backlog is the decreased 
safety of forest roads and bridges, and the degradation of 
watersheds resulting from increased erosion. I am certain you 
would agree, Mr. Chairman, that this situation is intolerable. 
In fact, it is a national disgrace. Mr. Chairman, we need your 
help and the Congress' help to fix it.
    On another subject, Mr. Chairman, you are aware that 
Secretary Glickman chartered a Committee of Scientists last 
fall under the National Forest Management Act. The Committee 
has been operating since the beginning of this year and will 
produce a report by late spring. It's mission is to review and 
critique the forest planning process and to guide the 
development of new forest planning regulations. I commit to you 
that based upon the committee's efforts, we will work to 
complete a new draft of the forest planning regulations for 
public comment before the end of fiscal year 1998. Then, I hope 
we can work together to lift the current prohibition on forest 
plan revisions, and structure a new approach to forest 
planning.
    Mr. Chairman, as stated in Chairman Murkowski's letter to 
the Chief, ``Most Americans believe that each generation should 
leave the public resources in better condition than they 
received them from their parents.'' To do so, however, requires 
more than a ``custodial'' budget if I understand your intended 
meaning of the term. To the contrary, what is required is an 
investment in our natural resource heritage to ensure that the 
unintended consequences of past management are corrected, to 
improve our environmental performance overall, and to ensure 
that the national forests can continue to sustain production of 
all the goods and services that can come from these lands. The 
roads example I just offered is a case in point.
    The fiscal year 1999 Forest Service budget also provides 
for and the Chief has called for a reinvestment in the health 
of the nation's watersheds. Increasingly, water is the most 
valuable commodity produced on the national forests. Our 
responsibility is to ensure that the water we produce is clean 
and clear, fishable and swimmable.
    Every major metropolitan area in the West, from Los Angeles 
and Portland to Boise, Denver, and Albuquerque depends upon the 
national forests for their water supplies. Our budget would 
increase funding for watershed assessments and riparian area 
restoration. It would seek to increase efforts to reduce fuel 
build-ups through improved thinning of densely-stocked stands 
and salvage of dead and dying timber. Hazardous fuels reduction 
efforts--including thinning, prescribed fire and other fuels 
management techniques--have increased from 300,000 acres in 
fiscal year 1990 to a projected 1.5 million acres in fiscal 
year 1999. It calls for more acres of prescribed fire to clean 
up fuels remaining after thinning and salvage operations. More 
and more, our timber sale program is focused on improving 
forest stand conditions and watershed health in this manner.
    Chairman Murkowski's letter to Chief Dombeck also suggested 
that: ``There will also be some costs associated with wildlife 
and fisheries restoration and enhancement work'' related to ESA 
concerns. Part of our road maintenance and reconstruction 
effort is intended to address the effects of poorly maintained 
roads on aquatic habitats. Recently, the National Marine 
Fisheries Service indicated that it would recommend listing of 
thirteen populations of five different salmon from northern 
California to Washington State. The road investment we propose 
is critical to our efforts to restore salmon habitat on federal 
forest lands and our work in partnership with both Governor 
Kitzhaber of Oregon and Governor Locke of Washington to avert 
the potential impacts of salmon, steelhead, and bulltrout 
listings on both public and private lands in the Pacific North 
West. In fact, Mr. Chairman, it is ludicrous to consider 
improvements in salmon habitat in the Pacific Northwest without 
investing in restoration of the deteriorating national forest 
system roads, which are causing harm to the waterways that are 
key to the salmon's survival.
    Also critical to addressing our obligations for species 
recovery under the ESA is increased funding for the agency's 
fish and wildlife program. The reason is simple, the national 
forests are the home to more threatened and endangered species 
than any other part of the federal domain. That is, in part, 
because we continue to manage so much relatively undisturbed 
habitat on which these species depend. In part, it is also by 
design. In the Pacific North West, for example, a conscious 
decision was made to manage for the spotted owl, the marbled 
murrelet, and to protect watershed critical to salmon, 
steelhead, and threatened and endangered species of trout on 
national forests. In fact, it was this policy decision that 
helped make possible the development of habitat conservation 
plans for the forest lands of companies like Weyerhauser and 
Plum Creek.
    In summary, I strongly believe that the investments called 
for in this budget are critical to our ability to provide 
stable and sustainable production of timber, water, fish and 
wildlife, range, and recreation on the national forests. More 
and more, the economies of rural communities are dependent upon 
a mix of national forest products and services. We need to work 
with the communities and the counties to understand their 
needs, to help them understand our capabilities and the 
limitations of the land, and to find a balance that will 
provide greater stability for the future.
    Our past focus on timber almost to the exclusion of other 
resource values and services only served to increase economic 
instability, particularly for isolated communities. I fear that 
any effort to limit our management activities by reducing our 
budget will have a further destabilizing effect for rural 
people. The best course is to invest in land stewardship with 
the communities as partners and to use the considerable 
resources of the federal government to aid the communities at 
risk. We seek the opportunity to work with you toward this end. 
Because, our ability to work together--this subcommittee, the 
Congress, and the Administration--will ultimately determine the 
health of this nation's natural resources and the 
sustainability of the communities which benefit from the 
stewardship of these resources.
    Thank you for the opportunity to address you this morning.

                   summary statement of mike dombeck

    Senator Gordon. Chief.
    Chief Dombeck. Mr. Chairman, thank you, and committee 
members.
    Since Jim focused on the natural resource issues, I would 
like to spend more time talking about the business and 
accountability side of the Forest Service.
    I believe that, as Senator Craig mentioned, in order to 
resolve these problems, it is important that we work together. 
I know that there are philosophical differences. There are 
philosophical differences almost everyplace. I can even find 
them at home. But the important thing is that we continue to 
work together.
    I want all of you to know that I am available at anytime to 
meet and talk about these issues and continually search for 
common ground.

                          business management

    I would like to focus now and spend just a few minutes 
talking about the business side of the Forest Service. I 
certainly acknowledge the problem. The 100-plus inspector 
general and General Accounting Office reports that were 
discussed at the March 26 hearing in front of the joint 
committees with the House is a record of some of the challenges 
that we have as an organization. From the day I came on board, 
I indicated to employees and others that in order to be good 
resource managers, we have to be good business managers and we 
have to be good human resource managers.
    The Forest Service is equivalent to a Fortune 500 company. 
It has 30,000 employees, a $3 billion budget, and its business 
and accounting systems need to be up to snuff and up to date.
    While I was Acting Director of the Bureau of Land 
Management, we got our first clean financial audit in 1995. And 
although the budget structure in that organization is certainly 
a much less complex organization than the Forest Service, the 
job was done there and I believe the job can be done at the 
Forest Service. But it is going to take time.
    It took Jack Welch 10 years to work on General Electric 
[GE], and we have complexities beyond many of those that GE had 
that have evolved over time.
    I would say, very simply, from the management standpoint, 
as I view the Forest Service and the challenges that we have, 
the complexity is killing us. It is taking up resources. It has 
moved the resource manager out of the field, back into the 
office, with less time in the woods, less time dealing with 
customers, less time dealing with loggers, recreationists, and 
so on. We want to work on that situation together.
    Can it be fixed? Yes; here is what we think it needs.
    First of all, we need general agreement on resource 
priorities and a good business system will help us achieve that 
agreement. We need employees that are well trained in business 
management practices. We are an organization of some of the 
best resource managers and scientists in the world in areas of 
silviculture, fire management, watershed work, engineering, and 
the list goes on and on.
    However, the focus has not been on the business side of the 
organization. I intend to place a very high level of focus on 
that area and make sure that we have the right skill mix to 
achieve what we need.
    We need accurate and current information. We find ourselves 
in a situation where we are drowning in data and where we lack 
information.
    Just to give you an idea of the complexity of the situation 
we face: Some management codes do as little as 5,000 dollars' 
worth of business a year. We have too much under a microscope, 
and that complexity is a situation we need to deal with.
    To achieve success, we are going to need a strong 
partnership with Congress, with the committees here to move 
forward with that. Then we will need time to deal with the 
issue.
    I have taken some actions. I do not want to leave the 
impression that we have been looking the other way as this is 
going on.
    As I indicated on my first day on the job, as I talk with 
employees we continually emphasize the need for good business 
management practices, human resource management practices, and 
natural resource management skills. We cannot have one without 
all three.

                        management action taken

    I brought in Francis Pandolfi, the day I came to work, from 
the private sector, a chief executive officer with 25 years of 
experience and a Harvard MBA, to help with the situation. Some 
leadership changes have been made. I want to move quickly to 
fill the positions that we have.
    We initiated a Coopers & Lybrand study, I might add. One of 
the suggestions George Leonard made to me, in addition to 
Francis, was to bring in a big 10 accounting firm to take a 
look at our structure, take a look at the situation we deal 
with, and to make recommendations. We have that report and 
Francis would be happy to discuss any details you have.
    I found myself as Chief with 35 direct reports. We have 
reduced that number to, I think, about 10 or 11. It was a 
situation from the standpoint of immediate supervision with a 
breadth of almost unmanageable proportion.
    We initiated the Chief's reviews that have been in the 
Forest Service Manual for many, many years. And yet, I was 
unable to find anyone that had participated in one. And the 
objective that we are placing on the Chiefs' reviews--and we 
will be doing them at all the major units this year--is to 
begin to look ahead of the headlights. We are spending so much 
of our time dealing with the immediate concern of the day that 
the big issues that are coming upon an organization of this 
size are going unattended. We need to spend more organizational 
energy of the Deputy Chiefs, the Regional Foresters, looking 
ahead of the headlights. What is coming at us 5 or 10 years 
from now and what could we have done 10 years ago to avoid some 
of the situations we are in today? I believe it is important 
that we deal with that.
    We are working with the Department to implement a new 
general ledger. There are some problems with that. But we are 
working on those and we will keep you informed as that 
develops. And, of course, there is the natural resources agenda 
that I have put forward.
    So the bottom line is on the accountability and business 
management sides, much of the topic of the Christian Science 
Monitor article that you quoted from, Senator Craig. Can the 
Forest Service be fixed? Yes; we need to do it together. We 
need to be aggressive about doing it.

                           prepared statement

    But I believe it can be done. It is going to take 
commitment. There will be a tremendous saving in doing it, and 
the long-range objective that I have is we not only want a 
Forest Service that is a better place to work, but we want an 
organization that works better.
    I would thank you.
    I would like to ask that my written statement be entered 
into the record.
    Senator Gorton. It already has been ordered.
    [The statement follows:]
                   Prepared Statement of Mike Dombeck
    Mr. Chairman, Senator Byrd, and Members of the Committee: I 
appreciate the opportunity to appear before you today to talk about the 
President's fiscal year 1999 Budget.
    I have had the honor of serving as Chief of the Forest Service for 
the past 16 months. During that time I have worked hard to focus our 
direction toward these broad goals:
  --Restoring and maintaining the health of the land;
  --Ensuring accountability for what we do on the land, our financial 
        resources and business systems, and the civil rights of our 
        employees; and,
  --Promoting collaborative stewardship, partnerships, and decisions 
        based on the best science.
    I realize philosophical differences exist over how best to achieve 
these goals, or perhaps over the goals themselves. I believe that even 
as we recognize these differences, it is important to maintain good 
working relationships.
    Mr. Chairman, in my testimony today, I want to concentrate on the 
important elements of the President's Budget and how it relates to the 
Forest Service Natural Resource Agenda, and also discuss the Agency's 
financial management systems and the improvements that are needed. 
First, let me provide a brief thumbnail sketch of the overall budget.
    Overall, the President's Budget for the Forest Service proposes an 
increase of 2 percent in discretionary funds. We will manage the 191.6 
million acres of forests and grasslands and a $30 billion 
infrastructure with a work force which is 2 percent smaller than in 
fiscal year 1998. We will provide services in support of approximately 
860 million visits annually by the public. We will manage a road system 
consisting of 373,000 miles used by 1.7 million vehicles daily for the 
purpose of recreation. With the total Forest Service budget of $3.3 
billion, we will provide conservation leadership that emphasizes 
watershed health and sustainability of services and products that come 
from the national forests. The budget includes Presidential Initiatives 
that provide $127.3 million for support of such priorities as: the 
Clean Water Action Plan; recreation; road, trail, and facility 
maintenance; and research. In addition, there are funding increases in 
other important areas, such as hazardous fuels reduction, and wildlife 
and fisheries habitat management.
Forest Service Natural Resource Agenda
    With that brief overview, let me talk about the budget in the 
context of the Forest Service Natural Resource Agenda. The Agenda is 
tiered to the goals and objectives described in our Strategic Plan 
prepared under the requirements of the Government Performance and 
Results Act (GPRA). The Agenda identifies and prioritizes areas of 
emphasis within the objectives of our strategic plan. The strategic 
plan at the national level, and the forest plans at the local level, 
set land management direction for the Forest Service. Fulfilling the 
Agenda will help strengthen the confidence of our constituents in the 
Forest Service's ability to manage our public land.
    The four key emphasis areas of the Natural Resource Agenda are: (1) 
Watershed Health and Restoration; (2) Sustainable Forest Management; 
(3) National Forest Road System; and (4) Recreation.
Watershed Health and Restoration
    Let me start by discussing Watershed Health and Restoration, which 
is one of the primary reasons for creation of the national forests. For 
many years, our nation's approach to conservation was based on the 
premise that we must protect the best of what remains as exemplified by 
progressive laws which created wilderness areas and wild and scenic 
rivers. Healthy watersheds are the foundation for sustainable multiple 
use management, including providing clean water for people and other 
outputs. Sustaining the health of the land must be our overriding 
priority. Compared to fiscal year 1998, the President's Budget contains 
important funding increases to accelerate this part of the Agenda, such 
as:
  --A $12.6 million increase to provide an additional 12,000 acres of 
        watershed improvements, and expand clean-up of hazardous 
        substances sites that impact natural resources and public 
        health and safety.
  --A $15 million (or 30 percent) increase for hazardous fuels 
        reduction, a critical tool for restoring forest health. This 
        will result in a reduction of fuels on almost 1.5 million 
        acres. The proposed fiscal year 1999 program builds on strong 
        support Congress shows in the fiscal year 1998 Appropriations 
        Act for hazardous fuels reduction.
  --A $20 million increase in Rangeland Vegetation Management. The 
        increase would allow the Forest Service, in partnership with 
        other USDA and Interior agencies, to begin the first year of a 
        multi-year cooperative effort to address both the status and 
        the restoration of rangelands. It would provide for the 
        restoration of approximately 42,000 acres of range vegetation 
        through non-structural improvements in the Western States, and 
        the control of noxious weeds on 55,000 acres.
  --Increases for both the Road Maintenance Program and the Road 
        Reconstruction and Construction program focused on improving 
        watershed health and public safety. I will discuss these 
        important programs in more detail later in this testimony.
    Only by accepting our responsibility for maintaining watershed 
health can we move forward with a more balanced approach to watershed 
protection and the provision of grazing, timber, and other outputs. I 
have often said that on a national scale our nation's forest and 
grasslands are basically healthy. But there are areas where 
deterioration is of great concern. We take this responsibility 
seriously, and we are taking action. For example, on the Clearwater 
National Forest, the winter storms of 1995 and 1996 produced erosion on 
old logging roads that caused considerable watershed damage. The Forest 
is working with the Northwest Power Planning Council, the Nez Perce 
Tribe, and local agencies to plan and identify funding for the 
obliteration of 200 miles of these roads over the next two years.
Sustainable forest management
    The second point I want to address in the Natural Resource Agenda 
is Sustainable Forest Management. Two thirds of the nation's forest 
land is managed by owners other than the Federal government. 
Sustainable forest management cannot be achieved in the U.S. without 
full engagement by all forest landowners. Only by forming coalitions 
among communities, conservationists, industry, and all levels of 
government can we address the complexity of achieving sustainability 
across the landscape.
    The President's fiscal year 1999 budget supports the effort to 
achieve sustainable forest management in a number of areas, such as:
  --An increase of $10 million for Forest and Rangeland Research with 
        primary emphasis given to: accelerating annualized inventories 
        and improving analytical capability under the Forest Inventory 
        Analysis program (FIA); expanding the forest health monitoring 
        program and accelerating integration with FIA; and, increasing 
        research critical to better understanding and mitigating the 
        impacts of climate change as it relates to forests and 
        rangelands;
  --Funding increases for a number of State and Private Forestry 
        programs to help individual landowners, communities, and States 
        capture the benefits of trees and forests through planning and 
        stewardship. These programs include the Forest Stewardship 
        Program, Stewardship Incentives Program, Forest Legacy Program, 
        and the Urban and Community Forestry Program.
    In addition, using our own inventory and monitoring data, and 
collaborating with other land management agencies and organizations, we 
plan to develop a national report on the condition of the Nation's 
forests based on the Criteria and Indicators for Sustainable Management 
of Temperate and Boreal Forests. These non-legally binding criteria and 
indicators (C&I) are endorsed by a number of countries--such as the 
United States, Canada, Japan, Australia, Russia, and others--that 
contain 90 percent of the world's temperate and boreal forests and 60 
percent of all forests on the globe. The C&I provide a common 
understanding of what is meant by sustainable forest management and a 
common framework for evaluating progress toward achieving 
sustainability. A broad array of U.S. stakeholders, including State 
Foresters, and environmental and industry groups support use of the 
C&I.
National Forest Road System
    Mr. Chairman, now let me turn to the third area of the Natural 
Resource Agenda. That area is the National Forest Road System. Needless 
to say this issue has received extensive attention since I announced 
development of a new road management policy in January 1998. 
Unfortunately, the majority of this attention has focused on the 
proposed interim policy for road construction in roadless areas. I know 
many on this Committee are very concerned about that policy. Mr. 
Chairman, this proposed interim rule is only one of several important 
aspects of this forest roads proposal. By concentrating on the roadless 
policy, attention has been diverted away from the broader issue of 
managing overall road access. That is unfortunate because the forest 
road system is, in many places, the best of the rural transportation 
system. We must do a better job of meeting these local needs.
    I am very concerned about the condition of the forest road system. 
Today, our road system accommodates 1.7 million vehicles per day that 
are being driven for recreational purposes. This is 10 times the 
traffic experienced in 1950. This compares to 15,000 vehicles per day 
for timber related activities, which is about the same as the 1950 
level. While recreation related vehicle use has increased, today there 
are 7,600 less miles of road available to passenger type vehicles than 
in 1991. Our inability to fully maintain the roads we have has resulted 
in the gradual degradation of the road system. The Forest Service has a 
road maintenance and reconstruction backlog of over $10 billion. It is 
a plain and simple fact that we have not been fully funded to care for 
the roads we currently have, and poorly maintained roads can seriously 
degrade watersheds and pose a threat to public safety. We are proposing 
to begin to reverse this trend through improved management policies, 
and our budget priorities.
    The Forest Service has sought public input on the scope and nature 
of a proposed revision of the national forest system road management 
policy. In proposing this, we asked for feedback on three expected 
outcomes. First, as fewer forest roads are built today, we will ensure 
they are built to minimize adverse environmental effects. Second, 
existing roads that are no longer needed or that cause significant 
environmental damage will be removed. Third, roads that are most 
heavily used by the public will be made safer, and any adverse impacts 
on water quality, aquatic habitat, and fisheries, will be reduced.
    We have also sought public input on our interim roadless proposal 
to temporarily halt road construction in most areas of the national 
forest system that do not presently have roads. This proposal 
recognizes that we cannot afford to manage our existing road system. We 
will use this time to engage the Congress and the American people in a 
constructive dialogue about where and when new roads should be built on 
national forests.
    The President's Budget supports the need to improve management of 
the road system we currently have and need to maintain. For example, 
the budget proposes:
  --An increase in the Roads Reconstruction and Construction Program of 
        $8 million (or 9 percent). The increase will be focused on road 
        reconstruction to protect and restore watersheds, improve 
        safety, and provide appropriate access for utilization of 
        forest resources.
  --A $22 million (or 26 percent) increase in the Road Maintenance 
        program that would fund the decommissioning of 3,500 miles of 
        roads, which is less than 10 percent of the total need 
        identified by the Agency. It would also increase the percent of 
        system roads maintained to standard from 38 percent in fiscal 
        year 1998 to 45 percent in fiscal year 1999.
Recreation
    Mr. Chairman, the fourth and last emphasis item in the Natural 
Resource Agenda is Recreation. The President's Budget provides strong 
support for the recreation program and contains important proposals to 
permanently implement the many successes we have found with new 
recreation initiatives. The national forests and grasslands are the 
largest supplier of outdoor recreation opportunities in America. With 
the majority of Americans easily able to access National Forest System 
land from practically anywhere in the country, it is clear the national 
forests are America's backyard for recreation. The national forests had 
more than 800 million visits in fiscal year 1997, and we expect this 
demand to increase to 1.2 billion visits over the next 50 years.
    The President's Budget recognizes the important challenges 
represented by this increasing demand for recreation, and has proposed 
a $21.1 million increase in the Recreation Use Program over the enacted 
amount in fiscal year 1998. A priority emphasis for these funds is the 
maintenance of recreation sites, such as restoration and replacement of 
water and sanitation facilities, as well as high priority trail 
maintenance in wilderness and non-wilderness areas. We are using 
appropriated funds, fees generated from the Recreation Fee 
Demonstration program, support from partnerships, and other measures to 
address our critical recreation program needs. For example, funds 
generated under the Recreation Fee Demonstration program on the Siuslaw 
National Forest were used to rehabilitate resource damage to meadows 
around Mary's Peak Recreation Area, upgrade garbage collection services 
and add restrooms at the Sandlake Recreation Area, and complete 
resource restoration work and maintain facilities at the Oregon Dunes.
    I want to briefly discuss the Recreation Fee Demonstration program. 
In fiscal year 1997, approximately 35 million visits occurred on the 40 
sites currently operating under the program. An additional 43 sites 
will be added in fiscal year 1998. In fiscal year 1997 the Forest 
Service collected over $7 million of which $3.7 million will be 
expended for maintenance work. The remainder will be used for enhanced 
services. We expect collections to increase in fiscal year 1998 to 
approximately $18 million. These collections are critical for helping 
us provide the services American's expect from the national forests. 
However, let me emphasize that America's recreational use of the 
national forests is highly dispersed. Those 35 million visits to 
Recreation Fee Demonstration sites represent only 4 percent of the 
total recreation visits on the national forests. American's expect a 
lot from us in terms of the quality of their recreation experience, for 
both dispersed use and at fee sites. The President's Budget recognizes 
those expectations. The budget proposes increased appropriations for 
recreation and assumes that the Recreation Fee Demonstration Project 
receipts will be used in addition to appropriated funds as the 
authorizing statute intended; otherwise, the backlog will continue to 
grow.
    Also in the fiscal year 1999 budget is a proposal to permanently 
authorize Forest Service retention and use of receipts from recreation 
sites, including that portion of the Land and Water Conservation Fund 
receipts outside of the Recreation Fee Demonstration pilot program. We 
estimate that beginning in fiscal year 2000, total resources generated 
under this proposal will be about $26 million.
Payments to States proposal
    We are very aware of the importance of revenues to county 
governments and the effects upon the local economies when their sources 
of revenues diminish. As timber production on the national forests has 
declined in recent years, the payments generated by the forests have 
dropped in some cases precipitously. The Congress recognized this in 
1993 by enacting special legislation for the spotted owl forests which 
provided an annually declining percentage of average 1986-90 receipt-
sharing payments for the affected areas. In 1997 that guarantee dropped 
to 76 percent, and it will decline to 70 percent in 1999 under the 
current legislation.
    In order to provide all county governments with a predictable level 
of payments from the national forests, the Administration is proposing 
legislation to stabilize the payments. Our fiscal year 1999 proposal 
will fix payments at $270 million, which is $37 million above the 
amount paid based on 1997 receipts. This figure of $270 million is 
based on providing each county with the guarantee currently extended to 
the owl forests of 76 percent of the 1986-1990 average payment. For 
those counties where the 1997 payment was greater than that amount, the 
payment would be frozen at the 1997 level. The program will continue to 
be funded by a permanent appropriation to ensure that payments will not 
decline in future years. I understand that some counties located in the 
Eastside project area of the Interior Columbia Basin Ecosystem 
Management Project have written to the Office of Management and Budget 
asking for stability in their 25 percent payments. We would like to 
work with you to design a fair system for these and all counties.
Financial management systems
    As I mentioned earlier, one of my goals is to improve our financial 
management and business systems.
    I agree with the audit findings of the General Accounting Office 
(GAO) and the USDA Office of Inspector General (OIG). The Agency's 
financial systems and administrative processes must be improved. The 
complexity of the processes and the interrelationships of the 
activities we manage require a systematic and comprehensive approach. 
We have worked extensively with these groups in the past and are 
currently working with OIG to address a number of fiscal and audit 
issues. We welcome their advice and input into improving our Agency 
business management practices.
    The Forest Service operates on an accumulation of faulty or 
outdated information systems--some more than 20 years old--that are not 
integrated to perform the analysis to make sound decisions, and verify 
accountability. All of our corporate processes and information must be 
linked in an integrated, performance-based framework.
    I realize that we have significant improvements to make in 
financial management and accountability, and I want you to know that I 
am committed to my employees, the Congress, and the taxpayers to see 
that these improvements are made. I will continue to take aggressive 
action to ensure that the Forest Service becomes one of the most 
efficient agencies in the Federal Government. While we acknowledge that 
there is much work yet to be done, we have made a good start in 
implementing long-needed changes.
    In conjunction with the USDA Chief Financial Officer and the OIG, 
we are working towards implementing a new general ledger system called 
foundation financial information system (FFIS). While we are making 
progress in some aspects of FFIS implementation, the Forest Service and 
the National Finance Center still face uncertainties due to the 
complexity of the Agency budget and program requirements. USDA is 
working with an outside consultant to decide how to proceed. USDA will 
inform Congress once decisions are made on the most effective and 
efficient way to move forward. As we work through the implementation of 
FFIS, we plan to modify our own financial management requirements and 
identify where Congress in its authorizing and appropriations processes 
can help us to achieve a strong and accountable financial management 
system.
    In addition, I commissioned a study by the Coopers and Lybrand 
accounting firm to review our financial management situation. Their 
report, released in March, makes recommendations on streamlining and 
clarifying our financial management systems. I intend to carefully 
review these recommendations and take appropriate action to strengthen 
financial management in the Forest Service.
    Many of the accountability issues we face were years--even 
decades--in the making. We have already made some progress in 
addressing concerns regarding the Agency's management and financial 
condition. But we still have a very long way to go. It will take time 
before we can address effectively the full range of fiscal and 
management accountability issues. Major changes take time. It will take 
several years to turn this situation around and we urge the Congress 
and the Federal audit branches to recognize these major shifts and work 
with us as we strive to meet the mandate of improving the financial 
health of the Agency. Combined with the complexity of the 
interrelationships among our programs and the migration to new 
information systems, we face a great task, and we look forward to the 
reward.
    That concludes my prepared remarks. I would be happy to answer any 
questions you may have.

                          forest service staff

    Chief Dombeck. I would like to introduce the key Forest 
Service staff that are here who can provide details on 
questions. Starting at my right is Francis Pandolfi. Randy 
Phillips is here for Bob Joslin. Deputy Chief Bob Joslin's 
mother had a heart attack yesterday and he had to fly to 
Arizona to deal with that unfortunate situation. We hope she is 
doing well.
    I have Robert Lewis, Deputy Chief for Research; Janice 
McDougle from State and Private Forestry; Clyde Thompson, 
Operations; and Ron Stewart from Programs and Legislation.
    I also have Kim Thorsen from law enforcement here as well 
as Luther Burse, our Director for Civil Rights.
    With that, we would be happy to answer any questions and 
enter into any dialog and hope it will be very helpful.
    Senator Gorton. Thank you, Chief Dombeck.
    Senator Byrd, if Senator Domenici thinks he is going to be 
better treated sitting over there beside you, he is in error in 
that connection. [Laughter.]
    But you are the ranking member, a friend, and a supporter. 
You did not have an opportunity before the speakers to make an 
opening statement. So you can both make an opening statement 
and ask your questions now.
    Senator Domenici, you will be treated in order. [Laughter.]
    Senator Domenici. Let me just say that I told Senator Byrd 
that there were so many Republicans, I figured I would sneak in 
over here and I may get called on sooner. [Laughter.]

                   remarks of senator robert c. byrd

    Senator Byrd. Mr. Chairman, Scriptures say that a word 
fitly spoken is like apples of gold and pictures of silver. I 
think it would be appropriate to fitly speak a word on this 
subject. Now that Mr. Domenici has come over to this side of 
the aisle, the intelligence quotient on this side of the aisle 
has shown a precipitous rise with a commensurate decrease on 
the other side of the aisle. [Laughter.]
    As the only representative of my party--and I don't do an 
excellent job of that, as you will notice in some of my votes--
--
    Senator Gorton. I have. [Laughter.]
    Senator Byrd [continuing]. I do welcome Senator Domenici to 
this side of the aisle.
    Seriously, I join with all others in welcoming Chief 
Dombeck before this subcommittee. He has been in charge of the 
Forest Service for a little over a year now. The issues 
confronting the agency are of great concern to many people and 
the challenges facing the Forest Service are not easily 
solvable.
    So I look forward to hearing more of his testimony and to 
exploring ways that the Forest Service can continue to play, as 
it has played for over a long period, a constructive role in my 
State of West Virginia, to assistant in responsible management 
and stewardship of our forestry resources.
    Now, Mr. Chairman, I was late in arriving. I am perfectly 
willing to await my turn and yield to you.
    Senator Gorton. Oh, no. Why don't you go ahead, Senator 
Byrd.
    Senator Byrd. Thank you. I will be quite brief in that 
regard.

                      hardwoods technology center

    Chief, we have already talked a bit about the Princeton 
Hardwoods Technology Center and I look forward to your having 
an opportunity to think about this for a few days as we 
discussed. Then, as soon as possible, if you can get back to 
me, I want us to get this facility on the right track. I will 
be eagerly awaiting your analysis of the situation and your 
advice and comments.

                      seneca rocks visitors center

    With regard to the Seneca Rocks Visitor Center, which was 
destroyed by fire in 1992, what is the current schedule for the 
completion of the facility and when do you expect that it will 
be open for public visitation?
    Chief Dombeck. Well, Senator, we hope to have the facility 
open in July of this year, and I hope you can participate in a 
dedication of that event. We hope to have the center fully 
operational with the displays and everything in place by spring 
1999. I am one, at least until I got this job, who got to the 
mountains of West Virginia fairly often to be up on Spruce Knob 
or go camping. In fact, I did cut a Christmas tree off the 
Monongahela National Forest that was in my office this year. I 
also want you to know that I did pay the $5 for the permit for 
that tree. [Laughter.]
    So I am also looking forward to seeing the completion of 
that and hope that we can participate in the dedication 
ceremony when that is completed.
    Senator Byrd. What are the estimated costs for operations 
of the visitor center and what plans does the Forest Service 
have for developing its budget for next year to accommodate the 
additional operating costs that will accompany this facility?
    Chief Dombeck. I do not have that information with me, the 
specific operational costs. But I would be happy to provide 
that to you for the record.
    Senator Byrd. Very well.
    [The information follows:]

                      Seneca Rocks Visitor Center

    The estimated annual operating cost for the Seneca Rocks 
Visitor Information Center is $275,000. The Monongahela 
National Forest and the Southern Region Headquarters are 
exploring partnership opportunities to offset the increased 
costs of operation and maintenance for the Seneca Rocks Visitor 
Information Center.

                    west virginia forestry research

    Senator Byrd. We have three research activities in West 
Virginia--Morgantown, Parsons, and Princeton. I understand the 
staffing and funding for these locations are maintained in the 
fiscal year 1999 budget at the fiscal year 1998 enacted level.
    Is that correct?
    Chief Dombeck. Yes; and let me ask Deputy Chief Robert 
Lewis, who has a personal knowledge of and directs these 
programs.
    Dr. Lewis. Thank you and good morning, Senator.
    We do maintain the extended level that we had last year at 
all three labs, at the Princeton Center as well as Morgantown, 
and at Parsons as well. Our plans are to continue to do that.
    Senator Byrd. While the budgets for these locations are not 
decreasing, they also are not keeping pace with inflation and 
other uncontrollable cost increases.
    What are the consequences to the research program of the 
Forest Service not receiving increased funding to address these 
costs?
    Dr. Lewis. We have had to deal with the rate of inflation 
through managing our research program through attrition. The 
overall impact has been a reduction in the number of scientist-
years as we provide operating funds for our scientists that 
they might be productive.
    So the overall impact has been a decrease in the research 
effort. For example, the agency is now down to 548 scientist-
years, permanent full time, as compared to about 1,000 about 10 
years ago.
    Senator Byrd. So some equipment and facility improvements 
get deferred, I assume.
    Dr. Lewis. We have both equipment deferrals, as well, which 
would be an impact.
    Senator Byrd. When these types of investments can no longer 
be put off, then what will the agency do? Will it defer hiring 
and filling of vacancies?
    Dr. Lewis. We can defer hiring and filling of positions 
only to a point. And at that point we end up closing a number 
of locations.
    Senator Byrd. Yes; though I am not suggesting that you do 
that. We want to keep abreast of these needs.
    What actions are being taken to fill the vacant unit leader 
and scientist positions at Princeton?
    Dr. Lewis. We currently have an employment certificate to 
fill the project leader's job down at Princeton. Our No. 1 
candidate did not accept the position, but we have made an 
offer to the No. 2 candidate on the list. We hope to have that 
position filled shortly.
    Senator Byrd. Mr. Chairman, I have other questions. I will 
submit them.
    Senator Gorton. Senator Byrd, your questions and the talk 
about Princeton reminded me that last night I had dinner with a 
friend whose avocation is thoroughbred horses. He told me of a 
recent trip to Charlestown in West Virginia and commented on 
the magnificence of the roads and the schools in that area. I 
was beginning to wonder after this opening whether there would 
be any building sites left in West Virginia.
    Senator Byrd. There will be building sites left.
    Senator Gorton. I suspect so and that we will hear about 
them. [Laughter.]
    Senator Byrd. Mr. Chairman, let me just comment about the 
schools.
    You have before you a product of a two-room school. I 
started out in 1923 in a two-room school. We had outside 
plumbing and we drank spring water. It was all in one bucket 
and we all drank out of one dipper. So far as I know, we are 
all well and healthy, still.
    We have progressed a long way from the two-room school. But 
it might be a good thing if all the children of our country 
could have the experience of going to a two-room schoolhouse 
and attending there for a year. They learn from the upper 
gradesmen and they have dedicated teachers. Mine did not get 
paid very well, but they were highly dedicated.
    Well, so much for the two-room schoolhouse.
    Senator Gorton. In any event, I regarded the comments last 
night as a great compliment to the senior Senator from West 
Virginia.
    Senator Byrd. Thank you.
    Senator Gorton. Senator Cochran has only a few brief 
questions and I am going to turn to him next. The others, in 
order of appearance, are Senator Craig, Senator Domenici, and 
Senator Bennett. I am going to defer my own questioning to the 
end because it is quite extensive.
    So, Senator Cochran, we will go to you.
    Senator Cochran. Thank you very much, Mr. Chairman.

                     mississippi forestry research

    One of the functions of the Southern Research Laboratory at 
Stoneville, MS, is to develop programs in the management of 
bottomland hardwood resources and a greater understanding of 
the hydrology and other aspects that are unique to this 
important national resource.
    There is concern that as we focus on the Forest Service we 
think about public lands, but there are a lot of private lands, 
particularly in the South, that could benefit from technical 
assistance and research that is done at these Federal 
facilities, like Stoneville.
    I know Dr. Lewis has personal experience at that facility. 
It is where he started out his career and now he is at a point 
of high level of importance in the Forest Service. We 
congratulate you on your outstanding career and what you 
continue to do for the country in this capacity.
    But my question--and I will submit this so that you will 
have a greater opportunity to talk about some specifics--is how 
we can do a better job at these research facilities. We have 
subunits located in Oxford and there is a Forest Service lab at 
Mississippi State University. All are working on specific 
problems. But particularly the bottomlands hardwoods is a 
concern of mine as it is with many private landowners in our 
State. How do we reforest more effectively the cropland that 
had been cleared once upon a time and is now being put back 
into bottomland hardwood resources?
    Also, there is some specific research at the Forest Lab at 
Mississippi State University on the termite issue. We have had 
some pesticides that have been taken out of use because of 
dangers to health and human safety. They are trying to do 
something to find substitutes there.
    I hope you will look at those issues. You may be able to 
respond now on this subject of the bottomlands hardwoods 
research. I don't know whether Mr. Dombeck or Dr. Lewis want to 
respond to that. But I have those questions that I want you to 
look at and provide answers for the record.
    [The information follows:]

             Wood Products Insect Research, Starkville, MS

    The mission of this unit is to define the role of termites 
in forest ecosystems, to improve protection of wood against 
damage, and to understand the impact of termites on forest 
health. It is the primary federal research unit working on 
control of termites in buildings. All new termiticides must 
undergo extensive laboratory and field testing by this unit 
prior to EPA registration. Field testing and screening sites 
are located in Arizona, Florida, Maryland, Mississippi, South 
Carolina, and on Midway Island and in the Panama Canal Zone. 
The unit works closely with the Department of Defense, state 
termite inspection agencies, chemical and wood products firms, 
and Mississippi State University. In addition, the unit 
conducts research on the role of termites and other insects in 
decomposition of wood in forest ecosystems enhancing nutrient 
cycling. This unit collaborates with the International 
Institute of Tropical Forestry in the Forest Service's tropical 
forestry program located in Puerto Rico.

center for southern bottomland hardwood and wetland forest ecosystems, 
                             stoneville, ms

    This new research work unit, formed in fiscal year 1996, is 
a consolidation of the following former four units and includes 
units formerly administered at Starkville and Oxford, MS:
    Technology of forest tree seeds.--This unit develops 
methods of collecting, conditioning, and storing eastern forest 
tree seeds that will generate and maintain high seed quality. 
Research results are used forest nursery and seed orchard 
managers with National Forest System Region 8, forest industry, 
and southern state forestry agencies. The unit is a partner in 
the tree seed research cooperative at Mississippi State 
University and collaborates in regional, national, and 
international projects of the cooperative. The location will 
still be open with two scientists.
    Multiple-Resource Management of Southern Bottomland 
Hardwood and Wetland Forest Ecosystems.--This unit provides the 
information required for ecologically sound management 
guidelines necessary to maintain, protect, or enhance the 
structure, function, productivity, and value of southern 
bottomland hardwood and wetland forest ecosystems. Research 
results are used by land managers in Federal and state 
agencies, forest industry, and non-industrial private forest 
landowners to manage natural stands of bottomland hardwoods. 
Expanding efforts to reforest marginal agricultural land and to 
restore forested wetlands have caused a resurgence of interest 
in research results for this unit in artificial regeneration 
methods. This unit participates in the Southern Research 
Station's Ecosystem Management Program, and with ``Partners in 
Flight'' to develop landscape-scale approaches to forest 
management for multiple resources, including habitat for 
sensitive neotropical landbirds.
    Watershed Ecosystem Research for the Mid-South Upper 
Coastal Plan and Interior Highlands.--This unit, located at 
Oxford, MS, was closed in fiscal year 1996 and the research 
transferred to Stoneville. The location will still be open with 
three scientists. This new sub-unit conducts hydrologic and 
aquatic ecological research to identify rational forest 
management strategies that will aid in the maintenance of 
diverse, healthy ecosystems; allow sustainable use of forest 
resources, promote recovery of depleted species and 
communities; and product quality water. It is the key sub-unit 
for watershed in the Mid-South states.
    Management of Insect and Disease Pests in Southern 
Hardwood/Wetland Forest Ecosystems.--This unit develops pest 
management strategies and guidelines necessary to minimize 
insect and disease losses in intensive culture and multi-use 
stands of southern hardwoods. This is the lead Forest Service 
unit for studies of oak wilt.

                    forestry research related issues

    Chief Dombeck. Thank you, Senator Cochran.
    I would just like to say to Senator Byrd that I spent 4 
years in a four-room school. [Laughter.]
    It also had the plumbing out back for the first 4 years. 
Then we did get more modern plumbing.
    I wanted to make two or three points because I know a lot 
of the issues that the committee has made in opening statements 
talk about significant concerns about the Forest Service. I 
also want to point out that 490 million acres of forests are in 
private ownership, and--not only in research, but in the State 
and private forestry programs and the need for good 
information--the Forest Inventory and Analysis Program is an 
area where I see no opposition from State Foresters to academia 
to the Forest Supervisors and private land owners. They need 
those services. They want that information.
    I just want to point out that one of the things that keeps 
me going in a job that is fairly controversial like this one is 
to continually look across the spectrum because there are many, 
many areas of agreement. The Stewardship Incentives Program is 
one that is important because the number of tracts of land 50 
acres or less in the United States has doubled from 1978 to 
1994. Not only is this fragmentation occurring, but also the 
turnover, rate, the rate of turnover, is increasing. And yet, 
we only have 5 percent of those private land owners who have 
professionally based management plans for whatever the 
objectives.
    I just want to thank you for your support for research and 
these programs that are important. I know that Dr. Lewis has 
personal knowledge of what goes on at Stoneville since he 
worked there for a number of years.

                     mississippi forestry research

    Dr. Lewis. Thank you, Chief Dombeck, and thank you, Senator 
Cochran. I was born about 15 miles from Stoneville.
    Senator Byrd, I went to school in a one-room schoolhouse, 
which was also our church, by the way. [Laughter.]
    I can relate to that very well.
    Senator Cochran, Stoneville, MS is where I started out. The 
bottomland hardwood problem and opportunity is tremendous 
there. In fact, we have a number of exciting, interesting, and 
very productive research reports that came out of Stoneville, 
which is internationally known. For example, there is the work 
on cottonwood--the eastern cottonwood, poplars--known all over 
the world, in fact.
    Mike Dombeck and I had an opportunity to visit with people 
at the World Forestry Congress last year where we had an 
opportunity to talk about the poplar council internationally. 
Also the termite work at Starkville, MS, is extremely 
important. As you pointed out, we have some major problems. 
Chlordane, for example, was once the primary termiticide used 
to treat and prevent termites. That has now been lost. We have 
to have alternative treatments. We are working with the U.S. 
Environmental Protection Agency in evaluating the efficacy as 
well as the safety of alternative methods of treatment for 
termites.
    That is an area that we would really be happy to address. 
We look forward to following up with written responses to your 
questions.
    Senator Cochran. Thank you very much.

                          franklin county lake

    The only other subject I wanted to mention, which I 
mentioned in my opening statement, is the Franklin County Lake 
on the Homochitto National Forest. We hope you will take a look 
at that and give us a status report and what you plan to do to 
help accomplish the goal of establishing that resource, that 
recreational resource.
    Chief Dombeck. We will be happy to do that, Senator 
Cochran.
    Senator Cochran. Thank you very much.
    Thanks, Mr. Chairman.
    [The information follows:]

                                Projects

    This project--the Recreational Lake and Complex at Porter 
Creek, Franklin County, Mississippi, Homochitto National 
Forest, Homochitto Ranger District--was initiated by the 
community leaders in Franklin County, MS. They have tried for 
30 years to secure federal funding to build a 1,100-acre lake 
to diversify their economy. The community leaders requested 
that the USDA Forest Service assist them in improving the rural 
development and economic diversity of the area.
    This project could create private sector business 
opportunities, assist existing local businesses, improve water 
quality by remedying raw sewage flow into Porter Creek, and 
prevent additional head-cutting of streams in the watershed. 
They are now attempting to leverage State and federal funds. It 
is estimated that more than $12 million would be needed for 
construction of the dam, contract administration, and surveying 
and mapping of the lake cross sections and pool levels.
    This project is new construction. New construction is not a 
priority for the Agency at this time in order to focus 
resources on the backlog of reconstruction needs. The Agency 
priority continues to be on capital investment priorities which 
emphasize reconstruction of health and safety issues, water and 
sanitation projects, and recreation backlog, rather than new 
construction. New construction adds to out-year operation and 
maintenance (O&M) costs; it is unlikely that additional O&M 
funds can be provided from the national level in the out-years 
to support these new facilities and structures coming on-line. 
In the case of a dam, the maintenance and reconstruction costs 
in the future can be significant, along with the liability 
issues. Based on previous data for dams in the Region (and none 
are the size of this one), it is estimated that annual O&M 
costs would be about $75,000.
    The USDA Natural Resources Conservation Service (NRCS) 
received $250,000 in fiscal year 1996, $550,000 in fiscal year 
1997, and $3,000,000 in fiscal year 1998 to accomplish design, 
technical assistance, and complete construction documentation 
on this project. The NRCS is experienced with the construction 
and reconstruction of dams. The Forest Service would partner 
with them to do the actual construction if this project is 
directed, earmarked, and additional funding is provided.
    In fiscal year 1998, Congress earmarked $1 million in the 
Forest Service budget for Franklin County Lake. These funds 
would have been used to: obtain detailed survey information for 
planning (topographic survey of the dam, basin, and developable 
area, and detailed soil surveys of developable area above pool 
level); search out and cultivate interest in Private/Public 
Venture prospects to build the recreational facilities; develop 
a conceptual development plan with input from private partners 
who might be interested; and advertise for formal partnership. 
Any available remaining funds would partially fund the Forest 
Service share of construction and design costs. This funding 
does not provide for dam construction, which is estimated at 
approximately $12 million. This project was line-item vetoed by 
the Administration and funds were not appropriated.

                        frustrations in the west

    Senator Gorton. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Gentlemen, I had mentioned in my opening comments the 
frustration that is going on in Boise at this moment. Boise 
National Forest has proposed to ignite 5,400 acres of land out 
there in a prescribed fire, a prescribed burning. You and I 
have discussed that at length over time and both agree. The 
fire and the overall management of our forests for health, for 
the necessary cleansing that must go on is appropriate.
    But I am highly frustrated. The phone calls that flooded my 
office were done during a period of inversion. Boise filled up 
with smoke.
    A woman called in. She was desperate. She had a child whose 
lungs were spasming because of respiratory problems. All of 
that was going on.
    Now the inversion happened to lift yesterday. The phone 
calls are slowing down today. But Idahoans are extremely 
frustrated.
    When I have said that we now have a merely zero cut policy 
on our lands, we are now burning them. And, while I am out 
there trying to defend a reasonable fire policy, a 5,400 acre 
sized fire or proposed burn on the Boise National Forest is, in 
my research at least, the largest one ever proposed in the 
history of the Boise National Forest.

                               hot shots

    What spirals around all of that is the fact that we have 
some very real difficulty with our historically and well known 
hot shot teams out there, known for firefighting. We have El 
Nino. The continued buildup of fuel on the forest floor is 
continuing, and we just fired one of the major ways at least to 
control fire, our hot shot crews.
    I have met with the regional forester. I understand the 
controversy around that one and I am certainly willing to give 
management the latitude to deal with it. But it kind of sounds 
like the baby got tossed out with the dirty water in this 
instance, and it gets to be of real frustration to the 
citizenry. It is one that I think we are going to have to have 
some answers on--the assurance that the fire center in Boise is 
capable of maintaining its abilities and certainly the hot shot 
crew is available, or some form like that. Also, how do we deal 
with the question of the burn? Have you involved yourself with 
Idaho's Department of Environmental Quality in the process of 
working out these kinds of proposed burns?
    Chief Dombeck. Let me start by addressing the hot shot 
issue. In fact, I spoke with our Director of Fire and Aviation 
just last night again about this issue, Mary Jo Lavin, and 
expressed my concern again that we maintain the capability to 
deal with situations. And in the case of the Boise Hot Shots, 
there were some serious problems that had to be dealt with, and 
I am hopeful they are being dealt with appropriately. There is 
still some continuing investigation going on and the 
possibility of the Department of Justice involved in some 
potentially criminal activities.
    But the capability nationwide in hot shots by disbanding 
that crew is reduced from 1,160 individuals to 1,140 
individuals. The requirement that I have on this action is that 
we not reduce the capability because it is lives and the things 
that you have described that are at stake out there.

               idaho department of environmental quality

    The second issue, on the coordination with the Department 
of Environmental Quality: Our policy is that that occurred at 
the local level. I am not familiar with the situation that you 
described from the standpoint of whether there were errors in 
weather forecasting or whatever.
    One of the advantages of a controlled burn versus a 
wildfire is the fact that wind direction, weather conditions, 
and all of this can be taken into consideration to minimize the 
effects that typically occur with a fire. And we would rather 
have them in a situation where we can minimize those, or 
somehow react to what we know is coming, rather than deal with 
a disease over which we have no control.
    Senator Craig. Mike, I and my staff asked a lot of 
questions in the last few days and the answers we got were kind 
of like this [indicating] ``somebody else made the decision.''
    I think that we may want to examine how those decisions got 
made.
    I am not denying that decisions have to be made and that 
fire should be a tool, as I said earlier. But we have some very 
real problems there.
    I am also very frustrated in the regional haze game--I call 
it a game that is getting played by EPA--and the particular 
game that is getting played by the EPA. The actions of the U.S. 
Forest Service and this administration were terribly 
inconsistent with the politics of EPA in the last week out in 
Idaho.
    I am very frustrated at who is wagging the tail of the dog 
out there, or back here, when it comes to those kinds of 
issues.
    Now I don't expect you to respond to that, but that is my 
internal reaction. How can we make sense or how can our public 
make sense of all of these conflicting policies when that kind 
of thing happens?

                        regional budget declines

    I met with the regional forester in region 4 while I was 
out there, and you have put an excellent man in place there. I 
think he has tremendous talents. I look forward to working with 
him and I think our State does, too.
    We shared some joint frustrations. This question alludes to 
that.
    As you know, the Forest Service lands in Idaho represent 
regions 1 and 4. That is about 39 percent of the land base in 
the State of Idaho. Over the last 5 years, the budgets in those 
regions have declined substantially, or at least there is a 
graduating decline.
    Regions 1 and 4 received 17.4 percent of the total Forest 
Service budget in 1993, but in 1998, the region received 13.4 
percent.
    I guess I will have to ask you why did regions 1 and 4 
receive 4 percent less of the total Forest Service budget, as 
compared with 1993, when it appears that the demands in that 
region are constantly being ramped up. That would be my first 
question.
    If you cannot respond to it now in detail, I think it 
deserves a detailed response and I want to sit down with you 
and analyze why that trend is happening to see if we can't 
break out of that trend.
    Chief Dombeck. Yes; in fact, there is some history that I 
cannot articulate here from the standpoint of the change in the 
line item and the criteria that Randy knows more about than I 
do. I am not sure we want to get into that level of detail.

                          financial management

    But in general, I would like to say that this, in a sense, 
gets back to some of the business accounting data valuation 
things that I alluded to in my opening remarks when I talked 
about the financial management and the business management 
decisionmaking process. So I think what is woven into this goes 
beyond the resource issues. But it is also one of the things 
good business management systems I think can get for us, an 
added dimension to the decisionmaking process that will promote 
efficiency and effectiveness; that is, more efficient use of 
the dollars that we have resulting in more effectiveness in the 
employees that we have on the ground.
    I think we share the same objective. I am frustrated as an 
individual who is head of an organization that we cannot get 
more dollars to the ground to work on the land. I believe that 
looking at these systems over time will greatly enhance our 
capability over there, along with simplifying the processes.
    Senator Craig. That percentage of reduction, from 1993 to 
1998, factored out represents about $130 million in funding 
that has been displaced substantially. There have been a 
variety of initiatives out there that have been assumed that 
were not authorized and appropriated. So as you analyze that, I 
think it is reasonable that those ought to be compared.
    In other words, we put budgets forth to do certain things. 
The Congress authorized it; the money did not go there. It went 
elsewhere, to things that were, I guess, of greater value in 
some instances to this administration than to the Congress 
collectively. I think that frustrates us all as we try to deal 
with these issues.
    Mr. Chairman, I have one more question. You have been 
generous with your time.
    I think this is important here because it is kind of how do 
we get there.

                            roads moratorium

    Last year, when we fought the roads battle, Mike, as you 
know, it was interesting that the administration really did not 
come out and defend their own policy. It was their own party's 
people that largely were attacking their own policy. We just 
could not find you. Nobody was willing to fight the good fight.
    You have a road policy this year. You have a Senator on the 
other side of the aisle, Senator Bryan of Nevada. He has 
already said that he is going to introduce legislation to knock 
it out.
    I guess I am going to ask this question. Are you going to 
come up and defend the budget this year when it relates to 
roads? Are you going to be willing to work with us to try to 
save it?
    That did not happen last year. No; after that was all over, 
you and I had our discussions on how we ought to work to 
resolve this issue and see if we could not come to a bipartisan 
solution. We all know the rest of the story.

                        road maintenance backlog

    So here is the question. You testified that you have a $10 
billion road backlog for roads and maintenance. You also know 
that timber purchases used to pay for 40 to 45 percent of road 
maintenance. Now that is declining dramatically and for a lot 
of reasons, some of them by policy of this administration. This 
is maintenance that recreationists and other agencies use. We 
all know that. And all of our public uses it, too.
    I guess my frustration comes here. If the road policy today 
or the road conditions today are a part of self-infliction by 
an inability to get other things done that deny the revenues 
that often go to maintenance--and that appears to be the case 
in some instances--why should the Congress take about 30 
percent of recreation and wilderness budgets and put that money 
into road construction and maintenance?
    Do you follow my thinking? That is what it appears we are 
being asked to do here. We have whacked the other side of the 
dollar generating equation that has gone into maintenance and 
construction over time and now you are saying let's pull money 
out of other places where there are substantial needs and put 
it into roads for construction or maintenance.
    Mr. Lyons. Senator, if I could address that since I raised 
the issue, as I indicated, I do not think it was the intent of 
the agency for a time to neglect the road system. We simply did 
not have the resources to keep up. You are correct. Declines in 
appropriations and timber sales have limited our capacity to 
reinvest in the road structure.
    I am not sure we ever had the resources to keep up, but 
that has exacerbated the situation.
    We have limited capacity, though, to obtain funds from the 
recreation community and other sources to provide for those 
investments. What I was addressing in particular with regard to 
the $10.5 billion backlog is that roads, for all intents and 
purposes, are public highways. They are part of the public land 
highway system.
    There ought to be another source of funds to make that 
investment. That would then free up appropriations in our road 
account which all now go to maintenance to do some other 
things, to address some of the other concerns you raised. The 
Congress is obviously in conference considering a rather large 
highway package and that may be one place to look for some help 
on this issue.
    Senator Craig. Mr. Chairman, thank you very much.
    Here is a simple question. Are you going to work with us to 
defend your road budget this year against attack?
    Mr. Lyons. Yes, sir.
    Senator Craig. Even if it comes from the other side of the 
aisle?
    Mr. Lyons. We will defend the President's budget.
    Senator Craig. If not, we are going to start taking money 
out of good programs to solve this road problem. Then you are 
going to have everybody else on top of us, recreationists and 
all other kinds of users of that resource, to address this 
problem.
    So you have to defend the policy you bring up here. You 
cannot walk away from it. You did last year.
    Thank you.
    Mr. Lyons. Senator, we will defend the President's policy 
and I want to say publicly that I am proud of Mike's efforts to 
be aggressive about dealing with road issues and to have a 
better informed debate about the road issue this time around.
    Senator Craig. I hope so.
    Thank you.
    Senator Gorton. Senator Domenici.
    Senator Domenici. Mr. Chairman, I assume that Mr. Francis 
Pandolfi, who has been the supervisor of the major report--we 
didn't get that report in time for this hearing, as I 
understand it.
    Senator Gorton. That's correct.
    Senator Domenici. But I assume that it will be reviewed in 
due course by the subcommittee?
    Senator Gorton. I'm sorry. We did get a copy in the last 
few days and we will have it available for you and for study.
    Senator Domenici. Thank you.
    I was thinking that it would be very relevant, Mr. 
Pandolfi, to talk to you today about it. I don't know what to 
ask you, so I'll wait until I have a chance to review it. Maybe 
the chairman can submit some written requests or the like.

                            land acquisition

    Let me talk a minute about a land acquisition prospect in 
the State of New Mexico that you all favor greatly--the 
acquisition of the Baca location in northern New Mexico.
    I note that we still do not have an appraisal of what it 
might be worth and that the Forest Service is not going to do 
one but, rather, will rely upon the property owners to do one 
pursuant to some guidelines that you have agreed to submit.
    Do you know the status of that, and why wouldn't we do one 
ourselves if you are so excited about acquiring this property?
    Chief Dombeck. I am not sure I can answer why we are not 
doing one. What I can say is that the new Regional Forester in 
that area is Ellie Townes who, of course, was the Director of 
Lands prior to that job and certainly one of the most 
knowledgeable people in the agency with an impeccable 
reputation on these issues. I rely on her expertise in this 
area.
    Randy or Jim, do you have any additional information on 
that specific question?
    Mr. Lyons. Senator, I think I can tell you at least the 
status, and that is we have provided guidelines to the 
appraiser that will be employed by the family to do this 
appraisal. I think part of that is simply to insure that they 
pick up the cost of the appraisal.
    We fully intend that the appraisal be consistent with 
standard procedures and guidelines so that it is an appraisal 
that we can both live with and that we feel is totally 
accurate.
    We will give you an update on the situation in detail.
    Senator Domenici. I would like an update.
    Mr. Chairman, this is one of the very large land 
acquisition prospects that the President has requested out of 
your $299 million fund.
    [The information follows:]

                               Appraisal

    The value of the Baca Location No. 1 is currently being 
determined by an appraiser hired by the owners of the property. 
We have met with the appraiser to discuss the appraisal 
standards used for Federal land acquisitions and our review/
approval procedures for appraisal reports provided to the 
agency. Because of the size and unique resources associated 
with this property, we have contracted with an independent 
appraisal firm to provide us with information that will allow 
our appraisers to be knowledgeable of the market for this type 
of property. We are confident that we have the information and 
resources necessary to assure the agency can review any 
appraisal report provided to the agency. If the report is 
approved, it assures the report has been completed to Federal 
standards and represents market value of the property. If for 
any reason the report cannot be approved, we have the resources 
to establish a value in accordance with Federal standards.

                         backlogged maintenance

    Senator Gorton. $699 million.
    Senator Domenici. Yes, $699 million--that everybody thinks 
will solve all the problems from the backlogged maintenance to 
all the new acquisitions. What I was just saying in your 
absence was that an appraisal is taking place. We don't know 
whether this property is worth $75 million or $250 million. The 
property owner is doing the appraisal under guidelines from the 
Forest Service and I am just, right now, going to make the 
point that I am not ever going to agree to anything in this 
regard until we know exactly what it is going to cost us.
    Senator Gorton. You have discussed that with me before and 
I am certainly going to defer to you in that respect.
    Senator Domenici. There may be some other things that we 
need to do.
    I want just to go through four or five other things. I will 
not ask you to answer them but will tell you that they are 
important and that I am submitting something to you in writing.

                             land exchange

    In the Cibola National Forest, which is over by Grants, NM, 
and the Mount Taylor area, there is a checkerboard land 
exchange of which that your staff is aware. There may be some 
desire to put those kind of things off for x number of months. 
Frankly, this one seems so rational and so logical for both 
sides, I have submitted some details as to why you might look 
at that for us.

                         taos drainage problem

    Then, up in the town of Taos, NM, there is a very big 
drainage problem causing a whole lot of damage. The town 
finally got an engineer to say from where all of this runoff 
comes. It turns out that 60 percent comes from the Forest 
Service and 40 percent from other topographical changes that 
have occurred.
    We have submitted a request that you seriously look at what 
your responsibility is with reference to the damage from that 
runoff. I am submitting something more in detail. If you would, 
please look at that situation for us.

                          new mexico research

    I have a question on forest research as it applies to some 
of the research taking place in Albuquerque, but it only has to 
do with why did you not increase funding there when you did 
elsewhere. I would like you to answer that, and I have given 
the details to you right here.

                   four corners development proposal

    You know that the Pacific Northwest is leading the way in 
trying to aid the transformation of forest industries in their 
communities where they have suffered enormous job loss because 
of the substantial diminution in timber cut.
    In the Southwest, several States are getting together--mine 
is one of the States, Colorado is one of the States--and are 
going to propose something for the four corners area, which 
touches all four of the States--that is Utah, Arizona, New 
Mexico, and Colorado.
    Are you willing to work with the State and local agencies 
who are working on that issue much as you did in the Pacific 
Northwest?
    Chief Dombeck. Yes; in fact, when I met with your staff 
yesterday afternoon, that was one of the issues we briefly 
discussed. I know it is a multiagency effort that the State 
Foresters are interested in, that the tribes are interested in. 
It fits right in with the objectives that we have from the 
standpoint of sustainable forest management, sustainable 
economies, and using improved technologies to get the job done.
    Mr. Lyons. I should also point out, Senator, that I have 
met with Jill Long Thompson, my colleague in the department who 
is Under Secretary for Rural Development. We are working 
together to coordinate efforts in the region to provide that 
kind of assistance.
    Senator Domenici. All right.

                       riparian proximity grazing

    My last question has to do with the most recent agreement 
or settlement of dispute that was resolved with reference to 
about 57 rancher allotments in the States of New Mexico and 
Arizona that have to do with use of riparian proximity land by 
an allottee for cattle grazing.
    I am not here to argue who is right in that regard at this 
point, however, I wonder if you might submit for the record 
what is the policy and the law with reference to these ranchers 
being denied that usage. Let's assume for this question that 
that is the way it ought to be.
    How difficult is it for them to acquire water and to build 
tanks and reservoirs that are away from the riparian right of 
way to take the place of this water?
    I understand this could be hearsay twice over. I understand 
from some ranchers that it is very difficult for them to get 
permission to build a water reservoir or a major tank so that 
they can move cattle away from the riparian areas.
    Now, obviously, my concern for them will not be joined by a 
number, maybe three or four of the environmental 
organizations--not all--who don't want any grazing at all. They 
would like to see the water go away and you would have no 
replacement anywhere. Thus the cattle will go away.
    The issue is becoming less and less important because 
ranching is going more and more into bankruptcy and is less and 
less able to graze. I just wonder if you could supply us with 
this information. What will a rancher be confronted with by way 
of acquiring some water away from the riparian areas? Maybe we 
can help alleviate the permitting problem if, indeed, it is too 
restrictive and too difficult.
    Chief Dombeck. We would be happy to provide that for you. 
Yes.
    Senator Domenici. Does this question make sense----
    Chief Dombeck. Yes.
    Senator Domenici [continuing]. That if we are going to move 
them away, it seems like we ought not to destine them to no 
water if they could build tanks or the like somewhere. I would 
greatly appreciate your answer, and I know that we might work 
on something to alleviate the problem that is too rigid.
    [The information follows:]

                             Riparian Areas

    In answer to your question regarding the most recent 
settlement of dispute, this did not involve moving cattle away 
from ``all'' riparian areas. However, it did involve excluding 
domestic livestock grazing from certain riparian areas which 
provide habitat for certain federally listed species under the 
Endangered Species Act. In no instance are we aware of a 
situation where this action has resulted in a rancher being 
unable to use upland areas because of the unavailability of 
water. To the contrary, many of the exclosures provide water 
gaps for livestock. In addition, the construction of stock 
tanks on National Forest System lands in Arizona and New Mexico 
has long been recognized as a good management practice. The 
limiting factors have been funding, and in certain instances 
factors such as unsuitable geologic conditions which make it 
uneconomical or impractical to consider construction of stock 
tanks. We have and will continue to work with the livestock 
industry to provide desirable range improvements including 
water away from riparian areas.

                      litigation and multiple use

    Senator Domenici. Do you know anything more about it, about 
that issue?
    Chief Dombeck. I am aware of the issue, Senator. I was 
recently in Las Cruces with Secretary Glickman for a hearing on 
some of our agriculture programs and that issue came up. So we 
will have to look into it and give you the details. It 
obviously makes sense to try to provide some way of addressing 
the concerns.
    Senator Domenici. In that regard, I do want to say for the 
record that part of the problem that the Forest Service and the 
BLM is having with reference to management is the fact that 
they are buttressed on all sides of every issue by litigants 
who seem to have found a way to get into the court on issues 
that nobody ever thought existed.
    To the extent that you can, you have been trying to defend 
the multiple use prerogatives of the forest lands, which is 
your charter. It is being made difficult by some who are not 
the least bit reluctant to file law suits, and then everything 
is tied up.
    I understand that is part of a very difficult situation 
that you have. I would only urge that you be as fair as you can 
and that you consider everybody's rights and consider the 
charter of the forest lands when these decisions are made.
    Thank you very much, Mr. Chairman.
    Senator Gorton. We are toward the end of a single rollcall 
vote. In this connection, Senator Bennett has already gone to 
vote. We will begin again with his questions and will try to 
keep the interruption to as short a period as possible.
    [A brief recess was taken.]
    Senator Bennett [presiding]. The subcommittee will come to 
order.
    Senator Gorton will be back with us shortly but did ask 
that I continue the hearing in his absence.
    Mr. Lyons, Mr. Dombeck, I want to welcome you both. You 
have heard a lot of thunder from some of my colleagues, and I 
will let that thunder stand on its own and not add to it.

                             2002 olympics

    First, Mr. Lyons, I want to thank you for your tremendous 
assistance in working to resolve the difficult issues relating 
to the preparations for the 2002 Olympics. This is a once in a 
lifetime experience. It is tremendously involved. I went to the 
Olympics in Nagano and spent time talking with the Japanese 
officials there. I came back a little bit frightened at the 
difficulty connected with transportation issues, safety issues, 
security issues in a winter environment. I know they had 
problems in Atlanta, but at least the sun was shining the whole 
time and the streets were clear.
    In Japan, they were faced with uncertain weather. They had 
to cancel events because of the weather and then reschedule 
everything. As we prepare for the 2002 Olympics in Utah, we 
recognize that we must learn from the experiences of other 
Olympic games. We must be prepared.
    I know that you are taking some heat for your willingness 
to assist us. I am taking some heat from constituents who 
clearly have better ways to do things. But I don't think we 
have any choice but to proceed in the way that we have and I am 
personally very grateful to you for your support for that. I 
want that to be on the record.

               appreciation for forest service personnel

    Mr. Dombeck, I want to thank you for the Forest Service 
personnel that you have stationed in the State of Utah, and I 
hope you leave them there. We have some very, very fine people. 
There are Bernie Weingart of the Wasatch-Cache, Burt Kuluza in 
the Ashley, and Hugh Thompson on the Dixie. Among other things, 
they always give me and my office a straight answer when we ask 
them tough questions. They do not dodge or hide behind 
bureaucratic language. Sometimes it is not the answer I want. 
Sometimes it may not be the answer you want. But we appreciate 
them.
    We miss Dale Bosworth, but we look forward to working with 
Jack Blackwell. We appreciate the support you give them.

                   roads moratorium impact on timber

    On the moratorium on the roads and the impact on board 
feet, again I will allow my other colleagues to lead the fight 
on that one and won't add to the conversation that has already 
gone on. But the initial indication was that the moratorium 
would impact between 200 million and 250 million board feet. We 
are now seeing an impact of 100 million board feet in our 
region alone. That is disturbing.
    I simply want to put that on the record and, again, look 
forward to discussing that with you as we move forward.

                      town of dutch john transfer

    Going down my laundry list, I want to express my 
appreciation to the Forest Service for your support of my 
legislation to transfer the town of Dutch John from public 
ownership to private ownership. I think it will save the Forest 
Service some money. I would like to save the Forest Service 
some money and I appreciate your willingness to testify in 
behalf of my legislation on that issue.

                             red butte dam

    Here is a very small item, but with no one else waiting to 
question, we might as well talk about it. My staff has brought 
to my attention the issue of the Red Butte Dam above Fort 
Douglas in Salt Lake City. This is a problem between the Forest 
Service and the Army. The Army has decided that they will not 
keep up the dam anymore and the Forest Service, understandably, 
does not want to pay to bring the dam up to standard.
    We have met with the Forest Service. We understand the 
Forest Service side of the issue. We have not yet met with the 
Army. So, naturally, at this point the Army has nothing valid 
in their position and the Forest Service is right all the way 
down the line.
    Isn't that the way it usually happens when you only talk to 
one side? [Laughter.]
    But we intend to hear from them to get their understanding 
of their problem with this. Then I would be happy to act as 
honest broker, if that is what it takes, between the two 
agencies to try to resolve this.
    Do you have any knowledge of this one or am I catching you 
completely off-guard?
    Chief Dombeck. Most recently, we were in Utah within the 
last month to a month-and-a-half and got briefed on a variety 
of issues. One of the things that was mentioned was this Red 
Butte Dam. I was pleased that the Forest Service was able to 
step in and at least deal with the safety issue in the interim 
until we get the issue resolved and determine exactly where the 
Army is coming from.
    I believe Jim has had some recent correspondence, or at 
least some dialog, and I would just let him elaborate on that.
    Mr. Lyons. Senator, since your State office informed us of 
this problem, we have been dealing with it almost daily, at 
least weekly.
    In fact, just this morning I sent a letter to the Acting 
Secretary of the Army urging him to take a personal interest in 
this issue and to help us resolve the issue. I am sorry I did 
not bring a copy of the letter. But I will have it sent up to 
your office.
    I initially spoke with Mike Davis, who oversees the Army 
Corps of Engineers, who informed me that this was a real Army 
issue, not an issue for the Army Corps. He directed me to the 
Secretary for the Army.
    So we intend to get it resolved. I am pleased to see that 
the Army at least has agreed to put a dam tender on the dam 
this spring so that when flood season comes and high water 
comes, the dam will get the kind of attention that it requires 
and public safety will be a paramount concern.
    But long term, we do need to work this out. We think and I 
hope, with the overtures we have made to the Army again today, 
that we can reach resolution on this issue very quickly.
    Senator Bennett. Thank you.
    We will. There is no guarantee when it comes to weather, 
but given the kind of winter we have had and the thaw pattern, 
there is a very real chance of floods this year. The last time 
we had a year that had the same temperature pattern and the 
snowpack that we have had this year, we ended up with sandbags 
down the main streets of Salt Lake City and a major river 
running through the city because the snowpack was held with low 
temperatures for a long period of time and suddenly it went 
into the 90's. Instead of a slow, progressive melting of the 
snowpack, we had it all happen within something like 48 hours.
    As I say, in the middle of May we had a major river running 
right through downtown, causing our Governor to comment: ``This 
is a hell of a way to run a desert.'' [Laughter.]
    I have no further questions. I again want to thank you all 
for the things you have done. I will have some questions that I 
will submit in writing.
    I see the chairman has returned and I am happy to turn the 
gavel back over to him.
    Senator Gorton [presiding]. Thank you, Senator Bennett.
    I invited Senator Gregg to come back who looked forward to 
a long wait a couple of hours ago but who now can go right 
ahead.
    Senator Gregg. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    I know that you have not even had a chance to ask questions 
yet. So it is extremely kind of you.

                     white mountain national forest

    First of all, let me say that New Hampshire has had a 
little different experience than those States of some of my 
fellow Senators. That, I suppose, is true in many areas of 
government. But our experience at the White Mountain National 
Forest is one that is very positive with the Forest Service. 
Donna Hepp has been an extremely positive community participant 
and has done an excellent job heading up the White Mountain 
Forest. We have had a few issues over fees, but we are in the 
process of doing a forest plan which has all of the 
stakeholders involved. We have always had a very cooperative 
attitude in our State between the forestry community, the 
timber people, and the recreational people and the 
environmentalists.
    We are able to all sit at the same table and try to work 
things out in most instances, and we are trying to do that 
right now.
    I guess my question goes to a more global issue, however, 
which is this--and I will leave this to whoever is the proper 
person to answer it.
    The demands on different forests vary dramatically, 
obviously. The primary purpose of the Forest Service, I 
understand, is to maintain the silviculture of the area. But 
with larger forests, obviously in the West, the primary costs, 
I presume, are related to utilization of the forest for 
forestry activities, such as cutting timber.

                   new england forest recreation use

    In New England, and especially at the White Mountains--
which I think is the most visited national forest in the 
country--timber activity is very big and a very important part 
of it, but there are a lot of other uses, too. There are a lot 
of recreational uses. As a result, its utilization is 
extraordinarily high by people who are just wandering around 
it, enjoying it, skiing on it. There is snowmobiling, cross 
country skiing, climbing and people generally use it as a place 
to view scenery. There are a couple of major tourist 
attractions in the middle of it owned by the State, so a lot of 
people just move in and out of it.
    So the demands are different and the staffing is different 
as a result of that. We have to have a lot of people who just 
basically manage people, as versus a lot of people who manage 
trees. We need the people who manage trees, too.

                          allocation criteria

    When you are allocating your funds, my sense is that your 
allocation is done pretty much on an acreage basis without 
relationship to the fact that we end up managing a lot of 
people and, therefore, have a lot of demands that are a little 
different than a typical forest would expect, and especially 
the White Mountains, which are so heavily trafficked.
    I guess that is a long introduction to my question, which 
is this. To what extent is the fact that the White Mountain 
National Forest is utilized aggressively for things along with 
the silviculture activity, to what extent is the allocation of 
resources to the forest reflective of the huge, unique demands 
that a forest like the White Mountain Forest has?
    Mr. Lyons. Senator, I think I will start and then will let 
Randy give you the details on how we allocate funds between 
regions and forests. But I think the White Mountain is an 
excellent example of a forest that clearly is a recreation 
forest.
    In fact, we would categorize it as an urban national forest 
because of its close proximity to urban areas.
    Senator Gregg. It is an urban forest by law.
    Mr. Lyons. That is right. Senator Gorton has a few, such as 
the Mount Baker-Snoqualmie and the Gifford Pinchot, which are 
two good examples, where urban use on the I-5 corridor puts 
tremendous demands on the forests which are very different from 
the demands the forest faced in the years past.

                       national forest foundation

    In fact, in several weeks I will be going up to the White 
Mountain National Forest to announce a $50,000 gift to the 
White Mountain National Forest that was facilitated by the 
National Forest Foundation to help invest in trail improvement 
and create a new trail.
    Actually, the timber industry was a big part of providing 
the funds for that gift. So we are looking at new ways to fund 
programs to address recreation concerns and to address the 
increasing demands that are placed on these forests by urban 
residents and other users.
    Recently, we reevaluated our formula for allocating funds 
and tried to take into account changing needs. The allocations 
are not solely based on acreage. They are based on resource 
demands, are based on visitation and other factors.

                          allocation criteria

    Senator Gregg. What percentage is visitation of the forest? 
Do you know?
    Mr. Lyons. I will let Randy offer the details. But let me 
just make this one point, which is that we recognize that these 
changes are occurring. It creates a challenge not only for us 
in terms of how we allocate our funds but also for the 
organization, culturally, how we respond to those changes.
    As you said, our biggest challenge right now is managing 
people as much as it is managing natural resources.
    Randy can talk about the specific elements in the formula.
    Mr. Phillips. Senator, what might be helpful after I get 
through explaining this is to plan on a future meeting where we 
come up and give you a briefing of all the allocation criteria 
that we use for all the resources.
    We are about in the second year of using a new allocation 
process that was developed with the help of all the regional 
representatives. It is certainly not a perfect system, but it 
is better than what we used in the past, which is, to some 
degree, based on subjectivity.
    We use a combination of acres. We use a combination of the 
capacity of the recreation site. It varies between resource 
program areas based on what the program managers thought should 
be evaluated or should be used.
    I do not have the exact percentages. I would be happy to 
get you those. We look at miles of trail, trail maintenance 
needs, and so on. There is a fairly long list of things that 
the staff uses in allocating those funds out. In many cases, 
the regions use those same criteria or have adapted them a 
little bit to allocate those out to the forests.
    In land management planning, for the forest plans, we use 
acres to some degree. We also use whether or not a plan is 
coming up for revision. That would generate a little more 
funding to those forests that are actively revising their 
forest plans.
    Senator Gregg. I think that is probably the best way to 
proceed. Maybe we could get together with your office and go 
over the specifics of it.
    As you know, we are in the middle of the planning. We would 
like more resources for planning. That is important. We had 
some problems there starting out and, hopefully, we can resolve 
those relative to funds. But I am concerned that in a place 
like the White Mountains, which has a huge utilization because 
it is in the middle of such a concentrated area of attractions, 
and it itself is one of the main attractions, be reflected 
adequately in the allocation formula.
    Mr. Phillips. I will tell you that we did make some 
additional funds available to the White Mountains for that 
planning.
    Senator Gregg. I know that.

                            land acquisition

    Mr. Lyons. I also just want to point out that yesterday, 
when the President was discussing the use of the LWCF funds 
which was mentioned earlier, Mr. Chairman, one of the items on 
our priority list--in fact, one of our top priorities--was 
completion of the Appalachian Trail, which we are doing jointly 
with the National Park Service. Some of the allocations for the 
trail from the national forests are for segments on the White 
Mountain.
    Senator Gregg. I am not sure there is any private trail 
still in the White Mountain boundary. There is still private 
trail in New Hampshire. Most of it is owned by Dartmouth. But 
there is some private trail, but I don't think it is within 
that boundary.
    Mr. Lyons. One of the other priorities we set that I should 
mention as well is the acquisition of Lake Tarleton.
    Senator Gregg. Yes; very much so. The chairman has been 
extraordinarily helpful with Lake Tarleton, as he was with 
Bretton Woods. These are critical pieces to the national 
forest.
    We appreciate the administration's support.
    Thank you, Mr. Chairman.
    Senator Gorton. The chairman may say that he views with 
great favor the completion of the Appalachian Trail. We have a 
number of priorities in the West and in my own State, but the 
Appalachian Trail is a truly major national asset. I hope that 
we can do a great deal with the money we have for land and 
water in that connection.

                         long-term roads policy

    Chief, is it not the case that in connection with the new 
roads policy you have a comprehensive transportation planning 
review that is likely to prevent any harvest at all in roadless 
areas well into the year 2001?
    Chief Dombeck. No; I do not believe that is the case.
    Regarding the temporary suspension of road building, I have 
specifically put an 18-month sunset in the proposal. It is one 
that I have a strong commitment to, largely because of the 
concern that many people have mentioned to me, that we do 
temporary things in our interim guidelines and somehow those 
kinds of things never go away.
    I am committed to focus on that.
    Also, I want to point out that work on a long-term policy 
is progressing well. As soon as the long-term policy is done, 
if it is before the 18-month period, then the long-term policy 
will replace the temporary suspension. Some would like this 
policy to be a policy that locks up roadless areas. That is not 
the intent. The intent is to focus on the issue of roads alone. 
It does not change land allocation.
    I understand that the temporary suspension does preclude 
some activities. But also I have been a little bit surprised at 
the number of projects that are able to go forward. For 
example, some proposed sales had helicopter logging options, 
alternatives that they were able to utilize. Also, some 
reconfigurations were occurring. They have been able to 
reconfigure some sales and things like that where perhaps only 
a corner of a sale was in a roadless area that might be covered 
by the proposal.
    But I also want to point out that at this point it is a 
proposal. I want to finalize that proposal of the temporary 
suspension as quickly as possible so that people know exactly 
what the rules are. Then we can get on with the finalizing of 
the long-term policy.
    Senator Gorton. That is at least an encouraging answer. I 
hope that you will work diligently to see to it that those 
assurances can be met and that we don't have something that 
literally goes on forever.
    Chief Dombeck. In fact, I have scheduled the Second 
National Leadership Team meeting, and the Regional Foresters 
and Station Directors will be gathering next week.
    Senator Gorton. And this philosophy will be expressed to 
them in no uncertain terms?
    Chief Dombeck. Yes. Yes.
    We will be gathering next week to take a look at the 
analysis, the comments, and other progress to date.

                       accountable decisionmaking

    Senator Gorton. Mr. Pandolfi, is it your view from your 
business background that the agency's accountability and 
decisionmaking process is the mess that the GAO portrays?
    Mr. Pandolfi. Senator, I think before I comment on that I 
should say that, as was indicated earlier, having an MBA and 
working as a CEO in the private sector, as I have discovered in 
the last few months, is no guarantee of success in government. 
[Laughter.]
    I wanted to express that to you.
    However, under the rules of the committee today, the rules 
of performance for today's hearing, I also score poorly because 
my school had 100 rooms. It was in a brick building and it had 
indoor plumbing.
    Senator Gorton. You and I are more similar, then, in our 
background. [Laughter.]
    Mr. Pandolfi. Having said that, I want to answer your 
question. The analysis of the OIG and the GAO reports with 
regard to the Forest Service is largely accurate. I think it is 
terribly unfortunate and unnecessary that conditions to cause 
such a situation ever developed. But I must say that those 
problems are certainly partly due to what has happened in the 
Forest Service. They are also due to external forces as well as 
what Senator Domenici mentioned with regard to the issue of 
litigation.
    But if the Forest Service were a private sector company, it 
would be rated No. 450 on the Fortune 500 list. I must tell you 
that I cannot imagine a company of that stature in the private 
sector that has ever been in a situation such as that in which 
the Forest Service finds itself today.
    Senator Gorton. It would not be 450 for very long.
    Mr. Pandolfi. No; it would not. Well, it might remain 
there, but it would certainly have new managers.

                          business management

    In the Forest Service, we are overrun with data and we have 
very little information. For example, we have 75 million 
transactions, financial transactions, that occur every single 
month at 800 locations around the Nation where we enter data 
into our system. Yet we have no reliable financial statements.
    I think it is just for such a predicament that the phrase 
was invented that ``you can't see the forest for the trees.'' 
It is perfect. It is absolutely perfect in this case.
    The truth is that we do not really know the dimensions of 
our problems. I do not mean to imply by that comment that they 
are any bigger than anybody has said that they are because, on 
the counter side, we do not know the size of our opportunities, 
either. And there are great opportunities in an agency that 
manages 192 million acres, with 35,000 employees and a $3.3 
billion budget.
    So all I can say is, and that was a long answer, that the 
answer to your question is yes, it is pretty much of a mess.

                             control board

    Senator Gorton. What is your response to Congressman Dick's 
suggestion of a temporary control board?
    Mr. Pandolfi. I do not have any idea of whether a control 
board--I do not honestly know what a control board would do. 
But if I were going to try to decide how to manage the Forest 
Service, I think what is appropriate is to look at what the 
agency needs and then to try to figure out what sort of 
mechanism might be appropriate. Perhaps it is the very one that 
you have seated before you this morning in terms of this 
particular management team and just the way we are.
    Clearly, the standard form of Federal Government is not 
well suited to making things happen in a crisis, at least not a 
crisis like this--perhaps a war, but that is a different story. 
But not this.
    For example, there are three areas where we really need to 
solve problems before we can ever fix the situation here. When 
I say that the Federal Government is not well suited, this is 
specifically what I mean.
    How do we get the flexibility to put the right people in 
the right jobs in the Forest Service?

                         personnel flexibility

    Senator Gorton. That was my next question. Does the Forest 
Service have the ability to get the right people in the right 
jobs?
    Mr. Pandolfi. Well, it is difficult and that is for sure. I 
mean, I have been here for 15 months with Mike Dombeck and I am 
still Special Assistant to the Chief because there are lots of 
reasons why it is difficult to give me any other title. I mean, 
I have written my essays to become part of the Senior Executive 
Service. I do not know what grade I got, but I believe I 
passed.
    There are massive limitations on hiring, firing, and 
incentivizing people. I do not mean to just dwell on the 
negative of firing, either. There are just massive limitations. 
As a result, we have very little flexibility.

                             decisionmaking

    Second, it is extremely different--extremely different--to 
make tough decisions quickly and get the pain over with.
    I do not deny that the Government, and I expected that, the 
Government is far different from the private sector in terms of 
how the decisions are made. But the debate goes on and on and 
on, and it is very difficult, because there are so many 
constituencies for us to satisfy, for us to make a decision.

                            pulling punches

    I think with regard to having multiple constituencies, the 
third thing I would say is that it seems so necessary all the 
time to pull our punches and not say how we really feel about 
something because there is going to be some constituency or 
other who is going to be insulted by it. Then they are going to 
write us a letter with 75 or 80 questions in it that is going 
to take 3 weeks of staff time to fill out. And so we are 
stopped again.
    So I would say the issue of flexibility, moving quickly, 
and having to pull punches are things that are very, very 
difficult to overcome.
    I heard Senator Craig say something that I thought was 
encouraging. He said--I think he said--that the Congress should 
try to structure a budget to solve the problem. I do think that 
is doable. And with the proper protection or the ability to act 
quickly, if we could get the ability to act quickly, if we 
could get the confidence of this august body to support us and 
then leave us alone for a while--a totally, I realize, 
impractical suggestion, perhaps--we could show significant 
progress in a short time.
    Senator Gorton. Well, could you and the people for whom you 
work write proposed conditions for a budget, leaving aside the 
amount of money that we may have, that would lend encouragement 
to this process that could help speed it up?
    Mr. Pandolfi. I think so, Senator, and I think that we 
could make some suggestions to you at a later time as to ways 
to do that.
    Senator Gorton. Well, let's not make that too much later a 
time.
    Chief Dombeck. I would just like to reaffirm and support 
Francis and say we would love to. I think it is very important 
that we get beyond some of the debate and work together on 
these issues. We welcome that suggestion.
    Senator Gorton. We have philosophical debates about what 
you ought to be doing and you are not going to persuade us on 
those, necessarily, nor are you. But to be able to use the 
money that you have within the laws that you have in a way that 
is more efficient and more effective is a cause that ought to 
unite us. It is a cause that we ought to get your kind of 
suggestions about.
    I, for one, who is going to have the primary responsibility 
for writing this budget, know that if I have intelligent 
administrative suggestions that can be adopted as a part of the 
budget, I am certainly going to do it.
    Mr. Lyons. Mr. Chairman, I think, if we can set aside the 
philosophical debates over the resource issues, the resource 
agenda issues, and focus in on those management and business 
practice concerns, we can reach amazing agreement on what is 
needed. We certainly would like to work to provide some 
guidance as to how we might get there.
    Senator Gorton. OK. You talked about how difficult it is to 
get decisions made and implemented. We don't have a whole, long 
time before we have to come up with something.
    Mr. Lyons. I understand.
    Senator Gorton. We will need those suggestions.

                        coopers & lybrand report

    Mr. Pandolfi, how about Coopers & Lybrand? Has that done 
any good?
    Mr. Pandolfi. Yes, Senator.
    I think it is very helpful. The Coopers and Lybrand 
report--let me clarify what it was intended for because I think 
some people may have greater expectations of it than are 
warranted: We requested the report in the Forest Service and we 
did it last August. We requested it last August. It has just 
been completed. Its purpose was to help us determine how to 
simplify our operations.
    As the Chief said earlier, and as I indicated when I spoke 
of the number of financial transactions that occur, we have 
raised complexity to an art form in the agency and it has to be 
reduced or we will not get further.
    I think the report will help us to improve both 
accountability and efficiency. But there will be no 
accountability without good information.
    If you want, I would be happy to go into more detail about 
what the report proposes or we can do it at a later time, 
whatever you prefer.
    Senator Gorton. Well, I think we can do that at a later 
time. I just simply want to know whether or not we are going to 
get any good out of it on the ground.
    Mr. Pandolfi. Yes.
    Senator Gorton. Will it result in internal changes for the 
better or in the kind of suggestions we have just talked about 
to come to this committee for the budget?
    Mr. Pandolfi. There were 31 specific recommendations in the 
report and we will begin to implement some of those 
recommendations as early as next week.

                             overhead costs

    Senator Gorton. Now a part of all of this is the fact that, 
while income is going down in the Forest Service from those of 
its activities that are productive of revenue, overhead 
continues to go up. I would like to ask the general question 
both of the chief and of you: Why is it that overhead costs 
keep going up while overall fund expenditures are decreased?
    Chief Dombeck. One of the things that agencies have a very 
difficult time doing is taking things off their plate. When new 
legislation is passed, we do more things and there is great 
difficulty in saying, ``OK, we are going to stop doing this 
because there is a constituency that demands this.''
    So we spend a lot of time on those kinds of issues. One of 
the things that I believe better business systems will allow us 
to do is to prioritize what is most important.
    I understand that there is a lot more to this than just 
calculating the return on investment of a project because there 
are other values involved in this kind of thing. But it will 
simplify what we do greatly and, I believe, free up staff time, 
reduce the complexities. As I mentioned in my opening statement 
and as Francis concurred with it, we, in a sense, are drowning 
in complexity.
    Mr. Lyons. There is another reason, Senator, and that is we 
solve problems by process. Rather than making decisions and 
moving forward, we engage in new processes, new studies, new 
requirements. All of us here are guilty of this. That adds to 
cost and does not get us to any reasonable outcome any sooner. 
In fact, it complicates things even more.
    So there are lots of ways to streamline and reduce overhead 
and probably get to the same end in a more efficient way. These 
are the kinds of things we need to explore with new business 
practices.

                            chief's reviews

    Chief Dombeck. We have done the Chief's Reviews in three 
regions, one research station, and two Washington Office Deputy 
Areas.
    I do not know if you were here when I mentioned doing the 
Chief's Reviews, Senator Craig--I think you probably were--but 
the objective is not the typical review that most people 
expect, that you are going to come out and look at our books or 
you are going to look at our decisionmaking process, and you 
are going to tell us what we did right or what we did wrong.
    The objective of the review is really to see what is on the 
minds of the employees because there is tremendous talent out 
there. It is also then to begin to look ahead of the headlights 
and ask ourselves the question what could we have done 10 years 
ago to avoid this protracted problem.
    One of the things we discovered--in fact, it was in a 
meeting with your staff, Clyde--was we find that we run into a 
problem and we build a process around it. Then there is another 
problem looming right there, right in front of you today, and 
we built a process around it to solve it.
    The organizational energy, right to the level of the Chief, 
goes to dealing with the immediate-urgent. If you are in the 
right quadrant, that is No. 1.
    We are spending very, very little time in quadrant two. 
That is something I am trying to do to further empower the 
Associate Deputy Chief level, the staff director level, to make 
sure that they are engaged much more aggressively to allow the 
Deputy Chief level, the Regional Foresters, to work with 
constituencies, with Congress, to focus on problems before they 
are right on a plate or before we are in court.
    Senator Gorton. One of the greatest shortcomings any 
organization can have--and it seems to be endemic to 
Government--is to have very good and very talented people who 
are not able to use those talents in the way that they ought 
to. It not only frustrates the organization, it frustrates the 
individuals, and you are likely to lose them.

                             overhead costs

    Do you have any comment on these questions, on the overhead 
questions, Mr. Pandolfi?
    Mr. Pandolfi. Yes, Senator. I would like to just speak for 
a moment on that but take it from a different angle.
    I do not think there is any way to know today what level of 
overhead is actually appropriate or inappropriate for the 
Forest Service. The reason I wanted to say that is because I 
believe the single most important thing that this agency could 
do in the short term, the intermediate term, whatever amount of 
time it is going to take, is to develop good information 
systems. We do not have good information systems. We cannot 
answer your questions well and accurately all the time. We can 
in some cases, but in others we cannot.

                           financial friction

    I want to put it in perspective. I want to put the value of 
having a good information system in perspective with respect to 
the overhead question. It is very simple to do. Simple 
financial friction in an information-free business results in 
untold inefficiencies. A mere 5-percent inefficiency factor in 
a $2.2 billion--and I think we are a little higher than that, 
$2.5 billion, actually, but I did my calculations on $2.2 
billion, so I will stick with that--a mere 5-percent amount of 
financial friction in a $2.2 billion organization results in 
waste that could be as much as $100 million a year.

                          personnel reductions

    Now, we have reduced the number of people in human 
resources, fiscal, budget, and information management from 1993 
to 1998 by 1,243 people. So here we are. Maybe if we had a 
couple of those people back--I know, I understand the problem 
of hiring people, for example, in the private sector and not 
selling the product. It is not generally looked upon with a lot 
of favor. But we have gone too far in reducing some of these 
administrative overhead positions and we do not necessarily 
have people properly trained, as the Chief said at the 
beginning of his remarks, to do the work.
    I will tell you, Senator, for a few million dollars in 
overhead, if we could reduce that financial friction, the 
return on investment and the payback period would be just 
startling. And most any private sector individual would be 
delighted to make an investment in this organization.
    So I do not know the answer, whether it is too much or too 
little. But the fact is, if we could just get good information 
systems, we would be so much better off.
    Now we are working on that, but it is tough.

          interior columbia basin ecosystem management project

    Senator Gorton. OK. Now I do want to go on to a subject in 
which we have an obvious philosophical difference, Mr. Lyons, 
and that is the Interior Columbia basin ecosystem study.
    I don't know of any subject of this sort in the last 8 or 
10 years which has created more hostility on the part of my 
constituents. I have an advisory committee in every county in 
the State of Washington. I met with half a dozen of them in the 
last 2 weeks in eastern Washington. Among all of the rural 
people, it was the No. 1 item for discussion. And these are 
fairly broadly based groups, from business, local government, 
teachers, and the like.
    Yesterday I had in my office a State senator whom I greatly 
admire on that subject. Universally they feel that the money is 
being wasted, that neither local governments nor ranchers, 
citizens, are being considered, are having their concerns 
listened to. They feel it is one planning process piled on top 
of another.
    I must say that if I were to follow the desires of my 
constituents, what they want me to do is to just end it. They 
want it to stop. They see nothing of value to them coming from 
it.
    I am intensely frustrated. I have tended to buy your views 
that not to go ahead is worse than going ahead. But it sure is 
the very devil of a choice, even if that is true.

                         apprehension of icbemp

    I guess I have to ask you this. When is it going to come to 
an end? What are its results going to be? Why do you seem to 
have such an inability to listen to the concerns of the people 
whose lives are going to be affected by it? And how can you 
deal with the overwhelming apprehensions I get everywhere that 
what you really want to do is run everyone's life and 
everyone's private property as well as to manage the federally 
owned property in the area?
    Senator Craig. Mr. Chairman, could I add to that? I have 
been home, too.
    I have been to town meetings, gatherings, county 
commissioners meetings, talked with school people--everything--
and I get the same kind of response.
    My questions are identical. Also, if you want to know where 
$40 million of your money went, that is where it went, and you 
have nothing to show for it yet except some studies and a high 
level of frustration.

                          county commissioners

    What has happened also that has created the frustration 
that the Senators and the chairman is speaking to is the folks 
who could have been your political liaison you have decoupled. 
The county commissioners are walking away now because they feel 
that after months, if not years, of involvement with you in 
this, you didn't listen in the end. They feel that somebody 
else out of the region won and they lost in their effort to 
participate. You decoupled the very team, the county 
commissioners involved, that could have come home to sell this 
idea to the constituency.
    They are now the enemy.
    Senator Gorton. I am told that 60 percent of the county 
governments now want it terminated.
    Senator Craig. That's right.
    Senator Gorton. It is likely when those who are collecting 
those petitions have them all in, it will be up to 80 percent.
    OK, give me your comments.
    Mr. Lyons. Senator, I agree with you that it would be great 
to get this over, to complete the environmental impact studies 
underway, and to have a new basis upon which to manage the 
public lands in that region. It is a sizable portion of the 
public lands in the Nation and obviously has a significant 
impact on the communities there as well as the Nation's 
resources as a whole.

                     congressional icbemp directive

    I would agree with you that this has gone on long enough. 
To reiterate a comment I made earlier, though, we are all 
contributing to this. For example, last year, this committee 
asked us to do another study which extended the period of time 
that was necessary for us to complete this by another 6 months. 
We completed that study and have since issued it. It is a 
directive to look more closely at how rural communities were 
going to be affected and the economic impacts.
    So that, as well as other things we have done, have 
contributed to additional delays.

                           reaction to icbemp

    I am concerned about the belief in the counties that they 
have been decoupled, to use Senator Craig's words, from the 
process. That certainly was never the intent. But I think, as 
this has gone on and as other things have come into play, there 
is a growing sense that this is a Federal Government-imposed 
solution on local resource concerns.
    Two things are going on. One is clearly there is fear of 
some of the changes that are coming about in the region and 
these all come to a head when you look at the pressures that 
are brought to bear on Federal lands. Also, change is not 
welcome by anyone and we would all be better off if we did not 
have to deal with that.
    The reason--and this is the argument I have articulated 
before--we need to complete this is so that we have a good, 
solid base of information, good science, to guide professional 
judgment so that, when we are challenged on management 
decisions, those challenges can be fought back and we can 
sustain our course.
    But the other concern clearly is, as this has gone on, as 
other decisions have been made, people have felt 
disenfranchised and not a part of the process.
    Our managers continue to make every effort to incorporate 
counties in the decisionmaking process, to involve them in 
helping determine what the final alternative will be, an issue 
that is not yet decided.
    All we can do is attempt continually to engage the 
communities in that decisionmaking process, help them 
understand the value of this process--and hopefully the value 
of the product that is going to be generated by it--and reach 
some conclusion. Right now I think the uncertainty, associated 
with the process that seems to go on and on, is killing the 
process and clearly destroying any faith the communities have 
in those agencies to get something done.
    So I agree with you. We need to get it done. Please do not 
ask us for any more studies. Let us finish the process and let 
us move forward. Then we will see.

               environmental impact statement for icbemp

    Senator Gorton. Will you have an EIS by early next year?
    Mr. Lyons. Maybe Mike can address the specific timetable. 
We have had to roll it back a little bit because of the 
additional research work that we had to do.
    Chief Dombeck. Where we are now, I believe, is the comment 
period. That closes May 6. Then we are talking about spring 
1999 to have the record of decision signed.
    Senator Gorton. Spring.
    Will a final record of decision prevent further endangered 
species listings?
    Chief Dombeck. We certainly hope so. The intent is to try 
to move ahead of the power curve on something that we have been 
playing catch-up on for a long time.

                   private property impact of icbemp

    Senator Gorton. What do you expect the impact of the plan 
to be on private property?
    Chief Dombeck. We have no jurisdiction on private property 
nor are we seeking any. We hope in many of the situations that 
the issues that we can deal with regard to the Endangered 
Species Act and things like that on Federal lands alleviate 
some of the stress in other areas.
    One of the concepts that has been evolving for some time 
through the various processes is the working together on a 
watershed scale, on an ecosystem scale--call it what you will--
so that the management activities become more compatible. This 
is because good land management is good land management. It 
does not matter who is the steward.
    Senator Gorton. I want to go back to Secretary Lyons' 
statement about participation.

                     public participation in icbemp

    It is one thing to solicit comment. It is another to create 
a feeling in the people from whom that comment is solicited 
that their comments mean anything and will have any impact, any 
impression, on a final decision.
    That, it seems to me, is where there has been a failing 
without, at this point, attempting to assign blame but trying 
to get to the future.
    One of the most important questions I have is this--and I 
don't even want you to answer it here in an unequivocal 
fashion, but I want the answer to it and I want a way we can do 
this that I think would solve many of your problems. It relates 
to the last question that I asked about private property.
    I want to know whether or not we can come up with some 
language that will be acceptable to you, and not get one of 
these big veto threat kinds of things, with respect to the 
impact of the plan on private property. If we can assure our 
constituents out there that your plan is not going to adversely 
impact their own use of their own land, I think that we will 
have solved if not 100 percent of the kinds of objections that 
we have, then a very significant share of them.
    Mr. Lyons. I will work with you, Mr. Chairman and Senator 
Craig, on that issue because I believe we should be able to 
address that.
    Senator Gorton. OK.
    Now I am way over my own time. Senator Craig may have some 
more questions and I am going to let him close the hearing.

                        plum creek land exchange

    I have just one purely parochial question about the Plum 
Creek land exchange. It has been very much in the news at home 
recently.
    Personally, I think you have done a wonderful job on it. I 
think it is a great bargain for the Federal Government to get 
more land than it is giving up and to have it blocked up on 
both sides. But we already do have some of the environmental 
organizations threatening lawsuits over it and we have Plum 
Creek saying the end of the year is it and if we cannot get 
this accomplished soon, we are out of here.
    I don't know whether or not that is entirely true. But I 
would query: In this bill, should we legislate the land 
exchange that you have agreed to?
    Mr. Lyons. Senator, I do not think we want to enter into 
the prospect of legislating an action that bypasses due process 
and the rights of individuals to challenge it.
    Senator Gorton. But this process has been due for a whole 
long time.
    Mr. Lyons. I understand that, Senator. But the only thing 
you are left with then is to say ``notwithstanding any other 
provision of law,'' that infamous statement that all of us look 
for in legislation and that sends off skyrockets.
    I think this has been an excellent effort on the part of 
Plum Creek and I appreciate Rick Holley and all his staff's 
efforts to work very professionally and efficiently with Forest 
Service staff to put this together. I would like to expedite 
this process. But I do not want to do it in a way that is going 
to create more legal problems.
    But I will work with you to find ways to get this done as 
quickly as possible.
    Senator Gorton. All right. That is fine. In a sense, it is 
like the earlier question.
    I believe it is time to have it come to an end. I think the 
deadline that Plum Creek has set is a reasonable one. Figure 
out a way with us to make it happen.
    Mr. Lyons. We will work with you on that.
    Chief Dombeck. Senator Gorton, I had breakfast at Salish 
last Wednesday with some of the industry representatives and 
the conservation community, as well as Jim Ellis, who speaks 
very highly of you. We covered a variety of issues, including 
this one. I offered to help facilitate, and, of course, we have 
a wonderful Forest Supervisor there in Denny Bschor to help 
facilitate in any way so that we can move this forward.
    Senator Gorton. This is one area in which I don't have any 
criticism of you all and what you are doing. I want to make it 
happen, in fact, so that we get it done.
    That is what we are here to do.
    Senator Craig, you are back. That means you have more 
interest. I have a whole series of other subjects that I wanted 
to cover as well, but we are just simply going to have to do 
those in writing.
    I will turn the hearing over to you and you can ask as many 
questions as you would like and then adjourn the hearing.
    Senator Craig [presiding]. Thank you, Mr. Chairman. I will 
be brief. Everyone at the table has been courteous with their 
time and I have just a couple of subjects, both very brief. I 
thank you for your indulgence.

                          thompson creek mine

    Chief, I am sending you a letter concerning a delay in 
completing a supplemental environmental impact statement on the 
Thompson Creek mine in Idaho. It has been ongoing now almost, I 
don't know how many years, with the promise again that it will 
soon be done.
    I am very concerned that there have been agreements entered 
into between environmental interests and the Department of 
Justice that have delayed the implementation of the 
technologies that would benefit the environment.
    The problem is some folks just flat don't want it mined. 
But these people have a right to mine it, and they are willing 
to use absolutely state-of-the-art technologies to get it done. 
And, in fact, it will improve the environment or lower the 
environmental risk.
    So I sent you a letter and would ask for as timely a 
response as possible on that. I think it is critical. We are 
all frustrated out there. But when the game gets played for 
years though it should have taken months, the level of 
frustration is exaggerated and for the right reasons.
    Secretary Lyons suggested that much of what we are pursuing 
is an extension, much of what you are pursuing is an extension 
of what Jack Thomas had for ideas, and I would mention the 
chief prior to Jack Thomas. I guess I am pursuing this because 
I am frustrated over what I am trying to do and what you and 
certain the administration in part resist at times.

                        conservation philosophy

    Would you say your philosophy of conservation is similar to 
Jack Thomas' or your general view of where you are with the 
Forest Service is similar?
    Chief Dombeck. I believe it is.
    Senator Craig. The reason I say that is, while Jim has sat 
there for the last several years and said problems exist, there 
has been no willingness to work with us on solutions. We always 
meet, but boy, when I put out an idea, down goes the hammer. 
The environmentalists' lights go on and I know where the 
information is fed from. It is very frustrating--very 
frustrating.
    This willingness to work together, at some point I lose my 
voice over it because there is nothing forthcoming. You guys 
are now embroiled in crisis. You have experts in here trying to 
manage, taking an agency that has been politicized and trying 
to fix it. It is difficult. I do not dispute that. You are in a 
very difficult situation. We all are.
    I have constituencies all over my back on both sides of 
this issue. We ought to have some resolution to it.
    Let me read to you a quote from a March 25 hearing held out 
in Coeur d'Alene that Jack Thomas was a witness at and gave, I 
thought, some very valuable testimony. I think he was speaking 
with a bit more candidness after he had left the office of the 
Chief.
    I am not even going to ask you to respond to it unless you 
wish to. But I think it is important for the record.
    Somehow, after people in your position leave, they gather 
great wisdom and they can talk about marvelous things that 
ought to be done that they were either not able to do or not 
allowed to do while they were chief. And yes, you have been 
warned by Jim to be careful. I am not witch hunting here today 
at all. I am very frustrated that we are living over an agency 
that is very dysfunctional at this time with very talented 
people sitting out there on the ground, spinning their tires, 
and not being able to get things done for the Forest Service, 
for the forests, for the environment, or for the citizens they 
are asked to serve.

                          former chief's quote

    These are Jack Thomas' words. ``In my opinion, the position 
that there are no problems with the legislation''--he is 
talking about my legislation and also other legislation and 
laws--``that govern management of the public lands and that 
whatever problems there are can be solved through better 
administration is incorrect.
    ``There are problems,'' he says, serious problems. The land 
management agencies need clear guidance and a clear mission. 
The NFMA and other legislation assumes, I believe, that a well 
qualified and relatively autonomous agency would carry out 
consistent programs and make adjustments in regulations issued 
pursuant to law frequently in keeping with the principles of 
adaptive management. Those assumptions no longer hold.
    ``For example, the planning regulations issued pursuant to 
NFMA have been through two revisions and have been under 
development for nearly 7 to 8 years. The first time they were 
ready for release, they were delayed by the Bush administration 
until after the 1992 election.'' I expect that was a political 
decision.
    ``The regulations were then revised and were ready for 
release a year before the 1996 Presidential elections. These 
regulations have not yet been released.'' That was March of 
last year. ``And when they are, they will likely be 
significantly altered from present form to mollify any group or 
another. In short, the assumption concerning how such 
regulations are promulgated no longer holds, and getting 
anything done in terms of producing more workable regulations 
based on experience is slow, very, very slow, at best.''
    I thought that was a pretty profound statement because I 
think it is not only a statement reflective of the experience 
of a chief who was in the trenches like you are now, but I 
think it also speaks to the fact that you will spend the next 
year and a half or so, or 2, trying to regulate your way out of 
a problem that we are all in.
    I wish you luck. Once again, I extend my willingness to 
help.
    I have no crystal ball. My guess is you can't get it done 
because I think you are structurally flawed. And I don't think 
this administration will allow you to make those changes 
because they are politically unpalatable with some of the 
interests involved. And that is too bad because, if we could 
deal with it in a bipartisan way, it could be resolved.
    You saw the company front here today and very few from the 
other side. That will not produce good policy. It will only 
produce conflict. And in the end, the forests and the Forest 
Service will be the loser. That is my concern.
    If you wish to speak to that, you may. If not, I 
understand.
    So thank you all very, very much for coming.
    Are there further comments? Yes, Jim.

                            working together

    Mr. Lyons. Senator, I just want to make this point and this 
pledge. I think if you and I and the members of this committee 
can agree to try to work to make Mike a successful Chief--and I 
would concur that Jack Thomas was an extraordinary leader for 
his time and I was very pleased to have him despite some of the 
protestations and concerns that were raised early on by members 
of this committee, including yourself, about his skills and his 
capacity to be Chief--if we agree to work together, it would 
help Mike become a successful Chief; allow him to make; the 
decisions he needs to make, make the personnel changes he needs 
to make; and allow the organization to come forward and support 
him. Then I think the goals we share will be realized.
    So I make that commitment to you. The administration would 
like to see Mike Dombeck be the most successful Chief in the 
history of the Forest Service and I hope you share that goal as 
well.
    Senator Craig. Jim, of course I do.
    Let me close by saying there were no conflicts ever between 
Jack Thomas and myself. We had some disagreements. My only 
problem was the way he came to be and that is a problem that 
exists today.
    This administration chose to make the chief a political 
appointment. You are the one that should be charged with the 
politics. But the chief should have a buffer to be an 
administrator of policy and a critic of politics when 
necessary. I believe this administration has denied both of 
their chiefs that opportunity and that is too bad because the 
history of the Forest Service would argue that that is 
necessary. It is necessary in any good management.
    Politicians, you and I, come and go. But good policy ought 
to hang on for a long time, until the politicians decide to 
change the policy. That is not the character of the situation 
we are involved in today.
    The thing that is important, though, is that yes, there was 
early criticism of me by Jack Thomas. It was translated to be a 
criticism of him. It was a criticism of the way he came to be.
    He and I, as you know, developed an excellent, although 
sometimes tenuous, working relationship. But it was a good one.

                     additional committee questions

    Senator Gorton. Thank you very much. They will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                     Additional Committee Questions

                        landownership management

    Question 1. Please provide for the record the status of the 
FS evaluation of the Wyoming-Cloverdale Power Transmission 
line, proposed by American Electric Power Company.
    Answer. In 1991 American Electric Power (AEP) proposed the 
construction of 115 miles of 765kv transmission line across 
private and federal lands in Virginia and West Virginia. One 
hundred and three miles of the proposed transmission line were 
proposed to cross private lands and approximately 12 miles to 
cross lands under federal jurisdiction.
    The Virginia State Corporation Commission (VSCC) initiated 
hearings on the AEP proposal and, in December of 1995, directed 
AEP to explore other routing options to mitigate a number of 
sensitive locations crossed by their proposal. In West Virginia 
no acceptable application was ever submitted for consideration.
    In June of 1996 the George Washington and Jefferson 
National Forests published a Draft Environmental Impact 
Statement (DEIS) for the federal land component of the AEP 
proposal. Based on the DEIS, the FS identified ``No Action'' as 
the agency preferred alternative. Under the No Action 
Alternative AEP would not be authorized to cross federally 
administered lands with their proposed line.
    On September 30, 1997, AEP filed new applications (new 
route) for the 765kv transmission line with the VSCC and the 
West Virginia Public Service Commission. AEP has not changed or 
withdrawn the application they submitted to the FS in 1991. The 
corridor identified in AEP's 1997 applications to the States 
does not coincide with the federal land corridor proposed by 
AEP in the 1991 application to the FS, however, the new 
corridor does coincide with one of the federal land 
alternatives considered by the federal agencies in their DEIS.
    The two State Commissions have the responsibility and 
authority to make a number of key decisions regarding the AEP 
proposal. The Commissions will decide whether the power is 
needed, whether the proposed transmission line is the best 
method to meet the anticipated need, whether or where the 
corridor will be located on private lands, and whether the 
purported benefits which result from the transmission line 
offset the adverse environmental and social effects.
    The federal agencies are awaiting the conclusion of the 
State certification processes before completing their analysis 
and making their decisions for the federal land components of 
the AEP proposal.
    Question 2. When are final decisions expected from the Sate 
of West Virginia and Virginia on proposed routes?
    Answer. AEP filed new applications with the West Virginia 
Public Service Commission and the VSCC on September 30, 1997. 
In this case, the West Virginia Commission is operating under a 
400-day timeline. Accordingly, one would expect a decision from 
West Virginia in November of 1998. The Virginia Commission does 
not operate under a prescribed timeline so it is not possible 
to accurately predict the length of their evaluation process. 
Virginia has scheduled the last of its hearings for the AEP 
case in July of 1998.
    Question 3. Within what time-frame will the Agency be able 
to issue a final Record of Decision once State action is taken 
on proposed routes?
    Answer. It is exceedingly difficult to accurately predict a 
timeline for the completion of an analysis when the scope of 
the analysis is subject to change.
    The FS is required to evaluate the proposal that is 
presented to them. Should the Commission approve a route across 
private lands, and a federal land crossing is necessitated by 
the States' decisions, the federal agencies would then involve 
those persons who may be newly affected by the federal 
decisions along that corridor. This new input would be used by 
the federal agency to identify new analysis related tasks or to 
develop new alternatives that would need to be considered by 
the federal agencies before a decision could be made on AEP's 
requested use of federal lands.
    Assuming that services of an environmental consulting firm 
are available to the FS, an analysis of this nature and 
complexity could be completed within 2-years of the date the 
next phase of the analysis is initiated.
    Question 4. Should the role of conducting environmental 
assessment for power lines be transferred to the Federal Energy 
Regulatory Commission (FERC) or the Department of Energy (DOE) 
from the Forest Service (FS)?
    Answer. No. FERC and DOE are regulatory agencies whereas 
the FS is the land management agency.
    Question 5. Please explain the process which resulted in 
American Electric Power (AEP) contributing to the cost of 
environmental assessment and analysis. Specifically, how much 
has the company paid the FS for environmental assessment work?
    Answer. In 1991 AEP (then, American Power Company) 
approached the FS with a proposal to cross approximately 12 
miles of the National Forest with a 765kv transmission line. 
The FS recognized that the analysis of such a complex federal 
land use proposal could not be accomplished without seriously 
compromising its ability to conduct and complete its planned 
program of work. In an effort to respond to AEP's assertions 
regarding the immediate need to begin the analysis of its 
proposal, a couple of options were developed. AEP was advised 
that the use of an environmental consulting firm would likely 
expedite the processing and evaluation of its application. 
Additionally, AEP was offered the option of entering into a 
collection agreement with the Agency. Through this agreement 
AEP would fund the activities of FS resource specialists when 
they were engaged in analysis work related to the 765kv 
transmission line proposal. Through this agreement the FS was 
able to devote personnel, including a project coordinator, to 
the processing of the transmission line proposal without having 
to await funding through the normal 2-year budget appropriation 
cycle.
    To date AEP has reimbursed the FS for approximately 
$750,000 in salary and analysis related expenses. AEP did opt 
to hire a consulting firm to assist the FS in analysis of its 
transmission line proposal. The total costs for those services 
now approximates $5.36 million.
    Question 6. How does this amount compare to original 
estimates?
    Answer. The original cost estimate of the consulting firm 
that successfully competed for the contract was $689,865. 
However, this estimate was submitted before the federal 
agencies defined the scope of the analysis. This is a highly 
controversial private and federal land use proposal. As the 
public involvement process prescribed by the National 
Environmental Policy Act was pursued, more people became 
involved and there were more issues, more resources and more 
miles of alternatives to consider. Additionally, the federal 
agency's analysis grew from a federal land focus, as originally 
envisioned, to include the private lands as well. Hence, the 
consulting firms competing for the contract submitted cost 
estimates for a project whose final scope was unknown. AEP's 
proposal involved 103 miles of private lands and approximately 
12 miles of federal land.
    Question 7. What specific products have been generated from 
the company's payments?
    Answer. In conformance to the requirements of the National 
Environmental Policy Act, the FS published a DEIS which 
considers 14 alternatives in detail; twelve of the alternatives 
cross the NF, one avoids the NF, and a ``No Action 
Alternative''. The FS study considered the resources located on 
both federal and private lands along the 115 miles of the 
proposed route in the States of Virginia and West Virginia.
    The information contained in the Draft EIS provides AEP, 
the public, agencies and the Commissions with important 
resource and environmental effects information regarding the 
federal lands managed by the FS, National Park Service and the 
US Army Corps of Engineers. In fact, the Virginia Commission 
requested the type of information found in the DEIS when they 
initiated their evaluation of the AEP proposal in 1992. The 
West Virginia Commission advised AEP that they could not 
process their application until they had an opportunity to 
review the DEIS.
    Since the President's Forest Plan was adopted in April 
1994, small, run of the river hydroelectric projects proposed 
to be located on Mt. Baker-Snoqualmie National Forest land have 
been paralyzed by the failure of the U.S. Forest Service to 
make a determination of consistency with the plan. Developers 
have spent millions of dollars, mostly on environmental 
studies, to meet the Service requirements, and have permit or 
license applications pending before FERC. Some projects have 
been declared consistent with prior plans and obtained Clean 
Water Act Section 401 approvals from the State of Washington. 
Yet the Forest Service does not offer clear guidance on 
compliance with Option 9, nor has it made any determinations on 
individual projects. Designed for forest management, it is 
clear that Option 9 is being used to stop small hydro 
development on federal multipurpose lands, leaving developers 
who relied on the Forest Service to administer the plan fairly 
and on a timely basis with significant stranded investment. The 
Senate Appropriations Committee in its July 18, 1995 report on 
Forest Service funding stated that it expected the Forest 
Service to conduct an expeditious review of small hydro 
projects waiting for approval by the Forest Service. It appears 
not one of these hydro determinations has been completed.
    Question 8. What is preventing the Forest Service from 
performing its public responsibilities by acting on small hydro 
projects on the Mount Baker--Snoqualmie National Forest 
(MBSNF)?
    Question 9. By what exact date will the Forest Service make 
a final determination on small hydro project consistency with 
the President's Forest Plan?
    Answer 8 and 9. As background, small hydro projects on the 
Mount Baker--Snoqualime National Forest with license 
applications pending with the Federal Energy Regulatory 
Commission (FERC) include: the Martin Creek project; 5 projects 
within the North Fork Nooksack River basin; and 4 projects 
within the Skagit River basin. Under the Federal Power Act 
(FPA) FERC has the statutory responsibility for determining a 
project's consistency but it traditionally relies on the 
recommendations of the Forest Service with respect to 
individual forest plans. Those recommendations made by the 
Forest Service are not made final until the completion of the 
environmental analysis.
    In November 1994, in response to FERC's notice that the 
project application had been accepted for filing, the Forest 
Service made an interim recommendation that the Martin Creek's 
Project was inconsistent with the President's Forest Plan. 
Subsequently, the FERC requested that the applicant provide 
additional information to and consult with the Forest Service. 
On May 10, 1996, the Forest Service provided further 
interpretation of Forest Plan direction related to 
hydroelectric development and on August 5, 1966, completed the 
re-evaluation of the Martin Creek project. This re-evaluation 
provided specific information relative to resource impacts and 
mitigation considerations, but concluded that due to the 
severity of the resource impacts and the difficulty of 
developing effective mitigation measures would probably prevent 
the Forest Service from issuing a recommendation of 
consistency. No further action from the Forest Service has been 
requested by the applicant or the FERC on this specific 
project, and it is our understanding that the project is not 
yet considered by the FERC to be ready for environmental 
analysis.
    In February 1995, in response to the FERC's Draft EIS for 
the North Fork Nooksack River basin projects, the Forest 
Service provided interim recommendations and identified 
specific resource impacts and Forest Plan requirements not met 
by four of the five proposed projects. In September 1997 the 
Final EIS was issued by the FERC. On October 21, 1997, the 
Forest Service issued a recommendation to FERC of Forest Plan 
inconsistency for the same 4 projects, and concurred with the 
FEIS recommendation for license denial based on adverse 
resource impacts outweighing developmental benefits. On 
December 19, 1997, the Forest Service made a final 
recommendation of Forest Plan consistency for the remaining 
Nooksack River project and provided conditions necessary for 
the adequate protection and utilization of forest resources. 
(Note: the appeal period for this Decision Notice ended March 
12, 1998, and the MBSNF is unaware of any appeals filed.)
    In 1995 the Forest Service made recommendations to the FERC 
of Forest Plan inconsistency for the 4 Skagit River projects 
citing resource impacts and Forest Plan requirements not met. 
Final recommendations will be made in response to the FERC 
Final EIS, which is anticipated for release sometime this year.
    No additional proposals or project modifications have been 
presented to the MBSNF requiring further consistency 
recommendations.
    Question 10. Does the Forest Service recommend that small 
hydro projects be removed from the President's Forest Plan in 
light of the fact that (1) Option 9 was designed for large-
scale forest management, not small hydro; (2) the Forest 
Service is not acting on hydro matters; (3) the FERC has 
jurisdiction to declare consistency with National Forest use; 
and (4) Option 9 and the Federal Power Act cover much of the 
same subject matter?
    Answer. The President's Forest Plan was designed in 
response to many issues related to the management of habitats 
for late-successional and old-growth related species. It 
specifically addresses concerns about locally important late-
successional habitats and species and provides direction to 
protect such species. Another important component of the Plan 
is the aquatic conservation strategy that was developed to 
restore and maintain the ecological health of watersheds and 
aquatic ecosystems. The Forest Service also developed, in 
cooperation with other federal agencies, riparian reserve 
standards and guidelines and has issued direction, relative to 
the Plan, that seeks to restore and conserve these valuable 
resources. Impacts on Salmon would be considered as well.
    The Forest Service has developed a National Hydropower 
Initiative which seeks to facilitate the relicensing of the 
many projects, located on lands administered by the National 
Forests, which will come up for relicensing in the next ten 
years. The agency has committed significant increases in both 
personnel and finances to respond to this workload. The Forest 
Service is committed to providing timely and responsible input 
to this complex relicensing effort.
    Although the FPA clearly established that the FERC has 
statutory responsibility for determining if a project is 
consistent with a comprehensive management plan (e.g., Forest 
Plan), the FERC has traditionally relied on the Forest Service 
to provide to FERC their recommendations of consistency 
relative to individual forest plans. The local National Forest 
possess the resource expertise at the regional level to 
determine the effects of a specific hydropower project on these 
resources and bring the project into compliance with the 
respective Forest Plan. The FPA establishes the responsibility 
of the Secretary of Agriculture to determine conditions 
``necessary for the adequate protection and utilization'' of 
the National Forests. The Forest Service provides its 
recommendation of consistency when it transmits those mandatory 
4(e) license conditions to FERC.
    Question 11. If the Forest Service does not recommend that 
small hydro projects be removed from Option 9, what changes in 
the Plan should be made to expedite approval of such projects 
in a manner that does not penalize hydro developers?
    Answer. There is no need to amend the President's Forest 
Plan to expedite the evaluation of hydroelectric projects. 
Projects pending decision in 1994 (both non-federal and Forest 
Service initiated projects) initially faced some delay in 
project evaluation and final approval while the federal 
agencies affected by the development of the President's Forest 
Plan gained a better understanding of, and ability to apply, 
the direction of the Plan. As the agencies gained experience in 
the interpretation and application of the Plan, the time 
necessary to resolve complex resource issues has decreased.
    Question 12. Does the Agency intend to ease the burdens on 
projects whose license applications were pending on the date 
the Record of Decision was put in place and how would you 
accomplish this?
    Answer. Pending projects that lacked completed analysis and 
final decisions are subject to the requirements of the 
President's Forest Plan. At the time the Plan was adopted in 
April 1994, there were no small hydroelectric projects with 
pending applications on the MBSNF that had completed the FERC 
environmental analysis. The Forest Service has, and will 
continue to actively consult with project applicants and the 
FERC to identify specific Forest Plan consistency requirements 
and conditions necessary for the utilization and protection of 
forest resources.

                        forest service overhead

    Earlier GAO was asked to conduct an investigation into 
reports that the amount of expenditures for overhead and other 
indirect costs at the Forest Service has increased dramatically 
in recent years. The GAO has provided us initial information 
concerning agency trust funds. Based on Forest Service 
definitions and financial data, there has been a dramatic 
increase in virtually every region. While GAO is continuing the 
study, these initial findings clearly require explanation. It 
is difficult to believe that these numbers do not represent a 
large decline in agency efficiency. It could also explain why 
the once profitable timber sale program is no longer bringing a 
positive return. For example, GAO has found that overhead in 
permanent trust funds was 29 percent in fiscal year 1997, which 
is 80 percent higher than it was in fiscal year 1993.
    Question 13. In view of the agency's apparent inability to 
accomplish on-the-ground results, how much of the problem is 
attributable to funding what appears to be bloated overhead?
    Answer. Incomplete analysis of the FS financial records 
could lead one to the conclusion that ``overhead and other 
indirect costs'' are bloated in the trust funds; however, we do 
not believe this to be the case. First, we need to be clear on 
our terminology. The GAO report referred to does not report on 
overhead costs. The GAO report analyzes what the Forest Service 
has defined as indirect costs. While some of these can be 
considered overhead (rent, utilities) not all of them are 
usually thought of as overhead (computer support, line 
supervision). Secondly, it is inappropriate to compare fiscal 
year 1993 to fiscal year 1997 because a change of the FS coding 
structure for program support and common services for program 
managers occurred in fiscal year 1994 and again in fiscal year 
1995. Many costs, in fiscal year 1994 and later, in these 
activities had no comparable work activity codes in fiscal year 
1993 business. Readers of the GAO report will note this 
definition change reported in the ``limitations with data'' 
section of the report. This change in definition, or 
classification of costs, accounts for more than 100 percent of 
the ``apparent'' increase in indirect costs from fiscal year 
1993 to fiscal year 1997. In fact, if the costs included in the 
total with indirect costs as a result of this definition or 
classification change are excluded, the costs for this category 
has actually decreased by 16 percent since fiscal year 1993.
    The terms ``overhead'' and ``indirect'' have been used 
interchangeably, and sometimes, incorrectly, as synonyms for 
general administration (a subset of indirect/overhead costs). 
This further complicates reporting of these costs. We currently 
do have agency-wide definitions for ``indirect'' costs; hence, 
coding and the resulting cost information is only available for 
portions of what some might define as ``overhead'' (e.g. common 
services such as rent, utility, communications are clearly 
defined and these costs are available.) Admittedly, much 
confusion was created with the change in definition and 
classification of activity costs in fiscal year 1994 and fiscal 
year 1995. Consequently we are analyzing and reviewing our 
entire cost accounting code definitions and structure with the 
intent to clarify and have revisions in place in time for use 
in fiscal year 2000.
    Question 14. What plans does the agency have to reduce 
overhead expenditures in the future?
    Answer. We are actively looking at reducing all costs, not 
just overhead codes. All work should be performed in the most 
efficient manner. We have combined a number of units, both 
administrative overhead units and entire offices, eliminated 
some offices and moved some to cheaper quarters over the years 
to lower fixed overhead costs. In addition, we have reduced 
administrative staff by more than 25 percent since fiscal year 
1993. Efforts to increase efficiency, while still accomplishing 
an ever-increasing workload, continue.
    Question 15. Why is Region 2 of the Forest Service the only 
unit showing a decline in overhead expenses since fiscal year 
1993? What are they doing that other units are not?
    Answer. Actually Region 2 has not shown a decline in 
overhead expenses in permanent and trust funds since fiscal 
year 1993. They have actually shown a slight increase. However, 
their increase has been much smaller than the other Regions. On 
the other hand, R2's overhead expenses (on a percentage basis) 
charged to appropriated funds is the third largest in the 
nation. The primary reason for this is because R2's permanent 
and trust fund programs are quite small, thus to a large degree 
the cost of ``program management'' and support is being borne 
by appropriated funds.
    However, more analysis would be needed to determine if 
Region 2 in reality does indeed have lower overhead, or if 
Region 2 appears to have lower overhead due to their 
understanding of the changes made in fiscal year 1994 and 
fiscal year 1995.
    Question 16. How will the need to implement major new 
systems such as FFIS and INFRA affect current staffing levels 
which are considered overhead?
    Answer. For the past 5 to 6 years, since the inception of 
INFRA, INFRA has relied on an ad-hoc workforce to develop, 
implement, and support the application. Members of the INFRA 
team are located in several states across the nation. We are 
currently evaluating alternatives to implement a permanent 
organization, in a central location. This will provide for 
greater career opportunities as well as provide for enhanced 
application implementation and support.
    It is unclear whether FFIS alone will affect staffing 
levels. The challenge of converting a commercial--off the shelf 
accounting package to meet all the specialized accounting needs 
of the Forest Service has taken a lot of attention. Our 
financial health initiative also attempts to address the 
weaknesses of our recent financial statement audits. While 
these efforts have commanded our attention, we will not know 
the long-term needs until we can get over our implementation 
hurdles and begin to make FFIS and Financial health routine 
business.
    Question 17. Is the Forest Service aware that even though 
total fund expenditures fell over the past five years, indirect 
expenditures increased significantly? Has the Forest Service 
been monitoring the increase in indirect expenditures? If so, 
what has the Forest Service done to reduce the increases or at 
least minimize them?
    Answer. A change of the FS coding structure for program 
support and common services for program managers (which we 
understand GAO and others refer to as ``overhead or indirect 
costs'') occurred in fiscal year 1994 and again in fiscal year 
1995. Many costs, in fiscal year 1994 and later, in these 
activities had no comparable work activity codes in fiscal year 
1993 business. This change in definition, or classification of 
costs, accounts for more than 100 percent of the ``apparent'' 
increase in ``overhead or indirect costs'' from fiscal year 
1993 to fiscal year 1997. In fact, if the costs included in the 
total with ``overhead and other indirect costs'' as a result of 
this definition or classification change are excluded, the 
costs for this category has actually decreased by 16 percent 
since fiscal year 1993. Admittedly, much confusion was created 
with the change in definition and classification of activity 
costs in fiscal year 1994 and fiscal year 1995. Consequently we 
are analyzing and reviewing our entire cost accounting code 
definitions and structure with the intent to clarify and have 
revisions in place in time for use in fiscal year 2000. Due to 
the reductions in Budget and Accounting staff over the last 
five years we have not had the resources to monitor ``indirect 
costs'. We are actively looking at reducing all costs, not just 
overhead codes. All work should be performed in the most 
efficient manner. We have combined a number of units, both 
administrative overhead units and entire offices, eliminated 
some offices and moved some to cheaper quarters over the years 
to lower fixed overhead costs. In addition, we have reduced 
administrative staff by more than 25 percent since fiscal year 
1993. Efforts to increase efficiency, while still accomplishing 
an ever-increasing workload, continue.
    Question 18. Why have indirect expenditures risen while 
overall fund expenditures have decreased? Can the Forest 
Service identify the types or kinds of indirect expenditures 
that are responsible for the growth? Are certain indirect costs 
escalating faster than others? If so, what are those costs? 
What has the Forest Service done to slow this growth?
    Answer. A change of the FS coding structure for program 
support and common services for program managers (which we 
understand GAO and others refer to as ``overhead or indirect 
costs'') occurred in fiscal year 1994 and again in fiscal year 
1995. Many costs, in fiscal year 1994 and later, in these 
activities had no comparable work activity codes in fiscal year 
1993 business. This change in definition, or classification of 
costs, accounts for more than 100 percent of the ``apparent'' 
increase in ``overhead or indirect costs'' from fiscal year 
1993 to fiscal year 1997. In fact, if the costs included in the 
total with ``overhead and other indirect costs'' as a result of 
this definition or classification change are excluded, the 
costs for this category has actually decreased by 16 percent 
since fiscal year 1993. Admittedly, much confusion was created 
with the change in definition and classification of activity 
costs in fiscal year 1994 and fiscal year 1995. Consequently we 
are analyzing and reviewing our entire cost accounting code 
definitions and structure with the intent to clarify and have 
revisions in place in time for use in fiscal year 1999. Due to 
the reductions in Budget and Accounting staff over the last 
five years we have not had the resources to monitor ``indirect 
costs''. We are actively looking at reducing all costs, not 
just overhead codes. All work should be performed in the most 
efficient manner. We have combined a number of units, both 
administrative overhead units and entire offices, eliminated 
some offices and moved some to cheaper quarters over the years 
to lower fixed overhead costs. In addition, we have reduced 
administrative staff by more than 25 percent since fiscal year 
1993. Efforts to increase efficiency, while still accomplishing 
an ever-increasing workload, continue.
    Question 19. Can we expect the growth in indirect 
expenditures to continue? What plans does the agency have to 
reduce indirect expenditures in the future?
    Answer. As explained in answer to question No. 13 and No. 
17, we do not believe that ``indirect expenses'' in reality, 
have increased. We believe the increases are due to changes in 
definition in regard to expenses allowed to be charged out to 
this cost category. We can expect consistent definitions and 
coding of activities in the future. This coding change may 
cause indirect expenses to appear higher or lower, but it will 
not change reality. Our efforts to minimize all expenses are 
ongoing.
    Question 20. How do you explain the wide variations in 
indirect expenditure rates? Are some funds more efficiently 
managed than others?
    Answer. The indirect expenditure rates are a result of 
services provided to be individual resources. To the extent 
that any of the programs require indirect costs (rent for their 
employees, computers for their projects, unemployment costs for 
crews, line supervision for their crews) the benefitting fund 
pays the cost as part of the program. The variations in the 
indirect rates are a reflection of the complexities. Salvage 
Sale Funds, K-V, and Salvage Sale are all similar. Coop-work-
other is less by the nature of the program. Coop-work-other is 
for cooperative work with others outside of the Forest Service 
and requires less indirect support because of its activities.
    Question 21. How do you account for wide variations in 
costs from region to region? Is it possible that some regions 
are much more efficient than others or is there some other 
reasons for such wide variations? If some regions are able to 
manage funds at far less in indirect costs, are there lessons 
to be learned by other regions? Does the Forest Service have in 
place a mechanism for sharing this knowledge? If so, then why 
are there such vast differences?
    Answer. Variations by region are to be expected. 
Geographical and ecosystem differences across the country will 
always result in variations in costs across the regions. Costs 
to support recreation in urban fringe areas differ from 
wilderness areas. Both are necessary and proper. The Forest 
Service has a program of management reviews and technology 
transfer mechanisms to keep program managers apprised of 
efficiencies across the agency. However, more analysis is 
needed to determine if fluctuations among regions are due to 
different coding conventions or in more efficient use of funds.
    Question 22. Has the Forest Service ever analyzed its 
``overhead'', ``indirect'', or ``general administration'' costs 
with a goal towards reducing the amount of these costs instead 
of reallocating them to other categories? If so, how successful 
was the Forest Service in obtaining overall cost reductions? 
Has the Forest Service followed up to assume that its 
recommendations are still in place?
    Answer. As stated previously, we focus on reducing all 
costs, not just specific types of costs. We have recently 
consolidated some organizations and are moving one regional 
headquarters to realize overall costs reductions. In fiscal 
year 1997, the Washington Office consolidated the Land 
Management Planning and Ecosystem staffs, and reduced two 
staffs in the Research organization. Also in fiscal year 1997, 
two Research Stations were consolidated. In fiscal year 1998 
three National Forests and 22 Ranger Districts were 
consolidated. We have gained approval to move the Pacific 
Southwest Region's Regional Office from San Francisco to Mare 
Island to achieve lower rent costs.
    Question 23. Has the Forest Service compared its overhead, 
indirect, or general administration costs to other federal 
agencies, state agencies, or the private sector? If so, what 
were the results?
    Answer. No analysis of this nature has been done by the 
Forest Service.
    Question 24. Has the Forest Service used analysis of other 
federal agencies, state agencies, or the private sector to 
assist them in analyzing their own indirect costs?
    Answer. No analysis of this nature has been done by the 
Forest Service.
    Question 25. Does the Forest Service know whether indirect 
expenditures as a percent of total appropriated funds have been 
increasing? If so, how do indirect expenditures for the five 
funds compare to those of appropriated funds? If the growth in 
indirect expenditures for appropriated funds is inconsistent 
with those for the five Forest Service funds, what can be done 
to slow the growth?
    Answer. Indirect expenditure rates in the NFS 
appropriations are increasing slowly, similar to the years with 
valid data in the five funds in the GAO report. The rates are 
lower than the five funds because NFS appropriations are not 
assessed for GA. However, see No. 13 and No. 17 for a 
discussion about how coding changes over the years have 
affected the composition of indirect costs.
    Question 26. Do all funds incur the same kinds of costs or 
are some of the funds exempt from particular indirect costs?
    Answer. No. All funds finance indirect activities to the 
extent that they require them. Indirect collections can be 
waived in a certain category of coop-work agreements, although 
the indirect costs in those cases are paid for by the 
benefitting BLI in appropriated funds. Indirect expenditures 
are also sometimes forgone if the amount is insignificant.
    Question 27. Are indirect expenditures for the Cooperative 
Work-Other Fund subject to more oversight than other funds? If 
so why? Do some ``cooperators'' require that Forest Service 
overhead costs be limited or even zero? Are this Fund's costs 
artificially held down as a result of the oversight? If their 
expenditures are held down, do the other funds pick up extra 
shares of the indirect costs?
    Answer. No. See answer No. 26.
    Question 28. How do you decide which fund will pick up 
particular costs, especially those that might be shared by all 
the funds? For example, how do you decide what portion of the 
Line Management costs will be allocated to each fund? How do 
you decide how each fund will share in rent costs or the costs 
of new computer systems? Is there a systematic basis for all 
these allocations that everyone follows?
    Answer. All funds provide support to the extent they 
benefit from that support. This charge-as-worked philosophy is 
central to the management of our finances. Line management is 
by definition a GA activity, so other than the occasional 
Deputy line position that has resource emphasis, line is 
charged to a combination of appropriated GA (NFGA) and 
assessments against the permanent and trust funds at parity 
with NFGA.
    When permanent appropriations and trust funds are assessed 
for general administrative costs, those funds are joined with 
the general administration (GA) line item into a pool. Funds in 
this pool of GA are used interchangeably for any expense 
legitimately paid from GA. For non-GA costs, each fund pays its 
fair share according to usage or the best estimate of usage. 
For example, if employees working on salvage sales use 10 
percent of the floor space in a building, then the salvage sale 
fund will pay 10 percent of the rent.
    Question 29. How does the Forest Service decide when to 
reduce costs and when to reallocate them? If the Congress were 
to limit ``overhead'', ``indirect'', or ``general 
administration'' costs to a certain percent of total 
expenditure or total direct costs, would we see a major effort 
to reduce costs or an attempt to reallocate the costs without 
any real reductions in the costs? If there were actual cost 
reductions, where are they likely to occur?
    Answer. The Forest Service is always working to reduce 
costs, since funding is well behind inflation and since we 
adhere to the business ethic of always trying to improve 
efficiency. We do not arbitrarily reallocate costs, we do try 
to ensure that costs are charged correctly and consistently.
    If Congress were to limit overhead to a fixed percent of 
permanent appropriations and trust funds, appropriated funds 
may have to bear of disproportionate share of the burden. 
Essentially, the charged-as-worked benefitting function 
approach would have to be altered. Indirect costs are simply 
the attempt to allocate workload to the EBLI requiring the 
support.
    Cutting indirect/overhead takes time; costs such as rent 
are fixed in the short-run, and relocating often requires 
Congressional approval. Much of our costs are in salary, 
especially general administrative costs. We find that in many 
cases more personnel are needed, at least in the near term, to 
improve our financial systems and accountability and to meet 
the increasing needs for information by parties external to the 
Agency.
    Real costs reductions can only occur with:
  --Improved business practices, which may cost more in the short run 
        to achieve long run savings;
  --Centralization of services, which could make overhead appear 
        higher, even though total costs may decrease
  --Elimination of work; and
 --Combination, or closure of some units.
    Question 30. How do GPRA goals address the issue of 
reducing overhead and indirect expenses?
    Answer. Although no single goal or objective is focused on 
the issue of overhead and indirect expenses, the need to set 
relative priorities within an assumed flat budget environment 
is recognized throughout the annual Performance Plan. The 
single greatest opportunity, apart from reducing or eliminating 
programs, is increased operational efficiency through use of 
technologies such as improved financial systems, corporate data 
bases (both resource and financial), Geographic Information 
Systems (GIS), and Global Positioning System (GPS). All GPRA 
objectives and management initiatives recognize the importance 
of these potential opportunities.
    Question 31. How will the agency plans to reorganize and 
address the serious financial accountability problems, affect 
overhead?
    Answer. The Agency currently estimates that is will costs 
approximately $23 million over the next 3-years to complete a 
series of actions to strengthen management and accountability 
in the Forest Service. The funds will primarily be used to hire 
a limited number of management personnel to address the major 
management needs of the Agency. The Forest Service would return 
to current staffing levels through attrition so this would not 
be a permanent increase in overhead costs. We also expect that 
as the quality of financial information improves, efficiencies 
will be gained through better analysis of resources 
alternatives. We also expect to gain efficiencies in overhead 
operations as we simplify our budget and accounting systems.
    Question 32. How can the Committee be supportive of efforts 
to address these serious problems through reorganization while 
addressing the problem of increasing overhead costs?
    Answer. The Committees can be supportive by working in 
partnership with the Forest Service as we look at alternatives 
to simplify our current accounting and budget structures. We 
would like to work with the Committees in analyzing alternative 
structures to assure that the Forest Service can meet the 
information needs of Congress with better quality and more 
reliable data. The Forest Service and the USDA has realized 
that reductions in budget analysis, accountants, personnel 
specialists, and contracting officers has contributed to our 
serious accountability problems. We believe in the long-term we 
can reduce not only our overhead costs, but the overall costs 
of doing business by accurate data to help us make financial 
and resource decisions. We are in complete agreement in seeking 
to maximize the efficiencies of our operations and look forward 
to working with the Committee to pursue this goal.
    Question 33. The Forest Service has a Committee of 
Scientists making recommendations on a revision of the planning 
regulations. How does that work link to what the Columbia Basin 
study is developing to amend forest plans?
    Answer. The Forest Service has regulations which guide the 
process to be used while revising Forest Land and Resource 
Management Plans. The Committee of Scientists are projecting 
completion of their work in June, 1998 at which time they will 
recommend planning regulation changes to the Secretary of 
Agriculture.
    Columbia River Basin forest plan revisions will follow the 
new regulations if they are completed by the time the Columbia 
River Basin Record of Decision is made. Otherwise, revisions 
will respond to the current regulations.

                        wildland fire management

    In fiscal year 1997 the agency employed 261 employees in 
the smokejumper program. The smokejumper program has been in 
existence for many years and is proud symbol of Forest Service 
history.
    Question 34. With increased roading of the National Forests 
and overall improved access how cost effective is this program?
    Answer. Even with the improved access with the increase in 
roads over the years, the program is still an important method 
for quick, safe initial attack on fires. There are still many 
unroaded areas, including vast areas of Wilderness where smoke-
jumpers continue to be the primary firefighting resource. The 
cost effectiveness varies throughout the west. The National 
Fire Management Analysis System (NFMAS) is used to analyze the 
most cost effective mix of resources for all national forests. 
Smoke-jumpers are used, either alone, or in combination with 
other resources, in accordance with the NFMAS planning.
    Question 35. What studies have been conducted to assess the 
cost effectiveness of this program as opposed to alternative 
methods of fire suppression? Please provide the subcommittee 
with copies of these studies.
    Answer. In addition to the NFMAS planning for all units in 
the National Forest System, an interagency study to determine 
the best mix of aerially delivered firefighters is underway. 
The model will analyze various mixes of smoke-jumpers, 
helitack, and repel crews and should be completed by the end of 
calendar year 1998. By early 1999, we should be able to test 
the effectiveness of smoke-jumpers in general as well as 
determine the most efficient locations and staffing levels.
    Question 36. How does the average cost per smoke-jumpers 
employee compare to that of other employees retained for the 
purpose of fire suppression?
    Answer. The costs for three different types of firefighter 
appear below. The costs are based on a per FTE basis. The costs 
include all equipment and administrative support for the 
firefighter. For smoke-jumpers, the cost of the aircraft 
supporting each base is included.

Firefighters

        Firefighter type                                    Cost per FTE

Smoke-jumpers.................................................   $66,364
Hotshot crew member...........................................    37,000
Engine crew member............................................    31,000

    Question 37. What consideration has been given to merging 
the smoke-jumpers program completely with that of the Bureau of 
Land Management under one agency's jurisdiction?
    Answer. To date, no efforts have been undertaken to study 
this question, however, the study mentioned in question 35 will 
assist in determining locations and numbers needed in the 
future.
    As population increases there is an increasing impact to 
the fire program due to management of the forest/urban 
interface.
    Question 38. How is the urban interface affecting the 
positioning of fire suppression forces and the management 
posture regarding fire suppression?
    Answer. With the increased risk to life and property in the 
urban interface area, there is an increasing need to prioritize 
fire suppression resource to the protection of life and 
property in the interface. The Forest Service does not have 
jurisdiction for structure protection on private land, or on 
State, Tribal, or local jurisdictions and does not take the 
primary responsibility in those areas. We do have a 
responsibility to prevent damage to these areas from wildland 
fires spreading from NFS protection lands. As a result, 
suppression resources may be assigned to suppress fires, or 
flanks of large fires, which threaten the interface instead of 
assigning those resources to protection natural resources on 
NFS lands.
    The positioning of preparedness forces in anticipation of 
initial attack needs is based on a planning process which takes 
into account the location and availability of cooperator 
resources. In many areas, cooperative agreements with States or 
local entities provides for a very efficient mix of Forest 
Service, State and local resources.
    Question 39. How is the urban interface affecting the type 
of equipment being used in suppression activities?
    Answer. Since the Forest Service cannot assume 
responsibility for the suppression of structures, the types of 
equipment within the agency is based on the need a 
effectiveness for wildland fire suppression. In recent years, 
foams and retardants that were developed for agencies with 
structure protection responsibilities have proved to be very 
effective in wildland fire suppression. Many engines and 
helicopter now have foam capabilities, but the purpose is for 
wildland fire suppression.
    Many municipal and volunteer fire departments are now in 
interface areas with wildland fire responsibility as well as 
their traditional structure protection duties. These 
departments are now equipped with wildland fire equipment and 
have received training and experience from the Forest Service 
through the Cooperative Fire Protection Program and the Rural 
Community Fire Protection Program.
    Question 40. How is the urban interface affecting the type 
of air tankers used for suppression?
    Answer. The urban interface does not require different 
aircraft than the current air tanker fleet for safe, efficient, 
and effective operations.
    Question 41. What consideration is being given to acquiring 
new air tankers for fire suppression such as the CL-415 super 
scooper aircraft?
    Answer. The USDA Forest Service does not own air tankers 
for suppression but contracts for aerial fire suppression 
services from the private sector. This is true for both air 
tankers and helicopters.
    Question 42. What effectiveness studies have been conducted 
by the Forest Service on the CL-415 aircraft? Please provide 
the subcommittee with copies of these studies.
    Answer. The USDA Forest Service was a part of an 
interagency study effort that culminated in the November, 1996, 
publication National Study of Large Air tankers to Support 
Initial Attack and Large Fire Suppression, Final Report, Phase 
2. This study was to look at those aircraft with a potential of 
carrying 1,000 gallons or more of retardant, and develop 
economic models to describe the composition and distribution of 
an idealized fleet. The idealized national fleet described in 
the report is based on 3,000 to approximately 5,000 gallon 
capacity air tankers capable of delivering long term fire 
retardant chemicals. The CL-215/415 was considered and might 
have localized usefulness but does not meet the requirement of 
3,000 to 5,000 gallons retardant capacity for a place in the 
future nationally mobile fleet.

                 forest service geometronics activities

    The Forest Service (FS) maintains a Geometronics Service 
Center which provides a number of services to the organization 
including mapping. In fiscal year 1997 the center employed 112 
FTE's and expended $9.3 million.
    Question 43. What consideration has been given to 
consolidating these activities with other federal agencies such 
as the U.S. Geological Survey?
    Answer. Mapping activities carried out by the FS and other 
civilian agencies of the federal government have been studied 
and evaluated on many occasions over the past 25 years. The 
consolidation of all or part of these activities has been 
considered and debated; however, rather than consolidation, 
agencies have found it most efficient and best service to 
customers to coordinate closely and minimize duplication. 
Federal agencies involved in geospatial activities utilize 
interagency agreements to avoid duplication in mapping and 
related data production activities to share program 
information, coordinate production and data exchange 
activities. This includes the shared responsibility for 
maintaining the nation's topographic quadrangles maps; the 
National Digital Orthophoto Program, National Aerial 
Photography Program, Digital Elevation Models, Public Land 
Survey System and related ownership information and other 
digital and hard copy geospatial products. The agreements 
support the missions of various government agencies and also 
support state and local governments and the private sector.
    Question 44. Could all Geometronics activities be assumed 
by USGS and/or other agencies?
    Answer. All Geometronics activities could not effectively 
be assumed by USGS and/or other agencies. The Forest Service 
established the Geometronics Service Center because the USGS 
was unable to meet our needs for base geographic information in 
a timely manner. Since that time products and services required 
by forest managers have grown to include the production and 
dissemination of base geographic information in both hardcopy 
and digital formats; development and distribution of derivative 
and special maps, digital data, brochures, and support for 
transferring geospatial technologies and product applications. 
There would be no cost savings if this work were shifted to 
USGS but there would be a loss of service to forest managers.
    The importance of Geometronics activities cannot be 
underestimated. Each resource staff provides funding to support 
the Geometronics activities to meet their requirements for 
current, accurate, and timely geospatial information. FS 
Geometronics activities provide essential geospatial 
information for over 191 million acres of National Forest 
System lands directly to the resource managers, scientists, and 
the public. To adequately respond to critical land management 
issues such as fire, forest health, watershed management, 
ecosystem restoration, and recreation, the FS needs quick, 
efficient access to current information.

                     forest service law enforcement

    Question 45. What is the current status of Forest Service 
law enforcement involvement in illegal immigration activities 
on the Cleveland National Forest?
    Answer. Forest Service law enforcement involvement with 
illegal immigration activities only occurs as it relates to the 
protection of National Forest System resources. If, during the 
course of normal activities personnel discover illegal 
immigration activities, actions necessary to protect the 
resources and notify the appropriate agency are taken.
    Question 46. Has the Forest Service fully implemented the 
Committee's fiscal year 1998 direction regarding these 
activities?
    Answer. As of December 20, 1997, Forest Service law 
enforcement had eliminated the use of detailed individuals to 
the Cleveland National Forest. In addition, the number of law 
enforcement personnel assigned to the Cleveland National Forest 
was no higher than it was prior to Border Patrol's Operation 
Gatekeeper.
    The investigation of timber theft continues to be an 
important emphasis for the program.
    Question 47. If the agency increases its reliance on scaled 
sales, what affects will this have on the overall law 
enforcement program?
    Answer. The opportunity for timber theft is present in both 
tree measurement and scaled sales; timber theft did not end 
when the Agency changed to exclusively tree measurement sales. 
This action merely focused the opportunity for theft primarily 
on the sale site. Thus, law enforcement personnel concentrated 
their investigative efforts on pre-sale, sale, or post sale 
activity. With the decreasing number of law enforcement 
personnel, this narrowing of opportunity was necessary. With 
the advent of scaled sales, the opportunity for theft 
increases. The entire scaling process is vulnerable to theft by 
any one of a number of individuals involved throughout the 
process. It will be difficult to ensure proper monitoring of 
activities by law enforcement personnel due to this increase 
and the continued decrease of field officers. Investigation of 
timber theft or related violations during the scaling process 
will also be hindered by the decline in numbers of special 
agents to conduct these highly complex scaling investigations.
    Question 48. What special program emphasis is the Agency 
placing on the investigation of timber theft?
    Answer. The Forest Service continues to look for 
opportunities for the development of methods to track and trace 
federal timber using both overt and covert techniques. Some of 
these opportunities involve the assistance of other Federal 
agencies and the addition of ``Unannounced Timber 
Accountability Audits'' which are designed to strengthen our 
internal controls of preventing and detecting waste, fraud, and 
abuse in timber program accountability. Both LE&I and forest 
management personnel have worked together to accomplish the 
following objectives related to timber theft:
  --Development of timber theft training modules for prevention/
        detection, basic investigation, advanced investigation and 
        management.
  --Instituted reporting timeframes and documentation requirements when 
        undesignated timber has been cut/removed.
  --Law enforcement personnel are now a required part of any activity 
        review or log accountability audit team.
  --Improved overall coordination efforts between timber personnel and 
        law enforcement to enhance prevention efforts and establish 
        protocols for reporting and information exchange.
  --We have ensured a strong prevention and detection program through 
        use of our law enforcement officers by incorporating timber 
        sale and log yard visits into their regular enforcement 
        activities.
  --Issued direction on procedures to ensure debarment and suspension 
        referrals are completed.
    Question 49. What is the status of the Agency's long 
promised comprehensive timber theft prevention and training 
program?
    Answer. The training program is currently being reviewed by 
timber and law enforcement personnel in all Regions and the 
Washington Office. Replies are due within the next few weeks 
and then the program will be finalized.
    Question 50. Have all aspects of the program been presented 
at both timber and law enforcement meetings?
    Answer. Although the program has not been finalized, two 
modules have been presented to line officers and law 
enforcement personnel. The program is structured so modules are 
presented to the applicable audience. Not all areas of the 
program will be used with each group.
    Question 51. What experts are being used to present these 
training sessions?
    Answer. A Forester, currently assigned to LE&I has 
presented the two modules thus far. Future plans are to have 
forest management and law enforcement provide instructors for 
their respective sections of the modules. In most cases, the 
material will be taught by a team made up of both disciplines.
    As part of a recent timber theft conviction in Washington 
State, damage to resources was assessed at $850,000.
    Question 52. What resources are available to the Timber and 
Law Enforcement programs to assure a consistent nationwide 
assessment of damages in timber theft cases?
    Answer. For clarification, the damage assessment of 
$850,000 is what the Forest Service determined to be the dollar 
value of the resource damage. Sentencing has not occurred in 
this case, so it is unknown what the judgement against the 
defendant will be. The most consistent and professional 
approach the Forest Service can take, is to have damage 
assessments performed by the local ecologist, biologist, timber 
specialist, etc., since they possess the technical and 
scientific expertise for the affected land base and associated 
economic/sociological characteristics. Forest Management and 
Law Enforcement must establish the procedure(s) to be used for 
resource damage assessment and disseminate it to investigators 
and the above mentioned resource experts in the field.

                         forestland management

    The Administration proposes a timber sell level of 3.4 
billion board feet in fiscal year 1999. This figure represents 
a steady decline since 1990 when the volume offered was over 11 
billion board feet.
    Question 53. If the funds were provided how much additional 
volume could the Forest Service prepare?
    Answer. The agency has the potential to prepare 
approximately 400 million board feet of timber for sale in 
fiscal year 1999. It is not certain that all of the volume 
could be offered for sale by the end of fiscal year 1999, 
because of the late start on preparing this volume.
    Question 54. To achieve this level, how much additional 
funding would be required?
    Answer. It would require additional funding of $38 million 
in Timber Sales Management and $10 million in Road Construction 
for engineering support of road design to prepare the 
additional 400 million board feet of timber.
    Question 55. Of this additional volume how much might be 
affected by the proposed roadless area moratorium?
    Answer. The Chief proposed a draft interim rule suspending 
the reconstruction or construction of roads in roadless areas 
for 18 months, which was published in the Federal Register on 
January 28, 1998. To date this rule has not been finalized and 
is not in affect. If the proposed interim rule were finalized 
and implemented as published in the January 28, 1998 Federal 
Register prior to the beginning of fiscal year 1999, then it 
would not be prudent for the agency to propose additional sales 
in areas likely to be suspended. Therefore, the additional 
volume should not be affected by the proposed suspension.
    Question 56. What impact has the dramatic change in Forest 
Service personnel had in recent years on the agency's ability 
to produce the modest amount of timber it has promised but in 
some cases failed to deliver?
    Answer. The dramatic change in Forest Service personnel in 
recent years has decreased the both the number and experience 
level of field personnel. Both of these factors have slowed the 
completion of field work.
    Question 57. The Senate version of the fiscal year 1998 
supplemental contains approximately $4.828 million for the 
Routt blowdown within the national forest system appropriation. 
What portion of these funds is directly attributable to removal 
of timber or to access this salvage volume?
    Answer. None of the funds provided in the fiscal year 1998 
Supplemental appropriation are for the removal of the blowdown 
timber. Timber removal will be charged to the Salvage Sale 
Fund. The fiscal year 1998 Supplemental did provide funding in 
the National Forest System appropriation for road maintenance 
to open roads made impassable by the storm. This maintenance 
will benefit all road uses, which includes timber, but is not 
directly attributable to access the salvage.
    Question 58. What volume of timber is estimated to be on 
the ground and accessible for harvest as a result of the 
blowdown, and what is the agency timetable for removal of this 
volume?
    Answer. The volume on the ground and available for harvest 
(outside Mount Zirkel Wilderness) is estimated to be 53 million 
board feet. It is estimated that 43 million board feet will be 
harvested in fiscal year 1998 and an additional 10 million 
board feet in fiscal year 1999.
    Question 59. Is the removal of this volume affected by the 
roadless area moratorium?
    Answer. The Chief proposed a draft interim rule suspending 
the reconstruction or construction of roads in roadless areas 
for 18 months, which was published in the Federal Register on 
January 28, 1998. To date this rule has not been finalized and 
is not in affect. According to the draft interim rule road 
projects in roadless areas on the Routt NF would be exempt from 
the suspension. This results from the Routt NF having a signed 
Record of Decision revising the land and resource management 
plan on which the administrative appeals process under 36 CFR 
Part 217 is underway. It is felt that issues related to road 
construction in roadless areas will be addressed in the appeal 
decision, when appropriate. Therefore, if the interim rule were 
finalized and implemented as published in the January 28, 1998, 
Federal Register, then the blowdown volume on the Routt would 
be exempt from the rule.
    Question 60. Are agency salvage sale resources sufficient 
to access this volume?
    Answer. Yes, there are sufficient salvage sale fund 
resources to access this volume.
    Question 61. Does the Forest Service actively intend to 
harvest available downed timber? If so, in what year?
    Answer. Yes, the Forest Service plans to actively harvest 
the available downed timber. It is estimated that 80 percent 
will offered for sale in fiscal year 1998 and the remaining 20 
percent in fiscal year 1999.
    Question 62. What road construction/reconstruction must 
occur to access this volume?
    Answer. Nineteen miles of reconstruction is needed to 
provide safe access into the sale area. The work includes 
drainage improvements; adding turnouts; spot surfacing and 
widening; resurfacing; regraveling; minor realignment; and 
clearing. This work will allow safe access throughout the area 
with the increased logging traffic and will allow multiple 
sales to be offered simultaneously. It is estimated that five 
miles of new road construction is needed to provide adequate 
access.
    The timber sale contract has been under consideration for 
revision for more than 10-years.
    Question 63. What is the status of the planned contract 
revision?
    Answer. It is currently being prepared for advertisement in 
the Federal Register as a proposed rule. This proposal in now 
in the Department for clearance.
    Question 64. What consideration has been given to proposing 
innovative new methods of timber sale contracting which would 
include provisions for providing logs timber [sic] for services 
to accomplish watershed restoration projects.
    Answer. Identification and evaluation of new ways of 
accomplishing national forest vegetative management goals, 
including those relating to watershed restoration, was launched 
in the summer of 1996. The decision to begin this 
``reinvention'' process was prompted by a growing recognition 
of three things: (1) the need to treat national forest 
vegetation in some areas to achieve ecosystem protection and 
restoration goals; (2) the fact that our traditional tools for 
implementing desired vegetative treatments--i.e., timber sale 
and service contracts--have serious drawbacks, especially when 
it comes to treating low-valued material; and (3) the 
likelihood that future appropriations for performing needed 
ecosystem protection and restoration work will require improved 
program efficiency and effectiveness.
    To help provide public input, a national scoping session 
was held in Washington, DC, during October 1996. Based on the 
input that was received, five objectives were established. 
These are: (1) to explore new ways of accomplishing needed 
vegetative treatments more effectively and efficiently; (2) to 
explore new ways of accomplishing needed vegetative treatments 
with minimal need for increased appropriations; (3) to 
demonstrate the role of vegetative management in proper 
resource stewardship; (4) to demonstrate the role that 
ecosystem protection and restoration activities can play in 
helping to sustain rural communities; and (5) to demonstrate 
the advantages of collaborative stewardship.
    In the summer of 1997, Bob Joslin, Deputy Chief for the 
National Forest System, asked the Regional Foresters to 
identify projects for ``pilot-testing'' possible new ways of 
doing business. A total of 52 nominations were received. In 
November of 1997, an interdisciplinary team reviewed the 
proposals and recommended 23 projects, including at least one 
from each region, for implementation. Projects were selected on 
the basis of the following criteria: (1) ability to add to our 
existing knowledge; (2) the potential to provide information of 
broad applicability; (3) evidence of widespread public interest 
and support; and (4) ability to implement one or more of the 
Chief's resource priorities--i.e., improving forest and 
rangeland ecosystem health, improving water quality and 
quantity, promoting responsible recreation use, riparian 
restoration, and promoting partnerships.
    The proposed pilots evaluate a wide variety of new 
processes and procedures within a range of different settings, 
including some urban interface areas. While some of the 
projects can be carried-out within our existing legislative 
authorities, consistent with the spirit of reinvention, others 
would require temporary supplemental authorities to be 
implemented as planned. One of these authorities, as this 
question suggests, would be the ability to trade goods for 
services.
    The Forest Service has conducted extensive studies on 
effective utilization of small diameter material throughout the 
western states.
    Question 65. What active projects have resulted from this 
research? What specific sites have actually utilized small 
diameter material in response to this research?
    Answer. There have been a variety of studies conducted on 
improving utilization of small diameter material. The research 
has focused primarily on new or alternative products, tools and 
strategies for harvesting small trees, and economics of product 
and management options. This research is in various stages of 
completion from analysis to technology transfer to on-the-
ground testing. Early results have been incorporated into a 
model to help resource managers make decisions about how to 
improve financial decisions when designing contracts for forest 
operations. This model, Financial Evaluation of Ecosystem 
Management Activities (FEEMA) is in the technology transfer 
stage with scientists working with resource managers to 
demonstrate how to use it. This model will help managers foster 
cost-effective ecosystem-based activities regardless of whether 
the management objective is improving forest conditions, 
improving wildlife habitat or is a designated timber sale.
    Several research projects have been conducted over the last 
two years in cooperation with the Pacific Northwest Research 
Station, the USDA Forest Products Laboratory, and other federal 
and non-profit partners on the Applegate Adaptive Management 
Area. To date, three independent wood products manufacturers 
are using or planning to invest in technologies to utilize the 
small diameter material.
    The Limber Jim Fuels Reduction Management Experiment on the 
La Grande Ranger District of the Wallowa-Whitman National 
Forest in Oregon investigated harvesting methods of small-
diameter material, and was completed in 1998. The primary 
purpose of the fuel reduction efforts was to reduce small-
diameter forest fuels to create a shaded fuel break, which 
would permit more effective forest fire fighting. Additionally, 
three methods of removal of these materials were compared for 
economic efficiency, stand damage, and wildlife impacts. 
Technology transfer efforts are ongoing to encourage 
utilization of this research. This project was conducted by the 
Blue Mountains Natural Resources Institute of the Pacific 
Northwest Research Station and the La Grande Ranger District of 
the Wallowa Whitman National Forest in cooperation with several 
partner organizations.
    In northern Idaho and Montana, research by our USDA Forest 
Products Laboratory in Madison, Wisc., showed that mechanical 
grading lumber from small diameter lodgepole pine and grand fir 
substantially improved grade yield of structural products. 
Several mills in these areas are now considering implementing 
this technology to more efficiently handle small diameter logs.
    In Arizona and Colorado studies have been conducted on the 
structural use of 4-to 6-inch of ``round-wood'' for 
applications such as rustic round trusses, space frame pole 
structures, picnic shelters, bridges, and for other structural 
buildings. Research efforts are focusing on overcoming the 
technical barriers, such as grading systems to meet building 
codes and better understanding the variation of round material 
versus sawn lumber.
    In the Southwest the Forest Products Laboratory has 
initiated a project with glue-laminated manufacturers regarding 
the use small diameter ponderosa pine as decking for timber 
bridges. A manufacturer is producing a demonstration product 
for evaluation and testing.
    Last year's Interior Appropriations bill included language 
that amended the Forest Resources Conservation and Recovery Act 
(FRCSRA). The amendment requires the Forest Service to issue 
regulations governing our log export laws no later than June 1, 
1998.
    Question 66. Can you tell us the status of these 
regulations and if you are going to meet the June 1 deadline?
    Answer. The revisions of the Export Regulations required by 
the 1998 Appropriations Act are being reviewed by the Office of 
the General Council. We plan on publishing the proposed 
revision of the rule in July.
    The method by which the agency accounts for timber sale 
accomplishment differs from region to region.
    Question 67. What is the agency position on potential 
direction from the Committee that it account for timber sale 
accomplishments by volume sold as opposed to volume offered?
    Answer. The Forest Service can track sold volume and/or 
offered volume. By tracking sold volume for accountability, 
emphasis is placed upon developing environmentally sound 
economical sale packages.
    Congress directed the agency to conduct a nationwide study 
comparing tree measurement and scaled sale methods for selling 
timber.
    Question 68. What specific actions have taken place on the 
recommendations from this report?
    Answer. The study, directed by Congress, comparing tree 
measurement and scaling has been submitted to Congress. Many of 
the suggestions were already part of the standard regional 
practices. The report indicated that there are advantages to 
each method of measurement depending on the situation. The 
Washington Office has asked the Regions to evaluate the report 
and make recommendations on how the suggestions might be 
implemented. The replies are due next month.

                           systems management

    The agency has committed to having fully functioning and 
manageable data relative to real property maintenance in the 
``infrastructure'' data base by the end of fiscal year 1999. 
The Subcommittee expects the agency to comply with this 
commitment.
    Question 69. Are regional and forest unit managers fully 
cognizant of the agency commitment to this deferred maintenance 
system?
    Answer. The Chief has delivered his agenda to the Congress, 
the Department, and the Forest Service employees. Along with 
the Chief's message, the Chief Operations Officer and all 
Deputy Area directors have been stressing the importance of 
being able to easily gather credible information that can be 
shared with others in a timely manner. A significant commitment 
is to address deferred maintenance for facilities and roads and 
this message is being strongly delivered to the field units. 
Currently, Forest Service specialists are meeting to accurately 
describe what deferred maintenance is. Given agreement on basic 
data requirements and definitions, ``infrastructure'' will then 
capture the information required.
    Question 70. Is the agency on schedule in terms of systems 
modifications and definitions that must occur in order to fully 
handle the deferred maintenance information in 
``infrastructure''.
    Answer. Yes. The agency is working diligently on 
definitions, clarifications, and agreement with the different 
program areas in the Forest Service and the Forest Service is 
seeking standardization with other land based agencies to 
ensure a common understanding of the definitions. The Agency is 
on a short and intense course of action to gain agreement on 
deferred maintenance definitions. The first version of the 
``infrastructure'' system that will handle deferred maintenance 
information using the new definitions is scheduled to be 
fielded in fiscal year 1999.
    Question 71. Once operational, will system be able to 
generate complete national reports which identifies the amount 
of backlog for all forest service facilities, including roads, 
bridges, trails, buildings and recreational facilities?
    Answer. Once fielded in January, 1999, the system will be 
able to store maintenance needs for these facilities. There 
will be some lag before the data is collected through condition 
surveys, and entered into the system. Some data is now on hand 
from recent inspections that can be entered into the system 
immediately. It will most likely be several years before a 
complete cycle of condition surveys and data entry will occur. 
Before data entry and condition surveys are completed, the 
currently available data can be used to make better estimates 
for the total deferred maintenance backlog for each facility 
type. The system will be able to sum deferred maintenance by 
facility type and provide information for national reports.
    The Bureau of Land Management is implementing an Automated 
Land and Minerals Reporting System (ALMRS) which will provide 
resource information on a national basis from any location 
within BLM.
    Question 72. Does the agency have plans to implement a 
similar system with comparative accessibility?
    Answer. Yes. The Forest Service will implement the 
automated lands project (ALP). This will enable both agencies 
to access each others data in a seamless manner.
    Question 73. What effort is the agency making to assure 
that resource management information systems are fully 
compatible with BLM?
    Answer. There is a joint Forest Service/BLM team designing 
the required data elements to assure interagency compatibility 
in accordance with Federal Geodetic Data Committee standards.

                     forest service administration

    USDA has acquired the Foundation Financial Information 
system (FFIS) for use Department-wide. The agency recently 
announced plans to delay implementation of the system for an 
additional year.
    Question 74. A February 1998 report by GAO states that FFIS 
is not year 2000 compliant. Will this cause problems with 
implementation?
    Answer. No. A year 2000 compliant version of FFIS will be 
installed at the National Finance Center, New Orleans, 
Louisiana, during June/July, 1998.
    Question 75. How will implementation of FFIS affect the 
agency organization? Will additional FTE's be required to 
manage the system effectively?
    Answer. FFIS implementation has significantly impacted 
units currently piloting the new system. In addition, more 
staffing has been assigned to the Agency FFIS project team. 
There has been moderate impact on the remainder of the Agency 
as individuals are trained in the use of FFIS and as units 
prepare for data conversion from the current Central Accounting 
System (CAS) to FFIS. Additional FTE's will be required in 
other Agency units as they begin to implement FFIS. The need 
for these additional FTE's is currently being assessed and 
prioritized with the intent to have needed positions advertised 
and filled within the next 60-75 days.
    Question 76. Based on test results, GAO states that the 
system had significant problems in terms of using FFIS 
information for budgetary and accounting report generation. 
Will this problem be rectified before the system goes ``on-
line?''
    Answer. Yes. FFIS is currently operating on-line within FS 
Regions 6, 10 and the Pacific Northwest Research Station. The 
Agency is rapidly addressing reporting issues so that Regions 
6, 10, and the Pacific Northwest Research Station may determine 
their funds status for fiscal year 1998. An alternative 
approach is currently being reviewed for the production of 
necessary reports which will involve the use of an FFIS 
reporting module.
    Question 77. In light of the plan to delay implementation, 
is the agency considering different accounting systems that 
could provide better reliability?
    Answer. Based on experience gained in preparation for 
implementing FFIS, the Agency does not believe it would be 
feasible to implement another new accounting system before the 
Agency-wide implementation of FFIS. FFIS is anticipated to be 
implemented Agency-wide on October 1, 1999. The remaining FS 
units, i.e., other than Regions 6, 10 and the Pacific Northwest 
Research Station, will continue to use the Central Accounting 
System (CAS) currently located at the USDA National Finance 
Center, New Orleans, Louisiana. Maintenance of accurate 
financial information will continue to be emphasized Agency-
wide . This emphasis will also facilitate conversion to FFIS.
    Significant changes may occur in agency budget structure 
due to implementation of GPRA and as a result of recently 
announced plans to reorganize.
    Question 78. Will FFIS be able to accommodate these changes 
while the system is being implemented.
    Answer. Yes. FFIS can accommodate a wide variety of options 
involving budget and cost reporting structures which will 
provide support for the Agency to fully implement the 
Government Performance and Results Act (GPRA).

                          deferred maintenance

    During the House hearing on agency deferred maintenance, 
the Forest Service committed to examining the efficiency and 
regulatory compliance of its housing program.
    Question 79. What steps is the agency taking to address 
what is clearly poor utilization of employee housing?
    Answer. The Forest Service has taken the following steps to 
address employee housing:
  --Notifying tenants, except those in barracks, that we are reviewing 
        all quarters to determine if the quarters are necessary to meet 
        Forest Service needs;
  --Utilizing Office of Management and Budget (OMB) Circular A-11 
        criteria for decisions regarding new construction and reduction 
        of existing quarters;
  --Converting quarters to other uses when there is a need;
  --Reporting to our Lands Staff, for exchange, all quarters on 
        administrative sites that have been vacant for over a year as 
        well as those quarters that are not occupied by Forest Service 
        employees;
  --Surveying all the remaining quarters and identify for disposal 
        those that are not required for service or protection or where 
        there is available housing (OMB Circular A-11);
  --Documenting the survey and reasons for keeping each unit; and
  --Ensuring that the reduction of quarters is consistent with any 
        existing or proposed organizational changes.
    Question 80. When will the agency take aggressive steps to 
eliminate unused housing?
    Answer. We have taken aggressive steps as indicated in our 
response to question 79. We will continue to monitor the survey 
and disposal progress.
    Question 81. The agency's records indicate that quarters 
collections totaled $6.9 million in fiscal year 1997. How does 
this compare to the present estimated cost of bringing housing 
to current standards for condition and maintenance?
    Answer. Industry operation and maintenance costs range from 
2 percent to 4 percent of current replacement value. Our annual 
quarters rental collections (less than 1 percent of current 
replacement value of all improvements) are expended on 
immediate maintenance needs and do not reduce the backlog.
    Question 82. Has the agency considered renting unused 
employee housing to private parties as residences when such 
housing will not be utilized for agency purposes? If not, why 
not?
    Answer. We have permitted the use of a small number of our 
housing units and will continue to do so where the housing is 
vacant now but is needed for future programs.
    There are several reasons why we do not want to ``rent'' 
unused housing to private parties:
  --We do not want to, nor do we believe we should, compete with the 
        private sector;
  --We wish to a avoid the liability and risk that comes with having 
        private citizens living at Government compounds and work 
        centers;
  --We do not have the people or time to manage a private housing 
        program;
  --We wish to avoid the disruption to Forest Service operations that 
        would come from having private citizens living at Forest 
        Service sites; and
  --We do not believe that, in general, the ``rents'' collected would 
        be adequate to maintain the structures, to make necessary 
        upgrades, to provide a reasonable return on investment, and to 
        pay the costs of managing the program.
    Question 83. A March 17, 1998, USDA OIG report states that 
the management of maintenance could be significantly enhanced 
the GPRA strategic plan specifically provided emphasis. Does 
the agency intend to implement this finding?
    Answer. The Forest Service GPRA Strategic Plan contains an 
objective under the ``Provide Multiple Benefits'' goal that is 
focused on maintaining an effective infrastructure. This Plan 
was submitted to the Congress and OMB on September 30, 1997. 
That revision will include language to focus on the improvement 
of infrastructure maintenance. The fiscal year 2000 Performance 
plan is being revised to include performance indicators that 
target a reduction of the deferred maintenance backlog. The 
current and fiscal year 1999 performance plans contain 
performance indicators relating to the improvement of road, 
trail, and building maintenance.
    Question 84. Has the agency developed standardized 
definitions for deferred maintenance which will be used in the 
``infrastructure'' data base?
    Answer. We are now developing standard definitions for use 
in the various program areas. The Forest Service definitions 
are based upon the definitions put forth by the Federal 
Accounting Standards Advisory Board in their Statement No. 6 of 
June 1996. The various program areas (recreation, roads, dams, 
etc.) will incorporate the definitions into specific direction 
to the field, and develop guidance for implementation. The Work 
Items module of the ``infrastructure'' data base is being 
modified to accept data based upon the standard definitions. 
The modified INFRA system is scheduled for release to the field 
in January of 1999.
    Question 85. How do these definitions compare to those used 
by the Department of the Interior?
    Answer. The Forest Service is coordinating with the 
Department of Interior striving to make our definitions 
consistent.
    The Forest Service does not perform all of its maintenance 
activities from the Infrastructure Management line item.
    Question 86. What is the agency's position regarding 
consolidating all recreation maintenance activities into this 
line item?
    Answer. The Forest Service supports changes to its budget 
structure that provide more flexibility and accountability to 
managers on the ground to address resource management needs. 
The backlog of maintenance work for trails, roads, and fire, 
recreation, administrative, and other facilities is at several 
hundred million dollars. Consolidating all recreation 
maintenance activities--recreation facilities and trails 
maintenance--into the Infrastructure Management budget line 
item could serve to more effectively highlight and increase 
understanding of the budgetary issues associated with 
infrastructure maintenance. However, consolidating these 
activities in a manner that provides less budgetary flexibility 
to managers, such as the creation of unnecessary expanded 
budget line items, would be counterproductive. Instead, a more 
comprehensive, both to provide additional visibility to budget 
issues, along with flexibility and more accountability for 
local forest managers may be more efficient. The Administration 
is analyzing options and looks forward to working with the 
Committee on these questions.

                      road construction moratorium

    The Forest Service implemented a roads policy with one 
component being a proposed moratorium on road construction in 
roadless areas. Forest Service estimates are that this 
moratorium will reduce the fiscal year 1999 timber sales 
program by 100 million board feet. I fear the Administration 
may be under-estimating the long term impacts of the 
moratorium.
    Question 87. The committee assumes work has ceased on 
development work on projects in roadless areas pending 
completion of the 18 month ``time out'' period. Assuming your 
line officers are doing exactly that, isn't it true that 
several years could elapse before these sales are brought back 
on line?
    Answer. The assumption that work has already ceased is not 
correct. The final rule has not been published nor implemented. 
In addition, the Deputy Chief for the National Forest System 
issued the following direction on April 2, 1998 to clarify the 
concern you have.
    As you are aware, the Forest Service published a Proposed 
Interim Rule in the Federal Register on January 28, 1998. The 
interim rule will not be final until public comments are 
evaluated, and a final rule is published in the Federal 
Register. This is at least a month or more from now.
    We are aware that some line officers have canceled projects 
in response to the draft proposal. I want to emphasize that the 
Federal Register announcement makes it clear that this rule 
will not be effective until the date of publication of the 
final interim rule. The chief wrote to the Forest Supervisor's 
recommending the following:
    ``There are many good reasons to cancel, modify, or 
lengthen the planning process for projects proposed in roadless 
areas. You should continue to use your best judgement about 
what projects should go forward and what projects should be 
cancelled. However, I remind you that you should not use the 
draft interim rule, nor the anticipation of a final rule, as a 
reason to cancel or delay continued analysis or decisionmaking 
for projects.''
    It is anticipated that once the interim rule is finalized 
any project subject to the suspension will need to be analyzed 
in light of new transportation analysis process before it can 
be implemented. This will cause some delay.

               trail reconstruction/construction program

    The fiscal year 1999 budget request reflects a reduction in 
trail reconstruction/construction of $14.3 million. The 
justification further states that $15 million of the program 
will be funded from the Road and Trail fund.
    Question 88. How will the agency increase its attention to 
reducing backlog if it reduces requests in appropriated funds 
in favor of offsets against other funds?
    Answer. In fiscal year 1999, we propose funding the Trail 
Reconstruction and Construction program from both Appropriated 
(CNTR) funds at $13.2 million, and from the 10 percent Road and 
Trail Fund (10 percent R&T) for $15 million, for a total of 
$28.2 million, a total increase of $1 million from fiscal year 
1998 of $27.3 million in Appropriated CNTR funds. The 10 
percent R&T will be used for the same activities as the CNTR 
funds, and on the national forests in the States that generate 
the receipts. The Appropriated dollars will be used to backfill 
to bring the total on each forest up to the program level. To 
determine the feasibility of this approach, we ran a test 
allocation based on the fiscal year 1997 receipts by forest. If 
the fiscal year 1997 receipt levels remain the same or increase 
in fiscal year 1999, by State, it appears to be possible to 
provide the for the trail reconstruction and construction 
program levels between the two funds. This program level of a 
combined $28.2 would include addressing some of the backlog 
trail miles.

                     forest service accountability

    Senator Gorton noted in his hearing remarks, that the 
General Accounting Office gave a very strong indictment of the 
agency's commitment to improving decision making and 
efficiency, and tracking its finances.
    Question 89. Does the Forest Service plan to fix the 
serious problems noted by GAO? If so, what are the specifics?
    Answer. The GAO report discussed significant resource and 
financial management deficiencies within the Forest Service 
(FS), including: inadequate attention to improving the Agency's 
decision-making process; an inability to improve accountability 
for performance; a lack of agreement within the Agency on how 
to portray long term strategic goals; an inability to address 
issues that transcend administrative boundaries and 
jurisdictions; an inability to operate under the differences in 
environmental statutory requirements; slow progress in taking 
aggressive actions to correct deficiencies; and a lack of 
integration among national processes, data structures, systems 
and information. These are major challenges. While the Agency 
acknowledges that there is much work yet to be done, a good 
start in implementing long-needed changes has been completed.
    A Forest Service Natural Resource Agenda (Agenda) has 
recently been announced to help with these changes. The Agenda 
focuses special attention on four key emphasis areas: watershed 
health and restoration, sustainable forest ecosystem 
management, forest roads, and recreation, and is a clear 
expression of direction--direction that is supported strongly 
by the American people and that will be implemented in strict 
accordance with the law. One of the issues facing the Agency is 
the tradition of trying to do everything and failing to set a 
clear set of priorities. This has led to some questionable 
decision-making and failure to implement some projects, 
particularly those that are complex and contentious. The Agenda 
will give a more focused direction and priorities to FS 
employees over the next few years.
    The Agenda is being implemented through the Government 
Performance and Results Act (GPRA) process. GPRA is an 
extremely useful tool for linking the Agency mission to 
appropriate strategies and results. Priorities set by this 
Agenda will be reflected in appropriate GPRA goals, objectives 
and performance measures. Further, specific GPRA performance 
measures are being linked to individual standards for FS line 
officers.
    Significant improvements are being made in the area of 
financial management and accountability. The Agency continues 
to take aggressive action to ensure that the FS becomes one of 
the most efficient agencies in the Federal Government. While 
much work is yet to be done, the Agency has made a good start 
in implementing long-needed changes.
    In conjunction with the USDA Office of the Chief Financial 
Officer (OCFO), the Office of the Inspector General (OIG), and 
the USDA National Finance Center (NFC), the FS is working 
towards implementing a new general ledger system called the 
Foundation Financial Information System (FFIS). Consistent with 
this joint effort, a pilot project to implement FFIS in several 
FS regions is currently under way. While progress is being 
made, implementation issues are being managed continuously. As 
FFIS is implemented, FS financial management requirements will 
be modified as appropriate and opportunities will be identified 
where Congress, in its authorizing and appropriations 
processes, can help the Agency achieve a strong and accountable 
financial management system.
    Additionally, the Coopers and Lybrand accounting firm was 
commissioned to review the Agency's financial management 
situation. Their report, released in March, makes 
recommendations on streamlining and clarifying financial 
management systems. These recommendations are being carefully 
reviewed and appropriate action taken to strengthen financial 
management in the Forest Service.

                         columbia basin studies

    This Subcommittee has major reservations about the Interior 
Columbia Basin Ecosystem Study. When the Forest Service first 
undertook this effort with the Bureau of Land Management, 
Congress was assured that planning over large areas such as the 
Columbia Basin would promptly result in making final land 
management decisions. Now, due largely to the Endangered 
Species Act requirements for consultation with other regulatory 
agencies; namely the Fish and Wildlife Service and the National 
Marine Fisheries Service, it appears the Columbia Basin study 
is little more than a bureaucratic process that will be 
followed by an additional cumbersome local forest planning 
process. This seems terribly inefficient. Once again it appears 
the Forest Service is affected by analysis paralysis.
    Question 90. What effort can be made by the Administration 
to rein in these regulatory agencies, so the analysis will only 
occur at one level or the other?
    Answer. An Executive Steering Committee was developed by 
the Director of the BLM and Chief of the Forest Service to 
manage the project. The committee is composed of the BLM State 
Directors from Oregon and Washington, Idaho, and Montana; 
Regional Directors of the National Marine Fisheries Service, US 
Fish and Wildlife Service and Environmental Protection Agency; 
Forest Service Station Directors from the Pacific Northwest 
Research Station and the Intermountain Forest and Range 
Experiment Station and the Forest Service Regional Foresters 
from the Pacific Northwest, Northern and Intermountain Regions. 
This Committee is working hard with a broad array of 
governments including 100 counties and 22 tribes, partners; and 
interested groups and individuals to carry out a very complex 
task because of the issues and size of the area involved. They 
are striving to find a way to balance the statutory 
responsibilities of five federal agencies with the needs of 
State and local government and demands of industries and 
conservationists, and the desire of an even broader array of 
individuals and groups.
    Question 91. In order to move this process forward, does 
the Forest Service plan to reduce substantially or eliminate 
requirements for local unit planning following issuance of the 
final EIS?
    Answer. The project decisions will lay out the conditions 
for future management to assure sustainable populations of 
species across the planning area. It will provide the framework 
for future management. It will create consistency regarding 
broad scale issues being integrated into forest and resource 
management plans, creating a better expectation for goods and 
services to be provided from our public lands. Although we 
won't know for certain until a decision is made, we anticipate 
that the ICBEMP ROD will identify broad scale desired future 
conditions for vegetation, road management conditions, aquatic/
terrestrial strategies, and some management prescriptions. If 
this were to happen, the need to address these types of broad 
scale concerns at the project level would be eliminated.
    Question 92. What impact will the plan have on local land 
managers ability to make important management decisions in a 
prompt and efficient manner?
    Answer. One of the purposes of the Project is to provide a 
broad scale framework for local land managers to make local 
decisions promptly and efficiently. With this framework, 
managers will be able to focus on local issues and not expend 
time and energy on issues that they can not resolve at their 
level. For example, the Final EIS and Record of Decision (ROD) 
will contain direction concerning conservation and restoration 
of aquatic systems. When followed, it will provide assurances 
to local managers that their actions are contributing to the 
restoration of aquatic species and not a continuing decline.
    This project has become too grand in concept, especially if 
local planning efforts must continue. If Congress continues to 
authorize this project, this Subcommittee expects the Forest 
Service and the Department of Interior to make it more 
streamlined and focused.
    Question 93. What are the decisions that absolutely must be 
made at the Basin level, and what other aspects of the study 
can be eliminated?
    Answer. The project will be revisiting this question in 
developing the Final EIS and ROD. There may be decisions that 
can be deferred and are more appropriately made at other 
levels. Our intent would be to identify these issues and as 
part of the decision for this Project, describe how and when 
they would be addressed.
    At a minimum, the Project must replace interim direction, 
specifically PACFISH and INFISH. There are two court decisions 
(Prairie Wood Products et. al. v. Glickman et. al. and Friends 
of the Wild Swan et. al. v. U.S. Forest Service et. al.) that 
expect the Project to replace the interim strategies with a 
long-term strategy.
    In previous testimony the Forest Service stated that 
through this process it would prevent future endangered species 
listings; but it appears that species listings is moving right 
along, including Steelhead, Bulltrout, the Lynx and others. The 
agency doesn't seem to be succeeding.
    Question 94. Will a final record of decision prevent 
further endangered species listings?
    Answer. It is certainly our intention to build into the 
Final EIS and ROD the necessary analysis and direction to avoid 
the need to list additional species where all or a major 
portion of the species population resides on federal lands. 
Furthermore, it is our intention to provide the necessary 
direction to ensure that no listing of additional species occur 
as a result of management actions on Forest Service and BLM 
lands. This intent is clearly written into the goals for the 
Project. The information and analysis prepaid for the Project 
will allow State and local officials throughout the Basin in 
their decisions over a multi-state region.
    Question 95. What will it take in the record of decision to 
accomplish this goal?
    Answer. By implementing the Final EIS and ROD, it is our 
intent to avoid further listings on federal lands.
    Question 96. What is the impact of the plan on private 
property?
    Answer. Decisions made in the Final EIS and Record of 
Decisions will not apply to private or other non-federal lands. 
Decisions made by the Project will only apply to the 72 million 
acres of Forest Service-or BLM-administered land within the 
project area. How those lands are managed could affect other 
lands; just as current management of federal lands affects 
other lands, and private management affects federally 
administered lands.
    It is our intent that the aggressive restoration strategies 
of the preferred alternative positively affect other lands 
through, for example, a reduction in the occurrence of 
uncharacteristic wildfire and more systematic and aggressive 
treatment of noxious weeds.
    The National Environmental Policy Act requires that federal 
land managers look at both how they might affect surrounding 
lands as well as how management on those lands might affect 
federal lands. Chapter 4 of the draft statement outlines what 
those possible cumulative effects might be.
    The Columbia Basin Study has been extremely expensive, with 
the BLM and Forest Service spending over $15 million on the 
study alone and estimating the need for $125 million to 
implement the plan.
    Question 97. To what degree is success of the plan 
dependent on these agencies receiving the funding increases 
requested in the fiscal year 1999 budget?
    Answer. The funding increase requested in the President's 
1999 budget is the amount of the funding needed to begin 
implementation of the plan in the last quarter of fiscal year 
1999. That funding increase is based on the preferred 
alternative (Alternative 4) in the draft statement. Between the 
draft and the final statement, we expect there will be changes 
made to Alternative 4 and that implementation funding may need 
to be recalculated.
    If full funding does not occur, we will still be able to 
implement the plan with the funding the agencies do receive. 
However, the rate of implementation will be decreased 
appropriately. Receiving less than full funding will make it 
harder to achieve the Desired Range of Future Conditions called 
for in the plan. There will be a higher risk of more severe 
wildfires, reduced activity levels, and fewer restoration 
associated jobs. Reduced funding would also affect the 
predictability of goods and services from federal lands within 
the project area
    Question 98. Does the plan have any tangible benefit if the 
agency is held at or below fiscal year 1998 levels?
    Answer. Yes. There are at least three tangible benefits. 
First, land managers will know at the broad scale where they 
can invest the funding they get and make a difference, from 
both a biological and social/economic standpoint. In other 
words, they will have information that allows them to 
prioritize how money is spent in order to get the greatest 
return on their investment, or said another way, the biggest 
bang from their buck.
    Second, this landscape strategy will better position the 
land management agencies, both Federal and State, to compete 
for watershed and fish/wildlife habitat restoration dollars 
from other funding sources. Having a strategy that shows how 
project level work can contribute to restoration of fish and 
wildlife or improvement of water quality throughout the Basin 
could be an effective tool for developing partnerships and 
obtaining additional restoration funding. Also, local officials 
and non-profit organizations can target key lands for land 
improvement or protection to support land and community 
development efforts.
    Lastly, the current interim direction will be replaced with 
a long-term strategy meeting the expectations of the courts.
    See answer to question No. 93.
    Question 99. What would be the consequences of not 
finishing this study and not issuing a record of decisions?
    Answer. Management of BLM or Forest Service administered 
lands would be vulnerable to legal injunctions. Interim 
strategies (such as PACFISH, INFISH, and Eastside Screens) 
would be vulnerable to lawsuits since recent court rulings (see 
answer for S-093) expect the Project to replace the interim 
strategies with a long-term strategy. Without a long-term 
strategy, endangered species consultations on land management 
plans for Snake River sockeye and spring/summer and fall 
chinook salmon would be moot, and the agency would be exposed 
to the same vulnerability to wide-ranging injunctions. 
Resolution of these injunctions would likely be difficult 
because of the lack of a consistent strategy for species 
protection across the range.
    The release of the Project's scientific reports creates a 
situation where the BLM and National Forests must show they 
have taken the new information into account in their decisions 
on individual projects (like timber sales) or on updates to 
their land use plans. For the latter, there will need to be a 
consistent interpretation of the information, or the agencies 
will be exposed to legal challenges based on eventual 
inconsistencies of using the science. The risk of inconsistent 
interpretation of the science can be avoided by completing the 
EISs and issuing a Record of Decision.
    Question 100. What value will the science conducted to this 
point in developing the DEIS have if the project is terminated?
    Answer. The science conducted thus far adds to our overall 
understanding of the biological systems we manage and the 
social and economic systems that depend on them. The science 
portion of the Project has developed three major pieces of 
work: A Framework for Ecosystem Management, the Integrated 
Assessment, and An Assessment of Ecosystem Components. These 
documents bring together the most current information on 
biological, social and economic conditions within the interior 
Columbia Basin, and in particular information important to 
federal land management. The primary focus of the science 
effort has been at the Basin scale so federal land managers 
could develop strategies to address basin-wide problems.
    The Framework and the Science Assessment describe the 
biological and social/economic risks and opportunities that 
exist within the Basin. Managing the risks and opportunities is 
the point of BLM and Forest Service management. In this sense 
then the agencies have the opportunity to be more efficient and 
effective in their management. The science will be valuable for 
future decisions at multiple scales.
    If the Project's Final EIS and ROD are not the decision 
mechanism to address the broadest scale of risk and 
opportunities, it leaves a void at this scale. This result 
would leave as unsettled the issue of a strategy to manage 
risks to listed fish species, old-growth dependent species, and 
forest and rangeland health within the Basin.
    Question 101. What factors contributed to the wide breadth 
that this study is covering? Why is it addressing every issue 
under the sun including those which would be addressed by local 
forest plans?
    Answer. The Project is focusing on a number of issues, such 
as the viability of wide ranging wildlife and fish species and 
forest and rangeland health, that transcend forest and BLM 
district boundaries. We will not address those issues most 
appropriately dealt with at the local level.
    Question 102. Couldn't some of these issues be addressed in 
different ways than through this massive analysis and thousands 
of pages of material which is too complex for most people to 
comprehend?
    Answer. If it were not for some overarching issues like 
forest health or managing anadromous fish populations, we might 
be able to plan at a different level. However, as Judge Dwyer 
pointed out in his ruling on the Northwest Forest Plan ``given 
the current conditions of the forests, there is no way the 
agencies could comply with the environmental laws without 
planning on a ecosystem basis.'' Given this interpretation, we 
believe such issues as forest health and anadromous fish 
populations could not be effectively or efficiently addressed 
by plan or project level decisions.
    We will learn from this experience so that future landscape 
and ecosystem plans will be more expeditious and cheaper to 
complete. Also, the Project needed to establish a foundation or 
resource conditions, which, apart from some timber health 
measures, have not been systematically pursued in most forests. 
This data will become part of the on-going survey data 
collected by the federal agencies. This database will allow 
future ecosystem plans (and forest plans in general) a giant 
headstart.

                          county stabilization

    On April 2, the Department of Agriculture forwarded to the 
President draft legislation to establish a stabilized level of 
payments to States for distribution to counties in which 
National Forest are located. The Administration states that the 
purpose of this legislation is to provide counties with a 
predictable level of payments in lieu of the dramatic 
reductions most counties have sustained over the past several 
years.
    Question 103. Is this proposal an Administration effort to 
use the stabilization plan as a politically palatable way to 
further reduce the planned timber cut from National Forests?
    Answer. Implementation of the payments to States 
stabilization proposal should have no effect on the timber sale 
program. Decisions regarding the timber program will continue 
to be made independently of the payments to States funding as 
they have in the past.
    This proposal does not have the support of local county 
governments, which see it as a form of welfare that can't even 
begin to compensate counties for the loss of an industry which 
provided jobs in addition to reasonable levels of county 
payments from federal receipts.
    Question 104. How does the agency respond to this 
criticism?
    Answer. With revenue collections declining, States and 
counties are receiving fewer and fewer dollars from the Federal 
government. Payments to States funding has declined 35 percent 
(from $361 million down to $233 million) since 1989. The 
payments to States proposal will provide stabilized payment 
levels independent of local employment issues. This 
stabilization will provide local communities improved knowledge 
of future payments, permitting better planning and enhanced 
rural development efforts. Furthermore, this proposal will 
provide a permanent replacement for the special payment 
guarantee, which expires in 2003, for counties affected by the 
northern spotted owl decisions.

                        forest service research

    This Subcommittee was generous to the Forest Service 
Research program in fiscal year 1998. In fact the program 
received an increase of $8 million over the President's 
request. In fiscal year 1999 the President's request calls for 
an increase of $10 million.
    Question 105. Is the Forest Service using these significant 
increases to conduct research in areas that will actually 
result in on-the-ground management that increases multiple use?
    Answer. The primary strength of Forest Service Research & 
Development is developing land management options for solving 
complex forest and rangeland problems associated with multiple 
use. A majority of our research program has as the ultimate 
objective, options for on-the-ground multiple use management of 
the diversity of natural resources on forest and rangelands in 
the Nation.
    The $8 million increase provided by the Subcommittee in 
fiscal year 1998 is allocated for, and addresses the following 
multiple uses:
  --$1.6 million across all Research Stations and their programs to 
        partially cover fixed cost increases. $3.0 million to enhance 
        and conduct the on-the-ground Forest Inventory and Analysis 
        (FIA) program. This funding was allocated as follows: Southern 
        Research Station ($2,000,000); Northeastern Station ($155,000); 
        North Central Station ($550,000); Rocky Mountain Station 
        ($175,000) and Pacific Northwest Station ($120,000). The focus 
        of these funds is to expand the development of our annual 
        inventory system, which if completely funded and developed 
        should result in an FIA cycle averaging 5-years and to continue 
        to integrate our Forest Health Monitoring (FHM) system plots 
        with FIA as well as expanding the suite of data collected and 
        analyzed to provide a more complete understanding of ecological 
        conditions and trends in forest health. This inventory is the 
        primary source of information used by states, industry and the 
        Forest Service to assess current conditions and trends in the 
        nation's forest resources. While FIA focuses primarily on 
        inventorying the Nation's timber resources, it does inventory 
        other vegetative and habitat cover. The integrated FIA and FHM 
        system will further concentrate multiple use resources as well 
        as forest health.
  --$1.0 million to Rocky Mountain Research Station: $700,000 to 
        address the need for effective and economically efficient ways 
        to reduce fuels and improve forest health within the 
        southwestern wildland/urban interface; and $300,000 to carry 
        out research studies to find applicable forest and rangeland 
        management treatments needed to restore forest health and ways 
        to monitor the effectiveness of these treatments. This research 
        supports the Forest Service Region 3 southwest wildland 
        ecosystem restoration project in AZ and NM.
  --$500,000 to the North Central Research Station to enter into a 
        collaborative partnership with Purdue University, the Indiana 
        Department of Natural Resources, and private industry to 
        establish a Fine Hardwoods Tree Improvement and Regeneration 
        Center. The focus of the Center's research will be on finding 
        management techniques to curb the decline of fine quality 
        hardwood forests and improve forest health in the central 
        hardwoods region of the U.S.
  --$450,000 to the Pacific Southwest Station to support the Institute 
        of Pacific Islands Forestry in Hawaii. These funds will support 
        studies aimed at: restoring and protecting Hawaii's native 
        forests to provide economic and environmental benefits; 
        controlling exotic plants that threaten Hawaii's native 
        forests; and providing effective management techniques to 
        manage and protect Hawaii's coastal wetland forests which 
        provide wood, clean water and aquatic resources for people.
  --$1,500,000 to the Pacific Northwest Station to initiate long term 
        integrated studies to evaluate methods to improve management 
        compatibilities among multiple uses on Federal Lands. Through 
        new and existing studies they are focusing on key management 
        and economic issues that provide opportunities for producing 
        wood as-well-as create, restore, and maintain wildlife habitat, 
        biodiversity, watershed and aesthetic values.
    The $10 million increase requested in the fiscal year 1999 
President's budget also addresses needs of on-the-ground 
management for multiple use.
    $6.0 million across Stations for further expansion of the 
annual inventory to move toward 5-year cycle of the Forest 
Inventory and Analysis program and integrate and expand the 
Forest Health Monitoring program on public and private lands of 
the U.S.
    $1.0 million to address information needs for implementing 
the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP). Research will evaluate on-the-ground management 
activities to better apply prescribed fire, modify grazing 
systems, control noxious weeds, apply silvicultural treatments, 
and find effective indicators that the Basin ecosystems remain 
sustainable under the demands of various multiple uses.
    $3.0 million to develop economically feasible and efficient 
technology to help industry and the people of the U.S. 
understand, adapt to, and mitigate the potential impacts of 
climate change, i.e., how people can help reduce greenhouse 
gasses and carbon dioxide emitted by the use of fossil fuels; 
and how people can help store carbon by using more durable and 
longer lasting forest products in their homes and businesses.
    Last year this Subcommittee provided an additional $1.5 
million to the Pacific Northwest Research Station without 
specific earmarks; only emphasizing the need to increase 
emphasis on commodity outputs.
    Question 106. How has that money been used for this 
purpose?
    Answer. Following the guidance of Senate language for the 
fiscal year 1998 Appropriation, the $1.5 million has been used 
to initiate long term integrated studies to evaluate ``improved 
methods of increasing commodity production in an 
environmentally acceptable manner.'' This is being accomplished 
in collaboration with institutions such as the University of 
Washington's Center for Streamside Studies and the Washington 
State Department of Natural Resources through the Station's 
Initiative: ``Compatibilities between wood production and other 
forest values and uses on Federal Lands.'' Through new and 
existing studies we are focusing on the key issues that provide 
opportunities as well as remove barriers to producing wood 
while creating or restoring wildlife habitat, biodiversity, 
watershed and aesthetic values.
    Additional funds were provided to study methods for 
utilization of small diameter timber on the Colville National 
Forest and to initiate a comprehensive small diameter 
utilization study in Southeast Alaska.
    Question 107. What is the status of these projects?
    Answer. Significant research work is already underway in 
Southeast Alaska, Western Washington, and Western Oregon to 
address several key concerns of federal, state, and private 
land managers. Work has been initiated to evaluate impacts of 
alternative silvicultural treatments on wood quality in young 
growth stands, particularly for upland riparian forests, a 
topic of high priority for private industry in the Douglas-fir 
region as well as the coastal western hemlock type. Modeling 
capabilities are being accelerated to better link management 
alternatives with desired outcomes at multiple scales. In 
particular, forest vegetation simulation models are linked with 
visualization and digital elevation modeling to address 
commodity production while maintaining wildlife and anadromous 
fish habitat. The necessary cooperative agreements with 
regional universities are also being drawn up and expect to be 
in place by beginning of fiscal year 1999.
    Question 108. When can we expect to see on-the-ground 
management results from these funds?
    Answer. A complete Problem Analysis will be finished by the 
end of this fiscal year (FY 1998). Where as most of fiscal year 
1998 and fiscal year 1999 will see completion of several 
``synthesis'' types of products as a follow-up to the Problem 
Analysis as well as initiation of work by the universities, the 
bulk of the information will be summarized after 3 to 5 years. 
However, we will complete some near term products (e.g., on 
wood quality) that will be made available to land managers 
early next year.
    Question 109. How is the Chief personally involved in 
setting priorities for the Research program that will 
ultimately lead to increased multiple use management on the 
ground?
    Answer. The Chief sets his priorities for the Forest 
Service organization. He has clearly set there priorities out 
through the FS NRA and the Agency's Result Act (GPRA) strategic 
plan and annual performance plan. He conveys these priorities 
through continuous written and verbal dialogue with his Deputy 
Chiefs and other top leadership team members. The Deputy Chief 
for R&D has two major responsibilities relative to setting 
priorities. One responsibility is to maintain constant dialogue 
with the Chief and carry his messages and priorities to the 
Research leadership, who are responsible for implementing these 
priorities at the field level. A second responsibility for the 
Deputy Chief is to convey to the Chief what Research leadership 
views as science priorities. Scientists and Forest Service R&D 
are responsible for staying at the cutting edge of science and 
looking strategically ahead at what issues and problems may 
occur in the future.
    Beginning in fiscal year 1995, Research scientists provided 
extensive support to revision of the Tongass Land Management 
Plan in Alaska. Research support to the Alaska Region continues 
today as post-plan activities are conducted. Based on findings 
by GAO, the Forest Service was unable to document if Research 
funds were used to support this effort; which would have been 
improper. Despite agency direction in 1997 to strictly document 
such jointly funded projects, GAO found that the agency's 1998 
final budget allocation failed to comply with this requirement.
    Question 110. Does the Forest service recommend that small 
hydro projects be removed from the President's Forest Plan in 
light of the fact that (1) Option 9 was designed for large-
scale forest management, not small hydro; (2) the Forest 
Service is not acting on hydro matters; (3) the FERC has 
jurisdiction to declare consistency with National Forest use; 
and (4) Option 9 and the Federal Power Act cover much of the 
same subject matter?
    Answer. Since the completion of an audit by OIG in May, 
1995, the Forest Service has worked diligently to respond to 
the findings from the report. A complete copy of the audit 
findings was provided to all Stations in July 1995. One of our 
first accomplishments was based on Finding No. 3 ``Controls 
Needed to Ensure Federal Procurement Regulations are Followed 
for External Research Organizations,'' and Recommendation 3b of 
the OIG Report, which directed research stations to document 
the source of funds for cooperative agreements. The majority of 
the issues identified has been accomplished by updating and 
providing further guidance to project managers through the 
Forest Service Manual and Handbooks, Interim Directives and 
Management Reviews. In addition, Forest Service Research 
provide guidance to the Stations in the Explanatory Notes and 
Program Budget Advice. These systems in place serve as the 
basis for internal management and control of Forest Service 
Research programs and the primary source of administration 
direction to all Agency employees.
    Question 111. If the Forest Service does not recommend that 
small hydro projects be removed from Option 9, what changes in 
the Plan should be made to expedite approval of such projects 
in a manner that does not penalize hydro developers?
    Answer. All Research Stations have been directed to have in 
place a procedure to document the source of funds for 
cooperative agreements, as well as a process to review them for 
proper authority. For example, we have established a procedure 
and template form for documenting research and collaborative 
agreements, which includes detailed instructions and examples.
    Forest Service Research will continue to work on providing 
the appropriate information and training to project managers to 
further their understanding of appropriation law and the 
authority that accompanies it.
    In addition, as stated above, the Forest Service Manuals, 
Interim Directives, Explanatory Notes, and the Program Budget 
Advice provides guidance and directions for the entire Research 
program.
    Congress provided funds in the fiscal year 1998 
appropriations process to study methods to utilize materials 
removed during hazard reduction operations. This is 
particularly important as urban population expands deeper into 
forest lands.
    Question 112. What is the status of these efforts?
    Answer. The Joint Interagency Fire Science Program was 
initiated in fiscal year 1998 to provide research, development, 
and application support for expanded fuels management 
activities on federal lands. Activities will include: 
assessment of fuel hazard problems; ecological, environmental, 
and socioeconomic effects of fuel management treatments; 
strategies for treatment scheduling; and monitoring of 
treatment effects. The Forest Service contribution to this 
program is $4 million in fiscal year 1998 and proposed at $4 
million in fiscal year 1999. This funding is part of the 
Wildland Fire Management Fire Operations budget.
    Question 113. How will the Forest Service apply these 
efforts to actual on-the-ground activities?
    Answer. The activities listed for the Fire Science Program 
are intended to provide managers information, data, models, and 
process for implementing the fuel management program. Of 
particular importance is the prioritizing of projects and the 
effects of treatment activities which will be used by local 
mangers to determine a planned fuel management program and for 
the allocation of budget and targets based on the assessment 
and national priorities.

                          minerals and geology

    In 1982, Congress authorized the Mount St. Helens National 
Volume Monument. The exchange of surface and minerals with 
private landowners was to be completed within a year after the 
act was signed. However, approximately, 10,000 acres of private 
minerals remain stranded in the monument area. Legislation has 
been introduced that would complete this minerals exchange. 
However, the Subcommittee prefers that this issue be worked out 
between the agencies involved (Forest Service and BLM) and the 
affected companies (Weyerhaeuser and Burlington Northern).
    Question 114. What is the status of this issue?
    Answer. Since 1982 we have been negotiating with 
Weyerhaeuser and Burlington Resources (formally Burlington 
Northern). We reached agreement on land and mineral exchanges 
resulting in the acquisition of 27,106 acres of surface and 
19,234 acres of subsurface interests within the Monument. The 
most recent agreement was in 1991, when we acquired 18,051 
acres of mineral and geothermal interests through exchange.
    As evidenced by the previous accomplishments, we believe 
that we can continue to operate as provided in the Act under 
``voluntary exchange transaction'' as a means to acquire the 
remaining 10,750 acres of mineral and geothermal interests.
    We recently completed a new appraisal to estimate the 
current market value of the remaining 10,750 acres.
    We initiated negotiations on April 1, 1998, with both 
companies in an attempt to reach agreement on the current 
market value of the remaining non-federal subsurface interests. 
Two follow-up negotiation meetings are scheduled during May 
1998.
    If accomplished, our objective will be to develop a final 
exchange transaction as a means of acquiring these property 
interests.

                          financial management

    As part of the fiscal year 1998 Senate Appropriation Act 
report language, the agency was directed to provide a status of 
the Brush Disposal fund. In past years this analysis would 
include the cost of Brush Disposal work to be performed so that 
available cash on hand and to be collected could be compared to 
the cost of performing the work. Maintaining information on the 
cost of work to be performed has been discontinued.
    Question 115. Why is this figure no longer reported?
    Answer. Current direction to the Regions concerning 
management and accountability of Brush Disposal funds has been 
inadequate. In fiscal year 1998 the Forest Service has drafted 
Handbook procedures to manage and account for Brush Disposal 
funds similar to the procedures used for KV and Salvage Sale 
Funds. This draft policy and procedures will be fully 
implemented by October 1, 1998. As such, in fiscal year 1999 
the Forest Service will be able to analyze the Brush Disposal 
funds for each proclaimed National Forest to determine 
available cash on hand and to be collected and compare these 
costs to the actual costs of performing the work.
    Question 116a. How does the agency know the full status of 
its fund if it does not maintain this information?
    Answer. The Forest Service has recognized its deficiencies 
in the management and accountability of Brush Disposal Funds. 
The new policy and procedures that will be issued in fiscal 
year 1998 will improve the agency's management of these funds.
    Question 116b. Is there a similar deficit of information 
regarding KV funds?
    Answer. No. KV funds can be analyzed for each proclaimed 
National Forest to determine available cash on hand and to be 
collected and compare these costs to the actual costs of 
performing the work.

                       state and private forestry

    Question 117. How will assumption of the Rural Community 
Fire Protection program enhance services provided by the Forest 
Service in overall Cooperative Fire Protection program?
    Answer. Assumption of the RCFP program will increase 
efficiency of overall program management by eliminating the 
transfer of funds between two federal agencies. This should 
decrease the administrative workload and allow maximum 
allocation of dollars to the project level. By having 
responsibility of the program budget and development, the 
Forest Service will be more effective and efficient in planning 
cooperative fire protection activities with States and rural 
volunteer fire departments and determine assistance needs and 
priorities. By accomplishing the program objectives of 
assisting local fire departments to train, equip and organize, 
the Forest Service will benefit through the increased 
firefighting capability of its cooperators in the wildland 
urban interface.
    Question 118. To what extent are State and Private programs 
involved in Agroforestry issues such as development of 
specialty products such as mushrooms, ginseng, etc?
    Answer. The National Agroforestry Center (NAC) which is co-
sponsored by State and Private Forestry, has developed and 
distributed brochures on agroforestry and its relation to 
agriculture on a very wide variety of topics. The NAC is 
participating in the Enterprise Development Through 
Agroforestry conference, October 4-7 in Minneapolis, Minnesota. 
The primary purpose of this conference is to promote 
agroforestry for the production of crops, including mushrooms, 
ginseng and others. The NAC activities and programs are 
technical transfer of materials to natural resource 
professionals that deliver forest stewardship, urban forestry 
and economic assistance programs to the general public.
    Recently an ``Action Strategy'' was developed for the State 
and Private Forestry program.
    Question 119. How will this program change emphasis from 
existing programs?
    Answer. The emphasis on existing programs will not be 
reduced. Several issues will have emphasis, such as sustainable 
natural resources and communities, watershed issues, and 
conditions; urban forest resources, forest information for 
landowners and managers, and tribal government relations.
    Question 120. How will this ``action strategy'' affect 
future budget requests?
    Answer. The ``action strategy'' draws from a number of 
sources including the President's Clean Water Initiative, as 
well, as the findings and recommendations of the November 1997 
National Research Council Report ``Forested Landscapes in 
Perspective: Prospects for Sustainable Management of America's 
Non-federal Forests.'' This study was commissioned by the 
Forest Service to assess the status of the nation's non-federal 
forests and the role of the Federal Government in contributing 
to sustainable management on non-federal lands. In the coming 
year, we will develop specific and detailed costs to implement 
the Action Strategy for inclusion in future budget requests.

                           alaska subsistence

    Question 121. What is the current situation in Alaska 
regarding fish and wildlife management, and how does this 
potentially affect future Forest Service programs?
    Answer. In December 1989, the Alaska Supreme Court found 
the State's subsistence law unconstitutional in its decision in 
McDowell v. State of Alaska. The court held that the rural 
preference for subsistence uses violated the Alaska 
Constitution. This decision placed the State out of compliance 
with the Alaska National Interest Lands Conservation Act 
(ANILCA) Title VIII. As a result, since 1990 The Department of 
the Interior and The Department of Agriculture (Forest Service) 
have had management responsibility for subsistence hunting, 
fishing, and trapping on Federal public lands in Alaska. Up 
until now the focus of the program has been mainly on upland 
animals with very little fishery involvement. The costs 
associated with these federal subsistence management 
responsibilities have had budget impacts on Forest Service 
wildlife habitat management activities.
    Question 122. What will it cost to implement the extended 
federal fisheries jurisdiction regulations in fiscal year 1999 
and how much of this is included in the President's request?
    Answer. The USDI and USDA have identified fiscal year 1999 
funding needs of $9.5 million to initiate the additional 
subsistence management effort in Alaska, including program 
administration, resource monitoring and law enforcement. Of 
this amount, $3,000,000 would be for the Forest Service. These 
estimates recognize the current Congressional moratorium will 
expire on December 1, 1998, and that fiscal year 1999 would 
fund start-up costs and operational costs for the remainder of 
fiscal year 1999. There are currently no funds identified in 
the President's 1999 budget to extend federal fisheries on 
national forest system lands in Alaska; however, offset 
recommendations are being developed.
    Question 123. What does it cost the Forest Service to 
manage the current subsistence priority requirements of ANILCA?
    Answer. Managing current subsistence hunting fishing and 
trapping on National Forest System lands in Alaska is estimated 
to cost between $3,500,000 and $4,500,000 annually exclusive of 
expanded jurisdiction for fisheries in navigable waters.
    Question 124. What factors account for the cost to 
implement subsistence fisheries requirements of ANILCA on 
Forest Service lands?
    Answer. Expanding Federal subsistence priority and 
conservation requirements of ANILCA Sections 801 and 802 to 
fisheries in navigable waters will require the Forest Service 
to initiate significant new actions including developing and 
modifying fisheries harvest management plans, making annual 
projections of returning fish runs available for harvest in 
hundreds of streams and lakes, projecting annual subsistence 
harvests in those waters, issuing federal permits and 
monitoring subsistence harvest, implementing numerous closures 
in order to protect the conservation requirements of spawning 
fish, law enforcement, legal support services, and operating 
the annual administrative and public involvement processes for 
modifying and establishing annual subsistence fishing 
regulations. These are new and unprecedented requirements of 
the Federal government, requiring new expertise and 
administrative procedures.
    Question 125. Should one federal agency be responsible for 
management of subsistence requirements? What are the pros and 
cons of such single agency management?
    Answer. The U.S. Fish & Wildlife Service, National Park 
Service, Bureau of Land Management, Bureau of Indian Affairs, 
Office of the Solicitor, the Forest Service and Office of 
General Counsel for USDA are the federal agencies responsible 
for working together effectively to manage subsistence hunting 
and fishing on Federal public lands in Alaska. The U.S. Fish & 
Wildlife Service is the lead agency. Rural residents, including 
Alaska Natives, look to the local federal land management 
agency for help and leadership in providing subsistence 
resources and opportunities and willingness to collaborate 
locally. It was determined in 1990 that all of these federal 
agencies should have a role in managing these resources and 
activities on the lands for which they have responsibility 
because (1) wildlife and fish and their harvest are essential 
to rural residents (2) subsistence is closely tied to other 
federal land management activities and (3) federal laws convey 
land management responsibilities to federal agencies, 
Infrastructure required to manage wildlife and fish on the 
various federal public lands reside with the federal agency 
managing those lands. Requiring one federal agency to obtain 
the additional personnel and equipment to duplicate some 
already available with the individual federal land management 
agencies would be unnecessarily costly. This would also 
diminish the community relationships each agency desires and 
needs to carry out an effective resource program.

                                  gpra

    The agency is receiving extensive criticism regarding its 
budget structure. It seems clear that agency concurs that much 
of the criticism is valid.
    Question 126. How will GPRA influence revision of the 
budget structure?
    Answer. The way the agency portrays its mission, goals and 
objectives in its GPRA Strategic and annual Performance Plans 
will play an important role in future proposals to adjust our 
budget structure. Our current budget structure is complex and 
functionally oriented, containing over 60 accounts from which 
we are authorized to spend funds. Our current GPRA structure of 
strategic goals and objectives is simpler but quite different 
from our budget structure. However, as an agency, we have not 
yet determined if the current GPRA structure is the best way to 
portray our mission and what we're about. Several proposals to 
modify this structure are being evaluated as we develop the 
fiscal year 2000 Performance Plan and take the first steps 
towards revising our strategic plan. We expect the GPRA 
structure to evolve as we continue to clarify our mission, 
roles and responsibilities; gain new information; and meet the 
performance-based and financial requirements of the GPRA and 
the Chief Financial Officers Act. Any proposal to modify our 
budget structure will reflect an evaluation of these and other 
issues in consultation with the Congress.
    Question 127. How does implementation of the Chief 
Financial Officers Act affect probable revisions of the 
existing strategic plan?
    Answer. The Chief Financial Officers (CFO) Act requires 
federal agencies to develop integrated accounting and financial 
management systems to provide complete, reliable, consistent 
and timely financial information, and to use financial 
information for measuring performance. The Government 
Management Reform Act (GMRA) requires that the Forest Service 
submit audited financial statements to OMB each year. These 
statements must meet the accounting principles and standards 
issued by the Federal Accounting Standards Advisory Board 
(FASAB) and OMB. To meet these standards, the Forest Service 
must identify an information and reporting structure that best 
reflects and meets its financial information needs. This 
structure should reflect the way the agency portrays itself 
through its mission, goals, objectives and performance 
indicators which would necessitate an alignment with the 
information produced under the requirements of GPRA. While the 
structure of the agency's GPRA plans will continue to evolve 
for a variety of reasons (see answer No. 126 above), one of the 
factors that may affect the structure and will help to assess 
the effects of any future structural changes, will be the 
agency's need to collect and report accurate financial 
information.
    The GAO testimony provided to the House of Representatives 
states there is no clear link between the Forest Service's 
ecosystem-based goals and objectives and its budget line items, 
funding allocation criteria, and performance measures.
    Question 128. What are the next steps in refinement of the 
agency GPRA program and specifically efforts to integrate and 
modify the budget structure to accurately represent the work 
the agency accomplishes?
    Answer. The Forest Service GPRA Strategic and Performance 
Plans include goals and objectives covering all agency programs 
and funding sources. A cross-walk between the agency's budget 
structure and GPRA goals and objectives has been developed to 
facilitate the linkage between planned levels of performance 
and associated funding needs. The complexity of this cross-walk 
highlights the significant differences between our GPRA and 
budget structures and the need for some adjustments in one or 
both. The agency is currently developing the fiscal year 2000 
annual Performance Plan and is formulating plans for revising 
its strategic plan by September 30, 2000. Both of these efforts 
are focused on how to describe, quantify and prioritize the 
agency's goals through the objectives and strategies for 
achieving them. These efforts should result in a clearer focus 
on how the agency wishes to portray its mission and business 
and form the basis for a proposal to modify our budget 
structure, as well as align our resource and financial 
information structures. The first iteration of the agency's 
fiscal year 2000 Performance Plan will accompany the agency's 
budget proposal to the Department of Agriculture in July, 1998. 
The agency will incorporate as many of the changes included in 
this Plan as possible into the final fiscal year 1999 
Performance Plan that will be updated after we receive our 
budget from the Congress this Fall.
                                ------                                


              Questions Submitted by Senator Thad Cochran

    Question 129. We have received mixed signals from the 
Administration on the Franklin County Lake. Will you please 
tell me what is the position of the Forest Service on this 
project?
    Answer. This project, the Recreational Lake and Complex at 
Porter Creek, Franklin County, Mississippi, Homochitto National 
Forest, Homochitto Ranger District, was initiated by the 
community leaders in Franklin County, MS. They have tried for 
30 years to secure federal funding to build a 1,100 acre lake 
to provide recreation and water supply for the area. The 
community leaders requested that the USDA Forest Service assist 
them in improving the rural development and economic diversity 
of the area.
    This project could create private sector business 
opportunities, assist existing local businesses, improve water 
quality by remeding raw sewage flow into Porter Creek, and 
prevent addition head-cutting of streams in the watershed. They 
are now attempting to leverage state and federal funds. It is 
estimated that over $12 million will be needed for construction 
of the dam, contract administration, and surveying and mapping 
of the lake cross sections and pool levels.
    This project is new construction. New construction is not a 
priority for the Agency at this time, as we attempt to focus 
resources on the backlog of reconstruction needs. The Agency 
priority continues to be on capital investment priorities which 
emphasize reconstruction of health and safety issues, water and 
sanitation projects, and recreation backlog, rather than new 
construction. New construction adds to outyear operation and 
maintenance costs and it is unlikely that additional O&M funds 
can be provided from the national level in the outyears to 
support these new facilities and structures coming on-line. In 
the case of a dam, the maintenance and reconstruction costs in 
the future can be significant, along with the liability issues. 
Based on previous data for dams in the Region (and none are the 
size of this one), it is estimated that annual O&M costs will 
be about $75,000. In general, the project appears to be more of 
a locally oriented responsibility, rather than a priority 
Federal goal.
    The National Resources Conservation Service received 
$250,000 in fiscal year 1996, $550,000 in fiscal year 1997, and 
$3,000,000 in fiscal year 1998 to accomplish design, technical 
assistance, and complete construction documentation on this 
project. This Agency is experienced with the construction and 
reconstruction of dams. The Forest Service will partner with 
them to do the actual construction if this project is directed, 
earmarked, and additional funding is provided.
    In fiscal year 1998, Congress earmarked $1 million in the 
Forest Service budget for Franklin County Lake. These funds 
would have been used to obtain detailed survey information for 
planning (topographic survey of dam, basin and developable area 
and detailed soil surveys of developable area above pool 
level), search out and cultivate interest in Private/Public 
Venture prospects to build the recreational facilities, develop 
conceptual development plan with input from private partners 
that might be interested, advertise for formal partnership and 
with any available remaining funds, and partially fund Forest 
Service share of construction and design costs. This funding 
does not provide for dam construction, which is estimated at 
approximately $12 million. This line item was vetoed by the 
Administration and were not provided.
    Chief Dombeck, it has been brought to my attention that 
there needs to be an increase in the transfer of technology to 
assure that small businesses are not only made aware of Forest 
Service research conducted but that the research results are 
transformed into practical management guidelines. Specifically, 
the National Hardwood Lumber Association, representing a number 
of my constituents, has identified this concern and has offered 
to assist in the dissemination of information.
    Question 130. Is there a way that a formal cooperative 
effort could be developed between groups such as the National 
Hardwood Lumber Association and the U.S. Forest Service to 
provide a pipeline for this information to reach the user and 
not remain shelved at the agency?
    Answer. Forest Service Research and Development has many 
publications in the area of forest management. Notification of 
the availability of these publications is disseminated by our 
Research Stations on a regular basis, through newsletters, 
publication lists, e-mail, and on computer Web Pages. 
Availability of many of the latest FS R&D publications is also 
listed in the monthly Society of American Foresters, Journal of 
Forestry under the Forestry Reports--New Releases. We also 
transfer information to organizations such as the National 
Hardwood Lumber Association by actively participating in their 
technical meetings and workshops, thus reaching many small 
businesses and their managers directly. In addition, a Forest 
Service staff member serves on the NHLA Standing Committee on 
Hardwood Research Advisory Committee. We welcome more formal 
cooperation and are willing to work with the Hardwood Lumber 
Association to increase their awareness of the availability of 
our information and publications.
    There is a growing concern in Mississippi over bottomland 
hardwood forests and associated farmland, especially in the 
Delta. This concern is twofold with concern over the long-term 
sustainability of the forests and their many products as well 
as concern over how to reforest cropland especially in the 
Wetlands Reserve Program and similar programs.
    Question 131. What is the Forest Service Research doing now 
to help landowners in the Delta restore and protect bottomland 
forests, wildlife, fish and mussel population, and develop 
revenue potential from these lands from recreation and forest 
commodity values?
    Answer. Forest Service Research has the Center for 
Bottomland Hardwoods Research located mainly in Stoneville, MS 
with subunits in Oxford and Starkville. This research unit is 
multidisciplinary with scientists working in the areas of 
forest management, wildlife and fisheries, soils, hydrology, 
seed biology, insects and diseases. These scientists work 
together and in collaboration with federal and non-federal 
partners to address forest susceptibility, restoration and 
protection including wildlife and fisheries issues. The 
capacity does not exist at the Stoneville unit to address 
socio-economic analyses but they work with other scientists in 
Southern Research Station to meet these needs.
    Question 132. Is there more that could be done to provide 
answers and techniques to landowners to address these issues?
    Answer. Yes, there are four areas in which we have the capability 
but lack sufficient funding to respond to these priorities:
  --Hydrologic function;
  --Restoration technology;
  --Silvicultural guidelines and aquatic monitoring techniques;
  --Socio-economic effects
    However, these areas do not rank as the highest priorities 
for expanding our research.
    There has been tremendous interest in the Wood Products 
Insects Research Unit in Starkville, Mississippi.
    Question 133. What impact will implementation of the Food 
Quality Protection Act have on termiticides and other products 
used to protect wood products from insect damage?
    Answer. The Food Quality Protection Act of 1996 is an 
amendment to the Federal Insecticide, Fungicide, and 
Rodenticide Act (FIFRA) and the Federal Food, Drug and Cosmetic 
Act (FFDCA). It requires the Environmental Protection Agency 
(EPA) to apply new standards of safety, especially for 
children, in the registration of pesticides such as 
termiticides. It also requires the review of older pesticides 
to make sure they meet current standards.
    EPA must review all existing tolerances within 10 years to 
determine that they impose a low risk for children and may 
require an additional safety factor of up to ten-fold, if 
necessary, to account for uncertainty in data relative to 
children. Thus, it is too early to tell what impact the Act 
will have on the registered termiticides.
    Question 134. What role will this laboratory play in the 
testing of new products and the development of alternatives to 
existing products?
    Answer. Currently, EPA relies on the USDA Forest Service 
Wood Products Insect Research Unit at Starkville, MS to provide 
reliable, independent laboratory and field testing of the 
efficacy of potential termiticides. This involves two years of 
laboratory testing and at least five years of field testing at 
several sites in the US. This is to ensure that the chemical or 
non-chemical products submitted by developers to EPA for 
registration will protect the wood products and structures. 
This is an important service to the public so that they can be 
assured of reliable termiticides.
    The Unit has a number of chemical and non-chemical products 
under field test now and we expect that these will provide an 
array of alternatives to the public.
    Question 135. Please provide for the committee a five-year 
funding history for this unit.
    Answer. The funding for the Wood Products Insect Research 
Work Unit at Starkville, Mississippi for the last five years is 
given below:

Funding history

Fiscal year:
    1994......................................................  $851,000
    1995...................................................... 1,027,000
    1996......................................................   792,000
    1997......................................................   792,000
    1998......................................................   792,000

    Question 136. Are there additional funding needs for this 
laboratory for fiscal year 1999 and beyond?
    Answer. Sufficient funds are available in the President's 
Budget to fund this laboratory.
    Hercules, Incorporated, which has facilities in 
Mississippi, uses pine stumps as a raw input for products it 
manufactures. This company is interested in procuring stumps 
from the Apalachicola National Forest.
    Question 137. Is it possible for Hercules to purchase these 
stumps from the Apalachicola National Forest?
    Answer. The only stumps offered for sale on the 
Apalachicola NF occur within a proposed road, facility or other 
planned construction.
    Question 138. Are stumps offered under the same terms and 
conditions in timber sales?
    Answer. No, the only stumps offered for sale on the 
Apalachicola NF occur within a proposed road, facility or other 
planned construction.
    Question 139. If not, why not and under what statutory 
authority is this denied?
    Answer. A decision notice and finding of no significant 
impact amending the Appalachicola Forest Land and Resource 
Management Plan, signed 7/12/91, restricted harvesting of 
stumps to the areas within a proposed road, facility or other 
planned construction. This amendment was developed in 
accordance with the National Environmental Policy Act and the 
National Forest Management Act of 1976.
                                ------                                9


               Questions Submitted by Senator Larry Craig

                        snake river adjudication

    Question 140. How much time and money has been spent on the 
Snake River Basin Adjudication and the Forest Service water 
claims?
    Answer. While the Forest Service does not know the total 
expenditures by all parties on this adjudication, it estimates 
that about $10 million has been spent on its own claims since 
the State initiated this adjudication in 1987.
    Question 141. Who did the claim work for the Service and 
how many claims were filed?
    Answer. Forest Service field employees on 11 National 
Forests and two Regional Offices did the vast majority of the 
claim preparation work from 1987 to present. In addition, since 
1995, eight non-Forest Service experts have been contracted to 
perform various analyses and quality control checks on the 
Forest Service claims and supporting data, and to prepare for 
trial scheduled in September 1998 by the head water judge. In 
1993, the Forest Service filed some 12,054 consumptive use 
claims and 3,759 instream flow claims. The latter have since 
been reduced to 71 claims.
    Question 142. For what purposes are the water claims made?
    Answer. The consumptive use claims were made for one or 
more of the following uses: domestic water, irrigation of hay, 
municipal, industrial, commercial, recreation, fire protection, 
stockwater, hydropower. The original set of instream flow 
claims were made for one or more of the following uses: 
fisheries habitat, recreation, channel maintenance, wild and 
scenic rivers, wilderness, National Recreation Areas and 
maintenance of hot springs and lake levels. The reduced set of 
instream flow claims now includes only fisheries, recreation, 
channel maintenance, wilderness, wild and scenic rivers, and 
National Recreation Areas.

                        jetboats in hells canyon

    Public Law 94-199, designating the Hells Canyon National 
Recreation Area, was enacted December 31, 1975. Section 10 of 
that Act provides that motorized river craft are recognized as 
a valid use of the Snake River within the recreation area. This 
language seems clear. However, the original intent seems to 
have been forgotten. The Forest Service has announced its 
intent to implement a ``motorless window'' on segments of the 
Snake River through Hells Canyon beginning this summer.
    Question 143. Contrary to the intention of the original 
Act, why does the Forest Service persist in closing the river 
to motorized users?
    Answer. The Act allows for motorized use of the Snake River 
in Hells Canyon, but also directs the Forest service to 
administer this as well as provide for other uses. The actual 
restriction is quite small, only on 21 miles of the 31.5 mile 
``wild'' section for a maximum of 21 days per year. The new 
river plan actually provides for an increase in motorized use. 
All river portals will remain open to powerboats 365 days per 
year. When the non-motorized days are in effect, there will 
still be 50 miles of river available for powerboats.
    Question 144. There are numerous western whitewater rivers, 
several in Idaho and Oregon, which provide exclusive use for 
non-motorized floaters. Why is it necessary to force that same 
type of recreation use in Hells Canyon?
    Answer. The non-motorized period is in response to a 
distinct group of regional and national customers who indicated 
a preference for some level of non-motorized opportunity. The 
actual effect of the non-motorized period on motorized use is 
small. During the annually maximum 21 days of the period, there 
will still be 50 miles of river available for powerboats.

                         lewis and clark trail

    I understand the Forest Service is currently developing a 
strategic plan to participate in the upcoming Lewis and Clark 
Bicentennial Observance from 2003-2006. I hope funding to 
implement this plan will be a priority within the FS budget.
    Question 145. How is the Lewis and Clark Bicentennial 
addressed within the Forest Service budget?
    Answer. Region 1 is actively planning for the Lewis and 
Clark Bicentennial, working closely with the Salmon Forest in 
Region 4. A draft strategy has been formulated to identify all 
the many ways that the National Forests may participate with 
the States, local communities and tribal governments in 
appropriately commemorating the Bicentennial. A Forest Service 
bicentennial coordinator has been appointed to insure that our 
plans are well coordinated with the National Bicentennial 
Council's plans and that our investments in preserving trail 
resources and accommodating trail visitors leave a lasting 
legacy that extends well beyond the Commemoration years of 
2003-2006. Each Forest is also actively participating in local 
community bicentennial planning efforts. Our preliminary 
conclusions include:
  --Lewis and Clark Bicentennial will affect National Forests in 
        Regions 1, 2, 4, 6, 8, and 9 with most direct on-the-ground 
        opportunities centered in Regions 1 and 4, particularly in 
        North Dakota, Montana and Idaho.
  --Many challenges and opportunities can be addressed by careful 
        priority setting within existing funding criteria and 
        allocations, however some potential projects and programs will 
        not be feasible without national emphasis to target increased 
        funding to the affected forests.
  --Many Forest Service programs will contribute to the Bicentennial. 
        State and Private Forestry grants can assist rural communities 
        in planning and carrying out their commemorative activities. 
        Heritage Program funding can make necessary historic and 
        archeological studies possible. Recreation funded programs will 
        both insure that visitors find appropriate facilities and that 
        fragile locations are not over used. Construction projects will 
        make sure that roads, trails and campgrounds are open and in 
        tip top shape for the beginning of and throughout the 
        Bicentennial.
  --Most of the infrastructure needed is already in place though many 
        existing facilities need to be spruced up or replaced. A few 
        new facilities have been proposed for construction. Interagency 
        and public private partnerships are key to meeting 
        infrastructure needs.
  --Funding projections and needs are still very preliminary, but 
        should firm up by the end of fiscal year 1998.
    In Summary the Forest Service is planning for the 
Bicentennial. We are committed to providing necessary focus to 
insure National Forests along the Lewis and Clark Trail can do 
what is necessary to protect resources, accommodate increased 
visitation, and support local community events. While we 
haven't all the final answers on how to fund many opportunities 
we expect to continue to seek effective partnerships to allow 
the completion of highest priority projects.

                      frank church wilderness deis

    The Forest Service recently released a Draft Environmental 
Impact Statement for the Frank Church River of No Return 
Wilderness. Most who use the wilderness agree it is in 
excellent condition and one of the best managed wilderness 
areas. A few changes were needed in the management of the 
wilderness, a tweak hear and a tweak there, but not a complete 
overhaul of the system. The extreme cut backs on access, such 
as a 50 percent decrease in float boating, could have 
devastating effects on the tourism and recreation industry in 
Idaho. I realize the comment period has been extended to give 
everyone an opportunity to voice their concerns.
    Question 146. I would like a commitment from the Forest 
Service to work with the individuals most effected by their 
decision and develop a management plan that protects the 
integrity of the wilderness without severely restricting access 
to the resource for recreation and other purposes.
    Answer. The Forest Service is strongly committed to working 
with individuals most effected by the proposals in the Draft 
Environmental Impact Statement for the Frank Church River of No 
Return Wilderness. This commitment is evidenced in the 
extension of the comment period, and the numerous public 
meetings and negotiations currently underway.
    Cabin Fees on the Sawtooth National Recreation Area Many of 
the cabin owners on the SNRA protested the FS appraisal of the 
cabin sites and are having a second appraisal done at their own 
expense.
    Question 147. When will the second appraisal be completed?
    Answer. Approximately 87 permit holders on the Sawtooth 
have requested a second appraisal of approximately 18 
representative, or typical, lots to formally dispute the 
findings of the Forest Service's first appraisal. The Forest 
Service has already approved the qualifications of 2 appraisers 
that holders have secured to conduct second appraisals on 10-12 
typical lots. There may be more appraisers secured by permit 
holders for conducting a second appraisal and, if so, the 
Forest Service is committed to promptly reviewing the 
qualifications of those appraisers, and approving them for use 
by the holders.
    The second appraisals now being planned are expected to be 
completed and submitted to the Forest Service for review and 
approval by August 1, 1998. The Forest Service will promptly 
review the appraisal reports upon receipt of them from the 
permit holders.
    Question 148. Will the Forest Service wait to implement the 
new cabin fee until the second and if necessary third appraisal 
is completed?
    Answer. Public Law 105-83 directed that the Secretary of 
Agriculture could not increase recreation residence fees based 
upon a new appraisal of a recreation residence lot any sooner 
than one year from the time the permit holder is notified by 
the Forest Service of the results of an appraisal which has 
been conducted for the purposes of establishing such a fee. It 
also specifically cited that no increases in recreation 
residence fees on the Sawtooth National Forest could be 
implemented prior to January 1, 1999.
    The Forest Service notified the permit holders on the 
Sawtooth National Recreation Area of the results of its (the 
Forest Service's) completed appraisal of their tracts/lots in 
late 1997. In accordance with the provisions of Public Law 105-
83, the Forest is planning to assess a new base fee for those 
appraised lots beginning with the fee to be billed for calender 
year 1999. CY 1999 fees will be assessed and billed in 
November, 1998, with a payment due date of January 1, 1999. As 
stated above, the permit holders expect to have the second 
appraisals completed and submitted to the Forest Service by 
August, 1998. The Forest Service will promptly review those 
appraisal reports. If they meet agency standards and the 
specifications provided the appraisers by the Forest Service, 
the reports will be approved for agency use.
    Per agency policy, if the two appraisals result in 
estimated fee simple values of the appraised lots that differ 
by 10 percent or less (from the estimated value of the same 
lot(s) identified in the Forest Service's appraisal), then the 
authorized officer will have the discretion to use the 
estimated value identified in either appraisal report, or a 
combination thereof, in establishing a new base fee. If the 
Forest Service's appraisal report and the second report differ 
by more than 10 percent in value for any particular lot/group 
of lots, then the Forest Service will instruct the first and 
second appraisers to meet in an attempt to reconcile their 
differences. If that is not possible, then a third appraisal 
may be secured, upon the approval and concurrence of both the 
authorized officer and the affected holder(s), with the cost of 
such an appraisal shared equally by each party.
    For those recreation residence lots/tracts on the Sawtooth 
NRA that were appraised by the Forest Service in 1997, the 
Forest expects to have the appraisal process completed prior to 
its assessment and billing of fees for CY 1999. This appraisal 
process may not be completed in advance of our November 1998, 
billing of CY 1999 fees if (a) there are lots or groups of lots 
which qualify for a third appraisal, and (b) the holder(s) and 
Forest Service agree to secure a third appraisal. If there are 
cases like that, the Forest Service intends to assess and bill 
a new base fee for CY 1999 for those affected lots, even if the 
third appraisal(s) does not get done in advance of the CY 1999 
billing period. The base fee that will be assessed for CY 1999 
will use the estimated lot values identified in either of the 
first two appraisals, or perhaps a combination thereof. Should 
the results of a completed third appraisal subsequently produce 
a different base fee than that assessed for CY 1999, the 
resulting fee difference will be reconciled in an adjustment 
made to the fee assessed for CY 2000, scheduled to take place 
in November 1999.

          interior columbia basin ecosystem management project

    Question 149. Many of my constituents feel that ICBEMP is 
bureaucratic boondoggle that would harm ranching, mining and 
logging. What are you doing to convince them that this is not 
the case?
    Answer. We have met and talked with many people in the 
Basin that have concerns about the management of their public 
lands. The best way we can assure the continued use and 
enjoyment of these lands is to assure their continued long-term 
health. Healthy lands are productive lands.
    Healthy lands also are better able to meet the legal 
mandates under the Endangered Species Act, the Clean Water Act 
and the Clean Air Act, to name a few. Short of this, lawsuits 
and injunctions generally result in more restrictive use of the 
land. By developing a proactive approach to dealing with these 
legal issues now, we can assure the continued use of these 
lands.
    Question 150. You've indicated that the aim over the past 
four years is to develop a scientifically-sound management 
strategy. As best I can tell no progress has been made in 
achieving this objective. Why should the Congress continue to 
support ICBEMP when its track record to date is so poor?
    Answer. The Project is well on the way to fulfilling the 
Charter given it by the Director of BLM and the Chief of the 
Forest Service in 1994. Although it has taken longer than 
initial estimates, much of the work is complete. The scientific 
assessment, on which we are building the management strategy, 
is complete. The Draft EISs containing the management strategy 
have gone through an eleven month public comment period that 
ended May 6, 1998. What remains is analyzing public comments, 
deciding what needs to be changed, and preparing a Final EIS 
and ROD. Unless there is some other way to address the legal 
problems of continuing to manage under interim guidelines of 
INFISH, PACFISH, and the eastside screens, we will find all 
projects and plans at risk of legal challenge.
    Question 151. I understand that you intend to issue a final 
environmental impact statement in the spring of 1999. What 
assurances can you give the Committee regarding this date?
    Answer. At this time, we feel confident that we will meet 
that timeframe. The one question that has not yet been answered 
is whether or not we may need to supplement the draft 
statement. This is a possibility, as it is with any EIS 
process. A supplement may be needed if substantial changes to 
the draft statement are made, based on input to the draft, or 
if there are significant new circumstances or information 
relevant to the proposed action. The purpose of issuing a 
supplement is to allow the public to respond to the substantial 
changes or new information.
    If we determine it is necessary to supplement, it will 
delay the release of the final environmental impact statements 
and Record of Decision. The length of the delay will be 
determined by the type of supplement.
    Question 152. The project has cost $40 million already. I 
find this to be an incredible waste of taxpayer dollars. Aren't 
you doing nothing more than through good money at a bad 
investment?
    Answer. The broad scale issues we are addressing are either 
going to be addressed in this process or a process very similar 
to this. A case in point is developing a long-term aquatic 
conservation strategy to replace the interim direction in 
PACFISH and INFISH. To start a new process or multiple 
processes seems less efficient and more costly than finishing 
the current process.
    Question 153. Implementation costs have soared to an 
estimated $125 million annually, much of it for weed and 
erosion control, forest health and watershed management. In an 
environment of constant, real dollar agency budgets, are you 
prepared to cut other Forest Service programs to come up with 
this kind of money?
    Answer. The estimated funding needed to fully implement the 
plan, you reference, were based on the preferred alternative 
(Alternative 4) in the draft statement. We expect there will be 
changes to the preferred alternative and that we will have to 
recalculate implementation needs.
    Question 154. We've been told that timber harvest should 
increase slightly under the plan. My guess is that this 
conclusion does not factor in your roads moratorium. What are 
you prepared to tell us about the timber impacts of the roads 
moratorium on ICBEMP?
    Answer. The Draft EIS contained direction which was similar 
to the proposed road management policy. The Draft provided 
strong direction for systematic road management and improved 
road maintenance. As we move toward a decision on the road 
management policy we are evaluating options that would allow 
the Forests covered under the ICBEMP decision to move forward 
without being subject to the moratorium once a Record of 
Decision is signed for the ICBEMP and plans are amended.
    Question 155. Elizabeth Holms Gaar, the Assistant Regional 
Administrator of the National Marine Fisheries Service, has 
said that the new information contained in ICBEMP will allow 
agencies to ``begin the restoration efforts with the confidence 
that many of our highly valued public resources need.'' But 
with new information at virtually ever bend in the road, how 
will this planning process ever be brought to conclusion?
    Answer. Once the Final EIS is completed and the ROD is 
signed, this planning process will conclude. We will include 
any new information that has been surfaced since the draft 
statement was issued. Direction in this plan may have to be 
amended as pertinent new information comes forward. We intend 
to have a process to incorporate this information without 
having to start a whole new planning process.
    Question 156. I strongly feel that the best government is 
the most local form of government. There is some good, sound 
science in ICBEMP that could be used on the land. Why not just 
scrap this multimillion-dollar project and pass the scientific 
research onto local land managers?
    Answer. It is just not enough to have good science. The 
information given must be applied uniformly across the board. 
This is the reason why broad scale planning is needed and why 
the ICBEMP decision will amend forest plans. Also, regional 
direction is needed on how to use the new science information 
in order to provide viability determinations for fish, wildlife 
and plants and for assessing cumulative effects across a large 
area.
    In addition, two federal court decisions are relying on the 
Project to replace the current interim direction (PACFISH/
INFISH/Eastside Screens). Our pledge to replace these interim 
directions through this process was an important element in the 
court decisions. Failing to do so will make us vulnerable to 
legal challenges.

                   timber sale set-aside regulations

    Two years ago we directed you to develop regulations which 
will allow people directly impacted by the Forest Service 
Timber Sale Set-aside program, to appeal those decisions. Now 
two years later you are still sitting on those final 
regulations.
    Question 157. What is the hold up Chief?
    Answer. There is an appeal rule in effect which allows 
purchasers affected by the Small Business Set-Aside Program to 
appeal. An interim rule published March 24, 1997 (62 Federal 
Register 13826), went into effect immediately to comply with 
the Conference Report accompanying the 1997 Omnibus 
Appropriation Act. The interim rule gives an appeals procedure 
and provided an opportunity for comments which will be 
reflected in a final rule. We are nearing completion of the 
final rule and plan to publish it soon.
    Question 158. Why haven't you published the final 
regulations?
    Answer. The comments received in response to the interim 
rule have been evaluated, and a final rule has been drafted. 
The final rule has been reviewed by our Office of General 
Counsel and is now being finalized by our Directives and 
Regulations staff. We anticipate that it will be ready for 
Department approval within the next few weeks.
    Question 159. Do you want this Committee to simply write 
legislative language to impose a appeals process?
    Answer. As noted in the previous answers, an appeal process 
is in place and while we recognize that the task has taken some 
time, we believe that the final rule will better reflect the 
desires of the purchasers affected by the appeals rule by 
reflecting their input. Legislative language to impose an 
appeals process is not needed.
    Question 160. Or would you prefer that we withdraw your 
authority to expend any more funds until you publish these 
regulations?
    Answer. Our objective is to finalize the appeal rule in a 
short time; withdrawal of authority to expend funds until the 
regulations are published would not expedite the process.
Forest and Rangeland Research--Climate Change Technology
    You've asked for a $3 million earmark for Climate Change Technology 
Initiative and suggested that harvesting and maintaining forests in a 
younger healthier condition will help with global warming.
    Question 161. How much data already exists to support your 
contention?
    Answer. Considerable data exists that demonstrates the role of U.S. 
forests in the sequestration of carbon. This positive forestry role in 
sequestering carbon can be significantly increased by research to 
provide enhanced technologies aimed at improving biomass production, 
reducing carbon release during forest operations, reducing energy 
consumption in post-harvest production, and lengthening the life cycle 
of forest products. While this research will be enhanced by funding 
requested under the Climate Change Technology Initiative, it address 
problems of increasing biomass productivity that our users want 
answered even if climate change were not an issue.
    Question 162. If your research shows that young healthy forests, 
and the sequestration of carbon in wood products which resulted from 
harvesting on federal lands, improve the carbon cycle challenge facing 
this country, are you willing to help educate the American public on 
this issue?
    Answer. Forest Service Research will remain an objective source for 
scientific information and will make that information available to as 
wide an array of interested parties as possible, clearly including the 
American public. Our ability to provide objective, balanced information 
on subjects such as the role of forests in the global carbon cycle is 
limited by the funding appropriated to us. The $3 million funding 
increase requested under the Climate Change Technology Initiative would 
allow us to become a more active source for objective information while 
addressing needs of the user community.
Forest and Rangeland Research--Urban Forestry
    Question 163. If you have a $10 billion backlog in Forest Road 
Maintenance and are having trouble funding management activities on the 
lands which have been entrusted to you, why are you requesting urban 
forestry research?
    Answer. Urban and community forests serve many ecological and 
aesthetic functions, while providing benefits to a majority of the 
nearly 200 million people in the United States that live and work in 
urbanized areas. Urban forests mitigate rainfall runoff and flooding; 
provide shade to reduce summer air-conditioning energy costs; reduce 
adverse health impacts of ultraviolet (UV) radiation; mitigate air 
quality impacts of various industrial processes, motor vehicle exhaust, 
and other human activities; provide wildlife habitat; and enhance the 
attractiveness and livability of our cities, communities and urbanized 
areas.
    Research on economic benefits of urban forest ecosystems will help 
to improve the quality of life for large segments of the U.S. 
population. This research includes studies to: (1) Assess the potential 
cost effectiveness of utilizing urban forests to mitigate air 
pollution; and (2) Identify psychological and physical health benefits 
and reduced costs due to improved urban ecosystems.
    Research, dealing with ecosystems impacted by rapidly urbanizing 
areas adjacent to many National Forests, is of critical importance due 
to the problems of: urban/wildland interface fire, watershed pollution, 
air pollution, high recreation demand by diverse populations, and 
concern for T&E species habitat. Examples of major urbanizing areas 
adjacent to National Forests with critical situations include: Los 
Angeles, San Diego, Lake Tahoe, Denver, Phoenix, Portland, Seattle, and 
Salt Lake City.
    Question 164. How many National Forest are located within the 
bounds of cities?
    Answer. As a general rule, National Forest boundaries are not 
located within city limits, with the possible exception of scattered 
parcels or inholdings. There are however a number of National Forests 
within an hours drive of many major metropolitan centers throughout the 
US.
    Question 165. Aren't most urban forests the responsibilities of the 
States, or local municipalities?
    Answer. Most urban forests are the responsibility of States, local 
municipalities or private landowners and Section 9 of the Cooperative 
ForestryAssistance Act enables the Forest Service to provide technical, 
financial and related urban forestry assistance to State Foresters and 
other partners.
Forest and rangeland research--wilderness
    Question 166. Chief, refresh my recollection, didn't the Wilderness 
Act of 1964 say that Wilderness Areas are ``an area where the earth and 
its community of life are untrammeled by man?
    Answer. The Wilderness Act of 1964 (Public Law states in section 
2(c) ``A wilderness * * * is hereby recognized as an area where the 
Earth and its community of life are untrammeled by man, where man 
himself is a visitor who does not remain.''
    Question 167. If that is the case, why are you proposing to 
undertake research in these areas?
    Answer. (Sec. 2(c)) of the Act goes on to recognize that wilderness 
``may also contain ecological, geological, or other features of 
scientific, educational, scenic, or historical value''. In Section 4, 
Use of Wilderness Areas, the Act states that ``wilderness areas shall 
be devoted to the public purposes of recreational, scenic, scientific, 
educational, conservation, and historical use'' (Sec. 4(b). It is 
therefore believed appropriate for research to be conducted in 
wilderness, when such activity is dependent on wilderness and can be 
done to minimize the impacts to the wilderness resource.
    As reported in the fiscal year 1996 Report of the Forest Service, 
recreation use in wilderness areas accounted for 14.5 million 
recreation visitor days in fiscal year 1996. At the end of fiscal year 
1996, there were 26,610 miles of trails available for use in wilderness 
areas. With the heavy visitor load in many wilderness areas, Research 
continues to explore fundamental questions to assist managers to better 
protect and preserve wilderness areas and the public values they 
provide. For wilderness near urban areas, investigations focus on 
changing recreation patterns. What are the factors underlying user 
conflicts? What changes are occurring in values, attitudes, and 
behaviors related to natural resources? Can these be affected by new 
visitor communication strategies?
State and private forestry--forest health management
    Help me better understand how funds are spent within the State and 
Private Forestry Forest Health Management line item called Federal 
Lands.
    Question 168. You have requested $37.2 million for this item, isn't 
that correct:
    Answer. Yes. The President's Budget does include $37.2 million for 
Federal Lands Forest Health Management.
    Question 169. A $4 million dollar increase over the fiscal year 
1997. Am I right on that figure?
    Answer. Yes. The fiscal year 1997 Appropriation for Federal Lands, 
Forest Health Management was $33.2 million.
    Question 170. Why don't the other agencies within the Interior 
Department pay you for this service?
    Answer. The Cooperative Forestry Assistance Act makes the Secretary 
of Agriculture responsible for forest health protection directly on the 
National Forest System and in cooperation with other Federal 
departments on all other Federal as well as Tribal lands. The Secretary 
has delegated responsibility for carrying out provisions of the Act to 
the Forest Service. To meet its responsibility the Forest Service 
through the Secretary requests annual appropriations for forest health 
protection based on estimated costs developed in cooperation with other 
the Federal departments; the other Federal agencies do not receive an 
appropriation for this purpose.
    Question 171. Would having them help with the expense of doing this 
much needed work help you focus more closely on the lands your tasked 
with managing?
    Answer. No. The resulting additional financial management and 
program overhead expenses would have the opposite effect. In addition, 
our current ability to respond in a timely manner to emergency 
situations across all ownerships would be impaired and national forests 
would be at increased risk from insect and disease outbreaks arising on 
adjacent other Federal or Tribal lands.
National customer service plan
    Question 172. I note you want to expand funding for the National 
Customer Service Plan. Is that right?
    Answer. A budget increase of $35,000 has been requested in fiscal 
year 1999 only to fund the follow up action plans for customer surveys 
completed in fiscal year 1996-98, and to provide customer satisfaction 
and polling results required by Congress in the GPRA.
    Question 173. Isn't it true that the purchasers of federal timber 
sales produced 60 percent of the revenues collected by your agency in 
fiscal year 1997?
    Answer. No, it is more than 60 percent. Of the $679,964,000 in 
receipts received in fiscal year 1997, $534,125,000 or 79 percent is 
related to timber sales. This includes the sale of forest products, and 
deposits to the K-V fund, salvage sale fund, and brush disposal fund.
    Question 174. And that over $319 million dollars of timber trust 
funds were used last year to help fund your day-to-day operations 
(about $10 percent of the agencies budget request)?
    Answer. In the fiscal year 1997 final program budget advice to the 
field the agency allocated $187,810,000 from the salvage sale fund, 
$218,023,000 from the K-V fund, $30,000,000 from the reforestation 
trust fund, and $45,651,000 from the brush disposal fund, for a total 
of $481,484,000. This is 16 percent of the total Forest Service request 
included in the President's Budget.
    Question 175. Yet we're told that you've only met with members of 
your number one customer a handful of times over the last two years. 
Why would we fund this priority and what are you going to do to address 
the legitimate concerns on your most important customer?
    Answer. Timber contractors are one of our important business 
customers. In the course of our timber sale customer survey project 
(1997 & 1998), we engaged the timber industry in a variety of forums, 
from focus groups to large industry meetings. We have addressed many of 
the business delivery concerns of our timber industry customers and are 
currently implementing actions to improve our service and work 
processes. (See enclosed ``Report to Timber Sale Customers'')
    [Clerk's note.--The above mentioned publication ``Report to Timber 
Sale Customers'' has been retained in subcommittee files.]
National commitments
    Question 176. Why are you holding onto 39 percent of the Forest 
Health Management Dollars in your regional allocation for the 
Washington Office?
    Answer. Only about 6 percent of the Federal Lands Forest Health 
Management budget line item in the fiscal year 1999 President's budget 
is held by the Washington Office (WO). A total of $1.3 million, 
approximately 3.5 percent, is planned for salaries, travel, training 
and supplies for staffs in the WO headquarters. Approximately $0.6 
million, approximately 1.6 percent, is held in the WO for National 
Commitments, and another $0.3 million, or 0.8 percent, for special 
forest health protection projects which are most efficiently managed 
from WO Headquarters. Some of the funds held for National Commitments 
are allocated to field units. Additional funds are included in the WO 
budget for the Forest Health Protection Enterprise Teams located in 
Morgantown, WV and Fort Collins, CO. The Teams are essentially field 
units in that they provide direct program assistance to the Regions, 
the Northeastern Area, the International Institute of Tropical 
Forestry, and also work closely with the Research Stations. A total of 
$8.7 million, or 23.5 percent of the President's budget level for 
Federal Lands Forest Health Management is held in the Washington Office 
Reserve for allocation to field units for: (1) specific pest prevention 
and suppression projects that are proposed and approved based on site-
specific biological evaluations in early and mid-FY 1999, (2) 
Technology Development projects, and (3) support for the National 
Agriculture Pesticide Impact Assessment Program.
    Question 177. Why are you holding onto 52 percent of Cooperative 
Lands funding from the States?
    Answer. Only about 5.3 percent of the Cooperative Lands Forest 
Health Management budget line item in the fiscal year 1999 President's 
budget is held by the WO. A total of $0.7 million, approximately 4.1 
percent, is planned for salaries, travel, and training of staffs in the 
Washington Office headquarters. Approximately $0.2 million, 
approximately 1.1 percent, is held in the WO for National Commitments, 
and another $0.02 million, or 0.1 percent, for special forest health 
protection projects which are most efficiently managed from WO 
Headquarters. Some of the funds held for National Commitments are 
allocated to field units. Additional funds are included in the WO 
budget for the Forest Health Protection Enterprise Teams located in 
Morgantown, WV and Fort Collins, CO. The Teams are essentially field 
units in that they provide direct program assistance to the Regions, 
the Northeastern Area, the International Institute of Tropical 
Forestry, and also work closely with the Research Stations. A total of 
$8.8 million, or 55 percent of the President's budget level for 
Cooperative Lands Forest Health Management is held in the Washington 
Office Reserve for allocation to field units for: (1) specific pest 
prevention and suppression projects that are proposed and approved 
based on site-specific biological evaluations in early and mid-FY 1999, 
(2) continuation of the pilot project phase of the gypsy moth Slow-the-
Spread project, and (3) support for the State Forest Resource Planning 
program.
    Question 178. Why shouldn't this Congress limit the amount of funds 
which can be held in the Washington Office to say 10 percent and then 
force the distribution of the remaining funds out to the field offices 
so work can commence in the field?
    Answer. Please see responses to Questions 176 and 177. 
Approximately 6 percent of the Federal Lands Forest Health Management 
and 5 percent of the Cooperative Lands Forest Health Management 
expanded budget line items support WO Headquarters.
    Question 179. How would you feel about this Congress imposing the 
following direction:
    No more than a total of 15 percent of any budget line item may be 
held, for overhead or other uses, at the following offices: (1) 
Secretaries Office; (2) the Washington Office: (3) the Regional 
Offices; or (4) any Forest Supervisors Office, or analogous Forest 
Research Stations.
    Answer. We do not feel this direction will lead to sound, efficient 
resource management. Major efficiencies are gained in a number of 
instances by centralizing services or purchases in the Washington 
Office or a Regional Office, which would otherwise be done piecemeal at 
lower levels. For example, funds are held in the Washington Office to 
purchase a national software license for our major information systems. 
If each forest used these funds independently to purchase this 
software, the buying power would diminish by a factor of 100, and the 
ability to support common systems and exchange information coherently 
would be lost. If the Washington Office billed all of the units, rather 
than holding the funds, the paperwork would be expensive to accomplish 
the same result. It is therefore much more cost-effective to negotiate 
and pay for such a contract centrally and to hold the funds rather than 
bill each lower level. At the same time, we realize that we must 
continue to rigorously manage the debate and decisions on the priority 
and effectiveness of these investments, against alternative investments 
at the field level. Sound decisions on alternative uses of funds are a 
critical element in making these central services cost-effective.
    Many regions offer centralized resource specialists that work in 
the Regional Office or in a Supervisor's Office and service many 
forests and districts. Each district office cannot not afford a 
complete array specialists; most districts probably do not have 
sufficient work for an array of full-time specialists. Sharing 
specialists saves money, but may require the specialist to report to 
and be funded by a higher organizational level.
    Question 180. How would you feel about this Congress imposing the 
following direction:
    Further, all funds authorized in this Bill, less the prescribed 15 
percent for overhead, shall be distributed to the field offices within 
one month of final passage of this law, or one month after the 
beginning of the new fiscal year.
    Answer. The Forest Service Washington Office (WO) makes every 
effort to distribute available funds to its field units as soon as 
possible after the appropriation bill becomes law. In an attempt to 
expedite the allocation process for fiscal year 1999, we have developed 
a revised timeline which requires that the Final WO budget and national 
commitments be determined at a much earlier date than in previous 
years. This change will ensure that available funds are distributed to 
the individual forest level within 90 days of final passage of the 
Appropriations Act. It would be very difficult, if not impossible, to 
complete our allocation process if given only 30 days from final 
passage of the law.
    Question 181. Why shouldn't we limit overhead from the cooperative 
lands line item to 15 percent and then block grant the remaining funds 
straight to the States?
    Answer. Please see response to Question 177. Only about 5.3 percent 
of the Forest Health Management Cooperative Lands expanded line item is 
held for use by the WO Headquarters and some of these funds are 
allocated out to the field. This is about the same percentage (6.1 
percent) for the entire State and Private Forestry appropriation.
    Block grants would provide the States with unlimited discretion as 
to how they expend and account for the funds, regardless of the purpose 
for which the funds are appropriated by Congress and granted to States. 
At present, State and Private Forestry authorities do not enable the 
issuance of block grants to the States. While recognizing the need to 
address different priorities in different regions and States, one 
dimension of the Federal role is to assure that program priorities of 
national importance, which address a range of needs and customers are 
advanced in a coordinated effort. Administration budget proposals and 
Congressional appropriations underscore this role, and determining the 
appropriate mix of different programs and budget line items. The shift 
toward performance based budgeting reinforces the need to associate 
budget allocations with planned program outcomes.
State and private forestry--forest stewardship
    Question 182. Chief why do you need a 14 percent increase in Forest 
Stewardship?
    Answer. Nonindustrial private forestlands (NIPF) represent over 48 
percent of the nations forests. Almost 10 million owners hold 337 
million acres. Less than 20 percent of these lands are actively 
managed. Collectively, these lands are critical to the nation's timber 
supply, fish and wildlife habitat, water quality, landscape aesthetics 
and the economic welfare of many resource dependent communities. This 
proposed program increase will support a modest increase in support to 
State Forestry agencies and their assistance to landowners in forest 
planning and application of forestry practices. This would only be a 
small beginning in implementing the recently released National Academy 
of Sciences report. This program is used nationwide on forested lands 
and has a strong agroforestry component. As a result a broader array of 
national interests in these lands will benefit.
    Question 183. Exactly what do we get for that investment?
    Answer. The increase in fiscal year 1999 will enable over 3,000 
NIPF landowners to develop multiple resource Forest Stewardship 
management plans. These plans will encompass over 400,000 acres of 
forest lands. Particular focus will address watershed health and 
restoration. This will support an increase of 70,000 acres of 
Stewardship Incentive Program practices, including 12,500 acres of tree 
planting. The increase will help provide information, technology, and 
training on forest nursery management, tree improvement, tree planting 
methodology, seedling culture, and equipment development to State, 
private, and federal nurseries, and support the tree seed bank. These 
specific treatments will contribute to the national interests noted 
above.
    Question 184. Why shouldn't we put the extra money in managing the 
lands your entrusted to manage?
    Answer. There are obviously many unmet needs on national forests as 
well as substantial national interests in non-Federal lands. The Forest 
Service is responsible for a coordinated forest stewardship program for 
management of this Nation's non-Federal forest lands in partnership 
with Federal, State, and local organizations. Demand for goods and 
services is increasing on NIPF lands. As noted above, only a small 
portion of these lands are under active management. The potential 
exists to do much more to assure adequate wildlife habitat, watershed 
protection and a sustainable forest resource on these lands. The number 
of small sized forest land ownership, less than 10 acres, is also 
rapidly increasing, putting more pressure on an increased number of 
landowners to provide the forest resources. This 14 percent increase 
will strengthen our partnership with state forestry agencies to help 
handle the increasing pressure on NIPF landowners and as again noted 
above will only be a start in implementing the recommendations of the 
recent National Academy of Sciences report.
State and private forestry--urban and community forestry
    Question 185. Isn't the chief responsibility for Urban and 
Community Forestry fall with local government?
    Answer. We agree that local governments bear the chief 
responsibility for the comprehensive care of their trees, forests and 
greenspace and believe that this reflects the current situation. 
However, many communities are not knowledgeable about conditions, 
possibilities, technical issues, or overall impacts of healthy urban 
forests on the welfare of its citizens, or such economic factors such 
as energy costs, or costs to local government of providing such 
services as storm-water management. Nationwide, the care of trees and 
forests in many of our larger cities are in decline and most need work 
to reclaim trees and greenspace to provide a better quality of life for 
their residents. Many smaller communities and unincorporated areas do 
not have the necessary financial resources or technical expertise to 
care for their trees and related natural resources, while resources do 
not reach many inner city neighborhoods. The Forest Service goal is to 
create local capacities to manage urban and community forests and does 
so by creating awareness; providing information to the public; and 
providing assistance in assessment, planning, management and community 
action.
    At the landscape level trees and urban forests occur on land in 
mixed ownership and across jurisdictional boundaries and can become 
prey to insects and diseases. Counties, cities and other communities 
are even less equipped to deal with the loss of trees, forests, 
openspace, wildlife habitat and watershed functioning that is 
accompanying the urban sprawl occurring at unprecedented levels across 
the nation. In the last twenty years population in Atlanta has doubled 
while urban sprawl has consumed over 400 percent more land. A the 
landscape level the Forest Service has a responsibility to promote 
increased communication and coordination across political and 
geographic boundaries to protect and restore healthy ecosystems.
    Question 186. Why shouldn't we simply block grant $26.8 million 
requested in this budget straight to the States?
    Answer. The Program is designed to address concerns at the local, 
State and national scales. By the year 2000 over 80 percent of the 
American public will reside in metro areas with complex natural 
resource problems. National indicators of deteriorating environments 
associated with cities and other communities include decreases in air 
and water quality with their associated health risks; land use changes, 
forest conversion and fragmentation leading to loss of wildlife 
habitat, biodiversity and open space; diminished watershed functioning 
and increased storm-water flooding; and increased heat island 
temperature effects that exacerbate regional weather systems and global 
warming. The Forest Service provides research, technology transfer and 
technical assistance needed to identify national trends, assess, test 
and develop corrective actions needed to sustain and improve urban and 
community natural resources. The Forest Service works in collaboration 
with other federal agencies, State forestry agencies, local 
governments, non-profit organizations and the private sector to 
accomplish this work and keep Congress informed of important national 
trends.
    Question 187. Why couldn't these communities hire U.S. Forest 
Service expertise, if in fact your employees truly are the most 
knowledgeable and of course the price you would charge is competitive 
with private contractors?
    Answer. The scope and complexity of urban natural resource problems 
requires the combined talents and commitment of Federal, State and 
local governments, non-profit organizations and the private sector all 
working together. The role of the Forest Service is to provide the 
national leadership and long-term Federal continuity to assist States, 
cities and counties to recognize the importance of natural resources in 
populated areas, and to serve as facilitators and conveners to bring 
together all the parties needed to develop community based efforts to 
care for trees, forests, watersheds and openspace in urban areas.
    Question 188. Don't you think it is unfair to those striving to 
make a living in urban forestry for Congress to subsidize a federal 
agency at the expense of the private sector?
    Answer. Rather than competing for jobs in the private sector, the 
Urban and Community Forestry Program has been an important catalyst for 
creating new jobs and careers in both the private and non-profit 
sectors involved with caring for trees, forests and greenspace in urban 
areas. As local communities become more aware of the important role 
that trees, forests, and open space play in supporting the economic, 
social and environmental aspects of their lives, we believe that this 
segment of the economy will continue to grow.
    Not more than 20 full time equivalent assignments are tied to 
delivery of the Urban and Community Forestry program. All of them carry 
some level of national responsibility. The states and localities, 
including non-profit, citizen based volunteer organizations involved in 
urban forestry help craft the role and responsibility of federal 
participation. The role the Forest Service plays in urban and community 
forestry is defined by the partnership of federal/state/local 
interests.
The National Forest System--recreation
    You've stated that driving for pleasure is the No. 1 recreational 
activity on the National Forest System. You've also stated that you 
have a $10 billion backlog in road maintenance. You've requested a 13-
percent increase in funding for recreation above that budgeted in 
fiscal year 1997.
    Question 189. Why shouldn't we fund recreation at fiscal year 1997 
levels and then take this money and put it into road reconstruction and 
maintenance?
    Answer. The Forest Service budget proposal balances the needs of 
all the resource areas to provided multiple benefits and 
accomplishments. In fiscal year 1999, the increase in the Recreation 
budget line items provides an additional $23 million for the 
President's Land, Water, and Facility Restoration Initiative for the 
operation, maintenance, and reconstruction of recreation facilities and 
trails which have a combined backlog of over $1 billion. These 
facilities and trails in substandard condition exists at a time when 
more Americans are visiting the national forests than ever before.
    Removing these funds will eliminate the following projects across 
the Nation: Replacement of over three hundred toilets with more modern 
and sanitary, accessible sweet smelling toilets, and replacement of 
many which are leaking and causing environmental degradation. Over 400 
water systems will be repaired or replaced in order to meet health and 
safety standards required by the Safe Drinking Water Act Amendment. The 
$8 million provided for trails would provide heavy maintenance, 
rerouting, and reconstruction of over 3,000 miles of trails. This 
maintenance would enhance the health and safety of the forest visitors, 
improving accessibility, as well as preventing ecosystem degradation.
    Many of these projects anticipate contributed funds as well as ``in 
kind'' support from the local communities in the form of partnerships. 
This allows leverage of the funding to accomplish more than would be 
possible with only the Federal dollars.
    Examples of project proposal which could be done if this funding is 
provided include:
  --Providing for the maintenance and reconstruction of water systems 
        at high use recreation areas, such as Swauk and Ice Water 
        Campgrounds on the Wenatchee National Forest in Washington; 
        Ward Lake recreation Area campgrounds on the Tongass National 
        Forest in Alaska; Pounds Hollow Recreation Area on the Shawnee 
        National Forest in Illinois; Hyalite Canyon and Reservoir/
        Gallatin Canyon on the Gallatin National Forest in Montana; 
        Dolly Copp Campground wells on the White Mountain National 
        Forest in New Hampshire; Albert Pike Recreation Area on the 
        Ouachita National Forest in Arkansas; Bird Creek campground on 
        the Humbolt National Forest in Nevada; Horseshoe Springs on the 
        Sante Fe National Forest in New Mexico; the upgrade of 4 water 
        systems on the Araphaho/Roosevelt National Forests in Colorado; 
        and the Almanor pumphouse and tank replacement on the Lassen 
        National Forest in California.
  --Providing environmental protection for water quality by improving 
        sanitation facilities, sewer and/or wastewater systems such as 
        Begich, Boggs Visitor Center Wastewater system on the Chugach 
        National Forest in Alaska; Chewalla Lake Recreation Area in 
        Mississippi; at the Hopewell, Handsome Lake, and Hooks Brook 
        boat access campgrounds on the Allegheny Reservoir on the 
        Allegheny National Forest in Pennsylvania; Fishlake Sewer Lift 
        Station repairs in Utah; the Bog Springs Campground in Madera 
        Canyon on the Coronado National Forest in Arizona; Stratton 
        Pond on the Green Mountain National Forest in Vermont; Davidson 
        River Recreation Area on the Pisgah National Forest in North 
        Carolina; and Juniper Springs Recreation Area on the Ocala 
        National Forest in Florida.
  --Trail maintenance and reconstruction to protect stream crossings, 
        steep trails and trails located within riparian areas, such as 
        the Hanging Rock and Monday Creek ORV areas on the Wayne 
        National Forest in Ohio; Shenandoah Mountain trail in West 
        Virginia; the Badin Lake Horse Trail System on the Uwharrie 
        National Forest in North Carolina; trail restoration on the 
        Francis Marion National Forest in South Carolina, the Coker 
        Creek and John Muir Trails on the Cherokee National Forest in 
        Tennessee; the Noisy Creek and Shedroof Mountain trails on the 
        Colville National Forest in Washington; and the Quinault 
        Valley, Soleduck River and Duckabush River trails on the 
        Olympic National Forest in Washington.
    Additional project proposal information by Region or 
National Forest is available. The actual project selection will 
depend on the mix and amount of additional funding provided to 
the Forest Service in fiscal year 1999.
    You've also requested that we re-authorize the recreation 
user fees program which you indicate generated $7.7 of receipts 
which will be used by the Forest Service. In essence your 
asking this Congress to increase your funding by over $28 
million for recreation. For a program that returns less then 
$50 million to the government. At the expense of a program that 
has the potential to return over a billion dollars in revenues.
    Question 190. What are you guys down there in the Old 
Auditors Building thinking about Chief?
    Answer. Returns to Treasury are one indicator of a programs 
contributions to the economy of the United States. The USDA 
Forest Service plays a significant role in managing forests and 
rangelands and producing resource outputs that provide a 
variety of goods and services for the American public. The 
economic effects of these goods and services can be described 
by several measures, each contributing unique information. The 
Draft 1995 RPA Program presents three measures of economic 
effects: (1) benefit-cost analysis; (2) returns to Treasury; 
and (3) employment and income impacts. The benefit-cost 
analysis compares the cost of Forest Service programs to the 
benefits generated by those programs. Returns to Treasury are 
receipts to the government from sales of outputs and fees for 
services on the National Forests and Grasslands.
    The economic impacts resulting from Forest Service programs 
like timber, grazing, and recreation create ripple effects 
throughout the economy with measurable impacts at local, 
regional, and national scales. The economic impacts from Forest 
Service activities are often summarized as contributions to 
employment and income. At the national level, the most relevant 
measure of income is the contribution to Gross Domestic Product 
(GDP): the value added to the economy of domestic production of 
goods and services.
    As displayed in the Draft RPA Program, the national 
contributions to GDP from recreation are substantially larger 
than contributions from other resource areas. This difference 
is explained by several factors. The first factor is the sheer 
magnitude of recreation use on the national forests and 
grasslands. Second, recreation visitors are purchasing final 
consumption products (fishing equipment, clothes, etc.) as part 
of the recreation trip expenditures.
    However, economic impacts are just one perspective and 
there are many other valid perspectives and sources of 
information that should also be considered in evaluating Forest 
Service programs. These include the social and economic impacts 
to local communities, revenues generated, economic efficiency, 
historical program development and support, and actions needed 
to achieve desired conditions or to address urgent problems, 
such as forest health. Funding allocations are not based on a 
single dominant perspective or factor. Such decisions take into 
account all of the factors mentioned above, plus many more.
    Question 191. Do you think we can afford to throw good 
money after bad to support your social engineering experiments.
    Answer. Recreational opportunities continue to be important 
to the American public and contribute significantly to local 
rural economies. We believe providing recreation facilities and 
trails is an important part of the Agency mission--Caring for 
the Land and Serving People.
The National Forest System--road maintenance
    Chief, you've testified that you have a $10 billion backlog in road 
maintenance. We also know that timber purchasers use to pay for 40 to 
45 percent of road maintenance. Maintenance that the recreationists, 
the agency, and all other forest road users enjoyed.
    Question 192. Why shouldn't this Congress take about 30 percent of 
the recreation and wilderness budget and put that money into road 
reconstruction and maintenance?
    Answer. The Forest Service budget proposal provides for recreation 
road maintenance and reconstruction within the maintenance and road re/
construction budget line items. Budget constraints do not allow for the 
levels of funding needed for either the roads or the recreation 
programs. The President's Budget provides balanced funding for these 
programs within current funding constraints.
Law enforcement
    According to your budget it costs the Forest Service $92,545 per 
law enforcement agent.
    Question 193. How many county law enforcement officers could the 
average county hire for $92,000 per year?
    Answer. It is unknown how many law enforcement officers could be 
hired by the average county, since we do not have pay information for 
county law enforcement personnel available. Simply taking the 1999 
estimate of $67,373,000 and the FTE level of 728 from the Forest 
Service Explanatory Notes, then dividing those, does not accurately 
reflect the cost of law enforcement personnel. The overall budget 
figure shown includes cooperative law enforcement funding, fleet 
equipment replacement and use, support costs for office space and 
clerical assistance, training and travel, transfer of station costs, 
and all other related employment costs.
    Question 194. Why shouldn't we block grant most, if not all, law 
enforcement dollars directly to those counties which have National 
Forest lands within them?
    Answer. In fiscal year 1996 the Senate Appropriations Committee 
asked for an independent review of the Forest Service law enforcement 
program. In March of 1997, Star Mountain, Inc., a company hired through 
the Office of Personnel Management, submitted their final assessment of 
the program. One of the four focus areas in their study was, 
``Potential for establishing block grants to local law enforcement 
agencies, its merits, and cost benefit.'' The report concluded that 
block grants were not viewed as an alternative to cooperative 
agreements for assuming Forest Service Law Enforcement and 
Investigations responsibilities. The primary reason for their 
conclusion is the lack of accountability for block grants. Audits may 
be required on some types of block grants, however, they generally 
focus on the financial soundness of the grant recipients and their 
activities rather than accountability for results and outcomes. 
Essentially there are no requirements to show an increased benefit 
utilizing block grants.
The National Forest System--prescribed fire
    Chief, you've state publicly that 90 percent of the lands within 
the interior west which are considered to be at a high risk for 
catastrophic fire will need to be mechanically treated prior to 
burning. We've also seen proposals to burn commercially valuable timber 
in some prescribed burns.
    Question 195. What is the average cost of prescribed burning?
    Answer. Answer combined with those for S-196, S-197, see below.
    Question 196. Your budget documents suggest you will treat 1.47 
million acres in fiscal year 1999 for some $235 million in fire 
operations funding.
    Answer. Answer combined with those for S-195, S-197, see below.
    Question 197. That works out to about $160 per acre if I did my 
math right.
    Answer. (Combined with answers for S-195, S-196) The fiscal year 
1999 proposed budget includes $235.0 million in fire operations 
funding. Of that amount, only $65.0 million is proposed for the 
Hazardous Fuel Reduction program. The balance of the Fire Operations 
program funding supports wildfire suppression activities.
    The $65.0 million Hazardous Fuel Reduction program supports all 
types of fuel treatment activities, including prescribed burning, and a 
variety of mechanical treatments. The program also supports associated 
activities, such as planning fuel reduction activities and assuring 
compliance with air quality standards. The fiscal year 1999 program 
proposed to treat a total of 1.47 million acres.
    Per-acre costs of prescribed burning, which is one component of the 
$65.0 million Hazardous Fuel Reduction program, vary by topography, 
vegetation type, weather conditions, and proximity to structures and 
developed areas. Per-acre costs range from $30 to $300 per acre, with 
some situations potentially driving per-acre costs higher.
    Question 198. If you could sell only 5,000 board feet/acre of 
commercial timber from the lands you want to burn, the commercial 
timber value would net the government approximately about $240 per acre 
treated. Tell me why we shouldn't require the Forest Service to remove 
and sell all commercial products prior to burning?
    Answer. Commercial timber does not occur on all lands scheduled for 
fuel treatment or prescribed burning. Mechanical fuel treatment and 
prescribed burning are not meant to cause damage to forest lands. Most 
of the mechanical treatment needed to prepare a forested area for 
prescribed burning involves removing small trees and brush that have 
little or no commercial value. The objectives are to reduce fuels that 
allow fire to move from the ground, surface fuel into tree crowns and 
to create a crown spacing that reduces the risk of wildfire spreading 
through tree canopies. Some commercial products may be produced as a 
result of this mechanical treatment, including biomass, pulpwood, and 
some sawlog products. It is current practice to seek to sell and remove 
products that have commercial value in preparation for prescribed 
burning. Unfortunately, much of the material to be treated has little 
or no value in the marketplace. Material that does have commercial 
value, such as biomass and pulpwood may have local markets, but those 
markets are often transitory and unreliable, making it difficult to 
plan with assurance that they will be available at all times.
    Question 199. If you did remove this volume won't you reduce the 
fuel loading and make these projects less risky and less costly to 
burn?
    Answer. Removing commercial timber from an area may increase fire 
hazard as the limbs and foliage that were a part of the harvested trees 
are left as slash and dead fuel. As fuel loadings on an area increase, 
the cost of fuel treatment may also increase.
    Question 200. Wouldn't you return a positive cash-flow to the 
federal coffers rather then sending $235 million up in smoke?
    Answer. It is current practice to sell merchantable products 
created as a result of treatment in preparation for prescribed burning. 
This can help offset the cost of fuel treatment, but normally is not 
sufficient to create positive cash flow. As stated before, the 
materials that are removed to prepare an area for prescribed fire are 
generally not valuable enough to create market interest.
The National Forest System--purchaser road credits
    Chief, once again you've proposed to do away with purchaser credits 
and reduce road funding.
    Question 201. What percent of your road construction budget is 
spent on building new roads and what percent is spent on reconstructing 
existing roads?
    Answer. Only 1.0 percent of the proposed fiscal year 1999 road 
reconstruction and construction budget is proposed for actual road 
construction contract costs and 28 percent is proposed for actual road 
reconstruction contract costs. The remaining 71 percent is proposed for 
engineering support (survey, design, and contract administration) for 
roads reconstructed and constructed from appropriated funds, and by 
timber purchasers, and for program management and overhead. Recognizing 
both appropriated and purchaser funded work, and based on miles to be 
accomplished, there will be 3,541 miles of road reconstructed (89.6 
percent) and 410 miles of road constructed (10.4 percent) in fiscal 
year 1999.
    Question 202. How much of your bridge replacement backlog and 
maintenance backlog is dependent on reconstruction projects?
    Answer. Basically, all of the bridge replacement and maintenance 
backlog depends on reconstruction. Bridges can be replaced with 
maintenance funds and the President's fiscal year 1999 budget 
initiative includes replacing 40 bridges. However, about 13 percent of 
our 7,650 bridges are functionally obsolete or unsafe. On a 50-year 
replacement cycle, we would need to replace about 150 bridges per year 
to hold the bridge backlog line. With foreseeable maintenance funding, 
gaining on or even holding the bridge backlog line will depend on 
reconstruction.
    Question 203. Are you telling me that you have critical road 
maintenance and reconstruction problems yet your recommending further 
reduction in two to the line items which help you accomplish the very 
work your now wringing your hands over? The National Forest System--
Purchaser Road Credits.
    Answer. The elimination of the Purchaser Road Credits program in 
fiscal year 1999 will not affect our ability to accomplish needed road 
work for ``critical road maintenance and reconstruction problems''. 
Purchasers of National Forest timber will still be required to do 
needed road work as before, but now the cost of that road work will be 
paid directly, rather than indirectly by the purchasers. This may then 
be reflected in lower bid prices; however, any suggestion or appearance 
of a subsidy will be removed. The President's fiscal year 1999 budget 
for roads reconstruction and construction is actually a 10-percent 
increase over the fiscal year 1998 appropriation, and the request for 
road maintenance is increased 26 percent over the fiscal year 1998 
appropriation. However, critical road maintenance and reconstruction 
problems will still remain as the increases will slow the increase of 
the growth of the backlog in both these areas but not decrease it.
    Question 204. What percent of federal timber is purchased by small 
business purchasers?
    Answer. Data is currently unavailable.
    Question 205. Don't the small business purchasers may a greater 
cash flow challenge when it comes to paying for timber sales?
    Answer. Yes, small business purchasers may have a greater cash flow 
challenge when it comes to paying for timber sales. However, we believe 
that the timber sale provisions and requirements reflect reasonable 
rates of deposits and payments for the small business purchaser, while 
protecting the interest of the United States Government.
    Question 206. If you need forest product companies to help you 
accomplish your management goals and you are going to propose a policy 
which will financially disadvantage one group of timber sale purchasers 
over another, what are you going to do to protect these small 
companies?
    Answer. The Forest Service needs an industry to help achieve the 
long term management goals of the national forests. The President's 
fiscal year 1999 budget proposed language to modify Section 14i of the 
National Forest Management Act, which authorizes the Forest Service to 
build purchaser credit roads over $20,000 upon the request of small 
businesses. The proposed language is necessary to continue to provide 
this opportunity to small businesses.
The National Forest System--purchaser road credits
    Question 207. Chief, has your agency done any analysis on how much 
it will cost to develop new contract procedures to allow for road 
design changes that are now handled under the purchaser credit 
provisions of the timber sale contract?
    Answer. We have not done an analysis at this time on the cost to 
revise the policy concerning timber sale purchaser roads. The process 
we will propose to put into place will try to cause as little 
disruption as possible to the process. As an example, we will still 
build the same standard of road necessary to protect the environment 
and that is necessary to remove the logs. Thus, the construction 
provisions will not change. We will try to include all the present 
contract provisions but will just handle them in a different manner. 
Currently, the sale is advertised as if the road is in place and the 
purchaser receives credit as the road is constructed. The revised 
approach will advertise the sale reflecting the cost of the road as 
part of the bid price.
    Question 208. What will happen when your employees identify a need 
to make a change in the road design?
    Answer. Needed road design changes will be handled similar to the 
present process. The contract will identify the same reasons, 
conditions and requirements to justify those needed design changes. 
Other changes will have to be by mutual agreement. In some cases, 
appropriated funds will have to used. As appropriated funds have been 
limited in the past, some design changes may not be accomplished if 
there are not sufficient funds.
    Question 209. How will your timber sale contract accommodate the 
change without delaying a purchaser's sale operations?
    Answer. The elimination of purchaser road credits requires change 
in approach in handling road costs in the timber sale contract.
    Question 210. Has your agency undertaken any analysis to understand 
how the elimination of the purchaser road credit program will impact 
timber bids and receipts?
    Answer. A year ago GAO reported to Congress what the possible 
effects of eliminating the purchaser road credit program might be. The 
Forest Service has not done any additional analysis. We would expect a 
slight decrease in bids because timber sale purchasers will have to 
carry borrowed funds longer and will pay more interest on borrowed 
monies without purchaser road credits. In addition, if there is no 
purchaser credit, this approach will not allow the timber sale 
purchaser to transfer earned purchaser credit between sales on the same 
national forest.
American heritage rivers
    In Ms. McGinty's testimony on this program, she indicated the three 
primary objectives of the program are (1) local economic 
revitalization, (2) natural resources and environmental protection, and 
(3) cultural resource preservation. The federal register announcement 
on this initiative indicated that you (the administration) were 
``creating the American Heritage Rivers (AHR) initiative to help these 
communities restore and protect their river resources, in a way that 
integrates natural resource protection, economic development, and the 
preservation of historic and cultural values.''
    Question 211. Chief, having listened to those objectives would you 
think these rivers would be located near metropolitan areas, or in the 
wilderness areas?
    Answer. We do not know where the 10 designated rivers will be 
located, but they may be in both urban and non-urban settings.
    Question 212. Chief, the President's Executive Order of April 8th 
on the American Heritage Rivers Advisory Group calls for some of the 
rivers which this group will recommend to be rivers that are 
``relatively pristine.'' Is it your understanding that your agency will 
be asked to expend its budget to place additional protection on rivers 
within the National Forest System (NFS) as a result of the Heritage 
Rivers initiative?
    Answer. It is our understanding that this initiative will not 
require or allow any new federal regulations. We do not expect to place 
additional protection on AHR designated rivers within NFS lands.
    Question 213. What will this program do for rivers located on 
National Forest Lands that your existing forest plans can't already 
accomplish? Will this initiative result in any additional rivers be 
designated as wild and scenic on National Forest lands?
    Answer. This initiative will encourage greater interagency 
coordination, more partnerships with the private sector and non-profit 
organizations, and more involvement with communities. This initiative 
will not affect any rivers eligibility for wild and scenic river 
designation.
    Question 214. If the program is designed to help communities (town 
and cities) refurbish their river heritage, why are you mucking around 
out on the National Forests? How many towns over 5,000 people are 
located within the boundaries of the National Forests? How many have 
rivers which run through both the town and the National Forest?
    Answer. This information is currently not available at the 
Washington or local offices. Please contact us to clarify your needs 
and we will work with you to provide the appropriate information.
    The Agriculture Research Bill Conference Report includes language 
that puts the Forest Inventory and Analysis (FIA) program on a five-
year cycle. This language has strong support among all forest 
constituents, and is the product of a blue ribbon report prepared for 
the Chief of the Forest Service by a diverse coalition including the 
National Association of Professional Forestry Schools and Colleges, 
National Association of State Foresters, the National Woodland Owners 
Association, the Wilderness Society, the Society of American Foresters, 
and the American Forest and paper Association. The language was 
overwhelmingly approved in the House and has met no significant 
opposition in the Senate.
Forest and rangeland research--forest inventory and analysis
    Question 215. Is it the intention of the Forest Service, in 
response to Congressional mandate, to move the FIA program to a 5-year 
cycle?
    Answer. The Research Bill has not yet been finalized or signed by 
the President. However, the Forest Service shares the goal of moving 
the FIA research program to a 5-year cycle. The current legislation 
requires submission of a strategic plan with 180 days of passage 
indicating additional funding and personnel needs to transition from 
the current program to a more vigorous 5-year program.
    Question 216. What is the priority of this improved FIA program 
relative to other research initiatives? What research initiatives are 
higher priority?
    Answer. FIA is the highest research initiative priority for the 
fiscal year 1999 Forest Service Research budget.
    Question 217. Is the $4.5 million increase in funding for FIA in 
the President's fiscal year 1999 budget sufficient to move the program 
to a five year cycle?
    Answer. No. The increase proposed in the fiscal year 1999 budget is 
only sufficient to reduce the national FIA cycle to about 11-years and 
begin annualized inventories on about 37 percent of the nation's 
forests. The strategic plan called for in the Research Bill will 
outline the additional needs above fiscal year 1999 funding to achieve 
the five-year cycle mandated on 100 percent of the nation's forests.
    Question 218. Would you agree that Congress, in response to the 
overwhelming support for a five year inventory cycle, should provide 
sufficient resources to make a 5-year cycle possible?
    Answer. Yes. As long as the resources permit the agency to collect 
information on the broader suite data essential to monitor ecosystem 
integrity.
    FIA is a global leader in inventory and monitoring technology and 
provides critical information on the status, trends and condition of 
forest lands for 10 million private and all public forest landowners in 
the United States. FIA is provides forest resource information across 
all ownerships that is more comprehensive, more detailed, and of higher 
quality than any other entity and has done so for 70 years. FIA's 
leadership and dedication to providing sound, unbiased resource 
information was recognized by the First Blue Ribbon Panel on Forest 
Inventory in 1992 and again by the Second Panel this year.
    Question 219. How much additional funding would the Forest Service 
need to move the FIA program to a 5-year cycle?
    Answer. The question has two answers because the five year cycle 
required by the Agriculture Research Bill is more stringent than the 
five year cycle sought in the Second Blue Ribbon Panel Report. Although 
the strategic planning required by the Research Bill has only recently 
begun and the budget analyses are still very preliminary, we estimate 
that it would take $98 million annually to provide the program outlined 
in the Research Bill. The estimated cost of complying with the Second 
Blue Ribbon Panel Report recommendations is $80 million. The cost 
difference stems from the fact that visiting 20 percent of the plots 
each year in very remote locations, such as interior Alaska and 
wilderness areas, is extremely expensive. The Blue Ribbon Panel report 
recommends negotiations with State Foresters, and some State Foresters 
are supporting cycles other than 5-years. For example, for some western 
areas, cycles of 7 or 10-years are supported by State Foresters, and 
perhaps 20-years for interior Alaska. This flexibility to negotiate a 
cycle that best meets customer needs results in the lower cost estimate 
of $80 million.
    Both the Research Bill and the Blue Ribbon Panel require reporting 
of forest health information as an integral part of the program. Thus, 
budget estimates for this response reflect a merged FIA and Forest 
Health Monitoring (FHM) detection monitoring program.
    In fiscal year 1999, Forest Service Research proposes $28 million 
on FIA and FHM detection monitoring and will leverage about $9 million 
in direct and in-kind support from FIA/FHM partners, for a total of $37 
million. This funding will support annualized inventories on about 37 
percent of the nation's forests, a national FIA cycle of about 11 
years, and provide for forest health detection coverage on about 70 
percent of the nation's forests.
    In addition, future inventory and monitoring efforts will include 
more ecosystem information to increase their value for analysis, 
planning, evaluation and education. This broader array of information 
in conjunction with improved linkages to other data sources will help 
streamline planning, analysis and implementation of a more efficient 
resource information gathering and delivery system. Future efforts will 
also pursue continued improvement and significant expansion of our 
popular interactive internet data delivery capability 
(www.srsfia.usfs.msstate.edu/wo/wofia.htm).
National Forest System--reducing the risk of catastrophic wildfire
    In his recent ``State of the Forest Address, Chief Dombeck state, 
``There are approximately 40 million acres of national forests that are 
exposed to abnormally high risk of fire, disease, and insect outbreaks. 
To respond to this need, we are asking Congress for funding to: (1) 
increase prescribed fire and forest fuels treatment in critical 
watersheds from 1.1 million acres in 1997 to 1.5 million acres in 1999 
and (2) double the amount of thinning in unnaturally dense forest 
stands particularly along the urban--wildland interface over the next 
5-years.''
    Question 220. In October of 1997 the House Committee on Agriculture 
sent you a letter requesting the location of these 40 million acres. 
Did the agency ever respond to this letter?
    Answer. We cannot find record of a response to this letter.
    Question 221. Have these acres been identified? Where are they?
    Answer. The 40 million acres are estimated to be a portion of 
National Forest Land where hazardous fuels loads and the potential for 
insect and disease problems is greatest. These areas primarily occur in 
the extensive pine stands found in the west and south. In the fiscal 
year 1998 Department of the Interior and Related Agencies 
Appropriations, Congress directed that $4 million in the Forest 
Service's Wildland Fire Management appropriation and the Department of 
Interior's appropriation be used to establish and implement a 
comprehensive approach for fuels mapping and inventory. This approach 
is now being developed by a joint Fire Sciences Team and will provide 
for improved fuels mapping and inventory.
    Question 222. Your ``State of the Forest Address'' indicated that 
you intend to ``double the amount of thinning in unnaturally dense 
forest stands over the next five years.'' How much of this thinning do 
you currently do?
    Answer. Two types of thinning operations are performed--
precommercial and commercial. The difference between the two 
activities, as the names imply, is largely a function of whether or not 
the material being removed is of sufficient size to have acquired a 
market value.
    Annual data on the number of acres subject to each type of 
treatment are available from the Forest Service's TRACS-SILVA database. 
The figures for the last two years are provided below. These data 
indicate that we are presently thinning about 285,000 acres annually--
155,000 acres precommercially and 130,000 acres commercially.

                                                   ANNUAL DATA
                                                   [In acres]
----------------------------------------------------------------------------------------------------------------
                                                        1996                                 1997
                Region                 -------------------------------------------------------------------------
                                        Precommercial  Commercial    Total   Precommercial  Commercial    Total
----------------------------------------------------------------------------------------------------------------
Northern..............................       14,285        2,391     16,676       11,737        2,535     14,262
Rocky Mountain........................       12,801        4,372     17,173       12,839        4,324     17,163
Southwest.............................        4,353        1,915      6,268       14,189        5,707     19,896
Intermountain.........................       10,723        5,122     15,845       12,268        2,947     15,215
Pacific South West....................       25,303       11,171     36,474       31,456       16,808     48,264
Pacific North West....................       66,437       12,785     79,222       57,724       20,149     77,873
Southern..............................        8,874       61,943     70,817        8,501       51,827     60,328
Eastern...............................        5,713       28,844     34,557        4,729       27,786     32,515
Alaska................................        4,016    ..........     4,016        3,728    ..........     3,728
                                       -------------------------------------------------------------------------
    Servicewide.......................      152,505      128,543    281,048      157,171      132,083    289,254
----------------------------------------------------------------------------------------------------------------

    Question 223. Where is this thinning going to occur?
    Answer. While we are currently striving to improve the reliability 
of our data, at present it is estimated that approximately 40 million 
acres of National Forest land are exposed to abnormally high risk of 
fire, insect, or disease outbreaks. This heightened risk may be a 
function of many variables, but overstocking is certainly a key 
consideration. While some overstocking problems can be addressed by 
means other than thinning--e.g., prescribed burning--in many instances 
the existing stocking levels are so high that the risks associated with 
introducing a prescribed fire are prohibitive. In these instances, 
thinning is our only real mechanism for implementing positive change. 
Given that the risk of catastrophic fire tends to be greatest in 
wildland/urban interface areas, these zones would logically become 
focal points for our expanded thinning program.
    Question 224. The funding for this thinning doesn't seem to appear 
to be in any of the National Forest System line items, the State and 
Private Forestry line items or in any other program line items. Where 
precisely is this thinning initiative in the budget?
    Answer. The initiative proposes to double the amount of thinning in 
unnaturally dense stands over the next five years. In fiscal year 1999 
we will be using funding in the forestland management line items (NFTM 
for commercial thinning and NFFV for precommercial thinning) and from 
the K-V and reforestation trust funds only for precommercial thinning.
    Question 225. In what time frame do you anticipate treating all 40 
million acres in the current backlog? Is your budget request consistent 
with this timeframe? What level of funding would be consistent with 
this time frame?
    Answer. We plan to increase our fuels treatment program 30 percent 
per year until we are treating 3.0 million acres per year by 2005. At 
this rate of treatment, we anticipate that critical areas would be 
treated within 10-15 years, with much of the 40 million acres requiring 
multiple treatments on each acre.
    The work by the Fire Sciences Team will be used to determine 
priorities, judge the effectiveness of various treatments, and assess 
the risk. The funding request in the President's budget is consistent 
with this time frame.
National Forest System--watershed health improvement
    In February Secretary Glickman transmitted a letter to House 
Agriculture Committee Chairman Smith expressing his opposition to 
Chairman Smith's forest health bill. The letter rejected Chairman 
Smith's proposal to use the Roads and Trails Fund for forest health 
recovery projects, yet advocated using this same fund for ``watershed 
restoration activities.'' The concept of ``watershed restoration, as it 
turns out, is nearly identical to the concept of forest recovery 
outlined in Chairman Smith's bill.
    Question 226. On February 27, Secretary Glickman transmitted a 
letter to Chairman Smith opposing the use of the Roads and Trails Fund 
for the purpose outlined in his forest health bill. This same letter 
advocated the use of the Roads and Trails Fund for ``watershed 
restoration activities.'' Where does this proposal appear in the fiscal 
year 1999 budget?
    Answer. Secretary Glickman's February 27, 1998 letter described the 
Administration?s suggested alternative to H.R. 2515. This alternative 
would emphasize watershed and forest health treatments such as:
  --Reconstructing, relocating, maintaining, or decommissioning roads;
  --Prescribed fire;
  --Watershed restoration through soil stabilization and abandoned mine 
        rehabilitation;
  --Restoration and maintenance of wildlife and fish habitat;
  --Control of noxious and exotic weeds; and
  --Ecosystem analysis
    The fiscal year 1999 President's budget includes funding 
increases for programs that would carry out these kinds of 
treatments.
    The Administration's alternative would amend the 10 Percent 
Fund to expand its scope of spending from road and trail 
construction, reconstruction, and maintenance, to overall 
watershed health. The Secretary's letter was sent to the 
Committee after the fiscal year 1999 President's budget was 
released. The fiscal year 1999 President's budget for the 10 
Percent Fund would support activities that are currently 
authorized, including trail reconstruction, and road 
reconstruction and maintenance to address environmental 
degradation, especially in riparian areas.
    Question 227. Why was the Secretary's proposal not included 
in the USFS explanatory notes?
    Answer. The Secretary's letter was sent to the Committee 
after the fiscal year 1999 President's budget was released. The 
fiscal year 1999 President's budget, as described in the 
Explanatory Notes, includes funding increases for programs that 
normally conduct the kinds of watershed restoration and forest 
health treatments described in the Administration's 
alternative. The fiscal year 1999 President's budget for the 10 
Percent Fund would support activities that are currently 
authorized, including trail reconstruction, and road 
reconstruction and maintenance to address environmental 
degradation, especially in riparian areas.
    Question 228. Was the proposal presented to Chairman Smith 
sincere? Does the Department or the agency still view 
``watershed restoration activities'' as an appropriate use of 
the Roads and Trails Fund?
    Answer. The Secretary's proposal was sincere. The 
Administration believes it would be appropriate to expand the 
authorized use of the 10 Percent Fund to include the types of 
watershed and forest health treatments described in it's 
alternative to H.R. 2515.
    Question 229. To what extent does the treatment of the 40 
million acres of forest at risk of catastrophic fire correspond 
with ``watershed restoration?'' How are the two similar? How 
are they different?
    Answer. A noted earlier, the location and actual risk 
associated with these acres will be defined by the Fire 
Sciences funding in the fiscal year 1998 Wildland Fire 
Management appropriation. Since large, damaging fires pose a 
threat to a healthy watershed, many acres included in the 40 
million occur within watersheds that need restoration. Fuel 
treatment can prevent severe fires which damage watersheds and 
cause floods and erosion. Prescribed fire can increase species 
diversity on a site, giving more resilience to ecosystems. Fuel 
treatments that put more organic matter on the ground speeds 
nutrient availability to new plants and prevents site 
deterioration. It is assumed that fuel treatment within these 
areas will be one very effective component of watershed 
restoration. There are riparian areas where fire may be 
damaging instead of restorative. In other cases, fire may 
expose old erosion sources, reactivating the erosion cycle. 
These areas would not be included within the 40 million acres 
and may require restoration activities other than fuel 
treatment or prescribed fire.
    Question 230. Does the current condition of the 40 million 
acres place watershed health at risk? Would it logically 
follow, then, that your proposal for watershed restoration 
would incorporate the 40 million acres?
    Answer. As noted in Question 229, much of the area would 
cover the same area. Fuel treatments are expected to reduce the 
fire hazard, restore the health of the ecosystem, and be an 
effective component of watershed restoration.
                                ------                                


             Questions Submitted by Senator Robert C. Byrd

                 hardwoods technology center, princeton

    Chief, the Forest Service has been involved with the 
hardwoods technology center in West Virginia that assists 
small, independent operators in their efforts to get 
established in the secondary hardwoods processing industry. For 
a variety of reasons, the Center is now faced with a need to 
restructure its operations.
    Question 231. What steps can the Forest Service, especially 
State and Private Forestry, take to assist in providing this 
center with a firm organizational footing?
    Answer. In fiscal year 1991 and fiscal year 1992, a total 
of $8.9 million was appropriated to the USDA Forest Service, 
State and Private Forestry, to initiate the development of a 
hardwood training and flexible-manufacturing center in Mercer 
County, West Virginia. The initial role of the USDA Forest 
Service in assisting the Robert C. Byrd Hardwood Technology 
Center was largely grant administration by the Northeastern 
Area and some counsel by Research.
    During the last three years the Northeastern Area has taken 
on a more direct role of assistance, guidance and counsel. In 
May 1996, the Northeastern Area drafted a report entitled, 
Strengthening Hardwood Utilization: An Institute Concept for 
Hardwood Utilization Research, Technology Training and 
Transfer, and Industry Development. The report, provided to 
Congress, called for the USDA Forest Service to better 
coordinate its State and Private Forestry and Research role and 
to develop linkages with the Center to focus on the following 
program areas: Joint leadership, resource information and 
analysis, shared training, shared workforce toward common 
goals, shared planning, and shared initiatives.
    The Institute concept specifically called for funding for 
the Forestry Sciences Laboratory to be restored to the fiscal 
year 1995 level, a State and Private Forestry Liaison position 
to be created, and an economically self-sufficient Center to be 
programmatically linked to USDA Forest Service Research and 
State and Private Forestry programs. Funding has been restored 
at the Laboratory and a State and Private Forestry Liaison 
position has been established.
    The Forest Service continues to assist the Center by 
providing, through a partnership role, a wide-range of linkages 
and contacts, timely information, technical advice, and focused 
financial incentives. The research programs at the Forestry 
Sciences Laboratory have been recently restructured based on 
input from the hardwood industry. The Institute concept, 
bringing together the Center; the Northeastern Area; and the 
Forestry Sciences Laboratory; remains a viable option for the 
Center to be fully successful. The Forest Service continues to 
support the Institute Concept, however, since the Center is a 
501(c)-(3) non-profit organization, the Board of Directors for 
the Center controls the overall program agenda and makes all 
decisions concerning the operations of the Center.
    Chief, I would request that you develop, for the 
Subcommittee's consideration, a future vision for the Hardwoods 
Technology Center. Because of the nature of the center's work, 
I believe your State and Private Forestry branch should lead 
this effort. This group is familiar with this project, and 
should be able to address goals and objectives, leadership 
needs, and funding requirements for a restructed Hardwoods 
Technology Center. And, because the Appropriations Committee 
will soon begin its mark-ups of the fiscal year 1999 budget, I 
would appreciate a response within the next two weeks.
    Question 232. In light of the need to strengthen the 
program at the hardwoods center, why has the Forest Service 
proposed to reduce the fiscal year 1999 technical assistance 
funding below last year's enacted level of $200,000?
    Answer. The fiscal year 1999 President's budget proposes to 
maintain funding for the hardwoods center in Princeton, West 
Virginia at the fiscal year 1998 funding level of $200,000. The 
Forest Service fiscal year 1999 Explanatory Notes do not report 
the correct level of funding.
Seneca Rocks Visitor Center
    Question 233. What are the estimated costs for operations of the 
visitor center? What plans does the Forest Service have in developing 
its budget for next year to accommodate the additional operating costs 
that will accompany this facility?
    Answer. The estimated annual operating cost for the Seneca Rocks 
Visitor Information Center is $275,000.
    The Forest and Region are exploring partnership opportunities to 
offset the increased costs of operation and maintenance for this, and 
one other new center (Northern Great Lake Visitor Center) in the 
Region.
    To assist the Forest Service in addressing the growing recreation 
demands on our national forests, Congress in fiscal year 1996 
established a demonstration fee program.
    Question 234. To assist the Forest Service in addressing the 
growing recreation demands on our national forests, Congress in fiscal 
year 1996 established a demonstration fee program. What has been the 
experience to date in the Service's implementation of the program?
    Answer. Our experience has generally been favorable. The 
flexibility of the program as authorized has given our project managers 
the latitude to craft projects that are generally acceptable for their 
particular site and their particular set of circumstances and visitors. 
It also allows us to make needed changes where changes are warranted 
because of public reaction. We have also found that projects in areas 
or for activities that had no prior fee associated takes more time, 
resources, and about a year of planning--to ensure a fiscally sound and 
publicly accepted program. We also find better success with projects at 
developed sites where reinvestment of funds is more apparent than on 
dispersed sites.
    Question 235. What revenues were generated last year, and what are 
your expectations for this fiscal year?
    Answer. In fiscal year 1997 we collected $8.7 million from the fee 
demo program, at 40 sites. We anticipate collecting approximately $16 
million from the program in fiscal year 1998, at about 80 sites.
                          allocation of funds
    Chief, in recent years, the Forest Service has undertaken an effort 
to change the manner in which it decides how it allocates funds to the 
field. It appears that as a proportion of total National Forest System 
appropriated funds, Region 9 is not faring as well in the budget 
process. I understand that similar dissatisfaction has been heard in 
some corners from Region 8, the Southern region.
    Question 236. What are the factors that contributed to the Forest 
Service's decision to reallocate funding of the various National Forest 
System line-items?
    Answer. Prior to fiscal year 1995, there was no consistent, 
established approach for allocating funds in either the formulation or 
execution stages of the budget process. In budget formulation, the 
Deputy Chief established regional funding levels by adjusting the 
previous year's level based on personal knowledge of issues or program 
changes. These adjustments were not necessarily based on quantifiable 
or documentable information and tended to perpetuate historical funding 
distributions. In budget execution, the same approach was used except 
that allocations were proposed by individual staffs based on their 
knowledge of program issues and priorities. Some staffs used budget 
formulation information received from field units to help in these 
decisions. The agency's leadership generally approved these allocations 
without significant adjustments. The logic and rationale behind these 
decisions in both steps of the budget process were never communicated 
to the field. Many regions voiced concerns about the equity and 
objectivity of these allocations, particularly as program priorities 
within the agency began to change.
    The Forest Service began using a criteria-based approach for 
allocating funds in the agency's budget formulation process in fiscal 
year 1995. Significant progress has been made since that initial 
effort, and as of fiscal year 1997 criteria are now used to make 
initial and final allocations as well as allocations for budget 
formulation purposes.
    Allocation criteria provide some of the rationale needed to justify 
programs by linking the distribution of funds to expected performance 
as described in agency goals and objectives. They help sharpen the 
focus on objectives and communicate agency priorities. The allocation 
criteria establish a foundation for distributing resources by 
identifying differences in Regional resource conditions, workload, 
production capabilities and other elements.
    As the Agency refines its allocation criteria, Washington Office 
(WO) and Regional program managers are looking to improve the link 
between the performance indicators in the GPRA Performance Plan and the 
criteria. This connection will ensure that accomplishing the agency's 
priorities on the ground is rewarded and that funding is tied to 
accountable work.
    Question 237. What are the consequences to the forests, on-the-
ground, of this type of reallocation? Are facilities having to be 
closed, or are services being reduced, or is staffing affected?
    Answer. Given the complexity of managing natural resources, no set 
of criteria will yield the optimum allocation for everyone. Management 
review remains a necessity to ensure that regional programs are 
maintained. Changes to address program viability or emerging needs 
usually take place when the regions respond to the Program Budget 
Instructions, the Initial Planning and Budget Advice (PBA), or even 
through reprogramming requests. Regions provide an analysis of the 
impacts that proposed funding increases and decreases would have on 
their program capabilities. In reviewing this information, WO program 
managers work to address emerging issues or priorities so that the 
final allocation balances Regional needs.
    In the fiscal year 1997 and fiscal year 1998 Final PBAs, 
adjustments were made to some programs where shifts in funding due to 
applying the criteria would have resulted in significant changes. The 
adjustments generally limited an increase or decrease of no more than 
10 percent in a unit's percent share of available funding from one year 
to the next. In the fiscal year 1999 Initial PBA, NFS program managers 
eliminated the ``bridge'' for most of their programs, but kept it when 
the impacts would have been too drastic or if revisions to the criteria 
were soon expected to occur.
    Question 238. As the effects of these reduced budgets are being 
felt in the regions that have had to give up funds, is there any 
thought being given to re-evaluating the factors so that significant 
disruption to the delivery of services does not occur?
    Answer. For any given region, several factors would have led to 
increases or decreases in funding for a line item: total funding 
appropriated, the amount of funds needed to operate the National 
headquarters, earmarks or priorities for specific regions, and the 
criteria used. Since moving to a criteria-based approach can result in 
significant shifts in program funding among regions, an adjustment or 
``bridge'' was applied to all regions to limit an increase or decrease 
of no more than 10 percent in a region's percent share of the available 
funding from one year to the next.
    While some Regions may have declining budgets for some programs, 
using the criteria has resulted in increases in other programs. Use of 
the allocation criteria has refocused funding in the regions on 
different programs. For instance, Regions 8 and 9 are receiving a 
higher percent share of the Ecosystem Planning, Inventory and 
Monitoring, but less of the Recreation and Wilderness funds.
    The evaluation and refinement of allocation criteria is an on-going 
effort involving Washington office and regional resource and budget 
staffs. This effort is designed to address issues related to specific 
program criteria. Resource or other information used to update the 
criteria is kept as current as possible. Unresolved issues related to 
specific criteria are periodically addressed to assure that the best 
possible criteria are in use. Staffs are also working to improve the 
link between the performance indicators in the agency's GPRA 
Performance Plan and the criteria. This connection will ensure that 
accomplishing the agency's priorities on the ground is rewarded and 
that funding is tied to accountable work. As criteria improve, 
additional shifts in funding among regions may occur. Those changes 
will be implemented incrementally to limit significant changes.
    Question 239. What was the Forest Service's logic in applying the 
reallocation to the base program, and not just the incremental changes 
in funding each year?
    Answer. Allocation criteria for each program are applied to the 
total funds available for distribution to the field for a given year. 
When the criteria were first used, a ``bridge'' or adjustment was also 
applied to mitigate the adverse effects of potentially rapid changes in 
program funding levels. This ``bridging'' approach temporarily 
maintained the link to an historical ``base'', but allowed some 
movement towards a more rational and equitable distribution of funds. 
Subsequent allocations using the criteria have resulted in further 
shifts away from historical levels of funding for some programs in some 
regions. This, however, reflects the intended result of this approach, 
a significantly more meaningful, visible and equitable allocation. 
Applying the criteria to incremental changes in the budget could 
eventually lead to the same result, but it would take significantly 
longer and there would be no justifiable reason for hanging on to a 
``base'' program that does not reflect current workloads and the 
capabilities of field units to address shifting agency priorities.
    Question 240. To what extent does the allocation of funds take into 
consideration the number of recreation sites on a forest, and the costs 
associated with keeping these facilities available for public use?
    Answer. The regional and Washington office Recreation Management 
staffs worked extensively to develop and refine the criteria currently 
being used. The agency's Recreation Program Directors selected criteria 
that best represented the recreation resource situation and workload 
for which quality information was available. From this process they 
selected the following criteria:
  --Recreation Use calculated using Recreational Visitor Days (31 
        percent weight);
  --Managed developed site capacity using PAOT-Days (Persons-at-one-
        time) (30 percent weight);
  --Non-Wilderness Forest Service acres per Region (18 percent weight);
  --Miles of existing Non-Wilderness trails (12 percent weight); and
  --Number of Special Use Permits (9 percent weight).
    Of these criteria, the PAOT-Days, weighted at 30 percent, 
attempts to account for the workload associated with recreation 
sites and managed site capacity. The recreation budget criteria 
are expected to change when the results of two important 
efforts (Recreation Meaningful Measures and the INFRA data 
base) provide consistent, validated measures and costs.
    Question 241. Does the allocation method address the 
different operating seasons for the various regions such as the 
short but intense use in the northernmost states, as compared 
to the longer, more dispersed seasons in the southern tier of 
states?
    Answer. The Recreation Program Directors measured the 
managed developed site capacity calculated using PAOT-Days 
(Persons-at-one-time). PAOT-days was used because it does 
consider the season of use, though it does not capture the 
timing differences in operating seasons. The Recreation 
Directors considered a range of potential indicators that 
attempted to measure the different workloads and resources in 
the regions.
    When Meaningful Measures and the INFRA database are 
implemented in fiscal year 1999, the Recreation staff intends 
to review its allocation criteria to assess the improvements in 
the information collected and to identify indicators that 
demonstrate the ``quality'' of experience.

                              firefighting

    The fiscal year 1999 budget request for Forest Service 
appropriated funds is about $50 million above the fiscal year 
1999 enacted level. A significant portion of the increase is 
created by reducing funding for the firefighting program some 
$30 million below last year's level.
    Question 242. What is your confidence level that sufficient 
funds are included in the Forest Service request for 
firefighting this year?
    Answer. Within the proposed fiscal year 1999 budget for 
Wildland Fire Management, firefighting funds proposed in the 
Fire Operations Expanded Budget Line Item at $235.0 million 
combined with $102.0 million in proposed contingency funding, 
represent a level slightly above the 10-year average annual 
fire suppression expenditures. In addition, there is still a 
$250 million emergency fund available should the President need 
to activate it.
    Question 243. Do you anticipate having to borrow any funds 
from the Knutsen-Vandenburg Reforestation Trust Fund this fire 
season? If so, how do you propose to repay the K-V account for 
those funds, let alone the outstanding balance of $493 million 
already owed the K-V account?
    Answer. The Forest Service does not anticipate having to 
borrow funds from the Knutsen-Vandenburg fund for firefighting 
this fire season.
    The ten year (1987-1997) average for wildfire suppression 
activities is $323 million. Yet the fiscal year 1999 budget 
request for operations is just $235 million, some $88 million, 
or 27 percent, below the 10-year average.
    Question 244. Does the Forest Service believe the ten-year 
average is an inappropriate indicator for firefighting costs? 
If so, what alternative basis would you recommend for 
determining firefighting funding levels?
    Answer. The ten-year average annual fire suppression 
expenditure figure is an appropriate indicator for capturing 
the variability of fire season severity year to year. At the 
same time, it provides a logical basis for consistent 
administration budget proposals, in the face of uncertain 
outyear fire seasons. Given the wide fluctuation in fire season 
severity, a ten-year average annual level, along with a 
contingency fund or supplemental appropriation in extreme 
wildfire occurrence years, provides for a more balanced annual 
budgeting process.
    As you may be aware, Budget Committee and the Congressional 
Budget Office expect the Interior Subcommittee to fund the 
firefighting accounts at the ten year average. Thus, even 
though you have not requested this amount, the Subcommittee may 
be ``charged'', or scored, with the increment of $88 million.
    Question 245. If this happens, where within the Forest 
Service budget do you propose that the Subcommittee obtain $88 
million in savings?
    Answer. The Fire Operations account at $235.0 million, 
along with the $102.0 million in proposed contingency funding, 
is slightly above the 10-year average annual suppression costs. 
In addition, there is currently a $250.0 million contingency 
that was established by Congress in fiscal year 1997 but not 
used. The amount available in fiscal year 1999 will depend upon 
fund usage, if any in fiscal year 1998. Given these additional 
funds, we feel there are adequate financial resources available 
to the Forest Service in fiscal year 1999.
                       state and private forestry
Cooperative Fire Program
    Question 246. The fiscal year 1999 Forest Service budget request 
calls for a program increase to $23.5 million for Cooperative Fire 
Protection. Is this increase a result of budget restructuring or is it 
a proposed program increase? Please describe with specificity what a 
requested increase in funding will be used for.
    Answer. The increase is a result of budget restructuring. In the 
fiscal year 1999 President's budget the Cooperative Fire Protection 
budget is being proposed as a separate Budget Line Item within the 
Interior Appropriation for the Forest Service State and Private 
Forestry. Prior to this year, the funds for a Cooperative Fire 
Protection program came from two separate appropriations: The 
Cooperative Lands Fire Management EBLI within the Interior 
Appropriation for Forest Service State and Private Forestry, and the 
Rural Community Fire Protection (RCFP) component, funded through the 
Rural Housing Service within the Agriculture Appropriation.
    The funds for Rural Community Fire Protection will be used in 
fiscal year 1999 as they have been used in the past: for training, 
organizing, and equipping rural volunteer fire departments servicing 
communities with populations of less than 10,000.
    Question 247. What is the basis for allocation of these funds to 
the Regions? Will the fiscal year 1999 allocation differ dramatically 
from allocations made in fiscal year 1998? If so, why?
    Answer. State Fire Assistance Expanded Budget Line Item--Funds are 
allocated to the field units based upon continuation of a historical 
funding which took into account program complexities and fire workload 
in each state. The allocations are developed in consultation with the 
State Foresters who administer the program locally.
    Volunteer Fire Assistance Expanded Budget Line Item.--Funds are 
allocated to the field units based upon continuation of a historical 
funding which took into account program complexities and fire workload 
in each state. The allocations are developed in consultation with the 
State Foresters who participate in the program.
    The allocations for fiscal year 1999 will not differ significantly 
from those made in fiscal year 1998.
    Question 248. How does this program differ from what is planned to 
be accomplished in the Forest Service Wildland Fire Management 
activity?
    Answer. The Forest Service Wildland Fire Management activity 
provides for protection of National Forest System lands from damage by 
wildfires commensurate with the threat to life, firefighter and public 
safety, values at risk, and resource management objectives. The funding 
is used to provide resources which provide a preplanned fire protection 
capability to respond to the historical and anticipated workload on 
national forest lands. The purpose of the Cooperative Fire Protection 
activity is to protect lives, homes and natural resources from 
uncontrolled wildfires on non-federal wildlands and rural lands. The 
Forest Service provides technical, financial and other assistance to 
help States and volunteer fire departments maintain currency in 
prevention, suppression and wildland fire protection techniques. This 
promotes State, local, and citizen-driven solutions to fire protection 
needs, and provides the Forest Service with additional resource 
capability in the wildland urban interface.
    Question 249. How successful has the Forest Service been in 
utilizing cost-share arrangements to accomplish the goals of this 
program?
    Answer. Cost-share arrangements have been very successful in 
accomplishing this goals of this program. On the average, each federal 
dollar leverages at least two dollars in State funds.
Forest health management
    Question 250. What criteria does the Forest Service use to allocate 
Forest Health Management funds to its Regions? Will the fiscal year 
1999 allocations differ dramatically from allocations made in fiscal 
year 1998? If so, why?
    Answer. Federal Lands Forest Health Management--Surveys and 
Technical Assistance Program consists of two components (1) a base 
technical assistance and survey program, and (2) Off-plot forest health 
monitoring. Funding for the base program is a historical distribution 
based on the size of the Forest Health Protection organization in each 
region. Off-plot forest monitoring funding is developed in the WO and 
the distribution is based on the number of participating States and 
acres of forested land in those States. Prevention and Suppression 
funding level is developed in the WO based on the 5-year average of 
actual expenditures. Allocations include funds, based on historical 
funding levels, for initial presuppression activities. Funds for 
suppression projects are allocated after project proposals are 
submitted, prioritized and approved.
    Cooperative Lands Forest Health Management.--Surveys and Technical 
Assistance Program consists of two components (1) a base technical 
assistance and survey program, and (2) Off-plot forest health detection 
monitoring. The base program allocation provided for each State is 
formula-based. The formula is: $0.01 per acre of State and private 
forest land + $40,000 divided by 2 (50 percent cost share), but not 
less that $25,000 total. Regions and Northeastern Area may alter the 
formula-based distribution of their respective Regional and Area 
allocations with concurrence of the participating States. Although the 
program is formula driven, it is based on the availability of funds. 
Forest Health monitoring funding is developed in the WO and allocated 
based on acres of forest and number of plots in participating States. 
Prevention and Suppression funding level is developed in the WO based 
on the 5-year average. Funds for suppression projects are allocated 
throughout the fiscal year based on the results of biological 
evaluations and the priority of each project in meeting national needs.
    The fiscal year 1999 allocation will be the same as fiscal year 
1998.
                         national forest system
Rangeland management
    Question 251. (a): The fiscal year 1999 Forest Service budget 
includes an increase of $19.2 million for rangeland management, in part 
to be used for grazing allotment analyses. (b): To date, what progress 
has been made to complete grazing allotment analyses? (c): What amount, 
if any, will be needed in future years to complete this work? (d): What 
percentage of the requested increase will be used to complete grazing 
allotment analyses and what percentage will be used to complete other 
additional on-the-ground structural improvements?
    Answer. (a) The range Vegetation Management (NFRV) expanded budget 
line item (EBLI) proposed funding is requested at $37.807 million in 
the President's fiscal year 1999 budget. This budget includes a program 
increase over fiscal year 1998 in regular funding of approximately $4 
million and a Presidential Initiative of $16 million included in the 
President's Environmental Resources Fund for America (Clean Water and 
Watershed Restoration Fund Initiative, which includes a Rangeland 
Initiative $15 million and the Interior Columbia Basin Ecosystem 
Management Project $1 million). The range Grazing Management (NFRG) 
expanded budget line item is $27.840 million or $.300 million above 
fiscal year 1998.
    Rangeland Management budget line item (BLI) request for fiscal year 
1999 is $65.6 million (NFRG and NFRV combined); however, Rangeland 
Management budget trends need to be viewed in the context of past 
years. As can be seen in the Table below in millions of dollars 
(rounded), the Rangeland budget dropped in fiscal year 1994.

                            Rangeland budget

        Fiscal year                                             Millions

1992..............................................................$43.20
1993.............................................................. 44.42
1994.............................................................. 16.40
1995.............................................................. 18.50
1996.............................................................. 27.00
1997.............................................................. 38.00
1998.............................................................. 45.40

Note: Fiscal year 1998 is enacted to date.

    The request for fiscal year 1999 includes: adjustments to cover 
inflation since fiscal year 1993; an increase in the noxious weed 
program in response to public requests; increased dollars to gather and 
analyze data needed to accomplish the NEPA work that Congress mandated 
in the Rescissions Act of 1995; funding to implement the restoration 
decisions resulting from the Rescissions Act NEPA; and finally, 
resources to monitor and evaluate restoration progress on the ground. 
Riparian area restoration is included in the implementation of the NEPA 
decisions.
    (b): The Forest Service was required in the Rescissions Act of 1995 
to develop a schedule for NEPA analysis and management decisions on 
grazing allotments. The schedule was developed based upon performing 
NEPA analysis within a period of 15 years. The 15 year period was 
divided into 5 three year time blocks to make the process more 
manageable. A total of 2,516 analyses and decisions were planned for 
fiscal year 1996 through 1998. This is 37 percent of all the analyses 
needed in 15 years. By the end of fiscal year 1997, analyses and 
decisions were completed on 1,218 allotments. In fiscal year 1998, an 
additional 544 allotment NEPA analyses are underway for a total of 
1,752 or 70 percent of the analyses planned in the first time block. 
The Forest Service will be short of its goal of 2,516 allotments by 30 
percent or 754 allotments at the end of the first three year time 
block. While we have fallen short of our ambitious schedule, the 
accomplishment of 1,752 NEPA decisions in three years represents a 400 
percent or greater increase over the rate of decisions prior to the 
Rescissions Act.
    (c): The development and implementation of grazing management plans 
through NEPA needs input from range specialists, wildlife and fisheries 
biologists, soils scientists and many others to address the complicated 
effects of a livestock grazing program. This represents expanding 
workloads at a time when staff levels are limited or reduced; this has 
resulted in a growing backlog of NEPA analyses. Work on the remaining 
allotments will be shifted to future time blocks in the schedule. 
Implementation of existing decisions needs to occur as the NEPA 
decisions are made. This translates into a minimum program for 
Rangeland Management of approximately $75 to $80 million for future 
years if all Congressionally mandated assignments are to be completed 
and yearly permit administration is carried out.
    (d): The program funding increase proposed for fiscal year 1999 is 
explained under EBLI NFRV above. Under the Rescissions Act schedule, we 
have made 1,752 decisions in the past three years (including fiscal 
year 1998). The NFRV funds increase, in large part, is needed to 
implement these decisions. These monies are to be spent on improving 
and/or restoring vegetative capabilities of the National Forest System 
lands through implementation of the NEPA decisions and monitoring 
progress towards achieving the objectives described in these decisions. 
Additionally NFRV monies can be spent on inventory and analysis, this 
information can be used as base data for NEPA. This represents about 
fifty percent of the cost of doing NEPA analysis, but is less than 20 
percent of the NFRV budget. Direct work on NEPA and resulting decisions 
are accomplished under EBLI NFRG, as is structural improvement work. 
Since the proposed funding increase is not in the area of NFRG, no 
additional NEPA analyses are scheduled and no additional structural 
improvements are planned.
    The distinction between NFRG and NFRV has resulted in difficulty 
for the Rangeland Management program. A budget increase in one of the 
EBLIs does not provide for a parallel increase in the other EBLI. Thus 
an increase on the NFRV side of the Rangeland Management program 
provides added base data and information for NEPA without dollars to 
actually perform the NEPA work and inform the public. Moreover, the 
decisions that are currently in place will be implemented in fiscal 
year 1999 to the degree possible with NFRV considering that these 
monies can only be spent on vegetative improvements and not on the 
needed structural improvement work.
    The solution to the two types of funding would be the consolidation 
of the NFRG and NFRV EBLIs into a single BLI for Rangeland Management. 
This would allow decision makers the flexibility to plan the entire 
process under one set of funds. Thus, data gathering and analysis 
information could be immediately used in the writing of a NEPA document 
while consulting with the public. This could be followed by the 
creation of an allotment management plan after a decision is made. The 
next step would be the actual implementation of the decision on the 
ground with coordination and cooperation of the permittee. Finally, as 
a last step, monitoring should take place to evaluate progress towards 
achieving the objectives delineated in the NEPA decision. As described 
above, this is a building process that requires consistent funding at a 
level that provides for performing all the needed steps, while 
continuing the administration of permits and the rest of the Rangeland 
Management job. An adequately funded program would require between $75 
and $80 million on a long term basis.
    Question 252. What efforts has the Forest Service made to include 
landowners in the decision-making process relative to initiating 
rangeland improvements?
    Answer. The Forest Service considers local landowners who are 
holders of livestock grazing permits to be very important in the NEPA 
process. The permittees are the people who, in partnership with the 
Forest Service, carry out the decisions that stem from the NEPA 
process. They are our partners, as permit holders, in making management 
on the ground workable and productive. Therefore, the Forest Service is 
committed to completing the scheduled NEPA analyses with the help of 
our permit holders through cooperation, coordination, and consultation. 
That means continuing to inform them of our concerns, the 
responsibilities that we have under the law, the regulations that we 
are expected to carry out, and the issues that the general public 
brings forth in the NEPA process. It also means continuing to listen to 
their needs and their ideas for the improvement of management on their 
allotments. The Forest Service is committed to working closely with the 
individual permittees through ongoing consultation with them on 
developing situations and coordinating with them when rangeland 
management programs are developed for their allotments under NEPA. 
Likewise, the actual implementation of management plans along with the 
construction or development of improvements requires continued close 
cooperation between the Forest Service and the permittees. In addition 
to including the permittees in the NEPA process, Forest Service 
decision makers also have a commitment to work with other interested 
parties, other Federal and state agencies, and other Forest Service 
resource areas to ensure that management actions are ecologically 
responsible, economically viable, and socially acceptable.
    Question 253. Approximately how many acres of noxious weed 
treatments does the Forest Service plan to complete in fiscal year 
1999? Does this include acres of weeds to be addressed under the 
Interior Columbia Basin Ecosystem Management Project?
    Answer. The proposed budget for fiscal year 1999 includes $4 
million for noxious weed work in regular appropriations with another 
$2.6 million in the President's Environmental Resources Fund for 
America (Clean Water and Watershed Restoration Fund Initiative, which 
includes a Rangeland Initiative and the Interior Columbia Basin 
Ecosystem Management Project). It is expected that these funds together 
will generate 67,500 acres of treated noxious weeds. Of the total acres 
predicted approximately 12,500 will be from treatments within the 
Interior Columbia Basin Ecosystem Management Project. Additional acres 
of treated noxious weeds are expected from other programs as in 
previous years.
    An assigned target of 36,732 acres has been established for the 
Regions for fiscal year 1998 using noxious weed funding. Again 
cooperation is expected from non-Federal entities, also it is 
anticipated that additional weeds will be treated under the KV program 
in fiscal year 1998.
Recreation use
    Question 254. In the fiscal year 1999 budget, the Forest Service 
repeatedly notes a backlog of project work relative to Recreation Use 
as a justification for some of the proposed increases. Specifically, it 
asks for an increase of $16 million. To date, has the Forest Service 
completed a formal inventory of recreation backlog projects? Has a 
priority list of backlog work been developed? What criterion will be 
used to chose projects?
    Answer. The backlog of deferred maintenance and reconstruction for 
recreation facilities and trails was based on condition assessments and 
field estimates in fiscal year 1994. Recreation facility backlog 
information was gathered by utilizing the following criteria: health 
and safety; resource protection; work needed to avoid closing a site; 
site work needed to return to a user fee system previously charged or 
to continue a user fee system; or facility elimination for those sites 
beyond a serviceable condition. The totals identified, $818 million for 
recreation facilities and $267 million for trails, have not been 
updated since fiscal year 1994. The Forest Service is in the process of 
developing a consistent set of definitions and identifying specific 
needs through development of the computerized inventory database called 
INFRASTRUCTURE. This is expected to be complete by the end of fiscal 
year 1999. In the meantime, the total funding needed to address 
substandard conditions has no doubt increased due to continuing forces 
of deterioration and rising costs.
    The emphasis in fiscal year 1999, as in recent years, is on 
reconstruction and rehabilitation of existing facilities. Based on the 
above criteria, each of the nine Forest Service regions develops a 
project list from which the national list is compiled. The list 
includes projects needed to meet the demands of today's recreation 
customer as well, but with the emphasis on the above criteria the 
majority of funding would be applied to reduce the backlog. Therefore 
the $16 million increase in the fiscal year 1999 budget, although only 
a small part, would help alleviate the total need.
    Question 255. To date, how would you characterize the success of 
the recreation fee demonstration program? What plans does the Forest 
Service have for expanding the program and making it more efficient?
    Answer. To date, we consider the demonstration program successful. 
The feedback has generally been favorable as long as the fees come back 
to the local area and the Agency budget is not offset. Some projects 
have more controversy than others--mainly fees for the dispersed types 
of recreation. With significant effort on the part of the local Agency 
personnel and modifications to the project proposal, even the more 
controversial projects are able to succeed and gain public acceptance.
    In 1997, 40 projects were collecting fees. Currently, 51 projects 
are charging fees. We have plans for an additional 37 projects to begin 
charging fees this year or the beginning of next year, and are 
expecting proposals to fill the additional slots. We hope by May 1999 
to have close to 100 projects charging fees.
    We continue to work with projects to streamline and enhance 
business operations, as our managers and workforce gain additional 
skills needed to collect fees on this larger scale, and run projects in 
a business-like manner. As we move into a second full year of 
operation, we will work on ways to better integrate the various fee 
systems. Our intent has been to test a variety of fee collection 
methods on a wide variety of recreation activities. We are also 
developing a proposal for a national pass. Although we are accepting 
the Golden Eagle passport at some locations, it does not work well for 
most national forests since we have very few ``entrance'' fee areas.
                        presidential initiatives
Clean water and watershed restoration
    Question 256. The Forest Service Budget includes $60 million for 
the Clean Water and Watershed Restoration Initiative, including $35 
million in the National Forest System account. Please indicate the 
Forest Service's priority use of the funds in this account if only a 
portion of the funding is provided.
    Answer. The Forest Service priorities would be those activities to 
restore National Forest System watersheds. The priorities for this 
effort would be based on the priority watersheds identified by the 
States resulting from their Unified Watershed Assessments.
    Question 257. What other initiatives are included within the 
planned use of these funds, including amounts to fund the Interior 
Columbia Basin Ecosystem Management Project, Southwest Conservation 
Strategy, or other major projects?
    Answer. More than a million dollars is planned for use in the 
Columbia River Basin Ecosystem Management project. Currently planned is 
twenty million dollars for Rangeland Vegetation Management, part of 
which will be applied to the Columbia River Basin Ecosystem Management 
Project and to the Southwest Conservation Strategy. Other initiatives 
to which the funding is applied are: $63 million in the land, water and 
facility restoration initiative, $3 million in the climate change 
technology initiative, and $1.3 million in the law enforcement 
initiative.
    Question 258. What are the long-term implications of not receiving 
the total amount of funding requested for this initiative?
    Answer. The long-term implications would be an adverse effect on 
the Forest Service ability to be trusted and effective partners in 
achieving the goals of the Clean Water Act and implementing its mission 
for watershed management and land stewardship.
    Question 259. An additional $14 million is included in the 
Reconstruction and Construction account for this initiative for roads. 
What is the planned use of these funds? How will priority 
reconstruction and construction projects be selected?
    Answer. These funds are planned for road work designed to improve 
watershed health and eliminate adverse impacts on fisheries and 
wildlife. Examples of work to be done with these funds includes:
  --Aggregate surfacing to reduce sediment production and runoff;
  --Reconstructing cross sections to improve drainage;
  --Revegetating cut and fill slopes; and
  --Replacing culverts and bridges to pass 100 year storm flows.
    Regions have set priorities for this work to provide the greatest 
amount of environmental improvement with the funds available to them. 
They estimate that they will be able to reconstruct 340 miles of road 
and replace 13 bridges with these funds. No new road construction is 
planned under this initiative.
Land, water, and facility restoration
    Question 260. The Forest Service budget includes $63 million for 
the Land, Water, and Facility Restoration Initiative, of which $31 
million is included in the National Forest System account. Please 
indicate the Forest Service's priority use of the funds in this account 
if only a portion of the funds are provided.
    Answer. The $31 million is planned for a balanced program of 
priority restoration projects for recreation and FA&O facilities, and 
for roads and trails, in the proportions shown on page 316 of the 
fiscal year 1999 Explanatory Notes. Funds will be prorated to maintain 
this proportion between these elements of our infrastructure if only a 
portion of the requested funds are provided.
    The $11 million of initiative funds for road maintenance will allow 
us to increase maintenance to a full service level standard from 40 
percent to 45 percent and replace 40 of the bridges that are currently 
restricting access to public lands. The $5 million of initiative funds 
for FA&O facility maintenance will allow us to increase maintenance to 
a full service level standard from 20 percent to 24 percent thereby 
improving employee safety, efficiency and morale. In the case of the 
recreation facility and trail components, loss of funds will result in 
the elimination of water, sanitation and trail projects. In the NFS 
account, $15 million is provided for recreation facilities and trails. 
These funds, along with $8 million in the Reconstruction Account, have 
Recreation Facility and Trail Maintenance and Reconstruction projects 
proposed by all 9 Forest Service Regions. The total funding of $23 
million for recreation facilities and trails in NFS and Reconstruction 
will fund over 400 water projects, 300 sanitation projects, and provide 
maintenance and reconstruction on over 3,000 miles of trail. A 
reduction to this funding will be prorated across the Regions and will 
begin to eliminate the programs described above.
    Question 261. Please indicate the Forest Service's priority use of 
the $17 million in funding requested in the Reconstruction and 
Construction account for this initiative if only a portion of these are 
made available. To date, what steps has the Forest Service taken to 
inventory its maintenance and construction backlog? How will projects 
be chosen for the use of these funds?
    Answer. The $17 million is planned for a balanced program of 
priority restoration projects for recreation and FA&O facilities, and 
for roads and trails, in the proportions shown on page 316 of the 
fiscal year 1999 Explanatory Notes. Funds will be prorated to maintain 
this proportion between these elements of our infrastructure if only a 
portion of the requested funds are provided.
    Not receiving the $9 million of initiative funds for FA&O 
reconstruction and construction would postpone the completion of three 
airtanker bases and ten office and work center projects. These 
postponements would have a direct affect in the Forest Services ability 
to protect natural resources, meet the public needs, and the health and 
safety of employees and the public. In the case of the recreation 
facility and trail components, loss of funds will result in the 
elimination of water, sanitation and trail projects. In the NFS 
account, $15 million is provided for recreation facilities and trails. 
These funds, along with $8 million in the Reconstruction Account, have 
Recreation Facility and Trail Maintenance and Reconstruction projects 
proposed by all 9 Forest Service Regions. The total funding of $23 
million for recreation facilities and trails in NFS and Reconstruction 
will fund over 400 water projects, 300 sanitation projects, and provide 
maintenance and reconstruction on over 3,000 miles of trail. A 
reduction to this funding will be prorated across the Regions and will 
begin to eliminate the programs described above.
    Individual forests have project-by-project maintenance plans and 
awareness of reconstruction needs. Unfortunately, these are not in a 
standard format that facilitates summarizing needs nationally. We are 
presently updating our Infrastructure integrated information system to 
include this information.
    Regions have set priorities for this work to provide the greatest 
benefit to protect the facilities and best serve users.
    Question 262. What are the long term implications of not receiving 
the total amount of funding requested for this initiative?
    Answer. In general, the growth of the backlog of maintenance and 
reconstruction needs for these programs will be accelerated. 
Specifically, environmental damage from old non-engineered roads will 
not be reduced, many high priority health and safety administrative 
facility projects will not be accomplished, and we will be unable to 
meet critical time frames for air tanker base reconstruction needed to 
use the new air tankers on which our future fire fighting capabilities 
depends. As indicated above, hundreds of recreation water and 
sanitation projects will not be addressed in fiscal year 1999. They 
will be addressed as funds become available in the future and those 
facilities that represent a health or safety problem for the public 
will be closed until repairs/reconstruction work can be accomplished.
    Question 263. Please specify in priority order (including acreage) 
planned land acquisitions with the use of $15 million requested for 
this initiative.
    Answer. The land acquisition portion of this initiative is to 
provide $14.5 million to acquire lands identified by the Forest Service 
as a priority for acquisition. All of the land acquisition projects 
proposed for funding are identified in the President's budget request 
and would be funded through the Land and Water Conservation Fund. In 
the fiscal year 1999 request, over $48 million of land was identified 
for acquisition. The land acquisition priorities are listed by 
priority, but were not developed to show specific projects funded by 
the initiative. Many of the land acquisition proposals, such as North 
Florida Wildlife Corridor and Pacific Northwest Streams serve to 
protect and enhance key watersheds.
          interior columbia basin ecosystem management project
    Question 264. What progress has been made relative to meeting the 
requirements of section 323(a)(b) of the Department of the Interior and 
Related Agencies Appropriations Act of 1998 (Public Law 105-83)?
    Answer. Section 323(a) of the 1998 Appropriations Act directs the 
Secretaries of Interior and Agriculture to prepare and submit a report 
to the Committees ``prior to the completion of any decision document or 
the making of any decision related to the final Environmental Impact 
Statements * * *.'' This report is to address the time and costs 
anticipated for accomplishing decisions and sources of funds. Since the 
public comment period just recently closed on the draft EIS's, work has 
not begun on development of a decision document. A decision document 
will not be developed until the Executive Steering Committee for the 
Project have selected a final alternative for management of the Forest 
Service and BLM lands within the project area. Therefore, the report 
required by Section 323(a) has not been prepared at this time. This 
report will be prepared within the next twelve to fourteen months.
    Section 323(b) of the 1998 Appropriations Act required the Project 
to analyze and publish a report on the economic and social conditions, 
and culture and customs of communities within the project area. This 
report was published and released to the public in early March 1998. At 
the same time, an additional extension of the public comment period was 
given to allow additional time for people to read the report and 
comment.
    Question 265. Just recently, the comment period for the ICBEMP 
EIS's was extended an additional month to May 6,1998. In part, this 
means that less time is available to complete actual on-the-ground work 
in the Basin for this year. How, if at all, does this change your 
project implementation costs for fiscal year 1999?
    Answer. At this time, we have already factored that extension into 
our budget estimate. Therefore, the month extension of the comment 
period does not change our Project implementation costs for fiscal year 
1999.
    Question 266. Several interest groups, including county coalitions, 
have spoken out in opposition of the Project. What are their specific 
concerns? What steps have you taken to address their concerns?
    Answer. We have worked with a number of interest groups as well as 
governmental entities including other federal agencies, states, tribes 
and counties from the inception of this Project in 1994. To the extent 
possible, we incorporated their concerns into the draft statements. We 
expect to hear some of their concerns reiterated in comments we 
received from them during the comment period that closed May 6, 1998, 
plus additional concerns. We will continue to work with these interest 
groups, governmental entities and individuals we as prepare the final 
statement.
    We are including copies of two documents (What We're Hearing and 
Content Analysis Newsletter dated February 19, 1998) that outline some 
of the concerns we have received. We plan to make available a copy of 
the final analysis of public comment in late June.
    [Clerk's note.--Due to their volume, the above mentioned 
publications have been retained in subcommittee files.]
    Question 267. What has been the response from Forest Service field 
managers to plans for on-the-ground implementation of the Interior 
Columbia Basin Ecosystem Management Project? What has the Forest 
Service done to address their concerns?
    Answer. The BLM and Forest Service field managers agree with the 
need to address these broad scale issues so they have a framework to 
plan on-the-ground projects. But as with the public, there is not 
unanimous agreement on what needs to be included in the plan and the 
level of specificity in the direction. The land management and 
regulatory executives plan to work with their field managers in 
developing the Final EIS and ROD to insure the direction in the plan is 
feasible to implement.
                              roads policy
    Question 268. How many acres of forest land will be affected by the 
Forest Service's recent 18-month moratorium on road building?
    Answer. The temporary suspension of road construction in roadless 
areas would be applied to those projects that are proposed to be built 
in fiscal years 98 and 99. The suspension does not involve a specified 
number of acres of land area. After development of a NEPA document for 
the Interim Rule, the number of miles of proposed road affected by the 
suspension will be available.
    Question 269. Please explain in detail the work that the Forest 
Service plans to complete during the 18-month moratorium. What actions 
does the Forest Service plan to take as a result of this work in order 
to improve the transportation system and improve the health of the 
land?
    Answer. During the 18-month period the Forest Service intends to 
develop a long-term policy for managing roads on the national forests 
that addresses the social, economic, and ecological basis for new 
construction, reconstruction, maintenance, and road decommissioning. 
The policy will emphasize the rapid assessment of problem areas, 
integration with Forest Land and Resource Management Plans, and 
reassessment of the body of science available for making the best road 
management decision. In addition, an analysis process for implementing 
the long-term policy, an interim policy for roadless areas access, and 
the identification of funding sources needed for implementation will be 
included. The process will be adaptable to local situations in order to 
assure that relevant information is provided to decision makers at an 
affordable cost. Finally, the process will consider the budgetary 
impacts of the alternatives, including addressing deferred backlog and 
other long-term costs. Finally, the process will consider the budgetary 
impacts of the alternatives, including addressing deferred backlog and 
other long-term costs.
    The January 28, 1998, Advance Notice of Proposed Rulemaking 
published in the Federal Register indicates that the Forest Service is 
serious about revising its regulations to better address how the 
national forest road system is developed, used, and maintained. The 
substantial reasons for undertaking these changes are outlined in the 
notice.
    The analysis process will not be a new decision process, nor will 
the results of the analysis constitute an agency action. Rather, it 
will provide a management strategy and important information that can 
be used when making future decisions about constructing, 
reconstructing, relocating, decommissioning, and maintaining roads. The 
information developed through implementation of the new analysis will 
feed into existing National Environmental Policy Act and National 
Forest Management Act decision processes. While we will work to 
implement the new analysis process within the 18-month period, we 
recognize that there will be budget and resource limitations and have 
never intended to fully implement on-the-ground changes to the road 
system within that period. In order to implement the process it will be 
necessary to complete additional inventory work on some national 
forests. The complexity of the inventory will vary with the complexity 
of issues and site conditions related to the local transportation 
system.
    The agency currently has a team of scientists and forest managers 
working to develop the analysis process. Once drafted, it will be 
subject to peer and management reviews and will be tested on several 
national forests. The feedback provided from these tests and reviews 
will play a key role in finalizing the process. Once the new analysis 
process has been completed on a forest, or at the end of the 18-month 
period, the suspension would be lifted.
    The new transportation policy and analysis process will provide the 
minimum road system to best serve current and anticipated forest 
management objectives and public uses. We will more carefully consider 
decisions to build new roads, will aggressively decommission unneeded 
roads, and will aggressively upgrade and maintain the most critical 
roads to provide safe public use, ensure economically affordable and 
efficient management, protect and restore natural resources, and 
minimize ecological impacts.
    Question 270. Is it expected that the time needed to complete the 
road inventory will take longer than the 18-month moratorium?
    Answer. We have sufficient forest development road inventory data 
to develop the new road policy and analysis process within the 18-month 
period. Currently, the forest road inventory formats vary widely across 
the Forest Service. We anticipate a significant effort will be needed 
to standardize the inventory format, map the location of existing 
forest roads, and expand the inventory to include all other travelways 
for implementation of the new road policy and analysis process.
               payments to counties--proposed legislation
    Question 271. Does this proposed legislation also apply to states 
covered by the northern spotted owl payments? That is, will those 
states covered by the owl payments also get an annual payment level 
equal to the greater of the fiscal year 1997 payment level or 76 
percent of the fiscal years 1986-1990 average payment?
    Answer. Yes, the proposal would replace the existing State 
payments, including those States currently receiving payments for 
counties with National Forests affected by decisions related to the 
northern spotted owl.
    Question 272. Does this policy include provisions for periodic 
assessments that adjust payments for inflationary purposes?
    Answer. No. As with the existing Forest Service payments to States, 
the stabilization proposal does not include an adjustment for 
inflation.
    Question 273. Are there some regions of the country or specific 
counties that will be negatively affected in the long run by this 
proposal? If so, which ones?
    Answer. This is dependent on whether actual National Forest 
revenues increase, decrease, or remain constant in the future. The long 
range budget projections indicate continued funding declines from $233 
million paid for 1997 to less than $216 million estimated to be paid 
for 2003 (-7.4 percent) on a national basis. We don't have an 
assessment of the projected revenues for all areas below the national 
level.
    Question 274. Is it possible that future receipts will be greater 
than the guaranteed payments? What does the Forest Service plan to do 
in those years?
    Answer. The total payments to States funding for each year of the 
budget long range estimates is projected to be greater under the 
stabilization proposal than with the projected receipt collections. The 
long range budget projections indicate continued funding declines from 
$233 million paid for 1997 to less than $216 million estimated to be 
paid for 2003 (-7.4 percent) on a national basis. In exchange for a 
stable, predictable payment level, the payments under the stabilization 
proposal will neither decline nor be increased due to future revenue 
collections from national forests. This more stable, predictable 
payment will allow states and counties the opportunity to better plan 
the use of these funds.
    Question 275. What are the implications of this policy relative to 
future Forest Service timber production levels? Are future production 
levels expected to increase, decrease, or remain level?
    Answer. Implementation of the payments to counties stabilization 
proposal should have no effect on the timber sale program. Decisions 
regarding the timber program will continue to be made independently of 
the payments to counties funding as they have in the past. Timber sales 
are planned and executed using funding from discretionary and mandatory 
appropriations that have no relationship to the amounts of revenues 
paid to the counties. Should the payments to counties stabilization be 
implemented as proposed, most of the revenues now being paid to 
counties would be returned to the Treasury.
    With the costs of conducting a vegetation management program on the 
national forests continuing to rise we expect a continued slow decline 
in production levels in the future given stable funding levels. 
Whatever is decided about payments to counties would have no effect on 
this trend. We believe that our proposal would be most helpful to rural 
communities in guaranteeing a higher, fixed income, plus permitting 
greater certainty and opportunities for more effective local planning 
and spending.
    Question 276. What are the PAYGO implications of the proposed 
policy?
    Answer. Briefly, the proposal recognizes that there has been a 
significant decrease in FS timber receipts due to operating a smaller 
program which is consistent with balancing all forest resource values 
as required by law and as enforced by the courts. The large component 
of low-value salvage sales in the timber program has also contributed 
to the reduction in receipts. Faced with a similar, but localized, 
situation in the spotted owl forests in 1993, the Administration and 
the Congress agreed to cushion the blow of reduced receipt-sharing 
payments to county road and school budgets by providing 85 percent of 
the 1986-1990 average payments, reducing the guarantee by 3 percent 
each year. The Administration is proposing to provide all of the 
roughly 800 counties that receive payments with the same guarantee 
using the 1997 level of 76 percent. Those counties that had a higher 
level of payments based on 1997 receipts would receive that higher 
amount. The Department's Office of Budget and Program Analysis has 
provided more detail including a discussion of offsets.
    [The information follows:]
Proposal
    Under existing law, 25 percent of most Forest Service receipts are 
paid to the States for distribution to the counties in which the 
forests are located for financing roads and schools. About 800 counties 
across the Nation receive such payments. Historically, the largest 
source of receipts is from the sale of timber on the National Forests. 
Timber receipts have declined in recent years due to the need to manage 
forests on an ecosystem basis which takes into account the needs of a 
broad range of resources such as wildlife, water quality, and outdoor 
recreation. In addition, the program emphasis has shifted from timber 
production and sales as a strictly commodity activity to forestland 
management. A significant portion of the program now consists of the 
sale of dead and dying trees to achieve forest health objectives. Such 
material commands much lower prices than the large volumes of timber 
sold in the past.
    In recognition that the payments generated by the forests affected 
by the northern spotted owl litigation had dropped precipitously, the 
President's Forest Plan included an economic package that supported 
legislation enacted as part of the 1993 Omnibus Budget Reconciliation 
Act, which established payments for those forests at an annually 
declining percentage of the 1986-1990 average payment. For 1997, the 
percentage was 76 percent and it would decline to 70 percent in 1999, 
under the current legislation. In recent years, payments to the States 
in other regions have declined significantly. In order to provide all 
county governments with a predictable and equitable level of payments 
for the national forests, the Administration will propose legislation 
later this year to stabilize the payments. The 1999 estimate of $270 
million is based on providing each county with the guarantee currently 
extended to the owl forests of 76 percent of the 1986-1990 average 
payment. For those counties where the 1997 payment was greater than 
that amount, the payment is frozen at the 1997 level. The budget 
estimates that the proposal would cost $10 million more in 1999 than 
would the program operating under the current legislation. Under the 
proposal, the payments will continue to be funded by a permanent 
indefinite appropriation. This ensures that payments will not decline 
in future years.
Offset
    The 1999 Budget for the Department of Agriculture proposes a number 
of changes in programs that are considered ``direct spending'' under 
current budget conventions. For the most part, these proposals would 
require changes in permanent statute and would be under the 
jurisdiction of the Congressional legislative authorizing committees 
rather than the Appropriations Committee. This is the case with the 
proposed change in the Forest Service Payments to States program. Such 
changes that result in increased spending require offsetting reductions 
in other direct spending programs or alternatively increased revenues 
such as user fees. This is generally referred to as the pay-as-you-go 
or PAYGO requirement. The requirement applies to discretionary spending 
as a whole. Offsets do not have to come from programs within the same 
agency or even the same cabinet Department. In general, the 
Administration's proposed spending increases, taken as a whole, are 
offset by the proposed decreases and increased user fees, again taken 
as a whole. Thus, it is not possible to relate any one specific 
increase to a specific offset.
    For your information, the PAYGO proposals in the President's 1999 
budget are set out in full beginning on page 348 of the Budget of the 
United States Government: fiscal year 1999. The proposals for the 
Department of Agriculture are shown below displaying the deficit impact 
by fiscal year in millions of dollars.

Food Stamps deficit impact

                        [In millions of dollars]

Restrict States; ability to increase Federal outlays by shifting 
  administrative costs from TANF to food stamps and Medicaid (food 
  stamps component)
        1998............................................................
        1999...................................................... -$160
        2000......................................................  -185
        2001......................................................  -190
        2002......................................................  -195
        2003......................................................  -200
Restore benefits for vulnerable groups of legal immigrants (food 
  stamp component)
        1998......................................................   100
        1999......................................................   535
        2000......................................................   500
        2001......................................................   455
        2002......................................................   460
        2003......................................................   480
Shift certain crop insurance spending to mandatory
        1998............................................................
        1999......................................................   185
        2000......................................................   123
        2001......................................................   118
        2002......................................................   127
        2003......................................................   137
Limit catastrophic crop insurance payments to $100,000
        1998............................................................
        1999............................................................
        2000......................................................   -15
        2001......................................................   -30
        2002......................................................   -30
        2003......................................................   -30
Increase Environmental Quality Incentive Program (EQIP)
        1998............................................................
        1999......................................................    13
        2000......................................................    49
        2001......................................................    70
        2002......................................................    59
        2003......................................................    52
Forest Service Payments to States (delinking from receipts)
        1998............................................................
        1999......................................................    10
        2000......................................................    22
        2001......................................................    30
        2002......................................................    41
        2003......................................................    48
Rural EZ/EC economic development grants for Round II
        1998............................................................
        1999............................................................
        2000......................................................     7
        2001......................................................    16
        2002......................................................    19
        2003......................................................    19
Restructure Export Enhancement Program (EEP) consistent with 
  market conditions
        1998............................................................
        1999......................................................  -230
        2000......................................................  -359
        2001......................................................  -258
        2002......................................................  -258
        2003......................................................  -270
Restructure CCC cotton user marketing certificates consistent with 
  market conditions
        1998............................................................
        1999......................................................  -110
        2000......................................................   -48
        2001............................................................
        2002............................................................
        2003............................................................
Spend existing and new Forest Service recreation and entrance fees
        1998............................................................
        1999............................................................
        2000......................................................     3
        2001......................................................     3
        2002......................................................     3
        2003......................................................     3
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
    Question 277. The Forest Service recently released its Natural 
Resources Agenda to focus agency efforts in four areas. Does this 
Agenda represent a departure from the Forest Service mission? To what 
extent does the fiscal year 1999 budget request further your capability 
to implement the Agenda?
    Answer. The Forest Service Natural Resource Agenda supports the 
main purposes of the 1897 Organic Act for the National Forests: 
maintaining watershed health, providing clean water, and maintaining a 
sustainable supply of timber. The Agenda is tiered directly to the 
Forest Service Results Act (GPRA) strategic plan. Compared to fiscal 
year 1998, the fiscal year 1999 President's budget supports each of the 
four elements of the Agenda. For example:
Watershed health
  --A $12.6 million (49 percent) increase to provide an additional 
        12,000 acres of watershed improvements and expand clean-up of 
        hazardous materials on Forest Service lands.
  --A $14.9 million increase (15 percent) in the Wildlife and Fisheries 
        Habitat Management program in the areas of habitat restoration 
        and partnership programs.
  --A $20 million (112 percent) increase in Rangeland Vegetation 
        Management to begin the first year of a multi-year cooperative 
        effort to address both the status and restoration of rangeland, 
        including riparian areas.
Sustainable forest management
  --An increase of $10 million (5 percent) for Forest and Rangeland 
        Research with primary emphasis given to Forest Inventory 
        Analysis, forest health monitoring, and climate change 
        technology.
  --Funding increases for a number of State and Private Forestry 
        programs to help individual landowners, communities, and States 
        capture the benefits of trees and forests through planning and 
        stewardship. 490 million acres in the U.S. are in non-federal 
        ownership.
  --A $15 million (30 percent) increase for hazardous fuels reduction.
Forest roads
  --An increase of $8 million (9 percent) focused on road 
        reconstruction to protect and restore watersheds, improve 
        safety, and provide appropriate access for utilization of 
        forest resources.
  --A $22 million increase (26 percent) to fund the decommissioning of 
        3,500 miles of roads and increase the percentage of roads 
        maintained to standard.
Recreation
    A $21.1 million increase (10 percent) in the Recreation Use program 
focused on recreation facility and trail maintenance.
    Question 278. The Forest Service Budget request includes a 
substantial increase for fish and wildlife management. What public 
benefits accrue from fish and wildlife resources on the National 
Forests and Grasslands, and to what extent will this additional funding 
contribute to additional public benefits?
    Answer. In 1996, wildlife and fish recreation expenditures tied to 
national forest tallied $6.8 billion in association with 125.7 million 
visitor days of hunting, fishing and wildlife/fish-associated viewing. 
Anglers spent $2.7 billion (46.8 million visitor days), wildlife/fish 
viewers spent $2.1 billion (52 million activity days), and hunters 
spent $2.0 billion (27 million activity days) in pursuit of their 
pastimes. This $6.8 billion in direct spending translates to a total of 
$20 billion in local economic output and 226,000 jobs. Specific 
examples include:
  --Commercial salmon harvest from the Tongass National Forest averages 
        120 million pounds per year, with an average annual earnings of 
        $66 million. Meanwhile, sportfishing numbers in Southeast 
        Alaska increased by 62 percent from 1984-93, a significant 
        revenue source for local economies.
  --In 1997, nearly 183,000 people joined in ``Celebrating Wildflower'' 
        events on national forests.
  --The Forest Service and their partners held 3,985 aquatic education 
        events in 1997 that landed 274,000 people. Events included 
        National Fishing Week, Pathways to Fishing clinics and 
        classroom talks.
  --Under Recreation Fee Demonstration Pilot program, in 1997 a fee of 
        $36 was charged to view Brown Bears at Pack Creek on Admiralty 
        Island National Monument, Alaska. The new fee raised $37,990 
        for this limited access site and did not effect visitation 
        since site saw an 11 percent increase in use over last year. 
        The revenue generated will cover the cost of implementing the 
        fee program and allow the additional dollars to be used to pay 
        for site expenses.
    Any increases in funding will be used for habitat improvements and 
restoration, development of new hunting, fishing and viewing 
opportunities, and expansion of existing opportunities.
    Question 279. Your proposal to place a moratorium on road 
construction in most roadless areas has been highly controversial, 
among industry and environmental groups. Given this controversy, why 
have you placed so much emphasis on making changes to the way in which 
you manage the National Forest road system?
    Answer. Our proposal to suspend temporarily road construction in 
roadless areas is a matter of accountability to the American taxpayers. 
It is designed to give us time to develop new scientific tools that our 
managers can use to make more informed local decisions about when, and 
if, to construct new roads.
    Question 280. Now that you have your natural resource policy on 
track, how long will it take to straighten out several years of fiscal 
chaos, civil rights neglect, and uncertainty about natural resources 
policy? What can this Committee do to help?
    Answer.
    Fiscal.--Resolution of financial management issues identified in 
recent audits of Forest Service annual financial statements are 
dependent upon several factors. Key Agency positions responsible for 
providing financial management leadership, i.e. the Chief Financial 
Officer and the Director of Financial Management, will be recruited 
within the next several months. In addition, the Agency has recently 
recruited and filled several other financial management positions which 
were vacant. These positions included the Agency's Assistant Director 
of Financial Management for Operations and the Agency's Assistant 
Director of Financial Management for Fiscal Policy and Analysis.
    Implementing the new USDA accounting system titled the Foundation 
Financial Information System (FFIS), will also be critical in resolving 
the Agency's financial management issues. This new system, working in 
conjunction with associated feeder systems such as those for payroll, 
travel and purchasing, will provide state-of-the-art technology for 
data entry, data retrieval, and report preparation. Pilot testing of 
FFIS is currently taking place in two Forest Service regions and a 
research station. This pilot stage of implementation began October 1, 
1997. Full implementation Agency-wide, with a software version that is 
year 2000 compliant, is scheduled for October 1, 1999.
    Civil rights.--The Forest Service's number one challenge in Civil 
Rights has been to resolve the 425 complaints identified in the Civil 
Rights Action Team Report issued in February 1997. To resolve the 
complaint backlog , the agency proposed a special initiative in 
partnership with the Acting Assistant Secretary for Administration, 
USDA.
    Currently, there are 167 unresolved complaints.
    By the end of fiscal year 1998, we hope to see improved success in 
the area of EEO complaints because of a greater emphasis on 
preventative programs such as Early Intervention and Mediation, and 
work environment action plans developed as a result of the Continuous 
Improvement Program (all-employee survey). These programs, combined 
with new accountability systems, will work to foster an environment 
where employees and managers are free to discuss concerns openly and 
take appropriate steps to resolve complaints.
    Natural resources.--The Natural Resource Agenda will help to 
resolve uncertainties about where the Forest Service will focus its 
priorities with regards to developing programs, budgets, and actions to 
address these critical areas. These priorities include watershed 
restoration and maintenance, sustainable forest ecosystem management, 
forest roads, and recreation.
    The committee can help by supporting the President's Budget 
proposal which proposes more than $120 million in new spending on 
watershed protection and restoration. This will allow for an increase 
in stream and streamside restoration by 40 percent, habitat restoration 
for threatened, endangered, and sensitive species by 30 percent, and 
abandoned mine reclamation by 50 percent.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid
                          rangeland management
    Question 281. The fiscal year 1999 Forest Service has asked for a 
large increase in its range management funding. How does the Forest 
Service plan on using these funds? What kind of assurances will the 
agency provide that the funds will be used on the ground to fund 
project work?
    Answer. Almost all of the $20.3 million increase is in the 
Rangeland Vegetation Management portion of the budget. $16 million of 
the increase is provided under the President's Clean Water and 
Watershed Restoration Initiative. These funds will allow the Forest 
Service, in partnership with other USDA and Interior agencies, to begin 
the first year of a multi-year cooperative effort to address both the 
status and the restoration of rangelands. The Initiative will focus on 
rangeland restoration, classification of range types, assessment of 
current range conditions, and provide for monitoring for the 
effectiveness of restoration practices and management modifications. 
These efforts will enable significant progress in NEPA analyses of 
grazing allotments required under the 1995 Rescission Act. The 
remaining funds would be used primarily to restore range vegetation 
through non-structural improvements. Much of the work described above 
supports the objectives of the President's Clean Water Action Plan, and 
is on-the-ground project oriented.
    Question 282. The Rescissions Act of 1995 directed the Forest 
Service to complete NEPA on all allotments where NEPA is needed. What 
progress has the Agency made? Have decisions been implemented? If not, 
what steps is the Forest Service taking to implement these decisions?
    Answer. The Forest Service was required in the Rescissions Act of 
1995 to develop a schedule for NEPA analysis and management decisions 
on grazing allotments. The schedule was developed based upon performing 
NEPA analysis within a period of 15-years. The 15-year period was 
divided into 5 three year time blocks to make the process more 
manageable. A total of 2,516 analyses and decisions were planned for 
fiscal year 1996 through 1998. This is 37 percent of all the analyses 
needed in 15-years. By the end of fiscal year 1997, analyses and 
decisions were completed on 1,218 allotments. In fiscal year 1998, an 
additional 544 allotment NEPA analyses are underway for a total of 
1,752 or 70 percent of the analyses planned in the first time block. 
The Forest Service will be short of its goal of 2,516 allotments by 30 
percent or 754 allotments at the end of the first three year time 
block. While we have fallen short of our ambitious first three year 
schedule, the accomplishment of 1,752 NEPA decisions in three years 
represents a 400 percent or greater increase over the rate of decisions 
prior to the Rescissions Act. It also represents 25 percent of all the 
decisions needed in the 15-year schedule.
    The development and implementation of grazing management plans 
through NEPA needs input from range specialists, wildlife and fisheries 
biologists, soils scientists and many others to address the complicated 
effects of a livestock grazing program. This represents expanding 
workloads at a time when staff levels are limited or reduced; this has 
resulted in a growing backlog of NEPA analyses. Work on the remaining 
allotments will be shifted to future time blocks in the schedule. In 
the meantime, the highest priority analyses will be conducted first, so 
to achieve the greater impact as rapidly as possible.
    Question 283. How does the President's Clean Water and Watershed 
Restoration Initiative affect the livestock grazing program of the 
Forest Service? How does the agency plan to implement this initiative 
on its livestock grazing allotments?
    Answer. The Initiative will provide the funds necessary to make 
significant progress in implementing new NEPA decisions. Without this 
Initiative, only minimal rangeland restoration progress has been made 
by the implementation of new decisions through allotment management 
plans. The Initiative will provide us with the ability to adequately 
fund actions recommended in our decisions. Watershed restoration and 
riparian rehabilitations are important concerns of the public. This 
Initiative represents the opportunity to continue proper management in 
most areas and in some locations to just begin the implementation of 
effective management.
    Implementation will begin on allotments of most concern to FS range 
managers, those locations where insufficient livestock grazing 
management has resulted in less than desired conditions. Without 
restoration, livestock grazing will likely be reduced as resource 
conditions remain stagnant or decline.
    Question 284. The rangeland management program receives funding 
under two separate lines in the Forest Service budget. What is the 
difference between the two budget lines? Isn't the rangeland program 
simple enough so that a single funding line would cover all activities: 
How is the noxious weed program provided for?
    Answer. The Grazing Management line item provides for the 
continuation of permitted livestock grazing through the issuance and 
administration of term grazing permits and the application of sound 
management practices on grazing allotments.
    The Rangeland Vegetation Management line item provides for:
  --Managing rangeland vegetation to achieve conditions prescribed in 
        forest plans and refined in project decisions, and performing 
        monitoring to ensure conditions are maintained.
  --Developing non-structural improvements that contribute to 
        ecological objectives, provide for sustainable forage for 
        livestock and wildlife, improve soil stability, improve water 
        quality, and protect watersheds. Due to funding limitations, 
        structural improvements are primarily funded through the Range 
        Betterment Fund.
  --Providing for the protection, management and control of over 2,000 
        wild horses and burros on NFS lands. These activities are 
        coordinated with BLM.
  --Managing infestation of noxious weeds and preventing further 
        infestations through implementation of the Forest Service and 
        USDA noxious weeds strategies. The Forest Service fiscal year 
        1999 budget proposal provides $5 million for the noxious weeds 
        program--$4 million under the regular program and $1 million to 
        support implementation of the Interior Columbia Basin Ecosystem 
        Management Project under the Presiden'ts Clean Water and 
        Watershed Restoration Initiative.
    There is significant pressure on the Rangeland Management budget to 
conduct and implement NEPA analyses of grazing allotments required 
under the 1995 Rescissions Act. Funds from both the Grazing Management 
and Rangeland Vegetation Management expanded budget line items are used 
to fund the work--and meet the 15 year schedule--required under the 
Rescissions Act. Funds under the Rangeland Vegetation Management enable 
data collection and ecological analysis to support NEPA analyses, 
however the subsequent NEPA documentation and public involvement work 
is performed with Grazing Management funds. Further, both expanded 
budget line items fund work to carry out final NEPA decisions--grazing 
administration, range improvements, and monitoring. Thus, the budget 
structure separates into two funding activities what should, from a 
management standpoint, be logically be viewed as one activity. This is 
a significant structural issue because much of the Rangeland Management 
budget is focused on meeting the requirements of the 1995 Rescission 
Act, and because limited funding under one expanded line item could 
prevent NEPA work from being accomplished that would not be the case if 
the two line items were merged. The Forest Service supports changes to 
its budget structure that provide more flexibility to and 
accountability by managers on the ground to address resource management 
needs. Merging these two expanded budget line items would accomplish 
this objective.

                         conclusion of hearings

    Senator Gorton. Thank you very much, that concludes our 
hearings, the subcommittee will stand in recess awaiting the 
call of the Chair.
    [Whereupon, at 1:08 p.m., Thursday, April 23, the hearings 
were concluded and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 1999

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]
                       DEPARTMENT OF THE INTERIOR
   Prepared Statement of R. Dean Tice, Executive Director, National 
                    Recreation and Park Association
    Mr. Chairman: The National Recreation and Park Association commends 
the Subcommittee for its fiscal year 1998 actions which set aside $100 
million from the Land and Water Conservation Fund for state assistance. 
We share your disappointment in the results of conference negotiations 
with the House. We are also concerned with the decision to use a 
portion of the LWCF appropriation for operations and maintenance of 
federal land systems. The decision to use a portion of the $699 
``reserve'' to address operations and maintenance could create a 
pattern which threatens future use of LWCF funds for their intended 
purpose: to aid the acquisition of land and water resources at 
strategically important places and to develop and enhance of the 
capacity and quality of state and local recreation sites and resources.
    We urge the Subcommittee to consider the following for fiscal year 
1999:
  --A significant, sustained increase in public investment from the 
        Land and Water Conservation Fund, including an appropriation of 
        not less than $200,000,000 to restore the state assistance 
        program as a catalyst for efficient reinvestment of public 
        resources where they are most needed.
  --At least $25 million for the Urban Park and Recreation Recovery 
        Program to aid and encourage restoration of the most distressed 
        urban park systems and to stimulate innovation in recreation 
        services.
  --Amounts sufficient to enable the National Park Service to increase 
        its capacity for technical assistance to local and state 
        governments--including the conservation of decommissioned 
        military installations for recreation and resource 
        conservation, and to aid others in conserving and making 
        publicly accessible rivers and trails and other recreation 
        resources.
    We believe these recommendations are well within the nation's 
fiscal capacity to address and urge the Subcommittee to make every 
effort to respond. We also believe that the partnerships encouraged by 
these investments have the high probability of containing federal costs 
over time.
                            why invest now?
    There is a growing imperative to return a greater proportion of 
public fiscal resources--principally Outer Continental Shelf revenues--
to the American people for public recreation and parks. This imperative 
is both social and physical, and will increasingly be influenced by the 
changing demographics of the American people.
    In a social context, prudent investment in public recreation 
resources and services addresses some of the most obvious challenges of 
the day. We are largely a sedentary nation, for example, and while 
overweight young people can avoid the resulting health risks, as they 
age their health typically declines while health costs escalate. As the 
``boomers'' move ever closer to retirement age the present $1 trillion 
per year national cost of health care may seem like a good deal. 
Further, as the nation ages and its ethnic composition changes, so, 
too, will the very nature of recreation demand. This subcommittee and 
others should initiate specific inquiries to examine the conditions 
which will influence longer term (at least to the year 2025) recreation 
demand and necessary public responses.
    At the other end of the age spectrum, we spend large sums of public 
resources to address conditions which influence the life of the 
nation's youth. While the vast majority of young America avoids serious 
negative antisocial or criminal activity, many end up costing society 
about $30,000 each per year through the juvenile justice system.
    The actions of this Subcommittee directly impact the ``quality of 
life'' for millions of people. In defense of reduced investments in 
public parks and recreation, some urge that we reduce spending first to 
not burden posterity with a debt accumulated by this generation. 
Certainly we must make prudent investments. But if we do not adequately 
invest today in recreation and park resources and services we burden 
our children and their children with a deficit of opportunity, and a 
legacy of diminished health and wellness and environmental quality.
    The Congress need only examine proposals by the Administration and 
scores of members of the 105th Congress to put our recommendations in 
fiscal context. Among proposals:
  --A budget request of $1,000,000,000 ($200 million a year for 5 
        years) to increase spending on after-school activities, 
        including recreation services, through the U.S. Department of 
        Education's 21st Century Schools Program.
  --An element of S. 10, the proposed Violent and Repeat Juvenile 
        Offender Act, now pending in the Senate includes a $500,000,000 
        per year ``prevention'' block grant, notwithstanding that up to 
        60 percent of it will likely be reserved for activities which 
        differ from most perceptions of ``prevention,'' that is, 
        actions which prevent crime before it occurs.
  --Reauthorization of the Older Americans Act, including findings and 
        policy which recognize that older adults can often stay healthy 
        with moderate physical activity, including walking.
  --A request in excess of $550,000,000 per year for the federal 
        Community Oriented Policing Services (COPS) program.
  --A proposal to eliminate federal disaster relief eligibility for 
        state and local park and recreation resources if they produce 
        any revenue.
              capital investments in parks and recreation
    It is inconceivable that we are prepared to take--or have already 
undertaken--so many costly actions, which largely ignore the record of 
recreation as a mitigating factor in each area. Our recommendations 
also address known capital investment needs. In 1994, we surveyed 
nearly 500 local park and recreation agencies selected randomly 
nationwide to determine the needs, priorities and probable funding 
sources for capital investment for fiscal years 1995-1999. A similar 5-
year survey was completed in 1990, and we will initiate a third inquiry 
for the period 2000-2004.
    Local park and recreation agencies reported a total of $27.7 
billion in capital investment needs nationally for rehabilitation of 
public park and recreation facilities, land acquisition, and new 
construction. They expected to have less than half that amount 
available. While the total estimated need is down from $30.4 billion 
reported five years ago, the expected budget shortfall increased seven 
percent. New construction ranked highest with a total need of $13.6 
billion (49.9 percent) nationwide, with an average need per agency of 
over $3 million. Rehabilitation and restoration needs nationwide 
totaled $8.8 billion (32.3 percent). The average need per agency was 
just under $2.2 million, up from $1.8 million in the previous survey. 
Land acquisition needs through fee simple acquisition or non-title 
action totaled almost $5 billion (17.9 percent) nationwide.
                           why partnerships?
    The Land and Water Conservation Fund and the Urban Park and 
Recreation Recovery Program were conceived as fiscal and, in some 
circumstances, recreation resource partnerships. In a fiscal sense, it 
can be highly efficient to return national public resources to state 
and local decisionmakers to address perceived needs. Two well-
established parks illustrate the principle of shared conservation, 
recreation goals and savings.
    Assateague State Park, with over 750 acres in Worcester County, 
Maryland, clearly illustrates federal costs savings. It encompasses 
over 2 miles of Atlantic Ocean frontage, plus marshes and forests on 
Sinepuxent Bay. The state park and northern unit of the national 
seashore host about one-half million visits annually. The National 
Geographic Society's Traveler magazine in 1994 selected Assateague 
State Park as one of the 50 best state parks in America.
    Assateague State Park bears the major impact of visitors to the 
northern end of Assateague Island. It has about 350 developed campsites 
(compared to about 200 in the national seashore). It annually pays the 
salaries of 10 year around state employees--and some 40 more seasonal 
workers. Recent capital investments include an estimated $500,000 for 
an additional full service campground, and about $1,500,000 for the 
complete renovation of the park's central day use facility, including a 
contact station, board walk, showers, parking, change facilities and 
concessions. ``The coordination (between state and federal managers) of 
policy and operational matters works well,'' a senior Maryland Forest 
and Park Service official observed. ``If the state had not responded to 
public demand, then the (National Park Service) would be forced to,'' 
he added. What would be the cost in perpetuity to the federal 
government of development, maintenance, and management?
    Other Maryland forests and parks--Fort Frederick, Gathland and 
South Mountain state parks--help conserve the record of nationally 
significant actions or places.
    Indiana Dunes State Park, Indiana, represents another area where 
early and continuing state investment and management disperses user 
impacts and costs that would otherwise be borne by the federal 
government. Visitation to the state park in 1996-1997 was nearly 
800,000, the highest of all Indiana state parks; 42 percent were out-
of-state visitors.
    Indiana Dunes State Park was established in 1925, and is today 
comprised of about 2,200 acres of Lake Michigan shoreline and beach, 
dunes, woods, and marsh areas. 1,530 acres is dedicated as Dunes Nature 
Preserve. As early as 1916, there was a proposal to create a national 
conservation area at the Dunes. The park has scenic, natural and 
historic values. Donations from industrialists in the area and money 
from a tax levy paid for the park's acquisition. Because the land was 
in private ownership with many landowners, acquisition took several 
years to complete. The special features and activities of this park are 
the dunes, which contain some of the most unique flora and fauna in the 
Midwest, and swimming and hiking. On summer weekends, this state park 
receives maximum usage of the beach, picnic areas, and the campground, 
and campers are frequently turned away. Many of the activities 
available at Indiana Dunes State Park are also available at the 
neighboring national lakeshore.
    Similar to Maryland, other Indiana state projects tend to lessen 
the pressure on federal resources. At Lincoln Boyhood National 
Memorial, for example, federal employees take advantage of a $3,000,000 
outdoor amphitheater in the state park.
    The National Recreation and Park Association shares your 
subcommittee's deep concern for the health and welfare of the American 
people and others who live within our borders.
    For these and other reasons, we urge the Subcommittee to consider 
fully our recommendations.
                                 ______
                                 
Prepared Statement of Daniel P. Beard, Senior Vice President, National 
                            Audubon Society
    Chairman Gorton and Members of the Subcommittee, on behalf of the 
National Audubon Society's more than 550,000 members, and over 500 
chapters in communities throughout the United States, I would like to 
thank you for the opportunity to submit this testimony on 1999 Interior 
Appropriations budget requests. Audubon's priorities for the 1999 
Department of Interior budget are focused on programs that protect 
birds, other wildlife and their habitats for the benefit of all 
Americans. America's public land and wildlife resources belong to all 
Americans. This priceless natural heritage will be lost without 
adequate funding for the staff and other resources that ensure proper 
stewardship.
    We hope that the fiscal year 1999 Interior Appropriations Act will 
repeat last year's historic funding levels for several programs that we 
all care so deeply about. With the strong leadership of this 
Subcommittee we can also increase funding levels for other programs as 
well.
Land and Water Conservation Fund
    We applaud the Committee for approving last year's historic $969 
million LWCF allocation. The LWCF protects forests, wetlands, beaches 
and other open spaces for the protection of wildlife and the enjoyment 
of future generations. In many cases, direct fee acquisition from 
willing private sellers, facilitated by use of the LWCF, is the best 
way to accomplish long-term protection of priority lands. Purchase of 
inholdings within wildlife refuges and other federal lands may also 
result in long-term savings to the federal government because of 
reduced management costs. While the LWCF is authorized to receive $900 
million annually from Outer Continental Shelf (OCS) oil and gas leasing 
receipts, last year was the first time it achieved that level of 
funding in more than 15 years. The long-term diversion of funds from 
the LWCF has translated into lost opportunities to acquire lands of 
ecological, recreational and cultural significance for preservation for 
future generations of Americans.
    The LWCF state program provides funding for the conservation 
priorities of individual states. This matching grant program allows 
states to complete conservation projects at the local level and the 
matching requirement ensures that states and communities are fully 
committed to these projects. Eliminating the acquisition funding for 
state side projects in fiscal year 1996 interrupted ongoing state 
projects.
    While the President's $270 million request for LWCF is 
significantly larger than last year's initial request, full allocation 
of the LWCF is needed on an annual basis to meet priority land 
conservation needs. It is expected that OCS mineral leasing royalties 
to the federal government will reach $3.2 billion in fiscal year 1999, 
an increase of $192 million over fiscal year 1998. We join the 
Americans for our Heritage and Recreation (AHR), of which the National 
Audubon Society is a member, in encouraging the Committee to take 
advantage of this substantial increase by allocating the full $900 
million. We further request the Subcommittee direct $200 million of the 
LWCF towards state grants. We have submitted our acquisition priority 
list separately.
Everglades
    For Everglades restoration programs, the President has requested 
$144 million in funding for the Department of the Interior. We strongly 
urge the Subcommittee to support the President's Everglades restoration 
budget.
    The most important component of the budget is the $81 million 
requested for National Park Service's land acquisition account. It is 
our understanding that the allocation of this portion of the budget 
request has been amended by the Administration so that Everglades 
National Park would receive $40 million; the East Coast Buffer would 
receive $38 million; and Big Cypress National Preserve would receive $3 
million. This would provide the National Park Service with sufficient 
funds to complete acquisitions in the East Everglades Expansion Area, 
which Congress authorized in 1990; however, unless a more expedited 
process is created completion of the Park will not occur until 2008 or 
2009.
    As you know, one of the most important elements of Everglades 
restoration is land acquisition for water storage purposes. A National 
Audubon Society report concludes that there is an immediate need to 
acquire 75,000 acres for water storage in the Everglades Agricultural 
Area (EAA). We are very encouraged by the Vice President's announcement 
on December 6th of the ``Agreement in Concept'' to acquire the Talisman 
properties, which are located in the EAA. The 75,000 acres we 
recommended could be approached if the federal government used the 
remainder of the funds provided under the 1996 farm bill to close on 
the Talisman properties, and then prudently swapped its non-contiguous 
parcels and consolidated the contiguous block in the southern 
Everglades Agricultural Area. We urge the Subcommittee to monitor this 
situation closely to ensure that the federal investment is protected.
National Wildlife Refuge System
    The National Audubon Society expresses its thanks to the Committee 
for approving an unprecedented $41 million increase in Refuge System 
operations and maintenance (O&M) funding in fiscal year 1998. These 
additional funds will make it possible for refuge managers to begin 
digging themselves out from under the backlog of operations and 
maintenance needs that have hindered their ability to provide optimal 
management of refuges.
    In 1993, Interior's Inspector General issued a report that 
documented a $323 million backlog in maintenance projects. This figure 
has grown to $599 million, jeopardizing the integrity of the entire 
Refuge System. The President's budget proposes $246 million for O&M, 
including implementation of the newly enacted ``National Wildlife 
Refuge Improvement Act,'' the development of comprehensive conservation 
plans and addressing the backlog of O&M projects. As a member of the 
Cooperative Alliance for Refuge Enhancement (CARE), National Audubon 
supports the objective of incrementally increasing O&M funds for the 
Refuge System over the next five years (as outlined in CARE testimony 
prepared by the National Wildlife Refuge Association). While the CARE 
proposal will not meet optimum funding levels, it will go a long way 
toward meeting the bird and wildlife conservation objectives that we 
support for the System.
    We also wish to point out that while operations and maintenance 
allocations are equally important, it is important to note that the 
Refuge System carries out its regularly scheduled annual maintenance 
projects through its operations budget. Therefore, ensuring sufficient 
funding of refuge operations will aid in reducing growth of the overall 
maintenance backlog.
    Last year's increase represents an important first step, and we are 
hopeful the Committee will continue to provide adequate increases in 
future years as we count down to the System's Centennial in 2003. For 
fiscal year 1999, we support a funding level of $277 million for Refuge 
Operations and Maintenance.
Forest Service
    We oppose funding for construction of more logging roads, whether 
by direct appropriation, or through the device of ``purchaser 
credits.'' Road building is one of the most environmentally destructive 
of all Forest Service activities. The President's proposal to 
discontinue timber purchaser credits and shift the cost of road 
building to become a direct cost does not adequately address the issue. 
Taxpayers would still be forced to subsidize additional and unnecessary 
road building.
    We support the Forest Service's request of $107 million for Road 
Maintenance and the dismantling of 3,500 miles of roads. This money 
would be spent in a prioritized manner on road dismantling and 
maintenance of existing roads which will not be removed, but contribute 
sediment into streams and threaten them with road blow-outs and 
mudslides.
    We support the President's proposal to reform Forest Service 
Payments to States by ``de-coupling'' them from timber sales. Currently 
Forest Service Payments to States ``in lieu of tax'' are made at a 
level commensurate with timber sales in the state. This system creates 
a perverse incentive to log in order to support educational and roads 
programs. The Forest Service's proposal would stabilize these payments 
so they are not directly dependent on the amount of trees cut, 
eliminating the perverse incentive to log.
    We support increased funding for the Forest Legacy Program. This 
program protects prime forest habitat while addressing the needs of 
forest landowners. Currently it only functions effectively in select 
states. Additional funding will allow it to be expanded to more parts 
of the country.
    An environmental assessment should be prepared prior to 
reconstruction of forest roads with Emergency Relief for Federally-
Owned Roads (ERFO) funds except when emergency reconstruction is 
necessary to protect life or provide access to inholdings. ERFO funds 
should only be available for roads that have been open to recreational 
and general forest users for at least six months of the year for the 
past five years.
Endangered Species Programs
    Audubon fully supports the President's 1999 budget request for the 
Fish and Wildlife Service's endangered species program of $113 million, 
nearly a $36 million increase over fiscal year 1998 levels. We believe 
that this increase is long overdue and necessary to properly implement 
many of the administrative reforms instituted in recent years by the 
Fish and Wildlife Service, which have resulted in a substantial 
increase in that agency's workload.
    The President's request includes increased funding for the Fish and 
Wildlife Service consultation budget, which covers both Section 7 
consultations and the rapidly expanding Habitat Conservation Plan (HCP) 
program. In 1992, the federal government had approved fewer than one 
dozen HCP's; to date they have approved 225 plans, with another 200 
under development. The federal government has an obligation to review 
and approve all HCP's, to monitor and enforce plans once they are 
approved, and to respond in the event that unforeseen circumstances 
require modification of plans. This long overdue increase is needed to 
fulfill these obligations and process the rapidly increasing number of 
HCP's.
    The President's budget also includes a substantial increase in the 
Service's recovery budget, which will fund increased on-the-ground 
recovery efforts, greater involvement of stakeholders in the recovery 
planning process, expansion of the Safe Harbor program, and the 
delisting of species. The budget also includes a small but necessary 
increase in the listing budget, and a $5 million pilot project that 
will offer incentives to landowners who take proactive steps to 
conserve and manage endangered and threatened species habitat.
Preservation of Migratory Birds
    In the United States more than 65 million people identify 
themselves as birdwatchers, contributing more than $20 billion annually 
to the U.S. economy. Yet year after year the U.S. government fails to 
sufficiently fund programs that protect nongame birds, despite the fact 
that it makes good economic sense. Moreover, in conjunction with 
Partners in Flight, Audubon recently published the WatchList; which 
contains more than 120 bird species, primarily nongame, that are in 
decline. Funding for the conservation of these birds today will halt 
their decline and preclude the need for expensive emergency measures 
later to prevent their extinction. In recognition of the economic and 
environmental importance of this natural resource, we urge you to fully 
fund the following programs.
    The Office of Migratory Bird Management (OMBM) provides scientific 
information and management advice on migratory birds to federal land 
managers. We believe that the President's budget request of $18.675 
million for this key program is inadequate to meet current needs and we 
urge Congress to increase funding for this program by $10 million. The 
OMBM has simply been unable to comply with federal statutory 
requirements to protect nongame migratory birds. Without proper 
funding, the FWS cannot maintain its trust responsibilities to protect 
all 780 species of nongame birds, many of which play a critical and 
invaluable role in the economies of the U.S. and parts of the Western 
Hemisphere. Additional funding would enable OMBM (1) to monitor the 
status of our nongame birds; (2) to implement conservation plans that 
being developed under the auspices of the Partners in Flight program; 
(3) to provide technical assistance to our National Wildlife Refuges, 
other federal agencies, and private sector partnership groups; (4) to 
provide educational and recreational opportunities to some of the 65 
million people who actively feed and watch birds.
    National Audubon Society would also like the Congress to direct the 
FWS to fully participate in the development and implementation of a 
North American Plan for Birds. Currently, only a handful of game 
species receive adequate funding for monitoring and habitat restoration 
and acquisition, notwithstanding the fact that nongame bird enthusiasts 
contribute billions to our economy. The development of such a plan, 
similar to the North American Waterfowl Management Plan, would greatly 
facilitate the protection of these birds species.
    We also support the activities of the U.S. Fish and Wildlife 
Service Western Hemisphere Program, which trains protected area 
managers in Latin America and makes small matching grants for education 
and grassroots conservation. This is one of the few U.S. programs that 
benefits North American birds on their wintering grounds in Latin 
America. Audubon urges Congress to support an increase of $1 million 
for funding this important program.
Biological Resources Division/USGS
    National Audubon urges Congress to increase funding for the 
Biological Resources Division of the United States Geological Service 
(BRD). BRD provides sound, unbiased scientific information to federal 
agencies, state and local governments, private industry and the public, 
which in turn use this information to make informed natural resource 
and land management decisions. To ensure the future of these vital 
programs, the President's request of $158 million should be increased 
to $175 million. We urge Congress to include an earmark of $1 million 
for research on the impacts of commercial fishing on seabirds.
National Fish and Wildlife Foundation
    The National Audubon Society supports the Administration's request 
of $6 million for the National Fish and Wildlife Foundation. The 
Foundation leverages its federal appropriations through the use of 
challenge grants. These appropriations will fund the implementation of 
the Partners in Flight North American Bird conservation strategy.
    national audubon society's lwcf priorities for fiscal year 1999
Federal Projects
            U.S. Fish and Wildlife Service
    Balcones Canyonlands NWR, TX; Bayou Savage NWR, LA; Big Muddy NWR, 
MO; Black River NWR, WA; Cabo Rojo NWR, PR; Canaan Valley NWR, WV; 
Chincoteague NWR, VA; Ding Darling NWR, FL; Don Edwards San Francisco 
Bay NWR, CA; Eagle Lakes NWR, WA; Edwin B. Forsythe NWR, NJ; Grand 
Kankakee Marsh NWR, IL-IN; Great White Heron NWR, FL; John Heinz NWR, 
PA; Key Cave NWR, AL; Klamath Forest NWR, OR; Lake Wales Ridge NWR, FL; 
Lower Rio Grande Valley NWR, TX; Marin Baylands, San Pablo Bay NWR 
Complex, CA; Montezuma NWR, NY; National Key Deer NWR, FL; Northwest 
Montana Wetlands Management District, MT; Ottawa NWR, OH; Palmyra Atoll 
NWR, U.S. Territory; Patoka River NWR, IN; Pelican Island NWR, FL; Red 
Rock Lakes NWR, MT; St. Marks NWR, FL; San Diego NWR, CA; Silvio O. 
Conte NF&WR, CT-MA-NH-VT; Stewart B. McKinney NWR, CT; Stone Lakes NWR, 
CA; Tualatin River NWR, OR; Waccamaw NWR, SC; Wallkill River NWR, NJ; 
Wertheim NWR, NY; Whittlesey Creek NF&WR, WI.
            National Park Service
    Big Cypress National Preserve, FL; Elwha and Glines Canyon Dams, 
Olympic NP, WA; Everglades NP, FL; Everlades East Coast Buffer, FL; 
Jean Lafitte National Historic Park and Preserve, LA.
            Bureau of Land Management
    La Cienga Area of Critical Environmental Concern, NM.
            U.S. Forest Service
    Baca Ranch, Santa Fe NF, NM; Brown Mining Claim, Kalmiopsis 
Wilderness, Siskiyou NF, OR; Columbia River Gorge National Scenic Area, 
WA-OR; Lindbergh Lake, Flathead NF, MT; Pinhook Swamp, Osceola NF, FL; 
San Bernardino NF, CA; White Salmon/Klickitat National Wild and Scenic 
River, Gifford Pinchot NF, WA.
State Projects
    Champion Property, Adirondack Park, NY; Fanita Ranch, CA Mines of 
Spain, IA; Moosic Mountain, PA; San Dieguito River Valley Park, CA; 
Santa Maria River Valley, CA; Rodman Ranch and Slough, CA; Whitney 
Property, Adirondack Park, NY.
                                 ______
                                 
Prepared Statement of Gary Werner, Chair, Partnership for the National 
                             Trails System
    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates the support you have given over 
the past several years, through operations funding and earmarked 
Challenge Cost Share funds, for the national scenic and historic trails 
administered by the National Park Service. We also appreciate the 
allocation of funds for fiscal year 1998 to directly support the trails 
administered and managed by the Forest Service and Bureau of Land 
Management. To maintain the momentum of progress that you have fostered 
the Partnership requests that annual base operations funding be 
provided for each of the 20 national scenic and national historic 
trails for fiscal year 1999 through these appropriations:
  --National Park Service--$5.20 million for the administration of 15 
        trails and for coordination of the long-distance trails program 
        by the Washington Park Service office.
  --USDA Forest Service--$2.25 million to administer four trails and 
        $550,000 for portions of 10 trails managed through agreements 
        with the Park Service and Bureau of Land Management.
  --Bureau of Land Management--$160,000 for administration of the 
        Iditarod National Historic Trail and $1.20 million for the 
        portions of 10 other trails managed through agreements with the 
        National Park Service and Forest Service.
    We ask that you continue to earmark one-third (approximately 
$600,000) of National Park Service Challenge Cost Share funds for the 
15 national scenic and historic trails it administers.
    We ask that you appropriate $15.1 million from the Land and Water 
Conservation Fund fiscal year 1998 Supplemental Appropriation for 
acquisition of lands by the National Park Service and United States 
Forest Service to protect the scenic quality of the Appalachian 
National Scenic Trail.
    We also ask that you appropriate from the Land and Water 
Conservation Fund $1 million to the State of Wisconsin to match state 
funds available for acquisition of land for the Ice Age National Scenic 
Trail, $1 million to the State of Florida to match state funds 
available for acquisition of land for the Florida National Scenic Trail 
and $250,000 each to the states of Michigan and New York to match funds 
available for acquisition of lands for the North Country National 
Scenic Trail.
    The $5.2 million we request for the National Park Service will 
finally provide significant operational support for 8 of the trails 
that have received little funding. Annual operations funding for the 
Anza, Trail of Tears, Overmountain Victory, Natchez Trace, California, 
Mormon Pioneer, Pony Express and Potomac Heritage Trails ranges from 
$0.00 to $78,000 and averages about $46,000, barely enough money to pay 
for a federal trail coordinator with little left for projects that 
nurture the trail. The additional funds we request will provide the 
first operations money for the Potomac Heritage Trail to support trail 
planning and development projects with local organizations and 
agencies.
    Similarly, the added funding will enable real progress to be made 
in marking and interpreting sites along the Juan Bautista de Anza Trail 
right through the heart of California's largest communities, mobilizing 
local citizen groups and government agencies. There is also much work 
to be done, supported by this funding, to inventory, map and interpret 
the many important cultural heritage sites along the several strands of 
the Trail of Tears. The Trail of Tears Association, Cherokee Nation and 
the other displaced tribes are anxious to get on with the work of 
documenting their heritage in partnership with the Park Service when it 
has sufficient resources to do the job.
    Along the Natchez Trace Parkway and in the southern Appalachian 
mountains strands of the Natchez Trace and Overmountain Victory Trails 
are being patiently knit together by small dedicated organizations so 
that someday hikers will be able to retrace the steps of citizen 
soldiers of the Revolutionary War and returning Mississippi River 
boatmen of the last century. The additional funding we request will 
quicken the pace of these efforts by strengthening the capacity for 
planning and organizing trail making projects.
    The additional funding will also better enable the Park Service to 
support the innovative interagency Salt Lake City Trails office, a cost 
effective partnership enabling sharing of resources with the Bureau of 
Land Management and the Forest Service to cooperatively manage four 
national historic trails that cover 10,000 miles and extend across 12 
states. The completion of the new Comprehensive Plan for the trails and 
the 150th anniversary of the California gold rush in 1999 has 
heightened interest in the many strands of the Oregon and California 
Trails. There will be many opportunities to celebrate and interpret the 
heritage of these trails in partnerships with state and local 
historical societies if there is adequate funding to do the necessary 
organizing.
    Looming just over the horizon with the coming new millennium is the 
Bicentennial of the Lewis & Clark Expedition. The Lewis & Clark Trail 
Bicentennial Council has been working for several years to guide the 
planning for this commemoration to minimize damage to irreplaceable 
resources and to maximize benefits for the Trail. The Bicentennial 
promises to be a large event with countless activities stretching 
nearly across the country. To guide this massive event to benefit the 
heritage of the Lewis & Clark, Nez Perce and the other trails of the 
National Trails System is an extraordinary undertaking requiring 
significant financial support. The Partnership's request includes a 
major increase in funding for planning and organizing activities, 
interpretation and protection of resources involved in the 
Bicentennial.
    All of these trails are amazingly complicated undertakings, none 
more so than the 4,000 mile long North Country Trail. With more than 
600 miles of Trail across 7 national forests in 5 states there is good 
reason for close collaboration between the Park Service and Forest 
Service to ensure consistent Trail management that provides high 
quality ``North Country'' experiences for hikers. Limited budgets for 
both agencies have severely hampered their ability to perfect this 
effective management procedure. The additional funding we request will 
give them that ability for the first time while also providing greater 
support for the trail building projects led by the North Country Trail 
Association, hastening the day when our nation's longest national 
scenic trail will be fully opened for use.
    It is equally important that the national scenic and national 
historic trails administered or managed by the United States Forest 
Service and the Bureau of Land Management receive similar budgetary 
recognition as America's Congressionally designated premier trails. 
Annual operations funding for these trails distinct from the general 
recreation program appropriations for these two agencies is essential 
to insure that these trails receive appropriate priority in annual work 
plans.
    Recognizing the special responsibility for administering three 
national scenic trails and one national historic trail, the Chief of 
the Forest Service recommended that $1 million be used for those trails 
in fiscal year 1995. You directed funding to these trails for fiscal 
year 1998. Consistent operations funding should be provided annually 
for these trails and we ask you to appropriate $1.25 million as a 
separate budgetary item specifically for the Continental Divide, 
Florida and Pacific Crest National Scenic Trails and the Nez Perce 
National Historic Trail for fiscal year 1999. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 600 miles of the North Country 
Trail, and sections of the Ice Age, Lewis & Clark, California, 
Iditarod, and Overmountain Victory trails, we ask you to appropriate 
$550,000 specifically for these trails.
    Administration of four national trails, two more than 1,000 miles 
long and two over 2,000 miles long, each crossing many management 
jurisdictions, is a complex endeavor. Each of these long trails passes 
through tens or hundreds of thousands of acres of land with great 
variations in topography, plant, animal and human communities. Each 
trail encompasses cultural and natural resources requiring sensitive 
management. As management endeavors they are comparable in scale and 
needs to the national forests, yet the Forest Service does not 
administer them as distinct entities with annual reliable budgets. The 
Partnership believes these national trails should be administered as 
distinct entities with appropriate supervision by the Forest Service 
and asks that you provide the funding and direction to do so. Here are 
several examples of the projects awaiting along the national trails 
administered by the Forest Service.
    Two major gaps in the Florida National Scenic Trail are poised to 
be closed through patient negotiations led by the Forest Service and 
the Florida Trail Association. Trail can now be built across Eglin Air 
Force Base at the northern end and the Seminole Indian Reservation at 
the southern end, adding about 100 miles to the completed Florida 
Trail, if adequate funding is provided.
    Last summer the Continental Divide Trail Alliance, with major 
assistance from the Forest Service and funding support from the outdoor 
recreation industry, sponsored ``Uniting Along the Divide.'' During 
this two week long event hundreds of volunteers surveyed the entire 
3,200 mile route of the Continental Divide Trail to develop the first 
comprehensive assessment of the condition and construction and 
management needs for the Trail. They documented $10.3 million of 
construction projects needed to complete the Trail. To continue the 
funding, begun in fiscal year 1998, for this new trail construction we 
ask that you appropriate $1 million for projects along the Continental 
Divide Trail in fiscal year 1999.
    With critical Forest Service assistance the Pacific Crest Trail 
Association is growing and assuming greater responsibility for 
maintaining the western complement to the Appalachian Trail. The 
Pacific Crest Trail, an original component of the National Trails 
System, is complete from the Canadian to the Mexican border. However, 
like the Appalachian Trail, the Pacific Crest Trail is not entirely 
protected from disruption from end to end. The PCT crosses more than 
300 parcels of private land on narrow easements that are not 
conveniently cataloged so they can be effectively monitored and 
managed. The Pacific Crest Trail Association has secured a private 
foundation grant to work with the Forest Service to search out and 
catalog the legal documents and survey the ``on-the-ground'' condition 
of these easements as a baseline for future monitoring. This is a good 
example of essential work to protect the PCT accomplished through 
public/private partnership. The project will only be successful if it 
has sufficient funding and staffing from both partners.
    While the Bureau of Land Management has administrative authority 
for just the Iditarod National Historic Trail, it has on-the-ground 
management responsibility for 628 miles of two scenic trails and 3,590 
miles of eight historic trails administered by the National Park 
Service and U.S. Forest Service. However, the Bureau of Land Management 
budget does not reflect this responsibility; the agency receives no 
funding specifically for these trails. We ask that you appropriate 
$160,000 for fiscal year 1999 earmarked as a separate budgetary item 
for administration of the Iditarod National Historic Trail and 
$1,200,000 for management of the portions of the 10 other trails under 
the care of the Bureau of Land Management.
    The level of annual funding that we request is essential to support 
the public/private partnerships working to complete these trails. 
Attachment 3 details the specific funding requests.
    The land acquisition accomplished to protect the continuity and 
quality of the Appalachian Trail has been one of the most successful 
projects ever undertaken by the National Park Service and United States 
Forest Service. Today, only 35 miles remain unprotected of the 2,160 
mile Appalachian Trail. This far-sighted project to protect the most 
significant recreational resource in the eastern United States must be 
continued to successful completion and the Land and Water Conservation 
Fund which has made the land acquisition possible must be preserved and 
renewed.
    There are many important historical sites and critical stretches of 
the other national scenic and historic trails that remain unprotected 
and vulnerable to destruction or loss for public use. The Land and 
Water Conservation Fund must be available as one source of funds to 
help acquire these significant resources and protect the integrity and 
value of America's national scenic and historic trails. At least the 
annual funding applied to protecting the Appalachian Trail over the 
past 20 years should be used to protect critical resources of other 
national scenic and historic trails.
    The National Trails System Act encourages states to participate in 
the conservation of the resources and development of the national 
scenic and historic trails. Florida and Wisconsin have committed 
millions of dollars to help conserve the resources of the Florida and 
Ice Age National Scenic Trails, respectively. Michigan and New York 
have funding programs that can similarly help acquire lands for the 
North Country National Scenic Trail. All of these state resource 
protection programs are predicated on matching funds. The Partnership 
asks that you provide grants to these states from the Land and Water 
Conservation Fund to further assist and encourage their participation 
in stewardship of these components of the National Trails System.
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it. They combine 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, often resulting 
in a greater than equal match of funds.
    The commitment of the private trail organizations toward the 
success of these partnerships as the means for making these trails 
grows even as Congress' support for the trails has grown. In 1997 the 
trail organizations channeled over 435,000 hours of documented 
volunteer labor valued at more than $5,628,000 toward completion of the 
national scenic and national historic trails. In addition the various 
trail organizations also directly applied private sector contributions 
of $4,213,943 to benefit the trails. Additional in-kind and uncounted 
monetary contributions from thousands of volunteers and cooperating 
organizations would likely double this amount. These contributions are 
documented in Attachment 1.
    The earmarked Challenge Cost Share funds have significantly 
increased the activity along the trails administered by the National 
Park Service. In fiscal year 1997 $556,062 provided by Congress funded 
88 projects throughout the country with a total value of $1,949,069. 
The $1,393,007 provided by trail organizations and state and local 
government agencies to support these projects represents a 2.5:1 match 
to the Federal investment. The array of projects that have been 
completed with this funding is detailed in Attachment 2. For every 
trail project funded there is another awaiting funding.
    The Challenge Cost Share approach is one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Challenge Cost Share programs should be funded as generously as 
possible as a wise investment of public money that will generate public 
benefits many times greater than the appropriation made. Directing a 
portion of those funds specifically toward the national scenic and 
historic trails will continue the steady progress underway to make 
these trails fully available for public enjoyment.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 1997 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimated
                                                                     Volunteer       value of        Financial
                          Organization                                 hours         volunteer     contributions
                                                                                       labor
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference....................................         160,850      $2,091,050  \1\ $2,425,000
Continental Divide Trail Society................................       \1\ 1,500          19,500  ..............
Continental Divide Trail Alliance...............................          18,800         265,630         217,370
Florida Trail Association.......................................      \1\ 40,000         440,000         138,000
Ice Age Park and Trail Foundation...............................          50,687         658,931         261,861
Iditarod Trail Committee........................................      \1\ 12,900         206,400      \1\ 70,000
Heritage Trails/Amigos De Anza Juan Bautista De Anza Trail......       \1\ 6,800          95,200  ..............
Lewis & Clark Trail Heritage Foundation.........................          11,763         180,459         166,004
Mormon Trails Association.......................................           4,200          58,800          30,000
Iowa Mormon Trails Association..................................           4,360          61,040          32,000
Natchez Trace Trail Conference..................................           1,919          26,886          29,000
National Pony Express Association...............................           1,602          20,826          15,790
Nez Perce Trail Foundation......................................       \1\ 3,000          39,000  ..............
North Country Trail Association.................................          17,440         212,306          53,877
Oregon-California Trails Association............................          28,376         397,264         172,796
Overmountain Victory Trail Association..........................           4,400          48,708             500
Pacific Crest Trail Association.................................          41,600         499,200         120,967
Santa Fe Trail Association......................................      \1\ 16,300         195,000          71,500
Trail of Tears Association......................................          11,822         165,508           9,139
Trail of Tears Advisory Council.................................         \1\ 380           5,320  ..............
                                                                 -----------------------------------------------
      Totals....................................................         439,299       5,686,028       4,243,943
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.

 Attachment 2.--National Park Service Challenge Cost Share Projects on 
                the National Scenic and Historic Trails
    During fiscal year 1997 88 projects valued at $1,949,069 were 
completed in support of the National Trails System trails administered 
by the National Park Service. These include:
  --Trail design and construction: on the North Country, Appalachian, 
        Ice Age, Iditarod, and Natchez Trace Trails; preparation of 
        bridge construction manual for the Appalachian Trail;
  --Trail heads and parking facilities: 10 on the Ice Age Trail;
  --Bridges, boardwalks and shelters constructed: bridges on the Ice 
        Age, Natchez Trace, North Country and Potomac Heritage Trails; 
        boardwalks on Ice Age and North Country Trails; shelters on the 
        North Country, Appalachian and Ice Age Trails;
  --Trail mapping and marking: mapping of the 10 branches of the 
        California Trail and the Applegate Trail in California, of the 
        North Country Trail in Michigan and the Oregon Trail in Idaho 
        and Oregon; route research for the Trail of Tears; trail 
        marking on the western end of the Iditarod Trail, the Mormon 
        Pioneer Trail in western Wyoming, North Country Trail highway 
        crossings in Michigan and New York, the Mormon Pioneer, Oregon 
        and Pony Express Trails across Utah, and the Santa Fe Trail;
  --Interpretive signing installed: on the Anza Trail in Los Angeles 
        and the East Bay Region, and wayside exhibits: 14 in Oregon, 
        and 13 across South Dakota for the Lewis & Clark Trail, for the 
        Mormon Pioneer Trail, North Country Trail in Michigan, Oregon 
        Trail at the Columbia River Terminus, 3 for the Santa Fe Trail 
        in Kansas and others in Missouri, New Mexico and Oklahoma and 
        along the Trail of Tears in Kentucky and Tennessee;
  --Exhibits and brochures developed: museum exhibits for the Trail of 
        Tears and the Santa Fe Trail Center in Kansas, and at the end 
        of the Pony Express Trail in California; brochures for the 
        Lewis & Clark, Mormon Pioneer, and North Country Trails;
  --Natural resource management/Landscape restorations: prairie/
        grassland restorations on the Ice Age Trail with Dane County 
        Parks Department and at the National Frontier Trails Center; 
        natural heritage inventory along the Appalachian Trail through 
        Massachusetts; preparation of land management handbook for the 
        Appalachian Trail;
  --Archeology: on the Santa Fe Trail in Bent County, Colorado;
    Funding also supported interpretive program development and work 
safety training programs for volunteers along the Appalachian Trail, a 
course for teachers about Indian-White relations along the Oregon Trail 
in Idaho, and a Spanish translation of an interpretive booklet for the 
Anza Trail.

        ATTACHMENT 3.--PARTNERSHIP FISCAL YEAR 1999 APPROPRIATIONS REQUEST FOR THE NATIONAL TRAILS SYSTEM
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year      Project/programs possible with increased
          Agency/trail             1998 approp.    1999 request                       funding
----------------------------------------------------------------------------------------------------------------
NPS:
    Appalachian.................        $871,000        $877,000  ..............................................
    Natchez Trace...............          26,000         151,000  Planning, guidance and support for trail
                                                                   development projects with NTTC.
    California..................          61,000         361,000  Comprehensive Plan implementation: trail
                                                                   brochure, markers and interpretive waysides;
                                                                   Sesquicentennial wagon train and other
                                                                   activities with OCTA.
    Ice Age.....................         325,000         331,000  ..............................................
    Juan Bautista de Anza.......          67,000         217,000  Guidance and coordination of Trail site
                                                                   protection, interpretation and development
                                                                   projects with local agencies and
                                                                   organizations.
    Lewis & Clark...............         399,000       1,174,000  Planning, coordination and support for local
                                                                   Bicentennial projects.
    Mormon Pioneer..............          78,000         178,000  Coordinate interpretive exhibits and route
                                                                   marking with 12 states for 4 trails.
    North Country...............         226,000         376,000  Closer collaboration with National Forests to
                                                                   strengthen management consistency; Trail
                                                                   route planning; Support for NCTA trailmaking
                                                                   projects.
    Oregon......................         103,000         250,000  Interagency collaboration to protect and
                                                                   interpret critical sites like South Pass.
    Overmountain Victory........          36,000         136,000  Stronger coordination of projects with OVTA;
                                                                   new route signs.
    Pony Express................          61,000         201,000  Implementation of Comprehensive Plan: support
                                                                   for GIS database, site inventories,
                                                                   certification and interpretation with NPEA
                                                                   and local agencies.
    Potomac Heritage............  ..............         150,000  Coordination of trailmaking projects with
                                                                   organizations and local agencies.
    Santa Fe....................     \1\ 460,000         469,000  ..............................................
    Selma to Montgomery.........         100,000         140,000  Coordination with citizen support
                                                                   organizations and local agencies.
    Trail of Tears..............          42,000         192,000  Survey, protection and interpretation of
                                                                   critical Trail sites with TOTA.
                                 --------------------------------
      Total National Trails
       System...................       3,068,000       5,203,000
                                 ================================
BLM:
    Iditarod....................         100,000         160,000  Coordination and support for collaborative
                                                                   management with other Federal agencies,
                                                                   Iditarod Trail organizations and State of
                                                                   Alaska.
    CDT, PCT, CAT, JBAT, L&CT,           300,000       1,200,000  Support for on-the-ground projects for BLM
     MPT, NPT, OT, PXT, SFT.                                       managed trail segments; California Trail
                                                                   Sesquicentennial projects and events; Lewis &
                                                                   Clark Bicentennial preparations; Support for
                                                                   Oregon Trail interpretive center.
                                 --------------------------------
        Total...................         400,000       1,360,000
                                 ================================
USDA-FS:
    CDT, FT, PCT, NPT...........         900,000       1,250,000  Assumption of full administrative
                                                                   responsibility and leadership for consistent
                                                                   interagency collaboration for each trail;
                                                                   support for ongoing, consistent management
                                                                   with trail organization and local agency
                                                                   partners; trail brochures, signs, project
                                                                   planning etc.
    AT, NCT, IAT, IDT, CAT,              300,000         550,000  Support for on-the-ground projects for trail
     L&CT, OT, OVT, PXT, SFT.                                      segments in National Forests.
    Continental Divide..........     \2\ 750,000   \3\ 1,000,000  Trail construction projects along the
                                                                   Continental Divide Trail.
                                 --------------------------------
      Total.....................       1,950,000       2,800,000
                                 ================================
LWCF grants Appalachian Trail...       7,200,000  \4\ 15,000,000  Complete protection of Appalachian Trail end-
                                                                   to-end.
LWCF grant Florida Trail--        ..............       1,000,000  Provide assistance to State of Florida to
 Florida.                                                          protect threatened FT corridor and connect
                                                                   trail segments across private land.
LWCF grant Ice Age Trail--        ..............       1,000,000  Provide assistance to State of Wisconsin to
 Wisconsin \6\.                                                    protect threatened IAT corridor and connect
                                                                   trail segments across private land.
LWCF grants North Country Trail.  ..............  ..............  Provide assistance to States of Michigan and
                                                                   New York to protect threatened NCT corridor
                                                                   and connect trail segments across private
                                                                   land.
    Michigan....................  ..............         250,000
    New York \7\................  ..............         250,000
                                 --------------------------------
      Total.....................       7,200,000       2,500,000  ..............................................
----------------------------------------------------------------------------------------------------------------
\1\ Includes $242,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Appropriation resulting from request by Continental Divide Trail Alliance.
\3\ Request from Continental Divide Trail Alliance.
\4\ Administration request for allocation from supplemental $699 million appropriated for fiscal year 1998. This
  would be a supplemental fiscal year 1998 appropriation to complete the Appalachian Trail over the next several
  years.
\5\ This would be a grant to the State of Florida to be matched at least 1:1.
\6\ This would be a grant to the State of Wisconsin to be matched at least 1:1.
\7\ These would be grants to the States of Michigan and New York to be matched at least 1:1.

                                 ______
                                 
 Prepared Statement of Bruce Runnels, Chief Conservation Officer, The 
                           Nature Conservancy
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity.\1\ To date our 
organization has protected more than 9 million acres in the 50 states 
and Canada, and has helped local partner organizations preserve 
millions of acres overseas. The Conservancy itself owns more than 1,600 
preserves--the largest private system of nature sanctuaries in the 
world. Three concepts that have been fundamental to our success are 
sound science; strong partnerships with public and private landowners; 
and tangible results at local places. This testimony highlights 
projects and programs that foster each of these three key factors of 
success.
---------------------------------------------------------------------------
    \1\ The mission of The Nature Conservancy is to preserve the 
plants, animals and natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to survive. 
The Conservancy has more than 900,000 individual members and over 1,850 
corporate sponsors; we currently have programs in all 50 states and 17 
nations. Our Board of Governors includes corporate officers such as 
Durk I. Jager of Proctor and Gamble and John G. Smale of General 
Motors, distinguished leaders such as General Norman Schwarzkopf, and 
renowned scientists such as E.O. Wilson.
---------------------------------------------------------------------------
    In our 45 years of conservation work, perhaps the single most 
important lesson we have learned is that local communities hold the key 
to conservation success. Without the support of the people who live in 
and around the places we are trying to protect, we can never achieve 
our goals. By making a community's interests ours, and conservation 
theirs, together we can start developing an ecologically compatible and 
economically sound vision for the future.
    The Nature Conservancy is in the midst of launching the most 
ambitious fundraising campaign ever initiated by a private conservation 
organization. In doing this, we are demonstrating our firm commitment 
to private investment in biodiversity conservation. But private efforts 
alone will not suffice. As the largest owner and manager of land across 
America, the federal government is a critical partner and leader in 
effecting conservation. In that vein, I respectfully offer the 
following fiscal year 1999 funding recommendations to the Subcommittee.
Acquisition and Management of Federal Land
    We feel that continuing to make additions to the public lands base 
in high-priority sites is extremely important. We also recognize the 
tremendous need for getting ahead of the backlog of maintenance and 
construction problems on federal lands. We believe the Administration's 
proposed 5-year plan addresses the need to think longer-term about 
acquisition and maintenance needs. In fiscal year 1998, Congress took a 
bold step in funding the Land and Water Conservation Fund (LWCF) at its 
fully authorized level. We urge you to provide that level of investment 
every year.
    Land and Water Conservation Fund.--The Nature Conservancy offers 
for your consideration a list of biologically rich land acquisition 
projects totaling $139,405,000. Each project is a high priority for the 
corresponding land management agency and has active negotiations 
underway for acquisition. A list of these projects is included with 
this testimony. We wish to express our sincere appreciation for the 
Subcommittee's leadership in consistently supporting this important 
activity.
    Stewardship of Public Lands.--In addition to maintaining the 
infrastructure on our public lands, we must protect our overall 
investment by maintaining their biological resources. Many of our 
nation's ecosystems are extremely degraded and are in need of active 
management. Invasion by alien species is perhaps the most pervasive 
threat to native biodiversity on public lands, and can be treated 
through prescribed burns and other techniques. We support all increases 
proposed in the fiscal year 1999 budget requests of the public land 
management agencies for stewardship activities. For example, the USFWS' 
National Refuge System has proposed a $15 million increase in 
operations to support habitat improvement and other projects.
Scientific Information
    A base of high-quality scientific information is needed in order to 
make sound decisions regarding public and private land acquisition and 
management. The Conservancy supports strengthening research programs 
within the Interior Department that relate to status and trends of 
biological diversity. By making modest investments in information 
today, we can avoid more costly crisis management in the future. We 
suggest an increase in funding for the biological research programs 
within the U.S. Geological Survey (USGS), and specifically within its 
Biological Resources Division (BRD). We applaud the Administration's 
request for an $11 million increase for research on habitat and species 
relationships which will greatly assist Department of Interior land 
managers. The Conservancy also supports BRD's request of $748,000 for 
Species at Risk, which funds research on status and trends of sensitive 
species. By generating information on species before they decline, the 
program reduces the need for formal listing under the Endangered 
Species Act (ESA).
Endangered Species Act
    It is widely recognized that the federal ESA's chronic lack of 
adequate funding is a major limitation to its success. Therefore, the 
Conservancy strongly supports the USFWS's fiscal year 1999 request of 
$129.9 million to administer the ESA--the most ambitious request ever 
for this program. Most notably, the new funding would provide 
incentives to private landowners to protect species, such as candidate 
conservation and safe harbor agreements. Funds are also included for 
100 new Habitat Conservation Plans (HCP's). In carrying out this 
element, we urge USFWS to adhere to the following principles we feel 
are crucial to an effective and biologically defensible HCP process: 
plans are locally developed by stakeholders; they are developed in a 
regional context; they have a strong scientific foundation; and they 
include comprehensive monitoring and adaptive management programs. The 
Natural Communities Conservation Plan now underway in Southern 
California provides a strong example for successful application of 
these principles.
    We are also pleased to see $17 million requested for the 
Cooperative Endangered Species Fundunder Section 6 of the Act (grants 
to states). For the past two years, this Fund has included $6 million 
for land acquisition related to large-scale HCP's. These funds have 
been in high demand, and this year the Administration has increased the 
level provided in its budget to $9 million. The Conservancy supports 
this elevated level, as we have seen the direct benefits of these funds 
on the ground in several HCP's where we are involved.
    We also urge your support of the Recovery Program for the four 
endangered fish species in the Upper Colorado River Basin. We join the 
other partners in this project (including three states, USFWS, Bureau 
of Reclamation, environmental groups and power users) in requesting 
$636,000 of resource management funds; at least $200,000 under Section 
6; and $308,000 for fish propagation at the Ouray National Wildlife 
Refuge.
Partnership Initiatives
    One of the best conservation investments the federal government can 
make is one that will multiply its limited dollars. The following 
programs help leverage scarce resources from both the private and 
public sectors to increase the total amount of funds available for 
conservation activities.
    National Fish and Wildlife Foundation.--The National Fish and 
Wildlife Foundation (NFWF) is an excellent example of a federal program 
that effectively leverages conservation benefits. The Foundation builds 
partnerships between the public and private sectors to support 
activities that are focused on solving environmental problems, and has 
an outstanding record of encouraging and rewarding innovation in 
natural resource management. For every federal dollar that goes to the 
Foundation, at least $3 is spent to benefit fish, wildlife and plants. 
In its twelve-year history, NFWF has awarded 2,420 grants, with $82 
million of federal funds generating another $195.7 million in outside 
money. The Administration has requested the same level as the fiscal 
year 1998 appropriation for NFWF ($6 million for USFWS, $1.5 million 
for BLM, and $2 million for USFS). We feel the need is even greater, 
and recommend $7.5 million for USFWS, $3 million for BLM, and $3 
million for USFS.
    North American Wetlands Conservation Fund.--One of the most 
successful conservation programs in the nation is the North American 
Wetlands Conservation Fund. The Fund supports the implementation of the 
North American Waterfowl Management Plan, and also funds habitat 
conservation for nongame wetland-dependent migratory birds, via the 
international grant program authorized under the North American 
Wetlands Conservation Act. A variety of partners in Canada, Mexico, and 
the U.S. have matched federal dollars at more than 2:1 to acquire, 
restore, and enhance these wetlands. Since this program was established 
in 1989, the $233.2 million of federal funding invested in its projects 
have generated an additional $473.4 million of partner funding. As a 
member of the North American Wetlands Conservation Council since its 
inception, the Conservancy has been part of the panel that recommends 
projects for final approval by the Migratory Bird Conservation 
Commission. The Administration has proposed to increase the funding for 
this program by $3 million, to $14.7 million. The Conservancy strongly 
supports this modest but high-leverage increase.
Private Landowner Programs
    Private landowners, both large and small, are essential--and often 
enthusiastic--partners in the goal of protecting biodiversity. 
Financial and regulatory incentive programs have motivated many private 
participants to take conservation actions. Private lands collectively 
are critical to the survival of many rare species and their habitats; 
federal incentive programs can make them an asset rather than a 
liability to landowners.
    We support the USFWS's request of $27 million for Partners for 
Wildlife, a program which allows private landowners to undertake long-
term protection and restoration projects that benefit species at risk 
of becoming threatened or endangered. The USFS' Forest Legacy Program 
provides matching funds to private entities for the purchase of 
conservation easements on working timberland threatened with conversion 
to non-forest use. We support a level of $10 million for this program. 
Challenge Cost Share Programs within USFWS, BLM and USFS offer private 
landowners a federal match for activities they undertake to manage, 
restore or enhance natural resources.
Freshwater and Coastal Programs
    Freshwater and coastal protection are among the Conservancy's top 
priorities this year. We were therefore gratified by the announcement 
of the Administration's Clean Water Action Plan. This program seeks to 
encourage partnerships between state, local and federal agencies, 
tribes, and local communities to plan for watershed management. Funds 
to be devoted to this project are proposed within USGS, BLM, USFWS, 
USFS, Office of Surface Mining and Bureau of Indian Affairs. We support 
the emphasis given in the budget to the Florida Everglades and the 
California Bay-Delta, two ecologically and economically significant 
watersheds in dire need of restoration. In addition, we urge the 
Committee to continue to support the USFWS's National Coastal Wetlands 
Grants which provide matching grants to coastal states and territories 
for projects involving acquisition, restoration or enhancement of 
coastal wetlands.

Recommended LWCF appropriations for fiscal year 1999

                                                                  Amount

U.S. Fish and Wildlife Service:
    Black River Unit--Nisqually NWR, WA.................      $3,000,000
    Cape May NWR, NJ....................................       3,000,000
    Cypress Creek NWR, IL...............................       1,000,000
    Darby Ecosystem Protection and Restoration Project, 
      OH................................................       2,500,000
    Emiquon NWR, IL.....................................      20,000,000
    Great Dismal Swamp NWR, VA..........................       1,200,000
    Kodiak NWR, AK......................................       1,000,000
    Lake Wales Ridge NWR, FL............................       3,000,000
    Morzhovoi Bay Lagoons--Izembek NWR, AK..............       3,600,000
    National Key Deer Refuge, FL........................       2,000,000
    Northern Tallgrass Prairie, MN......................       1,000,000
    Oahu Forest, HI.....................................       1,000,000
    Ohio River Islands, WV..............................         500,000
    Oregon Coastal Refuges, OR..........................       5,000,000
    Palmyra Atoll, Pacific Ocean........................       5,000,000
    Point Possession--Kenai NWR, AK.....................       3,000,000
    Rappahannock River Valley NWR, VA...................       3,000,000
    Roanoke NWR, NC.....................................       2,250,000
    Sacramento River NWR, CA............................       3,000,000
    San Diego Refuges, CA...............................       6,000,000
    Shadmoor--Amagansett NWR, NY........................       2,500,000
    Stratford Great Meadows--Stewart B. McKinney NWR, CT       2,500,000
    Waccamaw NWR, SC....................................       3,700,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      78,750,000
                    ========================================================
                    ____________________________________________________
Bureau of Land Management:
    Chadwick Hill--Point Colville Area, WA..............       1,000,000
    Cosumnes River, CA..................................       3,000,000
    Otay Mountain/Kuchamaa, CA..........................       2,000,000
    Santa Rosa Mountain, CA.............................       1,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................       7,000,000
                    ========================================================
                    ____________________________________________________
National Park Service:
    Cumberland Island, GA...............................      10,900,000
    Salt River, USVI....................................       3,500,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      14,400,000
                    ========================================================
                    ____________________________________________________
U.S. Forest Service:
    Coronado NF, AZ.....................................       1,200,000
    Francis Marion NF, SC...............................       3,000,000
    Nantahala NF (Thompson and Hennessee tracts), NC....       7,100,000
    North Fork Flathead River--Flathead NF, MT..........       1,155,000
    Pisgah NF, NC.......................................         300,000
    Sumter NF (Jocassee Gorges), SC.....................       6,500,000
    Valles Caldera (Baca Ranch), NM.....................      20,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      39,255,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     139,405,000
                                 ______
                                 
             Prepared Statement of the World Wildlife Fund
    World Wildlife Fund appreciates the opportunity to present its 
views on the President's fiscal year 1999 budget for the Interior 
Department and the U.S. Forest Service. Generally, WWF is very 
supportive of the administration's overall budget request, including 
increases for natural resource management and conservation agencies. 
Several specific program budgets are important to the organization's 
goals of recovering endangered species, achieving ecoregion-based 
conservation, and effectively dealing with global threats--overfishing, 
toxic chemicals, climate change, and unsustainable logging--to 
biodiversity.
                       department of the interior
Everglades Ecosystem Restoration
    Scientists at World Wildlife Fund have identified the South Florida 
Everglades as one of the most unique and important ecoregions in North 
America, and also one of the most threatened. WWF has selected 25 
ecoregions in Africa, Asia and the Pacific, Europe, Latin America and 
the Caribbean, and North America in which to focus our highest priority 
attention during the next five years. These are the places we believe 
simply must be protected if we are going to make a serious effort to 
save life on Earth. The Everglades is one of the focal 25 ecoregions.
    WWF greatly appreciates the attention and the priority this 
Subcommittee has given to Everglades restoration, especially the fiscal 
year 1998 appropriation of $136 million for the Interior Department. 
This figure represents a very significant increase in funding from 
previous years for the Everglades program.
    The administration's request for $144 million for the Interior 
Department Everglades budget in fiscal year 1999 is only a slight 
increase over the fiscal year 1998 appropriation. The total South 
Florida/Everglades funding request in the President's budget is $282 
million, including programs in EPA, NOAA and the Department of 
Agriculture, as well as Interior.
    We strongly support this request as the minimum necessary to move 
forward with Everglades restoration with a continued strong commitment 
at the federal and state level. It is clear the total price tag to 
achieve the goals identified for the Everglades system by the 
intergovernmental federal/state South Florida Everglades restoration 
partnership will cost at least $3 to $5 billion over the next decade. 
That estimate will likely be revised by the Army Corps of Engineers as 
it prepares the Comprehensive Plan for Everglades restoration that 
Congress required be completed by July 1999.
    WWF is pleased that significant progress is being made towards 
restoration, and we believe a continued investment in federal funds for 
this purpose is strongly needed. Our optimism is based on the 
following:
  --Public support for the Everglades in Florida and at the national 
        level is strong, and there is a broad recognition that 
        restoring the Everglades ecosystem is an important national 
        goal;
  --Everglades restoration has attracted strong bipartisan political 
        support in Washington and in Florida, with the Clinton and 
        Chiles administrations as well as key leaders of both parties 
        in both houses of Congress;
  --We now have a clear understanding of how natural hydrological 
        conditions of South Florida have been disrupted to serve urban 
        and agricultural interests, and scientists and policy experts 
        believe nearly natural timing, flow and delivery of water can 
        be restored through much of the Everglades ecosystem while 
        enhancing water supply for urban areas and protecting the needs 
        of agriculture;
  --At long last we are at the stage where specific water management 
        decisions and projects are about to happen, which will begin 
        the long process of actual restoration. The announcement this 
        past December by Vice President Gore of the intent to acquire 
        the Talisman sugar cane farm in the southern Everglades 
        Agricultural Area is a good example.
    WWF also wants to emphasize the critical importance of a fully 
funded Land and Water Conservation Fund to the success of Everglades 
restoration. In fiscal year 1999, the administration has requested $81 
million from the fund to purchase lands in the East Everglades 
expansion area, for water preserve areas, and for inholdings in the Big 
Cypress National Preserve. The State of Florida continues to acquire 
property for Everglades restoration from several sources of funding, 
including its nationally acclaimed P-2000 program, the largest single 
conservation land purchase program in the country.
    LWCF money is essential to the Everglades, and it is important to 
the conservation and recreation needs of the nation. We are very 
pleased that the program was nearly fully funded in fiscal year 1998. 
However, the country needs a commitment of funds to LWCF of at least 
$900 million every year. The Everglades is one of many national 
conservation priorities that deserve attention and support from LWCF. 
The Appalachian Trail, northern New England's forests, the Mississippi 
Delta, San Francisco Bay and the Baca Ranch in northern New Mexico are 
a few other examples of nationally significant conservation lands that 
demand LWCF funding.
    We also urge the Subcommittee to restore some reasonable level of 
funding to the state LWCF matching grant program. It is clear there is 
a major need for a dramatic increase in federal, state and local 
support and participation in enhancing and expanding a wide range of 
urban and non-urban recreation and conservation opportunities 
throughout America outside of areas served by the federal lands. 
Congress should fully fund LWCF, and it should revive and revitalize 
the State and Local Assistance program.
                     u.s. fish and wildlife service
African Elephant, Asian Elephant and Rhino/Tiger Conservation Funds
    WWF supports the President's request for $1 million each for the 
African Elephant Conservation Fund and Asian Elephant Conservation Fund 
and recommends that the Subcommittee increase the President's budget 
request for implementing the Rhinoceros and Tiger Conservation Act to 
$1 million as well. Funding allocated under these programs has proven 
that the spiral toward extinction for these species can be stopped. 
Additional funds are urgently needed for protected area conservation, 
anti-poaching efforts, monitoring populations, translocating animals, 
and mitigating human/wildlife conflicts.
Wetlands for the Future
    WWF requests a $500,000 increase in the Fish and Wildlife Service's 
international budget for implementation of an expanded Wetlands for the 
Future Program. Specifically, we would like to see the program expanded 
to Africa. The program currently provides funding for wetland 
conservation projects and training wetland managers in Latin America 
and the Caribbean. A phased expansion of the program to developing 
countries in Africa will provide habitat for a wide range of animals as 
well as important natural resources for people.
Endangered Species
    WWF applauds the dramatic increases in funding for endangered 
species programs requested by the President for fiscal year 1999, 
particularly the $18.4 million increase for recovery programs. We 
enthusiastically support the $5 million earmarked for the Safe Harbor 
grant program, a promising vehicle for encouraging species conservation 
on private lands. Unfortunately, much of the increase in the recovery 
program budget is requested in anticipation of passage of S. 1180, a 
bill that contains new, extremely burdensome recovery planning 
procedural requirements of dubious utility. We urge that this increase 
be retained in full regardless of the fate of Endangered Species Act 
reauthorization legislation, and used primarily for on-the-ground 
recovery activities that directly benefit listed species.
    Likewise, WWF supports the President's request for an increase of 
$12.6 million in funding for consultations and habitat conservation 
planning under sections 7 and 10 of the ESA. Consultation and HCP 
procedures have been successful at reconciling species conservation 
with development projects, but monitoring of the impacts of resulting 
incidental take of species has been lacking. We urge that a large 
percentage of this budget increase be dedicated to monitoring 
functioning HCP's and section 7 incidental take authorizations in order 
to ensure, as the law requires, that those activities are not reducing 
appreciably the likelihood of the survival and recovery of the affected 
species.
Environmental Contaminants
    WWF believes the USFWS Division of Environmental Contaminants (DEC) 
is woefully underfunded. At the proposed core funding level of $10.4 
million, the program will not meet its objectives of investigating and 
assessing the effects of environmental contaminants on wildlife and 
maintaining a ``scientifically credible program through proper program 
support, training, and technical assistance.''
    After reductions for five consecutive years, funding for the core 
program has been restored to the fiscal year 1995 level. Yet during 
this same period, reports from around the nation and the world indicate 
more strongly than ever that wildlife populations are being stressed by 
contaminants. The DEC is the government agency best qualified to 
investigate reports of deformed frogs, feminized male fish, and bird 
kills caused by legal pesticide use.
    The USFWS cannot respond, under its present budget, to these new 
findings. This past year, WWF called for doubling the proposed budget 
to $18 million. We are pleased with the modest proposed increase of $1 
million enacted, however, a more substantial increase is justified. 
Core funding for the program should be increased to $18 million to give 
the USFWS analytical capability it currently lacks, and to help it 
assist partner states, universities, and other agencies in assessing 
adverse effects in wildlife. Funds should be used to upgrade the 
Patuxent Analytical Control Facility and to support forensic field 
investigations with USFWS partners. These investigations, in the past, 
have provided early warnings of chemical threats to wildlife and 
humans.
                          u.s. forest service
    WWF supports the administration's increase in the road maintenance 
budget and for road decommissioning and stabilization. These increases, 
however, would still leave more than half our nation's forest road 
system in need of repair and maintenance. Road failures continue to be 
a major forest health problem on public lands and have contributed to 
the degradation of fisheries, water quality, and slope destabilization. 
Moreover, the 3,500 miles of road slated to be decommissioned is 
grossly inadequate and would not even meet the demand on most national 
forest regions, let alone on a national basis.
    WWF endorses the cooperative activities of the Forest Service 
through the activities of state and private forestry programs. Thus, we 
agree with the administration's request for increases in the Forest 
Stewardship, Stewardship Incentives, Forest Legacy, and Urban and 
Community Forestry programs. These programs provide high visibility to 
the public on forestry operations that are based on sound stewardship 
and land protection principles and are held in high regard with the 
public. Our experience suggests that despite such increases, these 
programs are still largely underfunded and will not be able to keep up 
with growing demand.
    WWF urges the Subcommittee to appropriate at least $12 million for 
the Forest Legacy program. The program has a proven track record of 
protecting environmentally significant privately owned forests from 
being converted to other uses through purchase of permanent 
conservation easements. Fifteen states currently qualify to participate 
in Forest Legacy. The administration's request for $6 million in fiscal 
year 1999 is inadequate. For northern New England alone, the Northern 
Forest Alliance has identified $26 to $31 million of specific, high 
priority Legacy projects that need funding.
    Thank you again for the opportunity to present our views. We look 
forward to working with the Subcommittee on the fiscal year 1999 
legislation.
                                 ______
                                 
                       Bureau of Land Management
Prepared Statement of Gerald R. Zimmerman, Executive Director, Colorado 
                       River Board of California
    Your support and leadership are needed in securing adequate fiscal 
year 1999 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. This 
program is carried out as a part of ecosystem and watershed management 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act.
    The President's proposed budget for the Bureau of Land Management 
(BLM) has included $31,031,000 in BLM's budget for Management of Land 
and Resources--Soil, Water and Air Management. The Colorado River Board 
of California, the state agency charged with protecting California's 
interests and rights in the water and power resources of the Colorado 
River System, formally requests that Congress allocate $5,200,000 of 
these funds for the Colorado River Basin salinity control activities as 
recommended by the Colorado River Basin Salinity Control Forum.
    The Colorado River is, and will continue to be, a major and vital 
water resource for California. California's Colorado River water users 
are presently suffering economic damages estimated at about $800 
million per year due to the river's salinity, and those damages are 
expected to increase significantly by the turn of the century without 
further salinity control measures being implemented. Preservation of 
its quality through an effective salinity control program will avoid 
the additional economic damages to river users in California.
    The Board greatly appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance and 
leadership in securing adequate funding for this vital program.
                                 ______
                                 
     Prepared Statement of Joe Judd, Commissioner, Kane County, UT
    Mr. Chairman and members of the Subcommittee on Interior and 
Related Agencies, I am Joe Judd, a member of the Board of Commissioners 
of Kane County, Utah. On behalf of the Kane County Commission and all 
the citizens of Kane County I would like to thank you for inviting us 
here today to testify regarding the Grand Staircase-Escalante National 
Monument and the first year of our cooperative planning effort with the 
Bureau of Land Management and the need for $1,340,000 in additional 
funding for basic visitor information facilities.
    Testifying with me today is the Honorable Karen Alvey, the mayor of 
Kanab City, Utah, who will testify about the opportunities for an 
expanded role for the rural communities in the planning process.
    When we provided testimony last year, there were many questions 
and, yes, many doubts about how the joint planning process would work--
if it would work at all. The people of Kane County were still angry 
about the sudden announcement of the monument by the President and were 
highly suspicious of how they would be treated by the Interior 
Department and BLM.
    We were very fortunate to receive a great amount of advice and 
assistance from Senator Bob Bennett, Senator Orrin Hatch and their 
professional staff members.
    We concluded that without substantial participation by the local 
people who know and love the land, the monument plan would never be in 
harmony with the area. I met with Secretary Babbitt and he indicated a 
belief in working with the local citizens. He said he wanted the 
process to work.
    So, overcoming serious misgivings, the Commission asked me to 
provide testimony asking for your support and the funding necessary to 
allow our participation with the agency.
    Senator Bennett suggested language to be included with the Senate 
bill that would allow us to participate on an official basis with the 
agency. You graciously accepted that language. Thank you. The support 
from your committee provided the basis and authority for our role as 
sanctioned participants and not as subservient and trivial kibitzers.
    We have used the opportunity in the first year to work toward a 
true partnership with the federal government. We have established a 
mutually respectful relationship with the monument director, Jerry 
Meredith, and his professional staff. With the funds provided to us by 
the Department for fiscal year 1997, we formed a selection committee 
and solicited experts to independently provide recommendations 
regarding infrastructure requirements, public safety, transportation, 
and local community needs.
    Those preliminary recommendations are in. They present a 
comprehensive picture of both capabilities and shortfalls in our joint 
preparations to provide a rewarding national monument experience--while 
protecting the fragile monument lands.
    This year, with the fiscal year 1998 funds requested by the 
department and appropriated by this committee, we are proceeding to the 
second phase of the planning process. Our principal areas of concern 
will be: the gateway community and destination tourism plan; grants to 
Kane County communities for monument impacts planning; and Kane County 
services to the monument area.
    Mr. Chairman, it is our understanding that the President's fiscal 
year 1999 budget includes $6.4 million for the monument with $250,000 
intended to be provided to each of the two impacted counties. That is 
the same funding level as in fiscal year 1998.
    We are encouraged that the Administration is continuing to 
recommend a significant level of support. However, with the 
recommendations of the completed studies in hand, it is obvious that we 
need to begin now to plan and develop some very basic facilities for 
both the BLM and the visiting public. The Draft Plan will be completed 
in September, and the Final Plan in September of 1999, but the need to 
provide information to visitors is there now. It is non-controversial. 
The information centers will be adjacent to the monument at those very 
few established entryways. The identified ``gateways.'' Let me just 
briefly mention the facilities that are to be located in Kane County:
Monument Headquarters, BLM ($0)
    Immediately after the 1996 announcement, the agency entered into a 
three year lease for headquarters space for the monument director and 
staff--in Cedar City, Utah. That is eighty miles from the monument. The 
agency indicated at that time its intent to locate the permanent 
headquarters adjacent to the monument. With only one and one-half years 
remaining on the BLM lease, it is extremely important that a new 
facility be identified and made available as soon as possible.
    We are working with the agency in selecting an appropriate site 
that provides access to the monument and has adequate community 
amenities for the full-time staff. But it is extremely important that 
we begin that process as soon as possible. The estimated total cost is 
$2 million.
    This is our number one priority.
    However, we are not requesting funds for that purpose. We are 
exploring other arrangements wherein we would finance the building and 
lease it to the agency. We respectfully request that the committee 
include language that directs the Bureau of Land Management to work 
with Kane County and Kanab City to plan the facility and enter into an 
agreement to occupy the facility upon completion of construction.
Visitor Center ($650,000)
    We also need to move quickly to accommodate visitors. There is 
virtually no information regarding monument conditions or accessible 
monument sites in Kane County. Only a tiny portion of this huge area of 
3,125 square miles, (larger than the size of the state of Delaware--
2,498 square miles) will ever be accessible to the public under our 
plan. But it is a national monument established for the American 
people--and an international attraction. We must treat it as such.
    The first necessity is a Visitor Center. We are suggesting that a 
center be located about halfway between Kodachrome Basin State Park to 
the north and Johnson Canyon on the southern boundary of the monument. 
This would be on the only currently paved road in Kane County that 
crosses portions of the monument. A tentative site is located just 
inside the monument boundary, but on school trust land. It is a very 
beautiful and dramatic location that would exemplify the character of 
the monument. We would also include a campground which would have 
drinking water, rest rooms and showers.
    The estimated cost is $2,321,000 for the Visitor Center, and 
$1,715,000 for the campground. We are requesting that the committee add 
$650,000 for planning and design in fiscal year 1999.
Information--Interpretive Centers ($440,000)
    In addition, there is an immediate need for information centers at 
Big Water the south-eastern entry to the lands and Glendale, Utah, on 
the northwest corner of the monument. These would have rest rooms and 
water. Visitors would be informed of accessible scenic locations and 
warned of the ruggedness of the area and the lack of even the basic 
fuel and water supplies--or sanitation facilities.
    The estimated costs for design and construction of the visitor 
information centers is $440,000 and we are requesting that that amount 
be added to the monument budget.
Planning funds, Kane County ($250,000)
    A final item that I need to address is that of Kane County's 
participation in the planning process. We began this joint program with 
a grant from the Department of Interior for $200,000. I believe we have 
demonstrated that we have maximized that funding with an almost 
unlimited participation and contribution by local officials. This year, 
the federal contribution will be $250,000. We are grateful that both 
the department and the Congress has recognized our growing 
participation. The Bureau's budget reportedly includes the same level 
of funding to be provided in fiscal year 1999.
    However, as the planning process becomes one of implementation to 
meet the basic requirements related to visitation in such an immense 
area, the demands on the Kane County budget increase also. As you know, 
70 percent of the monument is in Kane County and the elimination of the 
Smokey Hollow Coal Mine has impacted greatly on the County. Kane County 
has lost $1,000,000 in anticipated annual revenues.
    This year we ask that the amount provided to the county be set at 
$500,000. We are requesting that the $250,000 be an ``add-on.'' We are 
not suggesting that the additional $250,000 be transferred from within 
the amount requested by the administration for the management of the 
monument. The BLM budget is constrained as it is. This should be in 
addition to the President's budget.
    As we move toward a partnership with the federal government, we 
need, at least, the minimum resources to be effective.
    Thank you again for inviting me to provide testimony for the 
record.
                                 ______
                                 
  Prepared Statement of Jack A. Barnett, Executive Director, Colorado 
                   River Basin Salinity Control Forum
    This testimony is in support of funding for the Bureau of Land 
Management for activities that assists the Colorado River salinity 
control program. The Bureau of Land Management has reformulated its 
budgeting process so as to support ecosystems and watershed management. 
The activities needed to control salinity being contributed from the 
BLM lands are a part of ecosystem and watershed management. Because the 
budgeting process lumps all activities together, we can only presume 
that there is adequate dollars in the President's budget to move ahead 
with the water quality enhancement and protection programs needed in 
the Colorado River drainage to ensure that the salts in excess amounts 
are not contributed to the river system. Our analysis indicates that 
the Bureau of Land Management needs to specifically target the 
expenditure of funds in the amount of $5,200,000 to salinity control in 
fiscal year 1999. The Forum simply supports the President's Budget 
because we presume, but cannot discern, that adequate funds will move 
to this needed water quality effort.
    Although the Forum has not been able to determine from limited 
budget documents how appropriated funds will be spent, we are much 
encouraged by public statements made by Administration officials. 
Statements have been made as follows: ``The BLM is anxious to 
participate in the implementation of the Administration's Clean Water 
Action Plan,'' ``The 1999 Budget requests a $16 million increase for 
implementation of the Clean Water Action Plan,'' ``Together with the 
USFS and the NRCS we will develop a standardized rangeland health 
inventory and classification system, by 2000,'' ``It also is 
responsible for BLM's efforts at reducing salinity,'' ``improve overall 
management of watersheds and minimize harmful consequences of erosion, 
saline discharges, water quality degradation,'' ``In 1998, $800,000 is 
planned for the BLM's Colorado River water quality improvement 
effort,'' ``Federal Salinity Control--In the tributaries of the Upper 
Colorado River Basin, BLM will accelerate management actions and 
facilities maintenance on saline soils to complement the overall salt 
reduction efforts of Reclamation and the USDA, and our commitments to 
Mexico.'' The Forum strongly supports the above-stated intentions.
                                overview
    The Colorado River Basin salinity control program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
had made via a treaty with Mexico with respect to the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and the Bureau of Reclamation were given the lead 
Federal role by the Congress. This testimony is in support of funding 
for the Title II program.
    After a decade of investigative effort, the Basin states concluded 
that the Salinity Control Act needed to be amended. Congress revised 
the Act in 1984. That revision, while keeping the Secretary of the 
Interior as lead coordinator for Colorado River Basin salinity control 
efforts, also gave new salinity control responsibilities to the 
Department of Agriculture, and to a sister agency of the Bureau of 
Reclamation--the Bureau of Land Management. Congress has charged the 
Administration with implementing the most cost-effective (dollars per 
ton of salt removed) program practicable. The Basin states are strongly 
supportive of that concept, as the Basin states cost share 30 percent 
of federal expenditures for the salinity control program, while in 
addition proceeding to implement their own salinity control efforts in 
the Colorado River system.
    Since the Congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. The Bureau of Reclamation has recently completed studies on the 
economic impact of these salts. Reclamation recognizes that the damages 
to United States' water users alone may soon be approaching $1 billion 
per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of a program necessary to control the 
salinity of the river system. Forum members are appointed by the 
governors of the seven Colorado River Basin states. In close 
cooperation with the Environmental Protection Agency (EPA) and under 
requirements of the Clean Water Act, every three years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program necessary to keep the 
salinities at or below the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, Parker, and Hoover Dams in 
1972 have been identified as the numeric criteria. The plan necessary 
for controlling salinity has been captioned the ``plan of 
implementation.'' The 1996 Review of water quality standards includes 
an updated plan of implementation. The level of appropriation requested 
in this testimony is in keeping with the agreed to plan. If adequate 
funds are not appropriated, state and federal agencies involved are in 
agreement that the numeric criteria will be exceeded and damage from 
the high salt levels in the water will be widespread and very 
significant.
                             justification
    The BLM is, by far and away, the largest landowner in the Colorado 
River Basin. Much of the lands that are controlled and managed by the 
Bureau of Land Management are heavily laden with salt. Past management 
practices, which include the use of lands for recreation; for road 
building and transportation; for oil, gas, and mineral exploration; and 
most importantly, for grazing, have led to man-induced and accelerated 
erosional processes. When soil and rocks heavily laden with salt erode, 
the silt is carried along for some distance and ultimately settles in 
the streambed or flood plain. The salts, however, are dissolved and 
remain in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling pick-up of salt 
from public lands. Recent reports drafted by the Western Water Policy 
Review Advisory Commission find this to be true. Congress charged the 
federal agencies to proceed with programs to control the salinity of 
the Colorado River, with a strong mandate to seek out the most cost-
effective options. It has been determined that BLM's rangeland 
improvement programs can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
are more cost-effective than some now being implemented by the Bureau 
of Reclamation and by the Department of Agriculture. They are very 
environmentally acceptable, as they will prevent erosion, increase 
grazing opportunities, increase dependable stream runoffs, and enhance 
wildlife habitats.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that out of 
the overall requested and authorized budget the Congress appropriate 
and the administration allocate adequate funds to support the Bureau of 
Land Management's portion of the Colorado River salinity control 
program as set forth in the adopted plan of implementation.
             details concerning the requested appropriation
    After conferring with BLM officials, the Forum believes there needs 
to be spent in fiscal year 1999, by the Bureau of Land Management, 
$5,200,000 for salinity control. We are particularly concerned that the 
line-item titled Management of Lands and Renewal Resources is 
adequately funded.
    The Forum believes that although it is commendable for the 
administration to formulate a budget that focuses on ecosystems and 
watershed management, it is essential that funds be targeted on 
specific sub-activities and the results of those expenditures reported; 
this is necessary for accountability and for the effectiveness of the 
use of the funds. The Forum requests that the Committee require 
accounting by the Bureau of Land Management in such a way that the 
results of their activities in connection with the expenditures the 
funds can be reviewed and measured. The Forum made this request last 
year but we have not seen any improvement in the ability of the BLM to 
account for its expenditure of funds and accomplishments as their 
efforts relate to Colorado River salinity control. Please find a way to 
make BLM accountable.
                                 ______
                                 
                       Office of Insular Affairs
Prepared Statement of Stephen A. Janger, President, Close Up Foundation
    Mr. Chairman, distinguished members of the Subcommittee, my name is 
Stephen A. Janger and I am President of the Close Up Foundation. It is 
a privilege for me to submit this testimony with regard to our work in 
the Pacific Islands to provide quality civic education experiences for 
students and educators.
    On behalf of all of us at the Foundation, I would like to begin 
this testimony with a very sincere thank you to this Subcommittee for 
its support of our efforts. We are fully aware that without the funding 
provided by the Subcommittee to the Office of Insular Affairs for our 
programs, it would not have been possible to reach the thousands of 
students and educators who have benefited so measurably from our 
programs. We hear over and over again, from students and educators 
alike, that participation in Close Up's programs has had a positive, 
life-transforming effect on them. We enjoy having that affirmation of 
our work, and we know that a large part of it would not have been 
possible without this Subcommittee's support.
    The Close Up Foundation began working with the Pacific Islands 15 
years ago. From only a few participants from American Samoa in 1983, 
the word spread about our program and its educational value. With help 
from Congress, we now have students and educators participating from 
American Samoa, the Commonwealth of the Northern Mariana Islands 
(CNMI), the Federated States of Micronesia (FSM), Guam, the Republic of 
the Marshall Islands, and the Republic of Palau. These island entities 
have a unique and special relationship with the United States. As these 
entities develop independence and strengthen democratic institutions, 
it is vital to ensure that their citizens have an understanding of the 
important role each of them plays in establishing a democracy and 
taking responsibility for its continuance. Moreover, many Pacific 
Islanders are American citizens who deserve the same quality of civic 
education that is offered on the mainland.
    Our citizenship education programs in the Pacific have been aided 
by this Subcommittee and the Congress with funds made available through 
the Office of Insular Affairs (OIA). Although we are well aware of the 
budgetary pressures facing the Subcommittee, we believe we have a very 
worthwhile program that makes a significant contribution. Therefore, we 
respectfully request $1 million in fiscal year 1999 funding for Close 
Up's Pacific Islands programs.
             close up foundation's pacific islands programs
Washington High School Program
    The Washington High School Program is the core element of all of 
Close Up's programs. Through this program, we offer experiential, 
hands-on learning opportunities for youth of all abilities and 
aptitudes, from all areas of the world. Our teaching methodology is 
focused on allowing students to have first-hand, person-to-person 
interactions that are designed to build self-esteem and inculcate a 
belief in the importance of every person in a democracy. This 
methodology is particularly well-suited to the students of the Pacific 
Islands, since these young people lead a much more isolated life than 
most of their peers in the United States.
    In order to help meet the civic education needs of the Pacific 
Islands region, Close Up plans to offer three Washington High School 
program options. All three options include a week in Washington on 
Close Up's program. Two of the program options involve a week in 
Washington plus another week in either Hawaii, or in Williamsburg, 
Philadelphia, and New York.
    During the week in Hawaii, Pacific Island students and educators 
take part in the Close Up Pacific Basin Program. In this program, 
participants from the Pacific Islands and from the U.S. mainland meet 
to study issues of importance to both areas. The program usually 
includes a seminar on the changing role of the U.S. armed forces in the 
Pacific, a simulation addressing the economic interdependence in the 
region, workshops on immigration issues, and other activities related 
to the interests of the region.
    The second option includes a two-day trip to Williamsburg to 
explore the roots of American democratic government; a visit to 
Philadelphia to examine the U.S. Constitution, its origin, and its 
impact on Pacific constitutions; and a visit to New York City, where 
students study the cultural and political implications of America's 
diverse citizenry.
    The third option is a Washington program expanded to eight days. 
This program was created by Close Up staff and Pacific educators in 
response to an approximate 25 percent reduction in funding in fiscal 
year 1997. Rather than significantly reduce the number of students who 
would be able to participate, four Pacific Island entities decided to 
offer an eight-day program instead.
    The Eight-Day Program has been well-received by the entities that 
have taken part. Given the expense and logistical difficulties involved 
in traveling from the Pacific, Close Up provided an extra day and one-
half for Pacific Island students to work on activities specifically 
devoted to the Pacific Islands and their relationship to the U.S. 
government.
    In Close Up's current program year, we are planning to offer all 
three program options and estimate that there will be approximately 261 
participants. This level is slightly lower than last year. We recently 
learned that our grant for fiscal year 1998 will be $750,000. This 
level of funding should allow us to reach this year's estimated level 
of participation. If the Foundation's fiscal year 1999 funding request 
is granted and we are able to offer the three program options mentioned 
above, we hope to be able to increase the number of students and 
educators taking part in our programs next year.
    One of the most rewarding aspects of Close Up's programs is the 
positive feedback we receive from participants. Their experiences have 
helped them realize their responsibility to make contributions to their 
communities for the rest of their lives. While we consider it a 
privilege to assist Pacific Island students and educators in their 
civic learning process, it is reaffirming to know that our programs are 
having a positive, long-term, and lasting effect in the developing 
democracies of the Pacific Islands.
Civic Education Needs Assessment
    As we mentioned in last year's testimony, we believed it was 
necessary to conduct a civic education needs assessment in the Pacific 
Islands. In order to maximize the effectiveness of our civic education 
activities, we believed it was important to learn from Pacific 
educators what needs existed and what would be the best ways to address 
those needs.
    With the assistance of a grant from the Office of Insular Affairs, 
Close Up conducted a nine-month civic education/social studies needs 
assessment from 1997 into early 1998. Close Up staff met with directors 
of education, curriculum chiefs, social studies specialists, and other 
appropriate representatives in January 1998. They discussed social 
studies curricula, materials, training, and technology available to 
teachers in grades five through twelve in the public and private 
schools of American Samoa, the CNMI, the FSM, Guam, the Marshall 
Islands, and Palau.
    The meeting participants, combined with Close Up's own research and 
program experience, produced results that are comprehensive, complex, 
and very useful in charting the direction for Close Up to be most 
helpful in addressing the civic education needs of the Pacific Islands. 
As we expected, there is no ``one size fits all'' approach to the needs 
of the various Pacific Islands. However, the meeting uncovered common 
needs that can be categorized into four general areas: (1) development 
of social studies standards; (2) materials acquisition; (3) teacher 
training and staff development; (4) use of technology in social 
studies. Close Up has proposed various programs to meet some of these 
needs in the most expeditious manner possible.
Teacher Training and Teacher Institute
    At this time, we do not know what amount, if any, will be made 
available to the Foundation from fiscal year 1998 funds to support 
activities in addition to the Washington High School program. We have 
requested funding to support a teacher training institute to be 
conducted in the Washington area during July or August of this year. We 
are very hopeful that funding will be made available for this important 
activity.
    The need for teacher training and staff development has been a 
constant theme in our formal and informal discussions with Pacific 
educators. While the entities have different types of training needs, 
our strategy is to address these differences by focusing on capacity 
building. With capacity building, we would conduct sessions in which we 
would be training the trainers. We would teach educators how to train 
other teachers, thereby developing a group of resident island trainers 
who could help other educators become more self-reliant and self-
assured.
    Regardless of whether we are fortunate enough to be awarded funds 
to conduct a ``Trainer of Trainers'' Institute this summer, we believe 
the need is so strong that a second institute is necessary in fiscal 
year 1999. We could not possibly include in one year the numbers of 
trainers necessary to meet the needs of Pacific Island teachers. 
Therefore, we would like to work with Pacific educators to conduct a 
(hopefully second) Trainer of Trainers Institute in the summer of 1999.
    Additionally, we have found during the past several years that 
Pacific educators believe island-specific training conducted on the 
island entity is very helpful. The training and staff development that 
take place on the islands are less abstract than other activities and 
help to build the self-confidence of the teachers involved. The 
difficulty, however, is that island-specific training sessions 
sometimes can be limited in terms of the number of teachers reached by 
the program. This is why Close Up, in balancing the benefits of various 
training activities, would like to provide trainers with technical 
assistance and onsite evaluation, but do so as requested and on a 
limited scale.
Civic Education Materials
    One of the most disturbing findings of the needs assessment meeting 
was the overwhelming need in most of the entities for current materials 
in sufficient numbers. Again, as with teacher training, the specifics 
of the needs vary from entity to entity, and from island to island.
    Close Up currently has the ability to help address this materials 
shortage in a cost-effective manner. Close Up has collaborated with 
Pacific educators for the past six years, to develop island-specific 
social studies resource books. These books were modeled on Close Up's 
Civic Achievement Award Program (CAAP) books, which are designed to 
connect history, government, geography, economics, culture, and current 
events with responsible citizenship. Since these CAAP books are 
specifically tailored to the island entities, additional distribution 
of CAAP materials would help mitigate the need for supplementary 
materials.
    We propose that the CAAP materials be reformulated into a 
comprehensive text focusing on the entire Pacific region. The 
Foundation has included in its fiscal year 1998 proposal a small amount 
of funding to begin to provide CAAP books and start the process of 
creating a comprehensive text. Should our fiscal year 1998 request be 
granted in this area, there remains a need to distribute additional 
CAAP books and to further disseminate the new textbook. We would expect 
to commit a limited amount of fiscal year 1999 funds, should they be 
provided, to help to address this critical need.
Local Programs
    As part of Close Up's message of life-long civic learning and 
involvement, the Foundation provides a very limited amount of money to 
help the island entities conduct civic education programs in their own 
communities. These local programs enable many groups to learn and 
contribute, increasing the civic literacy of the entire community.
    Mr. Chairman, the Close Up Foundation is proud of its work in the 
Pacific Islands. We appreciate the support of the Subcommittee in our 
mission to help meet the civic education needs of students and 
educators in this very important region. Our plans for the coming 
fiscal year warrant additional support because of the impact that Close 
Up can make on students and teachers in their understanding of the 
value of being an informed participant in democracy. We would be happy 
to respond to any questions and to provide any additional programmatic 
or budgetary detail. Thank you very much.
                                 ______
                                 
                         National Park Service
   Prepared Statement of Margaret A. Parker, President, Meigs County 
                           Historical Society
    The Meigs County Historical Society presents the following as 
testimony supporting the request for allocation of funds to be used for 
preservation and purchase of the Buffington Island Civil War 
Battlefield.
    For the past several years, the Meigs County Historical Society and 
the Ohio Historic Preservation Office have been heading a campaign to 
save the only Civil War battlefield in the State of Ohio or north of 
the Ohio River. The battle, known as the Battle of Buffington Island, 
took place at Portland, Lebanon Township, Meigs County, Ohio on July 
19, 1863 and involved about 2,000 Confederate troops under the 
leadership of General John Hunt Morgan and at least 8,000 Union troops. 
Known to have been present at this battle were two future United States 
Presidents, Rutherford B. Hayes and William McKinley.
    The site in Meigs County is on the critical list of 384 principal 
battlefields defined by Congress that should be preserved and is ranked 
in the top 2.6 percent of all Civil War armed conflicts. It is ranked 
as a Class C principal battlefield for historic significance. The site 
has been determined by the Ohio Historic Preservation Office to be 
eligible for the National Register of Historic Sites. However, a 
portion of the battlefield at Portland may be lost to sand and gravel 
mining, unless public support for preservation of the site is raised. 
Richards and Sons, Inc., of Racine, Ohio have applied to the U.S. Army 
Corps of Engineers, Huntington District, for a permit to build a 
loading facility on the Ohio River at Portland and to the Ohio 
Department of Natural Resources for a mining permit. The 520 acres of 
land that Richards and Sons, Inc. owns for sand and gravel purposes is 
located on known portions of the battlefield, including a section 
referred to as ``the bloody ground.'' As part of a required 106 Review, 
the gravel company recently had a Phase I cultural resources 
reconnaissance investigation completed on the property they own. This 
archaeological survey identified twenty-two prehistoric archaeological 
sites, including 9 isolated finds. Sixteen multi-component historic and 
prehistoric sites were identified, and 6 historic sites were 
inventoried, making a total of 44 archaeological resources encountered 
in these investigations. Of the 44 sites identified, 19 were 
recommended for additional Phase II testing and evaluation studies. The 
study also concluded that based on eyewitness officer's accounts 
portions of the Civil War battle occurred within the study area, 
particularly the final engagement and the Confederate withdrawal. Based 
on these combined data sources, it appeared likely the study area 
included properties which may retain evidence for the battle. Because 
of this conclusion it was recommended that additional research on the 
probable locations of battle actions on these properties be 
investigated.
    The Buffington Island battlefield is included as one of 242 
``foundation sites'' in the Civil War Trust's Civil War Heritage Trail. 
This Trail is a national preservation and heritage tourism initiative 
of the Civil War Trust in partnership with the National Trust for 
Historic Preservation, the National Park Service, and many private 
historic preservation organizations. Its goals are to promote the 
identification, understanding, appreciation, preservation, and 
visitation of important Civil War sites and to create a permanent 
national memorial to this defining event in our nation's history.
    The first Confederate invasion of Ohio was by Brigadier General 
Albert Gallatin Jenkins in September 1862. Jenkins crossed from 
Virginia (now West Virginia) at the Buffington Island ford. He 
proceeded to Racine, Ohio and then crossed back into Virginia at the 
ford at Wolf's Creek Bar, down river from Racine.
    The Buffington Island ford was also an important crossing point for 
the Underground Railroad, with much of the present Meigs County black 
population being descendants of blacks who followed Colonel Lightburn 
on his retreat from the Kanawha Valley. So, not only is this ground 
significant for the Battle of Buffington Island, it also contributed to 
a great deal of other Civil War history.
    This historical site is one of the region's and Ohio's most 
important historical assets. Further delay of the site's protection and 
compatible development for heritage tourism only increases the 
vulnerability of the site to inappropriate development and does nothing 
to stimulate the local economy.
    The states of Kentucky and Indiana are in the process of marking 
the Morgan's Raid Route across their states, and it is our 
understanding that research is also being done in Ohio, so that the 
route across Ohio maybe marked. The Meigs County Historical Society was 
awarded a Travel and Tourism grant to research and mark the route in 
Meigs County and significant sites in the Buffington Island Battlefield 
area. Research for this project has been completed and text is now 
being written. Several markers have been already been delivered and 
will be set over the next few months. We anticipate setting at least 
twelve of these markers along the route across the county and in the 
Portland area. But, without the battlefield, what meaning will marking 
the Morgan's Raid route across the state, or even Meigs County, have? 
What meaning, when the places where men fought and died are only holes 
in the ground? When nothing remains to show future generations the 
turning point of the longest raid of the Civil War; the only 
significant battle on Ohio soil; the site where two future U.S. 
Presidents, Rutherford B. Hayes and William McKinley (both native 
Ohioans) participated in battle; and where the U.S. Navy played a 
deciding factor in the outcome from gunboats on the Ohio River. This is 
not just Ohio's battlefield, this is West Virginia's battlefield, also. 
Those gunboats were on the Ohio River and that belongs to West 
Virginia. But, more important, the blood that poured out upon the soil 
that hot day in July, was blood from many states and lineages that 
stretched far back across an ocean. It was the blood of our forebears 
who believed in freedom and were willing to fight for it. The freedom 
that we today take for granted as we enjoy a life style unthought of 
one-hundred and thirty-five years ago. We owe those men respect and 
reverence, whether they fought for the north or the south. They were 
sons, husbands and fathers who were only doing what they believed their 
country asked of them. How can we do anything less than see that this 
battlefield is preserved? Preserved to the memory of those who gave so 
much of themselves upon her fields. The Official War Records state that 
47 Confederate soldiers were buried by Union troops on the battlefield 
and seven more by the local citizens. We believe these bodies may still 
be buried on the battlefield, but the site has not been identified. We 
hope the Phase II study will achieve this.
    In an effort to Save the Battlefield, we are negotiating with the 
gravel company concerning the immediate danger to the site. However, we 
must also look for ways to guarantee long-term protection and 
development of the rest of the battlefield and other historical sites 
in the area. An appropriate way to preserve, might be through purchase 
of significant locations identified with the battle. This should also 
include the area known as Portland at the time of the battle and 
restoration of the village. To protect lands which cannot be purchased, 
land easements should be secured. A park and visitors center portraying 
the battle history should also be part of the battlefield development.
    The battlefield itself remains in a pristine condition, the land 
having only been farmed. There are produce growers in the area who 
would like to farm part of this land, preserving it as it was when the 
Battle of Buffington Island occurred.
    It has been recorded that three out of every five Ohio men between 
18 and 45 served in the Union forces, leading all northern states in 
proportion to population. Only New York and Pennsylvania exceeded the 
total figure. But, those statistics do not tell the whole story, for 
the state did not receive credit for those who served with the regular 
Army or Navy, or in the regiments of other states. Of the eight Ohioans 
who were elected president of the United States, five of them fought in 
the Civil War, four as generals and one a major. Two of these were 
known to have participated at Buffington Island. And we must not forget 
the ``Fighting McCooks'' of Columbiana and Carroll counties, Ohio. 
There were ten sons of Daniel McCook and seven sons of his brother, 
John McCook who served in the Civil War. It was at the Battle of 
Buffington Island that father, Major Daniel McCook, was mortally 
wounded, by the Confederate troops he believed had killed his son, 
Brigadier General Robert L. McCook the year before. We believe that the 
only Civil War battlefield in the State of Ohio should be preserved as 
a lasting memorial to the memory of these men.
    We also believe that by working together, the Buffington Island 
Battlefield can be preserved for future generations. The memory of that 
long ago war must not be erased, because as it has been stated, ``those 
who forget history are deemed to repeat it.''
    We sincerely hope that the Subcommittee on Interior and Related 
Agencies will deem the Buffington Island Civil War Battlefield worthy 
of preservation and consider it for appropriation.
                                 ______
                                 
   prepared statement of patricia ann cook, president, meigs county 
                          genealogical society
    The Meigs County Genealogical Society wishes to lend its support to 
the efforts of the Meigs County Historical Society in their attempt to 
save Ohio's only Civil War Battlefield, known as the Buffington Island 
Battlefield at Portland, Ohio.
    The site in Meigs County is on the critical list of 384 principal 
battlefields defined by Congress that should be preserved and is ranked 
in the top 2.6 percent of all Civil War armed conflicts. It is ranked 
as a Class C principal battlefield for historical significance, which 
suggests preservation at the local or state level. Because an important 
section of the battlefield is owned by the Richards and Sons Sand and 
Gravel Company of Racine, Ohio, there is immediate concern for 
preservation of the site. The company has applied for permits to begin 
mining and if these are issued, we believe an important part of the 
battlefield will be lost. Because money is not available to purchase 
the company owned land, nor surrounding properties, eventually, much of 
the battlefield maybe lost. We feel that appropriation for acquisition 
of the land where the battle took place is crucial and sincerely hope 
this committee will agree.
    The Battle of Buffington Island was the only significant Civil War 
battle fought in Ohio, or north of the Ohio River. The Morgan's Raid, 
which culminated in the battle, was the longest raid of the war. Had 
General John Hunt Morgan successfully crossed at Buffington Ford, his 
raid might very well have had a definite influence on the outcome of 
the war.
    This historical landmark certainly has elements which make it 
uniquely eligible for preservation. Notably some of these being: the 
only Civil War Battlefield in Ohio; the only Civil War battle that 
occurred north of the Ohio River; contribution as a turning point to 
the longest raid of the war; the only battle on Union soil in which 
gunboats on the Ohio River participated; two future presidents 
participation; and the fact, that never again did Confederate troops 
invade the Union states.
    We sincerely hope that this committee will recognize the 
significance of this battle and vote to appropriate funds for 
preservation of the Buffington Island Battlefield.
                                 ______
                                 
prepared statement of john carey, jr., state representative, ohio house 
                           of representatives
    Thank you Chairman Gorton and members of the Subcommittee on 
Interior and Related Agencies. I would like to take this opportunity to 
show my support and share my concerns for the preservation of the 
Buffington Island Battlefield site in Portland, Ohio (Meigs County, 
Lebanon Township).
    It has recently come to my attention that there is an appropriation 
of $699 million from the Land and Water Conservation Fund for priority 
land acquisitions and land exchanges, of which $362 million is not yet 
earmarked for special projects. I understand the committee is seeking 
to identify opportunities to use a portion of this special 
appropriation for acquisitions that will help preserve important Civil 
War battle sites.
    As one who appreciates the importance of our heritage, I am very 
concerned with the possible mining of the Battlefield. It is to my 
understanding that a certain gravel company recently submitted an 
application for a permit to build a loading facility on the Ohio River 
at Portland, Ohio. We are all very concerned with the integrity of this 
historical landmark. I feel that if they are granted this permit, it 
would indeed have a significant environmental impact on the Ohio River 
in southern Ohio, as well as diminish the only site in the State of 
Ohio where the Civil War Battle was fought.
    Over 10,000 soldiers fought and died on this land. I recognize the 
significance of Buffington Island to our state and our nation, and I 
hope that you will also. For the record, I oppose the issuance of a 
permit for mining of gravel on this historic landmark and I hope that 
you will do the same.
    Therefore, I wholeheartedly believe that the Buffington Island 
Battlefield site is very deserving and worthy of receiving a portion of 
this special appropriation.
    I would appreciate every effort that you can make to preserve the 
Buffington Island Battlefield site. Your assistance in this matter will 
be greatly appreciated. Thank you for your time and consideration on 
this very important matter. If I can be of any service to you, please 
do not hesitate to contact me.
                                 ______
                                 
  prepared statement of michael shoemaker, state senator, 17th senate 
                                district
    Ohio has only one Civil War Battlefield, the Buffington Island 
Battlefield, maybe this is the reason so many in Ohio wish to preserve 
this portion of our history. For many years now the Meigs County 
Historical Society and the Ohio Historic Preservation Office have been 
heading a campaign to save this battlesite located in Lebanon Township 
in Meigs County. The battle at Buffington Island took place on July 
19th, 1863 and it involved nearly 2,000 Confederate troops under the 
leadership of General John Hunt Morgan and at least 8,000 Union troops. 
Two future U.S. presidents also participated in this battle, Rutherford 
B. Hayes and William McKinley. This battlefield site is on the critical 
list of 384 principal battlefields defined by Congress to be preserved 
and it is ranked in the top 2.6 percent of all Civil War armed 
conflicts. It is ranked as a Class C principal battlefield for 
historical significance.
    Unfortunately, a portion of this battlefield is in danger of being 
lost to sand and gravel mining. Richards and Sons, Inc., of Racine, 
Ohio have applied to the U.S. Army Corps of Engineers, Huntington 
District, for a permit to build a loading facility on the Ohio River at 
Portland and to the Ohio Department of Natural Resources for a mining 
permit. The area that Richards and Sons, Inc. owns for sand and gravel 
purposes is located on known portions of the battlefield. This area is 
also historically known for Native American tribes inhibiting the land 
and artifacts are found periodically. As part of a 106 Review the 
gravel company had a preliminary archaeological and historical survey 
completed on the property they own. The survey report identified forty-
four prehistoric/historic sites. A mental detecting survey was 
recommended to determine if there are any Civil War artifacts.
    The Buffington Island battlefield is included as one of 242 
``foundation sites'' in the Civil War Trust's Civil War Heritage Trail. 
This historical site is one of the region's and Ohio's most important 
historical assets. Kentucky and Indiana are currently in the process of 
marking Morgan's Raid Route across their states. The Meigs County 
Historical Society was awarded a Travel and Tourism grant to research 
and mark the route in Meigs County and significant sites in the 
Buffington Island Battlefield area. Several markers have been delivered 
and will be set in the next few months.
    In an effort to save the battlefield the Meigs County Historical 
Society is negotiating with the gravel company concerning the immediate 
danger to the site.
    However, we must also look for ways to guarantee long-term 
protection. One way to preserve this battlefield is through the 
purchase of significant locations identified with the battle. A park 
and visitors center portraying the battle history should also be part 
of the battlefield development.
    All of this seems so much to go through for just a piece of land, 
but it is really more than that. This piece of land is a piece of 
history, where husbands, sons and fathers gave their lives. These men 
believed in freedom and fought for it, whether they were Union or 
Confederate soldiers doesn't matter, they were fighting for a cause 
they chose to believe in. It is only right that we preserve this 
battlefield in memory of those who gave the ultimate sacrifice, their 
life. The official War records state that 47 Confederate soldiers were 
buried by Union troops on the battlefield and seven more by the local 
citizens. This burial site has not been positively identified, it is 
imperative that this site be found and preserved as hallowed ground. 
Working together, the Buffington Island Battlefield can be preserved 
for many future generations to come.
                                 ______
                                 
prepared statement of the ohio department sons of union veterans of the 
                               civil war
    The Ohio Department Sons of Union Veterans of the Civil War is the 
primary organization representing the largest Union veterans 
organization of the post-Civil War period--the Grand Army of the 
Republic (G.A.R.). When the G.A.R. disbanded due to the death of most 
of its members, it literally wrote a will naming the Sons of Union 
Veterans of the Civil War as its legal heir to its property as well as 
to its purposes to keep the memory and sacrifices of the ``Boys in 
Blue'' alive.
    It has been a primary concern of the Ohio Department of the 
imminent danger of the destruction of Ohio's only Civil War 
battlefield, the Battle of Buffington Island at Portland, Meigs County, 
Ohio. This battle involved nearly 8,000 Union troops as well as 2,000 
Confederate troops. The only other battles on northern soil were the 
Battle of Gettysburg in Pennsylvania and the Battle of Corydon in 
Indiana. (This latter battle was also a result of the same Confederate 
raid that resulted in the Battle of Buffington Island.)
    The Battle of Buffington Island has several unique historical 
points to make. First, it involved both federal Union troops as well as 
local militia troops. This is the only battle known to us that involved 
local militia as well as federal troops. Meigs County, Ohio, where the 
battle occurred, had a significant number of county militiamen 
dedicated to the defense of its county. Historians credit the vigor and 
dedication of these militiamen to the delaying of the Confederate 
troops that caused their delay and engagement at Portland, Ohio.
    Further, the Battle of Buffington Island is unique in that it 
involved artillery, cavalry, infantry, and naval operations. Three 
Union gunboats assaulted the Confederates from their points in the Ohio 
River.
    In addition to these points, this battle involved the participation 
of two future U.S. Presidents--Rutherford B. Hayes and William 
McKinley, both Ohio ``boys''. This is likely the only Civil War battle 
where such a situation occurred.
    One point about the significance of this battle is often 
overlooked. The Battle of Buffington Island occurred on July 19, 1883. 
This is just a few days after the Confederate defeats at Gettysburg and 
Vicksburg. It is also the same time that the largest riots in U.S. 
history occurred--the New York Draft Riots. Had the Confederates 
succeeded in the Battle of Buffington Island, it could have renewed 
Confederate hopes that invasions onto northern soil would be a primary 
goal thus changing the whole end to the Civil War.
    The official records of the Civil War indicate that at least 54 
Civil War soldiers of the Battle of Buffington Island are buried on the 
Buffington Island Battlefield. Currently, the locations of these graves 
are unknown. With both time and funding, archeologists have assured us 
that the locations can be located. Since Confederates are legal U.S. 
veterans of the Civil War, it really does not matter which kind of 
soldiers are buried there. If this battlefield is allowed to be 
excavated by a sand and gravel company, the bodies of the veterans of 
this country may very well end up in paving material created from this 
sand and gravel--a disgrace in the opinion of anyone with a shread of 
patriotism in them.
    The exact boundaries of the Battle of Buffington Island are not yet 
completely known. Again, it will take time and money to obtain expert 
archeological study to determine this. We do know, however, certain 
parts of the area that are undoubtedly part of the battle--a 
significant part of which is owned by the Shelly Company of Thornville, 
Ohio. This company has already applied to the Ohio Department of 
Natural Resources for a mining permit. Since the State of Ohio has no 
laws regarding preservation of historical areas, the Ohio Department of 
Natural Resources has no choice but to eventually issue this permit 
thus guaranteeing the destruction of the battlefield.
    The reason the exact boundaries of the battle are yet unknown is 
due to another unique situation of the battle. It is what is called a 
``running battle''. The Union was attacking the Confederates on three 
sides--one of those sides being the Ohio River. That left the only path 
of escape for the Confederates being up river along the Ohio River. 
That caused the Confederates to keep moving up river as the battle 
flared.
    The question may arise why Meigs County, the home of the battle, 
has not done anything to preserve the land. Meigs County is a part of 
the Appalachian region of Ohio. It has a population of 23,000 people. 
Federal statistics indicate that about half of the population receives 
Government checks from Government agencies such as the Social Security 
Administration and the Department of Human Services. Unemployment runs 
much higher than the average for the U.S. The largest employers in the 
county are a coal company, a school district, and the county 
Government. The county has the lowest teaching salaries in the State of 
Ohio--so low in fact that some teachers qualify for food stamps. The 
county is too poor to afford to buy the property even though land 
prices are comparatively low for the rest of the state.
    The State of Ohio is also currently in a funding crisis due to a 
recent Ohio Supreme Court ruling requiring a complete restructuring of 
the school funding to equalize schools around the state. They do not 
have the funding to pay for the battlefield either.
    It has always been a basic premise of American democracy that the 
people through its Government must supply funding and assistance to the 
public when the people cannot handle problems as individuals. Clearly, 
the Buffington Island Battlefield falls in this category. Neither the 
local people nor the State of Ohio has the funds to save this critical 
historical area. Current Ohio law gives eminent domain to condemn the 
land of this battlefield if the money is available for the legal costs 
and the purchase of the land. It is absolutely imperative that your 
committee provide the funds to condemn and purchase the property. Some 
of this property is coming up for private sale by a private owner on 
April 25. We fear that the Shelly Company will endeavor to purchase 
this thus making it even more expensive to condemn and purchase the 
property.
    Currently, a new organization called the Ohio Civil War Trails 
Commission has been formed to inform the public on Ohio's contributions 
in the Civil War. The loss of the most important Civil War site in Ohio 
will cripple any attempt to increase tourism in Ohio through this 
commission. It would be devastating to show a large hole in the ground 
as the place where brave men once struggled.
    Currently, Morgan's Raid, which is the raid that resulted in the 
Battle of Buffington Island, is the most re-enacted part of the Civil 
War. There are no less than four different places in three states that 
re-enact portions of this battle thus proving its significance in Civil 
War history.
    We realize that other Civil War battlefields are in danger. 
However, Ohio furnished the 3rd largest number of soldiers to the Union 
in the Civil War. It furnished an equal amount of support in food and 
materials. Ohio also furnished the most successful Generals of the 
war--Grant, Sherman, Custer, and Sheridan. It would seem only fair that 
the single Civil War battlefield be entitled to be saved. The federal 
Government has already ranked it as one of the most endangered 
significant sites of the Civil War. Further, this battlefield is ranked 
by historians in Ohio as the Number One endangered historical site of 
any kind in Ohio.
    Though the historical research has not yet been concluded, it also 
appears that this same battlefield was involved in an 1862 part of the 
Civil War. Jenkins' Raid--the first raid onto northern soil during the 
Civil War--occurred on this same sight. A reference in historical 
materials refers to this site as ``Camp Scott''. Though no battle 
occurred during Jenkins' Raid, it is nonetheless very significant.
    When the federal Government is stressing higher educational 
standards, how do public school teachers of the nation's children prove 
that it is important to a well-rounded education to learn about 
American history when the Government stands by to allow an important 
battlefield like Buffington Island be forever destroyed by a mining 
company. There is no doubt that there are other sources of land that 
can provide sand and gravel for this company, but there is no way to 
replace a battlefield.
    The Shelly Company of Thornville, Ohio, has not been cooperative in 
providing the specifics on the value of the sand and gravel under their 
lands in order to make a specific value on the land. This has been done 
by the company in order to confound our ability to obtain the funds we 
need to purchase the property. We can only estimate that the legal 
costs, archeological costs, and land purchase may run up to $17 
million. However, there is currently a public school building located 
on the property that the school is hoping to vacate in favor of 
building a consolidated school at another location. This building can 
easily be used as an interpretive and historical center.
    I hope you will see the immediate need of the funds to save the 
Buffington Island Battlefield and grant full funding of the site. Meigs 
County currently has a nonprofit corporation set up to accept the 
monies and begin the process of acquiring property. All that is needed 
is federal funding.
    God save the Union and our battlefields.
                                 ______
                                 
                                 The Ohio State University,
                                   Columbus, OH, February 26, 1998.
Mrs. Margaret A. Parker,
President, Meigs County Historical Society,
Pomeroy, OH.
    Dear Mrs. Parker: I am delighted to support your effort to secure 
federal funds for the preservationist work of the Meigs County 
Historical Society. I fully approve of your effort to preserve the 
Buffington Island Battlefield, Portland, Ohio as the centerpiece of 
your proposal, for the site is both significant and endangered.
    In my wide travels to historical sites in the United States and 
abroad, I have visited literally hundreds of battlefields. Some like 
Waterloo, Gettysburg, Omaha Beach, and Gallipoli have undeniable 
historical significance. Many do not, but they nevertheless draw 
thousands of visitors because they are part of public park systems and 
offer an excellent combination of education and recreation. Such sites 
are quite literally ``portals to history'' that encourage further study 
and contemplation on the part of people who might not otherwise have 
any curiosity or interest in, for example, the American Civil War. Thus 
the sites take on an importance that transcends their objective 
historical importance.
    Whether a site serves an educational role depends, of course, upon 
its facilities and presentation. Many sites I've visited began with 
private and local-public investment, but they need public funds to 
expand and reach their full potential. Three such sites that I have 
visited often are Tippicanoe (Indiana), Point Pleasant (West Virginia), 
and Fort Ligonier (Pennsylvania), all of which serve as ``portals'' for 
the trans-Appalachian migration and the conflict with the Native 
Americans. Only public funds (in the absence of some very wealthy 
philanthropist) can bring a site to an appropriate level of 
development.
    In the current absence of another site like it, Buffington Island 
could be Ohio's ``portal'' to the Civil War in the way Fort Ancient 
(Ohio) now is for the study of Native American culture. I would not 
argue that the battle of Buffington Island looms great in Civil War 
history since Morgan's Raid is only a diversion in a very big war, 
1861-1865. Nevertheless, the site of the battle would be an outstanding 
place for the citizens of the Ohio River valley and more distant 
visitors to sample the history of the mid-19th century through 
reenactments, festivals, presentations, exhibits, and study centers. I 
have seen such sites for 18th and 19th century activities at Caesar's 
Creek State Park (Ohio) and New Salem Village (Illinois), and both are 
popular weekend and vacation attractions. Buffington Island could play 
the same role for the Ohio Valley culture of 19th century, not just the 
Civil War.
    Knowing the enthusiasm and dedication the Meigs County Historical 
Society has shown in building your county museum and in supporting 
preservationist efforts along the Ohio River, I am confident that you 
and your members would see that the Buffington Island project is done 
correctly. I applaud your effort to save Buffington Island as a place 
where all Americans can gather to contemplate their common history.
    Best wishes as always.
            Sincerely,
                                        Allan R. Millett,  
                           Maj. Gen. Raymond E. Mason, Jr.,
                                     Professor of Military History.
                                 ______
                                 
                          University of Rio Grande,
                              Rio Grande Community College,
                                     Rio Grande, OH, March 6, 1998.
Ms. Margaret A. Parker,
President, Meigs County Historical Society,
Pomeroy, OH.
    Dear Ms. Parker: University faculty write letters of support as 
part of the professional routine; the task is quite mechanical and 
mundane. Every once in a while, however, one can actually take pleasure 
in writing such a letter because the cause is so extraordinary. This is 
the case with Buffington Island. I support the preservation of this 
historic site with my strongest endorsement and unfeigned enthusiasm. 
Buffington Island can only be an asset to our state and community.
    At Antietam, Gettysburg, and countless other places across our 
land, there are monuments honoring the sacrifice of Ohio's soldiers 
during the Civil War. It would be a travesty to desecrate the only site 
in the state of Ohio where a Civil War battle took place. It is well 
known that two future presidents, Rutherford B. Hayes and William 
McKinley, participated in this conflagration. As the only Civil War 
battlefield in Ohio, Buffington Island has great historic and economic 
potential for our region and the state. Even the United States Congress 
has determined the significance of this site by declaring it a Class C 
principal battlefield. The Ohio Historic Preservation Office has also 
determined that the battlefield is eligible for the National Register 
of Historic Sites. Consequently, it is thereby imperative that the 
pristine condition of this battlefield be maintained so future 
generations can know of its significance and the sacrifice a generation 
made to save the Union.
    It is difficult for me to believe that our society is willing to 
allow the destruction of a Civil War battlefield for something as 
insignificant as gravel. Certainly there are other areas where gravel 
could be mined. There is something terribly wrong with our values when 
we support the building of sports arenas in Cleveland, Columbus, and 
Cincinnati, but are unwilling to preserve our historic heritage. At 
present, an Ohio bicentennial conference is being planned at the 
University of Rio Grande which will focus on John Hunt Morgan's raid. 
It would be beneficial for us to take groups to view the site. Imagine 
their impressions and our embarrassment if what they saw were trucks 
mining gravel. Once destroyed, this site can never be saved.
    In conclusion, I strongly endorse the preservation of Buffington 
Island battlefield, and encourage you to give the utmost consideration 
to saving our historic heritage. Please do not hesitate to contact me 
(E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="297a7e60657a6667697c7b6e7b6e6a6a076c6d7c">[email&#160;protected]</a>) if I can be of any further assistance.
            Sincerely,
                                          Samuel J. Wilson,
                                    Associate Professor of History.
                                 ______
                                 
        prepared statement of the national woman's relief corps
    For the past several years, the Meigs County Historical Society and 
The Ohio Historic Preservation Office have been heading a campaign to 
save the only Civil War battlefield in the State of Ohio or north of 
the Ohio River. The battle, known as the Battle of Buffington Island, 
took place at Portland, Lebanon township, Meigs county, Ohio on July 
19, 1863 and involved about 2,000 Confederate troops under the 
leadership of General John Hunt Morgan and at least 8,000 Union troops. 
Known to have participated in this battle were two future United States 
Presidents, Rutherford B. Hayes and William McKinley.
    The site in Meigs County is on the critical list of 384 principal 
battlefields defined by Congress that should be preserved and is ranked 
in the top 2.6 percent of all Civil War armed conflicts. It is ranked 
as a Class C principal battlefield for historical significance. The 
site has been determined by the Ohio Historical Preservation Office to 
be eligible for the National Register of Historical Sites. However, a 
portion of the battlefield at Portland may be lost to sand and gravel 
mining, unless public support for preservation of the site is raised. 
Richards and Sons, Inc., of Racine, Ohio, have applied to the U.S. Army 
Corps of Engineers, Huntington District, for a permit to build a 
loading facility on the Ohio River at Portland and to the Ohio 
Department of Natural Resources for a mining permit. The area that 
Richards and Sons, Inc., owns for sand and gravel purposes is located 
on known portions of the battlefield. It is also historically known 
that Native Americans inhabited this land and artifacts are found 
periodically.
    The Buffington Island Battlefield is included as one of 242 
``foundation sites'' in the Civil War Trust's Civil War Heritage Trail. 
This trail is a national preservation and heritage tourism initiative 
of the Civil War Trust in partnership with the National Trust for 
Historical Preservation, the National Park Service, and many private 
historic preservation organizations. Its goals are to promote the 
identification, understanding, appreciation, preservation and 
visitation of important Civil War sites and to create a permanent 
national memorial to this defining event in our nation's history.
    This historical site is one of the region's and Ohio's most 
important historical assets. Further delay of the site's protection and 
compatible development for heritage tourism only increases the 
vulnerability of the site to inappropriate development and does nothing 
to stimulate the local economy.
    The National Order of The Woman's Relief Corps, Auxiliary to The 
Grand Army of The Republic, goes on record at this time to further 
submit that this Buffington Island battlefield site should be given its 
proper due and be enshrined as a memorial to those men who fought and 
died there and not be developed into a gravel pit.
                                 ______
                                 
                   The American Legion, Department of Ohio,
                                                      8th District.
    As Commander of the 8th District of the American Legion I am 
writing this letter in support of the Meigs County Historical Society 
for request that allocations for funds for the preservation of the 
Buffington Island Civil War Battlefield.
    For the past several years, the Meigs County Historical Society and 
the Ohio Historic Preservation Office have been heading a campaign to 
save the only Civil War battlefield in the State of Ohio or north of 
the Ohio River. The battle known as the Battle of Buffington Island, 
took place at Portland, Lebanon Township, Meigs County, Ohio on July 
19, 1863 and involved about 2,000 Confederate troops under the 
leadership of General John Hunt Morgan and at least 8,000 Union troops. 
Known to have participated in this battle were two future United States 
Presidents, Rutherford B. Hayes and William McKinley.
    The Buffington Island battlefield is included as one of 242 
``foundation sites'' in the Civil War Trust's Civil War Heritage Trail. 
This Trail is a National preservation and heritage tourism initiative 
of the Civil War Trust in with the National Trust for Historic 
Preservation, the National Park Service, and many private historic 
preservation organizations. Its goals are to promote the 
identification, understanding, appreciation, preservation, and 
visitation of important Civil War sites and to create a permanent 
national memorial to this defining event in our nation's history.
    Since the American Legion is a war time organization we feel that 
it is important to preserve Buffington Island for Meigs County and 
Ohio. Buffington Island in Meigs County is part of the 8th District. We 
ask your support in making this happen.
                                             Mick Williams,
      Commander, 8th District, American Legion, Department of Ohio.
                                 ______
                                 
   prepared statement of the sons of union veterans of the civil war
    For the past several years, the Meigs County Historical Society and 
The Ohio Historic Preservation Office have been heading a campaign to 
save the only Civil War battlefield in the State of Ohio or north of 
the Ohio River. The battle, known as the Battle of Buffington Island, 
took place a Portland, Lebanon township, Meigs County, Ohio on July 19, 
1863 and involved about 2,000 Confederate troops under the leadership 
of General John Hunt Morgan and at least 8,000 Union troops. Known to 
have participated in this battle were two future United States 
Presidents, Rutherford B. Hayes and William McKinley.
    The site in Meigs County is on the critical list of 384 principal 
battlefields defined by Congress that should be preserved and is ranked 
in the top 2.6 percent of all Civil War armed conflicts. It is ranked 
as a Class C principal battlefield for historical significance. The 
site has been determined by the Ohio Historical Preservation Office to 
be eligible for the National Register of Historical Sites. However, a 
portion of the battlefield at Portland may be lost to sand and gravel 
mining, unless public support for preservation of the site is raised. 
Richards and Sons, Inc., of Racine, Ohio, have applied to the U.S. Army 
Corps of Engineers, Huntington District, for a permit to build a 
loading facility on the Ohio River at Portland and to the Ohio 
Department of Natural Resources for a mining permit. The area that 
Richards and Sons, Inc., owns for sand and gravel purposes is located 
on known portions of the battlefield. It is also historically known 
that Native Americans inhabited this land and artifacts are found 
periodically.
    The Buffington Island Battlefield is included as one of 242 
``foundation sites'' in the Civil War Trust's Civil War Heritage Trail. 
This trail is a national preservation and heritage tourism initiative 
of the Civil War Trust in partnership with the National Trust for 
Historical Preservation, the National Park Service, and many private 
historic preservation organizations. Its goals are to promote the 
identification, understanding, appreciation, preservation and 
visitation of important Civil War sites and to create a permanent 
national memorial to this defining event in our nation's history.
    This historical site is one of the region's and Ohio's most 
important historical assets. Further delay of the site's protection and 
compatible development for heritage tourism only increases the 
vulnerability of the site to inappropriate development and does nothing 
to stimulate the local economy.
    General William McLaughlin Camp 12, Sons of Union Veterans of The 
Civil War, descendants of The Grand Army of The Republic, goes on 
record at this time to further submit that this Buffington Island 
battlefield site should be given its proper due and be enshrined as a 
memorial to those men who fought and died there and not be developed 
into a gravel pit.
                                 ______
                                 
                                Society of the War of 1812,
                                 Upper Sandusky, OH, March 6, 1998.
Meigs County Historical Society,
P.O. Box 145,
Pomeroy, OH.
    I wish to say that I am in favor of preserving the Buffington 
Island Battlefield as it is the only Civil War Battlefield in the state 
of Ohio and deserves to be held in trust for future generations.
    Historical sites are not only for the memory of the event, but also 
honors those who participated in the battle and especially those who 
paid the supreme sacrifice as a result of the conflict. I am concerned 
that fifty-four graves of men who died at this battle are not accounted 
for and are presumed to be interned somewhere on the field of battle. 
Development of the land may destroy a cemetery.
    I would also like to point out that destruction of a battlefield or 
any site worthy of historical value cannot be undone.
    Thus I would like to see the Buffington Island Battlefield 
preserved as a National Park and support the request for allocation of 
funds to be used for purchase of the site.
            Sincerely yours,
                                   Harrison Scott Baker II,
                               President, Ohio Society War of 1812.
                                 ______
                                 
                                  The Ohio Society,
                           Sons of the American Revolution,
                                     Cincinnati, OH, March 5, 1998.
Margaret A. Parker,
President, Meigs County Historical Society,
Pomeroy, OH.
    Dear Ms. Parker: We have reviewed the situation of the Civil War 
Battle Field, known as the Buffington Island Battlefield at Portland, 
Ohio and with Executive Committee action, give our support to the 
preservation of this historical site. It is important to preserve 
historical sited, especially those where our soldiers have given their 
life to establish and preserve our Country.
    We should preserving the only Civil War Battle sites as a 
remembrance to those who made the ultimate sacrifice there and at the 
many other battlefields to preserve and maintain the United States of 
American. Preserving these sites also preserves history. It is 
necessary for us to know what has happened in the past in order to 
avoid repeating these same and similar happenings in the future.
    We strongly support your effort to preserve the Buffington Island 
Battlefield at Portland, Ohio because we feel it is necessary to 
remember those who participated in giving us and maintaining the United 
States of American and preserving history to prevent a repeat of the 
similar events in the future.
            With Best Regards,
                                                  Robert F. French.
                                 ______
                                 
    prepared statement of the ewings chapter, sons of the american 
                               revolution
    For the past several years the Meigs County Historical Society and 
the Ohio Historic Preservation Office have been heading a campaign to 
save the only Civil War battlefield in the State of Ohio. This battle 
known as the Battle of Buffington Island took place at Portland, 
Lebanon Township, Meigs County, Ohio on July 19, 1863. This battle 
involved about 2,000 Confederate troops under the leadership of General 
John Hunt Morgan and at least 8,000 Union troops. Known to have 
participated in this battle were two future United States Presidents, 
Rutherford B. Hayes and William McKinley.
    This site in Meigs County is on the critical list of 384 principle 
battlefields defined by Congress that should be preserved and is ranked 
in the top 2.6 percent of all Civil War armed conflicts. This site has 
been determined by the Ohio Historic Preservation Office to be eligible 
for the National Register of Historic Sites. However, a portion of this 
battlefield at Portland may be lost forever to sand and gravel mining 
unless additional public support for the preservation of this site is 
raised.
    The Buffington Island battlefield is included as one of the 242 
``foundation sites'' in the Civil War Trust's, Civil War Heritage 
Trail. This trail is a national preservation and heritage tourism 
initiative of the Civil War Trust in partnership with the National 
Trust for Historic Preservation.
    Ewings Chapter, Sons of the American Revolution urges your 
consideration and support for an allocation of funds to be used for the 
preservation and purchase of the Buffington Island Civil War 
Battlefield.
                                 ______
                                 
 prepared statement of the sons of confederate veterans, ohio division
    In the summer of 1863, the famous Confederate cavalryman, Gen. John 
Hunt Morgan, led a daring raid across the Ohio River into the heart of 
Union territory, traveling hundreds of miles through enemy territory in 
Indiana and Ohio. His force of over 2,000 Confederates were harried and 
pursued by local militia and Federal units, culminating in the battle 
of Buffington Island on July 19th, 1863. Morgan's attempts to cross the 
Ohio river and escape back to Southern soil were thwarted by converging 
Union columns and gunboats. On that foggy Sunday morning roughly 2,000 
Confederates and 8,000 Union soldiers fought a pitched battle, 
resulting in the defeat and capture of a major portion of the 
Confederates engaged. Morgan, however, was able to escape with a 
contingent of about 1,100 men, but was ultimately captured one week 
later in Columbiana County after a grueling chase. Thus was to end the 
longest and one of the most fascinating of all cavalry operations of 
the Civil War.
    The Buffington Island battlesite, located in Meigs County, Ohio, 
near the small village of Portland, is now in imminent danger of being 
destroyed by plans to mine gravel deposits on significant portions of 
the site where the battle occurred. Richards and Sons, Inc., of Racine 
Ohio, owns battlefield land and have applied to the U.S. Army Corps of 
Engineers for a permit to construct loading facilities on the adjacent 
Ohio River. They have also applied to the Ohio Department of Natural 
Resources for a mining permit. To our knowledge, neither has been 
awarded at this time. However, the ODNR has no authority to deny 
applications based on a site's historical significance, so that it is 
likely such a permit will be granted. Even if the U.S. Corps of 
Engineers were to deny the loading facility to Richards and Sons, the 
company still has the option of mining and trucking out the gravel by 
road. Unfortunately, the thousands of letters written by concerned 
citizens to state officials have been largely met with at best only 
sympathy. There have been no real and concerted efforts on the part of 
Ohio's leadership to save Buffington Island. It is our feeling that 
unless funds are found to purchase the site, it will succumb to 
commercial ``development'' of the type which will forever ruin its 
historical worth. Gravel pit mining would leave a giant hole where men 
fought and died.
    Is it worth saving? Our membership believes without a doubt it is 
worthy of preservation for the following reasons:
    Buffington Island is Ohio's only battlefield and one of the very 
few major engagements to be fought on Northern soil. Proportionately, 
Ohio sent more men to serve the Union cause than any other state. It 
would be a blot on their memory if the only site in their mother state 
where Ohioans shed their blood were to be lost.
    The battlesite looks much the way it did in 1863. Its present 
pristine condition would be the envy of other battle sites as it has so 
far escaped the encroachment of development common to other Civil War 
sites. Visitors can now view the area much as it appeared when the 
battle occurred.
    Buffington Island was a major battle. The engagement involved 
roughly 10,000 participants, 2,000 Confederate and 8,000 Federal. It is 
listed by Congress as one of the 384 principal battlefields which 
should be preserved and ranked in the top 2.6 percent of all conflicts 
in the war. It is also one of the 242 ``foundation sites'' in the Civil 
War Trust's Civil War Heritage Trail, the organization's effort (in 
partnership with the National Park Service, the National Trust for 
Historic Preservation and other private historic preservation groups) 
to promote the identification, preservation, understanding and 
visitation of important sites by the public. The Ohio Historic 
Preservation Office has also determined that Buffington Island is 
eligible to be listed on the National Register of Historic Sites.
    Buffington Island was a unique battle. There was none like it. It 
was the climax of the longest raid of the entire war. Involved was 
cavalry, infantry, and naval forces in the form of Federal gunboats on 
the river. Two future U.S. presidents, Rutherford B. Hayes and William 
McKinley, were participants. As stated before, it was one of the very 
few engagements fought in the North.
    Soldiers rest in unmarked graves on the site. This has been 
documented. The Official Record of the Civil War records a letter from 
Gen. Hobson to Col. Lewis Richmond stating that local citizens buried 
47 rebels and a Dr. Scriven buried 7. Just as cemeteries cannot be 
wantonly destroyed, cannot the same respect be afforded to the remains 
of American soldiers who gave their lives to a cause they believed in? 
If the Richards and Sons Company proceed with their intentions, it will 
be a desecration to the memory of all the soldiers who fell there, both 
Union and Confederate.
    Mining the battlefield would achieve only short term economic 
benefits. From a purely economic standpoint, we believe mining the site 
contrary to the economic welfare of southeast Ohio. Although mining 
would provide jobs and income so desperately needed in this area of 
Appalachia, operations would be of a limited nature. Once available 
deposits were extracted, the result would for all time destroy the 
potential tourism benefits associated with the site's historical 
significance. Tourism has no limits, in terms of the numbers of people 
who might visit and for how long. We believe the site has great 
potential, depending on how it is ``developed'' for tourism. At the 
present time, efforts are underway by the newly formed Ohio Civil War 
Trails Commission to establish the Morgan Trail, a route following 
Morgan's raid through the state. Signage, audio and video tapes, 
brochures, web sites, etc., would provide impetus for the public to 
visit southern Ohio and enjoy the rich historical tradition of the 
state as well as the inherent natural beauty of the region. Kentucky 
and Indiana are well ahead of Ohio with similar plans. One of the goals 
of the Commission is to integrate the efforts of all the neighboring 
states. If done well, this could provide a continual infusion of 
revenue to the existing businesses of the area, as well as the growth 
of new enterprises which would surely arise to meet the demand of new 
visitors. Buffington Island would be the crown jewel of the Trail. That 
is, provided visitors have a pristine battlefield to view rather than a 
gravel pit.
    In short, as members of the Sons of Confederate Veterans, and more 
importantly, as citizens who place great importance on our nation's 
history and the sacrifices made by our ancestors, we urge you to do all 
in your power to save the Buffington Island battlesite. If federal 
funds are available for the purchase of Civil War sites, Buffington 
Island must be considered. Unless measures are taken now, it's loss 
will be lamented by many future generations.
                                 ______
                                 
                                            Civil War Days,
                                       Somerset, OH, March 7, 1998.
Meigs County Historical Society,
Pomeroy, OH.
    Dear Ms. Parker: The Civil War Days Committee of Somerset, Ohio is 
fully and firmly committed to Civil War Battlefield preservation in 
general and the Buffington Island Battlefield in particular. All of the 
proceeds from our September event id earmarked for Buffington Island.
    We have many Civil War era projects in our area but have forsaken 
them, at least temporarily, while the second Battle of Buffington 
Island, as we call it, rages. Our maintenance projects can be deferred, 
but we only get one chance to save an endangered battlefield.
    We are all aware of the importance of Buffington. It is an 
excellent example of U.S. naval activity in coordination with infantry, 
cavalry and militia. It is also the only battle where three future 
presidents (Garfield, Hayes, McKinley) were engaged. Buffington is a 
hallowed symbol of Ohio's unparalleled contribution to the conflict. No 
state produced more men, more regiments and more generals per capita 
than Ohio. The offspring of those 250,000 Buckeyes who served their 
country, now spread to the ends of the earth should now step forward 
and honor them in a dignified and perpetual manner. We can think of no 
more fitting way to show our respect than to permanently remove the 
property from harm's way.
    If the Land and Water Conservation Fund is indeed planning to 
acquire new properties, with certain uncommitted funds, we believe 
Buffington is an appropriate site for such an acquisition.
            Sincerely,
                                             Robert Snider,
                                                          Director.
                                 ______
                                 
                  30th Ohio Volunteer Infantry Association,
                                       Columbus, OH, March 5, 1998.
Margaret Parker,
Meigs County Historical Society,
Pomeroy, OH.
    Dear Misses Parker: Our Civil War Reenacting Association is fully 
committed to the Historical Society's efforts regarding the Buffington 
Island Battlefield. We are acutely aware of the importance of the site. 
Ohio contributed more men and more regiments per capita than any other 
state in the Union, north or south and yet somehow we are unable or 
unwilling to save a site within our own boundaries.
    It is a great shame on the current inhabitants of this greatest of 
all states, that this issue cannot be resolved, that posterity may know 
what happened there. Scores of men struggled died and are buried there. 
Indeed the burial sites are yet unknown. It is our duty to continue the 
struggle to save the property and protect the integrity of this most 
hallowed of state ground. It is more than just an Ohio treasure that 
remains in jeopardy. It is also a national calamity. What will future 
generations and historians say of the culture that refused to save 
property, hallowed by their grandfathers, when the means was at hand?
    We believe that the uncommitted monies yet available in the Land 
and Water Conservation Fund could do much to salvage this important 
shrine. We hope that the Senator Slade Gorton chaired Committee will 
fully consider the acquisition of the most vulnerable components of the 
battlefield as a first step in satisfying the legacy of our 
grandfathers' sacrifice.
    We have financially and emotionally supported your good efforts in 
the past and will continue to do so.
            Your ob't. serv't.
                                              David Snider,
                                             Association Historian.
                                 ______
                                 
                           Perry County Historical Society,
                                       Somerset, OH, March 3, 1998.
Meigs County Historical Society,
Pomeroy, OH.
    Dear Margaret Parker: The Perry County Historical Society is very 
much interested in the preservation of Buffington Island Battlefield. 
We sponsor a reenactment here in Somerset every September and the net 
proceeds of the event go to the Buffington Island Battlefield 
Preservation Association.
    We believe there are several worthy battlefield sites throughout 
the nation that are currently vulnerable, which merit significant 
preservation efforts, but we believe there are several things about the 
Buffington Site which move it to the top of the list.
    Foremost is the fact that the Buffington site is the only Ohio site 
of Civil War vintage. To save that battlesite is to save 100 percent of 
the battlesites in the state. Ohio's commitment, giving 250,000 men to 
the cause and not less than sixty generals, including: the legendary 
Grant, Sheridan, Sherman and Custer warrants our full measure of 
devotion.
    The Battlesite is a great resource for all of the United States in 
ways we are only now coming to understand. Educators say that you can 
teach absolutely any subject in the world if you can somehow use 
dinosaurs, space travel or the American Civil War as the vehicle of 
delivery. Saving this battlefield not only pays homage to the 
generation that fought and died there it also provides promise for our 
future young scholars. It is indeed a rare opportunity when generations 
long dead and those yet born can be served by the current inhabitants. 
Let us all recognize and seize this opportunity for what it really is.
    Please forward our concerns to Senate Chairman Slade Gorton 
regarding is wonderful opportunity.
            Sincerely,
                                            Douglas Miller,
                                                    PCHS President.
                                 ______
                                 
                                1st Ohio Volunteer Cavalry,
                                       Somerset, OH, March 3, 1998.
Meigs County Historical Society,
Pomeroy, OH.
    Dear Margaret Parker: The 1st Ohio Volunteer Cavalry is a Civil War 
Reenactment unit centered in central Ohio that is very much concerned 
about the future of our states only battlefield at Buffington Island 
near Portland, Ohio.
    The importance of Ohio's contribution in the Civil War in 
particular and nation building and preserving in general has long been 
overlooked in the broad survey that the study of our nation's history 
has become. The state contributed more men than any state in the 
nation, except the old states of New York and Pennsylvania, to the 
great struggle. It seems a terrible shame than those men who struggled, 
died and are buried there should be forgotten by there offspring. It 
reflects very badly on all of us as a society that the preservation of 
this hallowed ground is not a priority for all of the individuals who 
have enjoyed the fruits of the liberty this struggle salvaged.
    If the Subcommittee on Interior and Related Agencies is indeed 
exploring potential land acquisitions with yet to be committed funds, 
we can think of no better place to begin than at Buffington Island. It 
should be this generation of citizens and lawmakers that saves this 
hallowed property for posterity. Future generations will not have the 
luxury nor the solemn duty we have been blessed with.
    We have supported the Buffington Island preservation movement on 
the reenacting battlefield, in the classroom and anywhere the story can 
be told and we will continue to do so.
            Sincerely,
                                             Captain Steve Reincke.
                                 ______
                                 
     The Military Order of the Loyal Legion of the 
                                     United States,
                                        Commandery of Ohio,
                                     Massillon, OH, March 14, 1998.
Margaret A. Parker,
President, Meigs County Historical Society,
Pomeroy, Ohio.
    Dear Ms. Parker: I have been appraised that Senator Slade Gorton is 
accepting written outside testimony regarding a special $699 million 
appropriation from the Land and Water Conservation Fund for land 
acquisitions of which $362 million at this time is not earmarked for 
specific projects.
    It is well known that your organization is most concerned about the 
Buffington Island Battlefield being destroyed by a gravel mining 
company. This travesty greatly concerns our Military Order that was 
founded the day that our beloved 16th President, Abraham Lincoln died--
April 15, 1865.
    Our 19th President, Brevet Major General Rutherford B. Hayes of 
Ohio was a participant at the ``historic Ohio battlefield site''. R.B. 
Hayes was our ``MOLLUS'' Commander in Chief from 1888-1893. He also 
served as the Commander of the Ohio Commandery from February 7, 1883 
through May 5, 1886. He was followed by General William T. Sherman who 
served a one year term.
    ``The Military Order of The Loyal Legion of the United States'' 
objectives were many. The number one objective was to honor the memory 
of Abraham Lincoln and to cherish the memories and associations of the 
war waged in defense of the unity and indivisibility of the Republic. 
Translated that also means, the preservation of the countless 
monuments, memorials and battlefields honoring those men who fought and 
died in the Civil War.
    A gravel pit is not a memorial to our fallen comrades and with the 
grace of God, we will win this battle and secure the monies needed to 
preserve this sacred battlefield site.
    As a further testimony on saving the Buffington Island Battlefield, 
I'm listing the following reasons:
    It is Ohio's only Civil War battlefield and Ohio deserves part of 
this national funding having furnished the third most men in the Union.
    It is located in an Appalachian Ohio county of 22,000 population 
that is the poorest in the state where half of the residents receive a 
government transfer payment of some kind.
    There were 8,000 Union and 2,000 Confederates in the battle.
    The battle is unique in that it involved infantry, artillery, 
cavalry, navy and local militia.
    Future President, William McKinley of Ohio also participated.
    The ``Official Records'' of the U.S. government indicate at least 
54 graves of soldiers whose location are currently unknown. These 
graves may end up as paving material by the sand and gravel company 
that owns part of the land.
    Had the Confederates won this battle, it may have prolonged the war 
by encouraging further raids into the north.
    This battle is one of three on northern soil. The others are the 
Battle of Corydon (Indiana) and Gettysburg (Pennsylvania).
    Destroying a battlefield cannot be undone once occurred.
    Destroying an important historical site like this teaches children 
that learning history in school is unimportant.
    Destroying a battlefield cheapens the sacrifice made by those who 
fought there.
    Morgan's Raid is the most re-enacted and celebrated item of the 
Civil War with currently four separate re-enactments occurring 
annually.
    No adequate archeological study has been conducted on the site 
concerning the Civil War.
    In terms of fair play, preserving our Ohio Civil War military 
heritage and history and saving our only battlefield site, hopefully we 
will receive the necessary funding from the ``Committee on 
Appropriations''.
            Loyally yours,
                                         Karl F. Schaeffer,
                                                         Commander.
                                 ______
                                 
          prepared statement of the meigs county tourism board
    The Meigs County Tourism Board respectfully submits the following 
testimony in support of the request for an allocation of funds to be 
used for the preservation and purchase of land at the Buffington Island 
Civil War Battlefield.
    On July 19, 1863 a battle took place in Meigs County, Ohio. The 
battle, known as the Battle of Buffington Island involved 10,000 
American men, and was a significant and defining battle of the American 
Civil War. Currently, another battle rages on the same hallowed ground, 
a battle of preservation.
    The Meigs County Historical Society in accordance with the Ohio 
Historic Preservation Office is spearheading a campaign to save the 
only Civil War battlefield in the State of Ohio. This site is defined 
by Congress as one of the 384 principal battlefields that should be 
preserved, and is ranked in the top 2.6 percent of all Civil War armed 
conflicts. In addition, the battlefield is eligible to be listed on the 
National Register of Historic Sites.
    Unfortunately, a portion of this critical site is in imminent 
danger of being lost forever to the destruction of sand and gravel 
mining. Richard and Sons, Inc., of Racine, Ohio have applied to the 
U.S. Army Corps of Engineers, for a permit to build a loading facility 
on the Ohio River and to the Ohio Department of Natural Resources for a 
mining permit. The land that Richard and Sons has acquired for the 
expressed purpose of sand and gravel mining is located on portions of 
this battlefield site.
    This historical site is unlike any other in the entire state of 
Ohio. It is one of the southeastern region's most important historical 
assets. To rob future generations of a part of their heritage is a 
decision that should not be made for profit.
    This battlefield is undeniably an asset to Meigs County as a 
tourism attraction and as a living history lesson for visitors to 
enjoy. This site is part of the Civil War Heritage Trail, which is a 
heritage tourism initiative of the Civil War Trust in partnership with 
the National Trust for Historic Preservation and the National Park 
Service. To not protect this site for preservation and for future 
appropriate heritage tourism development in ludicrous, and only 
increases the risk of inappropriate development and eventual 
extinction.
    Our forbears were willing to give up their lives in the Battle of 
Buffington Island for the freedom of all men, and for the continuation 
of liberties for all generations to come. The Official War Records 
state that 54 soldiers were buried on this battlefield. We owe it to 
their memory to preserve this site as a testament of their bravery and 
their honor. Thank you for your sincere consideration of this matter, 
and for any help you can extend to our county in finding an amicable 
solution to this situation.
                                 ______
                                 
                         Ohio Historic Preservation Office,
                                     Columbus, Ohio, March 5, 1998.
The Honorable Slade Gorton,
Chairman, Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, Washington, DC.
    Dear Senator Gorton: On behalf of the Meigs County Historical 
Society, I am writing in response to your request for assistance in 
identifying opportunities to use a portion of the Land and Water 
Conservation Fund appropriation to preserve important Civil War battle 
sites. One candidate for your consideration is the site of the Battle 
of Buffington Island, the only Civil War battlefield in Ohio or north 
of the Ohio River.
    The Battle of Buffington Island marked the effective end of the 
Great Ohio Raid, a 17 day, 1,000 mile running skirmish across four 
states between Confederate cavalry troops led by the flamboyant General 
John Hunt Morgan and local militia and Union troops. It was to be the 
longest sustained raid of the Civil War. The battle itself occurred 
near a low point in the Ohio River where General Morgan hoped to escape 
into West Virginia with 2,000 troops. High water, 8,000 Union troops, 
and gunboats stopped him. Two future United States Presidents, 
Rutherford B. Hayes and William McKinley, took part in the engagement. 
Bone weary from weeks in the saddle, Morgan was forced to abandon 700 
men but managed to escape, his raid ending 7 days later less than 100 
miles from the shores of Lake Erie.
    The battle site is marked by a State Memorial within a four acre 
park near Portland in Meigs County, Ohio. Listed in the National 
Register of Historic Places since 1970, the memorial is part of the 
larger battlefield occupying the terraces between the Ohio River and 
the foothills of the Appalachians. Local efforts are underway to mark 
the route of Morgan's raid, and an invitation has been extended by the 
States of Kentucky and Illinois to join and expand their National Park 
Service-funded effort to mark Morgan's route through their states, 
culminating in a marked, multi-state General John Hunt Morgan trail. 
The Battle of Buffington Island is a key site in this Civil War 
heritage trail.
    The secluded agricultural land upon which this site is located is 
now the subject of a proposed gravel mining operation that would 
destroy core features of the battlefield, including an area known 
locally as the ``Bloody Ground.'' Our office is undertaking a review of 
the proposed project under Section 106 of the National Historic 
Preservation Act. Working with the developers, the U.S. Army Corps of 
Engineers, and interested parties, we are identifying the significant 
elements within the area, determining the effects of the project, and 
seeking means of mitigating any adverse effects.
    The Land and Water Conservation Fund appropriation to which you 
refer would be an ideal source of funding to secure and preserve this 
significant Civil War battlefield site. Strong local and inter-state 
interest (over 3,000 letters of concern have been received to date) has 
been expressed, and the developer is sensitive to the significance of 
the site. I urge your Committee's consideration of the Buffington 
Island Battlefield site as a candidate for acquisition with the Land 
and Water Conservation Fund.
    I would be pleased to answer any questions or supply any additional 
information you may need. Thank you for the opportunity to comment on 
your efforts to acquire and preserve important Civil War battle sites.
            Respectfully submitted,
                                      Amos J. Loveday, Jr.,
                               State Historic Preservation Officer.
                                 ______
                                 
                                     State of Ohio,
                         Office of the Lieutenant Governor,
                                      Columbus, OH, March 17, 1998.
The Honorable Slade Gorton,
Chairman, Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, Washington, DC.
    Dear Senator Gorton: I am writing in support of the Meigs County 
Historical Society's request for funding from the Land and Water 
Conservation Fund.
    If approved, this money would be used for a land acquisition (or 
exchange) that would preserve the Buffington Island Battlefield at 
Portland, Ohio, which is Ohio's only Civil War battlefield. The 
battlefield site, which is located in Meigs County, is in danger of 
being destroyed by a pending gravel mining operation.
    As a native of southeastern Ohio, I can personally testify to the 
historical and economic importance of this site.
    The Battle of Buffington Island was part of the infamous ``Morgan's 
Raid,'' the longest, sustained raid of the Civil War. Fought just north 
of the Ohio River, this bloody confrontation involved over 10,000 Union 
and Confederate troops. It was the last major engagement between the 
two forces before General John Hunt Morgan and his raiders surrendered 
in northeastern Ohio seven days later. The battle, along with many of 
the stories and ``legends'' surrounding it, are integral part of our 
unique heritage.
    Many parts of Appalachia have focused on tourism as part of their 
economic development strategies. It is important to note that a multi-
state effort in underway to mark the trail Morgan's Raiders traveled 
through Ohio, Kentucky and Illinois. When completed, the trail will 
attract much welcomed visitors and attention to southeastern Ohio, as 
American history enthusiasts and tourists retrace the events that took 
place there. It is only fitting that the Buffington Island Battlefield 
be preserved as a part of this new trail.
    Given the importance of preserving our country's historic landmarks 
and sites, I believe that the Buffington Island Battlefield would be an 
excellent choice for funding from the Land and Water Conservation Fund. 
Therefore, I urge you and your committee to give favorable 
consideration to the Meigs County Historical Society's request.
    If you need any additional information regarding his letter or my 
support for this important historic preservation project, please do not 
hesitate to contact me at (614) 466-3396.
    Thank you.
            Sincerely,
                                        Nancy P. Hollister,
                                               Lieutenant Governor.
                                 ______
                                 
    Letter From Helen Hooper, Director of Public Policy, Land Trust 
                                Alliance
                                                    April 15, 1998.
The Honorable Slade Gorton,
Chairman, Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, United States Senate, Washington, DC.
    Dear Chairman Gorton: The Land Trust Alliance (LTA), the national 
organization serving the country's more than 1,100 land trusts, is 
pleased to submit this letter to the Subcommittee on Interior and 
Related Agencies for the record of testimony regarding the fiscal year 
1999 appropriations to two federal programs that foster private, 
voluntary land conservation. Specifically, I urge the committee to 
provide adequate funding to the Forest Legacy Program of the Forest 
Service and the Land and Water Conservation Fund (LWCF), especially the 
state grants programs administered by the National Park Service.
Forest Legacy Program
    Recommendation.--LTA supports a substantial increase to a $50 
million appropriation for the Forest Legacy Program.
    The Forest Legacy Program should be increased to $50 million 
annually in order to function as an effective national program. Funding 
at $50 million annually will enable this chronically underfunded 
program to complete projects more rapidly, expand the program to more 
states, respond effectively to the needs of timberland owners, and, 
most importantly, conserve a significant amount of threatened 
timberland. We thank you for your leadership in appropriating an 
increase for this program for the current fiscal year, and urge that 
you make the further increases needed.
    The Forest Legacy Program supports the purchase of interests 
(primarily permanent conservation easements) in environmentally-
sensitive timberland that is threatened with conversion to nonforest 
uses. It is a voluntary, private, non-regulatory means for preserving 
the nation's forests and improving water quality, air quality, 
sensitive habitat, and sustainable economic resources.
    Forest Legacy provides willing landowners with a viable alternative 
to selling their timberland for development; conserves timberland for 
traditional uses; and fosters partnerships between landowners, local, 
state, and federal agencies, and interested nonprofit organizations 
such as land trusts.
            Providing voluntary options to landowners
    The Forest Legacy Program offers willing landowners a viable 
economic alternative to selling their timberland for development. By 
purchasing development rights at fair market value, but leaving the 
ownership in private hands, Forest Legacy allows landowners to retain 
ownership of their land. Landowners can also continue to engage in 
traditional economic activities on timberland such as sustainable tree 
harvesting and maple sugar production. Finally, landowners can be 
secure in the knowledge that their timberland will be protected for 
future generations and that such traditional activities on the land can 
be sustained.
    Example: In Massachusetts, Ted and Beverly Hutchinson, with the 
assistance of the Forest Legacy Program, were able to protect 
permanently approximately 490 acres of their woodland from encroaching 
development. The sale of the development rights for $616,000 removes 
the threat of development from the property and allows the Hutchinsons 
to continue managing their land for forest products as they have for 
the past 60 years. ``I've put a lot of time and energy into this land 
planting trees and harvesting timber. I'd hate to see houses built all 
over the property,'' said Hutchinson.
            Conserving timberland for traditional uses
    Forest Legacy makes possible the sale of conservation easements by 
timberland owners wishing to continue the forest uses on their 
property. In doing so, Forest Legacy protects the quality of life in 
communities and ensures continued traditional uses of the timberland. 
Sustainable timber harvesting, outdoor recreational activities such a 
hunting, fishing, and hiking, are all permitted on property enrolled in 
the Forest Legacy Program. Moreover, conserving existing timberland 
checks sprawl, and protects wildlife habitat and the other open space 
and rural characteristics of many forested areas.
    Example: In Vermont, a $342,000 Forest Legacy grant made possible a 
conservation easement on 2,281 acres of timberland from Wagner 
Woodlands-Atlas Timber. The land will continue to be owned and managed 
by the landowner as productive timberland while accessible to the 
public for traditional recreational activities such as hunting, 
fishing, hiking, snowmobiling, and cross-country skiing. According to 
Hank Swan, general partner of Atlas Timber, ``I see this purchase to be 
a win-win situation. Atlas is able to continue its primary mission of 
sustained yield management and harvest of forest products, while at the 
same time public use is insured.''
            Fostering partnerships
    Forest Legacy fosters partnerships between willing landowners, 
interested non-profit organizations such as land trusts, and local, 
state, and federal governments. These partnerships help cultivate the 
mutual understanding that is key to successful long-term agreements. By 
encouraging the involvement of community-based conservation 
organizations such land trusts, the program also ensures a board range 
of community involvement and investment, another factor essential for a 
successful agreement.
    Finally, and perhaps most importantly, Forest Legacy is a highly 
leveraged program that stretches federal dollars farther. The program 
requires states to contribute at least a 25 percent match. This means 
that a significant amount of nonfederal money is raised for each 
project.
    Example: The Rangeley Lakes Heritage Trust worked with the Forest 
Legacy Program to protect 1,272 acres of pristine Maine forestland. As 
a result of the $840,000 the Forest Service supplied for the 
acquisition of a conservation easement on the property, the trust was 
able to raise over $400,000 to cover the remaining amount needed to 
purchase and protect the tract. The result was the protection of 3.4 
miles of lakefront that represented a critical link in 12 miles of 
continuous undeveloped lakeshore. It also contributed to more than 40 
miles of protected shorefront in the Rangeley Lakes chain, which 
encompasses over 33,000 acres of public access conservation lands.
            The Problem: Underfunding
    Since its inception under the 1990 Farm Bill, the Forest Legacy 
Program has been plagued by underfunding. This has hampered severely 
its ability to work with willing timberland owners to help prevent 
their land from being converted to nonforest uses. Demand for the 
program has increased dramatically, with over $50 million in projects 
currently awaiting funding. The resources of the program are not 
adequate to meet this demand. In fiscal year 1998 it received only $4 
million--not enough for even a marginal national program, even though 
it was an increase over the previous year's level.
    Currently, 15 states are eligible to receive Forest Legacy funds. 
Lack of adequate funding is one of the primary reasons that more states 
with an identifiable need for the program do not participate in it. A 
number of states considering qualifying for the program have chosen not 
to devote the administrative time to doing so because of the scarcity 
of funds. Consequently, timberland that might have been conserved with 
Forest Legacy funds is lost to development.
    Increasing the Forest Legacy appropriation to $50 million annually 
would expand the number of states participating, result in more 
projects being completed, and, ultimately, more threatened timberland 
being protected from development.
Land and Water Conservation Fund State Grants Program
    Recommendation.--LTA encourages the committee to increase the 
appropriation from the Land and Water Conservation Fund. We strongly 
urge the committee to include funding for the state grants program as 
well as funding for federal projects.
    Since its inception, the Land and Water Conservation Fund (LWCF) 
has been a crucial element in the conservation of the land and water 
resources of the nation. LTA applauds the Committee for its efforts to 
provide increased funding from the LWCF in fiscal year 1998, especially 
the $699 million supplemental appropriation enacted for priority 
federal land acquisitions. We also support the administration's 
requested $270 million fiscal year 1999 level.
    While making its appropriations decisions, Congress should look 
again at the benefits of providing matching state grants from the LWCF. 
State LWCF grants leverage federal dollars and reflect community 
priorities in land conservation and recreational facility enhancement. 
Unfortunately, state-side LWCF funding has suffered a dramatic 
reduction over the past five years: at this point, the program is all 
but shut down. There is no fiscal year 1998 money for state grants, nor 
does the administration propose any for fiscal year 1999. This program, 
historically very successful in promoting community and nonprofit 
involvement in conservation activities, deserves your support.
    Example: LWCF grants to the state of Idaho have allowed the Idaho 
Foundation for Parks and Lands (IFPL) to facilitate successfully a 
number of projects of importance to communities around the state. For 
example, the Foundation went into action when 1.8 acres and 560 linear 
feet of waterfront became available on Payette Lake. Working hand in 
hand with the local community, IFPL was able to raise $269,000, and, 
combined with LWCF matching funds, was able to acquire the property for 
$560,000. The land was then transferred to the City of McCall and 
turned into McCall Mill Park for the enjoyment of all the local 
citizens.
Conclusion
    The Land Trust Alliance requests that the committee take a 
leadership role in the rejuvenation of these two important programs 
that promote voluntary land conservation across the country.
    We urge you to appropriate $50 million in fiscal year 1999 for the 
Forest Legacy Program to allow greater state participation in the 
program and more key working timberland to be conserved.
    In addition, we urge you to allocate a substantial amount of funds 
from the Land and Water Conservation Fund for the state grants program. 
These grants will provide states and localities with much needed funds 
in their pursuit of open space preservation and recreational 
opportunities for their citizens.
    On behalf of the nation's more than 1,100 land trusts, thank you 
for considering the views of the Land Trust Alliance as you make your 
funding decisions for the coming fiscal year.
            Sincerely,
                                              Helen Hooper,
                                         Director of Public Policy.
                                 ______
                                 
  Prepared Statement of Jose Marques, Executive Director, Children's 
                           Forest Association
    The Children's Forest Association is working with the San 
Bernardino National Forest and the local community to plan and develop 
projects that will provide forest visitors and residents, both youth 
and adult, with high quality opportunities for recreation and learning 
about the forest and their role in its protection.
    The pressures on the San Bernardino National Forest continue to 
grow due to 20 million people who live in southern California, rely on 
these public lands for recreation, solitude, and learning. The Forest 
faces the threat of greater fragmentation as private inholdings are 
developed into subdivisions, effectively reducing the available land 
for recreation and forest ecosystem health. In addition to recreation, 
the National Forest provides a place for an important ecosystem to 
thrive. In order to ensure that the ecosystem, including its human 
community, is healthy in the future we need to ensure there is enough 
open space. For these reasons, the protection afforded by the $15 
million from the LWCF will represent an especially sound investment in 
the future of this extremely popular National Forest.
                                 ______
                                 
  Prepared Statement of the Enewetak/Ujelang Local Government Council
    Mr. Chairman and distinguished members of this Subcommittee: Thank 
you for providing this opportunity to the people of Enewetak to 
describe issues relating to food production and the environmental 
situation on Enewetak Atoll. We would also like to give you an update 
on the initiatives we have taken these past few years to improve not 
only food production but also the health and education of our people. 
These initiatives include the continued implementation of a more 
intensive agriculture program; the continuation of a nutrition 
education program; the continued implementation of a more effective 
education program; and, attempts at the economic development of our 
atoll to permit fishing and/or tourist activity.
    Mr. Chairman, at the outset we wish to express our gratitude to the 
United States Congress for the appropriation of funds these past twelve 
years to provide food to our people through a program which has become 
known as the Enewetak Food and Agriculture Program. We are particularly 
grateful to you Mr. Chairman and to the members of this Subcommittee 
for the increase of $100,000 of the program's funding (to $1.191 
million) for fiscal year 1998.
    This program is funded pursuant to Section 103(h)(2) of Public Law 
99-239 (Compact of Free Association Act of 1985). We are also grateful 
that the Congress has amended Section 103(h)(2) of Public Law 99-239 to 
authorize funding for the program through fiscal year 2001. We now 
request that funding for the program be appropriated for fiscal year 
1999. We note that Congress anticipated the necessity for continued 
funding of the program when it stated in Section 103(h)(3) of Public 
Law 99-239: ``Payments under this subsection shall be provided to such 
extent or in such amounts as are necessary for services and other 
assistance provided pursuant to this subsection. It is the sense of 
Congress that after the periods of time specified is paragraphs (1) and 
(2) of this subsection, consideration will be given to such additional 
funding for these programs as may be necessary.''
    Of equal significance is the language of Senate Concurrent 
Resolution 171-2 in which the Congress stated: ``It is the sense of the 
Congress that the special medical care and logistical support program 
for Rongelap and Utrik and for the agriculture and food programs for 
Enewetak and Bikini described in section 103(h) of Public Law 99-239 
represent special and continuing moral commitments of the United States 
and will be funded to the extent of the need of the populations of such 
atolls for such assistance.''
    The Administration has included funding in the amount of 
approximately $1.091 million for the Enewetak Food and Agriculture 
Program in its fiscal year 1999 Budget. However, we must note that the 
$1.091 million in the Administration's budget is the same amount as the 
amount appropriated in fiscal year 1987. That is, the funding for the 
program has substantially declined these past 12 years in real dollars. 
Applying a 3 percent average annual inflation factor, the $1.091 
million appropriated in 1987 now has the purchasing power of 
approximately $700,000. In short, the program over the years has 
experienced over a 35 percent cut in funding. At the same time our 
population has increased at a rate of over 4 percent per year. In 
addition, it has been suggested that the agriculture rehabilitation 
component of the program needs to be accelerated. Agriculture 
equipment, such as backhoes and trucks, and additional manpower are 
required for such acceleration. The cost of such equipment and manpower 
is as follows:

3 backhoes plus shipping to Enewetak ($70,000 each)...........  $210,000
2 flat bed trucks plus shipping to Enewetak ($50,000 each)....   100,000
Manpower (21 additional workers)..............................   150,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   460,000

    Consequently, we ask that the amount requested by the 
Administration ($1.091 million) be increased by $460,000 to $1,551,000. 
It most be noted that such increase does not take into consideration 
the impact of inflation on the funds as described above. As an 
alternative to such increase in the program's funds, we ask that the 
Department of Interior's technical assistance funds be increased by the 
amount of $460,000 and such amount be specifically earmarked for the 
$460,000 cost of the additional equipment and manpower required by the 
Enewetak Food and Agriculture Program.
    Below, we briefly describe why the Enewetak Food and Agriculture 
Program is necessary, and report to you efforts made by us to put these 
funds to the best possible use.
Background
    Enewetak Atoll was the site of 43 of the 66 nuclear tests conducted 
by the United States in the Marshall Islands between 1948 and 1958. One 
of the tests was especially significant as it was the first test of a 
experimental thermonuclear device (hydrogen bomb). This test occurred 
on October 31, 1952 and was known as the ``Mike'' test. The test had a 
yield of 10.4 megatons (750 times greater than the Hiroshima bomb). The 
Mike test vaporized a number of islands, leaving a crater a mile in 
diameter and 200 feet deep.
    The 43 nuclear tests conducted at Enewetak were detonated in the 
air, on towers, on the surface of islands and reefs, on barges, and 
underwater. Some of the ``ground zeros,'' or surface level explosions, 
were on the islands themselves, some were on the reef, some were in the 
lagoon, and one was in the ocean nearby. In addition, two plutonium 
experiments were conducted on the island of Runit in which the devices 
did not fully detonate but instead sprayed chunks of plutonium across 
the island. Nuclear testing on Enewetak ended with the last Operation 
Hardtack test on August 18, 1958.
    The Nuclear Testing Program inflicted serious damage to Enewetak 
Atoll. Five islands in the atoll were completely or partially vaporized 
by the nuclear tests. The remaining islands on the northern half of the 
atoll, including the major residential and agricultural island of 
Enjebi, were heavily contaminated with radioactivity, as was the island 
of Runit. Debris and wreckage--radioactive and nonradioactive--littered 
many of the islands. The atoll's lagoon was seriously damaged. Large 
bomb craters covered many of the islands. The southern islands of 
Enewetak and Medren were mostly covered by concrete and asphalt since 
they were used for various facilities required by the Nuclear Testing 
Program, including concrete foundations, roads, airstrips, and an 
airport. As a result, the entire atoll was devastated--vegetation was 
completely stripped from many of the islands, and nearly all plants of 
agricultural and economic value on the atoll were totally destroyed.
    In December of 1947, prior to the testing program, the United 
States relocated us to a small and remote atoll 125 miles southwest of 
Enewetak. That atoll is named Ujelang. Ujelang atoll has a land area 
less than one-fourth that of Enewetak, and a lagoon less than one-
sixteenth that of Enewetak. The suffering and hardship we experienced 
between 1947 and 1980 at Ujelang is well documented and ultimately 
resulted in a commitment by the United States to resettle us at our 
home atoll of Enewetak.
    In order to permit us to return to our ancestral homeland, the 
United States, between 1977 and 1980, undertook a resettlement program 
which included revegetation of the atoll. Crops of coconut, pandanus, 
breadfruit, taro, bananas and lime were planted beginning in 1979 and 
the plantings continue as part of the Enewetak Food and Agriculture 
Program. The crops have never produced the projected quantity of food 
and do not now provide sufficient food for our population. The problem 
is significant since less than one-third of the land of the atoll can 
be used for food production. We cannot harvest the food crops of the 
northern islands of the atoll due to the relatively high level of 
radiation in these foods and some land remains unavailable to us for 
agriculture use because it remains covered by concrete and asphalt.
Enewetak Food and Agriculture Program
    The Enewetak Food and Agriculture Program enables us to live on 
Enewetak. It provides funding for imported food, continued agriculture 
rehabilitation, operation of a motor vessel which brings us the 
imported food, a nutrition education program, and an operation and 
maintenance component conducted out of a facility on Enewetak known as 
the field station.
    Efforts made to increase food production.--As we previously 
explained to this committee, we were unhappy with the state of the 
agriculture rehabilitation program when we inherited the program from 
the Department of Energy. Accordingly, in 1993 we had an assessment of 
our agriculture situation conducted. The purpose of such assessment was 
to determine the then current agriculture situation and to develop 
recommendations for increased food production. The recommendations 
included the hiring of a part time on-site agriculture consultant. The 
agriculture consultant began his work in 1993 and modified the 
recommendations somewhat. The most significant aspects of the 
agriculture rehabilitation program are the infusion of nutrients into 
the soil and the planting of buffer plants along the island's shore to 
protect the interior plants from salt spray. The infusion of nutrients 
into the soil is accomplished by digging trenches and placing organic 
material in the trenches along with a compost mixture of copra cake and 
chicken manure. This activity is extremely labor intensive and required 
the importation of copra cake and chicken manure. Although the work is 
progressing, additional funding is required to provide greater manpower 
and the necessary equipment, materials and supplies. Additional funding 
in the amount of $460,000 as requested in this statement would greatly 
assist in accelerating the agriculture rehabilitation of the atoll.
    Importation of food.--Imported food is required because of the poor 
soil condition of the land available to us and the radiation 
contamination of other lands. Since we have taken over the program we 
have increased the quantity of imported food by 35 percent without any 
increase in the overall program budget. We have accomplished this by 
utilizing bidding procedures for food purchases; elimination of 
transportation charges by use of our motor sailer (Wetak II); 
elimination of import tax on food; and reduction of other program 
expenses.
    Nutrition education program.--Since our people cannot rely on 
traditional foods we must import food, the nutritional value of which 
is unfamiliar to us. Several years ago we became aware that some of our 
people, particularly our children, suffered from malnutrition. 
Accordingly, we instituted a nutrition education program. We are 
pleased to report that we have been apprised by physicians that 
malnutrition among our children has been greatly reduced.
    Wetak II (waterborne transportation).--The Wetak II, a fifty foot 
motor sailer, is used to primarily transport our imported food 
purchases and agriculture material from the region to Enewetak. Food 
and agriculture material is transported from Majuro, a distance of 600 
miles from Enewetak. We are extremely proud of the hard work and 
perseverance of our local crew and local captain in carrying out this 
assignment. Transportation in this manner permits us to save 
substantial shipping costs.
    Field Station.--Operation and maintenance of the entire program is 
conducted out of a facility referred to as the Field Station. The 
machinery and equipment required by the agriculture, food and 
transportation components of the program are kept at the Field Station. 
Field Station personnel provide all the required agricultural work; 
maintain, service, and operate the equipment required by the various 
components of the program; make payments and maintain books of 
accounts; and coordinate the procurement of food, material and 
equipment. The overall manager of the program is Johnson Hernest. Other 
management personnel include Samson Yoshitaro and Mathan David. The 
program employs 40 members of our community.
Review of Enewetak Food and Agriculture Program
    In 1997, the House Appropriations Committee, Subcommittee on 
Interior and Related Agencies, asked the Department of Interior to 
review the program and submit a report. We understand that a report 
concerning such review has recently been completed. We were given a 
copy of a draft of the report and noticed that there were some 
inaccuracies relating to the nature of the program and some 
misinterpretations of data which resulted in several erroneous 
assumptions and conclusions. We commented on such inaccuracies and 
misinterpretations in our comments to the report. We understand that 
our comments will be made a part of the report. Notwithstanding the 
foregoing, the report does conclude that the continuation of the 
program is necessary, that continued funding is necessary, and that the 
agriculture rehabilitation component of the program needs to be 
accelerated. We have been told by our agriculture consultant that the 
program can be accelerated so long as we obtain additional equipment 
and manpower. The additional equipment consists of three backhoes and 
two flat bed trucks. The additional manpower consists of twenty-one 
additional workers. Cost figures for such equipment and manpower are 
provided above.
Conclusion
    In closing, we thank the Congress for its past funding of the 
Enewetak Food and Agriculture Program and trust that it will provide 
funding for fiscal year 1999 (at least $1.091 million) and increase 
such funding with the additional amount of $460,000 for fiscal year 
1999 either directly to the program or to technical assistance 
specifically for the Enewetak program.
                                 ______
                                 
                         U.S. Geological Survey
Prepared Statement of Henry Dean, Chairman, Interstate Council on Water 
                                 Policy
    The Interstate Council on Water Policy (ICWP) represents state, 
interstate, intrastate, and regional water agencies; academic 
institutions; professional and business firms; and individuals 
committed to the conservation, use, development and wise management of 
water. Established in 1959, ICWP is the national voice for water-
related interests both on quantity and quality issues. The Interstate 
Council on Water Policy has taken keen interest in the federal budget 
as it pertains to data collection and analysis from the nation's water 
resources. In the recent past, we have commented numerous times on the 
budget of the U.S. Geological Survey, particularly over the demise of 
the stream gaging program brought about by budgetary cutbacks.
    In reviewing the President's Budget for the USGS in Federal fiscal 
year 1999, we are pleased that increases are recommended for the 
Hydrologic Networks and Analysis and Federal-State Cooperative Program 
line-items. These two activities comprise the National Stream Gaging 
Network. We are particularly pleased that base adjustments to these two 
programs are provided as well as new initiative funding. Base 
adjustments are recommended at $730,000 and $1.72 million, 
respectively, for the Hydrologic Networks and the Coop Programs. We 
view these adjustments as more important than the new initiatives 
because they help retard the erosive effects of inflation on current 
service levels within those programs. At a minimum, ICWP recommends 
that these base adjustments be approved, bringing the fiscal year 1999 
base for the Hydrologic Networks to $24.8 million and the Coop Program 
base to $68 million.
    There is also $14.3 million in enhancements proposed for incentives 
under the Water Resources Division of the USGS in fiscal year 1999. 
Many of these incentives can be classed under the Administration's 
Clean Water Action Plan or its theme of the Citizen's Right to Know 
with water quality as the centerpiece of that information. ICWP 
acknowledges the benefit of many of the efforts proposed under the 
Clean Water Action Plan and supports the open access of water data and 
information to citizens and decisions makers on a real time basis.
    However, our review of the budget leaves an impression that the 
basic collection of these data is subservient to the efforts to 
showcase such information and promote water quality as the premier 
water resource issue. Left out of the budget are efforts to enhance the 
acquisition of streamflow data. For example, the enhancement of 
$787,000 for Hydrologic Networks and Analysis is dominated by $3.5 
million (offset by reduction in other program components) for water 
quality collection in National Park Service watersheds and enhanced 
availability and dissemination of water quality data. The $4 million 
enhancement of the Coop Program is linked to the water quality 
conditions and processes present in the nation's watersheds and 
additional dissemination of water quality data.
    Neither enhancement mentions expansion of the nationwide gaging 
station network as part of these endeavors. ICWP views this as ironic 
since one of the major water quality tasks facing the nation will be 
the establishment of Total Maximum Daily Loads for polluted runoff and 
baseflow. These loads require a flow value in order to be calculated. 
In fact, flow, as the delivery mechanism of many of the pollutants 
impairing the nation's waterways, is probably a more important factor 
than the concentration of the pollutant itself. Yet, the budget 
neglects to direct resources toward increasing the information base on 
streamflows as part of these initiatives.
    On the matter of Right-to-Know, ICWP notes that up to $7 million of 
the enhancement funding is directed toward water quality information 
and water information delivery within the line items of Hydrologic 
Networks and Analysis, Water Information Delivery and the Federal-State 
Cooperative Water Program. Once again, while the efforts to increase 
the access of water data are laudable, we are left with the impression 
that the Administration is more concerned with access than acquisition. 
We believe that the Citizen's Right to Know is tied to Government's 
Duty to Show, that is, access is irrelevant if the rudimentary tasks of 
data collection are neglected. We would encourage the Subcommittee to 
direct a portion of the proposed enhancements into efforts to expand 
the ability to monitor streamflow conditions. The benefits of 
expansions in stream gaging may not be as obvious as providing Internet 
access to water information, but the management of extreme hydrologic 
events, such as flood and drought, are deeply dependent upon adequate 
coverage of data networks as well as the access to the data those 
networks provide.
    ICWP wishes to advise the subcommittee on one matter which is 
tangential to the USGS budget. In recent years, cooperative efforts by 
the USGS and ICWP have been successful in stemming the loss of stream 
gages across the nation. However, the subcommittee needs to be aware 
that other Federal agencies, notably the Corps of Engineers, have 
helped fund these stations. Budgetary constraints within the Corps is 
inducing certain District offices to withdraw their support of gaging 
stations traditionally used by the Corps and States in the management 
of water resources. Numerous members of ICWP are facing circumstances 
of losing gages which they have historically relied upon for certain 
needs because of Water Control operations within Corps Districts are 
cutting out support.
    Additionally, there are efforts by other Federal agencies in water 
management which utilize stream gaging stations but do not provide 
financial backing to the operation of those gages. Specifically, the 
National Weather Service is recommended to receive enhanced funding for 
Advanced Hydrologic Prediction and Forecasting capabilities integrating 
data into predictive forecast models to predict medium term hydrologic 
conditions. However, the ground truth of such modeling endeavors, the 
gaging stations on the major streams and tributaries were not 
coincidentally enhanced, placing the models in a precarious situation 
of having to rely on assumptions rather than data for calibration, 
verification and prediction.
    Similarly, the Clean Water Action Plan, with the Environmental 
Protection Agency and the Department of Agriculture in lead, places a 
great deal of emphasis on reducing polluted runoff and enhancing 
monitoring efforts. Left unsaid is the fact that the gaging stations of 
USGS will play a key role in assessing the relationship between flow 
conditions and pollutant loads, the relative geographic contribution of 
pollution on a watershed scale and ultimate evaluation of state and 
federal program activity to reduce water quality impairment.
    These three examples point out the need for the Subcommittee to 
provide for adequate support of stream gaging in concert with other 
agency activities, either by providing sufficient funding and 
flexibility in those agencies to utilize the USGS or to provide 
increased funding in the USGS to fulfill that support mission in 
concert with those agencies.
    The interaction of agency budgets for data collection and 
(acquisition is long overdue and further neglect in recognizing this 
interplay among agency missions and the basic resources needed to 
fulfill those missions will compromise water management, be it ongoing 
programs or new initiatives.
    The ICWP encourages the Subcommittee examine these issues and 
provide sufficient direction and support to the basic functions of USGS 
in continuing to provide streamflow information of the highest quality 
to water managers across the nation. As we have said in the past, 
regardless of the expertise housed within USGS, without the ongoing 
collection of basic data, the states have little need for interpretive 
analysis of water resources.
    The ICWP thanks the Subcommittee for the opportunity to provide 
these comments regarding the budget of the U.S. Geological Survey.
                                 ______
                                 
                        Bureau of Indian Affairs
 Prepared Statement of Julia A. Davis, Chair, Northwest Portland Area 
                          Indian Health Board
    It is an honor to present testimony on behalf of the Northwest 
Portland Area Indian Health Board, a tribal organization which 
represents 40 Federally-recognized tribes in Oregon, Washington, and 
Idaho on health-related issues.
    This organization is charged each year with reviewing the 
President's budget for the Indian Health Service and analyzing its 
impact on Indian health programs. We are submitting that analysis as 
our written testimony, and I am here today to share with you a brief 
summary of our concerns about this budget.
    This Board is very familiar with the details of the Balanced Budget 
Agreement, which calls for large cuts in discretionary program spending 
over the next four years. But beginning in late fall as talk of a 
``budget surplus'' surfaced and rumors were heard that some of this 
``surplus'' might be directed towards discretionary health programs, we 
became hopeful that the President would propose reasonable increases 
for the Indian Health Service budget. And when we listened to the State 
of the Union address in which the President spoke of extending health 
care to children of working poor families and to more senior citizens, 
and to addressing health disparity among America's racial minorities, 
we became downright optimistic. Surely the President intended Indian 
people, who continue to have excess morbidity and mortality to share in 
these initiatives. But when we finally saw the budget and read 
Secretary Shalala's joyous budget announcements on the Department's 
website and e-mail, our hope turned to dismay as we painfully realized 
that American Indian people were excluded.
    There is nothing joyful for us in a budget which proposed an 
increase of 8.5 percent for the National Institutes of Health, 17.7 
percent for the Food and Drug Administration, 17 percent for the Agency 
for Health Care Policy Research, but just 1.8 percent for the Indian 
Health Services--and less than one percent (0.9 percent) if new 
facility construction is excluded.
    Perhaps this Administration has forgotten about the commitments 
made in treaties and Executive Orders in which Indian tribes ceded land 
and resources in exchange for health care and other assistance. But we 
have not forgotten.
    Perhaps this Administration has forgotten that Indian health 
programs are a success story that demonstrates what the Federal 
government at its best can accomplish. But we have not forgotten that 
from 1972 to 1992, infant mortality rates for American Indians 
decreased by 60 percent that the life expectancy for American Indians 
went from 63.5 years in 1972 to 73.2 years in 1992.
    Perhaps this Administration has forgotten that American Indian 
people still have considerably higher mortality rates than the general 
population for diabetes, tuberculosis, alcoholism, accidents, pneumonia 
and influenza, suicide and homicide. But we have not forgotten because 
we deal with the reality of these statistics on a daily basis.
    Perhaps this Administration has forgotten that after many failed 
policies, the most successful policy this nation has ever had in its 
200-year relationship with Indian tribes is the policy of Indian Self-
Determination. And perhaps it has forgotten about the commitment made 
by the President for consultation with tribal governments. But we have 
not forgotten. This budget has effectively ended the opportunity for 
self-determination by not providing new contract support cost funding, 
one of the highest budget priorities identified by tribes in 
consultation with IHS.
    Perhaps this Administration has forgotten that the Indian Health 
Service has already contributed more than its share to balancing the 
Federal budget, having absorbed over a billion dollars in unfunded 
mandatory costs since 1993. But those of us trying to operate health 
clinics have not forgotten.
    Perhaps this Administration has forgotten that since 1995 the 
Interior Appropriation has increased only 3.4 percent while Labor, HHS, 
and Education has increased by 22.3 percent. But we have not forgotten 
and are not so naive as to understand that for Congress to find 
additional money for IHS, funds must come from another agency in an 
already strapped appropriation.
    Perhaps the Administration has forgotten that in 1993 it proposed 
unrealistic Medicaid collections to justify an inadequate and unfair 
budget for the Indian Health Service and Congress recognized this and 
restored funding. But we have not forgotten. We know that the 
Children's Health Initiative Program (CHIPS) program will produce very 
little new collections in our area, and that negotiations between HCFA 
and IHS for a reimbursement rate increase have stalled. We know budget 
gimmickry when we see it.
    And finally, perhaps what this Administration has forgotten is what 
Indian health programs are doing. Indian health programs are on the 
front lines relieving the pain and suffering of real people and 
preventing future pain and suffering. This is not an agency that can 
simply give out a few less grants to make up a budget reduction. We are 
delivering health care.
    Northwest tribes ask this Committee to restore the funding that is 
proposed to be cut in hospitals and clinics, sanitation construction, 
and maintenance and improvement. Additional funds must be found to fund 
the mandatory costs that every program must pay. This is particularly 
critical for the Contract Health Service Program. The Indian Self-
Determination Fund must be restored and at a level so that those tribes 
waiting to take responsibility for the health status of their people 
can do so in a reasonable period of time.
    New ways must be found to address facility construction needs. 
Congress should provide opportunities for IHS and tribes to join forces 
in Joint Venture Construction Projects. The facility needs of small 
tribes should be addressed through the small grants program and through 
the ability to utilize Maintenance and Improvement funds.
    We have asked this Administration to propose a budget amendment 
that allows IHS to share in the 8.4 percent average budget increase 
proposed for the other discretionary health programs in the Department 
of Health and Human Services. If the Administration does not propose 
such an amendment it is our hope that this Committee can identify 
resources so that Indian health programs share in this commitment to 
improve the health of the American people.
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association submits the following 
recommendations regarding the fiscal year 1999 Bureau of Indian Affairs 
and Indian Health Services budgets and those agencies data-gathering 
efforts as they relate to child welfare.
  --Support the Administration's BIA fiscal year 1999 Budget Request 
        relating to Child Protection and Family Violence Prevention 
        Grant Program ($5 Million) under the Tribal Priority 
        Allocations (TPA) budget category.
  --Restore historic funding of Indian Child Welfare Act (ICWA), Title 
        II Off-Reservation grant programs ($2 Million) which was funded 
        through fiscal year 1996 under Special Projects and Pooled 
        Overhead portion of the BIA budget, but is not identified in 
        the Administration's request for fiscal year 1999.
  --Require the BIA and IHS to provide more detailed information on 
        programs that provide funding/services for children. This 
        information is needed to accurately identify the need for these 
        programs and how BIA and IHS budget requests respond to that 
        need. The recommendations pertain to the Tribal ICWA, Title II 
        grant programs under TPA and the IHS Mental Health and Social 
        Services and Contract Health Services budget categories 
        (specific recommendations described below and in Conclusion 
        section of testimony.)
    Organization Profile.--The National Indian Child Welfare 
Association is based in Portland, Oregon and provides a broad range of 
services including, (1) training and technical assistance for tribal 
and urban Indian child welfare professionals, (2) consultation on 
mental health and child welfare program development, (3) by request, 
facilitation of child abuse and neglect community prevention activities 
and (4) analysis and dissemination of public policy information that 
impacts Indian children and families. Our constituents are tribal 
governments and urban Indian child welfare programs throughout the 
United States. Our organization works closely with the Affiliated 
Tribes of Northwest Indians and National Congress of American Indians 
as well as having members on the Indian Child Welfare Committees of 
both organizations. This will be our sixth year in providing written 
testimony to this Subcommittee.
    Measuring Need.--Under TPA tribes are essentially provided a block 
grant from which they must fund a broad variety of services. Under this 
system tribes must make decisions about which services they can fund 
and at what level. However, many tribes encounter situations when they 
must transfer funding from one financially strapped services to 
another, even though both services are overwhelmed by the human need 
they face. The BIA looks at this transfer as a measure of decreased 
need, which they use when developing their budget requests. This 
provides only an artificial measurement of need. Using this method, 
Congress and the Administration will never know what the actual need 
for any program under TPA is and how well appropriated funds are doing 
in trying to meet that need.
    Data provided to Congress should accurately describe human need, 
not just budget priorities. Amazingly, the BIA has been allowed to 
provide only superficial data to justify budget requests. For example, 
it is virtually impossible to know how many clients received child 
welfare services, what kind of services are provided and how need for 
child welfare compares to the level of services being funded.
    Another important factor in determining the need for child welfare 
funding is tribal access to other program services and funding. Of the 
top four federal sources of child welfare funding guaranteed to states 
under the Social Security Act (Title IV-B subparts 1 and 2, Title IV-E 
and Title XX) tribes only have guaranteed access to one, Title IV-B 
subpart 1 Child Welfare Services, and the amounts of funding available 
from this source for tribes are extremely limited (approximately $5 
Million projected for fiscal year 1998).
    This situation combined with dwindling state resources, lack of 
state expertise in serving Indian families, and states reluctance to 
provide services in Indian communities based on financial and 
jurisdictional issues, has created a serious crisis for tribes in their 
efforts to protect their children and establish permanency and 
stability for those children who need help.
    Tribal Child Welfare Programs.--Until fiscal year 1993 tribes had 
been forced to compete for child welfare funding from year to year. 
This competitive process was extremely disruptive and in most years 
only allowed approximately 50 percent of the tribes nationwide to 
receive any child welfare funding. Improvements in the grant process 
and small increases to ICWA and Title IV-B funding have enhanced tribal 
access to child welfare funding, but there is still a need to continue 
efforts to make more funds available to address child abuse and 
neglect. One such effort is provided by the Administration's proposal 
to fund the Child Protection and Family Violence Prevention grant 
program ($5 million). Other efforts should include a more careful and 
accurate analysis of the child welfare needs of tribes by the BIA for 
purposes of budgetary recommendation. This analysis should be based on 
more than just population figures and how tribes are able to prioritize 
their limited TPA funds. It should include data on types of services 
provided, how many children and families receive these services, number 
of out-of-home placements of Indian children, type of out-of-home 
placement, length of time in out-of-home care, and numbers of children 
who are able to secure permanence though reunification, guardianship, 
kinship/relative care or adoption.
    Other factors that deserve careful analysis include tribal access 
to other child welfare funding or services and the relative costs of 
providing basic child welfare services on tribal lands. This is 
meaningful data that can provide Congress with an accurate definition 
of need.
    The most recent research on risk assessment of child abuse for 
Indian children indicates that 34.4 percent of Indian children are at 
risk for abuse or neglect (1993 National Indian Justice Center Study on 
Indian child maltreatment funded by the Indian Health Service). Many 
other documented indicators of the need for these services are also 
highly visible in many Indian communities such as extreme poverty and 
high rates of substance abuse.
    Off-Reservation ICWA, Title II Grants.--Off-reservation programs 
can provide a number of important services to both tribes, states, and 
individual Indian children and families. The ICWA does not make a 
distinction between who should benefit from the Act, and is designed to 
protect Indian children and families everywhere. Arguably, Indian 
children living outside of their tribal community are some of the most 
vulnerable Indian children to stressors that are linked to risk for 
abuse and neglect. These off-reservation programs, where they have been 
able to exist, can provide key linkages to tribes when their members 
become involved in state child welfare systems--all of which are 
designed to meet the purpose of the Indian Child Welfare Act. Some 
common services that these programs can provide include:
  --At the request of tribes, provide case advocacy or other services 
        such as foster care to tribal children who do not live on the 
        reservation and whose tribe may not even be in the state.
  --Act as a resource to state agencies, courts and private agencies by 
        providing training on how to provide more cost-effective 
        services.
  --Recruiting and licensing Indian foster and adoptive families, an 
        activity that states often do not have resources for and are 
        not successful at.
    Off-reservation programs have suffered from the instability of 
inadequate funds and a competitive grants process. Historically, 
funding levels for off-reservation ICWA programs have been between $1.5 
to $2 million. This has enabled the BIA minimally fund about 40 
programs a year serve the 65 percent of the Indian population that 
lives in primarily urban settings. These programs have also tried to 
access private foundation funding and state contracts to supplement 
ICWA grants. However, these funds have been increasingly difficult to 
secure, especially in light of increased competition for these 
resources due to reductions in state and federal funding.
    We also know that many of these children may be served by state 
child welfare agencies at some point. Because of the small number of 
off-reservation ICWA programs operating in the United States, many of 
these children in urban areas are at great risk for not receiving 
needed services or protections. This seems especially relevant when you 
consider the budgetary problems that states are experiencing that 
result in minimal resources for staff training and services in general.
    Mental Health Services.--One of the best assessments of the current 
status of mental health services for Indian children is contained in a 
report that NICWA published in 1996 entitled, ``American Indian 
Children's Mental Health Services: An Assessment of Tribal Access to 
Children's Mental Health Funding and a Review of Tribal Mental Health 
Programs.'' We have provided a complimentary copy for the Subcommittee 
to review. The report details issues affecting access to mental health 
services, current funding sources, an original survey of tribal mental 
health providers, profiles of the four tribal mental health service 
systems, barriers to access of mental health services and compilation 
of recommendations for improving access to services.
    Three issues we believe are of great importance to the Committee's 
consideration of our request are: (1) The IHS system of mental health 
service delivery is primarily geared to adults (see statistics on page 
4 and 15-17 of the above-mentioned report); (2) it is difficult, if not 
impossible, to identify how much of the IHS funding under the Mental 
Health and Social Services and Contract health Services budget 
categories go to mental health service, particularly mental health 
services to children; and (3) IHS admits in their own budget request 
that they are not able to meet the current need with available 
resources (see Page IHS-48). Our best sense, based on findings in our 
report, is that children receive a few mental health services funded by 
IHS. We therefore recommend that the Committee require IHS to provide 
data detailing the level of funding from Mental Health and Social 
Services and Contract Health Services that supports mental services for 
Indian children.
    Conclusion.--Tribal child welfare programs are a valuable resource 
shown to be extremely effective in protecting Indian children and 
strengthening Indian families. A study in 1988 commissioned by the 
Department of Health and Human Services and Department of Interior 
entitled, ``Indian Child Welfare: A Status Report'', revealed that 
tribal programs outperformed the BIA and state child welfare programs, 
notwithstanding the limited funding available to tribes. Specifically, 
Indian children in substitute care had shorter stays in foster care and 
higher rates of permanency when served by tribal programs. In 1994 the 
Office of Inspector General issued a report entitled, ``Opportunities 
for ACF to Improve Child Welfare Services and Protection for Native 
American Children'', which clearly showed that most states were either 
not willing or able to share federal funds for child welfare services 
with tribes. This clearly demonstrates that tribes, when provided 
opportunity, are able providers of child welfare services, while 
currently not being able to depend on state funding sources or 
services.
    We must also take into consideration other factors which impact the 
ability of tribes and off-reservation programs to protect their 
children and give them a sense of permanence. Because of welfare reform 
and recent child welfare reform, states have additional pressures to 
target their resources carefully. This will most likely mean that 
states historic reluctance to provide services on tribal lands will 
continue and possibly get worse. If tribes are not given the adequate 
resources, then Indian children will likely continue to be the most 
unprotected class of children in this country with the least access to 
services that help provide permanency.
    The National Indian Child Welfare Association request that the 
Subcommittee recommend the requests we have made in our testimony. They 
are as follows:
  --Support the Administration's BIA fiscal year 1999 budget request 
        relating to Child Protection and Family Violence Prevention 
        Grant Program ($5 Million) under the Tribal Priority 
        Allocations (TPA) budget category.
  --Restore historic funding of Indian Child Welfare Act (ICWA), Title 
        II Off-Reservation grant programs ($2 Million) which was funded 
        through fiscal year 1996 under the Special Projects and Pooled 
        Overhead portion of the BIA budget, but is not identified in 
        the Administration's request for fiscal year 1999.
  --Require the BIA to provide adequate child welfare data to Congress. 
        Some examples of this data are types of services provided, how 
        many children and families received these services, number of 
        out-of-home placements of Indian children, type of out-of-home 
        placement, length of time in out-of-home care and number of 
        children who are able to secure permanence through family 
        reunification, guardianship, relative/kinship care or adoption.
  --Require the IHS to provide data detailing the level of funding from 
        Mental Health and Social Services and Contract Health Services 
        budget categories that supports mental health services for 
        Indian children.
    Please consider these requests carefully and help tribal 
governments and off-reservation ICWA programs continue to offer proven, 
effective programs for Indian children and families.
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
Summary
    Elwha River Restoration (BIA), Treaty Rights Protection, $464,112.
    Shellfish Add-on, BIA Fisheries, $97,500.
    Support the Administration request for a general increase in TPA, 
$34 million.
    Support the Administration's request for an increase in BIA law 
enforcement of $25 million, including detention facilities.
    Provide additional funds for General Assistance (BIA); and start up 
funds for tribes taking over welfare reform (TANF).
    Support the Congress increasing the IHS appropriation over the 
Administration's request.
Elwha River Restoration
    In 1992 a unique coalition of interests came together to seek a 
comprehensive legislative resolution of conflicts concerning the Elwha 
River in Washington State. This coalition worked closely with a 
bipartisan group of Washington State congressional members to secure 
the passage and enactment of the Elwha River Ecosystem and Fisheries 
Restoration Act (Public Law 102-495).
    Every activity involved in Elwha River restoration, from dam 
removal to water supply protection, and every phase of restoration, 
from preliminary design to post-construction monitoring, will directly 
affect the governmental interests of the Elwha Klallam Tribe. Our 
people consider that the effects of Elwha River Restoration need to be 
carried out with the highest priority being paid to treaty rights 
protection.
    How the dams are removed and sediment is released from the 
reservoirs will directly affect traditional cultural properties 
throughout the watershed, as well as treaty fisheries, water quality, 
and flood safety on the Lower Elwha Reservation. The same is true of 
levee upgrades and other floodplain mitigation on the reservation.
    The negotiation, design, construction, and operation of a new 
facility to protect municipal water supplies will directly affect 
tribal water rights, reservation water quality, treaty fisheries and 
intergovernmental relations with neighboring communities.
    In order to protect its legal interests and carry out essential 
governmental functions during the design phase, the Tribe must retain 
core administrative and technical staff. It must also have funding for 
access to engineering, legal, and other technical expertise to assist 
core staff in identifying and negotiating design alternatives that 
protect the Tribe's political integrity, economic security, health and 
safety.
    The Tribe's existing fiscal year 1998 Funding Request, as yet not 
approved, sets out realistic funding needs. At a minimum, core 
administrative staff should be funded at the levels expressed there at 
approximately $214,112. Contractual funding should provide at least one 
engineering FTE and legal, policy and miscellaneous technical 
consultants, totaling another $250,000. The Lower Elwha Klallam Tribe 
is respectfully requesting funding for fiscal year 1999 at a level of 
$464,112, since we have not been funded in the current year.
Shellfish Add-on
    The Western Washington tribes in the Case Area of U.S. v. 
Washington are now tasked with additional responsibilities under the 
latest rulings with respect to shellfish rights. The request of the 
twenty tribes so affected is for a total of $1.95 million, providing 
for a biologist and an enforcement officer for each tribe to address 
issues of public health protection and illegal harvest activity. We 
respectfully request $97,500 within this amount for the Lower Elwha 
Klallam Tribe which supports this Northwest Indian Fisheries Commission 
initiative.
TPA Increase
    The Lower Elwha Klallam Tribe supports the Administration's request 
for an increase in TPA of $34 million, with earmarks for specific 
programs. The Tribe is a self-governance Tribe, and as other tribes who 
take advantage of their authorities under the Indian Self-Determination 
Act, the TPA fund is our life's blood for Tribal programs. We agree 
that small and needy tribes deserve the additional funds requested; and 
we also support the increase in the Indian Self-Determination Fund.
BIA Law Enforcement
    We have been closely following discussions sponsored by the 
Administration on the possibility of moving Indian country law 
enforcement to the Department of Justice. We support the current 
arrangement, but we feel that funding is inadequate. We therefore 
support the Administration's request for an additional $25 million in 
BIA Law Enforcement. We support the Administration's request for 
detention facilities.
Social Services, GA, and TANF
    Due to the vastly increased demand for General Assistance (GA) 
benefits on most of the reservations in America, funds for many smaller 
tribes for GA have been significantly reduced. The Lower Elwha Klallam 
Tribe has taken a substantial reduction in our GA funding; it is only 
through very tight management that these funds last throughout the 
entire year. We respectfully request that the Congress look closely at 
documented need in this program.
    As the Congress is well aware, domestic crime in Indian country is 
on the increase. Because Indian communities are so at risk, we request 
additional funds be made available for our Social Services and Indian 
Child Welfare Programs. In addition to these responsibilities, the 
Lower Elwha Klallam Tribe is actively pursuing negotiations with the 
State of Washington to assume the responsibility for TANF for our 
people. This is such a great change that we request start-up funds to 
make our assumption of this welfare program a success.
Indian Health
    Finally, as the Congress is well aware, the health status of 
American Indians and Alaska Natives is the lowest of any group in 
America. The Administration has requested a minuscule increase in 
fiscal year 1999 funding for IHS. The Lower Elwha Klallam Tribe 
respectfully requests that funding for IHS be increased sufficiently to 
include funds for mandatory increases, at a minimum.
                                 ______
                                 
Prepared Statement of Merv George, Jr., Chairman, Hoopa Valley Tribe of 
                               California
    On behalf of the Hoopa Valley Tribe of California, I respectfully 
submit our comments regarding the fiscal year 1999 proposed budgets of 
the Bureau of Indian Affairs, U.S. Fish and Wildlife Service, and 
Office of the Special Trustee. A summary of my testimony follows:
    Request $200,000 from the BIA Forestry budget for NEPA, ARPA, and 
the National Indian Forest Management Act activities.
    Request $150,000 from the BIA Forestry budget for resource 
protection activities to reduce timber theft.
    Support increase to the BIA Forest Development budget.
    Request $140,000 from the BIA ESA budget for tribal costs 
associated with ESA implementation.
    Request $2.6 million from the Office of Special Trustee budget for 
the California Trust Reform Demonstration Project.
    Support increase of $2.5 million for the USFWS Klamath River 
Fishery Restoration Program and an additional amount of $1.5 million 
for the Yurok and Karuk Tribes and USFWS.
    Request that the USFWS be directed to work with tribes prior to 
transferring Klamath and Trinity River issues to the proposed Pacific 
Southwest Regional Office.
    The Tribe supports funding increases for the BIA Waste Management 
and Environmental Cleanup Programs.
    The Tribe supports funding for BIA Indian Land Consolidation 
activities.
    The Tribe supports funding for the BIA Office of Self-Governance 
and for Self-Governance Tribal Grants.
Narrative of budget requests
    BIA--Forestry.--The Tribe has identified insufficient funding as a 
major deficiency within the Forest Planning Branch which implements the 
federal requirements under NEPA, Endangered Species Act (ESA) and 
Archaeological Resources Protection Act (ARPA). In fiscal year 1997, 
the BIA provided no funds for planning (NEPA) purposes. While some 
funds are provided by the BIA for wildlife ESA work, it is insufficient 
to cover the costs of the program, particularly for botanical surveys 
for ESA T&E plants.
    Finally, the BIA provides no funds to complete ARPA required 
surveys for archaeological resources. While the Tribe has funded these 
activities in the past, we will not be able to in the future because 
our administrative fees budget cannot withstand the current spending 
levels or anticipated future costs. Most of the Tribe's forestry 
funding is committed to paying for other legal requirements associated 
with ESA T&E plants, archaeology (ARPA) and NEPA.
    We request funding of $200,000 from the BIA Forestry budget in 
order to meet federal legal requirements for NEPA, ARPA, and the 
National Indian Forest Management Act.
    BIA--Forest protection.--The Tribe has numerous federally-
constructed roads on the Reservation which are open to the public. As a 
result, the Tribe experiences timber theft, principally from illegally 
cutting of firewood. Most often, this timber theft is taken from 
standing old growth Douglas-fir trees. At current rates of theft, which 
in 1986 were measured at 1,000 MBF/year, the value of the lost timber 
resources is $500,000/year.
    We request that the Subcommittee provide $150,000 in the BIA 
Forestry budget for a resource protection officer and two resource 
protection technicians to reduce timber theft on the Reservation.
    BIA--Forest development funds.--Forest Development funds provide 
critical funding to Indian tribes and the BIA to address required 
forest treatment activities and to address backlogs in pre-commercial 
thinning of Indian commercial timber lands. Since 1989, the Tribe has 
worked hard to prevent any additional backlog by striving to include 
these costs in our existing federal and tribal budgets. This effort, 
for the most part, has been successful. However, the pre-1989 backlog, 
which was generated when the BIA managed the Reservation forestry 
programs, remains to be a problem. The annual costs for addressing the 
Forest Development backlogs for the Hoopa Reservation is estimated to 
be $1,099,000.
    Therefore, we support an increase to the Forest development budget 
of the BIA and an increase in the Tribe's Forest Development funds.
    BIA--Road maintenance program.--Adequate transportation systems for 
Indian reservations are critical components for developing and 
maintaining tribal economies and local infrastructures. However, each 
year, the BIA Road Maintenance Program continues to be drastically 
underfunded. At Hoopa, the Tribe has had to incorporated the BIA Road 
Maintenance Program with Federal Highway Administration funds and 
tribal timber roads in order to deliver even minimal services to the 
Reservation residence. However, it is unlikely that the Tribe will be 
financially capable of continuing our level of funding for this program 
in future years. Additionally, there is a major capitalization need for 
new road maintenance equipment since none of the Federal roads 
equipment has not replaced since 1977. The annual estimated cost for 
the BIA Hoopa Road Maintenance Program is $350,000-$450,000.
    The Tribe supports an increase in the BIA's Road Maintenance 
Program and requests an increase to the Hoopa Reservation Road 
Maintenance Program of $100,000.
    BIA--Endangered species funds.--The ESA has profound implications 
for the Hoopa Valley Tribe. On the one hand, the Act potentially 
provides the necessary leverage to alter poor land management practices 
contributing to species decline; on the other, restrictions applied to 
Tribal resource use, threaten the economy and rights of the Tribe.
    It is well established that cultural, subsistence and threatened 
and endangered wildlife and fish species that are important to tribes 
are a Trust Resource with which the United States must protect. In 
order to accomplish this, the Tribe's level of funding must be 
increased to address both ESA species as well as other wildlife 
management activities related to all wildlife species of concern to the 
Tribe.
    On April 25, 1997, the National Marine Fisheries Service (NMFS) 
declared the coho salmon of the southern Oregon and northern California 
Evolutionarily Significant Unit (ESU) ``threatened'' as defined by ESA. 
This action has a direct impact on the Tribe's access to the trust 
fishery resources of the Trinity Basin. At the very least, this action 
by NMFS will cause the Tribe to engage in a cumbersome bureaucratic and 
technical process to legitimize harvest of coho.
    This new burden to Tribal resource managers will require increased 
budgets in order to fulfill our new legal requirements. Moreover, 
immediate demands placed upon Tribal natural resources staff because of 
the regulatory requirements of the ESA will ultimately impair the 
ability of the Tribe to utilize trust resources. Long-term recovery of 
ESA listed fish and wildlife species will necessitate development of 
Tribal Habitat Conservation Plans (HCP) and will require additional 
staff.
    Therefore, in order to meet the minimum survey level for marbled 
murrelets, spotted owl monitoring effort, and address the new 
requirements caused by the listing of coho salmon, the Tribe requests 
$140,000 from the BIA ESA budget to pay for the increased obligations 
to the Tribal Fisheries and Forestry Departments.
    DOI--Office of the Special Trustee.--The Office of the Special 
Trustee was established as a result of enactment of the American Indian 
Trust Fund Management Reform Act of 1994. As part of his task, in 1997, 
the Special Trustee developed a Strategic Plan, in which he proposed 
reform in the BIA's management of financial and trust assets held for 
tribes and individual Indians.
    The Tribe participated in many of the Special Trustee's 
consultation meetings and made numerous recommended changes to the 
proposed Strategic Plan with respect to trust resource management. None 
of our recommendations have yet been incorporated into any revisions to 
the Strategic Plan.
    The Tribe believes that a key part of addressing the Federal 
Government's trust management concerns is for tribes and the BIA to 
formally establish management standards for trust resources that 
incorporate the Tribe's interests and priorities along with the 
responsibilities of the Federal Government. An important part of the 
implementation of the trust management standards is to restructure the 
BIA in a manner that would create a more responsive and effective 
federal structure so as to promote cooperative partnerships with Indian 
tribes.
    Beginning in 1997, seven California Indian tribes, including Hoopa, 
Yurok, Big Lagoon, Redding Rancheria, Cabazon, Karuk and Cahuilla and 
the BIA Sacramento Area Office, agreed to participate in a California 
Trust Reform Demonstration Project to implement the plan. The plan 
includes developing agreements between the BIA and participating tribes 
for management of trust resources, formally establishing mutually 
acceptable trust management standards, streamlining the BIA 
organizational and decision process for trust resources issues, and 
conducting annual trust management evaluations to evaluate 
implementation of the plan. The Special Trustee's Strategic Plan was 
used as a guide for developing the components for the California Trust 
Reform Demonstration Project.
    The project approved by California Tribes as part of a California-
wide BIA restructuring plan. The seven tribes then submitted a ``638'' 
contract request to the Office of the Special Trustee for implementing 
the plan. The funding amount for developing both tribal and Sacramento 
Area Office capabilities for implementing the plan was $2.6 million. 
However, despite language contained in the Special Trustee's Budget 
Justification which suggested support for working with tribes and 
entering into tribal self-determination agreements, on March 16, 1998, 
the Special Trustee arbitrarily denied the contract.
    The California Trust Reform Demonstration Project contains 
effective methods for addressing most of the problems raised by the 
Special Trustee with respect to the BIA's management of trust 
resources. However, the Special Trustee denied our contract request 
without comment, negotiation or consultation with our tribes. 
Therefore, we request that the Subcommittee to designate $2.6 million 
from the Special Trustee's budget for implementation of the California 
Trust Reform Demonstration Project.
USFWS--Klamath River Fishery Restoration Program
    The Klamath River is the second largest river system in California. 
Like the Trinity River, its largest tributary, the Klamath River 
fishery populations have undergone drastic reductions during the past 
few decades. In recognition of the significance of the Klamath River 
fishery stocks to the Pacific Westcoast economies, in the mid-1980's, 
government agencies and fishery interests initiated an historic 
negotiation process for allocated of the Klamath River fishery 
resources among the fishery interests and spawning escapement needs. 
The negotiations resulted in the development of an allocation agreement 
which establish many of the management principles that are still 
utilized today. In 1987, Congress formally enacted the Klamath River 
Fishery Management Council, Task Force and Fishery Restoration Program 
(Program). The U.S. Fish and Wildlife Service (USFWS) was designated as 
the agency responsible for its implementation. However, the USFWS has 
only funded the Program at an amount of $1 million annually, which is 
distributed between administrative and restoration activities. The 
amount of annual funds appropriated for the Program has clearly been 
determined to be inadequate to achieve even the most minimal fishery 
restoration efforts.
    The Tribe supports an increase of $2.5 million for the Klamath 
River Fishery Restoration Program, and an additional $1.5 million for 
the Yurok and Karuk Tribes and USFWS for administration and fulfillment 
of the Federal Government trust responsibilities to the Klamath and 
Trinity River Indian tribes.
    USFWS--Proposed Pacific Southwest Regional Office.--The Tribe has 
become aware of the proposal to create the Pacific Southwest Regional 
Office in Sacramento, California. While we understand the rationale for 
a Pacific Southwest Office for central and southern California and 
Nevada issues, we do not support the transfer of Klamath and Trinity 
River issues to this office. The Klamath and Trinity Rivers have a 
distinctive relationship with the timber, fisheries and water issues of 
the Pacific Northwest. Additionally, the proposed use of the California 
border as the northerly jurisdictional boundary for the Pacific 
Southwest Regional Office will severely handicap the managers of the 
Klamath and Trinity Rivers by eliminating the ``basin-wide'' 
comprehensive management programs that we have worked for decades to 
establish.
    The USFWS has made not efforts to consult with the Klamath and 
Trinity River tribes to determine how the Pacific Southwest Regional 
Office will impact our water and fishery management efforts. We are 
very concerned that the transfer of Klamath and Trinity River issues to 
the proposed Pacific Southwest Regional Office will set back management 
efforts on the Klamath and Trinity Rivers by several years. Therefore, 
we request that the USFWS be directed to work with the Klamath and 
Trinity River Indian tribes and address our concerns prior to moving 
forward with the proposed transfer of Klamath and Trinity River issues 
to the proposed Pacific Southwest Regional Office.
    I would be happy to respond to any questions that you may have.
                                 ______
                                 
   Prepared Statement of the Hoopa Valley Tribe, Jamestown S'Klallam 
Tribe, Lummi Indian Nation, Mille Lacs Band of Ojibwe Indians, Quinault 
                 Indian Nation, and Sac and Fox Nation
    On behalf of the Hoopa Valley Tribe, Jamestown S'Klallam Tribe, 
Lummi Indian Nation, Mille Lacs Band of Ojibwe Indians, Quinault Indian 
Nation and Sac and Fox Nation, we appreciate the opportunity to submit 
the following testimony on the Bureau of Indian Affairs and Indian 
Health Service fiscal year 1999 Budgets:
Summary of testimony
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls;
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services;
    Provide $900,000 to DOI Office of Self-Governance (OSG) for 
planning and negotiation grants; and, $500,000 respectively to the DOI 
and IHS Self-Governance offices for additional FTE's and operations 
expenses for field offices as appropriate;
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project;
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes;
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs and $1.5 million for the 
Joint BIA/Tribal Working Group on TPA Methodology;
    Support for BIA and IHS Tribal Self-Governance Stable Recurring 
Base Budgets;
    Provide funding necessary to support the restructuring of IHS as an 
Agency of the Department and to elevate the IHS Director to Assistant 
Secretary;
    Oppose funding transfer of BIA Operations and Maintenance to the 
BIA's Facilities Management and Construction Center (FMCC) in 
Albuquerque, NM; and,
    Support the funding transfer of IHS Facilities Improvements and 
Maintenance from Seattle/Houston to IHS Area Offices.
Narrative for self-governance considerations
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls.--Despite the 
fact that contract support has been one of the very highest Tribal 
priorities nationally, the Administration's budget fails to include 
adequate funding for CSC. Current CSC shortfalls are estimated at $25 
million in BIA and $137 million in unfunded CSC for fiscal year 1999, 
alone.
    The Self-Determination Policy has been effective in ending federal 
domination of Indian communities and transferring governing 
responsibilities and resources to local Tribal governments. CSC is an 
important part of the federal resources transferred to Tribes under 
self-determination and self-governance and supports vital and increased 
managerial and administration functions essential to any government or 
business.
    Additional CSC appropriations are needed to implement the self-
determination and self-governance policy as supported by Congress 
within the Indian Self-Determination and Education Assistance Act. 
Tribal interest in self-determination contracting and self-governance 
compacting has escalated substantially since 1988, when the CSC funding 
provisions were included in the Act. Based on an updated analysis on 
``Determining the True Cost of Contracting Federal Programs for Indian 
Tribes'' published in May 1997, findings support that Tribal indirect 
cost rates have not increased significantly and are not the major cause 
of CSC increases. The increases in CSC requirements are directly 
related and reflective of this increase in new contracts/compacts. 
Absent adequate CSC funds, there is little incentive for Tribal 
governments to assume programs and services from the BIA or IHS if it 
means immediately reducing services or being forced to use limited 
Tribal funds.
    As a secondary issue, we believe that for those Tribes that are 
interested in negotiating and agreeing to a fixed contract support 
amount, the BIA and IHS should support that Tribe's request. Obviously, 
the inability to adequately predict in advance the amount of contract 
support funds that are needed is the primary reason for deficits in the 
contract support cost budgets. Therefore, it would be a major step 
toward resolving this problem and toward achieving the Committee's goal 
of addressing contract support funding shortfalls if stable contract 
support agreements were to be agreed to between the BIA, IHS and 
Tribes. Unfortunately, even though some of our Tribes have developed 
fixed amount contract support agreements with either the BIA or IHS, 
there has been some indication that some Federal officials may be 
attempting to nullify these agreements and force Tribes back into the 
deficit budget situation. We firmly stand behind our negotiated 
agreements and expect the BIA and IHS to do the same.
    It was a difficult and controversial process to obtain these 
agreements in the first place. It would be unfortunate if a short-
sighted agenda of some Federal officials was allowed to undermine the 
few contract support success stories that has been achieved between 
Tribes and Federal agencies. Therefore, we request that the Committee 
provide language that protects the fixed-amount contract support 
agreements that presently exists between Indian Tribes and the BIA or 
IHS and encourage the agencies to enter into similar agreements with 
other Tribes.
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.--
Mandatory costs should be the first consideration in the budget 
formulation process. These costs are unavoidable and include medical 
and general inflation, pay costs and staff for recently construction 
facilities. IHS and Tribal programs have been forced to absorb these 
costs over the past seven years. In an analysis conducted by the 
Northwest Portland Area Indian Health Board, the compounding affect of 
multi-year funding shortfalls from (fiscal year 1993-fiscal year 1999) 
have resulted in $1.2 billion in real resources lost. These costs 
increases will result in further service reductions in health care if 
not addressed.
    Provide $900,000 to DOI Office of Self-Governance (OSG) for 
planning and negotiation grants; and, $500,000 to DOI and IHS Self-
Governance offices for additional FTE's and operations expenses for 
field offices as appropriate.--Both DOI and IHS have experienced 
significant growth in tribes choosing to participate in Self-
Governance. The offices provide a critical role for the annual 
negotiation of funding as well as the ongoing demonstration and 
implementation efforts by Tribes. For BIA, 206 Tribes are now 
participating in Self-Governance and for IHS, 239 Tribes. Funding is 
needed to support the expanding responsibilities of these offices. In 
addition, the fiscal year 1999 DOI budget does not provide for planning 
or negotiation grants which are essential to Tribes' preliminary and 
intermediate planning and actual negotiation requirements for Self-
Governance.
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project.--This project provides 
essential educational and information sharing opportunities for all 
Tribes participating in Self-Governance, Self-Governance Planning 
Grants, Negotiation Grants, as well as for Tribes who choose not to 
participate in Self-Governance. Funding supports communications and 
information exchange between the Tribes, BIA and IHS, provides 
coordination and logistical support for BIA and IHS workshops, training 
for federal and tribal employees, and specific federal and Tribal 
requests for information. The Project has played a major role in 
providing for greater acceptance and understanding of Self-Governance 
among Tribes and Federal agencies. We ask that the Committee provide 
language that acknowledges the need to continue funding this project at 
these levels for fiscal year 1999.
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes.--We request for 
the transfer of funding authority to the IHS Office of Tribal Self-
Governance for approval and payments processes to effect a more 
efficient distribution of funding to Self-Governance Tribes. Under the 
present financial system of IHS, there are nine steps for approval, 
eight steps for apportionment for payment, and eighteen steps to amend 
and existing Annual Funding Agreement (AFA). Such an expensive and time 
consuming bureaucratic system is not warranted when other streamlining 
methods can be implemented. The Office of Tribal Self-Governance (OTSG) 
should be provided full authority for distribution of all funds 
provided by IHS, including grants made under authority of the Balanced 
Budget Act, that are made a part of and funded through the AFA to 
participating Title III Tribes. We ask the Committee to consider 
language which supports the transfer of authority to OTSG.
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs and $1.5 million for the 
Joint BIA/Tribal Working Group on TPA Methodology.--Although the 
Administration's budget request for fiscal year 1999 includes a $34 
million increase over fiscal year 1998, the request does not include 
costs for a general increase for TPA. The majority of Tribal services 
are provided under TPA which fund a variety of social, welfare, 
housing, education, economic development, law enforcement and natural 
resource management, along with essential tribal governmental services. 
TPA also provides Tribes the flexibility to prioritize their funding to 
meet their individual goals and objectives within each respective 
Indian community. In 1994, the Joint Tribal/BIA/DOI Task Force 
recommended TPA inflationary adjustments as a first priority. At a 
minimum, the requested amount of $23 million will provide for a 3 
percent inflation adjustment for existing Tribal programs and services. 
The increase is a small step in the direction of providing adequate 
funding for critically needed Tribal programs. While there have been 
small increases since TPA was drastically cut in fiscal year 1996, it 
has yet to be restored to the fiscal year 1995 level. Additionally, we 
are supportive of the establishment of a Joint BIA/Tribal Working Group 
in its efforts to address funding inequities, unmet Tribal needs and 
funding shortfall.
    Support for BIA and IHS Tribal Self-Governance Stable Recurring 
Base Budgets.--A major goal of the Self-Governance initiative is to 
achieve stable base budgets for Tribes in order to maintain effective 
and efficient Tribal governments. Tribal stable base budgets should 
also include a proportional share of the Congressionally approved 
inflationary and other adjustments to the BIA and IHS budgets. We are 
concerned that Federal downsizing efforts of both the BIA and IHS may 
result in attempts by these agencies to use inflationary and other 
adjustments approved by Congress as a means of protecting their 
internal operations by redirecting these funds away from Tribal 
contracts and compacts.
    Stable base budgets are one of the primary methods for Indian 
Tribes to achieve economic self-sufficiency and maintain professional 
staffs. It is important that the Congress send a clear message that 
both the BIA and the IHS that one of their primary goals the priority 
to provide Tribes with stable budgets upon which we can build strong 
governmental structures. Therefore, we request that the Committee 
include language in the BIA and the IHS budgets supporting the 
establishment of Tribal stable based budget and to prohibit the BIA and 
IHS from attempting to use Congressionally-approved inflationary and 
other adjustment for their own internal purposes.
    Provide funding necessary to support the restructuring of IHS as an 
Agency of the Department and to elevate the IHS Director to Assistant 
Secretary.--Indian health is under represented within the Department of 
Health and Human Services. The Indian Health Service should be 
established as an Agency of the Department and the Director, IHS should 
be elevated to Assistant Secretary in order to provide parity for 
Indian health needs at the Department level. The fiscal year 1999 IHS 
Budget clearly indicates that Indian health concerns have received low 
priority in comparison to all other areas of the Department's budget. 
In fiscal year 1998, the Secretary implemented a Tribal consultation 
policy. The IHS Director fulfilled this policy by fully involving 
Tribes in a consultative process regarding the fiscal year 1999 Budget. 
However, the Director's and Tribes' health priorities were ignored at 
the Departmental level. As a result, critical health needs were reduced 
to fund Departmental initiatives that were not identified as a priority 
by the Indian Health Service, Tribal Self-Governance Advisory Committee 
or the National Indian Health Board. Such representation is vital to 
ensuring appropriate Indian health advocacy among senior officials of 
the Department.
    Oppose funding transfer of BIA Operations and Maintenance to the 
BIA's Facilities Management and Construction Center (FMCC) in 
Albuquerque, N.M.--The BIA proposes to transfer funding for Operations 
and Maintenance line item to the Facilities Management and Construction 
Center (FMCC) in Albuquerque, New Mexico. This effort does not diminish 
the bureaucracy, but simply transfers it to another location. Funding 
should be transferred to the Area offices for a more equitable 
distribution for all of the federal and tribal facilities maintained by 
BIA and compacting/contracting Tribes.
    Support the funding transfer of IHS Facilities Improvements and 
Maintenance from Seattle/Houston to IHS Area Offices.--Presently, IHS 
maintains an office in Seattle, Washington, and Dallas, Texas, to 
provide engineering support for IHS facilities. IHS proposes to 
transfer these functions and funding to Area offices. We support this 
initiative.
    In closing, we ask the Committee to give full consideration to our 
requests. The six Tribes represented in this written testimony have 
committed countless hours to promoting and enhancing the Tribal Self-
Governance initiative since its inception in 1988 because we believe in 
Self-Governance and Self-Determination for Indian Tribes. We seek your 
continued support for our efforts as well as the additional efforts put 
forth by many other Tribal governments that have embraced the 
principles and philosophy of Self-Governance and its importance towards 
the sustainment of Tribal governmental authorities and 
responsibilities.
    Thank you.
                                 ______
                                 
   Prepared Statement of W. Ron Allen, Tribal Chairman and Executive 
                  Director, Jamestown S'Klallam Tribe
    Mr. Chairman, on behalf of the Jamestown S'Klallam Tribe, I thank 
you for the opportunity to express our concerns and requests regarding 
the fiscal year 1999 Bureau of Indian Affairs and Indian Health Service 
budgets. The following document presents the Jamestown S'Klallam 
Tribe's funding priorities, as well as other regional and national 
concerns and recommendations for your consideration.
Overall Recommendation
    The Jamestown S'Klallam Tribe strongly recommends that the 
Subcommittee not consider any provisions or legislative riders which 
undermine Tribal sovereignty and our ability to advance our 
governmental capacity based on long-standing Federal/Tribal relations 
and Federal Indian law and policy.
Tribal-Specific Appropriation Priorities
    $165,000 increase in BIA Tribal Priority Allocation (TPA) plus full 
funding of related contract support costs for restoration of the 
Jamestown S'Klallam Tribe BIA Self-Governance base budget (total of 
$1,828,000);
    $45,000 increase in IHS Services appropriations plus full funding 
of related contract support costs for the Jamestown S'Klallam Tribe IHS 
Self-Governance base budget (total of $920,000); and,
    $600,000 one-time funding for the purchase of land adjacent to our 
existing reservation.
Regional Requests and Recommendations
    Support request of $1,950,000 for 20 Western Washington Tribes and 
the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations;
    Support technical correction of $185,000 for BIA Western 
Washington-Boldt Implementation and U.S./Canada Pacific Salmon Treaty 
funding shortfall;
    Support BIA request of $3,000,000 for continued implementation of 
the President's Northwest Forest Development Plan, ``Job in the Woods'' 
Initiative and the designation of $400,000 for the Tribal-State of 
Washington Wild Stock Restoration Initiative;
    Support BIA request of $1,000,000 for Forest Development, 
Endangered Species Act initiative; and,
    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.
Self-Governance and Other National Considerations
    Provide $900,000 increase to the DOI Office of Self-Governance for 
planning and negotiation grants and $500,000 to both DOI and IHS Self-
Governance offices for additional FTE's for Field Offices as 
appropriate;
    Transfer budget authority to the IHS Office of Tribal Self-
Governance for approval and payments to Self-Governance Tribes;
    Provide $150,000 from BIA and $150,000 from IHS for Self-Governance 
Communication and Education Project;
    Provide increase for BIA and IHS Contract Support Cost (CSC) funds 
to address documented Tribal needs;
    Provide a minimum of $23,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment and $1.5 million for 
the Joint BIA/Tribal Working Group on TPA Methodology; and,
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.
Tribal-Specific Appropriation Priorities
            Increase In BIA--TPA For Jamestown S'Klallam Self-
                    Governance Base +$165,000
    We are now in our eighth year of BIA Self-Governance implementation 
and have successfully demonstrated that the concept of re-directing 
resources based on local priorities and needs has resulted in more 
effective use of those resources. At the Tribal level, these measurable 
improvements include recorded increase in services to Tribal members 
for education, housing, social and cultural resources and are 
consistent with the Government Performance and Results Act (GPRA) 
objectives which focus on program outcomes and budget justification. As 
a result of Self-Governance, the Tribe re-prioritized funding to expand 
economic development and address natural resources priorities. 
Additionally, we have established our own Tribal Policies and 
Procedures for implementation of the Welfare Assistance and Housing 
Improvement programs.
    The flexibilities afforded under Self-Governance and the 
establishment of a formal Tribal budget process have allowed us to re-
prioritize and re-address our program needs and priorities. However, 
since initiation of our first Self-Governance funding agreement in 
1990, limited or no general increases to TPA funds have been added to 
our Tribal base. In fact--in fiscal year 1996, TPA was drastically cut 
and critical programs and services were severely impacted at the Tribal 
level. Further, in fiscal year 1998, our proposed TPA general increase 
negotiated by the Tribe was reduced by 67 percent ($73,000) as a result 
of the final report and recommendations of the Federal/Tribal TPA Task 
Force which was formed to address and develop recommendations for a 
revised TPA distribution methodology. These reductions have severely 
impacted our existing Tribal programs such as housing, social and 
cultural services, education and other key governmental operations 
which undermine the successes we have achieved to date through this 
historic initiative.
    Funding levels to TPA have yet to be restored to the fiscal year 
1995 level. The small increases to TPA over the past several years have 
not been adequate to keep pace with inflation, pay costs and increases 
for population growth. The failure of the Administration to include a 
general increase in overall TPA for fiscal year 1999, continues to 
hinder our governments' ability to provide for the essential needs of 
our Tribal communities. While we are supportive of the efforts that are 
underway to address funding inequities, unmet Tribal needs and funding 
shortfall; protection of existing Tribal base budgets and adjustments 
for inflation are essential to preserve the purchasing power of overall 
funding base amount and must remain a priority to promote strong and 
stable Tribal governments.
    The Jamestown S'Klallam Tribe requests the Subcommittee to direct 
the BIA to increase our Self-Governance base budget to restore funding 
levels to no less than the fiscal year 1995 enacted amounts. The base 
amount for our Tribe includes an increase of $165,000 in TPA-Self-
Governance to our Annual Funding Agreement (AFA) amounts (including 
associated increase in contract support costs) as originally negotiated 
prior to the adjustment for actual Congressional reductions. Since 
1993, we have negotiated a lump sum amount for contract support costs. 
However, this lump sum amount has only been partially funded each year. 
The inclusion of a negotiated lump sum amount for contract support 
costs establishes a base amount for indirect costs associated with 
those programs included in our AFA and provides protection and 
stability for these funds. Our total base amount of $1,828,000 includes 
full funding of contract support costs ($628,000) and represents the 
level of funding needed to maintain our base for future stability.
            Increase In IHS Services For Jamestown S'Klallam Self-
                    Governance Base +$45,000
    We are now in our fifth year of implementation of Self-Governance 
with the Indian Health Service. During that time, we have negotiated 
for a majority of the IHS programs and services and have re-designed 
our Tribal health services into a comprehensive Tribal managed care 
program. As a small Tribe managing a new and innovative program, it is 
critical that we maintain stable base funding levels to ensure 
successful implementation of our managed care program and to provide 
critical health care services to our members.
    In fiscal year 1996, the Jamestown S'Klallam Tribe was one of only 
two Self-Governance Tribes selected by the IHS to participate in a 3-
year ``pilot project'' allowing for the establishment of base funding 
under Self-Governance. In fiscal year 1998, we successfully re-
confirmed our Annual Funding Agreement negotiations with the IHS on the 
amounts, terms, and conditions for our Tribal base funding under this 
pilot project. While the terms of our Tribal base amounts allow for us 
to share equally in any inflationary cost increases and other 
mandatories, the fiscal year 1999 IHS Services Appropriations budget 
request by the Administration again fails to include adequate funding 
for mandatories and inflation costs needed to maintain existing health 
services. For fiscal year 1999, a total of $120 million is estimated in 
``unfunded'' mandatory costs.
    The Tribe requests the Subcommittee to direct IHS to restore 
mandatories in order to address the rising cost of providing health 
care services and to increase our Self-Governance base budget by 
$45,000 to provide for adequate medical and general inflationary costs 
needed to maintain our current Tribal health program. Consistent with 
GPRA goals and objectives, we are currently in the process of 
developing a 5-year plan for our Tribal Managed Care program including 
financial projections and recommendations for improvements which are 
results-oriented. Inflation is a real factor which negatively impacts 
our Tribal budgets and service delivery capabilities. Based on our 
analysis, inadequate IHS funding for mandatory costs will force the 
Tribe to reduce benefits and/or limit eligibility for health services.
    We are greatly alarmed regarding the failure of the Administration 
to provide for additional funding for CSC in the IHS budget. The total 
CSC shortfall for IHS is estimated at $137 million. This amount 
includes shortfall for existing Tribal contracts and compacts. While 
the Administration says that it is committed to the policy of Tribal 
self-determination and self-governance, it's failure to provide any 
increase for CSC essentially halts further progress or opportunity for 
Tribes to assume and manage these programs. Our requested increase and 
total base amount represents the level of funding needed to maintain 
existing programs and services and includes full funding of contract 
support.
            Establishment of Tribal Land Base +$600,000
    For the past 7 years, the Tribe has requested the Subcommittee's 
assistance in securing additional land to add to our existing 
reservation. This request has yet to be funded and we again appeal to 
the Subcommittee for your consideration of funding for this land 
acquisition. In the 1870's, Tribal members rejected a relocation policy 
(urged on by white settlers) to move them from their historical lands 
to another Tribe's reservation. In 1981, the Jamestown S'Klallam Tribe 
achieved federal recognition. Since that time, we have been attempting 
to undo the effects of this injustice, which had devastating social, 
economic, and cultural impacts for on the Tribe. We strongly believe 
the United States government has an obligation to assist the Tribe in 
correcting these negative impacts. One way this situation can be 
addressed is for the Congress to assist us to increase on our meager 
reservation land base; a base that would have been substantially larger 
had it not been for the 100-year wait for our recognition.
    A contiguous ten (10) acre site still remains available for 
purchase at approximately $600,000. This land acquisition would allow 
us to expand our facilities to meet the steadily increasing demand for 
services by our Tribal members. Our Tribe is now at a critical juncture 
in this rapidly evolving situation. Any further development of the 
current Tribal facilities to meet expansion needs would be both 
environmentally and practically unsound. Based on some projections 
provided us by a local consultant, it will cost approximately 
$3,000,000 to construct the facilities that will be needed for the 
foreseeable future, given our rate of growth since our Federal 
restoration. The Tribe is confident it can obtain the resources to 
develop the facilities on the proposed site from a combination of 
sources; i.e. donations, seeking philanthropic support, and Tribal 
business revenues. We need Congressional assistance to purchase the 
adjacent property which is essential for logical and efficient growth 
management of the Tribal operations.
    If the Tribe does not acquire the tract and a third party purchases 
and develops the land, we will obviously be blocked from any further 
practical expansion of our reservation base due to the geographic 
conditions of this area. In addition, the likelihood of a price 
escalation for this acreage exists. The seller's price has sharply 
increased since 1985 due to the attractive conditions of our area and 
population growth. The Tribe needs to act quickly to secure this 
opportunity before it is lost to development or realty investment 
speculation.
Regional Requests and Recommendations
    Support request of additional $1,950,000 for 20 Western Washington 
Tribes and the Northwest Indian Fisheries Commission (NWIFC) for Tribal 
shellfish harvest management, enforcement and enhancement to implement 
Tribal treaty rights through the establishment of base shellfish 
operations. This amount will help Tribes prepare for future shellfish 
enhancement and harvest activities as well as implement established 
Tribal/state agreements and other future cooperative management 
considerations requiring additional tribal shellfish management 
capabilities.
    Support for technical correction of $185,000 for BIA Western 
Washington-Boldt Implementation and U.S./Canada Pacific Salmon Treaty 
funding to levels consistent with the previously identified levels as 
directed by Subcommittee. During this past fiscal year, the BIA and the 
Office of Self-Governance failed to fully restore these funds when 
these were re-programmed from the TPA line. This error is a direct loss 
of funding to the NWIFC.
    Support for BIA request of $3,000,000 for continued implementation 
of the President's Northwest Forest Development Plan, ``Job in the 
Woods'' Initiative and designation of $400,000 for the Tribal-State of 
Washington Wild Stock Restoration Initiative. We request that the 
Subcommittee continue to provide $400,000 for the Washington Wild Stock 
Restoration. The remaining $2.6 million from this initiative will allow 
Tribes to conduct watershed analysis and watershed restoration within 
their usual and accustomed areas.
    Support for BIA Resources Management request of $1,000,000 for 
Endangered Species Act initiative. The ESA process has resulted in 
significant changes to harvest, hatchery and habitat practices and has 
placed new obligations upon us. This amount will be used to enhance 
Northwest Tribal capacity to respond and meet these ESA process 
obligations.
    The Jamestown S'Klallam Tribes is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
Self-Governance And Other National Considerations
    Provide $900,000 increase to the DOI Office of Self-Governance for 
planning and negotiation grants and $500,000 respectively to both DOI 
and IHS Self-Governance offices for additional FTE's for Field Offices 
as appropriate. The DOI and IHS Self-Governance offices are responsible 
for the facilitation of the annual negotiation process and 
implementation of the Self-Governance initiative within each of their 
respective Departments. In fiscal year 1998, a total of $182 million in 
funding has been obligated and transferred from the BIA to 206 Tribes 
and $423 million in funding has been transferred from IHS to 239 Tribal 
governments under Self-Governance. This funding is essential for the 
management and administrative staff to facilitate this increase and 
handle the addition in existing work load.
    Transfer budget authority to the IHS Office of Tribal Self-
Governance for implementation of approval, payment and award of all 
Self-Governance funding to participating Tribes. The current system for 
payment and approval of Self-Governance funds to participating Tribes 
is unnecessarily bureaucratic, expensive and time-consuming. We, 
therefore, request the Subcommittee to consider language in the 
appropriations bill which would direct the IHS to identify and report 
to Congress the total funding for Self-Governance Tribes and to 
transfer such funding to the Office of Tribal Self-Governance, with 
this Office being hereby granted full authority of distribution of all 
funds provided by the IHS that are funded through Self-Governance 
funding agreements.
    Provide $300,000 as a base funding amount for the Self-Governance 
Communication and Education Project. The purpose of this Project has 
been to provide technical assistance and factual information about 
Self-Governance. The Project is vital to ensure that Self-Governance 
and its purposes are clearly understood and consistently developed by 
participating Tribal governments, federal agency officials and non-
participating Tribes.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need. Despite the fact that contract support has been one of 
the very highest Tribal priorities nationally, the Administration's 
budget fails to include adequate funding for CSC. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. Absent adequate CSC funds, 
there is little incentive for Tribal governments to assume programs and 
services from the BIA or IHS if it means immediately reducing services 
or being forced to use limited Tribal funds.
    Provide a minimum of $23,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments and $1.5 million 
for the Joint BIA/Tribal Working Group on TPA Methodology. Although the 
Administration's budget request for fiscal year 1999 includes a $34 
million increase over fiscal year 1998, the request contains no general 
increase for TPA. This activity includes the majority of the funds used 
to support on-going services at the local Tribal level including such 
programs as housing, education, natural resources management and Tribal 
government services. At a minimum, the requested amount will provide 
for a modest 3 percent inflation adjustment for existing Tribal 
programs and services.
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services. These 
costs are unavoidable and include medical and general inflation, pay 
costs and staff for recently constructed facilities. IHS and Tribal 
programs have been forced to absorb these costs over the past 7 years. 
In an analysis conducted by the Northwest Portland Area Indian Health 
Board, the compounding effect of multi-year funding shortfalls from 
(fiscal year 1993-fiscal year 1999) have resulted in $1.2 billion in 
real resources lost. If unfunded, these cost increases will result in 
further health service reductions in our Tribal communities.
    In conclusion, we strongly recommend increased funding levels 
within the BIA and IHS budgets for critically-needed existing programs. 
It is truly unconscionable and outrageous for Tribal governments who 
have struggled to secure decent housing, health care, and other 
programs for its people to suffer further reductions in funding. This 
funding is an obligation stemming from solemn commitments of the U.S. 
to Indian people to provide basic health, safety, education and 
economic security. We appreciate this Subcommittee's continued support 
and urge that Tribal government operations be afforded the highest 
priority in your appropriation decisions.
                                 ______
                                 
   Prepared Statement of Hon. Bennie J. Armstrong, Tribal Chairman, 
                            Suquamish Tribe
    Mr. Chairman, Members of the Committee, my name is Bennie J. 
Armstrong, and I am the appointed Chairman of the Squamish Indian 
Tribe. As an appointee of only seven weeks, but a past elected Chairman 
of the Tribe, I am honored to present oral testimony before you today. 
And, if I do a good job, maybe next year I will be back to present, 
once again, as the elected Leader of my Tribe.
Tribal priority requests
    $200,000 for higher and adult education added to the Tribal 
Priority Allocation Account;
    $150,000 increase for Tribal Courts added to BIA/TPA Tribal Courts 
account; and,
    $1.8 million for the Suquamish Tribe to reacquire our ancestral 
home at ``D'SUQ'WUB'' (place of clear salt water) added to the BIA Non-
recurring programs, Wildlife and Parks, Tribal/Agency Budget.
Regional priority requests
    $185,000 Washington-Boldt Pacific Salmon Implementation and Pacific 
Salmon Treaty Funding shortfall;
    $1.95 million for Boldt case Tribes funding of shellfish operations 
and maintenance of shellfish hatcheries;
    $1 million for BIA resource management--Endangered Species Act 
Initiative; and,
    $3.1 million for Tribal Ecosystems management initiative to 
establish a cooperative and coordinated monitoring and evaluation 
program.
National priority requests
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls;
    Provide $800 million to support School Facilities Construction; $4 
million for Adult Education, $54 million for Johnson O'Malley; and, an 
estimated $348 million to improve the quality of education for BIA 
funded schools;
    Provide $58.4 million for BIA Public Safety and Justice programs;
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs;
    Provide $10 million for BIA Cultural and Historical Preservation 
programs;
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes;
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project; and,
    Elevate the Director of IHS within HHS to an Assistant Secretary 
Level.
    The Suquamish Tribe is one of two Indian Reservations located in 
Puget Sound, Northeastern Kitsap County, Washington. Established by the 
Treaty of Point Elliott on January 22, 1855, the Suquamish Tribe is 
situated on a large peninsula extending into Puget Sound that has been 
affirmed by a Supreme Court ruling as ``Indian Country''.
Tribal priorities
    $200,000: Higher and Adult Education added to the Tribal Priority 
Allocation Account.--Requests by Suquamish tribal members for education 
services of all types and employment counseling and services has 
dramatically increased. In response, the Tribe has provided additional 
services in a variety of areas. First, by providing daily 
transportation of high risk students to a local alternative high 
school. Second, by working with Northwest Indian College to provide an 
on reservation GED program which has served over 45 community residents 
this year. Third, by renovating old tribal and donated computers and 
making them available to tribal member students. Fourth, by increasing 
the tribal higher education budget by 200 percent from 1995 to 1997.
    Assistance in the work and training area has doubled in the past 
year from eight trainees in 1997 to a projected sixteen or more in 
1998. In addition, the Tribe has provided training to 18 tribal members 
to become divers to harvest shellfish. One tribal member was trained to 
be an underwater welder and was immediately employed. In fact, the 
current tribal coordinator for these programs started as a trainee in 
the fall of 1996 and has progressed to the point of being able to 
capably administer these programs. Funding from the BIA will train only 
one or two individuals per year. More funds are needed to fulfill 
requests from tribal members with employment training goals.
    Higher education is of great concern to the Suquamish Tribal 
Council. The number of students requesting higher education assistance 
has nearly doubled in the past 18 months. In the Fall of 1996 there 
were 16 students receiving assistance. In the Fall of 1997, 31 students 
received assistance. It is anticipated that between 35 and 45 students 
will request assistance in the fall of 1998. The BIA higher education 
funding is sufficient to provide an average of $1,113 per year per 
student based upon 31 students attending college. Obviously, this is a 
totally inadequate amount for any student. Need is considered and 
averages over $5,000 per student. To meet the projected need in fiscal 
year 1999 would require at least $175,000 in additional funds. The 
Tribe has increased the amount of tribal funds going into higher 
education from $20,000 in 1996 to over $60,000 in 1997. Together with 
the BIA funding, the amount available per student is approximately 
$3,050; well short of the average need of $5,000 per student. The Tribe 
does not have the resources to increase higher education funding beyond 
the $60,000 level from tribal funds.
    The Tribe will continue to support all education programs but 
additional funds are needed to meet the needs of tribal members for 
GED, higher education and job training services.
    $150,000: Tribal Courts to BIA/TPA Account.--The Suquamish Tribal 
Council has faced substantial increased costs in operation of both the 
Tribal Court and Tribal Police Services. In addition, the Tribe and 
Kitsap County have been working cooperatively on a number of issues and 
have established a working relationship to assist one another in a 
variety of law enforcement activities. For example, the Juvenile 
Departments of the County and Tribe are working closely together in 
diversion and probation activities for Indian youth and adults. The 
Tribal Diversion/Probation Officer is now supervising County referred 
offenders.
    Another area of cooperation is in general law enforcement. County 
and Tribal Officers assist each other in responding to a wide variety 
of incidents. Jurisdiction of the County and Tribe on the Port Madison 
Reservation, is very intricate and cooperation between the law 
enforcement agencies is critical. In January of 1998, the Suquamish 
Tribe hosted an historic government-to-government summit with Kitsap 
County elected officials and law enforcement personnel.
    There has been an increase in arrests and incidents reported by the 
Tribal Police which has resulted in a substantial increase in the 
Tribal Court caseload. Tribal Court cases increased from 150 in 1996 to 
315 in 1997, or an increase of 110 percent in one year. Police calls on 
the Suquamish Reservation for non-traffic offenses increased 21 percent 
from 1996 to 1997 at a time when the rate of increase in Kitsap County 
was 3.5 percent. Many of these calls involved non-native residents of 
the reservation. Cooperation with the County Sheriff is critical to 
effective law enforcement on the reservation because of the complicated 
trust land ownership pattern and consequent jurisdiction issues 
following therefrom.
    Costs of providing law enforcement services has increased 
considerably, doubling in the past five years. The Tribe has had to 
increase salary of officers to retain properly trained commissioned 
officers. The standards for officers hired by the Tribe is on a par 
with the Kitsap County Sheriff's Office. All officers are academy 
trained. Tribal officers are trained to know not only tribal laws, but 
also Federal, State and County laws. Joint training with the County is 
occurring as are meetings between supervisory staff and legal staff to 
ensure a good working relationship.
    Of great concern to the Tribe are incarceration costs. These costs 
have increased from a few thousand dollars per year to over $50,000 
annually. It is anticipated these costs will continue to increase and 
the Tribe is considering building a jail since the nearest facility 
available to take prisoners is over 65 miles away in Puyallup 
Reservation. Just transporting a prisoner to jail takes nearly one 
whole shift for an officer.
    The Suquamish Tribe has found itself in a position of having to 
take desperately needed tribal funds to support the Public Safety and 
Tribal Court budgets. The funds received from the BIA are no longer 
adequate to provide the minimum services needed to ensure community 
safety.
    $1.8 Million: Reacquire Ancestral Home ``D'SUB'WUB'' added to BIA 
Wildlife and Parks, Tribes/Agency Budget.--Sometime between the years 
1866 (the year Chief Sealth passed away) and 1872 under orders from the 
government, William DeShaw, agent in charge of the Port Madison Indian 
Reservation, moved the remaining families out of Old Man House and then 
to ensure no further inhabitancy, dismantled and burned it. But since 
this site was unalloted lands some tribal members built small homes on 
the site and continued to live here until 1904 when the U.S. War 
Department purchased the site for a fort to guard the watery entrance 
to Port Orchard Bay, where the new Bremerton Navy Yard was located. 
Many of the members opposed the sale, but the Army pressured the 
Indians to sign, claiming that if the property was not used for 
military purposes, it would be returned to the Tribe. On May 28, 1904, 
an agreement was signed by the adult members of the Tribe, D'Suq'Wub 
was vacated, and the Suquamish Tribe never returned.
    We are requesting $700,000 in 1999 to fund the purchase of two 
lots, that along with the state park make up the former site of Old Man 
House, and $400,000 in 2000 to conduct an archaeological dig on this 
site that was home to the Suquamish Tribe for Two Thousand Years. and 
$700,000 in 2001 to construct a smaller replica of Old Man House to be 
used as a interpretive center for the Tribal Members and the general 
public, and as a gathering place for the tribe to relearn about their 
culture and traditional ways of life.
Regional requests
    Provide $185,000 for a technical correction of the Western 
Washington-Boldt Implementation and Pacific Salmon Treaty Funding 
shortfall. In fiscal year 1998, the BIA and OSG failed to restore 
$185,000 to the Northwest Indian Fisheries Commission (NWIFC) as a 
result of reprogramming trust resources to the TPA line item. The NWIFC 
must be able to recoup the funds to perform ongoing trust resources on 
behalf of Tribes for the Western Washington-Boldt case and U.S./Canada 
Pacific Salmon Treaty.
    Support request of $1,950,000 for 20 Western Washington Tribes and 
the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations. 
Additional funding to tribal programs are necessary to address these 
needs. Western Washington tribes request an additional $1,950,000 be 
added to tribal fisheries management contracts as permanent base 
funding. This would provide basic infrastructure for each tribe of 
$97,500. This would cover only the basic level of management and 
enforcement needs.
    Support for $1 million BIA, Resources Management, Endangered 
Species initiative. As Tribes that are potentially impacted by the 
proposed listing of pacific salmon under the terms of ESA, funds are 
needed for biological review, listing decisions, conferencing, 
consultation and recovery planning to prepare for the changes in 
harvest, hatchery and habitat practices in response to the ESA process.
    Support for $3.1 million for the Northwest Tribal Ecosystem 
Management initiative. This amount is needed to support the 
coordination and cooperative monitoring effort by the Tribal co-
managers for the protection and restoration of salmon populations, 
consistent with ESA, Clean Water Act, Natural Resource Conservation 
Service's obligation for salmon recovery, and the Forest Service 
obligations under the Northwest Forest Plan.
National requests
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls. Contract 
support continues to be a concern. The BIA still does not do an 
adequate job of identifying the need for inclusion in the 
Administration Budget. These funds are vital to Tribes to enable us to 
continue to maintain our core government functions. We request that the 
Committee require a report from the BIA which fully identifies the 
need, and recognize the Intent of the Self-Determination Act and fully 
fund Contract support.
    Provide $800 million to support School Facilities Construction; $4 
million for Adult Education, $54 million for Johnson O'Malley; and, an 
estimated $348 million to improve the quality of education for BIA 
funded schools. While we support the Administration's significant 
investment of $86.6 million for school construction for BIA, even with 
the proposed increase, there is an estimated need of more than $800 
million in BIA school facilities and repair. For Adult Education, 
funding levels continue to be extremely low and is considered the most 
poorly funded of all Indian education programs. Since DOE has 
eliminated Adult Education, BIA must be funded at $4 million. For 
Johnson O'Malley, we support the proposed increase in the fiscal year 
1999 budget, however, the true need is $54 million and is especially 
critical since there continues to be an annual increase in the number 
of eligible Indian students attending public schools. The Indian 
Student Equalization Program (ISEP) is far below the national average 
per pupil expenditure of $7,371 for academic instruction in School Year 
1998-99. $348 million is required to provide quality education to 
Indian students on an even par basis with the national population.
    Provide $58.4 million for BIA Public Safety and Justice programs. 
To date, no funds have been appropriated by Congress in support of the 
Indian Tribal Justice Act (Public Law 103-176) for enhancement and 
improvement of tribal judicial systems. For fiscal year 1999, $11.2 
million is requested for tribal courts in BIA and $10 million for the 
Department of Justice. However, these amounts are not in keeping with 
the $54 million authorized under the law.
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs. It is extremely 
important that we, at least, keep pace with inflation. Even with this 
request, tribes are left underfunded when compared to other 
jurisdictions. Although the Administration's budget request for fiscal 
year 1999 includes a $34 million increase over fiscal year 1998, the 
request does not include costs for a general increase for TPA. The 
majority of Tribal services are provided under TPA which fund a variety 
of social, welfare, housing, education, economic development, law 
enforcement and natural resource management, along with essential 
tribal governmental services. TPA also provides Tribes the flexibility 
to prioritize their funding to meet their individual goals and 
objectives within each respective Indian community. In 1994, the Joint 
Tribal/BIA/DOI Task Force recommended TPA inflationary adjustments as a 
first priority. At a minimum, the requested amount of $23 million will 
provide for a 3 percent inflation adjustment for existing Tribal 
programs and services.
    Provide $10 million for BIA Cultural and Historical Preservation 
programs. The Native American Graves Protection and Repatriation Act 
(Public Law 101-601), was to ensure Native American human remains and 
sacred objected retained by federal, state, and local governments, 
universities, and the museum community are returned to the appropriate 
tribes and/or descendants. The law also provided for protection of 
burial sites on tribal and federal lands. Despite a continual tribal 
request of $10 million from fiscal year 1993-fiscal year 1998, Congress 
has appropriated only $2.6 million to date. The National Historic 
Preservation Act (Public Law 89-665) is another law tribes rely on for 
the protection of cultural and historic resources. Under the 1992 
Amendments, Tribes could assume the responsibilities of State Historic 
Preservation Offices. The Administration has requested $3 million, 
however additional funding and resources are necessary to protect and 
preserve Tribal culture.
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes. We request the 
transfer of funding authority to the IHS Office of Tribal Self-
Governance for approval and payments processes to effect a more 
efficient distribution of funding to Self-Governance Tribes. Under the 
present financial system of IHS, there are nine steps for approval, 
eight steps for apportionment for payment, and eighteen steps to amend 
and existing Annual Funding Agreement (AFA). Such an expensive and time 
consuming bureaucratic system is not warranted when other streamlining 
methods can be implemented. The Office of Tribal Self-Governance (OTSG) 
should be provided full authority for distribution of all funds 
provided by IHS, including grants made under authority of the Balanced 
Budget Act, that are made a part of and funded through the AFA to 
participating Title III Tribes. We ask the Committee to consider 
language which supports the transfer of authority to OTSG.
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project. We support the 
continued funding of the Self-Governance Communication and Education 
Project. This project has been a valuable tool for promoting the 
utilization of the Self-Governance model which has provided meaningful 
improvements in Indian country without building or maintaining 
bureaucracies.
    Provide funding necessary to support the restructuring of IHS as an 
Agency of the Department and to elevate the IHS Director to Assistant 
Secretary. Indian health is under represented within the Department of 
Health and Human Services. The Indian Health Service should be 
established as an Agency of the Department and the Director, IHS should 
be elevated to Assistant Secretary in order to provide parity for 
Indian health needs at the Department level.
    In conclusion, I thank you for your consideration of our requests 
and your continued support for Tribal governments.
                                 ______
                                 
 Prepared Statement of Dave W. Whitener, Chairman, Squaxin Island Tribe
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Squaxin Island Tribe, I thank you for this opportunity to provide 
testimony on the fiscal year 1999 Bureau of Indian Affairs and Indian 
Health Service. The following concerns and recommendations of the 
Squaxin Island Tribe are common, not only to us, but to Tribes both in 
our region and throughout the nation.
                   summary of appropriation requests
Tribal Specific
    Support for $97,500 for the Squaxin Island Shellfish Management.
Regional
    Provide $185,000 for a technical correction of the Western 
Washington-Boldt Implementation and Pacific Salmon Treaty Funding 
shortfall;
    Support for $1,950,000 for 20 Western Washington Tribes and the 
Northwest Indian Fisheries Commission for Tribal shellfish harvest 
management, enforcement and enhancement to implement Tribal treaty 
rights through the establishment of base shellfish operations;
    Support for $1 million BIA, Resources Management, Endangered 
Species initiative;
    Support for $3 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative; and,
    Support for $3.1 million for the Northwest Tribal Ecosystem 
Management initiative.
Self-Governance and Other National Issues
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls;
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services;
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project;
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes;
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs;
    Provide funding necessary to support the restructuring of IHS as an 
Agency of the Department and to elevate the IHS Director to Assistant 
Secretary;
    Oppose funding transfer of BIA Operations and Maintenance to the 
BIA's Facilities Management and Construction Center (FMCC) in 
Albuquerque, NM;
    Provide $800 million to support School Facilities Construction; $4 
million for Adult Education, $54 million for Johnson O'Malley; and, an 
estimated $348 million to improve the quality of education for BIA 
funded schools;
    Provide $58.4 million for BIA Public Safety and Justice programs; 
and,
    Provide $10 million for BIA Cultural and Historical Preservation 
programs.
                     narrative summary of requests
Tribal specific
    Support $97,500 for the Squaxin Island Shellfish Management. The 
Squaxin Island Tribe was a plaintiff in the recent court case which 
reaffirmed the Treaty rights of the Tribes in Washington State to 
harvest 50 percent of the shellfish product, and to act as co-managers 
of the shellfish resources. This involves management of both inter-
tidal and sub-tidal species of shellfish.
    For the past two years, we have been expanding our management of 
this very important resource to the Squaxin Island Tribe. Currently we 
manage the resource for about 150 Tribal harvesters who harvest 
shellfish for subsistence and commerce as has been the case since the 
Treaty was signed in 1854. To date our expanded enhancement and 
management efforts have been directly funded by Tribal dollars.
    Once again, the appellate court has upheld the District Court's 
decision, and strengthened the tribal claims. Our experience has shown 
that in order to be an effective co-manager of this resource, we need 
to be able to participate in management, enhancement, and enforcement 
activities. As managers of this resource, we will need to continue to 
expand our management capacity. This will involve specialized training 
and equipment for our harvesters, our management staff, and our 
enforcement staff.
Regional
    Provide $185,000 for a technical correction of the Western 
Washington-Boldt Implementation and Pacific Salmon Treaty Funding 
shortfall. In fiscal year 1998, the BIA and OSG failed to restore 
$185,000 to the Northwest Indian Fisheries Commission (NWIFC) as a 
result of reprogramming trust resources to the TPA line item. The NWIFC 
must be able to recoup the funds to perform ongoing trust resources on 
behalf of Tribes for the Western Washington-Boldt case and U.S./Canada 
Pacific Salmon Treaty.
    Support request of $1,950,000 for 20 Western Washington Tribes and 
the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations. 
Additional funding to tribal programs are necessary to address these 
needs. Western Washington tribes request an additional $1,950,000 be 
added to tribal fisheries management contracts as permanent base 
funding. This would provide basic infrastructure for each tribe of 
$97,500. This would cover only the basic level of management and 
enforcement needs.
    Support for $1 million BIA, Resources Management, Endangered 
Species initiative. As Tribes that are potentially impacted by the 
proposed listing of pacific salmon under the terms of ESA, funds are 
needed for biological review, listing decisions, conferencing, 
consultation and recovery planning to prepare for the changes in 
harvest, hatchery and habitat practices in response to the ESA process.
    Support for $3 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative. We support the BIA request of $3,000,000 for 
continued implementation of the President's Northwest Forest 
Development Plan, ``Job in the Woods'' Initiative and the designation 
of $400,000 for the Tribal-State of Washington Wild Stock Restoration 
Initiative (WSRI). WSRI is essential to developing a habitat inventory 
base from which restorations projects can begin. This work will extend 
the effectiveness of the limited funds for restoration by providing an 
effective tool for prioritization and design of projects.
    Support for $3.1 million for the Northwest Tribal Ecosystem 
Management initiative. This amount is needed to support the 
coordination and cooperative monitoring effort by the Tribal co-
managers for the protection and restoration of salmon populations, 
consistent with ESA, Clean Water Act, Natural Resource Conservation 
Service's obligation for salmon recovery, and the Forest Service 
obligations under the Northwest Forest Plan.
    We support the requests and recommendations of the Northwest 
Portland Area Indian Health Board, the Northwest Indian Fisheries 
Commission, and the Northwest Intertribal Court System. These consortia 
assist us in an efficient and cost effective manner, thus insuring the 
tribes and the federal government that scarce funds are wisely managed. 
Please consider their requests as you consider our individual 
submissions.
               self-governance and other national issues
    Provide full funding for IHS and BIA Contract Support Costs (CSC) 
to address documented Tribal needs and current shortfalls. Contract 
support continues to be a concern. For the past several years the 
Squaxin Island Tribe has offered testimony of the need to fund the full 
amount of Contract Support needed in Indian Country. The BIA still does 
not do an adequate job of identifying the need for inclusion in the 
Administration Budget. These funds are vital to Tribes to enable us to 
continue to maintain our core government functions. We request that the 
Committee require a report from the BIA which fully identifies the 
need, and recognize the Intent of the Self-Determination Act and fully 
fund Contract support.
    Contract Support Costs is one of the highest priorities of Tribes. 
Current CSC shortfalls are estimated at $25 million for BIA and $137 
million for IHS, excluding past years shortfalls. CSC is an important 
part of the federal sources transferred to Tribes under self-
determination and self-governance which supports vital managerial and 
administration functions essential to any government or business.
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services. 
Mandatory costs should be the first consideration in the budget 
formulation process. These costs are unavoidable and include medical 
and general inflation, pay costs and staff for recently construction 
facilities. IHS and Tribal programs have been forced to absorb these 
costs over the past seven years. In an analysis conducted by the 
Northwest Portland Area Indian Health Board, the compounding affect of 
multi-year funding shortfalls from (fiscal year 1993-fiscal year 1999) 
have resulted in $1.2 billion in real resources lost. These costs 
increases will result in further service reductions in health care if 
not addressed.
    We have since opened a new health facility, and are providing 
expanded primary care to Tribal members. We are also providing dental 
care, and contract health services from one very modern and accessible 
facility. Our patient count has tripled, and continues to grow with new 
and expanded outreach and educational programs. We were able to 
accomplish this by creatively leveraging our funding to secure 
financing with a long term loan. Even with this great report, we still 
have concerns. The Indian Health Service has never been and is not now 
funded at a level to meet the majority of the need in Indian Country. 
Although the current budget includes an increase over the prior year, 
if you examine the numbers more carefully, you will see that we are 
losing ground. The percentage of increase does not take into account 
that a conservative estimate of the medical inflation rate is about 5 
percent and the average population increase in Indian Country is about 
2.3 percent. Using these figures, it is estimated that an additional 
$85 million would be needed in fiscal year 1999 to keep pace with 
fiscal year 1998. We ask that the Committee take a serious look at the 
dollars actually spent to address the medical needs of Indian people 
today and as we move towards the next millennium. The quality of health 
care in Indian Country, is at a minimum, an embarrassment when compared 
to that received by others in this Country.
    Provide $150,000 for DOI and $150,000 for IHS to maintain the Self-
Governance Communication and Education Project. We support the 
continued funding of the Self-Governance Communication and Education 
Project. This project has been a valuable tool for promoting the 
utilization of the Self-Governance model which has provided meaningful 
improvements in Indian country without building or maintaining 
bureaucracies.
    Transfer budget authority to IHS Office of Self-Governance (OTSG) 
for approval and payments to Self-Governance Tribes. We request the 
transfer of funding authority to the IHS Office of Tribal Self-
Governance for approval and payments processes to effect a more 
efficient distribution of funding to Self-Governance Tribes. Under the 
present financial system of IHS, there are nine steps for approval, 
eight steps for apportionment for payment, and eighteen steps to amend 
and existing Annual Funding Agreement (AFA). Such an expensive and time 
consuming bureaucratic system is not warranted when other streamlining 
methods can be implemented. The Office of Tribal Self-Governance (OTSG) 
should be provided full authority for distribution of all funds 
provided by IHS, including grants made under authority of the Balanced 
Budget Act, that are made a part of and funded through the AFA to 
participating Title III Tribes. We ask the Committee to consider 
language which supports the transfer of authority to OTSG.
    Provide no less than $23,000,000 for BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary costs. It is extremely 
important that we, at least, keep pace with inflation. Even with this 
request, tribes are left underfunded when compared to other 
jurisdictions. Although the Administration's budget request for fiscal 
year 1999 includes a $34 million increase over fiscal year 1998, the 
request does not include costs for a general increase for TPA. The 
majority of Tribal services are provided under TPA which fund a variety 
of social, welfare, housing, education, economic development, law 
enforcement and natural resource management, along with essential 
tribal governmental services. TPA also provides Tribes the flexibility 
to prioritize their funding to meet their individual goals and 
objectives within each respective Indian community. In 1994, the Joint 
Tribal/BIA/DOI Task Force recommended TPA inflationary adjustments as a 
first priority. At a minimum, the requested amount of $23 million will 
provide for a 3 percent inflation adjustment for existing Tribal 
programs and services.
    We ask that this Subcommittee not be swayed by the few notable 
success stories and not make decisions based on accounts by the media 
of Indian gaming. When the discussions are drawn to need based funding, 
we ask that you consider the needs of all Tribes, and recognize that 
for the majority, we have historically been, and continue to be, in the 
under-funded column of the equation. Reports show that while the 
overall Federal spending has increased, actual spending for Tribal 
programs has decreased when inflation and population growth is factored 
into the total numbers.
    Provide funding necessary to support the restructuring of IHS as an 
Agency of the Department and to elevate the IHS Director to Assistant 
Secretary. Indian health is under represented within the Department of 
Health and Human Services. The Indian Health Service should be 
established as an Agency of the Department and the Director, IHS should 
be elevated to Assistant Secretary in order to provide parity for 
Indian health needs at the Department level.
    Oppose funding transfer of BIA Operations and Maintenance to the 
BIA's Facilities Management and Construction Center (FMCC). The BIA 
proposes to transfer funding for Operations and Maintenance line item 
to the Facilities Management and Construction Center (FMCC) in 
Albuquerque, New Mexico. This effort does not diminish the bureaucracy, 
but simply transfers it to another location. Funding should be 
transferred to the Area offices for a more equitable distribution for 
all of the federal and tribal facilities maintained by BIA and 
compacting/contracting Tribes.
    Provide $800 million to support School Facilities Construction; $4 
million for Adult Education, $54 million for Johnson O'Malley; and, an 
estimated $348 million to improve the quality of education for BIA 
funded schools. While we support the Administration's significant 
investment of $86.6 million for school construction for BIA, even with 
the proposed increase, there is an estimated need of more than $800 
million in BIA school facilities and repair. For Adult Education, 
funding levels continue to be extremely low and is considered the most 
poorly funded of all Indian education programs. Since DOE has 
eliminated Adult Education, BIA must be funded at $4 million. For 
Johnson O'Malley, we support the proposed increase in the fiscal year 
1999 budget, however, the true need is $54 million and is especially 
critical since there continues to be an annual increase in the number 
of eligible Indian students attending public schools. The Indian 
Student Equalization Program (ISEP) is far below the national average 
per pupil expenditure of $7,371 for academic instruction in School Year 
1998-99. $348 million is required to provide quality education to 
Indian students on an even par basis with the national population.
    Provide $58.4 million for BIA Public Safety and Justice programs. 
To date, no funds have been appropriated by Congress in support of the 
Indian Tribal Justice Act (Public Law 103-176) for enhancement and 
improvement of tribal judicial systems. For fiscal year 1999, $11.2 
million is requested for tribal courts in BIA and $10 million for the 
Department of Justice. However, these amounts are not in keeping with 
the $54 million authorized under the law.
    Provide $10 million for BIA Cultural and Historical Preservation 
programs. The Native American Graves Protection and Repatriation Act 
(Public Law 101-601), was to ensure Native American human remains and 
sacred objected retained by federal, state, and local governments, 
universities, and the museum community are returned to the appropriate 
tribes and/or descendants. The law also provided for protection of 
burial sites on tribal and federal lands. Despite a continual tribal 
request of $10 million from fiscal year 1993-fiscal year 1998, Congress 
has appropriated only $2.6 million to date. The National Historic 
Preservation Act (Public Law 89-665) is another law tribes rely on for 
the protection of cultural and historic resources. Under the 1992 
Amendments, Tribes could assume the responsibilities of State Historic 
Preservation Offices. The Administration has requested $3 million, 
however additional funding and resources are necessary to protect and 
preserve Tribal culture.
    In closing, the Squaxin Island would like to emphasize the long 
list of unmet needs that are evident throughout Indian country We are 
doing everything we can to work with the limited resources available to 
us. The health care of Indian people cannot remain at such a deplorable 
level. We are entering the next millennium, yet Indian people remain as 
the highest risk population in the Nation. On February 20, 1998, the 
U.S. President announced a ``New Racial and Ethnic Health Disparities 
Initiative''. Unfortunately, the Administration's initiative is 
inconsistent with the priorities presented by Indian country under the 
Secretary's consultation policy. Funding was removed from our hospitals 
and clinics line items to provide funding for Departmental initiatives. 
Thus, we look to this Committee to correct the gross negligence of our 
consultative input on the part of the Administration.
    The Committee's support for our requests is much appreciated and on 
behalf of the Squaxin Island people, I thank you for your continued 
efforts.
                                 ______
                                 
       Prepared Statement of Henry Cagey, Chairman, Lummi Nation
    My name is Henry Cagey, Chairman of the Lummi Nation. The Lummi 
Nation, located on the northwest coastline of Washington State. The 
Lummi Nation is the third largest tribe in Washington State serving a 
population of over 5,200. On behalf of the Lummi Nation I want to thank 
you and the members of the Committee for the opportunity to express our 
concerns and requests regarding the fiscal year 1999 Bureau of Indian 
Affairs ad Indian Health Service budgets. The following document 
presents the Lummi Nation's funding priorities, as well as regional and 
national concerns and recommendations for your consideration. Further, 
Lummi Nation strongly opposes any Bill, language or legislative riders 
which undermine Tribal sovereignty and our ability to advance our 
governmental responsibilities based on long-standing the government to 
government relationship without consultation or formal hearings.
Tribal-Specific Appropriation Priorities
    +$14.6 million Emergency Replacement School Funding.--Provide BIA 
FI&R Funding for Replacement School Construction funding to replace the 
permanent school facility, earmarked for Lummi Nation students 
consistent with Bureau of Indian Affairs Safety and Health standards, 
for a population of 650 students.
    +$1,300,000 To Support Water Agreement in Principle.--Provide the 
Lummi Nation with funding sufficient to support the final on-
reservation water agreement The Lummi Nation does not receive any BIA 
Water Resource funds through its Self-Governance Annual Funding 
Agreement on a recurring basis.
    +$750,000. Water and Sewer Infrastructure Planning.--Provide the 
IHS Sanitation Facilities Construction Program with funds earmarked to 
support the planning of water delivery and sewage extraction system 
projects and roads system development to enable the continuing orderly 
development of the Lummi Indian Reservation.
    +$350,000. Increase to Lummi Nation Hatchery Recurring Program.--
Base to support the on-going operation of the Tribal Shellfish Hatchery 
consistent with the expansion of the Boldt Decision to shellfish.
Tribal-specific Appropriation Summaries, Justification and 
        Recommendations
    Emergency Need Lummi Students Need for a Replacement Tribal School: 
+$14.6 million.--There are 254 Tribal students now attending Tribal 
school at a temporary facility that was designed to accommodate 120 
students. We will have 59 students next year at the high school level 
without a facility. This situation has escalated from an emergency 
problem to a crisis situation through the in-action of the Bureau to 
address the need for permanent facilities. Since 1989, our Tribal 
student enrollment has increased by 66 percent from 120 to 211 with a 
projected future enrollment of 650 in 2000. There are nearly 1,600 
Lummi youth of school age, most of whom have expressed an interest in 
attending Lummi Nation Schools. Approximately 70 percent of Lummi youth 
still drop out of public school prior to graduation. A 1997 facility 
review by the Bureau, discovered numerous structural deficiencies which 
impact the safety and health status of students.
  --Recommendation: Direct the Bureau to Restore Priority Listing of 
        Lummi Nation Replacement School.--Bureau Educational Staff have 
        persistently denied the request of Lummi Nation to treat its 
        replacement school request as an emergency school replacement 
        under the Facilities Improvement and Repair Program and not as 
        a request for new school construction funding. We ask the 
        Committee to direct the Bureau Education Staff to restore the 
        priority listing of the Lummi Nation on the National Facilities 
        Improvement and Repair and swiftly proceed to process this long 
        over due project.
  --Recommendation: Direct the Bureau to Work with Tribes to Develop 
        Alternative School Construction Financing Methods.--The Lummi 
        Nation is willing to explore alternatives school construction 
        which involves more State, local and private financial 
        resources in the financing of Tribal school facilities. Other 
        Tribal governments effectively locked out of the Bureau School 
        Finance System would be willing to join in this effort. We ask 
        the Committee to direct the Office of Indian Education Programs 
        to enter such a planning process leading to the development of 
        school construction financing process which maximizes the 
        benefits to Indian children. For the Lummi Nation, a relatively 
        small amount of Bureau funds, could provide critical gap 
        financing which would enable the Lummi Nation to fund the 
        construction of a much needed school facility with State local 
        and private financial resources.
    Funding to Support Water Agreement in Principle: +$1.3 million.--
The Lummi Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping stone toward a final settlement of on-
Reservation water rights conflicts resulting through disregard of 
treaty-reserved water and fishing rights in the Nooksack River 
Watershed. Many difficult issues remain to be resolved which will 
require significant technical studies and legal consultation before a 
final agreement can be signed. To complete this work the Lummi Nation 
has determined, based on its considerable experience in this area, that 
it will need $1.3 million during fiscal 1999. $300,000 to defray legal 
consultation costs, $400,000. For on-Reservation technical studies, 
$600,000 for technical studies in the Nooksack River Basin.
  --Recommendation: Direct the Bureau to Fund Lummi Nation Water 
        Agreement Technical Studies.--The Lummi Nation requests an 
        increase of $1.3 million in BIA Non-Recurring Programs, Trust 
        Services, Water Rights, Negotiation/Litigation earmarked for 
        the Lummi Nation.
    Increase to Lummi Nation Hatchery Recurring Program Base: 
+$350,000.--To support the on-going operation of the Lummi Nation 
Tribal Shellfish Hatchery consistent with the expansion of the Boldt 
Decision to shellfish. In order to include the Lummi Nation Shellfish 
Hatchery. The development of this hatchery was accomplished by the 
Lummi Nation and a variety of funding agencies. The Hatchery is fully 
operational and supplies oyster and clam seed to most northwest 
Washington Tribes. The funding received from annual sales of $80,000 
reduces the annual operating costs of the Hatchery.
  --Recommendation: Provide Lummi Shellfish Hatchery with Recurring 
        Base Operational Funding.--The Lummi Nation is seeking on-going 
        operational funds from the Bureau's Hatchery Operation Program 
        and inclusion of the Shellfish Hatchery in the Bureau's 
        Hatchery Maintenance and Repair Program for on-going and 
        scheduled maintenance and repair. In order to secure this 
        funding the Lummi Nation is requesting that the Bureau receive 
        an increase in this line item, earmarked for the Lummi Nation 
        Shellfish Hatchery.
    Water and Sewer Infrastructure Development Planning: +$750,000.--
The Lummi Reservation supports a population of nearly 7,000 persons 
which has pushed water and sewer systems capacities to their limit. 
Additional capacity must be obtained now to support the existing 
population. In the short term water and sewer systems re-design and 
upgrades will handle the problem. However, the long term solution must 
include additional treatment capacity and water source location and 
development. Substantial investments like these require substantial 
planning. The Lummi Nation is not ale to undertake this level of 
planning without the assistance requested herein.
  --Recommendation: Direct HIS/OEHE to Fund Lummi Nation Need for Water 
        and Sewer System Planning.--Provide the IHS Sanitation 
        Facilities Construction Program with funds earmarked to support 
        the planning of water delivery and sewage treatment system 
        infrastructure for the existing and projected population of the 
        Lummi Indian Reservation.
Regional Requests and Recommendations
    Support request of $1,950,000 for 20 Western Washington Tribes and 
the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations;
    Support technical correction of $185,000 for BIA Western 
Washington-Boldt Implementation and U.S./Canada Pacific Salmon Treaty 
funding shortfall;
    Support for BIA request of $3,000,000 for continued implementation 
of the President's Northwest Forest Development Plan, ``Job in the 
Woods'' Initiative and the designation of $400,000 for the Tribal-State 
of Washington Wild Stock Restoration Initiative;
    Support for BIA Forest Development, Endangered Species Act 
initiative of $1,000,000; and,
    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.
Regional Request Summaries and Recommendations
    Support request of additional $1,950,000 for 20 Western Washington 
Tribes and the Northwest Indian Fisheries Commission for Tribal 
shellfish harvest management, enforcement and enhancement to implement 
Tribal treaty rights through the establishment of base shellfish 
operations. As Tribal shellfish programs continue to develop and 
expand, other issues affecting shellfish resources have been 
identified, such as the need for additional data and technical 
information. The Western Washington Tribes need financial support to 
establish basic shellfish management capabilities that compliment their 
existing management programs. This additional amount will help Tribes 
prepare for future shellfish enhancement and harvest activities as well 
as implement established tribal/state agreements and other future 
cooperative management considerations requiring additional tribal 
shellfish management capabilities.
    Support for technical correction of BIA Western Washington-Boldt 
Implementation and U.S./Canada Pacific Salmon Treaty funding to levels 
consistent with the previously identified levels as directed by 
Subcommittee. During this past fiscal year, the BIA and the Office of 
Self-Governance failed to fully restore these funds when these were re-
programmed from the TPA line. This error is a direct loss of funding to 
the Northwest Indian Fisheries Commission (NWIFC) at a time when we can 
ill afford further budget reductions. For the past three years, we have 
witnessed a direct attack on Tribal Self-Governance; and in the 
process, Indian natural resource management has been unfairly affected. 
While the NWIFC has shared in funding shortfalls, they are unwilling to 
be disproportionately affected. We strongly urge the Subcommittee to 
maintain Trust, TPA and Self-Governance program funding.
    Support for BIA request of $3,000,000 for continued implementation 
of the President's Northwest Forest Development Plan, ``Job in the 
Woods'' Initiative and designation of $400,000 for the Tribal-State of 
Washington Wild Stock Restoration Initiative. We request that the 
Subcommittee continue to provide $400,000 joint Tribal-State of 
Washington Wild Stock Restoration Initiative from the Bureau of Indian 
Affairs, Forest Development, Woodland Management; Northwest Forest Plan 
``Jobs in the Woods'' Initiative, requested by the Administration at $3 
million. This program is essential for development of a habitat 
inventory base from which restoration efforts can begin. This approach 
would be identical to that taken last year which the Subcommittee 
supported. The remaining $2.6 million from this initiative will allow 
Tribes to conduct watershed analysis and watershed restoration in 
watersheds within their usual and accustomed areas. These funds will 
help restore critical salmon streams.
    Support for BIA Resources Management request of $1,000,000 for 
Endangered Species Act initiative. Tribes have worked very hard over 
the years to bring about positive and effective change in resource 
management. However, the ESA process has resulted in significant 
changes to harvest, hatchery and habitat practices and has placed new 
obligations upon us. This amount will be used to enhance Tribal 
capacity to respond and meet these ESA process obligations.
    We continue to support the requests and recommendations of the 
Affiliated Tribes of Northwest Indians, Northwest Portland Area Indian 
Health Board, and the Northwest Indian Fisheries Commission.
Self-Governance and Other National Considerations
    Provide $900,000 increase to the DOI Office of Self-Governance for 
planning and negotiation grants and $500,000 to both DOI and IHS Self-
Governance offices for additional Ft.'s for Field Offices as 
appropriate;
    Transfer budget authority to the IHS Office of Tribal Self-
Governance for approval and payments to Self-Governance Tribes;
    Support for Increased Funding for Bureau Real Estate and Trust 
Function;
    Provide $150,000 from BIA and $150,000 from IHS for Self-Governance 
Communication and Education Project;
    Provide increase for BIA and IHS Contract Support funds to address 
documented Tribal needs;
    Provide a minimum of $23,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflation; and,
    Provide $120,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.
Summaries Self-governance and Other National Considerations
    Provide $900,000 increase to the DOI Office of Self-Governance for 
planning and negotiation grants and $500,000 respectively to both DOI 
and IHS Self-Governance offices for additional FTE's for Field Offices 
as appropriate. The DOI and IHS Self-Governance offices are responsible 
for the facilitation of the annual negotiation process and 
implementation of the Self-Governance initiative within the Department. 
In fiscal year 1998, a total of $182 million in funding has been 
obligated and transferred from the BIA to 206 Tribes and $423 million 
in funding has been transferred from IHS to 239 Tribal governments 
under Self-Governance.
    Support for Increased Funding for Bureau Real Estate and Trust 
Services; Land The Lummi Nation Supports increased funding for Bureau 
Land Records Improvement Program and Probate Backlog and its efforts to 
address the fractionated heirship. We hold real estate services as a 
sacred trust to our people. Therefore the Lummi Nation has assumed the 
management of the Bureau Real Estate Services under the Self-Governance 
Initiative.
    Transfer budget authority to the IHS Office of Tribal Self-
Governance for implementation of approval, payment and award of all 
Self-Governance funding to participating Tribes.
    Increase BIA and IHS Contract Support Funds to address documented 
need. We request that the Subcommittee directs the BIA and IHS to begin 
the process to identify actual need in future budgets and accurately 
report shortfall amounts. Despite the fact that contract support has 
been one of the very highest priorities nationally, the BIA has 
historically failed to adequately identify, measure and report the need 
and justification for these funds. Because the BIA has never fully 
funded contract support costs, Tribes are forced to absorb these costs 
within existing programs thus reducing direct services. The Tribes only 
other option is to use very limited Tribal funds. For the Lummi Nation 
the lack of full funding for Contract Support has meant the loss of in 
excess of $554,704 annually for the past 8 years. We are, therefore, 
greatly alarmed regarding the failure of the Administration to provide 
for additional funding for CSC in the IHS budget. The total CSC 
shortfall for IHS is estimated at $137 million. This amount includes 
CSC shortfall for existing Tribal contracts and compacts. While the 
Administration says that it is committed to the policy of Tribal self-
determination and self-governance, it's failure to provide any increase 
for CSC essentially halts further progress or opportunity for Tribes to 
assume and manage these programs.
    Provide $300,000 as a base funding amount for the Self-Governance 
Communication and Education Project. The purpose of this Project has 
been to provide technical assistance and factual information about 
Self-Governance and to create an open atmosphere where this concept can 
be discussed, debated and developed by Tribal and Federal officials. 
The Project is vital to ensure that Self-Governance and its purposes 
are clearly understood and consistently developed by participating 
Tribal governments, federal agency officials and non-participating 
Tribes. With the anticipated increase in participating Tribes and 
expansion of Self-Governance to other federal agencies and program, 
continued funding is needed to provide these communication and 
education efforts.
    Finally, we strongly recommend restoration of funding levels within 
the Bureau budget for critically-needed existing programs. We have 
faced generations of paternalism, yet we remain at the bottom of the 
list in almost every measurable economic category and we have been 
enduring some of the worst living conditions in the United States. This 
funding is an obligation which stems from solemn commitments of the 
United States to Indian people to provide basic health, safety, 
education and economic security. We appreciate this Subcommittee's 
continued support and urge that Tribal government operations be 
afforded the highest priority in your appropriation decisions.
    The Lummi Nation, as one of the first tribe involved the 
development of the Self-Governance Initiative, would like to remind the 
Sub-Committee members that 1998 marks the 10th year of successful 
implementation of the Self-Governance Initiative. However, a decade of 
increasing success is not enough. We want to continue on this path 
towards empowerment into the new millennium. This Sub-Committee's 
continued support and understanding of the Self-governance initiative 
is critical to Tribal successes. Self-governance is a permanent part of 
the Bureau of Indian Affairs. Shortly, the Congress will be considering 
legislation to make Self-Governance a permanent part of the Department 
of Health and Human Services. We urge your support for this 
legislation. While every Tribal government is not ready for Self-
governance at this time, it is the goal of all Tribes to become more 
self-governing as their capabilities increase consistent with the needs 
of their people. The Self-governance initiative is designed to provide 
this option to Tribes when and if the people through their governments 
determine it is appropriate.
    I appreciate your consideration of the fiscal year 1999 requests 
and recommendation of appropriations for the BIA/IHS, on behalf of the 
Lummi Nation. Thank you.
                                 ______
                                 
Prepared Statement of Stephanie Rainwater, President, Ketchikan Indian 
                                 Corp.
    Introduction.--Thank you for this opportunity to provide testimony 
on the fiscal year 1999 budget request for both the Bureau of Indian 
Affairs (BIA) and for the Indian Health Service (IHS). Ketchikan Indian 
Corporation is a federally-recognized tribal government organized under 
an Indian Reorganization Act (I.R.A.) constitution approved by the 
Secretary of the Interior in 1940. We have more than 3,900 members. In 
1976, we were one of the first Indian tribes to assume, under the newly 
enacted Public Law 93-638, the tribal operation of programs run by the 
Bureau of Indian Affairs. In 1993 Ketchikan joined with several other 
Indian tribes in Alaska to be the first to participate in the BIA 
Tribal Self-Governance demonstration program. Since then we have 
managed our BIA-funded programs under self-governance authority for a 
total of approximately $1.7 million each year.
    With the increased flexibility and accountability accorded Indian 
tribes under Tribal Self-Governance, Ketchikan has been able to 
maximize the beneficial impact of these federal dollars at the local, 
community level. As a result of Tribal Self-Governance, we have 
strengthened our tribal administrative and management control systems. 
Our Tribe is poised to assume more program and service 
responsibilities. Our tribal members are excited about this new chapter 
in our Tribe's history. We are experiencing a renaissance of our tribal 
culture and a restoration of our self-sustaining tribal economy, 
including the growth of tribal enterprises that provide employment 
opportunities for tribal members and revenue for tribal governmental 
programs. This increased tribal economic activity also has a direct and 
positive impact on our neighboring non-Native communities in the 
Ketchikan Borough because we are attracting dollars from outside our 
area and are churning them in our local economy.
    Supporting Local Tribal Health Self-Governance Authority.--We ask 
this Subcommittee to ensure that nothing in the fiscal year 1999 
appropriations act be allowed to inhibit our right as a relatively 
large tribe to continue to run our own health programs under Pub. L. 
93-638 (Self-Determination; Self-Governance). There are three reasons 
for our request. First, the local control authorized by Pub. L. 93-638 
permits greater cost efficiencies and maximizes the benefit of each 
appropriated dollar. Second, the self-determination and self-
sufficiency fostered by Pub. L. 93-638 is the key to our future 
survival as an Indian tribe. Third, any further disruption of our 
health delivery will have negative impacts on the health of our patient 
population.
    Let me explain why these three concepts are so critical for KIC. 
KIC began 1997 with two main objectives: (A) to build a new health 
clinic facility in Ketchikan; and (B) to administer, under Public Law 
93-638 authority, the delivery of federally-funded health care services 
to KIC tribal members and other eligible Indians in the Ketchikan area. 
KIC's initiative was opposed by the Southeast Alaska Regional Health 
Corporation (SEARHC), a large non-profit health organization which has 
administered these and other federal health care funds on behalf of 
more than eighteen (18) Tribes in Southeast Alaska in previous years.
    In October, 1997, after months of extremely difficult negotiations, 
KIC ended up with an IHS Self-Governance agreement by which KIC 
operates the Ketchikan clinic under a 12-month, $2.7 million annual 
funding agreement to provide health clinic services. Our tribally 
operated KIC health clinic now employs 40 professional, technical, and 
clerical staff in support of acute and chronic medical, and dental 
services. It also provides social services for our clients who need 
counseling and referral services. In addition to providing acute 
medical services, our clinic provides essential preventive services, 
such as cancer screening, TB screening, prenatal care, and health 
education. Our patients include those Indians and Alaska Native 
residing in the Ketchikan area; our active user population is 
approximately 5,500.
    Last October, the Congress adopted a provision which required IHS 
to have only one tribal contract or compact in effect within the 
Ketchikan Gateway Borough in the future.\1\ To comply with this new 
law, KIC recently submitted a competitive application to IHS to be the 
one compact or contract in the Borough for fiscal year 1999. At the 
same time, KIC has also been the subject of a GAO review of our health 
operations. The GAO conducted a site visit at our clinic less than 
three months after we started running our clinic under strenuous start-
up conditions. We asked the GAO to return after we had a few more 
months of patient data on hand to show how efficient is our operation. 
The GAO declined. Despite the challenges posed by our sudden start-up, 
we believe any fair review of our performance will show that we are 
delivering quality health care in a cost-efficient manner. Local 
control over program decision-making in our vast region of Alaska leads 
to greater cost efficiencies. In this case, local or tribal control 
means our patient population gets more bang for the buck. We believe 
our proposal, now pending with the IHS, will be awarded on the merits 
of our performance thus far in fiscal year 1998. If we are awarded the 
single contract by IHS, the Organized Village of Saxman, a tribe of 
several hundred members also located in the Ketchikan Borough, has 
indicated it will support KIC's application to serve Saxman members.
---------------------------------------------------------------------------
    \1\ ``* * * in awarding the contract or compact, the Secretary 
shall take into consideration--(1) the ability and experience of the 
applicant; (2) the potential for the applicant to acquire and develop 
the necessary ability; and (3) the potential for growth in the health 
care needs of the covered borough.'' Section 203(b), Pub. L. 105-143.
---------------------------------------------------------------------------
    Replacing Our Health Clinic Facility.--We are not asking the 
Subcommittee to provide construction funding for our new clinic 
facility. We have arranged separate financing. With the new clinic in 
mind, our congressional delegation assisted KIC in gaining title to a 
closed Coast Guard facility site within the city of Ketchikan. We may 
now either sell or swap that site in exchange for another clinic site. 
We have commissioned the development of plans for the construction of a 
new health clinic. Our health service delivery needs have outgrown our 
antiquated health facility. We will keep the Subcommittee apprised of 
our developing plans which should have no impact on Federal 
construction obligations.
    Why We Have Assumed Local Self-Governance Control of Our Clinic.--
As we were developing plans for a new facility, our Tribal Council 
began to hear growing complaints from our membership about the 
difficulties they had receiving dependable and quality services from 
SEARHC, a relatively large non-profit health organization that has 
operated our Ketchikan clinic under contract with IHS for a number 
years. The non-responsive inefficiencies of a decision-making process 
of SEARHC's large organization located far from the field of service 
began to draw increasing criticism from clinic patients. Our tribal 
leadership tried to sensitize SEARHC to the problems, but with little 
success. Finally, in July, 1996 our Tribal Council heeded the call of 
its membership and submitted a Public Law 93-638 application to the IHS 
to assume the management of KIC's portion of the clinic. Our rationale? 
To improve the quantity and quality of health care by assuming local 
control and responsibility for the operation of local programs.
    On April 24, 1997, the IHS approved a proposal for dividing up the 
funds between KIC and SEARHC, and a plan for some joint management by 
KIC and SEARHC of the Ketchikan clinic. In the self-governance 
agreement signed by IHS in May, 1997, KIC's assumption of clinic 
operations was to begin on October 1, 1997. SEARHC subsequently wrote 
IHS on June 17, 1997 to announce it had decided to abandon the 
agreement for joint management with KIC and instead proposed to divide 
the old program into two clinics, one managed by KIC to serve KIC 
members, and one managed by SEARHC to serve Saxman and other small 
Tribes in the Ketchikan Gateway Borough. Consequently, KIC was forced 
to endure painful negotiations with SEARHC throughout the summer of 
1997 over the question of how to divide up one clinic into two 
operations, one large KIC clinic and one smaller SEARHC clinic.
    During these negotiations, appropriations rider language was 
proposed in the Senate which attempted to nullify our contract or 
compact despite the fact that it had been signed and transition efforts 
had begun. The proposed rider, which went through various changes and 
was not finalized until the very beginning of the new fiscal year, 
caused us great uncertainty. We did not know whether or not the United 
States would uphold the agreement it had signed with us in June. We did 
not know whether we should carry out preparations to operate a clinic, 
hire professional medical staff, purchase supplies, and so forth. This 
was a very difficult period for KIC. We got the final word that our 
agreement would be honored just a few days before we had to open the 
clinic in mid-October. We are proud of the fact that our clinic 
operations opened smoothly. We are grateful for the clinic staff who 
braved uncertainties to ensure that health services were delivered with 
only minimal disruption throughout the period of transition.
    For the first months of operation of the KIC Tribal Health Clinic, 
our doctors and support staff worked very efficiently together, 
managing to see a very high number of patients in comparison to the 
number of patients seen in the clinic the previous year for the same 
month. In dividing up the clinic operational funding, KIC was allocated 
58 percent of the prior year's funding to provide health care for 
Ketchikan residents, and SEARHC was allocated 42 percent of the funding 
to serve other Indians, yet in November 1997 the KIC Tribal Health 
Clinic saw 70 percent of the number of patients seen in November 1996. 
In December 1997 the KIC Tribal Health Clinic saw 64 percent of the 
number of patients seen in December 1996, and in the first five days of 
January 1998 the KIC Tribal Health Clinic saw 82 percent of the number 
of patients seen in the first five days of January 1997. KIC was aware 
that our clinic would most likely be required to provide health care 
for more than 58 percent of the total population but chose to take on 
that great task to keep our health care services close to our community 
and to be able to tailor our health programs to local needs.
    Our pharmacist has performed well beyond the call of duty to 
provide services to the Ketchikan patients. Due to the uncertainty 
caused by the legislation, KIC has not been able to hire a second 
pharmacist. During an eighteen day test period in December and January 
the KIC Tribal Health Clinic pharmacist filled 60 percent of the number 
of prescriptions filled in the same time period the previous year by 
three pharmacists. The KIC Tribal Health Clinic pharmacist experienced 
1,481 compared to 818 patient encounters per pharmacist the previous 
year.
    Health Objectives for Fiscal Year 1999.--We seek early assurance 
that our continued operation of our health clinic is not disrupted or 
made uncertain by changes in the law. We hope to remove, as soon as 
possible, the uncertain, temporary nature of KIC's health service 
delivery so that quality health services are not disrupted, so that 
funds appropriated in fiscal year 1998 are not wasted on startup and 
shut down, and so that KIC can attract and retain qualified long-term 
personnel to our clinic operations. We want quickly to turn to devoting 
our full energies and focus to financing and constructing our new 
clinic facility as soon as possible and to securing a fairer share of 
the available IHS services dollars on a per patient basis.
    IHS Services Funding.--KIC endorses the testimony of other Tribes 
which decries the Clinton Administration's flat-line spending request 
for Indian health services for fiscal year 1999. We cannot maintain the 
same level of services next year with the same amount of service 
dollars we received in fiscal year 1998. Inflationary and other cost 
increases will make today's dollar worth less next year and we will, as 
a result, have to cut back our health services to our members. We 
implore this Subcommittee to add funds to the Administration's request 
for health services.
    BIA Contract Support Funds.--We share the concern of other Tribes 
that settlement of the Ramah Navajo class action suit will result in a 
court judgment that is hollow. As you know, KIC was part of the class 
of plaintiffs who were joined by the Court in the case seeking damages 
for administrative costs that the BIA unlawfully refused to pay during 
the years 1989 through 1993. We are alarmed by reports that the Justice 
Department, acting as the lawyers for the Interior Department, has 
indicated it will seek to have the Judgment Fund reimbursed by Interior 
appropriations for any damages paid to the Tribes. This would be 
completely unfair to us. It would mean that the United States settles a 
case, agrees to pay damages approved by a judge, and then later offsets 
that payment of damages to Tribes with a reduction in other funds due 
the Tribes. KIC requests that the Subcommittee instruct the Interior 
Department in fiscal year 1999 bill language to not permit any 
reduction in its discretionary funding to be made in order to satisfy 
any judgment duly entered in a court of law regarding the Ramah case.
    Conclusion.--We thank you for this opportunity to provide 
testimony. Please do not hesitate to let me or my staff know if we can 
provide any further information of value to the Subcommittee in its 
deliberations
                                 ______
                                 
 Prepared Statement of Curtis Zunigha, Chief, Tribal Council, Delaware 
                            Tribe of Indians
    The Delaware Tribe of Indians, a federally-recognized tribal 
government located in eastern Oklahoma, appreciates this opportunity to 
provide written testimony to this Subcommittee on the President's 
budget request for fiscal year 1999 funding for the Department of the 
Interior, Bureau of Indian Affairs (BIA).
    We wish to address two main points. First, we want, in the 
strongest terms, to urge the Subcommittee to adopt bill language which 
would remove confusion created by an overly-broad fiscal year 1992 
appropriations proviso that has placed our Tribe's authority to fully 
administer federally-funded programs in some jeopardy. And second, we 
want to thank this Subcommittee and the Congress for fully funding the 
``new tribes'' account in fiscal year 1998. Your actions have had a 
direct and positive impact on our Tribe. We have begun to accomplish 
many things with our first year funding and ask that you fund the full 
amount requested for the fiscal year 1999 ``new tribes'' account which 
will provide us with our second of three years of funding.
              background on the delaware tribe of indians
    The Delaware Tribe of Indians has had a long and rich history of 
relations with the United States. In 1778, the Delaware became the 
first tribe to be granted recognition by the United States. By 1866, 
most of the Delawares had moved from the northeastern U.S. to Kansas. 
In 1866 our ancestors signed a treaty providing for their removal to 
Oklahoma. Since 1866, the Delaware Tribe of Indians have continuously 
maintained an elected tribal government in Bartlesville, Oklahoma and 
engaged in direct, government-to-government relations with the United 
States.
    In the early 1970's, the Delaware became one of the first tribes to 
contract with the BIA and the Indian Health Service, assuming tribal 
administration of programs previously run by Federal bureaucrats. This 
tribal initiative was in direct response to President Nixon's call for 
Indian self-determination.
    In 1977 the U.S. Supreme Court expressly affirmed that the Delaware 
Tribe of Indians of eastern Oklahoma has ``* * * maintained a distinct 
group identity, and they are today, a federally recognized tribe.'' 
Delaware Tribal Business Committee v. Weeks, 430 U.S. 73, 77 (1977). In 
the Ford Administration's brief, Interior Secretary Kleppe likewise 
declared that the Delaware Tribe of Indians of eastern Oklahoma was a 
``federally-recognized'' tribe.
    Nevertheless, in 1979, an acting BIA Deputy Commissioner in the 
Carter Administration issued a letter on behalf of the Cherokee Nation 
of Oklahoma purporting to end the Delaware Tribe of Indians' 
relationship with the United States. For the next 16 years, the BIA 
refused to resolve the confusion it had caused about the Delaware Tribe 
of Indians' status as a tribe.
    That uncertainty has now ended. We are relieved to report that in 
1996, after careful legal review by its Office of the Solicitor, the 
Interior Department finally resolved the matter by expressly 
reaffirming the Delaware Tribe of Indians (Eastern Oklahoma) as a 
federally-recognized Indian tribe.
    Nevertheless, some uncertainty lingers about the Delaware's 
authority to administer some federally-funded programs because of an 
overly-broad proviso added in 1991 by the conference committee to the 
fiscal year 1992 Interior appropriations Act.
                         bill proviso language
    In its fiscal year 1999 budget request, the Administration has 
proposed bill language governing the BIA which would replace the 
ambiguous proviso to the fiscal year 1992 appropriations Act. The 
Department of the Interior's position is that the 1992 proviso was 
never intended to affect the Delaware. In addition, the Delaware Tribe 
contends that the proviso should have been considered to be effective 
only for fiscal year 1992. The ambiguity created by the 1992 proviso, 
however, continues to raise questions and cause unnecessary delays in 
the Delaware Tribe's efforts to administer our programs.
    The fiscal year 1992 proviso said that-- ``* * * until such time as 
legislation is enacted to the contrary, none of the funds appropriated 
in this or any other Act for the benefit of Indians residing within the 
jurisdictional service area of the Cherokee Nation of Oklahoma shall be 
expended by other than the Cherokee Nation, nor shall any funds be used 
to take land into trust within the boundaries of the original Cherokee 
territory in Oklahoma without the consent of the Cherokee Nation.''
    Many Delaware members reside within the Delaware Tribe's service 
area which overlaps that of the Cherokee Nation of Oklahoma. This is 
not unusual throughout Indian Country.
    In its proposed fiscal year 1993 bill, the Department recommended 
that Congress not include the fiscal year 1992 proviso. Congress 
agreed, and the proviso has not been reenacted in any of the 
appropriations Acts since 1992. As far as the Delaware Tribe is 
concerned, this should have ended the matter.
    Nevertheless, confusion continues to reign within the Department 
about whether the 1992 proviso is permanent law, and whether it applies 
to the Delaware Tribe. The legislative history of the proviso makes it 
clear that its sponsors intended it to resolve a dispute between the 
United Keetoowah Band of Cherokee Indians and the Cherokee Nation of 
Oklahoma, by making the Cherokee Nation the only tribe that would 
receive Federal funding for Cherokee Indians in that area. The original 
Senate bill language, and all of the related floor and report language 
was concerned with the dispute between the Keetoowah Band of Cherokees 
and the Cherokee Nation. The record does not reflect any intention to 
restrict funding to the Delaware Tribe, nor does it even reference the 
Delaware Tribe at all.
    Continuing confusion about the meaning and impact of the 1992 
proviso could disrupt our Tribe's orderly administration of its 
federally-funded programs. Therefore, the Delaware Tribe of Indians 
strongly urges the Subcommittee to include language in the fiscal year 
1999 bill which conclusively and expressly repeals the 1992 proviso.\1\ 
If this is not possible, we ask you to include bill language which 
conclusively and expressly exempts the Delaware Tribe of Indians from 
the 1992 proviso,\2\ or to include the bill language proposed by the 
Administration which would replace the 1992 proviso with a more 
narrowly drawn limitation.\3\ Any of these alternatives is to be 
preferred over the uncertainty that continues to be caused by the 
confusion surrounding the fiscal year 1992 proviso.
---------------------------------------------------------------------------
    \1\ For example, we favor the following language: ``Provided 
further, That the sixth proviso under this head in Public Law 102-154, 
for the fiscal year ending September 30, 1992 (105 Stat. 1004), is 
hereby repealed.''
    \2\ Alternative bill language exempting the Delaware Tribe of 
Indians could read as follows-- ``Provided further, That nothing in the 
sixth proviso under this head in Public Law 102-154, for the fiscal 
year ending September 30, 1992 (105 Stat. 1004), shall be construed to 
apply to the Delaware Tribe of Indians, a federally-recognized tribe in 
eastern Oklahoma, or to affect in any way its eligibility to administer 
federal funds and programs for the benefit of its members.''
    \3\ The bill language proposed by the Administration is as 
follows--``Provided further, That the sixth proviso under this head in 
Public Law 102-154, for the fiscal year ending September 30, 1992 (105 
Stat. 1004), is hereby amended to read as follows: Provided further, 
That until such time as legislation is enacted to the contrary, no 
funds shall be used to take land into trust within the boundaries of 
the original Cherokee territory in Oklahoma without consultation with 
the Cherokee Nation.
---------------------------------------------------------------------------
                         ``new tribes'' funding
    In fiscal year 1998, the Congress appropriated the full amount of 
funds requested by the Administration for the ``new tribes'' account. 
The Delaware Tribe of Indians wishes to thank this Subcommittee for 
supporting the ``new tribes'' funding in fiscal year 1998, and asks 
that you fully fund the Administration's request for ``new tribes'' 
funding in fiscal year 1999.
    Following its 1996 ruling which reaffirmed the status of the 
Delaware Tribe of Indians as a tribal government, the Administration 
sought ``new tribes'' funding for the Delaware after years of 
uncertainty that had disrupted our earlier funding. While we are not a 
``new'' tribe, our status has only recently been reaffirmed and we thus 
qualify for funding under this account.
    Since enactment of the fiscal year 1998 Act, our Tribe has 
initiated plans to use the ``new tribes'' funding of $160,000 to revise 
our existing tribal constitution, establish core governmental and 
programmatic control systems, and administer service programs for the 
benefit of our members.
    The funds provided under the ``new tribes'' account in fiscal year 
1998 have had a direct and positive impact on our Tribe. We have begun 
to accomplish many things with our first year funding and ask that you 
fund the full amount requested for the fiscal year 1999 ``new tribes'' 
account which will provide us with our second year of funding as 
requested by the Department.
                               conclusion
    We are proud of our government-to-government relationship with the 
United States. We are striving to run our tribal government and deliver 
tribal services in the most efficient manner possible. The fiscal year 
1992 proviso has raised unnecessary uncertainties which frustrate our 
efforts to maximize services to our members. We urge the Subcommittee 
to adopt bill language which would remove the confusion created by an 
overly-broad fiscal year 1992 appropriations proviso that has placed 
our Tribe's authority to fully administer federally-funded programs in 
some jeopardy. And we ask that you fund the full amount requested for 
the fiscal year 1999 ``new tribes'' account which provides essential 
funding to our tribal government. Thank you.
                                 ______
                                 
 Prepared Statement of Edward K. Thomas, President, Central Council of 
               Tlingit and Haida Indian Tribes of Alaska
                              introduction
    Greetings from Alaska. My name is Edward K. Thomas, President of 
the Central Council of Tlingit and Haida Indian Tribes of Alaska 
(Tlingit & Haida), a federally-recognized Indian tribe based in Juneau, 
Alaska. I have served as President of my Tribe since 1984.
    Thank you for the opportunity to testify on the fiscal year 1999 
appropriations request for the Department of the Interior (DOI) and the 
Bureau of Indian Affairs (BIA). My testimony will focus on four main 
areas of concern: indirect costs, Tribal Priority Allocations (TPA), 
welfare reform and funding for the Office of Special Trustee.
    Tlingit and Haida has 23,000 members and has been a self-governance 
Tribe since fiscal year 1993. We were among the first self-governance 
tribes in the Juneau Area, which covers nearly all of Alaska. We were 
the first Tribe to enter into a multi-agency agreement under Public Law 
103-477, which allows us to consolidate employment and training funding 
from various federal sources into one coordinated tribal program. Many 
of our Native communities are pockets of high unemployment and many of 
our individual members are quite poor. Many of our members live with 
conditions most Americans would find shocking.
                          1998 appropriations
    Let me begin by thanking Congress, and particularly this 
Subcommittee, for the support it gave to increased Indian funding in 
fiscal year 1998. That resulted in $757.4 million for the TPA account, 
an increase of a little more than one percent ($76.5 million) over the 
amount provided for the TPA account in fiscal year 1997. After fixed 
costs and special distributions necessary to bring each small and needy 
tribe up to a minimum floor of annual TPA funding of $160,000, 
approximately $23.6 million remains available as a general increase to 
the TPA account in the fiscal year 1998 Department of the Interior 
Appropriations Act.
    For far too long, small and needy tribes have had to ``make do'' 
with funding levels too small to provide meaningful governmental 
services to their tribal members. In response, the 1994 Reorganization 
Task Force recommended that TPA increases be applied, as a priority, to 
bring small and needy tribes up to a minimum annual level of funding. 
The Reorganization Task Force determined that the minimum floor should 
be $160,000 per tribe in the Lower 48 states, and, in recognition of 
the cost differentials and challenges unique to Alaska, $200,000 per 
tribe in Alaska.
    Many small tribes have not had enough resources even to open a 
small office to conduct tribal business and provide much needed 
services to their members. While we remain puzzled why Congress 
overlooked the added costs associated with being located in Alaska, my 
Tribe does commend the Congress for making sure that these small and 
needy tribes for the first time obtained the minimum funding levels 
which many of us have sought for years. We would encourage you to apply 
any TPA increases in the fiscal year 1999 budget to ensure that small 
and needy tribes in Alaska are raised to a minimum of $200,000 per 
tribe.
                indirect costs and the ramah navajo case
    The Ramah Navajo class action case is in the final stages of 
settlement. Our Tribe, like most other Tribes, was included by the 
court in the class of plaintiffs who sought damages for administrative 
costs that the BIA unlawfully refused to pay during the years 1989 
through 1993. The amounts of damages have been identified for each 
Tribe. But there is one major problem. The Justice Department, acting 
as the litigation counsel for DOI, has refused to promise that it will 
refrain from seeking to have the Judgment Fund reimbursed by DOI 
appropriations for any damages paid to the Tribes. This is the height 
of heavy-handed unfairness for the United States to admit in settlement 
that it had unlawfully withheld funds from Tribes, to tell the court 
that it has agreed to pay tribes for the funds they lost, and then to 
offset that payment with a reduction in other funds due the Tribes. 
Senators Campbell and Inouye have written to Attorney General Reno 
asking that she ensure that no reimbursement for Judgment Funds paid 
out to Tribes will be deducted from funds that would otherwise come to 
Tribes through DOI appropriations. We ask that you likewise instruct 
the DOI to not permit any reduction in its discretionary funding to be 
made in order to satisfy any judgment duly entered in a court of law. 
We suggest language be included in the general provisions of the bill 
as follows: ``Notwithstanding any other provision of law, none of the 
funds appropriated under this Act shall be used to reimburse the 
Department of Justice for a judgment entered in the Ramah Navajo class 
action suit.''
                      fiscal year 1999 tpa funding
    Increases in the Tribal Priority Allocations (TPA) funding, and an 
equitable distribution of increases to the TPA account, are of extreme 
importance to my Tribe.
    Increases Are Needed.--While we thank you for providing increases 
in the past two fiscal years, they did not keep pace with even the low 
rate of inflation that we have enjoyed in these years. And the needs 
confronting our communities are so great, and the lack of basic 
services is so painfully obvious, that we can only ask that this 
Subcommittee make major TPA increases its top priority for fiscal year 
1999 appropriations.
    The American Indians and Alaska Natives residing within Alaska and 
the BIA Juneau Area are scattered over a huge territory of land that 
poses unique challenges for communication, governance, and the delivery 
of essential services. Many Indians and Natives in Alaska suffer from 
high rates of unemployment. Given the realities of weather and remote 
geography, the cost to provide basic governmental services is much 
higher in Alaska than in many other parts of America.
    The needs of our membership tax to the limit the meager resources 
of our tribal government. Our Tribe necessarily depends upon the 
appropriations provided by the United States. Most of our essential 
governmental services to our members are funded under the TPA account. 
This is why TPA funds, and an equitable distribution of increases to 
the TPA account, are of extreme importance to my Tribe.
    Increases Should Be Distributed Equitably.--My Tribe strongly 
objects to the short-term recommendation of the January 29, 1998, TPA 
Task Force Final Report and Recommendations. The TPA Task Force's 
recommended allocation of one-twelfth of the fiscal year 1998 TPA 
increase to each of the 12 BIA Area Offices, without any variation 
based on the relative need of tribes within each of those BIA Areas, 
will cause even more inequity in the BIA funding system. We ask that 
the Subcommittee take prompt action to urge the BIA to abandon this 
approach before it makes the fiscal year 1998 distribution. And we 
further request that the Subcommittee expressly require that the fiscal 
year 1999 allocation of any TPA increases be targeted to Tribes whose 
members have the greatest financial need as measured by rational 
standards.
    The numbers of Tribes and Indians, plus individual and tribal 
``needs'' and conditions, vary tremendously from Area to Area. While 
our Juneau Area has fewer Indians and Natives within its jurisdiction 
than do many other BIA Areas, by nearly every known measure the Juneau 
Area has some of the ``neediest'' Indians in terms of low income 
levels, lack of access to employment and training opportunities, and 
the unavailability of basic services.
    The BIA has never implemented the 1994 Joint DOI/BIA/Tribal 
Reorganization Task Force's recommendation to establish a Standard 
Assessment Methodology by which to measure tribal needs based on 
rational and measurable standards. Nevertheless, even without having a 
well-developed, comprehensive Standard Assessment Methodology, there is 
readily available data on a national level that could have been used by 
the TPA Task Force as an alternative to arbitrarily dividing the 
increase by 12. Factors could be used, such as the number of tribes, 
unemployment rates, cost of living indexes, population, service 
delivery area, and so forth, incorporating readily available data, to 
create a simple allocation formula that begins to address the parity 
gap among tribes. Some or all of these factors could be given varying 
weights in preparing an allocation formula. One of the easiest to 
derive and perhaps best indicators of relative need are the 
unemployment statistics that are available for each Indian and Native 
community in the ``Indian Service Population and Labor Force 
Estimates'' maintained by the U.S. Department of the Interior.
                             welfare reform
    The 1995 Welfare Reform law provided an opportunity for the state 
of Alaska to enter into a cooperative agreement with my Tribe to 
provide Temporary Assistance to Needy Families (TANF) to Alaska Natives 
in Southeast Alaska. This program invites states to provide matching 
money for the administration by Tribes of this program. Last year 
Alaska's governor requested some money (about half of what is needed) 
from the legislature and the legislature funded about half of what the 
governor requested. This means that my Tribe and other regional Native 
organizations were not able to manage a ``Native'' TANF in Alaska this 
past year. Our Native people are once again left out of opportunities 
of getting referred to jobs through these programs and left out of 
training opportunities associated with the ``welfare-to-work'' 
initiatives.
    I am requesting that a $2 million pilot program be set up in states 
where the state government is unwilling to work constructively with 
Tribes. In this way, funds appropriated through the Department of the 
Interior could be passed on to Tribes to be used as the administrative 
match for Welfare Reform programs. This would go a long way to bridging 
the gap between Tribes and states on Welfare Reform.
          additional funding for the office of special trustee
    The Interior Secretary has endorsed the latest version of the 
strategic plan of the DOI Special Trustee for Indians. My Tribe fully 
supports the Secretary's $42 million request for that Office. Although 
we feel there is a need for more funding to do the job properly, the 
$8.1 million added to last year's amount is a good start at the very 
important job of managing tribal assets held in trust by the 
Department. It is in everyone's best interest to get this very 
important issue behind us.
    Although the efforts of the Office of the Special Trustee are very 
important, it is equally important that increased funding for his 
efforts are not made at the expense of other important BIA and tribal 
programs.
                               conclusion
    Thank you very much, Mr. Chairman and Members of this Subcommittee, 
for the opportunity to present this testimony on behalf of Central 
Council of the Tlingit and Haida Indian Tribes of Alaska and its 
citizens. I wish you well as you do your work in this Congress and I 
hope my comments are useful as you decide on these very important 
issues.
                                 ______
                                 
Prepared Statement of Pearl Capoeman-Baller, President, Quinault Indian 
                                 Nation
      summary--quinault indian nation requests: tribal priorities
Quinault Cultural Preservation Center (QCPC) +$300,000 National Park 
        Service: Historic Preservation Fund
    The Nation supports the Administration's proposed $25 million for 
grants to states, territories and Tribes. We renew our request to fund 
construction and development of a Quinault Cultural Preservation Center 
and Museum to preserve the cultural heritage of the Quinault people--a 
nation which consists of 7 tribes. Through Self-Governance funding, a 
small cultural program was developed, however, a facility is needed to 
properly preserve, restore, catalogue and display artifacts and family 
heirlooms and other archeological findings. Request a $300,000 earmark.
Senior Citizens Assisted-Living Program +250,000 IHS--Community Health 
        Program
    As our elderly population increases, many of our senior citizens 
are not receiving proper nutritional and health care. Our existing 
Public Health/Community Health Program is unable to provide continuous 
care due to lack of staffing and equipment and supplies. We are in 
urgent need of 24-hour care for seniors in both villages on the 
Reservation. We are requesting an earmark of $250,000 initial funding 
and $150,000 on a recurring basis to establish a senior citizens 
assisted-living program in the villages of Queets and Taholah.
              requests and recommendations: national level
BUREAU OF INDIAN AFFAIRS--Land Consolidation Project
    We support the Indian Land Consolidation Project, proposed by the 
Department at an initial funding level of $10 million. This program is 
designed to address one of the crucial problems facing Indian Country 
and the Department--consolidation of fractionated interests in Indian 
lands. The Secretary and the Special Trustee both have pointed to this 
problem as one where the costs to the government to not address the 
problem greatly outweighs the cost to fix it. The Quinault Reservation 
and the Quinault government is one of the worst examples of the 
management and financial nightmare created by this problem. We urge the 
Committee to fund this pilot project at the full amount requested.
INDIAN HEALTH SERVICE--Restore Indian Self-Determination Fund +$7.5 
        million
    No new funding for contract support costs has been provided in 
fiscal year 1999, thereby eliminating support for new and expanded 
Public Law 93-638 contracting and compacting. With Contract Support 
Costs shortfall of over $110 million, the rights of tribes to operate 
programs provided for the benefit of their members will never be 
realized. Congress should restore the 7.5 million Indian Self-
Determination Fund in the 1999 IHS Budget.
Provide Funding for Mandatory and Inflationary Cost Increases +$140 
        million
    IHS has now had to absorb over $700 million in unfunded mandatory 
cost increases over the past seven years. Congress should provide IHS 
with an additional $140 million for mandatory and inflationary cost 
increases to maintain current services in fiscal year 1999.
Restore Maintenance and Improvement Funds +14.2 million
    The Administration has proposed a $4.2 million cut in Maintenance 
and Improvement funds. Decreased funding in this area will certainly 
jeopardize the investments in health care facilities nationwide. It is 
imperative that the $4.2 million proposed cut be restored, and an 
additional $10 million be added to address the backlog of maintenance 
and improvement projects.
               quinault indian nation: tribal priorities
BIA SELF-GOVERNANCE: Tribal Priority Allocations +$500,000 Public 
        Safety and Justice: Law Enforcement
    Nation-wide, current funding levels only provide marginal levels of 
law enforcement services. The Quinault Nation supports the joint 
initiatives undertaken by the Office of Tribal Justice in the 
Department of Justice and the Bureau of Indian Affairs. The additional 
funds will help address community law enforcement needs. However, these 
services must include protection of reservation natural resources 
because they are the foundation of our economy and the cultural 
identity of our people and our sovereign status derive in large part 
from the land.
BUREAU OF INDIAN AFFAIRS: Construction: Courthouse Facility +$100,000
    The Quinault Indian Nation court house has sustained considerable 
damage in recent storms on the coast this past winter. Our court staff 
have been working in cramped quarters and now they must work under 
leaking roofs, falling ceilings and unstable flooring. We are 
requesting partial funding of $100,000 for construction of a new court 
house facility.
NATIONAL PARK SERVICE: Historic Preservation Fund +$300,000 Quinault 
        Cultural Preservation Center (QCPC)
    We support the ``Save America's Treasures'' proposed program and 
request a $300,000 earmark out of that fund to construct a Quinault 
Cultural Preservation Center and Museum.
INDIAN HEALTH SERVICE: Community Health Programs +$250,000 Senior 
        Citizens Assisted Living Program
    Our Seniors are in urgent need of 24-hour care in both villages on 
the Quinault Reservation. We request an earmark of $250,000 initial 
funding and $150,000 on a recurring basis to establish a senior 
citizens assisted-living program in the villages of Queets and Taholah.
BIA Self-Governance--Tribal Priority Allocations:
    Support for an increase in the total TPA appropriation to ensure 
that tribal programs are not diminished. Each year, the actual dollars 
available to TPA has been decreased and inflationary costs have not 
been considered. In a time of economic disparity between rural areas 
and urban areas, the failure to keep pace with the actual funding needs 
has caused a reduction in tribal services for all tribes.
INDIAN HEALTH SERVICE: Fund Inflationary Costs +$15 million
    Last year, the IHS received only a 2.2 percent increase over 1997 
resulting in over $100 million in mandatory costs being unfunded. In 
fiscal year 1997, Congress funded less than 50 percent of mandatory pay 
increases, and no unavoidable inflationary cost increases, requiring 
the Agency to absorb an additional $50 million. During fiscal year 
1999, the proposed budget is only 1 percent over fiscal year 1998. The 
repeated absorption of costs due to unfunded inflationary costs have 
eroded tribal and agency budgets to the point of jeopardizing medical 
care provided through Indian Health programs.
INDIAN HEALTH SERVICE: Fund Mandatory Costs +$125 million
    The Administration has proposed a flat budget for the Indian Health 
Service (IHS) for fiscal year 1999. As a result every health program 
faces a shortage of funds to covering mandatory, inflationary cost and 
population growth increases. In the Northwest, where Indian health 
programs must purchase all inpatient and specialty care from private 
providers, it is particularly important that inflationary cost 
increases for the Contract Health Services program be funded. In past 
years, deferred medical and dental services in the Northwest have been 
as much as $4 million annually. In order to prevent further erosion of 
health services, we request an increase of $125 million to fund 
mandatory costs in fiscal year 1999.
Elevation of the Indian Health Service Director
    Earlier this year, S. 1770 was introduced by the Senator John 
McCain. This bill would elevate the Director of the Indian Health 
Service to the Assistant Secretary level within the Department of 
Health and Human Services. The Indian Health Service is the largest 
direct health care provider within the Department. Tribes look to the 
Director of Indian Health Service to insure that issues unique to 
Indian Country are taken into consideration when Department policy and 
regulations are developed. To do this effectively, the Director needs 
to report directly to the Secretary and serve on the top policy making 
level within the Department.
                                 ______
                                 
Prepared Statement of Robert Guenthardt, Chairman, Little River Band of 
                       Ottawa Indians of Michigan
    This testimony provides the views of the Little River Band of 
Ottawa Indians of Michigan on the President's Budget Request for fiscal 
year 1999 for the Bureau of Indian Affairs and the Indian Health 
Service.
    The Little River Ottawa is a relatively small Tribe which was 
restored and reaffirmed by Congress just three and a half year ago. 
Because the Tribe's restoration Act was passed in September of 1994, 
the Tribe did not receive funding in fiscal year 1995. Our first BIA 
funding was received in fiscal year 1996 under the ``new tribes'' 
program. Unfortunately, because of a misunderstanding when the BIA made 
its first budget estimate for my Tribe, we have been dramatically 
underfunded in comparison to other Tribes in the Minneapolis Area, 
including two Michigan Tribe which received federal recognition when we 
did. This funding inequity has hindered the Little River Ottawa Tribe's 
ability to fulfill the purposes of the ``new tribes'' program and, if 
it continues, will seriously limit our ability to sustain even existing 
programs, and that is the problem we are addressing today. We ask for 
this Subcommittee's assistance in making sure the BIA corrects this 
problem in fiscal year 1999. Specifically, we request that the 
Committee either provide an add-on of $413,000 to the fiscal year 1998 
enacted level or $355,500 to the fiscal year 1999 proposed amount for 
the Tribe under the TPA account, or that the Committee direct the BIA 
to make this money available to the Tribe out of regular TPA funding.
    The Little River Ottawa Band is the political successor to nine 
bands of the Grand River Ottawa people whose village sites were located 
in what is now a nine-county area in Western Michigan. At one time, 
these Grand River bands had reservations in the two northernmost 
counties of tribal territory, namely Manistee and Mason. Now about 500 
of the tribe's members currently reside in these two counties. Other 
tribal members reside in urban areas, including Grand Rapids, Detroit 
and Lansing. Most tribal members, however, continue to live near 
traditional village sites in the nine-county area. Our membership now 
totals 2,200. Unfortunately, when the BIA first contacted the Tribe to 
get enrollment numbers for appropriations planning, tribal officials 
misunderstood the nature of the request and provided the BIA with the 
number of files then-approved, rather than projected enrollment, was 
provided. As a result of this misunderstanding--confusion about 
``actual'' enrollment versus ``projected'' enrollment--the Tribe's 
appropriations were based on an enrollment of 650. This created a 
funding inequity from which the Tribe is only beginning to recover. In 
1996, the Tribe received $330,000 while Little Traverse and Pokagon, 
which have enrollments only slightly higher than Little River, received 
$1.2 million and $1.3 million respectively.
    In fiscal year 1997, the Tribe's funding level was adjusted upwards 
but as the following table indicates, in fiscal year 1998 the Tribe is 
still funded at a rate significantly lower than similarly situated 
Tribes in Michigan.

----------------------------------------------------------------------------------------------------------------
                                                                     Number of                      Amount per
                              Tribe                                   members      Appropriation      member
----------------------------------------------------------------------------------------------------------------
Little River....................................................           2,200        $671,000            $305
Little Traverse Band............................................           2,428       1,242,000             511
Pokagon Potawatomi..............................................           2,700       1,330,000             492
Grand Traverse Band.............................................           2,930       1,640,000             560
Bay Mills Community.............................................           1,143         723,000             632
----------------------------------------------------------------------------------------------------------------

    Because of compacting problems with the State of Michigan, of the 
five tribes listed in the table, only Bay Mills and Grand Traverse are 
conducting gaming. Thus, Little River, like Little Traverse and 
Pokagon, does not have gaming revenues to supplement federal 
appropriations for tribal programs for its members.
    Due to limited funding, the Tribe's recruitment of staff and 
program development was slowed. With the federal funds it has received, 
the Tribe has now hired a minimal core staff and has developed several 
programs to address the service needs of tribal members. The Tribe has 
established its Tribal Court, its governmental offices, a health clinic 
and a community center and has begun to reacquire land within its 
historic Reservations. Unfortunately, this progress may be short-lived. 
Unless we have a funding increase of $413,000 in fiscal year 1999, the 
Tribe will have to cut back or eliminate most of its programs.
    Under a court-ordered settlement, the Tribe will also begin 
negotiations to assume management responsibility for its reserved 
Treaty fishing and hunting resources. The Chippewa-Ottawa Treaty 
Fishery Management Authority (COTFMA) will be requesting additional 
funding to allow the Little River Ottawa to have access to the same 
resources as other treaty fishing Tribes.
    To bring Little River up to a funding level comparable to that of 
the other Tribes in the Minneapolis Area, including the Tribes who were 
also restored in 1994, would require an additional $413,000. Without 
this funding increase we will have to eliminate the following programs: 
child welfare services ($10,800), social services ($48,360), higher 
education grants and GED completion programs for 60 students 
($134,000), vocational education ($14,500), Johnson-O'Malley supplement 
for 140 children ($40,000), housing improvement for over 100 households 
($70,000), Court Services ($50,400) and Law Enforcement ($61,249). 
Without an increase, the Tribe will be faced with the Hobson's choice 
of either eliminating all these critical services to Tribe members or 
eliminating certain programs and some of the 15 BIA-funded staff 
positions.
    The Tribe believes this situation has reached a critical state. In 
fact, and I do not say this lightly, our very survival as a tribal 
government depends upon adequate funding provided to us by the Bureau 
of Indian Affairs from appropriations made by the Congress. We thank 
you for any help you can offer to ensure that our funding needs in 
fiscal year 1999 will be met.
    Thank you again for the opportunity to bring this important matter 
to the attention of the Members of the Subcommittee.
                                 ______
                                 
Prepared Statement of David Old Bear, Sr., Tribal Council Chairman, Sac 
                and Fox Tribe of the Mississippi in Iowa
Introduction
    Distinguished members of the Senate Appropriations Subcommittee, 
thank you for giving our tribe the opportunity to present testimony 
regarding the President's budget request for fiscal year 1999 as it 
relates to the Department of Interior, Bureau of Indian Affairs. My 
name is David Old Bear Sr. In addition, I represent the Meskwaki 
Nation, more commonly recognized by the federal government as the Sac 
and Fox Tribe of the Mississippi in Iowa. Our tribe is located on the 
Meskwaki Indian Settlement in Tama County, in the State of Iowa. Our 
tribe does not reside on a reservation but on land that our tribe has 
purchased through the years since 1857. The Bureau of Indian Affairs 
has placed our land into trust status.
The Presidents Fiscal Year 1999 Budget Request for the Bureau of Indian 
        Affairs
    The President's fiscal year 1999 budget calls for a budget increase 
of approximately $142.1 million over the fiscal year 1998 enacted level 
for the Bureau of Indian Affairs. We believe that the President's 
request has taken a very positive step in reversing the decline in 
funding for Indian programs that has been experienced since fiscal year 
1996.
    Of particular interest to us are the Tribal Priorities Allocations 
(TPA). The Administrations budget includes a $34 million increase over 
fiscal year 1998. It does not include a general increase for TPA. The 
bulk of increases contained are for supporting the bureau's goal to 
increase tribal operations of programs, to increase contract support 
funds for ongoing contracts, and other new initiatives. Our tribe 
depends on the Tribal Priorities Allocation to support our on-going 
services at the tribal level for programs such as housing, road 
maintenance, education, child welfare, and other tribal government 
services. TPA gives us the flexibility to prioritize funds among these 
programs according to our critical needs. The drastic cuts to the TPA 
in fiscal year 1996 severely affected our tribal programs and services 
as the allocations to our tribe were already at a funding level that 
was inadequate to meet our needs. Our tribe has not had the opportunity 
to benefit from other programs included in the TPA such as law 
enforcement, general assistance, and economic development. Continued 
decreases in TPA will only assure that we never will see the benefits 
available from these programs and will serve to decrease the minimal 
benefits that we enjoy now. We urge Congress to support the Presidents 
requested TPA increase beyond its current enacted level.
    Another major concern for our tribe is in the area of BIA 
Construction funding. The President's budget request includes a $27 
million increase over that enacted in fiscal year 1998. Over half of 
the requested funding is for education construction. In all, $37.4 
million is requested to complete three (3) facilities on the approved 
priority list. Our Sac and Fox Settlement School is one of these 
schools. Our original facility that was built in 1937 has structural 
and code deficiencies that threaten student safety and are not adequate 
to handle our rising student enrollment and it is not conducive to 
learning. Funding for site preparation was appropriated in fiscal year 
1998. Appropriations in fiscal year 1999 to complete the construction 
and will bring closure to our 29 year quest to provide a safe, unique 
and effective educational experience for our children. We also realize 
that we are not the only tribe in the country who has the need for 
educational facilities and urge Congress to support the President's 
request for BIA construction projects.
    In addition, in conjunction with the funding for Construction 
funding for educational facilities we support the increase of $26.5 
million over fiscal year 1998 for BIA School Operations. The education 
of our children is dependent on funding from the Bureau of Indian 
Affairs. The increases in student population in the bureau School 
system coupled with decreases or no increases in funding drastically 
impact the quality of education that can be offered at schools such as 
ours. Our funding level is already at approximately half of the 
national average per pupil expenditure. We urge Congress to join the 
Administration in its commitment to address the educational needs of 
tribes and support the President's request for fiscal year 1999 for all 
Indian Educational programs.
    This concludes the testimonial for the Sac and Fox Tribe of the 
Mississippi in Iowa.
                                 ______
                                 
  Prepared Statement of Gerald J. Jones, Tribal Chairman, Port Gamble 
                            S'Klallam Tribe
Summary of Port Gamble S'Klallam Tribal Priorities
    Shellfish and Endangered Species Funds.--Request: $420,000 be added 
for implementation of the U.S. v. Washington shellfish decision and for 
salmon recovery efforts necessitated by Endangered Species Act listing 
of salmon runs.
    Law Enforcement.--Request: $240,000 be added to fund additional 
police protection and to fund planning for a tribal jail facility.
    Indirect Cost Funds.--Fully fund the BIA and IHS Contract Support 
pool for funding tribal Indirect Costs, as required by law.
    Indian Tribal Justice Act Appropriation.--Appropriate the funds 
authorized under the Indian Tribal Justice Act of 1993.
Introduction
    As Chairman of the Port Gamble S'Klallam Tribe from Washington 
State, I am submitting written testimony on behalf of my fellow elected 
Tribal Council members and on behalf of our people. We appreciate this 
opportunity to present testimony for the record on the fiscal year 1999 
budgets of the BIA and IHS.
    justification of port gamble s'klallam priorities: tribal level
    Shellfish and Endangered Species Funds.--We are requesting $420,000 
be added for the Tribe to implement the recent U.S. v. Washington 
shellfish decision and the salmon recovery efforts necessitated by 
Endangered Species Act listing of salmon runs.
    Early this year, the Tribe's treaty right to harvest shellfish was 
reaffirmed by the 9th Circuit Court of Appeals. However, the Tribe 
still cannot exercise this right unless it provides for the management 
and protection of the shellfish resource. The court decision requires 
the Tribe to collect and analyze data, conduct resource assessments, 
take measures to ensure the protection of public health and develop 
management plans with State agencies and private tideland owners.
    The Tribe now has the opportunity to utilize many species of 
shellfish, including deep-water animals such as crab, shrimp, and 
geoduck. Effectively managing these ``new'' shellfish resources, while 
providing for their protection, will require additional technical 
expertise. The additional shellfisheries will also require expanded 
enforcement efforts and capability. The opportunity is also available 
for the enhancement of tidelands to increase shellfish production. This 
will benefit both Indians and non-Indians.
    The Tribe cannot take advantage of the opportunity to harvest 
treaty resources unless it meets the court's requirements and it can't 
meet the requirements without funding assistance from Congress. The 
Tribe has imposed a tax on the harvest of shellfish to fund a skeletal 
harvest program. This tax provides about $130,000 per year. This tax 
base cannot increase without opening new harvest opportunities. It is a 
``Catch-22'' situation for the Tribe.
    Of equal concern, two species of salmon in our treaty area were 
just listed as ``threatened'' under the Endangered Species Act (ESA). 
The ESA listing will have broad implications for tribal and non-tribal 
management of salmon. As co-managers of the salmon resource, the Tribe 
wants to be involved and is legally required to be involved in the 
development and implementation of plans to protect and recover 
depressed stocks of salmon. Unfortunately, the Tribe has virtually no 
tax base to support these activities because there can be no harvest of 
these species.
    Continuation of the Tribe's salmon management program and the 
additional requirements of both the shellfish decision and the ESA 
recovery planning efforts require funding. A shellfish biologist, 
salmon biologist with a background in ESA issues, three technicians and 
the support services and equipment needed to carry out our duties under 
the law will require an additional $420,000. We will continue to 
contribute the proceeds from our harvest tax to the program. We are 
asking the Congress to fulfill the United States' trust responsibility 
for these treaty resources by providing us a chance to assist in the 
protection and recovery of our precious natural resources.
    We also request your support of the Northwest Indian Fisheries 
Commission Request for Fisheries and Shellfish Programs.
    Law Enforcement.--We are requesting $240,000 be added to fund basic 
police protection and to fund planning for a tribal jail facility.
    Our community has been confronted with a number of serious, new 
crime issues over the past couple of years. The Tribe has launched a 
war on illegal drugs and against gang violence. These efforts have been 
undertaken in cooperation with local and federal law enforcement 
agencies. However, the Tribe continues to have a chronic shortage in 
police protection because there is not enough funding to provide 
salaries and equipment.
    Our goal is simple: to provide 24 hour police coverage on the 
reservation. This requires a minimum of six officers. We are requesting 
$160,000 of the $240,000 to fund additional officers, their equipment 
and training.
    The Tribe currently contracts with neighboring counties for jail 
facilities. The nearest juvenile detention facility, an hour drive from 
the reservation, is filled to capacity most of the time. Adult jail 
facilities are frequently full as well, posing a safety threat to our 
police officers and to the community. This facility could provide jail 
services to six area tribes, increase employment and generate revenue 
by renting jail space to local jurisdictions. The Tribe would like to 
begin the process of planning a tribal jail. We are requesting the 
remaining $80,000 for the costs associated with this planning effort.
    Indirect Cost Funds.--We are requesting that Congress fully fund 
the BIA and IHS Contract Support pool for funding tribal Indirect 
Costs. The Bureau of Indian Affairs refuses to request full funding 
even though payment of full Contract Support is required by statute and 
has been ordered by the court in Ramah Navajo v. Lujan. As a Self-
Governance Tribe, we have assumed the responsibility to deliver 
governmental services directly to the people we serve. Self-Governance 
been a dramatic success on our reservation. The Tribe's management of 
tribal programs has resulted in considerable cost savings, allowing 
Tribal priorities to be more fully addressed.
    The Indirect Cost (overhead) dollars that enable the Tribe to 
provide these services are critical to the economic stability of the 
Tribe. Each Tribe's Indirect Cost agreements must be approved by the 
Inspector General of the Department of the Interior. The costs are 
independently and rigorously audited each year.
    For the past five years, the federal government has not fulfilled 
its legal obligation to fully fund the Tribe's Indirect Costs. We had 
nearly twenty-five percent of our overhead costs in the BIA cut in 
1997. When our indirect costs are cut, we are forced, by the formula, 
to cut direct services to Tribal members. The gains we have achieved 
through Self-Governance are being eroded by this lack of funding. Our 
Tribe will be making cuts in already underfunded programs including 
daycare, education and senior citizen housing. Our food bank and 
emergency shelter programs face elimination.
    This is no way to run a government or a business. We must have a 
stable base in order to properly serve our people. This means stable 
funding of overhead costs. There is not one contractor for the federal 
government that can remain in business if their overhead costs are not 
covered. Neither can Tribes.
    Indian Tribal Justice Act Appropriation.--The Indian Tribal Justice 
Act was enacted by Congress in 1993. Four years later, Congress has 
still not appropriated the funds authorized under the Act. We urge this 
Congress to do so.
    Congress made specific findings in section 2 of the law that, (1) 
The United States has a trust responsibility to protect the sovereignty 
of each tribal government, (2) That ``* * * tribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health and safety * * *'' and (3) That tribal 
justice systems are inadequately funded.
    The Port Gamble S'Klallam Tribe is proud of its court's ability to 
provide high quality justice. However, tribal courts are constantly 
under attack by critics who believe that individual civil rights are 
compromised in tribal justice systems. While we see no evidence of this 
in our court, a chronic lack of funding in our court and in all tribal 
courts hampers the efforts of tribal governments to provide all the 
necessary judicial services to their people.
    Our tribal enforcement and justice officials work in concert with 
federal and state law enforcement, prosecutors and courts to address 
the inter-jurisdictional problems associated with enforcement of child 
abuse, drug crimes, and child support on the Reservation. This work 
requires having personnel available on nights and on weekends as well 
as the during the work week. The court hears cases in twenty subject 
matter areas including criminal, civil, traffic, child welfare, 
juvenile, domestic violence, hunting, fishing, housing, and adult 
protection.
    Like all courts, ours requires a judge, prosecutor, Court 
Administrator, court clerk, court compliance officer and support staff. 
The court facilities require space and equipment for the confidential 
work of the court which can't be shared by other tribal departments. We 
are nearly two hours from the nearest law library and must have an 
updated reference base including internet access located on site for 
the court's use. The court must also provide an effective appellate 
system to ensure due process.
    The Indian Tribal Justice Act was enacted to address precisely 
these basic needs. It is imperative that Congress appropriate funds for 
the Indian Tribal Justice Act.
    We also request your support for the Northwest Intertribal Court 
System request for funds. As members of this consortium, our Court 
funds depend directly on the appropriation for NICS.
    Thank you for this opportunity to submit testimony.
                                 ______
                                 
  Prepared Statement of Eugene ``Bugger'' McArthur, Tribal Chairman, 
                  White Earth Band of Chippewa Indians
    Mr. Chairman. I welcome this opportunity to provide the Committee 
an assessment of the challenges faced by the People of White Earth and 
to share with you our views about the overall needs in Indian country 
and, specifically, the needs of the White Earth Band.
                  white earth cadastral survey project
    I begin my testimony on a seemingly small, but important matter.
    A Cadastral Survey Project Office was established on the White 
Earth Reservation in January 1985 in order to survey and monument the 
land boundaries and corners of the Reservation. The purpose of this 
project was to help the Band gain a clear picture of the our land 
holdings so that we can most effectively utilize its cultural, economic 
and natural resources.
    From 1984 until 1995, the BIA had funded this office through the 
Minneapolis Area Office land survey budget. In 1995, the Bureau of 
Indian Affairs, the White Earth Band of Chippewa Indians and the Bureau 
of Land Management entered into a tripartite agreement in which each 
party agreed to dedicate resources to continue the work of the White 
Earth Cadastral Survey Office.
    The funding for this agreement was shared accordingly:

----------------------------------------------------------------------------------------------------------------
                                                                 Band           BIA           BLM
                        Fiscal year                          contribution  contribution  contribution    Total
----------------------------------------------------------------------------------------------------------------
1995.......................................................      $38,000       $29,000   ............    $67,000
1996.......................................................       50,000        18,000   ............     68,000
1997.......................................................       14,000        28,500       $38,000      80,500
1998.......................................................       85,000   ............  ............     85,000
----------------------------------------------------------------------------------------------------------------

    I am sharing with you the history of this agreement, because this 
fiscal year the Bureau did not include any funding for this project for 
fiscal year 1998.
    While we have decided to maintain this program during fiscal year 
1998 by expending Band funds, I respectfully request that the Committee 
provide the Bureau of Indian Affairs the necessary funding to complete 
this project, or insert language in the Committee Report directing the 
Bureau to keeps its agreement with the Band by continuing to fund the 
Survey Office until the work is completed.
                       justice and public safety
    The most pressing threat to our children's future is the 
intolerable level of violence that Indian people deal with on a daily 
basis. Too many of us, young and old alike, are being injured by 
violence and domestic abuse. Many of our children face the threat of 
violent death at the hands of a family member or as the result of a 
family feud.
    While statistics indicate that the overall violent crime rate has 
dropped and the national murder rate is down 22 percent, murders in 
Indian country have increased 87 percent.
    Tribal, local and national law enforcement agencies correctly 
attribute the primary cause of this rise in violent crime in Indian 
country to inadequate law enforcement funding.
    Through the help of a $1 million grant from the Justice 
Department's Office of Community Oriented Policing Services (COPS), 
White Earth has formed its own police force. Additionally, the Tribal 
Council has recently enacted public safety codes, and we have 
established an independent court. This combination of law enforcement 
and proper justice under the law is a gigantic step forward for our 
people and our sovereignty; however, the Congress needs to do its part 
to stem the growing tide of crime and lawlessness in Indian country.
    So far, Congress has failed to appropriate any monies to implement 
the Indian Tribal Justice Act of 1993. As you know, this Act authorized 
the appropriation of $58.4 million to help tribes fund tribal courts. 
The Administration's budget for fiscal year 1999 includes $11.2 million 
under BIA, and $10 million under the Department of Justice, to help 
tribes establish and operate Indian tribal courts. While we laud this 
initiative, I hope you will fund this program to the extent authorized 
by the Indian Tribal Justice Act.
                         indian health service
    There can be no doubt in anyone's mind that the alarming degree of 
sickness and disease in Indian country is not acceptable. Our people 
are simply not receiving adequate health care.
    Neither past Congressional appropriations, nor the President's 
fiscal year 1999 budget request, comes close to funding the scope of 
work required for the Indian Health Service to markedly improve the 
health and well-being of Indian people.
    The President's request for $2.1 billion for IHS represents an 
increase in services funding of less than 1 percent over the current 
level--a miserable sum compared with the major increases in federal 
spending for non-Indian health care.
    Like all of Indian country, White Earth has an extraordinary number 
of Band members who do not have sewer and water systems. The Indian 
Health Service has simply not received the support in Congress for 
adequate sewer and water funding. I am very disappointed that this 
Administration has decreased sanitation facilities by $5 million, and I 
strongly urge you to increase funding for the construction of sewer and 
water facilities for our people.
                            circle of flight
    As you know, one of the most successful wetland and waterfowl 
protection/enhancement programs in the nation today is the tribally-
managed Circle of Flight program.
    Funding of this program since 1991 has enabled tribes to implement 
36 different projects on 25 reservations in the Upper-Midwest.
    At White Earth, we have integrated the Circle of Flight and the 
Northern Tallgrass Prairie Restoration Projects to more effectively 
preserve essential prairie wildlife populations. The White Earth 
biology department has restored seven waterfowl ponds and cut back 
overgrown brush to promote grass and forbe regeneration.
    In addition, the Band has worked cooperatively with the U.S. Fish 
and Wildlife Service in Detroit Lakes, Minnesota to harvest and process 
native tallgrass from waterfowl productions areas, in order to reseed 
additional areas under tribal management.
    I urge you to fully fund Circle of Flight in fiscal year 1999 in 
the amount of $1,038,000.
                        bureau of indian affairs
    Finally, we support the President's request to increase the 
Bureau's fiscal year 1999 budget by $142 million. However, the level of 
funding requested by the administration of $110 million for Indian 
Programs Operation is not adequate to meet the task of self-
determination, which this administration has traditionally supported.
    We also laud the President's initiative to improve funding for BIA 
school construction. While this funding does not directly impact the 
reservations in the State of Minnesota, we nonetheless encourage the 
Committee to fund this increase.
                                 ______
                                 
  Prepared Statement of Tom Miller, Administrator, Hannahville Indian 
                        Community Tribal School
    Mr. Chairman and members of the Subcommittee on Interior and 
Related Agencies, I am Tom Miller, School Administrator for the 
Hannahville Indian School on the Hannahville Potawatomi Reservation in 
the upper peninsula of Michigan. On behalf of the Minneapolis Area 
Community Tribal Schools, Inc. (MACTS) I would like to thank you for 
allowing me to submit testimony in support of a $250,000 demonstration 
project through the Facility Management and Construction Center (FMCC), 
BIA, to provide facility inventory updates and plan preventative 
maintenance schedules through the Hannahville Indian Community Tribal 
School to the twelve Minneapolis area schools.
    Hannahville Indian School will distribute the services to the 
schools through the MACTS system. The MACTS organization has been in 
existence since 1984 assisting all Minneapolis Area tribal schools and 
up to fourteen tribal schools outside of the Minneapolis Area.
    In this demonstration program, MACTS will provide technical 
assistance to the twelve Minneapolis Area Tribal Schools. The technical 
assistance will be in the areas of Facility Updating and Planned 
Maintenance Scheduling. Funding would be directed from Operation and 
Maintenance funds within the Facility and Construction Center (FMCC) 
through the Minneapolis Area Facility office.
    In the past, the schools have contributed funding for MACTS to 
provide partial services but there is a need for additional funding so 
that complete services can be implemented.
    Currently, the FMCC has the responsibility to work with the Tribal 
Schools across the nation in updating facility inventories and 
developing Planned Maintenance Schedules. This service has not been 
provided. FMCC has recently expressed an interest to provide these 
services, but they have neither the expertise nor the experience of the 
MACTS system.
    The services are critical to the school maintenance and replacement 
process. It is our experience that planned preventive maintenance is 
often the most convenient area to overlook in managing educational 
facilities. In fact, this area is the single most important factor in 
maintaining a quality facility and extending the life of the building. 
It's a simple fact of ``pay me a little now or pay me a lot later.''
    The facility inventories of each specific facility must be accurate 
and correct if the school is to generate the full amount of operation 
and maintenance funding. Each facility director will be trained on how 
to update his own inventory and how to access the FACCOM system for 
validation.
    With an accurate facility inventory, the planned maintenance 
schedule can be developed and made site-specific. This schedule is 
crucial in allowing the schools to plan and budget for the maintenance 
of their buildings. Both major and minor repairs and maintenance items 
can be planned and not just reacted to, as is done in many of the 
schools. The nature of the plan is to ``spend a little now'' to 
maintain the buildings properly and save the schools from ``paying a 
lot later'' due to improper planned maintenance schedules.
    This allows the schools to effectively plan for building 
replacement at the end of the life of the building. The BIA can use the 
information generated by these plans to budget for the eventual 
replacement of these schools. Also, it will allow Congress access to 
accurate information about the state of facilities in the Minneapolis 
Area schools. The schools and MACTS organization will be linked to FMCC 
and OIEP by computer for timely information transfer.
    The schools now receive inadequate maintenance dollars from the O&M 
program of the FMCC based on an incomplete inventory of the facility. 
MACTS has developed a very complete and more effective inventory method 
that has the effect of demonstrating an accurate and larger usable 
square footage upon which reimbursement is awarded. This has resulted 
in increased funding for preventative maintenance. Not surprisingly, 
the prospect of increased funding has brought resistance from FMCC.
    But this resistance is short-sighted. Without adequate funding for 
preventive maintenance, along with timely Improvement and Repair 
Projects, there will be more costly repairs and premature replacement 
not far down the road. Preventive maintenance is by far the highest 
value for the dollar.
    And most importantly, Mr. Chairman, this is not about dollars. 
Poorly maintained buildings have a real and negative effect on 
education.
    We have formally requested FMCC to allow MACTS to provide this 
service. They agree that the service is needed and that it would 
unquestionably help the schools. However, they need direction from 
Congress to initiate a demonstration program.
    This demonstration program will allow the schools in the MACTS 
system to better prioritize educational spending, putting adequate 
maintenance at the top of the list.
    Thank you again Mr. Chairman for allowing me this opportunity to 
submit testimony for the hearings record.
                                 ______
                                 
 Prepared Statement of Yvonne Novack, NIEA President, National Indian 
                         Education Association
    The National Indian Education Association (NIEA), the oldest 
national organization representing the education concerns of over 3,000 
American Indian and Alaska Native educators, school administrators, 
teachers, parents, and students, is pleased to submit this statement on 
the President's fiscal year 1999 budget as it affects Indian education. 
NIEA has an elected board of 12 members who represent various Indian 
education programs and constituencies from throughout the nation. Every 
year, NIEA holds an annual convention which provides our members with 
an opportunity to network, share information, and hear from 
Congressional leaders and staff as well as federal government officials 
on policy and legislative initiatives impacting Indian education.
    The Federal government has a trust responsibility, both legally and 
morally, to provide educational services for American Indians and 
Alaska Natives. This responsibility has been affirmed through 
Presidential Executive Order, Supreme Court decisions, treaties, 
federal statutes and the U.S. Constitution. NIEA firmly believes that 
this responsibility should be maintained by the Congress and the other 
branches of the Federal government.
    We commend President Clinton for a budget that emphasizes the 
importance of education for all citizens of this country, including the 
First Americans. There are programs within the Bureau of Indian 
Affairs, such as funding for School Operations, school construction and 
repair and higher education which deserve consideration for possible 
increases. President Clinton has proposed several new education 
initiatives for fiscal year 1999 which will require a major investment 
of federal dollars, if approved by Congress. Administration proposals 
like the School Construction Tax Credit and the Class-Size Reduction 
Initiative are desperately needed by schools operated and funded by the 
Bureau of Indian Affairs (BIA). The investment proposed for BIA 
Education Construction and Facilities Improvement and Repair will help 
to partially meet the huge backlog of projects now estimated at over 
$800 million.
    In April of 1994, President Clinton and tribal leaders met to 
discuss a variety of issues including, briefly, education. Immediately 
following that historic event, Indian educators were challenged by the 
White House to come up with a comprehensive approach to the federal 
government's administration of Indian education programs. That 
challenge was taken up and has been successfully met in a way far 
exceeding even our expectations. For the past three years, NIEA has 
worked cooperatively with the National Congress of American Indians 
(NCAI) and the Native American Rights Fund (NARF) in developing an 
Executive Order on a Comprehensive Federal Indian Education Policy 
Statement (CFIEPS) which we are urging the Clinton Administration to 
issue.
    The intent of this policy is to formally set national guidelines 
for Indian education programs which would be applicable to all federal 
agencies. The uniqueness of this document is that it is tribally-
endorsed, encompasses all education levels, and reflects the historical 
nature of federal Indian education policy. These guidelines are broad 
enough to define and direct federal agency implementation of all 
congressional and executive branch level Indian education initiatives 
including budget appropriations. The CFIEPS has been forwarded to the 
Clinton Administration with several House and Senate Members endorsing 
the proposal. We urge this subcommittee's formal endorsement of a 
Presidential Executive Order on Indian Education. Below are our funding 
recommendations for the Bureau of Indian Affairs.
                         department of interior
Bureau of Indian Affairs (BIA)
    NIEA is pleased that the BIA's fiscal year 1999 budget for School 
Operations includes a $26.5 million increase over 1998. The $486.8 
million investment in American Indian youth who attend BIA schools 
reflects the Administration's commitment to the Government-to-
Government relationship that exists between the tribes and the federal 
government. The BIA educates approximately 12 percent of the American 
Indian K-12 population. We urge this subcommittee to support this 
needed increase. NIEA also supports the recommendations from the 
October 1997 Method of Financing BIA-Funded Schools Study that was 
produced under contract through the Department of Interior. One of the 
study's recommendations included higher future funding levels under 
ISEP in order to stay level with inflation, comply with BIA academic 
standards, and to reach parity with public schools. According to the 
study's ISEP estimates, an additional $21 million needs to be requested 
in the fiscal year 1999 budget to meet a minimum level of support. As 
shown below, NIEA fully supports this amount.
            Tribal Priority Allocations (TPA):
    Adult Education.--Adult Education continues to be one of the most 
underfunded Indian education programs despite the fact that it is 
desperately needed to enable adult Indians who did not finish high 
school to obtain their General Educational Development (GED) degree. 
The program's funding levels over the past 10 years have fluctuated 
with fiscal year 1996 being the highest at $3.6 million. The fiscal 
year 1999 request of $2.7 million represents a 25 percent decrease 
since 1996. The BIA estimates at least 20,000 Indian adults participate 
in the program.
    NIEA believes the adult education program needs to be funded at no 
less than $4 million annually. The elimination in 1996 of the Adult 
Education Program in the Department of Education's Office of Indian 
Education (OIE), puts a strain on the limited resources of the BIA and 
does little to focus financial attention on Indian adults who do not 
live on reservations. Older Indian adults tend to not attend state-
operated programs and are more comfortable with Indian instructors.
    Johnson-O'Malley (JOM) Program.--The fiscal year 1999 request is 
$18 million, an $864,000 increase over the fiscal year 1998 level. The 
highest level the JOM program has received this decade was in fiscal 
year 1995 when it was funded at $24.4 million. NIEA supports funding 
for JOM at a level of $24 million to meet the increasing student 
population. The JOM program provides supplemental educational services 
for 272,000 American Indian students in 23 states. We understand that 
JOM contractors are unable to add any new schools to their current JOM 
programs without lowering the amount other programs receive. NIEA 
requests that the JOM appropriation level be raised and that any caps 
related to student count increases be eliminated.
    Scholarships.--NIEA supports the fiscal year 1999 request of $29 
million for undergraduate scholarships for American Indians, which 
represents a $488,000 increase over fiscal year 1998. Over the past ten 
years, the average allocation for Indian scholarships was $28.6 
million. Out of an estimated 12,300 requests for scholarship 
assistance, 9,800 students will be served through this tribal 
scholarship program. The BIA estimates the unmet need is estimated at 
$25 million for 1998. NIEA firmly believes that the trust 
responsibility for Indian education extends through postsecondary 
education. One of NIEA's major priorities is to increase funding for 
all postsecondary education programs for American Indians and Alaska 
Natives. The needs of Indian students pursuing postsecondary education 
are often neglected, especially when critically-needed programs are cut 
or eliminated such as the Department of Education's Office of Indian 
Education Fellowship Program. As mentioned below, funding for BIA's 
only graduate level scholarship program has operated at half funding 
capacity for four consecutive years.
            Other Programs
    Indian School Equalization Program (ISEP) Formula.--For fiscal year 
1999, NIEA requests a funding level of $329 million. This would require 
an additional investment of $21 million over the President's request of 
$308.5 million. Funding for this program provides formula-based 
assistance for 185 BIA-operated, grant, and contract elementary and 
secondary schools. NIEA supports a higher ISEP funding amount of $329 
million, as recommended by the October 1997 Method of Financing BIA-
Funded Schools Study, but no less than the President's $308.5 million 
request. The President's request would provide $3,125 per Weighted 
Student Unit (WSU) compared to $3,009 per WSU in school year 1997-98. 
NIEA continues to support a funding level of $3,500 per WSU--a number 
we have proposed since fiscal year 1993. The proposed $3,125 per WSU is 
still far below the average per student expenditure by public 
elementary and secondary schools, an amount reported by the Department 
of Education's National Center for Education Statistics (NCES) to be 
$7,317 per student in school year 1996-97.
    Family and Child Education (FACE) Program.--NIEA supports the 
fiscal year 1999 request of $5.5 million for BIA's early childhood 
development program. The fiscal year 1999 funding level represents a 
$42,000 increase over 1998, which previously had not increased for 
three years. We request that the FACE program be funded at the fiscal 
year 1995 level of $6.5 million. Currently there are 22 FACE sites, 
however the BIA could use a FACE program at each of its 82 elementary 
schools if the program were sufficiently funded.
    Student Transportation.--NIEA supports the fiscal year 1999 request 
for $36.5 million for student transportation. In fiscal year 1997-98 
the BIA-funded transportation cost was $1.98 per mile with 15,897 miles 
(School Year 1996-1997) estimated being driven for day and boarding 
schools. According to the latest School Bus Fleet information, the 
national average for student transportation costs in school year 1993-
94 was $2.94 per mile for public schools. Therefore, the BIA-funded 
schools, which are located primarily in rural, isolated areas, are at 
least $0.96 below the national per mile average.
    Administrative Cost Grants.--NIEA supports the fiscal year 1999 
request for Administrative Cost Grants of $46.69 million. At least 10 
of the remaining 49 BIA-operated schools an the Navajo Nation have 
indicated that they will convert to grant status after July, 1997. The 
conversion cost is projected at $4.6 million. The need for additional 
Administrative Cost Grants has been increasingly evident as more 
schools convert from BIA to tribal control. Therefore, the BIA may need 
another $1.6 million for this conversion.
    Education Facilities Operation and Maintenance (O&M).--The fiscal 
year 1999 request for Facilities O&M is $77.4 million, a $2.7 million 
increase over fiscal year 1998. The Facilities Operation and 
Maintenance Program provides essential operating expenses and 
facilities for all Bureau funded schools. NIEA supports this request 
that would help to cover the maintenance needs of 2,313 schools and 
buildings in the Bureau system.
    Tribal Departments of Education.--Although no funding is provided 
in the President's budget, NIEA recommends at least $3 million for 
tribal departments of education, which are authorized by Public Law 
103-382, the ``Improving America's Schools Act (IASA).'' We believe 
that sufficient funding should be provided to assist tribes in planning 
and developing their own centralized tribal administrative entities to 
accomplish the original intent of the 1994 Act. This would be 
appropriate given the recent trend to convert more schools from BIA to 
Tribal control.
            Tribally Controlled Community Colleges
    Tribal Colleges/Post Secondary Schools.--The President's fiscal 
year 1999 request for Tribally-Controlled Community Colleges is $35.4 
million, a $5.5 million increase over fiscal year 1998 and represents a 
substantial increase over previous years. NIEA supports the American 
Indian Higher Education Consortium (AIHEC) recommendation of $37.4 
million which provides for an additional $2 million for TCCC Operating 
Grants. NIEA also supports an additional $2 million for tribal college 
endowments, $2 million for economic development, and $1.8 million for 
emergency facility repair and renovations and $214,000 for Technical 
Assistance grants in the fiscal year 1999 budget.
    In addition, tribal community colleges have never received 
facilities construction or renovation/repair money from the BIA. The 
national average for Full-Time Equivalent (FTE) funding at mainstream 
community colleges is approximately $6,200 per year. The level of FM 
funding for some special population colleges is approximately three 
times that which is provided to the tribal colleges.
    Furthermore, NIEA supports the separate funding levels in fiscal 
year 1998 for Bureau-funded post secondary vocational institutions. 
This includes Haskell Indian Nations University at $11.6 million, 
Southwest Indian Polytechnic Institute (SIPI) at $4.6 million, the 
Institute for American Indian Arts (IAIA) at $4.25 million, and the 
United Tribes Technical College (UTTC) at $2.5 million.
            Special Programs and Pooled Overhead
    Graduate Scholarships.--The Administration request for Graduate 
Scholarships in fiscal year 1999 is $1.33 million, which is the same as 
the past three fiscal years. This program is the primary funding source 
for American and Alaska Native graduate students and is totally 
inadequate to help these individuals meet the costs of an advanced 
degree. The program, which is administered by the American Indian 
Graduate Center (AIGC) of Albuquerque, New Mexico, has been underfunded 
since its founding in 1969. During the past ten years, the highest 
level of funding for this program was $2.6 million in fiscal year 1995. 
For school year 1997-98, the actual unmet need for Special Higher 
Education Scholarship recipients was $5.7 million, which means that 
even with this assistance, Indian students must pursue other sources of 
funding to complete their higher education package. During the 1996-97 
school year, the program funded an estimated 378 students with an 
average award of $3,955. Because of reduced funding, scholarship awards 
are being drastically reduced while the demand for these limited 
scholarship funds increase. This program funds students in 27 states 
with 128 tribes represented. No other federal graduate level 
scholarship program, other than the Indian Health Service Scholarship 
Program, specifically for American Indian students currently exists.
            Education Construction
    Special Note: NIEA is aware that Senators Pete V. Domenici and Tim 
Johnson were able to increase the budget allocation for BIA school 
construction and repair from the President's request of $86 million to 
$166 million in the fiscal year 1999 Budget Resolution. NIEA fully 
supports their efforts on behalf of the unmet BIA school construction 
needs. We urge this committee to fully support the higher amount for 
education construction projects. Below are NIEA's funding 
recommendations prior to Senators Domenici and Johnson's recent action.
    Replacement School Construction.--NIEA supports the fiscal year 
1999 request of $37.4 million for Replacement School Construction, 
which is $18.2 million more than 1998. These funds are earmarked to 
complete construction of the Seba Dalkai School, the Sac and Fox 
Settlement School and the Pyramid Lake High School. NIEA supports this 
request as the Interior Department strives to make a targeted approach 
to the severe backlog of construction projects at Indian education 
facilities.
    Education Facilities Improvement and Repair (FI&R).--NIEA supports 
the fiscal year 1999 request of $46.2 million, which is $14 million 
over the 1998 appropriation. The backlog under this program, however, 
is over $800 million which would take over seventeen years to complete 
at the current rate of funding. NIEA urges the Committee to consider 
additional, or supplemental funding to help meet this need.
            Other
    Institute of American Indian Arts.--NIEA is concerned that proposed 
funding for the Institute of American Indian Arts (IAIA) is being 
terminated with the last year for appropriations in fiscal year 1999. 
We support continued funding for IAIA at the fiscal year 1998 level of 
$4.25 million and request the Committee's support in continuing this 
institution through the year 2005. This institution has been in 
existence for 35 years and is the only facility solely dedicated to the 
arts for American Indians and Alaska Natives. NIEA joins with NCAI in 
opposing any decrease in funding and urge Congress to maintain the 
enacted level for fiscal year 1999 and beyond.
    In closing, the National Indian Education Association would like to 
thank the Committee for allowing us the opportunity to present 
testimony on the educational concerns of American Indians and Alaska 
Natives. NIEA appreciates the financial effort the Administration is 
submitting for consideration by the Congress on behalf of Indian 
education. Our concerns reflect a need for a seamless educational 
effort that includes Early Childhood, K-12 and postsecondary education 
in reservation and non-reservation settings. Currently, we feel a 
deficiency exists with regard to postsecondary funding for all American 
Indian and Alaska Native students. All the educational efforts targeted 
for K-12 students mean little if insufficient resources are available 
once Indian students graduate from high school. Please contact NIEA if 
you need clarification on any item presented in our testimony.
                                 ______
                                 
  Prepared Statement of Samuel N. Penney, Chairman, Nez Perce Tribal 
                          Executive Committee
    On behalf of the Nez Perce Tribal Executive Committee, the 
governing body of the Nez Perce Tribe, I appreciate this opportunity to 
submit our views on the President's fiscal year 1999 budget request for 
tribal programs in the Bureau of Indian Affairs, Indian Health Service 
and other agencies of the Department of the Interior. This testimony 
will cover the following funding requests for fiscal year 1999 which 
are specific to the Nez Perce Tribe: $400,000 for our Wolf Recovery 
Project in the Fish and Wildlife Service; $200,000 in fiscal year 1999 
through the BIA to assist in the establishment of a Bureau of Land 
Management cadastral survey station on the Nez Perce Reservation; 
$750,00 for equipment and $1.7 million for staffing through IHS under a 
joint venture arrangement; and $710,000 under the BIA's Water Rights 
Negotiation and Litigation Program within Indian Rights Protection for 
negotiation and litigation of the Snake River Basin Adjudication.
    In addition, I would also like the Subcommittee to know of our 
support for several general funding increases recommended for fiscal 
year 1999 as follows: support for the increase of $34 million for the 
Tribal Priority Allocation account in the BIA over the fiscal year 1998 
enacted level; support for the Administration's requested fiscal year 
1999 increase of $3.5 million for the Water Rights Negotiation and 
Litigation Program to fund additional tribal water studies; support for 
the $25 million increase requested for BIA Law Enforcement; support for 
additional fiscal year 1999 funding over the budget request for the 
Indian Health Service, in order to address inflation, population 
growth, and staffing at new facilities; support for the $250,000 
requested for Columbia River fishing access sites built by Army Corps 
of Engineers; and support for the $500,000 through the Fish and 
Wildlife Service that the Administration has requested for consultation 
with tribes as part of the recent Secretarial Order related to tribal 
treaty rights under the Endangered Species Act.
Wolf Recovery Program: FWS, $400,000
    The Nez Perce Tribe is entering our third year of participation in 
the Wolf Recovery Program with the U.S Fish and Wildlife Service. This 
is the only effort in the nation in which an Indian tribe is leading 
the recovery effort for an endangered species. Through a contract with 
the Service, the Tribe produced and is implementing a Service-approved 
recovery plan for grey wolves in Central Idaho, which requires 
documentation of ten breeding pairs for three consecutive years. We are 
most appreciative that Congress provided $300,000 in fiscal year 1998 
through the Service for this project.
    However, the project is badly underfunded. The funding shortfall 
threatens our ability to adequately monitor the breeding pairs, which 
are scattered throughout 15 million acres, and to capture and install 
radio collars on any offspring produced this spring. The information 
gathered from these monitoring activities is fundamental to determining 
when the recovery standards have been met and essential in working with 
local communities and the livestock industry in addressing concerns 
regarding wolf recovery.
    In addition, as the project enters its third year, we have found 
that many of the radio collars used for the monitoring of these wolves 
need to be replaced. Additional funding is necessary both to provide 
the new equipment and to locate, recapture and recollar the 
participating wolves in the wild. The latter involves the use of 
helicopters and retention of the few professionals licensed by FWS to 
do recapture work. As a result, we ask this Subcommittee to consider 
providing a level of $400,000 additional funding through the Fish and 
Wildlife Service for the Nez Perce Tribe's grey wolf recovery project 
in fiscal year 1999.
Cadastral survey station: BIA, $200,000
    In 1997, we executed an interagency memorandum of agreement with 
the Bureau of Indian Affairs and the Bureau of Land Management to 
establish a cadastral survey station on the reservation. The agreement 
calls for a budget of $100,000 for fiscal year 1999, with an additional 
$450,000 to be spent over the following four years. Given the recent 
experience in only two of these disputes that became highly 
controversial, we believe that the expenditure of funds on a cadastral 
survey is the most cost-effective use of federal funds, with benefit to 
Indian and non-Indian landowners within the reservation.
    At the current funding level, only approximately 10 percent of the 
estimated 400 field months of work will be completed under this 
agreement. We are requesting that Congress at least double the funding 
for the Nez Perce Survey Station, to $200,000 per year for the next 
four years. This will add another field survey crew, which will double 
the project output.
Joint venture funding: IHS, $2.45 million
    The U.S. Congress recognized that the existing system for funding 
the replacement of health care facilities under the IHS Facilities 
Priority Construction List does not work for most tribes. It is 
difficult for our Tribe to make that priority list due to the criteria 
the IHS utilizes for new facility construction. Congress authorized 
``Joint Venture'' programs under the IHS which provides that tribes who 
construct their own facilities with their own resources could count on 
the IHS to provide increased staffing and new equipment, as long as the 
tribe provides the facility under a no-cost lease agreement to IHS.
    The Nez Perce Tribe has elected to construct replacement clinics at 
Kamiah and Lapwai, Idaho. Both clinics have been designated in need of 
replacement. The Lapwai clinic is too small, and experiences continued 
problems with its foundation. The Tribe will provide the land and 
construction costs. The Nez Perce Tribe seeks funding from IHS for the 
increased staffing and new equipment for these facilities, which we 
hope to be completed by the end of fiscal year 1999. The estimated cost 
for start-up equipment is $750,000 and the annual recurring amount is 
$1.7 million.
Snake River basin adjudication negotiations funding: BIA, $710,000
    Since 1987, the Nez Perce Tribe has been engaged in an adjudication 
of its water rights in the Snake River basin. This litigation, which 
involves the adjudication of all water rights in the Snake River, much 
of which lies within the aboriginal territory of the Nez Perce Tribe, 
is the largest water rights adjudication in the nation. We are 
represented in this proceeding by our own in-house counsel and by the 
Native American Rights Fund (NARF) in Boulder, Colorado. The stay that 
had been in place has been lifted and the parties have begun the 
discovery phase of the complex litigation.
    For fiscal year 1999, we are requesting that $710,000 be made 
available in the BIA's Indian Rights Protection account, Water Rights 
Negotiation and Litigation Program for the Tribe's work and 
participation in the Snake River Basin Adjudication. These funds will 
cover the costs of on-going work by experts needed in the negotiation 
and litigation of the case including fisheries, economic and 
engineering experts as well as attorney and overhead costs in the 
adjudication.
    We note that the Administration has requested an increase of $3.5 
million for the Water Rights Negotiation and Litigation Program, and 
hope that Congress will approve this proposed increase, as well as 
specifying funds for our adjudication.
                        items of general support
    The Nez Perce Tribal Executive Committee also hopes that the 
Congress will approve fiscal year 1999 funding increases for several 
other programs, which impact many tribes:
BIA Law Enforcement
    We urge that the Subcommittee favorably concur with the 
Administration's request for $25 million for BIA Law Enforcement, to be 
used for criminal investigators, uniformed police and basic detention 
services, within the Special Programs and Pooled Overhead account.
    The Nez Perce Tribal Police Department provides normal and 
emergency services to Indians as well as non-Indian citizens within the 
Reservation. Additional funds for law enforcement on our Reservation 
are needed for traffic enforcement and driver education efforts, in 
order to address a significant increase in traffic-related injuries and 
deaths over 1997.
    The current Tribal Police Department cannot meet expanding services 
requirement because of lack of manpower. Currently, we have only six 
Patrol officers. The Position Manning Factor for the Patrol Officer to 
perform patrol duties 24-hours, seven days a week, for 52 weeks would 
require a staff of 17. We currently have no Communications-Dispatch 
Center (that function is provided by the County Sheriff's Office); the 
Position Manning Factor for the Dispatcher position would require 7 
persons. The Tribe also does not currently have an Adult and Juvenile 
Detention Center, which would require a staff of 13. For the Nez Perce 
Tribe, an additional $733,000 in fiscal year 1999 is necessary to 
address these law enforcement program deficiencies. We strongly urge 
the Congress to provide additional funds through the BIA for law 
enforcement efforts.
IHS Mandatory Cost Increases
    We are very disappointed with the Administration's fiscal year 1999 
request for the Indian Health Service, which includes no increases for 
inflation, population growth, or staffing at new facilities. Most 
programs are level-funded at the fiscal year 1998 enacted amounts, and 
the fiscal year 1999 IHS budget request assumes an increase in 
Medicare/Medicaid and private insurance collections totalling $25 
million.
    The Nez Perce Tribe urges the Congress, to provide additional funds 
in fiscal year 1999, for the vital health service and health facility 
programs IHS operates. We also concur with the analysis of the fiscal 
year 1999 budget prepared by the Northwest Portland Area Indian Health 
Board, and support the recommendations proposed in their testimony 
presented to the House Interior Appropriations Subcommittee in March 
1998.
Tribal Priority Allocations
    We appreciate that the Administration continues to provide 
additional resources through the Tribal Priority Allocations account to 
assist tribal governments to address basic necessities and critical 
services within our communities. The President's fiscal year 1999 
budget proposes an increase of some $34 million over the fiscal year 
1998 enacted level. While much of this proposed increase is for 
specific programs, rather than as a general increase to the base 
funding of all tribes, we do support additional funds for TPA in fiscal 
year 1999.
In-Lieu Sites
    We also support and urge the Subcommittee to approve the $250,000 
requested by the Bureau to implement the terms of the 1995 Memorandum 
of Agreement between the Bureau of the Corps of Engineers for Columbia 
River fishing access sites built by the Corps. In that Memorandum, the 
Corps committed $250,000 annually for the costs of law enforcement, 
operation and maintenance, training and other maintenance needs.
ESA Secretarial Order
    We support the $500,000 through the Fish and Wildlife Service that 
the Administration has requested for consultation with tribes as part 
of the recent Secretarial Order addressing the relationship of tribal 
treaty rights and the Endangered Species Act.
    Thank you for this opportunity to submit written testimony to the 
Senate Interior Appropriations Subcommittee on behalf of the Nez Perce 
Tribe.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
Introduction
    On behalf of the 31 Tribal Colleges which comprise the American 
Indian Higher Education Consortium (AIHEC), we thank the Subcommittee 
for allowing us this opportunity to present our appropriations request 
and justifications for the 26 tribally-controlled colleges funded under 
Public Law 95-471, ``The Tribally-Controlled Community College 
Assistance Act.'' This program, also known as the ``Tribal College 
Act,'' is administered by the U.S. Department of Interior, Bureau of 
Indian Affairs, Office of Indian Education Programs. Although AIHEC 
requests full funding for the Act's authorized programs, we realize 
that this request must be obtained over time. We ask that the 
Subcommittee fully support and build upon the President's Budget 
Request of a $5.5 million increase for core operations (Title I and II) 
fiscal year 1999. Specifically, we request an additional $6 million in 
funding for Title I, which provides core operational funding for 25 
colleges, and an increase of $1.5 million in Title II funding, which 
provides core operational funding for Dine College. Additionally, we 
seek Title III funding at $2 million for endowments; Title IV funding 
at $2 million for economic development; $1.8 million under the 
facilities renovation authority of the law; and $214,000 for technical 
assistance.
    The American Indian Higher Education Consortium was founded in 1972 
by six of the first tribally-controlled community colleges. Today, 
AIHEC is a cooperatively sponsored effort on the part of 31 member 
institutions, all of which are fully accredited (with the exception of 
the four newest institutions that are accreditation candidates). The 
Tribal Colleges were chartered by their constituent tribes over the 
last 30 years to bring greater access to higher education opportunities 
to American Indians living on remote and economically disadvantaged 
reservations. Since their creation, the Tribal Colleges have been 
addressing the problems and challenges of our welfare system. 
Throughout their history, Tribal Colleges have provided GED and other 
college preparatory courses, probably more than any other community 
colleges in this country.
    Our mission requires us to help move American Indian people toward 
self-sufficiency and help make American Indians productive, tax-paying 
members of American society. Fulfilling that obligation will become 
increasingly difficult as more and more welfare recipients turn to the 
Tribal Colleges for training and employment opportunities. Tribal 
Colleges serve 26,500 students each year, offering primarily two-year 
degrees, with a few colleges now offering four-year and graduate 
degrees. Together, they represent the most significant and successful 
development in American Indian education history, promoting achievement 
among students who may otherwise never know educational success.
    First, this statement provides background information regarding the 
funding inadequacies with which Tribal Colleges have coped throughout 
their history. Next, we provide justifications for Tribal College 
funding increases and outline how new monies would be directed; and 
then we briefly summarize recent accomplishments.
    Please note that AIHEC's membership also includes institutions of 
higher education funded under separate authorities, and AIHEC fully 
supports their independently submitted Interior Appropriations 
requests. These include: Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute; the Institute of American 
Indian Arts; and United Tribes Technical College.
Background and Funding Disparities
    The Tribal College Act provides funding for the operational budgets 
of one qualifying institution per tribe based on an American Indian 
enrollment formula. The Act does not provide funding for non-Indian 
students, although Tribal Colleges serve an increasing number of non-
Indian students from the surrounding rural communities. However, 
federal appropriations have never matched the levels authorized under 
Title I. Funding for the colleges was first authorized at $4,000 per 
full-time equivalent Indian student, or Indian Student Count (ISC). In 
1984, this level was raised to $5,820 per ISC, to more closely reflect 
the true cost of higher education at a community college. Due to a 
combination of inadequate appropriations and dramatic enrollment growth 
at the colleges, funding for the Tribal Colleges has never reached 
either of these levels. In fact, even with the fiscal year 1998 
increase of $2.1 million for Title I colleges, the colleges are still 
funded only at about half of the level authorized, or $3,014 per full-
time Indian student.
    Compounding the existing funding disparities is the fact that 
Tribal College enrollments have increased dramatically--the 26 Tribal 
Colleges funded under this Act now serve nearly 20,000 full- and part-
time students every year. Additionally, funding for Tribal Colleges, 
insufficient from the outset, has not even kept pace with inflation--in 
fiscal year 1997, the Title I Tribal Colleges received only $30 more 
per Indian student than they received in 1981. When inflation is 
factored in, the payment's value actually decreased by $1,200 (from 
$2,831 to $1,626) since 1981.
    Tribal Colleges, in some ways, are being punished for their 
successes--the impressive enrollment gains recorded by the colleges 
have forced Title I colleges to slice an inadequate pie into incredibly 
small pieces. The Carnegie Foundation for the Advancement of Teaching 
praised the colleges in its May 1997 report, for providing access to 
students, strengthening communities and rebuilding cultures. The first 
recommendation of the report requested full funding for the Tribal 
College Act. Pointing to the significant enrollment gains posted by the 
colleges, the report called on the Administration and Congress to fund 
the colleges at fully authorized levels.
    Our request for a $6 million increase for Title I would amount to 
only $3,713 per full-time Indian student, which is still significantly 
less than the average amount under which mainstream community colleges 
operate. It is also significantly less than the authorized amount of 
$5,820, and just a modest increase above the current Indian student 
allocation of $3,014.
    Tribal Colleges have survived on a patchwork of smaller, 
competitive, short-term grants that supplement the insufficient Titles 
I and II operational funding. This has never been a stable way of 
funding Tribal Colleges, but the colleges have little choice. Several 
colleges have faced serious struggles because of this funding 
instability, and accrediting agencies have warned the colleges about 
the hazards of relying too heavily on ``soft money.'' Unlike most state 
institutions, the Tribal Colleges are young--most were founded in the 
past 25 years--and they have not built the funding reserves that are 
common at older institutions. The lack of reserves actually forced two 
of the colleges to cease operations during the government furloughs and 
the budgetary impasse of 1996. Therefore, it is more important than 
ever that the Tribal College Act achieve what it was designed to do: 
provide for the operational support of Tribal Colleges.
    Additionally, due to this inadequate funding, Tribal Colleges are 
now in urgent need of facilities repair and renovation, many of which 
currently operate in abandoned, condemned, or donated buildings. Health 
and safety hazards at Tribal Colleges include leaking roofs, asbestos 
insulation, and crumbling buildings. Most repairs and refurbishments 
can be done cost effectively by Tribal College students. The facilities 
renovation provision, requested at $1.8 million (for the institutions 
combined), would allow Tribal Colleges to begin to address their most 
urgent facility renovation needs.
    While mainstream institutions are able to fall back on a foundation 
of stable state support, Tribal Colleges are located on federal trust 
territory, and the states have no obligation to fund them. They receive 
little or no funding from the states in which they are located. It is 
important to note that Tribal Colleges are reliant on the federal 
government for their operational funding. Tribal Colleges are also 
inequitably served by state block grants, and are frequently neglected 
in block grant distribution, as the recently-passed welfare reform 
block grants demonstrate.
    Tribal Colleges cannot rely on local tax base revenue. Although 
Tribes possess the sovereign authority to tax, high reservation poverty 
rates, the trust status of reservation lands, and the lack of a strong 
reservation economy diminish the creation of a reservation tax base.
    Indian gaming is not a viable funding source for Tribal Colleges. 
The vast majority of the reservations which Tribal Colleges serve are 
located in extremely remote and economically disadvantaged areas. 
Therefore, gaming has not been a significant source of income for the 
majority of the colleges. In addition, gaming tribes should be held to 
the same standard as states, which are not required to share their 
gaming revenue with other states, nor are they penalized for the 
success of their lotteries or gambling.
    Tribal Colleges are a direct result of the special relationship 
between American Indian tribes and the federal government. Tribal 
Colleges are founded and chartered by their respective American Indian 
nations, which hold a special legal relationship with the federal 
government confirmed by numerous treaties, Supreme Court decisions, and 
prior Congressional action. Tribal Colleges serve communities in the 
most remote areas of our nation. For Tribal College students, both 
Indian and non-Indian, higher education would otherwise be 
inaccessible. Tribal Colleges do not discriminate based on race or 
ethnicity. They are simply, and effectively, removing barriers that 
have long prevented equal access to higher education for reservation 
communities.
Further Justifications and High Priority Areas of Need
    AIHEC recognizes the Congressional goal of achieving a balanced 
budget, and we applaud this effort. Within that framework, AIHEC would 
like to highlight the following justifications and targeted highest 
priority areas of need for increased funding for Tribal Colleges.
            Justifications
    Tribal Colleges provide access to critical postsecondary education 
opportunities that would otherwise be out of reach. Most American 
Indian reservations are located in extremely remote areas, and their 
populations are the poorest in our nation. For many American Indian 
communities, the nearest mainstream institution is several hours away, 
making attendance virtually impossible. The cost of attending a 
mainstream institution is usually prohibitively high, especially when 
tuition, travel, housing, textbooks, and all other expenses are 
considered. Unemployment on the reservations served by Tribal Colleges 
can soar to 86 percent. One survey found that 98 percent of Tribal 
College students qualify for need-based federal financial aid.
    Tribal Colleges are producing a new generation of highly trained 
American Indian contributors: teachers, tribal government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals. Most of these new professionals are the first in their 
families to attend college. By teaching the job skills most in demand 
on their reservations, Tribal Colleges are laying a solid foundation 
for tribal economic growth, with benefits for nearby off-reservation 
communities. Most Tribal College graduates remain in their tribal 
communities, contributing their newly-acquired skills and knowledge 
where they are most needed. For example, 87 percent of Little Big Horn 
College (Crow Agency, Montana) graduates have found employment within 
the Crow Indian Reservation community.
    Tribal College students and faculty also contribute to our nation 
as a whole, by participating in our national community of researchers, 
scientists, authors, artists, and teachers. Despite their lack of 
adequate funding, Tribal Colleges have established centers for research 
and education that are contributing in revolutionary ways. Many Tribal 
Colleges conduct economic development research, investigate new land 
uses and encourage tribal entrepreneurship. Each college has completed 
a detailed economic development plan that strongly justifies the need 
for the economic development appropriation (Title IV) requested in this 
testimony.
    Tribal Colleges meet the strict standards of mainstream 
accreditation boards, and offer top-quality academic programs. For 
example, Turtle Mountain Community College, located in Belcourt, North 
Dakota, and many others were recently granted a ten-year accreditation 
term--the longest term allowed for any higher education institution. It 
is now not uncommon for accrediting agencies to refer mainstream 
institutions to Tribal Colleges for assistance with the accreditation 
process; Tribal College self-studies have been used as models of 
excellence for non-Indian institutions.
    Tribal Colleges serve as highly effective bridges to mainstream 
four-year postsecondary institutions. A recent study showed that 42 
percent of Tribal College students transfer to four-year institutions. 
Students who transfer from Tribal Colleges are much better prepared for 
the challenges of mainstream four-year institutions; they are far more 
likely to complete Bachelor's degree programs than American Indian 
students who enter as freshmen.
    Tribal Colleges serve as community centers, providing libraries, 
tribal archives, career centers, economic development centers, public 
meeting places, child care centers, nutrition and substance abuse 
counseling, and a broad range of other vitally-needed facilities.
    Tribal Colleges have become centers for American Indian language 
and cultural research, preservation, and revitalization. Many Tribal 
Colleges now serve as tribal archives, and offer courses in tribal 
history, literature, government, language, kinship, and other aspects 
of American Indian culture.
            High Priority Areas of Need
    Like mainstream institutions, these institutions strive to fully 
develop their institution and to expand services to serve the needs of 
their increasing student bodies. If each college received full or even 
increased core operational funding, Tribal Colleges could focus on some 
of their high priority areas of need, such as (1) maintaining 
accreditation by stabilizing their core operational budget (2) 
improving instructional capabilities and enhancing student support 
services; (3) expanding library services and collections, or 
establishing a tribal archive; (4) maintaining and improving facilities 
and enhancing laboratory facilities; (5) expanding technology through 
purchasing computers and establishing Internet access; (6) expanding 
child care facilities; and (7) constructing community or cultural 
centers.
Conclusion
    In light of the justifications presented in this testimony and the 
even further enrollment increases that will result from welfare reform, 
we urge the Subcommittee to increase funding for Tribal Colleges. 
Fulfillment of AIHEC's fiscal year 1999 request will strengthen the 
mission of these colleges and the enormous, positive impact they have 
on their respective communities and will help ensure that they are able 
to properly educate and prepare thousands of American Indians for the 
workforce of the 21st century. Without the Tribal Colleges to serve as 
the means for moving from welfare to work, much of the reform 
accomplished by the Congress will fail throughout Indian Country. As 
demonstrated in this testimony, Tribal Colleges have been extremely 
responsible with the federal support they have received in the last 17 
years. It is important that the federal government now capitalize on 
its investment. As the recent Carnegie report stated, ``Now, as 
strongly as ever, we repeat our conviction that Tribal Colleges deserve 
continued support. Their value has been proven, but their vision is not 
yet fulfilled'' (Native American Colleges: Progress and Prospects, 
Carnegie Foundation for the Advancement of Teaching, 1997). These 
institutions have proven themselves as a sound federal investment, and 
we ask for your continued support.
    Thank you again for this opportunity to present our request before 
this Subcommittee. We respectfully ask the Members of this Subcommittee 
for their continued support and full consideration of our fiscal year 
1999 appropriations request.
                                 ______
                                 
   Prepared Statement of Robert Chicks, Chairman, Stockbridge-Munsee 
                   Community Band of Mohican Indians
    The Stockbridge-Munsee Tribe appreciates this opportunity to 
present our requests for funding in fiscal year 1999 for the Indian 
Health Service. We request that this Subcommittee provide fiscal year 
1999 funding for our three priority projects: $3.6 million for a new 
wastewater treatment facility for the Stockbridge-Munsee Community; 
$2.8 million for a new health clinic for the Stockbridge-Munsee 
Community; and/or $1.27 million for equipment and supplies and $1.6 
million for staffing to operate and maintain a new tribal health 
facility, which the Tribe will construct under a tribal joint venture 
demonstration project arrangement.
    The Stockbridge-Munsee Tribe was once located in what is now the 
northeastern United States. However, in the early 1800's, we were 
removed from our ancestral lands to Indiana, and later relocated to 
what became the State of Wisconsin. Since 1856, our homeland has been a 
46,000-acre reservation in central Wisconsin. The Mohican Nation has 
nearly 1,600 tribal members, over 800 of whom live on the reservation. 
The Tribe employees some 800 people--members and non-members--in our 
tribal programs and economic enterprises, including our small but 
successful casino and bingo operation, and is the largest employer in 
Shawano County, WI. In 1996, the Mohican North Star casino employed 
some 460 people, about three-fourths of whom are non-tribal members. 
The Community uses gaming proceeds to supplement funding for all our 
tribal governmental programs, including Elderly Assistance, Higher 
Education and Vocational Training, Housing Assistance, and Economic 
Development, but gaming revenues make up only 40 percent of the Tribe's 
fiscal operating budget.
    The Tribal Council has three funding requests we have determined to 
be of highest importance, and we submit them for this Subcommittee's 
consideration.
       wastewater treatment facility and sewage collection system
    The fiscal year 1999 budget request for the Indian Health Service's 
Sanitation Facilities Construction account proposes a $5 million 
decrease below the fiscal year 1998 enacted level. While we recognize 
that the Administration, Congress and tribes are forced to struggle to 
determine which programs will receive funding as efforts to balance the 
federal budget continue, surely the provision of such essential 
services as water supply and waste disposal facilities for Indian homes 
and communities, which the rest of the American population almost takes 
for granted, must be a priority.
    The Stockbridge-Munsee Tribe is in desperate need of a wastewater 
treatment facility and sewage collection system. The Tribe currently 
uses a three-cell lagoon system community water and wastewater system, 
instead of a regional treatment facility. Thanks to joint funding in 
fiscal year 1996 through IHS and HUD, we will be able to repair and 
upgrade the existing lagoon system, which services our main housing 
development area, this spring. However, that area is made up of only 30 
households. Even the upgraded lagoon system is not able to meet all 
current community sanitation needs. In addition, the poor condition 
because of old age of the sewer systems in many of the existing homes 
presents the challenge of contamination of the groundwater supply and 
existing wells with bacteria and radon when replacing those systems.
    The Tribe's Planning Department projects that the Tribe will need 
to build 50 to 60 new homes for our members in the course of the next 
10 years. Although several existing residential units on the 
reservation utilize individual septic tanks, due to the soil types on 
the reservation, it is very unlikely that these new homes will be able 
to utilize individual septic tanks. According to data stored on the 
Geographical Information System, almost 93 percent of the soil types 
located on the Tribe's trust lands have severe septic limitations. The 
remaining 7 percent of the land has moderate limitations. These 
limitations make it is very difficult to find suitable areas on which 
to build housing for our members. As a result, the Tribe is seeking 
funding to construct a master wastewater treatment facility which will 
enable us to construct these homes on lands that would otherwise be 
unsuitable because of the septic limitations.
    The proposed wastewater treatment facility would service an 
existing 80 residential dwellings within the regional service area, 
tribal offices, our existing health clinic and proposed new clinic and 
wellness center, and the casino. In addition, the new facility would 
service the contemplated new housing development and other commercial 
development, including a planned hotel. It would also be able to handle 
future increases in wastewater flow.
    The IHS Field Engineer has estimated that the cost of the new 
master wastewater treatment facility and collection system will be $3.6 
million. The need for such a system has been documented and submitted 
to the Indian Health Service for inclusion on the Sanitation Deficiency 
System (SDS) Listing. But, as this Subcommittee well knows, there are 
many tribal projects currently on the SDS list.
    Without adequate funding to the IHS, necessary and essential 
projects like the Stockbridge-Munsee's wastewater treatment facility 
and sewage collection system will not be constructed. We ask that the 
Subcommittee provide additional funds for fiscal year 1999 for the 
Sanitation Facilities Construction account, and provide the necessary 
$3.6 million to the IHS to fund our Tribe's very needed project.
                 new health clinic and wellness center
    For the IHS Facilities account, the President's fiscal year 1999 
budget request proposes an increase of $25 million over the fiscal year 
1998 enacted level for construction of the replacement hospital at Fort 
Defiance, AZ. The balance of funds for this facility is requested as 
advanced appropriations for fiscal year 2000 and fiscal year 2001. 
While the Stockbridge-Munsee Community strongly supports this 
construction request, we know that many tribes throughout the country 
share the need of the Navajo Nation for a new health facility. However, 
unless Congress appropriates additional funding for IHS Facilities, it 
will be many years before other facilities are able to be built.
    The Tribe has a small, 14,000 square-foot health clinic on our 
reservation which was built in 1973. During a typical month, the clinic 
provides medical services to over 1,200 patients, dental care to 200 
patients, and fills over 1,000 prescriptions at the pharmacy. Annually, 
the current staff of 42 full-time and 1 part-time employees and 6 full- 
or part-time physicians and dentists provides necessary and essential 
medical treatment to over 2,300 people--Mohican tribal members and 
Indians who are members of other tribes but live on our reservation, 
and numerous non-Indians who live within the original boundaries of the 
reservation.
    The severe space limitations, existing structural problems and poor 
condition of the clinic make providing necessary medical services very 
difficult. After a point, further additions to the clinic--and there 
have already been two--are not economically efficient. In 1996, the 
Tribe received a HUD Community Development Block Grant toward the 
construction of the new health clinic and wellness center; the Tribe 
paid for the costs of designing the facility out of tribal funds. Last 
year, the Tribal Council hired an architectural firm which has now 
completed a preliminary cite evaluation and the design of the layout 
and floor plans of the new facility. The Tribe is seeking fiscal year 
1999 construction funding in the amount of $2.8 million through the 
Indian Health Service.
                 tribal health facilities joint venture
    If Congress is not able to provide additional funds in fiscal year 
1999 for specific IHS facilities construction projects like ours, the 
Stockbridge-Munsee Community wishes the Subcommittee to consider 
providing appropriations for joint venture demonstration projects, as 
authorized under the Indian Health Care Improvement Act (25 U.S.C. 
1680h(e)). The Stockbridge-Munsee Community is a member of the Tribal 
Nations Joint Venture Coalition for Health Facilities, a coalition of 
tribes from across the United States which would like to use the joint 
venture approach to draw upon non-federal funds to construct health 
facilities in our communities. Under the joint venture demonstration 
program, a tribe uses tribal, private sector or other available 
nontribal funds, including loan guarantees, to acquire or construct a 
health facility under a no-cost lease. IHS would then provide 
equipment, supplies and staffing to operate and maintain that facility. 
Tribes in Oregon and Oklahoma used this approach to build facilities 
which were completed in the early 1990's.
    If Congress is not able to appropriate specific funds for our new 
wellness center, the Stockbridge-Munsee Community plans to finance and 
build the new Stockbridge-Munsee Community Health Center according to 
IHS planning criteria and design standards, to provide direct health 
care services to a projected user population of 2,900 Indian patients. 
The Tribe will ``joint venture'' with the Indian Health Service for 
staffing and equipment. We ask this Subcommittee to consider providing 
the necessary funding--$1.27 million for equipment and supplies and 
$1.6 million to increase health center staff from 42 to 66--in fiscal 
year 1999.
    I appreciate this opportunity to submit this statement to this 
Subcommittee on behalf of the Stockbridge-Munsee Tribe. We are very 
proud of the services we provide our people and members of the 
surrounding community, services we are able to offer because the 
Congress has provided tribes with additional resources through the 
Indian Health Service. Thank you very much for your consideration of 
these requests.
                                 ______
                                 
   Prepared Statement of Margie Mejia, Chairperson, Lytton Rancheria/
               Lytton Band of Pomo Indians of California
    The Lytton Rancheria/Lytton Band of Pomo Indians (the ``Tribe'') 
submits this testimony for the record regarding the fiscal year 1999 
budget request for programs in the Bureau of Indian Affairs and the 
Indian Health Service. Specifically, we express our support for the 
BIA's requested $3 million for the Small and Needy Tribes program. We 
are very concerned about decreases in IHS funding levels and ask for an 
add-on of $20 million for California Tribes--$10 million for direct 
contract care and $10 million for contract support.
    Located in Sonoma County, California, Lytton Rancheria was restored 
to federal recognition by the federal courts in Scotts Valley Band of 
Pomo Indians, et al. vs. United States of America et al. USDC No. Civ. 
No. C-86-3660-WWS; Sept. 6, 1991. The Tribe received no federal 
services for over thirty years. The effort to restore our status as a 
Tribe took about ten years, five of which were spent in litigation. 
During this time, the ill effects of termination took their toll on our 
people in terms of loss of property; lack of education and health 
benefits; increased poverty; high unemployment; disruption of families; 
death of tribal members due to alcohol and related illnesses or 
accidents; and the destruction of hope.
    The Tribe, currently landless, has approximately 200 Tribal members 
and is governed by a Council consisting of seven Tribal Officers. The 
Tribal membership is 47 percent male and 53 percent female; of these 40 
percent are adults and 60 percent are children under 18.
    Tribal members reside primarily in Sonoma County (57 percent) and 
Del Norte County (27 percent), with the remainder of members scattered 
throughout the State of California and the continental United States 
(16 percent).
    The Tribe plans to empower its constituents through education and 
training. The general membership approved a constitution on January 20, 
1996, to establish laws that the Tribal members have agreed to live and 
abide by. Other empowering documentation which has recently been 
developed and is currently being utilized include: Enrollment Manual, 
Election, Enrollment and Voting Procedures Code, Tribal Government 
Operations Manual, Tribal Court Procedures and related codes. The Tribe 
is devoting its time, energy and resources in order to become self-
sufficient.
Bureau of Indian Affairs
    Our biggest concern regarding the BIA is the understaffing at the 
Area and Agency offices. California tribes have never known what it is 
to have a strong Area Office. The California Area Office has never been 
the equal of other Area Offices. It has 105 tribes in its service area 
and not enough funding to provide adequate services to them. Our Tribe 
is within the service area of the Central California Agency Office with 
52 tribes in its service area. It needs funds to increase its staff 
from 40 FTE to at least 57 FTE positions.
    Currently, the Tribe operates several grant programs through the 
BIA. We have an Indian Child Welfare program for tribal children and 
have used our BIA Aid to Tribal Government (ATG) grant monies to 
develop tribal infrastructure programs, including the codes and manuals 
described above. We request an increase in funding to implement the 
recommendations of the Interior/BIA/Tribal Joint Task Force on 
Reorganization of the BIA. One recommendation that the Tribe supports 
is the plan for a three-year phased in minimum funding amount for 
tribes starting at $160,000 annually and raised to $250,000 per year in 
the third year.
    Like some 14 other tribes in California, the Lytton Band does not 
have land. This creates problems for our members because if you don't 
live ``on or near'' a reservation, even if you are a member of a 
federally recognized tribe, you are not eligible for federal services. 
Tribal governments simply cannot build tribal communities without land. 
While the process for taking land from the Indians was often done with 
little more than the stroke of a pen, it is nearly impossible to a 
tribe to have lands taken into trust and that process is getting longer 
and longer.
    The Tribe would like to take this opportunity to request 
legislation and funding to tribes to assist them in hiring specialized 
staff to handle repatriated human remains and other associated objects. 
While museums have a great deal of inventory that rightfully belongs to 
tribes, it is often hard for tribes to accept the items because of the 
costs of curating them.
    We very much support the Housing Improvement Program (HIP) within 
the BIA. We believe that the administration of HIP should stay in the 
BIA, not HUD, and that the grant aspect (see 25 C.F.R. 256) should be 
retained. There have been discussions about using HIP monies under the 
regular tribal contracting process, but we support direct grants for 
this very needed program.
    Finally, we request funds to cover 100 percent of the contract 
support costs for new tribes.
Indian Health Service
    The Tribe requests a $10 million add-on to the IHS budget for 
contract support costs for California Tribes and a $10 million add-on 
to the IHS budget for direct contract health care. As Chair of the 
Tribe, I have become a member of the California Rural Indian Health 
Board and am on the Board of the Sonoma County Indian Health Board. In 
that capacity, the desperate health needs of California Indians have 
become very evident to me. Basic illnesses are untreated. Members do 
not even have eyeglasses or dental care. The President's health 
initiative includes programs to treat Indian diabetes. We believe that 
is excellent but not if other common illnesses and preventive care are 
neglected. There is no IHS hospital facility at all in the State of 
California. In Sonoma County, three tribes used HUD CDBG money to buy 
land and combined grant monies from various programs to build a health 
clinic. The State of California has approved a Mortgage Loan to the 
tribes for this purpose. IHS is staffing the facility. The Subcommittee 
should also know that the federal expenditures per patient in federal 
hospitals (veterans, public health service) is about $3,000 per 
patient; for IHS overall, it is $1,200 per patient; for California 
Indians, it is about $500. This is simply not enough to maintain even 
the most minimal health care for California Indians.
    Without additional continued funding, especially in the crucial 
formative years for new tribes, our membership will stagnate and revert 
back to the downward spiral of life quality experienced by so many 
Native Americans for so many years.
                                 ______
                                 
   Prepared Statement of Kenny Mallory, Chairman, Winnebago Tribe of 
                                Nebraska
    This testimony addresses the fiscal year 1999 budget request for 
programs in the Bureau of Indian Affairs and the Indian Health Service. 
The Tribe is concerned about funding for the Indian Health Service, and 
supports the Administration's proposed increases for the Tribal 
Priority Allocation account, Law Enforcement and the Tribally 
Controlled Community Colleges program within the BIA.
    The Tribe and Economic Development.--The Winnebago Tribe of 
Nebraska is a federally recognized Indian Tribe organized pursuant to 
Section 16 of the Indian Reorganization Act of June 18, 1934. Our 
forefathers were forcibly relocated from lands in and near what is now 
the state of Wisconsin. Our Treaty of 1865 is the first in history to 
require that the United States provide health care services to tribal 
members. The Tribe's 120,000-acre reservation includes lands in both 
Iowa and Nebraska and only about 30,000 acres of land within the 
reservation is now tribally controlled. There are 3,764 enrolled 
members, of whom about 1,238 reside on the reservation.
    The Winnebago Tribe of Nebraska is very active on the economic 
front. The Tribe operates several business enterprises, including the 
WinnaVegas Casino in Sloan, Iowa, and the Heritage food store and the 
Company A Convenience Mart, both in Winnebago, Nebraska. Additionally, 
the Tribe has developed a small strip mall located on the reservation; 
added tribal revenue is generated by leasing tribal land to outside 
agricultural interests. Ho-Chunk, Inc., a wholly-owned tribal 
development corporation, owns a Rodeway Inn in Sloan, Iowa, 
approximately 3 miles from the Tribe's casino. Ho-Chunk has also opened 
hotels in Omaha and Lincoln. Even with the economic contribution of 
these projects, tribal per capita income remains significantly below 
the poverty level at just over $5,000.
    Unlike states, the tribes have little or no tax base or other 
revenue sources with which to operate tribal government programs. 
Gaming has given a jump start to our economy but those revenues are 
decreasing because of commercial competition. The Tribe still relies 
heavily on federal funds to provide even the most basic level of 
services to tribal members.
                         indian health service
    The Winnebago Tribe of Nebraska must, regrettably, ask for the 
assistance of this Subcommittee in regard to completion of the design 
phase of the Winnebago Hospital.
    Over a period of years, Congress made appropriations for design of 
the hospital based on estimates provided by the Indian Health Service. 
The Congress and the Tribe were advised during the fiscal year 1998 
appropriations process that an additional $650,000 would be needed to 
complete the design phase for the hospital. Despite our best efforts 
and those of our congressional delegation, the Congress was not able to 
find sufficient money in fiscal year 1998 for this purpose; however, 
the final fiscal year 1998 Interior Appropriations bill conference 
report urged IHS, the Department of Health and Human Services, and the 
Office of Management and Budget to include funding in the fiscal year 
1999 budget submission to complete design for the Winnebago Hospital, 
as well as the outpatient facilities at Parker, AZ, and Pinon, AZ. 
Unfortunately, and, again, despite our best efforts, the Administration 
failed to include this funding in its fiscal year 1999 Budget Request 
as directed by the Congress. Needless to say, the Tribe and all of the 
Indian people in the IHS service area who will be served by the new 
hospital are very disappointed by this omission.
    As you may know, the IHS hospital at Winnebago was built in the 
1930's and has never been significantly upgraded. The Native American 
clients served by the existing hospital are receiving services in a 
facility that is among the oldest and most dilapidated in the Nation. 
The proposed new hospital was in the works for ten years before the 
Congress made the first appropriation for design and engineering. This 
process is now very near completion and if work ceases during fiscal 
year 1999, the delay will mean significant increases in the overall 
costs of the project. We respectfully request that the Subcommittee 
include an increase of $650,000 for fiscal year 1999 for completion of 
the design phase of the IHS hospital at Winnebago.
                        bureau of indian affairs
    Tribal Priority Allocations.--The Winnebago Tribe urges the 
Administration and the Congress to continue to provide additional 
resources through the Tribal Priority Allocations account to assist 
tribal governments to address basic services for our communities. The 
President's fiscal year 1999 budget proposes an increase of some $34 
million over the fiscal year 1998 enacted level. Although the majority 
of these funds are proposed for specific programs, rather than as a 
general increase to the base funding of all tribes, we do support 
additional funds for TPA in fiscal year 1999.
    Under the BIA's TPA program, the Tribe contracts to operate Aid to 
Tribal Government, Judicial Services, Employee Assistance, Higher 
Education, Credit, Law Enforcement Communications Services, Real Estate 
(services related to land management), Services to Children, Elders and 
Families, Indian Child Welfare Act services and Wildlife and Parks. The 
total 1997 TPA contract was $817,500, a decrease of $42,000 from the 
contract amount for 1996 which was $866,000; the Tribe supplemented 
this amount with $722,743 from tribal revenues. In the 1998 budget, the 
Administration requests $889,100 for the Winnebago Tribe TPA, an 
increase of just $23,000 from 1996, and $71,500 from the current year 
level. For the current funding year Tribal Allocations to TPA programs 
has decreased from $722,743 to $531,082 due to the decline in tribal 
revenue. With the unmet need of $301,861 identified by tribal 
resolution No. 97-17 in 1997, plus the actual decrease in 1997 in 
tribal funding of $191,745, and finally the additional shortfall 
identified by our tribal program directors in their programs for fiscal 
year 1998, the overall TPA programs show a shortfall of $987,376 just 
to maintain basic operations.
    The following identifies needs of each program under the Tribal 
Priority Allocation program:
    Aid to Tribal Government funds 3 positions, a Tribal Planner, 
Community Development Specialist, and Office Associate. These positions 
were identified in fiscal year 1998 to develop a Planning Department 
for the Tribe to aid in leveraging tribal funds to secure grants from 
the public and private sectors to provide services in Youth 
Development, Youth Employment, Drug and Alcohol Prevention programs, 
Senior Employment, Rural Transportation, Juvenile Staff Secure 
Facilities, Culture Restoration, and Education programs that have been 
defunded or received major cut backs because of decreased tribal 
revenue. Additional funding of $69,600, would enable this program to 
provide staff to develop individual program planning and assist grant 
preparation to increase funding for planned program growth.
    Judicial Services averages over 900 cases in civil, criminal, 
juvenile, family and traffic cases per year. Court needs includes funds 
for court automation. Many activities are still done by hardcopy by 
hand. Computer data capability has been provided to the court during 
the last two years, but these systems will need to be replaced before 
the year 2000. Because we have only one probation officer for all 
adults and juveniles, we are unable to proper monitor compliance with 
court orders. We are also having difficulty in enforcing child support 
orders simply because we do not have the necessary staff. The Tribe 
needs at least another $398,688 for judicial services. The Tribe's 
Supreme Court which hears all appeals is funded entirely by the Tribe.
    Real Estate Services provides services to the tribe in management 
and leasing of all tribally owned land and is responsible for ensuring 
that trust and fee land is managed in accordance with environmentally 
sound practices to guarantee a solid future for generations to come. 
Other services include helping locate homesites for tribal members, 
many of whom own fractional interests in larger pieces of land and 
continue tribal efforts in land consolidation of all tribal lands. 
Present funds provide for a program director, and administrative 
assistant. Additional funds for this program would provide for a lease 
monitor to assure all lease compliance with leasees of tribal 
agricultural lands. This position was funded by tribal revenue. 
Additional funding of $53,120 is needed to meet this shortfall in 
program monitoring of tribal lands.
    Services to Children, Elders, and Families is a program which is 
underfunded in the area of administrative support. Current funding is 
$59,589 which provides for one caseworker and operational costs to 
service all of the Tribe's welfare caseload. Additional funding of 
$170,400 would provide sufficient funding to hire a Human Services 
Director, and three caseworkers to assist the management of this 
program.
    Children with behavioral and/or emotional problems are sent to a 
detention center off the reservation with the tribe responsible for a 
majority of the cost for this activity. The center is about an hour 
away and, while the facility does allow the Tribe to provide services 
for all native American children living on the Winnebago Reservation, 
there are rarely sufficient funds to provide the kinds of services the 
children need. The Tribe has provided in excess of $150,000 per year to 
meet this need. However, the real need to enhance prevention programs 
aimed at this group would be a better use of these funds. Most state 
and federal programs focus on treating symptoms, leaving the tribe 
responsible for funding and implementing prevention. We recommend that 
current costs for detention of juveniles be provided under Child 
Welfare. This would provide the opportunity for the tribe to redirect 
funds to youth prevention activities in the community for all Native 
American children living on the Winnebago Reservation.
    The Tribe is reorganizing the Human Services Department to try to 
realize more benefit from the dollars expended. For example, the tribe 
is in the process of combining employment and training programs under 
Public Law 477 guidelines. This process will be completed and 
implemented by Oct. 1, 1999. The Tribe is also developing a centralized 
in-take process to streamline all delivery services (social, health, 
education, training, employment, law enforcement, court) to meet the 
total needs of families. This holistic approach to confront the total 
needs of a family in crisis is an innovative process to stabilize 
families and prepare the family unit to become productive members of 
the tribe. This process would require case management by a number of 
services at once for each family member needing assistance identified 
by the in-take process. The benefits and savings of one family becoming 
functional would save hundreds of thousands of dollars in future 
services to it members and off-spring. This process as run into many 
problems do the fact federal and state funds are extremely 
compartmentalized and laden with bureaucratic red tape.
    Law Enforcement Communications Services is a program overlooked, 
and underfunded by law enforcement programs within the BIA. In the 1998 
TPA program funding the Winnebago Tribe committed $141,356. to meet the 
minimum funding necessary to provide 24 hour communication services to 
the community of Winnebago and the surrounding area. Services include 
Law Enforcement communications, fire calls, networking with other law 
enforcement agencies, and emergency calls. Additional funding of 
$157,848 is needed to bring this program into a standard of service 
which would meet the needs of the Winnebago Tribe of Nebraska.
    Wildlife and Parks funds two conservation officers and two part-
time officers during hunting seasons on the Winnebago Reservation. 
Without them, there would be no law enforcement of hunting codes on the 
reservation. The Tribe has an agreement with the State of Nebraska 
whereby the Tribe monitors and manages the reservation wildlife. Needs 
of this program are a staff position to oversee the general 
administration of this program and a part time biologist to assist 
conservation officers in herd management of deer population, wild 
turkey and other wildlife management. Additional funding of $137,720, 
would meet staffing and operational needs for this wildlife management 
program.
    Law Enforcement.--We urge the Subcommittee to support the 
Administration's request for $25 million for BIA Law Enforcement, to be 
used for criminal investigators, uniformed police and basic detention 
services, within the Special Programs and Pooled Overhead account. We 
support additional funds for law enforcement in Indian country based on 
two particular needs experienced by the Winnebago Tribe.
    Law Enforcement Center--The Winnebago Tribe of Nebraska is 
requesting a centralized Facility to house our Tribal Court, BIA Law 
Enforcement, Tribal Law Enforcement, Law Enforcement Communications 
Services, Adult Detention Services, and Juvenile Detention Services on 
the Winnebago Reservation. Projected costs for this project would be 
$8,400,000 for site preparation and construction, $630,760 to meet 
staffing requirements for detention facilities, and $657,000 to meet 
operational costs for this facility. The Winnebago Tribe is currently 
developing plans and options for cost share on this needed facility for 
our community. As mentioned earlier juvenile detention costs are 
reaching prohibitive amounts for the tribe. Adult detention requires a 
number of adults ordered to detention to be transported to facilities 
in South Dakota approximately 150 miles from our reservation. Costs of 
transportation, officer transporting time, report filing time, and 
returning of prisoners to the Winnebago Reservation are costs that can 
only be estimated. Adults and juveniles that must be placed under house 
arrest because of funding limitations defeats the process of punishment 
for law violations. It is our hope by jointly working with federal 
agencies, state agencies, and our tribal government there will be 
affordable solutions in cost sharing to enable this project to proceed 
in a very timely matter. As part of this request the Winnebago Tribe 
ask that General Services Administration (GSA) begin the process to 
work out a long term lease with the tribe to secure needed operational 
costs, and possible loan repayments for this facility.
    BIA Law Enforcement Services/Uniform Division--The Winnebago Tribe 
of Nebraska requests that additional funding be made available in the 
amount of $1,225,975 to the Winnebago Agency Law Enforcement Services 
to be used to bring BIA Law Enforcement Services on the Winnebago 
Reservation to a standard that will provide adequate services to the 
Winnebago Reservation and all Native Americans living and working 
within its boundaries.
    Tribal Colleges.--In the fall of 1996, the Winnebago Tribe 
chartered and began operation of the Little Priest Tribal College. The 
College, the 30th member of the American Indian Higher Education 
Consortium began to receive assistance payments under the Tribally 
Controlled Community Colleges Act (25 U.S.C. 1801 et seq.) in fiscal 
year 1998. Little Priest Tribal College submitted its self-study and 
requested a site visit by the North Central Accreditation Agency. It 
has initial candidacy status.
    The Winnebago Tribe supports the Administration's requested 
increase of $5.5 million for operating grants for the 26 Tribally 
Controlled Community Colleges, for a proposed fiscal year 1999 level of 
$35.4 million.
                                 ______
                                 
 Prepared Statement of Bruce Wynne, Chairman, Spokane Tribe of Indians
    Mr. Chairman, and Members of the Subcommittee, thank you for the 
opportunity to submit this testimony on behalf of the Spokane Tribe. 
The Tribe is located in Eastern Washington, has 2,145 members and a 
Reservation of 156,000 acres. While the Spokane Tribe was historically 
a fishing tribe, we now rely primarily on timber for tribal income. The 
Spokane Tribe supports the overall increase of $142.1 million over the 
fiscal year 1998 enacted level for the Bureau of Indian Affairs. 
However, there are several program areas within the BIA for which the 
Tribe is asking for increased funding over the Administration's fiscal 
year 1999 request. We support the President's proposed increase of $5.5 
million for funding for the Tribally Controlled Community Colleges. In 
the Indian Health Service, the Tribe is asking the Subcommittee to 
support funding for new modular units to house the Tribe's clinic and 
funding for an elderly assisted living program. In addition, there are 
two policy matters: the first is to implement phase one of the 
Secretary's proposed settlement of disputed tribal trust accounts, and 
the second is the need to include tribes in the decisions related to 
restructuring of the Pacific Northwest Energy System.
                        bureau of indian affairs
Tribal Priority Allocation (TPA) Account
    The Spokane Tribe supports the proposed $34 million increase in TPA 
funding for fiscal year 1999. The TPA funding is the lifeblood of 
tribal governments. It is the money tribes receive to support services 
for their people. The United States' obligation to provide funds for 
tribal health, education and welfare programs is part of the treaty 
guarantees made to tribes by the United States in return for the 
cession of millions and millions of acres of land.
    Decreases in prior years in TPA funding have left tribes actually 
losing in terms of adjustments for inflation. We use these funds for 
many purposes, including tribal government infrastructure, services for 
children and the elderly, scholarships, education, courts, law 
enforcement, adult vocational education, training, agriculture and 
forestry. The funds must be stretched very thin for all programs. The 
services the Tribe is expected to deliver versus the amount of our 
contracts for these programs does not fulfill the BIA's trust 
responsibility. In addition, the introduction of Welfare Reform has 
placed an unexpected burden on our Education programs.
    Our unmet identified needs total $2,469,207, as shown: $40,000 
increase for scholarships; $40,000 increase for fire protection--the 
Tribe currently loses 98 percent of all structure fires because of bad 
equipment, inadequate communications and remote fire stations; $115,900 
increase for tribal courts--the Tribe's court caseload has increased 
fourfold in two years; $585,307 increase for UCUT--significant funds 
are needed to maintain existing projects and implement new projects; 
$588,000 increase for Midnight Mine reclamation--the Tribe needs the 
technical expertise to adequately protect our reservation resources; 
$100,000 increase for Lake Roosevelt management--the documented needs 
falls short by this amount; and $1 million for the thirteen Columbia 
Basin tribes to participate in Columbia River Basin governance.
    We ask the Subcommittee to support the President's proposed 
increase for TPA and to add more if possible to this account which 
targets spending at the local level. An across-the-board ten percent 
increase over the President's budget would be of great benefit to all 
tribes nationwide.
Tribally Controlled Community Colleges Act
    The President's budget requests an increase of $5.5 million for 
operating grants for the 26 Tribally Controlled Community Colleges, for 
a proposed fiscal year 1999 level of $35.4 million. The Spokane Tribe 
supports an additional increase of $2 million to $7.5 million. We 
believe this minimum amount is necessary to maintain stable and 
productive colleges on Indian reservations. The Spokane Tribal College 
is in its early stages of development. We are proud of our 
accomplishments to date and look forward to full participation in the 
TCCC's program in the near future.
Johnson O'Malley; Scholarships
    The Spokane Tribe requests increased funding for the Johnson 
O'Malley program at the fiscal year 1995 level of $24 million. Fiscal 
year 1999 request is $18 million. We support the fiscal year 1999 
request of $29 million for scholarships, which is an increase of 
$488,000 over fiscal year 1998.
Upper Columbia United Tribes (UCUT)
    The primary purpose of the UCUT program is to mitigate the harm to 
fish and wildlife caused by the construction and operation of 
hydroelectric facilities on the Columbia River and its tributaries. 
UCUT has helped the Northwest Power Planning Council incorporate in its 
decisions the fundamental importance of fish and wildlife resources to 
the religious, cultural and economic livelihood of the Indian tribes. 
UCUT funds are used to implement, monitor and evaluate fish and 
wildlife plans as well as for regulatory enforcement, planning and 
coordination between State, Federal and Tribal governments.
    The Tribe supports the $5 million for a new water quality and 
watershed management planning program for reservation lands in the 
Missouri, Rio Grande, Columbia and Colorado River basins.
Tribal/BIA Law Enforcement
    The Spokane Tribe supports the President's request for $25 million 
increase for BIA law enforcement we also appreciate the additional 
funds requested for tribal law enforcement in the Justice Department's 
budget. However, we urge that the Bureau remain the primary agency 
responsible for law enforcement in Indian Country.
                         indian health service
    As a general comment, the Spokane Tribe is concerned about the 
inadequate funding base for the Indian Health Service, especially the 
failure in the fiscal year 1999 budget request to include more than 
$130 million in mandatory cost increases for Federal Pay Act costs, 
inflation, population growth and staffing for new facilities. The 
proposed small increase ($2.8 million) for fiscal year 1999 does not 
include increases for inflation, population growth or staffing at new 
facilities and to meet the cost of implementing managed care through 
the IHS system. The Tribe is also concerned about the ongoing need for 
additional resources for construction funds, since many of the clinics 
in the Northwest are outdated, and unable to meet standards for quality 
health care. The fiscal year 1999 IHS budget request also assumes an 
increase in Medicare/Medicaid and private insurance collections 
totaling $25 million to offset the inadequate increase in funding.
    The IHS service unit clinic at the Spokane Reservation serves all 
of the Indians residing on and near the Spokane Reservation. The clinic 
is small and housed in a substandard facility. It is understaffed, with 
not enough doctors, dentists and other needed health personnel. 
Representative Nethercutt, who is the Spokane Tribe's representative in 
Congress, is working with the IHS to obtain modular units to house the 
clinic. We ask the Subcommittee's support for his efforts. The cost 
will be about $500,000. In addition, we would like to begin an assisted 
living program for our elderly citizens through the CHR program at IHS. 
A minimum of $200,000 is needed to establish such a program.
    The Spokane Tribe supports the proposed diabetes prevention 
funding. The actual funds that reach the Spokane Tribe is $35,000. The 
Northwest Portland Area Indian Health Board is working on a 
distribution/allocation formula for the Northwest Tribes. The Spokane 
Tribe also supports the testimony of the Northwest Portland Area Indian 
Health Board in its entirety. We are particularly supportive of the 
request to cover unfunded mandatory cost increases
                         national park service
    The Spokane Tribal Historic Preservation Office (THPO), along with 
fourteen other tribes, has assumed the duties and responsibilities of 
the State Historic Preservation Officer (SHPO) for those lands within 
the exterior boundaries of the Spokane Reservation and all dependent 
Indian communities. The assumption is recognized through formal 
agreement with the Secretary of the Interior through the NPS. The 
amount of funding currently allocated for tribal cultural programs is 
not sufficient to run the THPO. The THPO fulfills federally mandated 
duties and responsibilities of the NPS. The Spokane Tribe strongly 
urges the Subcommittee to consider special set-aside funding for tribal 
cultural programs that at least match or exceed entities with similar 
duties and responsibilities.
                             policy matters
    The Tribe is very concerned about the proposed plan to implement 
the strategic plan of the Office of Special Trustee for American 
Indians, particularly the funds requested in fiscal year 1999 for the 
first phase of the Secretary's proposed settlement of disputed tribal 
trust funds accounts. We strongly urge the Subcommittee take no action 
to implement any part of the proposal until the Tribes have reached 
some agreement on the matter. The Spokane Tribe requests a new 
appropriation of $1 million annually to the BIA Rights Protection 
program for use by the thirteen Columbia River Basin Tribes to complete 
planning and begin implementation of a Columbia River Basin governance 
process. The process will include those 13 Tribes, with the four 
Columbia River Basin States (Idaho, Montana, Oregon and Washington) and 
numerous federal agencies (including NMFS, ACOE, EPA, DOE and DOJ). The 
Three Sovereigns (Tribes, States and Federal Agencies) are developing a 
more effective regional governance process for the Columbia River 
Basin. The Tribes need financial support, consistent with the federal 
trust responsibility, to provide for offices, staff, travel and other 
necessary capability to effectively participate in the Basin governance 
process.
    Finally, I would be remiss if I did not once again remind the 
Congress of its failed obligations to Tribes and our sincerest hope 
that this Subcommittee will begin a corrections process. Since 1975, 
our funding for tribal programs has not kept pace with funding for 
programs that serve other Americans. While BIA education programs 
increased an average of $14.6 million per year from 1975 to 1998, in 
reality, when factored for inflation, these programs actually lost an 
average of $1.4 million each and every year. The Northwest Portland 
Area Indian Health Board reports that between 1995 and 1998, Interior 
appropriations decreased by 6.7 percent while Labor, HHS and Education 
increased by 9.7 percent.
    In addition, there are huge backlogs in federal obligations to 
Indian people, including $200 million in environmental clean-up costs 
for BIA facilities, $1.8 billion for Indian sanitation facilities, $4.8 
billion in Indian roads construction, and $188 million for essential 
maintenance and repair for IHS facilities. There is also a significant 
backlog in construction needs for schools (over $600 million), juvenile 
facilities and jails. The Spokane Tribe strongly urges the Subcommittee 
to consider special set aside funding for roads construction, as this 
is a critical area with shortages nationwide.
    Finally, the Spokane Tribe expects the Subcommittee to observe and 
enforce your rules. Once more, the Tribe appreciates the opportunity to 
submit this testimony today and we look forward to working with the 
Subcommittee during the fiscal year 1999 appropriations cycle.
                                 ______
                                 
   Prepared Statement of Earl Havatone, Chairman, Hualapai Tribe of 
                                Arizona
    Summary.--The Hualapai Tribe of Arizona strongly supports the 
President's budget request for funding for Indian tribes through the 
Historic Preservation Fund administered by the National Park Service. 
The President's budget request for the Historic Preservation Fund 
includes two items for tribes: (1) the existing program of grants-in-
aid to Indian Tribes, for which the President's budget requests $3.096 
million, an increase of $800,000 over fiscal year 1998; and (2) the 
proposed program of millennium Grants to Save America's Treasurers, in 
which $3 million would be made available to tribal governments.
    Background.--In 1998, the Hualapai Tribe of Arizona became one of 
the first Indian tribal governments in the country to take over 
responsibilities under the National Historic Preservation Act (NHPA) 
that would otherwise be performed by the State Historic Preservation 
Officer (SHPO). Amendments to the NHPA enacted in 1992 authorize tribal 
governments to take on those responsibilities, and so far some sixteen 
tribes have done so, even though the amount of federal financial 
assistance available for tribes is quite limited. The Hualapai Tribe 
was in a position to step forward and take on those responsibilities in 
large part as a result of our participation as a cooperating agency in 
the preparation of the environmental impact statement (EIS) on the 
operation of the Glen Canyon Dam, a project administered by the Bureau 
of Reclamation. The Colorado River is the northern boundary of our 
Reservation, and there are numerous places throughout the Grand Canyon 
that hold religious and cultural importance for our Tribe. The 
operation of Glen Canyon Dam causes impacts on these traditional 
cultural properties. Accordingly, the Bureau of Reclamation provided 
financial assistance to the Hualapai Tribe and other tribes to help 
conduct studies to be used in preparing the EIS. That project funding 
enabled us to establish our tribal cultural resources program.
    Since 1996, our cultural resources program has been funded mainly 
through grants from the National Park Service. This has enabled us to 
accomplish quite a lot, including the enactment of our cultural 
heritage resources ordinance and the establishment of on-going 
relationships with federal and state agencies and other tribal 
governments.
    Need for this funding.--Tribal governments deserve to be full 
partners in our national historic preservation program. The American 
people need tribal governments to become full partners. As more and 
more tribes seek to take on responsibilities like those of the state 
historic preservation officers, the amount of funding simply must be 
increased. The President's budget is a modest request to meet a very 
important need, and we urge you to support it.
                                 ______
                                 
  Prepared Statement of Joseph F. McConnell, President, Fort Belknap 
                           Community Council
    The Fort Belknap Indian Community wishes to thank you for this most 
important opportunity to present a request for special appropriations 
by and for the members of the Fort Belknap Indian Reservation. My name 
is Joseph McConnell, I am the President of the Fort Belknap Community 
Council and a member of the Gros Ventre Tribe. I represent both the 
Gros Ventre and Assiniboine Tribes of the Fort Belknap Indian 
Reservation.
    The Fort Belknap Indian Community is requesting appropriations to 
meet the following goals and objectives. (Attached for your review is 
justification for each goal and objective for which funding is 
requested):
Natural resources
    Land consolidation: $7,250,000--appropriations to FBIC for land 
acquisition and relending to eligible individual members of the 
Community to reduce/eliminate fractionated heirship lands.
    Integrated resource management plans: ($1,789,000) year 1 $489,300; 
year 2 $325,000; year 3 $325,000; year 4 $325,000; year 5 $325--
appropriations necessary to implement the planning requirements of 
Public Law 103-177 entitled Indian Agriculture Resource Management Act.
    Water development: $998,000--appropriations to FBIC for water 
development to stabilize livestock and farming/ranching industries 
through development/improvement of wells and impoundments.
    Boundary/interior fences: $2,770,000--appropriations to FBIC to 
replace 595 miles of boundary and interior fencing at $4,500 per mile 
constructed from 1889 to 1970 and to acquire and install cattle-guards 
at $1,000 each to protect the traveling public.
    Fort Belknap irrigation rehabilitation and betterment project: 
$1,500,000 for fiscal year 1998 to address Lower Main Canal ``A'', 
Drain ``D-1'' and Drain ``D-3'' in accordance with attached 
documentation.
    Historical/cultural/religious center: $350,000. The Fort Belknap 
Indian Community must develop the capability to protect and preserve 
historical/cultural/religious sites and artifacts. We must also expand 
our capabilities on ``repatriation''.
    Rangeland renovation: Historic abuse of the range (grazing) 
resources of the Fort Belknap Indian Reservation, and other 
Reservations, by United States Government Policies and unscrupulous 
livestock operations has resulted in the inability of the land to 
produce forage for which it is capable. One of the major contributors 
to insufficient production is ``clubmoss''. Range Renovation cost 
estimate is $602,976 and deferral cost estimates are $703,776 total 
estimated cost of Range Renovation Project is $1,306,750.
    Irrigation operation and maintenance: $65,000. The Fort Belknap 
Indian Irrigation Project is classified as a Category II Project. Under 
this category, Congress has authorized the partially subsidize of the 
operation and maintenance. This subsidy was not in last year's budget 
for the first time in the projects history and has created a severe 
hardship on the landowners and operators of the Tribe. The Fort Belknap 
Indian Irrigation Project lands are 99.5 percent Indian operated. The 
Tribe requests $65,000 for the category II subsidy for fiscal year 1998 
and in perpetuity. We are also requesting that any delinquent O&M 
assessed to landowners/operators due to inability of the project to 
deliver timely/adequate water or lack of drainage facilities be 
eradicated.
    Municipal, rural and industrial water project feasibility study in 
fiscal year 1999: In fiscal year 1999, the Fort Belknap Indian 
Community shall need Congressional authorization for the Bureau of 
Reclamation to fund a Feasibility Study for a Reservation-wide MR&I 
water project. The Tribes request that the House and Senate 
Appropriations Subcommittee for Energy and Water Development authorized 
the expenditure of $185,000 for a feasibility study for development of 
an MR&I water system for the Fort Belknap Indian Reservation. This 
study shall identify costs and feasibility for the improvement of water 
supply systems for the Reservation to meet immediate public health and 
economic development needs at Fort Belknap.
Tribal courts
    An additional area of major concern to the Fort Belknap Tribal 
Government is that of jurisdiction and the increasing attacks on the 
Sovereign status of the Gros Ventre and Assiniboine Tribes. In an 
effort to up-grade our Courts system to enable us to withstand these 
attacks, we are requesting $868,540 annually for the next five (5) 
years in order to up-grade existing staff, increase professional and 
support staff and provide proper training, legal documents and expert 
witnesses and office support supplies.
Indian Health Service and tribal health
    Funding for the medical care of Native Americans has fallen 
extremely short over the years. While inpatient and outpatient visits 
have increased, the funding has decreased. The President's budget 
request will have severe results if funding for some of these projects 
is not restored. We are requesting your support for the following:
    Hospitals and clinics.--Restore the proposed budget cuts of $9.9 
million.
    Sanitation facilities.--Restore the proposed budget cuts of $5 
million.
    Maintenance and improvement.--Restore the proposed budget cuts of 
$3.8 million.
    Collections.--The proposed requirement includes $25 million to be 
collected from other resources (i.e.: medicaid, medicare, etc.). These 
are funds that may or may not amount to the $25 million that is 
included in the budget. The shortfall would cut into other necessary 
funding. This requirement puts a burden on the field offices to collect 
this amount. Restore this amount and any collections would be used to 
offset this amount.
    Indian self-determination.--The budget proposes no additional 
funding for the ISD Fund. As of September 17, 1997, those on the 
waiting list amounts to $49 million.
    Contract support dollars.--There will be a substantial contract 
support shortfall for the on-going contracts and compacts.
    Pay cost increases.--The only reflect the needs for IHS staff and 
does not include the pay cost needs for Tribes.
    Fort Belknap Indian Reservation has just recently opened a new 
Clinic on the southern end of the reservation, in the community of 
Hays. In addition, a new hospital, located at the northern end of the 
reservation, is in the final stages of construction and hopefully the 
staff will be moving sometime in May or June of 1998. With the new 
Clinic in Hays, the outpatient load is sure to increase. No additional 
funds were made available for staff housing at the Hays Clinic, nor for 
the increase in staff at the new Fort Belknap Agency Hospital. IHS 
Engineering Services estimates the cost to be: Fort Belknap Agency, 
$3,201,000 for 13 units and Hays Clinic, $3,688,000 for 16 units. The 
cost would include the roads, water and sewer, landscaping, etc. In 
addition, we are requesting more funding for the Contract Medical Care 
Program at the Fort Belknap Agency as promised by Indian Health Service 
Staff. With the reduction of hospital beds, the Fort Belknap Hospital 
anticipates and increase in contract medical care. As it is, we are 
always short in contract medical care funds.
    Again I wish to thank you for this opportunity to present to you 
some of the needs of the Fort Belknap Indian Reservation and its 
members. If you require any additional information concerning our 
request, please contact me or a member of the Staff.
                                 ______
                                 
Prepared Statement of Mervin Wright, Jr., Chairman, Pyramid Lake Paiute 
                                 Tribe
    I am the Tribal Chairman for the Pyramid Lake Paiute Tribe of 
Nevada. On behalf of the Pyramid Lake Paiute Tribe, I appreciate the 
opportunity to submit this written testimony to the Senate Subcommittee 
on Interior Appropriations. We express our gratitude for Committee 
support in the past, and respectfully request the Committee to fund our 
Tribe's priorities for fiscal year 1999: High School Construction, 
Water Right Acquisition Program, Judicial Services, Health and Welfare 
Services, Housing Improvement Program, Law Enforcement and Cultural 
Resource Preservation. A brief history will support this request for 
funding.
    Tribal history.--The Pyramid Lake Paiute Tribe is one band of the 
Northern Paiute Nation and is organized under the Indian Reorganization 
Act of 1934. The Pyramid Lake Indian Reservation is the largest Indian 
reservation in the State of Nevada covering approximately 476,000 
acres. Pyramid Lake is the largest terminal lake in the United States 
and has a surface area of 110,000 acres. A prehistoric indigenous fish 
called the Cui-ui (pronounced Koo-uee) has existed in our lake for 
thousands of years, it is the foundation of our traditional culture and 
Pyramid Lake is the only place in the world where our Cui-ui is found. 
We are traditionally known as the Cui-ui Ticutta or Cui-ui eaters. The 
Cui-ui are an endangered species, while another inhabitant fish the 
Lahontan Cutthroat Trout is a threatened species. These two fish 
species were once the primary economic support for our Paiute People.
    The enrolled membership of the Tribe is currently 1,987. Our Tribal 
Government responsibility is to provide primary services to our 
elderly, our children, and the maintenance social order within our 
reservation. Cultural identity is a prevalent matter of importance in 
preserving the status and well being of our past and future 
generations. Education and health care are principle factors requiring 
professional attention and care at acceptable standards of our society 
addressing social ills and additional pressures of our modern day 
society.
Pyramid Lake High School: $8,700,000
    Our high school architectural design is 100 percent complete and 
Congress appropriated $1.8 million in fiscal year 1998 to begin site 
preparation leading to construction completion. Our high school will 
enhance acceptable educational standards of achievement that will 
promote post secondary education promoting the well being our 
reservation community. We are committed to promoting a high standard of 
achievement, while each student entering high school will be provided 
the opportunity to realize the challenge of success and the completion 
of secondary and post secondary educational institutions. Our People 
will be positively impacted in realizing the building of social and 
economic indicators enhancing community based involvement aimed to 
further our ability to educating our youth.
Water Right Acquisition/Water Resources Management: $3,000,000
    The Pyramid Lake Paiute Tribe is seeking the remaining $2.5 million 
to complete its water rights acquisition program. Over the recent 
years, Congress has appropriated $9.5 million for this program and the 
remaining $2.5 million will complete the federal government's 
commitment authorized by 1996 Water Quality Agreement. Under the 
Agreement the United States Department of Interior, on behalf of the 
Tribe, is obligated to purchase $12 million worth of water rights from 
willing water right holders in the Truckee River Basin. Since the 
inception of the Newlands Reclamation Project in 1902 and with the 
construction of Derby Dam in 1908, Pyramid Lake's aquatic habitat and 
environmental structure has been seriously damaged and continues to be 
threatened. The Tribe entered negotiations in 1986 to resolve the long 
history of outstanding litigation and related issues on the Truckee and 
Carson Rivers with upstream and neighboring communities, the States of 
Nevada and California and the federal government.
    We are directly involved with completing final stage of the 
Truckee-Carson-Pyramid Lake Water Settlement Act (Title II of Public 
Law 101-618). However, the management, monitoring and enforcement will 
only begin with achieving and approving this settlement. The Pyramid 
Lake Paiute Tribe is one of five principle signatories of the 
settlement act. As we approach the implementation phase of the 
settlement act, we realize and accept the immense administrative 
responsibility accompanying its implementation. The Tribal Water 
Resources Management Contract will require at least $500,000 in funding 
support for technically advanced operations associated with monitoring 
flows, establishing water quality criteria, scheduling releases, 
managing the accounting of various water supplies and participating in 
any further implementation activities. Our role is critical in 
achieving full satisfaction among the principle parties.
Health Care/Social Services: $2,500,000
    Our health services and social structure on our reservation 
continue to be one of fragile capacity. The Tribe manages its own 
clinic facility, but the bureaucracy surrounding the service absorbs 
much of the funding before actual services can be provided. Service 
units are capable of providing equal, if not more efficient 
administration without incredible Area Office wasteful spending. This 
funding will provide for contract health care services which is used to 
treat Indian patients outside the primary care perimeters. Due to 
contract health services deficits, our patients are suffering increased 
denial of specialty providers as hospitals are refusing to accept our 
patients. Our service unit is forced to transfer funding from contract 
health services to purchase pharmaceuticals, while the Area Office 
budgets increase. Certain unfunded mandates for commissioned corps 
salaries and Area Office costs are crippling our capability to provide 
health care and restrict actual needed medical care.
    Dental services are lacking adequate funding support to accommodate 
the needs of our reservation community. We are limited to providing 
only one day of service per week and our patients are expected to 
utilize surrounding dental care units miles from the reservation. Our 
mental health care needs are severely conditioned by the funding 
disparity within the service unit. Our People deserve the utmost 
attention to address the needs to provide acceptable levels of 
professional clinical services.
    We thank Congress for providing $35 million for prevention and 
treatment of diabetes. We would use this funding amount to supplement 
and increase our ability to address the large alcoholism problem, which 
plagues every sector of Indian Country. Unlike diabetes, alcoholism 
affects the entire family. Alcohol related accidents are the number one 
killer of Indian People under the age of 40 and alcohol related deaths 
are 10 times higher than that of Caucasian populations. Diagnosed 
alcoholism is 10 times greater than that of any other category of 
People. We urge Congress to commit funding support to enhance our 
ability to combat a historical and longstanding problem.
    Our child abuse cases are among the high levels of our society. The 
Indian Child Welfare Act provides abilities to address the needs of 
Indian children, but without adequate funding levels, we are restricted 
to limit services to that of our penal systems. Child placements are a 
high cost to our Tribe, from which we can envision funding for 
pragmatic skills enhancement, parenting skills and family unity 
education programs. Our society has become highly dependent on federal 
services to absorb costs, which at times those costs are not 
supportable. Therapeutic based services provide welcomed intervention 
to families rather than forceful or court ordered counseling sessions. 
A positive approach is the best manner to address the problems related 
to social ills on our reservation. Our People will be the beneficiary 
of these supportable services through this funding.
Housing Improvement Program: $100,000
    Our Tribe has incredible unmet housing needs with the majority of 
our homes built over 20 years ago. Most of the housing is below 
standard living conditions. Our elderly are the sector of our 
population that has lived in such substandard and poverty levels. This 
funding will be used to address housing needs such as water and sewer 
service, renovation, insulation and utility upgrades. HIP grants will 
help us to bring many homes of our members up to a livable standard.
Cultural Resource Preservation: $300,000
    The overall land acreage of the reservation requires an immense 
level of resources to monitor and police areas of sensitivity. 
Uninvited encroachment, vandalism and trespass issues are the primary 
violations on the reservation. The Tribe has the ability to represent 
concerns and issues before federal and state agencies, but does not 
have the financial ability to organize an effort to work cooperatively 
and in conjunction with such agencies. The aboriginal territory of the 
Northern Paiute encompasses five states and crosses many jurisdictional 
boundaries. The Tribe will be responsible for planning and developing 
stringent representative measures to protect and preserve our vast 
amounts of cultural resources.
Law Enforcement: $500,000
    Tribal law enforcement requires having the ability to effectively 
enforce tribal laws and regulations upon many visitors to the 
reservation, which also includes enforcement upon Tribal members. In 
enforcing the regulatory requirements for law and order, fish and game 
and ordinance compliance, this funding will provide a greater ability 
to work cooperatively with federal officials, state officials and local 
jurisdictions. It is important that our tribal government accept and 
support the needs of adequate law enforcement for proper enforcement 
measures to meet community safety needs of our reservation. We also 
want to call the Committee's attention to the lack of investigation 
abilities of our Tribal law enforcement. Many crimes on the reservation 
are not recognized by the Attorney General as important to the United 
States, so many acts of vandalism, arson, theft and property crimes go 
unpunished because the Tribe does not have investigative certification 
from the Bureau of Indian Affairs or any other federal agency.
Judicial Services: $400,000
    Tribal judicial services includes providing court jurisdiction over 
civil and criminal matters occurring within the exterior boundaries of 
our reservation. We conduct both juvenile and adult court on a 
regularly scheduled basis. Much of our violators are tried in civil 
matters, while many are tried in criminal matters. This funding will 
provide for additional costs in locating our entire judicial services 
in a self-contained facility already established on the reservation, 
but aside from the administrative operations on the Tribe. We require 
this funding support for elevating the services of our employee duties 
and responsibilities of our two judges, court clerk, prosecutor, 
defense advocate and probation officer. This will enhance our ability 
to better serve law and order of our reservation.
Policy Issues:
    BIA and IHS Reorganization.--As Congress continues its review of 
the reorganization of the Bureau of Indian Affairs, there are serious 
concerns with respect to the structure of the BIA which provides actual 
services to reservation communities. The structure of the BIA, its Area 
offices and its BIA Agency offices tend to regulate the authority of 
this federal agency. The services provided through the Interior 
appropriation process gets into the system, but normally the Area and 
Agency offices tend to absorb the funds intended for Tribal programs on 
the reservation. It is a matter of reducing the bureaucracy causing 
setbacks, but not cutting funding for services that actually reach 
Indian Tribes.
    The Tribal Priority Allocation (TPA) funding must be increased as 
many of the people based services are in direct association of this 
funding source. The BIA and other federal costs must not be expended 
from this TPA source, as the trust responsibility and regulatory 
compliance is retained within the BIA system. Tribes should not be 
charged with unnecessary costs that is a federal obligation to afford 
its own ability to address its bureaucratic problems without reducing 
needed funding for our TPA programs.
    The IHS is in the same situation. The services are not received at 
adequate levels. It is the Area Office and the Headquarters where the 
bureaucracy absorbs the funding intended to provide services on the 
ground. The purpose or reorganizing the IHS should be viewed as one to 
increase the services at the reservation. It is our recommendation that 
the process of restructuring the IHS not result in reduced funding for 
direct Tribal services. Tribal members are eligible for Medicaid and 
Medicare, but the IHS system offers their services as a supplement, not 
as an addition to the care provided. Although new medications are 
introduced to Indian populations through the IHS, our patients do not 
see the research and study results prescribing safe new drugs to IHS 
pharmacies. As a result, we are treated as experimental subjects while 
our illnesses and diseases are not effectively diagnosed, this is 
unacceptable. Our People cannot be treated as expendable to a 
bureaucracy controlled agency who may not utilize its own services upon 
its own families.
    Sovereign Immunity.--Legislation pending in the Senate, S. 1691, 
which aims to eliminate the sovereign status of Indian Tribes. If each 
member of Congress can expect its representative State to waive its 
limited and conditioned sovereign immunity, this bill may be viewed as 
fair, but until then this is form another form of a coward's attack. S. 
1691 is a meat axe approach to problems that are merely misapplied 
perception of non-Indian communities without merit. In a broad scope, 
this bill will gut Tribal sovereign immunity without protection for 
Tribal authority to govern Tribal affairs. S. 1691 findings are not 
valid and are a blatant disregard to the United States' fiduciary 
obligation to Tribes. This issue is not considerable by any means.
    Trust Responsibility.--The federal trust responsibility is one that 
our People know well and is one that I cannot allow to be overlooked or 
placed secondary to resources of material content. We are People of 
this land, the first People of this land and express our concern for 
equal, if not better, services for our People than has been provided by 
the Congress over the past 20 years. We expect that the concept of 
government to government relations be upheld by the each and every 
federal agency of the Interior Department. As long as we can 
effectively consult with each agency in decision making processes, 
there will definitely be an increased awareness to trust the ability to 
meet our expectations.
                                 ______
                                 
                          DEPARTMENT OF ENERGY
    Prepared Statement of Thomas H. Altmeyer, Sr., Vice President, 
            Government Affairs, National Mining Association
    The National Mining Association's (NMA) member companies account 
for approximately three-fourths of the coal production in the United 
States, over one billion tons annually, and the vast majority of mined 
minerals including iron ore, copper, gold, silver, uranium, lead, zinc, 
and phosphate. The purpose of this statement is to present the mining 
industry's views on fiscal year 1999 programs for the following 
agencies: Office of Energy Efficiency and Renewable Energy, Office of 
Fossil Energy, Energy Information Administration, U.S. Geological 
Survey, the Office of Surface Mining, the Bureau of Land Management, 
Advisory Council on Historic Preservation and the Forest Service.
Office of Fossil Energy
    One of our major challenges as we enter the 21st century will be 
both replacement and expansion of the electric generating capacity of 
our nation. By 2020, according to EIA forecasts, we will have to add 
the capacity to generate up to 1.7 trillion more kilowatt hours than in 
1997 (a 45 percent increase). In the same timeframe, much of existing 
capacity will be reaching its useful life, or must be relicensed. As we 
build new, to replace old and to meet new demands, we must be in a 
position to utilize the more efficient and cleaner technologies that 
DOE is developing through its R&D Programs. NMA supports continuing the 
Federal government's partnership with the private sector as an integral 
part of the foundation for enhanced utilization of our vast domestic 
energy resources.
    Vision 21.--DOE's Vision 21 proposal builds on technology 
advancements already being made by the Fossil Energy Program through 
the integration of ongoing research and development in advanced coal 
gasification and combustion, fuel cells and advanced coal conversion 
technologies. The ``energyplex'' concept incorporated in Vision 21 is 
integral to the effort to make the coal conversion process as close to 
a ``zero emission'' goal as possible by the middle of the next century. 
NMA strongly supports this concept.
    Research and development dollars spent to increase efficiencies of 
utility generating capacity have a greater potential to reduce overall 
energy use (and thus all emissions) than dollars spent to increase the 
efficiency of end use applications. For this reason, NMA supports 
focusing the majority of available research dollars to development and 
refinement of generation technology. DOE funding to continue the 
advanced clean/efficient power systems (advanced pulverized coal-fired 
power plant, indirect-fired cycle, high-efficiency integrated 
gasification combined cycle and high-efficiency pressurized fluidized 
bed) and carbon sequestration technology should be increased by the 
Congress.
    The Clean Coal Technology Program.--The Clean Coal Technology 
Program is a highly successful industry and government partnership 
designed to demonstrate a new generation of innovative coal processes. 
Many of the technologies developed by the program will be an integral 
part of the energyplex as envisioned by ``Vision 21.'' NMA supports the 
budget request to continue the Clean Coal partnership, which to date 
has been funded at approximately a 60/40 private industry to government 
ratio to obtain the multiple benefits derived from coal utilization 
both domestically and internationally.
    Coal Research and Development.--The subcommittee should provide 
adequate funding for coal preparation and direct and indirect 
liquefaction. Advanced coal preparation technologies promise to enable 
the nation to continue use of coal in traditional applications in large 
industrial and electric utility boilers. Development of cost effective 
liquefaction technologies will open new opportunities for high quality 
coal use in turbines for power and for liquid fuels. These systems are 
important both as an insurance policy against the disruption of 
imported oil to the U.S. and a necessary investment in establishing an 
economically viable liquid fuels program.
    National Laboratories and Cooperative R&D Programs.--The Department 
of Energy should continue its emphasis on making maximum use of its 
existing research facilities, including those national laboratories 
which traditionally have not been active in fossil energy. The National 
Laboratory system is important to the future of the mining industry 
steering R&D Programs for more efficient combustion technologies, and 
since the demise of the Bureau of Mines, a research program to enhance 
extraction technologies. Cooperative R&D Programs such as the Western 
Research Institute in Wyoming and the Energy and Environmental Research 
Center in North Dakota have demonstrated value because of their 
potential for near-term payback through commercialization and should 
continue to be supported through the DOE budget.
Office of Energy Efficiency and Renewable Energy
    The Industry of the Future Program.--The research priorities 
developed through this industry/government partnership will offer 
important direction to the Department of Energy, industry and the 
Congress in developing a research agenda in coming years. The mining 
industry is working with the Office of Industrial Technologies to 
develop technology road maps for the mining industry which will be 
completed in the fall of 1998. NMA urges the subcommittee to approve 
the funding level requested by DOE for this program.
Energy Information Administration
    In addition to its value to the nation, the functions performed by 
the Energy Information Administration (EIA) are of significant 
importance to the mining industry. EIA's unbiased analysis and 
independent short- and long-term forecast form the basis for reasoned 
and responsible policy decisions by the Congress, the DOE and other 
government agencies on both the Federal and the state levels. EIA's 
independence and objectivity are extremely important as the nation 
evaluates the merits of the proposed Kyoto Protocol on Climate Change 
and the effects on new energy systems should the protocol be ratified. 
EIA's energy data collection and dissemination responsibilities are 
essential to our industry's ability to evaluate production and market 
trends and to make investment decisions which benefit the nation. NMA 
urges the subcommittee to support the increase in funding proposed for 
the EIA.
Office of Surface Mining
    The Office of Surface Mining's Regulation and Technology 
appropriation should be regularly evaluated in light of acknowledged 
maturation of approved state regulatory programs over the last 20 
years. The mining industry supports the agency's new results-oriented 
oversight system that emphasizes the effectiveness of state programs 
rather than the ill-conceived duplicative regulatory approach to 
oversight. Additional opportunities exist to streamline and reduce the 
number of OSM activities that duplicate state regulatory functions 
including consolidation of existing OSM offices and positions. State 
program grants, technical information processing systems, training 
state personnel, review of state program amendments and electronic 
permitting activities can and should continue to be enhanced as OSM 
streamlines its structure.
    The mining industry supports increasing the Title IV funding for 
these state abandoned mine land programs where priority coal projects 
remain to be addressed. We urge the subcommittee to require continued 
improvements by OSM and states in the efficient use of abandoned mine 
land (AML) dollars for on-the-ground priority, coal projects. Excessive 
expenditures for administration and overhead costs, as well as for 
projects unrelated to AML priorities should be discouraged. The mining 
industry would also note that the coal mining industry continues to pay 
substantially more in AML taxes than is used each year. This disparity 
of excessive revenue over expenditures--more than $100 million annually 
for the last three years--has pushed the cumulative unappropriated 
balance of the AML Fund to almost $1.5 billion.
Bureau of Land Management and the Forest Service
    National Mining Association members are engaged in extensive 
exploration for and development of minerals on public lands. These 
lands are the cornerstone of the nation's mining industry. In turn, 
mining operations on public lands generate taxes and employment. In 
many cases, mining activity is the major source of employment in rural 
communities.
    Absent reform of the Mining Law, the mining industry opposes the 
Administration's proposal to make the annual maintenance fee for mining 
claims on federal lands permanent and to a continuation of a moratorium 
on patenting. The mining industry continues to support legislative 
proposals to amend the mining law and has consistently sought to 
advance economically sustainable modifications including a royalty; 
payment for surface land with a reverter to the Federal government if 
used for nonmining purposes or upon completion of mining; and a claims 
holding fee. Last year, the industry signed a historic agreement with 
the Western states to identify and work toward elimination of 
disincentives to the cleanup of abandoned hardrock mine lands and other 
purposes. Work on the Abandoned Mine Land Initiative (AMLI) is 
proceeding cooperatively under the auspices of the Western Governors' 
Association. Any additional revenues collected from the industry for 
administration of the mining laws should be directly returned to the 
states where the AMLI activity is occurring to assist the ongoing 
effort.
    The mining industry, as well as other natural resource industries, 
is faced with increasing impediments to exploration and use of Federal 
lands. A significant, yet declining, amount of domestic minerals 
production activity is conducted on Federal lands. Withdrawals of land 
from exploration by executive fiat and through moratoria, as recently 
proposed by the Forest Service, coupled with NEPA compliance and 
permitting delays of as long as eight years, are resulting in a marked 
decline in domestic exploration and mine development activity--
particularly on land areas under the control of the BLM and Forest 
Service. A number of major mining companies have significantly scaled 
back or terminated U.S. exploration activities. As a result, our 
nation's ability to continue to domestically produce the 40,000 pounds 
of minerals annually consumed per citizen is being placed in jeopardy.
    The mining industry would suggest that an independent assessment of 
the ramifications of this trend on domestic production and minerals 
availability would greatly benefit policymakers in evaluating current 
and future land use policy. The mining industry recommends that the 
Congress direct the National Academy of Sciences through the Board on 
Earth Sciences and Resources to prepare such an independent analysis on 
an expedited basis.
    Pending submission of such an analysis to the Congress, the 
industry suggests that the use of Federal resources to conduct ongoing 
regulatory activity such as BLM's revisions to the Surface Management 
Regulations, which would duplicate existing state programs, and the 
Forest Service's proposed 30 million acre moratorium on multiple use be 
placed in abeyance.
    Available resources in both BLM and the Forest Service should be 
utilized for permit processing and NEPA compliance including an 
accelerated effort by the Council on Environmental Quality (CEQ) to 
identify and eliminate impediments to the orderly and timely conduct of 
NEPA analysis by the Federal, state, and private sectors. A recently 
completed analysis by the mining industry, which identifies existing 
problems in the administration of the NEPA, has been provided to the 
CEQ, relevant Federal agencies and the Congressional authorizing 
committees.
Clean water and watershed restoration initiative
    The budget proposal highlights its commitment to the Vice 
President's clean water initiatives. In several places in its ``Budget 
in Brief'' the Department of the Interior refers to programs designed 
to clean up abandoned hardrock mines (AML sites). Six million can be 
identified in the BLM request, three million in the USGS request and 
$100,000 in the OSM request have been identified for hardrock AML 
cleanup. Additional analysis of the full budget document may uncover 
additional requests from these and other bureaus. EPA and other 
agencies may have made similar requests. However, history records that 
government agencies compete, rather than cooperate, with each other and 
states in their efforts. The result is that the appropriated money 
never ``gets on the ground.'' Further, efforts to clean up these sites 
are frequently inhibited by barriers and disincentives to state-led 
voluntary cleanups. NMA recommends that Congress urge Interior through 
the USGS, BLM, and OSM and other agencies to participate in, rather 
than circumvent, state-led initiatives to perform cleanups and help 
identify and eliminate the administrative, regulatory, and statutory 
impediments to effective abandoned hardrock mine restoration.
U.S. Geological Survey
    Federal investments in geoscience research and information have for 
decades paid enormous dividends, and the rationale for continued 
support of geoscience remains strong. For example, there is a 
demonstrated need for an integrated national effort to provide 
information about natural resources and geologic hazards. In addition, 
the USGS prepares geologic maps utilized extensively in both the public 
and private sectors. The Survey is the only source for much of the 
statistical data on mining and minerals commodities. This information 
forms the basis for informed policy decisions by government and is 
extensively used by industry, nongovernmental organizations and 
academia. Therefore, NMA strongly advocates that these data collection 
and dissemination activities continue to be funded and carried out by 
USGS in conjunction with state geologists.
Advisory Council on Historic Preservation
    The Advisory Council on Historic Preservation continues to move 
forward on their rule amending their regulations implementing Sec. 106 
of the National Historic Preservation Act. NMA commented on the 
Council's proposed rule in November, 1996, stating that the Council's: 
``* * * attempt to expand its limited role under Sec. 106 in a manner 
that transcends its statutory authority pervades almost the entire 
rule.'' The subcommittee should closely monitor the Council's 
rulemaking activity to ensure that the Council: (1) completes its 
report and allows Congress sufficient time to respond, if necessary; 
and (2) promulgates regulations that do not exceed its limited 
commenting role under Sec. 106.
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
                              introduction
    The Business Council for Sustainable Energy (BCSE) is pleased to 
offer its views on the role of government in support of energy 
research, development, and deployment (RD&D)--as it relates to energy 
efficiency programs at the U.S. Department of Energy (DOE). The BCSE is 
a diverse group of companies and industry trade associations; our 
members include manufacturers, energy producers, suppliers, 
distributors, and energy service companies. The BCSE has Fortune 500 
companies and small entrepreneurial businesses as members. The Council 
supports energy policies and programs that enhance the nation's 
economic, environmental, and national security goals through the rapid 
development and deployment of efficient, non- and low-polluting energy 
technologies.
    The Council is highly supportive of the Administration's fiscal 
year 1999 request for energy efficiency and alternative energy 
programs. The years 1997 and 1998 stand to be watershed years for 
energy policy in the United States due to a convergence of at least 
three substantial events. They include: (1) The international climate 
change negotiations in Kyoto, Japan; (2) The emergence of state and 
impending federal electric industry restructuring; and (3) The 
possibility of Clean Air Act re-authorization. The BCSE believes that 
the least intrusive and most efficient means of addressing domestic and 
international environmental challenges is to promote cost-effective 
clean energy technological solutions. The BCSE supports the view that 
the federal government has an important role in working in cost-shared 
partnership with U.S. industry toward the accelerated development and 
deployment of energy-efficient and alternative fuel technologies.
    The federal government's energy efficiency programs are as diverse 
as the activities that consume energy. Given their breadth, the BCSE 
will not attempt to address all of DOE's energy efficiency programs. 
Rather, we would like to focus on a few programs that the BCSE believes 
illustrate the value of the federal government's energy efficiency 
effort.
                       alternative fuel vehicles
    Transportation is the fastest growing energy consuming sector. Most 
of the forecasted increase in demand for petroleum imports is driven by 
the growing consumption of motor fuels. In 1996, DOE reported that 
approximately two-thirds of all U.S. petroleum consumption and one-
fourth of all U.S. energy consumption are directly attributable to the 
transportation sector. Demand for energy in this sector is actually 
projected to grow faster than approximately two-thirds of all U.S. 
petroleum consumption and one-fourth than the population due to 
increased per capita travel and slower fuel efficiency gains. 
Alternative fuel vehicles (AFV's)--including natural gas and electric 
vehicles--promise to reduce U.S. reliance on imported oil while 
virtually eliminating emissions of criteria air pollutants. The 
Administration has been very active in promoting its Partnership for 
Next Generation Vehicles (PNGV).
                           battery technology
    A key component of PNGV includes advanced battery technologies for 
electric (EV) and hybrid vehicles. DOE has conducted research, in 
cooperation with the Advanced Battery Consortium that has led to 
significant improvements in battery performance. The Ovonic Nickel-
Metal Hydride battery--produced by Council member Energy Conversion 
Devices--has met or exceeded the performance goals set by the 
Consortium, affirming the future market viability of EV technologies. 
Although the technology is ready for market introduction, further 
advancements in battery technology are required before the electric 
vehicle becomes commonplace.
                          natural gas vehicles
    While the BCSE is pleased with the Administration's increasing 
budgets for PNGV, the Council is also very supportive of natural gas 
vehicle (NGV) research. At this Subcommittee's request, the NGV 
industry and DOE entered into a joint five-year research plan. The BCSE 
supports full funding for the Plan. Accordingly, the BCSE supports DOE 
research for engine optimization, tank storage, and infrastructure 
equipment. DOE's emphasis should continue in the industry's priority 
areas of high-fuel use medium- and heavy-duty fleet vehicles. Finally, 
the BCSE continues to be a strident advocate of the Clean Cities 
program and its successful effort to create and expand AFV corridors.
                        combined heat and power
    The BCSE supports the highly leveraged advanced gas turbine, fuel 
cell, and cogeneration research programs being conducted at DOE. The 
Advanced Gas Turbine system offers extremely high efficiencies and low 
emissions. The BCSE believes that clean distributed power generation 
systems will have a remarkable impact in the electric market in the 
coming years. The BCSE supports full funding for both the industrial-
scale and large generation turbine programs. These programs have served 
as a model for public/private partnership. In terms of hybrid systems, 
the gas turbine has great potential for hybrid applications with other 
devices. One option is a natural gas-fired fuel cell/gas turbine hybrid 
system that can use waste heat from the fuel cell to drive the gas 
turbine as a bottoming cycle. The Council supports DOE forays into 
promising hybrid systems of this nature. The Initiative also encourages 
DOE to continue work on microturbine (ten to hundreds of kilowatts 
scale) development under the Office of Transportation programs.
                         fuel cell technologies
    One of BCSE's members, International Fuel Cell/ONSI, has a 
commercially available Phosphoric Acid Fuel Cell (PAFC) on the market 
for dispersed electricity generation. More fuel cells will be available 
in the future in a variety of sizes to fill diverse power-generating 
needs. High-temperature, natural gas fuel cell systems that are 
currently under development may ultimately be able to achieve a 60 
percent fuel-to-electricity conversion efficiency. This is extremely 
favorable compared with the average of 35 percent fuel-to-electric 
efficiency for the mix of generating equipment currently used to supply 
the Nation's electricity. Further development of all fuel cell types 
must focus on refining system designs to reduce costs, improving 
performance, reducing maintenance requirements and developing the 
manufacturing technology needed to achieve a market-clearing price. In 
order for PAFC's to achieve full commercial status manufacturing 
challenges will need to be overcome. However, the lessons learned will 
have a wider application and will make U.S. technology more competitive 
in the global marketplace.
    The two principal U.S. developers of Molten Carbonate Fuel Cells 
(MCFC) are pursuing different paths in the designs of their cells, 
stacks, and power plants. The BCSE supports the diversity of the two-
developer approach. DOE must also play a leading role in initiating MW-
scale demonstrations of the MCFC and Solid Oxide Fuel Cell (SOFC) 
technologies to validate commercial feasibility, build user confidence 
in the technology, and attract the investment needed to build a 
manufacturing capability.
                 heat pumps, gas cooling and appliances
    Natural gas cooling technologies are especially energy efficient 
when measured on a life-cycle and/or full-cycle basis. The societal 
benefits of natural gas cooling accrue during the hours of the day and 
months of the year that correspond to the peak demand for electricity. 
A study by the Oak Ridge National Laboratory in 1994 estimated that the 
domestic and international use of natural gas cooling will create a net 
270,000 annual jobs between 1996 and 2010. This would create and 
additional $8.3 billion in wage and salary income. By investing in 
advanced gas cooling technologies, U.S. industries will also be able to 
capture the growing global market for clean efficient technologies. The 
BCSE is highly supportive of these programs and places great emphasis 
on robust research for the GAX and large commercial chiller programs.
    The BCSE supports DOE's research and training programs on desiccant 
dehumidification devices. Desiccants offer the option of decoupling 
temperature from humidity loads on a building, thus applying exactly 
the amount of energy needed to satisfy each load independently. DOE is 
participating in the improvement of this potential new market by 
studying the properties of newly developed desiccant materials. Further 
materials characterization, combined with analysis of the effects of 
desiccant wheel structure and mass on desiccant equipment performance, 
offer the potential to improve desiccant system economic effectiveness.
    DOE should also continue its research and development of energy 
efficient appliances in residential and commercial buildings, 
particularly those that utilize alternative fuels. There is an inherent 
conflict between national increased efficiency requirements and 
consumers' desire for lower first-cost equipment. Increased-efficiency 
systems, while offering lower energy costs and (usually) lower life-
cycle costs, are increasingly more complex and more expensive than 
lower-efficiency equipment. Increased research is needed to solve this 
paradox between efficiency requirements and consumer desires.
    In addition to balancing the energy efficiency needs of new 
appliances with consumers' demands, DOE should educate consumers about 
the benefits of purchasing high-efficiency appliances, both to 
themselves and the nation as a whole through reduced energy 
consumption. Major appliance manufacturers such as Maytag are willing 
to work with DOE to help promote efforts to encourage consumers to 
replace older appliances with newer and more energy efficient models.
                            utility programs
    DOE also has worked effectively with utilities and power 
authorities to promote energy efficiency. Through voluntary programs 
such as Climate Wise, DOE has obtained the commitment of utilities to 
reduce their emissions of greenhouse gases. Generally, activities that 
reduce emissions also reduce energy use. Climate Wise participants--
such as Council member Sacramento Municipal Utility District (SMUD)--
have premised their programs on sound economic principles. In fact, 
SMUD attributes its aggressive support for energy efficiency as a 
primary reason it has been able to stabilize its electricity rates.
                        standards and insulation
    DOE has played a constructive role in providing educational and 
technical support of building codes and standards such as the Model 
Energy Code and ASHRAE 90.1. These codes and standards--promulgated by 
private-sector organizations--help ensure that our nation's housing 
stock reflects good building construction practices and is reasonably 
energy efficient. In addition, DOE is currently providing educational 
and technical support to help industry implement the guidelines. DOE 
also has provided valuable technical assistance to the polyurethane 
foam insulation industry, helping the industry to find substitutes for 
some blowing agents used in insulation installation. The new 
polyisocyanurate insulation performs as efficiently as the prior 
product.
                       federal energy management
    Finally, the BCSE is extremely supportive of the Federal Energy 
Management Program (FEMP) efforts at reducing federal energy usage 
through the use of energy service performance contracting, reducing 
energy usage while minimizing up front capital outlays. The federal 
government spends over $3 billion annually to light, heat and cool the 
interior of buildings it owns and operates. FEMP's progressive program 
is a model of public/private partnership. Federal facilities, like 
those occupied by private industry, often can be economically upgraded 
and retrofitted, reducing the energy required to provide essential 
building energy services. The BCSE is proud that two of its members, 
Honeywell and Pacific Enterprises, won DOE competitive regional 
solicitations to perform this important work. We believe every agency 
of the federal government should increase its utilization of energy 
service performance contracts to take advantage of this approach for 
upgrading facilities and reducing energy expenditures.
                               conclusion
    The Council recognizes that the Administration's fiscal year 1999 
request for energy efficiency programs represent an increase over 
fiscal year 1998. However, the BCSE believes that the federal 
government's participation in cost-shared public/private partnerships 
aimed at developing cost-effective non and low-polluting technologies 
is the best and least intrusive manner for the government to address 
our environmental challenges.
                                 ______
                                 
     Prepared Statement of Kerry L. Sublette, Sarkeys Professor of 
 Environmental Engineering, University of Tulsa; Director, Integrated 
       Public/Private Energy and Environmental Consortium [IPEC]
 ``train the trainer'': expanding environmental know-how among native 
                               americans
    Damage from past oil production can be found throughout 
historically active oil and gas producing areas of Oklahoma. Perhaps 
one of the most persistent problems is contamination resulting from 
spills or intentional surface discharge of produced water brine. The 
sites of these spills are seen today as scars on the land, devoid of 
vegetation, and highly eroded. In many cases the parties responsible 
for these brine spills can no longer be identified. For example, 
historic brine scars are clearly visible on aerial photos from 
northeast Oklahoma from 1937. Historic brine scars not only represent a 
loss of use of land but also a continuing source of pollution of 
valuable surface waters and groundwater. Many of these brine scars are 
located on tribal lands near public and private sources of drinking 
water. These sources of drinking water are jeopardized by runoff and 
drainage from brine scars carrying brine components. The only way to 
prevent these scars from acting as continuous sources of brine 
contamination is to remediate them. However, local tribal authorities 
rarely have the environmental know-how to remediate these problems 
although the remediation of crude oil spills and brine scars does not 
require expensive instrumentation or highly trained environmental 
professionals. Members of tribal organizations with a high school 
education can be easily trained to do site assessment, site 
remediation, and, where necessary, ongoing monitoring. The major 
equipment required is earth moving equipment. Most tribes have 
equipment of this type currently used for road work and other municipal 
projects. Once trained, members of the tribes can train others to 
perform these remediations.
    The University of Tulsa respectfully requests an appropriation of 
$500,000 for fiscal year 1999 to provide much-needed training in 
remediation and spill response to tribal organizations in areas of the 
State of Oklahoma impacted by past oil and gas exploration activities. 
The ultimate goal of this training will be give Native Americans 
environmental know-how that they can pass on to others.
integrated public/private energy and environmental consortium (ipec)--a 
                      progress report to congress
    In fiscal year 1998, after a three year campaign and the strong 
support of the Oklahoma Congressional Delegation, the Congress provided 
$1.5 million in dedicated funding for the Integrated Public/Private 
Energy and Environmental Consortium (IPEC), for the development of 
cost-effective environmental technology and technology transfer for the 
domestic energy industry. The funding was provided in the fiscal year 
1998 appropriations bill for the Environmental Protection Agency (EPA). 
As envisioned and proposed by the consortium, State-level matching 
funds have been pledged to support IPEC, creating a true Federal-State 
partnership in this critical area.
    IPEC officers have met with the Agency and are working to satisfy 
all of EPA's internal requirements for funding as a research center. 
Although it will be some months before IPEC finalizes a grant with the 
EPA, IPEC is proceeding in our solicitation and review process so that 
we will be in a position to fund projects as soon as funds are made 
available. We have solicited research proposals, formed our Industrial 
Advisory Board, and had all proposals evaluated by the IAB for 
relevancy to our mission. Of 36 proposals received thus far, five have 
been approved by the IAB to proceed further in the evaluation process. 
So you can see our IAB takes its job very seriously.
    Although IPEC's close ties to the independent sector of the 
domestic energy industry have resulted in a strong working relationship 
with the National Petroleum Technology Office in the Office of Fossil 
Energy, IPEC continues to have broad applicability across the 
Department of Energy. For example, IPEC is in the second year of a 
major three-year effort to support risk-based regulatory decisions at 
hydrocarbon-contaminated sites. This work is funded by the Biological 
and Environmental Research (BER) Program of DOE ($973,000). Further, as 
I noted previously, IPEC's Industrial Advisory Board has thus far 
approved five research topics as relevant to our mission. Of these 
five, four concern bioremediation of contaminated soils using plants 
and microbes, issues relevant to the missions of both FE and BER.
Fiscal Year 1999 Office of Fossil Energy Budget Request
    In its presentation of its fiscal year 1999 budget request, the 
Office of Fossil Energy proposes a significant increase in fiscal year 
1999 for the development of technologies that decrease the cost of 
effective environmental protection and regulatory compliance. These 
goals are certainly consistent with those of IPEC and we endorse the 
proposed budget increase. However, the fiscal year 1999 proposal 
eliminates funding for downstream (i.e., refining) processing 
technology. The Nation needs to continue to improve the economic 
viability of our remaining refineries and prevent further lost of 
domestic refining capacity. Therefore, IPEC urges the Subcommittee to 
continue funding of this vital research in fiscal year 1999.
                                 ______
                                 
  Prepared Statement of Kateri Callahan, Executive Director, Electric 
                        Transportation Coalition
                       introduction and overview
    This testimony is presented on behalf of the Electric 
Transportation Coalition (``the Coalition''), a national, non-profit 
organization of electric utilities, automobile manufacturers, state and 
local governments and other entities that have joined together to 
advocate greater use of electricity as a transportation fuel. (A 
membership list is attached.) A principal activity of the Coalition, 
which was formed in 1989, is to encourage the adoption of incentive-
based policies and programs to support the development of a widespread 
and sustainable market for electric modes of transportation.
    The Coalition believes the role of the federal government, in 
partnership with industry, is four-fold. First, to continue to 
participate in efforts to advance the state of electric transportation 
technologies through programs like the United States Advanced Battery 
Consortium (USABC); second, to join industry in the test and evaluation 
of the latest electric vehicles technologies through programs like the 
Department of Energy (DOE) Field Test and Evaluation program; third, to 
work with communities and industry to assure deployment of 
infrastructure required to support the convenient and safe operation of 
EV's; and fourth--and perhaps most important at this stage in EV 
commercialization--to use the purchasing power of the federal 
government to ``kick start'' the market for EV's through acquisition of 
commercially-available products for use in federal agency fleets. The 
Coalition requests that the Subcommittee provide funding to a number of 
DOE EV-related programs, as detailed below, to assure that the federal 
government is a full partner with industry in introducing technology 
that can further the national policy objective of increasing the use of 
clean, domestically-produced, alternative fuels--like electricity--
within the transportation sector.
                     industry goals and objectives
    Three years ago, the Coalition adopted a strategic business plan to 
assure the successful commercial launch of electric vehicles (EV's). 
The plan, known as the ``EV Ready Market Launch Framework'' calls for 
the building of a partnership between the auto industry, the electric 
utility industry, the federal government and several key communities 
around the U.S. to establish the basis for a long-term and sustainable 
market for EV's. The goal of our plan is to demonstrate the viability 
of EV's through the successful deployment of up to 5,000 EV's in ten 
urban areas.
    To achieve this goal, the Framework focuses on preparing the 
infrastructure systems in the ten target communities to support 
electric vehicles. Under the plan, ``infrastructure'' is defined to 
encompass not only charging systems, but also financial and non-
financial incentives, training, code and standard modifications, and 
public awareness.
    The six principal elements of the Framework, which are intended to 
direct and guide industry and government in efforts to launch the EV 
market are: Initiation of a commercial demonstration of up to 5,000 
EV's in up to ten areas throughout the U.S.; Government (federal, state 
and local) purchase an agreed-upon number of EV's; Utilities in 
selected areas purchase an agreed-upon number of EV's and secure 
investment of up to $2,000 per vehicle for charging infrastructure; 
Vehicle manufacturers will provide, and support the sale of EV's to 
selected areas; Auto and electric utility industries will seek a 
$10,000 per vehicle government incentive to offset the initial 
incremental cost differential for EV's; and, Auto and electric utility 
industry will seek to ensure that one-half of the vehicles placed 
through the Framework are equipped with advanced batteries and/or other 
enabling technologies.
          role of doe in meeting industry goals and objectives
    A number of the on-going DOE EV-related programs are providing 
critical support to a number of areas that are key to the success of 
this new, efficient and clean transportation technology. These DOE 
programs complement, and augment, other work that is being undertaken 
by industry separately or in partnership with other federal agencies. 
If fiscal year 1999 appropriations for these DOE programs are 
significantly reduced or eliminated, the requirements for funding would 
fall to other parties who may not be able to increase investments even 
further in order to move this technology into the marketplace.
         the united states advanced battery consortium (usabc)
    The Coalition urges support for the funding level of $7 million 
requested by the Administration for the USABC. (In fiscal year 1998, 
the Congress appropriated $15.8 million to this program.)
    The USABC is a battery research and development program, critical 
to the advancement of EV's. Full-size battery packs and their 
components, such as cells and modules, are being developed through 
research contracts and then tested by the developers, U.S. automobile 
companies, and national laboratories. Battery packs also have been 
installed in prototype EV's being operated at electric utilities and 
testing facilities of U.S. automobile companies.
    It is important to note that without the limited federal assistance 
already invested, the advancements in battery technology accomplished 
to date through the USABC probably would not have been achieved. 
Individually, companies cannot, or are unwilling to, make the 
significant investment required to conduct advanced battery research. 
Largely as a result of the USABC partnership, all three domestic 
automotive manufacturers have announced that nickel metal-hydride 
batteries will be offered in limited numbers of EV's beginning later 
this year.
    The majority of fiscal year 1999 funding will be directed toward 
long-term, lithium-based battery research; however, the Coalition urges 
the USABC to consider using some of the funding being sought for the 
program to help ``buy down'' the purchase price of early-to-market 
nickel metal-hydride batteries.
     funding for the hybrid propulsion systems development program
    The Coalition supports efforts underway by industry and by the 
federal government working with industry to develop a consumer 
attractive, ultra-low emission vehicle with high fuel economy. While 
continuation of the Department's Hybrid Propulsion Systems Development 
Program is supported by the Coalition, it should be noted that 
international and domestic auto manufacturers appear to have stepped up 
individual efforts to develop hybrid electric vehicles. Indeed, as of 
the end of 1997, Toyota began selling hybrid electric vehicles in Japan 
for approximately $17,000 per vehicle.
    The Coalition urges the Department and its partners to review the 
interim and long-term goals of the program to determine whether 
modification to the goals and/or scope of work is required given the 
new hybrid electric vehicle availability dates announced by the 
automotive industry. (Currently, the interim goal of the hybrid 
propulsion program calls for completion of production feasible hybrid 
propulsion systems that can double the fuel economy of passenger 
vehicles, compared to 1995 models, by all three domestic auto 
manufacturers by the year 2000. The long-term goal is to develop a 
production prototype hybrid electric vehicle, which will meet the PNGV 
goal of 80 miles per gallon, in the year 2004.)
       funding for the vehicle field test and evaluation program
    The Coalition urges the Subcommittee to fund the Vehicle Field 
Test/Evaluation program at $5.45 million, or $2 million above the level 
recommended by the President. The program provides critical federal 
support to industry efforts to test, evaluate and undertake fleet case 
studies of electric vehicles manufactured by original equipment 
manufacturers. Two test teams, known as ``Quality Vehicle Test Sites 
(QVTS)'' have been selected under the program to establish a uniform 
set of procedures to be used in undertaking baseline performance, 
reliability and fleet testing of EV's and for the conduct of such 
testing on EV's as they become available.
    Importantly, some of the funds made available in fiscal year 1998 
through this program are to be used by the Department to acquire, and 
to assist other agencies in acquiring, electric vehicles for use in the 
federal fleet. DOE intends to focus federal acquisitions of electric 
vehicles on those equipped with advanced batteries that have been 
developed through the United States Advanced Battery Consortium. The 
additional $2 million in funds being requested by the Coalition for 
this program can allow the federal government to acquire at least 500 
EV's as part of its obligation, under the Energy Policy Act of 1992 
(Public Law 102-486), to transition to the use of alternative fuel 
vehicles (AFV's).
    An announced goal of the Department for fiscal year 1999 is to add 
15,000 AFV's to the federal fleet. (Generally, the federal government 
acquires roughly 40,000 to 50,000 vehicles annually.) Currently, the 
federal government operates only about 150 EV's in its entire fleet of 
more than 400,000 vehicles. Further, current 1998 federal agency 
acquisition plans indicate that there may be no more than 200 EV's 
operating in the federal fleet by the end of 1998 unless further action 
is taken.
    The Coalition appreciates the Subcommittee's position that all 
costs for AFV's should be borne by the federal agency acquiring the 
vehicles. However, we believe that in the instance of electric vehicles 
an exception to this tenet is warranted for the following reasons:
    First, electric vehicle technology has largely been developed 
through industry and DOE partnerships. The federal government, 
principally through this Subcommittee, has invested significant funding 
into the development of this technology; these investments cannot 
provide a return unless the product (EV's) are commercialized. ``Early 
adopters'' who are willing to try new products, and pay a premium for 
the technology, are key to building volume (thereby lowering costs) and 
attracting infrastructure and technology improvement investments 
(thereby improving market potential). The federal government, using its 
purchasing power, is an extremely important ``early adopter'' market.
    Second, electric vehicles, if successful in the market place, offer 
significant environmental, energy security and energy efficiency 
benefits. Even given the emissions from power plants that result from 
the creation of the EV ``fuel''--electricity--EV's offer significant 
reductions in VOC's and NO<INF>X</INF>, the major precursors to ozone. 
Further, EV's--which are highly efficient in their use of energy--offer 
the potential to significantly reduce transportation-related greenhouse 
gas emissions. And, finally, at a time when the U.S. is importing more 
than one-half of the oil it consumes, EV's offer the advantage of being 
domestically-produced, from a wide variety of fuel feedstocks.
    The President, through an Executive Order (E.O. 13031) directing 
federal agencies to convert agency fleets to AFV's, has recognized the 
need for DOE assistance to the agencies in order to initiate the use of 
EV's within the federal fleet. The President has directed DOE to 
provide financial assistance of a limited amount (no more than $10,000 
per vehicle) to agencies that choose to acquire EV's to fulfill some or 
all of their vehicle acquisition requirements.
    We are respectfully requesting that the Subcommittee provide 
relatively modest funds ($2 million) to allow the DOE to assist federal 
agencies in acquiring a limited number of EV's. These federal 
acquisitions will be matched--and exceeded--by electric utility 
acquisitions. And, if the industry is successful in reaching the target 
level of acquisitions for calendar year 1998--3,250 vehicles into no 
more than 10 communities, the Coalition believes we will be well along 
the way toward development of a sustainable market for EV's in the U.S.
            other department of energy programs of interest
    In addition to the programs outlined above, the Coalition also 
supports funding to a number of other alternative fuel-related programs 
administered by the Department of Energy.
    To assure that the marketplace is prepared and receptive to new 
forms of transportation like EV's--especially in the ten Market Launch 
communities--the Coalition strongly encourages full funding, at the 
levels requested by the Administration, of DOE's programs designed to 
create an infrastructure for alternative fuel vehicles, including 
electric vehicles, and to build public awareness and confidence in 
these new modes of transportation. These funds include $6 million for 
the Clean Cities initiative; $2 million for infrastructure, systems and 
safety activities; and, $1.3 million for EPAct replacement fuels 
programs. These outreach, education, organization and infrastructure 
deployment activities by DOE encourage investment by industry and help 
to build market acceptance for alternative fuel vehicles.
                               conclusion
    1998 and 1999 are critical junctures in industry's efforts to 
determine the type(s) of vehicles that will be used in the 21st 
century. The automotive manufacturers, government and the electric 
utility industry have focused upon electric drive systems because of 
their efficiency, environmental profile and flexible use of fuels. The 
automotive industry has begun to introduce the first generation of this 
technology--battery-powered electric vehicles. This Subcommittee can 
play an important role to assure that we can capture the full return on 
investments made to date, and realize the national benefits that will 
accrue from widespread use of EV's by providing adequate levels of 
fiscal year 1999 funding to the important industry and government 
partnership programs to advance EV's that are currently administered by 
the Department of Energy.
                                 ______
                                 
 Prepared Statement of James A. Beck, President, Seneca Resources Corp.
Introduction
    Chairman Gorton and members of the panel, I appreciate this 
opportunity to testify before you. My name is James Beck, President of 
Seneca Resources Corporation (``Seneca Resources''). I am pleased to be 
here today to represent the interests of Seneca Resources regarding 
payment for drainage in the West Delta Field. Congress, under Title IV 
of Public Law 105-83, the Department of Interior and Related Agencies 
Appropriations Act, 1998 (``the Act''), provided that the drainage 
compensation would come from the newly created Environmental 
Improvement and Restoration Fund (``the Fund''). The purpose of my 
testimony is to propose methods of payment from the Fund or by other 
means that would provide the most cost effective disbursement mechanism 
to satisfy this $32 million obligation.
    Seneca Resources and the State are innocent parties that suffered 
substantial economic loss when they were drained for many years by an 
offsetting federal lease at West Delta. Even though the drainage was 
improper and the Minerals Management Service (``MMS'') controlled a 
mechanism to prevent this wrong, the Secretary of the Interior at the 
time allowed it to happen and took no action to stop it. Both Seneca 
and the State pursued a number of measures to end the drainage but were 
unsuccessful. Although the MMS disputed the drainage occurrence and 
amounts, a Congressionally appointed Independent Factfinder confirmed 
that drainage had in fact occurred and determined its magnitude during 
the period under study. Since the Independent Factfinder's study 
covered just a three-year period, the $32 million obligation that 
Congress has recognized represents only a portion of the resources that 
were drained. Drainage continued after the study was published.
    We are pleased that Congress, through this legislation, has again 
acknowledged the government's obligation to appropriate the funds 
authorized by Section 6004 of the Oil Pollution Act of 1990 (``OPA 
1990''). Seneca Resources, in cooperation with the State, hopes to work 
with Congress to bring the West Delta Field drainage issue to a close 
through the fiscal year 1999 appropriations process. It would appear 
that the newly established Fund is the intended vehicle from which to 
obtain the compensation. However, if the Fund is somehow not the right 
vehicle, then we respectfully request an appropriation of $32 million 
be made in fiscal year 1999 to pay the settlement. In addition, Seneca 
Resources is willing to explore other options that might be available, 
such as Outer Continental Shelf (``OCS'') royalty relief.
    My testimony includes some background on the issue and discusses 
how the Fund may most efficiently compensate the State and its lessees, 
including Seneca Resources, for oil and gas drainage in the West Delta 
Field.
Company Overview
    Seneca Resources is a natural gas and oil exploration and 
production subsidiary of National Fuel Gas Company (``National Fuel''). 
National Fuel, incorporated in 1902, is an integrated natural gas 
company with its corporate headquarters in Buffalo, New York. The 
company has three major business segments: exploration and production 
and other non-regulated activities, utility operation and pipeline and 
storage. Seneca Resources is active onshore in Alabama, California, 
Louisiana, Michigan, New York, Ohio, Pennsylvania, Texas, and Wyoming. 
In addition, we operate offshore platforms in the Gulf of Mexico off of 
Louisiana and Texas.
History of West Delta 17/18
    In August 1985, the State's lessees and Federal lessees began to 
produce a natural gas field in the West Delta region of the Outer 
Continental Shelf (``OCS'') that underlies both Louisiana and Federal 
waters. In November of 1985, the State's lessees began to notify the 
MMS that a federal lessee was draining the West Delta field at the 
expense of the State's lessees \1\. Officials at MMS and the Department 
of Interior (``DOI'') disagreed with the lessees, the Governor of 
Louisiana and the Louisiana Congressional delegation regarding the 
availability of relief.
---------------------------------------------------------------------------
    \1\ EDC suffered no drainage losses because it also owned an 
interest in the Federal leases and, therefore, was excluded from the 
drainage calculation.
---------------------------------------------------------------------------
    On April 17, 1986, Louisiana Governor Edwin W. Edwards formally 
notified DOI, pursuant to Section 8(g)(3) of the OCS Lands Act 
Amendments of 1986 (OCSLA) of common reservoirs in the West Delta 
blocks. When the MMS allowed an acceleration well to be placed on 
production, the State and its lessees filed a suit (April 25, 1986) 
against DOI, the MMS and the Federal lessee, seeking to compel the 
Secretary of the Interior into a unitization or other form of royalty 
sharing agreement. On May 22, 1986, the MMS changed its policy of 
cooperation (confirmed May 30, 1986) and resorted back to the outdated 
Rule of Capture, only to the extent that it applied to an adjoining 
State's leases. On December 19, 1986, the Federal Court in the Western 
District of Louisiana held that at West Delta 17/18, the Secretary of 
the Interior was not obligated to cooperate under Section 8(g) of the 
OCSLA.
    On August 17, 1987, litigation was proceeding concurrently with 
that in the West Delta unitization, in the Federal Court in the Eastern 
District of Louisiana. In that case (Clark \2\) the MMS was actively 
asserting its authority to force unitization of adjoining federal 
leases to avoid the undesirable affects that were fostered by the 
application of an unmodified Law of Capture at West Delta. The Eastern 
District Court in that case held that ``* * * the Conservation Manager 
(predecessor to the MMS) intended and was authorized to modify the Law 
of Capture * * *'' and ruled that his ``* * * decision to require 
unitization was a proper exercise of his authority.''
---------------------------------------------------------------------------
    \2\ Clark Oil Producing Co. v. Donald P. Hodel, et. al.
---------------------------------------------------------------------------
    To resolve the dispute between the MMS and the State, the DOI and 
Related Agencies Appropriations Act of 1989 was enacted containing a 
provision (Section 117) that directed the Secretary of the Interior to 
appoint an independent fact finder to determine if drainage was 
actually occurring. On March 21, 1989, Rider Scott, the Independent 
Factfinder, filed the Third Party Factfinder Louisiana Boundary Study 
with Congress. The report found:
  --The State and its lessees had suffered significant drainage of 
        state natural gas and oil resources through the actions of the 
        Federal lessees.
  --Total dollar losses to the State and its lessees at West Delta 17/
        18, in market prices at the time of the drainage, was 
        $18,115,147.16.
  --44 percent of the loss was suffered by the State.
  --56 percent of the loss was suffered by the State's lessees.
Authorization under OPA 1990
    Based on these findings, the Louisiana Congressional delegation 
sought and obtained a Congressional authorization of appropriations for 
compensation. OPA 1990, under Section 6004(c), authorized the 
appropriation of sufficient funds, including interest, to the State and 
its lessees, for net drainage of oil and gas resources as determined in 
the Rider Scott study.\3\
---------------------------------------------------------------------------
    \3\ The amount of compensation authorized is the amount determined 
by a Congressionally authorized third party fact finder, who set 
compensation at $18,115,147.16, plus interest. The Senate 
Appropriations Committee Report on the fiscal year 1991 Interior 
Appropriations bill specified an annual interest rate of 8 percent. 
Interest continues to accrue at $1,449,211.77 per year.
---------------------------------------------------------------------------
Designated Funding
    Last year, Congress reaffirmed the obligation to compensate the 
State and its lessees by establishing the Fund under Title IV of the 
Act, and designating the State and its lessees, together with certain 
federal agencies, as beneficiaries of that Fund.
Conclusion
    In its inclusion of corrective legislation in OPA 1990, Congress 
recognized the improper drainage in the West Delta Field and again 
directed the MMS to employ ``the cooperative development of an area'' 
so as to prevent the harmful effects of unrestrained competitive 
production, including, among other things, ``economic waste, 
environmental damage, and damage to life and property.'' Last year, 
under Title IV of the Act, Congress reaffirmed the need and established 
the Fund from which to compensate the State and its lessees for the 
West Delta drainage. As stated in that law, a portion of this Fund is 
to be used ``for payment to the State of Louisiana and its lessees for 
oil and gas drainage in the West Delta Field.''
    We are pleased that Congress has acknowledged the need to bring 
this matter to a close and are ready to work to make that happen. The 
issue at hand is how to most efficiently accomplish this in a cost 
effective manner to compensate the State of Louisiana and its lessees 
for the drainage that did occur and for which compensation has been 
authorized and reauthorized.
Options for Fulfillment of Obligation
    Congress has three viable options available to satisfy its 
obligation to the State and its lessees.
    The first option is to pay the State and its lessees from such 
portion of the 80 percent of the first year's interest generated by the 
Fund as set forth under Title IV of the Act so as to complete the 
payment in fiscal 1999, and thereby avoid the further accrual of 
interest expense. Presuming an annual interest rate on government 
securities of 6 percent, the Fund would generate $48 million each year. 
This would be adequate to cover the entire $32 million current 
obligation and still provide substantial funds to satisfy needs of the 
four agencies named under Sec. 401(c)(1).
    A second option would be a direct appropriation of $32,607,260 in 
the fiscal year 1999 budget.
    A third option would allow the government to satisfy its obligation 
to the State and its lessees without making use of direct 
appropriations. Seneca Resources pays the MMS on the order of $20 
million a year in OCS royalties for production from some 18 leases.
    Under this option, Congress would direct the MMS to grant Seneca 
Resources royalty relief until the government's obligation to the State 
of Louisiana and its lessees for drainage in the West Delta Field is 
fulfilled from the royalty withheld. From each dollar of royalty 
withheld, Seneca would pay forty-four (44) cents to the State of 
Louisiana and eleven point eighty-five (11.85) cents to the Energy 
Assets lessees.The benefits of this third option are that the impact on 
OCS revenue to the MMS would be kept to a minimum. Also, more of the 
interest generated by the Fund would be available to benefit the four 
agencies for whose benefit it was also established.
    If none of the above options are fully suited in themselves, a 
final option is to have the payments to the State and Seneca Resources 
to come from a combination of the three. We believe that these options 
establish mechanisms that allow for a broad range of needs to be 
satisfied. I would leave it to the members of this panel to determine 
which option would best satisfy the parties involved. It should be 
noted that the State of Louisiana has indicated its support for each of 
these options.
Closing
    In summary, we are pleased that last year Congress again recognized 
the need and established a fund from which to compensate the State and 
its lessees for drainage in the West Delta Field. Mr. Chairman, I thank 
you for the opportunity to testify on this matter and offer my services 
in working with you and your staff in crafting a payment option which 
will satisfy the needs of all the parties involved.
                                 ______
                                 
   Prepared Statement of Donald Mason, President-Elect, Ground Water 
                           Protection Council
    Mr. Chairman, thank you for the opportunity to testify today. My 
name is Donald Mason and I am President-Elect of the Groundwater 
Protection Council and Commissioner at the Ohio Public Utilities 
Commission. Previously, I held the position of Chief of the Ohio 
Department of Natural Resources Division of Oil and Gas. That agency is 
responsible for the environmental safeguards related to oil and gas 
exploration and production, solution mining and the re-injection of 
waste such as produced salt water into geologic formations deeper than 
the deepest underground source of drinking water. Such deep zone 
injections protect which assures the safety of our underground water 
supplies. My testimony today is submitted on behalf of the Ground Water 
Protection Council (GWPC).
    The Ground Water Protection Council (GWPC) is responsible for the 
development and operation of the RBDMS system. The GWPC is made up of 
state oil and gas agencies as well as those that regulate ground water 
and other underground injection control programs. Through the GWPC, the 
states are all working together to protect ground water resources while 
reducing the cost of compliance to industry.
    We would like to thank the Committee for the previous support of 
approximately $750,000 in the fiscal year 1998 budget. The funding has 
given the states the opportunity to develop additional software the 
enables state and local government to make decisions that result in the 
best possible balance of exploration and environmental considerations. 
We, in turn share that information with the industries we regulate, 
many of which are small businesses that would not otherwise have the 
ability to access such accurate information. We ask for continued 
support and assistance to state oil and gas agencies and the 
independent oil and gas industry with continued funding of the Risk 
Base Data Management Systems (RBDMS) last year and would urge the 
Committee to increase funding for RBDMS to $1.5 million for fiscal year 
1999 so we can expand the system to every oil and gas producing state. 
The system is currently operational in Alaska, Montana, Nebraska, 
Mississippi, North Dakota, Ohio and we are installing it in Alabama and 
California. Additional funding would allow each remaining state to 
initiate the program as well. This amount would provide the smaller 
independent oil producers access to this environmental data management 
system. Smaller producers are often the most in need of such a system 
because high regulatory costs hit them the hardest. In addition to 
providing the system to smaller producers, additional funding will 
allow the GWPC to expand the system to include oil field surface 
facilities including tanks, pipelines, and storage units. Before I go 
into detail on the how RBDMS works, I want to make the point that 
states are dedicating their own resources to RBDMS. For example Ohio, 
is using almost $600,000 in state capital improvement and $400,000 of 
operations funding to implement RBDMS. I know all other states are 
planning on using state dollars as well as federal funds. But what the 
remaining states need is a relatively small amount of start-up 
assistance after which time they have shown they are willing to begin 
applying their own resources.
    With past assistance from the U.S. Department of Energy, the GWPC 
assembled a project team with extensive knowledge and experience in 
state oil and gas agency environmental data management to develop 
RBDMS, the only comprehensive, fully relational, PC-based oil and gas 
regulatory data management system in the country. By allowing the oil 
and gas industry to participate in the next phase of development of the 
system, we will assure that it will be useful and effective for them. 
Additional funding at $1.5 million for fiscal year 1999 will be 
mutually beneficial to the private sector and the states by keeping 
environmental compliance costs down.
    RBDMS is one of the best examples we have seen of how industry, 
working with government, can improve both industry production and 
environmental protection at the same time. Included with my testimony 
are endorsement letters of RBDMS as an alternative to costly command 
and control regulatory policies. It is supported by both the regulated 
community and the regulators themselves. Continuing to fund the states 
in this manner allows us to tailor our regulatory program needs to the 
industry which operate in our respective states as each state as there 
is not a good ``one size fits all'' national approach that would work 
as efficiently as a cooperative state effort.
    In summary, the increased funding we are requesting will provide a 
means for the successful expansion of the Risk Based Data Management 
System and will provide the following benefits: (1) improve 
environmental protection, (2) less regulatory and compliance costs for 
producers, (3) better state enforcement of environmental regulations, 
and (4) continued oil production. The remainder of my testimony 
provides a more detailed explanation of how we have used prior funds 
and how we would use the requested increase. Due to its length, I will 
submit it for the written record. Thank you for the opportunity to 
appear before you today.
                                 ______
                                 
          Prepared Statement of General Electric Power Systems
    This testimony is submitted on behalf of General Electric Power 
Systems (GE) for consideration by the Committee in connection with its 
deliberations on the fiscal year 1999 budget requests of the U.S. 
Department of Energy. GE fully supports the Administration's request 
for $43 million through the Fossil Energy budget for the Advanced 
Turbine Systems (ATS) program in fiscal year 1999. DOE's request 
reflects the importance of the ATS program to the nation's energy 
security and environmental objectives. GE is extremely grateful for the 
continuing support of Congress in assuring that adequate resources are 
provided for the ATS program, and welcomes the opportunity to update 
the Committee on the status of the ATS program.
                           ats program status
    As the Committee is aware, the DOE Advanced Turbine Systems (ATS) 
program is a multi-phase, heavily cost-shared program initiated in 1992 
to support the development of the next generation power system for 
utility and industrial applications using advanced gas turbines. In 
1993, GE was one of three companies competitively selected to 
participate in the Conceptual Design and Product Development phase 
(Phase 2) of the utility portion of the ATS program, which is 
administered through DOE's Office of Fossil Energy. In August 1995, DOE 
selected GE as one of two companies to proceed to the Technology 
Readiness Testing and Pre-Commercial Demonstration phase (Phase 3) of 
the utility-scale ATS program.
    In March 1997, DOE issued a Request for Proposals to the ATS 
contractors for a restructured program. Instead of the original 
demonstration phase (Phase 4) of the ATS program, which included the 
siting of the first commercial unit at a host site, the program would 
be restructured to extend the technology validation phase (Phase 3). 
The restructured program will feature full-speed no-load testing of the 
ATS, including design, procurement and installation of unique tooling 
and test instrumentation. Importantly, the restructured program is 
designed to achieve the ATS program's technical goals in the timeframe 
established by the ATS program plan.
    GE responded to the Department of Energy with a proposal for a 
restructured ATS program in July 1997. Subsequently, GE submitted a 
final revised proposal to DOE in December 1997. Negotiations with the 
Department regarding the restructured ATS program concluded in late 
March with the execution of a cooperative agreement for the revised 
Phase 3 of the ATS program.
    The new cooperative agreement reflects the continuing commitment of 
GE and DOE to the ATS program. The central goal of the ATS program--
producing technology by 2000 that is ready for commercial application--
is unchanged. Under the restructured ATS Phase 3, GE will manufacture 
and perform a full speed, no load test on a 60 Hertz machine by the end 
of 1999 at GE's Greenville, South Carolina facility. DOE cost sharing 
is critical to this aggressive schedule.
               benefits to the nation of the ats program
    Energy efficiency.--The goal of the ATS program is to achieve fuel-
to-electricity efficiencies of 60 percent or greater, resulting in 
significant reductions in fuel consumption.
    Lower electricity costs.--These fuel savings will, in turn, lower 
electricity costs, benefitting the competitiveness of U.S. industries 
in the world marketplace. The ATS program has had as its goal a 10 
percent reduction in the cost of electricity produced relative to 
current (F-level) combined cycle power plants.
    Emissions reductions.--Natural gas fired gas turbines produce no 
particulates, ash, heavy metals, toxins, or sulfur oxides. 
Additionally, the ATS will achieve a significant reduction in emissions 
of oxides of nitrogen, and will further reduce carbon monoxide and 
hydrocarbon emissions relative to the current fossil fueled power 
generation base. The high efficiency of gas turbine systems makes this 
power generation concept the most effective method of reducing carbon 
dioxide emissions from fossil fueled electricity generation.
    Stimulating jobs retention and growth.--Tens of thousands of 
Americans already work to manufacture gas turbines and to provide key 
components. Manufacturing jobs in this industry already have been lost, 
and the remaining jobs are at risk because of uncertain U.S. market 
conditions and stiff international competition. U.S. jobs depend on 
continued U.S. global leadership in turbine technology, which the ATS 
program is designed to support.
                        the technical challenge
    Through the ATS program, the Federal government has challenged 
industry to develop the technology that will enable gas turbines to 
achieve fuel to electricity efficiencies of 60 percent or more, a step 
increase from current levels, rather than merely inching beyond today's 
efficiency limit. The Federal/private ATS partnership is central to 
industry's ability to achieve the technology breakthroughs needed to 
meet this high efficiency level, and to achieve the other aggressive 
technical goals of the program.
    Existing gas turbine technology has benefited from the knowledge 
gained from years of national investments in military aircraft engine 
technologies. Now, however, the need to meet high efficiency and low 
emissions requirements simultaneously for power generation systems in 
2000 and beyond requires the development of a steam-cooled turbine 
generation system. The power generation industry is facing the 
challenge, for the first time, to develop a new technology specifically 
for power generation applications. Government is sharing in this 
challenge through the ATS program.
                         the market opportunity
    Industry and government working together can take on more risk, 
confront bigger technical challenges and speed the development and 
application of technologies which ultimately will gain market 
acceptance and provide potentially large energy, economic, 
environmental and strategic returns to the nation. The ATS program 
offers a prime example of how government technology leadership can 
bridge the gap between market opportunity and current market realities.
    ATS technology ultimately will be supported in the marketplace, 
both domestically and internationally. But despite the important 
benefits of ATS technology, because of the continuing technical risks, 
today the market alone is not sufficient to bring this technology to 
the point of commercial acceptance. The likely users of this technology 
in the U.S., both utilities and independent power producers, are not in 
a position today to make multi-hundred million dollar investments in 
technologies and systems that are not yet proven by actual, full-scale 
operation.
    Industry's R&D risk/reward window is often more focused on the 
short-term than government's, which can address broader, national 
priorities that may not yet be adequately valued in the marketplace. 
With the support of the ATS Program, U.S. manufacturers will be better 
able to compete in the projected international market in electricity 
generating systems--a marketplace in which foreign competitors 
frequently receive significant assistance from their governments. 
Successful completion of the ATS program will position U.S. technology 
for immediate introduction into global markets, and will enable U.S. 
technology to surpass leading foreign competitors, solidifying U.S. 
market share in the worldwide market. U.S. success in the export of 
power generation technologies translates directly into jobs in the 
United States.
    The ATS program will assure that clean power technologies are 
available when required by the domestic market. The same key enabling 
technologies being developed through the ATS program are required for 
both international and domestic applications. Domestic market 
uncertainty resulting from electric industry restructuring makes 
potential investors in new technologies more risk averse, underscoring 
the need for government participation in the ATS program.
                        program accomplishments
    GE's work over the course of the last two years has focused on the 
technologies and components necessary for high temperature operation 
and steam cooling. Major program accomplishments include the following:
  --Completion of full-scale, steam-cooled, first-stage nozzle cascade 
        design validation testing at ATS turbine operating conditions. 
        The first stage nozzle and buckets are the most critical high 
        temperature component in the ATS.
  --GE's design for the gas turbine combustion system permits its ATS 
        to achieve high firing temperatures while minimizing production 
        of oxides of nitrogen. Initial tests of the ``H'' series 
        combustor design have been completed at the component level and 
        in a full-scale combustion test stand that permits testing at 
        full pressure and flow design conditions.
  --GE has also worked with suppliers to develop ``single crystal'' 
        casting technology to provide the high temperature strength 
        required for these very large buckets and nozzles. While single 
        crystal casting has been applied in the aircraft engine 
        context, the size of the castings required for the ATS is 
        unprecedented.
  --Rig testing of the one-third scale H compressor has been completed, 
        to validate the fundamental design approach of the compressor 
        in heavy duty gas turbine operation.
  --Elements of the steam cooling system have been tested extensively 
        in component rigs and utility field test conditions. To resolve 
        concerns about the effects of impurities in the steam on the 
        operation of the cooling system, GE has designed a particulate 
        filter which has been fully validated in testing at an 
        operating combined cycle power plant.
  --GE's activities have also addressed manufacturing technologies 
        essential for the success of the ATS. For example, thermal 
        barrier coatings (TBC) are ceramic coatings applied to parts in 
        the path of the hot gas that flows through the ATS; effective 
        TBC are critical to the steam cooling system. In addition to 
        testing to validate the performance of the TBC in utility 
        customers' current gas turbines under actual conditions, GE has 
        also designed a robot to assure proper application of the 
        coatings. In addition, GE has improved the forging process to 
        allow for production of the largest gas turbine Inconel wheels 
        ever made.
  --GE has also developed testing processes which will permit product 
        quality to be confirmed without necessitating destruction of 
        expensive parts, including nondestructive inspection techniques 
        for single-crystal airfoil production, and new analytical tools 
        to model the startup and shutdown of the gas turbine component 
        of a combined cycle unit in greater detail than ever before 
        required.
    It is anticipated that fiscal year 1999 funding will be used to 
continue testing of full scale components and sub-systems. The 
manufacturing capability for the first test engines will be completed, 
and full speed, no load testing of H series engines will begin.
                               conclusion
    Through R&D investments, the Federal government can assist industry 
in raising its sights and taking on high risk, high payoff 
opportunities that require challenging accepted technological limits. 
This has been, and will continue to be, the effect of DOE's ATS 
program. GE appreciates the Committee's strong support for the ATS 
program in the past, and urges the Committee to continue to provide the 
resources necessary to see this program through to completion in its 
restructured form.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The National Association for State Community Services Programs 
(NASCSP) is pleased to offer testimony in support of continued funding 
for the Weatherization Assistance Program operated through the U.S. 
Department of Energy's Office of State and Community Programs (DOE). 
NASCSP is a membership organization representing state directors of the 
Weatherization Assistance Program and the Community Services Block 
Grant.
    DOE's Weatherization Assistance Program is one of the largest 
energy conservation programs in the nation. Its purpose is to increase 
the energy efficiency of homes occupied by low-income persons, 
particularly the elderly, those with disabilities, and families with 
children, while ensuring their health and safety. The Weatherization 
Assistance Program operates in all fifty states and the District of 
Columbia. It serves between 60,000 and 70,000 households per year.
    Last year, Washington state's Weatherization Assistance Program 
operated through the Department of Community, Trade and Economic 
Development provided energy conservation services to over 5,000 
households. Forty percent of those served were households of elderly or 
disabled persons. The services were delivered by a network of 26 
community based non-profit organizations and local governmental 
organizations. They used the Department of Energy's $2.3 million to 
help leverage over $7 million in non-federal resources. Washington's 
program applies up-to-date technology to determine the most cost 
effective measures to install in each home. This assures significant 
energy use reduction and cost savings for low-income residents. As an 
indirect benefit, the program created or sustained up to 700 jobs and 
infused an estimated $27 million into the state's local economies.
    Oak Ridge National Laboratory recently published a report entitled 
State Level Evaluations of the Weatherization Program in 1990-1996: A 
Metaevaluation That Estimates National Savings. The findings revealed 
that the Weatherization Assistance Program has significantly improved 
its energy savings over the past seven years. In 1996, the Program 
showed savings of 33.5 percent of gas used for space heating up from 
18.3 percent savings in 1989. The greater savings are based in large 
part on the introduction and use of more sophisticated diagnostic tools 
and audits. The report also concluded that the Weatherization 
Assistance Program possesses a favorable cost-benefit ratio of 2.40 to 
1.0. Simply stated, the federal funds provided to support the Program 
have a 140 percent return on investment.
    We believe the Weatherization Assistance Program has an even 
greater national impact and serves national interests by creating the 
technological and programmatic foundation for the individual state 
programs it funds. The Program's contribution in achieving national 
energy and social goals includes: Cleaner air through reduced 
CO<INF>2</INF> emissions--the program reduced CO<INF>2</INF> emissions 
by 63,215 metric tons in 1996 that would otherwise have been released 
into the air; reduced consumption of imported fuels by reducing 
residential consumption; reduced demand on other social programs like 
fuel assistance, housing and health care; and implementation of 
innovative energy conservation technologies and transfer of this 
technology into the private market. These are examples of how the 
Weatherization Assistance Program helps conserve energy and advances 
the national interest.
    Since the 1990 reauthorization in the State Energy Efficiency 
Programs Improvement Act (Public Law 101-440), the rules promulgated by 
the Department of Energy insured greater flexibility in the program 
which has led to even greater energy efficiency and savings in the 
homes of low-income persons. Based on this reauthorization language, 
the program now includes cooling measures. The language also called for 
a review of the factors in the funding formula, leading to the 
development of an entirely new funding distribution method. The new 
formula addresses issues of equity that had long troubled members of 
Congress. With the new funding formula and the inclusion of cooling 
measures, this program is a national energy conservation program. The 
Weatherization Assistance Program can no longer be characterized as a 
cold climate state program, but must be recognized as a national effort 
that acknowledges energy as a commodity that every American household 
consumes.
    The Weatherization Assistance Program, like all successful 
businesses, understands the need for constant change and self-
improvement. When the 1989 evaluation noted that greater savings were 
achieved by the use of more sophisticated auditing techniques, states 
moved immediately to incorporate them. Other important advances include 
the increased use of blower-door directed air infiltration reduction, 
in-depth furnace efficiency analysis, duct system diagnostics, and air 
quality improvement measures. Trained professionals employed by local 
agencies use state of the art diagnostic equipment and techniques along 
with twenty years of practical experience to make homes more energy 
efficient, safer, and more affordable.
    The Department of Energy supports state program efforts to ensure 
that the individuals involved in the implementation of the program at 
the local level have adequate training on the latest and best energy 
conservation practices. The states of New York and Vermont joined 
together to create the Building Performance Institute (BPI) to set 
competency standards and establish a training curriculum that can be 
transferred throughout the country. North Carolina also participates in 
the BPI. California, Virginia, and Nevada are considering joining. 
Illinois uses the state's community college and vocational education 
systems to offer ongoing standardized training. Indiana and Ohio have 
created their own training centers and Pennsylvania supports a training 
center at the Pennsylvania State University School of Technology. 
California sponsors the Stockton Training Center and West Virginia has 
recently opened a regional training center for furnace efficiency 
improvement. In Florida, the Solar Energy Center provides training on 
warm climate weatherization measures. Whichever option is selected for 
transferring technology and skills improvement, the results are the 
same, i.e., trained competent people using the latest technologies to 
provide the most cost effective and energy efficient measures in low-
income households.
    The Department of Energy has invested significant amounts of money 
in energy conservation research through its laboratories. The 
Weatherization Assistance Program has been the testing ground and 
provided a fertile field for the deployment of their research. The Oak 
Ridge National Laboratory developed the National Energy Audit for use 
by local agencies in assessing cost effectiveness of service delivery. 
The National Renewable Energy Laboratory has recently completed an 
audit that can be used to conserve energy in mobile homes. The Oak 
Ridge Building Technology Center is testing the use of storm windows as 
replacement windows for use in warm climate states. The Florida Solar 
Energy Center and the state of Hawaii are working on the development of 
cost effective solar hot water heaters. The state Weatherization 
Assistance Programs throughout the country will be the front line in 
the deployment of these technologies and the citizens of their states 
will be the beneficiaries.
    Equally important, these technologies are tested by the 
Weatherization Assistance Program and from there are adopted by private 
contractors and builders. The rigorous conservation standards of the 
Weatherization Assistance Program are not found in the building 
industry. In fact, the Program has introduced many new technologies and 
best practice protocols to this industry. Many of the subgrantees of 
the Weatherization Assistance Program are private contractors. The 
Program provides the perfect mechanism for transferring technology from 
the public to the private sector thus benefiting not only low-income 
households, but all households. This is one of the less discussed 
benefits of the Program, but an enormously important one nonetheless.
    Testimony of the Weatherization Assistance Program's success in 
delivering professional, competent, and valued services to its 
customers is evidenced by the extensive use of the Program's state and 
local agencies by utility companies as the delivery system for many 
Demand Side Management Programs and local energy efficiency efforts. 
Some examples include:
  --The Public Service Company of Colorado committed $2.6 million to 
        the Colorado Weatherization Assistance Program for use in the 
        1997-1998 fiscal year.
  --In Texas, four utility companies have elected to operate their 
        Demand Side Management programs as an added service through the 
        Texas Weatherization Assistance Program. Their contribution to 
        the Texas Weatherization Program will soon exceed $5 million.
  --In Maryland, five utility companies make an annual commitment of 
        more than $2 million to supplement the Weatherization 
        Assistance Program. These funds are used to expand both the 
        service delivery options for each household and the number of 
        households served.
  --In Florida, a pilot project has been started with the Florida Power 
        Corporation. The utility is providing $800,000 in rebates for 
        energy saving weatherization activities.
    In each of these states, and many others that receive utility 
funding for weatherization activities, the utility funds would not be 
available without the presence of the federal program. The 
Weatherization funding, appropriated by Congress and distributed to the 
states, serves as the foundation on which program core capacity is 
developed and bridges are built to leverage other resources. In 1997, 
the Weatherization Assistance Program leveraged $1.72 for every dollar 
invested by the federal government. More than 60,000 families received 
energy conservation services through the federal investment. More 
importantly, an additional 50,000+ families were served by the Program 
because of the states' ability to leverage resources--an ability that 
would not exist without Congressional support. Simply stated, the more 
funding made available to the states, the more families can be served 
by the states through a combination of federal and non-federal 
resources.
    It is also important to note that many utilities are abandoning or 
severely reducing their Demand Side Management programs in an effort to 
maintain a competitive edge. There is a question as to how long the 
arrangements that states have with utility companies will continue. The 
electric and gas industries are in the midst of changes that will 
affect nearly every American business, institution and household. The 
changes that will occur as a result of restructuring will have a major 
impact on both the Weatherization Assistance Program and the households 
it serves. The funding now being generated will not be available within 
the next few years. It is more crucial than ever that the Program 
retains an economically viable presence and the core capacity of the 
program remains intact to guide the residential energy conservation 
efforts during the next decade.
    The average household served by the Weatherization Assistance 
Program has an income of less than $8,000 per year. These families 
spend between 14 to 20 percent of their income to pay their energy 
bills while an average household spends only 3.5 percent of its income 
on home energy. A 15 percent reduction in energy costs through 
restructuring would only reduce these households' energy burden to 
12.75 percent, still over 3 times the average. The problem facing these 
families must be addressed as both a ``cost'' and ``consumption'' 
energy issue. Utility restructuring will help control costs. The 
Weatherization Assistance Program serves the vital role of helping 
these families control their energy consumption and their burden on 
already limited resources.
    To put national numbers in perspective, last year in West Virginia 
70 percent of the households that were served had annual incomes of 
less than $10,000 and well over half of all households were occupied by 
persons who were elderly or disabled.
    Utility restructuring may present significant future opportunities 
to help the Weatherization Assistance Program complete its mission of 
aiding families in need. These opportunities can only be maximized if 
there is an established network ready to take advantage of the new 
possibilities. The need for a commitment to energy efficiency is 
acknowledged by its inclusion in many of the deregulation proposals at 
the state and federal level. The continuation of the federally 
supported Weatherization Assistance Program will ensure that it remains 
as a catalyst for utility involvement and that low-income energy 
conservation activities remain strong.
    The Department of Energy's Weatherization Assistance Program has 
always been the budgetary, as well as technological, foundation of the 
low-income energy conservation network. Congress has recognized the 
need for and the benefits provided by the Program and has continued to 
provide funding--although sparse in the past three years. The 
Weatherization Assistance Program is a proven federal, state, local and 
private partnership that leverages additional funds, develops and 
transfers technology, saves energy, creates jobs, puts dollars into 
local economies and helps a needy segment of our society. For these 
reasons, we urge you to support the Weatherization Assistance Program 
by approving the Administration's request for $154 million in fiscal 
year 1999.
                                 ______
                                 
    Prepared Statement of the Petroleum Technology Transfer Council
    The Petroleum Technology Transfer Council (PTTC) wants to express 
appreciation for this opportunity to submit testimony on behalf of the 
fiscal year 1999 appropriations for the U.S Department of Energy (DOE) 
Office of Fossil Energy. We strongly support DOE funding at the level 
requested in the Administration's budget.
    PTTC is a national non-profit organization formed in 1994 by 
industry to accelerate the dissemination of exploration and production 
(E&P) technologies to companies that find and produce domestic oil and 
gas. Primary funding for PTTC comes from DOE's Office of Fossil Energy. 
Additional cost-share is provided by several state governments, 
universities, state geological surveys, and industry. Thus, PTTC is a 
prime example of how the federal government can work with industry and 
state governments in a successful partnership to enhance our national 
energy security.
    We would like to make several key points in support of continuing 
DOE's oil and gas programs, especially those that are working to apply 
technologies that benefit the national interest.
    The nation's small independent operating companies are increasingly 
using PTTC to gain access to DOE's research and development (R&D) 
programs. As independents continue to participate in PTTC's network of 
resource centers, workshops and Internet websites, they are able to 
make use of the information and technologies being made available from 
years of federally funded R&D efforts. As a result, DOE technologies 
are helping increase the recovery of U.S. oil and natural gas 
resources--and helping address the problem of 17,000 marginal wells 
being abandoned every year in this country.
    With DOE's support, PTTC has created a multi-disciplinary network 
for transferring practical and cost-effective technological solutions 
to U.S. oil and gas producers. These companies use the technology in 
the field to improve production efficiency and help prevent the 
premature abandonment of the thousands of marginal wells in the 33 
producing states. Also, because PTTC programs are led by independent 
producers, a two-way communication stream has been established on an 
ongoing basis between the producing industry and the R&D community.
    To determine the industry's technology needs, PTTC conducted a 
series of problem identification workshops that covered nearly all of 
the nation's major reservoirs and geological plays. The results were 
complied in a 1996 report that presented a national perspective on the 
technical problems and needs of producers. The report, Technology and 
Related Needs of U.S. Oil and Natural Gas Producers, offered an 
important tool to be used by America's research institutions and 
technology providers to target their R&D efforts to the specific needs 
of independents. PTTC is in the process of updating that report with a 
new survey of the highest-priority technology needs of independents. 
The results are expected to be released this fall, and again will be 
provided to DOE, the national laboratories, and other R&D groups.
Industry and Government Should Share in R&D Investments
    During the last decade, major petroleum companies have been 
consolidating their operations in the U.S. and focusing increasingly on 
overseas opportunities. Many independent producers are struggling to 
survive in the new business environment. At the same time, industry 
investment in petroleum-related technology and R&D is being cut to the 
bone. Thus, DOE needs to continue to invest wisely in its R&D and 
technology transfer programs so that they are focused toward the 
industry's most important needs. This means identifying where advances 
in geosciences and petroleum engineering can achieve the greatest 
return in deferring premature well abandonments and maximizing 
incremental oil and natural gas production.
    Public and private research projects continue to achieve advances 
in petroleum E&P technology that could yield significant national 
benefits in the form of increased domestic production, reduced oil 
imports, and increased public sector revenues. Technology advances 
resulting from ongoing R&D projects promise to amplify these potential 
benefits. Both industry and the public sector stand to gain from the 
development and application of advanced E&P technologies; thus both 
should share in the investments. Government also has an essential 
stewardship role--to ensure that America's domestic resources are 
produced efficiently and with respect for the environment. To achieve 
these goals, industry and government must work together.
Effective Technology Transfer Is Essential to Realize R&D Benefits
    The full economic potential of new and existing technologies will 
not be achieved if producers are not aware of the technology, 
understand its economic potential, or feel comfortable with applying 
it. Nor will it be achieved if known resources are abandoned in the 
reservoir before the technology can be applied. Effective technology 
transfer is essential to achieve the full benefits of this potential 
and to sustain a viable domestic petroleum industry.
    Investments in research and technology are worth little if the 
results are not aggressively transferred and applied to produce more 
oil and natural gas. Preliminary analyses indicate that some 80 percent 
of the potential benefits of improved technologies could be foregone 
without technology transfer. The government has already invested vast 
sums through the years in federally funded research at national 
laboratories, DOE laboratories, universities, and other R&D providers. 
To truly obtain value from this investment, it is critical to continue 
funding the technology transfer and related programs of DOE's Office of 
Fossil Energy.
    PTTC performs various technology transfer functions (workshops, 
resource centers, Internet system, etc.) to inform producers of 
potential technologies to economically address their problems. Where 
solutions are not available, PTTC reports the technology gaps and their 
relative urgency to the R&D community to help guide and focus the 
direction and priorities of public and private research.
    PTTC has helped DOE in targeting upstream R&D efforts on practical, 
short-term projects with immediate applications in the field. As a 
result, informing users of new and on-going research projects 
accelerates the public and private R&D process.
    On a practical level, PTTC has sponsored many workshops for 
independents to transfer the results of DOE programs. One example is 
that PTTC conducted a series of traveling workshops for DOE to 
disseminate results of its Reservoir Class Demonstration Project, and 
additional workshops are expected.
    Further, PTTC technology workshops serve as catalysts for bringing 
new partners into R&D consortia and other industry groups. An important 
benefit is that small independent operating companies (those without 
the staff or budget for R&D) have new access to cost-efficient 
technologies to maximize the recovery of oil and natural gas reserves.
    Although PTTC is coordinated through the national organization, it 
is the local expertise and activities that are the heart of the 
technology transfer program. Each region tailors its activities to meet 
the particular needs of the independent producers in that region. A few 
years ago, DOE designed its outreach program based on the PTTC 
structure and the regional DOE-PTTC teams are working closely together 
to meet industry's technical needs.
    PTTC is also supportive of the Advanced Computational Technology 
Initiative, the Natural Gas Supply Program, the Environmental Program, 
and all aspects of DOE's Technology Transfer Program.
Programs for U.S. Oil and Gas Production
    In less than four years, PTTC has achieved its original goals--and 
gained the credibility within the upstream petroleum industry that is 
vital to success in increasing domestic energy supplies and preventing 
the premature abandoment of oil and natural gas wells. The main program 
areas include:
    Technology workshops are held in various locales to provide real-
world information and solutions to address specific exploration and 
production challenges. In fiscal year 1998, PTTC conducted nearly 60 
technology workshops around the country, focusing on a variety of 
topics from 3-D seismic applications to produced water disposal. In 
fiscal year 1999, many more workshops are planned to focus producer's 
attention on available technologies and information that can help them 
resolve specific high-priority technological problems at current 
prices. The number of workshops is nearly double if one includes the 
functions that PTTC co-sponsors with other organizations such as the 
professional societies, Gas Research Institute, state and regional 
producers associations, etc.
    Regional resource centers are successfully operating as hubs for 
the technology transfer activities in each region. They provide 
operators with access to technical and referral assistance, libraries, 
and computer workstations with software demonstrations and regional 
data covering project histories, field and reservoir data. Commercial 
vendors of technology, software, and other information have been 
enthusiastic about donating their products and services to the PTTC 
resource centers, and helping to train producers in state-of-the-art 
technologies to solve their most important technical problems.
    Internet websites are part of the PTTC electronic network, allowing 
petroleum producers and other users to share information through 10 
regional websites and a national website. It includes an up-to-date 
calendar of events, technical summaries and access to exploration and 
production data, software, and other information.
    Other outreach efforts are conducted through a variety of regional 
technology events, exhibits at industry conferences, and user groups 
for oil and natural gas producers. PTTC also publishes technical 
reports, fact sheets, and other publications aimed toward industry. The 
national PTTC newsletter, PTTC Network News, is published quarterly and 
posted on the national website. Many regions publish their own 
newsletters that inform local producers about technology transfer 
activities and the results of DOE research programs.
Conclusion
    Congress should continue to support an active DOE role in 
petroleum-related R&D and technology transfer. Oil and natural gas are 
strategically and economically critical to national energy security. 
The value of DOE programs in these areas extends far beyond geoscience 
and engineering research. Through technology transfer efforts, the 
results of federally-funded research will reach operators in the field, 
where it can be used to preserve and expand our national resource base. 
We encourage Congress to provide the funding that DOE has requested and 
to continue support for its vital oil and natural gas programs.
    In particular, PTTC delivers demonstrable and measurable benefits 
to the producing industry and to the nation. The investment by DOE in 
technology transfer programs will be returned in multiples through 
incremental federal revenues from new projects and additional energy 
production that will be stimulated by effective technology transfer.
    Thank you for this opportunity to testify, and please let me know 
if we can supply any additional information for the record.
                                 ______
                                 
       Prepared Statement of Joseph N. Darguzas, Sargent & Lundy
    Mr. Chairman and Honorable Committee Members: Thank you very much 
for this opportunity to provide testimony concerning an extremely 
critical issue facing the United States and our energy independence. As 
a Registered Professional Engineer in many states and as a citizen of 
the United States, my professional opinion is that continued Federal 
and State cooperation in fossil energy development and demonstration 
projects is essential.
    For the past several years, the U.S. Department of Energy has 
financially supported the majority of the bench scale and pilot plant 
work necessary for the development of a new Low Emission Boiler System 
(LEBS) that will significantly benefit our economy and our environment. 
The Illinois Office of Coal Development and Marketing has also provided 
support appropriate for the prior project development.
    The technology is now at a state of development where the Prairie 
Energy Project team are ready to build a nominal 80 MW Proof-of-Concept 
Facility at Zeigler's Turris mine near Elkhart. Once this plant is in 
service and the technology demonstrated; no further Government grants 
will be required. However, because of economies of scale, to compete in 
our deregulated utility industry with larger generators; one final 
Federal and State grant will be required.
    We are in support of maintaining the President's $15 million Budget 
line item for Advanced Pulverized Coal-Fired Power Plant development 
for fiscal year 1999. This is the same funding level as fiscal year 
1998 and will allow the benefits of previous years' funding to be 
realized and the final Phase of the Low Emission Boiler System (LEBS) 
project work to be completed.
    Our total project value will be approximately $127 million. State 
of Illinois co-funding is expected to be $25 million with the balance 
from private industry sources. Our company, Sargent & Lundy, has 
invested millions of dollars in research, development and demonstration 
programs. However, we cannot afford to continue without the backing of 
Federal government.
    The Combustion 2000 LEBS project is also important to direct 
stakeholders from Illinois, Massachusetts, Pennsylvania, and Utah, and 
also to the future of U.S. industrial development through lower cost of 
electricity. Benefits are also being seen by our Industry Group from 
Ohio, Kentucky, Florida, Michigan, Indiana, Missouri, Iowa, New York, 
Minnesota, New Jersey, Arizona, Alabama, Tennessee, and Virginia. Of 
equal importance, the advanced, more efficient, low emission 
technologies being developed through this program will be ready for 
commercialization when tougher environmental regulations will be in 
place in the year 2000 and without continuing Government support.
    Funding significantly lower than the above level will cause 
significant project delays that will result in this window of 
opportunity being lost to foreign competition. It would also leave U.S. 
companies at a disadvantage in competing in emerging foreign markets. 
In the end, the overall cost to the Government and the people of the 
United States will be greater.
    Finally, please accept our sincere appreciation for the strong 
support you, the rest of the Committee, and the staff have provided to 
us in the past. We look forward to working closely with you all in the 
future.
                                 ______
                                 
 Prepared Statement of Roger Duncan, Director, Planning, Environmental 
and Conservation Services, City of Austin, TX; Chair, Urban Consortium 
               Energy Task Force, Public Technology, Inc.
    This testimony is submitted for the information of the Subcommittee 
during the consideration of the fiscal year 1999 budget requests for 
the Department of Energy (DOE). The Urban Consortium Energy Task Force 
(UCETF) appreciates this opportunity to update the Subcommittee on the 
progress of the applied energy research and development activities 
being undertaken through the DOE's Municipal Energy Management Program 
(MEMP).
    The UCETF is made up of local government energy policymakers and 
administrators from major urban areas around the United States. 
Currently, 23 jurisdictions are represented on the UCETF: Albuquerque, 
NM; Austin, TX; Chicago, IL; Columbus, OH; Dade County, FL; Denver, CO; 
Greensboro, NC; Hennepin County, MN; Kansas City, MO; Long Beach, CA; 
Memphis, TN; Monroe County, NY; Montgomery County, MD; Orange County, 
FL; Philadelphia, PA; Phoenix, AZ; Portland, OR; San Antonio, TX; San 
Diego, CA; San Francisco, CA; San Jose, CA; Seattle, WA; and 
Washington, D.C. The UCETF is a subgroup of the Urban Consortium, an 
organization of the nation's largest cities and counties joined 
together to identify, develop and deploy innovative approaches and 
technological solutions to urban issues. The Urban Consortium is a 
program of Public Technology, Inc. (PTI), which is the non-profit 
technology organization of the National League of Cities, the National 
Association of Counties, and the International City/County Management 
Association.
    The goal of the UCETF is to act as the premier technology research, 
development and deployment organization dealing directly with the 
energy problems and needs of local government. The UCETF meets this 
objective, in part, by managing an applied energy program that 
leverages federal, state and local funds for the conduct of energy 
research and technology transfer projects. In furtherance of its 
objective of serving as an urban energy laboratory, and with funding 
provided by the Department of Energy, Municipal Energy Management 
Program, the UCETF annually conducts a program of applied energy 
technology research and development, application and replication 
projects that address locally-defined energy needs. Projects are 
competitively selected for funding based on merit, and conducted by 
local government staff, in furtherance of the UCETF mission to improve 
the energy management capabilities of local governments.
    All programs must demonstrate strong partnerships, which in many 
cases include cost-sharing, from the private sector and other 
government agencies, in order to maximize the successful application of 
project results.
    The UCETF also undertakes a variety of technology transfer and 
solution deployment activities designed to widely disseminate the 
knowledge gained through the performance of local government energy 
projects to jurisdictions throughout the United States.
          the ucetf responds to local government energy needs
    Through its focus on annual work programs, the UCETF is in a 
position to respond to changing emphases and issues in the energy 
field. Local governments are in the forefront of the nation's response 
to interrelated energy supply, clean air and, increasingly, energy-
related climate change issues. Larger urban governments in particular 
have found means to utilize energy policy and programs as a tool to 
help reduce the cost of government and stimulate the local economy, 
thereby producing more revenues that can be used to deliver priority 
services to local populations.
    The ability of local governments to respond to new challenges and 
make prudent policy choices in the energy area for the benefit of local 
citizens is directly enhanced through the UCETF program. The program 
responds to needs identified by local governments for specific support 
in addressing and resolving local energy issues. DOE support has 
enabled the UCETF to competitively select and co-fund nearly 300 energy 
projects to address locally-defined energy priorities in jurisdictions 
all across the United States. UCETF projects have focused on energy 
efficiency (increasing the efficiency of energy use in local government 
buildings through new technologies, efficient lighting, improved HVAC 
systems and building controls; efficient building design; increasing 
residential energy efficiency, including ``Green Builder'' guidelines 
and home energy rating systems); energy supply (district heating and 
cooling; biomass district energy systems; fuel cell power; methane 
recovery from municipal landfills; application of renewable energy in 
local communities); reduction of transportation energy use 
(alternatives to conventional transportation fuels, including alcohol 
based fuels, electric vehicles and vehicles operating on compressed 
natural gas, light and heavy duty vehicle applications including fuel 
cells for urban buses, transportation demand reduction, telecommuting); 
and sustainability (emphasizing the linkage between energy, 
environmental and economic development objectives in local 
communities).
              the ucetf's 1997-1998 applied energy program
    The 1997-1998 UCETF program is supporting projects focusing on 
energy as a tool for economic development; issues and opportunities for 
local governments in electric industry restructuring; and strategies 
for environmentally responsible local energy production and usage. 
Concurrently, the UCETF is working to share among local governments the 
knowledge and information necessary to assess the implication of 
changes in the electric utility industry for local governments; 
information on public charging of electric vehicles; and options for 
encouraging renewable energy in local communities. Specific energy 
technology development/application or technology transfer projects are 
underway in the following topical areas:
    Energy and Economic Development.--Energy efficiency activities can 
contribute to creation of a sustainable urban environment. Urban 
governments also have important roles to play in bringing energy 
efficiency technologies and techniques into the marketplace. Urban 
areas are well positioned to serve as testbeds for such technologies, 
as part of an overall effort to increase energy efficiency. The UCETF 
continues to focus on projects that make the linkage between energy, 
environmental and economic concerns in local communities. Hennepin 
County, MN, is developing telecommunications and energy management 
design standards for urban redevelopment projects; Santa Barbara 
County, CA, is developing a system to track and measure economic 
savings attributable to energy efficient development targets attained 
through an incentive program with local developers; Philadelphia, PA, 
will produce model specifications for improvements in traffic signal 
hardware and operations in conjunction with the development of all-
color LED signal displays, which reduce energy usage and maintenance, 
and provide enhanced lighting; and Seattle, WA, will cooperate with 
local developers in the effort to assure the use of sustainable 
development practices throughout the Northwest.
    Municipal Governments and Utility Policy.--Again this year, 
significant attention in the 1997-1998 program is being devoted to 
issues involved in the introduction of increased competition in the 
electricity industry. This issue has the potential to significantly 
influence--for better or for worse--all local governments. But because 
of the breadth and complexity of the issues involved, many local 
governments are ill-prepared to deal with the demands of the changing 
marketplace. Through research projects in jurisdictions around the 
nation, and technology transfer activities, the UCETF seeks to become a 
leading national resource for municipal governments on approaches to, 
and the implications for local governments of, coming changes in the 
structure of the electricity industry. The UCETF is conducting five 
projects focusing on local aspects of the restructuring issue. San 
Jose, CA, is conducing a project to determine how the city can align 
the interests of residents and businesses with opportunities to procure 
increased energy efficiency and renewable energy that may become 
available as the result of the restructuring of the California 
electricity marketplace; Kansas City, MO, is developing a metropolitan-
area wide deregulation strategy, to identify means for the many local 
entities in the Kansas City metro area to maintain local flexibility, 
authority, and environmental quality in a restructured utility 
environment; Chicago, IL, is studying electric load aggregation, and 
will develop an energy supply strategy for five municipal entities in 
the wake of restructuring and legislative action in Illinois to 
introduce competition; Portland, OR, is developing a program for local 
government to serve as a mechanism to assure that the ``benefits'' of 
electricity restructuring are available to renters, small businesses 
and low income families within the community, through consumer 
education, bundling of energy efficiency and renewable energy program 
offers that may be available in the marketplace, and pilot programs; 
and Salt Lake City, UT, will address a key issue in restructuring from 
the local government perspective--potential loss of tax revenues--by 
identifying mechanisms for mitigating revenue impacts.
    Energy Usage and Supply.--Local governments face continuing 
requirements to cut energy usage and costs, and opportunities to apply 
new technologies expressly suited to local climatic conditions and 
utilizing local energy resources. San Francisco, CA, is developing and 
will demonstrate a comprehensive energy efficiency program for office 
machines, including a guide to maximizing office machine energy 
efficiency in an institutional setting; Mayaguez, PR, is developing a 
program to utilize used cooking oil to generate electricity from fuel 
cells, and for the production of biodiesel; Yolo County, CA, will 
address methane enhancement for energy generation through accelerated 
landfill decomposition; and Albuquerque, NM, will evaluate the 
logistical, regulatory and economic feasibility of producing biogas 
(methane) from diverted organic municipal solid waste.
    Technology Transfer.--The UCETF is conducting five projects 
specifically designed to document and transfer lessons learned through 
local government energy programs. Chittenden County, VT, is developing 
a tool kit for municipalities on biomass district energy opportunities; 
Anaheim, CA, is preparing an electric vehicle public charging tool kit 
also aimed at municipal governments, which will complement other DOE-
funded activities to support ``EV readiness'' in cities around the 
nation; San Jose, CA, will utilize the unique expertise of city staff 
in developing a program to encourage the use of renewable energy within 
local governments; Philadelphia, PA, will analyze the issue of 
securitization of ``stranded costs'' resulting from electricity 
restructuring; and Barnstable County, MA, building on its expertise in 
assessing the implications of and preparing for electricity 
restructuring, will implement a community choice pilot project, 
documenting results for the benefit of local governments in other 
states where competition is being introduced.
    In addition to these specific technology transfer projects, the 
UCETF program features peer to peer exchange and dialogue on a variety 
of issues, and is concentrating in particular on effectively 
documenting products available for transfer from prior year programs. 
Specific efforts are underway in several areas to conduct direct 
transfer activities to share widely the benefits of Federally-supported 
energy technology development and application programs. In addition to 
continuing to distribute the primer on electricity restructuring for 
local governments, entitled ``Keeping the Lights On,'' and its 
companion document on power marketing, the UCETF has prepared a 
``workshop in a box'' of information for local government on 
restructuring issues. The forthcoming publication of case studies of 
local government restructuring projects funded through the UCETF/MEMP 
program will also be designed to provide first hand experience in 
meeting the challenges of restructuring to other local governments 
around the country.
                               conclusion
    Local governments are a crucial component of the national effort to 
maintain the United States as the world's leader in developing, 
applying and exporting sustainable, environmentally benign and 
economically competitive energy technologies. The UCETF's activities 
through the DOE Municipal Energy Management program enhance the ability 
of local governments to identify, design and implement energy policies 
that support local economic objectives, including jobs growth and 
retention. The MEMP program offers the nation a proven successful 
method to identify ways that energy technologies can be applied to aid 
in addressing community issues; to share information among local 
governments; and to prepare local officials to respond to the energy 
and energy-related environmental issues in their own communities.
                                 ______
                                 
 Prepared Statement of Dr. Robert H. Trent, Director of the School of 
          Mineral Engineering, University of Alaska, Fairbanks
    I strongly encourage the Subcommittee to support the Department of 
Energy's fiscal year 1999 Natural Gas Research Budget Request of $5.3 
million for Gas-To-Liquids. This appropriation is important for the 
continued development of novel gas-to-liquid (GTL) technologies which 
will enable the utilization of Alaska's vast natural gas reserves, one 
of America's largest reserves of hydrocarbon energy, second only to 
Alaska's Prudhoe Bay oil fields.
    Experts estimate that the United States has substantial remote gas 
reserves (defined as natural gas which cannot be economically brought 
to market in a gas pipeline), including offshore reserves in deep 
waters in the Gulf of Mexico and along the Pacific coast, and most 
significantly, the vast recoverable reserves on the Alaskan North 
Slope. The technically recoverable natural gas resources in developed 
and known undeveloped oil fields on the North Slope total approximately 
38 TCF (trillion cubic feet), and in a recent circular, the United 
States Geological Survey estimates that there is nearly double that 
amount of technically recoverable reserves in undiscovered fields.
    Alaska's challenge for years has been how to economically produce 
and transport its remote natural gas to market in an environmentally 
responsible way within a very competitive international economy. 
Domestic oil production, especially the large fields in Alaska, is on a 
decline, and petroleum imports are projected to exceed 60 percent of 
our needs by 2010. Already, in Alaska, 4 out of 11 (36 percent) of the 
operating pumping stations for the Trans Alaskan Pipeline System (TAPS) 
have been shut down and placed on standby, as the production decline 
continues, the long-term viability of the TAPS is uncertain. Therefore, 
developing a means to recover and transport remote natural gas in 
Alaska is of vital importance to the Alaskan economy, the nation and 
potentially to the future of the TAPS. Unfortunately, commercially 
available technologies are far too costly for reserve owners to bring 
most of Alaska's gas to market.
    A promising technology solution is to convert remote gas to 
transportable liquid products which could be easily delivered to the 
market in the lower 48 states using the existing petroleum 
infrastructure in Alaska, including the TAPS.
    The University of Alaska, Fairbanks, School of Mineral Engineering, 
is proposing to work with the Department of Energy to conduct a 
comprehensive evaluation of various methods for transporting gas-to-
liquid products, commonly called ``white crude,'' through the existing 
TAPS. Utilizing the TAPS for GTL transport will significantly increase 
its operating lifetime. In addition, it will further enable the 
recovery of 1-2 billion barrels of oil from the North Slope, which 
would remain unrecoverable if the pipeline were to be prematurely shut 
down.
    However, gas-to-liquids conversion technology is dependent on 
developing a low-cost alternative to synthesis gas production, the 
first processing step, in which natural gas is converted to a mixture 
of hydrogen and carbon monoxide before being processed further to make 
liquids. Through a team led by Air Products and Chemicals, Inc. of 
Allentown, Pa., the Department of Energy's Natural Gas Research Program 
is sponsoring development of an important new synthesis gas 
technology--referred to as ITM Syngas. This technology is based upon a 
novel ceramic membrane reactor that could significantly reduce the cost 
of syngas production, enabling economic gas-to-liquids conversion. The 
University of Alaska, Fairbanks, School of Mineral Engineering, is a 
participant in the ITM Syngas project team, along with ARCO, Argonne 
and Pacific Northwest National Laboratories, Ceramatec, Chevron, Eltron 
Research, McDermott International (formerly called the B&W Alliance 
Research Center, in Alliance, Ohio), the University of Pennsylvania and 
Penn State. The technology exists at the laboratory scale, and if 
successfully developed, could result in a major step change in the way 
alternative liquid fuels, chemicals, and even hydrogen are produced 
from natural gas. Although the significant progress of the research has 
nurtured considerable optimism for the technology, many technical 
hurdles remain. The ITM Syngas process will require substantial 
development and financial investment by both the private and public 
sectors before a commercial technology can be realized. In response to 
a competitive procurement completed in 1997, the Air Products-led 
project team has committed a 68 percent private-sector cost-share 
toward ITM Syngas development and has also agreed to full payback of 
the Federal funding contribution should the technology be successfully 
commercialized.
    In addition to the direct energy benefits for Alaska and the 
nation, a major reduction in the cost of producing syngas via ITM 
Syngas technology will have a cross-cutting impact on the domestic 
economy; many U.S. industries depend upon syngas as a raw material in 
the manufacture of numerous commodity chemicals and consumer goods, 
such as clean-fuel additives, rubber, polyester textiles, urethane 
foam, plastics, paint, detergents, and fertilizers. Also, cheaper 
hydrogen made possible by ITM Syngas will help the petroleum refineries 
meet increased hydrogen demand for Clean Air Act-driven oxygenated 
gasoline, reformulated gasoline, lower-sulfur diesel fuels and 
upgrading of heavier and high-sulfur crude oils.
    Furthermore, the ITM Syngas technology will have a favorable 
environmental impact on the North Slope due to a substantial reduction 
in the emission of greenhouse gases and pollutants (CO<INF>2</INF>, 
CH<INF>4</INF>, NO<INF>X</INF> and SO<INF>X</INF>). A viable GTL 
technology will virtually eliminate the need for the current practice 
of flaring and will reduce gas combustion requirements for wellhead 
reinjection, all of which are sources of pollutants.
    In conclusion, I would like to restate the importance of the 
Department of Energy's Natural Gas Research--Emerging Processing 
Technology Applications program. This shared investment by government, 
industry, universities and national laboratories in developing new 
energy technology to efficiently use our natural gas resources is 
integral to our nation's efforts to protect our future economy from 
escalating energy costs and to improve environmental quality. I 
strongly believe that new gas processing technologies, such as the ITM 
Syngas technology supported by the DOE, will not only benefit the 
citizens of Alaska, but will also enhance the global competitiveness of 
our industries as we move forward into the 21st century.
                                 ______
                                 
     Prepared Statement of the Council for Chemical Research, Inc.
    Issue.--The mission of the U.S. Department of Energy's Office of 
Industrial Technologies (OIT) is to help U.S. industries realize 
substantial improvements in energy efficiency, waste reduction, and 
productivity. As a leading federal interface for the nation's major 
process industries (chemicals, aluminum/mining, forest products, steel, 
metal casting, glass, and agriculture), OIT funds high-risk, cost-
shared, industry-driven cooperative R&D through the partnerships of the 
``Industries of the Future'' (IOF) program. The leveraging of resources 
represented by this program is an important element to ensure the 
competitiveness of these industries in global markets.
    Position.--The Council for Chemical Research believes that the full 
potential of the ``Industries of the Future'' program can be realized 
through appropriate funding levels and the strategic use of the 
capabilities and facilities of the nation's academic and industrial 
research infrastructure, and the DOE national laboratories. 
Specifically, CCR supports the Administration's fiscal year 1999 
request of $166.6 million for DOE's Office of Industrial Technologies, 
an increase of $30.4 million (including $19 million for reducing 
greenhouse gases) over fiscal year 1998 and a reflection of the value 
of the ``Industries of the Future'' program.
    Rationale.--Industry uses more than a third of the energy delivered 
in the U.S. and spends tens of billions of dollars annually for 
pollution abatement and control. Seven industries account for 82 
percent of the energy used in manufacturing: pulp and paper; steel; 
aluminum; metal casting; chemicals; petroleum refining; and stone, clay 
and glass. These industries also account for more than 80 percent of 
the air emissions and 90 percent of the waste produced by U.S. 
manufacturing. The Office of Industrial Technologies focuses on 
developing innovative technologies to assist major industry sectors in 
becoming more resource efficient and, thereby, more productive and 
competitive, and less polluting.
    The ``Industries of the Future'' framework that OIT has facilitated 
puts ownership for the future of U.S. industry where it belongsin the 
private sectorwhile providing leveraged resources for addressing 
industry's most critical, long-term technology needs. Technology 
roadmapping and implementation efforts provide opportunities for the 
highly skilled scientists and engineers residing in our nation's 
university- and industrial-based research and national laboratory 
facilities to lend their expertise to this process.
    Long-term research to develop enabling technologies for the major 
process industries can create economic value and enhance the quality of 
life. Strategic use of collaborative research teams across industry, 
academe, and government laboratories can positively affect these 
industries and our Nation.
                                 ______
                                 
 NATIONAL ENDOWMENT FOR THE ARTS/NATIONAL ENDOWMENT FOR THE HUMANITIES
   Prepared Statement of the National Assembly of State Arts Agencies
    The National Assembly of State Arts Agencies (NASAA) is pleased to 
submit this testimony in support of funding at $136 million for the 
National Endowment for the Arts in fiscal year 1999, for the hearing 
record of the Senate Subcommittee on Interior Appropriations.
Appropriations Request
    In support of a budget request of $136 million for the National 
Endowment for the Arts, NASAA and the member state arts agencies 
believe that a steady federal commitment is important, as a foundation 
for funding the arts, to enable communities to maintain their artistic 
resources.
    NASAA advocates for federal arts funding, working in partnership 
with state, local and private funding sources, to: enable people in 
communities nationwide an equal opportunity to participate in the arts; 
increase the ability of all Americans, through the arts, to excel in 
education; contribute to a healthy economy; and support innovative 
projects with national significance to enlarge the federal role in 
supporting the arts.
    A basic level of federal financial support is important to the work 
of states arts agencies to serve all Americans. When federal arts 
funding is cut, those reductions in dollars are sorely felt at the 
state and community levels.
Widening Public Access to the Arts
    In 1998, state and federal funds totaling $348.7 million are 
available for distribution through state arts agency-funded projects. 
The state arts agencies are the mechanism for distributing federal arts 
funds equitably throughout the country. Where NEA dollars do not go 
directly to communities in states around the country, the federal funds 
going to state arts agencies do the job. Over 5,600 communities in 
every county, parish and U.S. congressional district receive state arts 
agency grants, using federal and state appropriations.
    Public arts spending is especially important in rural areas, for 
example, which are often artistically underserved due to their 
geographic and economic isolation. To improve access to the arts in 
these areas, state arts agencies direct an aggregate of 30 percent of 
their awards and 12 percent of their funds to non-metropolitan 
grantees. Federal funds from the NEA to state arts agencies for grants 
to underserved areas are an important source of this support.
    Utah.--The Utah Arts Council has created the Alternative Funding 
Resources Program to assist individual artists and small arts 
organizations which increasingly face the need to identify non-
traditional sources of funding, especially in light of recent federal 
funding cuts. The Utah program lends assistance by providing 
information on granting opportunities, assisting in grant applications, 
and working with communities to create new opportunities for 
collaboration. The program, which is the only state-sponsored program 
of its kind in the country, represents the commitment of the Utah Arts 
Council to preserve the presence of the arts within the state.
    State arts agencies use federal dollars to broaden access to state 
and federal funds by regranting public funds for the arts, often in 
partnership with local governments to decentralize grant dollars for 
distribution to smaller community organizations. Regranting invokes a 
multiplier effect in matching funds, which states have capitalized upon 
in recent years by nearly tripling their regranting dollars.
    Presenting and touring grants are another way that state arts 
agencies expand the reach of both federal and state public arts 
dollars. State arts agencies use these grants to expand audiences and 
provide opportunities to experience a wider variety of art forms. But 
for public funding, these opportunities would not likely be available 
for Americans in communities across the country.
Arts in Education
    All state arts agencies, with assistance from the NEA, support arts 
education programs. Artist residencies, curriculum development, teacher 
training are some of the ways state and regional arts agencies 
incorporate the arts into learning to make children better students.
    The NEA's Arts in Education (AIE) grants support programs that make 
the arts basic to the education of students in pre-kindergarten through 
12th grade. AIE money to state arts agencies is regranted locally, 
encouraging both state legislative and local investment in arts 
education programming.
    For years, parents, legislators, civic leaders, educators and 
business owners have been calling for change in our education system. 
Communities are demanding that their schools promote higher student 
achievement, reform the teaching process and improve the environment in 
which students are expected to learn.
    The arts address all of these needs. Educational research shows 
that instruction in the arts improves student achievement. Arts 
programs improve students' communication skills, self-discipline, and 
self-concept. And arts in education produces the kind of resourceful 
and creative problem solvers that employers today prefer.
The Arts Build a Healthy Economy
    Public spending on the arts is a good investment in the economic 
growth of every community in the country. Data gathered from economic 
impact studies conducted by city, county and state governments have 
repeatedly shown that the economic benefits of the arts exceed the 
investment of public support. The nonprofit arts industry alone 
generates $36.8 billion annually in economic activity, supports 1.3 
million jobs, and returns $3.4 billion to the federal government in 
income taxes.
    Cultural development is a vital part of urban revitalization and 
economic development strategies, attracting businesses and new 
residents and generating jobs. Cultural institutions enhance the market 
appeal of an area, encouraging corporate relocation.
    The arts have been the anchor to restore declining downtown 
districts from Charleston, South Carolina, to Providence, Rhode Island, 
to Pittsburgh, Pennsylvania. In community after community are excellent 
examples of adaptive reuse of buildings. Old banks, post offices, train 
depots, churches, jails, city halls, schools, opera houses and movie 
theaters are arts centers, museums and theaters.
    The arts also attract tourism dollars, America's third largest 
retail sales industry. Americans spent $987 million a day on travel and 
tourism in 1995, and that means more jobs and employment possibilities.
    In fact, the nonprofit arts are a major factor in tourism and state 
arts agencies invest in a number of innovative approaches to tourism, 
from publishing cultural guides in Ohio and Arizona, to launching the 
First Night festival in Boston, Massachusetts, to show-casing local 
crafts at tourist information centers in North Carolina and South 
Carolina.
    Washington.--With a grant from the National Endowment for the Arts, 
and in collaboration with the Washington State Department of 
Transportation, the Washington State Arts Commission has produced a 
tour guide and cassette tape documenting both the visible (geology, 
architecture and geography) and invisible landscapes (music, songs and 
stories) for those traveling through central Washington on a designated 
State Heritage Corridor. The 38-page booklet, with the history of the 
land, the geologic forces that shaped it and the people who have lived 
there, and the cassette connect the places along this route with their 
stories and songs. The taped documentation has gathered songs from 
places that range from churches to a tire shop, as well as stories, 
poems and sermons told by local residents and artists.
    California.--The California Arts Council, a trio of local arts 
agencies, three convention and visitor bureaus, Hyatt Hotels and the 
California Division of Tourism have formed a coalition to market San 
Diego, Los Angeles and San Francisco through promotion of their arts 
and culture. With $150,000 in seed money from the National Endowment 
for the Arts, the partners have committed to matching this grant with 
$450,000, which will be used to develop brochures and other materials 
outlining different itineraries which highlight cultural attractions, 
as well as shops and restaurants in each city.
    The California Cultural Tourism Coalition has published a guide to 
its first 13 cultural heritage itineraries, each suggesting 4-15 day 
trips in California's three urban cultural centers. As part of a 
national marketing effort, an insert summarizing the project and 
itineraries was included in the March issue of Travel and Leisure 
magazine, mailed to 200,000 American Express cardholders and 
distributed to the travel trade. Aside from publishing the guide, the 
coalition has also created a Web site, CalforniasEdge, which includes 
the itineraries, a list of resources and background on the project.
The Federal Partnership
    State arts agencies depend on the NEA as a full partner in projects 
to promote the arts around the country. The reductions in 
appropriations to the NEA have a negative impact on the federal-state 
partnership in funding the arts in all areas. The result of the deep 
cuts already made in the NEA's budget is a loss in the public's access 
to cultural resources in classrooms and communities across the country.
    By combining our arts dollars--federal, state, and local--with 
other funding partners, we are able to increase the impact of the 
available arts money to reach more people and benefit many more lives. 
Arts endowment funding is an essential part of the work of state arts 
agencies so they can fund the arts in diverse ways that strengthen our 
arts organizations and extend the reach of all forms of artistic 
discipline and expressions.
    With the kind of modest increase in federal appropriations proposed 
by NASAA, the states, and indeed all arts organizations, can expand on 
those possibilities and bring to all Americans full opportunities to 
experience the arts.
                                 ______
                                 
   Prepared Statement of Edward H. Able, Jr., President and C.E.O., 
                    American Association of Museums
    ``A museum can be a place to gather and debate community problems 
and community-based solutions. It can educate citizens in the 
community's needs. It can train leaders. It can break down isolation, 
recreate feelings of obligation toward one another, reinvigorate civic 
commitment. In short, it can do the kinds of things neighborhoods did 
before the suburbs fragmented them, the League of Women Voters did 
before its potential recruits became lawyers and CPA's, and the heads 
of locally owned businesses did before the out-of-town corporations 
bought them.'' Journal Star, Peoria, IL (Editorial, December 9, 1996)
    My name is Edward H. Able, Jr. I am President and C.E.O. of the 
American Association of Museums (AAM), the national museum organization 
that has served America's museums and their staffs since 1906.
    For over 30 years, the Federal cultural agencies have provided 
invaluable financial assistance to museums of every kind as they make 
public service a focal point of their missions. I urge you to continue 
this effort by funding the National Endowment for the Humanities (NEH) 
and the National Endowment for the Arts (NEA) at the modest levels 
requested in the President's budget for fiscal year 1999. In addition, 
I encourage you to fund the Office of Museum Services (OMS) within the 
Institute of Museum and Library Services (IMLS) at $40 million for 
fiscal year 1999. To illustrate how these agencies are helping museums 
fulfill their missions, I will focus on two major themes: education and 
cultural tourism. I could easily testify for an equal amount of time on 
other themes. Also, as my time is very limited, I will simply mention 
the critical support the NEH and NEA provide museums, but I will focus 
on the importance to museums of OMS General Operating Support (GOS) 
grants.
    The last two decades have transformed museums. They have become 
what a recent three-page article in USA Today's weekend magazine 
describes as ``The New Public Square.'' Museums are and will continue 
to be places for scholarly research, lifelong learning, and quiet 
contemplation of beauty, our cultural heritage, and civilizations past 
and present with their primary focus on their educational missions. No 
doubt because museums put tremendous resources into ensuring that what 
they do and how they do it is intellectually understandable and 
enjoyable to the broadest public, the New York Times recently reported 
that ``[w]hile dance companies, orchestras, serious theater groups and 
other ``high arts''--with the possible exception of opera--struggle to 
retain their audiences, American museums are setting one new attendance 
record after another.''
    The lead editorial from the Peoria Journal Star quoted above is an 
apt description of museums as community institutions at their best. 
What inspired the editor was experiencing this ``new public square'' 
during a visit to The Public Museum of Grand Rapids, Michigan--a museum 
that enjoys 470,000 visits annually in a city with a population of 
189,000.
    Museums, more than ever, are being asked to be many things to many 
people. They greet this call with enthusiasm and a strong sense of 
responsibility engendered by their public trust missions. However, this 
places tremendous demands on museums' infrastructure. The main reason 
for establishing the OMS--``to ease the financial burden borne by 
museums as a result by their increasing use by the public'' (Public Law 
94-462, Title II, Museum Services Act)--has never been more true than 
today. OMS General Operating Support (GOS) grants are more important 
than ever.
    According to a recent AAM survey, nine-tenths of museums believe 
that ``funding to meet basic commitments'' is a critical need for the 
coming years, with 70 percent ranking this issue first among their 
needs. Only 8 percent believe that the museum community has adequate 
resources to cope with the critical issues in the near future--
especially funding issues.
    GOS grants are structured efficiently to stretch limited funds as 
far as possible. For example, GOS grants span two years, can be no more 
than 15 percent of a museum's budget, are capped at $112,500, and must 
be matched. GOS grants are in high demand; in the 1997-98 grant round 
only 202 out of 1,061 applications received awards. Due to this high 
demand and the agency's limited funding, the OMS instituted a new 
measure that prohibits successful applicants who have received 
consecutive grants from applying the following year (i.e., a museum 
that receives a grant for 1996-97 and 1998-99, cannot reapply until 
2001). OMS's budget was significantly cut in 1995, which has resulted 
in a cumulative loss to the field of $20 million or 245 grants over 
three years, while the demand in terms of museum applicants has not 
fallen off despite a rigorous application process.
    For fiscal year 1998, the OMS was funded at $23.28 million. By 
contrast, the Office of Library Services within the IMLS received 
$146.3 million--a $10.3 million increase above fiscal year 1997. 
General operating support funds for museums, though fundamental, are 
very difficult to obtain from foundations or corporations, which 
generally prefer to fund higher profile programs.
    GOS grants, especially critical to small and medium-sized museums, 
help a broad spectrum of institutions serve their communities in 
numerous ways. For example, The Silver City Museum in Silver City, New 
Mexico, a repository of local history for the southwestern part of New 
Mexico, is primarily using its current General Operating Support grant 
to make its photograph collection more accessible to the public. The 
Museum has a collection of 11,000 historical photographs, which are in 
great demand, but are very difficult to access. The images get used by 
a large variety of people ranging from students to genealogists to 
authors to scholars. With the GOS funds, the Museum has been able to 
catalog the photographs, and is in the beginning stages of digitizing 
the entire collection. When this process is complete at the end of the 
summer, the entire collection will be available to the public from a 
computer at the local history research library. It is the largest 
collection, and also most requested, but without digitization it's 
hardest to get access to--it currently requires an individual 
appointment with the curator.
    Another example, The Sheldon Museum and Cultural Center in Haines, 
Alaska, a history and ethnographic museum focusing on Tlingit Indian 
Culture, has used GOS funds over the last decade in various ways to 
help bring it from a ``mom and pop'' museum to a professional AAM-
accredited institution. The museum's director told us that OMS GOS 
grants have been the museum's ``life's blood'' and are the most 
valuable type of funding because they allow the flexibility to 
accomplish a wide array of necessary tasks. The museum's most recent 
GOS grant allowed it to contract with professional curator to 
computerize its collections data and bring the collections cataloging 
and archives up to date--a task too overwhelming for its full-time 
three-person staff. The funds also brought a conservator up from a 
museum in Juneau to work for a week to provide a healthy start for the 
museum's program of transcribing oral history preserving it for many 
generations to come. Similarly, the Crested Butte Mountain Heritage 
Museum in Crested Butte, Colorado, received a Conservation Assessment 
Program grant. It is a small institution in transition from ``home-
grown to professional,'' and the CAP grant helped it figure out its 
most pressing needs, and what the responsibilities of a curator will be 
once he or she is hired. Small institutions such as the Mountain 
Heritage Museum do not have the personnel or time to investigate 
private grant opportunities for such a specialized project. The 
availability of federal funds, even in such small amounts--their grant 
was only $6,000--makes a huge difference to small, rural institutions.
    Education.--In 1992, AAM issued a landmark policy report, entitled 
Excellence and Equity: Education and the Public Dimension of Museums, 
reaffirming museums' place in the education enterprise.
    To explain the role museums now have in education, I can do no 
better than to quote the report itself: ``Museums have a vital place in 
a broad educational system that includes formal institutions such as 
universities, schools, and professional training institutes and 
informal agents of socialization such as the family, workplace, and 
community. Museums have the capacity to contribute to formal and 
informal learning at every stage of life, from the education of 
children in preschool through secondary school to the continuing 
education of adults. They add a tangible dimension to learning that 
occurs in formal settings.''
    Museums are actively engaging students of all ages in educational 
experiences that transcend the stereotypical after-school program or a 
one-time field trip. For The Museum of Art at Washington State 
University in Pullman, Washington, which serves the citizens of that 
state and beyond, as well as the residents of the surrounding rural 
area, GOS grants have enabled the museum to afford better exhibits, 
improve exhibit presentation, offer more open hours to the public, and 
promote the use of museum exhibitions in local schools. In addition, 
GOS grants have funded free art workshops for schoolchildren, who are 
given the opportunity to visit the museum and work with a professional 
artist. Unfortunately, if this museum is successful in the next grant 
round (1999/2000), it will be precluded from reapplying until 2002.
    Museums have developed extensive curricula working closely with 
schools, for use in the classroom and on-line. For example, at the 
Children's Museum of Oak Ridge, Tennessee, GOS funds support the 
museum's art educator, who brings art programs and projects into 
schools, working with teachers and providing them with the tools to 
continue art education in the classroom. GOS support enabled The 
Children's Museum of Portsmouth, New Hampshire to hire a full time 
education director. With this new staffperson, the museum for the first 
time had the resources to reach out and establish several off site 
museum-quality exhibits for schools with Head Start programs and at-
risk youth in addition to developing hands-on arts and science 
educational programming for area schools. Another example is The Health 
Adventure, Asheville, North Carolina, which uses GOS funds to help it 
reach 95,000 children each year. According to the museum's director, 
without the funding, approximately 12,000 children from disadvantaged, 
low income, rural Appalachian areas could not attend important health 
education programs at little or no cost, and teaching props, materials, 
and supplies would be limited; it would not be able to keep quality, 
degreed educators; and/or maintain transportation for outreach programs 
to the far reaching, low-income counties of western North Carolina.
    Unless a museum is strong, it cannot fulfill its potential in 
education. OMS-GOS grants allow museums to realize their potential. 
They have supported numerous museums with education programs, helping 
to reach millions of children, adults, and families.
    One point I want to make clear about these examples: Museum 
education programs and regular school instruction are not fungible 
commodities. They are synergistic. Museum educators need and want to 
work with teachers in the schools.
    Cultural tourism.--Tourism is a $473 billion industry in this 
country, and museums and other cultural organizations are primary 
contributors to its robust success. According to the Travel Industry 
Association's Travel Industry Fast Facts 1998: ``Cultural and Historic 
Tourism is one of the more popular sectors of the travel industry. A 
recent TIA survey found that 53.6 million adults said that they visited 
a museum or historical site in the past year * * *. Cultural and 
historic travelers spend more, stay in hotels more often, visit more 
destinations and are twice as likely to travel for entertainment 
purposes than other travelers.'' Museums are becoming increasingly 
sophisticated in their ability to collect hard data and assess the 
economic impact of cultural tourism on their communities. For example, 
the 1996, three-month Cezanne exhibition at the Philadelphia Museum of 
Art injected an estimated $86.5 million into the Philadelphia's 
economy; the 1997, two-month Faberge in America exhibition at the 
Cleveland Museum of Art had an economic impact of nearly $11 million in 
the eight-county regional area; and while all the details are not yet 
in, the Picasso exhibition at the Woodruff Arts Center, which includes 
the High Museum of Art, in Atlanta, Georgia, is expected to have an 
economic impact of at least $30 million.
    AAM recognized the impact in cultural tourism and took a leadership 
role in establishing a working partnership among a number of national 
cultural, preservation, and heritage organizations. AAM last year 
conducted a series of regional cultural tourism leadership forums 
intended to initiate local, state, regional, and national strategies to 
promote cultural tourism. These forums enabled the leadership of 
America's cultural community to participate in a dialogue and planning 
process with state tourism directors, convention and visitors bureau 
officials, tour operators and destination management organizations. I 
have here the report, Partners in Tourism: Culture and Commerce, based 
on the findings of the forums, that I would like to submit for the 
record. It details the issues that surfaced at the forums, highlights 
some of the action steps to which individual states committed, and lays 
out the challenges for the future. We continue to receive reports about 
numerous public/private partnerships the forums and the report have 
spurred.
    OMS, NEH, and NEA provided the seed money for the national 
organization of these forums and provided invaluable input in their 
planning. They also helped disseminate this report to state and 
regional arts and humanities groups; state and regional museum 
associations; major heritage and culturally specific organizations; 
local arts agencies; state tourism directors; convention and visitors 
bureaus; and, key travel industry contacts.
    This is an example of the national leadership the cultural agencies 
provide in response to the developments in the field, making them a 
critical partner in attracting and coordinating with state, local, and 
especially private funders to sustain and enhance our nation's cultural 
life.
    GOS funds also play a role in cultural tourism. The director of the 
Western Carolina University, Mountain Heritage Center in Cullowhee, 
North Carolina, the major museum west of Asheville, which portrays 
Southern Appalachian history, culture, and natural history, tells us 
that GOS funds are critical to the region's cultural development. He 
stressed that OMS funding is especially crucial for museums located in 
rural areas, which attract a very large number of visitors through 
cultural tourism.
    In closing, the OMS is of enormous support to the museum field 
beyond providing GOS grants. OMS provides much needed funding for 
conservation, professional development, and also funds a critical 
program to improve individual museums' standards and performance--the 
Museum Assessment Program, which is produced by AAM. This year, the 
agency's National Leadership Grants will inaugurate an invaluable 
opportunity for museums to develop, demonstrate, and disseminate 
information about model programs of museum cooperation with libraries 
focusing on community service, technology, or education. And OMS will 
explore more deeply the issue of community by holding a forum, 
``Museums in the Community,'' this spring that will include hands-on 
training sessions for working with community groups and access to 
successful community-based models.
    Finally, I again respectfully ask that you recommend funding for 
the Office of Museum Services (OMS) within the Institute of Museum and 
Library Services (IMLS) $40 million and recommend funding for the 
National Endowment for the Humanities (NEH) and the National Endowment 
for the Arts (NEA) at the modest levels requested in the President's 
budget.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Able, Edward H., Jr., president and CEO, American Association of 
  Museums, prepared statement....................................   586
Allen, W. Ron, tribal chairman and executive director, Jamestown 
  S'Klallam Tribe, prepared statement............................   502
Altmeyer, Thomas H., Sr., vice president, government affairs, 
  National Mining Association, prepared statement................   557
American Indian Higher Education Consortium, prepared statement..   540
Armstrong, Hon. Bennie J., tribal chairman, Suquamish Tribe, 
  prepared statement.............................................   506

Babbitt, Bruce, Secretary of the Interior, Office of the 
  Secretary, Department of the Interior..........................    39
    Prepared statement...........................................    48
Barnett, Jack A., executive director, Colorado River Basin 
  Salinity Control Forum, prepared statement.....................   463
Beard, Daniel P., senior vice president, National Audubon 
  Society, prepared statement....................................   445
Beck, James A., president, Seneca Resources Corp., prepared 
  statement......................................................   567
Bennett, Hon. Robert F., U.S. Senator from Utah..................35, 44
    Questions submitted by.......................................   209
Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................     2
    Questions submitted by.......................................   198
Bumpers, Hon. Dale, U.S. Senator from Arkansas...................    25
Burns, Hon. Conrad, U.S. Senator from Montana:
    Prepared statement...........................................   315
    Questions submitted by................................167, 278, 305
Business Council for Sustainable Energy, prepared statement......   560
Byrd, Hon. Robert C., U.S. Senator from West Virginia...........41, 340
    Questions submitted by.....................................185, 423

Cagey, Henry, chairman, Lummi Nation, prepared statement.........   514
Callahan, Kateri, executive director, Electric Transportation 
  Coalition, prepared statement..................................   564
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado.......43, 312
    Questions submitted by.......................................   226
Capoeman-Baller, Pearl, president, Quinault Indian Nation, 
  prepared statement.............................................   525
Chicks, Robert, chairman, Stockbridge-Munsee Community Band of 
  Mohican Indians, prepared statement............................   543
Cochran, Hon. Thad, U.S. Senator from Mississippi................    24
    Questions submitted by................................278, 299, 402
Council for Chemical Research, Inc., prepared statement..........   583
Craig, Hon. Larry, U.S. Senator from Idaho, questions submitted 
  by......................................................179, 312, 404

Darguzas, Joseph N., Sargent & Lundy, prepared statement.........   578
Davis, Julia A., chair, Northwest Portland Area Indian Health 
  Board, prepared statement......................................   491
Dean, Henry, chairman, Interstate Council on Water, prepared 
  statement......................................................   489
Dombeck, Mike, Chief, Forest Service, Department of Agriculture..   309
    Prepared statement...........................................   335
Domenici, Hon. Pete V., U.S. Senator from New Mexico, questions 
  submitted by.................................................169, 299
Dorgan, Hon Byron, U.S. Senator from North Dakota, questions 
  submitted by............................................204, 306, 438
Duncan, Jennifer, Evaluator, General Accounting Office...........   231
Duncan, Roger, director, Planning, Environmental and Conservation 
  Services, city of Austin, TX; chair, Urban Consortium Energy 
  Task Force, Public Technology, Inc., prepared statement........   579

Enewetak/Ujelang Local Government Council, prepared statement....   486

Ferris, William R., Chairman, National Endowment for the 
  Humanities.....................................................    27
    Prepared statement...........................................    29

General Electric Power Systems, prepared statement...............   571
George, Merv, Jr., chairman, Hoopa Valley Tribe of California, 
  prepared statement.............................................   496
Gorton, Hon. Slade, U.S. Senator from Washington........1, 39, 231, 309
    Prepared statement...........................................   233
Gover, Kevin, Assistant Secretary for Indian Affairs, Bureau of 
  Indian Affairs, Department of the Interior.....................   231
    Biographical sketch..........................................   257
    Prepared statement...........................................   250
Gregg, Hon. Judd, U.S. Senator from New Hampshire................    35
Guenthardt, Robert, chairman, Little River Band of Ottawa Indians 
  of Michigan, prepared statement................................   527

Havatone, Earl, chairman, Hualapai Tribe of Arizona, prepared 
  statement......................................................   552
Hoopa Valley Tribe, prepared statement...........................   499
Hooper, Helen, director of public policy, Land Trust Alliance, 
  letter from....................................................   484

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, questions 
  submitted by...................................................   193

Jamestown S'Klallam Tribe, prepared statement....................   499
Janger, Stephen A., president, Close Up Foundation, prepared 
  statement......................................................   465
Jones, Gerald J., tribal chairman, Port Gamble S'Klallam Tribe, 
  prepared statement.............................................   529
Judd, Joe, commissioner, Kane County, UT, prepared statement.....   461

Lewis, Dr. Robert, Deputy Chief, Research, and Development, 
  Department of Agriculture......................................   309
Lower Elwha Klallam Tribe, prepared statement....................   495
Lummi Indian Nation, prepared statement..........................   499
Lyons, James R., Under Secretary, Natural Resources and 
  Environment, Forest Service, Department of Agriculture.........   309
    Prepared statement...........................................   329

Mallory, Kenny, chairman, Winnebago Tribe of Nebraska, prepared 
  statement......................................................   547
Manuel, Hilda, Deputy Commissioner for Indian Affairs, Bureau of 
  Indian Affairs, Department of the Interior.....................   231
    Biographical sketch..........................................   257
Marques, Jose, executive director, Children's Forest Association, 
  prepared statement.............................................   486
Mason, Donald, president-elect, Ground Water Protection Council, 
  prepared statement.............................................   570
McArthur, Eugene ``Bugger,'' tribal chairman, White Earth Band of 
  Chippewa Indians, prepared statement...........................   531
McConnell, Joseph F., president, Fort Belknap Community Council, 
  prepared statement.............................................   553
Mejia, Margie, chairperson, Lytton Rancheria/Lytton Band of Pomo 
  Indians of California, prepared statement......................   545
Mille Lacs Band of Ojibwe Indians, prepared statement............   499
Miller, Tom, administrator, Hannahville Indian Community Tribal 
  School, prepared statement.....................................   533
Morris, Joann Sebastian, Director, Office of Indian Education, 
  Bureau of Indian Affairs, Department of the Interior...........   231
    Biographical sketch..........................................   258

Naiberk, Sue, Assistant Director, Energy, Resources, and Science 
  Issues, General Accounting Office..............................   231
National Assembly of State Arts Agencies, prepared statement.....   584
National Association for State Community Services Programs, 
  prepared statement.............................................   573
National Indian Child Welfare Association, prepared statement....   492
Novack, Yvonne, NIEA president, National Indian Education 
  Association, prepared statement................................   534

O'Leary-Higgins, Hon. Kathryn, Acting Chairman; Deputy Secretary, 
  U.S. Department of Labor, National Endowment for the Arts......     1
    Biographical sketch..........................................    13
    Prepared statement...........................................    10
Old Bear, David, Sr., tribal council chairman, Sac and Fox Tribe 
  of the Mississippi in Iowa, prepared statement.................   528

Pandolfi, Francis, Special Assistant to the Chief, Department of 
  Agriculture....................................................   309
Parker, Margaret A., president, Meigs County Historical Society, 
  prepared statement.............................................   468
Penney, Samuel N., chairman, Nez Perce Tribal Executive 
  Committee, prepared statement..................................   537
Petroleum Technology Transfer Council, prepared statement........   576
Phillips, Randle, Budget Coordinator, Department of Agriculture..   309

Quinault Indian Nation, prepared statement.......................   499

Rainwater, Stephanie, president, Ketchikan Indian Corp., prepared 
  statement......................................................   518
Reid, Hon. Harry, U.S. Senator from Nevada, questions submitted 
  by.............................................................   439
Rezendes, Victor S., Director, Energy, Resources, and Science 
  Issues, General Accounting Office..............................   231
    Prepared statement...........................................   236
Runnels, Bruce, chief conservation officer, The Nature 
  Conservancy, prepared statement................................   455

Sac and Fox Nation, prepared statement...........................   499
Shanklin-Peterson, Scott, Senior Deputy Chairman, National 
  Endowment for the Arts.........................................     1
    Biographical sketch..........................................    19
    Prepared statement...........................................    16
Stevens, Hon. Ted., U.S. Senator from Alaska.....................   231
    Questions submitted by.......................................   167
Sublette, Kerry L., Sarkeys professor of environmental 
  engineering, University of Tulsa; Director, Integrated Public/
  Private Energy and Environmental Consortium [IPEC], prepared 
  statement......................................................   563

Thomas, Edward K., president, Central Council of Tlingit and 
  Haida Indian Tribes of Alaska, prepared statement..............   522
Tice, R. Dean, executive director, National Recreation and Park 
  Association, prepared statement................................   443
Trent, Dr. Robert H., director, School of Mineral Engineering, 
  University of Alaska, Fairbanks, prepared statement............   582

Werner, Gary, chair, Partnership for the National Trails System, 
  prepared statement.............................................   449
Whitener, Dave W., chairman, Squaxin Island Tribe, prepared 
  statement......................................................   510
World Wildlife Fund, prepared statement..........................   458
Wright, Mervin, Jr., chairman, Pyramid Lake Paiute Tribe, 
  prepared statement.............................................   554
Wynne, Bruce, chairman, Spokane Tribe of Indians, prepared 
  statement......................................................   550

Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, prepared statement.................................   461
Zunigha, Curtis, chief, Tribal Council, Delaware Tribe of 
  Indians, prepared statement....................................   520


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE
                             Forest Service

Accountable decisionmaking.......................................   361
Additional committee questions...................................   373
Allocation criteria............................................358, 359
Backlogged maintenance...........................................   352
Bipartisan solutions.............................................   314
Bridge safety....................................................   326
Budget request...................................................   309
Chief's reviews..................................................   365
Communications plan..............................................   310
Conservation philosophy..........................................   371
Control board....................................................   362
Coopers & Lybrand report.........................................   364
County commissioners.............................................   367
Course to the future.............................................   325
Custodial forest management......................................   329
Dutch John transfer, town of.....................................   356
Decisionmaking...................................................   363
Financial:
    Friction.....................................................   366
    Management...................................................   349
Forest Service:
    Appreciation for personnel...................................   355
    Staff........................................................   340
Forestry research related issues.................................   344
Former Chief's quote.............................................   372
Four corners development proposal................................   353
Franklin County Lake...........................................311, 346
GAO accountability report........................................   310
Hardwoods technology center......................................   341
Hot shots........................................................   347
ICBEMP:
    Apprehension of..............................................   367
    Congressional directive......................................   368
    Environmental impact statement for...........................   368
    Private property impact of...................................   369
    Public participation in......................................   369
    Reaction to..................................................   368
Idaho Department of Environmental Quality........................   348
Interior Columbia basin ecosystem management project.............   366
Land:
    Acquisition................................................351, 360
    Exchange.....................................................   352
Litigation and multiple use......................................   354
Long-term roads policy...........................................   360
Management:
    Action taken.................................................   334
    Business...................................................333, 362
    Problems.....................................................   313
Mississippi forestry research..................................343, 345
National:
    Forest Foundation............................................   358
    Forest System management.....................................   324
    Recreation strategy..........................................   325
Natural resources agenda.........................................   324
New England forest recreation use................................   358
Olympics 2002....................................................   355
Overhead costs.................................................364, 366
Personnel:
    Flexibility..................................................   362
    Reductions...................................................   366
Plum Creek land exchange.........................................   370
Pulling punches..................................................   363
Red Butte Dam....................................................   356
Regional budget declines.........................................   348
Research:
    New Mexico...................................................   352
    West Virginia forestry.......................................   342
Riparian proximity grazing.......................................   353
Roads:
    Heavy-use....................................................   329
    Decommissioning..............................................   327
    Maintenance and reconstruction backlog.....................327, 350
    Moratorium.......................................310, 326, 327, 349
        Impact on timber.........................................   355
    Recreation use...............................................   326
Routt National Forest windstorm..................................   312
Seneca Rocks Visitors Center.....................................   341
Sustainable forestry principles..................................   325
Taos drainage problem............................................   352
Thompson Creek mine..............................................   371
White Mountain National Forest...................................   357
Working together.................................................   373
West, frustrations in the........................................   346

                       DEPARTMENT OF THE INTERIOR
                        Bureau of Indian Affairs

Additional committee questions...................................   278
Education.................................................258, 259, 267
    And unemployment.............................................   268
    Instructional programs.......................................   265
Federal:
    Funding for Indian programs..................................   270
    Indian policy................................................   270
Funding for Indian programs......................................   273
Indian:
    Affairs leadership...........................................   269
    Country, unemployment in.....................................   258
    Gaming.......................................................   272
Needs based analysis.............................................   267
Private sector business on Indian reservations...................   274
Profits from business ventures...................................   273
School facilities..............................................262, 265
TPA task force distribution....................................260, 275
Tribal:
    Community colleges and vocational schools....................   268
    Priority allocations.........................................   266
        System...................................................   262
Tribes:
    In Alaska....................................................   261
    With small populations.......................................   264
Water rights negotiations........................................   266

                        Office of the Secretary

Additional committee questions...................................    79
Budget request...................................................    39
Columbia basin ecosystem management plan.........................    55
Completing the necessary review..................................    59
Concessions reform...............................................    64
Corridor H.......................................................    56
ESA and money for private landowners.............................    62
Federal highway system funds.....................................    67
Fee demonstration project........................................    54
Financing mechanism..............................................    70
Grand Staircase Escalante National Monument......................    44
Haskell versus SIPI..............................................    71
Indian:
    Colleges.....................................................    71
    School repair................................................    69
Mescalero Elementary School......................................    73
Natchez Trace Parkway............................................    66
Presidio.........................................................    55
    Buildings status.............................................    61
Reductions in heritage efforts...................................    60
Reinventorying of lands for wilderness...........................    44
Role of State historic preservation officer......................    57
San Raphael Swell Heritage Area..................................    44
Sand Creek Massacre Site.........................................    60
Southwest Fisheries Technology Center............................    74
State historic preservation office...............................    58
Surplus BLM land.................................................    77
Tribally controlled colleges.....................................    71
Vanishing treasures initiative...................................    76
Virgin River.....................................................    62
Yazoo complex NWR................................................    65

                    NATIONAL ENDOWMENT FOR THE ARTS

Amount of grants.................................................    22
ArtsREACH initiative......................................8, 14, 20, 25
B-2 bomber grant proposal........................................     9
Budget:
    Administrative...............................................     9
    Increase, proposed use of requested..........................     8
    Request......................................................     1
Education:
    Arts.........................................................    16
    Importance of arts...........................................     8
Hearings, House appropriations...................................    24
Multistate grants................................................    15
National Council on the Arts.....................................    19
NEA presence in North Dakota.....................................     4
New council members..............................................     3
Office of Enterprise Development.................................    23
Priorities, fiscal year 1999 funding.............................    22
State:
    Arts agencies................................................    22
    Fifteen percent cap for......................................    20
Underserved States...............................................    21

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

Funding of Regional Humanities Centers...........................    36
Geographical distribution of grants..............................    37
Public/private partnerships......................................    33
Relationship with State humanities councils......................    36
Summer seminars and institutes...................................    34

                       GENERAL ACCOUNTING OFFICE

Additional committee questions...................................   277
Impediments to getting information...............................   241

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
